<html>
<title> - SECURING AMERICA'S INTEREST IN IRAQ: THE REMAINING OPTIONS</title>
<body><pre>[Senate Hearing 110-153]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 110-153

       SECURING AMERICA'S INTEREST IN IRAQ: THE REMAINING OPTIONS

=======================================================================

                                HEARINGS



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             FIRST SESSION



                               ----------                              

      JANUARY 10, 11, 17, 18, 23, 25, 30, 31, AND FEBRUARY 1, 2007

                               ----------                              



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                                                        S. Hrg. 110-153
 
       SECURING AMERICA'S INTEREST IN IRAQ: THE REMAINING OPTIONS

=======================================================================

                                HEARINGS



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             FIRST SESSION



                               __________

      JANUARY 10, 11, 17, 18, 23, 25, 30, 31, AND FEBRUARY 1, 2007

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
38-033                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              

                      Wednesday, January 10, 2007
              WHERE WE ARE: THE CURRENT SITUATION IN IRAQ

                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     2
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Marr, Dr. Phebe, historian, author of ``The Modern History of 
  Iraq,'' Washington, DC.........................................     6
    Prepared statement...........................................    10
O'Hanlon, Dr. Michael, senior fellow and Sydney Stein, Jr., 
  chair, the Brookings Institution, Washington, DC...............    17
    Prepared statement...........................................    21
Pillar, Dr. Paul, visiting professor, Security Studies Program, 
  Georgetown University, Washington, DC..........................    31
    Prepared statement...........................................    34
Said, Yahia, director, Iraq Revenue Watch, London School of 
  Economics, London, England.....................................    23
    Prepared statement...........................................    28

             Additional Statements Submitted for the Record

Cardin, Hon. Benjamin L., U.S. Senator from Maryland, prepared 
  statement......................................................    92
Webb, Hon. Jim, U.S. Senator from Virginia, prepared statement...    91
                                 ------                                

                   Thursday, January 11, 2007 (a.m.)
                   THE ADMINISTRATION'S PLAN FOR IRAQ

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................    95
Boxer, Hon. Barbara, U.S. Senator from California, statement.....   128
    Poll published in the Military Times.........................   159
    Article from the Daily Telegraph.............................   160
Cardin, Hon. Benjamin L., U.S. Senator from Maryland, statement..   147
Casey, Hon. Robert P., Jr., U.S. Senator from Pennsylvania, 
  statement......................................................   150
Coleman, Hon. Norm, U.S. Senator from Minnesota, statement.......   121
Corker, Hon. Bob, U.S. Senator from Tennessee, statement.........   126
Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  statement......................................................   110
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, statement   123
Hagel, Hon. Chuck, U.S. Senator from Nebraska, statement.........   114
Isakson, Hon. Johnny, U.S. Senator from Georgia, statement.......   146
Kerry, Hon. John F., U.S. Senator from Massachusetts, statement..   118
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................    97
Menendez, Hon. Robert, U.S. Senator from New Jersey, statement...   143
Murkowski, Hon. Lisa, U.S. Senator from Alaska, statement........   141
Nelson, Hon. Bill, U.S. Senator from Florida, statement..........   135
Obama, Hon. Barack, U.S. Senator from Illinois, statement........   139
Rice, Hon. Condoleezza, Secretary of State, Department of State, 
  Washington, DC.................................................    99
    Prepared statement...........................................   102
    Responses to questions submitted by Senator Biden............   161
    Responses to questions submitted by Senator Lugar............   170
Sununu, Hon. John E., U.S. Senator from New Hampshire, statement.   131
Vitter, Hon. David, U.S. Senator from Louisiana, statement.......   148
Voinovich, Hon. George V., U.S. Senator from Ohio, statement.....   136
Webb, Hon. Jim, U.S. Senator from Virginia, statement............   153
                                 ------                                

                   Thursday, January 11, 2007 (p.m.)
 ALTERNATIVE PLANS: TROOP SURGE, PARTITION, WITHDRAWAL, OR STRENGTHEN 
                               THE CENTER

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................   175
Carpenter, Dr. Ted Galen, vice president of Defense and Foreign 
  Policy Studies, Cato Institute, Washington, DC.................   218
    Prepared statement...........................................   221
Galbraith, Hon. Peter W., senior diplomatic fellow, Center for 
  Arms Control and Non-Proliferation, Washington, DC.............   177
    Prepared statement...........................................   180
Kagan, Dr. Frederick W., resident scholar, American Enterprise 
  Institute, Washington, DC......................................   184
    Prepared statement...........................................   187
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   176

             Additional Statement Submitted for the Record

Serwer, Daniel, vice president, Peace and Stability Operations, 
  U.S. Institute of Peace, Washington, DC........................   252
                                 ------                                

                      Wednesday, January 17, 2007
                      REGIONAL DIPLOMATIC STRATEGY

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................   255
Haass, Hon. Richard, president, Council on Foreign Relations, New 
  York, NY.......................................................   264
    Prepared statement...........................................   268
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   256
Nasr, Dr. Vali R., professor of National Security Affairs, Naval 
  Postgraduate School, Monterey, Ca..............................   272
    Prepared statement...........................................   276
Ross, Hon. Dennis, counselor and Ziegler distinguished fellow, 
  the Washington Institute for Near East Policy, Washington, DC..   258
    Prepared statement...........................................   261
                                 ------                                

                       Thursday, January 18, 2007
                     MILITARY AND SECURITY STRATEGY

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................   327
Hoar, GEN Joseph P., USMC (Ret.), former commander in chief, U.S. 
  Central Command, Del Mar, CA...................................   342
    Prepared statement...........................................   343
Keane, GEN Jack, USA (Ret.), former Vice Chief of Staff, U.S. 
  Army, Washington, DC...........................................   336
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   328
McCaffrey, GEN Barry, USA (Ret.), president, BR McCaffrey 
  Associates LLC and adjunct professor of International Affairs, 
  U.S. Military Academy, Arlington, VA...........................   331
    Prepared statement...........................................   334
Odom, LTG William E., USA (Ret.), senior fellow, Hudson 
  Institute; former Director of the National Security Agency, 
  Washington, DC.................................................   344
    Prepared statement...........................................   348

                    Tuesday, January 23, 2007 (a.m.)
   ALTERNATIVE PLANS CONTINUED--FEDERALISM, SIDE WITH THE MAJORITY, 
                 STRATEGIC REDEPLOYMENT, OR NEGOTIATE?

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................   401
Gelb, Hon. Leslie H., president emeritus and board senior fellow, 
  Council on Foreign Relations, New York, NY.....................   404
    Prepared statement...........................................   406
Korb, Hon. Lawrence J., senior fellow, Center for American 
  Progress, Washington, DC.......................................   418
    Prepared statement...........................................   421
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   402
Luttwak, Dr. Edward N., senior fellow, Center for Strategic and 
  International Studies, Washington, DC..........................   410
    Prepared statement...........................................   413
Malley, Robert, director, Middle East and North Africa Program, 
  International Crisis Group, Washington, DC.....................   427
    Prepared statement...........................................   431
                                 ------                                

                    Tuesday, January 23, 2007 (p.m.)
                     ALTERNATIVE PLANS (CONTINUED)

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................   475
Gingrich, Hon. Newt, former Speaker of the U.S. House of 
  Representatives; senior fellow, American Enterprise Institute, 
  Washington, DC.................................................   483
    Prepared statement...........................................   487
Murtha, Hon. John P., U.S. Congressman from Pennsylvania, 
  chairman, Subcommittee on Defense, Committee on Appropriations, 
  U.S. House of Representatives..................................   476
    Prepared statement...........................................   480
                                 ------                                

                   Thursday, January 25, 2007 (a.m.)
                        RECONSTRUCTION STRATEGY

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................   525
Jones, BG Michael D., USA, J-5 Deputy Director for Political-
  Military Affairs--Middle East, Joint Chiefs of Staff, 
  Washington, DC.................................................   537
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   528
Satterfield, Hon. David, Senior Advisor to the Secretary of State 
  and Coordinator for Iraq, Department of State, Washington, DC..   530
    Prepared statement...........................................   534

              Additional Material Submitted for the Record

``Families of the Fallen for Change'' letter submitted by Senator 
  Biden..........................................................   574
Responses of Ambassador Satterfield to Questions submitted by 
  Senator Webb...................................................   576
``Contributions From Other Donors'' submitted by the State 
  Department.....................................................   579
                                 ------                                

                   Thursday, January 25, 2007 (p.m.)
                           POLITICAL STRATEGY

al-Rahim, Rend, executive director, the Iraq Foundation, 
  Washington, DC.................................................   589
    Prepared statement...........................................   594
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................   587
Dodge, Dr. Toby, consulting senior fellow for the Middle East, 
  International Institute for Strategic Studies, London, United 
  Kingdom........................................................   612
    Prepared statement...........................................   615
Kubba, Dr. Laith, senior director for the Middle East and North 
  Africa, National Endowment for Democracy, Washington, DC.......   606
    Prepared statement...........................................   609
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   588
Talabani, Qubad, Representative of the United States, Kurdistan 
  Regional Government, Washington, DC............................   597
    Prepared statement...........................................   602
                                 ------                                

                       Tuesday, January 30, 2007
                ALTERNATIVE PLANS: THE IRAQ STUDY GROUP

Baker, Hon. James A., III, cochair, Iraq Study Group; partner, 
  Baker-Botts LLP, Houston, TX...................................   647
    Prepared joint statement of James Baker and Lee Hamilton.....   652
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................   645
Hamilton, Hon. Lee H., cochair, Iraq Study Group; director, 
  Woodrow Wilson International Center for Scholars, Washington, 
  DC.............................................................   650

             Additional Statement Submitted for the Record

Lugar, Hon. Richard G., U.S. Senator from Indiana, prepared 
  statement......................................................   695
                                 ------                                

                      Wednesday, January 31, 2007
                IRAQ IN THE STRATEGIC CONTEXT, SESSION 1

Albright, Hon. Madeleine K., former Secretary of State; 
  principal, The Albright Group LLC, Washington, DC..............   730
    Prepared statement...........................................   733
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................   697
Kissinger, Hon. Henry A., former Secretary of State; chairman, 
  Kissinger McLarty Associates, New York, NY.....................   701
    Prepared statement...........................................   704
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   699
                                 ------                                

                       Thursday, February 1, 2007
                IRAQ IN THE STRATEGIC CONTEXT, SESSION 2

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................   755
    Prepared statement...........................................   756
Brzezinski, Dr. Zbigniew, former National Security Advisor; 
  counselor and trustee, Center for Strategic and International 
  Studies, Washington, DC........................................   777
    Prepared statement...........................................   780
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................   757
Scowcroft, LTG Brent, USAF (Ret.), former National Security 
  Advisor; president, The Scowcroft Group, Washington, DC........   759
    Prepared statement...........................................   761
                                 ------                                

                                Appendix
              Additional Material Submitted for the Record

Barzani, Nechirvan, Prime Minister, Kurdistan Regional Government 
  of Iraq, Erbil, Kurdistan-Iraq, letter from....................   797
Morrow, Dr. Jonathan, senior legal adviser to the Ministry of 
  Natural Resources, Kurdistan Regional Government; former senior 
  adviser to the U.S. Institute of Peace, prepared statement.....   798
Shafiq, Tariq, director, Petrolog & Associates, London, UK; 
  chair, Fertile Crescent Oil Company, Baghdad, Iraq, 
  ``Perspective of Iraq Draft Petroleum Law''....................   802


              WHERE WE ARE: THE CURRENT SITUATION IN IRAQ

                              ----------                              


                      WEDNESDAY, JANUARY 10, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Richard G. 
Lugar, presiding.
    Present: Senators Lugar, Biden, Dodd, Kerry, Feingold, 
Boxer, Bill Nelson, Obama, Menendez, Cardin, Casey, Webb, 
Hagel, Coleman, Corker, Sununu, Voinovich, Murkowski, Isakson, 
and Vitter.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Chairman Lugar. Let me call the hearing to order. If we may 
have order in the committee room.
    To the committee and to all who are assembled, let me 
indicate that technically the Senate has not yet acted upon the 
new chairmanships, ranking members, and membership of 
committees. The Senate will do so fairly promptly this week, 
but our business goes on in the committee. And it's my 
privilege today, as the outgoing chairman of the committee, to 
introduce my friend and great Senator, Joe Biden, who will be 
our chairman and will preside over today's hearing. We will 
assume he is chairman, and he will act as chairman today and 
tomorrow and--through a very vigorous series of hearings on 
Iraq and the Middle East that we have planned.
    Let me just say that one of the strengths of our committee 
has been the commitment of Senator Biden and Democratic and 
Republican committee members to bipartisanship, but likewise to 
very, very substantial questioning of American foreign policy, 
regardless of which party--which President we have served 
under. I'm certain that that will continue. It's an important 
aspect that the face of America be as united as possible, and 
we have attempted to further that idea, I think, with some 
degree of success. For example, the India Nuclear Agreement 
that was just concluded celebrated a significant strategic 
development for our country with an overwhelming vote in this 
committee and support of Members of the House of 
Representatives who shared this bipartisan ethic.
    So, with that introduction, let me just indicate I'm 
delighted to welcome our new members to the committee. I'm 
certain the chairman will want to do that, too. But it's 
especially good to welcome him to the chairmanship, and I turn 
over the gavel, which I do not see at the present, Mr. 
Chairman. [Laughter.]
    But, nevertheless, in due course that will be forthcoming, 
too. [Laughter.]
    Chairman Biden. Well, thank you very much, Mr. Chairman.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    Chairman Biden. Folks, let me echo the comments made by the 
Senator. Technically, we vote in the U.S. Congress on the 
organization. I am insisting on an open vote, not a secret 
ballot, if you get the meaning of that. There may very well be 
a secret ballot. We may keep him as chairman. I may vote for 
him. [Laughter.]
    One of the things that Senator Lugar emphasized is that all 
of us on this committee, under his leadership and the brief 
stint before that under mine and now again under mine, is that 
we understand that no foreign policy in America can be 
sustained without the informed consent of the American people. 
And one of the overwhelming responsibilities of this committee, 
which has legislative responsibility, but quite frankly, its 
role, historically, has been more in playing the role of 
providing a platform upon which to inform the American people 
of the options--many times, difficult options--that must be 
chosen by a President of the United States in order to conduct 
the foreign policy of this country.
    And this morning we begin the work of the new Congress with 
many new Members, including many new members on this committee. 
We welcome, today, new members--Senator Cardin, Senator Casey, 
Senator Corker, and Senator Webb, and we're delighted they have 
joined the committee. We also welcome veteran members of the 
U.S. Senate who are new to the Foreign Relations Committee--
Senator DeMint, Senator Johnny Isakson from Georgia, Senator 
Bob Menendez from New Jersey, and Senator Vitter, who I don't 
see here yet, but I'm sure will be coming.
    You join a committee that's tried to remain a place for 
sanity and civility in what has been a very partisan and 
sometimes polarized Senate over the last decade. We've not 
always succeeded, but, quite frankly, when we have, it's 
largely been due to the efforts of Chairman Lugar. I don't want 
to make this sound like a mutual admiration society, but, to 
state the fact, there is no one--no one in the U.S. Senate who 
knows more about foreign policy, and no one who has contributed 
more to American security than Chairman Lugar.
    Today, we're brought together by a question that dominates 
our national debate, and it really boils down to a simple 
proposition. What options remain to meet our twin goals of 
bringing American forces home and leaving behind a stable Iraq? 
Over the next 4 weeks, this committee will seek answers to that 
question. First, we will hear from the Bush administration, 
then we'll hear from experts--left, right, and center--in our 
government and out of government, from across the United States 
and beyond our borders. Then we'll hear from men and women with 
very different ideas, but who are united in their devotion to 
this country and their desire to see us through this very 
difficult time.
    The Bush administration, as well as important private 
groups and experts, have developed varying plans on how to 
proceed in Iraq. Tonight, I will sit, as will all of you, and 
listen to our President, and he will have my prayers and hopes 
that his plan will be one that will ease our burden and not 
deepen it. But it's a unique responsibility of the U.S. 
Congress, and especially and historically the Foreign Relations 
Committee in the U.S. Senate, to evaluate these plans, in 
public, to help our citizens understand the very difficult 
choices this country faces.
    That's the best way to secure, in my view, as I said 
earlier, the informed consent of the American people. For 
without their informed consent, whatever policy we arrive at 
cannot long be sustained.
    I have my own strongly held views, as the witnesses know 
and my colleagues know, about what to do and how we should 
proceed in Iraq. There will be plenty of time for me to talk 
about them in the days ahead. But, for now, I want to set out 
what Senator Lugar and I jointly hope to accomplish as we put 
together this agenda for the next several weeks, and how we 
hope to accomplish it.
    First, let me make it clear what these hearings are not 
intended to be about. They are not about an effort to revisit 
the past, point fingers, or place blame on how we got to where 
we are. The American people spoke very loudly this past 
November. They know that we're in a significant mess in Iraq. 
But instead of arguing how we got into that mess, they want us 
to be proactive and be part of the solution. They expect us to 
help America get out of the mess we're in, not talk about how 
we got there.
    We will start by receiving the most up-to-date unvarnished 
analysis of the situation and trends in Iraq and in the region. 
As a matter of fact, we began that inquiry yesterday. As all my 
colleagues know, and many people in the audience know, we have 
a ``Secret Room'' in the Senate. It's called ``S-407,'' where 
we're able to have unvarnished discussions with the most 
sensitive information, requiring the highest clearance. And 
yesterday, all of my colleagues and I sat there for a 
considerable amount of time receiving a classified briefing 
from all the major intelligence agencies of the U.S. 
Government.
    We continue that inquiry, the inquiry of determining what 
the facts are on the ground today, with the experts who will 
assist us in assessing the political, security, economic, and 
diplomatic realities that are on the ground today in Iraq and 
in the region.
    We'll begin with Dr. Phebe Marr, who has given us her 
valuable time and scholarship and insight for many years in 
this committee and is one of the most welcome witnesses that we 
have had in both administrations, all administrations. She is a 
preeminent historian of Iraq, and she will provide a historical 
overview. It is our view that by illuminating the past, we're 
going to be better able to understand the present, and 
hopefully better prepared to deal with the present situation.
    Michael O'Hanlon, of the Brookings Institution, has also 
graced us with his presence in the past, and he will focus on--
I'd put it this way--focus on the numbers. How do we measure 
the current situation in Iraq? The trends, in terms of 
security, the economy, and public opinion.
    And Mr. Said, the director of the Iraq Revenue Watch, will 
speak to us on the political dynamics inside Iraq. Who are the 
main players? What are their interests? And what possible 
scenarios could bring them together?
    And then Paul Pillar, the former national intelligence 
officer for Near East and South Asia, will address the dynamics 
in the region. He has, again, graced us with his presence in 
the past, and has been very valuable. The issue that we will 
ask him to discuss is: What do Iraq's neighbors want? And how 
can they affect the outcome on the ground in Iraq, if they can 
affect the outcome?
    The goal today, as it was yesterday, is not to discuss 
policy options, although there are no limits on what any of the 
witnesses can discuss, but it's to get at the facts, as best we 
know them. We want this committee and the public to have a 
strong foundation upon which to evaluate the principal policy 
options that are being discussed in this country today. 
Starting tomorrow and over the following 3 weeks, we will turn 
to those options and ask: Where do we go from here? Secretary 
of State Rice has graciously indicated she is not only ready, 
but anxious, to appear before our committee, which she will do 
tomorrow, after President Bush announces the administration's 
plans, tonight.
    The authors of every other major plan for Iraq will present 
their recommendations, including those who advocate escalation, 
those who advocate withdrawal, partition, federalization, 
siding with one side or the other, strengthening the center, 
and so on. The major authors of the plans--the authors of those 
major plans will come and testify over the next 3 weeks.
    As we hear from them, we'll also hear from leading 
military, diplomatic, economic, and political experts, and we 
will ask this country's senior statesmen and stateswomen, 
former National Security Advisors, former Secretaries of State, 
to help us put everything we've heard in context as we conclude 
what will probably be the first round of hearings on Iraq.
    The ultimate question for this committee is the question 
that'll be on the minds of every American as we listen to the 
President of the United States tonight. Will your plan, Mr. 
President, or other plans, put us on a better path in Iraq, or 
will it dig us into a deeper hole with more pain, and not much 
to show for it? We pray it will be the former. But together we 
have a responsibility and, I believe, an opportunity to help 
put this country on a better path.
    So, let's begin. Let me turn this over now to Senator Lugar 
for any comments that he wishes to make.
    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
thank you for holding this important hearing and for assembling 
such an excellent panel.
    I would offer a special greeting, as you have, to Dr. Phebe 
Marr, who has been a tremendous resource for the committee, and 
for me personally. She testified at four different Iraq 
hearings during my recent chairmanship, and also appeared at a 
hearing held under Senator Biden in August 2002. Dr. Marr's 
calm and authoritative analysis on Iraq is grounded in a 
prodigious understanding of that country and a nonpartisan 
outlook that is badly needed in this debate.
    Dr. Michael O'Hanlon has also provided excellent testimony 
before our committee in recent years. In 2005 and 2006, I wrote 
a series of 15 ``Dear Colleague'' letters to--on Iraq to all 
Senators. These letters introduced reports and documents that I 
found to be particularly illuminating. The Brookings 
Institution Iraq Index, a report overseen by Dr. O'Hanlon, 
accompanied the first letter that I sent, and it provides a 
remarkably detailed view of the economic and security situation 
in Iraq. The Iraq Index is updated regularly, and I continue to 
recommend it to any Member of Congress or citizen who wants a 
thoughtful grounding in the facts.
    I also welcome Mr. Said and Dr. Pillar, who are testifying 
before this committee for the first time. We are grateful to 
have them as a new resource at this critical moment.
    Tonight, President Bush will give a speech outlining his 
intended course in Iraq. In recent days, I have had 
opportunities to talk to the President about Iraq. Among other 
points, I underscored the need for a thorough effort to involve 
Congress in the decisionmaking process.
    United States policy in Iraq would benefit greatly from 
meaningful executive branch consultations with legislators, and 
from careful study by Members of Congress, that's directed at 
dispassionately evaluating the President's plan and other 
options. Members of this committee and the entire Congress must 
be prepared to make reasoned judgments about what the President 
is proposing.
    Initially, the President and his team need to explain what 
objectives we are trying to achieve: If forces are expanded, 
where and how they will be used; why such a strategy will 
succeed; and how Iraqi forces will be involved; how long 
additional troops may be needed; what contingencies are in 
place if the situation does not improve; and how this strategy 
fits into our discussion throughout the region.
    The American media is understandably focused on the 
possibility of a troop surge in Iraq. But whatever may be the 
final conclusion on this point, relative success or failure is 
likely to hinge on many other factors and decisions. The 
complexity of the Iraq situation demands more of us than 
partisan sound bites or preconceived judgments.
    With this in mind, this hearing, setting the terms of 
reference for what is happening in Iraq, is especially timely. 
I look forward to the insights of our distinguished panel and 
to working with Chairman Biden and all members of this 
committee as we continue our inquiry in the coming weeks.
    I thank you, Mr. Chairman.
    Chairman Biden. Thank you, Senator.
    Let me explain to the new Members of the Senate that the 
way we proceed will be to hear from all the witnesses--and I'll 
announce that order in a moment--and then open it to questions, 
based on our seniority here.
    This is a very important topic, to say the least. And we 
could probably, with some useful benefit to informing 
ourselves, spend 2 days with this panel alone. But my staff 
tells me, in consultation with the Republican staff, that, as a 
practical matter, we're going to limit each of us, including 
myself, to 8-minute rounds of questions. I realize that is, in 
some sense, is not sufficient to really explore in the kind of 
depth you may want to. My experience is, the witnesses are 
available to you, personally, after the hearing, and on the 
telephone and in their offices, and occasionally, if you ask 
them, they will make themselves available in your offices if it 
works with their schedule.
    So, I apologize in advance that there's not going to be the 
kind of exposition that--if we were doing this as a seminar at 
a university, we'd be able to spend a whole lot more time. But 
the dictates of time make it difficult. So, we're going to 
limit it to 8-minute rounds, if I may.
    But, first, let me begin. And the order in which I will ask 
the witnesses to deliver their statements will be Dr. Marr, Mr. 
O'Hanlon, Mr. Said, and Dr. Pillar.
    Welcome, again, Phebe, and we're delighted to have you 
here. Thank you.

STATEMENT OF DR. PHEBE MARR, HISTORIAN, AUTHOR OF ``THE MODERN 
               HISTORY OF IRAQ,'' WASHINGTON, DC

    Dr. Marr. Senator Biden, Senator Lugar, I want to say how 
delighted I am to be back again. And I can't commend you and 
the committee enough for what I think has been a remarkable job 
in the continuing debate on Iraq and in informing the American 
public on it. It has seemed to me to be quite a wonderful 
effort, I hope will continue with good effect.
    I have been asked to address the historical context of this 
issue. And let me say that 2007 marks the 50th year that I've 
been involved in Iraq. I've done other things besides Iraq, but 
it was 1957 when I first went to Iraq. And so, I have the 
benefit of some historical hindsight in having actually been on 
the ground through all of the regimes, including the monarchy.
    Iraq has had a very rich and varied history, but one of the 
things that has struck me as I have followed it as a scholar 
and personally is the discontinuity of Iraqi history. And, 
indeed, we're in the middle of another such period.
    Actually, I'd like to address three questions this morning. 
The first is: Where is Iraq today? What are the chief political 
and social elements we face in Iraq? Second: How can we account 
for this situation? To what extent is it historical? And, last: 
Is this current situation likely to be lasting? Is it 
transient? Is it remediable?
    Iraq, since 2003, has undergone not one, but several, 
revolutionary and radical changes of a proportion not seen 
since the collapse of the Ottoman Empire and the formation of 
the state in the 1920s. And I think the degree and nature of 
these changes need to be recognized.
    First has been a radical change in leadership. It's not 
simply that Iraqi leadership and its dictatorship have been 
decapitated, now physically, as well as literally, but that an 
entirely new leadership group has come to power. The ethnic and 
sectarian composition of that leadership has changed. Shia and 
Kurds have replaced Arab Sunnis as the dominant group. And its 
ideological orientation has also changed, from one that was 
secular, nationalist, and devoted to a unitary Iraqi State to 
one with differing visions of where Iraq should go. Overall the 
leadership has a view that is far more dominated by religion 
than it has been at any time in Iraq's history.
    Since the nature and character of this leadership is 
critical to our endeavor, I'd like to just take a few minutes 
to indicate a few characteristics of these leaders worth 
noting. They result from a study that I've been engaged in at 
the United States Institute of Peace for the last couple of 
years. I've attached a couple of charts to my written 
testimony, and I think there's a special report coming out on 
the Internet very shortly. But there are three characteristics 
I'd like to call to your attention. One is inexperience and 
discontinuity in leadership over the past 4 years. Some 75 
percent of the current leaders hold national positions for the 
first time. This makes for a very steep learning curve in 
governance. Second is the divide between the leaders with roots 
in the exile community, together with Kurds who have been 
living in the north, separate from the rest of Iraq, and those 
leaders who remained living inside Iraq under Saddam's rule. 
These groups have different narratives of the past and visions 
for the future. And third, and most important, the key leaders 
today have been shaped by decades of opposition to the former 
regime. Many spent years in underground movements or imprisoned 
by Saddam, and lost family members to the Baath. Few insiders, 
including professionals who simply worked under the Baath 
regime, have made it into the leadership. The suspicion, 
distrust, and hostility between these two groups is the core 
dynamic driving much of the politics in Iraq today, making 
reconciliation difficult.
    A second fundamental change has been the destruction of 
governmental institutions, the bureaucracy and the army, about 
which much has been said. The institutions underpinned not just 
the Baath regime, but Iraq's Government since its founding in 
the 1920s. Both of these institutions were established under 
the British, under the mandate, but had their origins in the 
Ottoman period. Despite ups and downs and periods of 
instability in modern Iraq, these two institutions remained the 
backbone of the state until 2003. The collapse of much of 
Iraq's bureaucratic and military structure have left a void 
that, in my view, will take years, if not decades, to fill and 
has left an enormous political, social, and institutional 
vacuum. This vacuum is now filled, in part, by militias and a 
new mix of parties and factions.
    A third radical change is underway as a result of these 
events: The collapse of the state as the Iraqis have known it 
since its creation under international mandate in 1920. Iraq is 
now a failing, if not yet a failed state, with a new central 
government that has difficulty cohering and whose reach does 
not extend much beyond the perimeters of the Green Zone. The 
establishment of a government that delivers services to the 
population--chief among them, security--is recognized as the 
chief task before Iraqis and its foreign supporters. However 
this issue of governance is resolved, the form of the Iraqi 
State is likely to change fundamentally. How governance will be 
reconstituted, power distributed in the future, is a big 
question. But Iraq is not likely to be a unified state 
dominated by a strong central government in Baghdad, at least 
for some time.
    A fourth revolutionary change has been the seemingly 
radical shift in identity on the part of the population, which, 
in extreme form, has led to this vicious sectarian war in 
Baghdad and its environs, and to serious demographic shifts, 
and an effort, not yet successful, to make this communal 
identity territorial.
    Many have seen these identities--Kurdish, Shia, Sunni, 
Turkmen, et cetera--as longstanding, even primordial, a bedrock 
of Iraqi society. But I think this is a misreading of Iraq's 
much more complex and interesting history. The intensity of 
these sectarian and ethnic divisions are more the result of a 
collapsing order, a vicious incitement of civil war by al-
Qaeda, and political manipulation by politicians desirous of 
getting power. They were also exacerbated by an overweening 
central government and increasing persecution of the opposition 
by Saddam's dictatorship. However, the events of the past year 
have solidified emerging communal identities to an extent not 
known before in Iraq. And only time will tell whether they can 
be mitigated. This is likely to take enormous effort by Iraqis 
and by us.
    And, last, another profound change is becoming apparent: 
The collapse of one of the Arab world's major cities--Baghdad. 
Baghdad has played a major role in Iraqi history, not just 
since the 1920s, but since its founding in the eighth century. 
Iraq, with its two rivers and complex irrigation system, as 
well as geographic openness to invasion from foreign territory, 
has seldom flourished unless it has had a relatively strong 
central government to harness its water resources and protect 
its population.
    When Baghdad has declined or been destroyed, as it twice 
was by the Mongols, Iraq has fallen into long periods of decay. 
But one must remember that, ultimately, that city and 
Mesopotamia, now Iraq, have always revived.
    Greater Baghdad now contains a quarter to a third of Iraq's 
population and its highest concentration of skills and 
infrastructure. Baghdad, as a city, is not lost, but its 
revival and the return of its middle class are essential to 
overcoming ethnic and sectarian divisions and the restoration 
of a functioning government.
    One last thought on the current situation, and this may 
overlap a little with my colleague. Major ethnic and sectarian 
blocs are already fragmenting into smaller units based on 
personal interests, desire for power, differing visions and 
constituencies. It's these smaller units, and the leadership of 
the larger, better organized and financed parties, also 
intermixed with militias, that will be making the decisions on 
Iraq's direction. It seems to me that one way out of the 
conundrum of communal-identity politics is to encourage 
political alliances between these various groups on issues and 
interests, such as oil legislation, commercial legislation, 
regulation of water resources, economic development, and other 
issues. This is a slow, laborious process, but it's probably 
the only way in which some of the distrust and hostility 
between the leaders and groups can be broken down and a new 
political dynamic shaped.
    Let me finish up by asking: Given this situation, what 
prognosis may be made? I feel Iraq faces three potential 
futures in the near and midterm, and it's still too early to 
tell which will dominate. Given the grievous mistakes made on 
all sides, this process is going to be very costly and time 
consuming, and no one should expect a clear outcome in the next 
2 years, probably even in the next decade. But helping to shape 
the long-term future of Iraq in one direction or the other will 
have a profound effect on the region and, I believe, on our own 
security.
    The first outcome is that Iraq will break up, as I'm 
calling it, into its three main ethnic and sectarian 
components--Kurdish, Arab Sunni, and Arab Shia--hastened by 
ethnic and sectarian conflicts spiraling out of control. Unless 
this division is shepherded and fostered by outside forces, 
however, I think this outcome is unlikely, on its own. This 
division is not historical, but has come to the fore in a 
moment of history characterized by political vacuum and chaos, 
as I've indicated. Such a division will pose real difficulties 
in Iraq and is radical in its implications for a region in 
which peace depends on tolerance and coexistence, not just 
within Islam, but among ethnic and national groups. While this 
breakup may happen, in my view it should not be encouraged or 
brokered by the United States, especially if we want to 
disengage our forces from the country. It will create more, not 
less, instability in the future.
    The second outcome is that Iraq may break down, a process 
that is well underway. Rather than cohesive ethnic and 
sectarian entities, the Iraqi polity will disintegrate into 
smaller units. These will comprise political parties and 
movements, militias, local tribal leaders, already mentioned. 
In reality, this is the Iraq that is emerging, with different 
local forces competing in an effort to establish control in 
various areas of the country. This scenario, a full-blown 
failed state, would cause serious problems for the region and 
the United States. Indeed, I feel that the failed-state 
syndrome may be spreading throughout the region, as events in 
Lebanon and Palestine indicate. We may be seeing the breakdown 
of the state system established in the region by the British 
and French after World War I.
    A third outcome would be to slow and gradually arrest the 
decline, and for Iraq to gradually reconstitute a government 
that recognizes the new identities that have emerged, but 
learns to accommodate them in some new framework that allows 
for economic and social development. It'll be easy to rebuild 
this framework, I believe, if Iraqis do not divide 
indefatigably on ethnic and sectarian lines, but, rather, work 
within various groups and parties that are gradually 
participating in the political system to achieve mutual 
interest. Even if such a government does not control much 
territory out of Baghdad or the Green Zone, it's better to keep 
it intact as a symbol and a framework, toward which future 
generations can work, than to destroy it and try once again to 
establish another new and entirely radical framework.
    Iraq is very far from achieving a new government that 
works, and the collapse we are witnessing is likely to get 
worse before it gets better. Only when the participants in Iraq 
recognize, in this struggle for power, that they are losing 
more than they can gain by continuing it, will it come to an 
end. That may be a long time.
    In the meantime, the best we can probably do is to help 
staunch the violence, contain the struggle within Iraq's 
borders, and keep alive the possibility that after extremism 
has run its course, the potential for a different Iraq is still 
there.
    Others in the region should be encouraged to do the same, a 
task which should be built on the fact that no state in the 
region, or its leadership, wants to see the collapse of the 
current state system, no matter how much in need of reform 
their domestic governments may be.
    Thank you for your time.
    [The prepared statement of Dr. Marr follows:]

Prepared Statement of Dr. Phebe Marr, Historian, Author of ``The Modern 
                   History of Iraq,'' Washington, DC

    I will be focusing almost entirely on Iraq's domestic politics, my 
area of expertise, and hopefully bringing a little historical 
perspective to bear, since I have been working on Iraq for some 50 
years now. I would like to address three questions today. First, where 
is Iraq today? What are the chief political and social characteristics 
we face? Second, how can we account for this situation? And lastly, is 
the current situation likely to be lasting? Or is it transient? Is it 
remediable?
    First, what can be said about the situation in Iraq today? Iraq 
since 2003 has undergone not one but several revolutionary changes, of 
a proportion not seen since the collapse of Ottoman Empire and the 
formation of the new Iraqi state in the 1920s. The first has been a 
revolutionary change in leadership. It is not simply that a regime and 
its dictatorial head have been--not only figuratively but now 
literally--decapitated, but an entirely new leadership group has come 
to power. This leadership, brought to power essentially by elections in 
2005, has now entirely reversed several of the characteristics of the 
old Baath regime, and even the transitional regimes that replaced it in 
2003 and 2004. It has changed the ethnic and sectarian composition of 
the leadership. (It is now dominated by Shia and Kurds rather than Arab 
Sunnis.) It has changed the ideological orientation from one which was 
secular and nationalist, devoted to a unitary Iraqi state, to one with 
different visions but far more dominated by religion. At the same time, 
it has brought more women into power and in general is better educated. 
The new leaders come, more often, from urban origin, whereas Saddam's 
clique were more rural and small town born. But the change has also now 
brought new men and women into power. They have three distinct 
characteristics worth noting.
    First is their inexperience and the discontinuity in their 
leadership. Some 76 percent in this Cabinet and Presidency hold such 
jobs for the first time. This has meant a lack of experience, a steep 
learning curve, and an inability to establish links with one another 
and with constituencies. Most have had little chance to gain experience 
because of the continual change of Cabinets.
    Second, the change has also brought a divide between a group of 
leaders with roots in exile who have lived outside of Iraq and Kurds 
who have been living in the north separate from the rest of Iraq on the 
one hand, and those who remained inside living under Saddam on the 
other. The latter include key elements now in opposition, such as the 
Baath, as well as the younger generation and the dispossessed who 
follow Muqtada al-Sadr. Some 28 percent are outsiders, now mainly from 
Middle Eastern rather than Western countries; some 15 percent are 
Kurds; only 26 percent are insiders.
    Third, and most important, is the fact that the key leaders in 
power today have all been shaped by years, even decades, of opposition 
to the former regime. The heads of the Kurdish parties and the Shia 
religio-political parties, such as SCIRI and Dawa, spent years in 
underground movements; were imprisoned by Saddam; lost family members 
to the Baath; and even fought the long Iran-Iraq war against the regime 
from the Iranian side. Some 43 percent of the current leaders were 
active in opposition politics. Since 2003, few ``insiders''--especially 
those in any way affiliated with the Baath regime, such as 
professionals who worked in education or health, Sunni or Shia--have 
made it into the leadership. While many of this group are encompassed 
by the insurgency, or support it passively, others in this group would 
like to join the political process but are excluded. The suspicion, 
distrust, and hostility between these two groups is the core dynamic 
driving much of the politics in Iraq today, which makes a 
reconciliation process so difficult to achieve.
    In conjunction with this leadership change has gone another 
fundamental upheaval: The erosion and destruction of the governmental 
institutions--the bureaucracy and the army--which underpinned not just 
the Baath regime but Iraq's Government since its founding in the 1920s. 
Both of these institutions were established by the British under the 
mandate, although both had their origins in the Ottoman period. Despite 
ups and downs and periods of instability, these two institutions 
remained the backbone of the state until 2003. Much has been made of 
the destruction (or collapse) of these institutions elsewhere, and I 
will not dwell on it here, but the profound impact this has had on the 
current situation in Iraq must be appreciated. The disbanding of all of 
Iraq's military and security forces, the removal of the Baath Party 
apparatus that ran the bureaucracy and the education establishment (de-
Baathification), and, as a result, the collapse of much of Iraq's 
bureaucratic structure, have left a void that will takes years--if not 
decades to fill. While much of this structure--especially at the top--
needed to be removed, and a good bit of the rest had been hollowed out 
and corrupted under Saddam's rule, the sudden and precipitous collapse 
of this governmental underpinning and the removal of much of the 
educated class that ran it have created an enormous political, social, 
and institutional vacuum. This vacuum is now filled in part by militias 
and a mix of new and often inexperienced political parties and 
factions.
    As result of these events, a second radical change is underway in 
Iraq: The collapse of the state as Iraqis have known it since its 
formal creation under international mandate in 1920. Iraq is now a 
failing--if not yet a failed--state with a new central government that 
has difficulty cohering and whose reach does not extend much beyond the 
perimeters of the Green Zone in Baghdad and which does not, clearly, 
command a monopoly over the official use of force. Indeed, outside of 
the three Kurdish-run provinces, there is little provincial or local 
government yet either. The establishment of government that delivers 
services to the population, chief among them security, is now 
recognized as the chief task before Iraqis and its foreign supporters.
    However, before that is accomplished, the form of the Iraqi state 
is likely to change fundamentally. For 35 years under the Baath, Iraq 
was a unitary state which was part of the Arab world. Now it is one in 
which ethnic and sectarian identities predominate and new and different 
subnational groups, including militias, are emerging. The constitution, 
drafted and passed in a referendum last year, provides for a radical 
devolution of authority to federal regions, an issue on which many 
Iraqis are divided and which may or may not come to complete fruition. 
How governance will be reconstituted and power distributed in the new 
entity that emerges from the current confusion is a large question, but 
Iraq is not likely to be a unified state dominated by a strong central 
government in Baghdad, at least for some time. In fact, a high degree 
of decentralization--or even an absence of formal government in many 
areas--may characterize Iraq for some time. The increasing fractures in 
the body politic have, of course, raised the question of whether the 
Iraqi state can--or even should--continue to exist, or whether it will 
be divided into ethnic and sectarian or perhaps subnational components. 
Should that happen, the results would be revolutionary indeed, not only 
for Iraq but for the entire surrounding region, with implications 
likely to reverberate for decades.
    There have been other changes in Iraq that are almost as 
revolutionary as these changes in leadership and the transformation of 
the state. One has been the seeming change in identity on the part of 
the population, which, in its recent extreme form has led to a vicious 
sectarian war in Baghdad and its environs. This changing identity has 
now led to more serious demographic shifts and an effort--not yet 
successful--to make this communal identity ``territorial'' by carving 
out more purely ethnic or sectarian areas. While the development of a 
semi-independent Kurdish entity in the north has been taking shape for 
over a decade under the aegis of the Kurdish nationalist parties, 
carving out distinct Shia and Sunni areas--even emphasizing Shia and 
Sunni identity as the fundamental basis of political loyalty--is new.
    Many have seen these identities (Kurdish, Shia, Sunni, Turkman, 
Christian, etc.) as longstanding, even primordial, a bedrock of Iraqi 
society that has long been submerged, manipulated, or repressed by 
foreign (British) or dictatorial (the Baath and Saddam Hussein) rule, 
and have now come to the fore as a natural expression by the population 
of their political aspirations. I recognize how compelling and 
attractive that view is for people looking for an understandable 
explanation of what is happening today, but I personally think it is a 
misreading of Iraq's much more complex and interesting history. One 
should be wary of reading back into the past what is happening today 
and of assuming it is the necessary foundation of the future. These 
intense sectarian divisions in Baghdad, where mixed marriages were 
common, is new and is partly the result of collapsing order, a vicious 
incitement of civil war by al-Qaeda, political manipulation by 
politicians desirous of getting a Shia majority, and is now driven by 
just plain fear and intimidation.
    This is not to say that these ethnic and sectarian differences and 
identities are themselves new; they go back centuries, but their 
strength and their exclusivity have varied greatly over time. Ethnic 
and sectarian identity in Iraq has always had to compete with far 
stronger tribal, clan, and family ties. As Iraq modernized and joined 
the international community in the 1930s, 1940s, and 1950s, a middle 
class espoused political ideologies imported from outside 
(Nationalism--Iraqi, Arab and Kurdish--as well as Socialism and 
Communism) and for years--right through the 1970s when Saddam stamped 
them out they were the chief motivating factors of the emerging middle 
class. In recent decades, Islamic visions competed with them, often 
cutting across ethnic and sectarian lines.
    An overweening central government and increasing persecution of the 
opposition and repression by Saddam's growing dictatorship in Baghdad 
are better explanations for these emerging identities. If Iraq and the 
Baghdad government had been more attractive, open, and promising, it is 
questionable whether these more exclusive and separatist identities 
would have taken root. Kurdish nationalism has always been espoused by 
the two Kurdish parties and their leaders (the KDP and the PUK), but 
they did not dominate the north--tribal leaders on the payroll of 
Saddam's government did--until Saddam's war with Iran and his 
subsequent attack on Kuwait so weakened his government that he could no 
longer control the north. Much the same could be said for the Shia-
Sunni divide, which he clearly exacerbated by relying on his tribal 
Sunni relatives from Tikrit and then killing and repressing Shia when 
they rose up in 1991.
    Even so, these sectarian identities have never been exclusive nor, 
until recently, expressed territorially. It was the power vacuum, and 
the innovation of elections on a body politic still unaccustomed to a 
peaceful competition for power, that provided the opportunity for 
leaders to mobilize a constituency along these lines. Despite this, the 
Shia bloc is politically divided. Sunnis, who have identified more with 
the state they have dominated in the past, are only now coming to grips 
with the idea of a ``Sunni'' rather than an Iraqi or Arab identity, 
largely out of fear they will be marginalized or exterminated. The 
events of the last year have solidified emerging communal identities to 
an extent not known before in Iraq; only time will tell whether they 
can be mitigated and overcome in the future. And this is likely to take 
enormous effort by Iraqis as well as by us.
    Last, a fourth profound change is becoming apparent: The collapse 
of one of the Arab world's major cities, Baghdad. Baghdad has played a 
major role in Iraqi and Islamic history not just since 1920s, but since 
its founding in 762. It can be said that Iraq, with its two rivers and 
its complex irrigation system, as well as its geographic openness to 
invasion from foreign territory, has never flourished unless it had a 
relatively strong central government to harness its water resources and 
protect its population. Baghdad is the city that has provided that 
function. Its high point came in the 10th century when it was a center 
of learning and trade and integrated population and ideas from all over 
the known world. When Baghdad has declined or been destroyed (as it 
was, twice, by the Mongols in 1258 and 1402), Iraqi cohesion has ceased 
to exist and it has fallen into long periods of decay. But one must 
remember that, ultimately, the city--and Mesopotamia--always revived.
    Today, the capital is in a serious state of erosion--from 
insurgency, sectarian warfare, and population displacement and 
emigration. Indeed, much of this decline predates our invasion. Since 
floods were controlled in the mid-1950s, Baghdad has been inundated 
with migrants from rural areas in the north and south, who created 
satellite cities--urban villages--which changed the ethnic composition 
of the city and diluted its urban core. The growth of Baghdad, 
especially in the 1970s and 1980s, drained other areas of population. 
Greater Baghdad contains between a quarter and a third of Iraq's 
population and its highest concentration of skills and infrastructure. 
However, even under Saddam, Baghdad began to lose its skilled middle 
class, which is now beginning to hemorrhage.
    This strand of Iraq's population, its educated middle class, must 
be revived if the country is to get back on its feet. It is this class 
which has, for the most part, submerged its ethnic, sectarian, and 
tribal identity in broader visions and aspirations--political, social, 
and cultural--and has greater contact with and affinity for the outside 
world. Intermarriage among sects and even ethnic groups was 
increasingly common in this middle class, which staffed the 
bureaucracy, the educational establishments, and the top echelons of 
the military. Unfortunately, under the long decades of Baath rule, this 
class was ``Baathized'' to a degree, in order to survive, and has now 
found itself disadvantaged, and under current sectarian warfare, 
persecuted. And it is this class in Baghdad that is now fleeing in 
droves, not just for other places in Iraq, but outside to Jordan, 
Syria, the gulf, and Europe. While educated middle classes exist in 
other Iraqi cities--Mosul, Basra, Kirkuk, Irbil--they are much smaller, 
less cosmopolitan, and, now, far less mixed. They will not be able to 
function as the kind of mixing bowl necessary to create interactions 
between and among different groups, so essential in the modern world.
    Baghdad as a city is by no means lost, but its revival (in more 
modest dimensions) and the return of its ``mixed'' middle class are 
essential to overcoming ethnic and sectarian divisions and to the 
revival of a functioning, nonsectarian government, all of which is 
critical to any decent future outcome in Iraq. However decentralized 
Iraq may become in its future iteration, none of its parts will be able 
to achieve their aspirations without Baghdad. And the weaker the 
central government is, the weaker the economic and social revival will 
be.
    One last thought on the current situation. Before we give up and 
hasten to assume that ethnic and sectarian identity will be the basis 
of new state arrangements (either inside a weak Iraqi state or in 
independent entities), there is one other political dynamic emerging 
that bears notice. The major ethnic and sectarian blocs (the Kurds, the 
Sunnis, and the Shia) are already fragmenting into smaller units based 
on personal interests, a desire for power, and differing visions and 
constituencies. None of the larger ethnic and sectarian units on which 
a new regionalized state is proposed are homogeneous. These smaller 
units have been galvanized by the three elections of 2005, and have 
formed political parties and blocs. These blocs are themselves composed 
of smaller parties and groups often now supported by militias. While 
the militias have gotten most of the attention, the parties have not. 
It is the leadership of the larger, better organized and financed 
parties that now control the situation in Baghdad. More attention needs 
to be paid to them and to their leadership, since they will be making 
the decisions on Iraq's direction.
    The most important of these parties are clear. In the north, the 
Kurds are divided between two principal political parties: The KDP and 
the PUK. Both parties are of longstanding, each with its own separate 
military forces and political party hierarchies. Both are led by men 
with monumental ambitions and egos. These leaders and parties, now 
cooperating in a common constitutional venture, the Kurdish Regional 
Government (KRG), have fought for decades in the past and are still not 
wholly integrated into a Kurdish government. They could split in the 
future. Kurdish society also has an emerging Islamic movement (the 
Kurdish Islamic Union is a good example); separate tribal groups with 
some stature; and ethnic and sectarian minorities (Turkmen, Christians) 
with distinct identities and outside supporters.
    In the face of a disintegrating Iraqi state and the chaos and 
danger in Iraq, the Kurds have pulled together since 2003 in 
confronting the Arab part of Iraq and are increasingly separating 
themselves from Baghdad. However, the KRG in the north is not self-
sustaining economically, politically, or militarily, nor can it be for 
many decades, and even as it moves in that direction, it faces the 
long-term affliction of isolation, provincialism, and hostility from 
its neighbors that could thwart its domestic development. Failure in 
this experiment or a complete collapse of Baghdad could again fracture 
the north and give rise to warlordism and tribal politics, as it did in 
the mid-1990s. Kurds need to be given encouragement not only to nurture 
their successful experiment in the north, but also to spread it to the 
south and to cooperate in reviving Iraq rather than moving in a 
direction of separatism.
    In the Shia bloc, the UIA, there is even less unanimity. Several 
political parties or movements dominate this sector and only pull 
together under the increasingly weaker leadership of Aytollah Sistani, 
who wants to keep a ``Shia majority'' in Iraq. Whether he can continue 
to do so under the pressure of events is a large question. The major 
Shia parties are clearly SCIRI, under the cleric and politician Abdual 
Aziz al-Hakim, and the Sadrist movement under Muqtada al-Sadr, also a 
minor cleric. The Dawa Party of Prime Minister Maliki is a weak third.
    SCIRI, formed in 1982 in Iran from Iraqis exiled there, was 
originally an umbrella group but has now become a party devoted to 
Hakim and the furtherance of Shia interests. It has been heavily 
financed and organized by Iran, and its militia, originally the Badr 
Brigade (now the Badr organization), was originally trained and 
officered by Iran. It has allegedly disarmed. It attracts educated 
middle-class Shia, who probably see it as the best avenue to power in a 
new Shia-dominated Iraq, but its leadership is distinctly clerical and 
has ties to Iran. SCIRI's leanings toward clerical rule are drawbacks 
in Iraq, especially for Arab Sunnis and Kurds.
    Dawa has legitimacy as the founder of the Shia Islamic movement in 
Iraq in the late 1950s, but it was virtually emasculated by Saddam in 
the late 1970s and 1980s. Most of its leaders fled to Iran, Syria, 
Lebanon, and Europe where they remained in exile for decades. Their 
organization is weak and they have no militia to speak of.
    The Sadrist movement is not an organized party. Its closest model 
would be Hezbollah in Lebanon, and its leader, Muqtada, is erratic, 
militant, and sometimes dangerous. He has few religious or educational 
credentials, but he draws on his father's name and legacy. (His father, 
the chief Ayatollah in Iraq, was killed by Saddam in 1999). More 
important, he has attracted a wide following among poor, the 
downtrodden and youth, who have not benefited from the changes in 2003. 
He has emphasized opposition to the occupation, Iraqi unity, and the 
fact that he and his followers are ``insiders,'' not exiles. His 
militia, now seen by many in the United States as a major threat to the 
new government, is fractured and localized, often under the command of 
street toughs, and it is not clear the extent to which he can himself 
command all of them. A smaller Shia group, al-Fadhila, also an offshoot 
of the conservative Shia movement founded by Muqtada's father, 
Ayatollah Muhammad Sadiq al-Sadr, bears watching; it has influence in 
Basra.
    These various Shia groups and their leaders are in competition for 
power and have been for decades (especially the Sadrists and Hakims), 
and it is not clear that unity can be kept between them. They also draw 
on different constituencies and have somewhat different visions for the 
future of Iraq. SCIRI, for example, espouses a Shia region in the 
south; Sadr is more in favor of a unified Iraq. Dawa sits somewhere in 
the middle.
    The Sunni component of the spectrum is the most fragmented. The 
Sunni contingent which has been taken into the Cabinet and controls 16 
percent of seats in Parliament (Iraqi Accordance Front or Tawafuq) is 
itself composed of several parties without much cohesion. Most 
important is the Iraqi Islamic Party (IIP), a party going back to the 
1960s and roughly modeled after the Muslim Brotherhood. While it 
represents Sunnis, it is more nationalist than Sunni, and does have a 
history and some organization. The second component, known as Ahl al-
Iraq (People of Iraq), is a mixture of secularists, tribal, and 
religious dignitaries, such as Adnan Dulaimi. As its name suggests, it 
has a nationalist focus. The third component, the National Dialogue 
Council, is relatively insignificant. Even if these groups come hand 
together on issues, it is not clear how much of the Sunni constituency 
they represent. The Iraqi Dialogue Front, under Salah Mutlaq, a former 
Baathist, who probably represents some of the ex-Baath constituency, 
got 4 percent of the votes and sits in Parliament but not the Cabinet. 
Whether these two groups can be said to represent ``Sunnis''--and how 
many--is at issue, since much of the Sunni insurgency is still out of 
power and presumed to consist in large part of former Baathists, 
religious jihadis, and now indigenous Iraqi al-Qaeda elements. Bringing 
some of these non-Qaida elements into the process is essential, but 
expecting the Sunni community to stick together as Sunnis or to think 
and feel as Sunnis is premature. Many Sunnis, long associated with the 
state and its formation, think along nationalist lines, and have 
ambitions beyond a mere Sunni region.
    And one should not forget, entirely, the remnants of the main 
secular bloc to run in the December 2005 election: The Iraqiya list, 
headed by Ayyad Allawi. This group constitutes the bulk of the educated 
Iraqis who think in national, rather than communal or ethnic terms. 
Although they only got 9 percent of the vote and have little chance of 
forming a government, they have positions in the Cabinet and could help 
in contributing to a more balanced, nonsectarian government in the 
future.
    One way out of the conundrum of communal identity politics is to 
encourage new political alliances between individuals and groups on 
issues and interests, rather than alliances based on identity. This 
will be very difficult, especially for the Shia, who see their identity 
as a ticket to majority rule, but it can be done, and, to a certain 
extent, already is being done. On issues such as oil legislation, 
regulation of water resources, economic development, and some other 
issues--even that of federalism and keeping Iraq together--voting blocs 
can be created across ethnic and sectarian lines, in ways that benefit 
all communities. This is a slow, laborious process, but it is probably 
the only way in which some of the distrust and hostility between these 
leaders can be broken down and new political dynamics shaped.
    To the extent that educated professionals can be brought into 
government to help shape these deals and bridge the gap, that will 
help. Ultimately, state organizations and institutions can be rebuilt 
under new management. While no new grand vision is likely to emerge any 
time soon from this process, pragmatism may take root, and with it the 
bones of a government which delivers services. If this happens, larger 
groups of Iraqis will give their new government some loyalty. It is the 
state--and effective governance--which needs, gradually, to be put back 
into the equation, to enable ethnic and sectarian loyalties to be 
damped down and to curb the insurgency. In this process, no two factors 
are more important than reviving economic development (not just oil 
revenues) and bringing back an educated middle class which has some 
degree of contact with and understanding of the outside world beyond 
the exclusive domain of tribe, family, sect and ethnic group.
    Given this situation, what prognosis may be made? Is the current 
situation likely to last? Or is it a transient stage? What is a likely 
long-term outcome and what would be ``best'' for Iraqis, the region, 
and the United States?
    Iraq faces three potential futures in the near and midterm, and it 
is still too early to tell which will dominate. All that one can say, 
thanks to grievous mistakes made on all sides, is that the process is 
going to be very costly and time-consuming; no one should expect any 
clear outcome in the next 2 years and probably not even in the next 
decade. But helping to shape that long-term future in one direction or 
the other will have a profound effect on the region and, I believe, our 
own security.
    The first outcome is that Iraq will ``break up'' into three main 
ethnic and sectarian components--Kurdish, Arab Sunni, and Arab Shia--
hastened by the ethnic and sectarian conflicts spiraling out of 
control, and already indicated in the constitution. Many see this as 
inevitable and (in the West) as a possible way to ``fix'' the Iraqi 
situation and hence to reduce our deep military involvement. Iraq may 
end up with such a division, but, unless it is shepherded and fostered 
by outside forces, it is unlikely, for several reasons. This division 
is not historical, but has come to the fore in a moment of history 
characterized by a political vacuum, chaos, and shrewd political 
leaders who have mobilized constituents on this basis--especially the 
two Kurdish parties and SCIRI. But such a clear-cut division has real 
difficulties in Iraq. One is that it does not correspond to reality. 
Even in the Kurdish area--where there is more substance to the claim, 
this identity is fostered by two leaders and two parties who have near 
total control over their opponents and region. But these parties have 
no clear borders recognized by neighbors, or by Arabs to the south, and 
they will be challenged by all. And they do not have the economic 
wherewithal for maintenance of a sustainable state, either in terms of 
economic investment (some 70 percent of their income still comes from 
the central government in Baghdad), ability to defend their borders, or 
recognition. Independence, as many of their leaders recognize, may come 
with a big economic price tag that their constituents may not 
ultimately be willing to pay.
    Elsewhere in Iraq, there is insufficient sectarian homogeneity to 
form the basis of a state or even a region. Shia parties themselves 
disagree profoundly on whether a federal state in the south--under Shia 
religious control--should be established. SCIRI is forwarding this 
project because it wants to control this territory, eclipse Sadrists, 
and impose its vision on the Shia population. It is opposed by Sadrists 
and other more secular Shia, and they will contest the issue, if not in 
Parliament, on the street. Creation of such a Shia entity will pose 
questions of its boundaries--and we already see sectarian strife in 
Baghdad as a component of the struggle over who will control portions 
of the city. This is also a new political principle and dynamic likely 
to spread to neighboring states like Bahrain and Saudi Arabia, which 
have a mix of Shia and Sunni populations, with immensely destabilizing 
prospects. And it is an exclusivist principle. What kind of state will 
it be? The leadership of SCIRI, with its strong clerical leadership, 
its earlier reliance on its own militia, and its emphasis on a ``Shia'' 
majority, does not give confidence that it will be any more democratic 
than its parent model in Iran. Moreover, getting a stable, recognized, 
``Shia'' government in this region will be a long and contentious 
proposition providing little stability in the south. If the Kurds are 
unable to defend their borders themselves, how will the Shia be able to 
do so?
    But it is in Arab Sunni areas--with Anbar at its heart--that this 
project fails abysmally. First, Arab Sunni Iraqis, whether the more 
rural variety inhabiting towns and cities along the Euphrates and 
Tigris, or their more sophisticated cousins--urban cousins--in Baghdad 
and Mosul, have been nurtured for decades on Arabism and on loyalty to 
an Iraqi state, which they helped create since 1920. True, some are 
more religiously oriented than secular, but this does not detract from 
their sense of nationalism. Getting Iraqi Sunnis to identify as Sunnis 
is going to be a long and very difficult task, let alone getting them 
to concentrate on governing a truncated ``Sunni'' federal area. And 
they are surrounded by neighboring Arab countries with leaders and 
populations who agree with them. And, as in the case with the Shia, 
where will the borders of this entity be? How much of Baghdad will it 
include? Will it divide the city of Mosul with Kurds along the Tigris 
River? And what about Diyala province with its Sunni, Shia, and Kurdish 
and Turkman populations? How is that to be divided up? While sectarian 
cleansing in these areas is underway to an alarming degree, it is by no 
means complete and in no way desirable. The results are not going to be 
a homogenous Sunni area but a patchwork quilt. Moreover, unless the 
sting of the Sunni insurgency is drawn, any map of Iraq shows that the 
Arab Sunnis population control strategic portions of Iraqi territory--
which they can use, as they have been doing--to prevent both Kurdish 
and Shia progress. Included in this territory are water resources--both 
the Tigris and Euprhates; access to neighboring Arab countries, and 
communications right across the center of the country, as well as 
Iraq's ability to export oil through pipelines.
    In the end, the creation of new entities--even regions--based on 
Shia and Sunni identity is radical in its implications for a region in 
which peace depends on tolerance and coexistence between Islam's two 
major sects. I will not mention here the obvious implications for the 
geostrategic position of Iran and its role in the region or the equally 
obvious reactions from other Sunni-dominated states. While this breakup 
may happen, it should not be encouraged or brokered by the United 
States, especially if we want, ultimately, to disengage our forces from 
the country. I believe it will create more, not less, instability in 
the future.
    A second outcome is that Iraq may ``break down,'' a process that is 
also well underway. Rather than cohesive ethnic and sectarian entities, 
Iraqi society will disintegrate into smaller units. These will comprise 
the political parties and movements we already see, with their various 
leaders and organizations; different militias; local tribal leaders and 
warlords, criminal organizations that can control access to resources; 
and, in urban areas, a combination of local groups and educated leaders 
who command the necessary skills to run things. Some of these groups 
and organizations may overlap--especially parties and their militias--
and they will function through some fig leaf of government. But the 
territory over which they rule will vary and possibly shift as will 
their command over Iraq's resources. This breakdown is almost wholly a 
function of a collapse of the central government in Baghdad. The 
process of building an alternative regional government in the wake of 
this collapse is furthest advanced in the three Kurdish provinces in 
the north, but it is not complete there by any means.
    In reality, this is the Iraq that is emerging, with differing local 
forces competing and engaging with one another in an effort to 
reestablish control and primacy in various areas of the country. In 
some cases these struggles are violent. But none of these local 
warlords, militias, parties, or provincial governments--even if they 
can keep a modicum of order in their territory--can achieve the kind of 
economic development, security, contacts with the outside world, and 
promise of a modern life and a future to which most Iraqis aspire. In 
the meantime, organized criminal elements--and a myriad of 
freebooters--are increasingly stealing Iraq's patrimony, while its oil 
wells and other resources go further into decline. And in some areas, 
such as Baghdad, the absence of government has led to a Hobbesian 
nightmare of insecurity, violence, and the most vicious personal 
attacks on human beings seen anywhere in the modern world. Iraq could 
descend further into breakdown, as local warlords, militias, criminal 
elements, and others assert control. This scenario--a full blown 
``failed state''--is already causing problems for the region and for 
the United States. Indeed, the failed state syndrome may be spreading, 
as events in Lebanon this summer and now in Palestine indicate. 
Needless to say, it is precisely the failed state syndrome that 
produces the best opportunity for al-Qaeda and other jihadists opposed 
to United States and Western interests to nest in the region.
    A third outcome is to slow and gradually arrest the decline, and 
for Iraq to gradually reconstitute an Iraqi Government that recognizes 
the new divisions which have emerged, but learns to accommodate them 
and overcome them in some new framework that allows for economic and 
social development. No society can exist without governance, and that 
is the root of Iraq's problems today. It will be easier to rebuild this 
framework, I believe, if Iraqis do not divide, indefatigably, on ethnic 
and sectarian lines, but rather work with the various groups and 
parties that are gradually participating in the new political system to 
achieve mutual interests. This does not preclude the emergence of new 
parties, but none are on the horizon now. Such accommodations will 
exclude extremes, such as al-Qaeda, and possibly some--though not all--
Sadrist elements, and it must include many of the Sunnis--ex-Baathists 
and others--who are not yet in the government. This aim can be advanced 
by pushing leaders in Baghdad to cut deals and make agreements on 
issues on which they have mutual interests--across the ethnic and 
sectarian divide. It is also essential to expand areas of economic 
development; government services (especially security) and to bring 
back the middle class and put them in positions of administrative and 
military authority. Regardless of who is running politics, an infusion 
of educated, experienced technocrats will help moderate the process and 
push it toward the middle. Over time, new links and understandings may 
become institutionalized and a government in Baghdad gradually take 
shape. Even if this government does not control much territory outside 
of Baghdad or the Green Zone, it is better to keep it intact as a 
symbol and a framework toward which a future generation can work, than 
to destroy it and try, once again, to establish a new and entirely 
radical framework.
    Iraq is very far from achieving a new government that works, and 
the collapse we are witnessing is more likely to get worse before it 
gets better. Only when the participants in this struggle for power 
recognize that they are losing more than they can gain by continuing, 
will it come to an end. That may be a very long time. In the meantime, 
the best we can probably do is to staunch the violence; contain the 
struggle; and keep alive the possibility that after extremism has run 
its course, the potential for a different Iraq is still there. Others 
in the region should be encouraged to do the same, a task which should 
be made easier by the fact that no state in the region--or its 
leadership--wants to see the collapse of the current state system, no 
matter how much in need of reform is its domestic government may be.

SEAT DISTRIBUTION FROM THE DECEMBER 15, 2005, IRAQI LEGISLATIVE ELECTION
------------------------------------------------------------------------
                     Party                      Total seats   Percentage
------------------------------------------------------------------------
Shia Parties:
    United Iraqi Alliance.....................          128        46.55
    Progressives..............................            2         0.73
                                               -------------------------
      Total...................................          130        47.27
                                               =========================
Sunni Parties:
    Accord Front..............................           44        16.00
    Iraqi Dialogue Front......................           11         4.00
    Liberation and Reconciliation Bloc........            3         1.09
                                               -------------------------
      Total...................................           58        21.09
                                               =========================
Kurdish Parties:
    Kurdistan Alliance........................           53        19.27
    Islamic Union of Kurdistan................            5         1.82
                                               -------------------------
      Total...................................           58        21.09
                                               =========================
Secular Nationalist Parties:
    National Iraqi List.......................           25         9.09
    Iraqi Nation List (Mithal al-Alusi).......            1         0.36
                                               -------------------------
      Total...................................           26         9.45
                                               =========================
Minority Parties:
    The Two Rivers List (Assyrian)............            1         0.36
    The Yazidi Movement.......................            1         0.36
    Iraqi Turkman Front.......................            1         0.36
                                               -------------------------
      Total...................................            3         1.09
------------------------------------------------------------------------


MINISTRIES AND LEADERSHIP POSITIONS BY PARTY, PERMANENT GOVERNMENT, 2006
------------------------------------------------------------------------
                                                   No. of
                                                 ministries
                     Party                      +leadership   Percentage
                                                 positions
------------------------------------------------------------------------
UIA...........................................           21        45.65
    SCIRI.....................................            5        10.87
    Dawa......................................            1         2.17
    Dawa Tandhim..............................            3         6.52
    Sadrists..................................            4         8.70
    Islamic Action............................            1         2.17
    Hezbollah.................................            1         2.17
    Independent...............................            6        13.04
Kurdistan Alliance............................            8        17.39
    PUK.......................................            4         8.70
    KDP.......................................            4         8.70
Tawafuq.......................................            9        19.57
Iraqiya.......................................            6        13.04
Independent...................................            2         4.35
------------------------------------------------------------------------


[Editor's note.--The charts presented by Dr. Marr were not 
reproducible. They will be maintained for viewing in the committee's 
premanent record.]

    Chairman Biden. Doctor, thank you. Thank you very much.
    Michael.

  STATEMENT OF DR. MICHAEL O'HANLON, SENIOR FELLOW AND SYDNEY 
  STEIN, JR., CHAIR, THE BROOKINGS INSTITUTION, WASHINGTON, DC

    Dr. O'Hanlon. Thank you, Senator. It's a great honor to 
appear before this committee today.
    Chairman Biden. By the way--excuse me for interrupting--I 
note that, in the interest of time, you've been unable to go 
through the entire statements each of you had----
    Dr. Marr. Oh, yes.
    Chairman Biden [continuing]. Your entire statements will be 
placed in the record for everyone to have available.
    Dr. O'Hanlon. Thank you for the honor to testify today.
    I think the numbers in Iraq essentially add up to what we 
all, I think, are realizing in our gut more and more, which is, 
the state of Iraq today is poor. As a person trying to maintain 
an objective database on this for 3\1/2\ years now, I tried 
hard not to use that kind of a sweeping conclusion for the 
first couple of years. There was always reason to think that 
the glass might be half full, or at least the data themselves 
might suggest that you could find information that would allow 
you to reach that conclusion. And we thought, as providing a 
database, it was important for us not to prejudge where things 
were headed. But I think it's increasingly clear that in Iraq 
the situation is poor, that we are losing. One can debate 
whether we've lost. I would agree with Secretary Powell's 
characterization, that we are losing, but there is still hope 
for salvaging something. And the degree of setback or degree of 
an unfortunate outcome matters a great deal, even if we are not 
going to wind up where we hope to be, on the scale that we had 
hoped. But the data, I think, are very clear, and let me go 
through just a couple of points to try to summarize why I say 
that.
    On the testimony I've prepared today, we have 18 security 
indicators, 6 economic indicators, and another half dozen or so 
political and public opinion indicators. The latter category 
has some hope, has some positive element, but the first two are 
almost uniformly bad. Of the 18 security indicators that we're 
presenting for you today, 17 of them are either bad or, at 
best, stagnant, in terms of the trend lines. Only one can be 
said to be positive, and that's the one that I think, 
unfortunately, is less important and less--itself, less 
promising than we once hoped--which is the progress in training 
Iraqi security forces, because even though we are making 
technical progress, getting them equipment, getting them 
training. We all know that their sectarian trends and 
tendencies are growing, and one can't even speak, necessarily, 
of a clearly improving Iraqi security force, at this time. 
We've tried to guestimate about how many of the Iraqi security 
forces may be not only technically proficient, but politically 
dependable in some way. Very hard to come up with that kind of 
a number. I've talked to people in the military and the 
administration on this. I know you all have, too. But I think 
that, at best, there are several thousand Iraqi forces that can 
be reliably said to be politically dependable, even if there 
may be 100,000 or more that pass at least a modest standard of 
technical capability. So, the security environment is quite 
poor.
    On the economic front, of the six categories that we 
summarize in our testimony today, only one of them shows any 
real positive motion, and that's the GDP. But that, of course, 
is essentially a top-down effect from high oil prices and from 
foreign aid, and it doesn't necessarily reach all the middle-
class Iraqis that we need to reach.
    So, this is why I conclude that things aren't good, and, in 
fact, are quite poor, on balance.
    Let me identify, very quickly, six categories, and give you 
just a little bit of information on each of the six, and try to 
do so quickly, because I realize it's easy to swamp people with 
data. And, by the way, I should say, by way of background, not 
all this data is of equally good quality. Again, those of you--
and most of you who have been to Iraq know how hard it is to 
get information from the ground, and we also know that the 
numbers--you know, the benchmarks may be off, and the trends 
may be somewhat off. But I still think the overall gist of this 
is pretty clear.
    I should also say, our information is largely U.S. 
Government information, but we also try to depend a great deal 
on journalists working in the field, on nongovernmental 
organizations in the field, and, to some extent, our own 
research. But we are not in Iraq, with a lot of interns, 
gathering data; we are primarily trying to compile and assess 
trends.
    First point of the six categories--and this is obvious, but 
I'd better make it clear and get it on the table anyway--the 
violence levels in Iraq have been escalating dramatically. 
We've seen this again in the recent data. There is considerable 
disagreement about how many people in Iraq are dying per month, 
but it's probably in the range of 4-5,000 civilians a month, 
which is at least double what it was just a couple of years 
ago. And, frankly, in this broad semantic debate about whether 
Iraq is in civil war or not, by that standard Iraq is very, 
very clearly in civil war. The sheer level of violence makes 
this one of the two or three most violent places in earth. And, 
frankly, we're getting to the point where it even begins to 
rival some of the more violent periods during Saddam's rule, 
which is a terrible thing to have to say. It's not as bad, of 
course, as the worst period of the Iran-Iraq war or of Saddam's 
genocides against his own people, but it is essentially 
rivaling--essentially--what I might say is the average level of 
Saddam's level of violence over his 25 years in power, about 4-
5,000 civilians being killed per month.
    One backup piece of information on this, or corroborating 
statistic, the number of attacks per day that we're seeing from 
militias or sectarian groups or insurgents is now almost 200, 
which is an escalation of at least a factor of five from a 
couple of years ago. So, the first point, again, is fairly 
obvious, but, I think, worth emphasizing.
    Second point--and Dr. Marr made this point, and we all are 
aware of it--is the growing sectarian nature of the violence. 
And here, I'm just going to highlight one or two statistics, 
which come largely from Pentagon data bases. In the early 2 
years of Iraq's war--or of our experience in Iraq since 2003--
there were very few sectarian attacks, maybe zero or one per 
day, according to the Pentagon's best effort to tabulate. More 
of the attacks were a Sunni-based insurgency against anyone 
associated with the government, whether it was our forces, 
Iraqi Shia, Iraqi Sunni, Iraq Kurd. The violence was very much 
of an insurgent and terrorist nature. And zero or one attacks 
per day were assessed as sectarian. Now it's 30 sectarian 
attacks a day. Three zero. So, this is a dramatic escalation in 
the amount of sectarian violence.
    We have a terrorist threat, an insurgency threat, and a 
civil war from sectarian violence, all at the same time. And I 
don't want to make too much of the semantic issue here. If you 
want to call it ``sectarian strife'' or ``large-scale sectarian 
strife'' rather than ``civil war,'' I suppose we can still have 
that debate, but the sheer amount of violence and the growing 
political impetus to the violence from the different sectarian 
leaders makes Iraq unambiguously qualified, in my mind, as a 
place where we have a civil war today. So, I wanted to 
underscore the sectarian nature of the violence.
    Third point, related to the first two, is that, if you want 
to put it in a nutshell, Iraq is becoming Bosnia. Ethnic 
cleansing and displacement are becoming paramount. And here, I 
think the statistics have been underappreciated in much of the 
public debate, so far. So, let me try to be very clear on one 
big, important data point; 100,000 Iraqis per month are being 
driven from their homes right now. Roughly half are winding up 
abroad, roughly half are moving to different parts of Iraq. 
This is Bosnia-scale ethnic cleansing. I agree with Dr. Marr 
that it would be preferable--and Iraqis certainly would 
prefer--to retain some level of multiethnic society, and that 
separation of the country into autonomous zones raises a lot of 
tough questions. However, let's be clear about what the data 
show. It's happening already. And right now, it's the militias 
and the death squads that are driving the ethnic cleansing, and 
the movement toward a breakup of Iraq. And the question, pretty 
soon, is going to be whether we try to manage that process or 
let the militias alone drive it, because it's happening; 
100,000 people a month are being driven from their homes. Iraq 
looks like Bosnia, more and more. That's my third point.
    Fourth point, disturbing--again, not surprising, but 
disturbing--middle- and upperclass flight. We have huge 
problems of Iraqi professional classes, the people we need to 
get involved in rebuilding this country, no longer able to do 
so. To some extent, it's a legacy of the issue about de-
Baathification and the degree to which Ambassador Bremer 
expanded the de-Baathification approach beyond what was 
initially planned, but also, now, Iraqis are being driven from 
their homes because of the amount of kidnaping of upperclass 
individuals, much of it financially driven. And just one very 
disturbing statistic: Physicians in Iraq. We now estimate that 
a third of them have left the country or have been killed or 
kidnaped in the time since liberation of Iraq from Saddam, 4 
years ago. So, one-third of all physicians are out of Iraq and 
no longer practicing. And that's probably, if anything, an 
underestimate. So, middle-class and upperclass flight, or the 
death of many middle-class and upperclass individuals, has 
become a real challenge for putting this country back together 
in any meaningful way.
    Fifth point. And this makes me, I should admit in advance, 
sympathetic to President Bush's planned--from what I 
understand--planned focus on job creation in his speech 
tonight. I think it's overdue. But unemployment is a big 
problem in Iraq. And I think the Commander Emergency Response 
Program, which we used, on a pilot scale, on a smaller scale, 
in the early years, was a very good idea. If you want to call 
it ``make work,'' that's fine. If you want to call it ``FDR-
style job creation,'' that's fine. I think that's what Iraq 
needs today, because the unemployment rate is stubbornly high. 
And even if job creation is not, per se, a good economic 
development strategy, it may be a good security strategy, 
because it takes angry young men off the streets. So, the 
unemployment rate, as best we can tell, is still stuck in the 
30-plus-percent range. Now, by developing-country standards, 
that's not necessarily without precedent, but in Iraq it fuels 
the civil war and the sectarian strife and the insurgency, and 
that's the reason why it's of great concern, in addition to the 
obvious reasons.
    Last point, I'll finish on Iraqi pessimism. For the first 2 
years of this effort, Iraqi optimism was one of the few things 
we could really latch onto and say that the political process 
plus the gratitude of the Iraqis that Saddam was gone--maybe 
not gratitude toward us, per se, because they quickly became 
angry with us, but gratitude in a broader sense--plus their 
hope about the future, provided a real sense that this country 
could come together, because the optimism rates about the 
country's prognosis, among Iraqis themselves, were in the 70-
percent range for the first couple of years. Those numbers have 
plummeted. They're still higher than I would have predicted, to 
be honest with you. They still look like they are 40-45 percent 
optimism, but they are way, way down from what they used to be. 
And if you look at a couple of other indicators of Iraqi public 
opinion, especially from a June 2006 poll done by our 
International Republican Institute, only 25--excuse me, I'll 
put it another way--75 percent of all Iraqis consider the 
security environment to be poor--75 percent; and 60 percent 
consider the economic environment to be poor. So----
    Chairman Biden. Can I ask a point of clarification?
    Dr. O'Hanlon. Yes; please.
    Chairman Biden. Is that polling data, or that data about 
pessimism, does that include the roughly 1 million people who 
have been displaced or are out of country, or does it include--
--
    Dr. O'Hanlon. It's a very good point, Senator. It does not, 
as far as I understand. And, therefore, if you did address 
these individuals who have suffered most directly, the numbers 
might well be lower. But, in any event, I think the overall 
gist, the trendlines, are bad. And when you ask Iraqis about 
the security environment or the economic environment, they're 
even more pessimistic than they are in general terms.
    That's my overall message, and I look forward to the 
conversation later.
    Thank you.
    [The prepared statement of Dr. O'Hanlon follows:]

Prepared Statement of Michael O'Hanlon, Senior Fellow and Sydney Stein, 
           Jr., Chair, Brookings Institution, Washington, DC

    The year 2006 was, tragically and inescapably, a bad one in Iraq. 
Our ongoing work at Brookings makes this conclusion abundantly clear in 
quantitative terms. Violence got worse for Iraqi civilians and barely 
declined at all for American and Iraqi troops. And the economy was 
fairly stagnant as well.
    Despite the drama of Saddam's execution in the year's final days, 
2006 will probably be remembered most for two developments inside Iraq. 
The first is the failure of the 2005 election process to produce any 
sense of progress. In fact, 2006 was the year that politicians in Iraq 
did much more to advance the interests of their own sects and religions 
than to build a new cohesive country. (In a September poll, Prime 
Minister al-Maliki was viewed unfavorably by 85 percent of all Sunni 
Arabs, for example.) The second is the related commencement of Iraq's 
civil war dating back to the February 22 bombing of the hallowed Shia 
mosque in Samarra. While some still question whether Iraq is in civil 
war, there is no longer much serious debate about the situation. The 
sheer level of violence, and the increasing politicization of the 
violence to include many more Shia attacks on Sunnis as well as the 
reverse, qualify the mayhem in Iraq as civil war by most definitions of 
the term. And the country has become one of the three or four most 
violent places on Earth.
    It is still possible to find signs of hope in our Brookings 
statistics on Iraq: The numbers of Iraqi security forces who are 
trained and technically proficient, the gradually improving GDP, recent 
reductions in Iraqi state subsidies for consumer goods (which distort 
the economy and divert government resources), the number of children 
being immunized. But those same children cannot feel safe en route to 
school in much of today's Iraq; that GDP growth is a top-down 
phenomenon having little if any discernible effect on the unemployment 
rate or well-being of Iraqis in places such as Al Anbar province and 
Sadr City, Baghdad; reductions in subsidies are not enough to spur much 
private sector investment in such a violent country; and those 
increasingly proficient security forces remain politically unreliable 
in most cases, just as inclined to stoke sectarian strife as to contain 
it.
    The performance of Iraq's utilities remains stagnant--not bad by 
the standards of developing countries, but hardly better than under 
Saddam. Oil production and electricity availability remain generally 
flat nationwide. Fuels for household cooking and heating and 
transportation fall even further short of estimated need than they did 
a year or two ago, as does electricity production in Baghdad.
    Despite some unconvincing rhetoric from President Bush in the 
prelude to the November elections that ``absolutely, we're winning,'' 
most Americans now agree on the diagnosis of the situation in Iraq. 
Former Secretary Baker and former Congressman Hamilton recently warned 
of a ``further slide toward chaos.'' Secretary of Defense, Robert 
Gates, stated in his confirmation hearings that we aren't winning, even 
if he declined to go as far as Colin Powell and assert that we are 
actually losing. Former Secretary Rumsfeld himself, in his leaked 
November memo, recognized that Iraq was going badly and put out a 
laundry list of potential options in Iraq that we may have to consider 
to salvage the situation, including a Dayton-like process modeled on 
Bosnia's experience to negotiate an end to the civil war.
    Iraqis tend to share a similar diagnosis. According to a June 2006 
poll, 59 percent call the economy poor and 75 percent describe the 
security environment as poor. The security situation in particular has 
only deteriorated since then.
    Against this backdrop, dramatic measures are clearly needed. At a 
minimum, we will likely require some combination of the options now 
being proposed by the Iraq Study Group, the Pentagon, and others. 
President Bush is likely to recommend several of these in his eagerly 
awaited January speech--a massive program to create jobs, a surge of 
25,000 more American troops to Iraq to try to improve security in 
Baghdad, an ultimatum to Iraqi political leaders that if they fail to 
achieve consensus on key issues like sharing oil, American support for 
the operation could very soon decline.
    Our Brookings data suggest rationales for each of these possible 
policy steps, even if there are also counterarguments. Coalition forces 
have never reached the numbers needed to provide security for the 
population in Iraq, and indigenous forces remain suspect--in their 
technical proficiency, and even more so in their political 
dependability. These two realities make at least a tactical case for a 
surge, if it is really feasible on the part of our already overworked 
soldiers and marines. Despite the success of military commanders in 
putting Iraqis to work with their commander emergency response program 
funds, the administration never chose to emphasize job creation in its 
economic reconstruction plans meaning that the unemployment rate has 
remained stubbornly high. And for all our happiness about Iraq's 
democracy, it is clear that extremely few Iraqi leaders enjoy any real 
support outside of their own sectarian group. Trying to force them to 
work across sectarian lines must be a focus of our policy efforts, if 
there is to be any hope of ultimate stability in Iraq.
    Social scientists and military experts do not know how to assess, 
rigorously, the probabilities that such steps will succeed at this late 
hour in Iraq. Overall, however, it seems fair to say that most have 
become quite pessimistic. If the above types of ideas fail, therefore, 
``Plan B'' options may well be needed within a year, ranging from a 
federalism plan for Iraq that Rumsfeld and Senator Biden have been 
discussing to plans that would go even further and help Iraqis relocate 
to parts of their country where they could feel safer (as Bosnia 
expert, Edward Joseph, and I have recently advocated in The American 
Interest). Such an idea is widely unpopular--with Iraqis themselves, 
with President Bush, with most Americans who value the notion of 
interethnic tolerance. But with 100,000 Iraqis per month being 
displaced from their homes, making for a total of some 2 million since 
Saddam was overthrown, ethnic cleansing is already happening. Unless 
current trends are reversed, the question may soon become not whether 
we can stop this Bosnia-like violence--but whether we try to manage it 
or let the death squads continue to dictate its scale and its 
character.
    Although it has been said before about previous new years, it seems 
very likely that 2007 will be make or break time in Iraq.

----------------------------------------------------------------------------------------------------------------
                         Category                             11/03        11/04        11/05          11/06
----------------------------------------------------------------------------------------------------------------
                                                    Security
----------------------------------------------------------------------------------------------------------------
U.S./other foreign troops in Iraq (thousands)............       123/24       138/24       160/23          140/17
U.S. troops killed.......................................           82          137           96              68
Percent killed by IEDs...................................           24           13           48              54
U.S. troops wounded......................................          337        1,397          466             508
Iraqi Army/police fatalities.............................           50          160          176             123
Iraqi civilian fatalities................................        1,250        2,900        1,800           4,000
Multiple fatality bombings (for month in question).......            6           11           41              65
Estimated strength of insurgency.........................        5,000       20,000       20,000          25,000
Estimated strength of Shia militias......................        5,000       10,000       20,000          50,000
Daily average of interethnic attacks.....................            0            1            1              30
Estimated number of foreign fighters.....................          250          750        1,250           1,350
Number of daily attacks by insurgents/militias...........           32           77           90             185
Attacks on oil/gas assets................................            9           30            0              11
Iraqis internally displaced 100,000 since 04/03 (total)..      100,000      175,000      200,000         650,000
Iraqi refugees since 04/03 (total).......................      100,000      350,000      900,000       1,500,000
Iraqi physicians murdered or kidnapped/fled Iraq.........    100/1,000    250/2,000  1,000/5,000    2,250/12,000
Iraqi Security Forces technically proficient.............            0       10,000       35,000         115,000
Iraqi Security Forces politically dependable.............            0            0        5,000          10,000
----------------------------------------------------------------------------------------------------------------
                                                    Economics
----------------------------------------------------------------------------------------------------------------
Oil production (millions of barrels/day; prewar: 2.5)....          2.1          2.0          2.0             2.1
Percent of household fuel needs available................           76           77           88              54
Electricity production (in megawatts, prewar: 4,000).....        3,600        3,200        3,700           3,700
Ave. hours/day of power, Baghdad (prewar: 20)............           12           12            9               7
Unemployment rate (percent)..............................           50           35           33              33
Per capita GDP (real dollars; prewar: $900)..............          550        1,000        1,100           1,150
----------------------------------------------------------------------------------------------------------------
                                    Politics, Public Opinion, Democracy, Law
----------------------------------------------------------------------------------------------------------------
No. of Trained Judges....................................            0          250          350             750
Telephone subscribers (prewar: 800,000)..................      600,000    2,135,000    5,500,000       8,100,000
Independent media companies (prewar: 0)..................          100          150          225             400
Iraqi optimism (percent who think things going in right             65           54           49              45
 direction)..............................................
----------------------------------------------------------------------------------------------------------------


    Chairman Biden. Thank you.
    Mr. Said.

 STATEMENT OF YAHIA SAID, DIRECTOR, IRAQ REVENUE WATCH, LONDON 
              SCHOOL OF ECONOMICS, LONDON, ENGLAND

    Mr. Said. Mr. Chairman, Senators, I'm honored to be here, 
and I'm pleased by your interest in the situation in Iraq, and 
efforts to find a solution that will be helpful to the Iraqi 
and American people.
    Chairman Biden. As Strom Thurmond used to say, ``Will you 
pull the machine closer so everyone can hear you?'' Thank you 
very much.
    Mr. Said. Some of the statements I'm going to make are 
going to echo what was said before, and, in a way, will 
confirm, through anecdotal evidence, what has been suggested 
through the numbers and statistics.
    The conflict in Iraq is not only pervasive, as the numbers 
suggest, but it's very complex. And it's very important not to 
try to simplify it. The situation in Iraq has suffered, and 
policymaking in Iraq has suffered, because the conflict was 
reduced to some of its elements rather than looked at in its 
complexity. This is not only a conflict between democracy and 
its enemies, it's not only a conflict between insurgency and 
counterinsurgency, it's not only a conflict between Sunni and 
Shia. This is a multifaceted, overlapping series of conflicts 
which is a function of the various groups and interests and 
agendas. And what I will try to do in my statement is try to 
address some of the elements of the conflict, to just 
illustrate the complexity of it, and hopefully that will help 
inform policymaking. I will also try to address the question: 
Why are these conflicts taking such a violent form? And 
finally, I will try to address issues of national dialog and 
efforts at finding a peaceful resolution to these conflicts.
    As the numbers suggested by Mr. O'Hanlon, the insurgency 
continues--and by ``insurgency'' I mean attacks against 
coalition forces--continues to be a significant part of the 
conflict. The majority of attacks continue to target coalition 
forces and coalition personnel, and the high numbers of 
casualties are evidence to that. But the insurgency is also a 
domestic political game. Many groups from the various 
communities, from various political directions, engage in the 
insurgency to acquire political legitimacy and to acquire, 
through that, a right to govern. Indeed, when the Iraqi 
Government proposed or suggested the option of an amnesty 
lately, insurgents bristled and said, ``They shouldn't be 
pardoned for fighting the occupation, they should be rewarded 
by being given positions in power.'' The insurgency is also 
about many other factors, including money. And it's becoming 
harder and harder to distinguish whether a commercial interest 
is a goal in itself or is a means to a goal.
    The sectarian violence, as, again, the numbers have 
suggested, is on the rise, and is tearing at the fabric of 
society, but it's not producing the kind of consolidation, the 
kind of alignment along sectarian and ethnic lines that some of 
the architects of the violence have hoped for. Indeed, as Ms. 
Marr has suggested, there is fragmentation. There is 
fragmentation within communities, there is fragmentation within 
political blocs and individual political parties. There is also 
increasing and growing specter of warlordism as rogue military 
commanders take control of fragments of militias and even state 
security structures. And the evidence for the fragmentation is 
everywhere. On my recent trip to Baghdad, a driver from a Sunni 
neighborhood complained to me that the Sunni insurgents, the 
Sunni fighters, kill more of their own kin than they do of Shia 
militias. The fighting between the Sadrists and militias 
affiliated with the Supreme Council of Islamic Revolution in 
Iraq, the SCIRI, and security forces controlled by them, have 
swept throughout the south of the country, and, over the last 
year, the Sadrists have gained control, at least temporarily, 
of various cities in the south. Even in Kurdistan the tensions 
are not far below the surface.
    One of the largest movements--the largest political 
movement in Iraq today are the Sadrists, and I think it's 
worthwhile to focus a little bit on that component of the 
situation in Iraq, because it's also illustrative of the 
dynamics. While other political parties control state and 
security structures, particularly the SCIRI, the Sadrists 
control the streets. But this is a very controversial and 
contradictory movement. The Sadrists nurture a nationalist 
image. They don't engage in sectarian rhetoric. They have 
clashed frequently with coalition forces. At the same time, 
they have participated in the political process, they have 30 
MPs, 6 ministers currently in boycott.
    Many ex-Baathists--Shia ex-Baathists--joined the Sadrist 
movement, yet the Sadrist movement has been the most vocal in 
calling for revenge and for punishing regime officials. The 
Sadrists style themselves after Hezbollah in Lebanon, and seek 
to protect their communities and constituents and provide 
services. At the same time, their militias are undisciplined 
and engage in criminal violence and looting, themselves, and, 
of course, man some of the feared death squads.
    This is a movement of the poor. This is an 
antiestablishment movement. Their grassroots support comes from 
the very poor Arab Shia in the countryside and the slums of 
Baghdad. And, as such, their natural enemies are not 
necessarily the Sunnis, but are the establishment, regardless 
of their sectarian or ethnic affiliation. As--and we see that 
through their clashes with the Shia establishment, with the 
merchant and religious Shia establishment represented by SCIRI.
    So, you have one movement that is fighting three conflicts. 
It's fighting an insurgency, it's fighting an antiestablishment 
revolt, and it's fighting a sectarian civil war.
    So, why does the conflict in Iraq take such violent forms? 
It does, because there is a political vacuum, as Ms. Marr--
Professor Marr--has suggested. And this political vacuum is 
signaling to the various groups and communities the necessity 
to protect their interests and achieve their goals through 
violent means, because there is no framework for a peaceful 
resolution of conflicts, for a peaceful reconciliation of the 
diverging interests.
    This violence, of course, is also feeding into the collapse 
of the state, and you have a vicious circle of political 
vacuum, violence, and state collapse.
    Now, the political process that took place over the last 3 
years was supposed to address that. It was supposed to create 
that vehicle for a peaceful resolution of conflict, for ways 
for Iraqis to come together and reconcile their differences. 
But, unfortunately, and despite a tremendous effort by Iraqis, 
Americans, and others, this has not been the case. Indeed, the 
political process is defunct, and, as Ms. Marr suggested, the 
state also has not emerged. We don't have, in Iraq, a 
legitimate public authority that could protect people and 
provide them with services.
    Why did this process fail? And this is not about pointing 
fingers at the past, but it's very important to understand some 
of the reasons for the failings. It's tempting to point the 
finger at external factors. Indeed, the Iraqis love to point 
the finger at external factors. And if you ask them, ``It's the 
Americans' fault, it's the Israelis, it's the Iranians, it's 
Saddam,'' and everybody possible. But there are, of course, 
internal reasons. And one of them is the fact that many Iraqis, 
a majority of Iraqis, are sitting on the fence, or, as my 
colleague has just suggested, are pessimistic. Iraqis have 
little faith in the process--in the political process and its 
results, and in the elites that emerge from it. They don't have 
confidence in this regime--in the current regime and its 
sustainability.
    What you have is a pervasive atmosphere--it's two 
sentiments that--dominating the situation in Iraq--which is 
fear and apathy. And you see that everywhere. And it's these 
sentiments that provide the perfect cover for corruption, for 
terrorism, for violence, and for sectarian hate. Even 
government officials are inflicted by this sentiment, and this 
explains how they use their positions to undermine, to 
dismantle the machinery of government that has been entrusted 
to them. And, indeed, you can hear echoes of that pessimism or 
apathy in the Prime Minister's recent interview with the Wall 
Street Journal.
    Within this atmosphere, we're seeing, now, a hardening of 
positions on all sides. There is this mood, if you like, of 
going for a last push. And it's not only evident through the 
terrorist and the sectarian violence, but also in the 
government's own position. Clearly, the model of a full-
spectrum national unity government, which we still have in Iraq 
now, has not worked. It has even furthered the dismantling of 
the machinery of the state, because it was reduced to farming 
out ministries to individual parties and groups. Now the 
strongest parties in the government, particularly the SCIRI and 
the Kurds, are trying to build a narrower government, and hope 
that it would be more efficient and work more as a team. But 
there are risks to this approach. These parties don't have 
strong grassroots support, and will rely more both on coercion, 
but also on continued U.S. support and bolstering. The 
execution of Saddam Hussein, and the manner in which it was 
carried out, and the rhetoric and the timing and everything, is 
indication of this hardening. That event was clearly designed 
to intimidate political opponents of the government, and 
particularly the Sunni community.
    The new security plan and the push for an all-out assault, 
in combination with the surge option, is also an indication of 
that. There is very little evidence to show, today, that the 
Iraqi Government will be able to mobilize the resources 
necessary to make this security plan more successful than those 
who preceded it. And a temporary surge will also probably not 
lead to sustainable outcomes. At the same time, if the plan--if 
the security plan is carried out in a one-sided way, and the 
Prime Minister has indicated that he views Sunni violence, 
terrorist violence, as the primary problem, and that the Shia 
militias are a secondary reaction to that--so, if this plan is 
carried out in a one-sided way with disregard to human rights, 
it can exacerbate the situation and make finding a political 
peaceful solution even harder. And, at the end of the day, the 
only solution to the situation in Iraq has to come through 
dialog, has to come through engagement and ownership of a broad 
cross-section of Iraqis, to overcome that feeling of apathy and 
disconnection. The dialog has to be genuine--as in, the parties 
have to produce real concessions--all the parties. It has to be 
broad. It has to involve not only the sectarian protagonists, 
but also those who still believe in the viability of the Iraqi 
states and in the necessity, as Professor Marr has indicated, 
of having a central state in that particular region.
    Unfortunately, the government's action, the hardening of 
the government's position over the last 6 months--the Iraqi 
Government has closed down to opposition newspapers, TV 
stations, has issued arrest warrants for leading opposition 
figures--do not create a conducive environment for an open and 
genuine dialog. So, there is need for international 
intervention on that front, and I'll address that later.
    Dialog, of course, doesn't mean that one needs to throw out 
the results of the political process of the last 3 years. I 
think the Constitution--the Iraqi Constitution, with all its 
shortcomings, serves as a good starting point for dialog, but 
the Constitution needs to be transformed, through genuine 
dialog, from a dysfunctional to a rational federal structure.
    Oil, and--negotiations on an oil deal, which have 
apparently concluded recently, also provide a model for the--
for that rational federalism. The main principles that the 
negotiators have agreed on is to maximize the benefit of Iraq's 
oil wealth to all Iraqis, to use oil as a way to unite the 
nation, and to build a framework based on transparency, which 
is very important in a situation of lack--of poor trust, and on 
efficiency and equity.
    Major issues have been resolved, like having a central 
account to accumulate all oil revenues, and manage the oil 
revenues on--at the federal level. Apparently, even the issue--
the current issue of contracting, and who has the right to 
contract, has been resolved, as well as the structure for a 
national oil company.
    But there remains issues open, and it's very important not 
to let the details derail the negotiations. And it's also very 
important to have a professional and open dialog on those 
issues, as in involving the proper professionals in the 
negotiations, and not reduce them to a political kitchen 
cabinet. One needs financial people, one needs economists and 
petroleum experts, involved in the debate.
    And one of the critical issues is how the revenue-sharing 
framework is going to work. Will it be through the writing of 
checks, which is unsustainable in the long term? There is no 
reason for Basrah to transfer money to the central government 
so that it can write checks to the other regions. Unless the 
revenue-sharing is carried out through the budget, through an 
integral budgetary process, the arrangement will be 
unsustainable. So, it's very important to make sure that the 
integrity of budgetary process is preserved.
    In conclusion, I think policies for Iraq should be informed 
by the complexity of the conflict. A surge, or the security 
plan envisioned now for Iraq, reduces the conflict to one 
between a democracy and its enemies; between democracy and 
terror. But if it is carried out with disregard to human 
rights, if it is carried out with disregard to the rule of law 
and in a one-sided way, it may exacerbate the situation and may 
also increase sectarian tensions and undermine the very 
democracy it purports to defend.
    The withdrawal of U.S. forces also reduces the conflict to 
an issue of a fight between an occupying army and a nationalist 
resistance. But, at the same time, a withdrawal may spell the 
end to the Green-Zone-based Iraqi State, and that could unleash 
further spirals of violence.
    Segregation, or the various proposals on the table that are 
aimed at addressing Iraq through an ethnic prism, reduces the 
conflict to one between Sunnis and Shia. But, in that 
atmosphere of fragmentations, as Professor Marr has suggested, 
that means that we will just replace one civil war with three 
civil wars, one failed state with three failed states. And, as 
I hope the next speaker will address Iraqi partition or 
segregation will lead to unimaginable consequences at the 
regional level.
    So, the only solution for Iraq will have to be long term 
and comprehensive, as Professor Marr has suggested, and will 
have to be based on an open and inclusive dialog, but it's 
something the Iraqis, on their own, cannot do, and they will 
need an international intervention to identify the 
protagonists, to bring them to the negotiations table, and to 
help prod them to reach compromise. What Iraq needs today is an 
internationally sponsored and mediated peace process.
    And I will finish at that. Thank you.
    [The prepared statement of Mr. Said follows:]

   Prepared Statement of Yahia Khairi Said, Director, Revenue Watch 
         Institute, London School of Economics, London, England

    The conflict in Iraq today is as complex as it is pervasive. This 
is a reflection of the various groups and interests at play as well as 
the legacies of the past. The conflict can not be reduced to simple 
dichotomies of democracy against its enemies, resistance against the 
occupation or Shia vs. Sunni. Likewise there is no single universal 
solution to the conflict. Neither the current proposal for a ``surge'' 
nor the proposal to withdraw coalition forces are likely to bring 
peace. What is needed is a comprehensive and long-term approach based 
on an open and inclusive dialog at national and international levels, 
in which the fair distribution of Iraqi oil revenues is used as an 
incentive for uniting Iraqis.

                       THE NATURE OF THE CONFLICT

    The Insurgency: The targeting of Multinational Forces continues to 
account for a significant portion of the violence as evidenced by the 
consistently high numbers of coalition casualties. The insurgency is 
also an arena of domestic political conflict. Groups from different 
ethnic and political backgrounds use the ``resistance'' to legitimate 
their claim to power. Sunni insurgents bristled at the government's 
offer of an amnesty last year, insisting that they should be rewarded, 
not pardoned for fighting the occupation. Al-Qaeda uses videos of 
attacks on U.S. troops to recruit and fundraise for its own global war. 
Some insurgent attacks are simply a cover for economic crimes. As with 
many such conflicts, it is often hard to discern whether the violence 
is purely a means to commercial gain or an end in itself.
    Spiralling sectarian violence is polarising communities and tearing 
society apart. However, it is not producing the consolidation and 
political mobilization along ethnic and sectarian lines as intended by 
its architects. Quite the opposite, the pervasive violence and 
uncertainty is leading to fragmentation within communities, political 
blocks, and individual parties. Warlordism is emerging as rogue 
commanders assume control of fragments of militias and individual units 
of the state security forces.
    A resident of a Sunni neighborhood in Baghdad recently complained 
to me that Sunni fighters kill more of their own kin than they do Shia 
militias. Tribal rivalries broke into open conflict in the Anbar 
province this summer pitching Sunni tribes against each other and 
against the foreign al-Qaeda fighters. The head of the prominent Tamim 
tribe recently expressed a widely held sentiment among fellow Sunnis 
when he lambasted the ``Iraqi un-Islamic Party'' which purports to 
represent them in government. Likewise among the Shiites, there are 
frequent and violent confrontations between the SCIRI-controlled 
militias and police forces on one side, and militias associated with 
the Sadrist movement, on the other. These confrontations allowed the 
Sadrists at various times to briefly seize control of most major cities 
in central and southern Iraq. The competition to control Basra's oil 
smuggling business among various militias and political parties often 
takes the form of street warfare. Less overtly, tensions bubble just 
under the surface between the two main Kurdish parties and between them 
on one side and Kurdish Islamists on the other. Outburst of separatism 
by Kurdish leaders--like the recent spat over the national flag--should 
be viewed in the context of competition for power in Kurdistan itself.
    The Sadrist Movement is emblematic of the complexities and 
contradictions of Iraq's political and security landscape. While SCIRI 
and other political groups control government positions and resources, 
the Sadrists control the street. They nurture a nationalist image 
clashing occasionally with Multinational Forces and deriding the new 
elite who came with the invasion. This did not stop them from actively 
participating in the political process. The Sadrists have 30 members of 
Parliament and 6 ministers. Many Shia ex-Baathists joined the Sadrists 
after the collapse of the regime yet the movement is most vocal in 
seeking revenge against regime officials. Among Shia groups the 
Sadrists are the least likely to employ sectarian rhetoric yet their 
warlords are implicated in the worst instances of sectarian violence. 
The Sadrists try to emulate Hezbollah in Lebanon by seeking to protect 
and provide social services to their constituents and by meting out 
vigilante justice against criminals and those engaged in what they deem 
to be ``un-Islamic'' conduct. But its militias are undisciplined and 
often engage in looting and criminal activities themselves. The Sadr 
leadership freely admits to having only indirect control over their 
fighters. The Sadrists style themselves as the representatives of the 
poor and downtrodden. Indeed their main strength is the support of 
millions of poor Arab Shia in the rural south and the slums of Baghdad 
who are in a rebellious mood aimed at the establishment regardless of 
its sectarian color. As such SCIRI and other Shia groups representing 
the merchant and religious elite with strong ties to Iran are the 
Sadrists' natural enemy. In short, the Sadrists are simultaneously 
fighting a nationalist insurgency, a revolt against the establishment 
and a sectarian conflict.

                STATE WEAKNESS AND THE POLITICAL PROCESS

    The pervasiveness of the violence in Iraq today, the persistent 
power vacuum and progressive hollowing out of the state are components 
of a vicious circle. State weakness sends signals to the various groups 
that they can, and, in fact, need to defend their interests and achieve 
their goals through violent means. The political process over the past 
3 years was supposed to fill the vacuum by establishing a framework 
where Iraqis can reconcile competing interests through peaceful means. 
The goal was to establish a legitimate public authority which would 
protect Iraqis and provide them with essential services. Despite 
enormous efforts, expenditures and sacrifice by Iraqis, Americans, and 
others, this goal has yet to be achieved.
    It is tempting under such circumstances to blame everything on 
enemies and external influences such as al-Qaeda and Iraq's neighbors. 
Iraqis habitually blame their woes on the Americans, Iran, Arab States, 
Israel, Saddam, and so on. There is no question that external factors, 
sometimes by intent and sometimes by mistake, have played a role in 
shaping the current predicament. But the roots for such consistent 
failure need to be explored and addressed inside society itself.
    Despite overcoming great risks to vote in two elections and a 
referendum, Iraqis have little faith in the political process and the 
leadership it has produced. Indeed political participation for most 
Iraqis has been limited to these three votes. There are few in Iraq 
today who believe in the viability and sustainability of the new 
regime. A substantial majority sits on the proverbial fence. This is 
not only a result of the authoritarian legacy or the fact that change 
came from the outside. It is also the result of disappointed hopes and 
broken promises over the past 4 years.
    Fear and apathy are the most pervasive sentiments in Iraq today. 
They provide the perfect cover for corruption, crime, and terror and 
sap the energy from the enormous task of reconstruction. These 
sentiments extend to many officials and politicians who do not shy from 
dismantling the machinery of government and the state they have been 
entrusted with in pursuit of short-term narrow gains. One could even 
hear echoes of this apathy in the recent interview by Prime Minister 
Maliki with the Wall Street Journal.
    Faced with this predicament, there is a hardening of positions on 
all sides and a determination to go for ``one last push.'' This is not 
only expressed through the debilitating terrorist and militia violence 
but also in the posture of the Iraqi Government.
    The model of a full spectrum ``National Unity'' government is 
clearly not working and has indeed exacerbated the decline of the 
state. The farming out of ministries to individual parties and groups 
produced a weak and divided government unable to function as a team.
    The strongest parties in government, particularly the SCIRI and the 
Kurds, seem resolved to build a narrower coalition government which may 
exclude the Sadrists and some Sunni parties. This has already taken 
place on the ground with Sunni parties only nominally participating in 
government and the Sadrists boycotting it.
    Without the Sadrists, however, this coalition has little grassroots 
support. It will have to rely more on cordon and will be more 
susceptible to external influences. It will be even more dependent on 
continuous U.S. support.
    The handling of the Saddam execution is illustrative of the 
hardening of the government's stance. The rush to execute the former 
dictator, the rhetoric preceding it and the manner in which it was 
carried out were clearly designed to intimidate the Sunnis.
    The government has also hardened its rhetoric and actions against 
political opponents, closing down two opposition TV stations and 
issuing an arrest warrant for the most prominent opposition figure--the 
head of the Association of Muslim Scholars.

                             SECURITY PLANS

    The security plan announced a couple of days ago is the culmination 
of this approach. While officially targeted at all militias and armed 
groups, the Prime Minister has clearly indicated that he views Sunni 
violence as the main source of tensions and Shia militias as a reaction 
to Sunni violence.
    It is not clear yet whether the government will limit the targets 
of the security plan to Sunni groups or whether it will also take on 
the Sadrists. Either way it is unlikely that it will be able to muster 
the resources necessary to achieve better results than previous 
efforts, including the two recent Baghdad security plans. Even a 
temporary U.S. surge in support of the plan is no guarantee for 
achieving sustainable outcomes. A military offensive--especially if it 
fails to protect civilians on all sides--is liable to inflame the 
sectarian conflict and make a peaceful settlement even less likely. The 
U.S. forces can find themselves embroiled, as a party, in the sectarian 
conflict.
    There is no doubt that there is an urgent need to confront the 
terrorists, criminals, and those spreading sectarian hatred and to 
protect civilians from them. This can only be achieved on the basis of 
legitimacy and respect for human rights and the rule of law. It is, 
therefore, particularly disconcerting when the Iraqi Government insists 
on taking over control of the security portfolio in order to fight the 
enemies ``our way,'' dispensing with what they view as exaggerated and 
misplaced U.S. concern for human rights.
    The new security plan and the associated surge option emphasises 
the aspect of struggle between a nascent democracy and its opponents. 
Yet if it is carried out without regard to human rights and in a way 
that exacerbates sectarian tensions, it is only likely to make matters 
worse and destroy the very democracy it seeks to protect.
    If the conflict in Iraq was primarily about occupation and 
resistance then a speedy withdrawal of coalition forces would offer the 
best solution. In today's context a withdrawal will cause a spike in 
other forms of violence and precipitate the collapse of the last 
remnants of the Iraqi state unleashing an open-ended conflict with 
unpredictable consequences.
    A solution based on ethnic segregation emphasises another aspect of 
the conflict. But in the context of fragmentation and warlordism, it is 
unlikely to bring any relief. On the contrary it will exacerbate ethnic 
cleansing and undermine regional stability.

                            NATIONAL DIALOG

    Ultimately the violence in Iraq can only end through a political 
process which unites Iraqis rather than dividing them. For this to 
happen it is necessary to engage all constituencies in the shaping of 
the new Iraq and provide them with a sense of ownership in the outcome. 
This requires open and inclusive dialog and readiness for compromise on 
all sides. It will require broadening the political process to include 
those Iraqis who still believe in nation-building and coexistence 
rather than limiting it to the combatants and extremists on all sides. 
Current national dialog and reconciliation efforts have fallen short of 
these ideals.
    Dialog will clearly require regional and international mediation. 
International assistance is needed to help identify the protagonists, 
bring them to the negotiations, and encourage them to compromise. In 
short Iraq is in need of an internationally mediated peace process.
    The International Compact with Iraq offers a platform for such 
dialog as well as a framework for mobilizing international assistance 
once a settlement is reached. Other initiatives by the United Nations 
and the League of Arab States are essential for success in this 
context.
    The final settlement can not dispense with the achievements of the 
last 3 years. Those, including the constitution, will have to serve as 
the starting point of any discussion over Iraq's future. The 
constitution will need to be reviewed and implemented in a way that 
provides a basis for rational federalism. The winners of the political 
process will have to be prepared to make real concessions and genuinely 
share power and resources if compromise is to be achieved.
    Over the past months, Iraqi officials have been negotiating a 
framework for the management and sharing of Iraq's oil wealth which can 
provide a model for the shape of federalism in the new Iraq. 
Negotiators were in agreement that such framework should maximise the 
benefit from the wealth to all Iraqis and promote national cohesion. It 
should be based on the principles of efficiency, transparency, and 
equity. Transparency is particularly important as it helps build trust 
among the various parties and prevent abuse.
    The negotiators succeeded in overcoming a number of obstacles 
agreeing in particular on the federal management and sharing of all oil 
revenues, a structure for a National Oil Company and a framework for 
coordinating negotiations and contracting with International Operating 
Companies. Some details will still need to be worked out, chief among 
them is the exact mechanism for revenue-sharing. If the new framework 
is to contribute to national cohesion, transparency and accountability 
the budgetary process must be the main vehicle for revenue-sharing.
    A draft framework along these lines has been developed over the 
past months and will shortly be presented to Parliament. It is critical 
for the success of this effort that deliberations on the subject are 
carried out in an open, inclusive, and professional manner.

    Chairman Biden. Thank you very much.
    Doctor.

  STATEMENT OF DR. PAUL PILLAR, VISITING PROFESSOR, SECURITY 
     STUDIES PROGRAM, GEORGETOWN UNIVERSITY, WASHINGTON, DC

    Dr. Pillar. Mr. Chairman and members of the committee, 
thank you very much for the privilege of participating in this 
most important set of hearings. And I commend the committee, as 
Phebe Marr did in her opening comment, for its approach to 
educating the American public on this topic.
    You've asked me to address the relationship between the 
conflict in Iraq and other trends and developments in the 
Middle East. And, in that connection, I would focus on five 
major dimensions on which the war has had impact elsewhere in 
the region or on the perceptions and concerns of other Middle 
Eastern actors. Those five are: Sectarian divisions, extremism 
and terrorism, political change and democratization, ethnic 
separatism, and the alignments and the relative influence of 
other states in the region.
    With the violence in Iraq having increasingly assumed the 
character of a civil war between Sunnis and Shiites, as 
described by my fellow panelist, it has intensified sectarian 
sentiment, suspicions, and resentments all along the Sunni-Shia 
divide, only a portion of which runs through Iraq. Just as 
important, this divide coincides with longstanding and deeply 
resented patterns of economic privilege and political power.
    The evident conviction of many Iraqi Shiites, who, as we 
know, constitute a majority in their country, that their time 
for political dominance has come, cannot help but put 
revisionist thoughts in the minds of their coreligionists 
elsewhere in the region. The conflict in Iraq has made this 
sectarian divide more salient, not only for ordinary Shia and 
Sunni populations, but also for regimes. It's a concern for 
Saudi leaders, for example, because of Saudi sympathy for their 
Sunni brethren in Iraq, and because of any possibility of 
restiveness among the Saudi Shia minority. Looking out from 
Riyadh, Saudis today see themselves as encircled by a Shia arc 
that now includes control of both of the other major Persian 
Gulf countries--Iran and Iraq. King Abdullah of Jordan has 
spoken in similar terms about such a Shia arc.
    For the United States, one consequence--not the only one--
but one consequence of this regionwide intensification of 
sectarian sentiment is that it is difficult for the United 
States to do just about anything in Iraq without it being 
perceived, fairly or unfairly, as favoring one community over 
the other and thereby antagonizing either Sunnis or Shiites, or 
perhaps both, elsewhere in the region.
    A second dimension on which the war in Iraq is having 
repercussions throughout the Middle East, and, in this case, 
even beyond, concerns extremist sentiment and the threat of 
jihadist terrorism. Iraq is now the biggest and most prominent 
jihad, and may ultimately have effects at least as significant 
as those of earlier ones, partly because it is seen as a 
struggle against the United States, in the eyes of the 
jihadists, the sole remaining superpower and the leader of the 
West. I concur, and I think just about any other serious 
student of international terrorism would concur, in the 
judgments recently declassified from the national intelligence 
estimate on terrorism which stated that--in the words of the 
estimators--that, ``The war in Iraq has become a cause celebre 
for jihadists. It is shaping a new generation of terrorist 
leaders and operatives. It is one of the major factors fueling 
the spread of the global jihadist movement, and is being 
exploited by al-Qaeda to attract new recruits and donors.''
    Some of the possible effects within the surrounding region 
may already be seen in, for example, the suicide bombings in 
Amman, in November 2005, which were carried out by Iraqis from 
the al-Qaeda-in-Iraq group.
    A third important regional dimension is the possibility of 
favorable political change, especially democratization, within 
Middle Eastern countries. One hopeful development in the Middle 
East over the last few years has been an increase in open 
discussion of such political change. And I believe the current 
administration, with its rhetorical emphasis on 
democratization, deserves at least a share of the credit for 
that.
    In looking not just for talk, but for meaningful reform, 
however, it is harder to be encouraged. What passes for 
political reform in the Middle East has generally been, in 
countries such as Egypt, slow, fragmentary, very cautious, 
subject to backsliding, and more a matter of form than of 
substance.
    It is difficult to point convincingly to effects, one way 
or the other, that the war in Iraq has had on political reform 
in other Middle Eastern states, but, in my judgment, the all-
too-glaring troubles in Iraq have tended, on balance, to 
discourage political reform in other Middle Eastern countries, 
for two reasons. First, the demonstration of what can go 
terribly wrong in a violent and destructive way has been a 
disincentive to experiment with political change. Middle 
Eastern leaders, like political leaders anywhere, tend to stick 
with what has worked with them so far when confronted with such 
frightening and uncertain consequences of change. And, second, 
the identification of the United States with both the cause of 
democratization and the war in Iraq has, unfortunately, led the 
former subject to be tarnished with some of the ill will and 
controversy associated with the latter, however illogical that 
connection may be.
    The fourth major issue, and an important one for three of 
the states that border Iraq, is ethic separatism. And here, of 
course, we're talking about the status of the Kurds, the 
prototypical stateless ethnic group. Kurdish separatism is a 
concern for both Syria and Iran, for example, which have 
significant Kurdish minorities. The strongest worries, however, 
are in Turkey, where Kurds constitute about 20 percent of the 
population and where the organization that has usually been 
known as the Kurdistan Workers Party, or PKK, waged an 
insurgent and terrorist campaign that left an estimated 35,000 
people dead. Ankara has been very sensitive about any 
suggestion of independence for Iraqi Kurdistan because of 
worries about rekindling separatist sentiment among Turkish 
Kurds. Turkey also is unhappy about what it regards as 
insufficient action by Iraq or the United States against PKK 
fighters who have taken refuge in northern Iraq.
    The final set of issues I would highlight concerns effects 
on the geopolitics of the Middle East; that is, on the relative 
power and the foreign policies of neighboring states. Among the 
neighbors the largest winner has been Iran. The war has 
crippled what had been the largest regional counterweight to 
Iranian influence, not to mention doing away with a dictator 
who started a war in the 1980s that resulted in the deaths of 
hundreds of thousands of Iranians. Iranians today view the war 
in Iraq with mixed motives. The current leadership in Tehran 
probably is pleased to see the United States continue to be 
bogged down and bleeding in Iraq for the time being, but it 
also has no reason to want escalating and unending disorder on 
its western border. Tehran has been reaching out and providing 
assistance to a wide variety of Iraqi groups. Although some of 
this assistance may help to make trouble for United States 
forces, it is best understood as an effort by Tehran to cast 
out as many lines of influence as it possibly can do, that 
whenever the dust in Iraq finally settles, it will have a good 
chance of having the friendship of, or at least access to, 
whoever is in power in Iraq.
    Syria is another neighbor that faces a significantly 
changed geopolitical environment as a result of events in Iraq. 
The bitter and longstanding rivalry between the Syrian and 
Iraqi wings of the Baathist movement had been a major 
determinant of Syrian foreign policy for many years. It was the 
principal factor that led Damascus to break ranks with its Arab 
brethren and ally with Iran during the Iran-Iraq war. The 
demise of the Iraqi Baathist regime has changed all this, as 
punctuated by the restoration of diplomatic relations just 2 
months ago, in November, between Syria and Iraq. Sectarian 
considerations also must enter into thinking in Damascus, where 
the regime is dominated by the minority Alawite sect, but rules 
a Sunni majority. Meanwhile, Syria's main foreign-policy aim 
continues to be return of the Golan Heights, which Syrian 
leaders realize could come about only through cooperation with 
the United States.
    I've highlighted what I regard as the main issues that 
involve the regional impact of this war. They are not the only 
issues, of course. A major concern of Jordan, for example, is 
the influx onto its territory of an estimated 700,000 Iraq 
refugees. Syria also faces a major Iraqi refugee problem, as do 
Lebanon and Egypt, and, to lesser degrees, other neighboring 
states.
    Oil is another interest for several Middle Eastern states, 
given the obvious effects that different possible levels of 
Iraqi production and export could have on the oil market, and, 
thus, on the finances of these countries.
    A concluding point, Mr. Chairman, concerns the United 
States directly. Given how much the war in Iraq has become a 
preoccupation for the United States, it necessarily colors 
virtually all of our other dealings with countries in the 
region. It has been one of the chief reasons for the decline in 
the standing of the United States among publics in the region, 
as recorded by opinion polls by such organizations as the Pew 
group taken over the last several years. It has been a reason 
for concern and doubt among Middle Eastern governments 
regarding the attention and commitment that Washington can give 
to other endeavors. And Middle Eastern governments know that it 
has, in effect, relegated to a lower priority almost every 
other U.S. interest in the Middle East.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of Dr. Pillar follows:]

  Prepared Statement of Dr. Paul Pillar, Visiting Professor, Security 
         Studies Program, Georgetown University, Washington, DC

    Mr. Chairman and members of the committee, thank you for the 
privilege of participating in this very important series of hearings 
related to the conflict in Iraq. I have been asked to address the 
relationship between that conflict and other trends and developments in 
the Middle East.
    Events in other countries in the region will depend primarily on 
issues and conditions in those countries; in my judgment, the hoped-for 
beneficial demonstration effects that success in Iraq would have had on 
the politics of the broader Middle East have always been overly 
optimistic. Nonetheless, the development of a multifaceted and 
worsening armed conflict in Iraq does have significant implications for 
the rest of the region and by implication for U.S. interests in the 
region. Unfortunately, conflict and instability tend to have greater 
repercussions in a neighborhood than do success and stability.
    In the case of Iraq and the Middle East, regional consequences 
involve concerns by neighbors about what may yet lie ahead as well as 
adjustments that regional actors already have made. The consequences 
involve regimes in the region as well as nonstate actors such as 
terrorist groups. And they involve direct consequences of the violence 
in Iraq as well as more indirect reverberations from the conflict 
there.
    I want to emphasize how much uncertainty is involved in trying to 
analyze the regional impact of the current war in Iraq, much less of 
various future scenarios or policy options. It is simply impossible to 
predict the full range of important regional effects, partly because of 
the uncertainty that clouds Iraq's own future but also because of the 
complexity of factors affecting events elsewhere in the Middle East. 
Any prognostications that speak with certainty about particular future 
effects ought to be met with skepticism.
    With that understanding, I would identify five major dimensions on 
which--although specific future consequences may be uncertain--the war 
in Iraq already has had discernible impact elsewhere in the Middle East 
and is likely to have more, and which, therefore, are worthy of 
attention as debates over policy proceed. Those five are: Sectarian 
divisions, extremism and terrorism, political change and 
democratization, ethnic separatism, and the alignments and relative 
influence of states in the region.

                           SECTARIAN CONFLICT

    Sectarian divides within the Muslim world deserve to be discussed 
first, because the violence in Iraq has increasingly assumed the 
character of a civil war between Sunni and Shia. As such, it has 
intensified sectarian sentiment, suspicions, and resentments all along 
the Sunni-Shia faultline, only a portion of which runs through Iraq. It 
would be almost impossible to overstate how strongly this divide, which 
the Iraq war has made more salient, stokes feelings and fears among 
many people of the Middle East. Rooted in centuries-old disputes over 
succession to the Prophet, the conflict manifests itself today in, for 
example, the perspective of some Sunnis (particularly the more 
doctrinaire Wahhabis of Saudi Arabia) that Shia are not even true 
Muslims. Just as important, the sectarian divide coincides with 
resented patterns of economic privilege and political power.
    The special significance of Iraq is that, although Shiites are a 
minority of Muslims worldwide, they are a majority in Iraq (as well as, 
of course, next door in Iran). The evident conviction of many Iraqi 
Shiites that their time for political dominance has come cannot help 
but put revisionist thoughts in the minds of their coreligionists 
elsewhere in the region. These include the Shia minority in Saudi 
Arabia, who are concentrated in the oil-rich eastern province and see 
themselves treated as second-class citizens. They include the Shiites 
who constitute a majority in Bahrain but are still under the rule of a 
Sunni government. And they include Shiites in Lebanon, who probably are 
the fastest-growing community in that religiously divided country and 
who believe that current power-sharing arrangements give them an 
unfairly small portion of power--a sentiment exploited by Lebanese 
Hezbollah.
    The conflict in Iraq has made this sectarian divide more salient 
not only for Shia populations but also for regimes. The sectarian 
coloration of that conflict is an acute concern for Saudi leaders, for 
example, because of their own sympathy for Sunni Arabs in Iraq, the 
emotions of other Saudis over the plight of their Sunni brethren in 
Iraq, and any possibility of restiveness among Saudi Shiites. Looking 
out from Riyadh, Saudis now see themselves as encircled by a Shia arc 
that includes control of both of the other large Persian Gulf States--
Iran and Iraq--Shia activism in Lebanon, and significant Shia 
populations in the Arab Gulf States as well as to their south in Yemen. 
King Abdullah of Jordan also has spoken publicly about such a Shia arc.
    For the United States, this intensification of sectarian conflict 
carries several hazards, only one of which is the specter of direct 
intervention by other regional actors in the Iraqi civil war. There 
also are issues of stability in the other countries that must manage 
their own part of the Sunni-Shia divide. And not least, there is the 
difficulty of the United States doing almost anything in Iraq without 
it being perceived, fairly or unfairly, as favoring one community over 
the other and thereby antagonizing either Sunnis or Shiites, or perhaps 
both, elsewhere in the region.

                        EXTREMISM AND TERRORISM

    A second dimension on which the war in Iraq is having repercussions 
throughout the Middle East--and in this case even beyond--concerns 
extremist sentiment and the threat of international terrorism, 
particularly from Islamist terrorists often styled as ``jihadists.'' 
Other wars in other Muslim lands have served as jihads in recent years, 
including in Bosnia, Chechnya, Kosovo, and especially Afghanistan. The 
Afghan jihad against the Soviets served as an inspiration to radical 
Islamists, a training ground for terrorists, and a networking 
opportunity for jihadists of diverse nationalities. We have seen the 
effects in much of the international terrorism of the past decade and a 
half. Iraq is now the biggest and most prominent jihad. It may 
ultimately have effects at least as significant as those of earlier 
jihads, because it is taking place in a large and important country 
that is part of the core of the Arab and Muslim worlds, and because it 
is partly a struggle against the United States, the sole remaining 
superpower and the leader of the West.
    The effects of the war in Iraq on international terrorism were 
aptly summarized in the National Intelligence Estimate on international 
terrorism that was partially declassified last fall. In the words of 
the estimators, the war in Iraq has become a ``cause celebre'' for 
jihadists, is ``shaping a new generation of terrorist leaders and 
operatives,'' is one of the major factors fueling the spread of the 
global jihadist movement, and is being exploited by al-Qaeda ``to 
attract new recruits and donors.'' I concur with those judgments, as I 
believe would almost any other serious student of international 
terrorism.
    The full effects on terrorism of the war in Iraq, as of the earlier 
anti-Soviet campaign in Afghanistan, will not be seen and felt for a 
good number of years. But some of the possible effects within the 
surrounding region may already be seen in, for example, the suicide 
bombings in Amman, Jordan, in November 2005, which were perpetrated by 
Iraqis who belonged to the ``al-Qaeda in Iraq'' organization. Another 
possible effect is the recent use in Afghanistan of suicide bombings, a 
tactic not previously part of the repertoire of insurgents there but 
perhaps partly exported from, or inspired by, Iraq where the tactic has 
been used extensively.
    I believe that the most important variable in Iraq in the months or 
years ahead as far as the effects on international terrorism are 
concerned is the sheer continuation of the war, as well as the 
continued U.S. participation in it. ``Jihad'' means, literally, 
``struggle.'' What is important to the jihadist, more so than any 
particular outcome, is participation in a struggle. As long as the 
jihadists' struggle in Iraq is not completely extinguished, it will 
continue to inspire the Islamist rank-and-file and to be exploited by 
the likes of al-Qaeda.

                  POLITICAL CHANGE AND DEMOCRATIZATION

    A third important regional dimension is the possibility of 
political change within Middle Eastern countries, especially change in 
the favorable direction of more democracy and more civil and political 
liberties in what is still, by most measures, the most undemocratic and 
illiberal region of the world. One hopeful development in the Middle 
East over the last few years has been an increase in open discussion of 
issues of political change. There has been, at least, more talk about 
the subject; it has been more of a live topic in more Middle Eastern 
countries than a few years earlier. I believe the current U.S. 
administration, with its rhetorical emphasis on democratization, 
deserves a share of the credit for this.
    In looking not just for talk but for meaningful action, however, it 
is harder to be encouraged. What passes for political reform in the 
Middle East has generally been slow, fragmentary, very cautious, 
subject to backsliding, and more a matter of form than of substance.
    It is difficult to point convincingly to effects, in one direction 
or another, that the war in Iraq has had on political reform in other 
Middle Eastern states. Inspired statesmanship should have good reason 
to move ahead with reform regardless of what is happening in Iraq. But 
most Middle Eastern statesmanship is not inspired. And in my judgment, 
the all-too-glaring troubles in Iraq have tended, on balance, to 
discourage political reform in other Middle Eastern countries, for two 
reasons.
    First, the demonstration of what can go wrong--in a very violent 
and destructive way--has been a disincentive to experiment with 
political change. Middle Eastern leaders, like leaders anywhere, tend 
to stick with what they've got and with what has worked for them so 
far, when confronted with such frightening and uncertain consequences 
of political change. If today's Iraq is the face of a new Middle East, 
then most Middle Eastern leaders, not to mention most publics, do not 
want to be part of it.
    Second, the identification of the United States with both the cause 
of democratization and the war in Iraq has led the former to be 
tarnished with some of the ill will and controversy associated with the 
latter. This connection is, of course, illogical. But it should not be 
surprising, given that some in the Middle East had already tended to 
view liberal democracy with suspicion as an alien import from the West.
    The issue of political change and democratization is important for 
many Middle Eastern countries, but I would mention two as being of 
particular significance. One is Egypt, the most populous Arab country 
and a keystone of U.S. policy in the region. The Mubarak government has 
evidently seen the need at least to appear to be open to reform, as 
manifested in the holding in 2005 of an ostensibly competitive 
Presidential election, in place of the prior procedure of a one-
candidate referendum. But such procedural change has not reflected any 
significant loosening of Mubarak's hold on power. A continuing 
emergency law helps to maintain that hold, opposition Presidential 
candidates have not been treated fairly, and the most popular and 
effective opposition party remains outlawed.
    The other key country is Saudi Arabia, in which neither the form 
nor the reality is remotely democratic, and in which power is still in 
the hands of a privileged royal family in alliance with a religious 
establishment. King Abdullah appears to recognize the need for reform 
if Saudi Arabia is not to fall victim to more sudden and destructive 
kinds of change. He faces stubborn opposition, however, not least from 
within the royal family. Anything in the regional environment that 
makes political reform appear riskier will make his task harder.

                           ETHNIC SEPARATISM

    The fourth major issue, and an important one for three of the 
states that border Iraq, is ethnic separatism. This really means the 
issue of the Kurds, who ever since the peace of Versailles have been 
the prototypical stateless ethnic group. Kurdish separatism is a 
concern for Syria, in which Kurds, who are concentrated in the 
northeast part of the country, constitute a bit less than 10 percent of 
the Syrian population. It also is a concern in multiethnic Iran, where 
Kurds in the northwest represent about 7 percent of Iran's population. 
Kurdish dissatisfaction led to deadly riots in Syria in 2004 and in 
Iran in 2005. The strongest worries, however, are in Turkey, where 
Kurds constitute about 20 percent of the population and where the 
organization usually known as the Kurdistan Workers Party, or PKK, 
waged an insurgent and terrorist campaign that has left an estimated 
35,000 people dead. Ankara has been very sensitive about any suggestion 
of independence for Iraqi Kurdistan, because of worries about 
rekindling separatist sentiment among the Kurds of southeastern Turkey. 
The Government of Turkey also has a strong interest in the status of 
PKK fighters who have taken refuge in northern Iraq, and it has been 
unhappy about what it considers to be insufficient U.S. or Iraqi 
efforts against those fighters.
    The views of regional governments toward the Kurds, as events in 
Iraq play out over the coming months, will depend at least as much on 
the legal and political forms applied to Iraqi Kurdistan as on the 
practical facts on the ground. After all, since 1991 the Iraqi Kurds 
have enjoyed--and neighboring governments have lived with--what has 
largely been de facto independence, despite Kurdish participation in 
politics in Baghdad. The situation may be similar to that of Taiwan in 
the Far East, in which de facto independence is tolerated but any move 
to make it de jure would be destabilizing.

               ALIGNMENTS AND POWER OF NEIGHBORING STATES

    The final set of issues I would highlight concerns the effects the 
situation in Iraq is having on the geopolitics of the Middle East--that 
is, the effects on the relative power, and the foreign policies, of 
neighboring states. The geopolitical impact stems from at least three 
aspects of that situation: The change in the ideological map of the 
region resulting from removal of the Iraqi Baathist regime; the 
competition of neighboring states for influence within Iraq; and the 
debilitating effects of the war itself, which has greatly weakened what 
had been one of the stronger states in the area.
    Among the neighbors, the largest winner has been Iran. The war has 
not only toppled the dictator who initiated an earlier war that killed 
hundreds of thousands of Iranians; it also has crippled what had been 
the largest regional counterweight to Iranian influence. Meanwhile, the 
all-consuming preoccupation that the Iraq war has become for the United 
States, along with the growing unpopularity of the war among Americans, 
probably has made Iranian leaders less fearful than they otherwise 
might have been about forceful U.S. action, including military action, 
against Iran. This confidence is tempered, however, by the fact that 
the occupation of Iraq has completed a U.S. military encirclement of 
Iran, a posture that nonetheless suits the internal political purposes 
of Iranian hard-liners as they play off an image of confrontation with 
Washington.
    Iranians today view the war in Iraq with a mixture of motives. The 
current leadership in Tehran probably is pleased to see the United 
States continue to be bogged down and bleeding in Iraq for the time 
being. But it also has no reason to want escalating and unending 
disorder on its western border. Tehran seems determined to exercise as 
much influence as it can inside Iraq as whatever process of political 
reconstruction there unfolds. It has been reaching out, and providing 
assistance to, a wide variety of Iraqi groups, not just its traditional 
allies such as the Supreme Council for the Islamic Revolution in Iraq. 
Although some of this assistance may help to make trouble for U.S. 
forces, it is best understood as an effort by Tehran to throw out as 
many lines of influence as it can so that whenever the dust in Iraq 
finally settles, it will have a good chance of having the friendship 
of, or at least access to, whoever is in power. Iranian leaders 
probably realize that creation in Iraq of a duplicate of their own 
system of clerical rule is not feasible, but they at least want to 
avoid a regime in Baghdad that is hostile to Iran.
    Iranian leaders almost certainly hoped, prior to March 2003, that 
they would be able--as was the case in Afghanistan--to work 
cooperatively with the United States on the political reconstruction of 
Iraq. That, of course, did not happen. But the shared U.S. and Iranian 
interest in avoiding escalating and unending disorder in Iraq probably 
would make Tehran, despite all the ill will that has transpired over 
other issues, receptive to engagement with Washington. The Iranians 
would want such engagement, however, not to be limited to any one 
issue--be it Iraq, or the nuclear program, or anything else--but 
instead to address all matters in dispute.
    Syria is another neighbor that faces a significantly changed 
geopolitical environment as a result of events in Iraq. The bitter and 
longstanding rivalry between the Syrian and Iraqi wings of the Baathist 
movement had been a major determinant of Syrian foreign policy. It was 
the principal factor that led Damascus to break ranks with its Arab 
brethren and to ally with Iran, and later to participate in Operation 
Desert Storm, which reversed Saddam Hussein's aggression in Kuwait. 
With the demise of the Iraqi Baathist regime, the foreign policy 
equation for Syria has changed. Syria restored relations with Iraq in 
November 2006. Although the economic ties between Syria and Iran are 
substantial, Syria's main reason for its otherwise counterintuitive 
alliance with Tehran is over. The sectarian dimension also must 
influence thinking in Damascus, because the regime is dominated by the 
minority Alawite sect but rules a Sunni majority. The implication of 
all these factors is that there is significant potential for coaxing 
Syria away from the alignment with Iran and its client Hezbollah, and 
toward more cooperation with the United States, with the hope for Syria 
of realizing what is still its main foreign policy goal: The return of 
the Golan Heights.
    Other regional states, including the gulf Arabs, are conscious of 
the strength that Iraq once had and that, if it were again to become 
stable and united, could be the basis for Iraq once again throwing its 
weight around. They also are conscious of the fact that the issues 
involved in previous conflicts involving Iraq were not all the creation 
of Saddam Hussein. The longstanding enmity between Persian and Arab 
that underlay the Iran-Iraq war certainly was not. And Kuwaitis viewing 
the turmoil to their north know that the notion of Kuwait as rightfully 
the 19th province of Iraq also predated Saddam, and has been part of 
the undercurrent of relations with Iraq ever since Kuwait became 
independent.
    I have highlighted several of the main issues that involve the 
regional impact of the Iraq war. They are not the only issues. A major 
concern, for example, of another of Iraq's immediate neighbors--
Jordan--is the influx of approximately 700,000 Iraqi refugees. Syria 
and other neighbors also are facing a significant Iraqi refugee 
problem. Oil is another issue of high interest to several Middle 
Eastern states, given the effects that different levels of Iraqi 
production and export could have on oil prices and consequently on the 
finances and economies of those states.
    A concluding point concerns the United States directly. Given how 
much the war in Iraq has become a preoccupation for the United States, 
it necessarily colors virtually all of our other dealings with the 
Middle East and with countries in the region. It has been one of the 
chief reasons for the slide in the standing of the United States among 
publics in the region, as recorded by opinion polls taken over the last 
several years. It has been a reason for concern and doubt among 
governments regarding the attention and commitment that Washington can 
give to other endeavors. And Middle Eastern governments know that it 
has, in effect, relegated to a lower priority almost every other U.S. 
interest in the region.

    Chairman Biden. Thank you very much. Your collective 
testimony has generated a number of questions, and let me 
begin.
    Dr. Marr and Mr. Said, I've actually--as many have--read 
the Iraqi Constitution, and I have it in front of me, and it is 
a--if I were to make a comparison, I'd compare it to our 
Articles of Confederation rather than the American 
Constitution. And it lays out in detail how regions can become 
regions; and, if they become regions, what authority they have, 
the 18 governates can. Tell me, if you will, Dr. Marr, in light 
of your point, on page two or three, in which you say, ``Iraq 
is not likely to be a unified state dominated by a strong 
central government in Baghdad for at least some time'' and 
``the high degree of decentralization called for in the 
Constitution.'' How do we square that?
    Dr. Marr. I've read the Constitution, too, but, I must say, 
not in the last month, so you may have to spark----
    Chairman Biden. Well, then----
    Dr. Marr. No; I know the whole issue of regionalism--the 
question of whether Iraq, or rather federalism, is going to be 
defined by large regions is a very controversial one. Now, we 
have a clearly formulated region in the KRG, the Kurdish 
Regional Government, which, as you know, would like, in my 
view, to expand and take in other Kurdish-majority areas, 
including Kirkuk, which I don't believe will be done entirely 
tranquilly. I think that's a flashpoint that could cause a lot 
of difficulty. And I also believe that, within that region, 
while the Kurds are cooperating--and I give them high marks on 
a lot of things--looking beneath the surface, some of these 
differences, some of this fragmentation exists there, as well. 
However, the Kurds have a solid region. Now, what is at stake 
here is whether there's enough homogeneity among these two 
other sectarian groups--``The Shia'' and ``The Sunnis''--to 
form a region similar to that in Kurdistan. And one particular 
party, SCIRI, Supreme Council for the Islamic Revolution in 
Iraq--I won't say that again--would like to form a nine-
province Shia region in the south, which, of course, they 
expect to control.
    If we look at that map up there, it looks as though there's 
a Shia majority down there, but, in fact, there's much more 
fragmentation. I don't believe that that could be accomplished 
without quite a bit of controversy with others, for example, 
the Sadrists, just to mention one. And, indeed, that piece of 
legislation, as you know, the legislation to enable the 
Parliament to form that region, was postponed for 18 months, 
precisely because people see it as controversial.
    When we come to the so-called Sunni region, that's even 
more difficult, because the Sunnis, in my view--you can't speak 
of them as ``The Sunnis'' because they're very diverse. As a 
whole, Sunnis have played the major role in the formation of 
the state, and have dominated the state--not exclusively, but 
it's been something they feel they've done. Getting Sunnis to 
identify as Sunnis rather than Iraqis, nationalists, or even 
Arab nationalists, is extremely difficult.
    Last, but not least, there are large mixed areas, which are 
undergoing a lot of sectarian differentiation. They are a 
patchwork quilt. If we look at greater Baghdad, if we had a map 
here of where these areas are, Kirkuk, many other areas such as 
Diala, they are a nightmare. They include Kurds, Turkmen, Shia, 
Sunnis--actually creating borders, dividing them up, would be 
very difficult. And, in the end, I think we would have a 
system, if we follow through with this, which is, in some ways, 
repugnant to many people, that the dominant identity has to be 
what you were born with, in----
    Chairman Biden. If I can----
    Dr. Marr [continuing]. One way or another.
    Chairman Biden [continuing]. Interrupt. The dominant 
identity, as I read the Constitution, doesn't require it to be 
based upon a region, based upon ethnicity. In my seven visits 
to Iraq, I meet with people, and they say they want to have 
their local policeman running their local areas. They've gotten 
along very well. And they don't want a national police force 
dominated by a bunch of thugs patrolling their streets.
    Question. Do any of you picture, in your lifetime, the 
likelihood that a national police force will be patrolling the 
streets of Fallujah? It's a serious question. Does anybody see 
that in their lifetime?
    [No response.]
    Chairman Biden. I don't think so. I don't see it, either. 
So, it's about time, I think, we, maybe, stop pushing a rope 
here.
    One of the questions I have, as well, is: What is the role 
of Sistani? What influence does he possess now? Anyone. Yes.
    Mr. Said. Well, I'll address the issue of Sistani, but I 
also would like to come back on the issue of the Constitution.
    Sistani has great moral authority in Iraq, and it extends 
beyond the Shia community. However, that authority has been 
eroding over the past 3 years.
    Chairman Biden. Why?
    Mr. Said. In part, because Sistani himself has been 
manipulated, if you like, by some of the Shia political 
parties.
    Senator Boxer. I'm sorry, say that louder.
    Mr. Said. He has been--the image--the institution of Mr. 
Sistani has been manipulated by some of--by the--some of the 
Shia parties who have been trying to glean legitimacy from him. 
The institution of the Shia Marjiya has been used for political 
means to advance narrow party political objectives. And this 
has reflected negatively on--has tarnished, has limited--has 
reduced the omnipotence of Sistani. At the end of the day, it's 
very important to remember that Sistani is an apolitical--is a 
nonpolitical religious leader who does not like to meddle in 
politics. And he has largely withdrawn from interference since 
the last elections.
    Chairman Biden. Let me follow up with a question, since my 
time is up.
    Mr. O'Hanlon, you indicated that--which comports what we've 
been told--that there are roughly about 5,000 politically 
reliable, as well as well-trained, Iraqi forces. I listened 
this morning to Mr. Bartlett, speaking for the President--and 
I'm assuming he's going to say what Mr. Bartlett said today--
that, in a surge that will be in conjunction with Iraqi forces, 
who will be moved into neighborhoods, who will be the ones, 
``going door to door,'' do you believe there are a sufficient 
number of reliable Iraqi forces to work with whatever surge 
plan the President moves forward, if the President's plan 
envisions a significant Iraqi military initiative along with 
this surge?
    Dr. O'Hanlon. Right now, Senator, I'd say no. I think the 
only hope for changing that is if there can be some kind of a 
broad political dynamic that's created in the next couple of 
months, that's been different from what we've seen in the 
past--some resolution on sharing oil, on rehabilitating former 
Baathists who don't have blood on their hands, letting them 
regain their jobs, all the things that probably should have 
been done 2 or 3 years ago. There's some hope of creating--and 
it's, of course, a political question. It's less about training 
and less about the mathematics of the schedule, and more about 
this national need for consensus.
    Chairman Biden. Do you all agree that oil has the potential 
to be the glue that holds the country together, rather than 
splits it apart?
    Mr. Said. Definitely. And as the resolution on the oil 
negotiation shows, one could come up with solutions that go 
beyond the Constitution----
    Chairman Biden. Well----
    Mr. Said [continuing]. Beyond the----
    Chairman Biden [continuing]. There's been no resolution on 
the distribution of the revenue. There has been a resolution--
tentative, as I understand it--on who has authority to 
determine whether or not investments will be made, in what 
wells and where. But if you're sitting out there in the Sunni 
province, where you've got a lot of nice sand and shale, and 
not much else, you're going to want to know, ``How much is 
coming my way?'' in terms of revenue-sharing, and, ``What 
guarantees are there to be?'' In my understanding, that's the 
point that has not been resolved. Is that correct?
    Dr. Marr. I'm not entirely sure of that. But I think 
negotiations are going on now, and, to my surprise, I've been 
impressed by the fact that there have been some compromises on 
this--by the Kurds, for example, who are the most eager to get 
going on this. Maybe not enough compromises yet, but there have 
actually been some. So, I think it could move ahead in that 
direction, but it could also be a point of contention, 
depending on how it's done.
    Chairman Biden. That's encouraging. My time is up. I thank 
you.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    I appreciate the four statements. And I suspect that--I 
appreciate them even more having read, in the Wall Street 
Journal yesterday, a story called ``Nightmare Scenario,'' which 
relates to the U.S. withdrawal from the region. Now, although a 
lot of our debate, politically, has been over whether troops 
should come in or whether they should come out, and the 
timeframe for the coming out, and so forth, the Wall Street 
Journal had this paragraph that said, ``The United States is 
pushing a wide-ranging strategy to persuade Sunni allies that 
are serious about countering the rise of Iran in exchange for 
Arab help in Iraq and Palestinian territories. Key to the 
effort is to continue to promise to keep United States forces 
in Iraq for as long as necessary. But the United States is also 
beefing up the U.S. forces in the Persian Gulf, plans to deepen 
security cooperation with the gulf allies. The Pentagon has 
proposed sending a second carrier battle group to the gulf 
region. There are also advanced plans in the way to knit 
together the air defense systems of the six smaller states, 
including Qatar, Oman, and the United Arab Emirates, and to 
build a United States-administered missile defense system. 
Similarly, the Air Force is laying plans to lay up exercises 
with Arab allies in the region. One proposal calls for the 
United States to hold combined air exercise with Oman and the 
UAE.''
    Now, that's a very sizable agenda going on, quite apart 
from the debate that we're having as to whether as many as 
20,000 troops, in some form or other, get to Baghdad. I want to 
raise a question of the panel, of any of you. You've 
illustrated the interests of each of the regional governments, 
and discussed in your testimony, how critical U.S. presence is 
for them. Absent that, they have testified, either publicly or 
covertly, that they will take action--the Jordanians, even--to 
carve out, maybe, a space to take care of these 700,000 
refugees that you have mentioned; or the Saudis, quite overtly, 
that they may come to the assistance of Sunnis in Iraq under 
certain conditions. Likewise, the Syrians, conflicted, in a 
way, because of the nature of their government, but their Sunni 
majority has a deep interest in Iraq outcomes. Furthermore, the 
Turks, as you have mentioned, quite apart from Iran--
characterized as the big winner--each with important interests 
in Iraq.
    What if Secretary Rice, as she heads out to the area Friday 
to begin a very important and timely tour, were to suggest all 
of us need to come together--by ``all of us,'' I mean the 
United States and Iraq, the Turks, the Iranians and the Syrians 
and the Jordanians, and even the Egyptians and the Saudis--
around the same table to meet rather continuously? This is not 
the old debate, ``Should we have negotiations with Syria? 
Should we ever talk to Iran?'' Rather, the subject of 
conversation question is, each of these countries has an 
interest in Iraq, presently, and an interest in us--that is, 
the United States presence in the region. What about this 
carrier group? What about the six countries with conducting air 
exercises over here? What do they think about the United States 
having more troops in the general area? Where? What should they 
be doing? Now, we may not want to share all of our plans, 
although this is pretty explicit in the Wall Street Journal, in 
terms of a permanent presence. But absence means chaos for a 
good number of people. And you have to consider those who will 
take advantage of the situation in ways that, strategically, 
may be injurious to the United States and certainly a good 
number of other people, including the specter raised in the 
article of all-out warfare, which would likely constrict the 
supply of oil to everybody in the world, the price goes sky 
high, recessions occur--the subject, really not discussed 
today, but an implication of this predicament.
    Now, is it practical, if the Secretary were to say, ``I'd 
like to have a meeting. We can have it wherever you want to 
have it, but we'd like to see everybody around the table''--
what would be the response, at this point, of the neighbors? 
Would they come together? Would they want to see each other? 
Would they want to participate with us? Do you have any feel 
about some type of strategy, of grand diplomacy in which we, 
sort of, lay all the cards on the table and try to think 
through what is happening in this troubled period, which you 
all have said is going to take time to evolve--not 6 months or 
a year or so forth, but an evolutionary struggle for a state to 
evolve in Iraq, in which that kind of time can only be 
guaranteed if all the rest of the players are not restive and 
aggressive? Anyone have thoughts about this idea? Yes.
    Mr. Said. I think you raise a very important point. And 
there's a situation of putting the cart before the horse in the 
debate about Iraq--surge, withdrawal, troop movement. I think 
the decision on troops should come on the back of such 
settlement that you have outlined--a comprehensive regional 
agreement. Iraq's neighbors will have various attitudes toward 
that, because some of them, as has been suggested, are 
flourishing--and generally like the current state of affairs, 
although they fear deterioration. Others have been crying for 
attention. Saudi Arabia, in particular, had been demanding 
attention to the situation of Iraq, from the United States, as 
well as Turkey. So, there will be various responses.
    One problem with having a comprehensive regional conference 
to address all the issues in the region, that this is a--quite 
a big load for one conference, but there is no doubt that, as 
suggested, also, by the Baker-Hamilton Report, that there is 
need for a regional approach. Iraq cannot be solved on its own, 
Palestine cannot be solved on its own. But the decision on 
troops and troop movements should come on the back of such--the 
blueprint of such agreement, rather than come ahead of it.
    Senator Lugar. Yes.
    Dr. O'Hanlon. Senator, I'd like to add one word on this, 
and it's sort of a hawkish case for regional engagement, if you 
will, which is that, I--Paul Pillar mentioned, earlier, that 
Iran's interest here may be trying to maximize its influence. I 
think there's also a chance that Iran is trying to deal the 
United States a major strategic defeat and try to drive us, not 
only out of Iraq, but out of the region, and that Iraq--that 
Iran has gotten more ambitious as this war has gone worse.
    I would see one purpose of a regional conference as 
disabusing Iran of the notion that it can drive us out of the 
region, and sitting down and making it clear to Iran that they 
should have an interest in some level of stability in Iraq, 
because, even if Iraq totally fails, which it might, we are 
going to stay committed, to the extent our regional partners 
wish, to the Persian Gulf, and that Iran has no chance of 
driving us out of the region. I think that message is worth 
sending. I'd be very curious--I know people in this room have 
been articulate about the need for different options in Iraq, 
but I haven't heard anybody say we should get out of the 
Persian Gulf. And I think Iran needs to be disabused of the 
notion that they could drive us out.
    Senator Lugar. And particularly because we have 
negotiations with Iran about nuclear weapons. That goes on 
somewhere very close to this. And perhaps a feeling, by Iran, 
that, in fact, if we are in a withdrawal status would have, I 
think, a deep effect upon that set of negotiations.
    Dr. Pillar. Senator Lugar, if I could just add to what Mike 
said. If you look at the perspectives of, say, the Saudis--and 
the issue has been raised about Saudi concern, about the ties 
with the United States, and so on--it really isn't American 
troops fighting in Iraq that are most important to the Saudis, 
as far as their own security is concerned; it has to do with 
those other aspects of the U.S. presence, the overall U.S. 
security guarantee, and so on.
    And my other final comment would be, how the regional 
actors would respond to that kind of initiative depends on 
other things, as well, such as what the United States is doing 
vis-a-vis the Arab-Israeli conflict. And that's the reason the 
Iraq Study Group highlighted that issue, as well.
    Senator Lugar. Thank you.
    Chairman Biden. Thank you.
    Senator Kerry.
    Senator Kerry. Thank you very much, Mr. Chairman.
    There's so much to try to tackle, and it's hard to do, 
obviously, in a short period of time. We appreciate your 
testimony this morning.
    Let me try to cut to the, sort of--there's a short-term and 
a long-term set of interests here. The long-term interests are 
enormous. And you've just touched on them. I mean, obviously, 
none of us on either side of the aisle--I don't think anybody 
in Congress--wants to give short shrift to the large strategic 
interests we have in the region. And anybody who's been 
talking, like myself, about the need to push the process--and I 
recommended an international peace conference in--3 years ago. 
Nothing's happened. We've been sitting around not engaging in 
this kind of political resolution, while we've continued down 
the military side. But none of us have suggested that there 
isn't a huge interest in the stability of the region, in the--
in our neighbors, in a whole set of strategic issues. But when 
you measure those interests against what Iraq is doing to our 
interests, you come out on a real low side of that ledger. Iran 
is more powerful. Hezbollah is more powerful. Hamas is more 
powerful. ``The Shia Revival,'' as Vali Nasr refers to it, is 
more real. I mean, things that weren't staring us in the face 
are now staring us in every quarter. We're worse off.
    So, our current policy is, in fact, not protecting our 
interests, not doing for the forces that we want to support in 
those countries, what's in their interest. And, in the end, 
we're setting ourselves backward.
    Against that, you have to, sort of, ask yourself, OK, so 
where do you go here, to put those interests back on the table 
and resolve this? No. 1 issue in front of us is this question 
of more troops. Now, that speaks, I think, to both short and 
long term. Let me just come to it very quickly.
    General Abizaid said--and now he's leaving, we understand 
there's a transition, but I don't think you could quickly 
dismiss his experience, his being in the field, General Casey 
being in the field, and what they've observed and learned in 
that period of time--and he said, point blank on November 15 of 
last year, ``I've met with every divisional commander, General 
Casey, the corps commander, General Dempsey. We all talked 
together. And I said, `In your professional opinion, if we were 
to bring in more American troops now, does it add considerably 
to our ability to achieve success in Iraq?' And they all said 
no.''
    Now, Mr. Said, you just said, yourself, that adding more 
troops may, in fact, make it more difficult to get a 
resolution. So, my question to each of you, in sum, is: If 
there isn't sufficient evidence of this kind of summitry and 
diplomacy, if there isn't a sufficient political process in 
place--and I want your judgment as to whether or not there is--
will more troops have any chance of, in fact, getting what we 
want, or is it going to make matters worse? And, if it does, 
where are we, after putting them in, in 6 months, if it hasn't 
worked?
    Mr. O'Hanlon.
    Dr. O'Hanlon. Senator Kerry, very tough question. I like 
your idea of a ledger. On the positive side of the troop-surge 
proposal, I would say, we all know, tactically, there have 
never been enough troops in Iraq to clear and hold. So, that's 
the tactical argument for this case. It would have been a much 
more compelling argument 3 and 4 years ago than it is today, 
but I think it remains, at some level, in the plus column. On 
the negative column, of course, we know that there is no 
political resolution of these very sectarian divides----
    Senator Kerry. Well, hold on a minute. I mean, 30,000 
troops or 20,000 troops, is there anybody who imagines, 
measured against the task, that that's enough to do the job?
    Dr. O'Hanlon. You have to hope that you can get momentum in 
Baghdad, or in parts of Baghdad, and then that will begin to 
have a spillover effect. So, narrowly speaking, I would say no; 
there's no hope you can do it nationwide with 20,000 troops.
    Senator Kerry. Go ahead and finish up.
    Dr. O'Hanlon. Well, I think--I think, you know, that's the 
main tactical argument in favor. Most of the other arguments 
say, either there's a danger to this, to our Army and Marines, 
to the Iraqi sense of dependency on us, or it's not going to be 
enough.
    Getting to Senator Biden's question earlier, ``Are there 
enough Iraqi security forces to team with us to be 
dependable?'' Absolutely not, unless there's a much stronger 
political consensus in Iraq.
    So, I would not oppose the surge, but I would only support 
it if it's in the context of a much broader----
    Senator Kerry. Political settlement. And you don't see the 
political settlement effort or capacity there now.
    Dr. O'Hanlon. Not now.
    Dr. Marr. I would ask----
    Senator Kerry. Dr. Marr.
    Dr. Marr [continuing]. Very carefully, what these troops 
are going to do. I have some questions as they get involved in 
this complex sectarian situation and other issues. Are they 
going to attack simply Muqtada, or are they also going to 
attack insurgents? What are the Iraqis going to do? What are 
others going to do? What are these troops going to do, and what 
is the strategy that is going to be employed?
    One other issue, about sending them or not sending them in, 
is the question of how we get Iraqis--I don't want to say to 
just step up to the plate; that's a very simplistic idea--but, 
indeed, Iraqis themselves are the only ones who can ultimately 
sort out and move ahead on this sectarian strife issue. And 
whether sending the troops in and doing the job for them is 
going to provide an atmosphere which enables them to do it, or 
whether it's going to delay the hard choice they face. This is 
another issue----
    Senator Kerry. Do you see the political process in place to 
resolve the fundamental differences between an Abdul Aziz al-
Hakim and a Muqtada al-Sadr, between the very--the interests of 
the militias, the warlordism that Mr. Said just referred to, 
the Sunni reluctance to participate, the Sunni desire to 
reemerge as the people who run the country, the interests of 
certain individuals with respect to Iran, the Persian-Arab 
divide? I mean, all of these things are, it seems to me, so 
huge, so historically and culturally deep in this issue, that, 
as it further disintegrates into this morass of individual 
interests, you can't--our troops can't pull that back together, 
can they, Mr. Said?
    Mr. Said. No. Troops, alone, can never resolve this. I 
mean--well, there's one caveat to that, of course. If you send 
500,000 troops to Iraq, you may be able to steamroll the 
situation without there being a political consensus, but there 
is no--neither the resources nor the will to do that. So, given 
the lack of the possibility to mobilize the necessary troops, 
the troops need to come on the back of political consensus, on 
the back of a political settlement that is internationally 
mediated, that is supported by Iraq's neighbors, as well as the 
various communities in Iraq.
    Senator Kerry. I mean, I want to get your answer, too, Mr. 
Pillar, but, as you do, because time runs so fast, could you 
just touch on the question of to what degree the presence of 
the American troops delays the willingness of people to resolve 
those issues, and acts as a cover for people's other interests 
to be able to play out to see who's on top and who's on the 
bottom?
    Dr. Pillar. I think there's a strong sense, both among 
Iraqis and with the regional players, the subject of Senator 
Lugar's question, that, as long as the United States is doing 
the heavy lifting, however much of an interest they have in 
eventually resolving the situation, they are not the ones in 
the front having to do it. There is an issue of having to 
concentrate the minds.
    Senator Kerry. Do you want to comment, Mr. Pillar? You said 
something about the Green Zone state that struck me. The Green 
Zone state might fall. Isn't the fact that it is only a Green 
Zone state, kind of fundamental to this question of legitimacy 
and of resolving these larger political differences?
    Dr. Pillar. I think some--I think that was your----
    Senator Kerry. And would you, as you touch on that, tell 
me: If the troops start going after the militia--and I'm 
reading that they're talking about an evenhandedness in the 
application of this--what is the Muqtada al-Sadr response to 
that? And where do the Badr Brigade and the Jaish al-Mahdi come 
out in that conflict?
    Mr. Said. It's speculative, at this point, to judge what 
the troops are going to do. The Iraqi Government security plan, 
although, declares that all the militias will be attacked, but 
also, in the same breath, states that they view Sunni violence 
as the primary objective. So, on the back of this security 
plan, the surge of U.S. troops can be seen as taking sides in 
the ongoing sectarian conflict. The United States may declare 
that it will go differently, but, at this point, the agreement, 
since the meeting in Amman between the Prime Minister and the 
President, seems to have been to go for one last push in 
support of the elites that have emerged out of the current 
political process and against their enemies. And this could 
contribute--if mishandled, and especially if no protection is 
offered to all communities, to all Iraqi communities, this 
could embroil the United States in a new role in Iraq, as being 
a party in the conflict.
    Senator Kerry. My time is up, but----
    Mr. Said. Thank you.
    Senator Kerry [continuing]. But none of you answered the 
question--maybe you will as you go along here--of: What happens 
if this fails?
    Mr. Said. It will make--it will make the negotiations even 
harder. I mean, we have a window of opportunity today, and 
maybe passing, for a negotiated settlement, including the 
region. Further blood, more blood--and, if it's seen as one-
sided--will make negotiations even harder, down the road.
    Chairman Biden. Thank you very much, Senator.
    Senator Hagel.
    Senator Hagel. Thank you, Mr. Chairman.
    Thank you each for your presentations and your continued 
efforts to educate and inform not just the Congress, but the 
American people. And that, as we all appreciate, is of great 
essence, on probably the most significant issue this Nation has 
faced since Vietnam. Not just as you all have said, and each in 
your own way, noted, that it is not just an Iraqi issue, it is 
far broader, and the consequences are far more significant. 
It's a regional issue, and some of us have been saying that for 
some time.
    As I have listened to your presentations and my colleagues' 
questions, no matter the question, no matter the answer, no 
matter the issue, the dynamic, it all comes back to one 
fundamental thing, and that's the absolute requirement for 
political settlement, not just in Iraq, but in the Middle East. 
And each of you has been very articulate in framing those 
issues in some specificity.
    I noted, Mr. Said, in your testimony and comments, if I can 
quote--I think you said something to the effect that no 
framework for a peaceful resolution exists now in Iraq. You 
then further, toward the end of your statement, said, ``What 
Iraq needs now is an international sponsored peace process, a 
framework.'' You engaged Senator Lugar on this issue, to some 
extent. With that in mind, and each of you have noted Professor 
Marr's point about: Only the Iraqis, essentially, can settle 
their differences. Dr. Brookings--I mean, Dr. O'Hanlon----
    [Laughter.]
    Chairman Biden. You don't mind Dr. Brookings, do you?
    Dr. O'Hanlon. Thank you. [Laughter.]
    Senator Hagel. I think your mother was from that side of 
the family. [Laughter.]
    Dr. O'Hanlon noted that this was going to require a broad 
political dynamic. So, if I have listened as attentively as I 
think I have to each of you, you all come to the same 
conclusion. So, here's the question. We will, tonight, learn, 
from the President of the United States, what he is going to 
propose to the Congress and the American people, and to our 
allies--most specifically, to the Iraqi Government--on where we 
go from here. I think it's pretty clear what that proposal is 
going to consist of. And you mentioned Baker-Hamilton. I don't 
think that there is any great--I'll listen to the President 
tonight, carefully, obviously, to find out, but I don't think 
there is any great attention in what the President is going to 
say tonight that comes from, or a result of, the 79 
recommendations that came out of the Baker-Hamilton 
Commission--one, specifically, which has been noted here, 
engagement with Iran and Syria, and the wider diplomatic 
regional focus.
    If you all had the opportunity--and I know you all talk to 
the White House and decisionmakers--but to focus on two or 
three most specific issues, in the President's presentation 
tonight, as to what he will be proposing, what would you say 
are the most important two or three? Or what would you like to 
see are the most important two or three? Or, if you were the 
President, what do you think is the essence of where we go from 
here, and why? And I know we are limited in our time, but I 
have 4 minutes; that gives each of you 1 minute. And we would 
start with Dr. Marr.
    Thank you.
    Chairman Biden. You can go over, on your answers.
    Dr. Marr. I would focus on regional cooperation. That is to 
say, getting the regional community in, either by a big 
conference, which I tend to think isn't going to work very 
well, or by a contact group, something that allows us to deal 
with them individually--would be very important, and getting 
them on board on stablizing Iraq. And, second, on the kinds of 
pressures, incentives, other things we're going to have to 
undertake, as the group that's providing most of the force in 
Iraq, to nudge Iraqis--that means the political parties in 
power now--to cooperate, to get on with reconciliation, to deal 
with the de-Baathification issue, and other things. Ultimately 
that's going to determine what kind of response we get in Iraq.
    Senator Hagel. Mr. O'Hanlon.
    Dr. O'Hanlon. Senator, I would focus, as Phebe has just 
said, on the need for political reconciliation. I think it's 
the overwhelming prerequisite to any kind of success, or even 
averting complete failure in Iraq, at this point. It's hard for 
the President to really create the right mentality in Iraqi 
minds, because, of course, he is so committed to this 
operation. But it strikes me that the Iraqis need to feel like 
2007 is a make-or-break year. Hopefully, they can read our 
politics well enough to know that this country may support the 
President tonight if he asks for more effort in various ways, 
but I think it's probably his last chance to really get that 
kind of support from the country, and he may not even get it 
this time. And so, I hope that there's a sense of acute focus 
among Iraqis on the need to resolve issues like sharing oil 
equally, reining in militias, rehabilitating former Baathists 
who don't have blood on their hands directly, and dealing with 
issues like Kirkuk. If that doesn't work, the President can't 
talk about it very easily tonight, but I think the backup plan 
is to think about this more like Bosnia and move toward a 
facilitated resolution of the civil war, where we move toward 
autonomous regions and help people relocate so they're in 
neighborhoods where they feel safer. I think that's the obvious 
backup plan, and pretty much the only choice we're going to 
have within 9 to 12 months, unless things turn around quickly.
    Senator Hagel. Thank you.
    Mr. Said.
    Mr. Said. For a political settlement in Iraq, Iraqis need 
to come together to decide on the shape of the state they want 
to live in. That's the essence of a political process that is--
that doesn't exist now. We have the formal mechanisms--we have 
elections, we have a constitution, we have a government--but 
they are not working. And the evidence to that is the violence 
and the apathy that I have spoken about. So, there needs to be 
an external intervention, because Iraqi forces, Iraqi political 
entities and groups, are clearly unable to reach that consensus 
on their own. There is a need for international intervention in 
that regard. And it's better that it's multilateral rather than 
the United States doing it alone, as it has been trying over 
the last 3 years. There is a need to bring in more players, who 
can cajole the various actors, who can bring them to the table, 
and who can provide the essential support needed to implement 
whatever the Iraqis agree on--needed to support whatever the 
Iraqis can agree on.
    And only on the back of that, one can then decide which 
forces stay, which forces leave. Maybe other actors will be 
able to bring their own forces to the table after having been 
engaged properly.
    Senator Hagel. Thank you.
    Dr. Pillar. It is unfortunate that--but true, as you said, 
Senator--that what we hear tonight probably is not going to be 
drawn much from the Baker-Hamilton Report, so I would just use 
the last few seconds to say I endorse strongly both the 
approach in the report that the regional engagement, including 
engagement with the likes of Syria and Iran, has to be part of 
a package, and, second, to support the whole concept of an 
approach toward the troop presence in Iraq that let's Iraqis, 
as well as the American people, look forward to a future in 
which, as the report put it, by the first quarter of 2008, 
essentially the combat role by United States troops will be 
over.
    Senator Hagel. Thank you, to each of you. Mr. Chairman, 
thank you.
    Chairman Biden. Thank you very much. We usually move--at 
least I have been moving based on seniority, but Senator--my 
good friend, Senator Dodd, is here, but he suggested that I 
move to Senator Feingold.
    Senator Dodd. Before you jump too quickly at that, Mr. 
Chairman, as a strong supporter of the seniority system--I've, 
over the years, acquired the ability to appreciate it--let me 
briefly, briefly say--let me congratulate you, Mr. Chairman, on 
taking the gavel here--to thank Dick Lugar for tremendous 
leadership on this committee. And it's a continuation--a 
continuum here. I'm not surprised at all that Joe Biden is 
convening a hearing like this, with a distinguished group of 
panelists, to talk about the critical foreign policy issue of 
the day. It's exactly what Dick Lugar has been doing before. 
It's great to see this kind of leadership move back and forth 
here, with people who are highly competent, know what they're 
talking about, and providing great leadership in the country on 
this issue. So, I thank you, Mr. Chairman, very, very much.
    Chairman Biden. Thank you.
    Senator Feingold.
    Senator Feingold. Well, as an increasingly strong supporter 
of the seniority system----
    [Laughter.]
    Senator Feingold [continuing]. Let me thank Senator Dodd 
for his tremendous courtesy in this regard.
    Senator Kerry. Ask Senator Webb how he feels about this. 
[Laughter.]
    Senator Feingold. Thank you all for coming to testify in 
front of this committee. And thank you very much, Mr. Chairman, 
for arranging this and the rest of the hearings we'll be having 
over the next few weeks. I know you and your staff have worked 
hard to lay out a range of good hearings and witnesses so this 
committee can grapple with one of the most significant 
challenges, really, in our Nation's history.
    Unfortunately, these hearings are taking place in the 
context of increasing violence in Iraq, a lack of political 
agreement among Iraqi political factions, an overstrained 
United States military, and an overwhelming and accurate sense 
among the American people that the President's policies in Iraq 
are wrong. This really is, of course, a tragic situation. And I 
appreciate your candor and insights today on what I hope will 
be the first of many open, honest, and candid hearings we'll 
have.
    My colleagues have already addressed a number of important 
issues. I don't want to take a lot of time here today, but I do 
want to talk about a critical aspect of the administration's 
Iraq policy: What the role of the United States military in 
Iraq is, given what you've been talking about, political 
deadlock and increasing sectarian violence; what impact the 
current United States military presence in Iraq is having on 
the political, economic, and security conditions in Iraq; and, 
most importantly, what impact our continuing presence in Iraq 
is having on our efforts to defeat terrorist networks not just 
in Iraq, not just in the region, but around the world. I think 
sometimes we forget this isn't a regional issue, it is an 
international issue. And I think one of the greatest failings 
of our view of this is that we look at this either in--through 
the prism of Iraq or even through the prism of the Middle East. 
That is insufficient, in light of what happened to us on 9/11, 
in light of the challenges to the security of the American 
people.
    So, let me start with Dr. Pillar. Let me focus on a 
statement you made in your testimony. To paraphrase, you said 
you concurred with the statements in the declassified national 
intelligence estimate published by DNI on September 26, 2006, 
that suggested that Iraq could become a ``cause celebre'' for 
jihadists, and that it is ``shaping a new generation of 
terrorist leaders and operatives,'' and is being exploited by 
al-Qaeda to ``attract new recruits and donors.''
    First, in speaking generally about your analysis, would the 
withdrawal of American troops from Iraq at some point help 
counter the ability of al-Qaeda and other jihadists around the 
world to recruit new members?
    Dr. Pillar. Yes, sir; I believe it would, which is not to 
say that it would undo much of the damage that's already been 
done. What's taking place in Iraq right now is that the current 
prominent jihad mirrors what took place in Afghanistan in the 
earlier jihad against the Soviets in the 1980s, where a number 
of effects occurred. One, it became a huge inspiration and 
propaganda point, a kind of rallying point. Two, it was a 
training ground, in a very specific way. Lots of people learned 
how to handle firearms and explosives to put to other use. And 
third, it was the ultimate extremist networking opportunity, in 
which you had people of different nationalities--Pakistanis, 
Arabs, what have you--who came together. And we're still seeing 
the effects of that today. I think most of the long-term 
effects of the jihad in Iraq paralleling that most of those we 
have yet to see. What's already occurred cannot be undone. But 
the short answer to your question is yes; we can avoid 
compounding the damage by reducing, or bringing to a close, our 
presence there.
    Senator Feingold. Thank you for that direct answer. So, 
more specifically, then, is it safe to say that al-Qaeda will 
continue to exploit the presence of a significant level of 
United States military personnel in Iraq?
    Dr. Pillar. There's no question in my mind that it will. 
It's been one of the biggest propaganda points that al-Qaeda 
has been offered.
    Senator Feingold. In your prepared statement, you said 
that, ``The most important variable in Iraq in the months or 
years ahead is the sheer continuation of the war, as well as 
the continued United States participation in it.'' So, for 
example, if the United States began redeploying from Iraq, what 
would be the long-term impact on al-Qaeda, globally, in your 
view?
    Dr. Pillar. Senator Feingold, I think you have to bear in 
mind that ``jihad'' means, literally, ``struggle.'' What's most 
important for the people we're talking about is not a 
particular outcome, or what we, back in this country, might 
consider, in our lexicon, victory or defeat and what have you. 
It's participation in a struggle, and especially participation 
in a struggle against a superpower. And with the Soviets no 
longer around, that's us. So, just about any outcome that is 
within the realm of imagination of anyone in this room, which 
would involve at least some violence still in Iraq, is going to 
serve that purpose of a struggle. So, that's the most important 
thing, not a particular outcome or this side winning or that 
side losing.
    Senator Feingold. Thank you, Doctor.
    Dr. O'Hanlon, thanks for your testimony. First, let me 
applaud the work that you and your colleagues at Brookings are 
doing on Iraq. Your data and analysis are helpful and 
insightful. Let me ask you some questions about some of the--
what lies beneath the data.
    Your data obviously highlights troubling trends. It shows 
that, regardless of the size of United States troop presence in 
Iraq--and your data shows that it has gone from 123,000 in 2003 
to 140,000 in 2006--Iraqi civilian fatalities, estimated 
strength of the insurgency, strength of the Shia militias, and 
daily average interethnic attacks and the estimated number of 
foreign fighters have all risen over the past 3 years, without 
fail. Given that we can't, from this data, draw a connection 
between U.S. troop levels and the improvement of any of these 
important indicators, can we draw a conclusion with your data 
that sending in more U.S. troops will actually have an impact 
on any of these key indicators?
    Dr. O'Hanlon. No; not from the data, Senator. I think 
there's a possibility of constructing a theory that the added 
troops could help, especially in the context of a broader 
political and economic initiative. But there's no data that 
would prove that it would work. And, in fact, I think that, to 
the contrary, I would be, while not against the surge proposal, 
if done in a broader context, I'd be skeptical, at this point, 
that it can make a big difference.
    Senator Feingold. As you mentioned, the other big troubling 
statistic is shown in the number of Iraqis who are displaced. 
This is turning into an incredible humanitarian tragedy. 
According to your data, in your view: Would an increase in 
United States military personnel in Iraq address any of the 
driving factors of their displacement--presumably things like 
bombings, growing militias, interethnic attacks? As we 
discussed, it appears as if the numbers don't support the 
hypothesis that more troops will help settle things down.
    Dr. O'Hanlon. Well, again, you can tell a story, you can 
construct a theory of how more neighborhood-by-neighborhood 
security might help reduce the ethnic displacement. But, again, 
we have no evidence from the information, that we've 
accumulated over 4 years' time, to prove that. Even in an 
earlier period, when there was less violence and less for the 
United States and its partners to deal with day to day in Iraq, 
we were not able to get things on a positive trajectory. So, I 
think, if anything, the data would make one skeptical. Can't 
prove it, one way or another, but should make one skeptical 
about the prospects.
    Senator Feingold. Well, studying your data, what dynamics 
or variables, in your view, have had the most significant 
impact on reducing violence in Iraq? The top-line numbers 
you've given us show, again, pretty consistent increase in the 
violence across the board, but do you see any connections or 
positive stories in that data that should contribute to 
formulating policy proposals?
    Dr. O'Hanlon. I see virtually no positive news on the hard 
numbers of security or economics. The only good news really is 
in the politics and the public opinion, although there's less 
than there used to be. Two or three years ago, it was possible 
to tell a better story, because 2 or 3 years ago, the Shia 
really seemed to believe in the future of Iraq, and that's when 
you had the Grand Ayatollah al-Sistani more vocal, trying to 
rein in some of the militias. The overall Shia response to the 
insurgency seemed to be one of patience, of believing time was 
on their side anyway. They stayed optimistic in the polls. They 
still seemed to believe in the idea of an integrated Iraq. The 
Sunni Arabs were very skeptical all along, and very quickly 
soured on our presence, as you know, but the Shia stayed 
positive for a long time. Unfortunately, that's gone, to a 
large extent, and I don't know how to recreate it.
    So, I'm certainly much more pessimistic about the idea of 
building an integrated Iraq, at this point, than I have been in 
the previous 4 years.
    Senator Feingold. Well, thanks, all of you.
    And, again, thank you very much, Senator Dodd.
    Chairman Biden. Thank you, Senator.
    I would note the presence of Chairman Lantos's wife, 
Annette Lantos, in the audience. Welcome. I'm glad you've come 
over to the other side. Thank you.
    Senator Coleman is next, but he is absent.
    So, Senator Corker.
    Senator Corker. Mr. Chairman, it's an honor to be on this 
committee.
    Chairman Biden. We welcome you. We're delighted to have you 
with us.
    Senator Corker. Thank you. And I'm glad to see that, after 
Ranking Member Lugar had 35 hearings, you're doing the same. 
This is a tremendous service to us in the Senate, to our 
country, and I appreciate what you're doing very much, and echo 
what Senator Dodd said, a minute ago.
    I'm a new member. I'll ask one question and then move on to 
other members. But I know that we all want to see a stable 
Iraq, and we all want to see our men and women in uniform home 
as soon as possible. And I keep hearing that possibly the 
addition of troops would be better served after political 
settlements could occur. And I guess the question is: Is there 
any real thought that political settlements can occur with so 
much chaos, with so much lack of security for citizens there in 
Iraq today?
    Dr. Marr. I'll start by taking a crack at that. I'm not 
optimistic either, but I'm a realist. And so, my expectations, 
from the start, were perhaps not of the highest.
    I think the idea that we're operating in a timeframe where, 
in the next year or two, according to our exigencies here, the 
situation is going to play out in Iraq is wrong. Their 
timeframe--as you can see if you talk to any of these leaders 
coming over here--is a much longer one. And I, frankly, think 
this chaos, perhaps not with the same level of killing--but 
this kind of instability is going to go on for a very long 
time, until the population and the political leadership that 
either benefits or loses from it comes to the conclusion that 
they're losing more than they're gaining. And the settlement is 
not going to result from some grand conference, some grand 
reconciliation. I'd like to suggest, again, it's going to be 
much more mundane and prosaic. And we see it going on at a 
local level. It will come from different groups making 
different deals with different people across these divides 
until something more cohesive emerges. That's going to take 
quite some time. And whether our patience with this process is 
going to last or not is an open question.
    Dr. O'Hanlon. A somewhat different take, Senator, although 
I greatly respect Dr. Marr's point and I think there's a lot to 
it. I would also say, when 100,000 people a month are being 
driven from their homes, the idea that the conflict can stay at 
this level indefinitely, and essentially retain a character 
like we're seeing today, is not what I would agree with or 
prognosticate. I would say that we have a couple of years to 
save anything like a multiethnic integrated Iraq. Frankly, I 
don't think it's that important to save it. I think stability 
is much more important than salvaging the kind of Iraq that's 
been there in the past, from America's strategic-interest 
perspective. And I think we're going to have to see progress on 
that in the course of 2007, in part because of American 
politics, but in part because another year's worth of this 
level of ethnic cleansing and Iraq starts to look more and more 
like three separated regions, where you essentially had a civil 
war divide the country. I see Dr. Marr is disagreeing with me, 
but that's what the numbers say to me.
    And so, I think that we are going to have to view 2007 as 
our last best chance to have anything like current strategy 
succeed, and, if it doesn't, with or without a surge, I think 
within a year we're going to have to start having a 
conversation about whether Iraq has to be divided up into a--
what you could call a federal structure or a soft partition--
you know, different phrases can be used--but basically where 
oil revenue is shared, but, otherwise, most of the governance, 
most of the security is done in three separate provinces, there 
is some kind of a loose federal structure, a small federal 
army. And, otherwise, you help people relocate, if they need 
to, to places where they will feel safer, and help them with 
relocation assistance, in terms of housing and jobs.
    Dr. Pillar. Well, it is valid to say that--to point out 
that the security affects the politics, just as the politics 
affects the security. I strongly agree with Phebe Marr's 
observations about the timeframe involved and about how Iraqis 
are going to keep doing what they're doing until they believe 
they don't have a chance to get the upper hand. If you're 
looking for an analogy in the Middle East, that I think is 
frightening in a way, but perhaps most apt, it was the Lebanese 
civil war, which raged on for something like 14 years, from the 
mid-1970s to the late 1980s, until all the Lebanese parties--
and that, too, was one characterized by a very complex 
sectarian mosaic--until they basically exhausted themselves, 
literally and figuratively, and finally, with the help of the 
Saudis and the Syrians, reached a peace agreement, even though 
that left a number of people dissatisfied. We're seeing the 
effects of it today. But that's the kind of timeframe I think 
we're dealing with, with regard to resolving, if it's ever 
going to be even halfway resolved, the political conflict in 
Iraq.
    Senator Corker. Well, are you recommending, then, that 
things stay as is until they get so bad that people start 
making those kinds of deals? Is that what you're recommending?
    Dr. Pillar. It wasn't a recommendation, Senator Corker, it 
was an analytic observation about the situation we face.
    Chairman Biden. Thank you.
    I would note that we did not have 135,000 forces in Lebanon 
during that period. And I know you're making an accurate--I 
think, accurate observation, but--at any rate.
    Senator Boxer.
    Senator Boxer. I want to thank Senator Dodd for 
understanding my conflict here with the Environment Committee. 
I really do appreciate it. And I want to thank----
    Chairman Biden. You're a chairwoman of that committee----
    Senator Boxer. Yes.
    Chairman Biden [continuing]. And he has interests before 
that committee, and, don't worry, he's not going to fool around 
with you. [Laughter.]
    Senator Boxer. I shall never forget the problems of 
Connecticut. [Laughter.]
    Acid rain and everything else.
    Senators Biden and Lugar, thank you for continuing to work 
so closely together. And this panel, I think, has been 
fascinating. And I find that, you know, as I've listened, a 
couple of things are leaping out at me that I think make sense 
in a very difficult chaotic situation. And the things I think 
make sense happen to be the things that my chairman has been 
talking about, and I'm going to pursue what Mr. O'Hanlon has 
talked about--which is to try and wake up, smell the roses, and 
figure out what is actually happening on the ground. People are 
moving toward their ethnic identities. That's not America. This 
is what we don't want to see happen. But either we're going to 
accept that or our kids are getting killed--and more and more 
and more. And if you listen to Dr. Marr--and she's so learned--
she says, ``Only when the participants in the struggle for 
power recognize they're losing more than they can gain will 
this violence come to an end. This may be a very long time. 
And, in the meantime, the best we can do is staunch the 
violence, contain the struggle.'' Listen. How many more dead 
will that be? And I'm not asking you that, because you're not a 
military expert. But I will ask the Secretary of State that.
    And I have to say, Dr. Marr, with all due respect, when you 
talk about--you see, kind of, an ending, and you say--and you 
could be right--``This will end when''--and I'm quoting you--
``different people make different deals across a period of 
time.'' How is that better than the idea of accepting the fact 
that that dealmaking ought to happen from all the parties 
accepting the reality of this, and then doing what Mr. Said 
says, which is come to a political agreement, and then figure 
out how to enforce that agreement with international forces, 
not just on the backs of the American people. I just--and I say 
``the American people,'' because their kids are bearing the 
brunt of this.
    I think it's very interesting--I read, Mr. Said, your 
amazing article, December 9, 2002. Is it--am I right that your 
family fled Iraq because of Saddam Hussein? OK. And this is 
what you wrote in 2002, ``There are many reasons why Iraqis who 
have long sought to topple Saddam Hussein are opposed to the 
impending war.'' This is before the war started. ``This, after 
all, is not the first time the United States has pursued regime 
change in Iraq. All previous attempts ended with disastrous 
consequences for the Iraqi people.''
    But I would add a sentence: And this time, although it 
isn't ended, a lot of families here are coping with disastrous 
consequences, not only the dead, but the wounded and the post-
traumatic stress and the brain injuries and so on.
    Now, Mr. Said, every poll shows us that 60 percent of the 
Iraqis today think it's OK to shoot an American. Could you 
explain to us why that is the case? Could you--why do you think 
that's so?
    Mr. Said. I mean, it's understandable. The effect of United 
States troops in Iraq today--not the whole consequences of the 
invasion, which obviously are--have been catastrophic for 
thousands of Iraqis and Americans--is ambiguous, it's a mixed 
bag. On one hand, the foreign troops are an irritant, they are 
creating a reaction in the form of an insurgency, which 
continues to be the bulk of the violence taking place in Iraq 
today. And the number--60 percent--confirms that, that for most 
Iraqis they view the American presence as an occupation, and 
they continue to consider fighting the occupation a legitimate 
pursuit.
    Senator Boxer. OK. Well, let me----
    Mr. Said. However, if I may----
    Senator Boxer. Yes. Go ahead.
    Mr. Said [continuing]. The presence of United States troops 
today is critical for the survival of the Iraqi State and 
actually for the physical survival of many Iraqis. The United 
States troops in Iraq today have a humanitarian mission, as 
well as a----
    Senator Boxer. I get it. Why do 70 percent of the Iraqi 
people say we should get out, 60 percent say it's OK to shoot? 
So, this may be the case, but clearly that message hasn't 
gotten through.
    Now, Dr. Marr, have you ever read the book, ``The 
Reckoning,'' by Sandra Mackey?
    Dr. Marr. Yes. I know her. Yes.
    Senator Boxer. Both of you make me very proud, by the way, 
just as an aside. But I read that book before I voted on 
whether or not I wanted to give this President authority to go 
to war. She predicted everything that has happened. And one of 
the things she said--and I want--and you may not agree with 
her--is that after World War I, Iraq was put together, was it 
not, as a country?
    Dr. Marr. No; I think there were some elements of being 
together before that. There was Mesopotamia----
    Senator Boxer. I understand.
    Dr. Marr. You know, there's a sense of living within that 
territory that is more than just throwing a country----
    Senator Boxer. But is it not----
    Dr. Marr [continuing]. Together.
    Senator Boxer [continuing]. So that there was no ``Iraq,'' 
per se, until after World War I?
    Dr. Marr. Yes. That's----
    Senator Boxer. And is it not true----
    Dr. Marr [continuing]. True of many countries----
    Senator Boxer. Well, I'm----
    Dr. Marr [continuing]. In the area.
    Senator Boxer [continuing]. I'm not talking about other 
countries.
    Dr. Marr. Yes.
    Senator Boxer. I'm talking about Iraq. And isn't it true--
isn't it true that when the British drew these lines, they put 
many different ethnic groups inside Iraq who they knew had many 
years, perhaps thousands of years, of enmity?
    Dr. Marr. I don't even know what you're talking about. They 
put----
    Senator Boxer. I'm talking about----
    Dr. Marr [continuing]. Ethnic groups inside of----
    Senator Boxer. I'm saying----
    Dr. Marr [continuing]. Iraq?
    Senator Boxer. I'm saying: When they drew the lines, 
according to Sandra Mackey, they were very clear that they drew 
them knowing that it would be a contentious country because of 
all the ethnic rivalries. Would you agree with her on that 
point?
    Dr. Marr. No.
    Senator Boxer. You don't agree----
    Dr. Marr. It's a----
    Senator Boxer [continuing]. With her.
    Dr. Marr. It's a long issue. I don't deny ethnic and 
sectarian rivalries, but I do want to succinctly address your 
issue. There are many other ties--tribal, family--which 
frequently override ethnic and sectarian identity, and a 
nonsectarian educated middle class, which was very strong in 
periods in Iraq--forties, fifties, sixties, seventies. 
Education doesn't obliterate, sectarianism, but really reduces 
it. It's much more complex. And I didn't want to leave the 
impression that I feel that United States troops have to stick 
around for years and years while Iraqis solve their problem. I 
would favor, if the Iraqis can't get their act together in a 
reasonable time, a policy of containment, that is containing 
the problems from spilling across the borders of Iraq.
    So, don't, please, identify my position with one of 
sticking around there----
    Senator Boxer. Good, I'm glad you----
    Dr. Marr [continuing]. Forever----
    Senator Boxer [continuing]. Clarified. I'm really glad.
    Dr. Marr [continuing]. While that happens.
    But I want to come back to one point. I don't agree with 
the reality--I don't think Sandra goes as far as this--that 
Iraq is inevitably based on ethnic identity and sectarian 
identity which has come to the fore very virulently only 
recently. You may think you're going to get stability by 
recognizing these divisions, and drawing lines, but who is 
going to protect the seams?
    Senator Boxer. Well, let me----
    Dr. Marr. Which forces----
    Senator Boxer [continuing]. Let me--let me address----
    Dr. Marr [continuing]. You know----
    Senator Boxer [continuing]. That----
    Dr. Marr. So----
    Senator Boxer [continuing]. Because I think my chairman has 
spelled that out beautifully, because we're talking about still 
one Iraq with semiautonomous regions, where you can bring in, 
you know, the world community to help enforce a political 
settlement. But that's OK. I don't need to--you know we 
disagree on the point.
    And I'll close, because I know my time is up. But it seems 
to me that Sandra Mackey was right on every single point that 
she made, that what would happen when a war came is that these 
ethnic differences would come to the surface, where they were 
tampened down before.
    Because I think we're missing the point. We haven't really 
laid out how we're going to get keeping this country as a whole 
and not going with the idea expressed by Dr. O'Hanlon. We 
haven't really resolved that question. If you think they're 
going to go in and go after al-Sadr, al-Maliki's government 
will fall, because he's dependent on Sadr. So then, is it all 
going to be against the Sunnis? And then, as Mr. Hakim says, 
``Are we in the middle, taking sides in a civil war?'' It's 
complex.
    I thank you all for your time. And I thank you----
    Chairman Biden. Well, I thank you, Senator. I'm sure the 
panel would be prepared to answer some questions. We will not 
take up the rest of their academic and----
    Senator Boxer. No, no, that's not what I meant.
    Chairman Biden. But I'm--no, but, I mean, I hope the panel 
would consider--and if you could submit through the chair any 
additional questions you have. But I'd try to narrow them, 
rather than have each of us committing 10 or 12 questions to 
them. I know we could do that.
    Senator Boxer. That's my only one. Thank you.
    Chairman Biden. Yes. No; I would--the panel has no problem 
responding to that, I'm sure.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    I was in Iraq about a month ago. And just a quick 
observation. OK? Thank you, Mr. Chairman.
    To me, it seemed like there are two battles going on in 
Iraq. One is a war in the Anbar province that our Marines are 
fighting, and they know who the enemy is. The enemy is the 
foreign fighters and the al-Qaeda insurgents. And the Marines 
are doing their job, and they're making progress every day, in 
the sense of eliminating terrorists. You can measure this 
progress. The other battle is in Baghdad, and consists of 
sectarian violence. I see our troops caught in the crosshairs 
of this sectarian violence in Baghdad. If you see it, it's 
almost unbelievable, the extent of it, the depravity of it. And 
it seems to me that as our Marines make progress in clearing 
areas of terrorists, they need Sunnis to participate in the 
police departments in Anbar to hold the territory they've 
cleared. The local Sunnis know who the foreign fighters are. 
And Sunnis are needed in the army. So it seems to me that the 
Iraqis have got to achieve reconciliation in order to end the 
violence in the long term. We can't resolve anything in Iraq in 
the long term, militarily, without reconciliation among Iraqi 
factions. And during my trip to Iraq it didn't appear to me 
that the Iraqi leadership were doing all they could to achieve 
real reconciliation. I met with Dr. Rubaie, the National 
Security Advisor for the Prime Minister, and said that he 
didn't think that sectarian violence was a major issue in Iraq. 
I was incredulous when I heard that. Yet we continue to face 
the problem with Sunnis and the insurgency and I think we saw 
some of that in the paper today. When I was in Iraq I didn't 
get a sense that Iraqis are done killing each other through 
sectarian violence.
    And so, my first question is: Does anybody here have a 
sense of whether reconciliation can occur in Iraq today? And, 
if not, is there a timeline for reconciliation?
    Mr. Said. Mr. Coleman, I tried, in my testimony, to 
illustrate a complex conflict--and you alluded to that--that 
there is an insurgency, for example, taking place in Anbar, and 
the sort of the civil strife taking place in Baghdad. Of 
course, it's less neat than that, actually. There are 
insurgencies and civil wars happening throughout Iraq. There 
are only a few pockets of stability in Iraq, including 
Kurdistan. But, almost in every province there is a conflict, 
whether it's a criminal--criminal gangs or whether it's a sort 
of a social revolt against the establishment or whether it's 
civil war. In Anbar this summer, there were clashes between 
Sunni tribes. Ostensibly, in the media, it was about Sunni 
tribes fighting al-Qaeda, but, in reality, these were old 
tribal rivalries spilling into open conflict and being dressed 
as Anbar tribes fighting al-Qaeda. Inside the Sunni political 
representations, there are deep fissures between the Islamists, 
on one side, and the Baathists--and unreformed Baathists, on 
the other. So, there are no neat groups that one can resort to 
or revert to in a partition formula whereby one can say: What 
do the Sunnis say? There is a vast difference between the 
positions of various Sunni groups. And the differences between 
the Shia groups are expressed in real fighting and dead bodies 
in the south, throughout Basrah. Every city in the south has 
fallen out of government control at one point or the other over 
the last 6 months.
    So, the Iraqis are not done killing each other, but on the 
various bases, under various motivations--there is--we don't 
have the luxury to wait out for compromises to emerge from this 
chaos. The situation--the pervasive fear and violence is 
creating a humanitarian disaster in Iraq, as Mr. O'Hanlon has 
described, that needs to be addressed. So, there is an urgency 
for a political process, if you like, regardless of the 
willingness of the parties to engage. The problem is, the 
parties need to be brought to the table. And what needs to be--
to happen is, one needs to bring more parties that are willing 
to engage. If the combatants, if the radicals or the extremists 
are not willing to talk, then the table needs to be widened, 
because there are many Iraqis, as well, who want to see peace 
in their country, and want to rebuild their nation. And this is 
a role for the international community. There is a need for an 
international-sponsored peace process that will bring Iraqis to 
the table, including those who are willing to find compromises 
and willing to stay together.
    Senator Coleman. But, Dr. Marr, I mean, if I could turn to 
you on this, if the parties aren't at that point where they 
have that fundamental commitment to say, ``We recognize what 
the problem is, and we are committed to do those things to 
resolve it''--that's my concern as--and I'll listen to the 
President, but I'm not--I didn't see, in my time there, in my 
conversations, that you've got a commitment on the part of the 
Iraqis to do what has to be done that would then justify a 
greater commitment of American lives and resources. That's my 
problem. If----
    Dr. Marr. I agree that that is a problem. And it's not 
perhaps either/or. I'm just expressing what I think is a 
realistic analysis of what's likely to happen. That doesn't 
mean that I like it or there aren't some other things we can 
do.
    The key issue is: How do you get Iraqis, particularly those 
that are going to be in the political process, to reconcile? 
And you have pointed out a very good way to do that. You've got 
to put pressure, you have to have incentives, you certainly 
have to widen the political spectrum. Because one of the things 
that's operative here is that political parties and groups who 
have power now want to keep it, and their power is fragile. And 
widening the spectrum and including others may not be exactly 
what they want. We don't want to get caught in that. We, alone, 
are not the only ones who need to do this. The regional 
neighbors have their own clients, and they need to be able to 
exercise pressure but there are numerous ways in which we could 
push, nudge, and otherwise try to get this reconciliation.
    Now, whether that's going to be successful is a big issue. 
And certainly whether we keep troops there and keep on with 
this effort, if Iraqis don't rise to the occasion, I have to 
say, it is, in fact, one of your jobs----
    Senator Coleman. And----
    Dr. Marr [continuing]. To decide that.
    Senator Coleman. But you have also highlighted the 
consequences if we do that, that there are devastating 
consequences, in terms of ethnic cleansing, in terms of--Dr. 
Pillar, in terms of what's going to happen in the rest of the 
region.
    And I'm not sure what my time is, Mr. Chairman. If I can 
just----
    Chairman Biden. No; you have another little bit.
    Senator Coleman. Dr. Pillar, the--we're not in this alone. 
I mean, Iran has--Iran is pressuring us in--with Hezbollah in 
Lebanon; they're pressuring us with Hamas in Gaza; they're 
pressuring us with supporting al-Sadr in Iraq. Is there any 
appetite on the part of folks in the region to play a 
constructive role in trying to resolve this situation?
    Dr. Pillar. Yes, Senator; I think there is. And you can 
look at past experience. In the case of the Syrians, for 
example, just to mention them in passing, they were part of 
Operation Desert Storm, back in 1991. In the wake of 9/11 I 
believe administration officials would tell you that Syrian 
counterterrorist cooperation against the jihadists, about whom 
they share with us a concern, has taken place. The State 
Department has spoken about that publicly. And in the case of 
Iran, we had the experience of very profitable cooperation in 
Afghanistan in the wake of Operation Enduring Freedom. And 
people like Ambassador Khalilzad and Ambassador Dobbins could 
talk to you about that.
    There's little doubt in my mind that, in Tehran, there was 
at least a hope, if not an expectation, that something similar 
would happen with the political reconstruction of Iraq. 
Obviously, it did not work out that way. But the short answer 
to your question is yes; as demonstrated in the past, even the 
likes of the Iranians and the Syrians have shown their 
willingness to cooperate.
    Senator Coleman. Does any other--is that a unanimous 
opinion?
    Mr. Said. I think there is opening for engagement, almost 
with all parties, without exception. And the question is: 
What's the framework? It has to be a multilateral framework. It 
has to be seen as a fair framework that will offer everyone 
something. Everyone needs something out of the process. It 
cannot be just at the expense--you know, it cannot happen at 
the expense of some parties and to the benefit of others.
    Dr. Pillar. And it has to be, as Senator Lugar put it 
earlier in the proceedings, all the cards on the table. You 
know, from the Iranians' point of view, they wouldn't want a 
negotiation just about Iraq, just as they're not comfortable 
with a negotiation just about the nuclear issue. They want to 
talk about all issues in dispute with the United States.
    Senator Coleman. But you do recognize that they are 
fueling--they are fueling the instability, they're doing those 
things that are worsening the problem rather than doing 
anything to----
    Dr. Pillar. As I suggest in my testimony, they are dealing 
with a wide variety of groups in Iraq. It may be hard--and 
you'd have to rely on your classified intelligence for the 
latest story on this--to connect this bit of Iranian assistance 
with that attack. Nonetheless, some of that assistance, no 
doubt, has facilitated attacks against coalition forces. But, 
as I suggested before, the main way to look at that is as a 
full-court press by Iran to get as much influence in Iraq as 
they possibly can, with all parties.
    Senator Coleman. Thank you, Mr. Chairman.
    Chairman Biden. Thank you.
    Did you want to say something, Mike?
    Dr. O'Hanlon. I just wanted to make one other point. And I 
hesitate to add a nuance to anything Paul Pillar has said on 
this region; he knows it so well. But I am getting worried, 
from what we can see from the available evidence, that Iran has 
one other aim, which is to deal the United States a major 
strategic defeat in the region, which it now thinks is 
attainable in a way it did not 3 and 4 years ago, which may 
somewhat change the calculus. And it doesn't make me oppose the 
idea of negotiation, but it makes me very wary of expecting any 
progress or even assuming that Iran wants a stable Iraq as an 
outcome in this.
    Senator Coleman. And I share those concerns, Dr. O'Hanlon.
    Mr. Said. If I may just add, Iran is not a coherent actor, 
by the way. Iran--there are various influences and interests in 
Iran, and that also gives an opening for dialog.
    Dr. Pillar. Yes; we have to see beyond the outrageous 
rhetoric of Ahmadinejad. I agree completely.
    Chairman Biden. Let me--by the way, the chairman and I have 
discussed holding, hopefully, some thoughtful hearings on Iran 
and actually what the state of play in Iran is, unrelated to 
us, just what's going on in Iran at the moment.
    But let me, before I yield to my friend from Connecticut, 
indicate that there is going to be--you've been sitting a long 
time, and there is going to be a vote at noon, in which time we 
will break. Assuming the vote goes off at noon--after Senator 
Dodd, we will break for that vote, which will be 15 minutes, 
give you a little breather. And then I will confer with the 
Senator, and I'll ask the staff to confer with you. My 
intention was to continue to go through, to finish, but it's a 
much bigger committee. We have a total of 1, 2, 3, 4, 5, 6, 7, 
8, 9, 10, 11--almost 12 more members to go. I'd like you all to 
consider, based on your schedules, whether or not you would 
want to break briefly for a lunch break from 12 noon to 1 
o'clock, to give you an opportunity to have some lunch.
    Senator Sununu. Mr. Chairman.
    Chairman Biden. Yes.
    Senator Sununu. If we break when the vote occurs, it does 
appear we might have time for one more round on each side. 
Being the next in line, I have a particular interest in that 
type of arrangement----
    [Laughter.]
    Senator Sununu [continuing]. If it were possible.
    Chairman Biden. Well, based on your comments yesterday, I'm 
not going to let that happen. [Laughter.]
    Chairman Biden. That's a joke. That's a joke. We will 
accommodate you, Senator, notwithstanding your comments. 
[Laughter.]
    Senator Dodd.
    Senator Dodd. Thank you, Mr. Chairman.
    And I'm going to ask one question, and then I see 
colleagues here, and try and provide some time for others 
before we break for the vote. Let me also join the chairman in 
welcoming our new members to the committee.
    Jim, I've sat in that chair you're in, a long time ago, but 
it does move, and then it stalls, it seems, for a while. 
[Laughter.]
    But I was looking at Barack Obama and remembering last year 
when he was sitting--and wondering if we'd even notice him at 
the end of the table, and moving up very quickly. So, welcome, 
all of you, to a very exciting committee with some tremendous 
leadership we've had, as I mentioned, with Dick Lugar and with 
Joe Biden now, and others. So, it's a good committee to be on, 
and your participation is really welcome.
    I'd like to just pick up on--picking up off Senator 
Coleman's question. We're going to have the Secretary of State 
here tomorrow, as you know, coming before us. And I have been 
impressed with your comments and your ideas in this thing, and 
particularly, Dr. Marr, this issue of reconciliation, how it's 
going to come about. I suspect you're probably more--far more 
right about that. Despite our desires for something else to 
happen in a sort of a conversion on the road to Damascus here 
to occur with major political leaders.
    But two points here; I'd like you to just quickly comment, 
if you can. One is: What can we be doing to help facilitate 
this? A question we get all the time, that if you're--if you 
believe this is a surge, it's not the right idea, that 
increasing military forces doesn't make a lot of sense, that 
clearly political resolution here is what everyone seems to 
suggest is ultimately going to produce the kind of results we'd 
like to see, the question then follows on: What should we be 
doing? What should the United States, our allies, moderate Arab 
leaders in the region, be doing, specifically?
    I just came back from 6 days in the region, as well. I was 
there with my colleague from Massachusetts. We were in Lebanon 
and spent about 3\1/2\ hours with President Assad in Damascus, 
which I've shared, with the Secretary and others, the 
conversations and what was offered there. One of the things 
that I share with you here is, when I asked, specifically, 
``What sort--what do you want to see, in Iraq, occur?''--the 
answer, I don't mind sharing with you here in this room, was, 
``I'd like to see a pluralistic, stable Arab government. I'm 
not interested in seeing a fundamentalist Shia-Iranian state on 
my border.'' Now, he said that in English in a private meeting. 
It wasn't announced in--in Arabic in a public document. So, I'm 
conscious of the fact that these are statements being made, as 
Tom Friedman likes to point out, in private, where you may get 
less than what the actual policies are. But, nonetheless, I 
found it interesting that he pursued, or at least willing to 
say those things.
    What should we be doing? How should the United States--how 
should the Secretary of State be conducting our foreign policy 
in the region? And what, specifically, do you think we ought to 
be doing to encourage this kind of political resolution that 
we're all talking about?
    Dr. Marr. That is absolutely critical and difficult, and I 
have only a few thoughts; I hope my colleagues have some 
others.
    First of all, the absence of security and the dreadful 
humanitarian situation that Mike O'Hanlon is talking about 
needs to be addressed. Insecure people are not willing to make 
compromises. But with the political parties, you've got to have 
a collection of incentives and disincentives to get them to 
come to some terms on these very issues we've identified. 
There's a considerable amount of agreement on this.
    You've got to say no to some people who may not like it, 
and you've got to have a little, perhaps, stick there, in terms 
of how long and how much support and troops the United States 
is going to be willing to provide.
    And, second of all, I like the idea that I just heard--and 
I agree with it--of widening the pool. I'm not so sure some of 
the parties who now have power, and who feel very fragile, who 
feel worried that the Baath might come back or Sunnis might 
come back or whatever, are going to be willing to make the 
compromises. There used to be a large middle class with a lot 
of technocrats. There are not a lot now. Many of them have 
fled. They need to come back.
    Two things, I think, are very important. One is to get this 
Cabinet to act as a Cabinet, not just a collection of fiefdoms 
of individual people, and getting the educated middle-class 
professionals back who have some of the spirit of, you know, 
nonsectarian identity.
    So, widening the political pool, getting other people in, 
would be helpful. But I think, of course, the neighbors need to 
be brought in. We've talked about that. There's no easy answer. 
That's the only thing I want to say here. This is going to be 
long, laborious, the kind of thing diplomats, politicians do 
all the time. But I think our expectation, that somehow this is 
going to happen rapidly, needs to be a little more realistic.
    Senator Dodd. Anyone else want to comment?
    Dr. Pillar. If I understand your very broad question, 
Senator Dodd, about approaching the region, I would just 
incorporate, by reference, the recommendations of the Iraq 
Study Group, and two themes, in particular. One is what we were 
discussing a moment ago, which is to talk with everyone. And 
that doesn't necessarily mean one big multilateral conference. 
I think Phebe made the very appropriate point earlier that 
other kinds of engagement are called for. And, No. 2, be 
prepared to talk about everything that is on the agenda of the 
regional governments, and not just ours. And, again, the Arab-
Israeli conflict comes right to the fore.
    Dr. O'Hanlon. Senator, I wanted to make a plug for what I 
know many of you do, especially in the bipartisan coalitions or 
groups that go to Iraq and talk to Iraqis, because I think 
Iraqis need to know American political support is very fragile, 
and it's not going to last much longer.
    Senator Dodd. We've made that point.
    Dr. O'Hanlon. And I'm sure you continue to, but I think 
they need to keep hearing it, because I think it's very hard 
for President Bush to send that message in a convincing way, 
given how much his Presidency depends on this. From what I 
understand of the way he's going to talk--tonight, from what 
little I've heard from people in the administration, he is, of 
course, not going to be able to create this sense. He's going 
to try to put pressure on the Iraqis, but he's not going to be 
able to say, and not going to want to say, that if they don't 
get their act together, we're leaving. You know, that's just 
not something that he is in a position to want to say.
    But I think you all, collectively, and we, in the think-
tank world, to a lesser degree--we're less visible and less 
important in their eyes--we have to send that message, that, 
you know, for the reasons across the spectrum, from military 
capability of our Army and Marine Corps, to the patience of our 
people, to the upcoming Presidential race, and everything else, 
our patience for sticking with anything like this strategy is 
very limited, and it's probably measured in terms of 9 to 18 
months, not years.
    Mr. Said. I just wanted to second what Professor Marr has 
said, in terms of broadening the political process--if you 
like, facilitating national dialog, internationalizing the 
Iraq--the Iraq issue, and bringing in more actors to the table.
    About the broadening of the political process, this is not 
about reversing the outcomes of the political process----
    Senator Dodd. Yes.
    Mr. Said [continuing]. Of the last 3 years, it's about 
enhancing it. It's a process that has some elements that are 
good, but it's clearly not working, and it needs to be 
enhanced. There needs to be concessions. The winners of the 
political process need to make concessions and bring in more 
people to the table. And I'm not talking, here, about more 
combatants and more extremists, but about bringing people with 
a vested interest in a democratic Iraq.
    There are also things that the United States will need to 
do on the humanitarian level. There is a humanitarian situation 
evolving in Iraq today, and the United States needs to keep 
engaging on that issue, and maybe also bring in more 
international support.
    And, finally, again, it's--again, efforts that are already 
underway in Iraq, on state-building, on maintaining the 
machinery of government, that will be necessary, no matter what 
the outcome of the current violence is.
    Senator Dodd. Thanks. Thanks, Mr. Chairman.
    Chairman Biden. I thank you very much.
    Let me suggest that it's possible that maybe all the 
Senators who were here will not be coming back, so it may be 
more in your interest for us to keep going. But I will do--you 
need a break. We'll go to Senator Sununu, and, after his 
questioning, I'd ask permission, since Senator Webb has to 
preside at 1 o'clock, if the vote hasn't been called by then, 
whether or not my friend from Pennsylvania would be willing to 
let Senator Webb go next. And then we can make a--then we'll 
give you a break, regardless, and then decide whether to come 
back in 5 minutes or give everybody a chance to eat lunch. My 
guess is, we'll continue to go through, in light of the 
rollcall I just got from the committee staff as to who is 
likely to come back. So, it may be easier to do it that way.
    Senator Dodd. Mr. Chairman, I presume, by the way, opening 
statements are going to--you've made an accommodation for that 
to be included.
    Chairman Biden. Yes; anyone who has an opening statement, 
it will be placed in the record.
    Senator Dodd. Thank you.
    Chairman Biden. Senator Sununu.
    Senator Sununu. Thank you very much, Mr. Chairman.
    We often say how much we appreciate your time and 
testimony, to all of our witnesses, but I think it's fair to 
say, today in particular, this has been a great panel. They're 
very constructive, very specific, very direct, and I think 
that's extremely helpful to us, given the importance of these 
issues.
    There does seem to be a lot of consensus about the 
importance of the climate: Economic issues, political issues, 
social issues that need to be dealt with in order for 
stability--long-term stability to be realized. There's been 
specific discussion, as there was in the Iraq Study Group 
report, of things like the oil law, provincial elections, the 
training process, and the broader reconciliation process. Those 
were all recommendations here. But I think, Mr. O'Hanlon, you, 
in particular, emphasize that those would need to be addressed, 
or at least referenced, with regard to any change in the 
military footprint, military operations, and military 
objectives. And I think this, as well, is something that was 
contemplated in the Study Group Report, specifically with 
regard to an increase in troops. On page 73, it says, ``We 
could support a short-term redeployment or surge of American 
combat forces to stabilize Baghdad or speed up the training-
and-equipping mission if the United States commander in Iraq 
determines that such steps would be effective. We reject the 
immediate withdrawal of troops because we believe so much is at 
stake.'' So, clearly, this is something that's contemplated by 
Baker-Hamilton, but in the context of achieving some of these 
other specific objectives.
    So, I'd like all the panelists to comment, but we'll begin 
with Mr. O'Hanlon, whether or not you feel that some increase 
in forces, if used to--hypothetically, for example, stabilize 
Baghdad--would make, or could make, a difference in improving 
the window for training forces or for the formal reconciliation 
process, which began in December, but seems to have slowed a 
little bit. I mean, we can talk about those two specific 
examples or any others you want to discuss.
    Dr. O'Hanlon. I'll give you a somewhat tortured answer, 
Senator. I would support a surge, in the context of a much 
broader approach, but I'm not sure I could be very confident 
it's going to work. So, since I have the opportunity--and 
you've given it to me--to speak today, I think that we all have 
to be thinking about backup plans very hard, because, with or 
without a surge, I think we're likely to see something like the 
current strategy not succeed. But I would still think our 
chances would improve in the short term, at the tactical level, 
at least, with a surge. So, it's a tough situation.
    Senator Sununu. If those troops are given a specific 
objective, or an objective to support one of these other 
political or economic issues, which would it be? Which do you 
think their temporary role or security role could be most 
effective in enhancing?
    Dr. O'Hanlon. I think that they have to create some level 
of stability in Iraq, in the neighborhoods, reduce the 
violence. If you don't do that, nothing else can work.
    Senator Sununu. But, in terms of reconciliation, training, 
oil law, provincial elections, we--for example, in the 
electoral process, last time a surge was implemented, or two of 
the three times that we saw a surge in troops, it was focused 
on the elections, with relative success, and most people agree 
that those were relatively peaceful.
    Dr. O'Hanlon. I think a limited focused approach like that 
probably won't work. We're going to--we sort of need a miracle, 
politically. We need for Prime Minister al-Maliki, who now has 
an 85-percent unfavorability rating among Sunni Arabs, to be 
seen as a different kind of leader than he's been seen as so 
far. Or maybe we need a new Iraqi Prime Minister, like Allawi, 
who at least had a little stronger--you know, linkages across 
other ethnic groups. But I think we are beyond the point where 
you could say one specific political improvement will be 
enough. I think we're going to have to see a whole new ball 
game in very short order.
    Dr. Marr. Well, it seems to me that if there's any mission 
for this additional surge, it's going to be to stop the ethnic 
cleansing, sectarian cleansing, or whatever we want to call it, 
in Baghdad. It certainly can't address all the problems of the 
country. But it's the demographic shift, that Michael has 
mentioned, that is so devastating and we want to stop and slow 
this. That's what we mean when we say ``providing some security 
in Baghdad.'' But I think we've all pointed out how that's 
fraught with dangers, because it's so inextricably mixed with 
different ethnic and sectarian groups and political parties and 
others. I agree, here, that perhaps it's worth giving it a 
shot, but our chances of actually turning the whole situation 
around on the ground is very slim. We might be able, with our 
forces, to hold some neighborhoods or do something militarily, 
but, as everybody has pointed out here, the real issue is: What 
are you going to do with the time you buy and the increase in 
tranquility, presumably, that you get? How are you going to get 
Iraqis to begin to address their political problems? That's the 
real issue.
    Senator Sununu. And that's the point I make. And where I'd 
like a little bit of additional comment is: If that time is 
created, where might it be best used? And do you even think it 
might be used effectively?
    Mr. Said.
    Mr. Said. I think this is an issue of putting the horse 
before the cart. I think the troops are a tool to achieving a 
certain objective. We need to agree on the objectives before we 
can discuss the tools. And the discussion seems to be having--
that there is this option of a surge on the table, and let's 
find a role for it. And I think that's the wrong way of asking 
the question, or for putting the question, I think.
    Senator Sununu. Well, I--although it would--I think I've 
actually asked the question in just the way you want. The 
objectives are a reconciliation process--equity in distribution 
of oil revenues, so that the Sunnis feel enfranchised 
economically, provincial elections, so that the feel 
enfranchised politically, so that they have some better voice 
in governance. Those are the objectives that will lead to long-
term success. And my question is: Do you see an opportunity for 
additional military troops to help achieve a window where those 
objectives might be accomplished?
    Mr. Said. I think if there is agreement--if there is a 
political process that leads to agreement on these issues, if 
we--if we have a blueprint for addressing these issues, on the 
back of that they may be needed--more troops may be needed or 
less troops may be needed. It all depends on the shape of the 
agreement. That agreement may bring other troops from other 
countries to help with the situation, and it doesn't have to 
become a burden of the United States alone. So, there are all 
kinds of outcomes from the political process that could lead to 
increased or reduced troops.
    There's one issue that the others suggested, and I have 
emphasized, as well, which is the humanitarian role. There is 
one role that the United States can play today, which is 
protecting civilians. But that's--this has to be done in an 
evenhanded way that is not seen as participating in the 
conflict on one side or the other. But protecting civilians is 
definitely an important role.
    Senator Sununu. Thank you.
    Mr. Pillar.
    Dr. Pillar. It presumably is the capability of troops, 
whether it's part of the surge or any others, to provide 
security, not to run elections, not to pump oil, not to do 
those other things. But I think the answer to your question, 
Senator, if I understand it, is that you cannot focus on any 
one thing. You noted the elections before. Well, we've been 
through this multistage political reconstruction process in 
which there was always something else to look forward to. You 
know, the constituent assembly elections or the transfer of 
sovereignty or the election of the regular legislature. We're 
through all that. And so, there isn't any one thing. It is the 
oil. It is the political reconciliation. It's the neighborhood-
by-neighborhood security. It's everything. So, I'm afraid I 
would resist giving you a specific answer, because the valid 
answer is: All of the above.
    Senator Sununu. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Biden. Thank you.
    Folks, what we're going to do is give you a little bit of a 
break here. I instructed--I suggested that my colleagues go and 
vote. We'll adjourn. If Senator Lugar makes it back before I 
do, he will reconvene the committee for Senator Webb to be able 
to ask his questions. This is an opportunity to get up and 
stretch your legs. And I think what we'll try to do is go 
straight through rather than have you have to come back this 
afternoon.
    So, we'll adjourn until the vote is over.
    Thank you.
    Recess, I should say.
    [Recess.]
    Chairman Biden. The hearing will come to order, please.
    There's an awful lot of things that are going on today, 
including a meeting with Mr. Hadley. I see that in order, next, 
ordinarily, what would be the case--and I'd just raise this as 
a question--my friend from Florida would be next, but Senator 
Casey, a new member, is to be down at the White House at a 
quarter of 12. I wonder whether or not the Senator would yield 
to Senator Casey?
    Senator Bill Nelson. Of course I do.
    Chairman Biden. And then go back to--I believe the Senator 
from Alaska, who's next on this side, but I'm not sure.
    Senator Casey, why don't you proceed?
    Senator Casey. Thank you, Mr. Chairman--and I appreciate 
your indulgence--Senator Lugar. And thank you, Senator Nelson, 
for this opportunity to jump the line a little bit. I will try 
not to get used to it.
    I have two questions, one that pertains to our troops, and 
the other with regard to diplomacy.
    I come from Pennsylvania, where Senator Specter and I 
represent a State that has lost, right now, the third-highest 
amount of troops--just last week went above 140. I'm thinking 
of those troops today, and their families, as all of us are, 
who gave, as Abraham Lincoln told us a long time ago, the last 
full measure of devotion to their country.
    One of the questions I have for Dr. O'Hanlon and others--
when it comes to data points with regard to where we are in 
Iraq, one that I'm not sure you've been able to track, or 
whether you or the other panelists have information about, is 
the condition of our troops, in terms of the things we used to 
read a lot more about than we do now--body armor, the 
protective gear, weapons, all of the indicators that we can 
point to that tell us whether or not we're doing everything we 
can to support the troops who are in battle right now. Do you 
have any information about that or any kind of status? Because, 
as you know better than I, many months ago we read about all 
the horrors, where families were buying equipment and body 
armor and things like that. So, that's the first question I 
had, with regard to that data point, so to speak.
    Dr. O'Hanlon. Senator Casey, my impression is that most of 
these numbers are much better now, but I'm going to focus on 
one thing, which I wonder if we should have had a broader 
national debate about, which is the type of vehicle we put our 
troops in. As you know, there are some vehicles that are built 
around the world that are designed to withstand the blast of 
mines, or, as we call them in Iraq, improvised explosive 
devices, which are now responsible for about half of all of our 
fatalities, as our data show. And, of course, other types of 
threats exist, and snipers are a worse concern than before in 
Iraq, but it's really the IED problem that's No. 1. And I, 
frankly, am wondering--it's getting pretty late in the game to 
have this conversation, but I am wondering if we should have 
had, and maybe still should have, a big debate about whether to 
refit a lot of our vehicles with things that look more like 
some of the specialized mine-clearance vehicles, that are more 
expensive, have--often have V-shaped hulls, different kinds of 
suspension, are higher up off the ground. Now, a bigger IED can 
always penetrate that, so there's always a countermeasure the 
enemy can envision.
    But, frankly, that's the one thing I'm still wondering, if, 
in broad terms, we really never focused on enough in this 
country. It would be very hard to build 10,000 of them fast, 
but if you took a World War II-type approach, and you said, 
``This is a national emergency, we're going to have to ask 
every car manufacturer in the United States to do this for 6 
months,'' you could do it. And we simply haven't considered 
that. I'm not sure history will judge us very well. And I say 
this as being critical of myself, too. I'm a defense specialist 
at Brookings, and I wonder if I shouldn't have been thinking 
about this more 3 and 4 years ago. It may be kind of late in 
the game now, but I--maybe not.
    Senator Casey. But, in particular, you're talking about up-
armoring vehicles, or retrofitting or redesigning?
    Dr. O'Hanlon. New vehicles. Vehicles that are designed to 
have V-shaped hulls, higher suspensions to be able to operate 
more effectively on three wheels, even if one's blown out. 
Basically, building much of our patrolling fleet around the 
same vehicle concept that some specialized mine-clearance 
vehicles currently employ in the U.S. military, but that most 
of our fleet of Hummers and Bradleys and so forth does not.
    Senator Casey. And in the interest of time--and I know 
Senator Webb has presiding duties, and I want to be cognizant 
of that--the last question is very broad, and it's been asked, 
probably, in different ways throughout the morning, but it's 
one that I think a lot of Americans are wondering about. We 
hear a lot of things that talk about a political solution and 
steps to get us in that direction, apart from the military 
strategy and tactics on the ground, much of which we'll be 
talking about tonight when the President presents his plan. But 
just in terms of diplomacy, if you could focus on that with 
your collective experience, I think it's good to work with 
lists, if we can, if that's at all possible. I know it's very 
difficult in this context. But if you had the opportunity to 
construct a diplomatic strategy for the next 6 months, say, 
what would be the three or four or five things you would do, in 
terms of very specific steps that this Government should take 
diplomatically--within the region especially, or beyond the 
region? Any one of you can weigh in on that, in terms of a 
specific list of steps.
    Mr. Said. Well, I think there is a need to engage with 
Iraq's neighbors, but also with the broader international 
community, the permanent five from the Security Council. 
Professor Marr suggested a contact group concept. That may be a 
good first step. I still believe that we need to work toward a 
process--a peace process that will involve some form of a 
conference. But, preparations for that, engaging with each of 
Iraq's neighbors, trying to address their concerns and their 
interests in Iraq, and trying to see how they can contribute to 
influencing the situation inside Iraq by working with their 
constituencies in Iraq, by working with the groups, by 
providing assurances for certain groups in Iraq about their 
interests, and encouraging them to achieve compromises.
    So, there is scope for active diplomacy in Iraq. And some 
of that has taken place in the international compact with Iraq, 
which the administration and the United Nations have been 
engaged in over the last 6 months. And I had an opportunity to 
work on that. That involved intensive diplomacy with the Gulf 
States and with the international community, 22 countries or 
more, to bring them in Iraq. And there is great interest to get 
engaged. There is great interest in the international community 
to get engaged in Iraq in a meaningful way so that there is no 
hierarchy at levels and sort of a--category A countries and 
category B. But really get engaged--China, Russia, the gulf. 
And there--and this should be pursued.
    Dr. Marr. I had a couple of thoughts at a practical level, 
on our Embassy. We need skillful, behind-the-scenes, but 
muscular, diplomacy. I like much of what Ambassador Khalilzad 
did. And we're getting another very good Ambassador. But two 
things are needed for our Embassy there: More Arabic speakers, 
of every kind--it's difficult enough, in the security 
situation, to get out, but the more we can interact with Iraqis 
at every level, the better off we'll be; and more sustained 
deployments, not of troops, but of AID people, whoever. The 
turnover in personnel, because it's a hardship post, is 
abysmal, in terms of intelligence, building linkages, networks, 
and so on. That's what everyone complains about. You just get 
into the job, you learn who's who, you establish the contacts, 
and you're out, and somebody else comes in. So, those are two 
practical things that I think would help our Embassy in 
Baghdad.
    Chairman Biden. Thank you very much, Senator.
    Senator Casey. I'm out of time.
    Chairman Biden. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    We hear a lot about suggestions that we, here in the United 
States, might do or propose, and the President is going to 
present his new proposal this evening. We'll listen very 
attentively to that. But I think we all recognize that we can 
only do so much from the outside, from the United States 
perspective, or even from the international-community 
perspective. And I appreciate the focus that you all have made 
in saying we need to broaden the dialog, bring in more. But we 
recognize that the Iraqis have to step up and do their part. 
They've got to be the participant.
    And, Mr. O'Hanlon, I listened very attentively this morning 
as you kind of went down through your various measures, and I 
have to admit that they were really very discouraging as you 
listen to some of the terminology that you used, and that 
others of you used, as well. You know, you used the term 
``pessimism'' over and over. We heard of the ``hardening of the 
people,'' the word ``fear'' and the ``apathy,'' just the 
general environment being ``poor,'' all very negative and 
really very discouraging words. We all know that you can't 
really engage, you can't get your--the men behind you to engage 
in the fight that you must take on if you don't believe. And 
the question that I would pose to you, Mr. O'Hanlon, and to any 
of the others is: Is there any good-news indicators that we're 
seeing from the Iraqis that give us hope to believe that if we 
should move forward with, as the President may propose, this 
surge, that the Iraqi people feel a degree of optimism, at this 
point, that they can be that full participant that we need and 
expect them to be? Are there any good signs that you can 
report?
    Dr. O'Hanlon. Senator, I think you could find some, and we 
used to try very hard to try to give them equal billing, 
because I used to think that, whether they were 50 percent of 
the reality of Iraq or not, they needed to be highlighted. But 
they seem to be dwindling in number. But I can still tick off a 
few for you.
    Some of them are on our last category, of politics and 
public opinion. Certainly, Iraqis have a lot more in the way of 
communications, whether it's newspapers, TV, telephones, 
Internet access. And they use these things, and they relish 
them. There's also, from what I understand--I haven't spent as 
much time in Iraq as some people on this committee, but there 
is more bustle in some of the streets, or at least there has 
been. And we can read about a traffic jam, and that's the 
negative way to look at it; the upside is that a lot of people 
have cars, and there is a sense of people still wanting to be 
out and about, despite the risks. So, there is a certain energy 
in Iraq that I think may be dwindling, but it's still there.
    There are some indicators about public utility performance. 
It's confusing to try to track GAO and USAID and figure out 
exactly where Iraqi utilities stand today. Electricity is not 
very good. Oil production is not very good. Water and sewage 
performance, hard to read. I can't quite get confidence in the 
data I'm seeing. Things are probably about at Saddam Hussein 
levels, though. In other words, we've basically treaded water 
for 4 years on that front. But there are some new facilities 
coming online. Child vaccinations seem to be up, from what I 
can tell. The number of trained judges in the Iraqi political 
system, of course, much higher than it used to be.
    So, yes, if you want to find things, you can find a number 
of indicators that----
    Senator Murkowski. We can find----
    Dr. O'Hanlon [continuing]. Are possible.
    Senator Murkowski [continuing]. Those, but do the Iraqi 
people believe that more good is being delivered?
    Dr. O'Hanlon. Not now.
    Senator Murkowski. Now, Mr. Said, you're kind of shaking 
your head no. Can you comment on that?
    Mr. Said. Unfortunately, in terms of life of Iraqis on the 
street, it's getting progressively worse. And even if you can 
find numbers--for example, the numbers on the electricity don't 
look so bad, but the reality of it is worse than the numbers. 
Water--the Ministry of Water Resources have done a wonderful 
job. It's one of the most efficient ministries in Iraq. But, 
without electricity, you can't deliver water. So, even where 
things are getting better, the overall situation is making it 
worse.
    However, if you are looking for a silver lining in the 
situation, one of the elements is the recent agreement on an 
oil management framework. Because that agreement shows that 
there has been movement since the time when the Iraqis 
negotiated a constitution as a zero-sum game, whereby weakening 
the federal government--the strength of the region is only 
achieved through weakening the central government. I think the 
deal on oil shows that the Iraqis have moved on, have realized, 
if you like, that, actually, it doesn't have to be a zero-sum 
game, that strong federalism is based on a strong center and 
strong regions.
    So, there are elements of awakening, if you like, at least 
among some Iraqi--Iraq's leaders and politicians, but, in terms 
of reality on the ground, it's devastating.
    Senator Murkowski. On the oil issue, have you looked at the 
Alaska Permanent Fund model as a model to be utilized there, 
where you would have a sharing of the revenues among the 
people? And, in your opinion, do you think that that would help 
with some of the sectarian strife that we're facing now?
    Mr. Said. I think there have been proposals for a direct 
distribution of oil revenues to the Iraqi citizens. Some people 
in the Iraqi Government strongly support that. However, there 
has been great opposition to it from the international 
financial institutions.
    Senator Murkowski. Great opposition, you say?
    Mr. Said. Opposition to the direct distribution of 
revenues. They fear that it may be inefficient use of 
resources, that Iraq needs to invest all its oil revenues, and 
so on. I, personally, disagree with that. I think direct 
distribution is a good tool to unify Iraqis. I think there is a 
lot speaking in favor of direct distribution of revenues to the 
citizens, at least a portion--a small portion. Unfortunately, 
it is now--it's not happening, simply because of strong 
opposition by the IMF, in particular.
    Senator Murkowski. Mr. O'Hanlon.
    Dr. O'Hanlon. Senator, I think it's a good idea, also. And 
I would envision, potentially, divvying up Iraq's oil into 
three or four buckets, one of which would be the Alaska model, 
direct distribution, one of which would be direct payments to 
the provinces, based on population, a third bucket would be for 
federal projects or for national-level institutions. But I 
think, in responding to the international financial 
institutions, the natural thing to do is to keep reducing Iraqi 
subsidies, which we all know are still too high. The Bush 
administration has had some success in convincing them to 
reduce those for various consumer goods. Try to keep reducing 
those, and then use the Alaska model, direct distribution 
system, as compensation. So, that's a way to avoid, you know, 
siphoning off money from investment, and I think it would also 
improve the consumer market for many of these goods, which is 
being distorted by subsidies right now.
    Senator Murkowski. Thank you.
    Thank you, Mr. Chairman.
    Chairman Biden. Thank you very much.
    At the risk of generating a revolt here, the most junior 
member of the committee is to preside at 1 o'clock. I'll leave 
it up to his more senior colleagues to wonder whether you let 
him go for 8 minutes, which means it's going to put you all 
behind. I will have pushed you back a good 20 minutes.
    Senator Bill Nelson. Well, I don't mind. Be happy to defer. 
At 1 o'clock, I turn into a pumpkin, as well, in handling a 
meeting. So, if we can go--let the Senator from Virginia go 
ahead, and just let me get in a couple of questions before 1 
o'clock.
    Chairman Biden. We will try to do that. We've got 15 
minutes. If you do less than 8, you'll make more friends, Jim. 
[Laughter.]
    Senator Webb. Well, thank you, Mr. Chairman. And I realize 
that I've now incurred a sequence of obligations all the way 
down this bench here. And the unfortunate part of that is, as 
the junior member, there's not many ways I can repay that----
    [Laughter.]
    Senator Webb [continuing]. Other than agreeing to preside 
on the Senate floor for some of these people, which I won't do. 
[Laughter.]
    Senator Webb. But I want to thank the witnesses for their 
testimony. I thought there were some really fascinating 
information for me to be able to put into the thought process 
here. I think, as most of you know, I was an early-warning 
voice against going into Iraq in this way. I thought that 
strategically it was going to harm the country. And I was very 
interested to see that there seems to be pretty strong 
agreement here that the--for the long-term benefit of Iraq and 
the region, the solution here really should be moving from the 
outside in, rather than from the inside out. And what I mean by 
that is, we do need a regional diplomatic umbrella before we 
can, in my view, guarantee the long-term security and stability 
of Iraq.
    And I know that, Dr. Marr, in your testimony, you mentioned 
the notion that there's going to be a high degree of 
decentralization for quite a period of time. And Dr. Pillar 
mentioned, several places, the specter of direct intervention. 
And, you know, Dr. Said, you mentioned the Lebanon model, 
which--I was a journalist in Lebanon in 1983, when the Marines 
were there. You--there were a number of parallels, other than 
simply the idea that people are going to fight it out over a 
period of years. Just the notion they had a very weak central 
government that was unable to get on its feet. You had all 
these different militia elements in constant turmoil. There was 
a great deal of middle-class flight, and, you know, people with 
high degrees of skills leaving the country. And we're seeing, 
in many ways, some of those parallels.
    And it occurs to me that, with respect to the players in 
this region, that it would be much better to have a United 
States-led sponsorship, in a way, that would bring these 
players to the table in a constructive way, rather than having 
them come in more as a consequence of disarray as things move 
forward. I would like your thoughts on that.
    Dr. Marr. Let me just say that among people I talk to that 
know the region, this opinion is almost unanimous--there is 
widespread believe that we need to engage the neighbors, and, 
to an extent, the international community, in a variety of 
ways. And I would just like to go back to the Iraq Study Group, 
because it was interesting that we had a very wide variety of 
opinions--on the right, left, middle--and there really was very 
widespread agreement that this must be a component, 
particularly if Iraq is not going to be successfully stabilized 
soon. I keep coming back to at least minimizing the damage to 
the neighbors and getting the neighbors to help to put either 
pressure or provide incentives to their clients inside. We need 
to do that.
    Dr. O'Hanlon. Senator, I think it's probably a good idea, 
although I'm skeptical of Iran's willingness to participate in 
a constructive way. But I think, even under those 
circumstances, it's still worth doing. As I've tried to argue, 
it's because, in part, you can tell the Iranians, ``Listen, 
there's not going to be any great outcome for you here, in 
terms of driving us out of the region.'' If you're in a 
conference where Saudis and Turks are sitting down with the 
United States, we'll have our allies there, too, and it'll be 
easier, I think, to convince the Iranians, something which they 
need to recognize, which I'm not sure they have, so far, 
which--they cannot drive us out of the region the way Britain 
left in the early 1970s, for example. Regardless of the 
outcome, and regardless of who's elected President in the 
United States in 2 years, we are almost certainly going to stay 
committed to our traditional allies. And I hope that awareness 
could sober Iran a bit about what it's trying to do inside 
Iraq. So, even if you take a very, sort of, dire interpretation 
of Iran's motives, I think it's still worth talking.
    Dr. Pillar. Senator, I agree with your observation 
entirely. And just to comment on Mike's comment, Iran's motives 
are shaped, in large part, by the United States posture toward 
Iran. And insofar as regime change is the main element of--or 
is perceived to be the main element of--that posture then the 
other side doesn't have much incentive to cooperate. So, that's 
a set of incentives that is very much in our power to 
manipulate.
    Mr. Said. I think, without taking the Lebanon analogy too 
far, because, of course, there are also differences there, I 
think what is also instructive from Lebanon is the Taif 
accords, the peace deal that brought peace to Lebanon. It was 
sponsored by Saudi Arabia, and it involved an element of 
implementation by Saudi Arabia, as well. And I think there 
are--there are instructive elements there that could be 
extended to Iraq, whereby a regional process where----
    Senator Webb. Yes.
    Mr. Said [continuing]. Can not only bring the solution and 
the settlement, but also the resources to implement it.
    Senator Webb. I have 2\1/2\ minutes left. I have one other 
question, and it--it's, sort of, inspired by the chairman's 
question earlier about: Do you ever--do you think you would 
ever see national police operating on the streets of Fallujah? 
Do any of you believe there will ever be true stability in Iraq 
if there are American combat troops on the streets of Iraq's 
cities? Or while there are?
    Mr. Said. No.
    Senator Webb. Thank you, Mr. Chairman.
    Chairman Biden. Thank you.
    Senator Isakson.
    Senator Isakson. In deference to my--the Senator from 
Florida who has to leave at 1 o'clock also, I'm certainly 
willing to let him ask a couple of questions before 1 o'clock.
    Chairman Biden. I told you this is the most collegial 
committee in the Senate here. Thank you very much. It's kind of 
you.
    Senator Nelson.
    Senator Bill Nelson. Thank you.
    Senator Isakson. As long as he doesn't run over. 
[Laughter.]
    Senator Bill Nelson. Well, rather than make a speech, I'm 
just going to ask questions. How's that?
    Senator Isakson. Good.
    Senator Bill Nelson. When does the pain of sectarian strife 
become sufficient that it finally causes the Sunnis and the 
Shiites to start getting serious about reconciliation?
    Mr. Said. The pain is already quite serious. The question 
is--and if it was just Sunnis and Shiites fighting, there may--
we may have reached that threshold. But what's happening in 
Iraq, as has been suggested by others as well, is 
fragmentation. This is becoming, gradually, a war of everyone 
against everyone. There are criminals on the streets. There are 
myriad Shia militias fighting among each other as much as they 
are fighting against the Sunnis. There are death squads of 
undescribable origin and of undescribable violence. This has 
become such a pervasive exercise in violence that there is no 
pain threshold that can stop it. This--there are no coherent 
sides directing the violence anymore. They are fragmented. 
There are warlords acting at the behest of the highest bidders. 
There are commercial interests and foreign interventions. Iraq 
has passed the point, if you like, where it can pull itself by 
its bootstraps. There is a need for an external intervention to 
bring peace to Iraq.
    Senator Bill Nelson. All right, now, that answer is 
particularly appropriate to Baghdad, would you not say? Let's 
go outside, to the west of Baghdad, to Al Anbar. I thought that 
the Marine commanders made a compelling case to me there, that 
additional troops would help them, as they are beginning to get 
the Sunni leaders to help them with al-Qaeda, which is the 
problem in western Iraq, in Al Anbar. Give me--differentiate 
between Al Anbar and Baghdad.
    Mr. Said. There are clearly differences, but they could go, 
also, the other way around. One of the major sources of the--
the major source of violence in Anbar is the fight between the 
Iraqis and Americans. So----
    Senator Bill Nelson. Pull that mike----
    Mr. Said [continuing]. One can easily----
    Senator Bill Nelson [continuing]. To you closer.
    Mr. Said. Huh?
    Senator Bill Nelson. Pull the mike closer.
    Mr. Said. I'm sorry. I'm saying, the main component of 
violence in Anbar is the fight--is the violence between the 
Iraqis and Americans. So, one can just as well say that a 
solution in Anbar can come through withdrawing U.S. forces 
rather than increasing them. But, regardless of that, even in 
Anbar there is intra-Iraqi violence. It's not Shia versus 
Sunni, it's Sunni versus Sunni. And, indeed, the tribal feuds 
in Anbar province--old tribal feuds on--over commercial 
interests and smuggling routes, have spilled out into this new 
coalition of Anbar tribes purporting to fight al-Qaeda. In 
reality, there is an--inside that determination, there are old 
tribal rivalries that are being used. And, in a way, the United 
States is being used by one tribe to bolster its bid against 
the other. So, it's never a simple--a black-and-white 
situation. But----
    Senator Bill Nelson. Right. All right, you----
    Mr. Said [continuing]. You are right that, in mixed areas, 
that's--the situation is different.
    Senator Bill Nelson. With the example you just gave in Al 
Anbar, could the Saudis, with their tribal influence, help in 
settling down the tribal strife, and, therefore, help with the 
stabilization of that western part of Iraq?
    Mr. Said. Tremendously. I think the one party if--everyone 
speaks about bringing Iran to the table, and Syria--I think one 
party that could contribute a lot more significantly than those 
two to a political settlement in Iraq is Saudi Arabia. And it's 
not being engaged properly.
    Senator Bill Nelson. All right. Let's----
    Dr. Marr. If I could----
    Senator Bill Nelson. Yes, Dr. Marr.
    Dr. Marr [continuing]. Just remind people how complex it 
is, there are tribes and tribes. And I've talked to people in 
Saudi Arabia who don't have any love for the Dulaymis, who are 
in Anbar. But I do agree the Saudis have a very vested interest 
in the stability of the Sunni region, so that this instability 
doesn't spill across the border. And something beside building 
a fence should be done.
    Senator Bill Nelson. Well, Mr. Chairman, I haven't given 
you my report, but that's one of the reasons I went and spent 
12 days in the region. And I spoke, specifically at the request 
of General Hayden, to the Saudis--the King, all of the security 
apparatus in Saudi Arabia, and so forth. So, I would ask: How 
do you encourage Saudi Arabia properly to get involved?
    Mr. Said. I'm sorry. One reason why the Saudis are not 
being engaged sufficiently in Iraq is that--is the resistance 
on behalf of Iraqi--some of the Iraqi leaders, winners of the 
political process, to engage them. Because clearly a Saudi 
engagement will bolster the position of some of the opposition 
groups, vis-a-vis some of those who are in power; and, 
therefore, Saudi engagements needs to be a part of a regional 
approach, and it needs to be part of an internationally 
mediated settlement for Iraq that goes beyond, if you like, the 
pain threshold of the Iraqi Government. I mean, we cannot--this 
will not happen if everything happens exactly as to the wishes 
of the Iraqi Government. The Iraqi Government needs to be 
pressured into accepting Saudi engagement, as well as some of 
the other groups need to be pressured into accepting Iranian 
engagement.
    Senator Bill Nelson. All right. Final question, Senator 
Isakson. As I said, I'm not making a speech, I'm asking 
questions.
    A final question. Bashar Assad says that he has an alliance 
with Iran, vis-a-vis Iraq. You all have already testified on 
his reasons not to do that. How do we--how do we crack that 
door? How do we start to bring him to us instead of to Iran?
    Dr. Pillar. I think two main things. One, bear in mind that 
his principal objective is still to get what his father 
couldn't get, which was return of the Golan, as, obviously, 
part of a larger peace process with Israel. And the last time 
the Syrian track was active, they came this close to an 
agreement. And the second thing is, there are economic ties 
that have developed over the years between Iran and Syria, and 
there's going to have to be some kind of consideration for how 
economic ties with the United States could take part of the 
place of that, if they lost any of it.
    So, economic issues and Arab-Israeli peace-process issues.
    Mr. Said. If I might add, again, I mean, the--there has 
been a very strong and constructive, in the region, Syrian-
Saudi alliance that has broken down over the last 10 years. And 
that's something that could also be--especially in terms of 
economic aid--if Saudi Arabia could replace Syria's dependence 
on Iran, one could see a different behavior.
    Senator Bill Nelson. Thank you.
    Senator Menendez. Mr. Chairman, a procedural question, if I 
may?
    Chairman Biden. Sure.
    Senator Menendez. I won't be, unfortunately, able to stay 
after Senator Isakson. I have an interview I've got to do. What 
is the procedure here on questions for the committee?
    Chairman Biden. Yes; we'll submit----
    Senator Menendez [continuing]. Some course of events----
    Chairman Biden [continuing]. Them through the Chair to the 
witnesses.
    And I apologize to my colleague from New Jersey for the way 
this has been disjointed a bit here.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    All of you have said, in one way or another, that 
reconciliation is absolutely essential to long-range stability 
of Iraq. I have read that part of the administration's case may 
be--for a surge of troops in Baghdad--may be that you can't 
have reconciliation until you first have stability within 
Baghdad, relative peace. The question is: If the multifaceted 
violence--more than just the sectarian violence, but what you, 
Mr. Said, have referred to--if, in fact, a surge does produce a 
more peaceful Iraq, without having played a favorite within the 
many facets, and was evenhandedly done, can that contribute to 
bringing about the reconciliation we're talking about? Or is 
the fact that we're going to have soldiers there, present--as 
the answer to Mr. Webb's question--make it impossible?
    Mr. Said. I think any additional U.S. soldier brings with 
him the--or with her--the complexity of the issue. Again, it's 
one more occupation soldier, in the eyes of many Iraqis, as 
well as a protector for some communities, in the case of the 
sectarian violence. So, the--you're asking if the presence of 
the troops will produce stability, and I think what we've heard 
from me and from the others is that there is skepticism that 
the proposed surge will produce the stability and the 
protection that the people will get. But to answer your 
question directly, yes; if they succeed, if the additional 
troops do succeed in protecting more Iraqis and reducing the 
threshold of fear, the level of fear that they experience 
today, then, of course, that will be--that will contribute to 
political settlement.
    Dr. Marr. I would just----
    Senator Isakson. Yes.
    Dr. Marr. I would just like to add, here, that I see the 
situation in the Iraqi Government, within the Green Zone, as 
one centered on political parties and factions and groups, with 
their militias, particularly an alliance between the two 
Kurdish parties and SCIRI. Of course, Muqtada al-Sadr is 
playing a role. These are political parties with leaders who 
have been shaped by certain perceptions. They're new, they're 
not entirely stable. And this is the dynamic you have to look 
at. They're being asked to make compromises with ex-Baathists, 
people--insurgents and people who have perhaps wreaked a great 
deal of terror in Baghdad, and who have a history of wanting to 
get back in. So, I--put it in a political context here, 
because, in fact, it's not just a question of stabilizing 
Baghdad. They might use us for that purpose, because, indeed, 
that's what they'd like. Better we do it than that they do it. 
Even if we stabilize Baghdad, if that should occur, we're going 
to have to find ways to get these particular parties, groups, 
leaders, operating within this dynamic, to make the compromises 
necessary, and to expand the political group. That's the task 
that's at hand, and we can think of a variety of ways in which 
you can do that. Hopefully, it will work, but it really 
requires a strategy, nudging, and instruments, positive and 
negative, to get that to occur.
    Senator Isakson. Thank you, Dr. Marr.
    Dr. O'Hanlon, I want to ask you a question, and you can add 
on what you were going to say. Sixteen years ago, my son wrote 
a master's graduate thesis at the University of Georgia--which 
as a father I read--which just occurred to me in your 
testimony, it was about the effects of the Dutch disease on the 
Middle East. And the Dutch disease, as I remember it from that 
master's thesis, is when you have a nation with a singular 
source of wealth, which is a raw material--in this case, oil--
that never develops its infrastructure or its economy or its 
people, then it--they are rife for problems. Then it went into 
investigating each one of these.
    The President's recommendation, we are told, is going to 
have a $1 billion economic--for lack of a better word, a WPA 
program for, I presume, mostly in Baghdad. Does that help, 
given this Dutch disease, which Iraq obviously suffers from--
does that--assuming, again, the stability, which is step one--
does that help to bring--to contribute to reconciliation, if, 
in fact, they begin being employed in the--there begins some 
semblance of a diversified economy?
    Dr. O'Hanlon. Senator, I'm a supporter of a job-creation 
program, not necessarily because I expect it to contribute to a 
stronger Iraqi economy, in the long term, but because I think 
it's a good security strategy, in the short to middle term--
takes some of the unemployed angry young men off the street, or 
at least gives us some hope that some fraction of them will be 
less likely to oppose what we're doing and oppose the Iraqi 
Government. So, on those more specific security grounds, I 
would support it.
    On your earlier question, if I might add on----
    Senator Isakson. Please.
    Dr. O'Hanlon [continuing]. I think it's fine to imagine, 
you know, a surge beginning before a reconciliation, as long as 
there's a sense of urgency about the latter. Because I think--
my own sense, this is just guesstimating, of course--but the 
best you could hope for out of a surge is to get violence back 
to where it was, maybe, in 2004, or, if you're really lucky, 
the more difficult parts of 2003. A surge is not going to end 
Iraq's problems, it's not going to stabilize Baghdad. That 
would be too ambitious of a goal, and it's just not realistic. 
So, the most we can hope is that it arrests the deterioration, 
maybe stops some of the worst ethnic cleansing, and gets things 
back to where they were a couple of years ago. That's obviously 
not good enough. That's not a stable endpoint. So, the only way 
that could be useful is if there very quickly follows on--
hopefully at the same time, but certainly very quickly 
thereafter--a broader political and economic strategy, as well.
    Senator Isakson. Yes.
    Mr. Said. I think it's a very important question you raise 
about Dutch disease. And, indeed, none of the economic policies 
promoted by the United States in Iraq under the direct 
administration, nor now under the Iraqi Government, are mindful 
of that. Indeed, Iraq's dependence, singular dependence, on oil 
has increased over the past 4 years. Last year's budget, 94 
percent of government revenues came from oil. That's 
unprecedented. There is no country in the world that has such 
degree of dependence on oil. But, unfortunately, at this point, 
it seems that Dutch disease--worrying about Dutch disease is a 
luxury that the Iraqi Government cannot afford. And, as Mr. 
O'Hanlon suggested, an immediate job-creation program, although 
it is clear that it will not offer any long-term economic 
benefits, will at least reduce the violence, which is the main 
concern.
    Senator Isakson. Dr. Pillar, I--first of all, thank you for 
your service to the country. You're a retired veteran, served 
in Vietnam--I was reading your resume--and, I think, wrote a 
book that's title was, in part, ``Negotiating Peace and 
Terrorism in U.S. Foreign Policy.'' And when you made your 
statement, it was enlightening to me, when you said--talked 
about ``jihad depended on struggle,'' and talked about ``the 
terrorist networking, given the struggle in Iraq,'' assuming, 
for a second--knowing what happened on 9/11, and knowing what 
al-Qaeda's stated purposes are, and assuming stability came to 
Iraq and we were gone, what would al-Qaeda do to--would it 
create more struggles to keep feeding itself?
    Dr. Pillar. It would create more struggles. It would lose a 
big propaganda point and recruitment tool and networking 
opportunity and training ground, which, again, are the things 
that parallel what we saw in Afghanistan. It would not be 
critical, one way or another, in the survival of al-Qaeda. And 
most of what al-Qaeda will continue to try to do would not 
depend even on a safe haven, as was once the case in 
Afghanistan. One can talk about Iraq, but more important will 
be things terrorists do in places like Hamburg and Kuala Lumpur 
and flight-training schools in the United States, which is one 
of the lessons of 9/11: You don't need a territory. They can do 
their dirty business other ways.
    Senator Isakson. And I guess my answer to that would be, 
they thrive off the continued conflict in Iraq, they have no 
interest in reconciliation, or peace, for that matter.
    Dr. Pillar. Absolutely. They thrive off of continued 
conflict in Iraq, yes.
    Senator Isakson. Thank you.
    Thank you, Mr. Chairman.
    Mr. Said. If I may add, here, also, al-Qaeda is not 
necessarily interested in gaining power in Iraq.
    Senator Isakson. I know.
    Mr. Said. Al-Qaeda is more interested in keeping it as it 
is, and keeping the United States in Iraq, where there could be 
major confrontation.
    Dr. Pillar. Exactly. I agree, completely.
    Senator Isakson. Thank you, Mr. Chairman.
    Chairman Biden. Senator Cardin, you take what time you 
need. [Laughter.]
    Senator Cardin. Thank you, Mr. Chairman. I appreciate it 
very much. And I can't tell you how much--how important I think 
these hearings are, and the witnesses that we have here, 
building upon the opinion that the United States needs to lead 
with diplomacy and bringing in the international community if 
we're going to be able to complete a mission in our interest in 
Iraq.
    I want to follow up specifically on one part that is likely 
to be in the President's policy, and that is the public works 
initiative, significant United States-initiated economic-
development public works in Iraq. And I want to know what your 
views are as to the capacity of Iraq to be able to deal with 
that type of initiative. All of you are saying that the United 
States is viewed as an occupation force, the President's 
message tonight is certainly going to get mixed reviews among 
the parties in Iraq. It's--it makes more visible, United States 
presence in Iraq. There are concerns about security issues 
among any public works projects. And I just would like to 
know--we've had problems in Congress making sure the money is 
used appropriately that we appropriate. And we know that it has 
not been the case. So, I guess I have a concern that, yes, we 
want to be responsible in building Iraq, the economics and 
providing opportunity for the people of Iraq, but--well, what 
are your views as to how well that will be used in Iraq, or 
what suggestions you might have as to what we should be doing 
to make sure that money is properly used in Iraq, understanding 
that the package that the President's likely to be submitting 
to us is coupled with an escalation of United States presence 
in Iraq that certainly will cause some additional problems for 
us in that region?
    Dr. O'Hanlon. Senator, that's a great question. I certainly 
think you're right to raise all these concerns, but I still 
strongly support the job-creation program, because, again, 
unemployment has been such a nagging issue in Iraq, and it 
creates more angry unemployed young men who join the Mahdi 
Militia, for example, or who join the Sunni-based insurgency. 
So, I think it makes sense. But to focus in on one of your 
operational questions: How do we provide oversight? What are 
the most important things for us to watch? In the spirit of 
what I was saying before, and that my colleague, Mr. Said, was 
saying also, I think it's, in a way, almost less important what 
the Iraqis do on their jobs, and more important that we make 
sure the right people get the money. In other words, you don't 
want to have this become a slush fund that some jihadist gets 
in charge of or some militia member gets in charge of, and then 
turns it into a patronage system to reward militia members. You 
have to make sure that you are being very careful about the 
disbursement of the funds. I don't, frankly, care if they 
whitewash the same fence 10 times in a row, as long as it's 10 
people who are relatively good-natured and well-intentioned and 
are not using that money to funnel to a lot of al-Qaeda or 
insurgent or militia operatives.
    So, figuring out the mechanism to pay people, I think, is 
the single most important thing, and my guess is the right 
answer is to build on the military commander's emergency 
response program, because our troops in the field are the ones 
who are out there in the large numbers who are going to have 
the ability to do more vetting and more careful distribution. 
They have to be involved, at some level. You can't just rely on 
these Provincial Support Teams, Provincial Reconstruction 
Teams, that have a couple of dozen people in each province, 
because they're going to have to give the money in bucketloads 
to Iraqis who, in some cases, may or may not be fully 
dependable. That would be my only advice.
    Dr. Marr. I'd just like to make three points on this. I 
would hope that this money is going to be rapidly funneled to 
Iraqis. The whole idea that Americans are going to be there 
doing the public works is just, it seems to me, a nonstarter.
    Iraqis traditionally are schizophrenic on foreign powers 
and occupation, and we perhaps put a tad too much concern on 
antiforeign, antioccupation sentiment. Of course that's going 
to be there, but Iraqis do need the outside help. And yet, even 
when they get it, they're going to rebel against it.
    I think there is an issue here, not so much on the public 
works and the emergency funds, because the money needs to be 
spread for employment, I agree. But in terms of really 
developing the economy, getting the electricity going, and so 
forth, Iraq used to have a very good technocratic class, 
engineers and others, but, as everybody has pointed out, 
they're really losing it, not just at the top level, the 
engineer, but the technocrats who actually do the work. I 
recall a conversation in Basrah, last time I was there, about 
some technician who was dealing with something as simple as 
filters of some kind on oil installations; and just getting 
people to understand that they had to change that filter--it 
had to be absolutely clean every day--he said, was very really 
a problem. So, this is something we do need to be concerned 
about, whether the money is going to be used properly.
    And we haven't talked too much about it, but corruption is 
a huge problem. Mike probably knows the figures on how much of 
the Iraqi oil revenue, the economy, and so on, is siphoned off 
to individuals, and doesn't feed into the formal economy or the 
government. So, some kind of balance has to be found, in terms 
of oversight of the funds, that they're going not just to 
insurgents, that goes without saying, but corrupt politicians 
and others--there will always be a certain amount of 
corruption--versus getting that money and the jobs into the 
bloodstream. I think there's always a balance to be achieved 
here. But that corruption issue is a real problem.
    Senator Cardin. I agree with you. And there's certainly a 
desire to get Iraqis employed. And I can appreciate your 
pointing that out. But I think, at the end of the day, we want 
the water supply to be available to the Iraqis. We wanted this 
to be constructive and helping the economy of the country to 
lead toward stability of the country. And without the experts 
that they need, because they have left, without having the 
trained workforce, there's going to be a lot of foreign 
interest in helping in Iraq, and, unfortunately, some of that's 
not going to be well received, it seems to me.
    Mr. Said. I think there are two problems with the job-
creation program that is being proposed. First of all, the 
Iraqi Government, last year--this past year--have failed to 
spend a lot of the money that it has allocated through the 
budget for investment. There is a serious shortage of capacity 
to spend, in the Iraqi Government, to--especially for 
investment projects. So, to add additional resources, if the 
Iraqi Government hasn't been able to spend, is a bit 
problematic.
    So far, such initiatives have been guided by short-term 
interests, particularly addressing the security situation, and 
has not fed into a long-term or medium-term strategy. Now, 
there is--the Iraqi Government has developed several 
strategies--a national development strategy on, currently, the 
compact--but there has been--there seems to be continued--
continuing disconnect between the interventions, the aid money 
that is being given, and the Iraqi medium-term strategy. So, 
it's very important for this particular package to flow through 
an Iraqi-owned and -designed planning strategy that looks in 
the--to the medium term and is not ad hoc and short term.
    Senator Cardin. Well, let me thank, again, the witnesses, 
and thank your patience, Mr. Chairman.
    Chairman Biden. Well, thank you for your patience.
    Senator Lugar, do you have anything you want to----
    Senator Lugar. Just one followup on Senator Cardin's 
question. We've been discussing--and he illuminated this, as 
you have--that it would be desirable for this to flow through 
somebody in Iraq. But you've all testified the bureaucracy is 
decimated, the professionals that were left have gone 
somewhere, and there is a protection problem even for those 
Iraqis who might be doing these works, quite apart from 
Americans or somebody. Physically, how can the billion dollars 
be spent? You've said that the Iraqis couldn't allocate maybe a 
quarter of their own budget this year, quite apart from $1 
billion that comes in from us. I'm just trying to trace, 
physically, what happens, in terms of expectations and results.
    Mr. Said. This is quite a challenge. I mean, you are 
pointing out a serious challenge that the administration will 
face in spending these resources. I think the trick is--here is 
to help spend at least some of these resources to build Iraqi 
capacity to spend, Iraqi capacity to manage and execute 
projects, which has been decimated over the last 3 or 4 years.
    Senator Lugar. Build the capacity to get those resources to 
people.
    Mr. Said. Another element of it is to use the emergency 
response fund framework that the commanders use, the military 
commanders on the ground, with small sums of money, to produce 
the kind of relief. But this is not a framework within which 
you spend billions of dollars; these are much more small-
scale--however, quite effective in generating short-term 
employment.
    Dr. Marr. Just one point. I'd like to bring up my favorite 
subject, and that's exchanges--education, students, training 
people, getting Iraqis out; it doesn't even have to be to the 
United States--and working on the visa problem here, to get 
them in. I'm hearing all kinds of complaints, still, about 
Iraqis not being able to come over, study, and so on. But one 
way to help build the capacity is to get Iraqis out, get them 
in training, and that helps some of the security problems, as 
well.
    Senator Lugar. You mean develop a major scholarship program 
for 10,000 Iraqis, something of this sort, with a significant 
public-relations aspect, and maybe some leadership.
    Dr. Marr. Not enough is being--not enough is being done 
there, I think.
    Chairman Biden. Senator Menendez----
    Senator Menendez. Thank you, Mr. Chairman.
    Chairman Biden [continuing]. Welcome back.
    Senator Menendez. I'm glad to have been recognized. I 
didn't think it was going to be that short, but I appreciate 
it. And I appreciate the panelists for their testimony and 
their staying power for all this time. And I wanted to get 
back, and having sat here all morning I hope that the questions 
that I want to pose to you are not repetitive. I stayed here 
through the morning, so, maybe on some of the questions and 
answers, you may have answered some of this. So, I hope it's 
not repetitive, in case I didn't catch it.
    As I both read your testimonies and listened to your 
testimony here today, and your answers to questions I have a 
real concern. I didn't vote for the war in the first place, so 
I come from a certain point of view. But, of course, I want us 
to succeed. And it seems to me that everything I heard you 
collectively say is that this is about, at the end of the day, 
a political solution, and that we cannot necessarily accomplish 
a military solution.
    I hear and read, for example, Dr. Marr, in your testimony, 
toward the end, you say, ``Only when the participants in the 
struggle for power recognize that they are losing more than 
they can gain by continuing will it come to an end. And that 
may be''--your sentence goes on, ``that may be a very long 
time.'' When I listen to Mr. Said say that, in fact, ``a good 
part of the violence is one about power and money'' and when I 
hear Dr. Pillar say, which I agree with totally, that ``Iran is 
the big winner, at the end of the day''--all of those comments, 
and others, in my mind, speak volumes as to why an escalation 
is not the solution to our problem. As a matter of fact, from 
what I've seen of those who are military experts, including 
several of our generals, say is that to have a real ability to 
have some military effort--as I think Mr. Said mentioned--is 
about half a million troops, over three times the number of 
troops that exist in the United States now. And there is no 
way, both military, I think, from the U.S. perspective, in 
terms of the ability to do that, as well as the support, for 
that possibly to happen.
    So, having said all of that, the question is: How is it--
and you've all talked, at different points, about the political 
process, the regional players but what would you be saying 
tomorrow if the Secretary of State comes before the committee? 
What would you be saying to her if you were advising her, and 
to the President, about what the steps are that we need to take 
to get that political process, both internally by Iraqis and as 
General Pace said, ``to love their children more than they hate 
their neighbors''? That can't be accomplished through military 
might, to love their children more than they hate their 
neighbors. The question is: How do we have a surge, an 
escalation, in a political process that gives us the ultimate 
success that we want? What would be the steps that you would be 
suggesting in order to accomplish that?
    Dr. Marr. Well, I'd kind of like to go back to the Iraq 
Study report again, because I think they really did address 
this, aside from the surge. And, incidently, I'm not so 
pessimistic that I think there are going to be no agreements 
between Iraqis for a very long time. We've pointed out to one 
area where this long process seems to be beginning, and that's 
the oil legislation. There have been some compromises, mainly 
from the Kurds, who recognize that they want to get on with 
this. I think you have to take a strong stand behind the scenes 
and indicate that there's both a carrot and a stick, as the 
Iraqi Study Group report said. We're willing to continue aid 
and help--not necessarily money, but training, assistance, 
support, and so on--if certain milestone steps are taken--
something on the de-Baathification, compromise on the oil law, 
and----
    Senator Menendez. But this is now--you're saying the United 
States saying to----
    Dr. Marr. United States talking turkey----
    Senator Menendez [continuing]. Proactively.
    Dr. Marr. Yes; to these----
    Senator Menendez. And as part of that----
    Dr. Marr. But also negative. If----
    Senator Menendez. Uh-huh.
    Dr. Marr [continuing]. These things are----
    Senator Menendez. That's what I want to----
    Dr. Marr [continuing]. Not accomplished--and our patience 
isn't exhaustive, as Michael has said--then we're going to 
withdraw this support, including military support.
    Senator Menendez. Well, I'm glad you said that, because my 
followup to the question, and I'd like to hear from others, is: 
Isn't it true that benchmarks without timetables or at least 
consequences, are only aspirations, as part of that process? 
What would your suggestions be?
    Mr. Said. I think benchmarks are useful, even without 
consequences, because they set goals, they set parameters 
according----
    Senator Menendez. But we've had those benchmarks, and many 
of them have not been met, and----
    Mr. Said. Definitely.
    Senator Menendez [continuing]. And now we have them as 
another excuse for an escalation of troops.
    Mr. Said. Definitely. I mean, there is definitely a need 
to--for the U.S. Government to take a more assertive role, vis-
a-vis its own allies in Iraq. There is a need to take a more 
serious look at----
    Senator Menendez. How do we get other regional players to 
be involved in a proactive way?
    Mr. Said. Beyond that, I thought--I think it's very 
important to say that this is not something the United States 
alone can make. I think internationalizing Iraq is a very 
critical element. To give you just one example, the League of 
Arab States and the United Nations have been trying, over the 
last 3 years, to build, if you like, the Iraqi delegation to a 
peace conference, trying to canvas Iraqi political class and 
political elites to identify people who could sit together and 
negotiate a peace settlement. This is a role that the United 
States cannot play. This is a role that could--that only 
trusted international multilateral actors can do. And I think 
the United States should encourage such efforts, be it through 
the United Nations, through the international compact, or 
through the Arab League, to broaden the negotiating table and 
bring additional Iraqis to the table, and regional players, to 
start working on a settlement and on a political framework.
    Senator Menendez. Dr. Pillar, you may have responded to 
this previously, but in the twin exercise that the Iranians and 
the Syrians have right now, where, in one part they are 
enjoying us being bogged down, shedding our blood and national 
treasure, and on the other part, they have an interest in the 
stability of Iraq, where is the tipping point? Where do we get 
them to move in the direction that is more positive than the 
negativity they are playing right now?
    Dr. Pillar. Well, Senator, we did address, somewhat earlier 
in the proceedings, some of the ways of manipulating the 
incentives. On the Syrian side, it has to do with their 
objectives regarding the peace process, getting the Golan back. 
With regard to the Iranian side, Tehran is interested in a 
whole host of things--not just the nuclear issue that gets all 
the attention, but a whole host of things that involve the 
United States, having to do with everything from frozen assets 
to developing a normal relationship, and a vague thing that the 
Iranians would refer to as ``respect,'' which is kind of hard 
to operationalize, but it is important to them.
    I think Phebe, I'd go back to the Iraq Study Group as a 
reference point to this, because I think their treatment of the 
external dimension is excellent. And I would summarize our 
earlier discussions in this room and what the ISG says by 
saying the diplomatic approach needs to be inclusive with 
regard to with whom we are speaking, it needs to be flexible 
with regard to the forums and formats--it's not just one big 
conference, it's bilateral contacts, it's track-two-type stuff, 
it's the indirect incentives that could affect the thinking in 
places like Tehran, and it has to be sensitive to what's on the 
agenda of those countries. I just mentioned some things of 
interest to Iran, for example. We can't just limit it to, ``We 
want to talk about stopping your troublemaking in Iraq.'' You 
know, if that's our agenda, it's going to go nowhere. It has to 
be broader.
    Mr. Said. If I may add another element here, which is 
violence inside Iran and Syria, Iraq has been--there has been 
an element of contagion taking place through Iraq, and there 
has been a spike in sectarian violence and ethnic violence in 
Iran, both with the Arab minority and the Kurdish minority. And 
there have been issues with the Kurdish minority in Syria. And 
this could become more serious as Iraq implodes. So, there is a 
threshold of pain, if you like, there, as well, that will 
encourage them to engage more.
    Dr. Pillar. With the Kurds, there were fatal riots in 
Syria, I believe in 2004, and similar ones in Iran in 2005, so 
they've actually had bloodshed inside their territories over 
these issues.
    Senator Menendez. Thank you, Mr. Chairman.
    Chairman Biden. Folks, the end is in sight. You've been a 
wonderful panel.
    Let me address, from a slightly different perspective, 
several points you've raised.
    I believe--it doesn't make me correct, it just made me a 
pariah for a while--I believe I was the first one to suggest, 
in an op-ed piece over a year ago--that there be an 
international conference, and a contact group to follow up on 
that conference. It was pointed out, as one of the criticisms, 
which is legitimate, in one sense, that if you expand the 
participation, not only externally, but internally, within 
Iraq, which you're suggesting, you are, by definition, 
undercutting the government. There is a ``freely elected 
government in Iraq.'' There is a Constitution that the Iraqi 
people have overwhelming voted for. ``I was there when the vote 
took place,'' the argument goes. Therefore, for the United 
States to do anything that goes beyond the governmental 
entities that exist now within Iraq, and to do anything without 
their permission relative to external forces, is to, in effect, 
negate the commitment we made to their Constitution and to the 
unity government. How do you respond to that?
    Dr. Pillar.
    Dr. Pillar. Well, I guess it all has to be portrayed as 
help. And when you talk about the regional actors--for example, 
Mr. Said made the point about the Arab League's efforts to try 
to help the Iraqis do all the functions that a sovereign state 
would do--and so, if help can be phrased in those terms, it 
doesn't necessarily have to be represented as inconsistent with 
Iraqi sovereignty.
    Chairman Biden. But if, in fact, the existing Maliki 
government says, ``We don't want X, Y, or Z participating in 
this conference, internally--they are not elected, they're not 
part of the government, they do not hold a ministry,'' et 
cetera--then what do we say?
    Mr. Said. I mean, a peace process--I'm sorry, a peace 
process, by definition, detracts from sovereignty. There is----
    Chairman Biden. Detracts from sovereignty?
    Mr. Said. Detracts from sovereignty. There is no peace 
process anywhere in the world that recognizes 100 percent of 
the sovereignty of one of the parties involved. If there is a 
need for a peace process, this means there is a problem; and, 
therefore, we have to--it's a last--it's a last--it's a last 
resort.
    Governance, sovereignty, the right, is not a carte blanche, 
it's not an open check. If the government is not delivering, in 
terms of providing for peace, in terms of providing a peaceful 
conflict resolution mechanism, then it loses the right to some 
of its sovereignty.
    Chairman Biden. Well, that is a new international concept. 
I happen to agree with it, but that is a new concept, in terms 
of what we'd constitute as the sacredness of sovereignty. I 
happen to agree with you, but I just want to make sure we 
understand. We mix terms a lot. We--not you--we interchange 
terms a great deal. As you all pointed out, it's very complex 
in Iraq. There's an insurgency and there's sectarian violence 
and there's insurgency and violence within the insurgency and 
so on. I would describe the situation in Iraq as almost a 
disintegration rather than a civil war, quite frankly.
    But, having said that, I think, in order to help us in this 
process, think through this process--and one of the things the 
chairman and I have, I think, been pretty much in lockstep on 
is trying to figure out these practical big-ticket items.
    For example, employment. I have made many trips to Iraq, in 
relative terms. Two trips ago, I met with General Chiarelli, 
the No. 2 guy, who is now leaving.
    He said, ``Senator, if I--you ever hear me criticize the--
raise the word `bureaucrat' again, smack me.'' He said, ``There 
is no bureaucracy to deal with here in Iraq. We desperately 
need one.''
    And he gave me the following example. He said, ``You know, 
the date palm, the national fruit, national tree, it's a symbol 
of Iraq''--he went back through the history of it.
    He said--and I'm embarrassed that I don't remember the 
varmint that can decimate it, but it's something the equivalent 
of the boll weevil to cotton--``you have to spray these every 5 
years.''
    And, he said, ``If you don't, within that timeframe, you 
run the risk of this disease consuming this national treasure, 
and also a previous source of income.''
    And he said, ``So, I went to the Embassy and said, `You 
ought to get them--we ought to spray these things.' ''
    And he said--and I'm paraphrasing--he said, ``They said, 
`No, that's up to the Iraqis.' '' And he said, ``But I told 
them there's no Department of Agriculture that works.''
    And he said, ``Well, they said, `It's got to be them.' '' 
And he said, ``So, I did what Saddam did. I used my helicopters 
and went and sprayed them.''
    Which leads me to the second point he raised to me. He 
said, ``You know, we have what I call the most expensive water 
fountain in all the Middle East, that we built in Baghdad.'' He 
said, ``It's great to put some high water--potable water to 
everybody in Baghdad.'' He said, ``We built it,'' except we 
didn't run the pipes from ``the fountain'' to the homes. That 
was up to the Iraqis. Yet there was no mechanism by which the 
Iraqis knew how to, or were able to, organize, at least at that 
point, actually putting the PVC pipe in the ground from his 
term of art, his facetious term, ``the water fountain'' to the 
homes.
    So, I guess what I'm getting at is this. And this is a 
question to you, Dr. Marr. From a historical perspective, how 
big a contributor to the economy of Iraq was agriculture in the 
1950s, let's say, or the 1940s or the 1960s? I mean, was it a 
major component? You hear the phrase ``Iraq used to be the 
breadbasket of the Middle East.'' Can you tell me, from a 
historical perspective what--
whether or not Iraq was a major exporter of agricultural 
products in the past?
    Dr. Marr. I have covered that in my previous book, and 
there's a very interesting history on that. And let me just 
recoup it.
    When the British were there, under the mandate, up until 
the 1950s, they put a lot of emphasis on agriculture. But you 
have to remember, as you know, there are two kinds. There's 
irrigation system in the south, which is hugely expensive. You 
have to desalinate, you have to put a lot of effort, on dams 
and so forth, and you have to have a population that likes 
agriculture and wants to work in it. And, in fact, that has 
gradually fallen into decay. Growing grains, rice, and other 
things grown in the south, Iraqis were able to feed themselves, 
were even able to do some exporting, into the 1950s. The rain-
fed agriculture in the north is much easier. The Kurdish area 
and some of the areas around Mosul, you don't need that 
irrigation. But, frankly, because of political mismanagement 
and all sorts of other things, agriculture has fallen into 
incredible disarray in Iraq. This migration of the population 
from the south to Baghdad and so on has depopulated the area, 
and it really has fallen into decline. And not only does Iraq 
not export, not just under our occupation or even under Saddam, 
but everything went into industry, and you can just chart the 
figures where oil and urban service industries, working for the 
government, for education, took over and left agriculture 
behind.
    One word of caution. I'm not sure Iraq can be a 
breadbasket. I think there's been too much emphasis on how much 
agriculture could do. It could certainly be revived. It would 
help to feed the population. But modern agriculture is not 
grains and so on; it's vegetables and other things you grow for 
commercial agriculture. They could do a great deal more with 
that. But a breadbasket for the Middle East, I think, is too 
ambitious.
    But agriculture, as a percentage of population employed or 
any other figure, has declined radically.
    Chairman Biden. Well, one of the reasons I raised the 
question is, my last trip, over the Fourth of July, it was 
suggested to me there was a direct correlation--and, Michael--
or Dr. O'Hanlon, maybe you could speak to this--there was a 
direct correlation between the formation of the unity 
government and the exponential rise in those participating in 
militias, the exact opposite that was predicted. What was 
predicted was, there would be a unity government; what that 
would do is focus on a unified Iraq; they would have a united 
Iraqi Army that was multiethnic; that the police force would be 
able to begin to be purged of the death squads and so on. And 
the irony was, at least in just pure data, that the number of 
people being prepared to get a paycheck and get a weapon to 
``fight with a militia'' went up almost exponentially. And so, 
two of the generals with whom I sat said, ``You want me to deal 
with the militia. Don't give me jurisdiction to disarm them. 
Get the Department of Agriculture working, and give them 
employment. You want me to deal with reduction of the militia. 
Give me the opportunity to provide for employment.'' Because 
these are people between the ages of 18 and 30, they've got 
nothing to do. The unemployment rates you gave us were very 
high. Are they correct? Is there a correlation--are people 
joining the militias, in part, because there's nothing else to 
do, a la riots in the 1960s in the United States of America, in 
center cities where large numbers of teams sat on corners and 
had nothing to do, and, therefore, engaged? You were mayor of 
Indianapolis, going through that very difficult period of time. 
Talk to me about that a minute. I mean, what's the correlation 
between the intensity of support for being part of a militia 
and the sectarian violence and being unemployed?
    Dr. O'Hanlon. I don't think I can create a direct link that 
I can prove with the data. But I can agree with your point, in 
a broader sense. But it's impression. And the impression is 
that when you give a country lack of hope for multiple years--
you know, you have angry young men joining the working-age 
population, with nothing else to do--we just have to ask: 
What's going to be their psychology? So, it's the 
commonsensical answer you gave that I would fall back on, 
myself. I can't prove it from the data. And in the small 
samples that we have of pilot projects being attempted, I don't 
think we have a way to prove that job-creation programs reduce 
the support for the insurgency or the militias. But, as you 
say, Senator, it's the combination of high unemployment, the 
experiment in democracy not really producing reconciliation, 3 
years of accumulated violence. All this has added up to a 
climate of hopelessness, and we have to attack it in multiple 
ways, even if we're not sure of what's going to work.
    Chairman Biden. OK. Last point I'll make, and then--unless 
the chairman has additional questions, close this out.
    I was impressed with, not the dissimilarity, but the 
similarity of your testimony today on a number of very 
important points. One is that there's no straight line here to 
look at, in terms of the disintegration of the situation in 
Iraq. It's not totally a consequence, or even primarily a 
consequence, of religion, although religion is playing a larger 
role. There's an interlocking and complicated connection 
between tribal loyalties, religious loyalties, political 
parties, the disintegration of the middle class, or at least 
the exodus. One thing that I don't want to misrepresent, so I'm 
going to ask you specifically--my impression is that there was 
total agreement on the need for a political settlement being 
the ultimate criteria for stability in Iraq. The real question 
that's evolved is one that we've been discussing for a while, 
and the Baker Commission discussed, and I have discussed in the 
proposal I've made, and others--I'm not unique in this regard--
and that is whether continuing and/or increasing our presence 
physically with military in Iraq promotes movement toward 
reconciliation, whatever ``reconciliation'' means, or the 
looming middle term--not threat, but reality that, over the 
next 12 to 18 months, if there's not a correlation between 
political reconciliation--if that does not occur, you will see 
a correlation with the reduction of American forces, to the 
point that we essentially have removed all our combat forces 
from that country. And that seems to be the tension. I may not 
be explaining this succinctly. But, given the broad choice that 
it seems to me the President of the United States has--and it's 
a pretty basic choice, it seems to me--does he increase, surge, 
escalate, or even just maintain without any threat, if you 
will, of significant reduction within a particular timeframe? 
Is that more likely to get action along the lines we need it, 
which is reconciliation of some sort? Or is it better as the 
Baker Commission suggested, by implication anyway, to tell the 
Maliki government, and others now, ``Hey, Jack, it's not gonna 
last very much longer''?
    I was asked, when the President made his secret trip to 
Iraq--I was on one of those programs, and they showed a picture 
of the President whispering in Maliki's ear. And they said, 
``What do you think of that?'' I said, ``It depends on what 
he's whispering.'' I wasn't being facetious. If he's 
whispering, ``I'm with you to the end, don't worry, we're 
staying,'' then we're in real trouble, was my response. If he's 
whispering, ``Hey, Jack, listen up here. You've got a limited 
amount of time. You've got to make some courageous and 
difficult choices. You've got to put yourself on the line. If 
you do, we'll help. If you don't, you can't count on it.'' In 
very colloquial terms, that's about what the choices are, in 
terms of our policy. You can demur, you cannot answer, but if 
you're willing, which side of that ledger do you--are more 
inclined to come down on? I know nothing is straight-line here, 
nothing is black and white. What should be the thrust of our 
policy over the next year as it relates to the issue of 
encouraging consensus, or a move toward consensus or 
reconciliation? By suggesting we're going to be leaving or by 
suggesting that we're going to provide the physical stability, 
the security, first, before we ask you to make these very 
difficult decisions?
    Dr. O'Hanlon. Senator, it's a great way of framing the 
dilemma. I think the way I would put it is, I would not be 
comfortable with President Bush being the only person speaking 
for the United States on this issue, because we know anything 
he says is going to be interpreted not as a surge, but as a new 
level of effort. His whole legacy is linked, as we all know, to 
Iraq coming out at least OK. So, I personally, not just 
become--not just because I'm a Democrat--I'm happy to see the 
Congress in Democratic hands--and, even where Republicans are 
having the opportunity, they are asking tough questions and 
sending the message--the current policy is not going to be 
sustainable. It's not sustainable militarily. The Army and 
Marine Corps are already doing too much, even at 140,000. To go 
to 160 is really going to something that has to be viewed as a 
temporary measure, even if President Bush asked for 50,000 more 
troops in the budget this year.
    In terms of our politics, we all know, a number of you 
running for President, and just running for campaigns in 2008, 
are sending a message, ``This can't continue.'' And the Iraqis 
have to know that, with 100,000 people being displaced from 
their homes every month, it can't continue in their country 
either.
    So, only if both messages are sent simultaneously can it 
work. A surge, by itself, with the implication that it could 
continue indefinitely, I think, would be a terrible message to 
send. But if it's juxtaposed with this sense of urgency, and 
``2007 is the last real chance,'' then I think there may be a 
case for it.
    Dr. Marr. That is a wonderful question, and I think it is 
the nub of the matter. I've asked myself the same thing, 
thinking of it from the Iraqi side, What motivates----
    Chairman Biden. Right.
    Dr. Marr [continuing]. Iraqis? And I wish I had a really 
definitive opinion on it, but I think I lean somewhat more to 
the Iraq Study Group sense of it, although I'm not hard over.
    A couple of points. I think threat is necessary, but not 
sufficient, to get the Iraqis to move. And I think we have to 
ask ourselves, also, what motivates people. It's not only 
threat. If you're always threatening, without some incentive, 
you're not going to get anywhere. But there is a sense of not 
only so much hopelessness, but passivity, or, ``What can we do 
about it?'' in the Iraqi tradition that I'm not sure, even if 
we used a threat, it's going to be successful.
    Chairman Biden. Yes.
    Mr. Said. I think that a threat to withdraw will have two 
impacts of opposite direction. On one hand, it may incentivize 
people to talk and to seek a settlement. On the other hand, it 
may emphasize--encourage them to go for a last push. Indeed, 
what seems to be the dynamic, so far, has been that the threat 
and the--because people in Iraq realize that the Americans are 
not staying--has been to go for a last push.
    Likewise, the surge option, particularly if taken out of 
context, out of political context, is more likely to produce 
negative results than positive.
    A third--and it's just a general comment--I don't think 
there is an option of a gradual U.S. withdrawal. I think what 
you will realize--and this has happened on--in regional bases, 
in provincial bases--that attempts to withdraw, especially 
British attempts to withdraw, gradually have not materialized. 
And, indeed, once you start to withdraw, you'll have to be 
ready to withdraw almost immediately. And so, that is also 
important to keep in mind.
    Dr. Pillar. I will not demur at all in answering your very 
clear question, Senator. I would definitely lean in the 
direction of letting the Iraqis know we're not going to be 
there forever, consistent with the Iraq Study Group report.
    I disagree a little bit with the comment Mr. Said just 
made. You know, people talk about an immediate withdrawal 
versus gradual. I think, just as a matter of military logistics 
and force protection and all that, even if you wanted to get 
out fast, fast could translate into a matter of months and 
wouldn't really be that much different from the timeframe that 
the ISG was talking about.
    But my basis for answering you that way is, basically, we 
have tried other things, even ones that look like surges in the 
Baghdad area. They haven't worked. This other thing might not 
work, either, but at least it hasn't been tried. And it's also 
the option that we know will reduce U.S. costs and casualties.
    Chairman Biden. Well, I appreciate it very much. We're 
going to hear from the Secretary tomorrow. She's graciously 
agreed to be here. And I hope, when she does, we will have 
explained that in a sense, ``surge'' is a bit of a misnomer. 
Most Americans, I think, when you talk about a ``surge,'' are 
thinking of 20 or 25 or 30 or 15,000 folks getting on a boat, 
being shipped to the gulf, coming up through Basrah, and 
occupying Baghdad. The truth of the matter is, this is going to 
be a process, if it occurs. And we're talking about telling the 
Marines they've got to go from 6 months to a year in place. 
We're going to tell the Army guys and women there, they're 
going to go from 12 months to 14 months, we're going to take a 
brigade out of Kuwait or out of Qatar and move them in, and so 
on. So, this is a process--which I think complicates the matter 
even more, in a sense. But that's for another day.
    So, I--again, the purpose of this is to educate us--and 
you've helped do that today. And hopefully, the American people 
and the press have gained as much from listening to all of you 
as we have. I truly appreciate your patience. You've been 
sitting here since 9:30. It's now a quarter of 2. It's the 
drawback from expanding the committee to 21 people. I guess 
that's the number we have. But there are so many people in the 
Senate so critically interested in this that I overcame my 
instinct of making it smaller. I was chairman or ranking member 
of Judiciary for 17 years, and my entire effort was to reduce 
the size of the committee to make it more manageable. But I'm 
delighted with the new members. You can tell the degree of the 
concern and participation. And I think you've all noted--you've 
testified before--I doubt whether you've ever testified before 
where you were any more convinced that as many people were 
listening to everything word you had to say. And so, I hope 
that's some psychic remuneration for you, for all the work 
you've done on our behalf. We promise we'll try to cut the 
questions down. We'll kind of see if we have multiple 
questions. I don't want you in a position where you're spending 
the next whatever having to answer the written questions.
    Again, the chairman and I both thank you for your 
tremendous input here and your patience.
    And the committee is adjourned.
    [Whereupon, at 1:52 p.m., the hearing was adjourned.]

             Additional Statements Submitted for the Record


    Prepared Statement of Hon. Jim Webb, U.S. Senator From Virginia

    The series of hearings that we begin today provide a critical 
opportunity to forge a new strategic direction for Iraq and the entire 
region--one that is long overdue and one I hope all Americans will 
eventually be able to rally behind. I would like to express my 
appreciation to our panel's witnesses for their appearance today. I 
look forward to hearing their assessments, especially as they relate to 
the regional implications of the situation in Iraq today.
    We went to war in Iraq recklessly; we must move forward 
responsibly. The war's costs to our Nation have been staggering. These 
costs encompass what we hold to be most precious--the blood of our 
citizens. They also extend to the many thousands more Iraqi people 
killed and wounded as their country slides into the chaos of sectarian 
violence and civil war. We have incurred extraordinary financial 
costs--expenses totaling more than $380 billion and now estimated at $8 
billion a month.
    The war also has diverted our Nation's focus fighting international 
terrorism and deflected our attention to the many additional threats to 
our national security abroad and national greatness at home--costs 
difficult to measure, perhaps, but very real all the same.
    The Iraqi Government and the Iraqi people must understand that the 
United States does not intend to maintain its current presence in their 
country for the long term. They must make the difficult but essential 
decisions to end today's sectarian violence and to provide for their 
own security. The American people are not alone in seeking that day; 
indeed, the overwhelming majority of Iraqi citizens also does not want 
our forces present in their country for any longer than is absolutely 
necessary.
    The key question of the moment is how long the United States should 
be expected to keep our forces in Iraq as its government seeks to 
assume these burdens? How and when do we begin to drawdown our combat 
presence and conclude our mission in a way that does not leave even 
greater chaos behind? What is the administration's strategic vision 
and, as it relates to our presence in Iraq, its eventual end point?
    The answers to these questions are not to be found in Iraq alone. 
Achieving our goals in this war requires a coherent strategy 
encompassing the entire region. The National Strategy for Victory in 
Iraq, published by the National Security Council in November 2005, 
principally emphasized how the United States would help the Iraqi 
people defeat terrorists and build an inclusive democratic state. This 
strategy identified an initiative to increase international support for 
Iraq. It did not, however, affirm the need for an overarching 
diplomatic solution that is now, more than ever, an imperative if we 
are to end the war.
    I have said for many months that the United States does not require 
a military solution to end the war in Iraq. We must seek a diplomatic 
solution immediately--one that engages all nations in the region with 
historic and cultural ties to Iraq. Because they are part of today's 
problem, Syria and Iran also must be party to tomorrow's solution. This 
overarching diplomatic solution, one supportive of a coherent strategy, 
will lead to four outcomes. First, it will enable us to withdraw our 
combat troops from Iraq over time. Second, it will lead to 
progressively greater regional stability. Third, it will allow us to 
fight international terrorism more effectively. Lastly, it will enable 
us to address our broad strategic interests around the world with 
renewed vigor.
    During an earlier era in our Nation's history, we were faced with 
an unpopular war that had gone on too long. The then-recently retired 
General Dwight David Eisenhower spoke out against the conduct of the 
Korean war in the summer of 1952. ``Where do we go from here,'' he 
asked; ``when comes the end?''
    Today, the members of this committee--indeed all Americans--await 
answers to these same questions: Where do we go from here? When comes 
the end?
                                 ______
                                 

      Prepared Statement of Hon. Benjamin L. Cardin, U.S. Senator
                             From Maryland

    As a new member of the Senate Foreign Relations Committee, I wish 
to thank Chairman Biden and Ranking Member Senator Lugar for taking the 
initiative to hold today's hearing regarding the war in Iraq. This 
hearing is timely and responds to the interest of the public to learn 
more up-to-date information about the President's plans and options.
    I know the citizens of Maryland are very keen to understand where 
we are in Iraq and the implications for our sons and daughters fighting 
in Baghdad and other parts of that country. Maryland is home to the 
U.S. Naval Academy and other key military installations. For many 
reasons, the Iraq war and the return of our troops are of critical 
concern to the citizens of my State. Sixty-two Marylanders have lost 
their lives in Iraq and many more have suffered life-changing injuries.
    In fact, this is one of the reasons I sought a seat on the Foreign 
Relations Committee. Marylanders want to be informed about what is 
happening in Iraq and other U.S. engagements around the world and I 
wanted to be in a position to respond to this interest. To be sure, the 
Iraq Study Group Report was an excellent means to begin this process. 
The findings and recommendations from the report constitute the most 
in-depth study to date of the management of the Iraq war. Specifically, 
I agree with the report's recommendation to begin a phased troop 
withdrawal of combat brigades.
    Today we begin a series of hearings on Iraq designed to give 
Members of Congress and the American public a situational overview of 
the war and viable options to change our current course to promote 
greater security and to bring our military forces home. At the outset, 
I am very concerned about media reports regarding the Bush 
administration's intent to increase the number of U.S. troops.
    In 2002, as a Member of the House of Representatives, I voted 
against the war in Iraq and have been critical of the President's 
conduct of the war and reconstruction efforts. I have encouraged the 
President to change course in Iraq and begin a phased troop withdrawal. 
Now, every indication suggests the President plans to do the opposite 
and increase American forces.
    The escalation in combat forces causes me great concern for several 
reasons. First, it is unclear whether we can count on the Iraqi 
military/security forces to contribute and participate in the new 
security arrangement at a level that will allow U.S. forces to pull 
back from Baghdad and to begin troop withdrawal. This was the major 
problem in 2006 with ``Operation Together Forward'' Iraq failed to 
provide the agreed-upon troop numbers.
    Second, there is strong opinion that the increase in U.S. forces by 
itself will do little to quelling the violence in Iraq and protect its 
civilians. The Iraqis should not be allowed to hide behind robust 
American troop levels. Rather, the Iraqis should assume responsibility 
to hold areas with American tactical, logistical, and technical 
support. It is imperative now for the Iraqi Government to assert 
control over its armed forces and security apparatus and finally 
institute appropriate command and control structures to credibly fix 
many of their identified shortcomings.
    Third, with increased security must come greater protection for 
civilians and enhanced economic/infrastructure reconstruction efforts. 
While I recognize reconstruction is a long-term process, the quicker 
the United States and our coalition partners begin this effort, the 
sooner we can stifle the insurgents' ability to recruit more Iraqi 
citizens into the deadly cycle of violence. Security and reconstruction 
go hand in hand and we owe it to the people of Iraq and our troops to 
implement a multifaceted approach to rebuild Iraq.
    Fourth, it appears the President's new Iraq plan may well raise as 
many problems as it attempts to resolve. Troop escalation is a risky 
gambit that could increase sectarian violence and contribute further to 
Iraq's slide to a larger civil war. I hope this is not the case and I 
encourage the President to work with this Congress to create a lasting 
solution to the situation in Iraq.
    Finally, in that regard, it is critical that an aggressive 
initiative be undertaken on the political and diplomatic front among 
the countries in the region. The goal of such an initiative must be to 
bring about a cease-fire in the civil war and an Iraqi Government that 
has the support of all the ethnic communities in Iraq. Military efforts 
alone cannot bring peace and stability to Iraq. The United States must 
undertake a broader international effort for a political solution to 
the civil war in Iraq.
    During the coming weeks, the role of the Senate Foreign Relations 
Committee to inform will be just as important as the role of the 
committee itself. This committee must exercise the appropriate 
oversight and investigation that the American people are demanding, and 
that our troops deserve.


                   THE ADMINISTRATION'S PLAN FOR IRAQ

                              ----------                              


                   THURSDAY, JANUARY 11, 2007 [A.M.]

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Dodd, Kerry, Feingold, Boxer, Bill 
Nelson, Obama, Menendez, Cardin, Casey, Webb, Lugar, Hagel, 
Coleman, Corker, Sununu, Voinovich, Murkowski, DeMint, Isakson, 
and Vitter.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    Senator Biden. The hearing will come to order.
    Welcome to the Foreign Relations Committee, Madam 
Secretary. It's an honor to have you here.
    Nearly 4 years ago, Congress and the American people gave 
the President of the United States the authority to destroy 
Iraq's weapons of mass destruction, and, if necessary, to 
depose a dictator. We know now that the weapons of mass 
destruction were not there, and that the dictator is no longer 
there, as well. The Iraqis have held elections, and they've 
formed a government. But the country and our troops, in my 
view, are now embroiled in the midst of a vicious civil war.
    As of last night, according to the Pentagon, 3,009 
Americans have lost their lives, over 22,000 have been wounded, 
and we have spent and committed hundreds of billions of 
dollars. And there seems to be no end in sight.
    For many months now, the American people have understood 
that our present policy is a failure, and they wanted to know, 
and continue to want to know, where we go from here.
    Last night, like millions of my fellow Americans, I 
listened intently to the President of the United States lay out 
his new strategy for Iraq. We all hoped and prayed the 
President would present us with a plan that would make things 
better. Instead, I fear that what the President has proposed is 
more likely to make things worse.
    We hoped and prayed we would hear of a plan that would have 
two features: Begin to bring American forces home and a 
reasonable prospect of leaving behind a stable Iraq. Instead, 
we heard a plan to escalate the war, not only in Iraq, but 
possibly into Iran and Syria, as well. I believe the 
President's strategy is not a solution, Secretary Rice. I 
believe it's a tragic mistake.
    In Iraq, the core of the President's plan is to send 
another 20,000 Americans to Baghdad, a city of more than 6 
million people, where they will go, with their fellow Iraqi 
soldiers, door to door in the middle of a civil war.
    If memory serves me, we've tried that kind of escalation 
twice before in Baghdad. And it's failed twice in Baghdad. And 
I fear it will fail a third time. And the result will be the 
loss of more American lives and our military stretched to the 
breaking point, with little prospect of success, and a further 
loss of influence in the region.
    Secretary Rice, this November the American people voted for 
a dramatic change in Iraq. The President said, forthrightly, he 
heard them. But it seems clear to me from listening to him last 
night, he did not listen. And, for the life of me, I don't 
understand how he could reject the overwhelming opposition to 
his plan from a broad bipartisan cross-section of the country's 
leaders--military, civilian, and civic. As I understand it, the 
Joint Chiefs of Staff opposed this plan. Our commander in the 
region, General Abizaid, opposed the plan. Our commanders in 
Iraq, starting with General Casey, opposed this plan. The 
Baker-Hamilton Commission opposed this plan. And so did our 
greatest soldier statesman, Colin Powell.
    They all gave advice to the President that could be boiled 
down to two things. First, our military cannot stop the Shia, 
the Kurds, and the Sunnis from killing each other. The Iraqi 
people have to make very, very, very difficult political 
compromises in order for the killing to stop. And all of the 
people who gave advice to the President that I've mentioned 
suggested that the best way to force the leaders and the people 
to make these hard compromises was to start, this year, to 
drawdown our forces, not escalate them. The second consensus 
point from the advice the President got was that the way to 
secure this political solution to secure Iraq--was to secure 
support for whatever political solution the Iraqis arrived at 
from Turkey, Syria, Iran, Saudi Arabia, and all the neighbors. 
And there's a second reason for seeking that kind of support 
and consultation. It was that, if, in fact, the civil war 
cannot be stopped, at least with a regional consensus, the hope 
would be, it would be contained within Iraq.
    So, Secretary Rice, to be very blunt, I can't, in good 
conscience, support the President's approach. But because 
there's so much at stake, I'm also not prepared to give up on 
finding a bipartisan way forward that meets the twin goals most 
Americans share and, I believe--I don't speak for anyone in 
this committee, but I believe most of my colleagues in the 
Senate share, and that is: How do we bring American forces home 
in an orderly way over the next year and leave behind a stable 
Iraq? In all my years in the Senate, Secretary Rice, I don't 
think we've faced a more pivotal moment than the one we face 
today. Failure in Iraq will not be confined to Iraq. It will do 
terrible damage to our ability to protect our interests all 
over the world, and, I fear, for a long time to come. That's 
why we have to work together for a solution.
    I'm aware that the surge is not 22,000 people--or 20,000 
people getting into the boat, landing at one moment. The reason 
why I think there's still time for us to work out a bipartisan 
solution is that this is a process. We need a solution that 
will gain the support of our fellow citizens.
    I say to my colleagues, maybe because I got here in the 
midst of the Vietnam war, toward the end, I think we all 
learned a lesson, whether we went or didn't go, whether we were 
for it or against it, is no foreign policy can be sustained in 
this country without the informed consent of the American 
people. They've got to sign on. They've got to sign on. I just 
hope it's not too late.
    Mr. Chairman.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you, Mr. Chairman. I join you in 
welcoming Secretary Rice to the Foreign Relations Committee 
once again. I appreciate her willingness to discuss policy on 
Iraq with the committee in advance of a very important trip to 
the Middle East which I understand commences tomorrow. All of 
us listened intently to President Bush's speech last night. 
Yesterday I said that, initially, the President and his team 
should explain what objectives we're trying to achieve if 
forces are expanded, where and how will they be used, why is it 
the strategy will succeed, how Iraqi forces will be involved, 
how long additional troops may be needed, what contingencies 
are in place if the situation does not improve, and how this 
strategy fits into our discussion throughout the region. The 
President made an important start on this process with his 
speech. The elements of his plan require careful study by 
Members of Congress. I appreciate the efforts the President has 
made, thus far, to reach out to Congress and to the American 
people.
    I was encouraged by the President's emphasis on a regional 
element in his Iraq strategy. Whenever we begin to see Iraq as 
a set piece--an isolated problem that can be solved outside the 
context of our broader interests--we should reexamine our frame 
of reference. Our efforts to stabilize Iraq and sustain a 
pluralist government there have an important humanitarian 
purpose. But remaking Iraq, in and of itself, does not 
constitute a strategic objective. Stability in Iraq is 
important because it has a direct bearing on vital U.S. 
strategic objectives. To determine our future course in Iraq, 
we must be very clear about what those objectives are. In my 
judgment there are four primary ones.
    First, we have an interest in preventing Iraq, or any piece 
of its territory, from being used as a safe haven or training 
ground for terrorists. As part of this, we have an interest in 
preventing any potential terrorist in Iraq from acquiring 
weapons of mass destruction.
    Second, we have an interest in preventing a civil war or 
conditions of permanent disorder in Iraq that upset wider 
regional stability. The consequences of turmoil that draws in 
outside powers or spills over into neighboring states could be 
grave. Such turmoil could generate a regional war, topple 
friendly governments, expand destabilizing refugee flows, close 
the Persian Gulf to shipping traffic, or destroy key oil 
production and transportation facilities. Any of these outcomes 
could restrict or diminish the flow of oil from the region, 
with disastrous results for the world economy.
    Third, we have an interest in preventing the loss of U.S. 
credibility and standing in the region and throughout the 
world. Some loss of confidence in the United States has already 
occurred, but our subsequent actions in Iraq may determine how 
we are viewed for generations.
    Fourth, we have an interest in preventing Iranian 
domination of the region. The fall of Saddam Hussein's Sunni 
government opened up opportunities for Iran to seek much more 
influence in Iraq. An Iran that is bolstered by an alliance 
with a Shiite government in Iraq or a separate Shiite state in 
southern Iraq would pose serious challenges for Saudi Arabia, 
Jordan, Egypt, and other Arab governments. Iran is pressing a 
broad agenda in the Middle East with uncertain consequences for 
weapons proliferation, terrorism, the security of Israel, and 
other U.S. interests. Any course we adopt in Iraq would 
consider how it would impact the regional influence of Iran.
    Now, these are not our only interests in Iraq, but they're 
fundamental reasons for our military presence during the last 
several years.
    I would observe that all four of these objectives are 
deeply affected not just by whether the insurgency and 
sectarian violence can be abated in Iraq cities and 
neighborhoods, but by the action of Iraq's neighbors.
    For this reason, I have advocated broader diplomacy in the 
region that is directed at both improving stability in Iraq and 
expanding our options in the region. Inevitably, when one 
suggests such a diplomatic course, this is interpreted as 
advocating negotiations with Syria and Iran--nations that have 
overtly and covertly worked against our interests and violated 
international norms. But the purpose of the talks is not to 
change our posture toward these countries. A necessary regional 
dialog should not be sacrificed because of fear of what might 
happen if we include unfriendly regimes. Moreover, we already 
have numerous contacts with the Iranians and Syrians through 
intermediaries and other means. The regional dialog I am 
suggesting does not have to occur in a formal conference 
setting, but it needs to occur, and it needs to be sustained.
    Both our friends and our enemies in the region must know 
that we will defend out interests and our allies. They must 
know that we are willing to exercise the substantial leverage 
we possess in the region in the form of military presence, 
financial assistance, diplomatic context, and other resources. 
Although it is unlikely that a political settlement in Iraq can 
be imposed from the outside, it is equally unlikely that one 
will succeed in the absence of external pressures and 
incentives. We should be active in bringing those forces to 
bear on Iraqi factions. We should work to prevent 
miscalculations related to the turmoil in Iraq.
    Now, finally, much attention has been focused on the 
President's call for increasing troop levels in Iraq. This is 
an important consideration, but it is not the only element of 
his plan that requires examination. The larger issue is how we 
will manage our strategic interests in the Middle East, in 
light of our situation in Iraq. Can we use the stability that 
we offer the region, and our role as a counterweight to Iran, 
to gain more help in Iraq and in the region?
    I look forward to continuing our examination of Iraq in the 
committee's hearings, and especially your testimony this 
morning.
    Thank you.
    Senator Biden. Thank you.
    Madam Secretary, the floor is yours.

 STATEMENT OF HON. CONDOLEEZZA RICE, SECRETARY OF STATE, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Rice. Thank you very much. Thank you, Mr. 
Chairman. Thank you, Senator Lugar. Thank you, members of the 
committee.
    I look forward to our discussion. And in order to 
facilitate that, Mr. Chairman, I have a longer statement that I 
would like to have entered into the record, and I will----
    Senator Biden. Without objection, your entire statement 
will be placed in the record.
    Secretary Rice. Thank you.
    As I come before you today, America is facing a crucial 
moment--indeed, as the chairman has put it, a pivotal moment--
concerning our policies in Iraq and concerning our broader 
policies in the Middle East. I think that we all know that the 
stakes in Iraq are enormous and that the consequences of 
failure would also be enormous, not just for America and for 
Iraq, but for the entire region of the Middle East, and, 
indeed, for the world. And so, we agree that the stakes in Iraq 
are enormous. And as the President said last night, Americans 
broadly agree, and we in the administration count ourselves 
among them, that the situation in Iraq is unacceptable. On 
these two points, we are unified: The enormousness of the 
stakes, and the unacceptability of the current situation.
    The President has, therefore, forged a new strategy that 
speaks both to our stakes in Iraq and the need to change the 
way that we are doing things. The Iraqis have devised a 
strategy that they believe will work for their most urgent 
problem; that is, to return security to Baghdad. We are going 
to support that strategy through the augmentation of American 
military forces. I think Secretary Gates will say more about 
that in his committee. But I want also to emphasize that we see 
this not just as a military effort, but also as one that must 
have very strong political and economic elements.
    In order to better deliver on the governance and economic 
side, the United States is further decentralizing and 
diversifying our civilian presence. And I will talk a little 
bit more about that, and in greater detail. We are further 
integrating our civil and military operations. And, as Senator 
Lugar has noted, it's extremely important to see Iraq in a 
regional context, and I would like to talk a little bit about 
the regional strategy that we want to pursue that supports 
reformers and responsible leaders in Iraq and across the 
broader Middle East.
    Let me be very clear. We all understand that the 
responsibility for what kind of Iraq this will be rests with 
the Iraqis. They are the only ones who can decide whether or 
not Iraq is, in fact, going to be an Iraq for all Iraqis, one 
that is unified, or whether they are going to allow sectarian 
passions to unravel that chance for a unified Iraq. We know, 
historically, that Iraq rests on the region's religious and 
ethnic fault lines. And, in many ways, due to events in Baghdad 
over the last year, Baghdad has become the center of that 
struggle.
    The Samarra mosque bombing provoked sectarianism, and it 
set it aflame at a pace that threatens to overwhelm the fragile 
and yet promising process of reconciliation, a process that has 
produced successful elections and a new constitution, and 
substantial agreement, as we sit here today, on a law to share 
Iraq's oil wealth fairly, as well as a commitment to a more 
reasonable approach to de-Baathification and to hold provincial 
elections. Iraqis must take on the essential challenge, 
therefore, that threatens this process of national 
reconciliation, and that is the protection of their population 
from criminals and violent extremists who kill in the name of 
sectarian grievance.
    The President, last night, made clear that the augmentation 
of our forces is to support the Iraqis in that goal of 
returning control and civility to their capital. He also noted 
that there are also very important strategic, economic, and 
political elements that must be followed up if ``clear, hold, 
and build'' is to actually work this way. And so, I want to 
assure you that we, in the State Department, recognize the 
importance of surging our civilian elements and our civilian 
efforts, as well as the surge that would be there on the 
military side. This is a comprehensive policy.
    Iraq has a federal government. We need to get our civilian 
employees out of our Embassy, out of the Green Zone, into the 
field, across Iraq. We have had, over the last year and a half, 
the establishment of Provincial Reconstruction Teams that are 
operating outside of Baghdad. The importance of those teams 
should be understood in the following way: It is extremely 
important to have an effective and functioning government in 
Baghdad, and we have worked with them on ministries, on budget 
processes, on the technical assistance that they need, to have 
a functioning government. But it is equally important to have 
local and provincial governments that can deliver for their 
people. And, indeed, this gives us multiple points for success, 
not just the Government in Baghdad, but the people with whom we 
are working in the provinces.
    I might just note that we believe that this is having an 
effect in places like Mosul and Tal Afar, but it's also having 
a very good effect even in some of the most difficult places. 
And one of the other elements of the President's policy last 
night was to announce that 4,000 American forces would be 
augmented in Anbar, the epicenter of al-Qaeda activity. That 
is, in part, because we believe that the efforts that we've 
been making with local leaders, particularly the sheikhs in 
Anbar, are beginning to pay fruit. For instance, they have 
recruited, from their own ranks, 1,100 young men to send to 
Jordan for training, and these ``Sons of Anbar,'' as they call 
them, will come back to enter the fight against al-Qaeda.
    And so, I want to emphasize, we're focused on the need to 
return control to Baghdad, but we're also very focused on the 
need to build capacity in the local and provincial governments, 
and to be able to deliver economic and reconstruction 
assistance there.
    Finally, let me just say one word about our regional 
diplomatic strategy. Obviously, Iraq is central now to 
America's role in the Middle East--central to our credibility, 
central to the prospects for stability, and central to the role 
that our allies and friends and Iraq's neighbors will play in 
the Middle East. But we have to base our regional strategy on 
the substantially changed realities of the Middle East.
    This is a different Middle East. This Middle East is a 
Middle East in which there really is a new alignment of forces. 
On one side are reformers and responsible leaders who seek to 
advance their interests peacefully, politically, and 
diplomatically. On the other side are extremists, of every sect 
and ethnicity, who use violence to spread chaos, to undermine 
democratic governments, and to impose agendas of hatred and 
intolerance. On one side of that divide, the gulf countries, 
including Saudi Arabia and the other countries of the gulf--
Egypt, Jordan, the young democracies of Lebanon, of the 
Palestinian territory, led by Mahmoud Abbas, and in Iraq. But 
on the other side of that divide are Iran, Syria, Hezbollah, 
and Hamas. And I think we have to understand that that is a 
fundamental divide. Iran and Syria have made their choice, and 
their choice is to destabilize, not to stabilize.
    And so, with all respect to those who talk about engagement 
with Syria and Iran, I think we need to recognize that if Iran 
and Syria wish to play a stabilizing role for their own 
interests, then they will do so. If, on the other hand, they 
intend to offer a stabilizing role because they believe that, 
in our current situation in Iraq, we are willing to pay a 
price, that's not diplomacy, that's extortion. And I would just 
ask you what that price might be.
    I have a hard time believing that Iran will, on one side, 
talk to us about stabilizing Iraq and say, ``Oh, by the way, we 
won't talk about what you're doing in the Security Council to 
stop our nuclear program.'' That's not part of the price. Or 
that Syria will talk about stabilizing Iraq while they continue 
to destabilize it, and say, ``Oh, we aren't actually interested 
in talking about the fact that we have not reconciled to the 
loss of our position in Lebanon or to the existence of a 
tribunal to try those who are responsible for the assassination 
of Rafik Hariri.'' These two will most certainly come into 
contact with each other, the destabilizing activities in Iraq 
and the desires of these states to have us pay a price that we 
cannot pay.
    We do have a regional approach. It is to work with those 
governments that share our view of where the Middle East should 
be going. It is also to work with those governments in a way 
that can bring support to the new Iraqi democracy. It is to 
support the very normal democracy that Iraq itself may engage 
in with all of its neighbors. And it is to have an 
international compact, which is a bargain between the 
international community and Iraq, for support in response to 
Iraqi reforms, economic and, indeed, some that are political. 
In that Iraqi compact, both Syria and Iran have been present, 
and will continue to be.
    Let me just conclude by saying that we all understand, in 
the administration, that there are no magic formulas for Iraq, 
as the Baker-Hamilton Commission said. And I'd like you to 
understand that we really did consider the options before us. 
The President called on advisors from outside. He called on the 
advice of the Baker-Hamilton Study Group. And, of course, he 
discussed the policies with his advisors, like me, who have 
been there from the beginning, and, therefore, bear 
responsibility for both the successes and failures of this 
policy; and new advisors, like Secretary of Defense Gates, who 
came with a fresh eye. After all of that, he came to the 
conclusion--and I fully agree--that the most urgent task before 
us now is to help the Iraqi Government. And I want to emphasize 
``help'' the Iraqi Government--to establish confidence among 
the Iraqi population that it will, and can, protect all of its 
citizens, whether they are Sunni, Shia, Kurds, or others, and 
that they will, in an evenhanded fashion, punish those violent 
people who are killing innocent Iraqis, whatever their sect, 
ethnicity, or political affiliation.
    We believe that the Iraqi Government, which has not always 
performed, has every reason to understand the consequences, 
now, of nonperformance. They, after all, came to us and said 
that this problem had to be solved. They came to us and said 
that, yes, they would make the necessary decisions to prevent 
political interference in the military operations that need to 
be taken to deal with the Baghdad problem. They came to us and 
said that, ``This government will not be able to survive if it 
cannot reestablish civil order.'' And they gave to the 
President, and not just Prime Minister Maliki, but many 
leaders, an assurance that this time they're going to make the 
difficult choices in order to get it done.
    The situation in Iraq is unacceptable, but Iraq is also, at 
this point in time, of very high stakes to this Nation. This is 
a time for a national desire and a national imperative not to 
fail in Iraq. We've faced crucible tests as a country before, 
and we've come through them when we have come through them 
together. I want to pledge to you, as the President last--did 
last night, that we want to work with all Americans, here, 
particularly, in the Congress, the representatives of the 
American people, as we move forward on a strategy that will 
allow us to succeed in Iraq. This is the strategy that the 
President believes is the best strategy that we can pursue. And 
I ask your careful consideration of it, your ideas for how to 
improve it. And, of course, understanding that not everyone 
will agree, I do believe that we're united in our desire to see 
America succeed.
    Thank you very much.
    [The prepared statement of Secretary Rice follows:]

Prepared Statement of Condoleezza Rice, Secretary of State, Department 
                        of State, Washington, DC

    Mr. Chairman, members of the committee, as I come before you today, 
America faces a crucial moment. We all know that the stakes in Iraq are 
enormous. And we all share the belief that the situation in Iraq is 
unacceptable. On this we are united.
    The new way forward that President Bush outlined last night 
requires us to do things differently. Most importantly, the Iraqis have 
devised their own strategy, and our efforts will support theirs. To do 
so, we will further decentralize and diversify our civilian presence in 
Iraq to better assist the Iraqi people. We will further integrate our 
civilian and military operations. And we will fashion a regional 
strategy that supports reformers and responsible leaders in Iraq and 
across the Broader Middle East.
    Among Americans and Iraqis, there is no confusion over one basic 
fact: It is Iraqis who are responsible for what kind of country Iraq 
will be. It is they who must decide whether Iraq will be characterized 
by national unity or sectarian conflict. The President has conveyed to 
the Iraqi leadership that we will support their good decisions, but 
that America's patience is limited.
    Iraqis are now engaged in a task without precedent in their 
history. Iraq rests on the main religious and ethnic faultlines in the 
Middle East, and for centuries, Iraqis have settled their differences 
through oppression and violence. Now they are attempting to do so 
peacefully and politically. This is not easy, and as one could expect, 
many Iraqis have deep grievances, which some violent men interpret as a 
license to kill innocent people.
    Baghdad has become the center of this conflict. We know that al-
Qaeda deliberately sought to provoke sectarian violence in Iraq by 
targeting Shia civilians. With last February's bombing of the Golden 
Mosque in Samarra, the success of their plan accelerated. Sectarian 
passions, incited to violence, now threaten to overwhelm Iraq's 
fragile, yet promising, process of reconciliation--a process that has 
produced successful elections and a new constitution, substantial 
agreement on a law to share Iraq's oil fairly, and commitment to a more 
reasonable approach to ``de-baathification.''
    To succeed with national reconciliation, the Iraqi Government must 
improve security for its people, particularly in Baghdad. Iraqis 
themselves must take up this essential challenge. They must protect 
their population from criminals and violent extremists who kill 
innocent Iraqis in the name of sectarian grievance. The Iraqi 
Government must reestablish civil order in Baghdad to regain the trust 
of its people and control of its capital. President Bush has decided to 
augment our forces to help the Iraqis achieve this mission. Secretary 
Gates will have more to say on this.
    Success in Iraq, however, relies on more than military efforts 
alone; it also requires robust political and economic progress. Our 
military operations must be fully integrated with our civilian and 
diplomatic efforts, across the entire U.S. Government, to advance the 
strategy that I laid out before you last year: ``Clear, hold, and 
build.'' All of us in the State Department fully understand our role in 
this mission, and we are prepared to play it. We are ready to 
strengthen, indeed to ``surge,'' our civilian efforts.
    Our political and economic strategy mirrors our military plan: 
Iraqis are in the lead; we are supporting them. Improvement in the 
security situation, especially in Baghdad, will open a window of 
opportunity for the Iraqi Government to accelerate the process of 
national reconciliation. We can and will measure whether this work is 
being done. We recognize that the trend of political progress in Iraq 
is just as important as the end result. On the hydrocarbon law, for 
example, Iraqis are transcending sectarian differences and achieving a 
national purpose. This is a positive trend, and the process is moving 
in the right direction.
    Iraqis must also take steps that accelerate economic development 
and growth. The Government of Iraq has taken many important steps 
already on key economic issues, including policies to open Iraq's 
economy more fully and responsibly to foreign investment. The Iraqi 
Government must now move urgently, especially in the most troubled 
areas, to deliver essential services to its people--programs that 
improve lives in meaningful ways, that restore confidence in national 
and local governance, and provide a stake in the country's future for 
all Iraqis who wish to see an expansion of hope rather than a 
continuation of violence. The Iraqi Government is committing $10 
billion of its own resources to help create jobs, to break the logjams 
to growth in their economy, and to further national reconciliation.
    To better disperse these new resources throughout the country, 
Iraqis are building new governmental structures. One innovation they 
have proposed is the creation of a new National Reconstruction 
Development Council, which would enable the Prime Minister to deliver 
resources faster and more effectively for major infrastructure 
projects. This Council will also help take the place of our own Relief 
and Reconstruction Fund. Another Iraqi innovation is the development of 
Project Management Units, to help Iraqis use their own resources more 
effectively to implement programs.
    For these efforts to succeed, our support will be crucial. Since 
2004, we have used money from the Iraq Relief and Reconstruction Fund 
and other programs to build infrastructure and help the central 
government move toward self-reliance. As we enter 2007, despite many 
problems, we have substantially and successfully completed this phase. 
As Iraqis take charge, we will narrow our focus in how we help their 
central government. Using FY 2006 Supplemental funding, we have worked 
with the Iraqis to improve their capacity to govern. Now, our advisory 
efforts will concentrate on the most vital ministries. We will advise 
and invest our resources where we judge that our efforts will be most 
effective.
    To oversee our economic support for the Iraqi people, and to ensure 
that it is closely integrated with our security strategy, I have 
appointed Tim Carney to the new position of coordinator for Iraq 
Transitional Assistance. He will be based in Baghdad and will work with 
Iraqi counterparts to facilitate a maximum degree of coordination in 
our economic and development efforts.
    As Iraqis intensify efforts to improve lives, the main focus of our 
support will continue to shift toward helping the Iraqi Government 
expand its reach, its relevance, and its resources beyond the Green 
Zone. We will help local leaders improve their capacity to govern and 
deliver public services. Our economic efforts will be more targeted on 
specific local needs with proven records of success, like microcredit 
programs. And we will engage with leading private sector enterprises 
and other local businesses, including the more promising state-owned 
firms, to break the obstacles to growth.
    Our decentralization of effort in Iraq will require a more 
decentralized presence. We must continue to get civilians and diplomats 
out of our Embassy, out of the capital and into the field, all across 
the country. The mechanism to do this is the Provincial Reconstruction 
Team, or PRT. We currently have 10 PRTs deployed across Iraq: 7 
American and 3 coalition. Building on this existing presence, we plan 
to expand from 10 to at least 18 teams. For example, we will have six 
PRTs in Baghdad, not just one. We will go from one team in Anbar 
province to three--in Fallujah, Ramadi, and Al Qaim. These PRTs will 
closely share responsibilities and reflect an unprecedented unity of 
civilian and military effort.
    Expanding our PRT presence will also enable us to diversify our 
assistance across all of Iraq. Iraq has a federal government. Much of 
the street-level authority, and much of the opportunity for positive 
change in Iraq, lies outside the Green Zone--in local and provincial 
governments with party leaders and tribal chiefs. By actively 
supporting these provincial groups and structures, we diversify our 
chances of success in Iraq. Our PRTs have had success working at the 
local level in towns like Mosul, Tikrit, and Tal Afar. Now we will 
invest in other parts of Iraq, like Anbar province, where local leaders 
are showing their desire and building their capacity to confront 
violent extremists and build new sources of hope for their people.
    All total, we seek to deploy hundreds of additional civilians 
across Iraq to help Iraqis build their nation. And we will ask Congress 
to provide funding to support and secure our expanded civilian 
presence. We want to give our civilians, deployed in PRTs, the 
flexibility to devote extra resources where they can do the most good 
at the local level. Our expanded PRT presence will be a powerful tool 
to empower Iraq's reformers and responsible leaders in their struggle 
against violent extremism. We, therefore, plan to request, as part of 
our FY 2007 Supplemental, significant new operating funds for our PRTs 
as well as hundreds of million of dollars to fund their programs. When 
we add in relevant USAID projects, we hope to approximately double our 
resource commitment to help local Iraqi communities through PRTs.
    These commitments will not be indefinite. As I said earlier, one of 
our main objectives in this phase is to help the Iraqis use their own 
money to rebuild their country. The Iraqis have budgeted billions of 
dollars for this mission in 2007, and as their efforts become more 
effective, we have kept our FY 2008 requests limited. We want Iraqis to 
rely more and more on their own resources, their own people, and their 
own efforts. Therefore, by 2008 and 2009, the burden of local 
assistance should be assumed more effectively by the Iraqi Government. 
In the meantime, though, our efforts will be vital.
    The final piece of our effort is the development of a regional 
diplomatic strategy, which was a key recommendation of the Iraq Study 
Group. Iraq is central to the future of the Middle East. The security 
of this region is an enduring vital interest for the United States. 
America's presence in this part of the world contributes significantly 
to its stability and success. So, as we recommit ourselves in Iraq, we 
are also enhancing our efforts to support reformers and responsible 
leaders in the region--and to deter and counter aggression to our 
friends and allies.
    Our regional diplomacy is based on the substantially changed 
realities of the Middle East. Historic change is now unfolding in the 
region, and it is unleashing a great deal of tension, anxiety, and 
violence. But it is also revealing a new strategic alignment in the 
Middle East. This is the same alignment we see in Iraq. On one side are 
the many reformers and responsible leaders, who seek to advance their 
interests peacefully, politically, and diplomatically. On the other 
side are extremists, of every sect and ethnicity, who use violence to 
spread chaos, to undermine democratic governments, and to impose 
agendas of hate and intolerance.
    This is why the proper partners in our regional diplomacy are those 
who share our goals. In this group, I would count, of course, our 
democratic allies: Turkey and Israel. I would also count the 
governments of the Gulf States plus Egypt and Jordan, or the ``GCC+2.'' 
We have established unprecedented consultation with this group of 
countries. In fact, I will be returning to the region, and to this 
process, later this week. I would also count among our key partners the 
democratic reformers and leaders in places like Lebanon, the 
Palestinian territories, and, of course, Iraq. Our most important goal 
now is to use our diplomacy to empower democratic and other responsible 
leaders across the region. We must help them show their fellow citizens 
that it is they, not violent extremists, who can best protect their 
lives, promote their interests, and advance a future of hope.
    On Iraq, in particular, our regional diplomacy has several 
components. One concerns Iraq's neighbor to the north: Turkey. 
President Bush and I have engaged retired GEN Joe Ralston to work with 
Iraq and Turkey on concerns about terrorism from the Kurdish Worker's 
Party. Those efforts have helped to ease tensions, but we will do more 
to protect our ally, Turkey, from terrorist attacks.
    Over the last 6 months, we have also supported significant progress 
in crafting an international compact between the Iraqi Government and 
the international community. Working with more than 40 countries, Iraq 
has developed a set of written commitments to action on political, 
security, and economic targets. The creation of the compact has been 
guided by a diplomatic process that has already met at the level of 
Foreign Ministers. This group involves all of Iraq's neighbors--
including Iran--and other states that have invested significantly in 
Iraq's future. Iraq has led the compact process. The United Nations has 
served as cochair. And the World Bank has assisted. This diplomatic 
process also provides a structure that can easily accommodate flexible, 
informal meetings of smaller groups of countries about other topics of 
common concern.
    While many of us are working to strengthen peace in the region, two 
governments have unfortunately chosen to align themselves with the 
forces of violent extremism--both in Iraq and across the Middle East. 
One is Syria. Despite many appeals, including from Syria's fellow Arab 
States, the leaders in Damascus continue to destabilize Iraq and their 
neighbors and support terrorism. The problem here is not a lack of talk 
with Syria but a lack of action by Syria.
    Iran is the other. If the government in Tehran wants to help 
stabilize the region, as it now claims, it should end its support for 
violent extremists who destroy the aspirations of innocent Lebanese, 
Palestinians, and Iraqis. And it should end its pursuit of a nuclear 
weapons capability. I repeat my offer today: If Iran suspends its 
enrichment of uranium--which is, after all, an international demand, 
not just an American one--then the United States is prepared to reverse 
27 years of policy, and I will meet with my Iranian counterpart--
anytime, anywhere--to discuss every facet of our countries' 
relationship. Until then, we will continue to work with the Iraqis and 
use all of our power to limit and counter the activities of Iranian 
agents who are attacking our people and innocent civilians in Iraq.
    Mr. Chairman, members of the committee, I know there are no 
guarantees or magic formulas on the question of Iraq. I know that most 
Americans are skeptical and concerned about the prospects of success. I 
know and share the concern for those who remain in harm's way that all 
Americans feel, as well as the heartbreak they feel for the families 
who have lost loved ones.
    I also know that, over the past several weeks, President Bush and 
our entire national security team have carefully considered a full 
range of new ideas. The President has heard from those of his advisors, 
like me, who have been around from the very beginning, and who bear 
responsibility for our policy thus far--its successes and its setbacks. 
He has also heard from new advisors who bring a fresh perspective. In 
addition, the President has weighed the thoughtful advice given to him 
by Members of Congress, by our friends and allies abroad, and by 
outside experts like the gracious public servants who made up the Iraq 
Study Group.
    The conclusion the President reached, with which I fully agree, is 
that the most urgent task now is to help the Iraqi Government establish 
confidence that it can, and will, protect all of its citizens, 
regardless of their sectarian identity, from violent extremists who 
threaten Iraq's young democracy--and that it will reinforce security 
with political reconciliation and economic support. Implementing this 
strategy will take time to succeed, and I fully expect that mistakes 
will be made along the way. I also know that violent extremists will 
retain their capacity and their appetite to murder innocent people. But 
reestablishing civil order--the willingness and the capacity of the 
Iraqi Government to meet its responsibilities to its people--is 
essential.
    The situation in Iraq is unacceptable, and the stakes are 
extraordinary--for the United States, for the region, and for the 
entire international community. It was, after all, the trouble and 
turmoil of the Middle East that produced the violent extremist ideology 
of al-Qaeda, which led 19 young men to crash airplanes into our cities 
5 years ago on September 11. It is clear that, now and for many years 
to come, the crucible of the Middle East will remain the center of 
gravity for American and international interests.
    There have been other critical times for America, when we have 
united as one nation to meet great challenges. Now must be such a time, 
for it is a national desire and a national imperative not to fail in 
Iraq. This, we believe, is the best strategy to ensure success. And I 
ask that you give it a chance to work.

    Senator Biden. Madam Secretary, thank you very much. And I 
assure you, no one on this committee has any doubt about your 
intense concern and the intensity with which you have 
deliberated on this and your frank acknowledgment of the 
mistakes that have been made. And I don't have any doubt about 
us wondering whether or not you care a great deal about this.
    I have been told by the staff that the Secretary--she has a 
big day today. She has to be here, as well as in the House, and 
she understandably will have to leave here by 1 o'clock, at the 
latest. According to the staff calculation--and I'm going to 
hold everybody to this, including myself--that if we give 
everyone 7 minutes, everyone will have an opportunity to ask 
her, not all the questions you have, but the most important 
questions you think need be asked. We will be holding these 
hearings for another 2\1/2\ weeks. There'll be plenty of 
opportunities. And, again, the Secretary will be back over the 
ensuing months. And so, I hope that that meets with everyone's 
approval. Matter of fact, seven may be stretching it, but 
that's where we're going to start, if we can.
    Let me begin, Secretary Rice. Last night, the President 
said, and I quote, ``Succeeding in Iraq requires defending its 
territorial integrity and stabilizing the region in the face of 
extremists' challenges, and that begins with addressing Iran 
and Syria.'' He went on to say, ``We will interrupt the flow of 
support for Iran and Syria, and we will seek out and destroy 
networks providing advanced weaponry and training to our 
enemies in Iraq.'' Does that mean the President has plans to 
cross the Syrian and/or Iranian borders to pursue those persons 
or individuals or governments providing that help?
    Secretary Rice. Mr. Chairman, the Chairman of the Joint 
Chiefs was just asked this question, and I think he perhaps 
said it best. He talked about what we're really trying to do 
here, which is to protect our forces, and that we are doing 
that by seeking out these networks that we know are operating 
in Iraq. We are doing it through intelligence. We are then 
able, as we did on the 21st of December, to go after these 
groups, where we find them. In that case, we then ask the Iraqi 
Government to declare them persona non grata and expel them 
from the country, because they were holding diplomatic 
passports. But what is really being contemplated here, in terms 
of these networks, is that we believe we can do what we need to 
do inside Iraq. Obviously, the President isn't going to rule 
anything out to protect our troops, but the plan is to take 
down these networks in Iraq.
    The broader point is that we do have, and we have always 
had, as a country, very strong interests and allies in the gulf 
region, and we do need to work with our allies to make certain 
that they have the defense capacity that they need against 
growing Iranian military buildup, that they feel that we are 
going to be a presence in the Persian Gulf region, as we have 
been, and that we establish confidence with the states with 
which we have long alliances, that we will help to defend their 
interests. And that's what the President had in mind.
    Senator Biden. Secretary Rice, do you believe the President 
has the constitutional authority to pursue, across the border 
into Iraq or Syria, the networks in those countries?
    Secretary Rice. Well, Mr. Chairman, I think I would not 
like to speculate on the President's constitutional authority 
or to say anything that certainly would abridge his 
constitutional authority, which is broad, as Commander in 
Chief. I do think that everyone will understand that the 
American people and, I assume, the Congress, expects the 
President to do what is necessary to protect our forces.
    Senator Biden. Madam Secretary, I just want to make it 
clear, speaking for myself, that if the President concluded he 
had to invade Iran or Syria in pursuit of these networks, I 
believe the present authorization--which granted the President 
the right to use force in Iraq--does not cover that, and he 
does need congressional authority to do that. I just want to 
set that marker.
    Let me move on. How long do you estimate American forces 
will be going door to door with their Iraqi counterparts in 
Baghdad before they can--I believe the phrase is ``secure''--or 
``clear, hold, and build''? What is the estimate of how long 
will it take to clear? And how long are we prepared to hold 
with American forces in Baghdad that are being surged?
    Secretary Rice. Well, I can't give you an exact timetable 
on how long operations might take. Let me just note that the 
Iraqis are in the lead on these Baghdad operations. And I think 
that one reason that it's extremely important that they are 
bringing some of their best forces from around Iraq to 
participate in this--or to lead this effort is that a good deal 
of the establishing of confidence in these neighborhoods has to 
be done by Iraqis. We will be in support of them, but I think 
that it's extremely important to have an image in mind that it 
is Iraqis who are expected to take census. After all, they're 
the ones with the linguistics skills to do so. It is Iraqis 
that are expected to be in these neighborhoods. The problem 
with previous Baghdad security plans is that there weren't 
enough forces to hold. I think that it is important that it 
will be a combination of Iraqi forces: Army and police--
national police and local police. But we want to be certain, 
this time, that the holding phase lasts long enough for the 
Iraqis to be able to deal with the perpetrators of the 
violence. And so, I don't want to try to put a timeframe on it, 
but Secretary Gates said, earlier today, that he expects this 
to, of course, be a temporary measure while Iraqi forces are 
brought up to----
    Senator Biden. Well, Secretary Rice, I think you're right. 
It's important to have a visual image of what this means: 6.2 
million people, a civil war or a sectarian war taking place. 
And here's what the President said last night, referring to our 
surge troops, ``The vast majority of them, five brigades, will 
be deployed to Baghdad. These troops will work alongside Iraqi 
units, and will be embedded in their formations.'' No American 
should misunderstand what that means. It means young marines 
are going to be standing next to an Iraqi soldier as they break 
down a door. So, I'd want to know and you've answered it--my 
question related to how long we think these marines and these 
five brigades are going to be kicking in doors, standing on 
street corners, patrolling neighborhoods, going to second-story 
walkups, et cetera. And that was the reason for my question. 
But, you're right, it's important we have the correct image of 
what this is. And that's what it is.
    Secretary Rice. It is important that we have the correct 
image that Iraqis want to have this be their responsibility.
    Senator Biden. Are you confident--you, personally, Madam 
Secretary--this will be my concluding comment--question--are 
you confident that Maliki has the capacity to send you a 
sufficient number of troops that will stay in the lead, that 
will allow American Marines to feel that their physical 
security is not being jeopardized merely by being ``with this 
brigade of Iraqis''? Are you confident they will send a 
sufficient number, and their best?
    Secretary Rice. Most importantly, General Casey and our 
Ambassador believe strongly that the Maliki government intends 
to live up to its obligations.
    Senator Biden. But I'm asking you, Secretary Rice.
    Secretary Rice. I have met Prime Minister Maliki. I was 
with him in Amman. I saw his resolve. I think he knows that his 
government is, in a sense, on borrowed time, not just in terms 
of the American people, but in terms of the Iraqi people.
    Senator Biden. Are you confident?
    Secretary Rice. I'm confident.
    Senator Biden. Thank you very much, Secretary--or, excuse 
me--Major Secretary----
    [Laughter.]
    Senator Biden. Senator Lugar--Chairman Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Secretary Rice, in the New York Times today, columnist 
David Brooks wrote a column called ``The Fog Over Iraq.'' I 
simply wanted your comment, because you have indicated you have 
visited with Prime Minister Maliki. David Brooks references the 
meeting of our President with Prime Minister Maliki on November 
30 in which, reportedly, Maliki presented a plan in which our 
troops, the American troops, would go to the periphery of 
Baghdad, and would fight off insurgents, Sunni insurgents or 
whoever, trying to penetrate Baghdad. Meanwhile, the Iraqi Army 
and police, including Shiites and Kurds, principally, would 
take over the responsibility of attempting to clear the city.
    Essentially, Brooks says President Bush rejected that plan, 
or our Government did, and the President has decided that we 
would do the opposite. American troops would be embedded in the 
nine police districts in Baghdad, and would, in fact, be more 
heavily involved, with a new mandate to secure those areas, 
whether door to door or in some other fashion. One thought is, 
no, not door to door, that the Shiites go door to door, and 
that we are back in the background, advising and supporting, 
and so forth. But the article goes on to give the impression 
that Maliki and the Kurds and the Shiites had at least an idea 
of creating their own kind of stability.
    Now, from our standpoint, we may have decided that such a 
move rejected the Sunnis as a partner in the process; and, 
thus, led to greater destabilization of the country as a whole 
on--but let me just ask for your comment as to whether this is 
a sequence of events that transpired into the plan that the 
President gave last night. And what are the strengths and 
dangers of that?
    Secretary Rice. Yes, Senator Lugar, the core of the Maliki 
plan has really been preserved here. This really is based on 
his plan. It is absolutely the case that the Iraqis have wanted 
to have responsibility for their own problem, to have their 
troops under their command, and to move out. When Prime 
Minister Maliki presented the plan, he wanted our people to 
look at it with his military people to see how quickly this 
could be accelerated so that he could go and take care of the 
sectarian problem in Baghdad.
    The fact is that it could not be accelerated quickly enough 
with only Iraqi forces in order to meet the timeline that he 
really felt he had, in terms of dealing with the Baghdad 
problem. And so, out of this planning process came, from our 
generals, the view that we needed to augment their forces, as 
embeds, as, by the way, the Baker-Hamilton Commission 
recommends, as people who can help them with, in a sense, on-
the-job training, who can help them to, kind of, solidify their 
ability to go after this. But the Iraqis continue to press that 
they really need to be the ones interfacing with their 
population in a major way, they need to be the ones to deliver 
the stability that is needed.
    I think you will see that in a relatively brief period of 
time as their forces develop, they will take on more and more. 
And as the President said last night, the thought is, they 
would have all of their forces by November. But there was a gap 
in time between the time that they need to get Baghdad under 
control and having the capability to do it, even bringing, as 
they are, their best and most reliable army forces from around 
the country.
    So, that's the difference. But I don't believe it was ever 
really the Prime Minister's intention that it would be Shia and 
Kurds only. I think he understands that one of the problems 
that they have is that the Sunni population feels that the 
Iraqi Government is not evenhanded in dealing with death 
squads.
    Senator Lugar. What can you tell us about favorable 
reception of some of the sheikhs in Anbar province of our new 
policies? Would you describe that situation?
    Secretary Rice. Yes. Well, the last time that there was a 
kind of formal report about Anbar, I remember some of the 
reporting as being the tremendous difficulties in Anbar. And it 
is a difficult place, because it is the epicenter of al-Qaeda. 
Now what you will hear from our commanders in the area--and 
also I have heard directly from my Provincial Reconstruction 
Team leader, a very seasoned diplomat--is that the sheikhs have 
essentially gotten tired of al-Qaeda, and want them out. They 
do not believe that we can do that alone. They have begun to 
recruit their own young men to be trained to be a force against 
the foreign invaders. They have, for instance, sent 1,100 young 
men to Jordan to train for something that they call the ``Sons 
of Anbar'' to come back. They will recruit more and send them. 
This is also a part of a success, we believe, of a policy with 
regional neighbors who have been involved in the Sunni outreach 
piece. It is into that--Anbar--that we believe it's important 
to surge both civilian and military assets. And so, when the 
President talks about 4,000 additional forces sent to Anbar, 
this is not because of a sectarian problem, this is because we 
think we may be able to support this local effort against al-
Qaeda, and, second, to surge resources into Anbar.
    To be very frank, the chairman asked me if I was confident 
about the Iraqi Government. I'm confident that they want to do 
this. I'm also one who knows that there have been times when 
they haven't performed, in the past. And one of the things that 
they've got to perform better on is getting economic resources 
into some of the Sunni areas, particularly into Anbar. And so, 
we are also going to increase the number of Provincial 
Reconstruction Teams in Anbar to help with that process.
    Senator Lugar. Thank you.
    Senator Biden. Thank you, Mr. Chairman.
    Senator Dodd.

   STATEMENT OF HON. CHRISTOPHER J. DODD, U.S. SENATOR FROM 
                          CONNECTICUT

    Senator Dodd. Thank you, Mr. Chairman.
    And thank you, Madam Secretary. And let me thank you, as 
well. We've had some conversations over the last couple of 
weeks, prior to the trip Senator Kerry and I took to the 
region, and then on the return, as well, and I thank you for 
that. And I thank you for being here this morning.
    And again, I thank the chairman for holding these set--
these series of hearings that we're going to have on the 
subject matter. They'd offer, I hope, an opportunity for us not 
only to listen to you, as we did the President last evening, 
but also an opportunity for you to hear from us, as well. I 
think it's important that there be a conversation here as we 
try to sort out this policy and begin to make sense of it. It's 
not about Democrats and Republicans, it's about getting this 
right. And I couldn't agree more with Senator Biden, I don't 
know of another foreign policy crisis that's been as compelling 
as this one. Over the past 32 years, as a Member of the House 
and as a Member of this body and a member of this committee for 
a quarter of a century, I've never been to the region where 
I've felt it was more in crisis than it is today, and at 
greater risk.
    So, I'd like to share just some opening thoughts and 
comments, if I can with you, and then--and get to a quick 
question.
    On the eve of the Second World War, the 20th century's most 
daunting and difficult struggle, Winston Churchill explained, 
in the following words, a compelling thought, I think. He said, 
``There's no worse mistake in public leadership than to hold 
out false hopes to be swept away. People face peril or 
misfortune with fortitude and buoyancy, but they bitterly 
resent being deceived or finding that those responsible for 
their affairs are, themselves, dwelling in a fool's paradise.''
    Madam Secretary, I'm sorry to say, today--and I think many 
hold this view--that a fool's paradise describes nothing as 
aptly as our Iraq policy today. I think most Americans know it, 
painfully. The Iraqi people, of course, know this, in 
compelling numbers.
    If the President did grasp, I think, the sad extent of that 
failure, I sincerely doubt he would have ordered yet more 
troops into Iraq. The President's plan simply strikes me as a 
continuation of Operation Together Forward, which has been 
described already, which--far from improving Iraq's security 
climate, produced the unintended consequences of heightened 
sectarian violence.
    I fail to see--and I think many others share this view--how 
the outcome will be different this time. And that is a true 
disservice, I think, to the American troops, who have shown 
nothing but professionalism and courage and should not be asked 
to risk their lives for an unsound strategy and an unsound and 
an unsure purpose.
    The Baker-Hamilton Report should have disabused us, in my 
view, of the notion that, caught in the midst of sectarian, 
ethnic, and religious political hatreds, we can simply bludgeon 
our way to victory. As many of us have been saying for some 
time now, only political and diplomatic possibilities hold out 
any real hope of reversing the spiral into chaos.
    The time for blunt force, I think, is long past, and many 
hold that view. Instead, we ought to withdraw, I think, our 
combat troops from these large urban areas of sectarian 
conflict, where they simply are cannon fodder. There are 23 
militias operating in Baghdad, alone. It's hard to identify 
exactly who is the enemy here. We have Shias and Sunnis, you 
have Baathists, you have insurgents, some al-Qaeda elements 
here. Asking our military people to sort out who the enemy is 
in all of this is extremely difficult, to put it mildly. 
Instead, we ought to be focusing our attention on training 
reliable Iraqi security forces, providing some security in the 
border areas. And, as several of our junior officers that I 
talked with in Baghdad suggested, providing the kind of 
security around some of these critical infrastructure areas, 
and provide the kind of water, sewage, and electrical grids 
that are so critical to people having some sense of opportunity 
or hope for the future.
    If the only solution in Iraq is a political one, then 
diplomacy happens to be the weapon that we have left, and must 
use. The President's solution to--for all of this--or to all 
was, of course, to ignore the most important recommendations 
the Iraq Study Group--namely, robust diplomacy--and, instead, 
settle on an escalation of our current combat strategy. This is 
a tactic in search of a strategy, in my view, and will not 
bring us a more stable Iraq.
    The American people have spent $14 billion training and 
equipping 300,000 Iraqi police and security forces. Yet, as I 
said a moment ago, 23 separate sectarian militias operate with 
impunity throughout Baghdad, alone. Sectarian killings continue 
largely unabated, averaging scores of deaths every day, and 
thousands a month. This is not random violence, it is a 
targeted civil war complete with ethnic cleansing. Those of us 
who have been to Iraq recently have seen it with our own eyes, 
heard it with our own ears. Beyond that, the President's own 
intelligence experts have told us that the Islamic world is 
growing more radical and that the terrorist threat is greater 
today than it was on 9/11, not despite, but because of, the 
continuing war in Iraq. They conclude it's become both a 
physical and ideological training ground for the next 
generation of extremists. The wider region has been further 
plunged into violence, as we know. Hezbollah has crippled the 
Lebanese Government; civil war in the Palestinian territories 
now seems more likely than ever; Syria and Iran are more 
powerful and emboldened than they have been in recent memory; 
we're further away from stabilizing Afghanistan as drug-
traffickers and tribal warfare now threaten to destroy its 
nascent democracy, and the Taliban is growing stronger by the 
hour.
    And perhaps most troubling of all is our standing in the 
world. According to the Pew Center for Global Opinion, most 
people in Great Britain, France, Spain, Russia, Indonesia, 
Egypt, Jordan, Turkey, Pakistan, Nigeria, India, and China 
think that the war in Iraq is a greater danger to world peace 
than either Iran or North Korea, stunning as those numbers are. 
The President says that we're in a war of ideas. But how can we 
possibly win that kind of a war between democracy and extremism 
when so much of the world considers us to be the threat? It's 
deeply troubling to me, as I hope it is to you, as well. How 
weakened is our standing in the world and our support from 
foreign peoples? How many tools have we thrown away? And how 
safe are we now?
    Senator Lugar raised an important question in his opening 
comments that I'd like you to address, if you can, and that 
is--none of us are suggesting, at this table, that we engage 
Iran or Syria as if they were an ally or a friend or talking 
about conferences where we give them a status they don't 
deserve. But it's awfully difficult to understand, Madam 
Secretary, why we would not try to engage very directly with 
people who can play a critical role in providing some 
stability. We heard, in Syria, the President say that he's 
interested in a secular Arab State operating on his border, 
does not want a Shia-dominated fundamentalist state on his 
border. That was just a comment to us in the room with Embassy 
personnel present. It seems to me it's worthy of examining and 
exploring those areas where we can have a common ground here, 
rather than just neglecting or ignoring that kind of an offer, 
if we're going to bring stability to the region.
    I wish you would, once again, address the issue raised by 
Senator Lugar in the context in which he raised it, not 
diplomacy as a favor or a gift or some acknowledgment that we 
agree with these people, but, rather, the necessity for the 
United States to lead in a region where we have not been able 
to do so.
    Secretary Rice. Thank you, Senator.
    Let me address the question, first, of Iran and Syria. And 
they are different. And I think we need to separate the two.
    First of all, on Syria, we did engage, for quite a long 
time. Colin Powell engaged. Rich Armitage engaged. Bill Burns 
engaged. And, in fact, we got nowhere. And, indeed, I would 
argue that the situation, from our point of view, is worse 
today, in terms of the terms on which we would be engaging, 
than it was at that time.
    The terms on which we would be engaging now, and on which 
we're being asked to engage, is that we go to the Syrians and 
we say, ``Help us to stabilize Iraq,'' or, ``Let's join in our 
common interest to stabilize Iraq.'' That's what we would say 
to them. The problem, of course, is that if they have an 
interest in stabilizing Iraq, I assume that they will do it on 
the basis of their national interest, and that they will do it 
because it is in their national interest. To do anything more 
with them is to suggest that there's a tradeoff that's 
possible, ``You help us stabilize in Iraq, and perhaps we will 
overlook some of your activities in Lebanon. You help us 
stabilize in Iraq, perhaps we can do something to shave some of 
the teeth from the tribunal.''
    I think it's extremely important to note that we have 
talked to the Syrians. We've generally gotten nowhere. And now 
we would be going in a way that I fear looks like a supplicant.
    Senator Dodd. Could I just ask you, Madam Secretary----
    Secretary Rice. Yes.
    Senator Dodd [continuing]. Is that speculation on your 
part, or has----
    Secretary Rice. No.
    Senator Dodd [continuing]. That been the reaction you've 
heard? It seems to me----
    Secretary Rice. I would also just note that an awful lot of 
people have engaged the Syrians recently, to no good effect. 
The Italians, the Germans, the British all engaged them to no 
good effect.
    Senator Dodd. Well, but----
    Secretary Rice. Senator Dodd, if I really thought that the 
Syrians didn't know how to help stabilize Iraq, and we needed 
to tell them, then perhaps that would be worth doing. They know 
how to stabilize Iraq. They just need to stop allowing 
terrorists to cross their borders.
    Senator Dodd. Thank you, Mr. Chairman.
    Secretary Rice. Shall I go to Iran? Because I do think 
they're different.
    Senator Biden. Yes.
    Secretary Rice. When it comes to Iran, first of all, 
there's a 27-year history of not engaging Iran, so this would 
be a major shift in policy. Of course, we did talk to them 
about Afghanistan, when that made sense. But what we're looking 
at, again, is an Iran that is engaging activities to try to 
kill our troops. They know how to stop that. They know how to 
stop it tomorrow. They know how to stop destabilizing the young 
Iranian--Iraqi Government. And I assume that if they believe 
it's in their interest, they would do so.
    But I just don't believe, for a moment, that the 
conversation with the Iranians is going to go in the following 
way, ``Help us stabilize Iraq,'' and they don't want to talk 
about a price on their nuclear program.
    We are, I think, dealing with Iran in the proper fashion, 
which is to insist, with the rest of the international 
community, that any negotiations with Iran are going to be on 
the basis of suspension of their nuclear program. We are 
reaching out to the Iranian people. We just had a group of 
Iranian medical doctors here, in an exchange. We will have some 
American sports teams go there. There are banks. We are making 
it difficult for Iran to continue its policies of terrorism and 
WMD pursuit, because we are sanctioning and designating their 
banks that are engaged in those activities, and it is having an 
effect on whether people are willing to invest in Iran, whether 
they are willing to take the reputational risk of handling 
Iranian assets. That's why banks are leaving Iran. That's why 
they're having trouble finding a way to support their 
investment in their oil and gas industry.
    We do have a pretty comprehensive way of dealing with Iran. 
I have made the offer. If they are prepared to suspend their 
enrichment capability, I'm there with their people at any time 
that they'd like and any place that they'd like. But I think 
that's the proper context.
    And, finally, we do have the opportunity, within the 
international compact, to have Iran and Syria play a positive 
role in Iraq, if they wish to do it. They are--they've been at 
those meetings of the international compact, and they should 
play a positive role. And so, I don't think there's an absence 
of diplomacy, an absence of a policy toward Iran and Syria; 
it's just that direct negotiations on this matter put us in the 
role of supplicant, and I think that's a problem.
    Senator Dodd. Thank you, Madam Secretary.
    Senator Biden. Thank you.
    Senator Dodd. Thank you, Mr. Chairman.
    Senator Biden. Senator Hagel.

          STATEMENT OF HON. CHUCK HAGEL, U.S. SENATOR
                         FROM NEBRASKA

    Senator Hagel. Mr. Chairman, thank you. Welcome, Dr. Rice. 
We always appreciate you coming before this committee. And 
before I get to my questions, I want to----
    [Pause.]
    Senator Hagel. I was concerned. I--that doesn't count on my 
time. He's not from Nebraska, Mr. Chairman. I----
    [Laughter.]
    Senator Biden. Would you reset--would you reset the clock?
    Senator Hagel. He took the train over from Delaware, that 
fellow did. [Laughter.]
    Like I was saying, Dr. Rice--it was a little heavy, anyway; 
we needed a break----
    [Laughter.]
    Senator Hagel. We are very appreciative of your trip to the 
Middle East tomorrow, because not only does it fit into what we 
are discussing today--and I have believed for some time that it 
is the centerpiece of the difficulties in the Middle East, as 
was noted here by our cochairman--this issue is going to be 
with us for some time, as it has been. And you have noted that. 
The President has noted that. I would hope that--and I have 
reviewed your travel schedule--that we will find, as a result 
of those meetings, that we will have locked in place some very 
significant followup. And I have been one, as you know--and 
I've discussed this with you--that I think the President and 
you should think very seriously about some kind of a day-to-day 
high-level envoy. You do not have the time and the energy and 
the resources and the manpower--I don't need to tell you--to 
continue to work this, nor does the President. But if, in fact, 
we're going to make progress and move this to some higher 
plane, where we are developing some confidence and trust that 
we have lost, in my opinion--and I think others share that, 
especially recent conversations and poll numbers--this issue 
must be addressed, and that means followup. So, thank you for 
your leadership.
    I want to comment briefly on the President's speech last 
night, as he presented to America and the world his new 
strategy for Iraq, and then I want to ask you a couple of 
questions.
    I'm going to note one of the points that the President made 
last night at the conclusion of his speech, when he said, ``We 
mourn the loss of every fallen American, and we owe it to them 
to build a future worthy of their sacrifice.'' And I don't 
think there is a question that we all in this country agree 
with that. But I would even begin with this evaluation, that we 
owe the military and their families a policy--a policy worthy 
of their sacrifices. And I don't believe, Dr. Rice, we have 
that policy today. I think what the President said last night--
and I listened carefully, and read through it again this 
morning--is all about a broadened American involvement--
escalation--in Iraq and the Middle East. I do not agree with 
that escalation. And I would further note, that when you say, 
as you have here this morning, that we need to address and help 
the Iraqis, and pay attention to the fact that Iraqis are being 
killed. Madam Secretary, Iraqis are killing Iraqis. We are in a 
civil war. This is sectarian violence out of control, Iraqi on 
Iraqi. Worse, it is intersectarian violence, Shia killing Shia. 
To ask our young men and women to sacrifice their lives to be 
put in the middle of a civil war is wrong. It's, first of all, 
in my opinion, morally wrong; it's tactically, strategically, 
militarily wrong.
    We will not win a war of attrition in the Middle East. And 
I further note that you talk about skepticism and pessimism of 
the American people, and some in Congress. That is not some 
kind of a subjective analysis, that is because, Madam 
Secretary, we've been there almost 4 years. And there's a 
reason for that skepticism and pessimism. And that is based on 
the facts on the ground, the reality of the dynamics.
    And so, I have been one, as you know, who believed that the 
appropriate focus is not to escalate, but to try to find a 
broader incorporation of a framework. And it will have to be 
certainly regional, as many of us have been saying for a long 
time. That should not be new to anyone. But it has to be more 
than regional, it is going to have to be internationally 
sponsored. And that's going to include Iran and Syria.
    When you were engaging Chairman Biden on this issue, on the 
specific question, ``Will our troops go into Iran or Syria in 
pursuit, based on what the President said last night?'' you 
cannot sit here today--not because you're dishonest or you 
don't understand--but no one in our Government can sit here 
today and tell Americans that we won't engage the Iranians and 
the Syrians across the border. Some of us remember 1970, Madam 
Secretary, and that was Cambodia. And when our Government lied 
to the American people and said, ``We didn't cross the border 
going into Cambodia''--in fact, we did. I happen to know 
something about that, as do some on this committee.
    So, Madam Secretary, when you set in motion the kind of 
policy that the President is talking about here, it's very, 
very dangerous. Matter of fact, I have to say, Madam Secretary, 
that I think this speech, given last night by this President, 
represents the most dangerous foreign-policy blunder in this 
country since Vietnam, if it's carried out. I will resist it.
    Now, let me ask a question about the Maliki government. Is 
all of the Maliki government in support of America's 
significant escalation of troops and all the other things the 
President talked about? And where are our allies? Are they 
escalating, as well? It's my understanding that most of our 
allies have been withdrawing their troops. My understanding is 
that Great Britain intends to have most of their troops, if not 
all, out by the end of this year. Are the British escalating 
their troops? Are the Poles, the Italians, the South Koreans, 
the Australians? Are we finding ourselves isolated--going to 
find ourselves isolated? If you would answer those two 
questions, thank you.
    Secretary Rice. Yes; certainly, Senator.
    The first thing, I don't think we anticipate an 
augmentation of other coalition forces. But the number of Iraqi 
forces that should be growing over the next several months, so 
that, in fact, by November, these are the places that Iraq 
itself can take care of--we do expect Iraqi forces to fill the 
void.
    Now, second, let me just go to the question of escalation.
    Senator Hagel. Let me ask you to----
    Secretary Rice. Yes.
    Senator Hagel [continuing]. Answer the second question--
actually, my first question----
    Secretary Rice. Yes.
    Senator Hagel [continuing]. A little more specifically. The 
coalition government of Prime Minister Maliki----
    Secretary Rice. Yes.
    Senator Hagel [continuing]. The Sunnis----
    Secretary Rice. Right.
    Senator Hagel [continuing]. Sadr----
    Secretary Rice. Yes.
    Senator Hagel [continuing]. His 30 members, which leads us 
right into, as we put our Marines and Army in Baghdad, another 
22,000, or whether that's going to be 15,000, we're going to 
then put them in a position to be killing, I assume, militia--
because the militia's the problem there. And, so, that's the 
position we're going to put our troops in, and they'll be 
killing our troops. Now, are the Sunni-Shia coalition members, 
and the Kurds, of Maliki's government, are they all supporting 
our new position?
    Secretary Rice. Of course Muqtada al-Sadr does not support 
coalition forces at all.
    Senator Hagel. He has 30 representatives on that----
    Secretary Rice. Yes.
    Senator Hagel [continuing]. Government. So my--again, is 
this a--is this a unified support of--go ahead.
    Secretary Rice. Sorry. His 30 people are not even enough. 
If you count the two Kurdish parties, the IIP and the other 
Shia parties, they are, in fact, a majority. And, indeed, the 
President has talked to the leaders of those blocs, prior to 
this, to say that they need to support Prime Minister Maliki's 
plan. And the augmentation of our forces, of course, is in 
support of that plan.
    So, I think you will find support among the people who are 
supporting Prime Minister Maliki in his desire to end the 
sectarian violence, and that is more than Prime Minister Maliki 
himself.
    Senator Hagel. Well, that's not my question.
    Secretary Rice. Well, you asked me to also----
    Senator Hagel. My question was the escalation of American 
troops in Iraq.
    Secretary Rice. But I think you asked who was supporting 
it, and I said the Kurdish parties, Prime Minister Maliki and 
his Shia allies, and the IIP support a plan to do this, and 
they know that the augmentation of American forces is part of 
that plan.
    Now, as to the question of escalation, I don't see it, and 
the President doesn't see it, as an escalation.
    Senator Hagel. Putting 22,000 new troops--more troops in is 
not an escalation?
    Secretary Rice. Well, I think, Senator, escalation is not 
just a matter of how many numbers you put in. Escalation is 
also a question of, ``Are you changing the strategic goal of 
what you're trying to do?''
    Senator Hagel. Would you call it a decrease and billions 
of----
    Secretary Rice. I would----
    Senator Hagel [continuing]. Dollars more than you----
    Secretary Rice. I would----
    Senator Hagel [continuing]. Need for it?
    Secretary Rice. I would call it, Senator, an augmentation 
that allows the Iraqis to deal with this very serious problem 
that they have in Baghdad. This is not a change in what we are 
trying to achieve. The Iraqi Government needs to establish 
population security. What this augmentation does is to help 
them carry out their plan to get population security.
    I just want to note, though, of course, that many of the 
American casualties actually are taken in places like Anbar, 
they're also taken, really, because convoys are moving back and 
forth in the city. They are deliberately done by people who are 
trying to get us out of the country. They're not because we are 
caught in the middle of crossfire between Sunnis and Shia. I 
think it is important, again, to use the chairman's word, to 
have an image of what's really going on in Baghdad. It is 
absolutely the case that Iraqi----
    Senator Hagel. Madam Secretary, your intelligence and mine 
is a lot different. And I know my time is up here. But to sit 
there and say that, Madam Secretary; that's just not true.
    Secretary Rice. Well, Senator, if you will----
    Senator Hagel. That is not true.
    Secretary Rice. Senator, if you'll allow me to finish, 
there is a point I'd like to make about the Iraqis killing 
Iraqis and what that really is.
    Senator Hagel. Well, what that really is, it's pretty 
obvious what it really is.
    Secretary Rice. There are death squads, Senator, that are 
going into neighborhoods, and they are killing Iraqis. And, 
indeed, the death squads are Iraqis. So, in that sense, it's 
Iraqis killing Iraqis.
    Senator Hagel. Thank you.
    Secretary Rice. But I think it is wrong to give an image 
that somehow all Sunnis and Shia have broken into violence 
against one another. What the Maliki government is trying to do 
is to reestablish civil order so that the violent groups, 
including militias, including death squads, are dealt with by 
Iraqi forces, with the aid of American forces. That's different 
than saying that all of Iraq has fallen into civil war. And I 
just think it's the wrong image. Not all of Baghdad has fallen 
into civil war. There are deliberate efforts by organized 
groups to go after Sunnis, if they are Shia, and Shia, if they 
are Sunnis. What the President said to Prime Minister Maliki 
is, ``You have got to be evenhanded in how you go after these 
killers, whether they are Sunni or whether they are Shia.'' And 
that is the obligation that he undertook, and it is the 
assurance that he gave.
    Senator Hagel. Thank you.
    Mr. Chairman, thank you.
    Senator Biden. Gentlemen, these are really important 
exchanges, but if we're going to get to the junior members 
being able to ask their questions, I'm going to have to start 
to cut them off. And I'm reluctant to do it, because this is 
something the American people should hear and understand. And 
so, I'm sorry, but I'm going to try to--try to get us back into 
the--into this 7 minutes. OK?
    Senator Kerry.

      STATEMENT OF HON. JOHN F. KERRY, U.S. SENATOR FROM 
                         MASSACHUSETTS

    Senator Kerry. You had to put the hammer down now, huh? 
[Laughter.]
    Senator Biden. Yes; I'm going to put the hammer down now. 
Yes; right.
    Senator Kerry. Madam Secretary, welcome. And we appreciate 
your being here. I'm going to try and summarize a couple of 
comments--of thoughts, quickly, and then, obviously, try to get 
some questions. The time is so tight.
    With all due respect, I think you were splitting hairs a 
little bit in your answer to Senator Hagel. It is true that 
Iraq, as a whole, is not engaged in--broadly, as you're saying, 
but the trendline is increasingly moving in that direction. And 
in places like Basrah, the British are struggling. There's 
increasing violence in communities where there wasn't. And the 
level of violence, according to most people's standards, the 
testimony we had yesterday in this committee, is larger than 
classified civil wars in many other places, historically. And 
the violence of Sunni on Shia is clearly sectarian, and it is 
civil war between them. Low grade, still; but, nevertheless, 
civil war.
    The Middle East that Senator Dodd and I saw when we were 
there a few weeks ago, certainly the Middle East I saw, is very 
different from the one that I think you've described here 
today. Last night's speech by the President was very important. 
It was important for what it said and set out as a policy, but 
it was also important, I think, for what it didn't say and 
didn't do.
    Many of us--as you know, in our own personal conversation, 
we've been looking for a bipartisan way to approach this. I 
think the President lost an enormous opportunity last night for 
that bipartisanship. None of us want failure. There is a road 
to success, in the judgment of some people, conceivably. Much 
more out of reach than it ever was at any point in time, 
because of the failure to make the right choices and to find 
that consensus to date.
    But last night the President chose, fundamentally, to 
ignore the foundation built by the Iraq Study Group, the 
foundation built, bipartisan basis here, and knowingly and 
willfully has divided the country yet again, and the Congress, 
over this issue. We didn't find that bipartisanship. And what 
was particularly lacking, in my judgment--and I don't 
understand it--was the political-diplomatic approach and 
solution here. Every general, you yourself, the President, has 
said, there's no military solution. But last night the 
President didn't offer the diplomatic and political solution. 
And why there isn't a resolution on the oil revenue, why there 
isn't a resolution on the federalism, why there isn't a path to 
that through the summitry and the diplomacy necessary, is 
really beyond a lot of people's understanding, at this point.
    The Middle East that we saw is a Middle East--and if you 
measure a policy by what it's accomplishing--I mean, I hate to 
say it, but this policy is unbelievably off the mark. A 
failure. Hamas is stronger than at any time previously. 
Hezbollah is stronger than at any time previously. Iran is 
stronger than at any time previously. Iraq is more of a mess 
than at any time previously. That is the measure of a failure.
    And so, the question is--and here, we have, in the New York 
Times today, a story, saying that--promising troops where they 
aren't really needed, a story about how the government itself 
is saying, ``We don't want them,'' and how they would like to 
run the war the way they want to, which I thought was the 
purpose of this exercise, but we're not going to let them.
    Now, I want to get to some questions, and it's hard to do 
it in this timeframe. But the President said, last night, that 
America's commitment is not open-ended, and, if they don't 
follow through, they will lose the support of the American 
people and the Iraqi people. I don't want to debate with you 
whether or not you--they've already lost the support of the 
American people. I think it's pretty evident to most people 
that that's where we are. But what does it mean to say it's not 
open-ended? What is the accountability measure here? Are you 
saying, if it's not open-ended, that you're prepared to 
terminate it? Do you agree that it's not open-ended, first of 
all?
    Secretary Rice. Of course it is not open-ended.
    Senator Kerry. All right. If it's not open-ended, does that 
mean you're prepared, if they fail, to pull out, to terminate? 
What is the--what is the accountability mechanism?
    Secretary Rice. Senator, I think it's best to leave the 
President's words as the President's words.
    I do think that the accountability rests in two places. 
First of all, I think the Iraqis now know that if they don't 
succeed in returning security to their population, then their 
population is not going to support them.
    Senator Kerry. And what are we going to do? That's the big 
issue to the United States Congress.
    Secretary Rice. It's a democratic process. And, second, we 
will have an opportunity, as this policy unfolds--it's not 
going to happen overnight, to see whether or not, in fact, the 
Iraqis are living up to the assurances that they gave us.
    Senator Kerry. And what if they don't?
    Secretary Rice. Senator, I don't think you go to plan B. 
You work with plan A.
    Senator Kerry. But that's not a plan B. That's a very 
critical issue here.
    Secretary Rice. You work with plan A, and you give it the 
possibility of success, the best possibility of success. And I 
want to emphasize, it's not just about Baghdad. There are other 
elements to this policy. And I really think it's important not 
to underestimate the importance of relying, of course, on the 
Maliki government, in terms of Baghdad, but also relying on the 
local councils and the local leaders of Baghdad, through the 
expansion of PRTs there, relying on the local leaders in places 
like Anbar to do the kinds of things that they've started to 
do.
    Senator Kerry. But, Madam Secretary, with all due respect--
I mean, all of that is good. I think those PRT teams are 
terrific, and I think the effort of those folks out there is 
courageous, unbelievable. But they can't do this if Abdul Aziz 
al-Hakim and SCIRI have a grand design for a nine-province 
state that is Shia in the south, to the exclusion of adequate 
support to the Sunni in Baghdad and a central government. You 
know that. They can't do it if Muqtada al-Sadr has ambitions 
with respect to the country, and the Sunni aren't brought to 
the table with a sufficient stake that they feel they're 
sharing. That's the fundamental struggle here.
    Secretary Rice. I agree, Senator.
    Senator Kerry. The President didn't address it.
    Secretary Rice. No; the President did address it. He talked 
about the need for the national oil law.
    Senator Kerry. The need for it, but not how it's going to 
happen and why do we have to wait 3 years to have that?
    Secretary Rice. It's actually a very difficult thing, 
Senator, in a place where they've never solved their problems 
by politics, to ask them to take one of the most fundamental 
issues facing the country, which is, how are they going to 
divide the one strong resource they have--which is oil--and 
what's remarkable is that the oil law that they are now close 
to finalizing is not a sectarian oil law. In fact, even though 
the Kurds might have been expected as some have said they 
would--to insist that they will simply control all the 
resources themselves, that's not what the oil law does.
    Senator Kerry. I understand what the framework for it is. 
But the question is: Why is there not the political resolution 
on the table that assures Americans that the fundamental 
struggle between Sunni and Shia--and the struggle within Shia--
I mean, the President talked last night about this war as if 
it's sort of a single war--the Green Zone government struggling 
for democracy versus everybody else. Really, there are four or 
five--there are several wars.
    Senator Biden. Senator, your----
    Senator Kerry. There's a war of----
    Senator Biden [continuing]. Time is----
    Senator Kerry [continuing]. Sunni on Shia. There's a war of 
Sunni and Shia on American occupiers. There's a war of Syria, 
Iran, engaging with----
    Secretary Rice. Senator, I think everybody understands 
that, but you asked me about the political reconciliation.
    Senator Kerry. Well----
    Senator Biden. Senator, I'm sorry, your time is up. We're 
just not going to be able----
    Secretary Rice. All right.
    Senator Biden. If----
    Senator Kerry. Well, could you just speak to the----
    Secretary Rice. Shall I answer?
    Senator Kerry [continuing]. Political piece, please?
    Secretary Rice. Yes. The political piece, it is composed of 
the following elements: The national oil law, which is a 
remarkable law, in that it does not take a sectarian cast; a 
new de-Baathification policy, which already has allowed a 
number of officers to return to the armed forces, and pensions 
to be paid, and there will be further effort on that; a 
commitment to provincial elections, which the Sunnis feel will 
be important for righting the disproportionally low share of 
their representation in provincial councils, because they 
boycotted the elections, early on. These are the elements of a 
national reconciliation plan. And I don't think, Senator, it 
can be imposed from the outside. I do think the Iraqis 
themselves, with our help and with the help of others--and, by 
the way, with an international compact, where the international 
community has, indeed, said, ``Those are the obligations that 
you must undertake for support''--that that is how they will 
get to that national reconciliation plan. But they're not going 
to get there if they're unable to provide population security 
in Baghdad, because that is stoking the atmosphere of 
sectarianism.
    Senator Biden. I realize that generates a lot of questions, 
but I'm going to yield now to Senator Coleman.

  STATEMENT OF HON. NORM COLEMAN, U.S. SENATOR FROM MINNESOTA

    Senator Coleman. Thank you, Mr. Chairman.
    Secretary Rice, first I would say that I do appreciate the 
President's candor last night in admitting mistakes. I think it 
was important. I share his perspective on the two fronts we 
face in Iraq. We're fighting a war against al-Qaeda and foreign 
fighters in Al Anbar province. We're winning that war. I was 
there just 3 weeks ago. But the problem is that we can't be 
successful there in the long term, unless we have Sunnis in the 
police force and Sunnis in the army. And that gets back to the 
sectarian violence that we're seeing in Baghdad.
    The chairman asked the question about capacity. To me, the 
issue is not the capacity of the Iraqis to do what has to be 
done to deal with this sectarian violence, but their resolve. I 
met with Dr. Rubaie, who is the Prime Minister's national 
security advisor, and I can tell you, 3 weeks ago he didn't 
think the answer to the violence in Baghdad was more American 
troops there. The sense I got from Dr. Rubaie was, ``We 
[Iraqis] can take care of this--it is our problem.'' You've 
indicated that, ``This time, they're going to make the 
difficult choices.'' And I'm not seeing that type of resolve in 
the Iraqis. It is difficult to ask them to enact an oil law. 
It's a lot more difficult to ask our sons and daughters and 
fathers and brothers and sisters to be on the front line in 
Baghdad, in the crosshairs of sectarian violence when we have 
this question about the resolve of the Iraqis to do what they 
need to do to end sectarian hatred.
    And so, my question to you is: Wouldn't it be wiser to hold 
the Iraqis to certain benchmarks, to tell them, ``You have X 
number of months to pass an oil law that distributes oil 
throughout the region, to put money into places like Anbar 
province, that are Sunni-dominated and have been cut off in the 
past, and to show a real commitment to a reconciliation''? I 
just don't know if the Iraqis are done killing each other. I 
don't know if the bloodletting is past the mark where all the 
groups are tired of it and willing to pursue reconciliation. 
Why wouldn't it be wiser for us today, ``We'll give you 6 
months to do this, and if you achieve it, there are a range of 
things that the U.S. can do in response''? Why put more 
American lives on the line now, in the hope that this time the 
Iraqis will make the difficult choices?
    Secretary Rice. Senator, you've come to the real crux of 
the matter. Is it a matter of capacity or is it a matter of 
resolve? If you think it's just a matter of resolve, then I 
think that's precisely the strategy that you would pursue. You 
would say to them, ``Show us, first, that you're resolved, and 
then we'll help you.'' But if you think it's both a matter of 
resolve and capability, which our people do, despite the 
somewhat bravado of Mr. Rubaie and some others--I think the 
Iraqi Defense Minister didn't think that he has the forces to 
do what he needs to do. And so, if you think it's a matter of 
both resolve and capability, then you want to provide the 
capability up front so they don't fail. And that's really what 
the President is saying. Then you have to have the resolve. I 
am absolutely of the mind, and absolutely committed, that they 
have to have the resolve. And, frankly, they haven't always 
shown it. But they are moving on a number of fronts that show 
that resolve--the oil law, some of the moves on de-
Baathification.
    But I think, again, it's important to have a view of what 
Baghdad really looks like. First of all, they are going to be 
on the front lines, because they understand that sectarian 
violence has to be ended by them, not by us. We can support 
them; we can't take it on. But all of us remember times in our 
history when it was not good to be in a neighborhood when the 
police came in. I came from a part of our country where that 
was the case. Seeing the police come into Birmingham, AL, when 
I was a kid, was not a comforting sight. That's essentially the 
case in some of the neighborhoods of Baghdad. And so, what that 
government has to do is to reestablish in that population the 
confidence that they are going to establish civil order, that 
they're not going to let death squads take out neighborhoods, 
kill the men, send the women into exile. That's what we're 
trying to help them to do. But they've got to be on the front 
lines of this, because ultimately only they can solve the 
sectarian problem.
    Senator Coleman. I think we agree on the outcome. We agree 
on what the Iraqi Government has to do. We face the saying, 
``Fooled once, shame on you; fooled twice, shame on me.'' What 
I have yet to see--even as recently as 3 weeks ago--is that 
level of commitment and resolve, so that the Shias are willing 
to say, ``We're going to take care of the Muqtada al-Sadrs. 
We're going to do those things that have to be done to quell 
the sectarian violence.'' And to put the lives of more 
Americans in the center of that sectarian violence in Baghdad, 
without first having the Iraqis deliver on substantial 
benchmarks on reconciliation, something we can point to, other 
than just trusting--I'm not prepared, at this time, to support 
that. The cost is too great. But it would appear to me that if 
we could get some measure of assurance that the commitment is 
there on the part of the Iraqis to deliver, that would be 
acceptable. What we have now from the Iraqis are promises that 
they have failed to fulfill previously, and I think the cost is 
too high to make further troop commitments based on the 
calculation we are faced with.
    Secretary Rice. Thank you.
    Senator, may I just say, I understand. We're clear-eyed, 
too, about the fact that the Iraqi Government has to perform, 
and we're clear-eyed about the fact that they've not, in the 
past. But I think it's awfully important to recognize that the 
violence--the sectarian violence, which was really accelerated 
by Samarra--is threatening to outrun their chance to do exactly 
the things that you want them to do, because the atmosphere of 
sectarianism is breaking down the very fabric of a society 
that, frankly, has a lot of ties between their peoples. Their 
tribes are mixed Sunni and Shia. There are intermarried Sunni 
and Shia. There are a lot of fibers of the society that are 
actually not sectarian. But if what is going on in Baghdad 
continues apace, without the government capable of getting 
control of it and reestablishing civil order, then you are 
going to have the kind of breakdown in the fabric of society to 
support the very processes of national reconciliation that 
you're talking about. That's why this is urgent, and that's why 
we don't have time to sequence it, to let them prove themselves 
first and then we will add forces to help them do what they 
need to do. As I said, if it's a matter of just resolve, then 
the sequencing works. But it's also capability. And that's the 
assessment of our military people and of our political people.
    We have the ability, of course, to see how they're doing, 
in terms of living up to their obligations, because not all 
American forces are going to go in up front. Not all will be 
ready to go in on day one. And you can be sure that we're going 
to be watching very carefully, and we're going to be pressing 
them very hard, that their obligations are obligations that, if 
they don't meet, this plan cannot succeed. We're also going to 
be diversifying our efforts, making sure that we're not just 
dependent on the Maliki government for some successes in the 
country, but rather on local leaders, of the kind that we're 
working with in Anbar. But I just think it's extremely 
important to recognize that the threat right now is that that 
fabric of a society that is nonsectarian is being stretched to 
the limit by what's going on in Baghdad. And they don't have a 
lot of time to get on top of it, and we don't have time to 
sequence our help to help them get on top of it.
    Senator Coleman. Thank you, Madam Secretary.
    Thank you, Mr. Chairman.
    Senator Biden. Thank you very much.
    Senator Feingold.

   STATEMENT OF HON. RUSSELL D. FEINGOLD, U.S. SENATOR FROM 
                           WISCONSIN

    Senator Feingold. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for appearing before the 
committee today. Unfortunately, Madam Secretary, this hearing 
is taking place in the context of what has become a true 
nightmare for the United States, and quite possibly the 
greatest foreign policy mistake in the history of our Nation. 
We just heard Senator Hagel, I think, use similar language, and 
I thank him sincerely for his candor before this committee.
    We currently have 140,000 of our bravest men and women in 
uniform in Iraq, stuck in what has become a civil war. Over 
3,000 Americans have died. And yet, we continue to see 
increases in interethnic attacks and bombings, in the strength 
of Shia militias and the strength of the insurgency and 
displaced persons and so on. Almost 4 years after this war 
began, Iraqis are no closer to a political agreement or to 
resolving the underlying political, ethnic, religious, and 
economic problems that are ripping the country apart. But the 
President wants to send more United States troops to Iraq. His 
strategy runs counter to the needs of our strained military, 
counter to the testimony of our military's most senior 
officers, counter to the need to address the troubling 
developments in places like Afghanistan and Somalia, and 
counter to the fact that, after 4 years of failed strategies 
for victory, the American people have sent a resounding 
message, and that message is, it is time to redeploy our brave 
troops out of Iraq now.
    The American people soundly rejected the President's Iraq 
policy in November. They sent a clear message that maintaining 
our troops in Iraq is not in the interest of our national 
security. They understand that our Iraq-centric policies are 
hurting our ability to defeat the enemy that attacked us on 9/
11.
    We can't afford to continue this course. I have 
consistently called for the redeployment of our military from 
Iraq. I was the first Senator, in August 2005, to call for a 
timetable to withdraw the troops over a period of time of 15 
months, at that time. But that advice has not been heeded. And 
now Congress must use its main power, the power of the purse, 
to put an end to our involvement in this disastrous war. And 
I'm not talking here only about the surge or escalation. It is 
time to use the power of the purse to bring our troops out of 
Iraq. Over the next several weeks, I--and I hope, many of my 
colleagues--will work together to take a hard look at exactly 
how we should do that. But it is time to use that power.
    Our troops in Iraq have performed heroically, but we cannot 
continue to send our Nation's best into a war that was 
started--and is still maintained--on false pretenses. An 
indefinite presence of United States military personnel in Iraq 
will not fix that country's political problems. And sending 
more troops to Iraq will not provide the stability that can 
only come from a political agreement.
    From the beginning, this war has been a mistake, and the 
policies that have carried it out have been a failure. We need 
a new national security strategy that starts with a 
redeployment from Iraq so we can repair and strengthen our 
military and focus on the global threats to our national 
security.
    With that, Madam Secretary, my first question is this. Is 
the United States more secure now as a result of our military 
incursion into Iraq than we were before we entered Iraq?
    Secretary Rice. Senator, I think that we are more secure. 
We are more secure, but we're not secure.
    Senator Feingold. Are we more secure, vis-a-vis al-Qaeda?
    Secretary Rice. We have done a lot to break up al-Qaeda, 
the forces that came against us on September 11.
    Senator Feingold. But are we more secure, vis-a-vis al-
Qaeda, than we were before we went into Iraq?
    Secretary Rice. Senator, I do think that we are more 
secure, vis-a-vis al-Qaeda, for a lot of reasons, not just our 
policies in the Middle East; the policies we've undertaken 
through homeland security improvements.
    Senator Feingold. I asked you whether, as a result of our 
Iraqi intervention, are we more secure, vis-a-vis al-Qaeda?
    Secretary Rice. Senator, the notion about Iraq has always 
been that to deal with the short-term problem of al-Qaeda, as 
it exists now, is not going to create long-term security. You 
can only do that by changing the nature of the Middle East that 
produced al-Qaeda. I don't want us to confuse what we are doing 
in Iraq with the short-term problem.
    Senator Feingold. All right. Well, let me ask about----
    Secretary Rice. The longer term security.
    Senator Feingold [continuing]. Other things.
    Secretary Rice. The longer term issue is how the Middle 
East itself evolves.
    Senator Feingold. Right.
    Secretary Rice. And that's why Iraq is so important, and 
that's why it's important that we succeed in Iraq.
    Senator Feingold. I understand the argument. I completely 
reject it, but I understand it.
    What about Afghanistan? Are we better off in Afghanistan 
than we were before the invasion of Iraq?
    Secretary Rice. I think there's no doubt that we are better 
off in Afghanistan. Afghanistan has made a lot of progress 
since 2001--when we invaded.
    Senator Feingold. That's not what I asked. I asked if we're 
better off since the intervention in Iraq.
    Secretary Rice. Senator, not everything is related to what 
we have done in Iraq.
    Senator Feingold. It's a simple----
    Secretary Rice [continuing]. We've done----
    Senator Feingold [continuing]. Question. Did it----
    Secretary Rice. What we've done----
    Senator Feingold [continuing]. Help or did it hurt our 
situation in Afghanistan?
    Secretary Rice. I think that we have been managing what is 
going on in Afghanistan as we've been managing what's been 
going on in Iraq. I don't actually see the connection that you 
are trying to draw.
    Senator Feingold. They're not----
    Secretary Rice. I don't understand.
    Senator Feingold. Well, are we better off, vis-a-vis Iran 
and North Korea, than we were prior to the intervention in 
Iraq? Is our security situation, vis-a-vis Iran and North 
Korea, better than it was before the intervention in Iraq?
    Secretary Rice. Well, I don't really think, Senator, that 
the North Korean nuclear test has anything to do with Iraq.
    Senator Feingold. Well, I think the diversion of attention 
from the most important problems in the world has everything to 
do with this terrible mistake.
    What--let's try something that I think is more direct--what 
about our military, the strain on our military? Is our military 
better off than it was before Iraq intervention?
    Secretary Rice. Senator, we're at war. And when we're at 
war, there's going to be strain on the military. I think that's 
what General Pace would tell you. But, again, I just can't 
agree with you that there's been a diversion of our attention 
from all other policy problems. If you look at the progress 
that we've actually made on North Korea, with North Korea under 
a chapter 7 resolution and with six-party talks about to begin 
again, if you look at the progress that we're making on 
stopping an Iranian nuclear weapon, that, by the way, has been 
entrain for quite some time, if you look at the progress that 
we've made--and I have to say, you know, this Middle East that 
somehow was so stable before we invaded Iraq is a Middle East 
that I didn't recognize in 2000 or 2001 either. That was a 
Middle East where Saddam Hussein was still in power, still with 
the potential to invade his neighbors, as he had done before, 
where Syria was deep into Lebanon, where the Palestinian 
territories were governed by a man who was stealing the 
Palestinians blind, but couldn't take a peace deal--I don't 
see----
    Senator Feingold. My time----
    Secretary Rice [continuing]. That Middle East as having 
been----
    Senator Feingold [continuing]. My----
    Secretary Rice [continuing]. Very stable. So----
    Senator Feingold. My time is up, but I see this problem of 
our security as an international problem. And I believe the 
diversion of attention in Iraq has been absolutely catastrophic 
with regard to our national security.
    Secretary Rice. Well, Senator, I appreciate your views on 
that, but I'm the one who, every day, goes to the office and 
works not just on Iraq, but on North Korea, on Iran, on the 
problems in Somalia, in Sudan. And I think if you look around, 
you'll see that the United States has a very active policy 
everywhere in the world.
    Senator Feingold. Thank you, Madam Secretary.
    Senator Biden. Thank you very much.
    Senator Corker. And, again, welcome to the committee.

   STATEMENT OF HON. BOB CORKER, U.S. SENATOR FROM TENNESSEE

    Senator Corker. Mr. Chairman, thank you. I appreciate the 
tremendous testimony that you've allowed us to have over the 
last 3 days.
    And, Madam Secretary, thank you for being here.
    I've heard a lot--it seems that people agree--that in Iraq 
we need a political solution, that that is what needs to occur. 
And it seems to me that what the administration has tried to 
put forth is a way for a political process to occur and a 
political solution to happen, and that is by causing Iraqis to 
actually feel secure, to feel like they can, in fact, go about 
a political process in a way that allows people to debate and 
come to a solution.
    One of the things I've realized with the testimony over the 
last 3 days is, there is another school of thought, and that 
is, that by some--and I don't mean by anybody on this panel, 
specifically--but that, by some who wish to withdraw, they 
believe that the only way there's going to be a political 
process, a healthy political process, is for there to be an 
all-out civil war first, that what we've had is a measured 
civil war, and that, by withdrawing, there actually would be an 
all-out civil war, and that things have got to get much worse 
before they get any better.
    I'd like for you to address those two schools of thought, 
if you would.
    Secretary Rice. Well, thank you, Senator.
    First of all, I think you've put it very well, because the 
risk of American withdrawal, or, as it's sometimes called, 
redeployment--and I think we have to recognize, redeployment's 
really withdrawal--then we are dealing with a circumstance in 
which the Iraqis are so-called ``left to their own devices'' to 
deal with a problem that threatens to overwhelm their political 
process. And that is the sectarian violence in Baghdad.
    Again, as I was saying to Senator Coleman, it really does 
depend on whether you think this is a matter of Iraqi resolve 
or a matter of capability, or a matter of both. And the 
President and his team thinks it's a matter of both. And so, no 
amount of resolve, if they don't have the capability, is going 
to help them to deal with the sectarian violence in Baghdad. 
That's why we want to augment their capability, so that they 
can show that resolve.
    When analysts look at what you would be talking about if 
you just said to them, ``All right, you just go at one another, 
and we'll go to the borders and defend the borders, and we'll 
fight al-Qaeda, and we'll do a few other things, but it's 
really up to you to resolve this,'' I think it has the wrong 
idea of what's really going on in Baghdad. It's not as if, 
street-to-street, every Sunni and every Shia is determined to 
kill each other. That's really not the case. You do have, 
stoked by al-Qaeda, after the Samarra bombing, people--
extremist Sunni and Shia death squads, Sunni and Shia--who are, 
in the name of sectarianism, going in to neighborhoods, killing 
the men--that's where those bodies are coming from--expelling 
the women--that's why there are internally displaced people--
but it is an organized effort to perpetrate violence by Shia 
death squads and Sunni death squads. That means that if the 
Iraqi Government is actually able to deal with the organized 
effort, then they will be able to stem the tide of sectarian 
violence. But if they're not able to do that, and to 
reestablish civil order, then the fabric of the society, which 
has not always been just sectarian--there is a lot of 
intermarriage, a lot of--a lot of community between the 
groups--that fabric's going to break apart.
    And so, that's why the President has outlined what he has. 
He did look, Senator, at other options. He did look at the 
question of whether or not the Iraqis could be told, ``Go do 
this on your own.'' And the assessment of the people on the 
ground, both our political people and our military people, is 
that they didn't yet have the forces to do it. I think General 
Casey said, at one point, it would be the summer before they 
were really able to take control of operations in Iraq. Well, 
by the summer, if something hasn't improved in Baghdad, then 
they're going to be in very difficult straits.
    So, as you think about this policy, and whether you decide 
to accept it or reject it, I think you have to think about the 
consequences of not going down this route. And the consequences 
of that is that you leave the Iraqi Government without the 
capability to deal with their sectarian problem.
    Senator Corker. Mr. Chairman, out of respect for my more 
senior junior members on this committee, I'm going to pass 
any----
    Senator Biden. I'm sure it's appreciated. Thank you very 
much, Senator.
    Chairman Boxer.

 STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you.
    Mr. Chairman, for me today marks the bipartisan end of a 
rubberstamp Senate, and I am proud to be here in behalf of the 
people of California.
    Madam Secretary, on November 7, the American people voted 
for a change in Congress, citing Iraq as the No. 1 issue 
affecting their vote. And a week later, General Abizaid told 
the Senate Armed Services Committee that he checked with every 
single divisional commander on the ground in Iraq, and, to a 
person, no one believed that more American troops would improve 
the situation, because the Iraqis already rely on us too much. 
And then, on December 7, the Iraq Study Group, noting that 61 
percent of the Iraqis, who you say support us so much, approve 
of attacks on United States troops--they approve of shooting 
and killing United States troops--the Iraqi Study Group, in 
light of that, recommended that United States combat troops 
should be redeployed out of Iraq by early 2008. They also 
called for an immediate meeting--international meeting in the 
region to find a political solution to Iraq. And one line that 
stands out in that Iraq Study Report is, ``Absent a political 
solution, all the troops in the world will not provide 
security.''
    And on January 8, the Military Times--and I'd ask unanimous 
consent to place this into the record, Mr. Chairman. Mr. 
Chairman, may I place this in the record? The Military Times?
    Senator Biden. Without objection, it'll be placed in the 
record.
    Senator Boxer. The Military Times published a poll, which 
found that only 35 percent of military members approved of the 
way President Bush is handling this war, and only 38 percent 
thought there should be more troops.
    So, from where I sit, Madam Secretary, you are not 
listening to the American people, you are not listening to the 
military, you are not listening to the bipartisan voices from 
the Senate, you are not listening to the Iraq Study Group. Only 
you know who you are listening to. And you wonder why there is 
a dark cloud of skepticism and pessimism over this Nation.
    I think people are right to be skeptical, after listening 
to some of the things that have been said by your 
administration. For example, October 19, 2005, you came before 
this committee to discuss, in your words, ``how we assure 
victory in Iraq.'' And you said the following in answer to 
Senator Feingold, ``I have no doubt that, as the Iraqi security 
forces get better--and they are getting better and are holding 
territory, and they are doing the things with minimal help--we 
are going to be able to bring down the level of our forces. I 
have no doubt''--I want to reiterate--``I have no doubt that 
that's going to happen in a reasonable timeframe.'' You had no 
doubt. Not a doubt. And last night the President's announcement 
of an escalation is a total rebuke of your confident 
pronouncement.
    Now, the issue is: Who pays the price? Who pays the price? 
I'm not going to pay a personal price. My kids are too old, and 
my grandchild is too young. You're not going to pay a 
particular price, as I understand it, with immediate family. 
So, who pays the price? The American military and their 
families. And I just want to bring us back to that fact.
    NPR has done a series of interviews with families who have 
lost kids. And the announcer said to one family in the Midwest, 
``What's changed in your lives since your son's death?'' The 
answer comes back, ``Everything. You can't begin to imagine how 
even the little things change--how you go through the day, how 
you celebrate Christmas''--Mr. Chairman, could I please--``You 
can't begin to imagine how you celebrate any holiday or 
birthday. There's an absence. It's not like the person has 
never been there. They've--always were there, and now they're 
not, and you're looking at an empty hole. He has a purple 
heart. The flag that was on his coffin. And one of the two urns 
that we got back--he came back in three parts, two urns and one 
coffin. He's buried in three places, if you count our house. 
He's buried in New Jersey. He's buried in Cleveland.'' That's 
who's going to pay the price.
    And then you have the most moving thing I've ever heard on 
a radio station, which is a visit to a burn unit and a talk 
with the nurse. Devon suffered burns over 93 percent of his 
body, three amputations--both legs, one arm--his back was 
broken, internal organs exposed. As the hospital staff entered 
the room, they would see photographs on the wall, pictures of a 
healthy private standing proud in his dark green Army dress 
uniform. ``It's very important,'' says the major, ``that nurses 
see the patient as a person, because the majority of our 
patients have facial burns and they're unrecognizable, and 
they're extremely disfigured.''
    So, who pays the price? Not me. Not you. These are the 
people who pay the price.
    So, I want to ask you, since this administration has been 
so clear about how this has been a coalition, and a coalition--
you've already said that we don't have anybody else escalating 
their presence at this time. Is that correct?
    Secretary Rice. That is correct.
    Senator Boxer. That is correct. Have you seen the recent 
news that the British are going to be bringing home thousands 
of troops in the near future?
    Secretary Rice. I have seen the stories about what the 
British are going to do. I'll wait for a confirmation from the 
British Government about what they're going to do.
    Senator Boxer. OK. I would ask unanimous consent to place 
into the record the article from today that announces that 
that's what they're going to do, is bring home thousands of 
troops.
    And I want to point out to the American people, we are all 
alone. We are all alone. There's no other country standing with 
us in this escalation. And if you look at this coalition, the 
closest to us--we've got about 130-140,000 troops. I don't know 
the exact number. The Brits had 7,200. They're going to be 
announcing they're bringing home, as I understand it, more than 
3,000 of those. The next-biggest coalition member is South 
Korea with 2,300; Poland, with 900; and, after that, Australia, 
with 800. No one is joining us in this surge.
    Do you have an estimate of the number of casualties we 
expect from this surge?
    Secretary Rice. No, Senator. I don't think there's any way 
to give you such an estimate.
    Senator Boxer. Has the President--because he said, ``expect 
more sacrifice''--he must know.
    Secretary Rice. Senator, I don't think that any of us have 
a number that--of expected casualties. I think that people 
understand that there is going to be violence for some time in 
Iraq, and that there will be more casualties.
    And let me just say, you know, I fully understand the 
sacrifice that the American people are making, and especially 
the sacrifice that our soldiers are making, men and women in 
uniform. I visit them. I know what they're going through. I 
talk to their families. I see it.
    I could never--and I can never--do anything to replace any 
of those lost men and women in uniform, or the diplomats, some 
of whom have been lost----
    Senator Boxer. Madam Secretary, please, I know you feel 
terrible about it. That's not the point. I was making the case 
as to who pays the price for your decisions. And the fact that 
this administration would move forward with this escalation 
with no clue as to the further price that we're going to pay 
militarily--we certainly know the numbers, billions of dollars, 
that we can't spend here in this country--I find really 
appalling that there's not even enough time taken to figure out 
what the casualties would be.
    Secretary Rice. Well, Senator----
    Senator Boxer. Thank you very much, Mr. Chairman.
    Secretary Rice. Senator, I think it would be highly 
unlikely for the military to tell the President, ``We expect X 
number of casualties because of this augmentation of the 
forces.'' And, again, let me just say, the President sees this 
as an effort to help the Iraqis with an urgent task so that the 
sectarian violence in Baghdad does not outrun the political 
process and make it impossible to have the kind of national 
reconciliation that we all want to see there.
    But I just want to say one thing, Senator, about the 
placard that you held up. I have to admit, my eyesight's not 
what it used to be, so I couldn't actually see the date 
underneath, but I think it may have been 2005.
    Senator Boxer. October--it was the end of 2005, October--
mid-October----
    Secretary Rice. I think----
    Senator Boxer [continuing]. 2005. And you had----
    Secretary Rice [continuing]. The President----
    Senator Boxer [continuing]. Absolutely no doubt----
    Secretary Rice. Yes. And I think the President spoke----
    Senator Boxer [continuing]. About how great it was going.
    Secretary Rice. I don't think I ever said it was going 
great, Senator.
    Senator Boxer. You thought that our troops would be coming 
home.
    Secretary Rice. Senator, let's not overstate the case.
    Senator Boxer. Well, let's just put----
    Secretary Rice. I don't think I said it was going great.
    Senator Boxer [continuing]. Let's just put it up again.
    Secretary Rice. The point that I wanted to make, Senator, 
is that that is October 2005. The President has talked 
repeatedly now about the changed circumstances that we faced 
after the Samarra bombing of February 2006, because that 
bombing did, in fact, change the character of the conflict in 
Iraq. Before that, we were fighting al-Qaeda. Before that, we 
were fighting some insurgents, some Saddamists. But it was the 
purpose of Zarqawi to try and stoke sectarian violence. He 
wrote this letter to Zawahiri, told him he was going to do 
that. Zawahiri himself was even concerned that this might be a 
bad policy. But it turns out to have been a very smart one, 
because, in fact, through the bombing of the Golden Mosque, he 
accelerated this sectarian violence to the point that it now 
has presented us with a new set of circumstances.
    Senator Biden. Senator Sununu.

    STATEMENT OF HON. JOHN E. SUNUNU, U.S. SENATOR FROM NEW 
                           HAMPSHIRE

    Senator Sununu. Thank you, Mr. Chairman.
    Madam Secretary, in the President's remarks last night, 
there were some things that I was pleased to hear, such as his 
emphasis that the burden has shifted now to the Iraqi 
Government, both for these political issues that we've heard 
talked about today, but also for security, even setting a 
timetable for Iraqis taking full responsibility for security in 
the outlying provinces by November. There were some areas where 
I have a little bit more concern, such as whether or not the 
use of the troops he discussed will really be appropriate in 
dealing with sectarian violence in Baghdad, and some areas 
where I was a little bit more disappointed, such as the failure 
to talk about or establish a more formal process for engaging 
all of Iraq's neighbors, including those that are already very 
supportive and have been helpful, such as Turkey or Saudi 
Arabia or Jordan, in a more formal process to provide whatever 
support is necessary for Iraq.
    But I want to begin with the area of political reform and 
change for the Iraqi Government, because--even here, I think 
you've sensed a level of frustration, because, while we 
understand that a change in the oil law, local elections, a 
reconciliation process, are essential to long-term success, and 
no matter how we succeed militarily, those gains won't be 
sustained unless these political reforms are undertaken, we 
still haven't been provided with a lot of clarity there, and 
timeframe. And while I think an arbitrary date for removing all 
troops from Iraq doesn't make sense militarily or 
diplomatically, setting a very clear timetable for these 
reforms does make some sense, because it sends the right 
message to everyone involved.
    And I would further suggest, to you and the entire 
administration, if we don't see more specifics, and even, where 
appropriate, a timeframe that's established in concert with the 
Iraqi Government, then Congress is probably going to step into 
the void and start setting a timeframe for the Iraqi 
commitments that have been made. I certainly wouldn't prefer 
that. I would prefer the former to the latter.
    So, I offer that as a very strong suggestion, that we work 
to provide much more clarity and specifics, in terms of timing. 
And I have two questions about those issues.
    First, a very specific question with regard to the oil law. 
You referred to the oil law as a ``remarkable law.'' Well, it's 
the most remarkable law that no one has ever really seen. Over 
the last week, I've had conversations with White House--senior 
White House staff about this issue. We had a top-secret 
briefing where this was raised in a very specific way. We heard 
from scholars yesterday. And what we can gain is that there has 
been some agreement on investment issues, and even ownership, 
but not on distribution. And, from where I sit, it's 
distribution that really matters. Money is power. Money is 
power in Washington. Money is power anywhere around the world. 
And unless we have a methodology for distribution, we're not 
going to be successful.
    So, can you give more specifics about these different 
government objectives, not just oil law, political elections, 
reconciliation process, de-Baathification law? And what about 
the oil law, specifically? When are we going to see the area of 
distribution resolved?
    Secretary Rice. Well, on the first, Senator, I take your 
point about needing to understand the timeframe in which the 
Iraqis are trying to do the benchmarks that are put before you. 
It's a political process for them, just like we have political 
processes in the United States. And I think there have been 
times when we've missed deadlines on trying to get this 
legislative piece done or that legislative piece done. But they 
do have a timeframe for moving things forward into their 
Parliament and getting the laws passed and so forth. They've 
tried to make sure that the laws that they're putting forward 
have enough political support so they don't have a problem in 
the Parliament. So, they're going about it, I think, in the 
right way. But certainly I think we can be more explicit about 
how they see the timeframes ahead, and in the days to come, 
I'll try to do that.
    As to the oil law, actually the sticking point has been 
less about distribution. They understand that there needs to be 
some distribution on the basis of a formula that has to do with 
where the resource came from, the need to distribute it in a 
way that is equitable, and, indeed, to deal with the fact that 
some parts of the country are particularly underdeveloped. And 
so, distribution has actually been less of a problem than the 
question of who gets to sign contracts. That's, frankly, been 
the one that they've been hung up on.
    And so, I think you'll find that it's a law that, in terms 
of distribution, in terms of some basic notion of a trust for 
the Iraqi people, is actually quite forward-leaning.
    Senator Sununu. Well, I understand the point you make, that 
investment may have been the sticking point, but I think it's 
also important that we fully recognize that, while that may 
have been the sticking point in negotiation, that is not the 
issue that has the potential to fuel the sectarian violence. 
And it's when the Sunnis do not feel that there's an equitable 
distribution scheme, when they're not enfranchised 
economically, that they're more likely to turn to sectarian 
organizations or sectarian groups, because they think that 
violence is the only way to ensure that kind of resolution.
    So, I understand investment may have been the negotiating 
sticking point, but I think equitable distribution is more 
important to long-term enfranchisement economically, and, 
therefore, to dealing with some of the sectarian problems.
    The second question I want to ask is about the PRTs. There 
were some comments made, very positive, about the work of PRTs, 
or their reconstruction teams, or their potential. But it's my 
understanding that many of them are confined to relatively 
small compounds, that there are security issues. So, two 
issues. One, where will the funding and support come from? Two, 
how are we going to address the security issues that confine 
them, when we're deploying troops elsewhere? And, third, what 
about recruitment? It is my understanding that recruitment has 
been a problem, that Baker-Hamilton Commission outlined, 
unfortunately, the tragic fact that we have so few Arab 
speakers in our--both our State and intelligence personnel in 
Iraq. How are we going to address these two issues? Better 
recruitment, Arab speakers and security on the reconstruction 
teams.
    Secretary Rice. Yes. Senator, just so I'm not misunderstood 
on the oil law, it does address the question of distribution. 
And I think it addresses it in a way that we find hopeful.
    Senator Sununu. We had senior intelligence officials, 1 day 
ago--2 days ago--that were able to tell us nothing about the 
proposed distribution methodology. On Friday Senior National 
Security Council staff was able to tell me and others in the 
room nothing about distribution methodology.
    Secretary Rice. Senator----
    Senator Sununu. So, either the right information isn't 
being put into the hands of the President's National Security 
Advisor and his senior intelligence official for the Middle 
East or there's a refusal to share information.
    Secretary Rice. Well, Senator, let me just say that I will 
tell you what we know of the draft law. I will send you a note 
about that.
    [The information submitted by the State Department 
follows:]

                            The Secretary of State,
                                       Department of State,
                                 Washington, DC, February 14, 2007.
Hon. John E. Sununu,
U.S. Senate,
Washington, DC.
    Dear Senator Sununu: I am writing to follow up on the question you 
raised during my testimony before the Senate Foreign Relations 
Committee on January 11 regarding the need for Iraq to establish a 
mechanism to share its oil wealth among all its provinces.
    l agree with you on the importance of this issue. We have clearly 
communicated to the Iraqi government our view that it is critical for 
Iraq to pass a hydrocarbon law that reinforces national institutions 
and creates a fair and transparent mechanism to distribute revenues 
between the central government and the provinces in a way that is 
broadly acceptable to all Iraqis.
    In August 2006, discussions between the central government and the 
Kurdistan Regional Government (KRG) began. Despite marked differences 
of approach in the beginning of this process, the parties have made 
significant progress and have agreed that Iraq will draft a hydrocarbon 
law that sets out the guiding principles and framework for the oil and 
gas sector.
    In the course of their discussions, the KRG and the central 
government have also agreed that the central government should collect 
and distribute revenue to the provinces according to each province's 
population once a census is completed. The Iraqis have now started 
drafting a specific revenue sharing law that will more specifically 
codify the collection methods and distribution levels.
    We will continue to keep your staff updated as the Iraqis finalize 
these important pieces of legislation. Please do not hesitate to 
contact me if you have further questions.
            Sincerely,
                                                  Condoleezza Rice.

    Secretary Rice. In terms of the PRTs, now, 98 percent of 
our positions are filled. And, as a matter of fact, we've 
already filled 68 percent of the positions that would come into 
rotation in the summer of 2007. There was a time when we had 
some difficulty in recruiting. We had to make some changes in 
the way we recruited. I wanted to be sure that we had senior 
people leading these PRT teams, not people who were too junior. 
And, in fact, I think you will find that we are doing very 
well, in terms of getting the right people to the PRTs. And so, 
it was--there was a time. We changed some of the incentives. We 
changed the way we recruit for them. And we're doing very well 
in filling the PRTs.
    The absence of Arabic speakers, I'm afraid, is the result 
of the national underinvestment in Arabic language skills over 
a very long period of time, and we're doing what we can to 
improve that. You know, at one time--I think we didn't have 
problems, frankly, finding Russian speakers, because the United 
States invested in people like me to teach them Russian. We 
really haven't done that, as a nation, which is why we have a 
critical-languages initiative, which is why we're recruiting 
people with mid-level experience who might have those language 
skills. And we're going to have to do better at getting Arabic 
speakers not just into the PRTs and into Baghdad, but into the 
rest of the Middle East, as well.
    Finally, one of the things that we're doing is, we're 
increasing the training of the people who go into Arabic, so 
that they have longer in the training, so that they are more 
capable in the language before they go out. So, we're trying to 
address that problem.
    Finally, as to security for the PRTs, yes, security is 
something that I'm very concerned about and take very 
seriously. We are now being provided security through the 
brigade teams with which we are, in effect, embedded, and we 
think that works best. Our people do move around. We just 
recently had, for the President, a briefing by four of our PRT 
teams. And, yes, they have, sometimes, some difficulty. But 
they get out, and they go meet local leaders. One was telling 
me--I'll not name the province, for security reasons--but that 
he's out at least three, four times a week with the local 
leaders. And so, people are getting out. They are experiencing 
some of the same dangers that affect our military forces, and I 
think it's important to recognize that our civilians are on the 
front lines, too. But since we went to this structure of the 
PRTs, they are getting out.
    Senator Biden. Madam Secretary, let me suggest that--we 
want to get you out by 1 o'clock, so--I appreciate your 
exposition, but, to the extent that we all can't be shorter, 
we're going to be trespassing on your time.
    Senator from Florida.

    STATEMENT OF HON. BILL NELSON, U.S. SENATOR FROM FLORIDA

    Senator Bill Nelson. Madam Secretary, I have supported you 
and the administration on the war, but I cannot continue to 
support the administration's position. I have not been told the 
truth. I have not been told the truth, over and over again, by 
administration witnesses. And the American people have not been 
told the truth. And I don't come to this conclusion very 
lightly.
    Does General Abizaid support an increase in troops?
    Secretary Rice. He does.
    Senator Bill Nelson. Well, that's at variance, of course, 
as you've heard.
    Secretary Rice. I think, Senator, first of all, if you look 
at his testimony, and you look at the next lines in his 
testimony, he talks about the conditions under which troops 
might be useful. And, in fact, everybody had hoped that this 
would be done with Iraqi forces. It wasn't that we didn't need 
more forces; it was hoped that we would do it with Iraqi 
forces. And what the Baghdad security plan of the summer showed 
was that that wasn't possible.
    Senator Bill Nelson. Well----
    Secretary Rice. General Abizaid and General Casey have been 
involved in the development of this plan. And it--in fact, 
General Casey presented this option to the President.
    Senator Bill Nelson. Well, I'm looking forward to talking 
to General Abizaid. He is one of the few that have come before 
a number of the committees, that I have the privilege of 
sitting on, who I feel like has been a straight-shooter. And 
it's my hope that Chairman Carl Levin will call him here, and I 
will ask him directly. But, of course, I was one of the ones 
that asked him that question, very specifically, when he was 
last here in front of the Congress, and he is someone that I 
think has credibility. But, sad to say, he's one of the few who 
I've felt like that I was getting a straight story from.
    Let me pick up on something Mr. Coleman said. Three weeks 
ago, we were in Iraq and our mouths about dropped open when the 
National Security Advisory, Dr. Rubaie, said--and I think this 
is almost his direct quote--``This is not a sectarian war.'' 
And he went on to talk about how the conflict is extremist al-
Qaeda and how the Baathists who want to come back into power. 
And, of course, that's part of the situation. But the two of 
us, certainly this Senator, got the impression that they are 
not coming to grips with what they must face. And that is that 
you've got Sunnis on Shiites, and Shiites on Shiites, and 
Sunnis on Sunnis. And until you get that problem being solved, 
our efforts are just simply not going to work.
    Now, I'll tell you one place where I agree with the 
President, when he said last night that he was going to send 
additional troops into Anbar province. I was convinced by the 
Marine commanders there, as I think Mr. Coleman was, as well, 
that there, where you have just a Sunni population and that the 
enemy is al-Qaeda, that working with those Sunni tribal leaders 
with additional American troops could bring some progress. But 
that is not so, in Baghdad. And I'm sad that we've come to this 
point.
    Let me just conclude by asking you something I would like 
for you to amplify upon, although I think it's been said by a 
number of people here. Obviously we need an intense diplomatic 
effort in the region. One of the points of my trip was, at the 
request of General Hayden, to go and talk with the Saudi king, 
urging the Saudis to use their tribal contacts in Iraq to try 
to get people to come together. Could you outline for the 
committee what intense diplomatic effort will be taken, and 
will it be taken simultaneously with the President's plan for 
additional troops?
    Secretary Rice. Senator, it is being taken. I will go out, 
tomorrow night. The group that we are engaging, in addition to 
all the many bilateral engagements that we have with the 
Saudis, with the Kuwaitis, with others who can help, the 
Jordanians, who can help, is through a group called the ``GCC-
plus-two.'' That is really the appropriate group. We work also 
with Turkey very closely on Iraq. We have a problem on the 
northern border with the PKK that General Ralston is trying to 
resolve. But I think you would find that, first of all, there 
already has been diplomatic effort. We will, of course, try to 
intensify that effort to support what the Maliki government is 
now trying to do to get its sectarian problem under control.
    Frankly, the countries of the region are also watching to 
see whether this will be an evenhanded government in dealing 
with both Sunnis and Shia. And so, the Maliki government faces, 
I think, some skepticism, not just from Americans and from 
Iraqis, but also from the region. And we've made that point to 
them, that they really must deal with the sectarian problem in 
an evenhanded fashion, or they're not going to get support from 
the region.
    That said, to the degree that we hear from the Saudis and 
others that their biggest strategic concern is Iran, then they 
have a very strong incentive to help stabilize Iraq, so that 
Iraq is, indeed, a barrier to Iranian influence in the region, 
not a bridge.
    Senator Bill Nelson. What do you----
    Senator Biden. I hate to do this, but if the next question 
is going to result in a long answer, we're--you're going to be 
running out of time, Senator. So----
    Secretary Rice. Thirty seconds.
    Senator Biden [continuing]. If you want----
    Senator Bill Nelson. Well----
    Senator Biden. If it's a quick question, please----
    Senator Bill Nelson. It's very quick.
    We need more than engagement. We need to get these 
countries to act. So, how do you get them to act?
    Secretary Rice. There's an international compact that 
they've all negotiated. We need to finalize it.
    Senator Biden. Thank you very much.
    Senator Voinovich.

 STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR FROM OHIO

    Senator Voinovich. Thank you, Mr. Chairman.
    Madam Secretary, I'm sorry that I wasn't here for your 
testimony or for the other questions that have been asked of 
you, so please forgive me if I am redundant. But I met this 
morning with representatives from 10 nations who are concerned 
about our Visa Waiver Program. I believe that the current 
program--and I'm glad the President understands this--needs to 
be changed, because these nations whose representatives I met 
with are our allies and helping us in Afghanistan and in Iraq. 
I think you know that the most important weapon, in terms of 
winning the war on terror, is our public diplomacy, which needs 
to be improved substantially.
    I hope, Mr. Chairman, that we can proceed with the Visa 
Waiver legislation early in this session of Congress, so we can 
help some of our allies, who are really upset with us that 
their citizens cannot enter into the United States because of 
this unrealistic and restrictive program we currently have.
    You should know that I am skeptical that a surge of troops 
will bring an end to the escalation of violence and the 
insurgency in Iraq. Many of the generals that have served there 
have said they do not believe additional troops will be 
helpful--in Baghdad, particularly. And, Madam Secretary, my 
faith in Prime Minister Maliki's ability to make the hard 
choices necessary to bring about political solutions has to be 
restored. There needs to be a political solution between the 
Sunnis and the Shiites. I have asked this question now for 2 
years: How can there be a unity government--one that is not 
dominated by the Shiites that will ultimately get rid of the 
Sunnis that are in Iraq--when Muqtada al-Sadr is there? From 
everything I understand, he very well tells Prime Minister 
Maliki what to do. We have seen evidence that Sadr simply makes 
a telephone call and Maliki pulls the plug on whatever he was 
previously doing in order to meet Sadr's wishes.
    I think that we underestimate the hatred between Sunnis and 
Shiites. We're saying that somehow they are all going to get 
together and everything is going to be happy. The Sunnis and 
the Baathists oppressed the Shiites for many, many years. Now 
the Shiites are in the majority. Is there going to be a unity 
government, or another theocracy, like there is in Iran? I 
think that is what Sadr wants.
    So, how can you explain to us that the political divisions 
in Iraq are going to be resolved? Probably this article was 
discussed already this morning, ``The Fog'' by David Brooks in 
the New York Times. Brooks says that the plan we are proposing 
does not reflect what Maliki says he wants done. But I would 
insist that Maliki stand up and make it clear to the whole 
world that he does want this done, that he supports the plan, 
and that the United States is not superimposing its wishes onto 
him. If he does not make that clear, then everyone is going to 
think, ``Here we go again, the United States is in there on its 
own.''
    Another important question that has been raised here is: 
How much help are we getting from our Sunni friends in the 
Middle East? What have they done to help us? In addition, 
countries that had been our friends are withdrawing support. 
Why are our friends leaving? Have they lost confidence that 
this dream we had of a democracy in Iraq, which many of us 
bought into, will no longer happen, and that Iraq is going to 
break down into a civil war? Another major concern I believe we 
all have is that we don't want any more of our young men and 
women killed in a civil war between two groups that ultimately 
are never going to come together.
    I send letters out to the families of soldiers, and I tell 
them how brave their sons were, and that the work that they are 
doing there in Iraq and the casualties we have sustained are as 
important as that of the Second World War. But I have to 
rewrite the letter today. We're talking now about stability as 
our goal. And we're talking about young men and women's lives 
at risk for that. This is a very, very important decision, and 
I think you are going to have to do a much better job, and so 
is the President, explaining this to us. You have seen the 
testimony here among my colleagues. I would like to add that I 
have supported the President's effort in Iraq, and I bought 
into the dream of democracy taking root there, and now I don't 
think it is going to happen.
    Secretary Rice. Well, thank you, Senator.
    I think that we don't have an option to fail in Iraq. 
Consequences are too great. And I do think that it is not--I 
just don't think that it is true that Iraqi Sunnis and Shia 
hate each other to the point that they can't live together. I 
don't believe that. I do think that there are long pent-up 
tensions and emotions and grievances in that society that come 
from years of tyranny, and that it's going to take some time 
for them to get over it. And I do think they've had a very bad 
set of circumstances by----
    Senator Voinovich. Yes, but, Madam Secretary, what 
evidentiary fact do we have that Maliki is going to make the 
tough political decisions that he has to make, and lose his 
support from Sadr and the others?
    Secretary Rice. Senator, we have from him these assurances. 
He's going to have to act on them. We're going to know very 
soon whether or not there's political interference when his 
forces--and they're his forces--want to go into a neighborhood. 
We're going to know very soon whether or not he is carrying 
through with his view--with what he told us, which is that, 
``If you are Sunni or Shia, and you're outside the law, and 
you're killing innocent Iraqis, then you have to pay a price 
for that. You have to be punished.'' We're going to know. And 
American forces, as they flow in over time, will only go to 
support a policy in which Iraqis are carrying out those 
obligations.
    But I just want to emphasize again--I've heard everybody 
say, ``We cannot fail. We cannot fail. We cannot fail.'' If 
they are unable to get a hold of the sectarian violence, to 
show that they can control Baghdad, to establish confidence 
that they're going to be evenhanded, then it's going to be very 
difficult for them to----
    Senator Voinovich. How can it happen with Sadr?
    Secretary Rice. The Iraqis are going to have to deal with 
Sadr. And, to the degree that Sadr is outside of the political 
process and his death squads are engaged in violence, then 
they're going to have to deal with those death squads. And the 
Prime Minister has said, ``Nobody and nothing is off limits.'' 
We will know, Senator, whether or not they're following 
through. But we'd really better give them a chance to get a 
hold of this sectarian violence in their capital, where it's 
not Iraqis running down the streets killing other Iraqis, Sunni 
and Shia; it is organized death squads going into neighborhoods 
and killing Sunnis and Shia. That is what is going on there, 
and they need to reestablish civil order, and we need to be 
able to help them do that. That's the purpose of the 
augmentation of our forces.
    Senator Biden. Madam Secretary, I'm sure you understand--
you've been around--how profound this--these inquiries are.
    Secretary Rice. Yes.
    Senator Biden. Senator Obama.

   STATEMENT OF HON. BARACK OBAMA, U.S. SENATOR FROM ILLINOIS

    Senator Obama. Thank you, Mr. Chairman.
    Madam Secretary, I'll pursue a line of questioning that we 
talked about yesterday in a one-on-one meeting. I expressed 
these same views to the President. You know, I think when you 
hear the voices of Senator Hagel, Senator Voinovich, others on 
this panel, I think you get a sense of how weighty and painful 
this process has become.
    This administration took a gamble. It staked American 
prestige and our national security on the premise that it could 
go in, overthrow Saddam Hussein, and rebuild a functioning 
democracy. And, so far, each time that we've made an assessment 
of how that gamble has paid off, it appears that it has failed. 
And, essentially, the administration repeatedly has said, 
``We're doubling down. We're going to keep on going. You know, 
maybe we lost that bet, but we're going to put a little more 
money in, and--because now we've got a lot in the pot, and we 
can't afford to lose what we've put in the pot.'' And the 
fundamental question that the American people and, I think, 
every Senator on this panel, Republican and Democrat, are 
having to face now is: At what point do we say, ``Enough''? And 
so, this, then, raises the line of questioning that I presented 
to you yesterday.
    It seems as if a solution to the problem is always 6 months 
away. I'll give you an example. Ambassador Khalilzad. He was up 
here before this committee in July of last year. He said, ``I 
believe, Senator, that this government has about 6 months or so 
to bring this sectarian violence under control. And, if it 
doesn't, then I think we would have a serious situation.'' I 
pressed him on the issue. I said, ``If this government has not 
significantly reduced sectarian violence in about 6 months, 
then we've got real problems. I mean, if I'm hearing this 
correctly, the Iraqi people--at that point, the confidence in 
the central government will have eroded to the point where it's 
not clear what we do. And I guess the question becomes: What do 
we do then? Because you may be back here in 6 months, and I'm 
going to feel bad when I read back this transcript and say, 
``Six months is up, and the sectarian violence continues.'' He 
said, ``Well, what I'd like to say, Senator, is that we have to 
work with the Iraqi Government in the course of the next 6 
months to bring the sectarian violence under control.'' So on, 
so forth.
    Six months have passed. The sectarian violence has 
worsened. It is now the President's position and the 
administration position that, despite these failures, we now 
have to put more young American troops at risk.
    And so, I--to me, this is the key question. You continually 
say that we've got assurances from the Maliki government that 
it is going to be different this time. What I want to know is: 
No. 1, what are the specific benchmarks and assurances have 
been received? Where are these written? How can we examine 
them? No. 2, why would we not want to explicitly condition, in 
whatever supplemental appropriations legislation that these 
benchmarks be met, so that the American people and legislators 
who are voting on them have some understanding of what it is 
that we expect and it's not a backroom, secret conversation 
between the President and Maliki? No. 3, what are the 
consequences if these benchmarks are not met? What leverage do 
we have that would provide us some assurance that 6 months from 
now you will not be sitting before us again, saying, ``Well, it 
didn't work. Sadr's militia has not been disarmed. We have not 
seen sufficient cooperation with respect to distribution of oil 
resources. We are still seeing political interference. We have 
lost an additional 100 or 200 or 300 or 400 American lives. We 
have spent an additional $100 billion. But we still can't 
afford to lose; and so, we're going to have to proceed in the 
same fashion, and maybe we'll have to send more troops in.'' 
What leverage do we have 6 months from now?
    Secretary Rice. Well, Senator, the leverage is that we're 
not going to stay married to a plan that's not working in 
Baghdad if the Iraqis are not living up to their part of the 
obligation, because it won't work. Unless they're prepared to 
make the tough political decisions--and, frankly, we know why 
the sectarian violence didn't come down that all had hoped 
would. It didn't come down, because there weren't enough 
forces, when these areas were cleared, to actually hold them, 
because there were not enough reliable Iraqi forces. And we 
know that there was too much political interference in what was 
going on. That's been changed in this plan, both by the 
augmentation of the forces with our own forces and by bringing 
forces in from other parts of Iraq. So, we're not going to stay 
married to a plan that isn't working because the Iraqis aren't 
living up to their end of the bargain.
    Senator Obama. Madam Secretary, because I think the 
chairman, appropriately, is trying to keep our time restricted, 
I want to just follow up on this and be very clear. Are you 
telling me that if, in 6 months or whatever timeframe you are 
suggesting, the Maliki government has not met these 
benchmarks--which, by the way, are not sufficiently explicit to 
the public and Members of Congress, for a lot of us to make 
decisions, but let's assume that these benchmarks are clarified 
over the next several weeks as this is being debated--that, at 
that point, you are going to suggest to the Maliki government 
that we are going to start phasing down our troop levels in 
Iraq?
    Secretary Rice. Senator, I want to be not explicit about 
what we might do, because I don't want to speculate. But I will 
tell you this. The benchmark that I'm looking at--the oil law 
is important, the political process is extraordinarily 
important, but the most important thing that the Iraqi 
Government has to do right now is to reestablish the confidence 
of its population that it's going to be evenhanded in defending 
it. That's what we need to see over the next 2 or 3 months. And 
I think that over the next several months, they're going to 
have to show that----
    Senator Obama. Or else what?
    Secretary Rice [continuing]. Or this plan----
    Senator Obama. Mr. Chairman.
    Secretary Rice [continuing]. Or this plan is not----
    Senator Obama. Mr. Chairman.
    Secretary Rice [continuing]. Or this plan is not going to 
work.
    Senator Obama. The question is not whether the plan is 
going to work or not. The question is: What are the 
consequences to the Iraqi Government? Are there any 
circumstances, that the President or you are willing to share 
with the public and/or the Congress, in which we would say to 
the Iraqis, ``We are no longer maintaining combat troops--
American combat troops in Iraq''? Are there any circumstances 
that you can articulate in which we would say to the Maliki 
government that, ``Enough is enough, and we are no longer 
committing our troops''?
    Secretary Rice. I'm not going to speculate, but I do tell 
you that the President made very clear that of course there are 
circumstances. That's what it means when he says, ``Our 
patience is not limited.''
    Senator Biden. Thank you very much----
    Secretary Rice. But I do think we need to recognize that 
the consequences for the Iraqis are also quite dire, and they 
are in a process in which their people are going to hold them 
accountable, as well.
    Senator Biden. Thank you very much, Madam Secretary. The 
Maliki government will probably be gone by then, but--Senator 
Murkowski.

   STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    And thank you, Secretary Rice, for your time this morning 
and for all that you do. I wish you well in your trip, at the 
end of this week.
    You've clearly heard the skepticism that has been expressed 
this morning, from so many of my colleagues, and for good 
reason. Skepticism about a lot of things. The assurances that 
we may or may not get from Mr. Maliki, an individual that we 
all concede has not been able to deliver, or to follow through 
with assurances that have been given in the past. There's a 
great leap of faith that I think is being made here that he is 
going to be able to do that which he promises, in terms of 
delivering the number of Iraqi troops, mobilizing, and really 
taking on those issues that, to this point in time, he has been 
hesitant to do so. Skepticism with the fact that we are going 
in alone.
    And I will echo the concerns that Senator Boxer raised. On 
the broadcast that I was watching last night of the President, 
there was a little ticker underneath him as he spoke. And one 
of those tickers was the announcement that Britain was 
withdrawing 3,000 of their troops from Iraq. And it was--the 
visual on that was pretty compelling, because it took me back 
to last year, the year before, the year before that, when we 
were sitting in this Foreign Relations room asking what the 
number of coalition forces were, where they were coming from, 
and the administration was citing, and proudly so, to the 
number of countries that were engaged with us on this. But your 
comment to us this morning is that you don't anticipate an 
augmentation of the coalition forces.
    You also said--and I think this is where--one area of the 
frustration of the American people, that Iraq came to us with 
this plan. Maliki came to us, to the United States, with this 
plan. And I think there are many in this country who are 
saying, ``Well, why did they just come to us? Why is it just 
the United States that is shouldering this? Why is Great 
Britain pulling back? Why are we the only ones that are moving 
forward with this new plan?''
    So, I have great concern as to where we are now, in terms 
of the world scene, and the fact that it really is the United 
States in the Iraq situation, very much alone, a situation that 
I had hoped we would not be in.
    I want to focus my question this morning on the mission 
itself. When the idea of a surge in forces was first presented, 
I was one of those that said, ``I have skepticism about it, but 
if there is a clear definition for the mission, I think it's 
something that we should look at, look at very carefully.'' I 
would agree with Senator Hagel that, given the American lives 
that have been lost in Iraq, we want to make sure that we have 
a policy that is worthy of their sacrifices. And those are his 
words, and I think they're very well spoken. But I'm not 
convinced, as I look to the plan that the President presented 
yesterday, that what we are seeing is that much different than 
what we have been doing in the past. You look to the Victory in 
Iraq plan that came out in November 2005, and I flipped through 
that to compare that with the highlights of the Iraq Strategy 
Review from January 2007. And basically, the components that 
we're talking about for the security perspective remain the 
same: To clear, to hold, and to build. And we, in Alaska, have 
paid very close attention to what happens when we try to 
increase our forces in Baghdad. We saw that with the extension 
of the 172d Stryker Brigade in August for an additional 4 
months. The strategy at that point in time was to plus-up the 
forces in Baghdad so that we could deal with the security 
issue. What we saw then didn't give me much assurance that 
plussing-up, or a temporary surge, is going to deliver us 
anything more than we have now.
    So, my question to you, Madam Secretary, is: How is it any 
different if we recognize that part of the problem, as the 
President has described, was the restrictions that we had in 
place before? Is this ramping up of this 17,500 in Baghdad--
what assurances can you give us that this is going to yield us 
a better result, a different result than what we have seen in 
the past?
    Secretary Rice. Well, of course, Senator, there aren't any 
guarantees, but I can tell you why the President, his advisors, 
his military advisors, believe that this is going to work. The 
plan requires a very different structure for Baghdad, a 
military commander for Baghdad, an Iraqi military commander for 
Baghdad, two deputy commanders for Baghdad, the division of the 
city into nine military governances that have forces deployed 
to those sections, Iraqi Army, Iraqi national police, Iraqi 
local police, and an American battalion to help them. And so, 
the structure is completely different.
    But I wouldn't just run over the point that you made. The 
rules of engagement really were the problem. Inadequate force 
and rules of engagement were the problem. Those have been fixed 
in this new plan.
    Now, the Maliki government--I understand the skepticism 
that people have that they will follow through. But, you know, 
they are only 9 months in office. That's not really very long. 
And they are dealing with an extremely difficult set of 
circumstances in which sectarianism broke out in February 2006 
in a very big way, and it's threatening to overrun the process 
that they're engaged in. And so, I think the fact that they 
didn't act properly in the past does not mean that they won't 
act properly in the future. And I think it is something that we 
have to give them a chance to do.
    Senator Murkowski. And I think the concern that you've 
heard today is: How long do we give them that chance? And those 
benchmarks are extremely important.
    Thank you, Mr. Chairman.
    Senator Biden. Thank you very much.
    Secretary Rice. We're going to know very early, Senator, 
because they have to act very quickly. Their forces will start 
to come in February 1.
    Senator Murkowski. Thank you.
    Senator Biden. Senator Menendez.

STATEMENT OF HON. ROBERT MENENDEZ, U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Madam Secretary, thank you for your service to the country.
    I didn't vote for the war in Iraq, in the first place. I 
believe it is one of the best decisions I ever made. And I 
simply don't believe that the President's escalation of the war 
will work. It seems to me that it's time for a political surge, 
not a military escalation. And I also believe it's long past 
time that we transition both our efforts in Iraq and our 
mission in Iraq, particularly with our troops, and then 
ultimately the transition of our troops out of Iraq in order to 
have the Iraqis to understand what you've talked about here. 
But they haven't given us any benchmarks that one can measure 
by. We have to have them understand that they have to make the 
hard choices, compromises, negotiations necessary for a 
government of national unity.
    When I heard General Pace, last year, say to us that, ``We 
have to get the Iraqis to love their children more than they 
hate their neighbors,'' that's a powerful truism. But that does 
not get achieved by military might.
    And so, it seems to me, to paraphrase Shakespeare, an 
escalation by any other name is an escalation. I know out of 
the White House, it came as ``surge,'' but ``surge'' would mean 
temporary, and that's clearly not the case here. And a failed 
strategy, however repackaged, is still a failed strategy. We 
tried this plan before, and it didn't work, when we sent 12,000 
troops to Baghdad last summer.
    And we heard a panel of witnesses yesterday, and there have 
been other military experts, who have said that, at this point, 
reliable Iraqi troops aren't there simply to show up. So, you 
suggested the President has listened to a wide range of 
people--the Iraqi Study Group, the Members of Congress, 
different military options, the American people--but if he 
listened, I don't think he's heard. I don't think he's heard 
that wide range of views.
    So, I want to ask you, though, even in the midst of my own 
views, trying to understand what is really new about this 
effort: Did the President obtain a commitment from Prime 
Minister Maliki specifically to use Iraqi troops against 
Muqtada al-Sadr's troops?
    Secretary Rice. He obtained an assurance from Prime Minster 
Maliki that he will go after whoever is killing innocent 
Iraqis. And I think they fully understand that the Jaish al-
Mahdi are part of the problem.
    Senator Menendez. Did he speak specifically about--and 
obtain specific commitments about--going against al-Sadr?
    Secretary Rice. He said that whoever they have to go after, 
and the military thinks they have to go after, they'll go after 
them.
    Senator Menendez. The reason I asked this specific 
question, is because it's al-Sadr who's keeping his government 
afloat right now.
    Secretary Rice. Well, actually, al-Sadr and his people 
pulled out of the government, and the government hasn't 
collapsed. They pulled out, as you remember, because of the 
Amman meeting with President Bush. And I think that 
demonstrates that, in fact, they can continue to function even 
if the Sadr forces are not a part of the government.
    Senator Menendez. When the President spoke to these other 
different groups--there's a broad misgiving among Shiite 
leaders in the government about the Shiites having a deep-
seated fear that the power they want to have at the polls is 
going to be whittled away by Americans in pursuit of Sunnis--
did he get their commitment to support Prime Minister Maliki?
    Secretary Rice. I'm sorry. ``Their,'' being the other Shia?
    Senator Menendez. The other Shia leaders, the other party 
leaders.
    Secretary Rice. Yes. For instance, the SCIRI supports Prime 
Minister Maliki in this effort.
    Senator Menendez. In the effort to support him in his 
position as Prime Minister?
    Secretary Rice. They support him as Prime Minister. They 
brought him into power.
    Senator Menendez. Well, I find it really hard--unless we 
have a specific--I know the general view, that, ``We will go 
against anyone,'' but is not, in fact, part of the negotiations 
that the President had with Prime Minister Maliki to give him 
more operational control? And, in that operational control, 
couldn't he circumvent going against al-Sadr?
    Secretary Rice. If he circumvents going against the people 
who are doing the killing, then he's going to fail, and this 
plan is going to fail. And he understands that.
    Senator Menendez. And let's talk about that, then. Let's 
assume that, for argument's sake--let's not think about the 
best; the best would be great--let's assume he fails. One of 
the problems is these benchmarks without timelines or 
consequences. Even the Iraq Study Group said that, as part of 
their recommendation--they specifically said, ``If the Iraqi 
Government does not make substantial progress toward the 
achievement of milestones on national reconciliation, security, 
and governance, the United States should reduce its political, 
military, economic support for the Iraqi Government.'' But when 
I heard your response to Senator Coleman, you said the Iraqis 
didn't have--you said--you go with plan A, and if plan A 
doesn't work, then you deal with it subsequently. I think 
that's been part of our problem here. We have a plan, but even 
plan A does not have contingencies. It doesn't have benchmarks. 
How can you ask the American people, and the Members of 
Congress who represent the American people, to continue to give 
you a blank check without benchmarks that are definable, 
without benchmarks that have timelines of some consequence, 
without consequences to the failure to meet those deadlines? 
Because we've seen these benchmarks be repackaged from the 
past. They were benchmarks before. They were not met. There are 
no consequences. And we continue to create a dependency--by the 
Iraqis on our forces.
    Secretary Rice. But, Senator, first of all, I think you do 
one strategy at a time. But you can tell--and you can adjust a 
strategy as you go along. This is not going to unfold all at 
once. We're going to know whether or not, in fact, the Iraqis 
are living up to their obligations. And we're going to know, 
early on. And there are opportunities for adjustment then.
    The benchmarks are actually very clear, and the Iraqis 
themselves have set forward some timetables for those 
benchmarks, because they've got to get legislation through. 
They have an international compact that they're trying to 
respond to.
    But I just want to speak to the word--to the point of 
consequences. There are consequences, in that they will lose 
the support of the American people, and they'll lose the 
support of the Iraqi people.
    Senator Menendez. But they're there already, Madam 
Secretary, in terms of the support of the American people. The 
question is: What will our Government do, specifically, if 
benchmarks are not met? What will we do? And that's where there 
is no answer. And, therefore, very difficult to be supportive 
of any such----
    Secretary Rice. Senator----
    Senator Menendez [continuing]. Policy.
    Secretary Rice. I just think that it's bad policy, frankly, 
to speculate on what you'll do if a plan fails that you're 
trying to make work.
    Senator Menendez. Well, you----
    Secretary Rice. I just don't think it's the way to go about 
it.
    Senator Menendez. The President did it in Leave No Child 
Behind.
    Secretary Rice. But----
    Senator Menendez. There are real consequences if you, in 
fact, don't meet certain standards. You lose a lot of money. 
You get----
    Secretary Rice. Yes.
    Senator Menendez [continuing]. Categorized as a failed 
school district. It seems to be a standard that can work here 
domestically. We're unwilling to give the government--standards 
that ultimately they would have to meet in order for us to be 
able to achieve success or, therefore, determine what are the 
consequences to failure.
    Secretary Rice. Senator, as complicated as education policy 
is, I think Iraq--the circumstances of the Iraqis are very 
complicated. We're not giving--first of all, we don't expect 
that anyone here is giving us a blank check. I understand the 
skepticism. And I know that if this doesn't show some success, 
there isn't going to be support for this policy. I understand 
that.
    Senator Biden. Thank you----
    Secretary Rice. And we said this to the Iraqis, in no 
uncertain terms. They have to start to deliver. They have to 
start to deliver now. And if they don't, then I think they know 
that we're not going to be able to continue to support them at 
the levels that we do.
    Senator Biden. Thank you very much.
    Senator Isakson.

  STATEMENT OF HON. JOHNNY ISAKSON, U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Mr. Chairman.
    In respect for Senators Cardin and Casey, Webb and Vitter, 
I'll be very quick.
    In reference to the previous exchange, I would simply say 
this. It's been my observation in war and in diplomacy, there 
are times you can answer questions and times you can't. I have 
great respect for that, and I understand the answers the 
Secretary has given, and I respect her being here today.
    With regard to that, I hope this hearing is the most 
watched television event in downtown Baghdad right now, which 
I'm sure it is. And if it is, and Maliki is watching 
television, I think he realizes that this--in Kenny Rogers old 
song, ``You've gotta know when to hold 'em and know when to 
fold 'em,'' it's time for them to deliver on the hand that 
they've dealt, and there's no folding that will take place. You 
can't go on, ad infinitum.
    And I would say, in response to the exchange--I heard, from 
the President last night, in the right words, ``This one is for 
all the marbles,'' vis-a-vis the Iraqi commitment, and it being 
totally across the board, and there be no cover for Muqtada al-
Sadr any more than a Sunni or anybody else that might be 
around. That's just a--you don't have to answer that. That's 
just my observation.
    My second thing, to live up to my promise to my colleagues, 
is to say this. Ranking Member Lugar made a very insightful 
statement with regard to diplomacy. I--it has not gone 
unnoticed to me that John Negroponte has joined your staff as 
the No. 2 person, I believe, at State. It also has not gone 
unnoticed that, when you answered the questions regarding Syria 
and regarding Iran, they were definitive into what you 
expected, they were not prospective in what might happen. And I 
think there's a burden on Iran and Syria to show that there are 
reasons to come to the table that are in the best interest of 
the region. The United States is not a nonnegotiable nation. We 
may, as history has proven, been the best negotiating nation 
that there ever was, but there's a time to negotiate, and it's 
after you know what the cards of the other side are going to 
be, or at least the first card. And I think, the way you stated 
it was appropriate. And I encourage us to pursue negotiations, 
but not by giving away, at the outset, what we may have to have 
in the end.
    Senator Biden. Thank you very much, Senator. Your 
generosity is much appreciated.
    Senator Cardin.

    STATEMENT OF HON. BENJAMIN L. CARDIN, U.S. SENATOR FROM 
                            MARYLAND

    Senator Cardin. Thank you, Mr. Chairman. And, Madam 
Secretary, thank you.
    I certainly want our foreign policy to succeed, including 
in Iraq. Several weeks ago, when the President said that he 
would reevaluate our programs in Iraq and come out with a new 
policy at the beginning of the year, I was encouraged by that, 
because I thought: At last, Congress and the President and the 
American people would be together on a policy in Iraq. I must 
tell you, I'm extremely disappointed. The Iraq Study Group, the 
military experts, have all said that it's time to start drawing 
down our troops. And yet, the plan will increase the number of 
troops. I don't understand that.
    They talk about engaging the international community. And 
I've listened to your testimony, and I've listened to the 
President last night, and it seems like we are making a limited 
effort, not an all-out effort, and we certainly are not holding 
the Iraqis accountable to stand up to defend their own country.
    So, I have one question I want to ask about the troop 
numbers; how the 20,000-plus troops numbers were determined. I 
must tell you that if we were looking at how many troops are 
necessary to quell a civil war that is occurring in Iraq, I 
think one would pick a much larger number. If we're looking at 
carrying out our current mission, military experts believe that 
we should be drawing down, so that we at least give the Iraqis 
a message that they have to take care of their own country, and 
we start making it clear this not a United States occupation.
    So, I am somewhat suspect that this number was determined, 
because it's what you have available, that it's not--you don't 
have many more that you could bring in at this time without 
creating a significant problem to our military. So, please tell 
me how this particular number was arrived at.
    Secretary Rice. Senator, Chairman Pace answered this 
question, earlier today, and the requirement was established in 
the field when the mission was established. And the mission 
was, first of all, to support the successes that are beginning 
to emerge in Anbar--that's where the 4,000 came from; and, 
second, to provide assistance to the Iraqis as they bring in 
their best forces to be able to deal with the death squads and 
the organized violence that is going on against Iraqi 
populations.
    Yes; if you were trying to quell a civil war, you would 
need much larger forces. But if what you're trying to do is to 
provide population security in relatively defined areas by 
augmenting Iraqi forces, then that's a much smaller number. And 
the Joint Chiefs of Staff then resource the plan that is given 
to them by the military. That's how the number was determined.
    Senator Cardin. All I can tell you is that the information 
that we've received from people that have been in command 
indicate that they're--that's--it doesn't add up that way.
    But, I tell you, I think it's going to be very transparent 
to the international community that these numbers are more 
symbolic, as far as the numbers of it--it's not symbolic to 
those who are going over, not symbolic to those who are putting 
their lives on the line--but it won't make a significant 
difference as far as the amount of violence in the country 
itself, but will be very much an indication that the United 
States is increasing its commitment in Iraq.
    One more question, very quickly. The President talked last 
night about talking to our allies around the world. Can you 
just list countries that are in support of what we're doing and 
whether any countries are going to come to our help, as far as 
providing additional military personnel in Iraq?
    Secretary Rice. I think that we don't expect additional 
military personnel. In fact, our surge of personnel is to 
support the Iraqis in this very specific mission and to leave 
behind an Iraqi force that can do this on its own. And so, in 
fact, I think it's a temporary matter from our point of view, 
to bridge for the absence of Iraqi forces that are capable of 
doing this.
    We do have allies on the ground with us. We're not alone, 
Senator Cardin. We do have, still, Australian forces there, 
Japanese forces, Korean forces, lots of forces from----
    Senator Cardin. And they all concur with this new plan? I 
mean----
    Secretary Rice. We have had--Prime Minister Howard was out 
this morning saying that this is the right thing to do. We know 
that Prime Minister Blair agrees. I talked yesterday with 
leaders--with Foreign Ministers from the region. They 
understand the need to deal with this.
    Senator Cardin. We all understand the need to deal with it, 
but----
    Secretary Rice. No; they understand what it is we're doing. 
Their concern is the concern that I'm hearing here: Will the 
Maliki government do this in an evenhanded fashion that goes 
both after Shia and Sunni death squads? And that is their 
concern, not the number of American forces that may be needed.
    Senator Cardin. I'm glad to see this committee is not 
alone.
    Thank you, Mr. Chairman. I'll yield back.
    Senator Biden. Thank you very much.
    Senator Vitter.

  STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman. Thank you, Madam 
Secretary. Good luck on your upcoming trip.
    My main reaction to this initiative and the President's 
speech is really to think of a number of significant questions, 
so I want to just go directly to those.
    I have not heard General Pace's testimony, so forgive me. I 
think the President precisely, last night, said ``over 20,000 
troops.'' What is that exact number, or what is the upper limit 
on that?
    Secretary Rice. I think it's around 21,500, at most. But 
I'd like General Pace to speak to that, because they have a way 
that they intend to flow the troops in that probably affects 
that number.
    Senator Vitter. OK. I know they have a very specific plan 
for those troops, but, broadbrush and to a layman, that is--
what?--roughly 15 percent of what we have there now. So, it is 
a marginal increase, as compared to a 50-percent increase. And 
so, that does lead to a concern of mine that we may commit the 
same mistake I think we clearly have in the past, which is too 
little, maybe too late. In light of the past, why shouldn't we 
take that number and say we're going to increase it 50 percent, 
we're going to increase it 100 percent?
    Secretary Rice. I think if that had been the assessment of 
the commanders as to what needed to be done, that would have 
been the recommendation. But this is a very specific purpose. 
Let's leave aside Anbar, which is really to deal with the 
positive developments there, in terms of what the sheikhs are 
doing. But in Baghdad, it is not to make Americans the center 
of police security or of providing population security for 
Iraqis in Baghdad, it is to augment Iraqi forces in the lead in 
doing that, because we recognize that sending Americans in to 
separate people and neighborhoods, or to go door to door and 
try to do a census, makes no sense. And so, while there were 
obviously very detailed calculations done on what that needed 
to be in the nine districts that are being developed, a 
battalion per district, and how then to embed people with the 
Iraqi forces so that they are trained up quickly.
    Senator Vitter. Well, I'm----
    Secretary Rice. I think that's where the number comes from.
    Senator Vitter. I certainly understand all of that. But my 
point about past history is, I assume it was the commanders' 
recommendation about numbers in the past that seemed to be--in 
many cases, have been too low. So: Does the number take account 
of any drawdown of British or other troops?
    Secretary Rice. Because it is a very specific mission in 
Baghdad to support the Iraqis at this time, it's unaffected by 
any drawdown that might take place--for instance, in the south 
of the country.
    Senator Vitter. But surely, while the British mission in 
the south of the country is not what we're talking about, 
particularly in Baghdad, I assume we consider it significant, 
so that just forgetting about it has some loss or impact.
    Secretary Rice. Well, first of all, the British will 
continue to be there for some time. But Basrah is being turned 
over to Iraqi control. And that, by the way, is happening 
throughout the country--the continuing problems are Anbar, 
Diala, and Baghdad. In most of the country, responsibility is 
being turned over to Iraqis; and, as that happens, then people 
can withdraw their forces.
    Senator Vitter. OK. And a final question about troops. As I 
heard the President, he talked about mostly Baghdad, also some 
in Anbar, no increased deployment having to do with the 
borders. And it seems to me, personnel and material coming over 
the borders is maybe not the dominant problem, but a real 
problem. And is part of the new plan going to address that in 
any significant way?
    Secretary Rice. Well, what the President has done, on 
recommendation of his commanders, is to increase our naval and 
air presence through the carrier presence, and also to give an 
expanded mission, in terms of breaking up these networks. But 
we think it's principally an intelligence function, Senator. 
Those borders are so long and so porous that I don't think you 
want to try to depend on boots on the ground to actually deal 
with the borders.
    Senator Vitter. OK. I want to turn to Sadr--obviously a big 
topic of discussion, for obvious reasons. As I understand the 
status of the government, he hasn't quite completely left the 
government. They're boycotting it. It's something in between; 
correct?
    Secretary Rice. Well, he pulled his people out of the 
government, but they've never really said they wanted to leave 
the government. The fact of the matter is, the government is 
functioning without them.
    Senator Vitter. But no one different has, for instance, 
assumed leadership of those ministries, correct?
    Secretary Rice. In fact, there are temporary ministers in a 
couple of those ministries.
    Senator Vitter. OK. What different scenarios do you see 
playing out if, in fact, Prime Minister Maliki is serious and 
acts on his commitment? Sadr isn't going to like that, clearly 
doesn't agree, is going to react somehow. So, how would you 
game out or play out that situation? Because I assume we have 
to be prepared for that.
    Secretary Rice. Well, the first thing is that these death 
squads, wherever they're coming from--and some of them are 
being driven by Jaish al Mahdi--have to be dealt with. And Sadr 
apparently has said that if his people are doing this killing, 
then they ought to be dealt with. We will see whether he holds 
to that commitment.
    But, ultimately yes, he has, I suppose, the power to 
threaten the government. But the government can't be 
intimidated by that. And with enough forces that are reliable 
and capable, I think they believe they can meet any 
contingency.
    But, again, it goes back to the question of whether or not 
you believe that this is just a problem of will, or is it a 
problem of both will and capability? The President, on 
reflection on his commanders' recommendation, believes that 
it's both will and capability, will and capability to be able 
to deal with whatever contingency they face, including 
contingencies they may face in Sadr City or from the Sadr 
forces.
    Senator Vitter. So, in terms of that playing out, I assume 
you're fairly confident that the government can continue to 
survive without him and with an even more complete and full 
opposition by his forces than exist now.
    Secretary Rice. Well, there's also the possibility that he 
will decide that he wants to continue to be a part of the 
political process.
    Senator Vitter. Right.
    Secretary Rice. That's a possibility.
    Senator Vitter. Right. I'm not discarding that. I'm just 
asking your analysis of the other possibility.
    Secretary Rice. Well, I think it's become such a critical 
situation for them that they recognize they've got to take on 
anybody who stands in their way of bringing population 
security.
    Senator Biden. Thank you very much, Senator.
    Senator Casey.

   STATEMENT OF HON. ROBERT P. CASEY, JR., U.S. SENATOR FROM 
                          PENNSYLVANIA

    Senator Casey. Mr. Chairman, thank you. And thank you for 
convening this very important hearing.
    Madam Secretary, we appreciate your presence here and your 
testimony and your public service.
    I represent the State of Pennsylvania, along with Senator 
Specter. We've now lost, as of last week, more than 140 in 
Iraq. And in a State like ours, apart from the deaths in big 
cities like Philadelphia and Pittsburgh, most of the deaths, 
most of the loss of life, are soldiers and marines from very 
small towns. And, as you can imagine--and I know you appreciate 
this--when there is a death like that in a small town, it is 
like an earthquake, it's cataclysmic to the community and 
obviously to the family. And I think that one of my basic 
obligations as a U.S. Senator, when it comes to Iraq, one of 
the obligations I have, when it comes to the question of what 
we're going to do, going forward in Iraq, is to support 
policies that, in fact, will be cognizant of those numbers, the 
loss of life, and to do everything I can to make sure that we 
reduce, as much as we can, as humanly possible, the likelihood 
that another one of our sons or daughters are sacrificed for a 
policy that is flawed.
    Based upon your testimony today and based upon what I heard 
the President say, National Security Advisor--all of the public 
record that Americans have been reviewing the last couple of 
days, I have to say I'm not convinced that the escalation of 
troops that the President formally announced last night has 
support in a strategy that will work. And I don't think I can 
meet my obligation and support that kind of an increase in 
troop levels.
    But, I have to say, despite what I might think, I think 
it's very important--and some of this will be redundant, I 
realize, but I think it's very important that you tell us, once 
again, in your own words, but also on behalf of the President 
and the administration, What is the nexus--and I have not heard 
this articulated well, so far--what is the nexus between the 
good news that the Iraqi have developed this plan themselves, 
that has its genesis or origin in their work and their 
leadership--but what's the nexus between that Iraqi strategy 
and the need for approximately 20,000 new troops?
    Secretary Rice. Yes. When the Iraqis came to Jordan and 
they said they really have to get a hold of this Baghdad 
problem, and recognizing that the Baghdad security plan that 
had been carried out in the summer did not succeed, they wanted 
to do it themselves. To be very frank, they wanted to do it 
themselves. They believe that sectarian violence is their 
problem, not ours. And I applaud that. I think that's the right 
responsibility.
    It is true that people like Rubaie, who sometimes are very 
enthusiastic, say, ``We can do this on our own.'' But, in fact, 
when the experts, including their own defense people, looked at 
the capabilities that they had and when those capabilities 
would actually mature, which would be in the summer sometime, 
there is a gap between the capabilities that will mature by the 
summer, when we begin to really transfer operational control to 
them over most of their forces, and what needs to be done in 
Baghdad now. And so, the President asked his commanders to work 
with the Iraqis to see what it would take to be able to 
undertake a population protection--get-control-of-the-capital 
plan now rather than waiting until the summer, when the Iraqis 
could do that themselves. And the plan that came back was for 
an augmentation of American forces so that a battalion could be 
with each of these nine Iraqi groups that are going to be in 
each of these nine military districts. That's where it came 
from.
    And so, the link, Senator, is--again, if you believe--and I 
understand that people don't believe that the Iraqis have the 
will, that there's great skepticism as to whether they have the 
will--if you believe that it's a matter of will, then we should 
do exactly what people are saying, we should draw back and say, 
``Go at it. Go at it, and you'd better succeed in getting rid 
of this sectarian violence, or you're not going to be able to 
continue to govern.'' But you believe that it's both will and 
capability, then telling them to do something that you don't 
think they're capable of doing is not good policy. And so, the 
President's policy is premised on the urgency of getting 
Baghdad under control and what Iraqi capabilities there are and 
what augmentation we need to do. So, that's how you would think 
about the relationship between the two.
    Senator Casey. Well, I appreciate your answer, but I do 
hope that you and other members of the administration 
continually, in the next couple of days especially, make the 
case very specifically why you and the President and others 
think this is necessary, because I don't think the American 
people are hearing that. They're hearing a lot of the same 
rhetoric we've heard for a lot of years, in my judgment. The 
best efforts to make sure that every sound bite is phrased in a 
way that sounds like, ``If we don't do this, it's going to 
adversely impact the war on terror,'' which I think the case 
hasn't been made, with regard to this particular policy.
    So, I'll move on. One more question. With regard to 
diplomacy, we hear it all the time--and this is your business--
we hear it all the time. We hear about the necessity of a 
political strategy and a diplomatic strategy. Can you very 
quickly--and I'd ask you to submit--amplify this for the record 
for this hearing, if you could provide that. But, just very 
quickly, can you summarize for us specific steps you have 
taken, personally, as Secretary of State, when it comes to 
dealing with the real crisis that we now have in Iraq, at least 
in the last 2 years, just a list, if you can.
    Secretary Rice. On the diplomatic front?
    Senator Casey. Absolutely.
    Secretary Rice. Yes. Well, I have been constantly--whether 
it's through bilateral discussions or in the multilateral form 
that we've created, the GCC-plus-two--pressing these states to 
help the Iraqis send missions to Iraq. And we've succeeded in 
getting some of them there; getting the Arab League to go there 
in support because one of the problems is, they see, ``Well, 
perhaps Iran is too influential, but these Iraqis, the Shia 
there are Arabs.'' So bringing them into the Arab fold is 
extremely important.
    I have worked very hard to get European Union to go in, in 
a major way. And, in fact, their commissioner, Benita Ferrero-
Waldner, has gone several times, at our urging. But the most 
important thing that we've done is, we've negotiated, over the 
last year, almost year now, an international compact for Iraq 
which has very specific things that the Iraqis are to do, 
including things like an oil law, anticorruption measures, and 
so forth, and a series of steps that the international 
community would take in response. This is something that we 
used very effectively with Afghanistan, and we think we can use 
it effectively with Iraq, as well. The debt relief. We've 
negotiated, for the Iraqis, 80 percent debt relief from most of 
the Paris Club debtors, and 100 percent from ourselves and 
several others. We're trying to get the Gulf States to do the 
same. So, it's been a very active agenda.
    I do think that they've been much more active with Iraq in 
the last 6 or 7 months, really engaging--really, the last 
year--really engaging and trying to get Sunnis involved in the 
process. I suspect that some of the Sunni states have been 
supportive of what is going on in Anbar, and have had a role in 
helping that come about.
    So, that's how we see the diplomacy. And it's not a 
question of whether--to my mind, who you talk to; it's a 
question of what they're prepared to do. And the states that 
have the same vision of the Middle East, and want an Iraq that 
is unified, stable, without undue Iranian influence, which is 
one of the uniting factors for all of these states, I think, is 
the place to be.
    Senator Biden. Thank you very much, Senator.
    Senator Webb, your patience is commendable, and your 
experience is extensive.

     STATEMENT OF HON. JIM WEBB, U.S. SENATOR FROM VIRGINIA

    Senator Webb. Thank you, Mr. Chairman. I also realize I am 
the last obstacle between you and lunch, and----
    Senator Biden. No, no, no, no.
    Senator Webb [continuing]. Secretary Rice and the door. 
[Laughter.]
    So, I'll be as brief as I can.
    Secretary Rice, I want to thank you for being here. And I 
want you to know my door is always open if you ever want to 
come by and discuss any issue or call me or whatever. I'm 
looking forward very much to working with you.
    I'd like to associate myself with many of the views here, 
that you've heard, about what I believe is a necessity for us 
to widen the diplomatic approach, in terms of reaching a 
solution. I want to make a--just a quick comment that won't 
require an answer from you, and then I do have a question about 
something that concerns me a great deal.
    With respect to the situation in Iran, and with Iran and 
the region, there are many, including myself, who warned that 
invading and occupying Iraq would, in fact, empower Iran. And 
that has become a reality. We also--there was a great deal of 
notice and comment recently about the fact that Iran has more 
power in Iraq than it has had in a very long--perhaps going 
back a couple of hundred years, and that is a reality. And our 
options are in--to ignore, to do things informally, as you've 
been discussing, or to more actively engage.
    And when I'm looking at this, one of the things that sticks 
in my mind is a situation that we had with China in 1971. This 
was a rogue nation. It had nuclear weapons. It had an American 
war on its border. The parallels are not exact, but we went 
forward, without giving up any of our own ideals or our 
national objectives, and we did a very aggressive engagement 
process that, over a period of time, has arguably brought China 
into the international community.
    And I just hope you will pass on to their President, (a) my 
best regards, and (b) that if he were to move in that 
direction, he certainly would have the strong support of me, 
and perhaps other people.
    The question that I have for you goes back to the 
Presidential finding on the resolution that authorized force in 
2002. And there is a sentence in here which basically says 
that, ``This resolution does not constitute any change in the 
position of the executive branch with regard to its authority 
to use force to deter, prevent, or respond to aggression or 
other threats to United States interests outside of Iraq.'' 
This phrase went to situations outside of Iraq. And this is a 
question that can be answered either, you know, very briefly or 
through written testimony, but my question is: Is this the--is 
it the position of this administration that it possesses the 
authority to take unilateral action against Iran, in the 
absence of a direct threat, without congressional approval?
    Secretary Rice. Senator, I'm really loathe to get into 
questions of the President's authorities without a rather more 
clear understanding of what we are actually talking about. So, 
let me answer you, in fact, in writing. I think that would be 
the best thing to do.
    Senator Webb. I would appreciate that.
    Secretary Rice. But let me just say how we view the 
situation currently. We continue to believe that our struggle 
with Iran is a long one. It's a strategic one. It has elements 
of the fight in the war on terror. It has elements of trying to 
stabilize a Middle East in which Iran is a tremendously 
destabilizing force. It has, of course, an Iraq dimension. And 
it also has an important nuclear dimension. And I think we 
believe we have the right policy for dealing with those 
matters, through diplomacy.
    Now, what the President was very much referring to is, of 
course, every American President--and that goes back a very, 
very long way--has made very clear that we will defend our 
interests and those of our allies in the Persian Gulf region. 
And so, there is nothing new in that statement that the 
President has made.
    The one important new fact here is that, for force-
protection purposes, we have to worry about what Iran is doing. 
We all know their activities for these enhanced IEDs and so 
forth. And we are going to go after the networks that do that.
    I believe that--when you talk to the military advisors, 
they believe that is something that can be done in Iraq, that 
it is something that is done by good intelligence and by 
quickness of action. And, in fact, we've had a couple of those 
occasions recently, where we've gone after these networks.
    Senator Webb. Right. Well, I think that--I think we both 
probably know what the elephant in the bedroom is here. And 
I've got a long history of experience in dealing with defense 
issues. And there is one pretty profound change since I was in 
the Pentagon, in the Reagan administration, and that is the 
notion that the executive branch has the power to conduct a 
preemptive war, as opposed to a preemptive attack. And the 
situations that you're talking about really go to a preemptive 
attack against a specific threat, where people on the other 
side are being threatened. And the concern that I and a number 
of people have is that this would be interpreted as something 
broader. So, I'd appreciate it if you could give us something 
in writing on that.
    Secretary Rice. I will, certainly.
    [The information submitted by the State Department 
follows:]

                                  U.S. Department of State,
                                  Washington, DC, January 31, 2007.
Hon. Jim Webb,
U.S. Senate,
Washington, DC.
    Dear Senator Webb: In the President's January 10 speech to the 
American people on the Administration's New Way Forward in Iraq, he 
made clear that Iran was providing material support for attacks on 
American forces. He emphasized the importance of disrupting these 
attacks and interrupting the flow of support from Iran and Syria. The 
President also noted our intention to seek out and destroy the networks 
that are providing the advanced weaponry and training that threaten our 
forces in Iraq. During the January 11 Senate Foreign Relations 
Committee hearing on Iraq, you and Senator Biden asked a number of 
questions concerning the scope of the President's authority to carry 
out these critical missions.
    The Administration believes that there is clear authority for U.S. 
operations within the territory of Iraq to prevent further Iranian- or 
Syrian-supported attacks against U.S. forces operating as part of the 
Multinational Force-Iraq (MNF-I) or against civilian targets. Such 
attacks directly threaten both the security and stability of Iraq and 
the safety of our personnel; they also continue to threaten the 
region's security and stability. U.S. military operations in Iraq are 
conducted under the President's constitutional authority and the 
Authorization for Use of Military Force Against Iraq Resolution of 2002 
(P.L. 107-243), which authorized the use of armed force to defend the 
national security of the United States against the continuing threat 
posed by Iraq and to enforce all relevant United Nations Security 
Council resolutions regarding Iraq. The United Nations Security Council 
has authorized all necessary measures to contribute to the maintenance 
of Iraq's security and stability, which encompasses MNF-I conducting 
military operations against any forces that carry out attacks against 
MNF-I or Iraqi civilian and military targets.
    You also ask what authority might be relevant in connection with a 
hypothetical military operation in Iran. As this Administration has 
said, we are not planning to invade Iran. For over two years, we have 
actively pursued a diplomatic strategy to address Iran's nuclear 
program, and we remain committed to resolving our concerns with Iran 
diplomatically. Of course, the Constitution charges the President to 
protect the United States and the American people. As Commander in 
Chief, he must be able to defend the United States, for example, if 
U.S. forces come under attack. Whether and how to do so in any specific 
situation would depend on the facts and circumstances at that time. 
Administration officials communicate regularly with the leadership and 
other Members of Congress with regard to the deployment of U.S. forces 
and the measures that may be necessary to protect the security 
interests of the United States and will continue to do so.
    We hope this information will be helpful to you and thank you for 
your interest in this important issue.
            Sincerely,
                                Jeffrey T. Bergner,
                                       Assistant Secretary,
                                               Legislative Affairs.

    Senator Webb. Thank you very much.
    Secretary Rice. If I may, just one other point on Senator 
Webb's earlier point. Senator, we've gone a long way, actually, 
to offer the opportunity for the Iranians to talk to us. We did 
it in the context of the nuclear program, because we believe 
that's a real near-term threat and if we don't get a handle on 
the nuclear program, we've got a real problem. I want to repeat 
again--now, if they will stop enriching so that they're not 
improving their nuclear capability while they're talking, 
they'll find somebody who's willing to talk to them under any 
circumstances. But I think short of that, we send a wrong 
message about our resolve. And, frankly, it has a cost with 
nations in the region that are looking very closely at how we 
are conducting ourselves, vis-a-vis the Iranians.
    Senator Webb. Right. Well, I think that it's important, as 
the Baker Commission was saying, and a lot of people have been 
saying, and I've been saying, that when you have a situation 
with a nation that constitutes this kind of threat, it's very 
important to confront, as well as to engage. And I personally 
think it would be a bold act for George W. Bush to get on an 
airplane and go to Tehran in the same manner that President 
Nixon did, take a gamble and not give up one thing that we 
believe in in terms of its moving toward weapons of mass 
destruction, our belief that Israel needs to be recognized and 
its interests need to be protected, but to maybe start changing 
the formula here.
    Thank you.
    Secretary Rice. Thank you.
    Senator Biden. Thank you very much.
    Senator Webb. Thank you, Mr. Chairman.
    Senator Biden. I thank my colleagues for their patience; 
and, particularly, I thank the Secretary of State.
    Madam Secretary, I'd conclude by just making a few very 
brief comments.
    One is, one of the things that you've learned here today 
from hearing our colleagues is that there is an overwhelming 
concern that the reason why we insisted that we not accept the 
Maliki plan, as he laid it out, is that what he would do is go 
in and take out the Sunnis and we'd exacerbate the civil war. 
That may or may not be true, but that's been one of the 
potential explanations as to why we insisted we go into Baghdad 
when he said they don't need us in Baghdad. I'm not saying 
that's right or wrong. Just be aware that that's something 
that's going to have to be dealt with, in terms of, I suspect, 
people's judgments about how they feel about the 
administration's position.
    Second, I also want to make it clear, as chairman of the 
committee, that I feel very strongly that the authorization of 
the use of force, and the provision that the Senator read from 
it, explicitly denies you the authority to go into Iran. Let me 
say that again. Explicitly denies you the authority to go into 
Iran. We will fight that out if the President moves, but I just 
want the record to show--and I would like to have a legal 
response from the State Department, if they think they have 
authority to pursue networks or anything else across the border 
into Iran and Iraq. That will generate a constitutional 
confrontation here in the Senate, I predict to you. At least I 
will attempt to make it a confrontation.
    Third point I would make, Madam Secretary, is that I've sat 
through a lot of hearings, and you have, too, and, God love 
you, you've had to do it in a very different position than I 
have, and I commend you for your patience, but I want to say, 
again--and I hope you'll convey it to the President, because 
I'm sure he has not had time to watch our hearing--I think what 
occurred here today was fairly profound, in the sense that you 
heard 21 members, with one or two notable exceptions, 
expressing outright hostility, disagreement, and/or 
overwhelming concern with the President's proposal. And I think 
that he will proceed at significant political risk if there is 
not a much more intensive and detailed attempt to bring the 
U.S. Senate and the Congress into his proposals.
    As you point out, this surge is a process. This is not 
going to happen in a day or a week or a month. And we will have 
time and opportunity to revisit this next month, and in the 
next 2 months. Because the President is going to, as I 
understand it, Madam Secretary--and my colleague from Virginia 
knows more about this than any of us on the committee, having 
served in the Pentagon--as I understand it, the decision will 
come across the desk of the President of the United States, or 
at least through the Secretary of Defense, next week, in 3 
weeks or 5 weeks, as to whether he extends 1,500, 2,000, 900, 
600, 1,400 marines, sailors, and soldiers. And so, this is a 
decision that will necessarily have to be revisited privately 
by the President once a week, once a month, from this point on.
    And I see my----
    Senator Webb. Mr. Chairman, if I may, we saw a notice from 
the Marine Corps this morning about a number of units already 
having been extended.
    Senator Biden. Right. But my point is, a month from now, in 
order to keep the troop level up to accommodating this 21,500 
additional forces, that decision will have to be made again.
    Senator Webb. Right. Yes, sir. This was a part of that----
    Senator Biden. Extending. So----
    Senator Webb [continuing]. His proposal--or the policy that 
he mentioned last night.
    Senator Biden. So, the point I'm making is that I don't 
want anybody to think--and I hope the administration does not 
think--that the President's made a decision, we're going to go 
forward with 21,500 people, it's a done deal, that it is 
finished. He will have an opportunity to revisit it. We will 
revisit it. And you heard from my colleagues, they are, I don't 
think it's unfair to say, ranging from skepticism to intense 
skepticism to outright opposition to the President's proposal.
    And I'll end where I began, Madam Secretary. And I realize 
this is not all on your plate. If we can't figure out how to 
bring along the American people on this deal, we are--we are in 
real trouble. We would be making a tragic mistake that I think 
will mortgage the ability of this President and that of the 
next President to do what they are going to have to do. And 
that is, there will be a requirement to deploy force to other 
parts of the world. We will undermine that in a way that I 
think will be incredibly damaging to our national interest. So, 
that's just one man's opinion.
    I appreciate, Madam Secretary, your perseverance, your 
willingness to be here, and the fact that we have cut your 
lunch hour by 20 minutes. And that's not a minor point. You're 
going to have to go and sit down in front of the House, as 
well. But I thank you for your courtesy.
    Senator Voinovich. Mr. Chairman. Mr. Chairman.
    Senator Biden. Yes.
    Senator Voinovich. I hope that we make it clear to the men 
and women that are serving our country today in Iraq that this 
difference of opinion in regard to the President's sending in 
more troops----
    Senator Biden. It has nothing to do with them.
    Senator Voinovich [continuing]. Is that we're supportive of 
what they're doing, and we're going to provide them the 
resources so they can do their job, and are protected, to the 
very best of our ability. Because I wouldn't want anything said 
in here today to interpret that we're just----
    Senator Biden. I think that's a valid point to raise again, 
and we should raise it again and again. In my seven trips to 
Iraq--and collectively on this committee there's probably been 
50 trips to Iraq--I don't know a single person, having voted 
for or voted against the deployment, having agreed or disagreed 
with the President, who hasn't been absolutely amazed by the 
dedication, the service, and the overwhelming commitment of 
those forces on the ground. And if you want to see how that 
works, travel to Iraq with a guy that is a noncommissioned 
officer, and watch how he relates with these folks on the 
streets of Baghdad and Fallujah and Basrah. It is real. They 
have our overwhelming support. They have our admiration. And it 
should not be read that our disagreement, to the extent we 
disagree with the President, is any reflection on their 
abilities.
    I would close by saying that I also want to thank the 
Capitol Police for having done, very skillfully and without 
much fanfare, a very good job in keeping order here today. I 
want to acknowledge that and thank them.
    I want to thank all of you who came to listen, for the 
orderly way in which you did. I know there are incredibly 
strong feelings about this issue, and as American citizens, 
you've conducted yourself in a way that I think makes our 
democracy one that's the envy of the world.
    Again, I thank you, Madam Secretary.
    The committee is--oh, I'm supposed to--also, we're supposed 
to begin this afternoon's hearing at 2 o'clock, but I've been 
informed by the U.S. Senate that we are going to have two votes 
at 2 o'clock, that they are--to use Senate jargon, they've been 
agreed to by unanimous consent, which means they will take 
place. So, rather than convene at 2 o'clock, we will convene at 
2:30. And the list of witnesses we have today are very 
prominent people who have different views on--and specific 
plans on--how to proceed in Iraq. They include the Honorable 
Peter Galbraith, Dr. Frederick Kagan of the American Enterprise 
Institute, and Dr. Ted Galen Carpenter of the CATO Institute.
    So, I thank you, Madam Secretary.
    We stand adjourned.
    [Whereupon, at 1:23 p.m., the hearing was adjourned.]

 Additional Material and Questions and Answers Submitted for the Record


    Poll Published in the Military Times Submitted by Senator Boxer

(1) Are you on active duty?

        Yes--100%
        No--0%

        (Note: Only active-duty responses were counted in remaining 
        results.)

(2) Service Branch?

        Army--46%
        Navy--21%
        Air Force--23%
        Marine Corps--9%
        Coast Guard--1%
        No response--0%

(3) How many times have you deployed to Iraq?

        Once--32%
        Twice--12%
        Three times--3%
        More than three times--3%
        Never/no response--50%

(4) How many times have you deployed to Afghanistan?

        Once--12%
        Twice--1%
        Three times--0%
        More than three times--0%
        Never/no response--85%

(5) In total, I have deployed in support of the war in Afghanistan and/
or Iraq for:

        Less than 2 months--3%
        3-6 months--17%
        7-12 months--25%
        13-18 months--11%
        19 or more months--9%
        Haven't deployed/no response--34%

(6) Should the U.S. have gone to war in Iraq?

        Yes--41%
        No--37%
        No opinion/no answer--9%
        Decline to answer/no answer--11%

(7) Regardless of whether you think the U.S. should have gone to war, 
how likely is the U.S. to succeed?

        Very likely to succeed--13%
        Somewhat likely to succeed--37%
        Not very likely to succeed--31%
        Not at all likely to succeed--10%
        No opinion/no answer--8%

(8) How soon do you think the Iraqi military will be ready to replace 
large numbers of American troops?

        Less than a year--2%
        1-2 years--20%
        3-5 years--36%
        5-10 years--22%
        More than 10 years--12%
        No opinion/no answer--7%

(9) How long do you think the U.S. will need to stay in Iraq to reach 
its goals?

        Less than a year--2%
        1-2 years--8%
        3-5 years--26%
        5-10 years--31%
        More than years--23%
        No opinion/no answer--8%

(10) Do you approve or disapprove of the way George W. Bush is handling 
the situation with Iraq?

        Approve--35%
        Disapprove--42%
        No opinion--10%
        Decline to answer--12%

(11) Do you approve or disapprove of the way George W. Bush is handling 
his job as president?

        Approve--52%
        Disapprove--31%
        No opinion--6%
        Decline to answer--10%

(12) Do you consider the war in Iraq to be part of the war on terrorism 
that began Sept. 11, 2001, or do you consider it to be an entirely 
separate military action?

        Part of the war on terrorism--47%
        Separate military action--47%
        No opinion--5%

(13) We currently have 145,000 troops in Iraq and Kuwait. How many 
troops do you think we should have there?

        Zero--13%
        0-50,000--7%
        50,000-144,000--6%
        145,000--13%
        146,000-200,000--22%
        200,000+ --16%
        No opinion/Don't know--23%

(14) We currently have 18,000 troops in Afghanistan. How many troops do 
you think we should have there?

        Zero--8%
        0-10,000--7%
        10,000-17,000--4%
        18,000--15%
        19,000-50,000--27%
        50,000+ --12%
        No opinion/Don't know--26%
                                 ______
                                 

      Article From the Daily Telegraph Submitted by Senator Boxer

               [From The Daily Telegraph, Jan. 11, 2007]

          3,000 British Troops To Be Pulled Out of Iraq by May

      (By Thomas Harding in Basra and Toby Harnden in Washington]

    Thousands of British troops will return home from Iraq by the end 
of May, The Daily Telegraph can reveal today.
    Tony Blair will announce within the next fortnight that almost 
3,000 troops are to be cut from the current total of 7,200, allowing 
the military to recover from 4 years of battle that have left it 
severely overstretched.
    In what will be the first substantial cut of British troops serving 
in southern Iraq, their number will drop to 4,500 on May 31. The 
announcement will be made by the Prime Minister before he steps down 
from office as an intended signal of the achievements the British have 
made in Iraq--albeit at the cost of 128 dead.
    The plans for the British withdrawal were revealed as President 
George W. Bush announced that he was sending an additional 21,500 
troops into Iraq.
    The primary objective of the five brigades and two U.S. Marine 
battalions is to curtail sectarian violence in Baghdad and target Sunni 
insurgent strongholds in western Anbar province.
    His high-stakes, prime-time television address to Americans last 
night signalled a stark divergence of policy on Iraq with that of his 
British allies.
    In an uncharacteristic admission of errors, Mr. Bush made 
acknowledged ``mistakes'' in previous ``failed'' plans to pacify 
Baghdad.
    The troop ``surge''--bitterly opposed by Democrats and many 
Republicans--would bring forward the end of the war, he said. ``If we 
increase our support at this crucial moment, and help the Iraqis break 
the cycle of violence, we can hasten the day our troops begin coming 
home.''
    He gave warning to Nouri al-Maliki, the Iraqi Premier, that 
America's patience was running out: ``If the Iraqi Government does not 
follow through on its promises, it will lose the support of the 
American people and it will lose the support of the Iraqi people.''
    Mr. Bush's strategy was to be accompanied by a massive influx of 
American cash for reconstruction and a commitment from the Iraq 
Government to send three brigades into Baghdad.
    A senior British officer serving in Iraq said yesterday: ``The U.S. 
situation appears to be getting worse because they are sending more 
troops while the British are getting out of Basra. But the situation is 
different, with the Americans facing a gargantuan problem of sectarian 
violence.''
    The precise timetable for the U.K. withdrawal has been disclosed to 
The Daily Telegraph. Unless there are ``major hiccups'' in the next few 
months, 1 Mechanised Brigade will enter Iraq with a much reduced force 
when it replaces 19 Light Brigade in June for its 6-month tour.
    Military planners are drawing up force levels for when Basra comes 
under ``provincial Iraqi control'' at the end of spring, when all 
security will be handed over to the Iraqi police and army.
    The British Army will then position its troops at a major base that 
is being expanded at Basra Air Station, 5 miles west of the city, where 
they will be on standby. A small force of 200 men will be left in 
central Basra.
    By the end of February the volatile Maysan province, patrolled by 
the 600-strong battle group of the Queen's Royal Lancers, will be 
handed over to the local authorities.
                                 ______
                                 

Responses of Secretary of State Condoleezza Rice to Questions Submitted 
                       by Senator Joseph R. Biden

    Question. Does the executive branch believe the objectives set 
forth in section 3(a) of Pubic Law 107-243 have been achieved and why?

  <bullet> If the answer to this question is yes, please elaborate on 
        the authority under U.S. law for the continued use of force by 
        U.S. forces in Iraq.
  <bullet> If the answer to this question is no--

    <bullet> What is the ``continuing threat posed by Iraq''?
    <bullet> Which United Nations Security Council resolutions 
            regarding Iraq are United States Armed Forces enforcing?

    Answer. Section 3(a) of the Authorization for Use of Military Force 
Against Iraq Resolution of 2002 (P.L. 107-243) authorizes the use of 
armed force to defend the national security of the United States 
against the continuing threat posed by Iraq and to enforce all relevant 
United Nations Security Council resolutions regarding Iraq.
    To date, the United States, working closely with its coalition 
partners, has achieved certain successes in working toward the 
objectives in section 3(a) of the AUMF. For example, coalition military 
operations resulted in the fall of the former Iraqi regime under Saddam 
Hussein. In addition, coalition military operations allowed weapons 
inspections that had been blocked for years by the Iraqi Government to 
take place. The military has been critical in contributing to the 
ongoing democratic transformation of Iraq, including by supporting two 
national elections and a referendum that approved Iraq's new 
constitution and furthering the development of Iraq's new security 
forces. The use of military force also has disrupted the activities of 
terrorists plotting acts of violence against Iraqi, American, and other 
interests.
    While certain progress has been made, U.S. military operations 
continue to be necessary and appropriate to defend the national 
security of the United States and to eliminate the continuing threat 
presented by the current circumstances in Iraq. In his January 10 
speech on the administration's New Way Forward in Iraq, the President 
underscored that, for the safety of the American people, the United 
States must succeed in Iraq. He made it clear that failure in Iraq 
would lead to radical Islamic extremists growing in strength and 
resolve and gaining recruits. He noted that, as a result, they would be 
in a better position to topple moderate governments, create chaos in 
the region, and use oil revenues to fund their ambitions. He also noted 
that failure would provide our enemies a safe haven from which to plan 
and launch attacks on the American people.
    As we have consistently made clear in the administration's regular 
report to the Congress consistent with the War Powers Resolution, the 
United States also continues to use military force to enforce relevant 
United Nations Security Council resolutions regarding Iraq. As the AUMF 
recognizes, the President clearly indicated prior to taking military 
action that the United States was committed to work with the United 
Nations Security Council to meet the common challenge posed by Iraq. 
This commitment has not wavered, and the United States continues to 
play a leading role in Multinational Force in Iraq, which the Security 
Council authorized in Resolution 1546, inter alia, to take all 
necessary measures to contribute to the maintenance of Iraq's security 
and stability. Moreover, the Security Council has twice unanimously 
extended this authorization for the Multinational Force, most recently 
in Resolution 1723. This authorization encompasses MNF-I conducting 
military operations against any forces that carry out attacks against 
MNF-I or Iraqi civilian and military targets. As the Department has 
noted in previous reports to Congress, these contributions in 
implementation of the Security Council resolutions also assist the 
Iraqi people in the development of their political and security 
institutions in accordance with the transitional frameworks established 
in a series of Security Council resolutions, both of which are critical 
to the longer term security of the Iraqis.
    In light of the foregoing, the administration believes that there 
continues to be clear authority for U.S. military operations within the 
territory of Iraq based upon the Authorization for Use of Military 
Force Against Iraq Resolution of 2002 and the President's 
constitutional authority.

    Question. In his January 10 speech, President Bush said, 
``Succeeding in Iraq also requires defending its territorial integrity 
and stabilizing the region in the face of extremist challenges. This 
begins with addressing Iran and Syria. These two regimes are allowing 
terrorists and insurgents to use their territory to move in and out of 
Iraq. Iran is providing material support for attacks on American 
troops. We will disrupt the attacks on our forces. We'll interrupt the 
flow of support from Iran and Syria. And we will seek out and destroy 
the networks providing advanced weaponry and training to our enemies in 
Iraq.''

  <bullet> Does the administration have plans to cross the Syrian and/
        or Iranian border to pursue those persons or individuals or 
        governments providing that help?
  <bullet> In your opinion, does the administration have the 
        constitutional authority to pursue networks across Iraq's 
        borders into Iran or Syria?

    Answer. In the President's January 10 speech to the American people 
on the administration's New Way Forward in Iraq, he made clear that 
Iran was providing material support for attacks on American forces. He 
emphasized the importance of disrupting these attacks and interrupting 
the flow of support from Iran and Syria. The President also noted our 
intention to seek out and destroy the networks that are providing the 
advanced weaponry and training that threaten our forces in Iraq.
    The administration believes that there is clear authority for U.S. 
operations within the tenitory of Iraq to prevent Syrian- or further 
Iranian-supported attacks against U.S. forces operating as part of the 
Multinational Force-Iraq (MNF-I) or against civilian targets. Such 
attacks directly threaten both the security and stability of Iraq and 
the safety of our personnel; they also continue to threaten the 
region's security and stability. U.S. military operations in Iraq are 
conducted under the President's constitutional authority and the 
Authorization for Use of Military Force Against Iraq Resolution of 2002 
(P.L. 107-243), which authorized the use of armed force to defend the 
national security of the United States against the continuing threat 
posed by Iraq and to enforce all relevant United Nations Security 
Council resolutions regarding Iraq. The United Nations Security Council 
has authorized all necessary measures to contribute to the maintenance 
of Iraq's security and stability, which encompasses MNF-I conducting 
military operations against any forces that carry out attacks against 
MNF-I or Iraqi civilian and military targets.
    This question also asks what authority might be relevant in 
connection with a hypothetical military operation into Iran or Syria. 
We are not planning to invade Iran or Syria. As this administration has 
said, we have actively pursued a diplomatic strategy to address Iran's 
nuclear program, and we remain committed to resolving our concerns with 
Iran diplomatically. We are also committed to using diplomacy to 
address Syria's facilitation of foreign fighters into Iraq, its 
harboring of former Iraqi regime elements; and its interference in 
Lebanon. Of course, the Constitution charges the President to protect 
the United States and the American people. As Commander in Chief, he 
must be able to defend the United States if the U.S. forces come under 
attack. Whether and how to do so in any specific situation would depend 
on the facts and circumstances at that time. Administration officials 
communicate regularly with the leadership and other Members of Congress 
with regard to the deployment of U.S. forces and the measures that may 
be necessary to protect the security interests of the United States and 
will continue to do so.

    Question. In March 2006, Ambassador Zalmay Khalilzad announced that 
he had been authorized to hold face-to-face talks with the Iranians in 
Baghdad. More recently the Bush administration has said that it will 
engage with Iran only if it suspends its uranium enrichment.

  <bullet> Does the March 2006 offer still stand? If not, when was it 
        rescinded and under what circumstances? What led to the change 
        in the March 2006 policy?
  <bullet> How would you characterize Iran's and Syria's involvement in 
        the U.N.-sponsored ``international compact''?
  <bullet> Given the administration's stance on engagement with Iran 
        and Syria, is it supportive of Iran's and Syria's continuing 
        involvement with the ``international compact''?

    Answer. Secretary Rice previously authorized Ambassador Zalmay 
Khalilzad to speak directly to the Iranians in an ``ambassador-to-
ambassador'' channel on issues relating specifically to Iraq. For 
various operational reasons at the time, we have not used this channel. 
Our current offer on the table with the Iranians as announced by 
Secretary Rice last May is to review with Iran in the Five-Plus-One 
context the whole range of bilateral and multilateral issues, with the 
only condition being Iran to suspend its nuclear enrichment efforts 
just condemned by the U.N. Security Council. On occasion we also use 
our Swiss channel to communicate specific, topical information to the 
Iranian Government.
    As members of the United Nations, Iran and Syria have both been 
briefed on the International Compact with Iraq during a meeting at the 
United Nations in September 2006, and we would expect that the United 
Nations would invite them to attend future meetings. Neither Iran nor 
Syria has participated in any Preparatory Group meetings.
    We encourage all of Iraq's neighbors to be responsible stakeholders 
in supporting and assisting the Iraqi Government. To that end, we 
continue to pressure Iran and Syria to suspend their destabilizing 
activities. Like Iraq's other neighbors, Iran and Syria must respect 
the sovereignty and territorial integrity of Iraq and act in a manner 
that supports a stable and democratic future for the Iraqi people.
    Launching the International Compact with Iraq has been a joint 
undertaking of the Government of Iraq and the United Nations. The 
United Nations has hosted two events in New York to engage the 
international community with the compact; one on September 18, 2006, 
and the other on November 13, 2006. The United Nations invited all U.N. 
member countries and the international organizations and financial 
institutions that are concerned about Iraq and the compact to these 
events. Thirty-eight countries and organizations attended the first 
event, and 78 attended the second. Iran and Syria were represented at 
both events.
    Beyond attending these two events, neither Iran nor Syria has 
played an active role in developing the compact.

    Question. Do Iran and Syria assess it in their long-term interest 
for there to be continuing instability and violence in Iraq?

    Answer. Clearly, it should be in the long-term interest of Iran and 
Syria--and of the rest of the international community--to have an Iraq 
that can govern itself, defend itself, and sustain itself. We can only 
infer what Iran and Syria assess is their long-term interest in Iraq by 
their behavior to date, which has not been constructive. Iran has 
demonstrated by its support for violence and militias that it does not 
support a free and democratic Iraq. Iran's continued support for 
networks that are using explosive devices to attack coalition and Iraqi 
personnel is a demonstration that they must regard instability and 
violence as in Iran's interest.
    Syria, on the one hand, has a record of supporting Sunni insurgents 
and has made insufficient progress in clamping down on foreign 
jihadists crossing its borders into Iraq--a major source of continuing 
violence and instability. On the other hand, the Syrians have recently 
signed a memorandum of understanding with the Iraqis to deal with 
terrorism, border, and security problems. Syria must make good on its 
commitments to Iraq. We hope that both Iran and Syria will end their 
destabilizing behavior and become a positive influence on Iraq.

    Question. How would Iran and Syria react to the credible threat of 
a United States redeployment from Iraq? Would this prompt them to 
further destabilize Iraq? Would this pressure them to seek means to 
stabilize the situation for fear of a spillover of violence?

    Answer. In the absence of United States and coalition forces in 
Iraq, we have no reason to believe that Iran or Syria would suspend 
their destabilizing actions. Quite to the contrary, it appears likely 
that Iran and Syria would fill the vacuum left by a U.S. withdrawal 
from Iraq and increase their unhelpful, destabilizing interference in 
Iraq's internal affairs.
    Senior Iranian and Syrian Government officials have made clear in 
recent statements that they actively seek U.S. withdrawal from not only 
Iraq, but also the entire region. We believe that redeploying forces 
from Iraq prematurely would thus send the wrong message not only to 
Tehran, but also to key gulf allies who feel increasingly concerned by 
the Iranian regime's aggressive regional policy.

    Question. What steps is the United States Government making to 
weaken the Kurdistan Workers' Party (PKK) in northern Iraq? What is the 
likelihood of a Turkish military intervention against the PKK in 
northern Iraq?

    Answer. The PKK is a Foreign Terrorist Organization as defined by 
U.S. law. We have worked closely with our allies to convince them to 
take a tough stance against the organization and dry up its sources of 
support.
    To intensify our work with both the Turkish and Iraqi Governments, 
on August 28 the Secretary appointed a Special Envoy for Countering the 
PKK, (Ret.) GEN Joseph Ralston, to focus on this problem. General 
Ralston is working closely with his Turkish counterpart, General Baser, 
and Iraqi interlocutor, Minister al-Waeli. Since his appointment as 
Envoy, General Ralston has traveled repeatedly to the region and 
attempted to engage productively with both the Turks and the Iraqis.
    General Ralston has engaged the Turkish and Iraqi Governments as 
well as officials of the Kurdistan Regional Government. His 
conversations have focused on building confidence between Turkey and 
Iraq and obtaining cooperation to fight against the terrorist Kurdistan 
Workers Party, which is using northern Iraq as a base of support for 
attacks against Turkey. Since General Ralston launched his efforts, our 
Embassy in Baghdad has worked closely with the Iraqis and Turks. As a 
result of these efforts, the Government of Iraq has shut down several 
PKK front offices in Iraq and begun closing down Makhmour refugee camp. 
We also continue to work with our European allies to curb terrorist 
financing of PKK activities.
    Turkey remains a close ally of the United States and works with us 
on many issues. Turkey is supportive of the President's goal of a 
united, stable, and prosperous Iraq. We do not expect Turkey to take 
any action that would undermine this goal. In fact, Turkey is working 
with us and the Government of Iraq, permiting the transit of military 
sustainment cargo, promote trade, and encouraging national 
reconciliation.

    Question. Three estimates have been produced on the number of Iraqi 
civilians killed in violence in 2006. The United Nations Assistance 
Mission for Iraq (UNAMI) estimated 34,452; a compilation of data from 
Iraqi Health, Interior, and Defense Ministries puts the number at 
12,357; another estimate by the Iraqi Health Ministry put the number at 
22,950.

  <bullet> Which of these is the most accurate figure in your 
        estimation and why?
  <bullet> What is the State Department's estimate for the number of 
        Iraqi civilians killed in 2006?
  <bullet> Does the administration have a quantitative definition for 
        what would constitute a civil war in Iraq?
  <bullet> Does the administration consider Iraq to be in the state of 
        civil war?
  <bullet> How many Iraqis have been displaced from their homes since 
        the February 2006 bombing at the al-Askariya Mosque in Samarra?
  <bullet> How many have been displaced in Baghdad?

    Answer. While we are aware of the different estimates of several 
organizations and are quite mindful that thousands have died needlessly 
at the hands of extremists, the United States maintains no 
independently developed assessment of Iraqi fatalities.
    The current sectarian violence in Iraq is now the main threat to a 
stable, peaceful future. There are several varying academic definitions 
for what constitutes a civil war. However, such definitions and labels 
are not nearly as important as what we and the Iraqis are doing 
together to stop the violence. As President Bush and Prime Minister 
Maliki have agreed in their strategy, Iraqi and American forces will 
pursue all those perpetrating violence in Iraq, regardless of sect or 
party affiliation.
    Following the February 2006 Samarra bombings, estimates of new 
internally displaced Iraqis range from 360,000 (International 
Organization for Migration-IOM) to 500,000 (United Nations High 
Commissioner for Refugees-UNHCR). This adds to a long-term caseload of 
internally displaced persons that both UNHCR and IOM estimate at 1.2 
million. In Baghdad alone, IOM has estimated nearly 20,000 Iraqis are 
displaced.

    Question. In your testimony, you said that Iraq's security 
capabilities will mature during the summer of 2007. How do you define 
mature? What do you expect the capacity of the Iraqi security forces 
will be by the summer of 2007 in terms of their ability to take over 
security responsibility from coalition forces?

    Answer. The President noted in his January 10 address to the Nation 
that the Iraqi Government plans to take responsibility for security in 
all of Iraq's provinces by November of this year.
    As to timing, a Joint MNF-I and Iraqi committee every month 
assesses which provinces and cities are eligible for this transition of 
security responsibility to Provincial Iraqi Control (PIC). To date, 
three provinces have transitioned to PIC: Muthanna in July, Dhi Qar in 
September, and Najaf in December.
    Capabilities of the Iraqi Security Forces (ISF) are one of four 
factors considered, and there is not one-to-one correspondence between 
ISF capability and GOI assumption of security. The other three factors 
are a threat assessment, the capability of Iraqi governance (especially 
at the provincial level), and the ability of MNF-I forces to support.
    With regard to control of Iraq's military, currently 5 of 10 Iraq 
divisions are now under the operational control of Iraqi Ground Forces 
Command, and more divisions are expected to transition to Iraqi command 
as forces develop. We expect all 10 Iraqi Army divisions to be under 
the control of the Iraqi Ground Forces Command by May 2007.
    Transfer to PIC and transfer of army divisional command to Iraq 
does not happen unless Iraqi forces and command relationships have 
matured sufficiently to be in a leading--as opposed to a supporting--
role.

    Question. According to the Government Accountability Office, the 
number of violent attacks per month in Iraq has increased from a few 
hundred in May 2003 to almost 6,000 in October 2003 [sic]. During this 
same period the number of trained Iraqi Security Forces has steadily 
increased to 323,000, according the State Department's reporting.

  <bullet> Given the sharp increase in the reported capacity of the 
        Iraqi Security Forces, how do you explain the continued 
        deterioration in the security conditions in Iraq?

    Answer. The deterioration in the security conditions in Iraq are 
the direct result of the acceleration of sectarian violence, especially 
in Baghdad. Provoking sectarian violence has been a long-held goal of 
al-Qaeda in Iraq. With last February's bombing of the Golden Mosque in 
Samarra, the success of their plan accelerated. Sectarian passions, 
incited to violence, now threaten to overwhelm Iraq's fragile, yet 
promising, process of reconciliation; a process that has produced 
successful elections and a new constitution, substantial agreement on a 
law to share Iraq's oil fairly, and commitment to an approach to ``de-
Baathification'' that supports broad national reconciliation goals.
    For specific information about the capacity of the Iraqi Security 
Forces, I would refer you to the Department of Defense.

    Question. In your testimony you stated that the administration is 
``further integrating [its] civil and military operations.'' Could you 
explain what this means?

    Answer. There must be the fullest possible civilian-military unity 
of effort if we are to succeed in Iraq. Reconstruction and economic 
development cannot occur in the absence of security. Once security is 
achieved, there must be an immediate, targeted civilian effort to 
capitalize on that gain to benefit the Iraqi people.
    To that end, we will immediately begin deploying greater civilian 
resources alongside our military in Baghdad and Anbar province. The 
centerpiece of this effort will be the expansion of our Provincial 
Reconstruction Teams. We will double the number of PRTs from 10 to 20, 
through a three-phase rollout program, but the extent of our deployment 
of civilian resources will depend on FY07 budget supplemental funding. 
We plan to collocate nine new PRTs with Brigade Combat Teams in Baghdad 
and Anbar. We also plan to add a new PRT in North Babil and augment 
existing PRTs with specialized civilian technical personnel, based on 
local needs. PRTs will leverage both civilian and military resources 
against a common strategic plan to sustain stability, promote economic 
growth, support Iraqi leaders who reject violence and foster Iraqi 
self-sufficiency.

    Question. You testified, ``Out of this planning process came, from 
our generals, the view that we needed to augment [the Iraqi] forces, as 
embeds, as, by the way, the Baker-Hamilton Commission recommends, as 
people who can help them with, in a sense, on-the-job training, who can 
help them to, kind of, solidify their ability to go after this.''

  <bullet> Will United States forces be under Iraqi command or 
        operational control?
  <bullet> How will the command arrangements work for embedded American 
        soldiers?

    Answer. All coalition forces and embedded transition teams with 
Iraqi Security Forces remain under the operational command and control 
of Multi-National Forces-Iraq (MNF-I) commanders. For further details 
regarding the military command and control structure, the State 
Department defers to the Department of Defense.

    Question. You said in your testimony that ``the rules of engagement 
really were the problem'' in Operation Together Forward during the 
summer and fall of 2006. Could you elaborate? What were the problems 
with the previous rules of engagement and how have they been corrected?

    Answer. In 2006, the Iraqi Government placed political limitations 
on coalition and Iraqi security operations that undermined the 
evenhanded pursuit of those engaged in violence. Some, but not all 
extremists, were approved as acceptable targets of security operations. 
The President's ``New Way Forward'' is a joint United States-Iraq 
strategy for bringing stability to Iraq, with a particular focus on 
Baghdad and Anbar province. Prime Minister Maliki has now pledged that 
no neighborhood will be beyond the reach of the Iraqi state, that the 
central government will pursue all perpetrators of violence regardless 
of sect or party, and that there will not be political interference in 
security decisions. President Bush and Secretary Rice have both made 
very clear that the Iraqi Government must fulfill this pledge for the 
``New Way Forward'' to be successful.

    Question. In increasing the number of forces in Baghdad, how will 
the administration ensure perceptions of evenhandedness in cracking 
down on Sunni insurgent and terrorist groups and Shiite militias? How 
will American forces avoid becoming embroiled in Baghdad's sectarian 
violence?

    Answer. It is critically important that Iraqis and Iraq's neighbors 
perceive that both Iraqi and American security forces are acting in an 
evenhanded manner against all those who perpetrate violence regardless 
of sect or party affiliation. Both President Bush and Prime Minister 
Maliki are committed to pursuing ``The New Way Forward'' in such an 
even-handed manner. Prime Minister Maliki has made it clear, publicly, 
to the Iraqi people that security operations in Baghdad will make no 
distinction between Shia, Sunni, or other types of illegal militia or 
illegal activity. He further stated that the Baghdad security plan will 
not permit a safe haven for any outlaws regardless of their sectarian 
or political affiliation, nor will there be political influence in 
security decisions. President Bush has made similar commitments to the 
American people.
    American and Iraqi security forces will operate jointly to ensure 
that they are pursuing a unified, evenhanded approach to securing 
neighborhoods and targeting those engaged in violence. At the highest 
levels, American and Iraqi commanders will work together to plan 
operations. On the ground, there will be American advisors embedded in 
all Iraqi units. The establishment of joint security stations in each 
of the nine Baghdad districts to be manned with Iraqi police, Iraqi 
Army, and coalition forces should also minimize the likelihood any unit 
will act in a sectarian manner.

    Question. You testified that during Operations Together Forward I 
and II ``there were not enough reliable Iraqi forces.''

  <bullet> How has this problem been remedied?
  <bullet> How many politically reliable Iraqi Army and police do you 
        assess there to be?
  <bullet> How many Iraqi security forces do you expect will be in 
        Baghdad as part of the new plan? Which units will participate? 
        What is the readiness levels and sectarian composition of the 
        units?

    Answer. The President laid out a revised military approach when he 
addressed the Nation on January 10 and announced a new strategy, ``The 
New Way Forward,'' in Iraq. As part of this joint United States-Iraqi 
plan, Prime Minister Maliki has committed to deploy three additional 
Iraqi Army Brigades to Baghdad. The Prime Minister has restructured the 
command arrangements in Baghdad, with one overall military commander, 
two subordinates, and an Iraqi Army Brigade assigned to each of the 
nine districts in the city. Joint security stations manned with Iraqi 
police, Iraqi Army, and coalition forces should minimize the likelihood 
any unit will act in a sectarian manner.
    Details of Iraqi unit participation, sectarian composition, and 
overall planned force strength in Baghdad have not been released by the 
Government of Iraq. I would refer you to the Department of Defense for 
readiness levels of Iraqi units, which are assessed by Multi-National 
Forces-Iraq (MNF-I).

    Question. In June, Prime Minister Maliki offered a 24-point 
National Reconciliation Program.

  <bullet> To date, how successful has this program been?
  <bullet> What have been the areas of notable progress and what are 
        the continuing challenges?
  <bullet> In the light of Prime Minister Maliki's new strategy, does 
        this 24-point remain operative?

    Answer. Since PM Maliki launched his National Reconciliation plan 
on June 25, the Iraqi Government, through the Ministry of National 
Reconciliation, sponsored three out of four in a series of 
reconciliation conferences across Iraq--for tribal leaders, civil 
society organizations, and political parties. The fourth conference for 
religious leaders is tentatively scheduled for this month. In addition, 
the Prime Minister has participated in a conference hosted by the 
Organization of Islamic Conference (OIC) held in Mecca, in which 
religious leaders--both Sunni and Shia--have condemned sectarian 
violence in Iraq and called for an end to bloodshed.
    The conferences have helped to encourage progress on some of the 
toughest, unresolved political issues. For example, at the political 
parties' conference in December, PM Maliki helped to further de-
Baathifciation reform by reaching out to former Baathists and inviting 
them to rejoin the military.
    The Government of Iraq is currently drafting a law to submit to the 
Council of Representatives that would reform the de-Baathificiation 
process by giving thousands of former Baathists the option of returning 
to their former government jobs or drawing a pension for their past 
government employment. The Constitutional Review Committee, which met 
for the first time on November 15, is considering amendments to the 
constitution, a process critical to keeping Iraq's Sunni Arabs engaged 
in the reconciliation process. The Iraqis are also close to completing 
a National Hydrocarbon Law, which we expect they will submit to the 
Council of Ministers shortly. A fair and equitable Hydrocarbon Law that 
gives all Iraqis a share of their country's abundant wealth will help 
support national reconciliation.
    In his new security plan, the Prime Minister stated publicly that 
he will pursue all those engaged in violence, regardless of their sect 
or party affiliation. This evenhanded approach to combating violence is 
consistent with the Prime Minister's stated national reconciliation 
goals. If the Iraqi Government successfully fulfills its pledge to 
pursue all those who perpetrate violence, it will create the conditions 
necessary to make additional political progress on critical 
reconciliation issues. It will also improve the Iraqi Government's 
credibility among its neighbors in the gulf whose support it will need 
to create a stable, prosperous future.

    Question. In your [Secretary Rice's] testimony you said that ``the 
core of the Maliki plan has really been preserved'' in the plan of the 
administration. What are the differences in the two plans? What changes 
were made to the Maliki plan? What specific commitments has Prime 
Minister Maliki made to assure the success of the new Baghdad Security 
Plan? What specific commitments has he given to you [S], President 
Bush, or other senior members of the administration that he will crack 
down on the Jaysh al-Mandi? What public statements has he made 
indicating his willingness to crack down on the Jaysh al-Mandi by name?

    Answer. The current Baghdad Security Plan is the result of a 
collaborative effort. In reviewing PM Maliki's plan, MNF-I assessed 
that the Iraqi Security Forces (ISF) were not yet capable of doing all 
the tasks, and as a result the current plan has a larger supporting 
role for MNF-I than first envisioned.
    The Prime Minister assured President Bush that there would be even-
handedness in pursuing all involved in violence. Maliki has said that 
his government will make no exception for any group or individual 
regardless of sect or party affiliation. We expect him to apply this 
principle universally, including to the Jaysh al-Mandi (JAM).
    The Prime Minister assured the President that there would be no 
political interference with military command decisions.
    He also pledged to provide three additional brigades to implement 
the new Baghdad Security Plan.
    Prime Minister Maliki stated publicly on January 26 that: ``The 
Baghdad security plan is now ready, and we will depend on our armed 
forces to implement it with multinational forces behind them . . . ISF 
will carry out the plan to restore security for Baghdad, will punish 
outlaws or those who work according to political or sectarian bias . . 
. The ISF will be above politics. Political parties and political 
organizations are barred from political activities among the armed 
forces . . . Iraq will not allow militias, regardless of sect, to 
replace the function of the state or interfere with security.''

    Question. In your testimony you spoke of ``surging'' the civilian 
efforts of the Department of State. How many American diplomats does 
the State Department have in Iraq? By what amount will these numbers 
increase? Where will they serve? How many will be placed in Provincial 
Reconstruction Teams? How much experience does the average PRT team 
leader have?

    Answer. Based on the latest staffing figures, there are 334 State 
Department employees on the ground at Embassy Baghdad, and an 
additional 46 State Department employees in Regional Embassy Offices 
and Provincial Reconstruction Teams (PRTs). Other federal agencies, 
such as DOD and the Department of Justice also have employees working 
at the Embassy and other sites, who serve under Chief of Mission 
authority.
    We do not anticipate any major staff increases in Embassy Baghdad 
at this time, but we are establishing new PRTs in Anbar, Baghdad, and 
North Babil. We also plan to augment several existing PRTs in Anbar, 
Baghdad, Diyala, Salah ad-Din, Ninawa, Kirkuk, Babil, Dhi Qar, and 
Basrah.
    We are currently reviewing the requirements, both here in 
Washington and with Embassy Baghdad. In total, we expect to add more 
than 300 civilian employees in these PRT locations. Some will be State 
Department Employees, including 10 Senior Foreign Service Officers and 
specialized direct hires, who will establish the new Provincial 
Reconstruction Teams. Other team members will come from USAID, DOD, 
Federal Agencies, and contractors.
    PRT leaders are highly competent Senior Foreign Service Officers 
with extensive overseas experience and proven records of leadership. 
They can call on the special expertise of their team members, who 
include experienced city managers, engineers, and others.

    Question. In his January 10 speech, President Bush stated his 
intention to seek $1.2 billion in additional economic and 
reconstruction funds. According to a January 2007 Government 
Accountability Office report, ``as of August 2006, the government of 
Iraq had spent . . . 8 percent of its annual capital goods budget and 
14 percent of its annual capital projects budget. Iraq's fiscal year 
begins on January 1 of each year.'' The report found that in the 
Ministry of Oil of a $3.533 billion capital budget only $4 million had 
been expended. Given these funding shortfalls on the Iraqi side, what 
is the rationale for additional United States reconstruction assistance 
for Iraq?

    Answer. In his January 10 speech, the President stressed the 
importance of our improving the ability of the Iraqi Government to meet 
the basic needs of its people, although he did not mention a specific 
assistance figure for any future budget requests.
    The Iraqi Government must do its part to invest in its own economic 
development and to follow through on our joint strategy. The Government 
of Iraq is committed to spending $10 billion this year to help create 
jobs and further national reconciliation. However, Iraq faces major 
challenges in designing and executing its capital budget. Simply put, 
Iraq has available assets, the product of last year's underspent budget 
and profits from higher than anticipated oil prices, but they do not 
have the mechanisms to spend them--especially with the speed necessary 
for post-kinetic stabilization in Baghdad and Anbar. Iraq must develop 
the means to put its money to use, both for short-term ``build'' 
efforts and longer term capital investment.
    There are several obstacles to better budget execution, including 
technical problems, such as the lack of the ability to obligate money 
for multiyear projects, and a lack of training and equipment to process 
the transactions. The Iraqis are taking steps to address this problem, 
such as draft 2007 budget provisions that permit the Ministry of 
Finance to reallocate funding from any ministry that is unable to spend 
it promptly. If the USG does not continue to provide assistance to the 
Iraqi Government, the Iraqis will not be able to develop the mechanisms 
they need to spend effectively their own budget. While we cannot spend 
their money for them, we must help them get on the path to self-
sufficiency.
    To help the Iraqi Government improve budget execution and take on 
more responsibility for Iraq's own economic future, Secretary Rice has 
appointed Ambassador Tim Carney as her new Coordinator for Economic 
Transition. Ambassador Carney is now in Baghdad helping the Government 
of Iraq meet its financial responsibilities, specifically on budget 
execution, job creation, and capital investment projects.
    Continued United States assistance is vital to help Iraq address 
these problems and allow it to meet the myriad needs of its people. 
Beginning in FY 2006, we have shifted the emphasis of our assistance 
away from large reconstruction projects toward programs designed to 
increase Iraqi capacity to govern at the national and local level. 
Continued U.S. assistance is vital to establish firmly the roots of 
democratic and representative governance, to support moderate political 
forces, to continue economic reforms, and to establish competent and 
representative government. It is a critical component of the 
President's ``New Way Forward'' strategy to bring stability to Baghdad 
and the rest of Iraq.

    Question. How deep is the Iraqi support for both the 
administration's new plan and Prime Minister Maliki's security plan?

  <bullet> Which factions have been publicly supportive and which have 
        opposed?
  <bullet> How much support do the plans enjoy beyond the office of the 
        Prime Minister?
  <bullet> How much support is there for the plans from the GCC+2?

    Answer. PM Maliki, in his role as Iraq's commander in chief, agreed 
to the troop increase as part of the Iraqi security plan and on the 
basis of advice from his military and defense advisors, including 
Minister of Defense Abd al-Qadir al-Mufraji. Other members of the Iraqi 
body politic were consulted about the decision, and some leaders, such 
as Vice President Tariq al-Hashimi, supported the plan, while others 
were more cautious.
    The Prime Minister presented the new Iraqi security plan to the 
Iraqi Council of Representatives (CoR), which approved it on January 26 
following a vigorous debate. The plan's strongest support came from 
Shia and Kurdish blocs. Some Sunnis in the CoR criticized the plan's 
details, claiming it specifically targets Sunnis and Sunni 
neighborhoods. Prime Minister Maliki, who attended the CoR session to 
present his argument for the plan, responded to such criticisms by 
explaining that the new security plan targets ``all who stand in the 
way of the law,'' despite sect, religion, or nationality. The plan's 
ultimate passage, though, demonstrates support within the Iraqi 
Government and the Council of Representatives.
    During their last meeting, the GCC+2 participants agreed that it 
was in the interest of all countries for there to be a stable, 
prosperous, and unified Iraq, based on respect for Iraq's territorial 
integrity, unity, and sovereignty. They expressed their readiness to 
support Iraq's efforts in this regard. While supportive of the security 
plan laid out by President Bush on January 10, the GCC+2 have expressed 
skepticism about the intentions of the Iraqi Government, and want the 
Iraqi Government to demonstrate through its actions on the ground that 
it is a truly national, rather than a sectarian, government.

    Question. You testified that there is a ``new alignment'' of forces 
in the Middle East pitting ``reformers and responsible leaders'' 
against extremists, of every sect and ethnicity, who use violence to 
spread chaos, to undermine democratic governments, and to impose 
agendas of hatred and intolerance.

  <bullet> On which side of the divide to place Muqtada al-Sadr? Jaysh 
        al-Mandi? The Badr Organization?
  <bullet> How would you characterize Prime Minister Maliki's 
        relationship with Muqtada al-Sadr?
  <bullet> What is the relationship between the Iraqi Ministry of 
        Interior and the Badr Organization and the Jaysh al-Mandi?

    Answer. Any individuals or groups regardless of party or sectarian 
affiliation, who reject violence and pursue their agendas through 
peaceful democratic means can be part of the new alignment. Supporters 
of Muqtada al-Sadr have joined the political process and are part of 
United Iraqi Coalition (UIC) of which the Prime Minister and his party, 
Dawa Islamiya, are also a part. The Sadrists have about 30 seats in the 
Iraqi Parliament and have 6 ministers as part of the Iraqi Government. 
Muqtada al-Sadr's supporters have chosen to be part of the political 
process and it is up to him to remain a part of the political process. 
Sadr appeared to reaffirm his commitment to the political process when 
he ordered his members of the Council of Representatives (CoR) to 
return after boycotting the sessions in late November.
    We assess that Prime Minister Maliki and Muqtada al-Sadr have good 
relations. PM Maliki believes the right course is to engage Sadr 
politically and to try to engage him constructively in the political 
process and to dissuade him from supporting violence. PM Maliki 
believes he needs the support of a unified UIC in the Council of 
Representatives (CoR), and works closely with all the major factions in 
the UIC, including the Sadrists, in order to keep their support. Sadr 
himself has not aspired to political office. Instead, he has asked his 
followers to support other leaders for office, such as PM Maliki.
    The Iraqi Government needs to have a monopoly on the legal use of 
armed force. This means that the Jaysh al-Mandi or any militia cannot 
continue to take orders from anyone other than the Iraqi Government. 
Rogue elements must be reined in. This needs to be done by the Iraqis, 
and quickly.
    In 2003, the Badr Organization announced it had officially 
disbanded its militias. However, reports suggest that elements within 
the Badr Organization are still active, and we have raised our concerns 
with the senior leaders of the Organization and with SCIRI.
    The Iraqi Ministry of Interior has hired former members of the Badr 
Organization and members or former members of JAM as part of the police 
force. Some elements from both Badr and JAM have infiltrated the 
security ministries, in particular the Ministry of Interior. We are 
working closely with the Iraqi Government, particularly the Minister of 
Interior, to reform the Ministry of Interior and police, and to find 
ways to improve the screening process of those who seek to join the 
police and security forces in Iraq.
                                 ______
                                 

Responses by Secretary of State Condoleezza Rice to Questions Submitted 
                        by Senator Richard Lugar

    Question. With only the kind of recruiting effort that comes from 
phone calls from you, yourself, has State been able to meet its 
staffing goals in Iraq.
    Other agencies have also had significant challenges in meeting 
staffing targets--both budgetary (no international emergency line items 
in their budgets) as well as legal (the President cannot order 
civilians to war, they must volunteer, adding to the time it takes to 
deploy).
    Is the President seeking changes to these authorities? What is your 
vision for fulfilling the civilian mandate?
    Will you or other Cabinet Secretaries begin directed assignments?

    Answer. Fully staffing our most critical posts, including Baghdad 
and the Provincial Reconstruction Teams (PRTs) in Iraq, is one of our 
highest priorities. We have made changes to our Foreign Service bidding 
and assignments process and offered a generous incentive package to 
encourage bidders to volunteer for service in Iraq. Even without 
personal phone calls, State Department employees have willingly 
responded to the call for service and have volunteered to serve at even 
the most difficult and dangerous posts abroad.
    In the current assignments cycle, we have already filled 89 percent 
(156 positions out of 176) of Foreign Service positions in Iraq for 
summer 2007. For Embassy Baghdad, we have committed candidates for 117 
out of 128 jobs. For the Iraq PRTs, we have 39 committed candidates for 
48 jobs. Personnel in Baghdad are also being provided the opportunity 
to serve at PRTs and will be able to extend their assignments if they 
wish to do so. The Bureau of Human Resources, the Bureau of Near 
Eastern Affairs, and senior leaders in the Department are reaching out 
to potential candidates to fill the remaining positions. We are also 
looking at qualified Civil Service employees or Eligible Family Members 
to fill some positions in Iraq on limited noncareer appointments. I am 
confident that these positions will be filled.
    At this time, the Department is not seeking any additional 
authorities related to assignments. The administration has sought 
various legislative changes to improve the incentives for overseas 
service. A number of these incentives were included in the FY 2006 
Emergency Supplemental Appropriations Act (P.L. 109-234). During this 
Congress, the Department will continue to pursue Foreign Service 
Modernization to make services abroad more attractive and to reduce the 
18.6-percent pay gap for overseas service. Other proposals may also be 
forthcoming, as we reevaluate the existing incentives for hardship 
service and determine if other legislative changes are needed to 
support and compensate our employees who serve in the most difficult 
posts overseas.
    The Department's FY 2007 supplemental request for operations 
includes funds to enable State to reimburse other civilian agencies for 
personnel they make available for service in Iraq. We believe that this 
will overcome a significant obstacle to recruiting qualified personnel 
from other agencies.
    To date, we have not had to utilize directed assignments to meet 
our staffing needs in Iraq. We are prepared to direct the assignment of 
Foreign Service members should that become necessary. Our goal, 
however, is continuing to fill the positions in Iraq and in all of our 
missions around the world with qualified, willing employees who can 
carry out our crucial U.S. foreign policy objectives overseas. 
Questions about other Cabinet Secretaries' decisions to direct 
assignments of their employees may be best addressed by those agencies 
directly.

    Question. What are the political trends outside Baghdad? Have the 
PRTs been effective in empowering moderate parties? Is that a part of 
the mandate?

    Answer. Political trends outside of Baghdad vary from province to 
province. Parts of Iraq, such as the Kurdistan region, are enjoying 
relative security and prosperity. Ninawa, Tamim (Kirkuk), and Salah al-
Din have occasional acts of terrorism, but political life continues 
despite this. In Anbar and Diyala, acts of violence are disrupting 
political life. In south-central Iraq, sectarian violence is 
negligible, but there have been sporadic episodes of Shia-on-Shia 
violence between Badr Organization and Jaysh al-Mandi elements, or 
involving fringe groups, such as the Soldiers of Heaven just outside of 
Najaf. In Basrah, militias and political disputes play a negative role 
on the political development of that province.
    The President has decided to expand the size and reach of the PRTs 
due to their success in building Iraqi capacity and self-sufficiency to 
date. Since 2005, PRTs have invested effectively in moderate Iraqi 
leaders on the local level by:

  <bullet> Reaching out to local and provincial leaders (including 
        grassroots groups) who want to make a difference in making 
        Iraq's democracy work;
  <bullet> Conducting extensive training in governance and municipal 
        planning for provincial, district, and subdistrict offices;
  <bullet> Working with Provincial Reconstruction Development 
        Committees to improve the provincial governments' ability to 
        identify and prioritize systematically the reconstruction and 
        development needs of their provinces and to improve the 
        delivery of essential services;
  <bullet> Facilitating better working relationships between provincial 
        leaders and their counterparts in the central government, 
        improving their ability to secure funds from the centre to pay 
        for provincial projects.

    A core objective of the President's new strategy is to empower 
moderates--those Iraqis who renounce violence and pursue their 
interests peacefully, politically, and under the rule of law. The 
expanded PRT program will be central to that effort. PRTs will support 
local, moderate Iraqi leaders through targeted assistance, such as 
microloans and grants to foster new businesses, create jobs, and 
develop provincial capacity to govern in an effective, sustainable 
manner. The expanded PRT program will be central to that effort. PRTs 
will support local, moderate Iraqi leaders through targeted assistance, 
such as microloans and grants to foster new businesses, create jobs, 
and develop provincial capacity to govern in an effective, sustainable 
manner.

    Question. Can you describe recent efforts we have heard about in Al 
Anbar province to reach out to disenfranchised Sunni Shaikhs? Are these 
having any measurable effects politically or against al-Qaeda--Iraq? 
How can we keep from being used as one of our witnesses yesterday 
suggested may be happening?

    Answer. In early 2006, several tribes, including those who have 
links to insurgent groups, began efforts to root out foreign militants 
in their region. Some of these tribal leaders have met with Prime 
Minister Nuri al-Maliki in a show of support for his government and in 
an effort to become involved in the political process. Many of these 
tribal shaikhs have concluded that they can no longer watch the 
destruction of their areas. They see no positive future with al-Qaeda.
    Although parts of Anbar remain dangerous, in particular in the 
areas immediately surrounding Ramadi, we have started to notice some 
improvement, such as additional shops opening and an increase in the 
number of the police force in Anbar province in general. USG-sponsored 
reconstruction programs have already begun in parts of Anbar. Anbar 
province enjoys perhaps the highest level of electricity anywhere in 
Iraq. We hope that more tribal leaders will be motivated to join the 
process after witnessing the tangible improvements brought about by 
reconstruction programs.

    Question. In your strategic review, has anyone modeled the negative 
economic impacts a precipitous withdrawal and collapsed state would 
mean to the region and the world?

    Answer. We are unaware of any formal models, econometric or other, 
of the negative economic impacts that a precipitous U.S./coalition 
withdrawal from Iraq and the (probable) ensuing collapse of the Iraqi 
state would mean to the region and the world. The impacts modeled would 
depend on the model's assumptions. However, if a U.S./coalition 
withdrawal was followed by the collapse of the Iraqi state, then that 
would almost certainly cause a serious decline in Iraqi oil output for 
some period of time.
    International oil markets would be most affected by a collapse 
scenario. The loss of Iraq's oil from world markets could have a 
serious impact on the world oil market, both from the immediate 
shortage and from the higher ``risk premium'' that the market would 
demand. However, this could be mitigated by the current excess capacity 
in world oil production (e.g., Saudi Arabia's excess production 
capacity of about 2 million barrels per day is greater than Iraq's 
production for world markets of 1.5 million barrels per day). In 
addition, in any serious disruption of oil supplies, one option is that 
the members of the International Energy Agency could consider a 
drawdown of oil stocks.
    Collapse of the Iraqi Government would also almost certainly result 
in a major outflow of refugees. The economic consequences for 
neighboring countries (Iran, Jordan, Kuwait, Saudi Arabia, Syria, and 
Turkey) would be severe, as they struggled to provide food, shelter, 
and security. In addition, Iraq's neighbors export and transship 
significant amounts of goods of all types to Iraq and would be affected 
by an Iraqi collapse.

    Question. One of our witnesses yesterday brought up the Iraq 
compact. Can you share specifics on that with us for the record?

    Answer. The International Compact with Iraq (ICI) is a framework 
for the international community to support the Government of Iraq in 
exchange for Iraq making a series of commitments to essential economic 
initiatives and reforms--including and extending beyond Iraq's 
commitments under its IMF Stand-By Arrangements (SBA). The ICI also 
defines the political and security context required for the economic 
reforms to succeed. Iraq developed the ICI with the support of the 
United Nations, World Bank, IMF, and its major international donor 
partners. International contributions for the ICI will come in a 
variety of forms, including technical support, debt forgiveness, loans, 
private investment, and grants. The ultimate goal of the ICI is to set 
Iraq on a path to financial and economic self-sufficiency.
    The ICI demonstrates the increasing capabilities and determination 
of the Iraqi Government to determine its future. The goals, 
commitments, and benchmarks in the ICI were primarily developed by the 
Iraqis themselves, and the ICI document has been approved by Iraq's 
Council of Ministers. Iraq is already moving forward to implement 
aspects of the ICI, for example, its progress to develop a new 
hydrocarbons law.
    The next step is for Iraq and the United Nations to convene a 
meeting to close the text of the ICI documents. At that time, the ICI 
document and annexes will be publicly released in final form for review 
by the international community in anticipation of a high-level 
international conference for formal adoption of the ICI in the near 
future.
    More information about the work to develop the ICI can be found at 
www.IraqCompact.org (a Web site maintained by the United Nations).

    Question. Please provide for the committee the latest draft of the 
hydrocarbons law and relevant details of negotiations.

    Answer. The Government of Iraq and the Kurdistan Regional 
Government have made significant progress in narrowing their 
disagreements. We expect them to submit a completed draft law to the 
Council of Ministers (their Cabinet) shortly and to the Council of 
Representatives (their Parliament) sometime in March. However, 
differences remain over where to draw the lines of authority for 
approving exploration and production contracts. The Iraqi negotiators 
are hard at work resolving these differences.
    Due to the ongoing nature of the negotiations, the U.S. Government 
does not have an up-to-date draft of the law. Based on our 
conversations with Iraqi officials, we understand the current version 
contains the following elements:
          (1) A framework for developing Iraq's oil and gas sector, 
        based upon free market principles and encouragement of private 
        sector investment;
          (2) A set of governing principles and broad organization of 
        the sector;
          (3) Key principles for revenue sharing, including, that after 
        funding of its national responsibilities, the central 
        government will collect and distribute revenue to local 
        authorities according to a formula that will include population 
        as a basis.

    The law also stipulates that separate, complementary laws will 
follow the main hydrocarbon law and will contain the following 
elements:
          (1) Specific implementation details on revenue sharing;
          (2) Definition of the roles of the Iraqi National Oil Company 
        and the Ministry of Oil;
          (3) There could also be subsequent legislation on petroleum 
        taxation.

    Question. Each nation in the region has its own interests in mind 
when it comes to a particular outcome in Iraq. Other than Iran and 
Syria, what indications do we have from regional leaders that they are 
willing to put Iraq's interests first? Are they taking any constructive 
steps worth mentioning?

    Answer. Iraq does not exist in isolation from the region. 
Overcoming governance and security challenges will require the help and 
support of its neighbors. On governance issues, the international 
community can have a large impact through its participation in the 
International Compact with Iraq (ICI). Under the ICI, Iraq has 
committed to a series of primarily economic reforms that will allow it 
to become self-sufficient over the next 5 years. In exchange, its 
international partners will support Iraq through new assistance to 
Iraq, debt forgiveness, and investments. The compact provides a 
framework for Iraq's economic transformation and integration into the 
regional and global economy. We expect the compact to be completed and 
signed in the coming months.
    On security, Iraq's neighbors can be helpful by supporting the 
Iraqi Government and stopping the flow of terrorists elements across 
their borders. While we are working with our partners in the region to 
strengthen peace, two governments--Syria and Iran--have chosen to align 
themselves with the forces of violent extremism in Iraq and elsewhere. 
The problem is not a lack of dialog, but a lack of positive action by 
those states.
    As you know, I recently returned from travel to Egypt, Saudi 
Arabia, and Kuwait to urge support for the Government of Iraq and the 
new strategy. My interlocutors expressed their strong concern over the 
growth of negative Iranian involvement in Iraq and al-Qaeda terror. At 
the same time, they made clear their concern that the current Iraqi 
Government was acting in a manner that reflected a sectarian rather 
than national agenda.
    We understand these concerns and we believe the Iraqi Government 
understands them as well. Prime Minister Maliki and his government have 
pledged not to tolerate any act of violence from any community or 
group. That means that all those engaged in killing and intimidation, 
whether Shia or Sunni, need to be confronted.
    Only through new facts on the ground--tangible evidence of action 
against all those who pursue violence can the Government of Iraq 
establish the credibility at home and abroad that it needs to chart a 
successful future.

    Question. An important element in planning successfully is 
sequencing. Can we bring the proper resources to focus at the right 
time? Can the Iraqis and we maintain the ``hold'' long enough to build? 
What should that building entail? As you understand it, would this be 
done by uniformed forces, civilians, or Iraqis?

    Answer. As you know, the President has decided to augment our own 
troop levels in Baghdad and Anbar by 21,500. The mission of this 
enhanced force is to support Iraqi troops and commanders, who are now 
in the lead, to help clear and secure neighborhoods, protect the local 
population, provide essential services, and create conditions necessary 
to spur local economic development.
    The Department of State is contributing robustly to this effort by 
expanding our present close coordination with our military counterparts 
in and outside of Baghdad, and with the Iraqi Government to capitalize 
on security improvements by creating jobs and promoting economic 
revitalization. There must be the fullest possible civilian-military 
unity of effort if we are to be successful.
    To that end, we will immediately deploy greater resources alongside 
our military in Baghdad and Anbar. The centerpiece of this effort will 
be our expansion of our Provincial Reconstruction Teams. We will double 
our PRTs from 10 to 20, adding more than 300 new personnel. We will 
expand our PRTs in three phases with the first phase occurring over the 
next 3 months to complement our enhanced military efforts. In that 
time, we plan to colocate nine new PRTs--six in Baghdad and three in 
Anbar--with Brigade Combat Teams engaged in security operations.
    The Department will recruit and deploy senior-level Team Leaders 
for these nine new PRTs who will work jointly with brigade commanders 
to develop plans for the ``build'' phase of clear, hold, and build. 
Well-qualified officers have already stepped forward for these 
assignments.
    PRTs will target both civilian and military resources, including 
foreign assistance and the Commanders' Emergency Response Program, as 
part of a strategic plan to sustain stability, promote economic growth, 
and foster Iraqi self-sufficiency where we have made security gains.
    In the next two phases of our PRT expansion, we will add a new PRT 
in North Babil and augment our existing PRTs with specialized technical 
personnel, such as irrigation specialists, veterinarians, and 
agribusiness development experts, based on local provincial needs.
    PRTs will support local moderate Iraqi leaders through targeted 
assistance, such as microloans and grants to foster new businesses, 
create jobs, and develop provincial capacity to govern in an effective 
and sustainable way. We intend to complete all three phases of our PRT 
expansion by the end of the calendar year. Completion, however, will be 
dependent both on funding levels and circumstances on the ground.


 ALTERNATIVE PLANS: TROOP SURGE, PARTITION, WITHDRAWAL, OR STRENGTHEN 
                               THE CENTER

                              ----------                              


                   THURSDAY, JANUARY 11, 2007 [P.M.]

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:50 p.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Menendez, Bill Nelson, Casey, 
Webb, Lugar, Corker, and Isakson.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The committee will come to order. I apologize 
to our distinguished witnesses. As they know, the hearing was 
supposed to start at 2 o'clock. They--please sit, gentlemen--
they adjusted their schedules to accommodate us, and, 
unfortunately, neither Senator Lugar nor I have control over 
the Senate floor. Nor do I want it. But I truly appreciate 
their indulgence.
    This afternoon, we begin our examination of the various 
plans for securing our interests in Iraq. We obviously heard 
from ``the plan'' this morning, the plan put forward by the 
President of the United States. And I appreciate the Secretary 
coming to attempt to make a case for that plan. But, as I said 
at the outset of these hearings, in announcing these hearings, 
the process here was to get a lay of the land, to get a 
historical perspective, an intelligence perspective, which we 
did, the previous 2 days. And then we began, with the 
Secretary, to hear the credible alternatives that have been 
offered--left, right, and center--Republican, Democrat, 
Independent, think tank, and individual Members of the 
Congress--for example, Jack Murtha, at some point, will come 
and testify, and as will, I suspect, former Speaker Gingrich. 
So, the whole idea here is for the public to understand what 
the various alternatives offered by serious people are, that 
are out there, so they understand there is not only a single 
alternative--``Either you do this, or we,'' quote, ``leave,'' 
although that may be a plan, as well.
    So, today we'll hear three starkly different, but well-
informed, proposals from thoughtful and very articulate 
witnesses. While each of them has very different ideas on how 
to proceed from this point out, they're united in their 
devotion to this country and their desire to see us through 
this difficult time.
    We're going to begin today with Ambassador Peter Galbraith, 
senior diplomatic fellow with the Center for Arms Control and 
Non-Proliferation. He's also, from our perspective and the 
perspectives of the people sitting behind me--his greatest 
credential is, he was a staff member on this committee in 
decades gone by, and we're delighted to have him back. 
Ambassador Galbraith argues that we should accept a partition 
of Iraq--that has already taken place, withdraw from Arab Iraq, 
and redeploy a small force in Kurdistan that can strike at al-
Qaeda if necessary.
    Next, we will hear from Dr. Frederick Kagan, resident 
scholar at the American Enterprise Institute. Dr. Kagan has 
authored a recent study that, ``calls for a sustained surge of 
American combat forces into Iraq in order to restore and 
maintain stability and security in Baghdad, reduce sectarian 
violence, protect the Iraqi population, and help establish a 
normal life for the Iraqi people.'' I found it very 
interesting. I read your entire report, and I'm anxious to hear 
you expound on it.
    We'll then hear from Dr. Ted Galen Carpenter, the vice 
president of defense and foreign policy studies at the CATO 
Institute. Dr. Carpenter argues, and I quote, ``The President 
should begin the process of removing American troops 
immediately, and that process needs to be completed in no less 
than 6 months.''
    To state again for the record what is obvious: These are 
all very well-informed, very bright, and very patriotic 
Americans with three, essentially, totally different views as 
to how to proceed from this point. And I am confident that 
their testimony will help enlighten and inform the committee.
    I would now yield to my colleague, Chairman Lugar, if he 
wishes to make any opening statement.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    The President has offered a plan that he believes will 
advance United States interests in Iraq and the Middle East. In 
recent conversations with the President, I have tried to 
underscore the need for a thorough effort to involve Congress 
in the decisionmaking process. As we conduct dialog with the 
executive branch, Members of Congress have a responsibility to 
make informed and reasoned judgments about what the President 
is proposing. Congress must carefully study how the President's 
plan will affect the welfare of American service men and women, 
the prospects for success in Iraq, and the future of our 
broader strategic interests.
    This morning, our committee had an opportunity to engage 
Secretary Rice in a frank discussion about the President's plan 
and the situation in Iraq. This afternoon, we will continue our 
inquiry, with the help of an impressive panel of witnesses, who 
represent competing points of view.
    In my comments at the hearing this morning, I outlined what 
I believe are United States primary strategic objectives in 
Iraq, and they are: Preventing the use of Iraq as a safe haven 
or training ground for terrorism; preventing civil war and 
upheaval in Iraq from creating instability that leads to 
regional war, the overthrow of friendly governments, the 
destruction of oil facilities or other calamities; and 
preventing a loss of U.S. credibility in the region and the 
world; and preventing Iran, finally, from dominating the 
region.
    I suggest that, given these objectives, the outcome in Iraq 
is intimately connected with what happens beyond Iraq's 
borders. On this basis, I believe that any plan for Iraq must 
include a vigorous and creative regional diplomatic component 
that makes use of our strengths, including our stabilizing 
military presence in the region.
    The options that will be presented by our witnesses center 
on fundamental questions of whether the United States should 
continue its military presence in Iraq. As you make your 
arguments, I'll be interested in how you prescribe the broader 
strategic context of the Middle East that is vital national 
security. My own view is that we must have a military presence 
in Iraq indefinitely and that we ought to inform all the border 
countries of that proposition, in addition to Iraqis. The 
positioning of those forces is at issue, and hopefully you will 
have some comments about that.
    I'll look forward to your insights and our experts as they 
come along the trail throughout the hearings that Senator Biden 
has planned.
    And I thank the chairman, again, for holding this hearing 
this afternoon.
    Thank you.
    The Chairman. Thank you very much.
    Ambassador Galbraith.

STATEMENT OF HON. PETER W. GALBRAITH, SENIOR DIPLOMATIC FELLOW, 
 CENTER FOR ARMS CONTROL AND NON-PROLIFERATION, WASHINGTON, DC

    Ambassador Galbraith. Mr. Chairman, Senator Lugar, members 
of the Committee on Foreign Relations, thank you for the 
invitation to testify before this committee on alternative 
strategies toward Iraq. It's a special privilege for me to be 
here, since the committee was my professional home for 14 
years, and it is here where I had a great deal of my education 
on Iraq, as some of the more senior members of the committee 
may recall.
    I have submitted a detailed statement, together with a one-
page summary of my plan, and I hope that they will be included 
in the record of these hearings.
    The Chairman. Without objection, they will be.
    Ambassador Galbraith. And before I begin, I was asked by 
the committee staff to clarify my relationship with the 
Kurdistan Regional Government. I've sent an e-mail explaining 
this. As described in my book, I've been friends with the 
Kurdish leaders, and, for that matter, many other Iraqi 
leaders, for a very long period of time, but I do not have a 
paid relationship with the Kurdistan Regional Government.
    Iraq has broken up, and it is in the midst of a civil war. 
Reality, and not wishes, must dictate our strategy. President 
Bush's new strategy relies on two elements that simply do not 
exist: First, an inclusive national unity government in Iraq; 
and, second, Iraqi security services--that is, the army and the 
police--that are loyal to Iraq and not to their sect or ethnic 
group. The Maliki government is a sectarian Shiite government 
that is regarded as alien, and indeed even non-Iraqi, by the 
Sunni Arabs, and as irrelevant by the Kurds. The government's 
conduct--the protection of Shiite militias, its selective 
provision of government services, the manner in which it 
carried out Saddam's execution--provides no evidence that it 
can transform itself into something different from what it is.
    But even if Iraq had a genuine government of national 
unity, it would be largely irrelevant. There is no part of the 
country where the government actually exercises significant 
authority.
    In the southern half of Iraq and eastern Baghdad, Shiite 
religious parties have created local theocracies that use 
militias to enforce a version of Islamic law modeled on Iran, 
but far stricter. The much-vaunted human rights provisions of 
the Iraqi Constitution do not apply.
    Kurdistan, in the north, is a de facto independent state 
with its own army and its own flag. The Iraqi Army is barred 
from the region. Flying the Iraqi flag is prohibited, and 
central-government ministries are not present. Further, the 
Kurdish people voted, 98.5 percent for independence, in a 
nonbinding referendum held in January 2005.
    The Sunni center is a battleground between insurgents that 
command widespread local support and U.S. forces. And Baghdad 
is the front line of the Sunni-Shiite civil war. The Mahdi 
Army, the radical Shiite militia, controls the capital's Shiite 
neighbors in the east, while al-Qaeda, its offshoots, and 
Baathists control Sunni districts in the west. In Baghdad and 
in other formerly mixed areas, extremists are engaging in 
brutal sectarian cleansing, with a death toll that may well be 
in excess of 200 a day.
    Iraq's army and police reflect Iraq's divisions. They are 
either Sunni or Shiite. The Shiite police include the death 
squads that target Sunnis. In Sunni areas, the police are 
either insurgent sympathizers or insurgents. Iraq's Army, while 
somewhat better, is divided into Shiite, Sunni, and Kurdish 
battalions. They are ultimately loyal not to the nominal chain 
of command, but to their political party leaders or, in the 
case of the Kurds, to the Kurdistan Regional Government. Iraq's 
security forces are not neutral guarantors of public security, 
but combatants in a civil war. United States training has not, 
and will not, make these forces into Iraqis; it will only 
create more lethal combatants in a civil war.
    The goal of a self-sustaining, unified, and democratic Iraq 
would require a vast expansion of the United States military 
mission in Iraq, to include disarming Shiite militias, 
dismantling the theocracies, and policing Iraq's mixed areas in 
order to end the civil war. The Iraqi Government has no 
intention of taking on the Shiite militias, and Iraq's security 
forces cannot police Iraq's mixed areas, since there are no 
such forces that are trusted by both Sunnis and Shiites.
    The President's plan, in short, does nothing to stop Iraq's 
civil war or to build a unified Iraq. The alternative is to 
accept the reality that Iraq has broken up, and to work with 
its components. We should get out of the business of nation-
building in Iraq and respect the democratic decision of the 
Iraqis to have a country of very strong regions and a powerless 
center. Iraq's Constitution, adopted by 80 percent of Iraq's 
people, is a roadmap to partition. It recognizes Kurdistan as a 
self-governing region and permits other parts of the country to 
form regions. Iraq's Council of Representatives has already 
passed a law paving the way to the formation of a Shiite super-
region in the south in the next 15 months.
    Under Iraq's Constitution, regions can have their own 
armies, called regional guards, and exercise substantial 
control over their natural resources, including oil. Except for 
the short list of exclusive federal powers listed in article 
110 of the Iraqi Constitution, regional law is superior to 
federal law in Iraq. By design, Iraq's Constitution makes it 
difficult for the central government to function, and its few 
powers do not even include taxation.
    The regionalization of Iraq is a fact. It also provides the 
best hope for security, and, therefore, opens the way to a 
United States withdrawal. Without any significant coalition 
presence, Kurdistan has already made itself into the one secure 
and reasonably democratic part of Iraq. The south is also 
reasonably secure, and will become more so as it forms its 
regional institutions. No purpose is served by a coalition 
presence in the south, and it should be withdrawn immediately.
    Regionalization makes for a more effective strategy in 
combating the Sunni insurgency. Right now, U.S. forces battle 
Sunni insurgents on behalf of a Shiite-led government and a 
Shiite-dominated military. Sunnis see these forces as alien and 
dangerous. Too many Sunnis see the choice today as one between 
their own extremists and a pro-Iranian Shiite government that 
sponsors anti-Sunni death squads. The Sunni extremists are not 
trying to kill you, whereas the other guys are. By forming 
their own region, Sunni Arabs can provide for their own 
security, and there could be economic and other incentives to 
combat extremists. In my view, the United States should state 
that it will withdraw from the Sunni Arab region when a Sunni 
regional guard is established.
    So far, the Sunni Arabs have been the strongest opponents 
of federalism in Iraq. But with Kurdistan already in existence 
and a Shiite region likely on its way, the Sunnis are faced 
with a choice between governing themselves or being governed by 
a Shiite-dominated central government in Baghdad.
    The United States has one achievable overriding interest in 
Iraq today, which is to keep al-Qaeda and its ilk from having a 
base from which they can attack the United States. If Sunni 
Arabs cannot provide for their own security, then the United 
States must be prepared to reengage in the Sunni areas. This is 
best accomplished by placing a small over-the-horizon force in 
Kurdistan. Kurdistan has the Western-oriented aspiring 
democracy that the United States once hoped for all of Iraq, 
and the Kurds are among the most pro-American people in the 
world. They would welcome a United States base, not least 
because it would provide them a measure of security against 
Arab Iraqis, who may seek revenge against the Kurds for having 
collaborated with the United States in Iraq. From Kurdistan, 
the United States military could readily move back into any 
Sunni Arab area where al-Qaeda or its allies established a 
base. The Kurdistan peshmerga would willingly assist their 
American allies with intelligence and other support.
    By deploying to what is still, nominally, Iraqi territory, 
the United States would avoid the political complications in 
the United States and in Iraq involved in reentering Iraq 
following a total withdrawal. Partition, as noted by the Baker-
Hamilton Commission and by many experts, is not an easy 
solution, but many of the worst consequences of partition, 
including sectarian killing and an Iranian-dominated Shiite 
south, have already happened. And the United States has no plan 
to reverse any of this.
    Mr. Chairman, I'm often asked: What is the difference 
between the plan that you and Les Gelb have put forward and the 
plan that I have outlined? We agree that the future of Iraq is 
up to the Iraqis. You and Les Gelb are more optimistic that 
Iraq may hold together and, if you're right, I think that would 
be terrific. I'm pessimistic that the country can hold together 
over the long term. But, nonetheless, the fundamental premise 
of both plans is that the United States should not be engaged 
in nation-building in Iraq; this should be left to the Iraqis.
    Partition is an Iraqi solution. It does not require the 
United States to do anything, although we can, and should, take 
steps, diplomatically and through our financial assistance, 
that can smooth the process, and also to try to deal with the 
regional consequences.
    The alternative to partition is a continued U.S.-led effort 
at nation-building that has not worked for the last 4 years, 
and, in my view, has no prospect for success. That, Mr. 
Chairman, is a formula for war without an end.
    [The prepared statement of Ambassador Galbraith follows:]

Prepared Statement of Ambassador Peter W. Galbraith, Senior Diplomatic 
 Fellow, Center for Arms Control and Non-Proliferation, Washington, DC

    Chairman Biden, Senator Lugar, members of the Committee on Foreign 
Relations, thank you for the invitation to testify before this 
committee on alternative strategies toward Iraq. It is a special 
privilege to be here since the committee staff was my professional home 
for 14 years and it is here where I began my education on Iraq.

                  GUIDING PRINCIPLES FOR U.S. STRATEGY

    It is clear that our present strategy for Iraq has failed miserably 
both in concept and execution. Any new strategy should, I believe, be 
based on the following premises:
    First, the United States needs to extricate itself from Iraq as 
soon as feasible so that we can address other more urgent threats to 
our national security, including from nuclear North Korea and nuclear 
ambitious Iran.
    Second, any new strategy should focus on the objectives that are 
achievable in Iraq consistent with the military and other resources we 
are prepared to commit.
    Third, the starting point for any new strategy for Iraq should be 
the country as it is, not as we wish it were.

                  IRAQ: BROKEN APART AND IN CIVIL WAR

    The reality of Iraq is stark. The country has broken up and is in 
the midst of a civil war.
    In the southern half of Iraq, Shiite religious parties and clerics 
have created theocracies policed by militias that number well over 
100,000. In Basra, three religious parties control--and sometimes fight 
over--the 100,000 barrels of oil diverted each day from legal exports 
into smuggling. To the extent that the central government has authority 
in the south, it is because the same Shiite parties that dominate the 
center also control the south.
    Kurdistan in the north is de facto an independent state with its 
own army and its own flag. The Iraqi Army is barred from the region, 
flying the Iraqi flag prohibited, and central government ministries are 
not present. The Kurdish people voted 98.5 percent for independence in 
an informal referendum in January 2005.
    The Sunni center is a battleground between insurgents that command 
widespread local support and U.S. forces. The Iraqi Army, which we 
proclaim to be a national institution, is seen by the Sunni Arabs as a 
largely Shiite force loyal to a Shiite-led government that they see as 
an ally of national enemy, Iran.
    Baghdad is the front line of Iraq's Sunni-Shiite civil war. The 
Mahdi army, the radical Shiite militia, controls the capital's Shiite 
neighborhoods in the east while al-Qaeda offshoots and Baathists 
control the Sunni districts in the west. In Baghdad, and in other 
formerly mixed areas, extremists are engaging in brutal sectarian 
cleansing with a death toll probably in excess of 200 a day.

                    TWIN PILLARS OF CURRENT STRATEGY

    The Bush administration's strategy for Iraq rests on two pillars: 
First, an inclusive and effective national unity government that 
represents Iraq's Shiites, Sunnis, and Kurds; and, second, the 
development of effective Iraqi Army and police that can take over 
security responsibilities from U.S. forces.
    Iraq does not have a government of national unity. Prime Minister 
Nouri al-Maliki pursues a sectarian Shiite agenda, as seen most 
dramatically in the manner in which he carried out Saddam Hussein's 
execution. The Maliki government is keen to fight the Sunni 
insurgents--or to be more precise, to have the U.S. military fight 
Sunni insurgents--but has resisted all steps to disband Shiite 
militias. But, even if Iraq had a genuine national unity government, it 
would be largely irrelevant. There is no part of the country where the 
government actually exercises significant authority.
    Iraq's Army and police are either Shiite or Sunni. In Baghdad, the 
Shiite death squads that target Sunnis are the police. In Sunni areas, 
the police are often insurgent sympathizers or insurgents. Iraq's Army, 
while somewhat better, is divided into Shiite, Sunni, and Kurdish 
battalions. These are ultimately loyal not to the nominal chain of 
command, but to their sects, or, in the case of the Kurds, to the 
Kurdistan Regional Government. In a country in the midst of a civil 
war, it is unrealistic to believe that Iraq's security forces can 
somehow be different from the country itself.
    Iraq's security forces are not neutral guarantors of public 
security but combatants in a civil war. U.S. training has not made, and 
will not make, these forces into Iraqis. It will only create more 
lethal combatants in a civil war.
    what would be required to achieve a democratic and unified iraq
    To achieve the Bush administration's stated goal of a self-
sustaining unified and democratic Iraq, the United States would have to 
undertake two major military missions that it is not now undertaking.
    First, it would have to disarm, forcefully, Iraq's Shiite militias 
and dismantle the Shiite theocracies that these militias keep in power. 
This would bring the United States into direct conflict with Iraq's 
Shiite power structure. The Shiites are three times as numerous as the 
Sunni Arabs, possess more powerful armed forces, and have in 
neighboring Iran a powerful ally.
    Second, the United States would have to end Iraq's civil war. This 
means deploying U.S. troops to serve as the police in Baghdad and other 
mixed areas for an indefinite period of time. These are not tasks that 
can be handled by Iraqi security forces since there are no such forces 
that are trusted by both Sunnis and Shiites.
    The Bush administration has no intention of undertaking either of 
these missions which would require many more troops, mean significantly 
greater casualties (especially if we tried to use our troops as 
police), and probably not succeed.

              IRAQ'S CONSTITUTION: A ROADMAP TO PARTITION

    The alternative is to accept the reality--an Iraq that has broken 
up--and work with its components. We should get out of the business of 
nation-building in Iraq and respect the democratic decision of the 
Iraqis to have a country of strong regions and a powerless center.
    Iraq's Constitution, adopted by 80 percent of Iraq's people, is a 
roadmap to partition. It recognizes Kurdistan as a self-governing 
region and permits other parts of the country to form regions. Iraq's 
Council of Representatives has already passed a law paving the way to 
the formation of a Shiite ``super region'' in 15 months.
    Under the constitution, Iraq's regions can have their own armies 
(called Regional Guards) and exercise substantial control over their 
natural resources including oil. Except for the short list of exclusive 
federal powers listed in article 110 of the Iraqi Constitution, 
regional law is superior to federal law. By design, Iraq's Constitution 
makes it difficult for the central government to function and its few 
powers do not even include taxation.

              WITHDRAW WHERE WE HAVE NO ACHIEVABLE MISSION

    By accepting the reality of Iraq, we can see a path to withdrawal. 
The Shiite south is stable, albeit theocratic and pro-Iranian. If we 
are not going to disband the militias and local theocracies--which we 
allowed to become established during the CPA's formal occupation of 
Iraq--there is no purpose served by a continued coalition presence in 
the Shiite southern half of Iraq. We should withdraw immediately.
    In the Sunni center, our current strategy involves handing off 
combat duties to the Iraqi Army. Mostly, it is Shiite battalions that 
fight in the Sunni Arab areas, as the Sunni units are not reliable. 
What the Bush administration portrays as Iraqi, the local population 
sees as a hostile force loyal to a Shiite-dominated government in 
Baghdad installed by the Americans invader and closely aligned with the 
traditional enemy, Iran. The more we ``Iraqize'' the fight in the Sunni 
heartland, the more we strengthen the insurgency.
    If the Sunni Arabs were to form their own region, they could take 
control of their own security. Right now, the choice for ordinary 
Sunnis is between what they see as a radical Shiite government that 
sponsors anti-Sunni death squads and their own extremists. Within the 
establishment of a Sunni region, the choice becomes one between 
nationalist and traditional leadership on the one hand and the Islamic 
extremists on the other. Outsiders can influence this choice by 
providing economic incentives for a more moderate Sunni Arab 
government. The United States should state that it will withdraw from 
the Sunni Arab region when its Regional Guard is established.
    So far, the Sunni Arabs have been the strongest opponents of 
federalism in Iraq. But, with Kurdistan already in existence and a 
Shiite region likely on its way, the Sunnis are faced with a choice 
between governing themselves or being governed by a Shiite-dominated 
central government in Baghdad.

                                BAGHDAD

    Because it is Iraq's most mixed city, Baghdad is the front line of 
Iraq's Sunni-Shiite civil war. It is tragedy for its people--most of 
whom do not share the sectarian hatred that is fueling a killing spree 
that is taking several thousand lives a month. Iraqi forces cannot end 
the civil war because many of them are partisans of one side, and the 
proposed surge of U.S. troops will not end it. There is no good 
solution to Baghdad. Ideally, the United States could help broker a 
political deal for power-sharing among Sunnis and Shiites (with space 
for the much smaller Christian, Mandean/Sabean, Turkmen, and Kurdish 
communities). But, the reality is that Baghdad is already divided. A 
formal division into Shiite and Sunni sectors may be the only way to 
halt the effort by Shiite militias to enlarge the Shiite parts of the 
city.
    Unless the United States is prepared to assume long-term police 
duties in Baghdad, we should withdraw our troops from the city. If we 
withdraw, there will be sectarian cleansing of mixed neighborhoods and 
sectarian killing. And, this will be the case if we stay with our 
current forces or even after the modest surge now being discussed.

                               KURDISTAN

    Kurdistan is Iraq's most stable region. It is the one part of the 
country that is the pro-Western, secular, and aspiring democracy that 
the Bush administration had hoped for all of Iraq. The United States 
should work to strengthen democratic institutions in Kurdistan as well 
as the military capabilities of the Kurdistan military (the peshmerga) 
which is Iraq's only reliable indigenous military force.
    Iraq's Constitution provides for a referendum to be held by the end 
of this year to determine the status of Kirkuk and other areas disputed 
between Kurds and Arabs. Holding this referendum has the potential to 
increase, significantly, violence in areas that are ethnically mixed. 
On the other hand, Kirkuk has been a source of conflict in Iraq for 
seven decades. Failing to resolve the matter at a time when there is a 
constitutionally agreed process to do so is also likely to produce 
conflict and is destabilizing over the long term.
    Because of our special relationship with the Kurds, the United 
States has clout that it does not enjoy elsewhere in the country. The 
United States should engage in a major diplomatic effort to resolve the 
boundaries of Kurdistan through negotiation wherever possible. The 
Kurds, who hold the upper hand in much of this disputed territory, 
should be cautioned about the dangers of overreaching. With regard to 
Kirkuk, the U.S. diplomacy should focus on entrenching power-sharing 
among the governorate's four communities--Kurds, Turkmen, Arabs, and 
Chaldean/Assyrians--so that all have a stake in Kirkuk regardless of 
the outcome of the referendum.

                 PREVENTING AL-QAEDA FROM HAVING A BASE

    The United States has one overriding interest in Iraq today--to 
keep al-Qaeda and like-minded Salafi terrorist groups from having a 
base from which they can plot attacks on the United States. If Sunni 
Arabs cannot provide for their own security, the United States must be 
prepared to reengage.
    This is best accomplished by placing a small over-the-horizon force 
in Kurdistan. The Kurds are among the most pro-American people in the 
world and would welcome a U.S. military presence, not the least because 
it would help protect them from Arab Iraqis who resent their close 
cooperation with the United States during the 2003 war and thereafter. 
From Kurdistan, the U.S. military could readily move back into any 
Sunni Arab area where al-Qaeda or its allies established a base. The 
Kurdish peshmerga would willingly assist their American allies with 
intelligence and operationally. By deploying to what is still nominally 
Iraqi territory, the United States would avoid the political 
complications--in the United States and in Iraq--involved in reentering 
Iraq following a total withdrawal.

                        WILL IRAQ STAY TOGETHER?

    Can Iraq survive as a loose federation? Over the short term, Iraq's 
Kurdish and Shiite leaders are committed to the constitutional 
arrangements while the Sunni Arabs say that they want a more 
centralized state. Both Sunni Arabs and Shiites identify as Iraqis, 
although they have radically different visions as to what Iraq should 
be. The creation of Sunni and Shiite federal units, therefore, is not 
likely to lead to a full separation. Rather, by giving each community 
their own entity, federalism can help avoid the alternative where 
Sunnis and Shiites fight a prolonged civil war for control of all Arab 
Iraq.
    The Kurds do not identify as Iraqis. They associate Iraq with 
decades of repression and with Saddam Hussein's genocide. Almost 
unanimously, Iraqi Kurds want their own independent state. Keeping 
people in a state they hate is a formula for never ending conflict of 
the sort that has characterized the entire history of modern Iraq. The 
United States may--and for the time being probably should--delay 
Kurdistan's full independence, but we cannot prevent it. Our real 
interest is in preventing the violent break up of Iraq, and not in 
holding together a country that brought nonstop misery to the majority 
of its people for its entire history.
                                 ______
                                 

     Partition and Withdraw: A Strategy to Get the U.S. Out of Iraq

    Summary: Accept the partition of Iraq that has already taken place, 
withdraw from Arab Iraq, and redeploy a small force to Kurdistan that 
can strike at al-Qaeda if necessary.
    Key Facts: Iraq has broken up and is in the midst of a civil war. 
Kurdistan in the north is a de facto independent state with its own 
army. The Shiite south is governed separately from Baghdad. The Iraqi 
Parliament has approved a law paving the way for the formation of a 
Shiite ``super region'' in 15 months. The Sunni center is a 
battleground and Baghdad is the front line of the Sunni-Shiite civil 
war.
    Iraq's Constitution ratifies the country's partition, recognizing 
Kurdistan as a self-governing region and permitting other parts of the 
country to form regions. Under the Constitution, Iraq's regions can 
have their own armies (called Regional Guards) and exercise substantial 
control over their natural resources including oil. Except for the 
short list of exclusive federal powers listed in Article 110 of the 
Iraqi Constitution, regional law is superior to federal law. By design, 
Iraq's Constitution makes it difficult for the central government to 
function and its few powers do not even include taxation. To achieve a 
unified and democratic Iraq, the United States would have to use its 
military to end the civil war, build a strong central government over 
the objections of the Kurds and many Shiites, and be prepared to remain 
in Iraq indefinitely. Even so, the prospects for success would be 
minimal.
    Policy Recommendations:
    1. Accept the reality of partition and work with the regions that 
emerge to develop stable regional governments with competent security 
forces.
    2. Use deplomacy to smooth the path to partition by helping resolve 
territorial disputes between regions, and notably between Kurdistan and 
Arab Iraq over Kirkuk.
    3. Facilitate a solution to Baghdad either by devising a plan for 
power sharing between Sunnis and Shiites in the city or by dividing it 
along current sectarian boundaries.
    4. Mitigate the humanitarian consequences of Iraq's civil war with 
assistance to displaced populations.
    5. Withdraw coalition forces immediately from Iraq's Shiite south 
where they are not needed for stability.
    6. Withdraw rapidly from most of Baghdad recognizing that the U.S. 
military is not prepared to become the police of the city.
    7. State that the U.S. will withdraw from the Iraq's Sunni areas at 
such time as the Sunnis are prepared to assume security for their own 
region.
    8. Retain an ``over-the-horizon'' U.S. military force in pro-
American Kurdistan that could intervene against al-Qaeda and other 
global terrorist organizations if necessary.
    9. Delay Iraq's formal breakup as long as possible while preparing 
neighbors to accept peacefully the new reality.

    The Chairman. Thank you very much.
    Dr. Kagan.

  STATEMENT OF FREDERICK W. KAGAN, RESIDENT SCHOLAR, AMERICAN 
              ENTERPRISE INSTITUTE, WASHINGTON, DC

    Dr. Kagan. Mr. Chairman, honorable members of this----
    The Chairman. Again, welcome.
    Dr. Kagan [continuing]. Committee, I'm very grateful for 
the opportunity to speak before you today on this issue that is 
of such great importance to our Nation.
    Iraq is clearly in a very dire situation right now, and no 
objective observer could deny that. And we face, at this 
moment, I believe, a series of very difficult choices among 
options, none of which are pleasant, none of which can promise 
success, all of which carry increased risk, of one form or 
another.
    I'd like to stress that I do believe that there is an 
option that can succeed in at least offering us a chance to 
move forward toward a road that would actually be acceptable to 
us over the long term. And I do believe that that option is 
embodied in the plan that I have presented at AEI, some time 
ago, in the report called ``Choosing Victory.''
    But I'd like, first, to highlight the fact that I believe 
that we have come to a point of bifurcation in the history of 
the world. And I don't think that's too strong a statement. I 
think that it is impossible to overstate how much rides on the 
outcome of the war in Iraq today.
    A number of experts from various parties and persuasions 
have looked at the possibility and likelihood of containing a 
civil war in Iraq that is now underway, and preventing it from 
spreading throughout the region, without actually tamping it 
down and bringing it under control in Iraq. And the conclusions 
are very, very poor; very, very pessimistic.
    Judging from past civil wars, ethnosectarian conflicts 
around the world, it is very clear that a civil war, allowed to 
proceed unchecked in Iraq as the result of a precipitate 
American withdrawal, is highly likely to spread violence 
throughout the entire region, destabilize Iraq's neighbors, and 
may quite possibly lead to regional conflict. This is not 
something that the United States could view with any degree of 
equanimity. This is not Southeast Asia, this is not a part of 
the world that we can walk away from, this is a region that 
will always be at the center of America's vital interests in 
the world, and not an area where we can simply watch idly as 
conflict expands and brings in ever more warriors.
    Unfortunately, I think this nightmare scenario is not 
improbable if we do not bring the violence in Iraq under 
control and work hard to reestablish an Iraqi State that can 
govern its territory and maintain its own security and defend 
itself against foes, internal and external. And I do believe 
that it is possible to do that.
    We have not succeeded in Iraq, so far, because we have not 
applied sound strategy to this conflict. I think that's very 
clear. I've been making that case consistently, honestly, even 
since before the war began. Sound strategy requires--sound 
strategy in counterinsurgency requires, first and foremost, 
providing security to the population. When people have to wake 
up in the morning and wonder and worry if they and their 
families will live to see the evening, they will not 
participate in the political process in a normal way, they will 
not participate in economic processes in a normal way, they 
will not interact with one another, even with family and 
friends and neighbors, in a normal way. That is a fact of human 
nature, and it has been seen in many, many conflicts.
    It is no surprise to me, therefore, that the Iraqis, thus 
far, have not been behaving in the manner that we would like 
them to behave in. That is to say, a manner that is 
characterized by compromise and civility and inclusiveness. 
When the violence has reached the point that we have allowed it 
to reach through not working hard enough to bring it under 
control, it is natural for Iraqi sects and groups to turn to 
them--to turn to their own powers and their own capabilities to 
defend each other, and it is, unfortunately, also natural for 
them to begin to attack each other.
    Iraq does not, in fact, have a long history of vast 
sectarian conflict ripping it apart from age to age. The level 
of violence that we're seeing now is unusual in Iraqi history, 
as it is unusual in the history of most states. I do believe 
that we can work to bring it under control, and I do believe 
that bringing security to the Iraqi people, in the first 
instance, will enable them to begin to make the difficult 
choices and compromises that will be so essential to allow them 
to move forward to create the sort of stable state that we 
desire, and that they desire.
    I do not believe that solutions such as partition will be 
effective or will be, rather, tolerable. Unfortunately, it is 
not the case that Iraq is now divided neatly into three zones 
which can simply each be given its own government. Although 
there has been sectarian cleansing going on in Baghdad and in 
other cities in Iraq, Baghdad remains a mixed city. Many of its 
neighborhoods remain mixed between sects. And actually dividing 
the country into three zones will require, de facto, an 
enormous amount more sectarian cleansing. Another word for this 
process, I believe, will be ``genocide,'' as I believe that the 
increasing escalation of violence that is the normal part of 
any widespread sectarian cleansing generally leads to such 
efforts.
    I do not believe that the United States can stand by, 
purely from an ethical perspective, and watch that occur. And I 
would remind the committee that it was the position of 
especially the Democratic Party and the Clinton administration 
in the 1990s that it was intolerable for the United States to 
stand idly by and watch as ethnic cleansing and genocide went 
on in the Balkans. I really can't imagine how we could believe 
that it could be tolerable now to permit, and, indeed, even 
encourage, that to occur, when we are so clearly partially 
responsible for the circumstances in which this violence has 
developed.
    But I want to emphasize, we are not in Iraq, in my view, 
for the benefit of the Iraqis; we are in Iraq, in my view, in 
pursuit of American national interests. And the national 
interest, at this point, is the prevention of the development 
of regional civil war and regional violence on a scale that 
would be intolerable to us. And I believe that, purely in the 
service of our own interests, if nothing else, it is vital that 
we work to bring the violence under control.
    Now, we have put forward a plan, which we have presented in 
great detail, called ``Choosing Victory,'' in which we 
recommend the introduction of additional U.S. forces into 
Baghdad and into Al Anbar province. We believe that this plan 
is workable. We brought together a group of military planners 
with significant experience--recent experience--in Iraq. We 
were advised, by General Jack Keane, the former Chief--Vice 
Chief of Staff of the Army, and lieutenant general, retired, 
David Barno, and a number of other officers who gave us their 
wisdom. And we looked very carefully at what we believed the 
military requirements would be of bringing security to the 
vital Sunni and mixed Sunni-Shia neighborhoods in Baghdad as 
the beginning of an operation to pacify the entire city, which 
would then enable us to move beyond Baghdad into troubled areas 
in Diyala, Salah ad-Din, and elsewhere. We also believe that it 
was necessary to increase our forces in Al Anbar province, 
which is another base of the Sunni insurgency, in order to 
prevent insurgents from moving easily back and forth between 
that province and Baghdad.
    We emphasize that we do not believe that this security 
operation, by itself, will lead to success in Iraq. It is, 
rather, the essential precondition for moving forward with the 
host of reconciliation initiatives, political developments, and 
economic development that will be vital, in the end, to 
resolving this conflict.
    There has been much complaint about the fact that the Iraqi 
Armed Forces are not ethnically mixed, not sectarianly mixed. 
Of course they're not. You do not--you cannot recruit Sunni 
Arabs into a force when the insurgents are terrorizing their 
families and killing their family members when they join the 
army. As we have seen in Tal Afar and Ramadi and in other 
places, when you can bring security to an area, you can then 
begin to recruit Sunni Arabs and other ethnicities and sects 
into the armed forces and produce a more balanced force. 
Security is the precondition.
    I will freely say, because I have said it consistently all 
along, that the Bush administration has made an error in not 
prioritizing the establishment of security in Iraq. I do not 
believe--and it was our considered opinion when we studied this 
problem very carefully--we do not believe that the situation is 
so far gone that no solution is feasible.
    People have challenged the numbers of troops that would be 
required to do this. I would say they should explain--the 
burden is on them to explain what forces they think would be 
necessary, and on what basis they make the calculation. We have 
been completely open and transparent on the basis for our force 
calculations, which are in line with traditional 
counterinsurgency practice and also with the experience of 
operations in Iraq previously. We believe that these forces 
will be adequate to provide security in the areas of Baghdad 
that we think is most important.
    We recommended a significant reconstruction effort to 
accompany this program. We are going to be continuing, in 
subsequent phases of this project, to examine changes that we 
think need to be made in the training of the Iraqi Army, the 
training of the Iraqi police, reconstruction efforts, and the 
development of Iraqi governmental structures, and so forth. We 
clearly do believe our study is something that will take some 
time, and the reconstruction of Iraq is something that will 
take some time, but we are absolutely convinced that simply 
allowing Iraq to collapse now by withdrawing our forces, or by 
trying to carve off some piece of Iraq and protect only that, 
is not in the interest of the United States of America and 
will, in fact, put us in tremendous jeopardy over the long run, 
and possibly even in the short run. And we, therefore, believe 
that it is vital and urgent that we work now to bring the 
situation under control.
    I thank you.
    [The prepared statement of Dr. Kagan follows:]

    Prepared Statement of Dr. Frederick W. Kagan, Resident Scholar, 
             American Enterprise Institute, Washington, DC

      Choosing Victory: A Plan for Success in Iraq--Phase I Report

    (A Report of the Iraq Planning Group at the American Enterprise 
                               Institute)

                           EXECUTIVE SUMMARY

    Victory is still an option in Iraq. America, a country of 300 
million people with a GDP of $12 trillion and more than 1 million 
soldiers and marines, has the resources to stabilize Iraq, a state the 
size of California with a population of 25 million and a GDP under $100 
billion. America must use its resources skillfully and decisively to 
help build a successful democratically elected, sovereign government in 
Iraq.
    Victory in Iraq is vital to America's security. Defeat will likely 
lead to regional conflict, humanitarian catastrophe, and increased 
global terrorism.
    Iraq has reached a critical point. The strategy of relying on a 
political process to eliminate the insurgency has failed. Rising 
sectarian violence threatens to break America's will to fight. This 
violence will destroy the Iraqi Government, armed forces, and people if 
it is not rapidly controlled.
    Victory in Iraq is still possible at an acceptable level of effort. 
We must adopt a new approach to the war and implement it quickly and 
decisively.
    We must act now to restore security and stability to Baghdad. We 
and the enemy have identified it as the decisive point.
    There is a way to do this.

  <bullet> We must balance our focus on training Iraqi soldiers with a 
        determined effort to secure the Iraqi population and contain 
        the rising violence. Securing the population has never been the 
        primary mission of the U.S. military effort in Iraq, and now it 
        must become the first priority.
  <bullet> We must send more American combat forces into Iraq and 
        especially into Baghdad to support this operation. A surge of 
        seven Army brigades and Marine regiments to support clear-and-
        hold operations that begin in the spring of 2007 is necessary, 
        possible, and will be sufficient to improve security and set 
        conditions for economic development, political development, 
        reconciliation, and the development of Iraqi Security Forces 
        (ISF) to provide permanent security.
  <bullet> American forces, partnered with Iraqi units, will clear 
        high-violence Sunni and mixed Sunni-Shia neighborhoods, 
        primarily on the west side of the city.
  <bullet> After those neighborhoods are cleared, U.S. soldiers and 
        marines, again partnered with Iraqis, will remain behind to 
        maintain security, reconstitute police forces, and integrate 
        police and Iraqi Army efforts to maintain the population's 
        security.
  <bullet> As security is established, reconstruction aid will help to 
        reestablish normal life, bolster employment, and, working 
        through Iraqi officials, strengthen Iraqi local government.
  <bullet> Securing the population strengthens the ability of Iraq's 
        central government to exercise its sovereign powers.

    This approach requires a national commitment to victory in Iraq:

  <bullet> The ground forces must accept longer tours for several 
        years. National Guard units will have to accept increased 
        deployments during this period.
  <bullet> Equipment shortages must be overcome by transferring 
        equipment from nondeploying Active Duty, National Guard, and 
        Reserve units to those about to deploy. Military industry must 
        be mobilized to provide replacement equipment sets urgently.
  <bullet> The President must request a dramatic increase in 
        reconstruction aid for Iraq. Responsibility and accountability 
        for reconstruction must be assigned to established agencies. 
        The President must insist upon the completion of reconstruction 
        projects. The President should also request a dramatic increase 
        in Commander's Emergency Response Program (CERP) funds.
  <bullet> The President must request a substantial increase in ground 
        forces end-strength. This increase is vital to sustaining the 
        morale of the combat forces by ensuring that relief is on the 
        way. The President must issue a personal call for young 
        Americans to volunteer to fight in the decisive conflict of 
        this generation.
  <bullet> The President and his representatives in Iraq must forge 
        unity of effort with the Iraqi Government.

    Other courses of action have been proposed. All will fail.

  <bullet> Withdraw immediately. This approach will lead to immediate 
        defeat. The Iraqi Security Forces are entirely dependent upon 
        American support to survive and function. If U.S. forces 
        withdraw now, the Iraqi forces will collapse. Iraq will descend 
        into total civil war that will rapidly spread throughout the 
        Middle East.
  <bullet> Engage Iraq's neighbors. This approach will fail. The basic 
        causes of violence and sources of manpower and resources for 
        the warring sides come from within Iraq. Iraq's neighbors are 
        encouraging the violence, but they cannot stop it.
  <bullet> Increase embedded trainers dramatically. This approach 
        cannot succeed rapidly enough to prevent defeat. Removing U.S. 
        forces from patrolling neighborhoods to embed them as trainers 
        will lead to an immediate rise in violence. This rise in 
        violence will destroy America's remaining will to fight and 
        escalate the cycle of sectarian violence in Iraq beyond 
        anything an Iraqi Army could bring under control.

    Failure in Iraq today will require far greater sacrifices tomorrow 
in far more desperate circumstances.
    Committing to victory now will demonstrate America's strength to 
our friends and enemies around the world.

                              INTRODUCTION

    American forces in Iraq today are engaged in the pivotal struggle 
of our age. If the United States allows Iraq to slide into full-scale 
civil war, characterized by the collapse of the central government and 
the widespread mobilization of the population in internal conflict, the 
consequences will be epochal. Internal strife in Iraq has already 
generated a large displaced population within the country and 
significant refugee flows into neighboring lands. Those neighbors, both 
Sunni and Shia, have already made clear their determination to enter 
Iraq and its struggles if America withdraws and the conflict escalates 
into greater sectarian violence or civil war. Iraq's diverse neighbors, 
however, have opposing interests in how the conflict is settled. 
Consequently, failure in Iraq now will likely lead to regional war, 
destabilizing important states in the Middle East and creating a 
fertile ground for terrorism.
    Success in Iraq, on the other hand, would transform the 
international situation. Success will give the United States critical 
leverage against Iran, which is now positioning itself to become the 
regional hegemon after our anticipated defeat. It will strengthen 
America's position around the world, where our inability to contain 
conflict in Iraq is badly tarnishing our stature. And success will 
convert a violent, chaotic region in the heart of the Middle East and 
on the front line of the Sunni-Shiite divide into a secure state able 
to support peace within its borders and throughout the region. There 
can be no question that victory in Iraq is worth considerable American 
effort or that defeat would be catastrophic.
    Some now argue that victory is beyond our grasp. America cannot (or 
should not) involve itself in civil, sectarian conflicts, they say, and 
the troops required to control such conflicts are larger than the U.S. 
military could possibly deploy. Neither of these arguments is valid. 
The United States has faced ethnosectarian conflict on at least five 
occasions in the past 15 years. In Somalia, Afghanistan, and Rwanda, 
successive American administrations allowed the conflicts to continue 
without making any serious attempts to control or contain them. The 
results have been disastrous. Inaction in Afghanistan in the 1990s led 
to the rise of the Taliban and its support for Osama bin Laden and al-
Qaeda--and therefore indirectly to the 9/11 attacks. Inaction, indeed 
humiliation, in Somalia led to a larger civil war in which radical 
Islamists took control of most of the country by the end of 2006. In 
late December, the conflict took a new turn as Ethiopian troops invaded 
Somalia in support of the internationally recognized transitional 
government. A civil war has become a regional war, as civil wars often 
do. In Rwanda, civil war and genocide also spread, involving Congo and, 
indeed, much of sub-Saharan Africa in widespread conflict and death. 
One clear lesson of post-cold-war conflicts is that ignoring civil wars 
is dangerous and can generate grave, unintended consequences for 
America's future security.
    The United States has recently intervened, along with its allies, 
to control ethnically and religiously motivated civil wars on two 
occasions, however, in 1995 in Bosnia and in 1999 in Kosovo. Both 
efforts were successful in ending the violence and creating the 
preconditions for peace and political and economic development. The 
parallels are, of course, imperfect; much of the ethnic cleansing had 
already been accomplished in both areas before the United States 
intervened with armed force. In the Balkans, however, the levels of 
violence and death as a proportion of the population were much higher 
than they have been in Iraq. Additionally, the armed forces of the 
states neighboring Bosnia and Kosovo were much more directly involved 
in the struggle than those of Iraq's neighbors. Above all, the 
introduction of U.S. and European forces in strength in Bosnia and 
Kosovo has ended the killing and prevented that conflict from spreading 
throughout the region, as it threatened to do in the 1990s. It is 
possible to contain ethnosectarian civil wars, but only by ending them.
    The United States has the military power necessary to control the 
violence in Iraq. The main purpose of the report that follows is to 
consider in detail what amount of armed force would be needed to bring 
the sectarian violence in Baghdad down to levels that would permit 
economic and political development and real national reconciliation. 
Before turning to that consideration, however, we should reflect on the 
fact that the United States between 2001 and 2006 has committed only a 
small proportion of its total national strength to this struggle. There 
are more than 1 million soldiers in the Active and Reserve ground 
forces, and only 140,000 of them are in Iraq at the moment. Many others 
are engaged in vital tasks in the United States and elsewhere from 
which they could not easily be moved, and soldiers and marines are not 
interchangeable beans. If this war were the vital national priority 
that it should be, however, the United States could commit many more 
soldiers to the fight. This report will address in greater detail some 
of the ways of making more forces available for this struggle.
    The United States could also devote a significantly higher 
proportion of its national wealth to this problem in two ways. First, 
the President has finally called for a significant increase in the size 
of the ground forces--the warriors who are actually shouldering much of 
the burden in this conflict. The United States can and should sustain 
larger ground forces than it now has, both to support operations in 
Iraq and to be prepared for likely contingencies elsewhere. Five years 
into the global war on terror, the Bush administration has recognized 
this urgent need and begun to address it.
    Second, the United States can and must devote significantly more 
resources to helping reconstruction and economic development in Iraq. 
The American GDP is over $13 trillion; Iraq's is about $100 billion. 
America's ability to improve the daily lives of Iraqis is very great, 
even at levels of expenditure that would barely affect the U.S. 
economy. Effective reconstruction and economic development are 
essential components of any counterinsurgency campaign and are urgently 
needed in Iraq. This report will consider how to improve some aspects 
of these necessary programs, which will be considered in more detail in 
subsequent phases of this project.
    But reconstruction, economic development, national reconciliation, 
political development, and many other essential elements of the 
solution to Iraq's problems are all unattainable in the current 
security environment. Violence in Iraq has risen every year since 2003. 
Last year was the bloodiest on record, despite significant military 
operations aimed at reducing the violence in Baghdad. The bombing of 
the Golden Mosque of Samarra in February 2006 accelerated the sectarian 
conflict dramatically, and the fighting has moved beyond insurgents and 
organized militias to neighborhood watch groups engaging in their own 
local violence. This development is ominous because it signals that 
significant portions of the Iraqi population have begun to mobilize for 
full-scale civil war. In this violent context, when so many Iraqi 
individuals and families must worry about their physical survival on a 
daily basis, American proposals that rely on diplomatic, political, and 
economic efforts to resolve the crisis are doomed to failure. Such 
efforts will not succeed until Iraq's population is secure from rampant 
violence. Establishing security in Baghdad, and then in the violent 
regions that surround it, must become the top priority of the American 
military presence in Iraq today. Securing Baghdad to bring the violence 
in Iraq's capital under control must be the centerpiece of a military 
operation that should be launched as rapidly as possible. Effective 
reconstruction and the building of Iraqi governing institutions will 
accompany and follow this military operation. Without such an 
operation, America's defeat in Iraq appears imminent, regardless of any 
other efforts the United States might undertake. The remainder of this 
report will consider the shape and requirements of such an operation, 
the likely enemy responses, and the ways of overcoming them.

                        SECURING THE POPULATION

    The recently released military doctrinal manual on 
counterinsurgency operations declares, ``The cornerstone of any 
[counterinsurgency] effort is establishing security for the civilian 
populace. Without a secure environment, no permanent reforms can be 
implemented and disorder spreads.'' This statement encapsulates the 
wisdom of generations of counterinsurgent theorists and practitioners. 
The importance of establishing security is manifold. First, people who 
are constantly in fear for their lives and for their loved ones do not 
participate in political, economic, or social processes in a normal 
way. The fear of violence and death distorts everything they do, think, 
and feel, and it often changes how they interact even with neighbors 
and friends. When violence reaches a level at which most people feel 
themselves to be in danger, as it has in many areas of Baghdad and 
Anbar, then political processes largely cease to function.
    It is not usually possible to use those collapsing processes to 
redress or control the violence, moreover. In Iraq, as in many other 
insurgencies, rebel groups take up arms in part to gain leverage that 
the political process would not otherwise give them. The Sunni Arab 
rejectionists in Iraq have preferred violence to democracy from the 
outset because they know that they will not control a truly democratic 
Iraq. They have, therefore, hoped to use violence and its threat to 
force the Shiite majority to give them a much greater say in governing 
Iraq than their proportion in the population would attain. As long as 
they believe that violence is providing them with political leverage, 
they will continue to prefer violence to dialogue. Encouraging the 
Shiite government to negotiate with them without first containing the 
violence only reinforces the Sunni Arab rejectionists' belief in the 
efficacy of violence to advance their cause.
    Ongoing violence within a state, finally saps the legitimacy of 
that state's government in the eyes of its citizens. As the U.S. 
military's counterinsurgency manual explains, the first indicator of a 
government's legitimacy is ``the ability to provide security for the 
population (including protection from internal and external threats).'' 
Providing security for its people is the core mission of any state. 
Continual violence and death eliminate the people's support for the 
government, leading to an increase in violence as individuals and 
groups undertake to protect and avenge themselves independently of 
state structures, legal institutions, or government sanction. Allowing 
disorder to persist over the long term is extremely hazardous to the 
health of any government. And America's objective in Iraq is creating a 
secure and sovereign national government elected by the Iraqi people.
    The U.S. Government has not given priority to providing security to 
the Iraqi population from the outset of the war, however. The 
inadequacy of coalition forces at the end of major combat operations to 
maintain order is well-known and well-documented now. It is less well-
known that American forces continued to underemphasize the importance 
of establishing and maintaining security even after the military 
command and the administration recognized that insurgency and low-grade 
civil war were erupting in Iraq. America's commanders in Iraq, notably 
Generals John Abizaid, commander of U.S. Central Command since mid-
2003, and George Casey, commander of Multi-National Forces-Iraq (MNF-I) 
since mid-2004, have instead emphasized the need for Iraqis to solve 
their own security problems. The leading U.S. commanders have, 
therefore, prioritized using U.S. troops to establish and train Iraqi 
Security Forces. Indeed, American military commanders have never 
pursued the defeat of the enemy even after it became obvious that Iraqi 
forces lacked the ability to do so. As a result, the United States has 
ceded the initiative to the enemies of the United States and the Iraqi 
Government and permitted the steady deterioration of the security 
situation.
    The basis of the Abizaid-Casey strategy is twofold: American forces 
in Iraq are an irritant and generate insurgents who want to drive us 
out of their country, and the Iraqis must be able to create and 
maintain their own stability lest they become permanently dependent on 
our military presence. Both of these arguments contain elements of 
truth, but realities in Iraq are much more complex.
    The coalition presence in Iraq is an irritant in many areas, and it 
has generated a number of insurgents particularly among former 
Baathists, al-Qaeda and its affiliates, and Sunni Arab rejectionists. 
But this argument is less helpful in evaluating courses of action than 
is commonly supposed. U.S. forces in Iraq currently maintain a very 
light footprint--140,000 troops in a country of 25 million people. Most 
Iraqis surveyed report that they rarely if ever see American forces. 
There is no reason to imagine, moreover, that it matters to the 
insurgency whether there are 100,000, 140,000, or 200,000 Americans in 
Iraq.
    Insurgent rhetoric does not count our soldiers; rather, it 
denounces the presence of any American troops on Iraqi soil. Osama bin 
Laden launched the 9/11 attacks in part because of a far lighter 
American presence in Saudi Arabia--a presence similar to what almost 
every plan for withdrawal from Iraq proposes to maintain in the country 
or the region for years to come. Increases on the scale proposed in 
this report are extraordinarily unlikely to lead to any significant 
increase in the ``irritation'' caused by our presence, particularly in 
the most vivid manifestation of that ``irritation,'' which is the 
propaganda of our enemies. We should remember that our enemies in Iraq 
try to shift blame for their own mass murder attacks against innocent 
civilians to the coalition forces that are assisting the Iraqi 
Government. The problem in Iraq is not so much that coalition forces 
are perceived as occupiers, but rather that coalition forces are 
occupiers who have not made good on their primary responsibility--
securing the population.
    The argument that Iraqis must be able to maintain their own 
security is also valid but incomplete. American forces can clearly 
leave Iraq, successfully, only when there is an Iraqi Government in 
place that controls its own forces and maintains the safety of its 
people. Training Iraqi Security Forces, both the Iraqi Army and police 
forces of various types, is clearly an essential precondition for the 
ultimate withdrawal of U.S. troops. It is not true, however, that the 
United States should allow the violence in Iraq to continue until the 
Iraqi Security Forces can bring it under control on their own or even 
with our support.
    In the first place, there is a world of difference between training 
security forces that can maintain a peace that has already been 
established and training those capable of conducting the complex and 
large-scale counterinsurgency operations that the situation now 
demands. The coalition and the Iraqi Government have been placing 
nascent Iraqi units and their soldiers in extremely difficult and 
dangerous situations that require sophisticated command structures, 
excellent equipment, organization, superior leadership, and exceptional 
individual discipline. By focusing on preparing the Iraqis to do 
everything, the U.S. military command has set the bar too high. There 
are tasks in Iraq, such as clearing enemies out of high-violence 
neighborhoods and securing their populations, that only American forces 
will be able to do for some time. These tasks will not have to be 
repeated if they are done properly the first time. As new, properly 
trained Iraqi units become available, they will be more capable of 
holding areas that have already been cleared and secured than of 
clearing and securing those areas themselves.
    In the second place, the emphasis on training Iraqi forces to 
establish security, themselves, ignores the transition from insurgency 
to nascent civil war now going on in Iraq. Preparing a largely Shiite 
Iraqi Army to suppress a Sunni Arab insurgency always posed a number of 
daunting challenges--many Shia do not want to march into Sunni lands to 
fight; the presence of Shia military units inflames Sunni Arab 
sentiment as much or more than the presence of American forces; and 
Shia military units are much more open both to corruption and to 
committing atrocities that stoke the insurgency than are coalition 
forces.
    But the United States cannot rely on a primarily Shiite army to 
bring order to a land torn by sectarian strife because that policy is 
unlikely to end violence in a way that permits national reconciliation. 
Shiite military units cannot be seen as honest brokers in mixed Sunni-
Shia neighborhoods. As the violence continues to rise, moreover, the 
members of the army--all of whom belong to one sect or another--come 
under increasing pressure to desert, commit atrocities, or otherwise 
undermine efforts at national reconciliation. Something similar 
happened to the large and professional Yugoslav Army in the early 
1990s. Rather than keeping the fragmenting state together, the army 
itself fragmented, sending weapons and experienced soldiers to the 
various warring sides and fueling the civil war. If no external force 
works to reduce the violence while the Iraqi Army is training, it is 
virtually certain that the army will sooner or later break under the 
sectarian strain--and with it will go Iraq's only hope for peace in 
this generation.
    Indeed, improved security is a precondition for rebalancing the 
demographic composition of security forces, which is, in turn, a 
prerequisite for preventing their involvement in sectarian or civil war 
and establishing their legitimacy with the Iraqi population. The lack 
of Sunni representation in security forces stems mainly from the 
enemy's ability to hold hostage the families of potential recruits. 
Recent efforts to reconstitute the police and recruit soldiers in 
predominantly Sunni areas such as Tall Afar and Ramadi demonstrate that 
improved security leads to more representative and legitimate security 
forces.
    The right strategy is to strike a balance among three concerns 
rather than between two: The United States should be sensitive to the 
danger of flooding Iraq with too many coalition soldiers and of making 
the Iraqis too dependent on the coalition to do everything, but America 
must balance those fears against the imminent danger of allowing the 
security situation to collapse completely.
    The strategy proposed in this plan attempts to redress the 
imbalance in the United States approach so far. This plan proposes a 
moderate increase in American troop levels, but one far below anything 
likely to provoke a massive reaction by the Iraqi people. The plan 
proposes to continue training Iraqi troops, placing them either in the 
lead or in partnership with American units wherever possible. The plan 
encourages such partnership efforts as a path to transferring control 
of Iraq's security to well-prepared Iraqi forces directed by its 
autonomous government, albeit on a more realistic timeline than the 
ones currently under discussion. Above all, the plan proposes to 
redress MNF-I's continual failure to prioritize securing the Iraqi 
people.
    MNF-I's strategy so far has focused on increasing Iraqi 
capabilities, but the violence continues to rise faster than those 
capabilities. Nascent Iraqi forces are not prepared to operate 
effectively in areas where the enemy has succeeded in intimidating and 
coercing the population or has established a strong defensive 
capability. Coalition forces are needed to set conditions for the 
development of ISF as well as the introduction of ISF into contentious 
areas. The correct approach, embodied in the plan proposed below, works 
both to increase Iraqi capabilities and to decrease the violence to a 
level the Iraqis themselves can control. This strategy is the only one 
that can succeed in creating a secure, autonomous, and democratic Iraq 
free of sectarian violence, insurgency, and civil war.

                             THE CHALLENGE

    The challenge facing the United States in Iraq comes primarily from 
a series of enemies who are actively trying to stoke violence and 
create chaos to destroy the current political and social order. Some 
people examining Iraq have become so frustrated and confused by the 
complexity of this challenge that they prefer to throw up their hands 
rather than attempt to cope with it. The challenge is, nevertheless, 
comprehensible. To understand it, one must first consider the geography 
and demography of the capital region and then describe the enemy in 
some detail.
Geography and Demography
    Baghdad is the center of gravity of the conflict in Iraq at this 
moment. Insurgents on all sides have declared that they intend to win 
or die there. It is the capital and center of Iraqi Government. It is 
the base of American power and influence in the country. It is the 
largest and most populous city in Iraq. It is home to one of Iraq's 
largest Shiite communities, but also to many mixed Sunni and Shiite 
communities. Widely publicized American efforts to gain control of the 
violence in Baghdad in Operation Together Forward (conducted in two 
phases in 2006) connected American success in Iraq overall to success 
in Baghdad. For good or ill, the pivotal struggle for Iraq is occurring 
in its capital.
    Baghdad is a city of some 6 million people that straddles the 
Tigris River. Northeast of the Army Canal that divides the eastern side 
of the city lies Sadr City, a Shiite slum of more than 2 million 
people. Ministries and government buildings line the Tigris on either 
side. On the western bank lies the Green Zone, an area secured by 
American military forces that houses U.S. military and political 
headquarters, critical Iraqi governmental institutions, and bases for 
some American soldiers. On the western edge of the city is Baghdad 
International Airport (BIAP), home of Camp Victory, one of the largest 
U.S. bases in the country. The road from BIAP to the Green Zone is 
known as ``Route Irish,'' which has gained notoriety for being one of 
the most dangerous stretches of road in Iraq.
    Baghdad is a mixed city on many levels. Most of Baghdad's Shiite 
population live in and around Sadr City and its two satellite 
neighborhoods of Shaab and Ur; many of the Sunnis live on the western 
side of the city. But many neighborhoods and districts are themselves 
mixed, especially those between BIAP and the Green Zone and immediately 
around the Green Zone on both sides of the river. Rising sectarian 
violence is changing this demographic pattern, however, and the mixed 
neighborhoods are increasingly being ``cleansed'' and becoming more 
homogeneous.
    Neither the challenges in Iraq nor the solutions even to Baghdad's 
problems are contained entirely in Baghdad, however. Anbar province, 
the large, mostly desert area to the west of Baghdad, contains the core 
of the Sunni Arab rejectionist insurgency. U.S. and Iraqi forces fight 
insurgents for control of Anbar's largest cities, Ramadi and Fallujah, 
while Marines work to root out al-Qaeda and other insurgent and 
terrorist groups throughout the vast province. Insurgents move from 
Anbar into Baghdad and back again, linking these two problematic areas 
inextricably. Even the insurgents who regularly operate in Baghdad have 
bases outside of the city, especially in the villages near Taji to the 
north and Iskandariyah to the south. These two settlement belts provide 
a great deal of support to the enemy operating in the capital. Diyala 
province, which lies to the north and east of Baghdad, is another 
important insurgent base. The Diyala River flows through its province's 
capital city of Baquba and, finally, into the Tigris River just south 
of Baghdad. Sunni rejectionists and al-Qaeda operatives follow the 
Diyala River toward Baghdad and then, leaving its course, launch 
strikes into the heart of Sadr City. Baghdad is, therefore, a nexus of 
violence drawn from a number of regions outside the city. Baghdad also 
contains its own internal violent dynamic into which these outside 
forces flow.
The Enemy
    There is violence in Iraq today because it suits certain groups and 
individuals to disrupt the development of normal political and economic 
life in that country through intimidation, terrorism, and killing. 
Violence on this scale is not historically normal to Iraq (or virtually 
any other country, for that matter), and it is not a force of nature. 
Too often violent events in Iraq are reported in the passive voice, as 
though no agent in particular caused them. This sense of directionless, 
almost purposeless violence is one of the major factors hindering the 
intelligent consideration of America's options in this conflict. Before 
entering into the consideration of one such option, therefore, we must 
first consider the enemies of peace and order in Iraq. These can be 
broken into six main groups: Three Sunni Arab and three Shiite.
    Sunni Arab Insurgent Groups. Sunni Arab violence in Iraq has gone 
through three main phases. Even before coalition forces invaded in 
March 2003, Saddam Hussein had prepared to sustain a guerrilla war if 
he was attacked. He formed the Fedayeen Saddam, fighters trained and 
motivated to conduct irregular warfare, and sprinkled them throughout 
Iraq (most likely to suppress the Shiite insurgency he expected to 
follow an American withdrawal, as had happened after the 1991 
invasion). When major combat operations ended without securing much of 
the country, these fighters joined thousands of soldiers and officers 
of the defeated conventional army in an inchoate resistance. This 
resistance was networked but not centrally directed, although Saddam 
and his sons, Uday and Qusay, tried to organize it when they were in 
hiding. When coalition forces killed Uday and Qusay in Mosul in July 
2003 and captured Saddam in December 2003 near Tikrit, the Baathist 
resistance was weakened but not destroyed. It continues to play an 
important part in generating anticoalition violence, especially in 
Anbar and Baghdad.
    At the turn of 2004, however, a new force was emerging within the 
Sunni Arab resistance--terrorist organizations like al-Qaeda in Iraq 
(run by Abu Musab al-Zarqawi until his death in June 2006 and now by 
Abu Ayyub al-Masri, also known as Abu Hamza al-Muhajer) and Ansar al-
Sunna. Al-Qaeda in Iraq focused its efforts on more spectacularly 
violent and symbolic attacks, rather than conducting the smaller 
attacks upon coalition troops using the improvised explosive devices 
(IEDs) favored by the Baathists. Al-Qaeda in Iraq also favored 
attacking Iraqi civilians and government leaders. Zarqawi struck Iraqis 
who were cooperating with the government, but also attacked the Shiite 
community aggressively with the avowed aim of provoking a Sunni-Shia 
civil war. His efforts culminated with the destruction of the Golden 
Mosque of Samarra in February 2006, which incited a dramatic increase 
in the level of Sunni-Shia violence in Iraq, an increase that has 
continued even after his death.
    The increase in sectarian violence has spawned yet another type of 
Sunni Arab group--vigilantes who organize as neighborhood defense 
militias in Baghdad ostensibly to protect their areas from Shiite 
attacks. These groups have formed primarily because American forces 
have chosen not to provide security to the population and Iraqis have 
been unable to do so; while Shiite militias (which this report will 
consider presently) have ruthlessly targeted Sunni Arab civilians. 
These groups tend to be self-organizing and to have more limited goals, 
although some become tied to al-Qaeda in Iraq, Ansar al-Sunna, 
Baathists, or other larger organizations. The rise of these vigilante 
groups is in some respects the most disturbing phenomenon in Iraq. It 
indicates a dramatic increase in popular participation in the struggle 
and is a step on the road to the mobilization of the Iraqi population 
for full-scale civil war. This vigilante violence is also more inchoate 
and less subject to either negotiation or political control. It is an 
extremely dangerous development that must be checked as rapidly as 
possible.
    The goals of these various groups are divergent but in some 
respects complementary. The Baathists initially sought the restoration 
of Saddam Hussein or one of their leaders to power. The trial and 
execution of Saddam have largely eliminated that goal, but the Baathist 
movement has resurrected itself as an Iraqi nationalist front aimed at 
ridding Iraq of foreign ``occupying'' forces and restoring the rule of 
the Sunni Arabs in some form. Baathists are also posing as defenders of 
local populations against Shiite depredations. The absence of security 
in Sunni neighborhoods makes this enemy's claim credible to local 
populations and enables Baathists to recruit more insurgents to their 
cause.
    The ideology of al-Qaeda in Iraq and affiliated groups complements 
that of the Baathists in some respects, but not in others. These 
various groups agree that they want coalition forces out of Iraq and 
the Sunni Arabs in control of the country. But whereas the Baathists 
pursue a more secularist and nationalist agenda, the aim of al-Qaeda in 
Iraq is to establish Taliban-style sharia government in Iraq. They hope 
then to use Iraq as a base from which to expand their theocracy to 
other Muslim states. Al-Qaeda in Iraq has been working tirelessly since 
early 2004 to incite sectarian violence in the belief that it would 
energize the Sunni community in Iraq and provide the terrorists with 
the recruits they need to triumph there and elsewhere in the Muslim 
world. To this end, they have focused on mass attacks against civilians 
and major landmarks such as the Golden Mosque, while the Baathists have 
focused much more heavily on coalition and Iraqi military targets. The 
lines between these two groups are blurring, however, as the first 
generation of fighters is being killed off and replaced by Sunni 
nationalists with stronger Islamist leanings. It is becoming in some 
ways more difficult rather than less to contemplate splitting these two 
groups apart.
    The aims of Sunni vigilante groups are more disparate and less 
clear. Most were formed to protect local Sunni populations from Shiite 
attacks, and that security function remains the core of their identity. 
Some have taken advantage of opportunities to drive Shiites out of 
their neighborhoods or nearby areas, contributing to the sectarian 
cleansing in Baghdad. Some are drawn to the Baathist or terrorist 
ideologies. These groups conduct small-scale attacks and are not 
centralized or highly coordinated.
    The Sunni Arab insurgent groups cooperate relatively well despite 
disagreements about their ultimate aims. This cooperation results 
mainly from their shared sense that the Sunni community is under attack 
and fighting for its survival. The secular Baathists, Islamist 
terrorists, and vigilante groups could not form a coherent political 
program and would not try to do so. Baathists and Islamists cooperate 
in attacking coalition targets, but even within the Islamist community 
there is growing disagreement about the desirability or morality of 
attacking Iraqi civilians--al-Qaeda in Iraq continues to pursue this 
approach, but Ansar al-Sunna rejects it. Vigilante groups attack Shiite 
civilians in the name of self-defense because of the lack of security 
in and around their communities. As long as the Sunni Arabs feel 
besieged and beleaguered, attempts to splinter these groups politically 
are unlikely to be successful despite the differences in their aims and 
targeting preferences. All of them draw great strength and their main 
recruiting tools from the violence in Iraq and the growing sectarian 
struggle. They are not likely to abandon their own use of force as long 
as that violence remains at a high enough level to justify their 
actions as attempts to defend the Sunni Arab community from attack 
while they further their own ideological objectives.
    Shiite Insurgent Groups. The Shiite political community in Iraq is 
broken into a number of significant groups and parties, but Shiite 
insurgents generally fall into one of three groups. The Jaysh al-Mahdi 
(Mahdi Army) is nominally under the control of renegade cleric Moqtada 
al-Sadr. This group took to the streets in large numbers in 2004, 
especially in its strongholds of Najaf and Karbala, from which it was 
cleared by a large scale yet careful coalition military operation. The 
Badr Corps is the military arm of the Supreme Council for Islamic 
Revolution in Iraq (SCIRI), of which Abdul Aziz al-Hakim is the leader. 
This group was formed and supported by Iran in the 1980s and continues 
to maintain close ties to Tehran, although the degree of Iran's control 
of SCIRI and the Badr Corps is unclear. The third group of Shiite 
fighters is the vigilantes who have sprung up in Sadr City and Shiite 
and mixed neighborhoods in Baghdad, much as the Sunni vigilante groups 
have grown in this period of chaos.
    The Badr Corps and the Jaysh al-Mahdi share some goals and 
concerns, but not others. They both seek to establish Shiite sharia law 
in Iraq and to ensure Shiite domination of the country. They are both 
concerned about Sunni rejectionism and the Sunni insurgency, which has 
provided the principal justification for their efforts to recruit and 
maintain their militias. Al-Qaeda in Iraq's relentless attacks on 
Shiite civilians have powerfully supported their justification and 
aided their recruiting.
    Hakim and Sadr also agree in principle that the coalition forces 
should withdraw rapidly, but they do not agree on the importance of 
this objective or the need to take action to secure it. Sadr has long 
identified the U.S. presence as an intolerable violation of Iraq's 
sovereignty, and his forces have often attacked coalition forces in an 
effort to force them to withdraw. Hakim and SCIRI have taken a much 
more moderate approach. They understand that the aims of coalition 
policy in Iraq would leave the Shiites in control of the country, and 
they are more tolerant of the presence of coalition forces that keep 
the Sunni insurgency under control. They have been far less aggressive 
about attacking coalition forces. Both groups have, however, 
consistently supported the killing and torture of Sunni Arabs to 
cleanse areas and neighborhoods and create solid blocks of Shiite 
habitation.
    The Jaysh al-Mahdi and the Badr Corps will be the main military 
rivals for power in a post-U.S. Iraq. Both observed the destruction of 
Sadr's militia in 2004 and are reluctant to repeat that experience 
because of the need to maintain their military force for use against 
one another in the expected battle for dominance after the United 
States leaves. This rivalry, which is manifested on the political as 
well as the military plane, hinders the cooperation of these two 
groups, which are also increasingly separate geographically: The Jaysh 
al-Mahdi is based in Sadr City, whereas the main strength of the Badr 
Corps is in the southern part of Iraq.
    The political aims, rivalries, and maneuverings of the Jaysh al-
Mahdi and the Badr Corps are far removed from the aims of most of the 
Shiite vigilante groups operating in Baghdad. Like their Sunni 
counterparts, these groups are mainly concerned with defending their 
neighborhoods against Sunni (especially al-Qaeda in Iraq) attacks. They 
also opportunistically engage in sectarian cleansing and ``reprisal'' 
attacks (often the same thing). The strength and organization of the 
Jaysh al-Mahdi and the Badr Corps makes it easier for Shiite vigilante 
groups to cohere. Yet, as with all vigilante groups, negotiation and 
political accommodation with local fighters is unlikely to be 
productive by itself because they are responding to localized violence.
    Crime. It is important to understand that a significant part of the 
violence in Iraq is not orchestrated by any political group at all, but 
is simply the crime and gang violence that flourishes in the absence of 
order and government control. This problem is not restricted to Baghdad 
or Anbar, moreover. The British raid against the aptly named ``serious 
crimes unit'' in Basra in December 2006 underlines the breadth of the 
difficulty. Many individuals and groups throughout Iraq have taken 
advantage of the government's weakness to organize kidnapping rings, 
smuggling rings, and other criminal enterprises. With much of the Iraqi 
police force either engaged in sectarian violence or criminality, or 
else devoted to the counterinsurgency effort, rule of law in Iraq is 
extremely weak. Both insurgents and criminals have deeply infiltrated 
the police and partially infiltrated the army, underscoring in a 
different way the impossibility of handing responsibility for security 
and maintaining the rule of law to either organization very rapidly.
    Criminal activity is not merely a problem for civil society in 
Iraq, however. It also supports the insurgency. A significant portion 
of the insurgency's financial resources comes from criminal activities 
of one sort or another--including a variety of scams that divert 
revenue from the oil industry into insurgent coffers. Insurgents and 
criminals can also hide behind one another, confusing efforts to 
identify the agent behind particular murders and other sorts of 
attacks. Criminality is an important issue for coalition forces in Iraq 
that must be addressed in order to improve the overall security and 
political situations.

                                THE PLAN

    No military operation by itself can resolve Iraq's problems. 
Success in Iraq can only emerge when political, economic, diplomatic, 
and reconciliation initiatives resolve underlying tensions and 
grievances and give the Iraqi people reason to accept the legitimacy of 
their government. The security situation in Iraq and particularly 
Baghdad is so grave, however, that political, economic, diplomatic, and 
reconciliation initiatives will fail unless a well-conceived and 
properly supported military operation secures the population first and 
quickly. The purpose of this operation is to reduce sectarian violence 
to levels low enough to permit political and economic development, 
reconciliation, and the recruitment and training of an Iraqi Army and 
police force with an appropriate regional and sectarian balance. This 
report focuses on military operations in and around Baghdad because the 
security situation there is deteriorating quickly and requires the 
urgent attention of the United States Armed Forces. Subsequent working 
groups and reports will consider initiatives vital to allowing the 
Iraqis to take control of their country, armed forces, and security; 
political developments; and regional issues. The emphasis on military 
operations in this first phase of this project does not indicate any 
denigration of the importance of the nonmilitary elements of a solution 
to the crisis in Iraq.
Why Baghdad?
    From the standpoint of security and violence, Iraq consists of 
three zones. The Kurdish provinces to the north are extremely secure--
violence is rare and economic development (fueled by the period of de 
facto autonomy in the 1990s) is well underway. Most of the Shiite 
provinces to the south of Baghdad are very secure, although Basra still 
faces a worrisome amount of violence and criminality. The vast majority 
of attacks occur in the four provinces of Anbar, Baghdad, Salaheddin, 
and Diyala, with Ninawa a more distant fifth. Polling data partially 
reflect this distribution of attacks: Iraqis in the Shiite south and 
Kurdish north overwhelmingly feel safe in their neighborhoods, while 
those in the five violent provinces feel extremely unsafe.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Of these provinces, Anbar, Baghdad, and Diyala are currently of 
greatest concern. Salaheddin, which contains Saddam Hussein's hometown 
near Tikrit as well as Samarra, has been the scene of a large number of 
attacks, but it contains relatively few large concentrated settlements 
and is relatively farther from Baghdad. Ninawa is worrisome because it 
contains Mosul, one of Iraq's largest mixed cities, but the clear-and-
hold operation that began in Tall Afar in September 2005 has reduced 
the violence in this province greatly. Anbar has been a hotbed of the 
insurgency almost from its outset, and two of its major cities, 
Fallujah and Ramadi, have been centers of the fight against Sunni Arab 
rejectionists since early 2004. Anbar serves as a base of Sunni 
fighters who move into and attack targets in Baghdad. Diyala has also 
become a critical battleground, especially the city of Baquba, where 
Zarqawi was found and killed in June 2006. It is a mixed province in 
which considerable sectarian cleansing and displacement have occurred; 
and it is close enough to Baghdad that fighters on both sides commute 
between the two cities. Diyala province is also becoming a significant 
al-Qaeda base from which the enemy launches attacks against Shiites in 
Sadr City, Baghdad.
    Before the effects of the Samarra mosque bombing had become clear, 
it might have been reasonable to consider operations along the 
Euphrates, Tigris, and Diyala River valleys (that is, in Anbar, Ninawa, 
Salaheddin, and Diyala provinces), postponing the more difficult task 
of clearing and holding Baghdad. The rise of sectarian violence within 
the capital and the repeated declarations of all sides that Baghdad is 
the key to victory or defeat have removed this alternative option. The 
violence in the central areas of Iraq is now so high that few reporters 
venture far from the Green Zone. Consequently, events within a 
relatively small area of the capital now disproportionately shape the 
world's perceptions of the situation in the country. It is necessary to 
focus on securing these areas in order to retain the American people's 
support for the war and increase international support. More 
importantly, it is necessary to prevent the sectarian cleansing in the 
heart of Baghdad from spreading further through the rest of Iraq. The 
populations of other mixed cities, such as Mosul, Kirkuk, and Tall 
Afar, are watching how the coalition forces and Iraqi Government 
respond to sectarian violence in Baghdad. If Baghdad is truly cleansed 
and divided, then similar sectarian violence will follow in these other 
mixed cities. The result will be a bloody civil war that permanently 
destroys any concept of Iraq as a mixed state. For good or for ill, the 
decisive struggle in this war will be played out in Iraq's capital.
    Any plan for bringing security to Iraq must therefore address 
Baghdad first of all, but it cannot entirely neglect Anbar and Diyala 
provinces, which are tied so tightly to the challenges of Baghdad. This 
report, therefore, identifies Baghdad as the main effort to which all 
necessary resources should be devoted, and it identifies operations in 
Anbar and possibly Diyala as supporting efforts--secondary operations 
that help to accomplish the main effort but receive just enough force 
to succeed without compromising the main effort.
Forces Required
    Having identified Baghdad as the main effort, we can then consider 
the problem of securing that city in more detail. There is considerable 
theory and historical evidence about the numbers of troops required to 
provide security to a given population in a counterinsurgency. The 
military's counterinsurgency manual concludes that a ratio of one 
soldier for every 40 or 50 inhabitants provides a good rule of thumb 
for such calculations. COL H.R. McMaster and the 3rd Armored Cavalry 
Regiment used a ratio of about 1 soldier per every 40 inhabitants to 
secure Tall Afar in 2005. American soldiers and marines in Ramadi have 
made considerable progress in securing that city, although much lower 
force ratios have slowed and limited that progress. MG Peter Chiarelli 
put down the Sadrist uprising in Sadr City in mid-2004, on the other 
hand, with one division (under 20,000 soldiers) in a population of over 
2 million.
    The population of Baghdad is around 6 million, which would require, 
in theory, around 150,000 counterinsurgents to maintain security. It is 
neither necessary nor wise to try to clear and hold the entire city all 
at once, however. The Jaysh al-Mahdi based in Sadr City has 
demonstrated its reluctance to engage in a full-scale conflict with 
American forces, ever since coalition forces defeated Moqtada al-Sadr 
and his army in Najaf in the summer of 2004. Rather, the Jaysh al-Mahdi 
now needs to preserve its fighters in order to maintain its strength 
against the Badr Corps in the struggle for control of post-coalition 
Iraq. Attempting to clear Sadr City at this moment would almost 
certainly force the Jaysh al-Mahdi, into precisely such a confrontation 
with American troops, however. It would also do enormous damage to 
Prime Minister Nouri Kamel al-Maliki's political base and would 
probably lead to the collapse of the Iraqi Government. Clearing Sadr 
City is both unwise and unnecessary at this time.
    Many attacks against Sunni neighborhoods in Baghdad emanate from 
Sadr City. There are two ways to resolve that problem. The first is to 
attack Sadr City by targeting known militia bases and concentrations 
with discrete strikes. This option initially requires the fewest number 
of forces. But such operations would almost certainly provoke a massive 
political and military conflagration. They ultimately will demand high 
force concentrations and generate instability in the current Iraqi 
Government, as described above. This option is, therefore, extremely 
risky. It would be better, instead, to secure the Sunni and mixed 
Sunni-Shia neighborhoods by deploying American and Iraqi forces into 
them and protecting their inhabitants from all violent attacks coming 
from any area. This second approach also accords with sound 
counterinsurgency practice, which favors defensive strategies aimed at 
protecting the population over offensive strategies aimed at killing 
insurgents.
    The first phase of this plan, therefore, excludes military 
operations within Sadr City and focuses on securing the Sunni and mixed 
Sunni-Shia neighborhoods around the Green Zone and between that area 
and Baghdad International Airport/Camp Victory. This approach 
establishes security among a population of perhaps 2 million people, 
which would require, according to historical norms, between 40,000 and 
50,000 counterinsurgent troops. Generating proper force ratios to 
secure the population in these neighborhoods is much more feasible than 
generating the force ratios to confront the Jaysh al-Mahdi in Sadr City 
or to secure the entire population of Baghdad at once. Yet securing the 
population in these neighborhoods is likely to reduce levels of 
violence elsewhere in Baghdad.
    The working group also calculated the forces required for this 
operation in another way. The area we have identified as being the 
``critical terrain'' in Baghdad (because of its mixed ethnicity and its 
geographic centrality) consists of about 23 districts. Clearing and 
holding a city district in Baghdad requires an American force of about 
one battalion (approximately 600 soldiers organized into four companies 
of about 150 soldiers each). We have considerable evidence about what 
force levels are necessary for such operations because of recent and 
current operations in Baghdad. There is now about one battalion 
deployed in the district of Dora (the area south of the Karadah 
Peninsula just south of the Green Zone). Dora is a very dangerous 
neighborhood that is difficult to control, and the troops there are 
barely managing. Dora would benefit from reinforcements or from having 
the adjoining areas brought more securely under control. Many other 
neighborhoods that would be cleared under this proposal would require 
fewer troops because they are less violent and large; some might 
require more. On balance, current operations suggest that one battalion 
per district would provide a sufficient overall force level to bring 
the violence in these 23 districts under control.
    There are three battalions in an Army Brigade Combat Team or BCT, 
which, together with all of its supportinng elements, numbers around 
5,000 soldiers. Twenty-three districts would require eight BCTs (which 
would leave one battalion to spare as a Reserve), or around 40,000 
soldiers. Since operations would be going on around the Green Zone and 
Camp Victory, it would be necessary to maintain additional forces to 
guard and garrison those areas, amounting to perhaps another BCT, for a 
total of nine (around 45,000 troops total).
    Whether we calculate the forces necessary based on historical 
ratios or on units engaged in current operations, the results are very 
similar: We can reasonably expect that between 40,000 and 50,000 
soldiers could establish and maintain security in the 23 critical Sunni 
and mixed districts in the center of Baghdad in the first phase of an 
operation aimed at ending violence in the city, securing its 
population, and securing Iraq.
Current and Proposed Deployments
    The United States currently has approximately 140,000 troops in 
Iraq, including about 70,000 in 13 Army Brigade Combat Teams and two 
Marine Regimental Combat Teams (RCTs--the Marines slightly smaller 
equivalent of brigades). Of the remaining 70,000 soldiers, many are 
engaged in the enormous task of providing supplies to coalition 
soldiers and to the 134,000 soldiers in the Iraqi Army, who are almost 
entirely dependent on American logistics to survive and operate. A 
large number of American troops are engaged in securing the long lines 
of communication from Kuwait to Baghdad (600 miles) and from there to 
U.S. forward operating bases (FOBs) around the country. Around 6,000 
soldiers are now involved in training Iraqi Army and police units as 
well. The BCTs and RCTs are the forces that would be used in clearing 
and holding Baghdad, so the rest of this report will focus on them, 
recognizing that the number of these units significantly 
underrepresents the total size of the American combat presence in Iraq.
    Seven BCTs, the largest concentration of the BCTs and RCTs now in 
Iraq, operate in and around Baghdad. Five BCTs operate within the city 
itself (although they mostly live on FOBs in the city's suburbs and 
drive to their areas of operations to conduct patrols). One BCT 
operates in the insurgent belts to the north around Taji and the 
remaining BCT operates in the belts to the south around Iskandariyah 
(the so-called Triangle of Death). Two Marine RCTs and one Army BCT 
operate in Anbar. Their bases are located in Ramadi, Fallujah, and Al 
Asad. The remaining five Army BCTs operate mostly to the north of 
Baghdad in Ninawa, Salaheddin, and Diyala provinces in cities like 
Mosul, Tikrit, Samarra, and Baquba.
    An Army National Guard Brigade is stationed in a static defensive 
position in Kuwait guarding the enormous supply and training areas 
there. Recent news reports suggest that a brigade of the 82nd Airborne 
Division has been ordered to Kuwait as well, although the purpose of 
that deployment is not clear at the time that this report is being 
written. The BCT of the 82nd Airborne Division might be deployed to 
Iraq to engage in combat missions there in the near future; the 
National Guard brigade could not leave Kuwait without endangering the 
security of U.S. supply lines and bases.
    The current deployment of U.S. forces in and around Baghdad, 
therefore, provides approximately four BCTs (12 battalions or about 
20,000 troops in all) for conducting combat operations in the city. The 
equivalent of one BCT is required for base security. Such a force level 
is evidently inadequate for clearing and holding any sizable portion of 
Baghdad. The Army and Marine presence in Anbar is inadequate to 
maintain even the most basic security in that province. The situation 
in Diyala is almost as dire. Pulling troops from either province to 
reinforce operations in Baghdad would almost surely lead to the further 
collapse of those regions. Salaheddin is similarly problematic, while 
security in Ninawa is extremely precarious. Any attempt to concentrate 
forces in Baghdad by moving them from elsewhere in Iraq would 
precipitate greater violence in the outlying areas. Such violence would 
eventually move down the river valleys to Baghdad and undermine 
attempts to succeed in the capital, as occurred in 2004. This plan 
will, therefore, require a deployment of at least four Army Brigade 
Combat Teams (approximately 20,000 soldiers) into Baghdad from outside 
Iraq.
    Because of the close relationship between the insurgency in Anbar 
and the violence in Baghdad, it would be desirable to address both 
areas at once. In reality, the United States simply cannot make 
available enough forces to bring Anbar under control at the same time 
as it tries to secure the critical neighborhoods of Baghdad. A 
deployment of additional troops into Baghdad will, nevertheless, both 
generate and suffer from spillover effects in Anbar. This very real 
risk calls for a preplanned response. This report, therefore, proposes 
to add two additional Marine RCTs to the two RCTs and one Army BCT that 
are already in Anbar. This force (five brigade-equivalents, or about 
18,000 soldiers and marines) is too small to secure the major cities in 
Anbar, let alone the entire province. Five brigade-equivalents would, 
however, suffice to cover the roads from Anbar to Baghdad, intercept 
insurgents, and prevent the establishment of new rebel strongholds in 
the province. Such operations would properly support the main effort in 
Baghdad by controlling spillover effects.
    The commander on the ground in Iraq could use the two additional 
RCTs designated for Anbar elsewhere, of course. It might prove more 
important to interdict movement between Diyala and Baghdad than to 
reinforce American troops now in Anbar. In the worst case, the 
commander could move these regiments into the capital if unexpectedly 
high violence erupted in Baghdad itself during the clear-and-hold 
operation there. By deploying these two additional RCTs into Iraq, the 
commander on the ground will gain the flexibility to respond to 
unforeseen difficulties or opportunities in and around Baghdad without 
having to accept any additional risk in outlying areas.
    The Army Brigade in Anbar, finally, was initially deployed to Iraq 
in January 2006. By the time the recommended operations would begin, it 
will have been in Iraq for nearly 15 months. This plan, therefore, 
proposes to send a fresh Army BCT into Anbar to replace that unit, 
which has already had its tour extended. It would require a total 
deployment of five Army BCTs and two Marine RCTs in addition to the 
forces already in Iraq. In an emergency, of course, the commander in 
Iraq could keep the existing brigade in Anbar and use the brigade 
designated to replace it as a further Reserve for deployment in Baghdad 
or elsewhere. The plan, therefore, commits four additional BCTs into 
Baghdad, designates two RCTs for Anbar but makes them available 
elsewhere if necessary, and designates one BCT that could be used as a 
Reserve in an emergency.
Clearing and Holding
    What actually happens on the ground determines whether this or any 
plan succeeds or fails. American forces have gained considerable 
expertise in clearing and holding operations in Iraq from their 
failures, such as the first Battle of Fallujah in April 2004, and from 
their successes, such as operations in Tall Afar in September 2005. 
(The report discusses the general character and specific phases of 
clear-and-hold operations in several sections below.) Recent operations 
in Baghdad emphasize the skill with which U.S. troops can clear enemies 
from urban areas. In 2006, American forces in Baghdad conducted 
Operation Together Forward (OTF) in two phases: The first from June 14 
to July 24, 2006; the second from August 1 through October 24, 2006. In 
both operations, the clear phase went well. Violence dropped in cleared 
neighborhoods and some economic activity resumed.
    But the U.S. command committed inadequate combat power to hold 
operations, relying instead on Iraqi police and soldiers to maintain 
the security that joint U.S. and Iraqi patrols had established. The 
United States added two brigades (fewer than 10,000 troops) to support 
the first phase of OTF and one brigade (plus additional detachments 
coming to around 7,000 soldiers) to support the second. Because there 
were too few American troops, and because American commanders wished to 
rely heavily on Iraqi forces, U.S. troops did not remain in cleared 
neighborhoods either to defend them or to support and improve the Iraqi 
forces trying to maintain order there. The different Sunni and Shiite 
enemy groups made a point of surging into the cleared but undefended 
neighborhoods to demonstrate the futility of the operations, and they 
also attacked neighborhoods that were not being cleared by American and 
Iraqi troops. Violence overall in Baghdad soared.
    The plan proposed in this report would use established practices 
for clearing neighborhoods, but would provide adequate American forces 
to hold them, in partnership with Iraqi forces. American units remain 
in neighborhoods to secure the population and to support and strengthen 
Iraqi forces until they are able to hold the area without coalition 
support. These undertakings are firmly in accord with recommended 
counterinsurgency doctrine.
    Clearing operations generally proceed as follows. American troops 
partner with Iraqi troops before the operation. They plan the operation 
and train for it together. Since American and Iraqi units are already 
operating throughout Baghdad's neighborhoods, they gather intelligence 
in the targeted area prior to the operation. They determine the enemy's 
strength and disposition, how the enemy is organized and conducts 
operations, and so on. When the operation begins, joint U.S.-Iraqi 
teams isolate the district through checkpoints and other outposts, 
patrols, surveillance, and obstacles. American and Iraqi infantry then 
sweep through the district. They cordon off each house or apartment 
block and then knock on the door, asking to examine the inside. If they 
are granted permission, they enter politely and then examine every part 
of the structure for weapons caches and evidence of enemy activity. The 
Iraqi forces with them provide a vital cultural interface with the 
inhabitants both by communicating with them and by sensing 
irregularities. On the rare occasions when the occupants attempt to 
refuse permission to examine the house, Iraqi and U.S. soldiers enter 
by force and continue their search.
    When every structure in the district (including every mosque) has 
been searched and all weapons caches and suspicious individuals have 
been removed, neither the American nor the Iraqi soldiers leave the 
neighborhood. Instead, they establish permanent positions in disused 
factories, houses, apartments, government buildings, and, if necessary, 
schools (although coalition forces prefer to avoid occupying schools 
because it sends a bad signal to the neighborhood). American and Iraqi 
teams man each position jointly. They allow traffic into the 
neighborhood to resume, although they continue to man joint outposts at 
critical intersections. They conduct regular joint foot and vehicle 
patrols throughout the neighborhood, maintaining contact with the local 
population and establishing trust. Over time, U.S. forces will assist 
Iraqis in developing comprehensive, sustainable human intelligence 
networks in the area.
    The tactics described above are illustrative, not prescriptive. 
They are based on practices that American units have used in Iraq in 
the past. Commanders will apply techniques appropriate to the areas in 
which they are operating. Every such combined operation requires that 
American forces, Iraqi Army units, and Iraqi police formations all work 
toward a common goal and within a single command structure. Unity of 
effort is essential for success in this kind of endeavor.
    According to military officers who have experience with clearing 
operations in Iraq, after 2 weeks of improved security and continued 
force presence, the local people typically begin providing the 
coalition forces in their neighborhoods with valuable tactical 
intelligence. As the enemy attempts to reinfiltrate the neighborhood, 
locals report some of them. Savvy Iraqi or even American soldiers note 
new faces and begin to ask questions. When bombs or IEDs go off, locals 
reveal the perpetrators. Before long, they begin to warn coalition 
troops when LEDs have been placed. At that point, violence begins to 
drop significantly and economic and political progress can begin.
    There is nothing novel about this approach to counterinsurgency. It 
has been practiced in some form in almost every successful 
counterinsurgent operation. It was successful on a local level in 
Vietnam in the form of the Combined Action Platoon (CAP) program, which 
many observers felt should have been extended to more of that country. 
It has worked in Tall Afar and, insofar as it was applied, even in 
Baghdad. It is working now in Ramadi and in south Baghdad. If properly 
resourced, it can bring large sections of the capital under control.
    Curiously, though proven effective, this approach runs counter to 
the current MNF-I concept of disengaging from populated areas and 
rapidly handing over security responsibility to Iraqi forces of dubious 
capability.
    It is vital to sustain the hold part of the operation for months 
after the initial clearing operation. Previous failed clear-and-hold 
operations in Iraq suggest that the enemy can reinfiltrate a cleared 
area in about 90 days. Within 6 months, the enemy can be operating 
openly once more. In a dense urban environment like Baghdad, the enemy 
can reconstitute even faster. In addition, the enemy in Iraq has 
historically pursued a pattern of going to ground when coalition forces 
are present and waiting for them to leave. By withdrawing American 
troops from the hold phase of an operation too quickly, the United 
States plays into this enemy strategy. Any sound clear-and-hold 
approach, therefore, will require the presence of significant American 
forces in neighborhoods, supporting and strengthening Iraqi troops and 
police, for at least 9-12 months after the start of operations.
Training
    This long-hold period allows time for Iraqi troops and police to 
gain the capability and confidence they need reliably to assume 
responsibility for maintaining secured areas. Phase II of this project 
will address the challenges of training Iraqi military and police 
forces in greater detail, but some observations are appropriate here.
    Discussions of military policy in Iraq frequently present efforts 
to train Iraqi forces as antithetical to efforts to use American forces 
to help bring security to the Iraqi people. The Iraq Study Group report 
and several other proposals emphasizing training Iraqis have suggested 
increasing the number of U.S. soldiers embedded within Iraqi units and 
decreasing the number of Americans actually conducting operations. 
These proposals claim that increasing the number of embedded trainers 
will accelerate the training of Iraqi units. Such ideas ignore a 
critical fact joint, sustained clear-and-hold operations that involve 
both Americans and Iraqis working in partnership are one of the most 
effective ways to train Iraqi units rapidly and to a high standard.
    To begin with, the United States has a small pool of soldiers whose 
job is to train indigenous troops--the Special Forces (which was 
created in the 1960s to perform this mission). Those soldiers spend 
their careers learning how to train others, and they are superb at it. 
In the past year, however, Special Forces have come to concentrate more 
heavily on what is called ``direct action''--tracking terrorists, 
kicking in doors, and seizing enemies. The large size of the Iraqi 
Army, furthermore, requires more trainers than the Special Forces can 
provide. For both reasons, the training mission in Iraq has been given 
to soldiers drawn from the conventional forces, both Active Duty and 
National Guard. These soldiers receive some training in how to train 
Iraqis and then embed with Iraqi units to accomplish their task. 
America's flexible and creative soldiers respond well to this 
challenge, but the skills of the conventional forces soldiers detailed 
to this task are generally lower than those of the Special Forces 
troops specifically trained for it. Although the U.S. Army is now 
training more conventional soldiers for these responsibilities, it 
cannot do so fast enough to embed enough trained, conventional soldiers 
with Iraqi units rapidly. The more the United States tries to 
accelerate training Iraqi units by embedding soldiers, the lower the 
average quality of that training will be.
    This kind of training also takes a much larger toll on the American 
ground forces than most people imagine. The number of embedded trainers 
is small compared to the total number of U.S. forces in Iraq, but the 
effect on the Army is disproportionately high. Training teams have a 
high proportion of officers and noncommissioned officers and a 
relatively small complement of enlisted soldiers. Each training team, 
therefore, effectively removes the leadership cadre of an American 
battalion. The enlisted personnel of the battalion will often have 
remained behind, and so the battalion is not counted as being 
``deployed,'' but neither can it be used for combat without the 
replacement of its leadership team. This process is having an important 
negative effect on the deployability of units in the Army that would 
appear on paper to be usable.
    Iraqi units operating together with American units learn a great 
deal very quickly. They interact with U.S. command teams as they plan 
operations, and then they execute those operations alongside the best 
and most professional soldiers in the world. There is no substitute for 
this kind of training. It is one thing for an advisor to describe what 
to do; it is another to watch a superb soldier and unit do it expertly. 
If the only training of Iraqi troops is being conducted by embedded 
American trainers, Iraqis will never see what excellence looks like. 
When they fight alongside excellent soldiers, they see it vividly and 
understand better what to aim for. Combined clear-and-hold operations 
are an essential means for bringing the Iraqi Army up to the necessary 
levels of capability as quickly as possible.

                         THE ENEMY'S RESPONSES

    The enemy will respond to American and Iraqi efforts to establish 
security in Baghdad. No one can predict their response with certainty, 
but after nearly 4 years in this struggle planners can observe the 
patterns in their behavior that suggest their likely reactions. 
Different groups will, of course, respond differently to ongoing 
operations. Above all, the action of clearing and holding a large part 
of central Baghdad will change the relationship between groups and even 
the political dynamics within Iraq. This report will not consider these 
second-order effects in detail, but subsequent phases of the project 
will do so. For now this report remains focused on the most essential 
task facing the U.S. and Iraqi governments today: Defeating enemy 
attempts to disrupt our efforts to establish security.
General Enemy Responses
    The clear-and-hold operation occurs in four main phases: (1) The 
deployment of U.S. and Iraqi forces to their designated areas, (2) the 
establishment of those forces in their areas and efforts to acquire 
necessary intelligence and physical bases from which to conduct 
operations, (3) the clearing of the neighborhoods, and (4) holding 
cleared areas. This report first considers the possible reactions of 
all enemy groups taken together in each phase and then the possible 
reactions of each individual group separately. The report will consider 
what each enemy is most likely to do, and what actions each enemy could 
undertake that would most endanger the mission and American interests.
    Phase I: Deployment and Marshalling of Resources. This phase 
extends from the announcement of the President's intention to conduct 
clear-and-hold operations until all units involved in that operation 
are physically on the ground in and around Baghdad and Anbar. In 
general terms, this is a dangerous time. The President will have 
announced his intentions, but American reinforcements will not yet have 
arrived in theater. Enemy groups might take advantage of this interval 
to increase sectarian cleansing and to establish themselves in strong 
positions in targeted neighborhoods in the hopes of making the clearing 
operations too painful for U.S. forces to conduct. This is the most 
dangerous course of action they could take, but it is not the most 
likely if the President acts quickly and decisively and forces arrive 
in theater before spring. Many enemies in Iraq are fair-weather foes: 
Violence generally drops after Ramadan and remains relatively lower 
through the winter. It is most likely that the enemy will conduct an 
expanded propaganda campaign aimed at intimidating civilians and 
raising enemy morale during the first phase of American operations.
    The best coalition responses include developing an effective and 
clear information campaign that underlines the scale, duration, and 
determination of the coming effort; stepping up the ``presence 
patrols'' of units already in Baghdad; emphasizing that the aim of 
coming operations is to protect civilians of all sects and ethnicities; 
and countering enemy disinformation. To prevent sabotage in future 
phases, coalition forces must secure the resources needed for 
reconstruction and reconstitution of police in the targeted areas.
    Phase II: Preparation. In this phase, coalition units begin to 
arrive in their designated areas. They start developing intelligence, 
establishing relationships with the population and ISF, and assessing 
the overall situation. Extremists are likely to respond by increasing 
the number of suicide bombings and targeted murders of civilians. Local 
vigilante groups are more likely to go to ground and avoid direct 
confrontations with coalition forces. Rather, these groups will rely on 
indirect attacks on coalition forces, including IEDs and mortar fire. 
They may also attack civilians. Some enemy groups may attempt to move 
from threatened districts to areas they perceive as safer and wait out 
the operation. U.S. forces must anticipate such movements, and units 
must be prepared to conduct raids and other short operations to deny 
the enemy safe haven in other areas. Most enemies will continue their 
efforts to infiltrate the Iraqi Army and police units in their areas.
    During this phase, the most damaging actions the enemy could take 
would be to surge the level of their violence dramatically in an effort 
to discredit the security effort and the Iraqi Government, to complete 
sectarian cleansing campaigns, and to intimidate the population. This 
course of action is less likely because most insurgent groups have only 
a limited capability to surge on short notice, because most will avoid 
using up all available fighters and suicide bombers at the outset of a 
campaign, and because U.S. and Iraqi forces are already present and 
patrolling in Baghdad. The appropriate coalition response is again to 
increase presence and patrols throughout the capital, especially in the 
areas beyond those designated for clearing operations, in order to deny 
the enemy safe havens. The coalition will also have to conduct an 
intelligent information campaign that makes clear that the violence is 
the result of an increase in insurgent attacks aimed at harming the 
Iraqi people, but that future operations will end the violence 
permanently. The coalition must also be prepared for humanitarian 
efforts to handle increased refugee flows within Baghdad and beyond.
    Phase III: Clearing. The insurgents in Iraq have fallen into a 
pattern in response to clear-and-hold operations. At the beginning of 
such operations, they normally surge their attacks and target both 
coalition forces and Iraqi civilians. They bring in specialized 
capabilities, such as snipers and IED cells, to inflict casualties on 
American and Iraqi forces in order to test their resolve. When it 
becomes clear that the coalition intends to pursue the operation, most 
enemy groups then go to ground. They use contacts in the Iraqi 
Government to attempt to discredit the operation, constrain it, or 
cancel it altogether. They expect that any clearing operation will be 
short-lived, and that U.S. forces will leave vulnerable Iraqi Army and 
police forces unsupported when the operations end. They, therefore, 
conserve their fighters and weapons while the Americans are present. 
They anticipate unleashing them on the civilian population if political 
efforts to forestall the operation fail or Iraqi forces and Americans 
leave. This surge--go to ground--surge pattern is the likeliest enemy 
response to the clearing operations proposed in this report.
    It requires careful consideration and response. First and foremost, 
the American Government and the American people, as well as the Iraqi 
Government and the Iraqi people, must understand the importance of 
seeing the clear-and-hold operation through to its conclusion. If the 
operation begins in March and violence begins to wane in May, the 
governments and publics cannot, thereby, conclude that the operation 
has succeeded beyond expectations and start to wind down. The United 
States must continue to maintain its forces to support Iraqi troops in 
their hold operations for months after violence in cleared 
neighborhoods has begun to fall, because the odds are that the enemy is 
trying to husband its resources for a future attack when U.S. forces 
leave.
    In addition, the American and Iraqi Governments and people must 
recognize that a surge in enemy violence later in 2007 is very likely 
even if this operation is successful. The insurgents regularly increase 
the level of their violence in Ramadan each year. If this operation 
begins in March and violence wanes through the summer, it is very 
likely that the violence will escalate again in the fall. This pattern 
is normal and to be expected. To the extent that a reduction in 
violence is the measure of success of this operation, we must be 
prepared to compare Ramadan 2007 with Ramadan 2006 rather than with 
June or July 2007.
    It should be possible, moreover, to mitigate the magnitude of the 
late-2007 enemy surge. American forces working with Iraqis in permanent 
positions in cleared neighborhoods will acquire a great deal of 
intelligence about the enemy. They will be able to identify and stop 
many attempts to infiltrate cleared neighborhoods again. As they gain 
the trust of the population, they will receive more information about 
enemies who escaped when the area was cleared. They will locate more 
weapons caches and limit the flow of new weapons into the neighborhood. 
Long-term presence will help reduce the enemy's ability to launch new 
attacks later in the year.
    During the third phase, the most dangerous course of action the 
enemy might take is an Iraqi equivalent of the Tet offensive, in which 
all or most enemy groups converge on coalition forces in large-scale 
and spectacular attacks. Enemy groups conduct mass-casualty attacks on 
mixed neighborhoods that coalition forces are attempting to clear, 
suborn Iraqi security forces, and launch high-profile attacks in other 
Iraqi cities. Some enemy groups might assassinate prominent civil or 
religious leaders or destroy important religious landmarks.
    This course of action is less likely because it requires the 
insurgents to expend most of their fighters and weapons rapidly at the 
beginning of the operation, something they have generally avoided in 
the past. It can be countered by ensuring that clearing operations 
proceed rapidly and simultaneously in multiple neighborhoods. The 
coalition must also devote particular attention to protecting likely 
high-profile targets in Baghdad and around the country. The United 
States must maintain a sizable Reserve to offset the danger that the 
enemy might attempt to generate high levels of violence in 
neighborhoods or cities that are not being cleared. American commanders 
must have uncommitted troops that can be sent to troubled areas rapidly 
and on short notice without detracting from the main effort to clear 
the designated communities. If U.S. commanders attempt to conduct this 
operation with precisely the number of soldiers they think they might 
need to clear neighborhoods, but do not retain a substantial Reserve, 
they entice the enemy to choose this most dangerous option and severely 
constrain their own ability to respond to this contingency. A 
significant Reserve (at least one brigade combat team) is an essential 
component of this or any sound plan.
    Phase IV: Hold and Build. By this phase of the operation, U.S. and 
Iraqi forces will have examined every structure in a neighborhood, 
removed all weapons caches that they have identified, and detained many 
suspicious individuals, some of whom will turn out to be members of 
enemy groups. The hold-and-build phase of this operation is one of the 
most dangerous for the population of the cleared neighborhood. The 
detainment of suspicious individuals involves removing many of the 
young, tough, armed men who were defending the neighborhood from 
outside attack (whatever violence of their own they might have been 
committing). Unless the coalition maintains a robust armed presence in 
the cleared area, the remaining inhabitants--disproportionately 
including the elderly, women, and children--will be highly vulnerable 
to enemy strikes.
    Past clearing operations followed by premature American withdrawals 
have conditioned enemies to wait for this phase to strike. 
Consequently, this plan argues that enemy groups are likely to revert 
to their past pattern of surging violently, going to ground, and 
subsequently surging very violently. Once the insurgents find that 
American forces are remaining in force in cleared neighborhoods, they 
will probably adopt a different approach. Surging fighters and weapons 
into protected neighborhoods exposes the insurgents to losses without 
giving them any benefits. They are more likely, therefore, to increase 
the number of high casualty attacks, especially vehicle-borne IEDs 
(VBIEDs or car bombs) and suicide bombers. It is extremely difficult to 
stop all such attacks, and some will inevitably reach their targets. If 
they are relatively low in number and isolated rather than massed, then 
they will not likely be sufficient to derail reconstruction and 
political development. Active patrolling, intelligence-gathering, and 
control of critical access points can help reduce the number and 
effectiveness of such attacks.
    The enemy is likely, then, to attempt to move into uncleared 
neighborhoods and destabilize them by striking less-well-defended 
targets. The enemy may also attempt to increase the level of violence 
in cities beyond Baghdad, attempt to conduct high-profile 
assassinations, or try to destroy prominent religious landmarks. In the 
worst case, they may try to surge back into cleared neighborhoods to 
demonstrate the futility of the clearing effort.
    The most effective responses to such insurgent efforts, once again, 
rely on having a readily available Reserve Force. Reserves must be able 
to reinforce cleared neighborhoods threatened by large surges of 
violence, to control increasing violence in uncleared neighborhoods, 
and to address attacks in cities outside of Baghdad. The plan in this 
proposal designates one BCT as a Reserve for Baghdad and two RCTs in 
Iraq as potential Reserves in case of emergency. The plan calls for 
deploying those RCTs into Anbar province in the expectation that 
threatened Sunni insurgents will return to their base. It might prove 
necessary, however, to deploy one or both of those RCTs into Diyala, 
another al-Qaeda base that emerges, or even into Baghdad or its nearer 
suburbs.
    These decisions can only be made by the commander on the ground in 
light of changing circumstances, but his Reserve Forces can only 
achieve the effects he desires if they are already near Baghdad. Kuwait 
is 600 miles from the Iraqi capital--Reserve Forces held there might 
take too long to arrive in response to a crisis. Forces stationed in 
the United States, even if alerted for possible deployment, would 
almost certainly take too long to respond. Reacting effectively to 
likely enemy challenges requires positioning significant Reserve Forces 
already near the scene of the fighting.
Specific Enemy Responses
    Although the discussion above captures the likely aggregate of 
enemy responses, it is important to consider how each individual enemy 
group is likely to respond as well, since the particularities of those 
responses can have a profound impact on the developing political 
situation in Iraq. The major insurgent groupings are the Jaysh al-
Mahdi, the Badr Corps, al-Qaeda in Iraq and associated Islamist groups, 
the Baathists and military nationalists, and vigilante groups on both 
sides. As we have seen, the Shiite militias share many common aims but 
are also rivals for power. They may cooperate in some scenarios, but 
there is reason to believe that they can be kept apart in others. The 
Sunni groups have cooperated more closely because of their sense of 
being beleaguered, but their divergent aims and methods will likely 
lead to different responses to the proposed clearing and holding 
operations. Despite the conflicting sectarian makeup and aims of the 
vigilante groups, on the other hand, their motivations and methods make 
it likely that their responses to clear-and-hold operations will be 
similar to one another.
    Jaysh al-Mahdi. Moqtada al-Sadr's militia, the Jaysh al-Mahdi, 
presents one of the greatest dangers to this operation. It is based in 
Sadr City, which it largely controls through a Hezbollah model of 
providing services, including security, that the local government is 
unable to offer. It is impossible to estimate with accuracy how many 
fighters the Jaysh al-Mahdi could muster in total, let alone how many 
are still under Sadr's control. There are certainly thousands of armed 
militiamen, however--more than enough to force a bloody showdown with 
coalition forces if provoked or driven to full-scale conflict.
    Moqtada al-Sadr himself has also become a force in the political 
process, moreover. His 30-seat bloc of parliamentarians is an important 
element of Maliki's government (although his recent ``walkout'' from 
Parliament underlined the feasibility of forming a coalition government 
without him if necessary--which was one of the reasons why his 
followers returned to their seats relatively quickly). A full-scale 
confrontation with the Jaysh al-Mahdi would not only be bloody, but it 
would also be a political crisis of the first order in Iraq. It is thus 
highly desirable to avoid such a confrontation if it is at all 
possible.
    The Jaysh al-Mahdi has been conducting numerous murderous raids 
from Sadr City into Sunni and mixed neighborhoods and has caused many 
of the American casualties in Baghdad. Clearing operations in Sunni and 
mixed districts will lead to conflict with isolated groups of Jaysh al-
Mahdi fighters. Efforts to contain the flow of such fighters from Sadr 
City into Baghdad will require coalition forces to patrol the borders 
of Sadr City (which they are already doing) and possibly to restrict 
access to Sadr City periodically. These actions will place coalition 
forces in close proximity to the heart of the Jaysh al-Mahdi's power. 
The desire to appear evenhanded by attacking Shiite militias even as 
operations bring Sunni-sponsored violence under control also creates 
pressure to launch isolated raids into Sadr City itself.
    If coalition operations are skillfully conceived and executed, they 
will not provoke a full-scale confrontation with Sadr and the Jaysh al-
Mahdi. It is not in Sadr's interest to engage in a full-scale 
confrontadon. His experiences in 2004 in Najaf and Karbala made clear 
that whatever political damage he might be able to cause through such 
violence, American forces will decimate his fighters. He cannot afford 
to lose his warriors. He is not popular within the Iraqi political 
system and draws much of his political strength from his militia. He 
also requires a strong military arm to confront the Badr Corps and 
SCIRI in the fight for control of a post-coalition Iraq. Whatever harm 
Sadrists might do to coalition hopes for success in Iraq by confronting 
coalition forces directly, this path would almost certainly be 
political suicide for Sadr. He is unlikely to choose direct 
confrontation with the coalition unless it is forced upon him.
    Invading or sealing off Sadr City would force Sadr to resist 
coalition forces vigorously, regardless of the cost. Even launching 
isolated raids in and around Sadr City is dangerous. Such raids might 
lead to escalation on both sides and an unintended, major confrontation 
that both sides wish to avoid. For that reason, this plan focuses on 
responding to Jaysh al-Mahdi attacks by protecting the neighborhoods 
they are targeting, rather than by striking at the sources of their 
power.
    Such defensive operations will, nevertheless, lead to the killing 
and capturing of Jaysh al-Mahdi fighters, but they are not likely to 
provoke Sadr or his unruly lieutenants into full-scale conflict. For 
months, coalition forces have been engaged with Jaysh al-Mahdi fighters 
in discrete operations. On each occasion when coalition forces have 
captured or killed members of death squads, Sadr and the Jaysh al-Mahdi 
leadership have abandoned their compromised militiamen, declaring them 
``rogue elements'' or criminals masquerading as warriors. This past 
restraint on their part is evidence of their desire to avoid a full-
fledged conflict. As long as coalition forces demonstrate similar 
restraint with regard to Sadr City, it is likely that the Jaysh al-
Mahdi will remain relatively quiescent.
    If large-scale conflict with the Jaysh al-Mahdi nevertheless 
erupts, the plan proposed in this report would require substantial 
modification. It would be necessary to abandon much of the effort to 
clear and hold Sunni and mixed neighborhoods in central Baghdad in 
order to focus instead on clearing Sadr City. Clearing operations in 
Sadr City would be bloody--the Jaysh al-Mahdi has had a long time to 
fortify the area--but the result is not in doubt. Coalition forces 
would destroy the Jaysh al-Mahdi and clear the Shiite neighborhoods. 
Depending on the political and security situation, it would then be 
necessary to turn back to the problem of suppressing the Sunni Arab 
insurgency and securing the neighborhoods in the center of Baghdad.
    Large-scale conflict with the Jaysh al-Mahdi would probably lead to 
the withdrawal of Sadr from the political process and might lead to the 
fall of the Maliki government. Such an occurrence would be unfortunate 
but not necessarily devastating. Even if the Maliki government fell, 
executive power would remain in the Iraqi Presidential Council, which 
could form an emergency government. Iraq would remain a sovereign 
state. Conflict with the Jaysh al-Mahdi is clearly undesirable and 
dangerous, and every effort should be made to avoid it. It would not, 
however, necessarily lead to immediate coalition defeat.
    The Badr Corps. Abdul Aziz al-Hakim's Badr Corps is an important 
player in Iraqi politics, but it has relatively little presence in 
Baghdad, where Sadr and the Jaysh al-Mahdi are the dominant militia 
group. Hakim has already manifested his concern that Sadr is gaining 
the upper hand in the Shiite community, particularly in central Iraq. 
He could do little to influence the fighting in Baghdad directly except 
by increasing the flow of Shiite fighters from the south into the 
capital.
    If coalition operations are clearly aimed at establishing security 
in central Baghdad and not attacking the Shiite communities in and 
around Sadr City, it is unlikely that the Badr Corps will play a very 
large role. If the United States attacked Sadr City, however, Hakim 
might make common cause with Sadr and attempt to inflame the south and 
all of Shiite Iraq against the coalition. In this worst case, coalition 
defeat is very likely--the Iraqi Government could not survive such a 
challenge, and coalition forces could not likely handle the military 
threat throughout Iraq. This is yet another reason to avoid any direct 
attack on Sadr City or actions that are likely to lead to a full-scale 
confrontation with Sadr.
    It is even less in Hakim's interest to provoke a full-scale 
confrontation with the coalition than it is in Sadr's. Sadr has gained 
political influence by taking a strong anti-American position. Hakim 
has been much more moderate, apparently concentrating on the likelihood 
that the U.S. presence will lead in the end to a Shiite state that he 
hopes to rule. No part of the plan proposed in this report directly 
threatens the outcome he desires. On the contrary, clearing and holding 
the Sunni and mixed neighborhoods in Baghdad and suppressing the Sunni 
Arab insurgency in Anbar forwards Hakim's goals. It is very likely that 
Hakim will publicly protest against Shiite casualties and denounce the 
operation, but it is extremely unlikely that he will support Sadr or 
throw large numbers of his own fighters into the fray--as long as the 
core of the Shiite community is not threatened.
    Iran. It is more difficult to estimate likely Iranian actions to 
the various possibilities outlined above, but the range of Tehran's 
possible responses is rather narrowly constrained. Iran is certainly 
unlikely to watch the destruction of the Badr Corps or even the Jaysh 
al-Mahdi with equanimity, and would probably increase dramatically the 
level of its support for those groups, even including direct support 
through Iranian advisors. This is yet another reason why courting a 
full-scale confrontation with the Shiite militias in the first stage of 
the operation would be unwise. Iran is likely to increase its support 
of the militias and other fighting groups in Iraq in response to any 
American operation. The impact of such an increase will be muted as 
long as the United States sends and maintains an adequate troop 
presence to secure and hold designated neighborhoods. Iran is highly 
unlikely to court a direct military confrontation with the United 
States during such an operation--by sending disguised fighters against 
our supply lines in the south, for instance, or taking any other 
military action that could be traced directly back to Tehran.
    Al-Qaeda in Iraq and Other Islamist Groups. Al-Qaeda in Iraq is one 
of the most dangerous enemies facing coalition forces, not because of 
its power but because of its goals. Unique among the major insurgent 
groups, al-Qaeda in Iraq aims directly at regional objectives and sees 
operations in Iraq as merely a steppingstone to achieving larger goals. 
This group is also motivated by an apocalyptic vision of the grand 
struggle between righteous Islam and ``heresy'' within the Muslim 
community (including Shiism), and between Islam and the infidel West. 
Zarqawi, the group's leader until his death in June 2006, adopted a 
Leninist strategy, according to which ``the worse it is, the better it 
is'' for the insurgent groups. Zarqawi used a series of spectacular 
attacks on Shiite (and even Sunni) civilians deliberately to ignite 
sectarian conflict. This approach drew criticism even from other parts 
of the global al-Qaeda movement--Aymara al-Zawahiri, the group's 
ideological leader, criticized Zarqawi for his attacks on Shiites. 
Other Islamist groups in Iraq, including Ansar al-Sunna, also question 
the religious justification for attacking fellow Muslims in such an 
instrumental way.
    But Zargawi's strategy was effective. The Shiite community in Iraq 
endured nearly 2 years of attacks without responding on a large scale, 
but the bombing of the Golden Mosque in February 2006 proved too much 
for that community to withstand. The cycling sectarian violence in Iraq 
owes a great deal to Zargawi's determined efforts to provoke full-scale 
civil war and chaotic violence, from which he thought his group would 
benefit.
    Al-Qaeda in Iraq can be expected to continue to pursue this 
approach during the proposed clear-and-hold operation. In general 
terms, the group will probably continue to target Shiite civilians, 
both ordinary people and key figures in the government and within the 
Shiite religious community. It is likely to work to generate more 
spectacular attacks like the Golden Mosque bombing or mass-casualty 
attacks in Shiite communities. If such attacks succeed in significant 
numbers, they will undermine confidence in the clearing operation, spur 
the Shiite militias to even greater sectarian violence, and may 
ultimately break the Iraqi Government.
    It is not clear how, specifically, al-Qaeda in Iraq and associated 
groups will respond to the proposed clearing operation. Faced with a 
substantial attempt to end the violence in Baghdad, they might embrace 
an apocalyptic fight with coalition forces in the heart of the capital, 
surging all of their resources against coalition and especially Iraqi 
civilian targets. This approach would generate a lot of violence in the 
initial phase of the clearing operation, but would not necessarily be 
the most dangerous response they might make. By striking the coalition 
when coalition forces were most prepared, the Islamists will lose many 
fighters and use up their limited supply of suicide bombers and car 
bombs. If the U.S. and Iraqi forces pursue the operation to its 
conclusion, they will significantly reduce this particular enemy's 
ability to undertake subsequent surges of violence, and the prospects 
for the success of the operation will increase.
    It is more likely that al-Qaeda in Iraq and other Islamist groups 
will act as they have in the past: They will increase violence at the 
start of the operation and then go to ground either in Baghdad 
neighborhoods not designated for clearing or in the surrounding cities 
and towns. There, they will hope to reconstitute and prepare for a 
major surge of violence after the clearing operations have ended. They 
will also prepare spectacular mass-casualty attacks against targets in 
Baghdad and elsewhere.
    The coalition must maintain great pressure on the Islamists in 
Baghdad and beyond. Clearing and holding neighborhoods over the long 
term will help mitigate the risks of attacks in those neighborhoods, 
but the presence of large Reserves is once again essential to 
preventing the Islamists from establishing safe bases elsewhere from 
which to prepare devastating attacks. The regions around Taji, to the 
north of Baghdad, and Iskandariyah, to the south, merit particular 
attention. There are already two American BCTs operating there, one in 
each region, and they should not be moved. They may need to be 
reinforced. Additionally, because al-Qaeda has bases in Diyala 
province, coalition forces may have to seal off the roads from Diyala 
into Baghdad or to divert Reserves into Diyala itself. The main al-
Qaeda bases, of course, are in Anbar, which is why the proposed plan 
devotes two additional RCTs to that province.
    Baathists and Military Nationalists. These groups have sustained a 
de facto working alliance with the Islamists because of the perceived 
danger to the Sunni Arab community in Iraq, but they disagree both on 
objectives and on methods (although the turnover in leadership is 
leading to greater convergence, as noted above). The Baathists and 
military nationalists include the most experienced insurgent fighters, 
many drawn from the ranks of Saddam's army. They have focused their 
attacks heavily on coalition forces, including Iraqi Security Forces, 
which they regard as legitimate targets, but have eschewed attacks on 
Iraqi civilians. They are not in favor of accelerating the civil war 
simply for the purpose of generating chaos from which they hope to 
benefit--on the contrary, they aim to bring the civil war under control 
after they win the struggle, as they expect to do.
    The aims of these groups are also confined more narrowly to Iraq. 
They are unlikely to be as willing as the Islamists to condemn Iraq to 
an annihilating sectarian conflict in the hopes of achieving some 
greater regional benefit. They are much more likely, therefore, to 
become open to negotiation and political persuasion if they come to 
believe that their military struggle is hopeless.
    The Baathists pose a significant danger in the first three phases 
of the proposed operation. They are likely to launch a significant 
propaganda effort during the deployment of coalition forces. They will 
attempt to portray the planned operation as an assault on the Sunni 
community. They may seek, thereby, to bring regional and international 
pressure to bear on the United States to abandon the plan entirely. As 
the operation begins, the Baathists are likely to launch increased 
attacks against coalition forces. Because the Baathists are the most 
militarily skilled among enemy groups, they may pose the most serious 
challenge to forces clearing those neighborhoods where they have been 
able to establish strongpoints and defensive positions. The worst case 
scenarios involve increased cooperation between the Baathists and the 
Islamists, including Baathist support for mass-casualty or spectacular 
attacks on Shiite targets.
    The coalition must counter Baathist propaganda efforts with 
skillful information operations that emphasize that the coalition's 
goal is to protect the population, both Sunni and Shia, from criminals 
and terrorists. Initiating reconstruction activities in the immediate 
wake of the clearing operation (a policy considered in more detail 
below) will also help offset the impression that this mission is aimed 
at harming the Sunnis. Most of Iraq's Sunni neighbors, and many Sunni 
states beyond Iraq's borders, have become extremely concerned about the 
danger of a spreading civil war. Many are quietly suggesting that an 
American withdrawal would be disastrous and are advocating for a surge 
aimed at bringing the violence under control. They might posture in 
various ways publicly, but they are extremely unlikely to bring any 
effective pressure to bear to stop an operation that suits their 
interests, regardless of Baathist propaganda.
    Greater Baathist cooperation with the Islamists cannot be 
discounted, but it is not yet certain. The continual al-Qaeda in Iraq 
attacks against Shiite civilians have alienated many insurgents on both 
sides, and this trend is likely to continue. The Baathist desire to 
rule a unified Iraq clashes with the Islamist willingness to destroy 
Iraq in the name of larger regional gains, a fact that will make 
increased cooperation between the groups difficult. But as time 
elapses, and a younger generation of Iraqi nationalists takes 
leadership positions in what was originally the Baathist resistance 
movement, they may work more closely than their predecessors with the 
Islamists.
    Perhaps the most dangerous option the Baathists could choose would 
be to try to force Sunni politicians to leave the government, possibly 
by moving their base of operations out of Baghdad and into Anbar and 
Diyala. The coalition must work to foreclose this option by retaining 
control in Anbar and by maintaining a sufficient Reserve to respond to 
shifts in Baathist attack patterns and movements.
    Vigilante Groups, Sunni and Shia. The main justification for 
vigilante groups on both sides is the need to protect their 
neighborhoods from sectarian attacks. Many of these groups are also 
involved in criminal activity, and some are taking advantage of the 
situation to engage in sectarian cleansing of their own. It is highly 
unlikely, nevertheless, that members of these groups would actively 
resist a large-scale clearing operation. The most radical might join 
hardcore insurgent groups. Some might attempt to accelerate sectarian 
cleansing before coalition forces arrived in force. Most, however, are 
likely to blend back into the population during the clearing operation 
and wait to see what happens.
    As long as peace is maintained in the cleared neighborhoods during 
the hold phase, the members of these vigilante groups are unlikely to 
cause much trouble. They retain a latent potential for violence if the 
coalition allows a security vacuum to develop. Some of them will be 
dissatisfied by the transition from being the big men around town, 
protecting their people, to being unemployed youths. Employment 
programs and other reconstruction efforts may help, but the coalition 
and the Iraqis must also consider ways of addressing individuals' and 
groups' loss of honor and prestige during this transition. 
Reintegrating members of the vigilante groups into their neighborhoods 
is not a simple process. Rather, it requires careful thought, 
appropriate planning, and adequate preparation.
Timeline
    The operations proposed in this plan would take most of 2007 to 
complete. As we shall see, most of the necessary reinforcements would 
not arrive in their designated areas until March; active clearing 
operations would probably not begin until early April. Past examples 
suggest that preparation and clearing operations will take about 90 
days, and so should be completed by midsummer. It will then be 
necessary to support Iraqi forces in hold-and-build operations through 
the end of 2007 in order to continue to degrade insurgent networks, 
prevent infiltration of cleared areas again, and mitigate likely enemy 
efforts to launch an autumn surge against coalition, civilian, 
symbolic, and high-profile targets. By early 2008, it should become 
possible to begin moving some American forces out of the cleared areas 
of Baghdad, although it is unlikely that large numbers of U.S. troops 
could begin to return home until much later in 2008, for reasons 
described below.
    2007 will be a violent year in Iraq. If this proposal is not 
adopted, then insurgent and sectarian violence will continue to 
increase unabated, as it has every year since the invasion. If this 
plan is adopted, then the pattern of the violence will probably change. 
There will be a significant increase in violence as clearing operations 
commence, probably followed by a reduction in violence in the summer, 
followed by a substantial surge of violence in the fall. If the United 
States continues on its present course, American and Iraqi casualties 
will be spread more evenly over the year, but all will be wasted 
because success is extraordinarily unlikely. If this plan is adopted, 
there will probably be higher casualties in the spring and fall, but 
far fewer by the end of the year. The coalition, moreover, will have 
made significant progress toward establishing security in Iraq's 
capital and paving the way for a sustainable transition to Iraqi 
control and responsibility.

                          WHAT IF? WHAT NEXT?

    Sound military planning requires considering ``branches and 
sequels'': How to handle contingencies that are likely to arise during 
the course of operations, and how to prepare for subsequent operations 
when the current one has been completed. The consideration of enemy 
courses of action above included a number of likely branches to handle 
possible contingencies. The most probable branches include:
          1. Deploying Reserve Forces into neighborhoods not being 
        cleared as enemy groups attempt to attack more vulnerable 
        targets;
          2. Restricting movement between Baghdad and either Anbar or 
        Diyala or both, in order to prevent insurgents from shifting 
        their bases;
          3. Deploying Reserves in areas of Baghdad being cleared to 
        overcome unexpected resistance;
          4. Deploying significant Reserve Forces either to Anbar, 
        Diyala, or elsewhere in response to enemy efforts to launch 
        attacks outside of the capital;
          5. Reinforcing security for high-profile targets (both people 
        and structures) in Baghdad, the north, and the Shia areas to 
        the south.
    Less probable branches include:
          1. Sealing Sadr City off either from the rest of Baghdad or 
        from Diyala;
          2. Attacking into Sadr City in the event of an unplanned 
        major confrontation with Shiite militias (although this plan 
        stresses the desirability of avoiding such a confrontation as 
        much as possible);
          3. Conducting operations against the Badr Corps in southern 
        Iraq in the event of a major confrontation with SCIRI. (Again, 
        this can result only from great misfortune or ineptitude on the 
        part of the coalition, since its aim should be to avoid such a 
        confrontation.)
    Executing the more probable branches requires having a significant 
Reserve ready and stationed within Iraq. Forces in Kuwait, let alone 
the United States, are too far away to respond rapidly to most of the 
likely contingencies. If commanders deploy only the force necessary to 
conduct the clearing operation, optimistically assuming that the enemy 
will not react or adapt to the clear-and-hold operation, they would be 
pursuing an irresponsible and dangerous policy.
    The operation to clear and hold the center of Baghdad is only the 
beginning of a larger effort to pacify Iraq. It is difficult to predict 
with any precision what operations would be necessary upon the 
conclusion of this one, particularly since clearing and holding the 
center of Baghdad would transform not only the security but also the 
political situation in the country. Some sequels are very likely to be 
necessary, however:
          1. Bringing Sadr City under control (see below);
          2. Redeploying forces from Baghdad to clear and hold Anbar, 
        beginning with Ramadi and Fallujah and then expanding up the 
        Euphrates and out to the Syrian border;
          3. Moving forces from Baghdad up the Diyala to Baquba and 
        clearing that area;
          4. Reinforcing security in the north, particularly in Ninawa, 
        including Mosul.
    It is possible that the successful clearing of central Baghdad will 
leave Moqtada al-Sadr and the Jaysh al-Mahdi still defiantly in control 
of Sadr City. If that is the case, then U.S. and Iraqi forces will have 
to clear that Shiite stronghold by force and disarm the militia. It is 
also possible, however, that the clear-and-hold operation in central 
Baghdad will weaken Sadr's power base in Sadr City and support a 
predominantly political solution to that problem. The sectarian 
violence now raging in Baghdad is one of the most powerful recruiting 
tools for the Jaysh al-Mahdi, and one of its most potent overt 
justifications. If that violence is dramatically reduced, it is likely 
that some Jaysh al-Mahdi fighters will begin to fall away from the 
group, reducing Sadr's leverage within the Shiite community and within 
Iraq as a whole. Such a weakening might well induce him and many of his 
followers to enter the political fold wholeheartedly rather than 
halfheartedly, as they have so far done. The United States must be 
clear, though, that the elimination of the Jaysh al-Mahdi as an 
effective fighting force in Baghdad, either through negotiation or by 
force, is the essential next step after the clearing of the central 
areas of the city.
    The sequence of these operations matters a great deal. The 
persistence of the Sunni insurgency justifies the strength of the 
Shiite militias and continues Maliki's dependence upon them. If the 
United States insists on attacking Sadr and his supporters first, 
Maliki and the Iraqi Government will have no leverage with him or 
justification for permitting that attack, which will look like American 
support to the Sunni insurgency. If, instead, the coalition begins by 
clearing and holding Sunni and mixed Sunni-Shiite neighborhoods in 
Baghdad, as well as conducting more aggressive operations in Anbar, the 
United States and the Iraqi Government will show that they are 
determined to suppress the Sunni insurgency and to protect both Sunnis 
and Shiites. That demonstration will make subsequent operations against 
Shiite militias much more politically palatable in Iraq. Eliminating 
the raging Sunni insurgency will also eliminate the ostensible 
justification for those militias, liberating Maliki to support their 
disarmament. The challenges in Iraq are complex, but not an insoluble 
puzzle if they are approached in the right order.

                             RECONSTRUCTION

    Military operations alone cannot solve Iraq's problems. Any 
complete solution must address a host of political, economic, 
diplomatic, and social challenges as well as the security situation. 
This proposal emphasizes the military portion of the solution because 
it is urgent to bring the violence under control before it tears Iraq 
apart completely. Subsequent phases and working groups will examine the 
other aspects of the problem in much greater detail. Reconstruction 
deserves consideration even at this early phase, even though it will be 
addressed again in more detail.
    Soldiers, whether American or Iraqi, moving through a neighborhood 
to clear it inevitably do damage. Violence flares up, and innocent 
people are invariably killed. Past experience shows that many 
neighborhoods are willing to accept this price in the hope of having 
security and peace thereafter, but it is important to provide them with 
a more immediate and tangible compensation for the violence as well. In 
addition, it is clear that high levels of unemployment in Iraq create a 
pool of potential recruits for militias and violent organizations. The 
lack of essential services in many neighborhoods also provides an 
opportunity for more organized enemy groups such as militias to usurp 
the government's traditional roles (the Hezbollah model).
    For all of these reasons, therefore, every clear-and-hold operation 
must be accompanied by an immediate reconstruction program. As military 
commanders move into neighborhoods to establish security, they should 
also reach out to local leaders to find out what essential services 
must be restored quickly to permit a basic level of normal life to 
resume. The military now encapsulates the most common list of essential 
services in the abbreviation SWET: Sewage, water, electricity, and 
trash removal. Most neighborhoods will require SWET packages to begin 
operating, ideally within hours of the end of combat operations.
    Managing this reconstruction effort is an enormous challenge, and 
this phase of the report can only suggest some of the complexities 
without offering detailed solutions. It is vital that the Iraqi people 
associate the Iraqi Government with the reconstruction effort as much 
as possible. Defeating the enemy's Hezbollah model requires getting 
Iraqis accustomed to looking to their local and central government to 
provide essential services. Even when the money and capability to 
provide those services are coming from the coalition, therefore, it is 
vital that the local inhabitants attribute the provision of the 
services themselves to legitimate local leaders.
    It is not possible, however, to conduct such efforts through the 
Iraqi central government. The responsible ministries are often highly 
corrupt and unable to perform their basic functions properly. Some of 
the most important ``service'' ministries are controlled by Sadr and 
his lieutenants--political figures whom the coalition emphatically does 
not wish to legitimate or support. Few ministries actually have 
connections to local government, moreover. Providing the ministries 
with funds to conduct local reconstruction will most likely result in 
strengthening the insurgency.
    The American Government is not well organized to oversee extensive 
reconstruction projects on a local level, however. Reconstruction 
efforts to date have been disorganized. They have generated enormous 
friction between responsible agencies, and they have had inadequate 
results for the Iraqi people. Resolving these difficulties will require 
a significant effort to reorganize the way the American Government does 
business in such conflicts (an effort that we must undertake urgently, 
since Iraq is not the first and will not be the last place the United 
States will have to engage in reconstruction of one sort or another). 
In the short term, however, the only organization capable of planning 
and executing reconstruction projects in combat zones is the U.S. 
military. The essential SWET programs, therefore, must be the 
responsibility of local commanders. Those commanders will need 
representatives from USAID, the State Department, the Department of 
Agriculture, and other government agencies to advise them about 
developing and executing their programs, but the responsibility and the 
authority to dispense the necessary funds must lie with the commanders.
    The absence of security has hampered reconstruction projects 
throughout Iraq so far. Reports indicate that as much as 30 percent of 
the resources designated for reconstruction projects has been diverted 
to providing security for those projects. Insecurity raises the cost in 
other ways as well, since local and international contractors and 
employees demand higher wages and prices for operating in dangerous 
areas. Establishing real security in central Baghdad and then 
maintaining it with a large American troop presence will greatly 
mitigate these problems, allowing a much higher proportion of 
reconstruction funds to go to actually improving the lives of Iraqis 
and encouraging them to reject violence.
    It is not enough simply to restore essential services in cleared 
neighborhoods, however. The American relationship with Iraq has been 
deteriorating steadily over the past several months as U.S. leaders 
have begun to chastise Maliki and other Iraqis for failing to contain 
the violence and the militias on their own. The hectoring and insulting 
tone that has entered this discourse is manifested in the notion of 
``incentivizing'' the Iraqis to take responsibility for their own 
security. Upon examination, however, it becomes clear that all the 
incentives commonly suggested are negative: If the Iraqis do not disarm 
the militias, then the United States will leave and abandon them to 
genocide and civil war. This is not the way to encourage a desired 
behavior or to maintain good relations with an ally.
    The United States must develop a set of positive incentives to 
encourage and reward Iraqis at all levels for taking the desired steps 
toward pacifying their country. One such way would be to create a 
second tier of reconstruction projects beyond SWET packages. As 
commanders discuss with local leaders what essential services to 
restore at the end of combat operations, they should also discuss what 
reconstruction projects could dramatically increase quality of life in 
the neighborhood thereafter. They should indicate that funds for those 
projects will be released when the neighborhood fully complies with a 
set of requirements to support coalition efforts to maintain peace: 
Disarming remaining militias, turning over criminals, reporting 
insurgent efforts to infiltrate the neighborhood again, warning 
coalition forces about IEDs and imminent attacks, and so on. Any 
neighborhood meeting these requirements would receive the Tier II 
reconstruction package.
    This approach would redress another problem with a reconstruction 
program aimed only at restoring services in cleared areas: It allows 
reconstruction to proceed in neighborhoods that were stable to begin 
with. Giving SWET packages exclusively to cleared areas, in effect, 
rewards bad neighborhoods and punishes good ones. A Tier II package 
could go to any neighborhood in which basic security prevails and the 
inhabitants of which comply with the requirements of the program. Since 
the initial focus of operations in Baghdad would be on Sunni and mixed 
neighborhoods, a Tier II program would also help to ensure that 
Baghdad's Shiites received tangible benefits from the operation as 
well.
    In addition to these programmed reconstruction activities, Congress 
should also fund the Commander's Emergency Response Program at a high 
level. This program has proven invaluable since the start of the 
insurgency because it allows local commanders to allocate resources on 
the spot to critical reconstruction efforts as the need for them 
arises. It gives commanders necessary flexibility and allows them to 
target funds to projects that directly support ongoing operations or 
forestall impending crises.

                      MAKING THE FORCES AVAILABLE

    This plan requires the deployment to Iraq of an additional five 
Army BCTs and two Marine RCTs. Any lesser force will entail a much 
greater risk of failure. The strain on the Army and Marines of 
maintaining even the current level of forces in Iraq is well-known, and 
this proposal does not underestimate the challenge of generating 
additional forces for the 18-24 months required by this plan. It is, 
however, possible to do so within the constraints of the All-Volunteer 
Force.
    There are currently 13 Army BCTs and 2 Marine RCTs in Iraq. The 
Army and Marines have already developed their plans for rotating fresh 
units into the country over the course of 2007, and they are as 
follows:

  <bullet> One BCT and two RCTs are scheduled to deploy to Iraq in the 
        first quarter.
  <bullet> Four BCTs will deploy in the second quarter.
  <bullet> Six BCTs will deploy in the third quarter.
  <bullet> One BCT and two RCTs will deploy in the fourth quarter.

    Since the aim of this force generation model has been to maintain a 
steady state of 15 brigades and regiments in Iraq, the Pentagon has 
planned to remove the same number of units from Iraq as are sent in. In 
place of this approach, this plan proposes to extend the tours of most 
Army BCTs now in Iraq from 12 months to 15 months, and of the Marine 
RCTs from 7 months to 12 months. This plan also proposes to accelerate 
the deployment of the four BCTs scheduled to enter Iraq in the second 
quarter so that they arrive instead in March. These changes in the 
deployment schedule would produce a surge of two Marine RCTs and five 
Army BCTs in the first quarter and sustain it throughout 2007, using 
only Active-Duty Forces already scheduled to deploy to Iraq in that 
year.
    Sustaining such a large presence through 2008, which is probably 
necessary, requires mobilizing about six National Guard brigades that 
are not currently scheduled to deploy. The President has the legal 
authority to make such a callup, but Pentagon policy has, hitherto, 
been to avoid using so many National Guard brigades in Iraq in 2008. 
The proposed deployment plan would require a change in Pentagon policy, 
but not additional congressional authorization. Even though these 
brigades would not deploy until well into 2008 (and into a much more 
benign security environment than the active units now in Iraq face), 
the military must begin to alert and prepare them right now. Adopting 
the plan proposed in this report requires changing Pentagon policy 
immediately to grant the chief of staff of the Army full access to the 
National Guard and Reserve.
    Extending the tours of units and mobilizing the National Guard and 
Reserve will place a greater strain on soldiers and their families. If 
there were any option that did not threaten to place an unbearable 
burden on the military, other than the defeat of the United States, 
this plan would propose it. Maintaining anything like the current 
course will continue to strain the military badly and will also lead to 
failure. Withdrawing forces now will accelerate defeat, violence, and 
failure. It is worth considering in some detail what that failure would 
look like.
    It is possible to surmise what will occur in Iraq when the U.S. 
Armed Forces withdraw in the current environment on the basis of what 
has happened in the past when U.S. forces have withdrawn prematurely 
from areas in Iraq. Enemy groups round up Iraqis who collaborate with 
Americans and their own government, then publicly torture and kill 
these people, often along with their entire families. Death squads 
commit horrific atrocities against one another but most often against 
innocent civilians, leaving their mangled corpses on streets and in 
yards. To many Americans watching from afar, these are just dead bodies 
and evidence of failure. But to the soldiers preparing to withdraw, 
they are people the United States has betrayed and abandoned to 
horrible deaths.
    As soldiers establish themselves in neighborhoods, they work hard 
to gain the trust of the locals. That trust is essential in persuading 
local leaders and citizens to provide critical information soldiers 
need to identify and capture enemies, avoid ambushes and IEDs, and 
perform almost any military mission. American soldiers and marines are 
well aware of the reciprocal obligation they undertake to protect those 
Iraqis who trust them enough to provide intelligence. One of the 
greatest frustrations American soldiers are experiencing today is the 
inability to fulfill that implicit promise.
    American withdrawal from Iraq will be a searing and scarring 
experience. U.S. soldiers will be forced to confront the results of 
America's defeat on the most personal level. Terrorists will videotape 
death squads operating with American troops stacking arms in the 
background. Al Jazeera and other Muslim media outlets will play the 
tapes endlessly, accompanied by claims that the Americans were 
committing or abetting the atrocities. The process of such a defeat 
will demoralize the Army and Marines far more dramatically and 
permanently than asking brigades to serve a few additional months in 
the course of a successful operation that brings the United States 
closer to victory. The strain on the Army and Marines is very real and 
a serious concern, but it is not correctable with any simple solution--
not even immediate withdrawal.
    The President has already embraced an essential element of the 
longer term solution for the strain, however: Increasing the end-
strength of the ground forces. It has been clear for some time that the 
Active-Duty Army and Marines were too small for the challenges they 
face in Iraq, Afghanistan, and around the world. The President's call 
for enlarging them comes not a moment too soon.
    For some time now, skeptics of such enlargement have argued that it 
would not be possible to recruit more soldiers in time of war into the 
volunteer force, but recruiting does not appear to be the factor 
limiting the expansion of the ground forces. Instead, the ability of 
the training base to accept new recruits and give them basic soldier 
skills before sending them to their units regulates the pace of 
expanding the Army and the Marines. Part of the problem is that the 
training base is not expansible and has not been prepared for a serious 
effort to build the sort of ground forces the nation needs in this time 
of crisis. That inadequacy must also change. In addition to making a 
national call for young people to serve in the military, the President 
must also make a priority of expanding the ground forces training base 
as quickly as possible to permit a more rapid expansion of the Army and 
Marines. Current estimates suggest that the Army could grow by only 
about 7,000 soldiers per year for the next few years. That figure is 
wholly inadequate. Many estimates of the appropriate size of the active 
Army suggest that the United States needs at least 50,000 more 
soldiers--or even more. The United States cannot wait 5 years to 
achieve this necessary increase in end-strength. The Secretary of 
Defense must make it a priority to create the capability to expand the 
Army much more rapidly, and the United States should maintain that 
capability indefinitely to avoid finding the country again unable to 
add forces rapidly in wartime in the future.
    The most serious challenge in accelerating the deployment of 
brigades scheduled to enter Iraq this year, however, has nothing to do 
with the number of people in the Armed Forces. The Army and Marines 
have worn out their equipment. Tanks, Bradleys, and Humvees are not 
designed to drive thousands of miles a year, but they have been doing 
so for years in extremely harsh conditions. News reports indicate that 
many units in the Army are at low levels of readiness because they do 
not have enough functioning equipment to take to the field. Units 
regularly swap equipment with one another as they prepare to deploy. 
Sometimes soldiers getting ready to move to Iraq do not receive the 
equipment they need until a few weeks before they start their 
deployment.
    Congress has recognized this problem and has appropriated funds to 
``reset'' the Army and Marines--primarily by buying or repairing the 
necessary equipment. But even recent increases in these appropriations 
have not brought America's military industry to anything like full 
mobilization. Army depots are operating far below their maximum 
capability despite this equipment crisis. This situation is 
unacceptable. The Department of Defense must request and Congress 
should authorize an additional significant increase in funds for 
reequipping the military, and all available military industrial 
resources should be brought to bear on this challenge as rapidly as 
possible.
    Many of the proposals in this section can be summed up briefly: The 
Nation must be put on a war footing. That does not mean a return to the 
draft. It is possible and necessary to maintain a volunteer military 
while fighting this war and beyond. It does, however, mean abandoning 
peacetime bureaucratic routines within the Pentagon and throughout the 
defense establishment. It means that the President must issue a call to 
arms. It means that Congress must provide the necessary financial 
support. It means that everyone involved in the defense of the Nation 
must make supporting the troops fighting this war the number one 
priority. It is disgraceful that the Nation has not been placed on a 
war footing even this far into such an important conflict, but it is 
essential to transform this state of affairs if the United States is to 
conduct the operations necessary to avoid imminent defeat and pursue 
victory.

                  OTHER PROPOSALS AND THEIR CHALLENGES

    There are a number of other proposals for resolving the crisis in 
Iraq, most of which fall into one or more of the following categories:

  <bullet> Train Iraqi forces and transition more rapidly to full Iraqi 
        control (the current U.S. military strategy).
  <bullet> Increase the training of Iraqi forces and engage Iraq's 
        neighbors to reduce the violence (the core of the Iraq Study 
        Group report).
  <bullet> Partition Iraq (Senator Joseph Biden's [D-Del.] proposal).
  <bullet> Withdraw U.S. forces immediately (House Speaker Nancy Pelosi 
        (D-Calif.] and Senator Carl Levin's [D-Mich.] suggestion).

    None of these proposals offers any prospect for success in Iraq; 
all, in fact, make defeat and regional war far more likely.
Train and Transition
    This is the current U.S. military strategy as outlined repeatedly 
by MNF-I commander, GEN George Casey. This approach is at odds with the 
``clear-hold-build'' strategy outlined by Secretary of State 
Condoleezza Rice and President George W. Bush more than a year ago. The 
American Military command has never tried to implement clear-hold-build 
because it has never given U.S. forces in Iraq the mission of providing 
security to the Iraqi people. MNF-I has instead focused on training 
Iraqi forces and has used its mobile units reactively to regain control 
of insurgent strongholds. The exceptions to this principle proved the 
rule: Operations Together Forward I and II used American forces to 
clear neighborhoods, but sought to rely exclusively on Iraqis to hold 
them afterward--the main reason for the failure of those operations.
    The creation of a trained Iraqi Army of more than 130,000 soldiers 
in just a few years starting from scratch has been an amazing 
accomplishment. The determination of Iraqi soldiers, who put their 
lives on the line just to enlist in an environment in which terrorists 
regularly target recruiting stations, is astonishing. But as the 
capabilities of the Iraqi Army have steadily increased, the sectarian 
violence has increased even faster. Unless the United States takes 
action to bring the violence down to a level at which the growing Iraqi 
Security Forces can control it, then the violence will ultimately 
destroy those security forces as well. Although MNF-I has repeatedly 
published maps of Iraq with expanding areas of green, denoting regions 
that have been ``transitioned'' to Iraqi control, these graphics and 
metrics do not correctly indicate whether the United States is 
succeeding or failing in Iraq. Despite these transitions, the United 
States is on a glide-path to defeat and not victory. The current 
strategy has clearly failed and must be replaced quickly.
Train and Negotiate
    The Iraq Study Group (ISG) proposed to increase the number of 
embedded trainers, eliminate almost all other U.S. combat forces in 
Iraq, and negotiate with Iran and Syria to control the violence. This 
report has already considered why simply embedding more soldiers with 
Iraqi units is not likely to increase the capability of the Iraqi Army 
rapidly and may even slow down its improvement by removing 
opportunities for the Iraqis to conduct operations together with 
America's outstanding soldiers and marines. The ISG report also ignores 
the significant delay before new Iraqi forces can take the field, even 
with accelerated training. What will happen to the insurgency and 
violence in that time? Clearly it will continue to grow. Very likely it 
will rapidly grow beyond the point at which any plausible increase in 
Iraqi forces' capabilities could control it.
    The ISG counters by proposing that the United States and the Iraqi 
Government open negotiations with Iran and Syria in an effort to 
persuade them to contain the growing sectarian violence. It is beyond 
the scope of this report to consider whether the Iranians or Syrians 
are likely to be helpful in such negotiations, but there is no reason 
to imagine that they could control the violence in Iraq even if they 
wished to.
    Iran provides Shiite groups of all varieties with weapons, 
expertise, advice, and money. Syria tacitly permits the movement of 
insurgents across its borders. This assistance to the rebels increases 
the overall level of violence in Iraq, as well as the lethality of 
certain insurgent attacks. But could the Iranians and the Syrians turn 
the violence off?
    To begin with, there is ample evidence that the various 
insurgencies in Iraq have developed their own multifarious sources of 
funding, mostly resulting from criminal activities and corruption that 
they siphon off for their own purposes. They also have an ample stock 
of high explosives: Saddam Hussein packed his country with ammunition 
warehouses for more than a decade. As one observer put it: ``There's 
enough high explosives in Iraq now to maintain the current level of 
violence for a thousand years.'' If the Iranians cut off their 
supplies, the insurgents would still be able to fund their enterprises. 
They would still have the wherewithal to make IEDs and car bombs, and 
they would still recruit suicide bombers. Outside sources of assistance 
help them, but the withdrawal of those resources would not stop them.
    Could the Iranians order SCIRI or the Jaysh al-Mahdi to stop their 
attacks? It is extremely unlikely. To begin with, although SCIRI and 
Jaysh al-Mahdi are Shiites, they are Arabs, not Persians. It will 
always be difficult for Iraqi Shiites to obey explicit instructions 
from Iranians for cultural reasons. But, above all, the escalating 
violence in Iraq results less from Iranian encouragement than from the 
internal dynamics of Iraq itself.
    The Shiite community in Iraq remained remarkably quiescent under 
increasing Sunni attacks through 2004 and 2005, despite rapidly growing 
tensions between Iran and the United States. The explosion in sectarian 
violence followed the bombing of the Samarra mosque. The recruiting and 
propaganda of Shiite groups relies heavily on portraying them as 
defenders of the Shiite people against Sunni assaults. It is difficult 
to imagine how they would explain abandoning their fight in the face of 
continuing Sunni attacks simply because the Iranians tell them to do 
so. The vigilante groups that are in some respects the most worrisome 
manifestation of the nascent civil war will not listen to the Iranians 
at all. These are mostly local, self-organized groups aimed at 
preventing and avenging attacks on their communities. The only way to 
bring such groups under control is to establish security, thereby 
removing their only real reason for being.
    And who could bring the Sunni Arab insurgents under control? Syria, 
still less Iran, does not control al-Qaeda in Iraq or Ansar al-Sunna. 
Such groups take orders from no state and cannot be made to stop their 
activities by a diktat from Damascus or Tehran. The Baathists are no 
more likely to stop their fighting simply because the Syrians intervene 
with them. To begin with, the Baathists are Iraqi nationalists, 
unlikely to take orders from foreign regimes. Neither are they 
organized into a neat hierarchical system that would facilitate Syrian 
discussions with them. When the United States destroyed the Iraqi 
Baathist state in 2003, it also destroyed the political and some of the 
social hierarchy in the Sunni Arab community. The lack of a clear 
hierarchy that controls its followers has severely hindered the U.S. 
ability to negotiate with the insurgents during its attempts to do so 
and will limit the Syrians no less.
    The problem with relying on Iraq's neighbors to control the 
violence is less that they will not do so than that they cannot. This 
approach is a blind alley that will lead nowhere because it 
misrepresents the fundamental nature of the problem in Iraq.
Partition Iraq
    This approach takes as its basis the assumption that Iraq naturally 
falls into three parts. Supporters of it usually point to one of two 
mutually contradictory facts: Iraq has three main social groups (Sunni 
Arabs, Shiites, and Kurds), and the Iraqi state was formed in 1921 from 
three Ottoman vilayets or administrative districts. Iraq, advocates of 
this view say, is an artificial creation that would be more stable if 
we allowed it to fall back into its natural, trinary form.
    To begin with, the fact that the Ottoman Empire chose to rule what 
is now Iraq via three administrative districts does not make the 
present Iraqi state an artificial creation. On the contrary, from 
prehistoric times the Tigris and Euphrates Rivers and the land between 
them have formed a single community, often composed of multiple 
ethnicities and religions but functioning as an economic and often 
political unit.
    Ottoman administrative practice should not convince modern 
observers that Iraq is by nature a tripartite state. The Ottomans did 
not align territory according to modern concepts of national self-
determination. They divided and conquered, as did most other empires. 
The notion of some preindependence Iraqi system in which each social 
group controlled its own area in peace is a myth. Any such tripartite 
structure would itself be an artificial innovation with no historical 
basis.
    The Ottoman vilayets (of Mosul, Baghdad, and Basra) were not 
themselves homogeneous ethnic or sectarian groupings. Mosul, Baghdad, 
Baquba, and Kirkuk, four of Iraq's principal cities, have long been 
mixed at both the metropolitan and the neighborhood level.
    Even now, a high proportion of Iraqis live in mixed communities. 
Partitioning the country could only result from the migration of 
millions of people. Many would resist. Bloodbaths would ensue. When 
this process occurred in the Balkans in the 1990s the international 
community called it ``ethnic cleansing'' and ``genocide.'' It is 
difficult to imagine how the United States and the international 
community could now accept and even propose a solution that they 
rightly condemned not a decade ago.
    These principled considerations parallel practical concerns. Who 
would get Baghdad? The capital is now mixed between Sunni and Shia. 
Depriving one group of that city and giving it to another would create 
an obvious sense of victory and defeat between the groups--not 
something that bodes well for subsequent stability. If the 
international community sought to divide Baghdad, where would it draw 
the line? The Tigris seems an obvious choice, but it has already become 
impossible. There are many Sunnis living east of the river and many 
Shiites living to the west. Jaysh al-Mahdi fighters are working hard to 
seize more territory on the West Bank and drive the Sunnis farther out. 
If the United States allows this process to continue, as advocates of 
partition suggest, America will de facto be giving Baghdad to the 
Shiites at the cost of the dislocation of 2 or 3 million Sunnis. Again, 
this is a process that can only come at the price of hideous suffering 
and death. Last, there is the problem of oil. The Kurds have oil 
fields. The Shiites have oil fields. The Sunni Arabs do not. Fear of 
the loss of oil revenue is one factor driving the Sunni insurgency now. 
Partitioning Iraq would make that fear a permanent reality. Why would 
the Sunnis stop fighting? They would not. Partition is not only a 
historical abomination and an invitation for sectarian cleansing and 
genocide on a vast scale--it is also a recipe for perpetual conflict in 
Mesopotamia.
    Iraq does not break down cleanly into Kurdish, Shia, or Sunni Arab 
areas either demographically or historically. Rather, within these 
broad categories there are serious fissures and rivalries which have 
been exploited by overlords (Ottoman, British, and Iraqi) to maintain 
central control. These rivalries will not disappear by a simple ethnic 
or sectarian realignment or oil-sharing scheme. Shia factions will war 
with each other, and Shia violence could spill into other Arab Shia 
tribes in the region. Sunni tribal forces, urban Baathists, Islamic 
radicals, and other interested states will not allow a peaceful Sunni 
heartland to be established, even if they could somehow be reconciled 
to a strip of the upper Euphrates and the Anbar desert. The integration 
of Kurds into this realignment, and the minority populations that live 
in Kurdish areas, is far more complicated than most observers 
recognize, starting with the fact that there are two rival Kurdish 
parties now, reflecting important linguistic and tribal distinctions. 
Considering the presence of large numbers of Turkmen, Yazidi, and other 
minority groups in the lands that a partition would give to Kurdistan 
presents another set of problems that partitioning will only 
exacerbate.
Withdrawal
    Advocates of immediate withdrawal fall into a number of camps. Some 
propose pulling American forces out of Iraq because they opposed the 
war to begin with. Others argue that we have already lost and that 
further efforts to turn the tide are useless. Still others claim that 
American interests would be better served by withdrawing to other parts 
of region--or withdrawing from the region altogether. Slightly more 
sophisticated advocates of this plan argue that the American presence 
in Iraq is an irritant and permits a sort of laziness on the part of 
the Iraqi Government. Consequently, they say, a U.S. withdrawal would 
both reduce the violence and force the Iraqis to contribute more 
effectively. Many of these arguments are irrelevant or invalid. All 
face a challenge that advocates have an obligation to answer: What will 
happen in Iraq and in the region following a withdrawal of U.S. forces, 
and why will that be better for America than attempting to win?
    The War Was Wrong From the Beginning. This argument for withdrawal 
is without any logical foundation. Whatever the wisdom or folly of the 
initial decision to invade Iraq in 2003, the problems the United States 
faces there now are real and imminent. The lives of millions of people 
literally hang in the balance in a country poised on the brink of full-
scale civil war. The issues at stake are far too important to allow 
resentment at an earlier decision to prevent a rational assessment of 
the best course of action today. America has a responsibility to pursue 
its own interests in Iraq, and those interests require establishing 
security and a legitimate government. And America has an obligation to 
the Iraqi people that it would be immoral and reprehensible to ignore.
    The War Is Already Lost. The war is not lost. The legitimate, 
elected Iraqi Government remains stable and commands the support of the 
majority of the Iraqi people. The Armed Forces of Iraq are at their 
posts, training and fighting every day. The levels of violence in Iraq 
per capita are far lower than those of Bosnia and Kosovo in the 1990s, 
and the United States was able to contain those conflicts. By any 
measure, victory in Iraq is still possible if the United States has the 
will and the skill to seek it.
    Those who disagree with this assessment still have an obligation, 
moreover, to propose a positive strategy for moving forward. Accepting 
defeat might solve an immediate problem, but international politics 
will not stop when we have done so. What will happen in Iraq? What will 
happen in the region? What will the United States have to do? Will that 
situation actually be better or worse than attempting to fight through 
a difficult time now? Advocating immediate withdrawal without answering 
these questions persuasively and in detail is irresponsible.
    Many who prefer immediate withdrawal implicitly or explicitly 
believe that the United States can find a ``soft landing'' that will 
contain the violence and prevent it from spreading throughout the 
region. After all, no sensible and responsible person could advocate an 
approach that would ignite the entire Middle East in full-scale 
sectarian war. A forthcoming study from the Saban Center for Middle 
East Policy at the Brookings Institute, whose interim findings have 
been publicly presented, casts serious doubt on the likelihood of any 
``soft landing,'' however. The study's codirector, Kenneth Pollack, 
argues that the history of civil wars strongly suggests that the Iraq 
conflict will spill over onto Iraq's neighbors on a large scale. It is 
highly likely not only to involve them in Iraq's struggles, but to 
ignite secondary civil wars within those states that may spread even 
further. He argues that there is no natural checking mechanism that 
would build up any sort of resistance to this conflict spreading. On 
the contrary, refugee flows from Iraq are already changing the 
demographics of the region and will continue to do so. Refugees will 
appeal to similar ethnic and sectarian groups in their new host 
countries to involve themselves in the larger struggle. War will 
spread, involving American interests and allies. It is nearly certain 
that the United States will find itself reengaging in the Middle East 
on far worse terms than it now faces. Withdrawal promises at best a 
partial relief from the immediate pain at the expense of far worse 
suffering for years to come.
    The United States Could Accomplish Its Regional Goals Better by 
Leaving. Various attempts at sophisticated argumentation claim that 
America could best regain its lost leverage in the Middle East by 
pulling back from Iraq and focusing on other issues. Again, advocates 
of this approach rarely consider the likely consequences of withdrawal 
and how the prospects of regional war will probably destroy any 
leverage the United States might hypothetically gain. They ignore 
completely, moreover, the fact that America's defeat in Iraq will 
destroy its credibility in the region and around the world for years to 
come.
    When the United States first invaded Iraq in 2003, the Iranian 
regime was clearly frightened. It responded to that fear by lying low 
and reducing the level of tension with the West. By mid-2004, Tehran 
had decided that the United States was bogged down in a war it was 
losing. The Iranians seized that opportunity to move forward 
aggressively with their nuclear program despite international 
opposition, to court conflict with the United States, and to increase 
support for Shiite militias in Iraq. What will happen if the United 
States withdraws from Iraq and abandons that country to chaos? The 
likeliest outcome is that Iran will seek and possibly achieve hegemony 
in the region. Iran is by far the largest and strongest state in the 
Middle East, even without nuclear weapons. The creation of a power 
vacuum on its western frontier would make it stronger still. With 
neither a strong Iraqi nor an American presence, Tehran's writ would 
run throughout the gulf region virtually unopposed. It is very 
difficult to see how such an outcome restores any degree of leverage in 
the Middle East to a defeated United States.
    The American Presence in Iraq Is the Problem. This argument is 
simply untrue. There are two simple tests to apply: How has the pattern 
of violence in Iraq correlated with the size of American forces, and 
whom are the insurgents attacking? If the irritating presence of 
American soldiers were the primary cause of violence in Iraq, then more 
American troops should lead to more violence and fewer troops would 
produce less violence. In fact, the opposite has been the case. When 
the United States has increased force levels in Iraq in the past in 
order to provide security for elections and the constitutional 
referendum, violence dropped significantly. When U.S. forces cleared 
Tall Afar, Mosul, and Sadr City in 2004, violence dropped. As MNF-I has 
attempted to reduce the American presence in Iraq prematurely, violence 
has increased. Correlating American presence with violence does not 
suggest that American forces are the problem, but rather that they are 
part of the solution.
    The idea that American troops are the irritant in Iraq does not 
explain the fact that attacks by Iraqis on other Iraqis are steadily 
increasing. If the American troop presence is causing the bloodshed, 
why are Iraqis killing each other, rather than coalition forces, in 
growing numbers? This explanation also suffers from the fact that 
repeated anecdotes reveal that many Iraqis prefer to see American 
troops rather than Iraqi police. Sunnis in Baghdad warn each other that 
they should trust Iraqi Government forces only when they are 
accompanied by American soldiers. It is difficult to see in such 
examples proof of the theorem that the U.S. presence is the source of 
the problem, still less that removing U.S. forces would lead to peace.

                               CONCLUSION

    America faces a serious challenge in Iraq today, and there are no 
simple or easy solutions. The proposal described in this report is only 
the essential first step on a long road. Successful counterinsurgency 
strategy requires a skillful blend of military, political, economic, 
diplomatic, and social initiatives. Although attempts to suppress 
rebellions through brute force have succeeded in the past on occasion, 
the methods required to implement them are repugnant to Americans and 
have rightly been rejected. The emphasis on military power in this 
proposal does not come from any belief that such power can bring 
success on its own. On the contrary, the successive phases of this 
project will examine various aspects of training the Iraqi Security 
Forces, transitioning to Iraqi governmental control, and other 
political, economic, and diplomatic developments that are essential 
components of any successful strategy.
    But there is no prospect for any positive developments in Iraq 
today until the security situation is brought under control. Political 
processes cannot resolve, absorb, or control communal and terrorist 
violence at the current levels. Economic development cannot even begin 
in earnest amidst such bloodshed. Diplomatic approaches cannot resolve 
a conflict that is driven by internal factors. The top priority of 
American strategy in Iraq today must be to secure the population and 
bring the violence under control. Making political progress of any sort 
a precondition for the start of such an operation will virtually ensure 
failure and defeat.
    There is risk in any military operation, and America and the Iraqi 
Government and people face a number of clever and determined enemies. 
The United States has consistently underestimated the skill and 
capability of these enemies and relied on overly optimistic assumptions 
about what would happen in Iraq. It is time to accept reality. The 
fight in Iraq is difficult. The enemy will work hard to defeat the 
coalition and the Iraqi Government. Things will not go according to 
plan. The coalition and the Iraqi Government may fail. But failure is 
neither inevitable nor tolerable, and so the United States must 
redouble its efforts to succeed. America must adopt a new strategy 
based more firmly on successful counterinsurgency practices, and the 
Nation must provide its commanders with the troops they need to execute 
that strategy in the face of a thinking enemy. The enemy has been at 
war with us for nearly 4 years. The United States has emphasized 
restraint and caution. It is time for America to go to war and win. And 
America can.

    The Chairman. Thank you very much, Dr. Kagan.
    Dr. Carpenter.

STATEMENT OF DR. TED GALEN CARPENTER, VICE PRESIDENT OF DEFENSE 
   AND FOREIGN POLICY STUDIES, CATO INSTITUTE, WASHINGTON, DC

    Dr. Carpenter. Thank you, Mr. Chairman. And I want to thank 
the committee for the invitation to offer my views this 
afternoon.
    I have provided a longer written statement, and I would 
request that that be included in the record.
    The Chairman. In the case of all of you, if you have a 
written statement that exceeded or was different than what your 
verbal testimony is, that'll be included in the record.
    Dr. Carpenter. Thank you, Mr. Chairman.
    Optimism about the United States mission in Iraq has faded 
dramatically in the past few months. The bipartisan Iraq Study 
Group accurately concluded that the situation was, ``grave and 
deteriorating.'' The Pentagon's report to Congress in November 
2006 paints a similarly dismal picture, with attacks on United 
States troops, Iraqi security forces, and Iraqi civilians all 
at record levels. Yet, proponents of the war refuse to admit 
what is increasingly obvious: That Washington's Iraq occupation 
and democratization mission is failing and there is little 
realistic prospect that its fortunes will improve. Something 
much more dramatic than a modest course correction is needed.
    It is essential to ask the administration and its 
supporters at what point they will admit that the costs of this 
venture have become unbearable. How much longer are they 
willing to have our troops stay in Iraq? Two years? Five years? 
Ten years? How many more tax dollars are they willing to pour 
into Iraq? Another $300 billion? $600 billion? One trillion? 
And, most crucial of all, how many more American lives are they 
willing to sacrifice? Two thousand? Five thousand? Ten 
thousand? It is time for the supporters of the war to be 
specific.
    Proponents of the mission avoid addressing such unpleasant 
questions. Instead, they act as though victory in Iraq can be 
achieved merely through the exercise of willpower, that we can 
simply choose victory.
    Whether or not one describes it as a civil war, the 
security situation in Iraq is extraordinarily violent and 
chaotic. Moreover, the nature of the violence has shifted, with 
the principal component now sectarian strife between Sunnis and 
Shiites. The Iraq Study Group noted that 4 of Iraq's 18 
provinces are, ``highly insecure.'' And those provinces account 
for 40 percent of the country's population.
    A November 2006 U.N. report highlights the extent of the 
growing bloodshed. The carnage is now running at at least 120 
victims each day. We must remember, this is occurring in a 
country of barely 26 million people. A comparable pace in the 
United States would be a horrifying 1,400 deaths per day, or 
nearly 500,000 a year. If political violence were consuming 
that many American lives, there would be little debate about 
whether the United States was in a civil war.
    In addition to the growing violence, there is mounting 
evidence that the majority of Iraqis no longer want United 
States troops in their country. The bottom line is that the 
United States is mired in a country that is already in the 
early stages of an exceedingly complex multisided civil war, 
and this is not just a war between Sunnis and Shia, this is a 
war with multiple factions, including internal conflicts among 
the various sects. It is also a situation where all significant 
factions, save one--the Kurds--want American troops to leave. 
That is an untenable situation.
    Increasing the number of United States troops in Iraq by 
21,000 or so is a futile attempt to salvage a mission that has 
gone terribly wrong. It would merely increase the number of 
casualties, both American and Iraqi, over the short term, while 
having little long-term impact on the security environment. 
Moreover, the magnitude of the proposed buildup falls far short 
of the numbers needed to give the occupation forces a realistic 
prospect of suppressing the violence. Experts on 
counterinsurgency, for many, many years, have consistently 
concluded that at least 10 soldiers per 1,000 population are 
required to have a sufficient impact. And, indeed, many experts 
have argued that, in cases where armed resistance is intense 
and pervasive, which certainly seems to apply to Iraq, 
deployments of 20 soldiers per 1,000 may be needed. Given 
Iraq's population of 26 million, such a mission would require 
the deployment of at least 260,000 ground forces, and probably 
as many as 520,000. We simply don't have the troops for that 
kind of mission.
    A limited surge of additional troops is the latest illusory 
panacea offered by the people who brought us the Iraq quagmire 
in the first place. It is an idea that should be rejected, and, 
instead, the United States needs to withdraw from Iraq.
    Proponents of staying in Iraq offer several reasons why a 
prompt withdrawal would be bad for the United States. They 
argue that al-Qaeda's 1,300 fighters will somehow take over 
Iraq, that a United States withdrawal will embolden Islamic 
radicals worldwide, that a withdrawal will lead to a regional 
Sunni-Shiite proxy war, and that leaving Iraq without achieving 
our goals would betray a moral obligation to the Iraqi people. 
I deal with all of those allegations, at some length, in my 
written statement. Suffice it to say here that those arguments 
vary in terms of plausibility. Some, especially the notion that 
al-Qaeda will be able to take over Iraq, are farfetched; 
others, especially the concern about a regional proxy war, have 
some validity. All of them, though, are ultimately deficient as 
a reason for keeping United States troops in Iraq.
    A decision to withdraw and leave Iraq to its own fate is 
certainly not without adverse consequences. America's terrorist 
adversaries will portray the pullout as a defeat for U.S. 
policy. But staying on indefinitely in a dire and deteriorating 
security environment is even worse for our country.
    The costs, both tangible and intangible, of a prompt exit 
must be measured against the costs of staying in Iraq. 
Moreover, even if the United States absorbs the costs of a 
prolonged mission, there is no realistic prospect that anything 
resembling victory resides at the end of that effort. Indeed, 
most of the indicators suggest that we would be merely delaying 
the inevitable.
    The intangible costs are already considerable. America's 
reputation in the Muslim world is at its lowest level in 
history, largely because of the Iraq mission. America's 
reputation elsewhere in the world, including among longstanding 
allies and friends, has, likewise, taken a major hit. The All-
Volunteer Force has been strained to the breaking point, and 
the social wounds that the Vietnam war inflicted on our 
society, which took so long to heal, have been ripped open. Our 
country is, once again, bitterly divided over a murky war. The 
longer we stay in Iraq, the worse all of those problems will 
become.
    The tangible costs are even more depressing. The financial 
tab for the Iraq mission is already some $350 billion, and the 
meter is running at approximately $8 billion a month, and that 
is before the President's new escalation. Furthermore, even 
those appalling figures do not take into account substantial 
indirect costs, such as the expense of long-term care for 
wounded Iraq war veterans.
    The United States needs to adopt a decisive withdrawal 
strategy, measured in months, not years. A longer schedule 
would simply prolong the agony. Emotionally, deciding to leave 
under current conditions will not be easy, for it requires an 
implicit admission that Washington has failed in its ambitious 
goal to create a stable, united, democratic secular Iraq that 
would be a model for peace throughout the Middle East. But that 
goal was unrealistic, from the outset. It is difficult for any 
nation, and especially the American superpower, to admit 
failure. However, it is better to admit failure while the 
adverse consequences are manageable. Failure in Iraq would be a 
setback for the United States, particularly in terms of global 
clout and credibility, but one of the advantages to being a 
superpower is that the country can absorb a setback without 
experiencing catastrophic damages to its core interests or 
capabilities. Failure in Iraq does not even come close to 
threatening those core interests and capabilities. Most 
important, a withdrawal now will be less painful than 
withdrawing years from now, when the cost in blood, treasure, 
and credibility will be even greater.
    The withdrawal needs to be comprehensive, not partial. The 
only troops remaining in Iraq should be a modest number of 
special forces personnel who would work with political factions 
to eradicate the al-Qaeda interlopers in their country. It must 
be clear to Iraqis and to populations throughout the Muslim 
world that Washington has no intention of trying to maintain a 
military presence in Iraq. That has already become a lightning 
rod for the Muslim world. Above all, United States policymakers 
need to absorb the larger lesson of the Iraq debacle. Launching 
an elective war in pursuit of a nation-building fantasy was an 
act of folly. It is a folly that policymakers should vow never 
to repeat.
    Thank you.
    [The prepared statement of Dr. Carpenter follows:]

   Prepared Statement of Dr. Ted Galen Carpenter, Vice President of 
   Defense and Foreign Policy Studies, Cato Institute, Washington, DC

    Optimism about the U.S. mission in Iraq has faded dramatically in 
the past few months. The bipartisan Iraq Study Group conceded that the 
situation in Iraq was ``grave and deteriorating.'' The Pentagon's 
report to Congress in November 2006 paints a similarly dismal picture, 
with attacks on U.S. troops, Iraqi security forces, and Iraqi civilians 
at record levels.
    Yet proponents of the war refuse to admit what is becoming 
increasingly obvious: Washington's Iraq occupation and democratization 
mission is failing, and there is little realistic prospect that its 
fortunes will improve. Something much more dramatic than a modest 
course correction is needed.
    It is essential to ask the administration and its hawkish backers 
at what point they will admit that the costs of this venture have 
become unbearable. How much longer are they willing to have our troops 
stay in Iraq? Five years? Ten years? Twenty years? How many more tax 
dollars are they willing to pour into Iraq? Another $300 billion? $600 
billion? $1 trillion? And most crucial of all, how many more American 
lives are they willing to sacrifice? Two thousand? Five thousand? Ten 
thousand?
    Proponents of the mission avoid addressing such unpleasant 
questions. Instead, they act as though victory in Iraq can be achieved 
merely through the exercise of will power.

                  THE DIRE SECURITY SITUATION IN IRAQ

    Whether or not one describes it as a civil war, the security 
situation in Iraq is extraordinarily violent and chaotic. Moreover, the 
nature of the violence in that country has shifted since the February 
2006 bombing of the Golden Mosque in Samarra, one of Shia Islam's 
holiest sites. The Sunni-led insurgency against United States and 
British occupation forces and the security forces of the U.S.-sponsored 
Iraqi Government is still a significant factor, but it is no longer the 
dominant one. The turmoil now centers around sectarian violence between 
Sunnis and Shiites. Baghdad is the epicenter of that strife, but it has 
erupted in other parts of the country as well. The Iraq Study Group 
noted that four of Iraq's 18 provinces are ``highly insecure.'' Those 
provinces account for about 40 percent of the country's population.
    A November 2006 U.N. report highlights the extent of the growing 
bloodshed. The carnage is now running at approximately 120 victims each 
day. This is occurring in a country of barely 26 million people. A 
comparable pace in the United States would be a horrifying 1,400 deaths 
per day--or nearly 500,000 per year. If violence between feuding 
political or ethno-religious factions was consuming that many American 
lives, there would be little debate about whether the United States was 
experiencing a civil war.
    In addition to the casualties in Iraq, there are other human costs. 
The United Nations estimates that some 1.6 million people have been 
displaced inside Iraq (i.e., they are ``internal refugees'') as a 
result of the fighting. Another 1.8 million have fled the country 
entirely, mostly to Jordan and Syria. Moreover, the pace of the exodus 
is accelerating. Refugees are now leaving Iraq at the rate of nearly 
3,000 a day. The bulk of those refugees are middle and upper class 
families. Indeed, there are affluent neighborhoods in Baghdad and other 
cities that now resemble ghost towns.

                   THE COMPLEX NATURE OF THE VIOLENCE

    The mounting chaos in Iraq is not simply a case of Sunni-Shiite 
sectarian violence, although that is the dominant theme. The Iraq Study 
Group notes the complexity of Iraq's security turmoil. ``In Kirkuk, the 
struggle is between Kurds, Arabs, and Turkmen. In Basra and the south, 
the violence is largely an intra-Shia struggle.'' Implicitly rejecting 
the arguments of those who contend that the violence is primarily a 
Sunni-Shia conflict confined to Baghdad, the members of the commission 
point out that ``most of Iraq's cities have a sectarian mix and are 
plagued by persistent violence. Prime Minister Nouri al-Maliki warns 
that conflicts in the various regions could be ``Shiite versus Shiite 
and Sunni versus Sunni.''
    There is also mounting evidence that the majority of Iraqis no 
longer want U.S. troops in their country. The bottom line is that the 
United States is mired in a country that is already in the early stages 
of an exceedingly complex, multisided civil war, and where all 
significant factions save one (the Kurds) want American troops to 
leave. That is an untenable situation.

                  ILLUSORY SOLUTION--SEND MORE TROOPS

    Increasing the number of U.S. troops in Iraq by 20,000 or so is a 
futile attempt to salvage a mission that has gone terribly wrong. In 
all likelihood, it would merely increase the number of casualties--both 
American and Iraqi--over the short term while having little long-term 
impact on the security environment. Moreover, the magnitude of the 
proposed buildup falls far short of the numbers needed to give the 
occupation forces a realistic prospect of suppressing the violence. 
Experts on counterinsurgency strategies have consistently concluded 
that at least 10 soldiers per 1,000 population are required to have a 
sufficient impact. Indeed, some experts have argued that in cases where 
armed resistance is intense and pervasive (which certainly seems to 
apply to Iraq), deployments of 20 soldiers per thousand may be needed.
    Given Iraq's population (26 million) such a mission would require 
the deployment of at least 260,000 ground forces (an increase of 
115,000 from current levels) and probably as many as 520,000. Even the 
lower requirement will strain the U.S. Army and Marine Corps to the 
breaking point. Yet a lesser deployment would have no realistic chance 
to get the job done. A limited ``surge'' of additional troops is the 
latest illusory panacea offered by the people who brought us the Iraq 
quagmire in the first place. It is an idea that should be rejected.

                        CONSEQUENCES OF LEAVING

    Proponents of staying in Iraq offer several reasons why a prompt 
withdrawal would be bad for the United States. Those arguments vary in 
terms of plausibility. All of them, though, are ultimately deficient as 
a reason for keeping U.S. troops in Iraq.
Allegation: Al-Qaeda would take over Iraq
    Administration officials and other supporters of the war have 
warned repeatedly that a ``premature'' withdrawal of U.S. forces would 
enable al-Qaeda to turn Iraq into a sanctuary to plot and launch 
attacks against the United States and other Western countries. But al-
Qaeda taking over Iraq is an extremely improbable scenario. The Iraq 
Study Group put the figure of foreign fighters at only 1,300; a 
relatively small component of the Sunni insurgency against U.S. forces. 
It strains credulity to imagine 1,300 fighters (and foreigners at that) 
taking over and controlling a country of 26 million people.
    The challenge for al-Qaeda would be even more daunting than those 
raw numbers suggest. The organization does have some support among the 
Sunni Arabs in Iraq, but opinion even among that segment of the 
population is divided. A September 2006 poll conducted by the Program 
on International Policy Attitudes at the University of Maryland found 
that 94 percent of Sunnis had a somewhat, or highly, unfavorable 
attitude toward al-Qaeda. As the violence of al-Qaeda attacks has 
mounted, and the victims are increasingly Iraqis--not Americans--many 
Sunnis have turned against the terrorists. There have even been a 
growing number of reports during the past year of armed conflicts 
between Iraqi Sunnis and foreign fighters.
    The PIPA poll also showed that 98 percent of Shiite respondents and 
100 percent of Kurdish respondents had somewhat, or very, unfavorable 
views of al-Qaeda. The notion that a Shiite-Kurdish-dominated 
government would tolerate Iraq becoming a safe haven for al-Qaeda is 
improbable on its face. And even if U.S. troops left Iraq, the 
successor government would continue to be dominated by the Kurds and 
Shiites, since they make up more than 80 percent of Iraq's population 
and, in marked contrast to the situation under Saddam Hussein, they now 
control the military and police. That doesn't suggest a reliable safe 
haven for al-Qaeda.
Allegation: The terrorists would be emboldened worldwide
    In urging the United States to persevere in Iraq, President Bush 
has warned that an early military withdrawal would encourage al-Qaeda 
and other terrorist organizations. Weak U.S. responses to challenges 
over the previous quarter century, especially in Lebanon and Somalia, 
had emboldened such people, Bush argues. Hawkish pundits have made 
similar allegations.
    It is a curious line of argument with ominous implications, for it 
assumes that the United States should have stayed in both countries, 
despite the military debacles there. The mistake, according to that 
logic, was not the original decision to intervene but the decision to 
limit American losses and terminate the missions. That is a classic 
case of learning the wrong lessons from history.
    Yes, al-Qaeda and other terrorist groups apparently concluded that 
the Lebanon and Somalia episodes showed that U.S. leaders and the 
American people have no stomach for enduring murky missions that entail 
significant casualties. They are likely to draw a similar lesson if the 
United States withdraws from Iraq without an irrefutable triumph. That 
is why it is so imperative to be cautious about a decision to intervene 
in the first place. Military missions should not be undertaken unless 
there are indisputably vital American security interests at stake.
    A decision to withdraw and leave Iraq to its own fate is not 
without adverse consequences. America's terrorist adversaries will 
portray a pullout as a defeat for U.S. policy. But the cost of staying 
on indefinitely in a dire security environment is even worse for our 
country. President Bush and his advisors need to consider the 
possibility that the United States might stay in Iraq for many years to 
come and still not achieve its policy goals. And the costs, both in 
blood and treasure, continue to mount.
Allegation: The conflict will spill over Iraq's borders and create 
        regional chaos
    That concern does have some validity. The ingredients are in place 
for a regional Sunni-Shia ``proxy war.'' Predominantly Shiite Iran has 
already taken a great interest in political and military developments 
in its western neighbor. Indeed, Washington has repeatedly accused 
Tehran of interfering in Iraq. There is little doubt that Iran wants to 
see a Shiite-controlled government in Baghdad and would react badly if 
it appeared that Iraq's Sunni minority might be poised to regain power 
and once again subjugate the Shiite majority. The current Iraqi 
Government is quite friendly to Iran, and Tehran can be expected to 
take steps to protect the new-found influence it enjoys in Baghdad.
    But Iraq's other neighbors are apprehensive about the specter of a 
Shiite-controlled Iraq. Saudi Arabia, in particular, regards the 
prospect of such a state on its northern border as anathema, worrying 
about the impact on its own Shia minority--which is concentrated in the 
principal oil-producing region. There are indications that wealthy 
Saudis are already providing funds to Sunni forces in Iraq.
    A regional Sunni-Shiite proxy war in Iraq would turn the Bush 
administration's policy there into even more of a debacle than it has 
already become. Even worse, Iraq's neighbors could be drawn in as 
direct participants in the fighting. Washington should take steps to 
head off those dangers.
    Probably the best approach would be for the United States to 
convene a regional conference that included (at a minimum) Iran, Saudi 
Arabia, Syria, Jordan, and Turkey. The purpose of such a conference 
should be to make all parties confront the danger of the Iraqi turmoil 
mushrooming into a regional armed struggle that ultimately would not be 
in the best interests of any country involved. Ideally, that 
realization might lead to a commitment by the neighboring states to 
refrain from--or at least bound the extent of--meddling in the 
escalating violence in Iraq
    Ultimately, though, maintaining a U.S. military occupation of Iraq 
to forestall a possible regional proxy war is simply too high a price 
to pay, both in money spent and American lives sacrificed.
Allegation: Leaving Iraq would betray a moral obligation to the Iraqi 
        people
    In addition to their other objections, opponents of withdrawal 
protest that we will leave Iraq in chaos, and that would be an immoral 
action on the part of the United States. Even some critics of the war 
have been susceptible to that argument, invoking the so-called Pottery 
Barn principle: ``You broke it, you bought it.''
    There are two major problems with that argument. First, unless some 
restrictions are put in place, the obligation is seemingly open-ended. 
There is little question that chaos might increase in Iraq after U.S. 
forces leave, but advocates of staying the course do not explain how 
the United States can prevent the contending factions in Iraq from 
fighting the civil war they already seem to have started. At least, no 
one has explained how the United States can restore the peace there at 
anything resembling a reasonable cost in American blood and treasure.
    Leaving aside the very real possibility that the job of building a 
stable democracy might never be done, the moral obligation thesis begs 
a fundamental question: What about the moral obligation of the U.S. 
Government to its own soldiers and to the American people? There is 
clearly an obligation not to waste either American lives or American 
tax dollars. We are doing both in Iraq. Staying the course is not a 
moral strategy; it is the epitome of an immoral one.

                  THE CONSEQUENCES OF STAYING IN IRAQ

    Leaving Iraq is clearly not cost-free, but the costs (both tangible 
and intangible) of a prompt exit must be measured against the costs of 
staying the course. Moreover, even if the United States absorbs the 
costs of a prolonged mission, there is no certainty that anything 
resembling victory resides at the end of that effort. Indeed, most of 
the indicators suggest that we would be merely delaying defeat.
Damage to America's standing in the world
    Even the September 2006 National Intelligence Estimate on Iraq 
conceded that the U.S. occupation of Iraq had served as a focal point 
and inspiration for Muslim extremists. Equally worrisome, it had also 
served as a training arena for such militants to hone their military 
and terrorist skills. An al-Qaeda letter intercepted by the U.S. 
military indicates that the organization itself regards a continued 
U.S. military presence and, consequently, a long war in Iraq as a boon 
to its cause.
    A December 2006 Zogby poll of populations in five Arab nations 
reveals just how much anti-U.S. sentiment has increased throughout that 
region. Opinions of the United States, which were already rather 
negative, have grown significantly worse in the past year.
    Outside the Arab world, there also has been a hardening of 
attitudes toward the United States. Even among longstanding friends and 
allies (in such places as Europe and East Asia), the United States is 
viewed in a significantly more negative light. The longer we stay in 
Iraq, the worse those problems will become.
Straining the All-Volunteer military
    Even some hawks are concerned about the negative impact of the Iraq 
mission on the All-Volunteer Force (AVF). They should be concerned. In 
December 2006, GEN Peter J. Schoomaker, the Army's Chief of Staff, 
bluntly told a House committee that the Active-Duty Army ``will break'' 
unless there was a permanent increase in force structure. And that is 
before any contemplated additional deployments to Iraq.
    The military leaders are not exaggerating. Already the Army has 
struggled to meet its recruiting goals, even though it has diluted the 
standards for new recruits, including by issuing waivers in cases where 
there is evidence of criminal behavior or mental illness. Indeed, the 
Iraq occupation has been sustained to this point only through 
extraordinary exertions, including an unprecedented number of ``stop 
loss'' orders, preventing military personnel from returning to civilian 
life when their terms of enlistment are up, and recalling members of 
the Reserves--including some people in their forties and fifties. The 
AVF is straining to the breaking point already, and the longer we stay 
in Iraq, the worse those strains will become.
Costs in blood and treasure
    The tab for the Iraq mission is already more than $350 billion, and 
the meter is now running at approximately $8 billion a month. 
Furthermore, even those appalling figures do not take into account 
indirect costs, such as long-term care for wounded Iraq war veterans.
    Except when the survival of the Nation is at stake, all military 
missions must be judged according to a cost-benefit calculation. Iraq 
has never come close to being a war for America's survival. Even the 
connection of the Iraq mission to the larger war against radical 
Islamic terrorism was always tenuous, at best. For all of his odious 
qualities, Saddam Hussein was a secular tyrant, not an Islamic radical. 
Indeed, the radical Islamists expressed nearly as much hatred for 
Saddam as they did for the United States. Iraq was an elective war--a 
war of choice, and a bad choice at that.

                           DECIDING TO LEAVE

    The United States needs to adopt a withdrawal strategy measured in 
months, not years. Indeed, the President should begin the process of 
removing American troops immediately, and that process needs to be 
complete in no more than 6 months. A longer schedule would simply 
prolong the agony. It would also afford various Iraq factions 
(especially the Kurds and some of the Shia political players) the 
opportunity to try to entice or manipulate the United States into 
delaying the withdrawal of its forces still further.
    Emotionally, deciding to leave under current conditions will not be 
easy, for it requires an implicit admission that Washington has failed 
in its ambitious goal to create a stable, united, democratic, secular 
Iraq that would be a model for peace throughout the Middle East. But 
that goal was unrealistic from the outset. It is difficult for any 
nation, and especially the American superpower, to admit failure. 
However, it is better to admit failure when the adverse consequences 
are relatively modest. A defeat in Iraq would assuredly be a setback 
for the United States, particularly in terms of global clout and 
credibility. But one of the advantages to being a superpower is that 
the country can absorb a setback without experiencing catastrophic 
damage to its core interests or capabilities. Defeat in Iraq does not 
even come close to threatening those interests or capabilities. Most 
important, a withdrawal now will be less painful than withdrawing years 
from now when the cost in blood, treasure, and credibility will prove 
far greater.
    The withdrawal needs to be comprehensive, not partial. The only 
troops remaining in Iraq should be a modest number of Special Forces 
personnel who would work with political factions in Iraq inclined to 
eradicate the al-Qaeda interlopers in their country. It must be clear 
to Iraqis and populations throughout the Muslim world that Washington 
has no intention of trying to maintain a military presence in Iraq.
    Above all, U.S. policymakers need to absorb the larger lesson of 
the Iraq debacle. Launching an elective war in pursuit of a nation-
building chimera was an act of folly. It is a folly they should vow 
never to repeat in any other country.

    The Chairman. Thank you very much, Dr. Carpenter.
    I'd like to--because my colleagues have been so patient 
today, why don't I yield my time and I'll ask questions last on 
our side. And I'll yield first to Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman. I 
appreciate the courtesy.
    I want to thank all of the panelists for their testimony.
    I'd like to start with you, Dr. Kagan. Did you have an 
opportunity to advise the White House about your plan?
    Dr. Kagan. Senator, I have not spoken with the President, 
but I have spoken with individuals in the White House.
    Senator Menendez. Are they senior officials of the White 
House?
    Dr. Kagan. Yes, Senator.
    Senator Menendez. Is the plan that you heard the President 
describe last night, would you say it is largely your plan?
    Dr. Kagan. Senator, it's very difficult for me to tell. The 
President gave a very general speech--the elements of the plan 
relating to the change of mission, the new strategy to try to 
secure Iraq, the commitment of five additional combat brigades 
to Baghdad, certainly those are things that we recommended. I 
have not yet seen, in any detail, the actual military proposal 
that the President intends to pursue, and so, I can't really 
say to what extent this is my plan.
    Senator Menendez. Do you agree with the essence of his plan 
last night?
    Dr. Kagan. Well, I certainly believe that the change in 
strategy is essential, that the--we must commit to trying to 
establish security in Baghdad first. And I do believe that we 
need additional forces in order to do that.
    Senator Menendez. So, what is the timeframe for that? How 
long do we stay there, under--even under your plan--let's 
assume, for argument sakes, this is your plan--how long do we 
stay?
    Dr. Kagan. Our estimates were that we would be able to 
establish security in Baghdad, at least in the neighborhoods 
that we were proposing to operate in, by the end of 2007. We 
believe that we would need to sustain this higher force level 
into 2008 in order to support operations in Al Anbar, Diyala, 
and elsewhere. And we believe that somewhere in the 18- to 24-
month period, we would be able to begin turning over 
responsibilities to Iraqi forces and withdrawing.
    Senator Menendez. OK. Now, we lead--under your plan, we 
lead this fight, do we not?
    Dr. Kagan. Under my plan, we would be working together with 
the Iraqis to clear and hold neighborhoods.
    Senator Menendez. But we've heard a lot of testimony, 
including before this committee the other day--yesterday I 
think--and we've heard from others, that the Iraqis don't have, 
at this point, the ability to show up for the purposes that 
have been outlined in the securing of Baghdad. Isn't that true? 
Isn't that pretty much recognized?
    Dr. Kagan. Senator, when we developed our plan, we took 
into account the possibility that the Iraqis would not come in 
the numbers that might be desirable. And so, we attempted to 
define a force level for American troops that would be 
adequate, even if the Iraqis disappointed us.
    Senator Menendez. You know, it just seems to me that we 
need to be honest with the American people in this plan. This 
plan, as I see it, including that which is described by the 
President, wants to be sugarcoated under the guise that Iraqis 
are going to lead, and we are somehow going to follow and give 
them assistance. And I clearly have the picture that these 
American troops who will lead, will be at the forefront, will 
be the targets, and we will have some Iraqis assisting along 
the way. And that is a fundamentally different mission than 
both the President tried to suggest and I heard Secretary Rice 
try to suggest, this morning, in her opening statement. And I 
think it's not quite--well, it's not quite honest about what is 
taking place.
    Now, before I came to this afternoon's hearing, I got a 
notice that the New Jersey National Guard troops currently 
stationed in Iraq are going to have their tours extended by 120 
days as a result of the President's policy to add to the war 
effort. And I think there is some release out saying that 
extension of troop tours by both the Guard and Reserve is now 
going to be part of the policy of the United States for up to 
an additional year. Isn't that going to have real consequences 
on a military that is already far stretched and cannot meet 
these challenges--on morale, on performance in the field, and 
ultimately on the very recruitment that we need to build up the 
Armed Forces strength of the United States?
    Dr. Kagan. Senator, I and the Active Duty and retired 
officers who developed this plan are all very concerned about 
the strains on the Army and the Marine Corps and the National 
Guard and Reserves, but we think that, set against that, we 
must also be extremely concerned about the prospect that the 
damage that'll be done to the volunteer force by defeat in 
Iraq, which we believe will be drawn out, at painful and 
extremely emotionally searing event, and we think that it will 
actually do much greater damage to the force than the 
relatively short----
    Senator Menendez. Is there an answer to how many lives and 
how much money?
    Dr. Kagan. Senator, it was not----
    Senator Menendez. Where is it that you define, Dr. Kagan, 
and those who advocate along your lines--where is it that you 
define that if you do not have success, as you have pointed out 
a way that you believe we can achieve success, where is the 
tipping point? Because to listen to those advocates who say 
that we cannot fail in Iraq and believe that failure, in terms 
of the military options, is the driving force in--i.e., to 
create security--we have had escalations and they have not 
succeeded. Because, in my mind, we haven't had the political 
surge to do it. Now, you reject that.
    The point being, at what point, when you do not succeed 
again, if you do not succeed again--at what point will you come 
and tell us, ``Well, if we had another 20, 30, 40,000 troops, 
we could ultimately succeed here''? It just seems to me that 
we've been through this in our history before. Where is the 
tipping point in which you are willing to admit that a 
different course, than even the one you suggest, is 
appropriate?
    Dr. Kagan. Senator, I have high confidence that the plan 
that we proposed will bring down the level of violence in 
Baghdad, and I believe that that will be a positive good, even 
if we ultimately have to withdraw from the country because of 
other unfortunate developments in the political realm. I 
believe that we need to take this opportunity to try to restore 
order and try to get ourselves on a track that will avoid some 
of the terrible consequences of defeat. If that doesn't work, 
then obviously we will have to reconsider.
    Senator Menendez. Thank you.
    Dr. Carpenter, very quickly--I have about a minute left--in 
your testimony--in your written testimony, you talk about 
bringing others in a regional conference, including Iran, Saudi 
Arabia, Syria, Jordan, and Turkey. You heard that maybe--I 
don't know if you heard--the Secretary of State's answers to 
two of those partners along the way of not having them engage. 
Could you give your own reflections on that, and how does 
bringing Saudi Arabia and Turkey to the table at the same time, 
in a regional context, gives us an opportunity to offset some 
of her concerns, and--how do you view that?
    Dr. Carpenter. Senator, I think it is absolutely essential 
to involve all of Iraq's neighbors in an attempt to try to at 
least quarantine the violence in that country and prevent it 
from becoming a regional proxy war, or, even worse, a regional 
war. That simply cannot be accomplished without involving Iran 
and Syria. As distasteful as we rightfully regard those 
governments, they are important actors in the region. And one 
of the basic lessons I think we need to learn for American 
foreign policy generally is that it is not very effective to 
refuse to talk to one's adversaries, that the most difficult 
task of diplomacy is getting results from regimes that you, 
quite frankly, wish didn't exist. It's easy to talk to one's 
friends; it is very, very difficult, but ever so necessary, to 
talk to one's adversaries. And we are not going to get any kind 
of solution, even the limited solution of quarantining the 
violence in Iraq, unless we draw in Iran and Syria, as well as 
Iraq's other neighbors, into this process.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Lugar.
    Senator Lugar. Well, thank you very much, Mr. Chairman. I'm 
going to follow your good example and yield to Senator Corker.
    The Chairman. If I can interrupt for just one moment, I 
would say to my colleagues, if, in fact, you have additional 
questions, in light of the relatively small number here, my 
intention would be to allow you to go back for a second round, 
if the panel would be willing to stick around.
    Thank you.
    Senator Corker. Thank you, gentlemen. I appreciate it.
    I enjoyed your remarks. And, again, I want to thank our 
chairman for the distinguished panelists that we continue to 
have in these meetings.
    I think that we talk a great deal about ending the war in 
Iraq and withdrawing our troops, but I think we all know that 
the war in Iraq is going to continue for years, in one way or 
another, if we leave. And so, I'd like for each of you to 
respond, if you will, to us, if we, in fact, do withdraw, if, 
in fact, President Bush's plan is not followed--I'd like for 
you all to paint the picture--I know there's going to be 
tremendous civil strife, tens and thousands of lives will be 
lost in the following period--describe to us, if you will, if 
withdrawal does occur in a timely fashion--6 months, 9 months--
how you view Iraq to be when that occurs.
    Ambassador Galbraith. Let me take a crack at that, Senator.
    Certainly, if we withdraw, there is going to be continued 
sectarian killing between Sunnis and Shiites. Iran will 
exercise enormous influence in Iraq. For decades Iran sponsored 
the Shiite religious parties that, as a result of the U.S. 
invasion, now control Iraq's government. The central government 
will not exercise any more authority than it does now, which is 
to say it will have basically no authority. Kurdistan will 
continue to be, de facto, independent.
    And if we stay in Iraq, all of this will also be the case. 
There is a civil war in Iraq which we are not containing that 
civil war. There is terrible sectarian killing, and we're not 
able to stop it. An increase in the number of troops is not 
going to help control the killing. Our troops are not trained 
to be police. They don't speak the language. They don't have 
the local knowledge. And if they are relying on so-called Iraqi 
troops, you have to ask the question: Who are those Iraqi 
troops? They are going to be either Sunni or Shiite or Kurdish 
peshmerga. If a Sunni or Shiite stops at a roadblock manned by 
troops or police of the opposite sect, his life is in danger. 
Unless a Baghdad resident knows the local troops or police are 
from his own sect, he's not going to feel safe.
    So, the short answer is that Iraq after withdrawal and Iraq 
today are not going to look very much different. There is just 
the one achievable goal, which is one that Senator Lugar 
mentioned. We can, I think, disrupt al-Qaeda.
    Dr. Kagan. Senator, if I may, I must respectfully disagree. 
Iraq, after withdrawal, will look very different. It is not the 
case that we are doing nothing at all to contain the civil war, 
and we should not delude ourselves into imagining that if we 
left, it would simply continue in this similar fashion.
    It is certainly true that when Iraqis come to Iraqi 
checkpoints manned only by Iraqis, at this point, they're 
frequently nervous if those Iraqis are from another sect, 
unless there are American soldiers present with them. And right 
now, we have been very effective in a number of places in 
maintaining order, keeping a lid on things, working together 
with Iraqi troops that are there; who do perform infinitely 
better when we are there and are much more restrained in their 
behavior and much more tolerated and trusted by the Iraqi 
population. And you can even see this on Sunni blogs in Iraq, 
where Sunnis warn each other, ``If the Iraqi police come by 
themselves, we should be very worried about that. If they come 
with American troops, it's OK.'' Now, that's obviously not a 
good sign for being able to do any sort of rapid transition to 
the Iraqi police, but that's hardly news. It does mean, first 
of all, that the Iraqis are less hostile to our presence than 
many people make out, and it also means that we are playing an 
important role.
    If we were to withdraw precipitantly, the violence would 
increase dramatically--I think, by orders of magnitude. I think 
you would end up seeing millions of people displaced. We're 
already seeing this process underway, and it's extremely 
unfortunate. I believe that Iraq's neighbors would begin to get 
involved. They would have to, in terms of self-defense. There 
are already 900,000 Iraqi refugees in Jordan, for instance. I 
believe that they would attempt to resolve this problem by 
moving their own forces forward into Iraq in order to stem the 
refugee tides and contain the violence before it reaches their 
borders. I think they would be drawn rapidly into the conflict. 
I think some of them would seek to be drawn into the conflict 
by supporting one side or the other. I think, before very long, 
you would find that the regional--that Iraq's neighbors would 
see themselves as stakeholders in various parts of the outcome 
of this conflict, and would begin mobilizing increased degrees 
of military power to back their stakes.
    In short, I believe it's very likely that we would find 
ourselves in the midst of a regional conflict in a region from 
which we cannot leave, in an area which we simply cannot 
abandon, and with the stakes much higher, and the conditions 
for us much worse, even apart from the humanitarian catastrophe 
that would be involved.
    Senator Corker. And that sounds a lot like escalation to 
me, but--go ahead.
    Dr. Carpenter. Senator, first of all, I would agree with 
almost everything that Ambassador Galbraith said. I think it's 
important to emphasize that the civil war is already underway 
in Iraq. We have a situation--I've already cited the number of 
people dying on a daily basis: 1.6 million people have been 
displaced internally, largely moving from areas where they are 
an ethnic minority to one where they are in the majority, so 
ethnic cleansing and the sectarian divide is growing almost by 
the day; 1.8 million people have already left the country 
entirely, and those are primarily the middle-class Iraqis, the 
very people that we want as the building blocks for a strong 
civil society--they're leaving. This is with the American troop 
presence there.
    We face the prospect now of trying to play referee in an 
ongoing multisided civil war. I can't think of anything that 
would be a more futile and frustrating task than trying to play 
that role.
    And, for Dr. Kagan, I think it's important to stress that 
this kind of commitment would be open-ended. We would be 
refereeing this conflict, year after year after year. There 
would be no discernible end in sight.
    As Ambassador Galbraith has already delineated, Iraq has 
already fragmented. We're seeing this process proceed. But it 
is very, very unlikely that it's going to be reversed.
    Senator Corker. Well, thank you for your comments. And I 
really do ask these questions without bias. And I know my time 
is up, but let me--so, what you're saying is, you would sense 
no intensified killing, no escalation whatsoever, whether we 
are there or not there. You think it will remain exactly as is 
today. That's what Dr. Galbraith said.
    Dr. Carpenter. I think we're going to see an 
intensification where--whenever we leave, whether that is 6 
months from now or 6 years from now. What we need to focus on--
and I agree with him fully--is making sure that al-Qaeda cannot 
use any portion of Iraq for a safe haven. I think that danger 
is exaggerated, but it's not insignificant. We do have to deal 
with that problem. And we need to focus on a limited attainable 
objective--namely, quarantining that violence in Iraq so that 
it does not become a regional war. And I believe there is a 
reasonable prospect of convincing even Iran and Syria that a 
proxy war can easily spiral out of control and it would not be 
in their best interest to tolerate that kind of development, 
that it is better to quarantine this conflict and allow the 
dynamics in Iraq to play themselves out. Perhaps, at some 
point, the various factions in Iraq will agree on compromise, 
either a reasonably peaceful formal partition or a very loose 
federation with adequate political compromise, but they have to 
determine that. We cannot determine that outcome for them.
    The Chairman. Thank you very much.
    I say to my friend from Florida, I have taken his advice 
and--if it's all right with him, right?
    Senator Casey.
    Senator Casey. I was fully prepared to give back the favor 
that Senator Nelson gave me yesterday, but--thank you.
    Mr. Chairman, thank you. And I appreciate this opportunity. 
Not that I don't want to see my colleagues, but this is a nice 
way to do a hearing. [Laughter.]
    You get to this end quicker this way. No; I'm grateful for 
this opportunity, and I'm grateful for the three of you 
spending the time and providing the scholarship that you 
provide for this important discussion today.
    My friends in the media should cover this, as they did this 
morning's hearing, but that's not the way things are done here.
    But let me get right to a couple of basic questions. And I 
think I'll direct some of these at each member of the panel, 
but, in particular, I guess, the first one, I'd direct in--with 
specificity, to Dr. Galbraith--Ambassador Galbraith.
    You mentioned the presence of, and the activity of, what 
you called ``local theocracies.'' That's the first time I had 
heard that kind of pinpoint analysis of what's happening, 
really, in neighborhoods, so to speak, on that. You talked 
about local theocracies operating, and action taking place at 
the local level, which is in contravention of, or in conflict 
with, the Constitution. Could you amplify that?
    Ambassador Galbraith. Senator, we talk about Iraq as if 
there were a functioning Iraqi Government, and that the 
violence is somehow directed against that government. But the 
reality is very different. Various Shiite political parties 
control different parts of the south. In Baghdad, the Mahdi 
Army controls the Shiite neighborhoods. These political parties 
and militias enforce their own law. If you're accused of a 
crime or some offense against the religious law, you don't 
necessarily go to the state-run courts but, quite often, end up 
before an ad hoc court that will hand out a summary punishment. 
Although the sale of alcohol, for example, is not illegal in 
Iraq, Christians who sell alcohol have been summarily executed 
based upon unofficial religious law.
    Nonetheless, the Shiite south is relatively a stable 
situation. To get rid of religious party rule would entail a 
major military operation involving several hundred thousand 
troops.
    The one place in the south that is not stable is Basrah 
where three different Shiite parties are vying for the control 
of the city, and, more importantly, are vying for the control 
of the smuggling of oil. I have been told by Iraq's Oil 
Ministry that 100,000 barrels less a day enters the pipeline 
near Basrah than actually gets on the ships in the Persian 
Gulf. And this oil is funding these three parties and their 
militias.
    Senator Casey. And the next question I have pertains just 
to diplomacy, generally. I'll direct it to the Ambassador, but 
certainly, Dr. Carpenter, Dr. Kagan, can also weigh in on this, 
and you should, if--I think we've got enough time. The question 
of diplomacy. Ambassador, if you had a--I want to say ``if you 
had a magic wand''--but if you had the opportunity to construct 
a diplomatic strategy, starting today and going forward, forget 
about the past--there's a lot we could talk about, what I would 
judge failures, but let's just start from today, going 
forward--what's the best strategy, in your mind, in terms of 
dealing with the cards we've been dealt, in terms of an overall 
fully engaged diplomatic strategy?
    Ambassador Galbraith. Well, first, I think we need to be 
clear about our objectives. And even if we wished Iraq were to 
hold together, we need to be realistic about what is 
achievable. I believe our top priority should be to avoid--or 
minimize--the violence that accompanies Iraq's breakup. This 
violence could escalate sharply if the regional states were to 
intervene. There is a danger Turkey might intervene in Kirkuk, 
where a referendum is supposed to be held at the end of this 
year. Iran might increase its already large role in Iraq. The 
Saudis have threatened to intervene on behalf of the Sunnis, 
although I think that's largely an empty threat. Our diplomacy 
should be aimed at helping Iraq's neighbors face up to the new 
realities in Iraq, try to make whatever is going to develop as 
palatable to them as possible.
    I don't subscribe to the notion, in the Baker-Hamilton 
Report, that talking to Iran or Syria would improve the 
situation in Iraq, because Iran, in fact, supports the same 
Shiite-led government that we do. The people in power in Iraq 
are Iran's best friends. Iran has no desire to undermine the 
Iraqi Government, even if it opposes our presence. And Syria is 
not a large player; and so, there isn't much to be accomplished 
there.
    I do believe, however, that we should talk to Iran and 
Syria on other issues. As President Kennedy said in his 
inaugural address, ``we should never negotiate out of fear, but 
we should never fear to negotiate.'' I think this advice is 
highly relevant to Iran and Syria. I might add that I also like 
this line because it was my father who wrote it for President 
Kennedy.
    The Chairman. I should be attributing that to your father, 
then, rather than President Kennedy. That's a great line, and 
it's a good point.
    Senator Casey. I wanted to ask one more question, but, Dr. 
Carpenter, Dr. Kagan, if you wanted to weigh in?
    Dr. Kagan. Sure. I think we have to be realistic about what 
diplomacy can achieve and what diplomacy cannot achieve. I'm 
not going to say, a priori, that we should or should not 
negotiate with any state in the region. What I am going to say 
is that the problems in Iraq that we're facing right now are 
internal Iraqi problems, primarily. The money for the 
insurgency is coming primarily from corruption and crime and 
other things that are internal to Iraq. There are weapons that 
are coming into Iraq, but, as a friend of mine in the United 
States military said once, there's enough high explosive in 
Iraq to keep this conflict going at this level for 1,000 years. 
There is no real prospect for cutting off supply to this 
insurgency or to this violence, and thereby turning it off. And 
therefore, with all of the goodwill in the world, I do not 
believe that the Iranians or the Syrians are capable of helping 
us materially in Iraq, even were we to talk to them.
    Neither do I believe that it would be effective to try to 
negotiate with the states or the region in order to get them to 
hold the ring while their coreligionists slug it out in a 
vicious sectarian genocidal civil war. I think, you know, it is 
very odd to me that people are ready to say that the Iraqis are 
irrational and will not act in their own interests, and that 
they're simply hopeless, and yet say that, nevertheless, the 
Iranians will be perfectly rational, despite evidence to the 
contrary, and other states in the region will behave with 
perfect rationality, even as the stakes go up and the 
atrocities mount. I find that, frankly, unlikely.
    Senator Casey. I know we're out of time. Thank you.
    The Chairman. You had one other question?
    Senator Casey. One quick one. I don't know if it's a yes or 
no. But in terms of the mechanics of constructing a diplomatic 
strategy, going forward, what does that mean, specifically, in 
any of your opinions? Does it mean Secretary Rice, who's 
leaving, I guess, tomorrow, and will be there for an extended 
period of time--does that mean she's--in your judgment, stays? 
Does it mean an envoy? What does it mean? Does it mean the 
President has to have more personal involvement? What are the 
building blocks of that kind of a--we can all talk about 
diplomacy, but what does that mean, practically, in terms of 
time and personnel and attention, if you get my drift?
    Dr. Carpenter. There are a number of possible options. I 
would suggest putting a special envoy in charge. I think that's 
probably the more direct approach. We also have to be 
realistic. As much as it might be constructive over the long 
term to engage with Iran and other countries on a variety of 
issues, the more issues we add to the agenda, the greater the 
likelihood of a breakdown. And I speak, specifically, if we 
start bringing in the Israeli-Palestinian dispute into the mix. 
That almost guarantees failure. I would have a very narrow, 
very focused agenda, and that is, let's prevent the tragedy in 
Iraq--and it certainly is that--from becoming a full-blown 
regional tragedy. That goal, I believe, is attainable. There's 
no guarantee that we're going to succeed, but we ought to make 
the effort, and I think there is at least a reasonable prospect 
we can succeed with that narrow, but extremely important, goal.
    Senator Casey. Thank you.
    The Chairman. Senator Lugar.
    Senator Lugar. Mr. Chairman, I'd like to ask, of the panel, 
reaction to these observations. It would appear that--this may 
be over generalized, so correct me if I'm wrong--but prior to 
now our United States forces were, if not on the periphery of 
Baghdad, were clearly not embedded, as the term is now being 
used, in the nine police districts of Baghdad. So, if our 
forces acted within the city, they were on patrol or had been 
called upon, coming in from the outside, took action, perhaps 
alongside the police or the army, and withdrew again to the 
outskirts of the city. And this, at least, is the mode of 
operations that is being pointed out as permitting a great deal 
more Iraqi casualties, irrespective of whether those killings 
are civil war or sectarian violence. But the killings escalated 
because of certain events. So, it would appear that the plan 
now being presented by the President is to have Americans 
embedded; although it is yet been revealed, specifically, what 
the role of the Americans will be. Some have said, no, it will 
not be a door-to-door visit alongside an Iraqi police officer; 
rather, we'll be back at the headquarters, we'll be monitoring 
the conduct of the Iraqis to make sure that it is neutral with 
regard to whomever they might encounter on patrol. And, in this 
way, essentially, there'll be, potentially, better goodwill 
built among the populace so that the government may have some 
chance of operating and coming to decisions.
    Now, I would suggest that this may be the most important 
goal. But, on the other hand, weigh this against the fact that 
some who are arguing this already in the Senate or Congress or 
the public would say, ``This is the last chance, this is an 
opportunity to stop the unacceptable violence in the Baghdad 
area. If it doesn't work, we're out of there.'' And they mean 
out of Iraq, not out of Baghdad. Now, this concerns me a great 
deal, because I see that domestic political dynamics might very 
well lead that way. The President asked for support of his 
policy, and should it--for some reason, not work very soon, or 
maybe not work very well at all, and people say, ``That's 
enough.''
    Now, leaving aside the strategies you all have presented 
today, in which perhaps you, Dr. Carpenter, have come closest 
to advocating a total withdrawal of American forces from Iraq. 
Although I suspect you would have disagreement, as to what 
American forces do. Some of us have argued that the important 
objective, really, is to have Americans in Iraq somewhere, and 
for quite a while, largely to reduce the potential for 
sectarian violence across the region, and, likewise, to prevent 
a series of tragedies that could result. It is also important 
for Secretary Rice on her tour now, or subsequent ones, to 
convey explicitly that we are going to be there; and, 
therefore, they can count on that. It's not a negotiation, but 
it's information. Likewise, maybe if she is successful, she 
gets a roundtable of all the groups that are involved, the 
nations, so they all inform each other of what their intent may 
be. Everybody, sort of, hears it, so that the chances for some 
regional stability are enhanced in that process.
    Now, Ambassador Galbraith has suggested that Americans 
might, in fact, reside in Kurdistan as--or the Kurd part of the 
country, as at least one place that they are welcomed and 
relatively safe as may be in the area, but this could be any 
number of places, and I don't want to game that out.
    I'm just asking, I suppose, for some advice as to whether, 
in this current political situation, not only in Iraq, but in 
the Middle East and here, is it not a more prudent step to 
think in terms of how we maintain a presence, and that we argue 
about that, as opposed to numbers, surges, precisely what the 
Americans will do, door to door or in the headquarters?
    Does anyone have a general comment on this?
    Ambassador.
    Ambassador Galbraith. Senator Lugar, the point you make is 
very similar to the one that I've made in my testimony. That 
is, the United States does have some remaining achievable 
objectives. The most important is one that you mentioned: 
Namely, disrupting al-Qaeda. That is one reason not to withdraw 
completely. There is some advantage to having United States 
forces in Iraq as a deterrent. Being in Kurdistan would help 
stabilize the situation as between Kurdistan and Turkey. I 
think the independence of Kurdistan is inevitable. It may not 
be desirable, but it is inevitable. But it's not immediate. 
And, in that sense, a United States presence can help bring 
stability to that region, and provide reassurance to Turkey, as 
well as deter any kind of action that might be taken by the 
surrounding states.
    The reason I argue for a United States military presence in 
Kurdistan is that that's where our forces would be welcome. If 
they are anyplace else in the country, they will have to devote 
large resources to force protection.
    I want to come back to a fundamental problem, which I think 
everybody who has a plan for Iraq must address--what happens 
after you've done all these things, be it the President's plan 
or my proposal for a redeployment to Kurdistan? The situation 
in Iraq is not going to change in any fundamental way. The 
government of Prime Minister Nouri al-Maliki reflects the will 
of the 60 percent of the Iraqi population--the Shiites--who 
voted for it. The Shiite electorate wishes to define Iraq as a 
Shiite state. And even Sunnis who despised Saddam Hussein are 
not going to accept that definition of the state. On the other 
hand, the Shiites are not going to give up on it. So, you are 
never going to get to an inclusive state. I don't discuss the 
Kurds, because, for all practical purposes, they're out of Iraq 
already.
    Dr. Kagan. Senator, if I could respond, as well. I--first 
of all, Ambassador Galbraith has made this point repeatedly, 
but I do find it a little bit odd--I understand the Kurdish 
perspective, but I find it a little bit odd to say that the 
Kurds are out of there already, when the President of Iraq is a 
Kurd, and when there is a substantial bloc of Kurdish 
representatives in Parliament--in the Iraqi Parliament who have 
been extremely active. The Kurds may think that they're out, in 
some respects, but they're clearly continuing to play. And I 
think the reason for that is that they understand that, at the 
end of the day, it is not in the interests of Kurdistan for 
Kurdistan to break off from Iraq and have vast sectarian civil 
war going on immediately to their south, which will inevitably 
push refugees in their direction and involve them in violence 
along their borders. That's not in their interest. And I credit 
the Kurds with more self-interest--more understanding of their 
self-interest than that, than to think that they imagine that 
that's going to be a happy scenario for them.
    I'm very concerned about the practicalities--the military 
practicalities, of a plan for maintaining United States forces 
in Kurdistan, with the expectation that they will be doing 
things in Iraq. Where will they draw their supplies from? They 
certainly can't maintain a supply line the length of Iraq into 
Kurdistan without having a very substantial presence that would 
run against the concept. They will have to draw their supplies 
from Turkey. Well, the Turks might well allow that to happen, 
for a variety of reasons, but I'm curious about what demands 
the Turks would end up making on the Kurds in return for 
support of our presence there. After all, the people who most 
adamantly oppose the idea of an independent Kurdistan are the 
Turks. And the problems of the PKK and the fear of terrorism 
based in Kurdistan, I fear, could lead to a very, very nasty 
situation very rapidly.
    In addition to that, Kurdistan is far away from any of the 
regions where we would have to be most concerned about al-Qaeda 
infiltration. And I think we have to ask ourselves: What do we 
think the military operations look like? Are we going to fly 
our soldiers in helicopters across uncontrolled hostile terrain 
spotted with surface-to-air missiles and a variety of other 
dangers, to land in unknown places, conduct operations and 
leave? Those are very daunting military operations. It's much 
harder--if your concern is dealing with al-Qaeda, it's much 
harder and more dangerous to our soldiers to undertake those 
kinds of operations than it is to attempt to bring the security 
situation under control more generally and have a firm base in 
Iraq from which you can deal with these things on a local 
basis.
    I'm also very concerned about the prospect of having 
American soldiers flown in, on call, from local Iraqis to deal 
with what problems that they report. We've seen that, all too 
often, when our soldiers are flying in from afar, coming in 
from afar, and do not know the local situation, they can easily 
be drawn into actions that are counterproductive. When they're 
present, and when they can understand the neighborhood--and to 
talk about local knowledge at this point and say that our 
soldiers don't have it, when many of them are going back on 
their third tours into Iraq, I must say, I think we have a 
pretty fair amount of understanding of Iraq in the army, at 
this point--our soldiers on the ground are able to recognize 
situations that they should not involve themselves in, but only 
if they're there.
    Dr. Carpenter. Mr. Chairman, if I could respond briefly. In 
one sense, the President's new proposal is regressive, in that 
it further Americanizes the war, which I think is exactly the 
opposite direction that we ought to be going.
    There is also an inherent contradiction in his speech last 
night. On the one hand, he contends that it would be absolutely 
disastrous for the United States to leave Iraq with something 
less than a victory; on the other hand, he sets up these 
milestones for the Iraqi Government with, certainly, the 
implied threat that if the Iraqi Government does not meet those 
milestones, our commitment is not unlimited and it's not open-
ended, that we might then withdraw, presumably with something 
less than a victory. I would maintain he can't have it both 
ways. If it is true that any withdrawal from Iraq with less 
than a victory would truly be disastrous for the United States, 
then we are stuck in Iraq indefinitely; we have to stay there 
even if the Iraqi Government were the biggest collection of 
villains or buffoons on the planet, because our own vital 
interests would dictate that we stay.
    I would argue that, in fact, it would be far less than a 
disaster for the United States to leave Iraq, and that, 
ultimately, we have a choice of leaving now, having spent $350 
billion and 3,000 American lives, or the committee can have a 
similar hearing 2 years from now, when the costs may very well 
be $600 billion and 5,500 or 6,000 American lives. That's the 
choice we really face.
    Senator Lugar. Thank you.
    The Chairman. I'd say to my colleagues, I've just been 
informed there is a--is it a vote or a live quorum? There's a 
live quorum that just began. I would suggest--it's up to the 
Senator from Florida--he can begin his questions, if he'd like 
to do that, or we can recess and go, and then I'll ask my 
questions last. Are you ready to go?
    Well, what I'm going to do is turn the gavel over to the 
Senator from Florida, and we'll go vote, and hopefully by the 
time he finishes his questions, if we're not back, if you could 
recess for 3 or 4 minutes, and we'll take the intervening time, 
because I have some questions, and anyone else who has any more 
can come back. But I'd like to spend 10 minutes with you. So--
if I may.
    So, I--I'm going to go vote. I guess others are, as well. 
But the chair is yours, sir. And we'll be back shortly.
    Senator Bill Nelson. So, I get to completely run the----
    The Chairman. You get to completely run the committee. You 
can get unanimous consent for anything you want if you're the 
only one here. [Laughter.]
    And so--I've always enjoyed it when I was in that position.
    Senator Bill Nelson. Can I----
    The Chairman. As a matter of fact, you have a lot more 
power than any chairman has.
    Senator Bill Nelson. You mean I can get unanimous consent 
on changing the rules about seniority? [Laughter.]
    The Chairman. Yeah, you could probably do that, until I 
come back and seek a vote on it. [Laughter.]
    But--no, but it's all yours, sir.
    Senator Bill Nelson [presiding]. Well, what do you all 
think the President meant when he said America's commitment is 
not open-ended?
    Dr. Carpenter. I have to admit I'm a bit cynical about it. 
I think it is an empty threat, it is a bluff, it is an attempt 
to get the Maliki government to do what Ambassador Galbraith 
has demonstrated pretty clearly it is not either willing or 
capable of doing. And this threat is not going to be taken 
seriously by the Maliki government. They feel that we are in 
Iraq for the long term and that they will not respond to this 
setting of milestones without penalties. And, frankly, if you 
don't have very specific penalties, milestones become largely 
meaningless.
    Ambassador Galbraith. We're not far from the day when the 
Maliki government might be just as happy to see us go. The 
civil war can end either in power-sharing--regionalization is a 
type of power-sharing--or it can end in victory for one side. 
Scholars who have look at civil wars fought since World War II 
note that, maybe, 15 percent have ended with power-sharing 
while the other 85 percent have ended with one side winning. 
And who's going to win the civil war in Iraq? The Shiites are 
three times as numerous, and they have, in neighboring Iran, a 
very powerful ally. The Shiites have much larger armed forces 
than the Sunni Arabs, and they control the mechanisms of the 
state. The Sunni Arab countries that might ally with the Iraqi 
Sunnis are relatively weak states. The Saudis have money, but 
limited ability to project power. Jordan is far from the 
populated parts of Iraq. The Syrian position is ambivalent. 
Syria is an ally of Iran, and it's ruled by the Alawites, who 
are a Shiite sect, even though Syria is a Sunni majority state. 
So, the alternative to power-sharing and regionalization is a 
Shiite victory in the civil war which, in turn, might well lead 
to the genocide that Dr. Kagan has warned about. But, from the 
point of view of the Maliki government, a U.S. withdrawal may 
not be the end of the world.
    Dr. Kagan. Senator, I think that--I disagree with the 
notion that the Iraqis think that we're staying there forever. 
I think, on the contrary, that the Iraqi Shia, for the most 
part, decided some time ago that we were going to be out 
quickly. And I believe that the Iraqi Sunni Arabs have also 
decided that we are on the way out. And I believe that the 
various intelligence estimates that we heard at the end of last 
year suggest that a number of these groups are already ready to 
do their victory dances, because they think that they have 
defeated us and that we will be, shortly, leaving. And I think 
that we have seen the beginning of a dominance dance in Iraq 
already, as rival Shia groups begin to position themselves for 
a contest that they expect to occur within their own community 
over which Shia group will run a Shia-dominated Iraq.
    I don't think that the problem is convincing the Iraqis 
that we are going to leave at some point. I think that the 
Iraqis expect us to leave shortly. And I don't think that the 
Maliki government has been failing to do what it is that we 
want them to do because they think that we're going to be there 
forever and that that's a good thing. I think that they have 
not been doing what we wanted them to do, in the first 
instance, in many cases, because they were incapable of it, 
because we were expecting of them things that were 
unreasonable, and the standards that we have set for what we 
want the Iraqi security forces to be able to do by themselves, 
I've thought, have been unreasonable for a long time, which is 
why I think that it's very important that the President come 
forward with a plan that recognizes the limitations of those 
forces and the importance of having American forces in the 
lead. I recognize that's not what he said, but that is what we 
recommended, and I believe that that would be the appropriate 
way to approach this problem.
    There's been a lot of talk about incentivizing the Iraqi 
Government. And I have to confess that I have a problem with a 
lot of that conversation, because what we're really proposing 
to incentivize them with is the threat of unleashing complete 
genocide on the Iraqi people by pulling out and allowing the 
civil war to escalate unchecked and making no effort to 
restrain it. I find that to be a somewhat ambivalent ethical 
position to take, to say that, ``If you don't do what we say, 
we're going to allow you to plunge into this horrible abyss.'' 
It also is a strange position to take toward a government that 
we wish to regard as an allied government, that our notion of 
incentivizing them is hurling repeated threats of such 
catastrophe at them.
    I think it's worth discussing what we could do to incentive 
the Maliki government, either positively or negatively, but I 
don't think that it's appropriate for us to throw threats at 
them that we will simply withdraw, in spite of our concern for 
them, in spite of our ethical position, and in spite of our own 
interests, simply as a way of attempting to compel them to do 
the things that we think they need to do.
    Senator Bill Nelson. What are your expectations of the 
Maliki government? And when?
    Dr. Kagan. I expect that the Maliki government will, in the 
first instance, tolerate the operation that we are proposing, 
and they have already shown that they will tolerate it. I 
expect them to send Iraqi forces to assist in it, and they have 
already begun to do that, as General Pace testified, earlier in 
the day. I expect that to continue, although I, frankly, expect 
to be disappointed by the number of troops that actually show 
up, as we regularly have been. But I expect them to show up in 
greater numbers than they have before. I expect them to 
cooperate with us actively as we work to establish security for 
their people in the capital. And I expect, as that security 
proceeds, that they will begin to make important strides in the 
direction of the reconciliation initiatives that are going to 
be so important to the long-term settlement of this conflict.
    I do expect them to undertake those things. I expect that 
the process will be arduous, there will be setbacks, and there 
will be disappointments.
    Senator Bill Nelson. So, you think it will meet the 
President's test.
    Dr. Kagan. I believe that we will be able to attain a 
stable and secure state in Iraq.
    Senator Bill Nelson. Well, I hope you're right, but I don't 
believe it. And that's my impression.
    Ambassador Galbraith. Mr. Chairman.
    Senator Bill Nelson. And my impression is that increased 
troops in Anbar province will help, but not in Baghdad.
    Mr. Galbraith.
    Ambassador Galbraith. Here's what I expect from the Maliki 
government. I expect it to say what it wants us to hear, and I 
don't expect it to do very many of those things at all. Perhaps 
the best example of this is the Prime Minister's repeated 
statements that militias are incompatible with the functioning 
of a democratic Iraq, and then he does precisely nothing about 
the militias. And that is not because he's weak, that's not 
because he's dependent on the Sadrists for support, but it is 
because he is part of the system of sectarian Shiite rule that 
includes the Shiite militias.
    The character of the Maliki government was perhaps best 
demonstrated by the manner in which it executed Saddam Hussein. 
In his rush to execute Saddam for a 1982 crime against 
supporters of his Dawa Party, Maliki cut short Saddam's ongoing 
trial for the Kurdish genocide, a case that involved a thousand 
times as many dead as did the Dujail case. He acted over the 
protests of the Kurds and, in the rush to execution, did not 
follow Iraq's constitutional procedures that require all three 
Presidents to ratify a death sentence. He allowed the Mahdi 
Army militiamen to participate in the execution. That wasn't 
incompetence, that was the way his government is.
    Senator Bill Nelson. Mr. Carpenter. Just a minute, and then 
I'm going to have to run to make this vote.
    Dr. Carpenter. I would take a position roughly midpoint 
between what Ambassador Galbraith has said and what Dr. Kagan 
has said. I think the Maliki government will participate, with 
some vigor, in operations to crack down on the Sunni insurgents 
and Sunni neighborhoods in Baghdad, and it will do little or 
nothing when it comes to operations to crack down on the Shiite 
militias. This is a sectarian government, as much as the Bush 
administration really doesn't want to admit that reality, and 
it is a participant in the ongoing civil war. It is not a 
neutral arbiter. We have to understand that point.
    What I worry about is the American troops increasingly 
being embedded with Iraqi security forces. I think that was one 
of the worst proposals of the Iraq Study Group; and, 
unfortunately, it's one of the main things the Bush 
administration has adopted. One of the reasons we have been 
able to keep----
    Senator Bill Nelson. Why? Why, on the embedding?
    Dr. Carpenter. Why they adopted it? Or why is it----
    Senator Bill Nelson. Why do you disagree with the 
embedding?
    Dr. Carpenter I think one of the reasons that we've been 
able to keep casuality rates relatively low is the American----
    Senator Bill Nelson. OK. So, you think it would increase 
American casualties.
    Dr. Carpenter. It makes them more and more vulnerable. 
They're going to be dependent on their security on their Iraqi 
counterparts.
    Senator Bill Nelson. OK.
    The committee will stand in recess, subject to the call of 
the Chair. Thank you all very much.
    [Recess.]
    The Chairman [presiding]. We'll come back to order.
    I thank you for your patience. I know the Ambassador, after 
14 years up here, knows what it's like here. The reason why 
Senator Lugar and I hung around over there, we were told there 
was going to be an immediate vote, and they're still--it 
probably won't occur til tomorrow morning. But, I apologize.
    Gentlemen, I--the reason I asked you to stay is, I've been 
impressed with what you've written in the past and how cogent 
your arguments are for your various positions. And, as I said 
earlier, my intention, along with Chairman Lugar, is to try to, 
as thoroughly and as clearly as possible, lay out for our 
colleagues what options people--bright people think exist out 
there, because I don't think any one of us would suggest 
there's any, ``good answer'' left. I know what each of you are 
proposing is not what you would do if you could wave a wand and 
come to a--what you would think would be the best outcome for 
Iraq and for the United States.
    But let me start off with a broad question and ask each of 
you to respond--in any order. And that is--tell me, if you 
will--and this may be a way to meet my objective of trying to 
focus, for my colleagues and for me, the alternatives--how does 
what you are proposing differ--and why--from what the President 
has proposed? In other words, maybe starting with you, Dr. 
Kagan, I read your report, ``Choosing Victory: A Plan for 
Success in Iraq.'' I may be mistaken, but it seems as though 
what the President proposed has the elements of what you have 
proposed, but not, if I may, the weight of how you proposed it. 
And you very clearly lay out that the first stage in the 
process is the Sunni neighborhoods, if I'm not mistaken--is it 
19 or--you list a specific number.
    Dr. Kagan. Twenty-three, Mr. Chairman.
    The Chairman. Twenty-three. Then Sadr City, then Anbar 
province--which makes sense to me. I mean, if you're going to 
adopt the proposal, or if you think the best outcome, and the 
way to achieve it, is to surge force, you have been, in my 
view, the most thoroughly honest, in the sense of laying out, 
from beginning to end, what you think has to happen for there 
to be success.
    And so, why don't we start--as succinctly as you can, but 
take what time you need. Tell me how--and I'm not looking for 
you to criticize the President. I'm just--I'm just trying to 
have everybody understand where the gaps are, so that when they 
take a look, they know what they're talking about, what's being 
said. Tell me how what you have proposed, in broad strokes or 
as specific as you can get, is different than--not just what we 
heard last night, but the actual plan, which obviously the 
President didn't have a chance to go into every jot and tittle 
of his plan--how it differs, as best you know it.
    Dr. Kagan. Mr. Chairman, I thank you very much for your 
kind remarks about our report and also for the opportunity to 
speak with you about this.
    I will answer your question directly, but I would like to 
offer a couple of caveats. First of all, I don't feel like I 
know what the President's plan is, in any great detail. We can 
look at some----
    The Chairman. Fair enough.
    Dr. Kagan [continuing]. Of the things that he said.
    The Chairman. I'm not sure, either.
    Dr. Kagan. And I'd also like to make the point that we are 
going to have, apparently, a change of command in Iraq shortly, 
from General Casey to General Petraeus, I hope--a man for whom 
I have a tremendous amount of respect.
    The Chairman. I share your view about Petraeus.
    Dr. Kagan. And when General Petraeus takes command, he will 
have to look at the situation afresh and develop a plan that 
he's going to be comfortable executing. He's certainly not 
simply going to take the plan that has been developed, you 
know, before he got there, and execute it. So, I would expect 
to see some changes, even in the plan that has been outlined so 
far, when the actual commander gets there. That would be 
normal.
    Having said that, I think that the plan that the President 
outlined, insofar as he did, is similar to ours in its large 
aspects, apparently differs from ours in some more tactical 
details, which I think are extremely important.
    He did say that he would change the strategy and that he 
would change the mission of United States forces in Iraq from 
having the primary goal of training and transitioning to having 
the primary goal of establishing security. And I think that's a 
terrifically important change in strategy. It is the one that 
we recommended.
    And I'd like to make a point that people are focusing on 
the number of additional troops that will be sent in as being 
the delta between what we've been doing and what we will be 
doing. And that's actually not right. We have, already, 
something like 20 or 25,000 American soldiers in and around 
Baghdad. They have not had it as their primary mission to 
establish and maintain security in Baghdad for most of the 
time. That will now become their mission. So, we're actually 
talking about an increase of, you know, more like 40 or 50,000 
American soldiers dedicated to this mission over what we've had 
previously. And so, the change is actually rather more 
significant than people have been focusing on. And that is in 
accord with what we recommended.
    He did say that he would send five additional combat 
brigades to Baghdad as rapidly as they can get there. And that 
is also what we recommended. And that is the size of the force 
that we recommended.
    There's been some confusion because of the way the 
administration has presented numbers to match the brigades, and 
I believe that that has to do with--there are different ways of 
counting how many troops there are in a brigade. So, we gave a 
total force increment for Iraq of 35,000. The President is 
talking about 20-some thousand. I think that's a difference in 
counting, more than anything else, because we recommended five 
additional Army brigades and two additional Marine regimental 
combat teams. The President said that it would be five American 
brigades and one regimental combat team. So, the forces that 
he's proposing are very parallel in size to the forces that we 
proposed. And we think it's very important to have all of those 
forces. And, if it were me, I would continue to fight for the 
additional regimental combat team, as well, because I think 
it's important to have reserves available for this operation.
    Now, the President did say that the Iraqis would be in the 
lead. He did talk about our forces supporting them. And he did 
talk about increasing the number of our forces embedded in 
Iraqi units conducting these operations. Those statements are 
not in accord with what we had recommended. We believe that, in 
the first instance, this has to be an American-led operation, 
simply because there are not enough Iraqi forces, and they are 
not trained adequately to be in the lead. And so, that is an 
area of divergence.
    The Chairman. If I could interrupt for a moment, we heard 
testimony yesterday from a counterpart of yours, different 
organization, but--Mr. O'Hanlon, and asked him how many, 
``politically reliable,'' not just trained, but politically 
reliable combat forces he thought were available from the Iraqi 
side right now, and he gave a number of 5,000. What is your 
sense of the number of available trained Iraqi forces that 
could be, ``counted upon'' to fill the mission you have 
envisioned for them?
    Dr. Kagan. I'm sorry to say that it's not really possible 
to answer that question with any degree of precision, because 
I'm not sure that that knowledge actually exists.
    The Chairman. Well, quite frankly, I would have been 
disappointed if you had--had you given me a number, because I 
share your view. I don't know----
    Dr. Kagan. Right.
    The Chairman [continuing]. How anybody knows that number.
    Dr. Kagan. And that's why we--that's why we--when we sat 
down to look at this operation, we attempted to design an 
operation that could succeed even with a very low level of 
Iraqi participation.
    The Chairman. Gotcha.
    Dr. Kagan. We think that the Iraqi participation is 
important, not so much because it will provide bodies, but 
because we need the--we need to have an Iraqi face on the 
operation, as much as possible, and the Iraqis to interact with 
their own populations, as much as possible, with our forces 
present. But we are not relying on large numbers of Iraqi 
forces coming, and we certainly do not want them to be 
operating on their own----
    The Chairman. Quite frankly, that was my reading of your 
report. The second thing is--it leads me to this point, I hope 
I don't come across as being cynical here, but I believe the 
reason why the President and his team rejected Maliki's plan, 
which was, ``You Americans stay outside the city, we'll go in, 
you essentially reinforce us''--is that they feared one of two 
things, probably both: That they would not be competent to do 
the job, and they would essentially be Shia--I don't want to be 
too--Shia forces cleansing Sunni areas, and that what we would 
be doing is indirectly giving a green light to what would be 
further sectarian violence rather than limiting or eliminating 
sectarian violence.
    Dr. Kagan. Mr. Chairman, of course, I don't know--I don't 
know the details of the plan that Maliki presented or why the 
administration----
    The Chairman. All I know is----
    Dr. Kagan [continuing]. Reacted as it did.
    The Chairman [continuing]. What was characterized by----
    Dr. Kagan. I understand.
    If I had been presented with such a plan by the government, 
I would have opposed it, on more or less precisely those 
grounds.
    The Chairman. Yeah. OK.
    And you mentioned Tal Afar as an example in your report, 
and I think you did in your statement. And in 2005, we had 
roughly 5,000 American forces, with some Iraqi forces--but 
5,000 American forces, if memory serves me--in a city, in a 
population of about 200,000. We're talking about--and I 
understand your point, I think it's a fair point--there are 
roughly 25,000 American forces in and around Baghdad with a 
mission other than the one that's now being assigned them. So, 
it's arguably--it's intellectually credible to say that, since 
the mission is being changed, the multiplier effect here is--
add those 25,000, that have been there, to the 15 or 16 or 17, 
whatever the number comes to--to President's total of 21,500, 
and--at least that's what the Secretary said today, four going 
to Anbar. So, let's say you're adding, on top of that--you're 
talking roughly--you could argue, 40,000 folks with a new 
mission. Because I was wondering how you get to the 
counterinsurgency ratio that most of the military people with 
whom I have spoken, as far back as 3 years ago with General 
Donovan, who was very frustrated that he wasn't getting the 
support--the number of troops he needed, and his talking about 
Anbar province--I remember him saying--and I'm paraphrasing--
that every officer learns in war college that the ratio needs 
to be, and then he named it and said--not 100 to 1, not 150 to 
1, and so on.
    So, if you were to use your numbers in the multiplier, my 
word--since it's a different mission, arguing you actually have 
more people moving here is in the 25,000 range already, then I 
assume that's how you make your argument that the 
counterinsurgency ratio required is closer to what is taught at 
the academies and the war college and--than it otherwise would 
be. Is that----
    Dr. Kagan. Yes, Mr. Chairman. I think if you look at the 
population of the area that we were proposing to clear and 
hold, in the first instance, it's something under 2 million----
    The Chairman. Right.
    Dr. Kagan [continuing]. Which would call for a force ratio 
of between 40 or 50,000 in----
    The Chairman. Right.
    Dr. Kagan [continuing]. Order to meet that. And that is the 
force ratio that we--that our plan would bring into that area, 
because we would make full use of the forces that are already 
there----
    The Chairman. Gotcha.
    Dr. Kagan [continuing]. And this increment.
    The Chairman. I will not belabor this, but this is helpful 
to me--one further apparent difference is--the President said, 
last night, and I asked the Secretary today, and others did, as 
well, that they are not limiting this effort to the 23 
neighborhoods. Now, I don't know whether they answered the 
question for political reasons or if substantively it's 
correct. I'm not sure which. When it was asked, ``Do they have 
the green light to go into Sadr City? Do they have the green 
light to deal with the militia?''--the answer was, ``Yes; that 
would be the case.'' But is your understanding that the first 
phase, or the phase the President is talking about, or Petraeus 
may be talking about, is more in line with your plan--to only 
focus on the 23 neighborhoods, 2 million people, as opposed to 
the totality of Baghdad and 6-plus-million people?
    Dr. Kagan. Mr. Chairman, we've been explicit, on a number 
of occasions, that our plan does see, in the initial phase, 
focusing on the 23 Sunni and mixed Sunni-Shia neighborhoods and 
not going into Sadr City, in the first instance. Now, that was 
predicated on a number of assumptions about the difficulty that 
would be entailed in going into Sadr City--in part, assuming 
that the Maliki government would not be forthcoming with 
support for doing that. If, in fact, the Maliki government is 
going to be forthcoming with that support, then that would 
change the equation, but we have not had the opportunity to go 
back and reevaluate, you know, what our force ratio assumptions 
would be in that circumstance.
    The Chairman. Well, I'd respectfully suggest, if that is 
the case, the force ratios are a little out of whack, and 
you're going to be dealing with the different situation.
    The last question on this point, and again, I have so many 
questions. My temptation would be to keep you here all night, 
all of you. Where Petraeus has been successful--and he has 
been--in the past, north of Baghdad, in dealing with an 
insurgency, it's been an insurgency, as opposed to sectarian 
strife and a civil war. Say it another way. A mixed 
neighborhood in Baghdad is different than going into Tal Afar, 
where the insurgents are the former Baathists, Saddamists, et 
cetera, and/or al-Qaeda, and their target being us and/or 
government troops. When you go into a neighborhood--and I want 
the public to understand we're not talking about a neighborhood 
of 500 people, we're talking about neighborhoods that are tens 
of thousands of people--when you go in a neighborhood where the 
problem is within the neighborhood, if it's a mixed 
neighborhood, people are, figuratively speaking, crossing the 
street, killing each other, and/or if it's not an integrated 
neighborhood, primarily a Shia neighborhood, you have death 
squads wearing uniforms and/or the Mahdi Militia coming in and 
taking them out. That's a little different circumstance than 
dealing with an insurgency, isn't it?
    Dr. Kagan. Mr. Chairman, I have to, respectfully, disagree 
with your premise. Tal Afar actually is a mixed city. It is 
mixed Sunni/Shia. It's also mixed between Arab and Turkoman and 
Kurd. And all of those factions were, in fact, shooting at one 
another, and H.R. McMaster, the commander of the unit that 
cleared Tal Afar in 2005, has described, in great detail, there 
would be circumstances where Sunni snipers would climb turrets, 
fire into Shia neighborhoods to commit casualties, and then 
those same Sunni snipers would actually climb down, cross over 
into the Shia neighborhoods and fire back into the Sunni 
neighborhoods to commit atrocities in precisely the same sort 
of effort, to incite sectarian civil war within Tal Afar. And 
so, it actually was very similar to what's going on in Baghdad, 
and, in many respects----
    The Chairman. Had the mosque--had the Samarra mosque been 
taken out, at that point?
    Dr. Kagan. No, Mr. Chairman; it hadn't. And, even so, there 
was this very high level of intersectarian violence. And, in 
addition to that, the Sunni insurgents had established real 
strongholds in Tal Afar. They had video booths where they would 
tape their messages and beheadings. I mean, they had a real 
professional apparatus, and were ready to receive us.
    The Chairman. Gotcha.
    Dr. Kagan. Because we've been operating continually in a 
lot of the Baghdad neighborhoods that we're talking about going 
into, in most of those areas they don't have anything like the 
same degree of preparation. But, no; I think we actually 
already have seen success in dealing with this sort of 
sectarian conflict.
    The Chairman. OK. Last question for you, if I may. We 
heard, this morning, about the successes that are taking place 
in Anbar province, according to the Secretary. And she cited 
that certain of the tribal chiefs, very upset with the al-
Qaeda, have sent their sons to Jordan to be trained to come 
back, ostensibly, and be a resistance to al-Qaeda intervention, 
and, I suspect, to not be as cooperative with the insurgency, 
the former Saddamists and Baathists. Can you tell me if you 
know anything about that?
    Dr. Kagan. Mr. Chairman, only what I've seen in newspapers 
and what I've heard about. I mean, it does appear that some of 
the sheikhs in Anbar have become frustrated with the ongoing 
civil war. And I think it's very important to understand that 
the Sunni Arab insurgency is not monolithic, either.
    The Chairman. No.
    Dr. Kagan. And there is divergence of views even within the 
Islamist wing. Al-Qaeda in Iraq says that it's OK to kill Iraqi 
civilians. Ansar al-Sunna has taken the position, often, that 
it isn't. There are disputes among these groups about tactics, 
techniques, goals, and so forth. And I think what we're seeing 
in Anbar province is the beginning of a splintering of this 
movement. Now, I think if we continue the process of 
establishing security to make it possible for these guys to 
participate more directly, and if the Maliki government will 
reach out in a situation of improving security, to offer the 
necessary reconciliation to bring them into the fold, I think 
it's possible that we can see significant political progress.
    The Chairman. Question for the three of you. And you need 
not answer it, if you choose not to. If you had to take a bet, 
how many of you would bet that Maliki is the Prime Minister in 
November of this year?
    Dr. Carpenter. The answer to that question, Mr. Chairman, 
depends very much on whether we are serious about pressing the 
Maliki government to take on the Shiite militias and to 
neutralize Muqtada Sadr. If we are serious about that, I think 
that places Maliki in an almost impossible position and that 
that will severely undercut his political base. It would make 
it very likely that he would not be Prime Minister by November. 
If this is merely a rhetorical flourish on the part of the Bush 
administration, and this is substantively an effort to go after 
the Sunni neighborhoods in Baghdad, and to suppress the Sunni 
insurgency, and the talk of going after the Shia militia is 
just political cover, then I think Maliki may be a skillful 
enough politician to survive and be Prime Minister at the end 
of the year.
    The Chairman. Ambassador.
    Ambassador Galbraith. I think Dr. Carpenter's analysis is 
as good as any. The problem is that the Maliki government rests 
on a narrow margin within the I'tilaf, within the Shiite 
Alliance. In the electoral battle between Abel Abdul Mahdi and 
Jaafari, Jaafari prevailed by one vote. And other elements, 
notably the Kurds, but perhaps some of the Sunnis, might well 
prefer Mahdi to Maliki. Indeed, the Bush administration may 
tire of Maliki, because he's not much more effective than 
Jaafari. Although he doesn't have some of Jaafari's annoying 
personal traits, he hasn't been much more effective as a 
leader.
    No matter who is the Government of Iraq we're going to get 
tired of them, because they're not going to be effective, 
because they don't have the agenda that we want them to have, 
and they don't exercise the power that we wish they would.
    The Chairman. Mr. Ambassador, let's just ask: In your 
partition scenario, what happens to Iraqis' oil wealth?
    Ambassador Galbraith. The Iraqis are on the verge of 
concluding a deal that will, at least for some period of time, 
share the oil revenues on the basis of population. The 
distribution of oil revenues has never been a central issue. 
The central issue has been who controls the oilfields. And that 
has been central for the Kurds, and some of the Shiites, 
because they do not want to go back to the situation where 
Baghdad cuts the check and Baghdad has all the power.
    The Chairman. Right.
    Ambassador Galbraith. Like any federal system, frankly, 
they understand that it works only when there are local sources 
of revenue. But, in terms of how that revenue is distributed, 
there is a broad consensus to share it. Now, if Iraq does not 
hold together as a state, then you----
    The Chairman. Well, under your scenario, it's not a state, 
correct?
    Ambassador Galbraith. Well, it--my view is that, over the 
long term, it will not survive as a single state.
    The Chairman. Right.
    Ambassador Galbraith. Which, incidently, doesn't mean that 
I think it's going to split into three states. If you asked 
them, both Sunnis and Shiites would say, ``Yes; we're Iraqis.'' 
The trouble is, they have such radically vision of what that 
means that I believe it is better to do what the Shiites want 
to do and what the Sunnis still resist, which is to have their 
own regions. But that's really a decision for the Sunnis to 
make. The Kurds, it's entirely different. They----
    The Chairman. No, I----
    Ambassador Galbraith [continuing]. They don't want to be 
part of Iraq.
    The Chairman. No; I got that, about the Kurds. My concern 
is that I don't see, absent essentially letting a civil war 
rage from Anbar province down through Basrah, and let the 
outcome dictate who runs the show in those two areas--short of 
that, I don't know what's left for the Sunnis. I mean, if they 
end up with three different states, in effect, the inclination 
to share oil ain't gonna be around, and there's nothing there, 
there in Anbar province.
    Ambassador Galbraith. First, if the Kurds actually leave, 
they will take with them a percentage of Iraq's oil reserves 
that is approximately the same as their share of Iraq's 
population. So, that's----
    The Chairman. Right.
    Ambassador Galbraith [continuing]. That's not a big issue. 
So, the issue is in Arab Iraq.
    The Chairman. Right.
    Ambassador Galbraith. Will the Shiites be prepared to give 
to the Sunni region a percentage that is equal to the Sunni 
percentage of the population? I don't know the answer to that. 
Right now, the Shiites have agreed to such a formula. That 
they'll continue to be generous toward the Sunnis in conditions 
of an ongong civil war, or if the civil war intensifies, is not 
likely. And, in fact, it----
    The Chairman. Right.
    Ambassador Galbraith [continuing]. Could have a very bad 
ending. And that is why, with regard to Arab Iraq, I believe 
that the plan that I've put forward and that you have put 
forward is the only way to go. It is a plan that protects the 
Sunnis by allowing them to have their own region, to provide 
for their own security, and, if it's implemented soon, would 
come at time when there is still enough political will there to 
guarantee them a share of revenue. This revenue-sharing should 
be done through legislation--as has already been agreed--and 
not by trying to change the Iraqi Constitution, which is as 
difficult to change as our own. But if the Sunnis don't move to 
establish their own region, if the civil war spins on for 
another year or two, I think it's unlikely----
    The Chairman. Just--let me just--one of things I want to 
get straight here, make sure I understand it. The legislation 
that's already agreed to is agreed to, in principle, by a 
committee, a group of people meeting. There has not been any 
legislation introduced, there has not been any legislation 
passed, am I correct in that? The Iraqi Parliament has not 
passed any legislation saying that--I remember, I was in--over 
the Fourth of July, I met with Mr. Maliki in his office, and I 
asked him about two issues. One was federation or regionalism, 
as their Constitution calls for, and the second was about 
allocation of oil revenues. He said, ``Aw, the Constitution has 
already taken care of that.'' And I said, ``Well, with all due 
respect, Mr. Prime Minister, you and I may be the only two who 
have read the Constitution. It doesn't say that. It says 
`equitable share,' or some such language, but there's no 
guarantee what that means.'' Said, ``There's no need for 
that.''
    So, I just want to be clear that whether or not there is--
if you know if there is, or is about to be introduced--
legislation that the tribal chiefs in--the tribal leaders in 
Anbar province can say, ``I know I'm now going to get''----
    Ambassador Galbraith. Well, the----
    The Chairman [continuing]. ``20 percent of the revenue, or 
whatever.''
    Ambassador Galbraith [continuing]. The legislation that is 
pending is an oil law, and it's a very complicated law that 
entails many compromises. It's one thing to say, as does the 
Constitution, that the regions have control over new oil, but 
to implement that, in terms of----
    The Chairman. It's very hard.
    Ambassador Galbraith [continuing]. Pipelines and everything 
else is difficult. But the oil law will do this and it is 
mostly agreed. Some issues remain between Kurdistan and Arab 
Iraq, but there's a good chance that they'll be resolved.
    The Chairman. Well----
    Ambassador Galbraith. It also includes the provisions for 
revenue-sharing, which, however, will be done in a separate 
law. The problem is this. The Sunnis do not consider 20 percent 
to be their share of the population, and they don't consider 
it, therefore, to be their fair share of the oil wealth. And, 
furthermore, until 2003, they got 70 to 80 percent of the oil 
wealth.
    The Chairman. Oh, I know that. That was----
    Ambassador Galbraith. So, 20 percent is--even if we think 
it's fair, they don't think it's fair.
    The Chairman. Well, you know, it's amazing how people's 
attitudes change when faced with the realistic alternatives 
they may face. In my meeting with major oil executives--not 
just American-based companies, but foreign companies--I don't 
understand why, 3 years ago, the President didn't bring some of 
these guys in, and bring in the major informed elements of the 
three communities, and say, ``Look, you know, you're not--
listen to these guys, they're not going to invest the $40 
billion you need to develop your fields unless you have a 
national oil policy, unless you have some reason to make them 
believe you're going to be able to do this without any real 
prospect of them being blown up.'' But that goes another way.
    Let me ask another question, and I won't keep you much 
longer. Up until recently--and I'm not sure what I think right 
now, but up until recently, I have come away from my visits to 
Iraq with the following sense of things: That, from 2004--
really, early 2005, up until mid-2006, the Kurds, although 
overwhelmingly wanting independence, reached the tentative 
conclusion that--if they seek independence, or if the nation 
falls apart, and they are able to declare themselves 
independent because there is an all-out civil war--that they 
are not about to give up on Kirkuk, and the Turks aren't about 
to let them have their way in Kirkuk; and that, although, on 
the one hand, they would look like they're in pretty good 
shape, they would be inviting both the Iranians and the Turks 
to come after them. And so, it's better for them to be in a 
position where this gets played out over a longer haul, as long 
as they're able to maintain the autonomy they now have; and 
that the Sunnis, at least the tribal leadership, has reached 
the conclusion they're not going to be in control like they 
were--I mean, 70 percent of the oil, 90 percent of the power, 
et cetera--in their lifetimes, and it's better to work out some 
accommodation where at least they're secure, as long as they 
actually have a source of revenue. And the Shia, although they 
now have met their expectation and desire to be the dominant 
political force, absent some kind of ultimate arrangement, they 
are not going to be in a position to be able to prevent, 
``their mosques'' from being blown up over the next decade, and 
more. And so, there was the possibility of a political 
accommodation.
    But I'm not sure that prevails anymore, because, talking to 
these folks, I think the Shia think they can take out the 
Sunnis, the Sunnis think they can take out the Shia, and the 
Kurds think they could probably negotiate, literally negotiate, 
their independent status without having a full-blown conflict 
with the Turks and the Iranians.
    Give me your sense of what the mindset, in your view, is. 
And I realize that there's Shia on Shia, as well as Shia on 
Sunni, and so on. I realize there will be competition within a 
Shia region, if it were to be voted. I think that's one of the 
reasons why Sadr sided with the Sunnis in voting against the 
legislation to allow for the regional system to come into play 
18 months from now. But, what do you think--how do you think 
they view their equities, each of the parties, the major 
parties, in an all-out conflict?
    Dr. Kagan. I think we need to address that question in two 
ways, because I think, right--there is how they feel about that 
now, and there's the question of how they would feel about that 
if we actually could get the security situation under control, 
because I think it's not possible to overestimate the impact 
that the current violence has on everyone's attitudes, and also 
that everyone's beliefs about our intentions have on their 
attitudes. I think that current Shia attitudes are heavily 
fueled by the fact that the Sunni insurgency is not under 
control and they are under continual attack, and by the belief 
that we are not going to bring the Sunni insurgency under 
control, and that we are, in fact, going to leave, shortly, 
which I do believe is their actual mindset, or had been, to 
this point.
    Now, if we make it clear that we actually are going to 
bring the Sunni insurgency under control and we are going to 
provide them with a basic level of security, and, therefore, 
we're going to eliminate the need for them to go out and do 
that on their own, which does pose significant challenges and 
costs to them--and I think we should keep that in mind--I think 
that much as Maliki might lean in that direction if no other 
solution is presented to him, he does have to recognize that 
even a Shia victory, in that context, will be unutterably 
bloody for him and will impose all sorts of costs on his 
government and on different factions within the Shia groups, 
will compromise their ability to form a subsequent stable 
government, and so forth, and will lead to perennial 
instability.
    So, I think the issue is: How will they feel about that, 
when we have offered them an alternative, when we have made it 
clear that we are going to bring the Sunni insurgency under 
control, and that they don't have to do that? I believe that 
that will change their attitudes pretty fundamentally. Now, I 
believe, in addition to that, that there is evidence, 
especially, as you've brought up, in Anbar from among the 
tribal sheikhs and elsewhere, and even from things that I hear 
from the--my former students, who are now in Baghdad and who 
tell me about popular attitudes that they're encountering as 
they patrol the streets--and some of them actually are living 
in the neighborhoods now--among the Sunni. And there is some 
evidence, I think, that this--there is beginning to be a 
weariness of this conflict and a willingness to end it in a 
more reasonable way if they could be assured that they were not 
going to be under continual attack by Shia militias.
    And so, I think the issue is, we have to be able to imagine 
what Iraq looks like when we have brought the violence in the 
mixed areas of Baghdad actually under control. I believe we 
can. We can have an argument about whether we can or not. But 
if we do, then that will change the political equation very 
fundamentally, in my view.
    The Chairman. That's the basic premise of your position.
    Dr. Kagan. Yes; exactly.
    Dr. Carpenter. Mr. Chairman.
    The Chairman. Yes.
    Dr. Carpenter. I think that's the crux of the disagreement. 
I do not believe there is a realistic prospect that we can 
achieve a secure environment, that we can suppress the Sunni 
insurgency, at least that we can do so at anything resembling a 
reasonable cost, in terms of blood and treasure, to our own 
country. Yes; if we occupied Iraq with a very large army, 4 or 
500,000 troops, and were willing to stay for many, many years, 
we would have a chance of stabilizing the security environment. 
But we don't have that option. I don't think there would be 1 
American in 20 who would favor paying the price that would be 
required to achieve that result. Absent that result, what we're 
seeing in Iraq is this ongoing civil war, where the Shia have 
concluded this is their moment, this is when they can reverse 
decades, generations, of subjugation by the Sunnis. They are 
not going to pass up that opportunity, and they are not likely 
to be gentle when they do achieve full power.
    The Sunnis increasingly are in defensive mode. Rather than 
having as the primary objective--driving American forces out of 
Iraq--it is the terrible fear that, if they don't forestall the 
establishment of a Shia-dominated government on a permanent 
basis, that they are faced with, at best, massive 
discrimination, third-class citizenship in their own country, 
and, at worse, ongoing ethnic cleansing and terrible 
consequences in that regard.
    The Kurds are off with their own agenda. What we're going 
to see is Kurdistan become the Taiwan of that part of the 
world. It will be an independent country in everything except 
extensive international diplomatic recognition, but it will be 
an independent country. The danger for the Kurds is what you 
have identified--that they could overreach. If they insist on 
gaining the oil riches in and around Kirkuk, they create the 
risk of outside intervention, certainly by Turkey, perhaps by 
Iran. Where we can play a constructive role there is to 
convince Turkey, especially, that this would be an unwise move, 
that it is, in fact, in Turkey's best interest to have a 
stable, democratic Kurdistan as a buffer between Turkey and 
what is likely to be ``Chaos-stan'' in the rest of Iraq. That 
is, again, an achievable objective, I think, if we work hard at 
it. And Kurdistan may be able to have a reasonably stable and 
peaceful existence. The rest of Iraq is going to be a cauldron 
of chaos unless we are willing to pay a huge price, over a very 
long term, in both blood and treasure.
    Ambassador Galbraith. First, I think I agree with what Dr. 
Carpenter has just said, so I won't repeat it. But I agree with 
your point that the space for political compromise has 
diminished and perhaps disappeared. But the fundamental problem 
is that Maliki represents a Shiite constituency that wants to 
define Iraq as a Shiite state. And, for the Sunnis, there is no 
way--even for those who despise the insurgency--that they can 
accept that definition of Iraq. It does not include them. They 
see Iraq's Shiite rulers as alien. On the gallows, Saddam 
Hussein spoke for many Sunnis when he warned against ``the 
Persians'' by which he clearly meant Iraq's Shiite leaders. 
With differences that are so deep, these other fixes, such as 
sharing oil revenue, are not going to satisfy the Sunnis.
    With regard to the Kurds, my view is simple, and certainly 
influenced by my experience in the Balkans, which is where you 
have people who unanimously don't want to be part of a state, 
you can only keep them in that state by brute force. Now, the 
fortunate thing that distinguishes Iraq from Yugoslavia in 
1991, is the Kurds--unlike the Slovenes and Croatians--are bent 
on a headstrong rush to immediate independence. So, I think 
there's a period of time to work out many of the problems could 
result from full independence. I think what Dr. Carpenter said 
is right; Kurdistan is already Taiwan. Just as, if Taiwan would 
declare itself independent if the opportunity arose, so will 
Kurdistan. The Kurds believe this time will come and they won't 
do anything precipitate.
    My final point relates to the major outstanding issue for 
Kurdistan, namely boundaries of Kurdistan? Disputes between 
Kurds and Arabs over these boundaries could, by the end of this 
year, be a whole new source of violence in Iraq. Now, this is 
an issue on which the United States can do something 
diplomatically, and yet has been totally absent. Why can we do 
something diplomatically? Because we actually have influence 
with the Kurds. We can help Kurds and Arabs draw lines that 
both see as fair. But, I also think we can use our influence 
with the Kurds to caution them against overreaching on the 
territorial issue, because, at the moment, they have the upper 
hand.
    That, then, leaves the issue of Kirkuk. There is, in Iraq's 
Constitution, a formula for solving Kirkuk through a 
referendum. Kirkuk has been a source of conflict in Iraq for 
the entire history of Iraq. I don't see any merit in postponing 
or getting rid of this provision. The issue needs to be 
settled. But what can be done in advance of the referendum is 
to entrench power-sharing in Kirkuk among its four 
communities--the Kurds, the Turkomen, the Arabs, and the 
Christians--so that after the referendum, none of these 
communities feel that they're losers. But, again, the time to 
do that is now. Once you have the referendum and it's part of 
Kurdistan, which is what I expect, or it's not, then the 
possibilities for compromise are much worse. After the 
referendum is too late.
    The Chairman. Gentlemen, there is a lot more I'd like to 
ask you. I wish I could say there will be no need to call you 
back, but my guess is that we'll need your advice and input 
several months from now, as well. And, again, I genuinely 
appreciate the amount of time, effort, expertise, and 
commitment you've all applied in arriving at your various 
positions.
    I thought this morning's hearing was--the term is overused, 
to say it was historic, but I thought it was extremely 
significant, in that it would be impossible for anyone to have 
listened to it this morning and not come to the conclusion that 
there is very little support for the approach the President is 
pursuing. And I hope he'll be willing to adjust, as he moves 
forward. My prayer would be his proposal is right, it works, 
everything works out. That would be my prayer, but that is, I 
think, just that; a prayer.
    Let me also note that I was informed by my staff that our 
bad fortune is Dr. Galbraith's good fortune, and that is that 
Nancy Stetson, who has been a senior member of this committee 
for a couple of decades, is--is that--am I correct?--is 
joining--oh, I thought you were joining it. I'm sorry. I'm 
sorry. I'm sorry. I thought--actually, our bad fortune is your 
missed opportunity. [Laughter.]
    I thought, Nance, the note I got, to show you how smart I 
am, I thought it said you were joining Ambassador Galbraith. 
They got a--you had a better offer, OK. I--well, I'm getting 
out of this negotiation, I tell you right now. [Laughter.]
    Anyway, Nancy, we're going to miss you. You've been an 
incredible, incredible resource for the committee, and for me, 
personally, and so, you'll be joining the ranks of the famous 
no-longer-employed Foreign Relations Committee staffers, and I 
hope your success is as stellar as the Ambassador's has been.
    Ambassador Galbraith. And, if I may add, we'll be seeing 
her in New England, where we also expect to be seeing you.
    The Chairman. Well, you will be seeing me in New England. I 
don't know--guessing the outcome of that is probably easier 
than guessing the outcome of Iraq.
    But, anyway, at any rate, I thank you all very, very much. 
I thank the audience for your interest here. There's a lot at 
stake. And, as I said, this has been very helpful.
    We will adjourn.
    [Whereupon, at 5:35 p.m., the hearing was adjourned.]
                              ----------                              


             Additional Statement Submitted for the Record


    Prepared Statement of Daniel Serwer, Vice President, Peace and 
    Stability Operations, U.S. Institute of Peace, Washington, DC *

    TROOPS ALONE ARE NOT THE ANSWER--CIVILIAN EFFORTS IN IRAQ NEED 
                             STRENGTHENING

    As vice president for peace and stability operations at the U.S. 
Institute of Peace, I have, for 3 years, supervised a congressionally 
funded peacebuilding effort in Iraq, after a decade spent on Balkans 
peacebuilding efforts both at the State Department and USIP. I also 
acted as executive director of the Iraq Study Group last year. But I 
offer you today only my personal views--I do not speak for USIP or for 
the Study Group.
    Vital American interests should determine our future course of 
action in Iraq. I would list them in the following order:
          1. Stabilize a united Iraq and the region. We have to tamp 
        down the civil conflict and prevent it from spreading to, or 
        involving, Iraq's neighbors.
          2. Prevent terrorist threats to America and its allies. We 
        must ensure that Iraq does not become a platform for operations 
        abroad by al-Qaeda or other terrorists.
          3. Restore flexibility in the use of U.S. forces. Our 
        military is overcommitted today; we need to rebuild its 
        capacity to react to events elsewhere in the world.
          4. Return America to a preeminent global position. We need to 
        regain moral, military, and diplomatic standing in a world that 
        views us as compromised, weakened, and ineffective.
    Let me also mention interests we should renounce: We need no 
guaranteed access to oil or permanent bases, and we must not take sides 
in a civil war or a broader Sunni-Shia conflict.
No simple solution
    There is no simple course of action that will satisfy our vital 
interests. Precipitous withdrawal of American forces from Iraq might 
help us regain flexibility, but would not prevent parts of Iraq from 
being used as a terrorist platform. Nor would withdrawal stabilize the 
country or the region. Breaking Iraq up into sectarian zones would 
likewise allow parts of Iraq to be used by terrorists and would 
destabilize the region.
    I am not a military expert, but to me additional U.S. forces make 
sense only in support of a broader civilian peacebuilding effort aimed 
at political reconciliation and economic stabilization, and only if 
there is a target date for turnover of combat responsibilities to Iraqi 
forces. The political situation in Iraq and in the United States will 
not permit American forces to continue combat for several years. Nor 
will the global situation, which requires U.S. forces to be available 
for contingencies elsewhere. In any event, Sunni and Shia both need the 
wakeup call that a target date will provide.
Increasing troop levels will not suffice--we need a broader approach
    So much attention has been paid to troop levels that other 
requirements to stabilize Iraq are not being discussed. The grave and 
deteriorating situation in Iraq is not due to military failure. Our 
troops have fought well and hard. It is due to indigenous political 
forces largely beyond our control, as well as planning, diplomatic and 
economic failures, all of which are civilian responsibilities. If we 
only beef up U.S. troop presence, without intensifying civilian 
efforts, the situation will continue to deteriorate.
    Additional civilian resources are required. Only a small fraction 
of the funds Congress has appropriated for Iraq has gone to civilian 
efforts--less than 10 percent. Future funding should include $5 billion 
for civilian peacebuilding. Five times the current level--below $1 
billion per year--this is still a small percentage of the total.
    What can be done with new civilian resources? The primary goal 
should be national reconciliation through strengthening rule of law and 
the moderate center. Holding Iraq together will require increasing 
governing capacity at the central, regional, and provincial levels 
including the judicial as well as the executive and legislative 
branches--and building up civil society. We should support the many 
courageous Iraqis who are willing to reach across sectarian lines to 
build a democratic Iraq.
    The U.S. Institute of Peace has been engaged since early 2004 in 
this work, devoting a modest but productive $5 million per year 
provided by Congress to prevent sectarian violence, build up the rule 
of law, and educate and train a new generation of leaders. For example, 
we support a network of 25 Iraqis who undertake intersectarian dialog 
efforts in their own communities, demonstrably reducing violence. Does 
it make sense that USIP's appropriation for Iraq has been cut 40 
percent? Similar cuts are affecting the work of other organizations 
doing vital reconciliation work in Iraq.
    What about the economic front? I do not believe jobs will prevent 
terrorism. I also doubt the ability of the U.S. Government to create 
jobs in the private sector at home, much less abroad. The best we can 
do for the Iraqis is to help with their oil sector, which they should 
run as a commercial enterprise in the interests of the whole country. 
We should also provide microcredits to small enterprises and funds to 
our military commanders, embassy and provincial reconstruction teams, 
for small-scale improvements to stabilize local situations. But I would 
not suggest a massive national jobs program, which would likely be 
exploited by insurgents and militias for their own purposes.
    Neither politics nor the economy in Iraq will go far on American 
money alone. The Iraqis need to take on far more responsibility. Prime 
Minister Maliki's ``milestones'' have now been published: We have 
target dates for passage of the oil law, rolling back de-
Baathification, and a clampdown on militias. He is already at risk of 
missing several of them. We need to convey a much more serious message 
about the need to meet milestones, and our willingness to assist, while 
remaining flexible about timing and realistic about the capacity of any 
leadership in Iraq today to meet expectations.
Diplomacy is an essential ingredient
    Neither military nor civilian efforts will be successful inside 
Iraq without a diplomatic component. We need help from our friends and 
allies as well as self-interested cooperation from Iraq's neighbors, 
two of which are our adversaries.
    Our diplomatic strategy should be multilateral: We need a ``contact 
group'' that includes all of Iraq's immediate neighbors. It is within 
this multilateral forum that we should talk with Syria and Iran, as we 
are doing with North Korea in the six-party talks.
    The purpose of talking with Damascus and Tehran is to discover if 
there are areas of mutual interest, in particular in stabilizing Iraq 
as U.S. troops begin to withdraw. Both Syria and Iran stand to lose a 
great deal if Iraq comes apart. Neither is likely to be able to seal 
itself off from refugees and internal unrest (at the least among the 
Kurds and possibly among other groups, including the Sunni majority in 
Syria). Neither Iran nor Syria is in good shape to meet these 
challenges. While their concept of what contributes to stability may 
not coincide with ours, there is a real possibility of finding some 
areas of mutual interest, as we did with Iran on Afghanistan.
    The only reason for not talking with Damascus and Tehran is hope 
that the regimes will soon change for the better. I am not in principle 
opposed to regime change--I played a role in conceptualizing the effort 
that brought down Slobodan Milosevic peacefully. But I see no evidence 
that regime change is imminent.
Conclusions
    Let me summarize in conclusion the course of action I would propose 
for the United States in Iraq today, and that I hope might find support 
on both sides of the aisle in Congress:
          1. Washington should commit itself to an intensified 
        diplomatic, political, economic, and if necessary, military 
        effort over the course of this year to stabilize Iraq and to 
        lay the basis for beginning to drawdown U.S. combat troops by a 
        date certain.
          2. Civilian resources for Iraq should be increased sharply to 
        $5 billion per year, with a multiyear commitment to 
        strengthening Iraqi institutions at all levels and supporting 
        those in civil society prepared to contribute to peacebuilding.
          3. The political effort should focus on reconciliation--
        helping the Iraqis to meet clearly defined milestones and 
        building up governing capacity at all levels.
          4. The essential diplomatic component should be multilateral 
        and include direct talks with Damascus and Tehran. A 
        Presidential envoy--someone whom the President trusts to pursue 
        U.S. interests with vigor--should be appointed for this 
        purpose.
    I hasten to add that if my suggestions were fully adopted, the 
likelihood of even relative success would increase only marginally. We 
are in deep; getting out is not going to be easy, painless, or quick. 
Nor can we get out completely: We will have to remain engaged in Iraq 
for years to come, and in the region for the foreseeable future. How we 
handle Iraq will have repercussions for many years to come. We need to 
use the next year for a last, best effort to achieve relative success. 
After that I see no alternative to phasing out the U.S. combat role and 
allowing the Iraqis to cope for themselves, with--conditions 
permitting--training and other military assistance and a robust, 
continuing civilian assistance effort.

* (Note.--This testimony presents the personal views of the author, not 
those of the United States Institute of Peace, which does not take 
positions on policy issues.)


                      REGIONAL DIPLOMATIC STRATEGY

                              ----------                              


                      WEDNESDAY, JANUARY 17, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Joseph R. Biden, 
Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Dodd, Kerry, Feingold, Bill 
Nelson, Obama, Menendez, Cardin, Casey, Webb, Lugar, Hagel, 
Coleman, Corker, Sununu, Murkowski, Isakson, and Vitter.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order, please.
    Today, we continue our comprehensive examination of the 
remaining options in Iraq. And our witnesses today have 
multiple talents, but they're going to focus, I hope, on 
helping us evaluate the role of regional diplomacy and what 
role it can play, if any, in stabilizing Iraq or in containing 
the fallout within Iraq if stability within Iraq proves 
elusive.
    It is one thing to call for regional diplomacy, as many 
have. It's another thing to actually do it. And it seems to me 
we have to start with answers to some very critical questions, 
or at least a shot at them.
    One is: How do Iraqis' neighbors see their interests? And 
do these interests overlap or conflict with ours? Is it 
possible to devise a framework that would encourage Iraq's 
neighbors to work cooperatively to stabilize Iraq? Can Iraq's 
neighbors influence groups within Iraq with whom they have 
close ties? And what role, if any, should the United States 
play in forging this regional cooperation? Is there a price for 
such cooperation? And, if so, what is it? And is the 
alternative to cooperation a regional proxy war?
    As we explore the answers to these questions, I'd like to 
make one thing clear at the outset so I don't fly under any 
false colors here. I have trouble accepting--as a matter of 
fact, I don't accept--the notion that there is a direct linkage 
between the situation in Iraq and the Arab-Israeli conflict. 
The Arab-Israeli conflict, peace between the Arabs and the 
Israelis or Palestinians, is obviously worth pursuing, worth 
pursuing vigorously, and worth pursuing vigorously on its own 
merits. But, even if a peace treaty were signed tomorrow, I do 
not believe it would end the civil war in Iraq. And maybe our 
colleagues can speak to that connection, if there is any.
    To help guide our discussion today, we're joined by a very 
strong panel of witnesses, and that is not hyperbole. They have 
tremendous experience in the region. It's doubtful we could get 
three people with stronger views and more serious high-level 
experience in the region.
    Ambassador Richard Haass is the president of the Council on 
Foreign Relations, and, from 2001 to 2003, he was the director 
of the Policy Planning Staff at the State Department. He's also 
a very good friend of this committee, and I consider him a 
friend, if that doesn't hurt his reputation. But every member 
on this committee, I suspect, feels the same way. He's also the 
author of a first-rate article entitled, ``The New Middle 
East,'' in the recent issue of Foreign Affairs magazine. I 
recommend it to everyone.
    Ambassador Dennis Ross' name is synonymous with the Arab-
Israeli peace process. For more than 12 years, spanning two 
administrations, one Republican, one Democrat, he led our 
Nation's efforts to secure a lasting peace in the Middle East. 
He's currently a counselor and the Ziegler distinguished fellow 
at the Washington Institute for Near East Policy.
    And Dr. Vali Nasr is a professor of national security 
affairs at the Naval Postgraduate School. His recent book, 
which I read with great interest, ``The Shia Revival,'' has 
made, I think, a significant contribution to our understanding 
of the forces that have been unleashed by the war in Iraq.
    We are incredibly fortunate to have these three men with us 
today, and I look forward to hearing their testimony.
    I'll now yield to Chairman Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, I thank you for holding this 
hearing, which I believe is one of the most important ones in 
our series.
    National debate on Iraq is focused intensely on what the 
role of United States forces should be at this stage of the 
war. The stakes surrounding this decision are particularly 
high, as American service men and women have made enormous 
sacrifices in Iraq during the last 4 years. Should we attempt 
to expand neighborhood-level security in Baghdad or elsewhere? 
Can such a strategy help establish order and create space for 
the government and the security forces to solidify themselves? 
Should we increase troop levels to achieve such a mission?
    We have heard testimony from experts with a wide range of 
opinions on these questions. Some back the President's plan to 
commit more troops, others suggest this is a waste of time and 
resources, or that the President's remedy will fall far short 
of what is needed. But, even as we debate specific issues of 
military policy and troop deployment, we must see the broader 
picture. And whenever we begin to think of Iraq as a set piece, 
an isolated problem that can be solved outside the context of 
our broader Middle East interest, we should reexamine our frame 
of reference.
    The underlying issue for American foreign policy is how we 
defend our interests in the Middle East, given the new 
realities that our 4 years in Iraq have imposed. This hearing 
will focus on this broader question. Both our friends and our 
enemies must know we are willing to exercise the substantial 
leverage we possess in the region in the form of military 
presence, financial assistance, diplomatic context, and other 
resources. Although a political settlement in Iraq cannot be 
imposed from the outside, it is equally unlikely that one will 
succeed in the absence of external pressure and incentives.
    Some strategists within our Government saw the intervention 
in Iraq as a geostrategic chess move designed to remake the 
Middle East. But even if the President's current plan 
substantially improves conditions in Iraq, the outcome in that 
country is going to be imperfect. Iraq will not soon become the 
type of pluralist unified democratic bulwark in the center of 
the Middle East for which some in the Bush administration had 
hoped.
    Developing a broader Middle East strategy is all the more 
urgent, given that our intervention in Iraq has fundamentally 
changed the power balance in the region. In particular, the 
fall of Saddam Hussein's Sunni government opened up 
opportunities for Iran to seek much greater influence in Iraq. 
An Iran that is bolstered by an alliance with a Shiite 
government in Iraq, or a separate Shiite state in southern 
Iraq, would pose serious challenges for Saudi Arabia, Jordan, 
Egypt, and other Arab governments. Iran is pressing a broad 
agenda in the Middle East, with uncertain consequences, for 
weapons proliferation, terrorism, the security of Israel, and 
other United States interests. Any course we adopt in Iraq 
should consider how it will impact the regional influence of 
Iran.
    Despite our current focus on Iraq, the President and the 
Congress must be preparing the American people and our allies 
for what comes next. We should recognize that conditions of 
national fatigue can impose severe limits on our 
decisionmaking. If the President's Iraq plan is not successful, 
calls for a rapid withdrawal from Iraq will intensify. If a 
withdrawal eventually does occur, it may happen in an 
atmosphere in which American fatigue with Iraq deployment 
limits our ability to address issues of vital national urgency 
elsewhere in the Middle East. We need frank policy discussions 
in this country about our vital interests in the region.
    The difficulties we have had in Iraq make a strong presence 
in the Middle East more imperative, and not less. Our Nation 
must understand that, if and when we withdraw, or redeployment 
from Iraq occurs, it will not mean that our interests in the 
Middle East have diminished. In fact, it may mean we will need 
to bolster our military, diplomatic, and economic presence 
elsewhere in the Middle East.
    Regardless of decisions on troop levels in Iraq, we must go 
to work now on a broader Middle East strategy that reveals 
critical relationships in the region, includes an attempt to 
reinvigorate the Arab-Israeli peace process. We should also be 
planning how we can continue to project military power in the 
Middle East, how we bolster allies in the region, how we 
protect oil flows, how we prevent and react to terrorist 
threats. This will require sustained engagement by our 
Government. Secretary Rice has begun that process with her 
current trip to the region, and I'm hopeful she will get the 
support and priority that she needs to accelerate our diplomacy 
in the Middle East.
    I am also hopeful our Government will be aggressive and 
creative in pursuing a regional dialog. Inevitably, when anyone 
suggests such a diplomatic course, it is interpreted as 
advocating talks with Syria and Iran, nations that have overtly 
and covertly worked against our interests and violated 
international norms. As I stated at the hearing with Secretary 
Rice, the purpose of talks is not to change our posture toward 
those countries, nor should we compromise vital interests or 
strike ethereal bargains that cannot be verified. But if we 
lack the flexibility to communicate with unfriendly regimes, we 
increase the chances of miscalculation, undercut our ability to 
take advantage of any favorable situations, and potentially 
limit the regional leverage with which we can confront Iran and 
Syria.
    We should be mindful that Iranian ambitions, coupled with 
disorder in Iraq, have caused consternation in many parts of 
the Arab world. Under certain scenarios, Arab governments may 
become more receptive to coordination with the United States on 
a variety of fronts. In addition, though Iran--or, rather, 
though Iran and Syria cooperate closely, their interests 
diverge, in many cases. And the regional dialog I am suggesting 
does not have to occur in a formal conference setting, but it 
needs to occur, and it needs to be sustained.
    I welcome, along with the chairman, a very distinguished 
panel, and we look forward to your insights.
    The Chairman. Thank you very much, Senator.
    With the chairman's permission, I think we'll limit our 
rounds to 8 minutes, and try to get through. And I will suggest 
to our witnesses that, since it's only 8 minutes, when the 
clock begins, I may direct questions to you individually. Each 
of you are fully capable of answering every one of the 
questions I have, but, in order to try to get more questions 
in, quite frankly, I'm going to just put one of you in the 
barrel each time, if that's OK with you.
    I asked the staff what the protocol here is, that both 
Richard and Dennis have had significant positions in the 
administration. I don't know who goes first, so I decided to go 
with age. So, we're going to start with you, Dennis, first, 
and----
    [Laughter.]
    The Chairman [continuing]. And then we'll go to Richard, 
and then we'll go to Dr. Nasr.
    And welcome, again. We're delighted to have you here.

     STATEMENT OF HON. DENNIS ROSS, COUNSELOR AND ZIEGLER 
 DISTINGUISHED FELLOW, THE WASHINGTON INSTITUTE FOR NEAR EAST 
                     POLICY, WASHINGTON, DC

    Ambassador Ross. Thank you. I'm always happy to be the 
oldest one to present first. [Laughter.]
    Thank you, Mr. Chairman. And it's--I think it's an 
important time to be here. And I think this is an--a 
particularly important part of the way of looking at this 
issue.
    I'm looking at this from the standpoint of what will be the 
regional dimension and its impact on Iraq; less, really, the 
impact of Iraq on the region, although I'll touch on that 
somewhat.
    I have submitted a longer statement for the record, but I'm 
going to highlight my comments in a number of areas.
    The Chairman. And the entire statement will be placed in 
the record.
    Ambassador Ross. Thank you.
    First, I start with a premise that the solution to Iraq is 
going to be found within Iraq, not outside of Iraq. If we got 
every one of Iraq's neighbors to do exactly what we wanted them 
to do, what we would be able to do, I suspect, is to contain 
the conflict within Iraq, and to defuse it, which is very 
important, but we would not be able to settle it. The salvation 
for Iraq is going to be found inside Iraq, not outside of it, 
No. 1.
    No. 2, I think the assessment of Iraq's reality in the Iraq 
Study Group was first rate and, I think, reveals lots of 
insights. I think its discussion of the region, I find much 
less compelling. The argument that every issue in the region is 
inextricably linked, I think, belies the reality in the region, 
tends to put too much of an emphasis on the outside, and 
especially on the Arab-Israeli conflict, which is not to say, 
as you were saying before, Mr. Chairman, that this is an issue 
that doesn't affect the whole region. Of course it affects the 
region. It affects the climate in the region, it affects the 
perception of what we're doing, it affects the perception of 
who's up, who's down in the region, radical Islamicists exploit 
the Israeli-Palestinian issue to recruit new followers, to 
manipulate anger against us. But if you solve the Palestinian 
problem tomorrow, you are not going to change what's happening 
in Iraq, you are not going to affect the Sunni insurgency in 
Anbar province, you are not going to affect the Shia militias 
who are fighting a sectarian war, maybe, in their eyes, for 
defensive reasons. If you solve this problem, maybe you affect 
our standing, but you don't affect that reality.
    There's another, I would say, mythology that's going around 
that says, you know, we would get Sunni governments in the 
region to do much more in Iraq if only we could take the 
Palestinian problem off their back. And, here again, I would 
say this is a mythology. The Saudis have a stake in what's 
going on in Iraq, and the proof of that is, they're 
contemplating a $12 billion security barrier along their 
border. The Jordanians have a stake of what's going on in Iraq. 
They have absorbed 750,000 Iraqi refugees. They can ill-
afford to absorb any more. They clearly have a stake in what 
happens in Iraq. The reason they are not as active--all the 
Sunni governments are not as active in Iraq as we would like, 
from a political standpoint, from an economic standpoint--is 
because they are concerned about promoting Shia dominance in 
Iraq, not because they're held back, in some fashion, by the 
Palestinians. They may well intervene in Iraq if the situation 
in Iraq becomes much worse. We face an irony. The worse the 
situation gets in Iraq, the more they're likely to intervene, 
not necessarily the way we would like.
    If you look at the Syrians and the Iranians, here again I 
would say, they also have leverage, although I would not put 
the Syrians and the Iranians in the same category. The Iranian 
points of leverage are much greater than the Syrian points of 
leverage. It's pretty well known they played a major role, at 
least in the past, in organizing, training, financing, and 
arming the Shia militias. I would say their leverage, in some 
respects, is going up, not down, because, as power within Iraq 
becomes more diffuse, as there's fragmentation within the 
militias, as we see power devolve more and more to the local 
levels, the Iranian points of access increase.
    That said, if tomorrow the Iranians decided that they were 
going to cut off the militias, the militias, at this point, 
have their own means of financing and have enough weapons to 
continue to fight, and they probably would. So, Iran has 
influence, but they don't have control.
    Are either the Iranians or the Syrians prepared to change 
their behavior today? I would say no. I don't think they're 
particularly unhappy with what's going on there. Could they be 
induced into changing their behavior in Iraq? I doubt it. Are 
we in a situation where they would be more inclined to pull our 
chestnuts out of the fire? I don't think so, unless the cost to 
them, in their eyes, was to go up dramatically, or, 
alternatively, if they began to believe that, in a sense, their 
own chestnuts within Iraq were somehow at stake.
    And, here again, we begin to see another one of the 
ironies. The worse the situation gets in Iraq, the more the 
incentive for intervention from the outside goes up. It can be 
negative intervention, it can be positive intervention. The 
reality is, all of Iraq's neighbors are afraid of a convulsion 
within Iraq. All of them understand that if you suddenly had a 
convulsion, you could have millions of refugees, you could have 
instability within Iraq that would bleed across the borders, 
you could have every one of their neighbors become competitors, 
in terms of creating and turning Iraq into a platform for 
potential threats to them.
    So, they have a stake in preventing the worst in Iraq. The 
problem is, today they have a situation that is basically 
tolerable, either the Iranians actually find it good, because 
it keeps us tied down, or, at this stage, they don't believe 
that it imposes enough of a risk to them for them to change 
their behavior.
    The paradox, interestingly enough, is, if you take a look 
at all of the neighbors, if they suddenly thought the situation 
became much more dangerous to them, they might have an 
incentive in coming together in some fashion to try to at least 
contain that reality. One thing I can tell you from all my 
experience in the Middle East, nothing good in the Middle East 
ever happens on its own. Plenty of bad things happen on their 
own, but nothing good ever happens on its own. So, if you 
wanted to orchestrate this, you probably would need--and I know 
you've called for this, at one point--you probably would need 
some kind of regional conference, which, again, would have to 
be orchestrated. It couldn't just be established as a big photo 
op. You'd have to prepare the ground before you went there, 
you'd have to work on it when you got there.
    But, even here, I would caution and note that this is not 
likely, right now, to work the way we might want, because, 
again, the realities on the ground have to change to the point 
that what's going on there isn't tolerable for everybody. And 
I'm afraid, today, that it is.
    In a sense, I think, also, there's a parallel here with 
what's happening on the inside. No one on the inside within 
Iraq, none of the--not the Iraqi leadership, not the current 
Iraqi Government, not the different sectarian leaders, find the 
situation sufficiently intolerable--as bad as we might think it 
is, none of them find it sufficiently intolerable to change 
their behavior. Prime Minister Maliki has now made a series of 
commitments to President Bush, ranging from increasing the 
number of Iraqi forces, to protecting Sunni and Shia 
neighborhoods equally, to finally working out a sharing of oil 
revenues, producing a fair process for the amendments to the 
Constitution, a new law on de-Baathification, providing 
reconstruction moneys, including to Anbar province. I could go 
on and on and on. All of these commitments are very important. 
Had any of them taken place before, we wouldn't need a surge 
right now. The reality is, here, I don't have high expectations 
it's going to work, because, once again, unless, in fact, Prime 
Minister Maliki is convinced that he's on the brink of great 
danger if he doesn't act, I don't think we're going to see 
either Prime Minister Maliki or other leaders take what are, 
for them, excruciating decisions and change their behavior, 
unless they feel they have to.
    In the case of the Sunnis, they haven't made the emotional 
adjustment to being, in a sense, subordinate to the Shia. In 
the case of the Shia, the Shia operate on the premise that 
they're a majority, but they could lose their power at any 
moment. Because they fear that, they continue to act the way 
they do.
    And, in a sense, this brings me to a broader conclusion, 
and that broader conclusion is, we face an unfortunate paradox. 
The unfortunate paradox is, so long as we keep the lid on 
within Iraq, everybody on the outside of Iraq and everybody on 
the inside of Iraq has no reason to change their behavior. The 
paradox for us is that we have very good reasons to keep the 
lid on, because we don't have an interest in seeing a major 
convulsion within Iraq, we don't have an interest in seeing a 
free-for-all there, we don't have an interest in seeing the 
instability there radiate outward. But, unfortunately, unless 
we can somehow convince everybody that the lid is going to come 
off, I don't believe that any of them are going to change their 
behaviors, whether we're talking about any of the neighbors or 
we're talking about those on the inside.
    And I'll stop there.
    [The prepared statement of Ambassador Ross follows:]

     Prepared Statement of Hon. Dennis Ross, Counselor and Ziegler 
 Distinguished Fellow, the Washington Institute for Near East Policy, 
                             Washington, DC

    I have been asked to discuss Iraq in a regional context. I 
interpret the request to be less about how Iraq fits in the region and 
more about how the region may affect Iraq and its future.
    I take this view largely because most Americans--and I presume this 
committee--are principally concerned with how we are going to manage 
the best possible outcome in Iraq. The starting point for achieving the 
best possible outcome, or more accurately the least bad one, is 
understanding that the future of Iraq is going to be determined by 
Iraqis. While Iraq's neighbors certainly have influence on different 
sectarian groups within Iraq, their influence is limited.
    The Iraq Study Group's assessment of the internal reality of Iraq 
was extraordinary in its candor and its insights. Its emphasis on the 
role of the outside world was far less so. Saying that all issues in 
the Middle East are inextricably linked belies reality and placed a 
misleading focus on the role of Syria and Iran and the Israeli-
Palestinian conflict.
    It is certainly fair to say that the different conflicts in the 
area affect the broader climate, the expectations of different regional 
leaders and publics, the likelihood of who is on the defensive and who 
is on the offensive, and whether or not it pays to be an American 
friend or foe. From that perspective, it is certainly true that 
settling the Israeli-Palestinian conflict would take away a basic 
source of grievance that Islamists exploit to recruit new followers and 
to manipulate anger against the United States.
    Beyond that, the Israeli-Palestinian has precious little relevance 
to Iraq. If there were no Palestinian conflict, we would still face a 
Sunni insurgency in Anbar province. We would still face Shia militias 
determined to protect against Sunni insurgent attacks and to wreak 
vengeance either in response to, or unfortunately, in anticipation of 
such assaults.
    While I support intensive efforts to defuse the Israeli-Palestinian 
conflict, I do it for reasons completely unrelated to Iraq. I do it 
because it is right to try to reduce the violence and settle the 
conflict on its own merits. It is right to remove a source of 
radicalism in the region. It is right not simply to deny Islamists a 
grievance, but also the ability to transform what has been a national 
conflict into a religious conflict--almost assuredly what could happen 
if Palestinians come to believe that there is no possibility of 
settling the conflict and Hamas comes to dominate the Palestinian 
future. It is right also to correct the impression that much of the 
Muslim--and certainly nearly all the Arab--world have presently of the 
United States: That given the Bush administration's disengagement from 
the peace process for the last 6 years, the United States is simply 
indifferent on an issue that matters deeply to them.
    But there should be no illusions. Our efforts to settle the 
conflict are not going to materially change the challenges we face in 
Iraq. Moreover, the notion that if we do more to settle the Palestinian 
conflict, the Saudis and Jordanians will become more helpful on Iraq is 
also illusory. Both have a stake in what happens in Iraq. Neither can 
be indifferent. The Saudis are contemplating a $12 billion security 
barrier along their border with Iraq, fearing the spillover of terror 
or refugees or instability otherwise. Similarly, Jordan has already 
absorbed 750,000 Iraq refugees. It cannot absorb more--and yet an all-
out convulsion within Iraq would certainly confront Jordan with the 
prospect of having to absorb thousands more.
    Neither the Saudis nor Jordanians want to see Iraq fall apart; nor 
do they want to see a Shia-dominated state with very close ties to 
Iran. Today, they seem to be more concerned about the latter than the 
former. They see Sunnis under constant assault from Shia militias; they 
see Sunnis being driven from their homes in mixed neighborhoods; they 
see Iran with increasing presence and influence. It is not the 
Palestinian issue that has led the Saudis, Jordanians, and other 
leading Sunni countries and leaders to hesitate in providing the kind 
of support they could to the Iraqi Government. What holds them back is 
their dislike for what they see emerging in the new Iraq.
    One development that might trigger far greater involvement by the 
Sunni regimes is a negative one. The more they see the Sunni tribes 
threatened by the Shia, the more likely the Saudis and Jordanians are 
to intervene. Until that point we can push and cajole, but I suspect, 
with marginal affect.
    We are led back again to Iraq and its internal dynamics. The 
Palestinian-conflict cannot affect these dynamics; but could Iran and 
Syria? Again, the answer is probably more as spoilers rather than as 
fixers, though Iran is undoubtedly more of a problem in this connection 
than Syria. Bear in mind that Iran has unmistakable links to the Mahdi 
Army and to the Badr organization, and has helped to arm, organize, and 
finance both. While today neither of these militias is any longer 
primarily dependent on Iran for money and weaponry, given their access 
to governmental and nongovernmental coffers, Iran can certainly wield 
influence with these militias and with different Shia political 
figures. Moreover, as power and the militias have become more diffused, 
localized, and less hierarchical, Iran's capacity to be a spoiler has 
probably increased, particularly as militias and criminal gangs merge 
at local levels and as Iran can provide them material support.
    What this suggests is that all the neighbors--Saudi Arabia, Jordan, 
Kuwait, Turkey, Syria, and Iran--can probably add to Iraq's problems. 
They are far less capable of being the key to Iraq's salvation; only 
the Iraqis can provide that. Only Iraqis can decide whether they will 
forge a national compact. To date, they have done little to indicate 
that national reconciliation is a serious priority. And, unfortunately, 
the Maliki government chose to handle the execution of Saddam Hussein, 
not as a moment for reconciliation but, instead, for conveying to the 
Sunnis that the Shia now ruled, that the Sunnis were powerless in the 
new Iraq, and that the Shia would act without regard for Sunni 
sensibilities. While the execution could have been seized by the Maliki 
government as an opportunity to send a message to the Sunnis that now 
was a time to end a chapter of Iraqi history in which all sides had 
been brutalized and chart a new future together, it preferred to signal 
its dominance and its need for vengeance.
    This is the context in Iraq in which the President has made his 
decision to increase our forces in Baghdad and Anbar province. Maliki's 
commitment to act on a new security plan and to treat Shia and Sunnis 
similarly, no longer favoring Shia militias, is unlikely to be believed 
within Iraq. Previously, he has said he would not tolerate lawlessness 
or the militias and not only never acted against them, but has 
consistently turned a blind eye to the infiltration of the militias in 
the Interior Ministry and the police forces. In the eyes of the Sunnis, 
he has tacitly supported Shia death squads and the depopulation of 
Sunnis in the mixed neighborhoods of Baghdad.
    Words won't convince Sunnis that Maliki is serious about a new 
strategy to provide protection to all Iraqis regardless of sect. There 
will need to be demonstrations of his national, not sectarian, 
commitment. It won't take long to know whether his commitments are real 
or merely rhetorical. Will Iraqi forces join ours in the numbers the 
security plan calls for? Will they protect Shia and Sunni populations 
equally? Will legislation finally be adopted on sharing oil revenues 
with a mechanism for implementing these shared provisions according to 
population? Will there be a fair process finally for dealing with the 
amendments to the constitution? Will the Iraqi reconstruction moneys 
materialize and be available also in Anbar province? Will former Baath 
officials below the highest levels be rehabilitated and integrated back 
into ministries?
    Without even confronting the Mahdi Army, which I doubt is realistic 
for the time being, all the actions implied in the answers to these 
questions would signal a profound change--and President Bush, in 
effect, has offered all of these as measures of why the surge will work 
now as opposed to all previous efforts. To be sure, Iraq's neighbors 
could make these behaviors more likely if they were prepared to make a 
collective effort to use their respective leverage. In theory, Iran 
could press both Abdul Aziz al-Hakim and Muqtada al-Sadr--given their 
weight within the Parliament and their leadership of competing Shia 
militias--to support Prime Minister Maliki in taking such steps. The 
Saudis and Jordanians could use their connections with the leading 
Sunni tribes to get them to show they will meet the Prime Minister part 
way and to reciprocate when the Maliki government takes steps toward 
them. The Syrians could make it easier for Sunni tribal leaders to 
reach out by working to prevent jihadists from crossing into Iraq and 
threatening them.
    But turning theory into reality seems highly improbable at this 
time. Unless the Iranians and Saudis are prepared to forge a deal on 
Iraq, I suspect that Iraq's neighbors will not contribute to defusing 
tensions among the different sectarian groups. Indeed, the only 
circumstance in which I see Iran and Saudi Arabia behaving differently 
is if they both became fearful that a precipitous U.S. withdrawal might 
trigger a real convulsion in Iraq. Potentially millions of refugees on 
the move, instability bleeding across Iraq's borders, and competition 
to bolster their friends in Iraq that intensifies and proves very 
expensive to both the Saudis and Iranians could conceivably create 
enough of a convergence of interest in Iraq to lead the two to explore 
a possible deal.
    There is irony here--only if the reality in Iraq threatens to be 
far more costly to both the Saudis and Iranians are they likely to 
contemplate some limited understanding on Iraq. I don't have high 
expectations. Iran may think they are more insulated from spillover of 
instability in Iraq and in any case they would rather back 60 percent 
of the population than the 20 percent the Saudis would be supporting. 
Nonetheless, the Saudi capacity to underwrite the Sunnis could give the 
Iranians pause.
    I would support a regional conference with the neighbors, including 
Iran and Syria, not because I expect much to come of it, but because 
all sides might come to see some value in tempering their spoiling 
instincts. The U.S. role at such a conference might be to see whether 
there is a potential for some understandings on Iraq, and to cultivate 
them even between the Saudis and Iranians if we deem them to be of any 
value.
    While worth considering, I don't believe that any such deals are on 
the horizon. In fact, I suspect that at this point they are about as 
likely as seeing Iraqis begin to act on national reconciliation. In 
either case, it will take discomfort to get Iraq's neighbors or Iraq's 
Government and sectarian leaders to transform their behaviors. The 
situation may be objectively terrible in Iraq, but it has not been 
sufficiently bad to catalyze a change in behavior of Iraq's leaders and 
Iraq's neighbors. By keeping the lid on with our forces, and preventing 
a real collapse, we make it safe enough for everyone--next to and 
within Iraq to avoid taking what they regard as excruciating decisions.
    It is not an accident that Iraq's leaders have avoided the hard 
choices required to create a national compact. Sunnis continue to 
resist at least emotionally that they must be subservient to the Shia. 
The Shia are a majority who act as if they believe they will lose their 
dominant position in governing Iraq unless they hold the line every day 
against the Sunnis. Insurgent attacks justify the maintenance of 
militias, which in the eyes of Shia, protect them when no one else 
will.
    In my experience, leaders don't cross thresholds in historic 
conflicts because they are induced into doing so. They may approach the 
thresholds given certain promises about the future, but they don't 
cross them unless they see the costs--as they measure them--if they 
fail to act.
    President Bush has now established the key measures that will show 
whether the Iraqi Government and its Shia leaders are prepared to 
change their behavior in a way that also produces Sunni responses. If 
there is no consequence for the Iraqi Government for failing to meet 
their commitments, I believe that neither the different Iraqi leaders 
nor their counterparts in the neighboring states will perceive that the 
United States will decide to give up our readiness to keep the lid on 
in Iraq--regardless of the cost to us.
    The great paradox of Iraq today is that our fear of an Iraqi 
collapse keeps us there and reduces the need for either Iraqis or their 
neighbors to change course.

    The Chairman. Thanks.
    Mr. Secretary.

STATEMENT OF HON. RICHARD HAASS, PRESIDENT, COUNCIL ON FOREIGN 
                    RELATIONS, NEW YORK, NY

    Ambassador Haass. Thank you, sir. Thank you, again, for 
having me back and for testifying on the situation on Iraq.
    To the extent one is judged by those one testifies with, 
I'm flattered by being with Dennis Ross and Vali Nasr.
    What I'd like to do is just make some remarks and put the 
full statement in the record----
    The Chairman. The entire statement will be placed in the 
record.
    Ambassador Haass [continuing]. And just to make clear that 
my views also are my own and I'm not speaking on behalf of the 
Council.
    I won't take your time, Senator Biden, rehearsing how we 
got to where we are in Iraq, other than to say the United 
States continues to pay an enormous price for the decision to 
attack Iraq and for subsequent decisions made in the aftermath 
of its liberation. The decision to attack, in 2003, was a 
classic war of choice, and it's been followed by any number of 
bad choices since. And the result is an early end to the era of 
American primacy in the Middle East and the emergence of a 
region more likely to do damage to itself, the United States, 
and the world. And this is the context in which we have to look 
at Iraq, which has now become a hybrid. It's become part civil 
war, part failed state, and part regional conflict. All of this 
has real consequences for the United States.
    Let me take a step back. Foreign policy must always be 
about achieving the best possible outcome. Iraq is not going to 
be a model society or a functioning democracy anytime soon. We 
should expunge such words as ``success'' and ``victory'' from 
our vocabulary. Ambitious goals are simply beyond reach, given 
the nature of Iraqi society and the number of people there 
prepared to kill one another. It would be wise to emphasize not 
what the United States can accomplish in Iraq, but what it can 
avoid.
    In this context, I believe there are two reasons to support 
a surge, in principle. One is the possibility that it may work, 
that it may provide the time and space for Iraqi authorities to 
introduce power and revenue-sharing and improve the quality of 
Iraq's military and police. And the second argument, in 
principle, in favor of surge, is that if it fails--if it fails 
to turn things around and Iraq descends further into chaos, it 
will help make clear that the onus for Iraqi's failure falls on 
the Iraqis themselves. And such a perception would be less 
costly, all things being equal, for our reputation than a 
judgment that Iraq was lost because of a lack of American 
staying power.
    There are, however, several downsides to the decision to 
surge forces. And, to begin with, a surge is not a strategy, 
it's simply a tactic. And the premise behind it seems to be 
that all the Iraqi Government requires is a few months to get 
its house in order. But if the Iraqis were prepared to do what 
was needed, a surge would not be necessary. And if they're not 
willing to do what is called for, a surge will not be enough.
    This, to me, suggests what may be the fundamental flaw 
implicit in the new policy. The United States goal is to work 
with Iraqis to establish a functioning democracy in which the 
interests and rights of minorities are protected. But the goal 
of the Iraqi Government is different. It appears to be to 
establish a country in which the rights and interests of the 
Shia majority are protected above all else.
    A second drawback of the surge is that it will entail real 
costs--economic, military, and human. A surge is not an 
abstraction. It will change the lives of tens of thousands of 
individuals and families in this country.
    And, third, a drawback I would mention is that if a surge 
in U.S. forces cannot alter the fundamental dynamics of Iraq, 
as Senator Lugar mentioned, calls will mount here at home for 
U.S. military withdrawal, based on the judgment the United 
States has done all it can and that doing more would be futile. 
So, ironically, doing more in the short run will make it more 
difficult to sustain a United States presence in Iraq in the 
long run.
    All those drawbacks notwithstanding, let me also add that 
opposition to a surge does not constitute a strategy. A rapid 
withdrawal of U.S. forces would certainly intensify the civil 
conflict, produce humanitarian disaster, provide a sanctuary 
and a school for terrorists, and draw in many of Iraq's 
neighbors, turning the country, and possibly the region, into a 
battleground. In addition, a rapid withdrawal of U.S. forces 
would also increase the cost to U.S. foreign policy worldwide, 
as it would raise questions everywhere about U.S. 
predictability and reliability.
    I do think there is an alternative to both a surge and to 
near-term withdrawal. It would entail reductions in U.S. force 
levels. It would call for less participation in Iraq's civil 
fighting. It would require more emphasis on training and 
advising of Iraq military and police. It would continue work 
with local leaders to forge compromise. And it would involve 
invigorated diplomacy at the regional level. I would call it 
some version of ``Iraqification,'' with a diplomatic dimension.
    Let me make clear, in advocating this, though, that such an 
approach would not solve the Iraq problem. It's premised, 
rather, on the notion that Iraq, at best, will remain divided 
and messy for years, and the most the United States can achieve 
is to keep open the possibility of normalcy until such a time 
most Shias and Sunnis in Iraq are willing to embrace such a 
notion and take steps to bring it about.
    In that context, let me make clear that it's not at all 
apparent to me that widening the war to Syria or Iran would 
accomplish more than it would cost. Any attack on either Syria 
or Iran would run the risk of leading either, or both, 
countries to intensify their unhelpful actions in Iraq, 
including the risk to United States personnel. And there's no 
reason to assume that their responses would necessarily be 
limited to Iraq.
    More important, it's not clear to me why the administration 
continues to resist the suggestion, put forward by the Iraq 
Study Group and others, that it support the creation of a 
regional forum. What makes the most sense is a standing 
mechanism akin to the so-called ``Six Plus Two'' forum used to 
help manage events in Afghanistan. In such a forum, the United 
States and others could challenge Syria to do more to make it 
difficult for terrorists to cross into Iraq. And we obviously 
could challenge Iran, as well.
    Why should we involve Iran and Syria? Let me suggest three 
reasons. Neither Iran nor Syria has an interest in an Iraq that 
fails or falls apart. The cohesion of both is potentially 
vulnerable to Kurdish nationalism. The economies of both would 
be burdened by refugees. But also, neither would benefit from 
conflicts with neighbors that could easily evolve out of an 
intensified civil war in Iraq.
    With Syria, in particular, there is an opportunity. Syria 
might be open to persuasion and compromise if the scope of 
talks were expanded. One could imagine Israel returning the 
Golan Heights to Syria in return for a peace treaty, diplomatic 
relations, and a major reduction in Syria's support for both 
Hamas and Hezbollah. The United States, in that context, would 
reduce Syrian sanctions. And, as part of that, Syria, then, in 
turn, would have to do a better job of policing its border with 
Iraq. And I would simply suggest that the United States should 
give Israel its blessing to explore this possibility.
    Iran is more difficult, though, again, I can imagine a 
broad package that would place an extremely low ceiling on 
uranium enrichment activity that Iran could take in exchange 
for accepting the most stringent of inspections. Iran would 
gain access to, but not physical control of, nuclear fuel for 
purposes of electricity generation. Sanctions could be reduced, 
depending upon Iranian willingness to curtail its support for 
terror and its opposition to Israel. If we take such an 
approach with Iran, which I think we should, we should make our 
position public.
    The Iranian public needs to know how it would benefit from 
normal ties. And the Iranian public needs to know how they pay 
a price for the foreign policy of their government. The 
Achilles heel of the Government in Iran is their mismanagement 
of the Iranian economy, and, on a regular basis, we, as 
outsiders, should make clear to the Iranian people the price 
they pay, the better standard of living they could enjoy. That, 
I believe, is the best way to put pressure on the clerics 
running the country.
    Implicit in all this is two things. One is, the United 
States should let go of its regime-change ambitions, in the 
short run, toward Iran and Syria. Regime change is not going to 
come about in either country soon enough to affect U.S. 
interests. I could be wrong in this, but no one can count that 
I am wrong. We cannot conduct foreign policy on the hope that 
regime change will come soon enough to solve our problems for 
us.
    The United States should also jettison preconditions to 
sitting down and talking with either country. The fact that 
both are acting in ways we find objectionable is not a reason 
not to negotiate, it's a reason to negotiate. What matters is 
not where you begin a negotiation, it's where you come out.
    And I say all this, acknowledging that there's no guarantee 
that diplomacy would work. That said, it's not clear to me how 
the United States is worse off for having tried. The failure of 
diplomatic initiative, one that's perceived as fair and 
reasonable, would actually make it less difficult for the 
United States to rally domestic and international support for 
harsher policies toward either Syria or Iran.
    Let me just quickly talk about the Palestinian issue. I 
would simply say that history suggests that negotiations tend 
to succeed only when leaders on all sides are both willing and 
able to compromise, and it's not clear that such leadership now 
exists. And, in this context, what I would argue for is that 
the United States should articulate publicly its views of final 
status. We've done this, in part, vis-a-vis, Israel. The United 
States should also do this, vis-a-vis the Palestinians. For 
example, we should say that any peace would be based on the 
1967 lines, that the Palestinians would receive territorial and 
other forms of compensation whenever there were deviations, and 
that they would also receive economic compensation.
    Let me just make clear that I'm not suggesting that 
negotiations be started now. The situation is not ripe for 
that. But the United States can begin to alter the debate 
within Palestinian society. Hamas needs to be pressed to 
explain why it's resisting negotiating with Israel and why it 
persists in violence, when an attractive diplomatic settlement 
is available. The goal should be either to strengthen Abu Mazen 
or to create conditions in which Hamas evolves away from 
violence.
    Let me echo the words of Dennis Ross and others, that 
progress in the Palestinian issue will not affect the situation 
in Iraq. Iraqis, we all know, are killing themselves for any 
number of reasons, but promoting a Palestinian state is simply 
not one of them.
    Beyond the Middle East, there's an entire foreign policy 
agenda that could benefit from greater attention, from North 
Korea to climate change to trade negotiations, to Darfur, to 
Afghanistan--where the situation is deteriorating--to homeland 
security to energy policy. I would simply say that Iraq gets in 
the way of much of this.
    The military commitment we are making in Iraq leaves the 
United States with little leverage and little capacity to use 
elsewhere. Iraq is also absorbing economic resources. It 
contributes to anti-Americanism and makes it more difficult for 
the United States to drum up support. It requires a great deal 
of time and political capital that could be better spent on 
other policies. An emphasis on Iraq also carries with it a 
long-term risk. If things continue to go badly, it will be more 
likely that we will suffer an ``Iraq syndrome'' that will 
constrain our ability to be active everywhere.
    In short--and I will end with this, Mr. Chairman--I would 
suggest the time has come for the post-Iraq era of American 
foreign policy. This remains an era of extraordinary 
opportunity for the United States. We're free to devote the 
bulk of our resources to dealing with the global challenges of 
our era. What's more, we have the potential to enlist the 
support of the other major powers in tackling these challenges. 
But, so long as Iraq drains American resources, distracts its 
attention, and distances others from us, we will not be able to 
translate this opportunity into reality. Worse yet, this 
opportunity will soon fade. As others have pointed out, it will 
be Iraqis who will largely determine their own fate, but only 
by reducing our own investment in Iraq and by refocusing our 
energies elsewhere will we place ourselves in a position to 
improve our own fate.
    Thank you very much.
    [The prepared statement of Hon. Haass follows:]

  Prepared Statement of Hon. Richard N. Haass, President, Council on 
                    Foreign Relations, New York, NY

    Thank you for the opportunity to testify on the situation in Iraq 
and, in particular, on regional and global aspects of current U.S. 
policy in Iraq. I will not rehearse here today how we got to where we 
are--other than to say that the United States and the American people 
are paying a substantial price for the decision to attack Iraq and for 
subsequent decisions made in the aftermath of Iraq's liberation. The 
decision to attack Iraq in 2003--a classic war of choice--was followed 
by numerous bad choices.
    The result is an early end to the era of American primacy in the 
Middle East and the emergence of a region far more likely to do damage 
to itself, the United States, and the world. To be sure, we now have an 
Iraq that is no longer ruled by a dictator and one in which the 
population has had an opportunity to vote on several occasions for 
either candidates or a constitution. But the more significant result is 
an Iraq that is violent, divided, and dangerous. The debate over 
whether what is taking place there constitutes a civil war is not 
productive. The reality is that Iraq is an unattractive hybrid: Part 
civil war, part failed state, and part regional conflict.
    The Iraqi Government is weak internally and challenged from without 
by terrorists, Sunni insurgents, and Shia militias. Shia domination of 
the south is near complete and growing in the center given ethnic 
cleansing and emigration. The Kurds are living a separate life in the 
country's north. The Sunni minority sees itself as discriminated 
against; one consequence is that the bulk of the instability centers on 
the capital area and the west.
    The recent execution of Saddam Hussein is at once a reflection of 
the reality that has come to be Iraq and a development that exacerbated 
sectarianism. It reveals a lack of discipline and professionalism on 
the part of Iraqi authorities. What we saw represented more the 
politics of retribution than the rule of law.
    All of this has important consequences for the United States. 
Foreign policy must always be about achieving the best possible 
outcome. At times this can translate into lofty goals. This is not one 
of those times. It would be wiser to emphasize not what the United 
States can accomplish in Iraq but what it might avoid. Iraq is not 
going to be a model society or functioning democracy any time soon. We 
should expunge such words as ``success'' and ``victory'' from our 
vocabulary. Ambitious goals are beyond reach given the nature of Iraqi 
society and the number of people there prepared to kill rather than 
compromise to bring about their vision of the country's future. We can 
let historians argue over whether ambitious goals were ever achievable; 
they are not achievable now.

                          ASSESSING THE SURGE

    This is the context in which President Bush chose to articulate a 
new policy, one with an increase or surge in U.S. forces at its core. 
There are two reasons to support a surge in U.S. forces. One argument 
in its favor is the possibility it may work, that it might provide time 
and space for Iraqi authorities to introduce needed power and revenue 
sharing and to increase the quantity and, more important, improve the 
quality of Iraq's military and police forces. To do this, a surge would 
have to be implemented in a manner that was nonsectarian and open-
ended.
    The second argument in favor of a surge is that if it fails to turn 
things around and if Iraq descends further into violence and chaos, it 
will help to make clear that the onus for Iraq's failure falls not on 
the United States (and not on any lack of U.S. commitment) but on the 
Iraqis themselves. At least in principle, such a perception would be 
less costly for the reputation of the United States than the judgment 
that Iraq was lost because of a lack of American staying power or 
reliability.
    There are, however, several downsides to the decision to increase 
the number of U.S. forces in Iraq, including the basic problem that it 
may not achieve a meaningful improvement in stability and security for 
Iraqis. A surge is not a strategy; it is a tactic, a component of a 
larger policy. The premise behind the new policy seems to be that all 
the Iraqi Government requires is a few months to get its house in 
order, to introduce much-needed political and economic reforms that 
will assuage most Sunnis and military and police reforms that will make 
the country safer. But if the Iraqis were prepared to do what was 
needed, a surge would not be necessary. And if they are not willing and 
able to do what is called for, a surge will not be enough.
    More broadly, the United States requires an Iraqi Government that 
is willing and able to take advantage of the opportunity a surge is 
designed to provide--and by ``take advantage'' I do not mean exploit it 
so as to strengthen Shia control. This may, in fact, be the fundamental 
flaw of the surge decision and U.S. policy. The U.S. goal is to work 
with Iraqis to establish a functioning democracy in which the interests 
and rights of minorities are protected. The goal of the Iraqi 
Government appears to be to establish a country in which the rights and 
interests of the Shia majority are protected above all else.
    A second drawback of a surge is that it will entail real economic, 
military, and above all, human costs. It is important to keep in mind 
that a surge is not an abstraction. It will change the lives of tens of 
thousands of families and individuals in this country--and bring to a 
premature end the lives of an unknown number of American men and women.
    A third drawback to a surge in U.S. forces is that if (as seems 
likely) it cannot alter the fundamental dynamics of Iraq, calls will 
mount here at home for a U.S. military withdrawal based on the judgment 
that the United States had done all it could and that doing more would 
be futile and costly. Ironically, doing more in the short run will make 
it more difficult to sustain a U.S. presence for the long run.
    There are, thus, good reasons to question the new U.S. approach to 
Iraq. But we should be no less clear about the drawbacks to the 
principal alternative. Opposition to a surge does not constitute a 
desirable strategy. A rapid withdrawal of U.S. forces would almost 
certainly intensify the civil conflict, produce a humanitarian 
disaster, provide a sanctuary and a school for terrorists, and draw in 
many of Iraq's neighbors, turning Iraq and, potentially, much of the 
Middle East into a battleground.
    A rapid withdrawal of U.S. forces would also increase the costs to 
U.S. foreign policy more generally, as it would raise questions in the 
minds of friends and foes alike about U.S. predictability and 
reliability. Even some of the most vocal critics around the world of 
U.S. policy would be critical of a sudden end to U.S. involvement. And 
for good reason, as terrorists would be emboldened, countries such as 
Iran, North Korea, and Venezuela would be more prone to act 
assertively, and friends would be more likely to decrease their 
dependence upon the United States, something that could lead them 
either to reach new accommodations with others or to build up their own 
military might, including possibly reconsidering the utility of 
developing or acquiring nuclear weapons.
    There is, however, an alternative to both a surge as defined by the 
administration and near-term withdrawal. It would entail gradual 
reductions in U.S. force levels, less participation in Iraq's civil 
fighting, more emphasis on training and advising of military and police 
units, continuing work with local political leaders to forge 
compromise, and diplomacy designed to influence the behavior of Iraq's 
neighbors. Call it ``Iragification'' with a diplomatic dimension.
    Such an approach would not attempt to ``solve'' the Iraq problem. 
To the contrary, it is premised on the view that there is no major 
breakthrough to be produced by a surge or any other change in U.S. 
policy. It is similarly premised on the notion that Iraq will remain a 
messy and divided country for years, and the best and most the United 
States can hope to achieve is to keep open the possibility of something 
approaching normalcy until such a time most Shias and Sunnis are 
willing to embrace such a notion and take steps that would bring it 
about. In short, this third approach would buy time and give the Iraqis 
a chance to improve their lot--and in the process reduce the direct and 
indirect costs to the United States and to U.S. foreign policy.
    In considering the alternatives it pays to keep in mind that 
outsiders have three options when it comes to civil wars. One is to 
smother them. Alas, this has proven not to be achievable in Iraq. A 
second is to help or simply allow the stronger party--in this case 
Iraq's Shia majority--to prevail. This would be a terrible conclusion 
to the U.S. intervention. It would strengthen Iranian influence, cause 
a humanitarian tragedy, and likely lead to a regional conflict given 
concerns throughout the Arab world for their Sunni brothers and 
opposition to Iranian hegemony. A third option would be to accept that 
civil fighting will continue until it burns itself out, either from 
exhaustion or from a realization by most Iraqis and their external 
benefactors that no victory is possible and that peace and stability 
are preferable to continued conflict. Such an outcome will likely take 
many years to evolve. The best thing that can be said about it is that 
it is preferable to the scenario of a one-sided victory.

           THE REGIONAL AND GLOBAL DIMENSIONS OF U.S. POLICY

    As the above makes clear, Iraq cannot be viewed in isolation. The 
President was right to recognize the regional component of Iraqi 
security. He was also right to claim that both Iran and Syria have 
acted in ways that have contributed to the challenges confronted by 
Iraq's Government and its people.
    But it is not at all apparent that widening the war to either or 
both countries would accomplish more than it would cost. Any attack on 
Iran or Syria runs the risk of leading either or both countries to 
intensify their actions in Iraq, including increasing the risk to U.S. 
personnel. And there is no reason they would be limited to reacting 
within Iraq. Iran in particular has the ability to act throughout the 
region and beyond given its ties to groups such as Hezbollah and Hamas.
    More important, it is not clear why the administration continues to 
resist the suggestion put forward by the Iraq Study Group and others 
that it support the creation of a regional forum that would have as its 
mission to stabilize the situation in Iraq. What makes the most sense 
is a standing mechanism akin to the so-called ``Six Plus Two'' forum 
used to help manage events in Afghanistan. An Iraq forum--consisting of 
Iraq, its six immediate neighbors (Iran, Jordan, Kuwait, Saudi Arabia, 
Syria, and Turkey), and selected outsiders (possibly the five permanent 
members of the U.N. Security Council)--would provide a forum in which 
outside involvement in Iraq could be addressed. In particular, the 
United States and others could challenge Syria to do more to make it 
difficult for terrorists to enter into Iraq and Iran to curtail its 
support for terrorism.
    Why should the United States involve Iran and Syria, two countries 
that have more often then not exacerbated matters in Iraq? To begin 
with, neither has an interest in an Iraq that fails. The cohesion of 
both is vulnerable to Kurdish nationalism; the economies of both would 
be burdened by floods of refugees. Neither would benefit from conflicts 
with neighbors that could all too easily evolve out of an intensified 
civil war in Iraq that left the Sunnis vulnerable.
    Syria might be even more open to persuasion and compromise if the 
scope of talks were expanded to address concerns beyond Iraq. One can 
imagine a negotiation in which Israel would return the Golan Heights to 
Syria in return for a peace treaty, diplomatic relations, and a major 
reduction in Syrian support of both Hezbollah and Hamas. The United 
States would reduce or end economic and political sanctions in a 
context that included Syrian-Israeli normalization and enhanced Syrian 
efforts to police its border. The United States and Israel would also 
benefit from the cooling in Syrian-Iranian ties that would result. The 
United States should give Israel its blessing to explore this 
possibility with Damascus.
    Iran is a more difficult challenge, although here, too, one can 
imagine a broader package that would place an extremely low ceiling on 
any uranium enrichment activity Iran could undertake in exchange for 
the most stringent inspections. In exchange for such restraint, Iran 
would gain access to (but not physical control of) nuclear fuel for 
purposes of electricity generation. Other economic and diplomatic 
sanctions could be reduced depending on whether Iran was willing to 
curtail its support for terror and its opposition to Israel. Making 
such offers public--making it clear to the Iranian public how they 
would benefit from normal ties and how much they pay for Iran's radical 
foreign policy--would place pressure on the government and increase the 
odds it will compromise.
    Implicit in all this is that the United States is willing to let go 
of its ``regime change'' ambitions toward Iran and Syria. This makes 
sense, because regime change is not going to come about soon enough to 
affect U.S. interests in Iraq or beyond. The United States should also 
jettison preconditions to sitting down and talking with either Syria or 
Iran. The fact that they are acting in ways the United States finds 
objectionable is reason to negotiate. What matters is not where you 
begin a negotiation but where you come out.
    There is, of course, no guarantee that these or similar diplomatic 
initiatives would bear fruit. Obviously, it would have been wiser to 
have approached both countries several years ago when the price of oil 
was lower and when the U.S. position in Iraq was stronger. Still, it is 
not clear how the United States would find itself worse off for having 
tried now. To the contrary, the failure of a diplomatic initiative 
widely perceived as fair and reasonable would make it less difficult 
for the United States to build domestic and international support for 
other, harsher policies toward Syria and Iran.
    The other regional matter that is garnering a great deal of 
attention of late is the Israeli-Palestinian conflict. Obviously, 
progress here would be welcome and applauded. No one--Palestinians, 
Israelis, or Americans--benefits from the current impasse. History, 
though, strongly suggests that negotiations tend to succeed only when 
certain critical elements are in place. In addition to a process and a 
formula that parties must be prepared to accept, there needs to be 
leaders on all sides who are both willing and able to compromise. It is 
not clear that such leadership currently exists on either side of this 
divide. The Olmert government is weak as a result of the widely judged 
failure of last year's Lebanon incursion. The leadership of the 
Palestinian Authority appears willing to compromise but it is not clear 
it is strong enough to do so given the political and armed opposition 
of Hamas. Hamas, by contrast, might well be able to make peace if it so 
chose; the problem is that there is no evidence it is so disposed.
    In this circumstance, the most valuable thing the United States 
could do is to begin to articulate publicly its views of final status. 
This could be done either as part of phase 3 of the roadmap or apart 
from it. The United States has already done some of this, making clear 
in a letter to then-Prime Minister Sharon that the territorial 
dimension of any peace agreement would have to reflect Israeli security 
concerns and demographic realities, and that any Palestinian ``right of 
return'' would be limited to Palestine. It would be proper to state 
publicly as well that any peace would be based on the 1967 lines, that 
Palestinians would receive territorial compensation whenever there were 
deviations, and that they would receive economic compensation (and 
assistance more generally) to help deal with the refugee problem and 
more broadly the challenge of establishing a viable state. The United 
States could indicate its own readiness to be generous and gain pledges 
from Japan, the European Union, and Arab governments to more than match 
American largesse.
    In suggesting this I want to be clear about two things. First, I am 
not recommending that negotiations be started now. Again, the situation 
is not ripe for that. But by articulating such commitments, the United 
States can alter the debate within the Palestinian society. Hamas needs 
to be pressed to explain why it resists negotiating with Israel and 
persists in violence when an attractive diplomatic settlement is 
available. The goal should be to strengthen the hand of Abu Mazen--or 
to create conditions in which Hamas evolves and moves away from 
violence. If and when such changes occur, prospects will improve for 
diplomacy between Israelis and Palestinians.
    Second, progress in the Palestinian issue will not affect the 
situation on the ground in Iraq. Iraqis are killing one another for 
many reasons, but promoting a Palestinian state is not one of them. 
Still, investing more in this issue makes sense on its merits and as 
one way of giving America's Sunni friends a positive development to 
point to, something that will bolster their domestic standing and make 
it less difficult for them to be seen to be cooperating with the United 
States.
    It is also important to look beyond the immediate region of the 
Middle East. The United States could enter into bilateral talks with 
North Korea and present it with a comprehensive proposal that would 
attempt to induce it (as well as pressure it) to give up its nuclear 
program. The United States could introduce ideas about how to slow 
climate change. Trade negotiations are stalled and could be jump-
started. There is a genocide in Darfur that needs to be stopped. 
Afghanistan is deteriorating; economic, military, and diplomatic 
resources are needed urgently if that country is not going to resemble 
Iraq in several years time. Much more can and should be done to enhance 
the security of the American homeland. And there is the crying need for 
an energy policy that will reduce American use of oil and gas and 
reduce our dependence on imports (U.S. vulnerability to both price 
hikes and supply interruptions) and slow the flow of dollars to 
governments that in many cases are carrying out policies inimical to 
U.S. interests.
    Iraq gets in the way of much of this. It is simply absorbing too 
many, resources. The military commitment there leaves the United States 
with little leverage to apply elsewhere and little capacity to use if 
situations warrant. Iraq is also absorbing economic resources, 
resources that could and should be used for everything from military 
modernization to other pressing domestic and international needs. Iraq 
contributes to anti-Americanism and makes it more difficult for the 
United States to drum up support for its policies. It also requires a 
great deal of time and political capital, time and effort that could 
better be spent on building support at home and abroad for other 
policies. And an emphasis on Iraq also carries with it a longer term 
risk: If things continue to go badly, it becomes more likely that we 
will suffer a collective allergy (an ``Iraq syndrome'') that will 
constrain the ability of this country to be as active in the world as 
it needs to be.
    In short, the time has come for the post-Iraq era of American 
foreign policy to get under way. Such a transition is long overdue. I 
have written at length on the proposition that this moment of history 
is one of unprecedented opportunity. Not having to worry about the 
prospect of major power conflict, the United States is free to devote 
the bulk of its resources to dealing with the local, regional, and 
global challenges of our era. What is more, it has the potential to 
enlist the active support of the other major powers--China, Europe, 
India, Japan, Russia, and others--in tackling these challenges. But so 
long as Iraq drains American resources, distracts its attention, and 
distances others from us, we will not be able to translate this 
opportunity into reality. Worse yet, the opportunity will fade. We 
should keep in mind that it will be Iraqis who will largely determine 
their own fate. Only by reducing the American stake in Iraq and by 
refocusing our energies elsewhere will we place ourselves in a position 
to improve our own.

    The Chairman. Thank you very much.
    Professor.

 STATEMENT OF DR. VALI R. NASR, PROFESSOR OF NATIONAL SECURITY 
        AFFAIRS, NAVAL POSTGRADUATE SCHOOL, MONTEREY, CA

    Dr. Nasr. Good morning. Let me begin by thanking Mr. 
Chairman and the committee for inviting me to testify here.
    I've submitted my full statement for the record, so I 
will----
    The Chairman. It will be placed in the record.
    Dr. Nasr [continuing]. Raise some of the issues here--in 
particular, focus on the implications of the sectarian violence 
in Iraq, for that country and for the region.
    There's no doubt that the year 2006 has marked the 
emergence of sectarianism as a major divide in Middle East 
politics. It's now the single-most important factor in deciding 
Iraq's future, but it's no longer just limited to Iraq. In 
Lebanon, last summer, we saw that war between Israel and 
Hezbollah very quickly opened a sectarian rift in that country 
between the Shias and the other communities, which has only 
been deepening as Hezbollah has been trying to overthrow the 
government in Beirut. The competition over Lebanon and in Iraq 
has intensified tensions between Saudi Arabia and Iran, which 
has, in recent months, taken increasingly sectarian tone.
    In the coming years, one, we can expect that sectarianism 
is going to play a much more important role in deciding 
regional alliances and how our allies and adversaries are 
likely to array themselves in various arenas of conflict in the 
region. At a popular level, we should also expect that 
sectarianism is going to be a radicalizing force in the Middle 
East. At a time where we're still involved in the global war on 
terror. Shias and Sunnis, on both sides, as they gravitate 
toward militias, are likely to resort to more and more radical 
ideas to demonize one another and also to compete in the anti-
American/anti-Israeli arena for the support of the Arab street.
    I think there is, at this moment in time, also a very 
serious threat that sectarianism may become endemic, much more 
embedded to the conflicts in the region, and, more importantly, 
that it will also entangle the United States Middle East policy 
in this problem. The potential is increasing, partly because in 
Iraq the United States is now poised to become far more 
directly immersed in that country's sectarian conflict, and 
also because it is contemplating a much more confrontational 
approach with Iran at a time--in alliance with Sunni Arab 
regimes who are defining the rivalry with Iran, at this point 
in time, in, very clearly, Shia, Sunni, and sectarian terms. 
Embarking and embracing the posture of the Arab governments at 
this point in time as a mantra for American policy in the 
region will only confirm and perpetuate what I see to be the 
most violent and divisive trend that has emerged in that 
region, and it potentially will be a source of problem for the 
United States.
    And, in Iraq, two things in 2006 happened. One is that we 
saw sectarianism grow. The second trend was that we had a 
distancing of relations between Americans and the Shias, who 
initially welcomed and supported the American involvement in 
Iraq. This had, in the first place, to do with the bombing in 
Samarra, but it also had to do with an American decision in 
2006 to shift its focus from fighting the insurgency to 
policing the sectarian politics in Iraq. For better or for 
worse, the Shia saw these shifts as a threat to their sense of 
security, and also, the bombing put to question whether 
reconciliation with Sunnis is at all possible. And in this 
environment, their politics turned to radicalism, following 
militias and people like Muqtada al-Sadr. I think, given the 
mood and--on the Shia street, it is clear that the United 
States is not going to get cooperation from the Maliki 
government unless it first make progress on the insurgency 
issue, and others address security concerns on the other side. 
And in this context, a surge that could potentially take on 
Shia militias directly can actually open a completely new 
front; namely, a direct confrontation between the United States 
and the Shias, and potentially a Shia insurgency in Iraq, 
something that we have, so far, not seen in that country.
    Now, Iran is also connected to this discussion--2006 also 
saw the dramatic turn for the worst in Iran's relations with 
its neighbors and the United States. The hard-line President 
adopted a much more unbending position on the nuclear issue and 
escalated tensions with the United States and Israel 
deliberately. This confident and provocative attitude is 
reflective of a change in the environment of the region. Iran 
feels a lot more bullish and confident after the fall of the 
Taliban and Saddam Hussein, and the disruption of the Arab--of 
the Iraqi Army, which means that there is no military bulwark 
in the region in Iran's immediate neighborhood to contain 
Iranian military power. Iran today very clearly has hegemonic 
ambitions and would like its influence to--all the way from 
Central Asia to Persian Gulf to Lebanon to be recognized, 
essentially to view these areas as its ``near abroad,'' to use 
a term from the Russian vocabulary.
    Now, Iranian hegemony is a concern to countries around 
Iran, and to Saudi Arabia, in particular. And intensification 
of rivalry between the two of them will threaten regional 
stability. And, more so, I think, it will also fuel radical 
pro-al-Qaeda jihadi activism.
    When the last time--mainly because Sunni governments view 
and use extremism and sectarianism in order to confront 
Hezbollah and Iran's popularity on their own streets, these two 
countries had the rivalry similar to, today, in the 1980s and 
1990s. The consequence of that was al-Qaeda, Taliban, and 9/11. 
So, that threat once again is looming as we're seeing the 
specter of sectarianism rise.
    And I think, for the United States, containment of that 
rivalry rather than taking part in it should, of a singular 
more important objective, in bringing stability to the region 
and confronting the issue of terrorism and extremism.
    Now, the question before Washington for a long time has 
been how to deal with an ascendant bullish aggressive Iran, to 
engage it in order to influence its behavior or to confront it. 
There's no doubt, in the past 3 years Iranian involvement in 
Iraq has been an irritant, in many regards, to the United 
States. Many in this country have suggested that securing 
Iranian cooperation would be important to stabilizing Iraq, and 
success in that arena may translate into success in other 
arenas, such as the nuclear issue.
    Iraq presented a particularly opportune opening, mainly 
because, even as we speak, U.S. interests and Iranian interests 
still, on many issues in Iraq, seem to be converging. Iranian 
influence and assets in Iraq are very important to the 
stability of that country because of the depth and breadth of 
cultural, political, social, and economic relations between 
Iran and the majority of Iraq's population to the south, which 
are the Shia. So, whether or not it is possible to leverage 
that influence to U.S.'s--to serving the U.S.'s interest is 
something that should be explored.
    Second, as Ambassador Haass mentioned, Iran does not want 
Iraq to fail or to break up, mainly because it doesn't want a 
Kurdish state in their north. Iran does not want a costly civil 
war next door to it. And Iran also wants the Shia government in 
Baghdad to succeed, and the Shias to consolidate the powers 
that they have gained since 2003. In fact, for that reason it 
has supported the political process in Iraq--elections, 
governments, et cetera--since then, although it must be said 
that the environment of distrust and tensions with the United 
States has led Iranians to follow a policy of controlled chaos 
in Iraq; namely, keep it on a sufficient boiler so that the 
United States will be preoccupied and the American people will 
lose appetite for any kind of military engagement in Iran.
    Now, despite the potential for having an opening over Iraq, 
it hasn't materialized. And, in fact, it seems that the policy 
is likely to be that rolling back Iranian influence in Iraq and 
the rest of the region is seen as a solution to the myriad 
Middle East problems we're facing from Lebanon to the 
Palestinian issue, all the way to Afghanistan. Now, the--a 
policy that's focused on Iran rather than Iraq, and is built on 
the Arab Iranian Sunni-Shia divide in the region, will only 
escalate conflict in Iraq by making Iraq into a battleground 
between Iran and the United States, and, ultimately, Saudi 
Arabia and Iran. This is not something for the future. In fact, 
an attempt to exclude Iran from Iraq will likely provoke this 
rather than the departure of the United States from Iraq. And 
it also will not remain in Iraq, it will spread to the rest of 
the Middle East. It will entrench sectarianism and deepen 
American involvement in the Middle East.
    Now, this is somewhat reminiscent to a policy that was 
followed in the 1980s and 1990s to contain the Iranian 
revolution, at which time the United States supported an Arab-
Sunni alliance to contain Iran in the region. However, there 
are some important differences to be noticed. One is that Iran 
was far weaker than it is today, particularly on the nuclear 
issue. Second, containment of Iran in the 1980s and 1990s 
rested on Iraq's military capability. And third, success of 
this strategy of containment of Iran during those decades owed 
a good deal to the presence and importance of Taliban, jihadi 
activists, and all of those who were ultimately responsible for 
9/11.
    Today, there is no Iraqi military bulwark. The task of 
militarily confronting and containing Iran will fall on the 
United States shoulders in a long-term situation. Moreover, we 
saw the cost, in 2001, of a policy of the region, trying to 
mobilize radical Sunni ideology in order to confront Shia 
influence. If we are to revert to that containment strategy one 
more time, given the array of forces in the region, given the 
weakness--military weakness of countries around Iran--we ought 
to contemplate that we're going to be in the Persian Gulf, as 
well as the rest of the Middle East, for a very long time, and 
this is a long-term commitment that would require us to deploy 
in various arenas of conflict.
    Now, it also would place the United States squarely in the 
middle of regional conflicts, and at a time when we're going to 
be seeing ideological extremism and terrorism to be escalating. 
The consequences on open conflict and attack, as was also 
mentioned by Ambassador Haass, are, I think, very great. First 
of all, today I think the Iranian regime, despite all of its 
negative behavior, sees stability in the Persian Gulf to be in 
its interests. It abandoned the goal of exporting revolution 
about a decade ago, and has, so far, sought to increase its 
influence within the existing regional power structure. It 
improved its relations with its neighbors. It normalized 
relations with Saudi Arabia. It supported stabilization of 
Afghanistan in 2001, and that of Iraq, at least in the initial 
phase, by supporting elections and the government.
    Now, an open conflict with Iran will reverse this. It will 
entrench and strengthen the Iranian regime. It will rally the 
Iranian population to the flag. It will weaken the drive in 
Iran for democracy, and will divert attention of the Iranian 
people from economic and social problems. It will also 
radicalize the Iranian regime and make it far more dangerous to 
its neighbors. It will, without a doubt, become far more 
dependent--determined to acquire weapons of mass destruction 
and to destabilize the Middle East and try to spread the United 
States and its Arab allies in as many arenas of conflict as it 
can--it is possible.
    Now, confronting Iran directly, particularly if it ends up 
in a military situation, I think, will also worsen the 
situation in Iraq, and it also will spread to other arenas of 
conflict--in Afghanistan, in particular, the Persian Gulf, 
Palestinian territories, and Lebanon. It will also inflame, I 
think, anti-Americanism across the Muslim world.
    There are serious disagreements between the United States 
and Iran, most notably over the nuclear issue, and it is very 
important for the United States to address that. However, for 
so long as Iran sees benefit in stability in the Persian Gulf 
and accepts the governments in Afghanistan and Iraq, engagement 
could provide a path to influencing its behavior for the 
better. Although, as was mentioned, engagement is not likely to 
quickly or cheaply yield results, it has the benefit of 
continuing to deepen Iranian involvement in its own region 
rather than give it an incentive to stabilize that region.
    I think, at this point in time, no two countries matter 
more to the future of the Middle East than the United States 
and Iran. In many ways, the future of that region will be 
decided in the crucible of competition, cooperation, 
engagement, or confrontation between these two countries. And I 
think a policy that will bring stability to that relationship 
will both--will most effectively serve our purposes in conflict 
in Iraq, in stabilizing the Persian Gulf, as well as preventing 
a further escalation of tensions in Afghanistan, Lebanon, and 
the Palestinian territories. And I think, talking about 
linkages, it is not so much that--as was mentioned, that the 
Palestinian issue is a solution to Iraq and to the problem with 
Iran, it's the other way around, that Iran and Iraq, and 
stability there, is more important, in terms of also having 
achievements in the Palestinian arena.
    Thank you very much.
    [The prepared statement of Dr. Nasr follows:]

  Prepared Statement of Dr. Vali Nasr, Professor of National Security 
Affairs, Naval Postgraduate School, and Adjunct Senior Fellow, Council 
                   on Foreign Relations, Monterey, CA

    Since 2003 Shia-Sunni conflict has emerged as a major divide in 
Middle East politics, and radically changed the regional context for 
U.S. policy. Sectarian violence is no longer just limited to Iraq, but 
has expanded in scope to influence regional development from the 
Persian Gulf to Lebanon, adding new complexity to the conflicts in the 
region and presenting a serious foreign policy challenge to the United 
States. Taking stock of the risks and visible dangers that this change 
presents is a significant challenge facing U.S. policy in the Middle 
East.
    In Iraq sectarian violence has derailed the effort to build a 
viable state, and is today the single most important threat to the 
future of that country. In Lebanon following the summer war between 
Israel and Hezbollah a sectarian rift opened between Shias on the one 
hand, and Sunnis and Christians on the other. That rift is deepening as 
Hezbollah pushes to unseat the Sunni-led government in Beirut. Lebanon 
and Iraq have in turn escalated tensions between Saudi Arabia and Iran. 
The competition between the two regional rivals has in recent months 
taken an increasingly sectarian tone. The sectarian competition even 
extends to extremist jihadi organizations associated with al-Qaeda. 
These groups have supported al-Qaeda elements in Iraq, and have 
intensified their anti-Shia rhetoric and attacks in the Middle East and 
South Asia.
    All this suggests that Iraq has introduced sectarianism to 
conflicts and rivalries in the Middle East. The Shia-Sunni rivalry in 
religious, as well as secular arenas, will likely be an important 
factor in the near future. This trend was clearly evident during the 
war in Lebanon last summer when Hezbollah's growing influence elicited 
a sectarian reaction from Arab capitals as well as a number of 
extremist jihadi Web sites. The condemnation of Hezbollah as a Shia 
organization indicated that although the conflict itself was not new, 
the response to it was not decided by the Arab-Israeli issue alone but 
sectarian posturing.
    For the United States the rising sectarian tensions present a 
number of challenges:
    1. Sectarian violence will determine the fate of Iraq and what that 
will mean for U.S. standing and interests in the Middle East.
    2. Sectarianism will play an important role in deciding regional 
alliances in the Middle East and how various states and substate actors 
will act. Sectarianism will compete with, as well as interact with, 
other concerns such as the Arab-Israeli issue: Political and economic 
reform, and support for U.S. policies, most notably the global war on 
terror. This will complicate the management of U.S. interests.
    3. Sectarian conflict will color relations of Middle East states, 
but conflicts where they occur are likely to be waged by nonstate 
actors--militias and political organizations. This will contribute to 
regional instability and increases the likelihood of violence.
    4. Sectarian conflict is a radicalizing force. Shia and Sunni 
militias will inevitably gravitate toward more radical ideas to justify 
their actions. In Iraq, the greatest violence against Shias was 
perpetuated by the Jordanian terrorist Abu Musab al-Zarqawi and his al-
Qaeda forces. In the Arab world and Pakistan violent anti-Shiism is the 
domain of radical pro-al-Qaeda clerics, Web sites, and armed groups. 
Sectarianism--especially among Sunnis--is a driver for radical jihadi 
ideology. Among the Shias in Iraq sectarian violence has had a similar 
effect. It has shifted power within that community to the radical 
forces of Muqtada al-Sadr and his Mahdi Army. The specter of U.S. 
confrontation with Shia militias and Iran will likely accelerate this 
trend.
    5. The sectarian dimension of regional politics is of direct 
relevance to the growing tensions in United States-Iran relations. 
Conflict between the United States--in alliance with Sunni Arab regimes 
who view the Iranian challenge in sectarian terms--and Iran will 
exacerbate sectarian tensions, and further embed them in regional 
conflicts.

                          ROOTS OF THE PROBLEM

    Shias and Sunnis represent the oldest and most important sectarian 
divide in Islam, the origins of which go back to the seventh century to 
a disagreement about who the Prophet Muhammad's legitimate successors 
were. Over time, the two sects developed their own distinct conception 
of Islamic teachings and practice which has given each sect its 
identity and outlook on society and politics. Shias are a minority of 
10-15 percent of the Muslim world, but constitute a sizable portion of 
those in the arc from Lebanon to Pakistan--some 150 million people in 
all. They account for about 90 percent of Iranians, 70 percent of 
Bahrainis, 65 percent of Iraqis, 40 percent of Lebanese, and a sizable 
portion of the people living in the Persian Gulf region. Despite their 
demographic weight outside Iran the Shias had never enjoyed power.

                THE SIGNIFICANCE OF DEVELOPMENTS IN IRAQ

    No where was the plight of the Shia more evident than in Iraq. 
Under Saddam Iraq was a sectarian state that had routinely brutalized 
Shias. After the first Iraq war in 1991 the Kurdish areas of Iraq were 
removed from Saddam's control. In the Arab south that he ruled, the 
Shia portion of the population is even larger, approximating 80 
percent. After that war the Shias in the south rose in a rebellion 
which was brutally suppressed with as many as 300,000 Shias dying and 
many more escaping to Iran. Between 1991 and 2003 Saddam's rule was 
sustained by suppression of Shias. The sectarianism that we see in Iraq 
has its roots in the sectarianism that was practiced by Saddam's 
regime.
    The U.S. invasion and occupation of Iraq in 2003 was of symbolic 
importance to the Middle East. The war ended minority Sunni rule in 
Iraq and empowered Shias, and this has in turn led to a Shia revival 
across the Middle East that as a cultural and political force will 
shape regional politics. Iraq has encouraged the region's Shias to 
demand greater rights and representation, but also to identify 
themselves as members of a regionwide community that extends beyond 
state borders. The Shia revival has also raised Iran's status as the 
region's largest Shia actor. It was for this reason that Shias 
initially welcomed America's role in Iraq--the most important Shia 
spiritual leader, the Grand Ayatollah Ali al-Sistani encouraged the 
Shia to embrace the political process introduced to Iraq by the United 
States by voting and joining the newly established security forces.
    However, the shift in the sectarian balance of power met with Sunni 
resistance, first in Iraq but increasingly in Arab capitals. The fall 
from power of Sunnis in Iraq has ended their hegemonic domination of 
regional politics and diminished the power of Sunni regimes and ruling 
communities. This has led to a Sunni backlash that is reflected in the 
ferocity of insurgent attacks in Iraq since 2003, criticism of U.S. 
policy in Iraq in friendly Arab capitals and unwillingness to help the 
new Shia-led Iraqi Government, and growing anti-Shia and anti-Iranian 
tenor of radical jihadi propaganda.
    The insurgency that the United States confronted during the first 
two years of the occupation was largely Sunni in character. It drew on 
the Sunni belief in manifest destiny to rule, anger at loss of power in 
Baghdad, and the resources of Sunni tribes, foreign fighters, radical 
ideologies, and Baath Party and former Sunni officer corps to wage a 
campaign of violence against the U.S. occupation and also to prevent 
the Shia consolidation of power in the belief that a hasty U.S. 
departure will lead to a collapse of the current government and 
restoration of Sunni rule.
    For the first 2 years of the occupation the Shia showed great 
restraint in the face of insurgent attacks on Shia targets, heeding the 
call of Ayatollah Sistani not to ``fall into the trap of a sectarian 
war,'' but also trusting that the United States would defeat the 
insurgency. All that changed in 2006 as Shias abandoned restraint 
favoring retaliation. Radical voices of the like of Muqtada al-Sadr 
drowned Sistani's call for restraint and moderation. Two developments 
were instrumental in changing Shia attitude:
    1. The bombing of the Shia holy shrine in Samarrah in February 
2006. The Samarrah bombing was a psychological turning point for Iraqi 
Shias. It gravely threatened the Shia's sense of security and put to 
question the feasibility of reconciliation with Sunnis. It also raised 
doubts in Shia minds about the United States ability and willingness to 
defeat the insurgency--whose violent capabilities and ferocious anti-
Shiism was undeniable. Many also questioned the wisdom of exercising 
restraint, arguing that it had only emboldened the insurgency. The 
doubt provided an opening for Shia militias to step into the breach to 
provide security to Shia communities, but also to establish a ``balance 
of terror'' by attacking Sunni civilians. Iraq never recovered from the 
impact of Samarrah and fell victim to the vicious cycle of sectarian 
violence. The political process failed to focus the country back on 
reconciliation.
    2. The Shia anger and reaction to the Samarrah bombing was 
aggravated by a shift in U.S. strategy in Iraq that would alienate the 
Shia and deepen their distrust of the United States. This would in turn 
reduce American influence over Shia politics--now at its lowest point--
and raise the stock of anti-American forces of Muqtada al-Sadr, and his 
Mahdi Army, which would escalate attacks on Sunnis as it spread its 
control over Baghdad and the Shia south.
    The United States had hoped that the December 2005 elections would 
turn Iraq around. The United States had persuaded Sunnis to participate 
in the elections and join a national unity government, hoping to, 
thereby, end or at least damp down the insurgency, but that did not 
come to pass. Hoping to win the support of Sunni politicians Washington 
began to distance itself from the Shia. It pressured the Shia on the 
issue of their militias, as well as the unpopular notion of amnesty for 
former Baathists. Shias resisted. Especially after Samarrah they saw 
the insurgency rather than their own militias as the problem--Shia 
militias, they pointed out, were often the only forces effectively 
defending Shia neighborhoods against car bombs. Shias also saw the 
overt U.S. push for a national-unity government as coddling the Sunnis 
and, worse yet, rewarding the insurgency. With the insurgency in full 
swing, Shias worried that American resolve was weakening. This 
convinced them more than before that they needed their armed militias--
reflected in their cool reception to the surge of 20,000 troops 
announced by the administration.
    2006 proved to be a turning point in U.S.-Shia relations. U.S. 
strategy during that year became one of shifting the focus of its 
military operations from fighting the insurgency to contain Shia 
militias in the sectarian fight in Baghdad. The Shia saw this as a tilt 
away from them toward the Sunnis--addressing their security demands 
rather than those of Shias. That this happened at a time of great 
anxiety in the Shia community following the Samarrah bombing did not 
help the U.S. position. In particular, that a year on the U.S. strategy 
of working more closely with Sunnis had not weakened the insurgency--
which still by some estimates accounts for 80 percent of U.S. 
casualties in Iraq--nor had it reduced the rate of attacks on Shia 
targets. What it achieved was to create doubts as to whether the United 
States was a reliable ally. Those doubts benefited Muqtada al-Sadr and 
weakened moderate Shia voices.
    It is now clear that Shias are not willing to give up on their 
militias--which they believe is the only credible bulwark against 
sectarian attacks by the insurgency without security guarantees from 
the United States. That means that the United States will get 
cooperation from Shias on the issue of militias only after it has shown 
gains in containing the insurgency. Shias will resist disarming so long 
as the insurgency is a threat.
    The radicalization of Shia politics is likely to worsen if the U.S. 
military directly targets Shias forces in Baghdad. That could provoke a 
Shia insurgency in Baghdad and the Iraqi south--among the largest 
population group in Iraq--which would present the United States with a 
vastly broader security challenge, one that can overwhelm U.S. forces. 
The United States today is hard-pressed to defeat the insurgency that 
it is facing, but runs the danger of provoking a potentially larger 
one.

                     BROADER REGIONAL IMPLICATIONS

    The radicalization of Shia politics in Iraq has coincided with 
developments elsewhere in the region to make 2006 the fateful year 
during which the sectarianism that began in Iraq turned into a regional 
dynamic. That the United States was slow to understand the convergence 
of sectarianism and regional politics accounts for its limited ability 
to coherently manage the cascading conflicts in Lebanon, Iraq, and over 
Iran's nuclear program.
    In summer 2006 the war with Israel emboldened Hezbollah just as it 
divided Lebanon along sectarian lines. The Lebanon war marked the 
regionalization of sectarian tensions that were manifest in Iraq. The 
reaction of Arab governments and a number of pro-al-Qaeda jihadi 
leaders and Web sites to Hezbollah's campaign was unexpectedly 
sectarian, departing from the customary unity against Israel. Since the 
war Lebanese politics has taken an increasingly sectarian tone as 
Hezbollah's drive to topple the Lebanese Government has viewed as a 
Shia power play by Lebanon's other communities; and since the regional 
reaction to developments in Lebanon has pitted Iran against the 
traditional Sunni power brokers in the region: Egypt, Jordan, and Saudi 
Arabia.
    What is evident in the aftermath of the Lebanon war is that the 
sectarian rivalries that first surfaced in Iraq now compete with the 
Arab-Israeli conflict to determine regional alliances and political 
attitudes of ordinary people. Hezbollah and Iran would prefer to focus 
the region on the Arab-Israeli issue and to gain support as champions 
of the Palestinian cause. However, they have faced resistance in 
pursuing this agenda from regimes and radical Sunni groups who see Iran 
and the sectarian issue as more important. In this environment the 
intensification of sectarian conflict in Iraq and its growing regional 
dimension has led Hezbollah and Iran to intensify their campaign 
against Israel in the hope of diverting attention from the divisive 
role that Iraq is playing in the region.
    2006 also witnessed a dramatic turn in U.S.-Iran relations. In 2005 
Iran elected a hard-line President, who invigorated Iran's 
determination to pursue its nuclear program just as he escalated 
tensions with the United States and Israel. This confident and 
provocative attitude is reflective of change in the strategic 
environment in the region, and Iran's belief that it enjoys a stronger 
position than it did in 2003. Iran benefited from regime changes in 
Afghanistan and Iraq. The fall of the Taliban and the Saddam regime 
provided Iran with greater space to assert its influence in the region, 
and the destruction of the Iraqi Army removed a significant bulwark 
against Iranian ambition and influence in the Persian Gulf. The 
occupation of Iraq has depleted American power and prestige making it 
harder to contain Iran, which has seized the opportunity to spread its 
wings. Rising Iranian clout has fed, and been fed, by the Shia revival 
that swept across the Middle East in the wake of the Iraq war. Iran 
today has hegemonic ambitions in the Persian Gulf and sees itself as a 
great power, and it views nuclear capability as the means to attain 
that goal. What Iran seeks is for the United States to accept Central 
Asia, Afghanistan, and the Persian Gulf as Iran's ``near abroad''--a 
zone of influence in which Iran's interests would determine ebbs and 
flows of politics--and to recognize Iranian presence in Syria and 
Lebanon.
    The specter of Iranian hegemony has been a source of concern for 
Iran's neighbors. Saudi Arabia, in particular, has viewed Iran's gains 
in Iraq and its growing influence in Lebanon and over the Palestinian 
issue with alarm. Intensification of the rivalry between the two 
threatens regional stability, and more importantly can fuel pro-al-
Qaeda jihadi activism. The rivalry between the two in Afghanistan and 
South Asia in the 1980s and 1990s served as the context for 
radicalization that ultimately led to 9/11.
    There is no doubt that managing Iran poses an important challenge 
to U.S. foreign policy, one that extends beyond the nuclear issue and 
the threat to Israel. The question before Washington has been whether 
to engage Iran to influence the course of its development or to contain 
it. In the past 3 years, Iranian involvement in Iraq has been an 
irritant to Washington. Many, including the Iraq Study Group, have 
suggested that securing Iranian cooperation is important to stabilizing 
Iraq--and success in that arena may translate into success in dealing 
with the nuclear issue. Iraq presented an opening in part because U.S. 
and Iranian interests in Iraq, even today, appear to converge on key 
issues: Iran does not want Iraq to fail or break up (fearing an 
independent Kurdish state), and a civil war in Iraq is worrisome to 
Tehran. Iran wants the Shia government in Baghdad to succeed, and for 
Shias to consolidate the gains that they have made since 2003. In fact, 
since 2003 Iran has supported the political process--elections, 
constitution, and governments--that the United States introduced to 
Iraq. The possibility of engagement, despite the potential for positive 
benefits for Iraq, has so far remained remote, and now seems to be 
disappearing altogether.
    It now appears that U.S. policy is gravitating toward confrontation 
with Iran, not only in Iraq but across the region. Washington appears 
to see rolling back Iranian influence as the key to resolving various 
regional problems. A policy that is focused on Iran rather than Iraq 
will escalate conflict in Iraq and across the Middle East, thereby 
deepening American involvement in the region with the potential for 
adversely impacting U.S. interests.
    This policy is reminiscent of the containment strategy of the 1980s 
and early 1990s when the United States rallied Iran's neighbors to 
contain the spread of the Iranian revolution. However at that time, 
Iran was weaker, and containment of Iran was anchored in Iraq's 
military capability, and Taliban and radical Sunni ideology's ability 
to counter Shia Iran's influence. But today the Iraqi military bulwark 
is no longer there. The task of militarily confronting and containing 
Iran will fall on U.S. shoulders. Moreover, in 2001 it became evident 
that the cost of Sunni containment of Shia Iran was the rise of radical 
Sunni jihadi ideology, al-Qaeda, and 9/11.
    Reverting to the old containment strategy today, given the current 
capability of Iran's neighbors in the Middle East and the balance of 
power in the region, would mean a long-time American commitment to 
staying in the Persian Gulf and deploying to other arenas of conflict 
in an environment of growing radicalism. It would place the United 
States at the heart of the region's conflicts and vulnerable to 
ideological extremism and terrorism, all of which will likely only 
escalate as a consequence.
    The consequences of conflict with Iran will be grave for the region 
and U.S. interests. Conflict will radicalize the Iranian regime, and, 
more important, the Iranian public. Conflict will adversely impact 
political developments in Iran, entrenching and strengthening the 
Iranian regime, which will rally the population to the flag. Anti-
Americanism and ideological radicalism has not been a staple of popular 
politics in Iran for some time now. It has been the quest for democracy 
that has dominated Iranian imagination--sharply contrasting with the 
popular mood in the rest of the Middle East. That trend will likely be 
reversed in the advent of conflict.
    The Iranian regime today sees regional stability in its interest. 
Iran abandoned the goal of exporting its revolution to its Persian Gulf 
neighbors at the end of 1980s, and has since acted as a status-quo 
power. It seeks influence within the existing regional power structure. 
It improved its relations with its Persian Gulf neighbors throughout 
the 1990s, and in particular normalized relations with Saudi Arabia. 
Iran supported stabilization of Afghanistan in 2001 and that of Iraq 
during the early phase of the occupation. Conflict will change the 
direction that Iranian foreign policy has been following. The process 
of greater engagement of Iran with the region, and its inclusion in its 
political and economic structures that has characterized the past 
decade will be reversed. Iran will likely become more dangerous to its 
neighbors, a trend which the United States will be hard-pressed to 
control or reverse without escalating conflict even further and 
committing itself to greater presence in the region.
    Confrontation with Iran will likely worsen the situation in Iraq, 
but its impact will not remain limited to Iraq. It will unfold in 
different arenas across a large expanse of territory from Afghanistan 
to the Persian Gulf, the Palestinian territories and Lebanon, as well 
as in various forms outside of the Middle East. It will inflame anti-
Americanism in the Muslim world. The costs of such a conflict will far 
exceed what the United States confronts in the region today, in 
particular if the conflict leads to a war with Iran--a country that is 
vastly larger and more populous than Iraq. Conflict will also make Iran 
more determined to acquire WMD and to destabilize the Middle East. That 
will expand the scope and intensity of conflicts that impact U.S. 
interests, as well as reverse gains made so far in the war on terror.
    There are serious areas of disagreement between the United States 
and Iran over the nuclear issue, and Iran's role in Lebanon, the 
Palestinian conflict, and Iraq. U.S. concerns with Iranian ambition and 
policies must be addressed. However, for so long as Iran sees benefit 
in stability in Afghanistan, Iraq, and the Persian Gulf, engagement 
could provide a path to influencing its behavior to serve U.S. 
interests and those of its neighbors. Although engagement is not likely 
to quickly or cheaply yield what the United States wants from Iran, it 
still has the benefit of deepening Iranian involvement in, and 
commitment to, the regional order that the United States is seeking to 
bolster.

                     CONTENDING WITH THE CHALLENGE

    U.S. interests would be best served by a policy approach that is 
premised on the following:
    1. In Iraq, it is imperative to work for a political settlement 
that would limit the scope of sectarian violence. The chaos in Iraq is 
a consequence of the absence of a credible political process and 
roadmap to sectarian peace and state-building. The violence cannot be 
brought under control through military means. Only a political plan of 
action, which can credibly move the fighting parties toward compromise 
will remove the incentive for violence and change the dynamic on the 
ground.
    The national unity plan that was conceived at the end of 2005 was 
put before Iraqis at a different time when violence had not deepened 
animosities on both sides and when the United States had much more 
leverage with Shia leaders as well as their followers. The time for 
that plan has passed, and pressuring the Iraqi Government by placing 
benchmarks before it will not change that fact. If national unity is 
still attainable it will have to come through a new plan.
    There exists a danger that in the coming months the ``surge 
strategy'' will extend the scope of the conflict by provoking a Shia 
insurgency. Shia militias have so far not been fighting U.S. troops; 
but direct confrontation can transform their sectarian war into a Shia 
insurgency--something Iraq has so far not faced. The majority of Iraq's 
population, especially in the critical Arab regions, is Shia. An anti-
American Shia insurgency, at a time when the Sunni insurgency 
continues, will significantly increase the burden on the U.S. military 
in Iraq. It will also further radicalize Shias in the region. 
Radicalization of Shias--will mark a significant expansion in the scope 
and intensity of threat to U.S. security and interests, and will 
adversely impact the global effort to contain radicalism and terrorism. 
Shia militias are a problem for Iraq, but an escalation of the conflict 
by turning them into an anti-American force will benefit neither Iraq 
not the United States.
    2. Anchoring United States Middle East policy in containing Iran 
will expand the scope of the conflict in the region rather than reduce 
it. It will also increase the scope of the terrorist threat to the 
United States rather than reduce it. Such a policy will also require a 
long-term U.S. presence in the Middle East. The United States should 
rather seek to deescalate tensions in the region by promoting political 
solutions to crises in the Palestinian territories, Lebanon, Iraq, and 
the nuclear standoff with Iran. The United States should not tie all 
these conflicts to the challenge of Iranian hegemony, and not view a 
broader conflict with Iran as a solution to challenges facing the 
Palestinian issue, Lebanon and Iraq. No two countries matter more to 
the future of the Middle East than the United States and Iran. The 
importance of stability in U.S.-Iranian relations for the future of the 
Middle East cannot be overemphasized. Engagement rather than conflict 
presents the most realistic chance for achieving that goal.
    3. The United States must take steps to discourage regional actors 
from using sectarianism as a foreign policy tool. Investment in 
sectarian voices and especially radical Sunni organizations of the al-
Qaeda type most closely tied to sectarian ideology and violence will 
not only intensify the conflict but promote extremism to the detriment 
of the broader U.S. interests in the region. As great a challenge as 
Shia ascendancy and Iranian aggressiveness is to the United States and 
its allies strengthening the ideological and organizational bases of 
Sunni extremism will only further threaten U.S. interests.

    The Chairman. Thank you very much.
    I'm going to yield for a moment to Chairman Lugar.
    Senator Lugar. Mr. Chairman, let me indicate that a number 
of Republican Senators, including some members of this 
committee, have been invited by Steve Hadley, our National 
Security Director, to meet with him immediately in the 
Roosevelt Room at the White House. I'm among those that have 
been invited, and feel that I need to accept that invitation. 
And so, I apologize for the absence of some members from the 
committee, at this point, but we----
    Senator Kerry. We should bring Hadley up here to listen to 
these guys.
    Senator Lugar. Well, we have had some remarkable testimony, 
and I appreciate your yielding to me.
    The Chairman. If you would like to--I'd yield to you, if 
you want to ask a couple of questions----
    Senator Lugar. No; I think I----
    The Chairman [continuing]. Before you leave.
    Senator Lugar [continuing]. I will depart, at this point--
--
    The Chairman. OK.
    Senator Lugar [continuing]. To make this engagement. Thank 
you very much.
    The Chairman. Well, thank you, Senator. I fully understand 
it, and I think it's important you all do go down and see Mr. 
Hadley.
    And let me begin by thanking you all for your testimony. 
And I'd like to focus, at the outset here, on when the 
Secretary of State was before us--and I'll address this to all 
three of you; if you can give me a short answer, I'd appreciate 
it--she indicated that direct negotiations with Syria and Iran 
would be--her words were, ``puts us in a role of supplicant''; 
it would be, ``extortion,'' not diplomacy. You've spoken to 
this. Can you tell me why there are those--and because these 
are very bright, respected people--why they would view it as 
extortion and/or us being a supplicant? You've all indicated we 
should engage, in some form or another. So, I mean, what's the 
motivation--I'm not being a wiseguy--I mean, what's happening 
on the other side of the divide here that views this as 
extortion--a pretty strong word--and as us being a supplicant? 
That seems to me to set the bar pretty high to get to the point 
where you now say, ``Well, yeah, we can now move to 
discussion.'' Is it a negotiating gambit or--what do you think?
    Richard. Mr. Secretary.
    Ambassador Haass. I don't think it's a negotiating gambit. 
I think it comes from an assessment of the relative standing or 
position of us vis-a-vis them, or, to use an old Soviet 
concept, Senator, I think the concern in the administration--
it's odd for me to talk for them now, I'm not sure I could talk 
for them when I worked for them, but let me try--I think the 
concern in the administration is that the so-called 
``correlation of forces'' has moved against the United States. 
Because of the situation in Iraq, because of the price of 
energy, because of what happened this summer in Lebanon, 
there's a concern that a negotiation involving Iran and Syria 
would give us precious few cards to play, and, again, finds 
them in the driver's seat. Needless to say, I disagree with 
that. It ignores some tremendous strengths that we have. It 
also ignores the possibility that if we don't like what we can 
negotiate, we can just walk. And, as I said before, I always 
think negotiations have two real purposes. One is to 
potentially reach an agreement. The other is to clarify. If 
they don't succeed, and if it turns out that Iran and Syria are 
being outrageous in their demands, then that can be quite 
useful to the Secretary of State and others as they go about 
trying to build regional and global support for some sort of a 
sanction.
    So, I don't understand, I don't agree with the reluctance 
to negotiate, but I do believe it largely stems from an 
assessment that our relative position has worsened.
    Let me say one other thing very quickly. There's an irony 
here, because when our relative position was quite strong 
several years ago, we also refused to negotiate.
    The Chairman. Yeah.
    Ambassador Haass. And the----
    The Chairman. Well, I was about to point that out, but I--
--
    Ambassador Haass. There was a reluctance to negotiate, 
then, because people felt it was not necessary and regime 
change was going to come.
    The Chairman. Well, look, the reason I ask it is--the 
purpose of these hearings is to try to enlighten us, as well as 
the American public. I start with the premise that there are 
some very bright people in this administration, so it's not 
just pique that it's suggesting, and I think it's an important 
explanation.
    Dennis, you wanted to comment on that?
    Ambassador Ross. I do, because I've had some exchanges, 
because I wrote an article in which I made a case for why we 
should be talking to the Syrians, although I do believe dealing 
with the Syrians and dealing with the Iranians requires what I 
call a stick-and-carrot approach, not necessarily a carrot-and-
stick approach. They have to know what they lose to concentrate 
the mind, but then they have to know, if they're prepared to 
change their behavior, what they get for it. So, it has to be 
both dimensions.
    What I've heard from the administration is, I think, three 
points. First is that, basically, the Syrians have made their 
choice; they feel that they have made their strategic choice 
with the Iranians, and there is--you're not going to be able to 
affect them, No. 1. No. 2 is their fear that the only thing the 
Syrians want is Lebanon, so you'll go in there, and immediately 
what you're doing is you're talking about Lebanon, and we don't 
want to be--we don't want to look like we're talking about 
Lebanon. And, No. 3--and they're certainly hearing it from the 
Saudis, especially in the aftermath of Bashar Asad's speech in 
which he referred to ``half-men,'' and the Saudis interpreted 
that as being, shall we say, more than a slur against them. 
They've heard, from the Saudis, that the worst thing in the 
world that we could be doing right now is sending the signal 
that we're prepared to go talk to them at a time when they 
think they're riding high.
    The Chairman. Gotcha.
    Ambassador Ross. Those are the--I think, the factors that 
influence them.
    The Chairman. Thank you.
    Let me go to--only a few minutes left here--Dennis. You 
indicated--and I happen to agree with you--that the only thing 
that's going to change the behavior of the Iraqis internally 
and work out--or attempt to work out some of the real risks 
each of the parties would have to take to deal with this 
sectarian violence--would be a real change. And I was asked, 
some time ago, when the President was whispering literally in 
the ear of Maliki, you know, ``Do you think it's a good 
thing?'' And I said, ``It depends on what he's whispering in 
his ear.'' If he's saying, ``Hey, Jack, if you don't straighten 
things out, we're leaving,'' that might get his attention. If 
it's, ``We're with you, don't worry. We'll send in 
reinforcements,'' then we're probably in trouble.
    I think everybody agrees, here, there needs to be a change, 
that there has to be, that old expression, there's nothing like 
a hanging to focus one's attention. This conundrum here, we, 
basically, it seems to me, have to send a message that we ain't 
hanging around for a long time. I assume that's why Richard and 
you and others, and the Iraq Study Group, and I all said we 
have to start to drawdown to send that message.
    Does the mere fact that we have sent in a surge, even 
though, quite frankly, he could have moved these troops around 
without going through all this--does that have--does that delay 
the inevitable, forcing the Iraqis to have to look at what they 
have to do in order to be able to deal with this issue?
    Ambassador Ross. It does, unless somehow you would 
condition the surge. In other words, we've got the first 
tranche of it beginning. If it became very clear that, 
``Nothing else happens unless we now see you begin to fulfill 
all the commitments you've now said you're prepared to make, 
whether it's the sharing of oil revenues or it's the de-
Baathification''----
    The Chairman. I asked that question. They made it clear 
that, no, there was no absolute conditioning. Now, I understand 
if an administration wouldn't say that publicly, but I don't 
understand an administration not saying that privately.
    Let me conclude. I don't want to run over my time; it may 
be, with the reduced number, we may be able to have a second 
round--but, Professor, as I said, I read your book with great 
interest. I thought your testimony was enlightening. I find one 
irony here, though. At the very moment the administration is 
getting involved in a ``surge,'' the argument I'm hearing from 
my contacts within Iraq that my staff and I keep after our 
seven trips over there--is that it's viewed as--by the Sunnis, 
at the moment--as a pro-Shia effort, that we are going after 
the Sunnis and leaving the Shia alone, and we are taking sides. 
The irony is, outside of Iraq the argument is we're siding with 
the Sunni states against the Shia. How does that play in the 
neighborhood?
    Dr. Nasr. Well, even within Iraq, many Shias have the same 
complaint; namely, that the troops should not have come to 
Baghdad at all, they should have been--the surge should have 
been at Al Anbar. And, in fact, I think Prime Minister Maliki 
tried to have his own security plan ahead of the announcement 
of the new strategy in order to avoid having--sending the 
troops in. That's exactly that--the dilemma, Senator. We're in 
an environment in the region, where, increasingly, there is a 
divide, in terms of opinion on a host of issues, and we're 
seeing that public opinion is following, in many of these 
issues, along sectarian lines. Part of the problem with the 
surge is that there is a military solution here, with no 
political plan to back it up. It would have been possible to--
--
    The Chairman. Exactly.
    Dr. Nasr [continuing]. Assuage the fears of both sides if 
there was a new political plan that would have shown a roadmap 
to peace with, I think, a step-by-step about how the United 
States can actually get the two sides to make the compromises, 
rather than just putting benchmarks at it. So, as a result, I 
think nobody believes that there is a political solution here. 
They see the--they see that this is essentially an effort to 
decommission their military assets at a time in which--where 
there's political uncertainty for them, and they're sort of 
circling the wagons.
    The Chairman. A cynical view expressed by some editorial 
boards, and, I must admit, by me and others, is, it could also 
be just to hand this off, just keep this going. But I'm not 
sure.
    My time is up. I'll come back, Professor; I want to ask you 
about specific Shia leaders and the degree to which they 
support, or don't support, this new effort.
    But, with that, let me yield to Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. And, to each of 
you, thank you for your continued contributions to helping, not 
just the Congress, but the American people, understand the 
depth of this issue.
    Mr. Ross, you ended your testimony almost like a book, 
chapter one. And it just kind of fell off the table with a not 
particularly optimistic view of not only Iraq, but the Middle 
East. So, my question to each of you is: Where do we go from 
here? We have heard, this morning, an inventory of consequences 
of bad decisions made over the last 4 years. And I thought the 
three of you presented not only the past issues, but the 
current dilemmas and challenges rather clearly. But I'm 
interested now in asking the three of you: In your opinions, 
where do we go from here, addressing such issues as the 
resources that we now have in Iraq, the investment that we have 
made in Iraq? Where best can we maximize those resources to 
have some influence over the outcome in Iraq and the scope of 
the Middle East? Recognizing, as the three of you have said, 
that we don't have many good options, if we have any options at 
all. We are dealing with many uncontrollables, many dynamics 
that are well beyond what we can influence.
    So, Mr. Ross, begin with you. Thank you.
    Ambassador Ross. Well, I guess with regard to Iraq, I would 
offer two suggestions. The first is, in a sense, what I was 
implying with the chairman before, at least the first part of 
the surge is already done, because forces are en route or 
already there. I would condition any further implementation of 
the surge on whether or not the Iraqi Government is living up 
to the promises they've made. There's a whole--in a sense, the 
President's now laid out a series of measures by which you can 
evaluate whether they're doing what they said they were going 
to do or not. If they're not prepared to do what they say, you 
know, we could be providing a lot--much larger numbers of 
forces and it wouldn't make a difference. I completely identify 
with what Vali was saying about the issue of, if you don't have 
a political plan, it doesn't matter what you're doing in the 
security area. So, that's point one. I would condition further 
implementation of the surge on whether or not, in fact, the--
Prime Minister Maliki is living up to what he said he would do.
    No. 2, if, in fact, he's unlikely to do--which is fulfill 
those promises, which is my fear, not my--certainly not what I 
want to see, but what I'm afraid of--then I think we should 
also take--we should take--we should be aware of what's 
happening on the ground in Iraq that is already beginning to 
move toward a kind of fragmentation, or at least changing the 
realities on the ground. About 100,000 Iraqis a month are being 
displaced, which means that the whole nature of the mixed 
areas, that previously was the reality on the ground, is being 
changed. So, maybe we're moving toward what could be a Bosnian 
kind of outcome, in which case, forces should be there to 
facilitate that, you should develop it in stages. You might 
find it easier to internationalize the presence in a 
circumstance where you were dealing with a Bosnia kind of 
outcome. That strikes me as being a better way to try to manage 
what will happen in Iraq.
    Look, I think having Iraq devolve into some kind of 
convulsive state is hardly in our interest. I don't know how 
much capability we're going to have to prevent that over the 
long haul. I don't think you justify staying in Iraq just 
because the situation gets worse. That becomes a trap forever. 
So, one alternative way of managing a transition, it seems to 
me, is, recognize what's already taking place on the ground, 
try to make it safer by approaching it more in terms of a 
Bosnia approach, try to internationalize the presence in light 
of that, because the objective is suddenly changing.
    Third, you know, obviously, I've identified a major part of 
my life's work as being involved with trying to resolve or deal 
with the Israeli-Palestinian issue. I would do it, as I said, 
not because it's going to have the slightest impact on Iraq. 
It's not going to have the slightest impact on Iraq. But one of 
the mistakes the administration made is, it sent a message of 
indifference on this issue. Here was an issue that, from the 
standpoint of the Arab and the Muslim world, they considered to 
be a core grievance. The last thing in the world we ought to be 
doing is sending a message that what they consider to be very 
important, we consider to be unimportant.
    So, I would make an effort, like what Richard said earlier; 
I don't think this is a time you're going to be able to resolve 
the issue. We have a divided Palestinian leadership. We have an 
Israeli Government that does not have a great deal of public 
support. To think that those leaderships, at this point, are 
going to take on the core issues of the conflict that go to the 
heart of self-definition and identity, issues like Jerusalem 
and refugees and borders, I think, is just unrealistic. But, 
you know, that doesn't mean you sit on the sidelines. The 
consequence of sitting on the sidelines for the last 6 years is 
that the situation has gotten dramatically worse.
    I think there's a great deal that can be done right now, 
even in the context of what's happening among Palestinians. 
There's a competition right now for what is going to be the 
future identity of the Palestinians, and it's between Fatah 
independence and Hamas. And, at this juncture, I think, I've 
seen--having just come back from the area, I can tell you I've 
seen, for the first time, a lot of the Palestinians in Fatah 
and around--and, I would say, the independents are determined 
now to compete, because they realize what Hamas has in mind is 
an Islamic State. Now, I think the more they compete, the more 
you may also end up splitting Hamas.
    So, I think the more that we could orchestrate--and the 
very active effort to try to affect that competition, which 
involves Arab States, which involves the Israelis, which 
involves the Europeans and ourselves, that's one thing that's 
very important. Clearly, the Israelis also have a stake in what 
that competition is, so you have to try to promote much greater 
coordination between, I think, the Israelis and Abu Mazen, and 
the people around Abu Mazen. I think that gives you a chance to 
begin to affect this. It doesn't mean, by the way that you 
don't at least talk about a political horizon, because, again, 
if you want those in the Palestinian world who believe in 
coexistence to succeed, they also have to be able to point to 
the fact that there is a possibility and a sense of hope that's 
out there. So, I'd work at two different levels. But don't 
focus on a political horizon to the exclusion of what's 
happening day to day on the ground, especially from an American 
standpoint. After 6 years of having disengaged, we will not 
have credibility on a political horizon if the day-to-day 
realities aren't changing, because we don't have a whole lot of 
credibility right now.
    I'll just close. In terms of Iran, I, too, believe that 
it's important to engage Iran, but it's important to think 
about how best to do it. When I said, before, that the 
combination of sticks and carrots is an important combination, 
I put it in that order deliberately. We have a very interesting 
debate going on in Iran right now. If you take a look at what's 
happening, in terms of what's happening on the state radio, if 
you look at, in the past week, within the media within Iran, 
criticisms of Mahmoud Ahmadinejad, in terms of what he's saying 
publicly and how it's isolating Iran and putting them at risk, 
it suggests to me that there is a potential to change the 
balance of forces within Iran. It's very important that, in 
fact, Ahmadinejad not look like his way of confrontation works. 
It's very important that, in a sense, there's an unmistakable 
cost to pursuing the pathway that he's on. But it's also very 
clear that they have to see that they can gain something if 
they change their behavior.
    Senator Hagel. Thank you.
    Dr. Haass.
    Ambassador Haass. Three things. On the diplomatic side, I 
would support a regional forum modeled on the Afghan 
experience; American support, rather than resistance, to an 
Israeli-Syrian dialog; and, third, I would favor unconditional 
bilateral talks with Iran.
    But, beyond the diplomatic, let's talk about Iraq for a 
second, Senator.
    There are three potential goals for U.S. policy now. One is 
to try to stop the civil war, or reduce the civil war. That's 
been the dominant one. The second is to try to prevent a 
regional war. The third is to protect the United States 
reputation for reliability around the world, despite Iraq.
    I believe that stopping, or significantly affecting, the 
civil war is probably beyond our capacity. With this surge, 
we're going to face a terrible dilemma. Either we essentially 
have an anti-Sunni bias which runs the risk of strengthening 
the Iranian and Shia hold on things, and turning things into a 
regional war, because, ultimately, regional states will not 
stand by while their Sunni kith and kin get hammered; or we end 
up going after, much more, the Shia militias, which is taking 
on a much larger mission, and we would not have the Iraqi 
Government as a partner anymore--and, again, it would put 
United States forces in the middle of something much larger.
    Again, my principal problem with the surge is that it 
reinforces the interaction between American forces and the 
Iraqi civil war. I'm not sure that's a smart place for us to 
be. To the contrary, I am increasingly persuaded it is where we 
don't want to be. So, we need to think about how we have a 
presence in Iraq and avoid some of the risks of what a 
withdrawal would bring about. But we need to design a presence 
for Iraq that plays for the long haul, that does not get us in 
the middle of a civil war. This means less troops; it means 
pulling back from Baghdad, thinking more about the borders, 
thinking more about training, essentially playing for time. 
Civil wars take time. Either one side wins or they burn out. At 
the moment, the only side that could conceivably win is the 
Shia. That's not an outcome we would want. And so, this may 
simply take time. I don't like sitting here saying this. The 
idea that the best we can help manage is an Iraq in which civil 
conflict goes on for several years or longer is not a very 
attractive thing to say before this or any other committee. 
That said, it is my analysis that that's probably, now, the 
best outcome--or the least bad outcome, let's be honest about 
it--the least bad outcome that we can realistically hope for. 
So, what I'm trying to do is design a United States presence 
that reduces the direct and indirect cost to the United States 
of a civil war in Iraq, which, again, means trying to limit the 
scale of the civil war, but, again, more than anything else, 
preventing the civil war from going truly regional, and trying 
to avoid a situation where Iraq undermines United States 
foreign policy worldwide.
    Senator Hagel. Thank you.
    Professor.
    Dr. Nasr. Yes, thank you, Senator.
    First of all, I don't think we should expect much in terms 
of cooperation from the current Iraqi Government, from the 
Maliki government, for the reason that I think that pressure 
below from his community on him is not in the direction of--to 
making the necessary compromises on oil revenue, on power-
sharing, on an amnesty law, and the like. I mean, he's caught 
between pressure from Washington, pressure from below, and in a 
very fractious alliance that he has to maintain just to survive 
in office, so I think he's trying--he will do just sufficient 
amount to keep Washington backed off, but we shouldn't really 
expect much movement at all.
    And, second, he is being pushed to work off of a plan that 
was conceived a year ago, at December 2005, for national unity 
and reconciliation, in a very different environment in Iraq. 
And the environment's changed, the plan hasn't changed, and 
this current government probably will not be able to operate on 
the back of that. And, as Ambassador Ross mentioned, there's no 
other plan on the table that he would move forward. So, we 
essentially should come to terms with the fact that, no, we 
shouldn't invest our hopes in a political solution by this 
government in Baghdad, if it survives. And if it doesn't 
survive and collapses, it actually will compound the problem.
    Second, I would say that a war that has changed the 
region--and we all attest to that; everybody in the region 
would say that this war has changed everything--their 
perception of one another, the calculus--how could that war be 
resolved without that region having the buy-in? I mean, we 
almost want to recreate Iraq and put the Humpty Dumpty back, 
without having anybody's buy-in. I think we--our focus has not 
been on a final solution that the region, all of Iraq's 
neighbors, will be willing to accept. We constantly say, 
``Well, stability's in their interest.'' Yes; it is. But 
they're--that, they all agree on. Nobody wants chaos in Iraq. 
What they don't agree on is: What is the final shape of Iraq? 
And we have had no conversation, and they have had no 
conversation--other than Iranians and the Turks, I don't know 
of any other real, you know, adversaries that actually are 
talking about: What is the final shape? And I think when--back 
to Senator Biden's question, when we say: Are we going to be 
supplicants with the Iranians and Syrians, and is this 
extortion?--that's really at the level of when we want 
specifics from them. So, what do we barter, for specifics, like 
stopping arming of the Mahdi Army?
    But I think the larger issue of, would Iran or Syria or 
Saudi Arabia be able to arrive at an agreement, in terms of 
power-sharing--how much would the Sunnis get, how much the 
Shiites would get, how much the Kurds would get--I think--I 
don't think that would put us in a supplicant position, or the 
Iranians and the Syrians will be in a position not extort 
anything for that. And the region is familiar with that kind of 
a thing. They did it in Lebanon over the tariff agreement. They 
continuously have these kinds of discussions about other 
conflicts.
    So, I think, for us, we should, sort of, accept that we're 
not going to--we're not going to get a political solution for 
Iraq out of the current plan on the table. There is no 
incentive on the ground for this Iraqi Government to support 
us, given the pressure it's feeling from below. And I should 
say the same for the Sunnis. You could say the insurgency has 
been winning, it's been bending the U.S. will, it's been 
changing our strategy. Why would they change course, at this 
point in time?
    And I think, at the regional level, I do agree with both my 
copanelists, that it's extremely important, but I think our 
focus should not be on bartering over specific issues, it 
should be on getting a regional buy-in for a final shape of 
Iraq.
    Senator Hagel. Thank you.
    Senator Dodd [presiding]. Thank you. Thank you, Senator.
    Senator Biden had to step out for a few minutes, and so, I 
have become the acting chairman of this committee, and I yield 
myself an hour and a half. [Laughter.]
    Rare moments you get, here, to be--take a few minutes.
    Well, thank you all very, very much for your testimony.
    I want to commend Dick Lugar, as well. I know he made his 
opening statement this morning, but he had some comments in 
there that are really worth repeating again, and he emphasized 
the points that were made by our panelists here: ``The purpose 
of talks is not to change our posture toward these countries,'' 
talking about Iran and Syria, principally, ``nor would we 
compromise vital interests or strike the ethereal bargains that 
cannot be verified, but if we lack the flexibility to 
communicate with unfriendly regimes, we increase the chances of 
miscalculation, undercut our ability to take advantage of any 
favorable situations, and potentially limit the regional 
leverage with which we can control Iran and Syria.'' And I--
there are other statements in there, but--I think that was a 
very thoughtful comment by Senator Lugar, and--and it makes the 
point that all of you have made this morning, as well, and I 
just want to thank you for it.
    There are several comments in here, and I thought the 
comment, Richard, that you made in here, in just--``What 
matters is not where you begin a negotiation, but where it ends 
in that process.''
    Just for the sake of conversation, Senator Kerry and I were 
in the region, back in the middle part of December, and spent--
here he is now--we spent some time with President Assad, along 
with the United States Embassy personnel in the room, so this 
has been reported back to the State Department, as well as our 
own conversations, and asking President Assad what he wanted to 
come out of Iraq. And my colleague from Massachusetts can share 
some thoughts on this, as well. And, as I heard him talking 
about, he--now, again, it was said in English--as Tom Friedman 
likes to point out, if they don't say it in public and in 
Arabic, it may mean less, but, nonetheless, I'll tell you what 
he said in English. He wanted a pluralist Arab State on his 
border. He had no interest seeing a Shia, Iranian-dominated 
fundamentalist state. And that didn't come as any shock to me. 
That would seem to be sort of a rational conclusion by 
President Assad. But it seems to me it's worthy, then, of 
exploring that question.
    I don't know how widely it's been reported, but, for the 
first time in a quarter of a century, Baghdad and Damascus 
are--exchanged Ambassadors. President Talibani, I think, was in 
Damascus the other day. Prime Minister Maliki spent a good part 
of his exile in Damascus, as President Talibani spent a good 
part of his time in the Kurdish areas or in Iran. I mean, 
there's a lot of history here that goes back over a long time. 
The world didn't begin on the day that we went into Iraq, and 
unraveling this situation requires a good understanding of the 
history of the background.
    I would hope, by the way--and I just raise this here, 
because we've talked about it--that we would have a debate like 
this, ourselves, rather quickly, as we discuss this new 
proposal on the surge. And I agree with you, Richard, it's a 
tactic, not a strategy here, but it's an important issue, and 
the rationale for it is completely different than the rationale 
we were offered back several years ago, when the original 
authorizing resolution came up here, and it dealt with the 
issue of weapons of mass destruction, it dealt with Saddam 
Hussein and terrorism. There's a whole new set of circumstances 
that we ought to be considering as we go forward with this. And 
so, whether or not you agree or disagree with it, the fact of 
the matter is, the Senate of the United States ought to take 
some time out to do exactly what this committee is doing here, 
to talk about these very issues that I think are critically 
important to us. And my hope is we'll get beyond, sort of, the 
nonbinding resolution, which is a way to express something up 
here, but, rather, have a good debate, require a new 
authorization and a discussion of exactly what the implications 
are.
    Let me ask a couple of quick questions, if I can. I, again, 
thank you for your testimony. It's very, very good. And you may 
have implied this, as I went through the comments. And I'll 
begin with you, Dr. Nasr. Tell me about--the quick question--we 
have no problem--I have no problem seeing President Assad--I 
think we should have been talking--I'd have a real problem in 
sitting down with Ahmadinejad, frankly. The idea that I'd sit 
down with someone who has said the things he has--my father was 
a prosecutor at Nuremberg, and--and wrote my mother, every day, 
these letters, talking about what went on--400 letters during 
that year and a half in 1945 through the end of 1946. The idea 
that you'd have a head of state denying the existence of the 
Holocaust was stunning to me. And the idea I'd be sitting in a 
room with this individual is abhorrent to me. Who should we be 
dealing with in Iran? There are many different levels, it seems 
to me, in Iran, that we could be talking or at least opening 
some doors with. Where would you suggest we begin a process? If 
you're not going to necessarily want to sit down with the 
President of the country, but you wanted to access some other 
centers of influence, of power centers, where would you suggest 
we begin that conversation?
    Dr. Nasr. Well, a lot of the conversation in the West that 
actually has been with the head of Iran's National Security 
Council, Ali Larijani, who's also been the main negotiator with 
Javier Solana over the nuclear issue. He was the one, actually, 
Iran appointed when there was a potential for a conversation 
over Iraq, to travel to Iraq, to meet with Ambassador 
Khalilzad, at that point.
    Ultimately, our interest in Iran is to influence the top 
decisionmaking in the country. Ahmadinejad is only one 
component of that.
    Senator Dodd. Right.
    Dr. Nasr. But the real levers of power in Iran are held by 
the Supreme Leader, as well as major power centers within the 
military and the political establishment.
    Senator Dodd. So, your point is, there are other places we 
could--opening up those doors, without necessarily focusing 
exactly on the--Ahmadinejad.
    Dr. Nasr. I think, actually, focusing Ahmadinejad has been 
a mistake by American media and the American administration. 
It's actually empowered him. About a decade ago, when Iran had 
a reformist President, the attitude in Washington was, ``There 
is no point talking to the Iranian President, because he's 
not--doesn't really hold any power.'' And ever since 
Ahmadinejad's become President, we have seen him as everything 
in Iran. And that's a mistake, as well. In fact, the elections 
in Iran, the dissent in Iran, which Ambassador Ross was 
pointing to, suggests that this is not our typical 
dictatorship, where, like in Syria, there's one man ruling. He 
is vulnerable. He has staked his ground. And the more we focus 
on him, actually, the more important we make him and his 
position within Iran itself. We ought to--we ought to have an 
approach that we have a policy toward Iran, not toward the 
Iranian President.
    Senator Dodd. Good point.
    Dennis or Richard, do you want to comment on that?
    Ambassador Ross. Yes, I would--I would echo a lot of that. 
I would simply add that the easiest way for us to begin an 
engagement would be through a regional conference on Iraq----
    Senator Dodd. Yes.
    Ambassador Ross [continuing]. Where you'd have a built-in 
multilateral forum, where you wouldn't be dealing with 
Ahmadinejad, and where you have an area where there could be a 
convergence of interest, if they have enough fear about what 
may be happening in Iraq. I don't think they have it right now, 
but I think, in fact, it could, in fact, be something that 
begins to emerge. That would be how I would suggest it.
    I would add one qualifier in what Vali said. I don't think 
you can let what Ahmadinejad says go without response. I don't 
think, you know, these kinds of statements can somehow be 
dismissed because of, ``Well, the Iranian President isn't 
important.'' The Iranian--because there is a kind of 
interesting elite, and there is a difference of opinion in that 
elite, it's important that they understand the consequences of 
that kind of behavior.
    Senator Dodd. Yes.
    Ambassador Ross. And you're seeing it, as I said--as Vali 
knows, if you look, in the last week, at the commentary in 
different Iranian newspapers, he's being attacked precisely 
because of what he says. So, I would say it's important that we 
find ways to do that, as well.
    Senator Dodd. Yes. And the economic issues--I think, 
Richard, you point out--are very important, as well, to 
highlight the failure there. But----
    Ambassador Haass. Too often, diplomats think of diplomacy 
as something which is done in secret and in private. I actually 
think, with the Iranians, we would be far wiser to put it out 
there--again, to put pressure on the government. And also, 
given that there are competing centers of political authority--
--
    Senator Dodd. Yes.
    Ambassador Haass [continuing]. We ought to contribute to 
that competition.
    I'd just say one other thing, Senator. There's a time 
urgency here--partially related to Iraq, even more related to 
Iran's nuclear program. Our options will get narrowed, given 
that Iran is gradually accumulating the capacity to enrich. And 
time, in that sense, does not work in our favor. So, sooner 
rather than later, we need to decide what it is we are prepared 
to do, in terms of a diplomatic outcome, because otherwise the 
alternatives tend to be either living with an Iran that 
accumulates a nuclear capability or having to use military 
force. I would suggest that neither is a terribly attractive 
option. So, again, to me, it highlights the need for us to get 
squared away on a diplomatic approach.
    Senator Dodd. I couldn't agree with you more--in fact, I 
intended to open my remarks by saying: In the 25 years I've 
been a member of this committee and a Member of this body, 
having traveled to the region on a number of occasions, not 
anywhere near the numbers that our panelists have, but I have 
never seen it as bad, nor have I ever seen it with as many 
opportunities. I think some--one of you made that point in your 
prepared remarks. But what I sensed, more than anything else, 
was the absence of our engagement. I must have heard that a 
thousand times; the sort of benign participation in what's 
going on. And that concerns me. And I'm glad the Secretary is 
there now, but I'd often hoped that we might have done 
something a little bit more, given the complexity of the issues 
and the importance of the moment, to have someone on the ground 
on more of a permanent basis there that would be able to really 
help us manage these events and be around to take advantage of 
these opportunities as they come up.
    Let me ask one or two quick questions, because I want my 
colleagues to get to--I was very impressed with--Fareed Zakaria 
wrote a piece the other day in the Times about the surge issue, 
and he said one of the--if I paraphrase him correctly, he said, 
``It's not so much that you may be opposed to the surge, what 
we ought to be worried about is, it may succeed.'' And I think 
one or both of you made this point, and that is that if it 
succeeds, in the sense it contributes to a further alienation 
of the very people we're trying to get together, the 
designation of 17,000 troops in the streets of a city of 6 
million people, with 23 militias and a variety of other 
factions operating there, well, we're invariably going to be 
having to take on--in fact, we've been urging taking on the 
Mahdi Militia, and Sadr--his point being, that this--if it 
succeeds, it actually moves us further away from exactly the 
point I think most are arguing here, and that is a political 
solution. I wonder if you wanted to comment on his conclusions 
in that.
    Ambassador Haass. Well, it's one of several dilemmas we 
face. And let me suggest some others, though, in addition to 
what Fareed is writing about. And, by the way, a lot of them 
come down to the fact that at the end of the day, we and the 
Iraqi Government don't share the same end state. And I would 
simply suggest that's one of the reasons we don't have as much 
leverage as we thought. The idea of withholding a surge may not 
necessarily be something they would be that upset over. If you 
think that the goal of the government is to consolidate Shia 
primacy, then a surge doesn't necessarily help their short-term 
objectives. So, I'm not sure we have that much influence, in 
terms of regulating our presence there, because, again, they've 
got a set of objectives that is fundamentally different than 
ours in terms of the end state they envision for their own 
country.
    Senator Dodd. Yes.
    Ambassador Ross. I would just say, I--on the issue of 
withholding the surge, it's--that has to be part of a larger 
strategy. You don't just withhold the surge; you withhold the 
surge, and then I basically think you send the message, ``OK, 
we're going to change course now, fundamentally.''
    Senator Dodd. Yes.
    Ambassador Ross. And I have favored the idea of not simply 
imposing a deadline and pulling out, but saying to them, ``All 
right, we're now going to--we're going to negotiate a 
withdrawal with you.'' You concentrate their mind. You know the 
reality's going to change.
    I don't think that, you know, the--it's true, I think, what 
Richard said, they have a different end state in mind. I don't 
see any indication of this government, regardless of its 
commitment, is serious about national reconciliation. I think 
the message they sent with the execution of Saddam Hussein was 
just the opposite. Here was an opportunity for them to say to 
the Sunnis, in particular, ``You know, we're going to put that 
chapter in our history behind us. We were all brutalized by 
him. We all suffered from him. Now we're going to write a 
common history--we're going to write a common future 
together.'' They didn't do that. They sent the message, ``We're 
in control.'' And so, I think, you know, if they feel that 
somehow being in control is put at risk, that might change 
their behavior.
    Senator Dodd. Yes. Well----
    The Chairman [presiding]. I know that having you in control 
means you're 4 minutes over. [Laughter.]
    Senator Dodd. No; I apologize. I was actually going to take 
an hour. [Laughter.]
    But I think the point is really worthwhile, but my sense of 
it is--to just end up on this point, is that--quite the 
opposite. I think the surge really does exacerbate and delay 
the decisionmaking process, for various reasons. My view is, I 
think, you know, the Shias have a reason why they want us there 
without a clear mission, in that we can consolidate power for 
them. The Sunnis think we might be able to protect them or get 
them back in the door. And as long as we're failing to start to 
talk about an endgame and how this works, then I think the 
political realities haven't set in. And the sooner they set in, 
the more likely, I think, you're going to get the kind of--at 
least the progress that we're talking about here. And I think 
you've both--all three of you have articulated that well, 
that--don't expect a conversion here to happen overnight; but 
to move it on a road, it seems to me that we've got to--we've 
got to change the paradigm here, the dynamic, pretty 
considerably, and we're not doing that at all, it seems to me; 
we're just perpetuating a strategy here that is not producing, 
in any likelihood, the results that we'd all like to see.
    But, great testimony, and I wish there were more time, 
myself, to talk with you here.
    But I thank you immensely for your contributions, not just 
today, but over the years. You've all been tremendously helpful 
to us, and I thank you.
    I thought, Richard, your piece in Time magazine was 
excellent, by the way.
    Thanks, Mr. Chairman.
    The Chairman. Will the conversion take place on the Road to 
Damascus? That's the question here. But--
    Senator, welcome, again, and----
    Senator Corker. Mr. Chairman----
    The Chairman [continuing]. The floor is yours.
    Senator Corker [continuing]. Thank you, sir.
    I do wonder, in light of the testimony today and just the 
tremendous focus that you've caused this committee to have on 
Iraq, rightfully, does it make any sense for us to consider 
asking General Petraeus--I know he has a war to fight, I know 
that taking him away from that could be frowned upon, but he 
does have to be--he does have to come before the Senate, at 
some point, anyway, and I'm wondering if it makes any sense, 
especially with Dr. Nasr's presentation regarding the Shia 
situation in Iraq and its relationship to Iran, to possibly 
have testimony? I just ask that question.
    The Chairman. Well, we are--that's a very good question, 
Senator. I haven't been the mayor of a big city. You're--you 
had the great good fortune to be able to set policy. There's 
jurisdictional webs up here. I have talked to Senator Levin, 
the chairman of the Armed Services Committee. I think it would 
be good to have some cross-pollenization here, to have General 
Petraeus, and, for that matter, to have the Secretary of 
Defense here, as well, and to have State Department officials 
testify there. That's not been worked out yet, but I think your 
suggestion is a very good one. And I have found, in my many 
meetings and exchanges with General Petraeus, he's a 
forthcoming guy, he's a straightforward guy, and he really is 
one of the best we have, in my view, and it would benefit us 
all if he were able to be here. I will follow up on that.
    I'd ask to put a little bit more time back on the clock for 
the Senator, since that was a question directed to the Chair.
    Senator Corker. Mr. Chairman, again, I want to thank you 
for these excellent hearings. And I want to thank this 
outstanding panel. I think you all have all done an excellent 
job.
    And, you know, because I've asked my questions in these 
panels in a sort of civil way, I think some people think I have 
a leaning as to which direction I think we ought to go. I 
really don't. Fortunately, I was--unfortunately or 
fortunately--I was a mayor of a city when these decisions were 
being made. I have no personal feelings, and truly think that 
the type of testimony that you've given, and others have given, 
allow us, in public, to discuss our policies and really calls 
the American public, themselves, to think about what ought to 
be done. And so, Mr. Chairman, again, I thank you for that. 
And, Richard, I thank you for taking the time, while I was a 
lowly candidate, to meet with me. I did read your book, and I 
appreciate that.
    And I just--I want to ask three questions, one to each of 
you. There's no question that the civil war that is taking 
place in Iraq today is one that we, in essence, by virtue of 
our involvement, created. And I know there's been a lot--a 
school of thought that says that we should--that maybe what 
we're doing is allowing a muted civil war to take place, not an 
all-out civil war. I don't think that there's been enough 
discussion publicly about what allowing an unmuted civil war 
might mean. And the Americans are used to going out and solving 
problems; that's what the American way of life and psyche is. 
And I just wonder if you could address--and I know you all are 
here to talk about relations surrounding Iraq--if you could 
address, you know, how you think it might be, if you will--
you're someone that's been highly in foreign policy for 
Americans, based on what you presented a minute ago--to watch, 
sort of, passively, if you will, an all-out civil war take 
place, as opposed to us going in and trying to be involved 
proactively, as now has been put forth by the administration.
    Dr. Nasr, I appreciated very much--I really was interested 
in what you were saying as it relates to us getting involved in 
Baghdad, in essence, and getting involved in--more fully in 
this sectarian violence, and how that might, in essence, tie us 
more closely to confrontation with Iran. And you mentioned 
something about seeing a change in behavior by Maliki and the 
Iraqi Government. And I really am having a hard time--and in no 
way criticize that comment--but I don't--I'm having a hard time 
understanding how we caused that change of behavior to truly 
take place.
    And then, Mr. Ross, just the whole issue of causing them to 
live up to their promises. There's a timeframe--I, too, 
question their ability to live up to the promises. I think 
that's the weakest part of what has been discussed over this 
last 10 days. I'd love to hear, you know, more discussion about 
that.
    Ambassador Haass. Well, thank you, Senator. I like your 
phrase, ``muted civil war.'' And what you say about the 
penchant for solving foreign policy may be American, but it 
also may be beyond reach in this situation. And management is 
not a very sexy idea, but sometimes it's the best you can do. 
And I actually suggest, in this case, we'll be fortunate if we 
can manage, at all, the course of events. But my own analysis 
is that we will consider ourselves fortunate, moving forward, 
if we can help limit the civil war to what you call a muted 
situation. If it becomes all-out, you would have not simply a 
humanitarian tragedy on a scale greater than we are seeing, but 
the odds grow exponentially for it becoming a significant 
regional war. Sunni governments around the region, and Sunni 
nongovernmental organizations and individuals around the 
region, are going to sit back and see a degree of Shia 
domination in Iraq that many of the Shia in Iraq seem to want. 
So, unless we can keep the civil war, in some ways muted, we 
could see competition between Iraq's neighbors in Iraq, but 
also growing conflict between and among Iraq's neighbors beyond 
Iraq. I can imagine a scenario where there would be Sunni-Shia 
outbreaks of violence in many other countries, in which there 
would be terrorist attacks, perhaps fomented or supported, one 
way or another, by various governments. You know people always 
like to say that things have to get worse before they get 
better. One of the two pieces of wisdom I have in the Middle 
East is that things often get worse before they get even worse. 
And that possibility, I would suggest, can't be dismissed.
    So, we need to, in some ways, recalibrate our policy toward 
muting, to use your word again, the violence, which, again, to 
me, raises questions about the logic of a surge and putting us 
in the middle of things. It does put an emphasis on regional 
diplomacy, meant to adjust inflows of arms and money and 
volunteers. It puts an emphasis on dealing with Syria to try to 
close down the Syrian-Iraqi border more than it has been. And 
it means, again, playing for time, because only when Iraqis 
come to the conclusion that this game is not worth the candle, 
only when Iraqis basically get exhausted or decide that they'd 
actually rather have a degree of normalcy, will this begin to 
fade significantly.
    The United States needs to avoid extreme foreign policies 
until that happens. And, to me, the two extremes are either 
trying to totally smother the civil war, working with the 
government to try to eliminate it, which is not realistic, or 
pulling the plug, which would exacerbate things in Iraq and 
raise all sorts of questions about the United States worldwide.
    So, I'm trying to see if there's a needle to thread here, 
where we can find some middle course. I'm not comfortable with 
it. It's not pretty. But my hunch is, we need to find the 
strategy, one at lower costs and a lower level of involvement, 
that we can sustain for years, until this begins to play itself 
out. And, coming back to what you said, that's not a solution, 
but that's probably the best available option.
    Dr. Nasr. Thank you, Senator.
    The issue of the behavior of the Maliki government, or its 
perception of the U.S. position, you're correct, I mean, it's--
in many ways, is counterintuitive for many Americans. I think 
the issue to--is key--as Ambassador Haass said, is the demand 
or desire for Shia domination, which is really the prevalent, I 
think, political attitude in the Shia community. I think many 
of them--we, maybe, were slow to take stock of this after the 
February bombing of Samarra--concluded there's not going to be 
reconciliation in this country, and they began to sort of think 
of a different endgame, which was to maximize control of 
territory, particularly Baghdad, and assert Shia domination.
    And I think part of our dilemma is where we don't see the 
same endgame as the Iraqi Government, is that we're still 
operating on the assumption that, (a) reconciliation is 
possible, (b) that the Shias want it, and (c) that this 
government somehow can even rise above its own community and 
constituency to follow a policy course that may not be--may not 
be popular.
    Nothing I have seen from the Maliki government in the past 
several months suggests that it can act independent of its core 
constituency, or that it's willing to do so. I think it's more 
driven by survival within that coalition, and it's more driven 
by the public opinion, which, unfortunately, is not, right now, 
in a conciliatory mood. And I think if we listen to, say, the 
statements of Maliki's partners in his own coalition, in his 
government, in the Parliament, not to say the mood in the 
street, it's far more sectarian and hard-line than what we hear 
from him. And I think that his value right now is for the UIA 
government to manage Washington's expectation without giving 
the house away. But I don't see the kind of shift in attitude 
that is necessary for this government to wholeheartedly back a 
unity plan. And I don't think it's a function of, necessarily, 
his personal caliber or opinion. It's a matter of the political 
mood in a country that has become deeply divided because of 
the--because of the violence, and also, I think, indicative, at 
some of the diplomatic discussion we had, that we cannot do it 
alone. We take two steps in the direction of the Sunnis, as 
Senator Biden mentioned, about the issue of the surge, the 
Shias get angry; we move two steps in the direction of the 
Shias, the Sunnis accuse us of bias. And we're, sort of, caught 
in a situation that--you know our endgames are not those of 
these communities, and they will likely pursue their own 
agendas, despite what we will be saying.
    The Chairman. Thank you very much.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Let me thank the panelists for their exceptional and 
insightful testimony. I really appreciate it.
    I want to start with Ambassador Ross. And I think it's 
worthy of quoting from some of your written testimony, because 
it's the preface to the question I want to ask you.
    You say, ``The only circumstance in which I see Iran and 
Saudi Arabia behaving differently is if they both become 
fearful that a precipitous U.S. withdrawal might trigger a real 
convulsion in Iraq, and then the consequences of that would 
create, possibly, a convergence of interests in Iraq to lead 
the two to explore a possible deal.'' And then you go on to 
say, ``There is an irony here. Only if the reality in Iraq 
threatens to be far more costly to both the Saudis and Iranians 
are they likely to contemplate some limited understanding in 
Iraq.'' And then you say, ``By keeping the lid on with our 
forces and preventing a real collapse, we make it safe enough 
for everyone next to and within Iraq to avoid taking what they 
regard as excruciating decisions.'' And finally, ``In my 
experience''--this is, again, your testimony--``leaders don't 
cross threshold in historic conflicts because they are induced 
into doing so. They may approach the thresholds, given certain 
promises about the future, but they don't cross them unless 
they see the costs, as they measure them, if they fail to 
act.'' And that's where I want to start.
    You know, when we had Secretary Rice here, I asked her 
questions about benchmarks, consequences, and deadlines. It 
seems to me--and, of course, she rejected all of those 
propositions--it seems to me that, if we are going to hope for 
the Iraqis to love their children more than they hate their 
neighbors, that this actually is not about military action, but 
a whole host of other issues--reconciliation, diplomatic, 
power-sharing, and revenue-sharing issues. So, isn't the 
question really--if we're going to change the direction here, 
isn't it about having benchmarks with consequences and 
deadlines? I've heard, I think, all of you say the Maliki 
government has shown nothing that leads us to believe they're 
truly going to change the course. So, aren't those some of the 
things that we should be doing? And what accelerant can we add 
to the equation to get others, outside of Iraq, to come to that 
conclusion that you said will be necessary for them to find 
some convergence of interest?
    Ambassador Ross. Look, I think the key--and it--we've--you 
hear, in the skepticism on all of us--is: How do you create a 
sense of consequence for nonperformance? Up until now, there's 
been no consequence for nonperformance. In fact, your question 
was about the promises and my skepticism about the promises. 
People tend to forget that Prime Minister Maliki, when he came 
in--what was his first big initiative, immediately? It was 
security for Baghdad. That was his first big initiative. Now, 
we're on, I think, by my count, his third national 
reconciliation plan. Each time we see these commitments are 
adopted, and there's never a consequence for not fulfilling the 
behavior or changing the course.
    So, everyone has become conditioned to a certain reality 
that we will keep the lid on. And, as bad as the situation is, 
it's not intolerable for them, on the inside, because the 
choice--and this is why I used the word very consciously, 
``excruciating decisions,'' and I do have some experience 
negotiating with people who have to make what are excruciating 
decisions, as they measure them, because they have to take on 
history and mythology. In Maliki's case, what makes it so 
difficult for him is partly the reasons that Vali was talking 
about: The structure of the situation, who his allies are, his 
own instinct. But I would even say it goes beyond that. The 
Shia, today, in Iraq are a majority, but they act as if they're 
a minority. They act as if they're completely vulnerable, 
because they have a history that tells them they are 
vulnerable. They've been oppressed. So, they're not going to 
change their mindset unless, in fact, they see there's a 
consequence out there that threatens what they want.
    Our current position today, in a sense, allows everybody to 
live with a situation that isn't good, but it's certainly 
better than having to take these excruciating decisions. So, if 
there isn't--in my mind, if there isn't consequence, if we 
aren't, at this point, going to say, ``All right, believe it or 
not, we're not going to be here to allow you to pursue what you 
want,''--that's why I say, I don't want to leave in a--leave 
them in a lurch where you impose a deadline, because then 
everybody simply invests in their own militia, anticipating 
what's coming, which is the kind of scenario that Richard was 
talking about. And everybody on the outside, then, sort of 
positions themselves, as well.
    The trick for us is to convince them the lid is going to 
come off, and be very clear when it's going to happen, but in a 
way where they have the potential to affect it, they have the 
capacity to affect it, so then they have to make a choice. Up 
until now, we have freed them of having to make a choice. Until 
they have to make a choice, they won't.
    Senator Menendez. So, that means benchmarks with 
consequences.
    Ambassador Ross. Absolutely.
    Senator Menendez. How do you get the world to look at--you 
suggested, in the Bosnian-type situation--how do you get the 
rest of the world to buy into that?
    Ambassador Ross. I think, actually, if we--and this gets, I 
think, again, to something all three of us have been--at least 
been implying, if not stating explicitly. We have to be much 
clearer on what it is we're trying to achieve. As long as we 
say we're going to succeed, but we don't define, really, what 
``success'' is in anything but in a level of abstraction, no 
one is going to sign on. We have to look at what are the 
choices. Richard suggested maybe the best choice, to borrow the 
Senator's term, is a kind of muted civil war, where you contain 
it. I outlined the--a kind of, Bosnia situation, because it's 
not as bad as that, and it is--it could be a situation where 
you have a transition to that. I think if we were to spell it 
out and say, ``This is what we're going for,'' and have quiet 
conversations in advance, which is the essence of diplomacy--
the essence of diplomacy is, you don't spring big initiatives 
out in public unless you've done your work in advance with 
everybody to condition them to what you're trying to do. You 
have enough private conversations to talk about how you refine 
the concepts that you're laying out. I would at least try this, 
at this point. It may be too late. But the fact that you've 
got, as I said, 100,000 Iraqis a month being displaced says 
that you're already having population transfers take place--
unfortunately, in the worst circumstances.
    So, maybe you try to make a virtue of necessity. I think 
all of us are in a position where--and I use this language also 
in my written testimony; Richard used it, as well--I don't 
think we can look for a good outcome in Iraq; we're looking for 
the least bad outcome.
    Senator Menendez. Ambassador Haass, let me ask you--I see a 
sense you want to comment on that, as well, but let me ask you 
one thing. One--you said, in a recent article, ``One thing is 
certain: The American era in the Middle East is over.'' And 
then you went on to talk about, ``The Iraq war, more than 
anything else, has caused this fall.'' Could you expound upon 
that for us on what that means?
    Ambassador Haass. The reason I'm not comfortable with the 
Bosnian solution is that while it may reflect the changing 
demographic realities--ethnic cleansing, call it what you will, 
is going on, on a daily, hourly basis now--I don't believe that 
creates the basis for an enduring political and economic 
framework. The Sunni minority is not going to be content. It's 
not simply a physical question, it's a question over control--
sharing of resources, sharing of political power, and so forth. 
And so, unless there's a major political conversion by the 
majority, there can't simply be a narrow territorial or 
demographic solution, which is where the Bosnian parallel, I 
believe, doesn't work.
    The reason I've suggested that, ``The United States era in 
the region is over, more than anything else, because of Iraq,'' 
is a reflection on how history has evolved in this part of the 
world. The modern history in the Middle East goes back about 
200 years, since, essentially, Napoleon entered Egypt at the 
end of the 18th century. Since, there have been a number of 
eras, beginning with the Ottomans, a Colonial era or European 
era, the cold war, and then an American era. And the height of 
the American era was the end of the cold war and the previous 
Iraq war, where you had this degree of American dominance that 
was quite extraordinary, including an ability to put together 
coalitions, deal with Iraqi aggression, promote a peace process 
in ways that were historically unprecedented, and so forth.
    What concerns me now is we have put a disproportionate 
share of our resources, broadly defined, in Iraq, which leaves 
us with less resources to do other things. We've lost the 
principal counter to Iran, which was Iraq. So, we've lost the 
local geopolitical balance. Iran, meanwhile, is feeling that 
it's ``riding high,'' thanks to relatively high energy costs, 
their strategic accomplishment, this summer with Hezbollah, the 
loss of the Taliban, and what's happened in Iraq. So, they're 
feeling strategically advantaged. And you add all this up, and 
it seems to me that we're entering an era where the United 
States has less resources that are discretionary and available 
to make things happen, that Iran has dramatically improved its 
position, and that many of the things that the United States 
would want to bring about in the Middle East we're simply 
unable to. And what this means to me is, it's not simply an era 
where America's influence has gone down, but rather than we 
need to think of the Middle East as a qualitatively different 
foreign policy challenge.
    Indeed, if I were going to paint with broad strokes, the 
U.S. Government faces two great strategic challenges as it 
looks forward. One is dealing with Asia--its economic success; 
the translation of economic success into political and military 
power; all these great powers, regional and global, in the 
absence of regional mechanisms for managing them; old-fashioned 
disputes in many cases going back to World War II. So, we've 
got this challenge of dealing with Asian dynamism. The Middle 
East could not be a more different challenge. It's the 
challenge of negative energy, it's the challenge of 
proliferation, it's the challenge of terrorism, it's the 
challenge of failing states, it's the challenge of Iranian 
imperialism, it's the challenge of leftover, unresolved issues 
like the Israeli-Palestinian crisis. Virtually no government 
has come up with a concept of legitimacy. It hasn't figured out 
its relationship with its own people. There's no regional 
mechanisms worthy of the name. All this takes place where we 
have to deal not simply with the terrorism of the region, but 
also with the region's energy. So, when you think about 
American foreign policy, you've got these two tremendous 
strategic challenges. The one in the Middle East is a negative 
challenge. Our capacity to cope with it is dramatically down. 
We don't have the partners on the outside. The Europeans, the 
Chinese, the Russians don't see it the same way. We certainly 
don't have the partners on the inside. And there's simply more 
sources of instability than I've ever seen emerge at once.
    So, all this adds up to be an extraordinarily difficult and 
dangerous and worrisome era for the United States. It is no 
surprise that we're having this kind of a conversation today. 
And my prediction and fear is that we'll continue to have 
conversations like this for many years to come. We're in for an 
extraordinarily difficult period. I don't know whether it's 3 
years, 5 years, 10 years, or longer, but I honestly believe, 
Senator, that the potential for American foreign policy to be 
weakened and distorted by the Middle East has never been 
greater.
    The Chairman. Thank you very much.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman. And thank you for 
these hearings.
    Mr. Ross, you were cut off before you could answer Senator 
Corker's question, and you had that look of anticipation in 
your eyes. Would you like to say what you were going to say?
    Ambassador Ross. No, I actually did answer it with Senator 
Menendez, because I--the real issue was: Why do I have 
skepticism about why Maliki will now live up to the commitments 
that he's made? And it's because none of them are new. We've 
heard all of them before, whether it's security for Baghdad or 
it's national reconciliation or it's de-Baathification law or 
it's the amnesty issue. Every single one of these, we've heard, 
in one form or the other, before, and the only thing that would 
make it different now would be if, in fact--and this gets back 
to what Senator Biden was saying--if the President has 
whispered in his ear and said, ``You know, I'm not going to say 
this publicly, but I'm telling you, you've got 6 months. And, 
at the end of those 6 months, let me tell you what's going to 
happen. We will no longer be in a position to basically keep 
the lid on and protect what you want''--if he's doing that in 
private, then maybe--maybe there'll be a ``Conversion on the 
Road to Damascus.''
    Senator Isakson. Thank you.
    I am new to this committee, and appreciate very much these 
hearings, because I'm learning a lot, at a rapid rate. But I've 
got a lot to learn.
    I didn't get to hear your testimony, but I read all of the 
statements last night, and your editorial in the Washington 
Post, which seemed to be something that you all found some 
agreement in. If I remember correctly, basically, all three of 
you, in one way or another, were saying that we need to get all 
the people in the region together, because we have an 
interesting situation. All of them don't like us being there, 
because of what they perceive our vision of victory is, but 
none of them want us to leave, because they won't--don't want 
the regional civil war. Is that a fair statement, without 
speaking for all of you?
    Ambassador Ross. It is for me, yes.
    Senator Isakson. OK. My question is this, on the diplomacy 
side and on the regional forum, I think, that you referred to. 
If it is--if the worst outcome, for both those who like us and 
those who don't, is an all-out regional civil war, and if that 
is the most likely outcome--and I think Mr. Haass said the 
least bad outcome is to avoid having a regional civil war, is 
that correct?
    Ambassador Haass. Avoid having a regional conflict.
    Senator Isakson. And none of them want that--if some forum 
was created where all the players, who are contiguous to Iraq 
and in the region, were invited to a forum, is it almost not 
somewhat incumbent upon them to both come and try to 
participate in some meaningful way? Yes. And you can all three 
respond to that.
    Ambassador Ross. Yes; I think it could be put together, 
but, again, having some experience doing diplomacy, I don't 
think you launch this kind of initiative unless you do your 
homework first, and that means you go around and you--you have 
to develop an agenda in advance. You don't go there not knowing 
how this thing is going to evolve once you get there. So, you 
develop an agenda in advance, with some specific, I think, 
criteria and items on that agenda. I think you have to also 
create the impression that, again--it's not enough for us to 
say, ``Our patience has limits.'' We're going to have to--we 
are going to have to make it clear that there comes a point at 
which this stops, because the only way you're going to 
concentrate everybody's mind and realize that what we're 
talking about is no longer a set of abstractions is for them to 
realize how soon the danger that they're afraid of could begin 
to emerge.
    The problem we have right now is that--and I said it in the 
written testimony--we've created a circumstance--not by design, 
but by consequence--where no one is sufficiently uncomfortable 
with the current situation. And until they become sufficiently 
uncomfortable with the current situation, they won't change 
their behavior. And if you want a regional forum to work, 
you're also going to have to not just prepare it, you're going 
to have to create a context where they understand there's a 
danger out there that they understand, in their own terms; we 
don't have to explain it to them.
    Ambassador Haass. Could I just disagree slightly? Not on 
the regional forum; obviously, I'd like to see that. As I hear 
Dennis talk, there's a certain train of events that could be 
set in motion if the Iraqi Government doesn't meet these 
benchmarks or conditions. The United States would then do 
dramatically less. I'm not sure that would necessarily 
disappoint the Iraqi Government that much, given their agenda 
of possibly consolidating Shia primacy. But, also, I worry 
about the chain of events it could set in motion. Dennis has 
what you might call--the word ``optimism'' is rarely used in 
Iraq--a potentially optimistic prediction that if we give 
Iraqis a glimpse into this dark future, they will then begin to 
act more responsibly. I wish that were so. I'm not so 
optimistic. It's quite possible that if we give them a glimpse 
into a dark future, they will take it. And by that, I mean we 
will move toward a regional conflict, where Sunni governments 
and other groups around the region will go and help the Sunni 
minority in Iraq, and essentially we will regionalize what's 
now a largely if not entirely an internal conflict. So, if 
you're asking me, ``Are you prepared to run that risk?''--I 
would say ``probably not.'' And that's why, again, coming back 
to what Senator Corker was saying, a more realistic and in some 
ways a safer goal for U.S. foreign policy is to try to prevent 
the worst from happening rather than adopting a more ambitious 
diplomacy, which while it could succeed, has a high downside. 
The potential exists of leading to a chain of events that could 
regionalize this far more. So, I, for one, would be quite wary 
of going down that path, unless I had understandings, 
understandings that are probably not obtainable, that the other 
actors would act in a far more responsible way than, shall we 
say, history suggests they are prepared to act.
    Senator Isakson. I think--well, maybe I missed this--I 
think what--I wasn't thinking about whether Maliki actually 
would go along, but whether all the others--regional players--
--
    Ambassador Ross. Yes.
    Senator Isakson [continuing]. Have they--they probably 
would go along.
    Ambassador Ross. Yes. Look, I don't have high expectations. 
My point is, I can see the path we're on, and I can see where 
that's headed. So, I would try to create different categories 
of outcomes. One outcome is one that has the potential of 
changing behavior on the inside of Iraq. The other outcome is 
changing the behavior outside Iraq. You change the behavior on 
the outside of Iraq, you produce your containment model, 
Richard. You change the behavior inside Iraq, and you actually 
have a chance to change the realities there. I'm not hopeful, 
but I'm--I want to exhaust every possibility before we go to 
the least bad of all the outcomes.
    Senator Isakson. You believe containment is more likely 
than internal stability?
    Ambassador Ross. That's my fear, yes.
    The Chairman. Do you all agree on that?
    Dr. Nasr. Yes.
    Senator Isakson. Thank you, Mr. Chairman.
    The Chairman. Senator Obama.
    Senator Obama. Thank you very much, Mr. Chairman.
    Thank you, to the panelists. I'm sorry that I arrived late, 
although I've been following some of the conversation over C-
SPAN.
    Obviously, we're at a critical juncture in Iraq; nobody 
denies that. I've expressed very strong skepticism for the 
President's approach he articulated several weeks ago. I have 
indicated that taking up the Iraq Study Group's recommendation 
of reaching out to the Iraqis and the Syrians makes some sense, 
understanding that the prospects for success are going to be 
limited. And I'm just curious as to your assessments of if we 
were to pursue that--although it doesn't appear that the Bush 
administration is willing to at this point, but this is 
something that may be coming up in the future. This issue may 
arise if, as I anticipate, the surge strategy does not prove to 
be one that changes that dynamic significantly. I am interested 
what conditions or what framework or what approach you would 
use to structure these conversations, in very practical terms? 
And maybe I can start with you, Ambassador Ross. You know, how 
would we frame these conversations so that it was most likely 
to succeed, understanding that there's a possibility that Iran 
and Syria both decide it's not worth it to them to pursue a 
constructive strategy, as it is better off to just let the 
United States flounder in the situation that it's in right now?
    Ambassador Ross. I would say--I'd make a couple of points--
first is to understand that both Syria and Iran are more 
capable of being spoilers within Iraq than fixers. Second, 
don't single them out; treat them as a part of a collective. 
They should be there in a regional forum. The fact of the 
matter is, all the neighbors are going to be able to make 
certain kinds of contributions. Probably the two most important 
neighbors, I would say, in this regard, are probably Saudi 
Arabia and Iran. So, the question is: In a regional context, a 
regional forum, is it possible, for their own reasons, to help 
to facilitate what could be some understandings between the two 
of them so that they would use their influence--the Iranians on 
the Shia militias, the Saudis on the Sunni tribes? So, I'd try 
to put it more in a regional context.
    There can be other reasons to be talking to the Syrians and 
to the Iranians on other questions. I wouldn't put that in the 
regional forum. But if we're focused on Iraq and we're trying 
to get them to change their approach to Iraq, we need to be 
realistic about what they can do and what they can't do. We 
need to put it in this larger context. We don't want to 
exaggerate their significance, but we also don't want to ignore 
the kind of role that they can play.
    Senator Obama. And, in terms of what's on the table and 
what's not on the table for discussion, would you lay out some 
very clear parameters? Are there some things that you would try 
to cordon off that--we're just going to talk about Iraq here, 
and we're not going to add a whole bunch of other issues to the 
agenda.
    Ambassador Ross. I would, yes; and I think, in the--at 
least--again, if you're going to put together a regional forum, 
if you don't have a very precise agenda, it will suddenly 
become completely unmanageable, and you're going to have a lot 
of issues where, necessarily, we're not going to be real 
thrilled to be talking about them in that kind of a setting. 
You create a regional forum in that circumstance, and the 
Iranians could basically decide, ``All right, we're not going 
to do anything in Iraq until we're satisfied on what's going to 
happen for the Palestinians.'' Suddenly, you've created a forum 
where you can't focus on what you need to focus on, and it's 
their agenda rather than yours. So, I would try to--I would 
certainly focus it that way.
    Again, if you're going to deal with them, you're going to 
engage them on a bilateral basis--by definition, that's in a 
different setting, and you have a very different kind of basis 
on which to proceed.
    Dr. Nasr. I have--just quickly--I think, actually, it--at 
least in terms of having this scenario succeed, it's not 
productive for the United States to show up at the regional 
setting as part of one team--namely, part of Saudi Arabia's 
team. I think, particularly in Iraq, it's important that, 
because everybody has a vested interest and you want to arrive 
at a solution where everybody can live with, that this be a 
genuinely regional forum. I think probably the direction that 
we're going right now has made it more difficult for the 
Iranians to come to a regional environment, because the 
perception is that the United States is going to be doing what 
Saudi Arabia wants, which I think, going to Ambassador Ross's 
point, is actually remove the kind of fear that would have made 
the Saudis really be cooperative.
    And I also think that even though, in the back of our 
minds, there are larger issues, like the nuclear issue, like 
the issue of Iran's regional power, if the Iraq forum is going 
to succeed, those issues, including the Palestinian and the 
Lebanese issue, should not be on the table. The purpose of an 
Iraq forum should not be containment of Iran. Iranians would 
have absolutely no incentive participating in a forum and in a 
foreign policy agenda that is not directed at stabilizing Iraq, 
but as--directed as--at downsizing them.
    Senator Obama. Good.
    Richard.
    Ambassador Haass. I'd say a few things. The United States 
should not be the one calling for the diplomatic forum. I would 
suggest something like the United Nations. We'd need to have a 
powerful endorsement from the Iraqi Government. You could not 
have this be, if you will, a reluctant exercise. You'd include 
the six neighboring countries of Iraq, possibly the permanent 
members of the Security Council or the Europeans could be 
represented by the European Union. What you'd want to do on the 
agenda is have such things as border security, and the 
responsibility of every neighbor to police its borders. You'd 
want to have certain rules and standards about things coming 
across the border--arms, money, so-called volunteers of any 
sort. You'd want to have a coordination and pooling of economic 
resources. Again, we've had a pretty good model, which is the 
Afghan ``six plus two.'' I was involved in it, for a time, as 
the U.S. Representative, and it worked at my mid-level and at 
the level of the Secretary of State. And we actually were able 
to cooperate with Iran and others at trying to regulate some of 
these issues, vis-a-vis Afghanistan, to bolster the Government 
here.
    Now, I'll be honest with you, it will be more difficult 
now, given that 3 or 4 years have elapsed. I'm sorry we didn't 
set this up before the liberation of Iraq. This is the sort of 
thing that could usefully have been in place as part of getting 
ready to manage----
    Senator Obama. Right.
    Ambassador Haass [continuing]. An aftermath. So, as usual, 
we're playing catchup. And, again, not everyone's going to come 
to the table, needless to say, with the same agenda. But I do 
think we have some experience with this kind of a standing 
group. The agenda is not beyond the wit of man to work out. And 
what I like about it is is that it sets up clear standards that 
we can measure, and it gets it out from under the United States 
and Iran. Coming back to Vali's point, we want this to be an 
international undertaking that actually puts the focus or the 
spotlight on Iraq's neighbors and is designed to help a 
government that needs help.
    Senator Obama. Yes.
    Mr. Chairman, how am I doing on time? I wasn't clear.
    The Chairman. You've got 8 seconds. [Laughter.]
    Senator Obama. I have 8 seconds? That's enough to get one 
question in. This question may have already been addressed, in 
which case, let's skip over it.
    The Chairman. You're out of time, but go ahead. [Laughter.]
    Senator Obama. But--that was a quick 8 seconds. What risks 
exist in a well-structured, well-designed forum of the sort 
that you are describing? And, again, if this has already been 
answered, I apologize. But if it hasn't I've been curious as to 
the resistance to taking this approach. Part of it apparently 
is the administration's belief that not talking to a country is 
punishment and somehow gives us additional leverage. I think 
that's absolutely wrongheaded.
    The Chairman. In the interest of time, gentlemen, would one 
of you--you have answered that question already, but----
    Senator Obama. OK.
    The Chairman [continuing]. But would one of you answer it, 
very briefly so other Senators can get questions in before the 
caucuses begin?
    Ambassador Haass. The consensus here, Senator, is that 
there's not great risk. At worst, you would try it and it 
wouldn't succeed; at best, you would try it and it would be 
stabilizing for the situation. And I think there's a consensus 
here that you want to keep it narrow, if you will, Iraq-
specific, and that, under those circumstances, it's worth 
trying, though, people's expectations are modest.
    Senator Obama. Good.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. I'd point out that, a year ago, 
not just I, but Secretary Kissinger and Secretary Schultz and 
others, all suggested this. It's interesting to hear you all 
say that it really should be something coming out of, in my 
case, I think, the Permanent Five of the United Nations, but, 
if it doesn't come from above, that ends up with a contact 
group, in effect, being left behind, it's not going to go very 
far.
    Senator Vitter. Thank you----
    Senator Vitter. Thank you, Mr. Chairman.
    The Chairman [continuing]. For your patience.
    Senator Vitter. Thanks to all of our witnesses.
    I want to pick up on two things you've been discussing 
recently. One is this regional forum focused very specifically 
on Iraq, not every grievance everybody has in the region, and 
the second is the idea of clearer benchmarks for our continued 
involvement.
    It seems to me that both of these ideas could be possibly 
useful additions to the sort of things the President has 
announced, and they aren't directly in conflict with it. 
Without asking you to endorse anything the President has 
announced, does that strike you as the case, that they aren't 
diametrically opposed, but they can be part of the same general 
approach? All three of you, quickly.
    Ambassador Ross. Yes; I don't see it as being in 
competition. You might find it more difficult to put together a 
regional forum, on the part of some, if they feel that they're 
somehow endorsing what we're doing. But I think the fact is, 
it's not in competition.
    Dr. Nasr. I would say that it actually can be beneficial if 
such a forum would actually provide the missing piece of this 
strategy, which is a political plan that then can actually 
bring some stability.
    Ambassador Haass. Setting up a regional forum should not 
preclude the United States from also introducing bilateral 
dialogs with both Syria and Iran. There are things that could 
be introduced in a bilateral framework that could have 
consequences that conceivably could also help Iraq in ways that 
a regional dialog wouldn't. And on benchmarks we need to think 
about our reaction if and when benchmarks aren't met. We don't 
want to get into the situation where we aim the gun at our own 
head. And so, we need to think through: What's the sanction? 
Because, again, doing less, beyond a certain point, might be 
the sort of threat we may not want to follow through on because 
of the consequences.
    Senator Vitter. On benchmarks, because I wanted to hit 
that, too----
    Ambassador Haass. I'm sorry.
    Senator Vitter. Strikes me that benchmarks are probably a 
very good idea. It also strikes me that they should probably be 
very clear, but private and not public. Can all three of you, 
very quickly, react to the idea of private versus publicly 
announced benchmarks?
    Ambassador Ross. On that one, I would prefer to see them in 
public, because I think we've had plenty of private benchmarks. 
And, again, my experience in the Middle East--and I've done a 
lot of negotiating out there--whatever is done in private, 
unless the--who you're dealing with knows there's a public 
consequence, it never changes their behavior.
    Senator Vitter. Let me just follow up on that. Isn't there 
a danger that public benchmarks give the enemy, whose clear 
focus is to outlast us, a clear indication of what they have to 
do to beat us, to outlast us?
    Ambassador Ross. Well, yes, that's true, but we're now 3\3/
4\ years into this. If we were at the beginning of this, if we 
were having this discussion 3\3/4\ years ago, I would say I 
agree with you. At this point, though, we're 3\3/4\ years into 
it, No. 1; No. 2, the President, in his own--in his speech, 
when he laid out the--his explanation for the surge, he's 
identified a serious of benchmarks, which are now in public. 
So, I think, in a sense, we've already passed that point.
    Dr. Nasr. I would say public benchmarks are important, 
because the Iraqi Government's very different from any other 
Middle East government we're dealing with. It actually is 
functioning in a coalition that the Prime Minister has to be 
able to move with him if it's going to make any steps. And I 
personally think this is not just about Maliki. It's much more 
about, you know, the will of the entire Iraqi ruling coalition, 
and I think they ought to know where the United States position 
is. And if--and, therefore, they would be more supportive of 
the Prime Minister in making that----
    Ambassador Haass. Senator, let me give you a slightly 
different answer, though. I agree that any benchmark made in 
private would become public in around 30 minutes. You have to 
ask yourself: What's the purpose? Are these benchmarks designed 
to help the Iraqi Government succeed, or are these benchmarks 
to set them up for failure? They will likely fail, in which 
case it gives you a rationale for doing less, possibly nothing 
at all. That's one rationale for benchmarks, which would then 
place the onus of collapse and failure on the Iraqis. A 
different approach to benchmarks might be, ``We think that by 
setting these, we're more likely to get them to actually meet 
these benchmarks, possibly in the context of a regional 
conference.'' But that's a far more ambitious foreign policy.
    Senator Vitter. Yes. I also want to touch on the difference 
that we've sort of talked about between multilateral regional 
talks, very narrowly focused on Iraq, and maybe bilateral talks 
with Iran or Syria, whomever. It seems to be a big difference 
between the two. I can understand the usefulness--potential 
usefulness of the former. I see some clear dangers of the 
latter. And I specifically want to go to, Mr. Ross, one of your 
comments, looking at the situation in Iran now, noting some 
real debate. Isn't that--some of that debate at least partially 
the result of our attempt to isolate the government, and sort 
of somewhat of a validation of avoiding those direct bilateral 
talks that are going to go straight to their nuclear program, 
or whatever?
    Ambassador Ross. Yes; I think it is. And my view on the 
negotiations is, I start with the regional context, and that 
also becomes an interesting way of measuring whether or not you 
see a value, in terms of moving to a bilateral forum with each.
    You know, in each case you also have different kinds of 
options. I'll give you an example. Let's say that we wanted to 
begin to start a discussion with the Syrians. Well, maybe we 
would start it through the Europeans, right now. The Europeans 
have forces on the ground in Lebanon. I believe that there is a 
flashpoint coming. I think that we could see a reemergence of 
the war in Lebanon in about a year's time, because Hezbollah's 
being resupplied, nothing is being done to stop that. Now, the 
Europeans, having forces on the ground in Lebanon, have a huge 
stake in ensuring there isn't a flashpoint. We could coordinate 
an approach with the Europeans on how we would deal with the 
Syrians, and it could involve our coming and joining it, at a 
certain point. You can be creative, in terms of how you 
approach it. I wouldn't start with us rushing to bilateral 
negotiations with either the Syrians or the Iranians right now, 
but I think it's a mistake to think that talking, itself, is a 
sign of weakness. Talking, itself, is not a surrender. It's 
only a surrender if you choose to surrender when you talk. So, 
we should pick the time when it's most advantageous and when 
you're also not sending a message to them, either the Syrians 
or the Iranians, that current postures that we think are the 
wrongheaded postures are not, in fact, working.
    Senator Vitter. Final question, Mr. Chairman. Go back to 
benchmarks. Again, I can see the usefulness of benchmarks, but 
another part of me reacts as follows. As an American citizen, I 
don't begin to understand the notion that it isn't patently 
obvious to the entire world that this is it. I mean, we're 
debating whether there's going to be a final chance, and it 
seems beyond debate that there's not going to be a chance 
beyond this possible final chance. Am I missing something? I 
mean, aren't we making a little bit much of these benchmarks? 
Isn't that obvious to everybody?
    The Chairman. Good question.
    Ambassador Ross. I don't know, there's a lot of things 
about Iraq that I would have thought were--would have been 
obvious a long time ago, so I'm not so sure.
    The Chairman. Senator, thank you. Thank you very much.
    The Senator from Florida.
    Senator Bill Nelson. OK. Was the Senator from Massa-
chusetts----
    The Chairman. He's already asked his questions.
    Senator Kerry. I haven't----
    The Chairman. Oh, you--I'm sorry. I beg your pardon. I beg 
your pardon. [Laughter.]
    Senator Bill Nelson. Is there----
    The Chairman. I beg your pardon.
    Senator Bill Nelson [continuing]. Is there something rare 
at this table among competition?
    The Chairman. No, what's rare is, I got up to make two 
phone calls, and I'm sorry, I thought you already had gone, 
John.
    Senator Kerry. It's fine. I----
    The Chairman. I apologize. I apologize.
    Senator Kerry. No problem. No problem. Is that OK? Are you 
comfortable--thank you.
    I apologize, because I've been in and out of the hearing, 
and I apologize for that to our witnesses, because we've had a 
competing Finance Committee markup right across the hall, so--
on the minimum wage tax bill.
    Let me just confirm, if I can, quickly--first of all, thank 
you, all of you, for being here. Thank you for your experience 
that you bring to the table. And if I can just confirm what 
Ambassador Ross said, I just came back a few weeks ago from the 
Middle East and from Lebanon, among other places, and it was 
really shocking to me, and an eye opener to me, the degree to 
which we're missing the boat there, too. For all of the talk of 
democracy and democracy-building, there you have this 
struggling democracy and Hezbollah is, indeed, not just being 
rearmed from Syria and Iran, but is receiving some 
extraordinary $500-million-plus, equivalent, coming in to 
rebuild it. So, Hezbollah is doing a better job of rebuilding 
Lebanon than we are, and yet, we profess to care about the 
democracy and those struggling for it. The Seniora government 
stood up remarkably, by many people's judgment, to this press 
by Hezbollah and Nasrallah and company, to throw them out, and 
we're not doing half enough to do this. So, I mean, you compare 
the billions of dollars going into Iraq, and the first line, I 
think, of confrontation is in Lebanon; the second line is going 
to be Hamas and what's happening on the West Bank; and the 
third, indeed, is Iraq. So, we are missing the boat in every 
regard, as far as I'm concerned.
    Dr. Nasr, I want to congratulate you on your book. I read 
your book before I went over. I wish I'd done it a long time 
ago. I wish that book had been written some time ago. It's a 
superb, superb presentation of the foundation of this 
confrontation. And everybody here ought to understand it in 
that context. I want to ask you a few things about that, and 
all of you, about that.
    As we think about, you know--I mean, I was listening to 
this conversation about benchmarks and where we are and where 
we find ourselves. You know, this thing is obviously--the clock 
is more than ticking, this is running out, big time. And I 
think you would agree with that. And if--the first question is: 
Are the consequences of whatever chaos flows out of here as 
serious as they are being described, or is there some sort of 
fallback position, where you have troops in the desert, you 
have troops in Kuwait, you sort of make it clear to Iran 
there's no big move here, but you allow these forces that have 
been released, that Dr. Nasr so aptly described in the Shia 
revival, to sort of play out what they're going to play out 
that we can't necessarily stop? So, there are several questions 
there. Are the stakes as high as everybody says? And is there a 
fallback position that reduces the consequences? And is this a 
civil war that may have to be fought?
    Dr. Nasr. Thank you, Senator.
    I think, you know, we can--without a doubt, I think the 
ripple effects of Iraq are going to be with us. And I think the 
worse the endgame in Iraq is, the more likely we're going to be 
dealing with a lot of fallout across the region. And I think we 
won't be able to deal with that without having some kind of a 
regional framework or understanding that would help us. And I 
think Iraq is the place, other than the stability of Iraq, that 
there is certain understanding between the main players in the 
region, in terms of where their interests lie. And----
    Senator Kerry. But let me just ask you about that. When you 
say that--the main players in the region are Sunni.
    Dr. Nasr. Well, also including Iran. You know, I think, in 
some ways, in terms of at least current military assets, size 
of population, geography, in many ways, Iran is the big asset. 
So, the question for us is that, you know, in managing this 
region, do we do so in continuous confrontation and containment 
with the largest force there, or we will try to establish some 
kind of stable environment in dealing with it?
    The second issue that I think we often don't note is that, 
you know, the physical outcome of Iraq, in terms of wars, civil 
wars, some of which Ambassador Haass pointed out, to--it comes 
to the question of what kind of assets we have. How thin can we 
get spread and still handle it? And how long are we really 
willing to have large numbers of troops deployed in the Persian 
Gulf? But there is also a--an ideological fallout coming out of 
Iraq, which we are only beginning to see; namely, the kind of, 
you know, extremism that is now brewing both on the Sunni and 
on the Shia side. It ultimately is--if Iraq ends up escalating 
further, is not likely to remain contained over there, and is 
likely to spread out of the region. And that's something that, 
you know, has been----
    Senator Kerry. But the only way to not have it spread--and 
I want to get--I mean, the only way to not have it spread, it 
seems to me, is, you've got to resolve the fundamental stakes 
between the parties. Now, what you described in your book so 
aptly is centuries of a force that has been released by giving 
the Shia, at the ballot box, what they've never been able to 
achieve otherwise, and they're not about to give it up. I mean, 
I met with Mr. Hakim; he wants no changes to the Constitution. 
Muqtada al-Sadr has his ambitions. What are--how do you resolve 
those stakes in a way that then addresses the Sunni presumption 
of right to rule and of restoration?
    Dr. Nasr. We will not be able to do that, Senator. It's--
looking at it the other way around is probably more 
appropriate. How can we prevent it from becoming worse than it 
is? And I think American foreign policy not falling into the 
trap of sectarianism itself is a beginning. I mean, not taking 
sides, not playing the sectarian card, not sort of--and 
actually, I think it's in our interest for the main 
protagonists here at the regional level--Saudi Arabia and 
Iran--that don't go down the path of an intensified competition 
in the Persian Gulf. We're not going to be able to build this 
thing from bottom up, as you said.
    Senator Kerry. But do you believe that--any of--again, I 
want to get the rest of you into this--are oil revenues and 
federalism going to resolve that difference? It seems to me 
they're not.
    Dr. Nasr. No; they're not.
    Senator Kerry. So, if they're not, aren't you left with two 
parties for whom the presence of our forces is now empowering 
them to basically play out their power struggle under the cover 
of our security blanket?
    Ambassador Haass. I wouldn't put it quite that way, because 
if we were to leave, it's quite possible that they would play 
out their power struggle on a more intense level.
    Senator Kerry. Well, we're not talking about leaving. We 
talked about----
    Ambassador Haass. OK, reducing, right.
    Senator Kerry [continuing]. Ways of----
    Ambassador Haass. Sure.
    Senator Kerry [continuing]. Redeploying that prevent that 
from happening and still protect our interests. But if you 
can't resolve them to stop them from killing the way they are 
today, my question is: Can you stop them?
    Ambassador Haass. No. I won't speak for my two colleagues, 
I'll just speak for myself, Senator, but that's where I think 
we are and where we're heading. I simply can't see the 
ingredients here of solving the political dispute that's at the 
basis of things. I don't think you can come up with a political 
choreography that--how would I put it?--is enough for the 
Sunnis and is not too much for the Shia. I simply don't believe 
that you can thread the needle that way.
    Senator Kerry. Well, that's a recipe for a long struggle 
between them, isn't it?
    Ambassador Haass. Yes, sir. And I believe that there will 
inevitably be a long struggle. And, coming back to Senator 
Corker's point before, what we may need to think about, then, 
is a long-term strategy, where we try to keep a lid on events 
in Iraq, at the lowest possible human, military, and economic 
cost for ourselves. I was involved for years with Northern 
Ireland, and one of the things you realize in looking at these 
disputes that go for years or decades, is they have a certain 
life cycle. And at some point you need a large percentage of 
people on the various sides of the dispute to essentially get 
up one morning and say, ``Hey, this isn't worth it. We've got 
to start compromising. I am tired of this being my life.'' And 
in Northern Ireland, thanks to a decade and a half or two 
decades of British, Irish, and American diplomacy, we are right 
on the cusp of that point. It may take years--indeed, it will 
take years--for Iraq, and for the Shia and Sunni and the Kurds 
in Iraq, to reach that political point where they're prepared 
to compromise in order to move away from a reality that's 
become awful. But it will take years to get to that point.
    Ambassador Ross. I would just echo that, I guess. Part of 
what you--the question you're asking, Senator: Is there a way 
to contain this, and contain all the worst consequences of what 
could be a real convulsion? If you don't contain it, I do think 
that it's a disaster. I mean, there's no question, you'll have 
every neighbor intervening in Iraq to carve out their own niche 
or to promote their own ally. So, somehow you have to see if 
you--through a regional forum, you can reach some baselines of 
understanding to contain it. You reposition our own forces in a 
way designed to contain it. And you probably realize, even 
though--I mean, I'm a little--I'm pessimistic, but I'm a--I 
haven't--Richard knows it's my nature not to give up, so I 
still think there is a--there may be a possibility, if you can 
sharpen the consequences on the inside, at a time when I think 
we do keep the lid on in a way that makes it safe enough for 
everybody to avoid the hard decisions, maybe you can yet 
produce something politically. If you don't produce something 
politically, nothing's going to change. The alternative may 
well be--which is what I've also feared--we're going to see a 
15-year civil war--a 15-year civil war, and, at the end of that 
time, there may be a level of exhaustion, where everybody wakes 
up and says, ``All right,'' you know, ``now we'll agree to work 
out some basis of sharing the oil revenues. We'll have some 
kind of extensive autonomy within the provinces. We'll have a 
central government with limited powers.'' You know, the hope 
was to try to create a transition--this is basically what you 
were talking about--create a transition to that that is much 
more peaceful, much less costly. The reality may be, we're 
headed toward this long, painful, brutal internal civil war, 
and the question is: Given the danger of not containing it, 
what do you have to do to be able to contain it?
    Senator Kerry. My time is up, but, if I could just close 
out by saying that the frustration for a lot of us here is that 
what seems obvious has been ignored and simply shunted aside 
for years now by the administration, which is why none of us 
have any confidence about these steps that are being taken. 
Senator Biden and I, and a few others, not many, have been 
advocating for almost 3 years for this contact group, slash, 
forum, slash, summit, whatever you want to call it, that only 
reluctantly are they even, you know, still talking about it, 
let alone embracing it. It's kind of shocking to see your own 
Secretary of State of an administration go to the Middle East 
and discover--and--that the Middle East peace process needs to 
be accelerated and put on the table. It's a little shocking to 
have your new Secretary of Defense go to Afghanistan and find 
what we've been saying for almost a year or more: We need more 
troops there. I mean, it--it's just stunning to me that 
commonsense step after commonsense step has not crossed the 
threshold of this administration, and we're paying a stunning 
price for it. And it's tragic for those kids who are over 
there.
    The Chairman. Thank you very much, Senator.
    Are you ready, Senator? I was trying to get you prepped 
there earlier by calling you first. [Laughter.]
    Go to it, it's yours.
    Senator Bill Nelson. There is frustration coming out of 
this, Senator, over concern about the troops. A bipartisan 
commission comes forth and says what we ought to do, and they 
do this in a very methodical, substantive, bipartisan way, and 
the administration ignores this, and, as a result, puts our 
troops in greater harm's way in the middle of a religious war, 
while, at the same time, for the long run, depleting our 
ability to replenish our Reserves, our National Guard, and our 
equipment. It is quite frustrating. And you all, all three of 
you, have testified that you don't see the need for this troop 
increase.
    Let me ask you this. Ambassador Ross, you had previously 
said that you don't see any change happening, unless the United 
States were to say privately to Maliki, ``You've got 6 months. 
We can't keep the lid on any longer without results.'' So, if 
the administration is not saying this privately--and comment on 
that, if they are saying it privately--but if they're not 
saying it privately, what then can we, as representatives of 
the people say publicly to push the Iraqis to deliver in a 
timely fashion?
    Ambassador Ross. Well, I would--I am hoping the 
administration is saying that privately. My own preference has 
been that we would announce that we were prepared to negotiate 
a timetable for our withdrawal, which gives them a chance to 
have an input into it, which gives them a chance to perform and 
have us change how we approach the timing. But the 
administration hasn't done that. I don't have high expectations 
that they're saying privately what I would wish they were 
saying. So, I think the most important things for you to be 
saying are that, since the President has now established that 
he has these commitments from Prime Minister Maliki, that if--
and we're in a position now to judge whether these commitments 
are going to be upheld or not--and if they're not, you make it 
clear there has to be a consequence, you make it clear that our 
policy's going to change.
    You've heard a slight difference in opinion between us 
about whether that can be used to get them to take political 
steps that they haven't been willing to take up until now, 
which is the key to changing Iraq. And if they can't, then you 
move toward more of a containment strategy to try to contain 
what is, I think, the sort of disaster that all of us would see 
taking place if there is an all-out civil war because we simply 
withdrew. Or what I would also say is--something as bad--I 
think it's a mistake for us to stay in the midst of a civil 
war. And we can't--I said it earlier, we can't simply stay 
there because it's going to get worse if we don't. That's a 
prescription for being stuck there forever and being thrust 
into the middle of a civil war, where our forces become the 
target of both.
    I would add just one last point and then turn it over to my 
colleagues. One of the concerns I've had about the surge from 
the beginning is that we run the risk that each side is going 
to see us putting forces in to protect the other. And when each 
side sees us putting forces in to protect the other, what that 
means, we'd become a target for both.
    Ambassador Haass. Senator, could I just say one thing?
    Senator Bill Nelson. Mr. Secretary.
    Ambassador Haass. What's often important, as you know, is 
not simply what happens, but how it happens and how it's 
perceived to have happened. And you asked what Congress should 
do in this circumstance. I understand the frustration, but my 
concern would be that Congress not do things that would change 
the widespread perception of causality away from Iraqis toward 
Americans. I think that would be----
    Senator Bill Nelson. Such as cutting off funding for the 
troops.
    Ambassador Haass. Yes, sir. I think that would be wrong, 
because it would make us the issue, and it would increase, 
dramatically, the repercussions of Iraq for American foreign 
policy around the world.
    Senator Bill Nelson. I agree with you. I want to stand up 
for the troops, and I want to stand up against the President's 
wrongheaded policy.
    Let me go back to this question of containment. What about 
Chairman Biden's idea of a tripartite arrangement?
    Ambassador Haass. I've long admired the chairman's idea. It 
is also put forward by my predecessor. The problem is not the 
idea. The idea is a reasonable idea. It is a good idea. The 
problem facing the idea is that it's a reasonable idea that's 
been introduced into an unreasonable political environment. If 
Iraqis were willing to sign on to this idea of distribution of 
political and economic power and federalism, all Iraqis would 
be better off, and a large part of the problem would fade. The 
problem is that we can't get Iraqis to sign onto a set of 
arrangements that would leave the bulk of them better off. We 
can't force them to be reasonable. And, at the moment, they 
have embarked on a path that is, in some ways, self-
destructive. The flaw is not inherent in the idea; it's just 
the very reasonableness that's at the heart of the chairman's 
idea is rejected virtually across the board by Shia and Sunnis, 
because they can't agree on the precise balance of political 
and economic power within their society. At the moment, there 
is no federal scheme they would sign onto.
    Ambassador Ross. The only thing I would say, though, as 
I've noted before, with 100,000 Iraqis being displaced a month, 
you're beginning to create the outlines of that on the ground. 
So, I was actually in favor of the idea before, and I think it 
may have more of a potential now, because of that reality.
    Senator Bill Nelson. When does the pain between the Sunnis 
and the Shiites get so bad that they finally say, ``It's time 
for us to reconcile''? Can we even answer that question?
    Dr. Nasr. It's clear, at least, Senator, it's not now. And 
I think both sides have a perception that they can win 
militarily on the ground. And I think, you know, that's one 
point Ambassador Ross and Ambassador Haass raised, that unless, 
you know, they actually see a limit to their strategy that 
there's not going to be a victor, they're not likely to look at 
the consequence. In fact, one of the problems being every 
measure, every benchmark that we've put on the table has 
actually accelerated the attempt for an endgame and more ethnic 
cleansing, more capture of territory.
    Senator Bill Nelson. And, all the time, our boys and girls 
are getting killed.
    What do you think about the Iraq Study Group's 
recommendation that we go and embed advisors? Last week, I 
asked Secretary Gates, sitting right at that table, ``How are 
we going to protect the embedded advisors?'' And so, we have to 
have troops in there to protect the embeds. But what do you all 
think about that recommendation.
    Ambassador Haass. My own emphasis would be far more on 
training than advising. I'm just worried that advisors are 
going to get caught in extraordinarily messy situations. And I 
just don't know, then, how we can look after the physical 
security of advisors. If we really talk about distributing them 
among every conceivable Iraqi unit, my concern would be a lot 
of American advisors are going to become casualties. So, again, 
I would put far greater emphasis on training because training 
need not happen right in the center. Regarding advising--and 
I'm not enough of an expert, and I see several people up here, 
like Senator Hagel and Senator Kerry who would be--we need to 
consider ways of structuring advising so that individuals are 
not put in highly vulnerable positions. We may have to cluster 
them in certain ways or have certain rules of engagement or 
operations, so our advisors are not put in such an 
extraordinarily vulnerable position. It may be one of those 
ideas that sounds better than it is actually possible and easy 
to implement.
    Senator Bill Nelson. Mr. Chairman, I would note, in 
closing, that at that very table, last week, the Secretary of 
Defense answered the question: ``When are we going to know if 
these troops are working in Baghdad--not Al Anbar, but 
Baghdad?'' And he said, ``We should know, within 2 months, if 
the Maliki government is getting its act together.'' Last night 
on the news--I don't remember who the official was, it may have 
been Secretary Rice--now has changed that to 6 to 8 months. And 
this is more of the rope-a-dope that is already emerging. It's 
this Senator's intention to hold the Department of Defense and 
Secretary Gates to that 2-month time limit.
    The Chairman. Thank you very much, Senator. I think the 
whole Nation's going to do that, as well, but----
    Senator Casey, you guys are probably wondering why I talked 
you into coming on this committee, after this long, but I'm 
delighted you did. I hope we haven't caused you to second-guess 
your judgment about joining this committee.
    Senator Casey.
    Senator Casey. Not for a minute, Mr. Chairman. Thank you.
    And I'm going to be real focused, on my time, because 
Senator Webb wants to get questions in, as well. But I'm 
grateful for this opportunity, and I want to thank you, Mr. 
Chairman, for assembling yet another great panel. We appreciate 
your expertise and your patriotism by the work that you do.
    And, at the risk of violating one of the ground rules for 
this series of hearings that Chairman Biden laid out, where he 
told us very directly--and I'm glad he did--to focus as much, 
or more, on the future as the past. I'm going to violate that, 
temporarily. And he will gavel me down if I do this the wrong 
way, but I don't think he will. Because I want to take a little 
bit of a look back, but also to look forward.
    And I represent a State, Pennsylvania, which is now third 
on the list of the death toll--third highest death toll--and it 
has a traumatic effect, as I said to Secretary Rice before 
questioning her--it has a traumatic, and almost cataclysmic, 
effect on very small towns and small communities in our State, 
as everyone here knows. But it--despite that horror and despite 
the heartache that these communities and these families feel, I 
think they know in their gut that this is as much about 
diplomacy and politics and--as it is about military strategy. 
So, I'm not going to ask questions about the surge today--the 
``escalation,'' as I think it's more aptly called--but to focus 
on a broad question for each of you, and then to have a couple 
more specific questions.
    The first broad question, which I address to each for you 
is: Looking back at just two calendar years, 2005 and 2006, how 
would you--and I'll let you choose this, because sometimes 
these can be too simplistic--but how would you rate or grade or 
assess this administration's diplomatic strategy, just for 
those 2 years? And then, the second part of the question is: In 
calendar year 2007, coming up, what would you recommend as a 
strategy, as specifically as you can? And I realize that giving 
letter grades to past performance can sometimes be misleading, 
but I'd like to hear each of you, on 2005 and 2006, and then 
what you'd recommend as a strategy for 2007.
    Ambassador Haass. Gee, thanks, guys.
    Let me push back slightly. It's surprising that you chose 
2005 and 2006, because I would have said that by then, a lot of 
the die was cast. If there were moments to do things, it was 
2003, sir. And it ought to have been put in place before the 
battlefield phase of the Iraq war or immediately afterward. 
That would have been the time, for example, to have set up a 
regional forum, and I believe it could have played a much 
larger role.
    Or consider Iran, when oil was far cheaper than it is 
today, when you had a leadership that was more moderate than 
the current leadership is, before the United States got as 
bogged down, as it has, in Iraq. We had far more leverage then. 
So, whatever diplomatic initiatives we would have launched, I 
believe, would have fared much better.
    We have paid a price in 2005 and 2006, as well as both 
before and since, for our policy of isolation, particularly 
with the Iranians and the Syrians. Diplomacy or dealing with 
problem states is not like laying down a good bottle of French 
wine that tends to get better with the passage of time. I don't 
see where either of these problems have evolved in ways where 
we find ourselves with more options. To the contrary, Iran is 5 
or 6 years farther along on its path toward developing a 
nuclear capability. We've now seen coming into power in Iran a 
far more radical individual. Syria and Iran have both 
exacerbated the problems in Iraq. There was an argument for 
dealing with them, both bilaterally and collectively, then, 
before 2005-06, during 2005-06, and in 2007. We are denying 
ourselves one of our tools of national security, and it just 
seems to me it tends to be a strategic error to place so much 
emphasis on the military tool and not to place a greater 
emphasis on the diplomatic tool. You never know if it will work 
or it would have worked. All I'm saying is, it might have, and, 
if it hadn't worked, that would have clarified things, that 
would have been useful, because then we would have understood, 
then, more clearly than we now do, what our options were.
    Senator Casey. Thank you.
    Dr. Nasr. I would, very briefly, say that when you talk to 
people in the region, they would characterize this period of 
one of nonengagement by the United States, and also a 
perception that the region has no solutions or no participation 
in the events that are unfolding. Many of them think that this 
marks a time period where they had very little influence in 
Washington. That's among allies themselves.
    I also think it's a period where the Middle East itself 
changed very dramatically, in terms of Iranian power, in terms 
of the situation in Iraq, but our foreign policy, because of 
its nonengagement, was still tailored to an earlier timeframe. 
And I think, looking forward, right now we're entering a phase 
where we're trying to play catchup. In other words, we'll deal 
with the consequence of having followed the foreign policy that 
was at odds with the reality on the ground and a consequence of 
nonengagement.
    Ambassador Ross. I'd make a few points. One, picking up on 
what Vali said, I am in the region a lot, and I would tell you, 
the perception of nonengagement is overwhelming, and it comes 
from everybody, those who would like--who, in fact, identify 
themselves as our friends. So, it's pretty hard to give a 
passing grade, when, in a sense, there's a perception of 
complete nonengagement.
    I would say one of the basic problems would be that we 
never identified objectives that were very realistic. We did an 
assessment that didn't seem to fit what was going on in the 
area. We didn't frame issues in a way that others could 
identify with and decide that the purposes that we were 
pursuing were the right ones, which makes it easier, therefore, 
to persuade them to join with us.
    When you look at specifics--take a country like Syria--I 
think our policy toward Syria has been ``speak loudly and carry 
a small stick.'' We've been very tough rhetorically and very 
soft practically. I would like to reverse that order. I think 
our bigger problem has--continues to be one that we're not seen 
as working on the issues in the region that matter to most of 
the people within the region. So, one of the reasons--I mean, 
I'm obviously someone who believes we should have been much 
more active on the Israeli-Palestinian issue, as I said 
earlier, not because of Iraq, because it's not relevant to 
Iraq, but because here is an issue that many, certainly 
throughout the Arab and Muslim world, identify as being a kind 
of core grievance. And for 6 years, we've sent the message that 
we're indifferent to it. So, on something that matters 
fundamentally to them, what they see from us is a kind of 
indifference, and that's going to cost you. And I'm afraid it 
has.
    Senator Casey. And I'm almost out of time. Real quickly, 
based upon what you know already and what you've seen transpire 
just in the last couple of days with regard to Secretary Rice's 
trip, what's your evaluation of what you know about her 
intentions there, and her schedule, and what you're seeing, in 
terms of positively impacting this? Do you think she's on the 
right track? Do you think she's on the wrong track? I know 
we're out of time, but just quickly.
    Ambassador Ross. Well, I think it's good that she is--she 
has said publicly, ''I've heard people say we need to be much 
more engaged, and I've heard them.'' So, that's a good sign. 
Again, the question is going to be, when you become engaged, be 
sure that it's based upon a realistic set of assumptions, be 
sure you've done the kind of analysis and you understand what's 
possible and isn't possible, and be sure you begin to prepare 
the ground behind the scenes with people to get them 
conditioned to what you're going to do and put the focus on 
what it is they can do. I mean, one of the problems we face in 
the area is, too often, I think, over the past several years, 
we kind of lecture to people about what they should do, but we 
don't listen nearly as much as we ought to.
    Senator Casey. I know we're out of time. Thank you.
    The Chairman. Thank you very much.
    Finally, Senator Webb----
    Senator Webb. We have again----
    The Chairman [continuing]. The floor is yours.
    Senator Webb [continuing]. Reached the--we have again 
reached the end of the road, Mr. Chairman. [Laughter.]
    And I want you to know it's a privilege to be on this 
committee. And one of the advantages of having to wait so long 
is to able--being able to listen to the superb testimony of 
people like these immensely qualified witnesses, and it 
certainly helps my understanding of the issues and the 
approaches.
    In an ideal world, I will be able to ask two questions 
here. I would like to, first, state my agreement with the 
notion that we do need to move toward some sort of a regional 
forum on these issues. And it is true, on the one hand, as 
Ambassador Ross pointed out, that salvation in Iraq will take 
place only inside Iraq, but, at the same time, because of so 
many things that have happened, the instruments for that 
salvation are unavoidably regional, at this point--a weak 
central together, very similar, in my mind, to the Lebanese 
situation there. And the reality that the centrifugal forces 
from this chaos have expanded into the region indicate that we 
have to move toward some sort of a regional conference in order 
to resolve this.
    The first question that I have was just alluded to a bit by 
you, Ambassador Ross, when you talked about this need for an 
approach on the Israeli-Palestinian situation. I'm very 
concerned about some of the perceptions of why that's important 
in our debate--the perceptions in our debate about why that's 
so important. At the beginning of this process, there were 
three different issues on the table, as we know. There was the 
Israeli-Palestinian situation, there was the issue of 
international terrorism, and there was the issue of Iraq. And, 
in many ways, we sort of conflated them at the same time, to 
use your words in response to Senator Hagel, by sending out a 
message of indifference. And it just seems to me that a 
vigorous approach in that area, not in the sense that it would 
apply directly to a solution in Iraq, but because it would 
apply generally and very importantly in terms of the perception 
of the United States as being evenhanded, would affect the 
region because of its impact on issues such as recruitment for 
terrorism and that sort of thing. And I'm just not--I'm not 
quite sure why this isn't happening in a way that it happened 
in past administrations where you were taking such a strong 
position, in terms of leadership. Do you have any idea of why 
this isn't on the table?
    Ambassador Ross. Well, my feeling is that when the 
administration came in, it looked at what had been done in the 
Clinton administration by the President, by me, as something 
that was noble, but futile, and that if you were really going 
to change the region, it made much more sense to deal with the 
rogue states. They would affect other moderates, or at least 
moderate states, if they saw that the rogue states were going 
to be either changed, in terms of their behavior, or, more 
likely, the regimes were changed, you would have much more of a 
geopolitical effect, you'd establish a kind of strength, and 
that--the presumption was that with Prime Minister Sharon in, 
with who Arafat was, diplomacy would--couldn't lead anyplace, 
so why put more good money after bad? And the problem with that 
assessment was that it tended to view the problem in, what I 
would say, completely polarized terms, that either you have war 
or you have peace. And the problem is, when you set up the 
equation that way, since you're not going to produce peace, 
then you're going to guarantee war. I said, at the time, when I 
was briefing, as--before I left--I said, ``Look, our challenge 
now is not to make peace, it's to be sure that we engage in a 
kind of management of the situation so it doesn't get much 
worse, because,'' I said, ``I promise you, it'll get much 
worse.'' One thing I've--the analogy I always used, in terms of 
the Israelis and the Palestinians, is, with a peace process, 
it's like riding a bicycle, as long as you're pedaling, at 
least you preserve something; as soon as you stop, you crash. 
And you see what happens when you crash. The perception of us 
as being indifferent has taken root. The--both sides have come 
to believe that the other has no interest in peace and isn't a 
partner for it. So, now, trying to dig out of the hole is 
vastly more difficult than if we had contained this and created 
an environment where peacemaking was going to be possible later 
on. I think it was a mistaken assessment that was made. I think 
that's what accounts for it.
    Senator Webb. Thank you.
    The second question is--would be asked generally to all of 
you--when I watched, from the third row in the bleachers last 
year, the Israeli incursion against Hezbollah, I noticed that, 
at the beginning of it, it--there was a moment--there was a 
moment there that we may have lost, in terms of regional 
realignment, where there were early condemnations from the 
Saudis and others against Hezbollah. And we did not take 
advantage of this moment, as--the administration did not take 
advantage of this moment. And there is a potential there, I 
believe, if those types of moments are taken advantage of, that 
you could see different realignments in the region. Would you 
have any comment on that?
    Dr. Nasr. I would say, you know, that had to do somewhat 
with, also, this--both the sectarian divide and the Saudi-
Iranian rivalry.
    Senator Webb. Right.
    Dr. Nasr. I think that moment, sort of, passed, because the 
war ended up popularizing Hezbollah on the Arab street. But it 
also points to another dynamic we're likely to see, is that the 
more the Shias and Sunnis begin to fight, the more they're 
going to escalate the heat on the issue of Israel in their 
competition for popularity and support on the Arab street. And 
in that sense, it's not going to be very easy for the moderate 
Arab governments to now come out and support, sort of, a 
realignment without having to guard their flank against 
Hezbollah and Iran.
    Ambassador Haass. I think, Senator, there also may have 
been something else. As you point out, in the initial phases of 
the summer's conflict, there was Arab condemnation of 
Hezbollah--in part, because of the terrorism, in part, because 
of the Iranian backing. Israel, and also the United States, 
rather than grasping that opportunity and translating that into 
something political, essentially got more ambitious at that 
moment. The two governments were hoping that over the next days 
and weeks, that you would actually have a strategic weakening 
of Hezbollah, which would produce a bigger political 
opportunity. One lesson that came through is that when one goes 
up against the sort of organization that Hezbollah is, some of 
the classic calculations of what can be accomplished militarily 
and how that translates into political gain simply don't work. 
That opportunity just came and went.
    Senator Webb. Not dissimilar in concept to your remarks 
about the failure to engage Iran when we were in a position 
that was more powerful, rather than to having to face that in a 
position when we've become weakened.
    Ambassador Haass. Timing counts for a lot in life. And in 
diplomacy, just to give one other example, going back to 
Senator Casey's question about 2005-06, and I said 2003 was 
more important, there were moments in the initial aftermath of 
the battlefield victory, when the initial looting took place, 
when I believe that, had the United States acted with more 
forces in a more assertive way, we may have changed the course 
of political and physical behavior in Iraq from that point on. 
That said, you can't go back. You can't recreate those moments. 
And, you know, it's always less difficult to identify critical 
moments in retrospect. Your rearview mirror tends to be clearer 
than your windshield; I understand that. But, still, we've got 
to understand what we are getting into and think ahead, what 
are likely to be the turning points. Because this is not the 
first time we have faced these sorts of situations.
    Ambassador Ross. I would just add to what Richard was 
saying. I think that timing in diplomacy is like location in 
real estate: It's everything. If you don't seize the moment--
and in the Middle East, I will tell you, every time you miss an 
opportunity, you're always worse off. If you hadn't had the 
opportunity at all, you'd be better off than to have missed one 
that's come along. And we missed one. In the first week of the 
fighting between Hezbollah and Israel, all of the--almost all 
of the Arab leaderships, with the exception of Syria, came out 
against Hezbollah. It was absolutely unprecedented. We needed, 
in that week--and, by the way, this is not a rearview mirror 
view; there were many of us who were saying, ``You have an 
opening. Go mediate between the Saudis and the Israelis. Go to 
the Saudis and basically say to the Saudis, `You want to get us 
to produce a cease-fire there? You produce a plan, an Arab 
plan, and you have the Prime Minister of Lebanon, who's calling 
for an Arab plan.' '' And Hezbollah, in the first week, was 
completely on the defensive within Lebanon.
    Senator Webb. For the record, I was saying the same thing 
on the campaign trail. Well, thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Gentlemen, your testimony has been remarkable, in the sense 
that all the testimony we've had, with the single exception--
and I'm not being facetious--of the Secretary of State, has 
agreed on certain basic fundamental premises as it relates to 
Iraq and the region. I mean, it is amazing, because we've had 
testimony, as you know, from men and women who have specific 
plans. And we're going to hear more from others who are going 
to come forward with specific plans, proposals of how to 
proceed from here. And it's remarkable that everyone agrees 
that there is--at a minimum, there's no good solution. The idea 
of a liberal democracy in Iraq is not going to happen within 
our lifetime, and we should get on with understanding what a 
more realistic, optimal solution would be, and it's far less 
than that.
    Second, Iraq occupies and consumes all of our attention, 
the bulk of our military, the significant portion of our 
resources, and our diplomatic flexibility, at this point. Today 
I met with a very bright woman who was down in Nicaragua, 
coincidentally, at the time Ortega was being sworn in, and she 
said to me, ``None of you are talking at all about anything 
happening in Latin America,'' and she's right. And Secretary 
Haass talked about, you know, there are really some big issues 
out there, like places like Asia, you know, there are a few 
things going on there; the subcontinent, Africa. And so, 
everybody agrees that it's sapping our emotion, our intellect, 
our resources, our military.
    But the third thing everybody agrees on--it seemed to me, 
and I ask my colleagues if they have a different view--is that 
the solution lies within Iraq, that the Iraqis have to come to 
the point where their sense of vengeance and paranoia and 
desire has to somehow expire so they get to the point where 
they're willing to make some real, genuine compromises. And 
nobody thinks any of these compromises any of the parties have 
to make are easy. I mean, these are really hard. And unlike 
compromises we make, these men and women are going to have to 
put their lives on the line to make the compromises. It's not 
like: Make a compromise, and if it doesn't work, I get a 
pension. Make a compromise, if it doesn't work, I get killed. 
But everyone agrees on that.
    Everyone seems to agree that precipitous withdrawal would 
be a serious mistake. It would make bad things even worse, 
although everyone also acknowledges that we can't sustain this 
in a midst of a civil war. As I've said a thousand times, my 
colleagues are tiring of hearing it, no foreign policy can be 
sustained without the informed consent of the--the important 
word, ``consent''--of the American people. It's just not gonna 
happen. A year from now, I promise you, this ain't gonna be 
where it is today. It may be much worse, it may be better, but 
I promise you, the President will not have 10 votes in this 
place to continue ``stringing this out,'' whatever that means.
    And the other thing everyone agrees with is that, 
regardless of whether or not it can affect internal Iraqi 
machinations, there is a need for a regional--if not agreement, 
a regional consensus on containing what may spiral out of 
control beyond what it is within Iraq, because everyone fears, 
in the region, the total disintegration of Iraq. But what that 
leads me to is this--and, by the way I'm repeating, but the 
conclusion that, sort of, reemerges--is that you can't stay in 
the midst of a civil war, and there's a need for us to stay in 
the region.
    So, what I have observed, hanging around here as long as 
some people--I got here when I was 29, and trying to absorb 
what--and I mean this literally and sincerely--what experts 
like you have been saying off and on over the years, is that we 
used to have a--I used to have a nun in grade school--this is 
going to sound colloquial, but I think it makes the point. 
Every time you'd get engaged in someone else's problem and you 
end up disrupting the class, you'd stay behind after school--
and those of you who have gone to Catholic school remember, 
nuns used to make you write on the board, you know, when you 
stayed after school, in detention, a certain saying. And one of 
the ones that they would say we had to write--I'd have to write 
a lot--is that, ``Everyone can solve a problem except he who 
has it.'' And I've not seen any circumstance, Mr. Ambassador, 
where parties in the midst of a life-and-death struggle--coming 
out of environments where there have not been, for decades upon 
decades, any stable government representing a democratic 
instinct--I've not seen where they've been able to come up with 
what is even in their own interest. And there's always a need 
for some catalyst.
    And the last thing you all agree on is, we can't be the 
sole catalyst, at this point; we've, sort of, eaten our seed 
corn here. And so, we've got to get some portion of the 
international community to be that catalyst.
    Which leads me to what seems to me to be sort of a reality 
that everybody seems to ignore. I mean, everybody. And that is 
that we're pretty far down the road here in Iraq. We embraced, 
we promoted, we helped put together, and we pushed a 
constitution that the Iraqis, in a vote--for sectarian reasons, 
I would argue, but overwhelmingly endorsed. So we have a 
constitution that's in place there. There's two truisms that 
everyone except you, Dennis, recently--and maybe just you, me, 
and Gelb think this is possible--but seem to ignore; one is 
that there's already overwhelming ethnic cleansing taking place 
in Iraq. We've got millions now displaced. How many fit the 
absolute definition of being ``cleansed'' is another question, 
No. 1. No. 2, the Iraqi Constitution lays out, specifically, 
certain benchmarks. When it's defining what a ``region'' is, it 
says, in article 115, ``The federal system in the Republic of 
Iraq is made up of a decentralized capital, regions, and 
governates, and local administration.'' And it says--the next 
article says--by the way, first--of the article 116, first 
clause, says, ``We're agreeing ahead of time that Kurdistan is 
already a region. That's not negotiable.'' And then it says, 
second, ``The Constitution shall also allow for new regions to 
be set up.'' And the Iraqi Parliament went ahead and voted. It 
set up the mechanism to provide for those new regions.
    And so, at the end of the day--and I'll conclude with 
this--at the end of the day, if we all agree that surging and 
embedding and--inside placement of troops outside Baghdad, 
inside, are all tactics, not a strategy, not a plan. I don't 
know how we get from where we are to the prospect of avoiding 
the worst case. And that is a civil war that metastasizes, 
spreads beyond its borders, that becomes a regional war, that 
imperils a whole lot of our interests, and the world's 
interests--unless you get more than us to agree to an outcome 
within Iraq that is preferable, and use as much collective 
pressure as we can on those parties to accommodate the 
inevitable. Because it seems to me, it is inevitable, without 
the Sunnis having a guaranteed share of revenue and without the 
Shia being able to have some part of the region become a 
``region,'' there's no way to stop this spiral, and the 
American people aren't going to hang around.
    So, I am not married to ``the Biden/Gelb plan.'' And I 
admit, Richard, a year ago it made more sense, in terms of its 
possibilities, than it did 6 months ago and a month ago, but 
the irony is, I think it may be becoming so obvious that 
something along those lines has to happen. When we had the 
experts and historians in here, from Phebe Marr to others who 
were on that panel, they all said, ``You know, gosh, no one in 
the region likes it.'' I agree with that.
    But I think part of the reason no one likes it is because 
no deal works if one party really likes it. But there seems to 
me to be enough of the Sunni leadership that might see their 
way to swallowing a regional system, as called for in the 
Constitution, if they were guaranteed they got a piece of the 
action. And, conversely, there's enough of the Shia population 
and leadership that is beginning to look down this very 
narrowing hole and conclude that giving up a little more of the 
revenue gets them a whole lot more, at the end of the day, in 
revenue, as well as stability.
    So, I guess--those of you who have negotiated before and 
those of us who serve in public life, I think that optimism is 
an occupational requirement. I think if we don't think it is 
possible, then we're in real trouble. But I am hopeful that the 
President's plan will run its course, very rapidly--and I think 
it will, by the way. I think we're going to know something 
pretty soon. I agree that one thing that kind of confused--that 
I suspect that if Maliki is able to restrain the Mahdi 
Militia--and he doesn't control it, I realize--that this may 
look like progress for a while. That is possible. But I would 
hope that the administration is thinking about a plan B. I know 
they can't say it publicly, but I pray to God they're 
listening. I hope they are trying to reach some kind of 
consensus, because the one thing, understandably, in the 
interest of time, no one mentioned today, imagine what happens 
in France, in Germany, just those two European countries, if 
this is a full-blown civil war--14 percent of your population, 
or 10, depending upon which you pick--Arab, not satisfied; 
Kurds, looking if they're going to have to flee--it's going to 
be Germany--I mean, you talk about attracting the interest of 
the region.
    And I'll end with one little story. Our harshest critic has 
been Chirac. Most of my trips--I can't remember which of the 
seven trips--to Iraq, I try to stop by and see Chirac on the 
way back, with others. And I can say this now, a year and a 
half ago or 2 years ago, Chirac said, ``The worst thing America 
could do is leave.'' And I said, ``Mr. President, I think until 
you're aware we're going to leave, you're not going to act very 
responsibly.''
    So, I guess what I'm saying is that you all have laid out--
and I welcome any comment anybody would wish to make about my 
closing comments here--but there seems to me to be certain 
inevitable things. Leaving right away is a disaster. Limiting 
the number of troops makes it difficult; even, practically, How 
do you do that? Staying in the midst of a civil war is not 
tolerable. I don't ever remember when we've asked the American 
people to stay and accept casualties to prevent something worse 
from happening. Not a victory, just--we're doing this to 
prevent--I don't know that that's ever happened, and I know it 
can't be sustained. And so, we'd better coalesce around 
something pretty quickly, and that is why I'm working very, 
very hard, at the front end of this, to try to generate some 
bipartisan--and I mean this sincerely; this is not the usual, 
``Let's love and embrace each other and be bipartisan.'' The 
only thing that's going to change this President's mind is if 
he realizes folks on this side of the table are as dissatisfied 
with his initiative as the folks on this side of the table, 
because then prices begin to be paid beyond Iraq policy for 
them.
    So, again, I can't tell you how much I appreciate your 
testimony. The public should know that your service to the 
country is not merely you showing up here. Probably every one 
of us has called on your time, hours and hours of your time, 
over the last months and years. So, it has been helpful. Let me 
end with that and invite any closing comment any of you would 
like to make. And you need not make one, but I would invite it, 
if you wish.
    Ambassador Haass. Let me just make one brief one, Senator. 
And thank you for having us today. You are right in 
highlighting the debate that has to happen here about what it 
is we do. But I do think there has also got to be a major 
debate in Iraq. And in order to maintain good relations, not 
simply with you, but with my predecessor, let me quote that 
famous strategist, Shakespeare, ``Ripeness is all.'' And the 
real question is whether Iraq is reaching a point of ripeness 
or not, when the sort of compromise you and others are 
suggesting has a chance of taking root. We would all love it to 
be the case.
    The Chairman. To make it clear, I'm not sure it is the 
case.
    Ambassador Haass. And we would like it to be the case. The 
question is: Are there things we can say and do to slightly 
increase the odds? And a lot of the benchmarks conversation is 
about that.
    Iraq, though, is a society of 20-odd-million people, and it 
doesn't take a very high percentage there of spoilers to make 
it very, very rough. And I simply don't think that enough 
Iraqis are psychologically and politically ready to make the 
sort of compromises that are in their own self-interest. An 
awful lot of history is about individuals and groups pursuing 
policies that are diametrically opposed to their self-interest. 
That's why history is as messy as it is. And my concern is that 
Iraqis are not yet there.
    And so, it comes back to the American debate. If they are 
not there, and it may take them some painful time to get there, 
it raises extraordinarily difficult questions for how we 
nurture that process to both get them there sooner than they 
would otherwise get there by themselves, and how we limit the 
fallout in that process. That is the next phase of our foreign 
policy debate.
    The Chairman. I couldn't agree with you more. There's no 
straight line here. Who knows what actions we take will impact 
on actions they take or don't take, and impact on actions the 
rest of the world looks at. This is a very complicated process. 
The only conclusion I would come to at this point is--that as 
the debate takes place here, it is better to start, if 
possible, from a bipartisan perspective on the things we can 
agree on.
    Ambassador Ross. I agree. I just would add that I think the 
key is: How do we sharpen choices both within Iraq and outside 
Iraq? And how do we do that in a way that still preserves 
containment as an option? Those are the two measures, I think, 
that you have to establish and try to orchestrate.
    The Chairman. And I hope that--I think you will see there 
is an overwhelming consensus on this committee to begin some 
version of engaging the region. I think it has to come from, 
essentially, the United Nations or from the Permanent Five or 
the major powers, but, whatever reason, to do that. And it's 
dawning on people, I think, Dennis, that it's not so much 
because it may be able to affect, directly, the events within 
Iraq, but will be able to deal with the failure in Iraq, if 
that is what--so, there are two reasons for it.
    Dr. Nasr. If I may add, Senator, in closing, that I agree 
with Ambassador Haass that people in Iraq are not there. But 
partly it is, I think, because both the Shiites and Sunnis have 
an exaggerated sense of their own regional capabilities. And I 
think partly the regional engagement or the international 
engagement's benefit would be to bring them down to Earth, that 
this is as good as it gets. And if we're going to go down the 
course of the plan that you mention, I think there has to be a 
deflation of expectations on both Shiites and Sunnis, in terms 
of how much the region will help them.
    The Chairman. I couldn't agree with you more. And, by the 
way, I want to make it clear, if anybody's got a better plan 
that is more likely to be accepted, now, next week, next month, 
next year, or 5 years from now, I am wide open to the plan. But 
it seems to me the only real value remaining in our plan is 
that it's mirrored in reality, it's mirrored in what's 
happening.
    Again, I thank you all very, very much. I thank my 
colleagues, particularly the new colleagues. And, I might add, 
I think we have, on this committee, picked up some really, 
really, really serious Senators who seriously engage this, know 
about it, care about it. And so, I'm looking for this committee 
to be a very productive vehicle for, at a minimum, this kind of 
discussion, because, again--I will end where I began--you all 
know better than I do that this is not a great legislative 
committee. We can't legislate foreign policy. But it seems to 
me our minimum responsibility is to expose our colleagues to 
the best alternatives available and to give the American people 
a better look. Not that everybody is watching this. This is a 
process, and a lot of people are going to find this boring. But 
I'm going to continue this, continue this through the next 2 
years or as long as I'm the chairman, because I think it is a 
process, and we owe it to the American people to conduct it.
    Anyway, thank you, gentlemen, you've been very generous 
with your time.
    The hearing is adjourned.
    [Whereupon, at 12:55 p.m., the hearing was adjourned.]


                     MILITARY AND SECURITY STRATEGY

                              ----------                              


                       THURSDAY, JANUARY 18, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Hon. Joseph R. Biden, Jr. 
(chairman of the committee) presiding.
    Present: Senators Biden, Feingold, Boxer, Nelson, Menendez, 
Casey, Webb, Lugar, Hagel, Coleman, Corker, Sununu, Voinovich, 
DeMint, and Isakson.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order.
    Hey, General, how are you?
    General Odom. Good morning.
    The Chairman. Yesterday, Mr. Chairman, I introduced a 
sense-of-the-Senate resolution, along with Senators Hagel, 
Levin, and Snowe, expressing opposition to the President's plan 
to, from our perspective, deepen the military involvement in 
Iraq. And that resolution, Senate Concurrent Resolution 2, was 
referred to this committee. As you and I have discussed, it was 
my intention to schedule a committee action on that resolution 
today, but you have asked me, totally appropriately, to hold 
this matter over until next week. And unless something has 
changed--which is totally consistent with the practices of this 
committee--we'll honor that request and it will be held over 
until next week, if that's appropriate.
    Senator Lugar. Yes; until next Wednesday----
    The Chairman. Until next Wednesday.
    Senator Lugar [continuing]. On the schedule, I think.
    The Chairman. And last night, I say to our colleagues, we 
issued a notice of a business meeting for next Wednesday at 9 
a.m. to consider this resolution.
    Gentlemen, welcome. What a distinguished panel.
    Our focus today is on the military strategy that must 
complement a political and diplomatic strategy in Iraq. We have 
a profound appreciation for the sacrifices and courage of the 
men and women you led, and that are being led by others now, 
have made for this country, in Iraq, in Afghanistan, and 
elsewhere, but particularly focusing today on Iraq. They have 
done everything--in my seven trips over there I've seen it with 
my own eyes--they've done everything that's been asked of them, 
they have done it incredibly well, and they've done it without 
question.
    But their efforts do not take place in a vacuum. Were Iraq 
purely a military conflict, we would have prevailed a long time 
ago. But, as we all know, the situation is far more complex. It 
combines elements of classic insurgency, fundamentalist 
terrorism, criminality, and, increasingly, an intensifying 
sectarian civil war.
    All of this occurs against the backdrop of a fragmenting 
country and a failing state. I, quite frankly, think I worry 
more about the fragmentation of the country than the civil war. 
I realize it is hard to make these clear distinctions in what 
constitutes what. But it's clear to me that--well, let me put 
it this way--I'm not at all certain we have a clear and 
coherent mission for the U.S. Armed Forces in such an 
environment, and I'm not sure I've heard one yet.
    What's the proper sequencing of military and political 
efforts? Is security a prerequisite for political settlement, 
or is a political settlement a prerequisite for military 
success? What stresses are multiple rotations in Iraq placing 
upon our Armed Forces? And what are the implications for our 
ability to respond to future crises?
    To help us answer these and other questions, we are joined 
by four witnesses with formidable records in leading our Armed 
Forces.
    GEN Barry McCaffrey served as the director of the National 
Office of Drug Control Policy from 1996 to 2001. The poor guy 
had to deal with me almost every day when I was chair or 
ranking member of the Judiciary Committee, but it was a great 
pleasure for me. Prior to that, he served as the commander in 
chief of the Southern Command. The recommendations he has 
presented after his trips to Iraq over the last couple of years 
have been valuable and, in my view, farsighted.
    GEN Jack Keane served, until 2003, as the Vice Chief of 
Staff of the Army. He has contributed to a recent report, which 
I have read in whole, which lays out a plan to increase United 
States troop levels in Iraq in order to stabilize Baghdad.
    GEN Joseph Hoar, who has always made himself available to 
this committee and the Congress, and me in particular, is a 
very familiar face. He retired from the Marine Corps after a 
distinguished career in 1994. In his last 3 years of active 
service, he was commander in chief of the U.S. Central Command.
    And GEN William Odom, who we've called on many times and 
received the benefit of his wisdom, retired as Director of the 
National Security Agency in 1988. He is a senior fellow at the 
Hudson Institute and teaches at Yale University. Perhaps most 
relevant for our discussion today, was his role in planning and 
assessing the ``National Pacification Plan'' during the Vietnam 
war.
    We look forward to the testimony of all our highly 
distinguished witnesses. And I will turn to my colleague 
Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman, for 
this hearing and for the ongoing series of hearings in which 
we're trying to come to grips with our situation in Iraq.
    As this committee continues inquiries, Congress is 
contemplating nonbinding resolutions disapproving of the 
President's strategy. It appears, however, to me, that such 
resolutions are unlikely to have an impact on what the 
President does. Even as Congress begins to stake out political 
turf on the Iraq issue, the President is moving forward with 
his troop surge. In recent days, both the President and Vice 
President have asserted that, irrespective of congressional 
reaction to the President's, the administration will proceed 
with additional deployment of United States troops in Iraq.
    Although many Members have genuine and heartfelt opposition 
to troop increase, it is unclear at this stage that any 
specific strategy commands a majority of informed opinion 
inside or outside of the Congress. One can find advocates for 
the President's plan for troop increases larger than the 
President's plan, for partition of Iraq, for an immediate 
withdrawal of American forces, for a phased withdrawal, for 
recommendations of the Iraq Study Group, and for other plans.
    In such a political environment, we risk having reasoned 
debate descend into simplistic sloganeering. Notions of, 
``protecting democracy'' or, ``achieving victory'' mean little 
at this point in our Iraq interventions. Nonbinding resolutions 
may be appropriate, but, in the face of a determined Commander 
in Chief, their utility for American policy is likely to end 
with their passage. If Congress is going to provide 
constructive oversight, we must get into the weeds of the 
President's current policy in ways that do more than confirm 
political opposition against it. And regardless of how we vote 
in a given resolution, we will still be confronted with a 
situation in Iraq that requires our attention and our 
participation.
    Yesterday, we tapped diplomatic experts to discuss the 
regional context of our efforts in Iraq, and next week we'll 
explore the necessary economic elements. Today, we have the 
benefit of an outstanding panel of former military commanders 
who have given much thought to Iraq. They bring with them many 
decades of combined experience in our Army and Marine Corps.
    The discussion that will unfold today may have some 
familiar rings. On February 11, 2003, this committee, the 
Foreign Relations Committee, assembled a panel of military 
experts, including one former CENTCOM commander, to analyze the 
military situation in Iraq. I stated, on that day, ``Success in 
Iraq requires that the administration, the Congress, and the 
American people think beyond current military preparations and 
move toward the enunciation of a clear post-conflict plan for 
Iraq and the region. We must articulate a plan that commences 
with a sober analysis of the costs and squarely addresses how 
Iraq will be secured and governed, and precisely what 
commitment the United States must undertake.''
    These statements, which Chairman Biden and others echoed, 
still hold true today. The President has presented his plan to 
the American people, and it has been further articulated in 
hearings by Secretary Rice, Secretary Gates, and General Pace. 
But I don't believe that we have, yet, an adequate 
understanding of what is intended militarily, how this military 
strategy translates into Iraq political reconciliation, and how 
the plan will be adjusted when it encounters obstacles.
    As veteran military planners and strategists, our panel's 
opinions will be helpful as we analyze the President's proposal 
and attempt to provide responsible oversight. And we're 
grateful for this opportunity to pose fundamental questions 
about our capabilities and our tactics on the ground in Iraq.
    To begin with, I would ask our experts to give us their 
views of the military significance of the President's planned 
deployment. Can 21,500 additional American troops make a 
discernible difference in Iraq? Can this boost in our 
capability stabilize Baghdad? Quite apart from political 
constraints, how long can the United States sustain this 
deployment militarily? Have we accounted for the likely 
obstacles to military success?
    Now, the President intends to embed troops with the Iraqi 
units, a recommendation of the Iraq Study Group. In this--is 
this strategy likely to succeed? And to what extent are Iraqi 
units infiltrated by officers and by enlisted personnel whose 
primary loyalty is to a militia, a tribe, or an ethnic group? 
What risk do these competing loyalties pose for U.S. troops 
embedded with those units? Any long-term stabilization 
strategy, other than, perhaps, the deliberate partition of 
Iraq, depends on the training of Iraqi forces. This has been 
true for several years now, and members of this committee have 
focused much effort on getting accurate answers to questions 
related to Iraqi troop training? But are we making progress in 
training the Iraqi Army? And do Iraqi units have the capability 
to undertake difficult missions on their own? Perhaps more 
importantly, what rational evidence exists that an Iraqi Army 
will be cohesive and will operate under the limitations imposed 
by the central government? Dr. Michael O'Hanlon, of the 
Brookings Institution, testified, in our first hearing of this 
series, that there are only about 10,000--10,000 politically 
reliable forces in the Iraqi Army. Do Iraqi units have 
sufficient equipment and logistics capability to operate 
effectively? And, if not, can we safely remedy those 
deficiencies? How much U.S.-provided equipment is being 
transferred to militias now?
    Congress has a duty not just to express its views, but also 
to ensure that the Commander in Chief's course is scrutinized 
in anticipation of funding requests and other policy decisions. 
Our committee is committed to this course, and I remain hopeful 
that the President and his team will engage us in a meaningful 
way. And we thank our witnesses today for helping our 
understanding.
    Thank you, Mr. Chairman.
    The Chairman. Gentlemen, let me begin by making two points 
before I call on the witnesses.
    One, there have been some positive comments made about the 
quality of the witnesses that we've had before the committee. I 
want to make it clear that this has been a total joint 
exercise, that Senator Lugar's staff and mine, and Senator 
Lugar and I, have been cooperating I mean, either one of us 
could have been chairing this and we would get to the same 
place. I think it's important for people out there to know 
that.
    And No. 2, Senator, I wish more than the few people on this 
committee had paid heed to your opening salvo back when we were 
contemplating going into Iraq. We might not be where we are.
    I know I have four high-ranking military guys before me, 
and I want to make sure that I go according to protocol here. 
I'm just an Irish kid who's not real big on protocol. I've 
never learned it very well. But I understand, General Keane, 
that you technically outrank McCaffrey, but McCaffrey was in 
the Cabinet, so we're going to start with McCaffrey first.
    General McCaffrey, General Keane, General Hoar, and General 
Odom, I invite your testimony in that order. I know we're 
always telling you to hurry. I don't care whether you hurry. I 
think what you have to say is very, very, very important to us. 
We'll put your entire statements in the record, but I don't 
want you to feel too constrained to try to spit it all out in a 
few minutes here. We're really anxious to hear what each of you 
has to say.
    So, General McCaffrey.

  STATEMENT OF GEN BARRY McCAFFREY, USA (RET.), PRESIDENT, BR 
McCAFFREY ASSOCIATES LLC AND ADJUNCT PROFESSOR OF INTERNATIONAL 
         AFFAIRS, U.S. MILITARY ACADEMY, ARLINGTON, VA

    General McCaffrey. Well, Senator Biden, Senator Lugar, and 
the other committee members, it's really an honor to be here. I 
will briefly try and make seven points, and I'll look forward 
to responding to your own questions.
    As you know, I am in and out of Iraq and Afghanistan and 
Pakistan and Kuwait, and I've tried to follow this issue 
closely, partially from a position as a faculty member at West 
Point, so I've been using that position to try and stay engaged 
and objective and nonpartisan on both home security and 
national security--international security issues.
    Seven comments.
    The first is, it seems to me that the situation in Iraq is 
clearly desperate, but is not terminal. I see no reason why 
this beleaguered nation of 27 million people, with all of its 
problems, couldn't be turned around by sensible strategy and 
the sensible application of resources.
    Now, having said that, if you take a snapshot on what's 
going on in Iraq today, which is well known to all of us in the 
room, there is, you know, looking at the situation, 26,000 
killed and wounded, maybe $400 billion expended, probably 3,000 
Iraqi civilians murdered per month, hundreds of thousands of 
internal and external refugees, a brain-drain flight of the 
middle class and professional classes of Iraq out of the 
country. Our allies are leaving us--make no mistake about 
that--and will be largely gone by the coming summer. And when 
you look at Iraq's six neighbors, none of them, with the 
exception of the Saudis and the Kuwaitis, perhaps, have 
positively engaged in support of the ongoing situation; and, 
indeed, are unlikely to do so.
    How would you characterize the ongoing struggle? And there 
has been what some term a semantics distinction on: Is it a 
civil war? What's the nature of the struggle? Are they dead-
enders? Are they Baathists? Is it only the Saddamites trying to 
come back into power?
    I'd say there's four struggles going on, only two of which 
are crucially important to U.S. national interests. There's no 
question there's massive criminality and a dysfunctional police 
force, meaning urban neighborhood police forces. And if you're 
an Iraqi mother, that may, indeed, be the most significant 
challenge you have: Fearing abduction of your children, 
extortion, robbery, the lawlessness of the streets. It's not a 
strategic interest to the United States.
    A second comment, which I may be a lone voice in, although 
there is a foreign-fighter jihadist element in Iraq. As a 
general statement, I do not believe we are generating 
international terrorism inside Iraq that remains a direct 
threat to the United States or our Western allies. And, indeed, 
when you look at the operations of the tier-one special forces 
units, in particular, we have been devastating in our 
effectiveness against these foreign fighters. By and large, 70 
to 100 a month come into the country, and they're dead within 2 
weeks. So, I would argue that is not a strategic concern of the 
United States.
    Third, there is, no question, a Sunni insurgency against 
what--in sort of a legal fiction--is an established government, 
to regain power. So, there's an element of insurgency there, 
and I would assume that, a decade from now, Anbar province will 
still be in a state of lawless insurgency.
    Finally, fourth, regardless of how we parse the phrases, in 
my judgment Iraq has been in a civil war darn near from the 
time we went in there. It's a struggle not just for political 
power, but for survival in the world that will exist after the 
expected U.S. withdrawal. In my judgment, the Iraqis and I have 
come to a similar conclusion that we're going to be out of 
there, by and large, in 36 months. And so, they're watching the 
backfield in motion. I apologize for the sports metaphor. 
They're saying, ``How do I live through the next phase of 
Iraq's existence?'' And it's difficult for them to sort that 
out.
    Second observation: The Iraqi Army. Michael O'Hanlon, who, 
along with Tony Cordesman, may be two of the most astute people 
watching this issue--I'm disturbed by the notion of ``10,000 
politically reliable troops.'' I've been in a lot of Iraqi Army 
battalions that I think are patriots, they're courageous, 
they're mixed Shia and Sunni, largely Sunni officers, in many 
cases, with Republican Guard backgrounds. They do lack 
training, they do lack a political legitimacy for the 
government that they allegedly are supposed to fight for. But I 
would also underscore, they are grossly inadequately equipped 
and resourced. And so, if somebody wanted to talk about a surge 
of United States support for Iraq, I would question why our 
Iraqi infantry battalions have 30 Toyota trucks, a collection 
of junk Soviet small arms, no artillery, no helicopters, no 
tactical airlift, and the numbers, which I've been banging away 
at for the last 3 years, are 5,000 light-armored vehicles, a 
couple of hundred United States helicopters, 24 C-130s, all-
United States small arms, at least a battery of artillery per 
Iraqi division, and the pushback will be--and some of it's 
legitimate--``Wait a minute, we're concerned about the ensuing 
large-scale civil war.'' The other pushback is, ``Look, we're 
not talking about fighting maneuver warfare against our 
neighbors, this is internal counterinsurgency.'' Can you 
imagine the commander of the 1st Cavalry Division being told to 
hand over his light-armored vehicles, ``Don't operate with 
counterbattery fire at the FOBs that are under nightly rocket 
and mortar attack.'' We've got to equip the Iraqis. If we're 
going to spend $8 billion a month fighting these people, why 
wouldn't we consider a shot, over the coming 3 years, of 
equipping them so they can replace us as we withdraw? And we 
will withdraw.
    Point No. 3: Economic reconstruction. There is a good 
argument you can't do economic reconstruction effectively 
unless you have security. I understand that linkage. I cannot 
imagine--you--the Congress provided 18-billion-dollars-plus in 
economic reconstruction aid. Much of it was badly spent, badly 
supervised. And, by the way, much of it was implemented by 
85,000 contractors. Maybe that's a right number, maybe 600 were 
killed, maybe 4,000 were wounded. Without that contractor 
effort, this war would have ground to a halt 2 years ago. But 
when you look at it, the President's current proposal says $1 
billion in CERP money, which is well received by our battalion 
and company commanders who want to do small projects and engage 
local Iraqi political authorities, but, I would argue, if we're 
not willing to put a 10-billion-dollars-a-year pledge for 5 
years into Iraq--we've said the only option we're moving 
forward with is the U.S. Armed Forces. So, again, I would say 
we must stand with the Iraqis. And the answer you're getting 
out of the administration is, ``Our allies have pledged $13 
billion; they've got to come through.'' That's silly, they're 
not going to come through. And a lot of it's loans, not 
pledges, anyway.
    Bullet No. 4, there's much discussion on the hopelessness 
of a political dialog with Syria and Iran, the hopelessness of 
really negotiating with Sunni insurgents who see their survival 
at stake. I respect and understand that. Many of us in this 
room have been involved in hopeless negotiations that went on 
for a decade or longer and eventually bore fruit. So, I would 
argue, there must be an Iraqi lead and an internal political 
dialog; I say ``internally''----
    The Chairman. I beg your pardon. You said ``Iraqi lead?''
    General McCaffrey. Iraqi lead, not United States. The Iraqi 
Government needs to be compelled, shaped, encouraged to open a 
dialog, perhaps in a safe place, like Saudi Arabia, and talk to 
their internal factions, as well as their neighbors.
    Bullet No. 5: I'm privileged to teach, at West Point, 
policy classes, American Government. I always remind the 
cadets, Article 1 of the Constitution--and I don't mean to 
sound like I'm lecturing--says the Congress of the United 
States has a responsibility to raise and equip an Army and 
Navy. That is not the responsibility of either of the other two 
coequal branches of Government. Your Army, somewhat the Marine 
Corps, are broken, our equipment is broken. Hundreds of our 
armored vehicles are lined up at depots. It has been grossly 
underresourced. We are in a position of strategic peril. In my 
judgment, our manpower is inadequate. I've been saying 80,000 
troops short in the Army, 25,000 in the Marine Corps. Our 
recruiting is faltering. There is unquestionably, on the bottom 
end, a decrease in the quality of the kids coming into the U.S. 
Army now. We're encountering all sorts of problems we didn't 
see some years ago. You must fix the Army and the Marine Corps, 
or we will be incapable of responding to the next crisis.
    Bullet No. 6: Our Air Force and Navy play a vital, but 
modest, role in the ground combat in Afghanistan and Iraq. They 
are the primary, in my view, deterrent force to greet the 
Chinese as they emerge into the global arena as a major 
economic, political, and military power. Fifty-five billion 
dollars, minimum, have been drained out of Air Force and Navy 
budgets and gone into small arms ammunition to shoot at Iraqi 
insurgents and Afghans. We must fix the Air Force and the Navy, 
or, a decade from now, we will rue it.
    A final notion. I personally think the surge of five U.S. 
Army brigades and two Marine battalions, dribbled out over 5 
months, where, potentially, they might start drawing down in 
November, and where their mission allegedly would be to get 
down to detailed granularity to fight a counterinsurgency 
battle in a city of 6 million Arabs who are murdering each 
other with 120 mortars, drills, and car bombs, is a fool's 
errand. However, I don't think it's the most significant part 
of going forward, which, I would argue, is equipping an Iraqi 
force and economic reconstruction and political dialog.
    I would argue very strongly, though, that this guy, 
Secretary Bob Gates, who comes in with modesty, international 
connections, experience; GEN Dave Petraeus, who may be the most 
talented person I ever met in my life--he is one terrific 
soldier; and Ambassador Ryan Crocker, who I've observed in the 
U.S. Embassy Pakistan--he may be the best ambassador I ever 
saw--that the three of them ought to be allowed to get in there 
and exercise discretion. Sort of, the response is: I would urge 
the Senate to be cautious in giving steering instructions to 
our wartime commanders, and to allow them to assess the 
situation and tell the administration and the Congress what 
tools they need. I don't mean political sense, but I mean 
steering instruction in which we try and modify the tactics or 
the operational guidance.
    On that note, Mr. Chairman, I thank you for the opportunity 
to share these ideas, and I look forward to responding to your 
own questions.
    [The prepared statement of General McCaffrey follows:]

 Prepared Statement of GEN Barry McCaffrey, USA (Ret.), President, BR 
    McCaffrey Associates LLC and Adjunct Professor of International 
             Affairs, U.S. Military Accademy, Arlington, VA

    A collapse of the Iraqi State would be catastrophic--for the people 
of Iraq, for the Middle East, and for America's strategic interests. We 
need a new political and military approach to head off this impending 
disaster--one crafted with bipartisan congressional support. But Baker-
Hamilton isn't it.
    Our objective should be a large-scale U.S. military withdrawal 
within the next 36 months, leaving in place an Iraqi Government in a 
stable and mostly peaceful country that does not threaten its six 
neighboring states and does not intend to possess weapons of mass 
destruction.
    The courage and skill of the U.S. Armed Forces have been awe 
inspiring. Our soldiers, Marines and Special Operations forces have 
suffered 25,000 wounded and killed, with many thousands permanently 
maimed, while fighting this $400 billion war.
    But the situation in Iraq is perilous and growing worse. Thousands 
of Iraqis are killed each month; hundreds of thousands are refugees. 
The government of Prime Minister Nouri al-Maliki is largely 
dysfunctional. Our allies, including the brave and competent British, 
are nearly gone. Baghdad has become the central battlefield in this 
struggle, which involves not just politically inspired civil war but 
also rampant criminality and violence carried out by foreign jihadists. 
Shiite and Sunni Arabs overwhelmingly anticipate and endorse a U.S. 
strategic withdrawal and defeat.
    We could immediately and totally withdraw. In less than 6 months, 
our 150,000 troops could fight their way along strategic withdrawal 
corridors back to the sea and the safety provided by the Navy. Several 
million terrified refugees would follow, the route of our columns 
marked by the burning pyres of abandoned military supplies demolished 
by our rear guard. The resulting civil warfare would probably turn Iraq 
into a humanitarian disaster and might well draw in the Iranians and 
Syrians. It would also deeply threaten the safety and stability of our 
allies in neighboring countries.
    There is a better option. First, we must commit publicly to provide 
$10 billion a year in economic support to the Iraqis over the next 5 
years. In the military arena, it would be feasible to equip and 
increase the Iraqi Armed Forces on a crash basis over the next 24 
months (but not the police or the Facilities Protection Service). The 
goal would be 250,000 troops, provided with the material and training 
necessary to maintain internal order.
    Within the first 12 months we should drawdown the U.S. military 
presence from 15 Brigade Combat Teams (BCTs), of 5,000 troops each, to 
10. Within the next 12 months, Centcom forces should further drawdown 
to seven BCTs and withdraw from urban areas to isolated U.S. operating 
bases--where we could continue to provide oversight and intervention 
when required to rescue our embedded U.S. training teams, protect the 
population from violence, or save the legal government.
    Finally, we have to design and empower a regional diplomatic peace 
dialog in which the Iraqis can take the lead, engaging their regional 
neighbors as well as their own alienated and fractured internal 
population.
    We are in a very difficult position created by a micromanaged 
Rumsfeld war team that has been incompetent, arrogant, and in denial. 
The departing Defense Secretary, in a recent farewell Pentagon townhall 
meeting, criticized the alleged distortions of the U.S. media, saying 
that they chose to report a few bombs going off in Baghdad rather than 
the peaceful scene he witnessed from his helicopter flying over the 
city. This was a perfect, and incredible, continuation of Donald 
Rumsfeld's willful blindness in his approach to the war. From the 
safety of his helicopter, he apparently could not hear the nearly 
constant rattle of small-arms fire, did not know of the hundreds of 
marines and soldiers being killed or wounded each month, or see the 
chaos, murder, and desperation of daily life for Iraqi families.
    Let me add a note of caution regarding a deceptive and unwise 
option that springs from the work of the Iraq Study Group. We must not 
entertain the shallow, partisan notion of rapidly withdrawing most 
organized Marine and Army fighting units by early 2008 and substituting 
for them a much larger number of U.S. advisers--a 400-percent 
increase--as a way to avoid a difficult debate for both parties in the 
New Hampshire primaries.
    This would leave some 40,000 U.S. logistics and adviser troops 
spread out and vulnerable, all over Iraq. It would decrease our 
leverage with Iraq's neighbors. It would not get at the problem of a 
continuing civil war. In fact, significantly increasing the number of 
U.S. advisers in each company and battalion of the Iraqi Army and 
police--to act as role models--is itself a bad idea. We are foreigners. 
They want us gone.
    Lack of combat experience is not the central issue Iraqis face. 
Their problems are corrupt and incompetent ministries, poor equipment, 
an untrained and unreliable sectarian officer corps (a result of 
Rumsfeld's disbanding the Iraqi Army), and a lack of political will 
caused by the failure of a legitimate Iraqi Government to emerge.
    We need fewer advisers, not more--selected from elite, active 
military units and with, at least, 90 days of immersion training in 
Arabic. Iraqi troops will not fight because of iron discipline enforced 
by U.S. sergeants and officers. That is a self-serving domestic 
political concept that would put us at risk of a national military 
humiliation.
    All of this may not work. We have very few options left. In my 
judgment, taking down the Saddam Hussein regime was a huge gift to the 
Iraqi people. Done right, it might have left the region and the United 
States safer for years to come. But the American people have withdrawn 
their support for the war, although they remain intensely committed to, 
and protective of, our Armed Forces. We have run out of time. Our 
troops and their families will remain bitter for a generation if we 
abandon the Iraqis, just as another generation did after we abandoned 
the South Vietnamese for whom Americans had fought and died. We owe 
them and our own national interest this one last effort. If we cannot 
generate the political will to take this action, it is time to pull out 
and search for those we will hold responsible in Congress and the 
administration.

    The Chairman. Thank you very much.
    Jack.

 STATEMENT OF GEN JACK KEANE, USA (RET.), FORMER VICE CHIEF OF 
             STAFF OF THE U.S. ARMY, WASHINGTON, DC

    General Keane. Thank you, Senator Biden, Senator Lugar, and 
members of the committee, for inviting me.
    My judgments today are informed by multiple trips to Iraq, 
and also--a member of Secretary Rumsfeld, when he was the 
Secretary of Defense Policy Board, and received continuous and 
update briefings on Iraq and very aware of what the 
intelligence situation there is for the last 3-plus years.
    I want to start by making some assumptions; and some of 
these are obvious, but they still need to be made. One is that 
obviously we're facing a crisis here in Iraq. You know, time is 
running out. This government, as imperfect as it is, is on its 
way to being fractured, an all-out civil war--we don't have to 
debate whether there is one or not; it will be obvious to 
everyone, and also leading to a failed state. With that, it 
requires a relook at what we are doing.
    And it--the second assumption is that security is the issue 
that subsumes all other issues in Iraq. It is a necessary 
precondition, now, to be able to make political progress, 
economic progress, and social progress. That's the harsh 
reality of it. Look at the political strategy we had--has 
failed. And that's the truth of it. We underestimated the 
political culture in Iraq. The fact is that the Iraqis do not 
compromise. When you lose, you lose forever. For an educated 
society that they are, the level of violence that they choose 
to resolve their problems is staggering. And we underestimated, 
I think, the psychological impact of what 35 years of 
repression meant to the Shias, for the most part; to the Kurds, 
to a lesser degree. And we--while we all know about the Shia-
Sunni schism that existed for hundreds of years, certainly 
truly understanding what that meant, in political terms, is 
another reality.
    So, this country is not ready for what we tried to achieve 
politically. That's the truth of it. And that political 
strategy has failed. And, with that failure, we have to accept 
the recognition that the Sunni insurgents who are the main 
issue here--and by that, I mean is--they decided to not accept 
the occupation, they decided to not accept a new form of 
government, and they are enabled by the al-Qaeda. I agree with 
my esteemed colleague, Barry McCaffrey, that the al-Qaeda is 
not as much a threat as we make it out to be, and we have done 
considerable damage to it. But, nonetheless, what it could 
become, in terms of an al-Qaeda sanctuary, is something we all 
have to be concerned about.
    This Sunni insurgency, since the winter of 2004--I'm 
talking November-December--the Sunni insurgents believed that 
they were winning in Iraq. And then they raised the level of 
violence in 2005, and then, in 2006, when they saw the 
government coming, after the constitutional referendum in 
October and the general election in December, they, enabled by 
the al-Qaeda, provoked the Shias, getting the--what is 
predictable, an overreaction on their part, to the level of 
violence that they introduced by the mosque bombings we're all 
aware of, and the assassination squads that they inflicted on 
the Shia. It was predictable what they got, and they welcome 
that, because they want to fracture this government.
    So, when we say, ``You''--as part of our political 
strategy, ``We have to reconcile the Sunnis, bring them to the 
reconciliation table, throw amnesty on the table in front of 
them, put oil in front of them,'' they want none of that, 
because they believe they want all the oil, and they believe 
they're going to get it. They want--they believe they're going 
to get back control of this country.
    Now, whether we think that's realistic or not is sort of 
irrelevant. The fact is, they believe it. And we see that by 
reading the documents that they're exchanging with each other, 
listening to their conversations with each other, and we know 
where they're going.
    So, Maliki has no leverage with this Sunni insurgency. That 
is the harsh reality of it. So, the political strategy has 
failed.
    The military strategy has failed, because we put our 
emphasis primarily on training the Iraqi security forces. We 
made a conscious decision, in the summer of 2004, when we 
changed from Sanchez to Casey and we developed our first 
campaign plan--the truth be known, for 2003 and part of 2004, 
we were, by and large, conducting conventional operations 
against an insurgency. And then we brought a new commander in, 
and he developed a new strategy, and it had a number of 
components to it.
    The military component, and central to the strategy, was: 
Train the Iraqi security forces so they could defeat the 
insurgency. It was never, ever our mission to defeat the 
insurgency. This was full of risk, but it was achievable. It 
overrelies on a political strategy to work; that is, attempt to 
bring the Sunnis into the government and they will not seek 
their objectives through armed violence.
    But the fact is, what? The enemy never bought it. They 
didn't agree with it. And we have always underestimated this 
enemy. If there is one constant we have here, it is we have 
underestimated this enemy from the beginning. In 2005, they 
raised that level of violence over what it was in 2004. And 
they believe they're well on their way to doing what they want 
as a fractured state. And that put at risk our strategy. Why 
did it put at risk our strategy? Because it raised the level of 
violence way beyond the capacity of the Iraqi security forces 
to cope with it. In my judgment, even if they were fully 
trained and fully equipped, they will not have the capacity to 
deal with this level of violence. And so, we keep chasing this 
thing, and we can't get there. And we should have adjusted that 
strategy sometime in 2005. I think there was enough evidence. I 
was still supporting it in 2005, so I'm not hiding behind, you 
know, some continuous criticism here. I did not start to make a 
change in my thinking--while I had concern in 2005, when I 
started publicly talking about it, and privately with leaders, 
was in the summer of 2006. So, I'm part of the problem, as 
well, in terms of not adjusting to a--to the strategy. But when 
you look at it harshly, the fact is, we should have made some 
accommodation in 2005, knowing that the Iraqi security forces 
will never be able to reach this ever-increasing level of 
violence.
    Now, all the things we want to do with the Iraqi security 
forces make sense--fully equip them, give them better trained 
advisors, give them more advisors, and make that force a lot 
larger than what it is, and embed U.S. forces in it. All of 
that makes sense. Problem is, we can't solve that Iraqi 
security-force problem in time, dealing with this crisis that's 
in front us. The government will fracture before we get the 
Iraqi security forces to a high enough capacity level to cope 
with the problem.
    And those two points I'm making are essential to 
understanding, you know, my perspective on this.
    As part of the strategy, the military strategy, if we made 
the decision not to defeat the insurgency, we made a conscious 
decision not to protect the population, and that was a 
conscious decision. So, our emphasis has been on training the 
Iraqi security forces, not securing the population. We left 
that to the Iraqis. And what has happened in 2006, and very 
clear to us, is that the Iraqis cannot protect the population. 
We have never chosen to protect the population ourselves. So, 
we have a problem, because the Shias are running wild, and they 
waited 2\1/2\ years. And I think there's something to work 
with, given the fact that they did wait 2\1/2\ years. Other 
than some selected death squads that came out in 2004 and a 
couple of other incidents, for the most part since the 
inception the Shias held their fire, thinking that the Iraqis 
and us would protect that population. After the mosque bombing 
in February and the level of violence that the Sunnis and the 
al-Qaeda inflicted on the Shia, they were provoked.
    Maliki has no instrument to deal with the Shias. And that's 
the truth of it. When we say we've got to put pressure on 
Maliki to get the Shias to heel, what can he use? He has a 
conversation with a Shia leader, al-Hakim or Muqtada al-Sadr. 
We know who these people are. We know they're seeking political 
advantage. We know what they're doing is horrific. And I'm not 
dismissing any of that. But what is Maliki's political leverage 
over these people? They look at him right in the face and say, 
``What are you talking about? You can't protect us, and the 
Americans choose not to. What are we going to do? We have to 
protect ourselves.'' So, not only are they protecting 
themselves, they've gone on the offense. We have got to give 
Maliki some leverage to be able to use with those leaders. That 
is an assumption that we have to consider.
    And the other one is: Hard is not hopeless. This thing is 
complex, to be sure. I mean, the Sunni insurgency is not a 
monolithic. The Shias are not a monolithic. They fight among 
themselves. You have the al-Qaeda in there, and we have huge 
amounts of criminality. So, it is a complex human problem, but 
it is a human problem. And when you break it down into its 
components, I believe it's also resolvable by humans. We do not 
have to wring our hands and say, ``This is hopeless. This is 
too hard, and we can't resolve it.'' I believe this can be 
resolved, and it certainly is worth trying.
    So, it begs the question: What can we do? Well, while the 
purpose of this discussion here is military, and I will focus 
on that, clearly a comprehensive strategy to deal with the 
political, economic, and diplomatic is very important, the 
other elements of national power. Iraq should be looked at as a 
regional problem with global implications, and using the 
resources in the region to help it. I'm not going to spend time 
discussing that, because I think your interests are other here, 
and I'd be more than happy to take that in Q&As.
    But, in terms of the military strategy itself--so, can we 
do something, or is it just too late? And do we have enough 
forces to do it? When I look at that problem and analyze it, 
the answer is yes. The Iraqis--the insurgents and the Shias 
chose the--Baghdad as the center of gravity, driven mainly by 
the Sunni insurgency. Al Anbar would have been a place to start 
to change the mission and the strategy, but Baghdad is the 
center of gravity; we have no choice, we have to start there.
    And the mission and the change is: Secure the population. 
Why? Because that will bring down the level of violence. And it 
helps you to focus on truly what is really important, which is 
driving the problem in Iraq--the Sunni mainstream insurgency is 
driving this problem. That is why the al-Qaeda is there, to 
help enable it, and they provoked the Shia violence that we're 
dealing with today. And I'm not saying you just focus on them. 
Far from it. But you have to stay focused on what is really the 
issue so you can get to the Sunnis eventually and solve the 
problem.
    The military problem is one--and the mission is: Secure the 
population in Baghdad. And when you look at Baghdad, it's 6 
million, for sure. But where do you start? In my judgment, 
there is key terrain in Baghdad, and the key terrain is the 
Shia-Sunni mixed neighborhoods. Before they redistricted, just 
recently--those are 23 districts, east and west of the Tigris 
River where the Sunnis and Shias lived, and there are--as you 
know, there's some cleansing going on in there today, horrific 
as it is. But that is a good place to start. The population is 
1.8 million--1.8 million. And you look--go into those 
neighborhoods, and your operation on the ground is different. 
Now, we're going to get a little tactical here so you can 
understand it, the operation itself. And I think you want to 
understand it.
    The--what we have done in the past--we have been in Baghdad 
before, so the reference is, ``Well, we have done this in the 
past. Why are we doing it again?'' It looks like more of the 
same, and that's a reasonable point. The place and the location 
is the same, but what we're going to do is very different.
    We were never able to secure the population in Baghdad. 
Why? We never had enough resources to do it. We never had 
enough United States resources to do it, and we never had 
sufficient Iraqi resources even to get close to it.
    So, what we have--what we did in Baghdad in those two other 
operations, and what we have done, similarly, in Fallujah, 
Samarra, Ramadi, is, we went in there, as you know, and we 
cleared out the insurgents or the Shia death squads from the 
neighborhoods. That was step one. We never had the resources to 
stay there and protect the people. We took the resources we 
used to clear out that neighborhood, and we would go to another 
neighborhood. And then what happened is predictable, as it has 
happened in the major cities we've done this, in the 
neighborhoods in Baghdad the same thing happened. The death 
squads, the insurgents, and the al-Qaeda came back, as well as 
criminals, to terrorize and intimidate, and also to assassinate 
those who had been cooperating with our forces or with the 
Iraqi security forces.
    This mission, we would clear out of that neighborhood, but 
we would fold in the neighborhood Iraqis and United States 
combined, and they would stay in the neighborhood 24/7 and not 
go back to their bases. Their mission would be to protect and 
secure the population.
    Now, why is protecting and securing the population so 
important? Why are we so focused on this? Because the--the 
simple reality is, when you protect that population, it is the 
population themselves, then, that begin to isolate the thugs 
and the killers that have been preying on them. They begin to 
give it up. It takes time to do this. This is not done in a few 
weeks. You have to bring in an economic package, as well. And I 
thought an economic package would be basic services, and then a 
tier-two package, which would have an incentive with it, only 
based on cooperation, for enhanced quality of life. And that 
connection you make with that population through local 
officials starts to begin to isolate the insurgents in that 
neighborhood. We're there to protect them, and they begin the 
isolation of them because they want no part of them. They start 
to have some connection to their local government and also to 
their direct--to the central government, indirectly. And I 
don't want to be Pollyannaish about it, certainly the central 
government is very problematic.
    But that's the basic nature of the issue. So, you begin 
with 1.8 million. You're not dealing with 6 million. And the 
force ratios--we've done the analysis--are right to deal with 
that. Five brigades there, four brigades that are already 
there, United States. Now, where I part with this plan a little 
bit is, I--why we would put the Iraqis in the lead here makes 
no sense to me. I don't understand that. The--I know the Iraqis 
want to do that. Why we would do that, when we're trying to 
conduct the most decisive operation we've done yet----
    The Chairman. General, do you think they mean that? I'm not 
being facetious.
    General Keane. That's a good----
    The Chairman. Put the Iraqis in----
    General Keane [continuing]. Question. I think they do mean 
it. I think it--it's fraught with problems, and I--it just 
makes it that much more difficult for Petraeus and Odierno to 
work out something militarily.
    Here's what we--when we say ``Iraqi in the lead,'' that 
means the Iraqis have a chain of command on the same streets 
that the United States has a chain of command on, and we do not 
have unity of command; therefore, you don't have unity of 
effort. And every time we do something like that--and all these 
guys sitting at the table could cite examples of it--we have 
military problems. So, Petraeus, Fallon, and Odierno, have got 
to resolve that.
    But the fact is, is that we--the force ratios are right to 
be able to deal with that problem, and it relies on the United 
States, principally, to solve this problem. Make no mistake 
about it. It may not be--that's not being said politically, but 
the reality is, it relies on United States forces to help solve 
this problem, assisted by Iraqis, to be sure.
    The--that's the basic nature of the military application of 
this strategy.
    Now, what about Sadr City? And what about the rest of Iraq? 
Well, the rest of Iraq--the Sunni enclaves to the west, when 
you analyze it, there's not a lot of violence there. We need to 
put minimum force there and provide economic packages to them 
to assist to raise up their quality of life.
    To the east is the problem with the Shia militias and Sadr 
City. And it is a problem. I would think this. If we can 
resolve that problem politically, and not militarily, let's try 
it. And by that, I mean, if we go in and secure the 1.8 million 
people who are Shias and Sunnis in the mixed neighborhoods, and 
we have demonstrated an evenhanded approach to doing this, and 
we're--al-Hakim and Sadr and the vigilante groups will know 
whether we're successful protecting their people in a number of 
weeks. At some point, in the spring or summer, if we're 
effective here, Maliki, for the first time, has leverage with 
Sadr and al-Hakim, in the sense that now he's protecting his 
people. And it would seem to me he has leverage over them, at a 
minimum, to get them to pull back from offensive operations. It 
would be too ambitious to think he could begin to disarm them 
at that point, because they're not going to buy that, but at 
least to stop offensive operations, pull back behind his 
barricades. He gets political leverage to do that. That is 
worth a try.
    If that doesn't work, then we have to deal with that, 
militarily. I mean, it's feasible to deal with it, it's not 
desirable to deal with it. What you will do is, you will unite 
the Shia militias. They're not united now. If we go in to 
densely populated Sadr City with a military force to do what 
we're doing in the mixed neighborhoods, they will unite, and it 
will be a much larger problem that we have to deal with. I 
think it's avoidable, and we should certainly try to avoid it 
if we can.
    So, that is the basis of what we're talking about. There's 
a supporting operation in Al Anbar, mainly because that's the 
sanctuary for the al-Qaeda, that's the Sunni mainstream 
insurgency's base. And it occurs to you, when you look at this, 
you need a supporting operation, not to secure the population 
in Al Anbar--we don't have enough resources for that, but to 
conduct aggressive offensive operations to disrupt, to 
interdict, and to challenge that insurgency that's in Al Anbar 
so that they cannot undermine the operation in Baghdad. That's 
the basis for it. And you need additional resources to do that 
so that you can have more aggressive military operations than 
what we have right now.
    I need to emphasize the importance of the economic package 
to the success of this operation, and also to the use of the 
other elements of national power. The military leaders' 
frustration, when you hear them speak about it, they--and many 
of you who have visited to the region know this--they have--
believe that their activities, while central in Iraq, in terms 
of military operation--they realize that--but it's 
disproportionate, in terms of effectiveness, from the other 
elements of national power, in terms of the political, 
economic, and diplomatic. And the interagency effort in Iraq 
has been a failure. And that's the truth of it. We've got to be 
honest about it. So, there's still a concern now as to how 
effective are we going to be, at this point, with the things 
other than the military. And that is a concern that many of us 
have. And it remains to be seen. There is a plan, but that 
doesn't mean that we're going to have the kind of execution 
that we need, because, in the past, the execution hasn't been 
what it should be.
    So, in wrapping that up, the--that is essentially the 
military outline of what we would do in Iraq. The leaders to do 
that--and General Odierno, who is the operational commander, 
has been in command about a month--wants to do this, knows how 
to do this, and is working on detailed plans to do it, assisted 
by the Iraqis.
    Second, General Petraeus--and I agree with General 
McCaffrey's comments about him; he's extraordinarily well-
qualified to do this, very thoughtful, and wants to do this, 
and agrees with the plan, and he can speak for himself. And I 
think Fox Fallon, ADM Bill Fallon, who is, hands down, the best 
combatant commander we have right now--and I applaud the 
administration for taking their best guy and putting him in the 
most difficult neighborhood, even though he's working with a 
challenging neighborhood, himself, with China and North Korea 
and radical Islam in Indonesia, et cetera--but clearly, taking 
the best we have and putting them in this command, and also 
with the new Ambassador--I think this new team that's going in 
there is as important as the strategy is, itself. And I truly 
believe they're going to make a difference. And I know you're 
going to enjoy working with them.
    I thank you for the opportunity to make some comments, and 
I look forward to your questions.
    The Chairman. Thank you, General.
    General Hoar.

STATEMENT OF GEN JOSEPH P. HOAR, USMC (RET.), FORMER COMMANDER 
          IN CHIEF, U.S. CENTRAL COMMAND, DEL MAR, CA

    General Hoar. Mr. Chairman, Senator Lugar, distinguished 
members of the committee, I thank you for this opportunity to 
appear before you for the third time to discuss the war in 
Iraq.
    This administration's handling of the war has been 
characterized by deceit, mismanagement, and a shocking failure 
to understand the social and political forces that influence 
events in the Middle East.
    In August 2002, I cautioned this committee about the lack 
of war termination planning. There was no phase-four planning, 
and we saw the results of that. At the time, I used the 
metaphor, ``What happens when the dog catches the car?'' An 
axiom to take home is, ``Wars don't end until the losers decide 
that they end.'' And we are very much in that category today.
    During my last testimony, I indicated we were looking into 
the abyss. Sadly, the new strategy, deeply flawed solution to 
our current situation, reflects the chronic inability of this 
administration to get it right.
    The courageous men and women of our Armed Forces have been 
superb. They have met all the challenges of this difficult war. 
Unfortunately, they have not been well-served by the civilian 
leadership.
    I returned from the Middle East 2 days ago; I've also had 
the opportunity, before the holidays, to speak with several 
senior active duty members of our Armed Forces. In virtually 
every case, knowledgeable people--military, political, 
academic. The solution to solve this civil war in Iraq is 
political, not military. There is an acknowledgment in 
Washington that it is, after all, political.
    Having said that, the proposed solution is to send more 
troops. And it won't work. The addition of 21,000 troops is too 
little and too late. This is still not enough to quell the 
violence, and, without major changes in command and control of 
forces within Baghdad, the current setup for shared control is 
unsatisfactory.
    The centerpiece of a change of direction should be to 
demand that the Iraqi Government make significant changes in 
policy: To constrain Muqtada al-Sadr; to disarm militias; to 
purge the police; and to move rapidly on a host of other 
pressing issues. If Mr. Maliki's government can show progress 
by stepping up to meet these political changes, then the issues 
of more troops would merit some consideration.
    Insurgencies are resolved by attacking root causes. Today, 
among the root causes is the presence of American forces. The 
Economist magazine, this week, quoting a survey, indicates that 
61 percent of the Iraqis approve of attacking coalition forces.
    Recently, the Secretary of State, in response to a question 
of this committee, indicated there was no alternative plan to 
the President's current strategy. I urge this committee to 
insist that an alternative plan be developed and briefed to the 
relevant committees of Congress. It should include diplomatic 
engagement with Syria and Iran. It should also include a 
significant role for the Gulf Cooperation Council countries, 
plus Egypt and Jordan. These countries reluctantly supported 
the invasion of Iraq. If we fail, the consequences for Iraqis' 
neighbors are dire.
    President Mubarak said, ``The invasion of Iraq was a 
catastrophe. Early departure will be even a greater 
catastrophe.''
    Hamad bin Jassim, the Foreign Minister of Qatar, said, 
recently, that, ``The GCC was not consulted in the surge 
strategy. It's time we took our friends in the region into our 
confidence.''
    The goal of the plan should be to prevent the Middle East 
from falling into chaos, should Iraq become a failed state. 
Victory, in the conventional sense, is no longer possible. Our 
goal today in Iraq should be to achieve a paradigm shift that 
will give the people of Iraq an assured degree of stability and 
justice.
    A final thought. T.E. Lawrence, better known as Lawrence of 
Arabia, was an advisor to Winston Churchill when he was the 
Secretary of Colonial Affairs and presiding over the British 
debacle in Iraq in the 20th century. Lawrence told Lord Curzon 
and other members of the British Cabinet the following, ``You 
people don't understand yet the hole you have put us all 
into.''
    Gentlemen, lady, we are in a hole. In the Marines, we say, 
``When you're in a hole, stop digging.''
    I'd be happy to answer your questions.
    [The prepared statement of General Hoar follows:]

Prepared Statement of GEN Joseph P. Hoar, USMC (Ret.), Former Commander 
              in Chief, U.S. Central Command, Del Mar, CA

    Mr. Chairman, Senator Lugar, distinguished members of the 
committee, I thank you for the opportunity to appear before you for the 
third time to discuss the war in Iraq.
    This administration's handling of the war has been characterized by 
deceit, mismanagement, and a shocking failure to understand the social 
and political forces that influence events in the Middle East.
    In August 2002, I cautioned this committee about the lack of ``war 
termination'' planning. At that time, I used the metaphor, ``What 
happens when the dog catches the car?''
    During my last testimony, I indicated we were looking into the 
abyss. Sadly, the new strategy, a deeply flawed solution to our current 
situation, reflects the continuing and chronic inability of the 
administration to get it right. The courageous men and women of our 
Armed Forces have been superb. They have met all the challenges of this 
difficult war. Unfortunately, they have not been well served by the 
civilian leadership.
    I returned from the Middle East 2 days ago. I've also had the 
opportunity before the holidays to speak with several senior active 
duty members of our armed forces. In virtually every case, 
knowledgeable people--military, political, and academic--state that the 
solution to solving this civil war in Iraq is political; not military. 
There is an acknowledgement in Washington that it is, after all, 
political. Having said that, the proposed solution is: Send more 
troops, and it won't work .
    The addition of 20,000 troops is too little too late. This is still 
not enough to quell the violence and without major changes in the 
command and control of forces within Baghdad, the current setup of 
shared control is unsatisfactory.
    The centerpiece of a change of direction should be to demand that 
the Iraqi Government make significant changes in policy, to constrain 
Muqtada al-Sadr, to disarm militias, purge the police, and move rapidly 
on a host of other pressing issues.
    If Mr. Maliki's government can show progress by stepping up to meet 
these political changes, then the issue of more troops would merit 
serious discussion.
    Insurgencies are solved by attacking root causes. Today, among root 
causes is the presence of American forces. The Economist indicates that 
61 percent of Iraqis approved of attacking coalition forces.
    Recently the Secretary of State, in response to a question before 
this committee, indicated that there was no alternative plan to the 
President's current strategy. I urge this committee to insist that an 
alternative plan be developed and briefed to the relevant committees in 
the Congress. It should include diplomatic engagement with Syria and 
Iran. It should also include a significant role for the Gulf 
Cooperation Council countries, plus Egypt and Jordan. These countries 
reluctantly supported the invasion of Iraq. If we fail, the 
consequences for Iraq's neighbors are dire. President Mubarek said, 
``The invasion of Iraq was a catastrophe. Early departure will be a 
worse catastrophe.'' Hamad bin Jassim, the Foreign Minister of Qatar, 
says the GCC was not consulted about the surge strategy. It's time we 
took our friends in the region into our confidence.
    The goal of the plan should be to prevent the Middle East from 
falling into chaos should Iraq become a failed state.
    Victory in the conventional sense is no longer possible. Our goal 
today in Iraq should be to achieve a paradigm shift that will enable 
political changes sufficient to give the people of Iraq an assured 
degree of stability and justice.
    A final thought. T.E. Lawrence, better known as Lawrence of Arabia, 
was an advisor to Winston Churchill, then the Secretary for Colonial 
Affairs who presided over the British debacle in Iraq. Lawrence told 
Lord Curzon and other members of the British Cabinet the following: 
``You people don't understand yet the hole you have put us all into.''
    In the Marines, we say, ``If you're in a hole, stop digging.''
    I'd be happy to answer your questions.

    The Chairman. Thank you very much.
    General Odom.

 STATEMENT OF LTG WILLIAM E. ODOM, USA (RET.), SENIOR FELLOW, 
  HUDSON INSTITUTE; FORMER DIRECTOR OF THE NATIONAL SECURITY 
                     AGENCY, WASHINGTON, DC

    General Odom. Mr. Chairman, thank you very much for this 
opportunity. It's a grave responsibility to testify before you 
today, because the issue, the Iraq war, is of monumental 
importance.
    You have my written statement, and----
    The Chairman. It will be placed in the record.
    General Odom [continuing]. It deals with a lot of the 
questions that the--particularly, Senator Lugar raised. And I 
want to direct mine more to some that you raised and try to 
create a strategic framework against which you test any of 
these ideas that are being advanced. And I think you can test 
some you've heard here. Some I think you will find persuasive 
in that regard; and others, not so.
    Four points seem to me to define the realities we have to 
deal with and to make us realize that we are creating 
contradictions in the way we look at this by saying things 
like, ``It will be a catastrophe beyond all belief if we 
withdraw,'' et cetera. It is a catastrophe because we're there. 
But let me go further and explain why this is the case and why 
unraveling this paradox involves doing some things we might 
otherwise think would not bring that outcome.
    The first is the contradiction in war aims and what we're 
trying to achieve politically in the region. The war aims, if 
you recall, that the President stated were: Destroy WMD, 
overthrow Saddam's regime----
    Senator Boxer. Could he bring the mike closer?
    General Odom [continuing]. And create a liberal democracy--
--
    The Chairman. General, can you pull that mike closer to 
you----
    General Odom. Yes.
    The Chairman [continuing]. If you don't mind?
    General Odom. The three----
    The Chairman. That's great, thank you.
    General Odom. Yeah.
    Senator Boxer. Thank you.
    General Odom. The three war aims the President set were to 
overthrow Saddam, find WMD, and create a liberal democracy, 
pro-American state there. The first two--one of the first two 
is irrelevant, because there was no WMD. The second one has 
been achieved. And the third one is creating a disaster.
    Why is it creating a disaster? That takes us to the second 
point. If these war aims don't serve U.S. interests, and we're 
committing forces to pursue goals that don't serve our 
interests, who's interests are served? The interests that are 
primarily being served by our invasion are, first, Iran's. No 
one could have been more pleased to see us overthrow Saddam, 
and no one has been more supportive of our program to create a 
democracy there; in fact, the Iranians were advising the 
Shiites all along, ``Do what the Americans tell you''--that's 
why the Shiites initially didn't enter this insurgency fight--
``because the Americans are putting you in power.'' And now, 
that is becoming obvious to everybody, and if you want to 
understand why we're not going very far with any kind of troop 
increases out there, I think that's sort of the crux of it.
    The other party whose interest is being served is al-Qaeda. 
Osama bin Laden's list of people to destroy did not have the 
United States, or at least for a long time did not have the 
United States up very high. All secular Arab leaders were ahead 
of us. So, we have knocked one over for him and opened up a 
country and given him a training ground for cadres that did not 
exist before.
    Now, I've gone back and been reading my Clausewitz on this, 
and I could cite numerous passages to make the point, but 
instead, let me sum up and say the following: There is no way 
to win a war that's not in your interest. And that's what we're 
trying to do. And once you understand that, then a lot of other 
things become clear.
    The third thing is to understand that the war is not 
confined to Iraq. We, in the military, try to do order of 
battle, figure out how many enemy are against us. One of the 
great problems in Vietnam, one of the great problems in Central 
America and other places where we had client states dealing 
with these insurgencies, was a failure to look at the order of 
battle beyond the boundaries of those countries.
    We face, at a maximum, 26 million Iraqis. They're not all 
against us, but, as you heard, General Hoar said 61 percent are 
for attacking us, others are not happy to have us there. So, 
the potential order of battle on the other side is several 
millions against our 156,000 or 160,000 after the surge.
    We should also include a large portion of the Iranians. 
They may not be directly involved, but the Iranian state can 
provide an enormous amount of resources and influence on this 
area. They're not in there, big time, now. They could get in. 
So, when you start adding Iranians to the order of battle, many 
other sides are also involved here, and their capacity to 
change the order of battle in the region is next.
    You can be sure that the so-called ``moderate Arab States'' 
are not benignly sitting aside and watching this. I cannot 
believe that resources are not flowing from some of them into 
the Sunni coffers, and supplies are not coming their way, 
certainly from Syria, but probably other ways as well.
    So, when you start beginning to add up who we could be 
facing, we could be facing several states--populations in 
states where the regime may be on our side, but the public is 
not--of scores of millions against us. That's just not a good 
situation to be in.
    Now, let me move to my third point. My third point is that 
the United States does need to have other countries involved in 
solving this. That's the only way you'll change the order of 
battle significantly in our favor. I don't think we will have 
very effective cooperation from the states around Iraq until we 
withdraw. To me, that is a precondition to getting any kind of 
cooperation. Why should they--why should Iran cooperate with us 
while we're suffering so? Why should some of these other people 
cooperate with us while we're suffering so? I mean, they're 
wallowing in Schadenfreude over this. But when we start pulling 
out, their view of the world will experience a polar shift. 
Iran doesn't want a highly unstable Iraq, nor do most other 
countries want an unstable Iraq. If we provided a forum, after 
we left, I have a feeling that diplomats from these countries 
might show up if you invited them. None of them could hold a 
conference and get the others to participate. They may not like 
us, but they might find us, pragmatically, a useful host.
    I would say this is also true in Europe. The Europeans have 
been delighted to see us suffer in Iraq. Not all of them, but 
some. Why should they change? They've been proven right. We got 
ourselves into a hole they warned us not to get into.
    I think if we get out, they will soon realize that they are 
going to suffer the aftermath of this fiasco earlier and 
probably even more severely than we do. Therefore, a withdrawal 
is not the road to defeat; it's the precondition for reframing 
our strategy for interests that are truly ours--for a campaign 
that is in our interest. And I want to say that we can overcome 
the political, strategic, and military, and diplomatic 
paralysis by beginning to withdraw. As long as we're in, we 
don't have much room to maneuver.
    Now, let me suggest a new strategy. And it's not a new one; 
it's a return to an old one. I was the planner in the Carter 
administration for the so-called Persian Gulf security 
framework, and I had to look at that region and think about 
what it meant when the Shah fell. After the Shah's collapse we 
began to try to figure out what to do next. Well, as I looked 
back, I could see that, clearly, since the 1950s, we had, if 
not an explicit, at least an implicit American strategy of 
keeping a foot in three camps: The Arab camp, the Israeli camp, 
and the Persian/Iranian camp. As long as we had a foot in all 
three camps, the military requirements for maintaining a 
balance in the region were not high. When we lost our footing 
in the Iranian camp, they became very high, and that's why the 
Persian Gulf's security framework's key component was the 
Central Command. There were many other aspects to this. 
President Carter understood clearly that we needed it. He also 
understood something else: That need for greater military power 
should be temporary, because it was costing us more to 
stabilize by having Iran as an opponent. We saw that 
reestablishing some sort of cooperative relationship with Iran 
was very much in our interest. And there were also many 
objective interests for Iran to restore a relationship. Every 
administration since then, until this one, I think, has 
realized this fact. The Reagan administration made some very 
clumsy and feckless efforts to engage with Iran, but the 
strategic aim was right, even if the operational tactics and 
diplomacy were wrong.
    I think the first Bush administration didn't pay a lot of 
attention to it until the gulf war, and then they knew they had 
to do something about it then. The Clinton administration also 
tried. Maybe not enough. But when the present administration 
found itself fighting the Taliban, it found Iran highly 
cooperative.
    So, I could add additional objective reasons why Iran 
should come around to cooperate with us.
    There's another factor that argues for having Iran back in 
the game on our side: It would remove Russia's negative 
influence. Iran is being used by Russia now in a most unnatural 
alliance. It's very unnatural for Russians and Iranians to 
ally. There's no precedent for that in their history, and I 
think the Iranians pay a large price for that. It gives the 
Russians a spoiling lever in the region.
    So, a new strategy has to have as its aim not winning a 
victory in Iraq, per se, but reachieving regional stability. 
And any strategy that doesn't set regional stability as its 
goal and then begin to allocate diplomatic efforts and military 
efforts to reachieve that strikes me as seriously wanting. The 
problem with the administration's strategy in Iraq is that the 
means they have used to pursue regional stability has undercut 
regional stability. Both spreading democracy and the techniques 
of nonproliferation have accelerated proliferation and added to 
instability. Therefore, I don't think you can get yourself out 
of that muddle militarily, diplomatically, any other ways, by 
parsing these things into particular military, political, 
economic components. You have to come back to the tough reality 
and understand that withdrawal from Iraq now on some 
responsible phased schedule, but a serious and irreversible 
schedule, is the only thing that will change the polarity of 
the situation to give this President an opportunity to design a 
strategy that has some prospect of victory.
    Thank you.
    [The prepared statement of General Odom follows:]

  Prepared Statement LTG William E. Odom, USA (Ret.), Senior Fellow, 
  Hudson Institute; Former Director of the National Security Agency, 
                             Washington, DC

    Good afternoon, Senator Biden and members of the committee. It is a 
grave responsibility to testify before you today because the issue, the 
war in Iraq, is of such monumental importance.
    You have asked me to address primarily the military aspects of the 
war. Although I shall comply, I must emphasize that it makes no sense 
to separate them from the political aspects. Military actions are 
merely the most extreme form of politics. If politics is the business 
of deciding ``who gets what, when, how,'' as Boss Tweed of Tammany Hall 
in New York City once said, then the military aspects of war are the 
most extreme form of politics. The war in Iraq will answer that 
question there.

                           STRATEGIC OVERVIEW

    The role that U.S. military forces can play in that conflict is 
seriously limited by all the political decisions the U.S. Government 
has already taken. The most fundamental decision was setting, as its 
larger strategic purpose, the stabilization of the region by building a 
democracy in Iraq and encouraging its spread. This, of course, was to 
risk destabilizing the region by starting a war.
    Military operations must be judged by whether and how they 
contribute to accomplishing war aims. No clear view is possible of 
where we are today and where we are headed without constant focus on 
war aims and how they affect U.S. interests. The interaction of 
interests, war aims, and military operations defines the strategic 
context in which we find ourselves. We cannot have the slightest 
understanding of the likely consequences of proposed changes in our war 
policy without relating them to the strategic context. Here are the 
four major realities that define that context:

    1. Confusion about war aims and U.S. interests. The President 
stated three war aims clearly and repeatedly:

  <bullet> The destruction of Iraqi WMD;
  <bullet> The overthrow of Saddam Hussein;
  <bullet> The creation of a liberal democratic Iraq.

    The first war aim is moot because Iraq had no WMD. The second was 
achieved by late spring 2003. Today people are waking up to what was 
obvious before the war--the third aim has no real prospects of being 
achieved even in 10 or 20 years, much less in the short time 
anticipated by the war planners. Implicit in that aim was the belief 
that a pro-American post-Saddam regime could be established. This too, 
it should now be clear, is mostly unlikely. Finally, is it in the U.S. 
interest to have launched a war in pursuit of any of these aims? And is 
it in the U.S. interest to continue pursuing the third? Or is it time 
to redefine our aims? And, concomitantly, to redefine what constitutes 
victory?

    2. The war has served primarily the interests of Iran and al-Qaeda, 
not American interests.
    We cannot reverse this outcome by more use of military force in 
Iraq. To try to do so would require siding with Sunni leaders and the 
Baathist insurgents against pro-Iranian Shiite groups. The Baathist 
insurgents constitute the forces most strongly opposed to Iraqi 
cooperation with Iran. At the same time, our democratization policy has 
installed Shiite majorities and pro-Iranians groups in power in 
Baghdad, especially in the Ministries of Interior and Defense. 
Moreover, our counterinsurgency operations are, as unintended (but 
easily foreseeable) consequences; first, greater Shiite openness to 
Iranian influence and, second, al-Qaeda's entry into Iraq and rooting 
itself in some elements of Iraqi society.

    3. On the international level, the war has effectively paralyzed 
the United States militarily and strategically, denying it any prospect 
of revising its strategy toward an attainable goal.
    As long as U.S. forces remained engaged in Iraq, not only will the 
military costs go up, but also the incentives will decline for other 
states to cooperate with Washington to find a constructive outcome. 
This includes not only countries contiguous to Iraq but also Russia and 
key American allies in Europe. In their view, we deserve the pain we 
are suffering for our arrogance and unilateralism.

    4. Overthrowing the Iraqi regime in 2003 insured that the, country 
would fragment into at least three groups: Sunnis, Shiites, and Kurds. 
In other words, the invasion made it inevitable that a civil war would 
be required to create a new central government able to control all of 
Iraq. Yet a civil war does not insure it. No faction may win the 
struggle. A lengthy stalemate, or a permanent breakup of the country is 
possible. The invasion also insured that outside countries and groups 
would become involved. Al-Qaeda and Iran are the most conspicuous 
participants so far, Turkey and Syria less so. If some of the wealthy 
oil-producing countries on the Arabian Peninsula are not already 
involved, they are most likely to support with resources, any force in 
Iraq that opposes Iranian influence.
    Many critics argue that, had the invasion been done ``right,'' such 
as sending in much larger forces for reestablishing security and 
government services, the war would have been a success. This argument 
is not convincing. Such actions might have delayed a civil war but 
could not have prevented it. Therefore, any military programs or 
operations having the aim of trying to reverse this reality, insisting 
that we can now ``do it right,'' need to be treated with the deepest of 
suspicion. That includes the proposal to sponsor the breakup by 
creating three successor states. To do so would be to preside over the 
massive ethnic cleansing operations required for the successor states 
to be reasonably stable. Ethnic cleansing is happening in spite of the 
U.S. military in Iraq, but I see no political or moral advantage for 
the United States to become its advocate. We are already being blamed 
as its facilitator.

    Let me not turn to key aspects of the President's revised approach 
to the war as well as several other proposals.
    In addition to the President, a number of people and groups have 
supported increased U.S. force levels. As GEN Colin Powell has said, 
before we consider sending additional U.S. troops, we must examine what 
missions they will have. I would add that we ask precisely what those 
troops must do to reverse any of these four present realities created 
by the invasion. I cannot conceive of any achievable missions they 
could be given to cause a reversal.
    Just for purposes of analysis, let us suppose we had unlimited 
numbers of U.S. troops to deploy in Iraq. Would that change my 
assessment? In principle, if 2 or 3 million troops were deployed there 
with the latitude to annihilate all resistance without much attention 
to collateral civilian casualties and human rights, order might well be 
temporarily reestablished under a reign of U.S. terror. The problem we 
would then face is that we would be opposed not only by 26 million 
Iraqis but also by millions of Arabs and Iranians surrounding Iraq; 
peoples angered by our treatment of Muslims and Arabs. These outsiders 
are already involved to some degree in the internal war in Iraq, and 
any increase of U.S. forces is likely to be exceeded by additional 
outside support for insurgents.
    I never cease to be amazed at our military commanders' apparent 
belief that the ``order of battle'' of the opposition forces they face 
are limited to Iraq. I say ``apparent'' because those commanders may be 
constrained by the administration's policies from correcting this 
mistaken view. Once the invasion began, Muslims in general and Arabs in 
particular could be expected to take sides against the United States. 
In other words, we went to war not just against the Iraqi forces and 
insurgent groups but also against a large part of the Arab world, 
scores and scores of millions. Most Arab governments, of course, are 
neutral or somewhat supportive, but their publics in growing numbers 
are against us.
    It is a strategic error of monumental proportions to view the war 
as confined to Iraq. Yet this is the implicit assumption on which the 
President's new strategy is based. We have turned it into two wars that 
vastly exceed the borders of Iraq. First, there is the war against the 
U.S. occupation that draws both sympathy and material support from 
other Arab countries. Second, there is the Shiite-Sunni war, a 
sectarian conflict, heretofore, sublimated within the Arab world but 
that now has opened the door to Iranian influence in Iraq. In turn, it 
foreordains an expanding Iranian-Arab regional conflict.
    Any military proposals today that do not account for both larger 
wars, as well as the Iranian threat to the Arab States on the Persian 
Gulf, must be judged wholly inadequate if not counterproductive. Let me 
now turn to some specific proposals, those advocated by independent 
voices and the Iraq Study Group as well as the administration.

                           SPECIFIC PROPOSALS

    Standing up Iraqi security forces to replace U.S. forces. Training 
the Iraqi military and police force has been proposed repeatedly as a 
way to bring stability to Iraq and allow U.S. forces to withdraw. 
Recently new variants, such as embedding U.S. troops within Iraqi 
units, are offered. The Iraq Study Group made much of this technique.
    I know of no historical precedent to suggest that any of them will 
succeed. The problem is not the competency of Iraqi forces. It is 
political consolidation and gaining the troops' loyalties to the 
government and their commanders as opposed to their loyalties to 
sectarian leaders, clans, families, and relatives. For what political 
authority are Iraqi soldiers and police willing to risk their lives? To 
the American command? What if American forces depart? Won't they be 
called traitors for supporting the invaders and occupiers? Will they 
trust in a Shiite-dominated government and Ministry of Interior, which 
is engaged in assassinations of Sunnis? Sunni Arabs and Kurds would be 
foolish to do so, although financial desperation has driven many to 
risk it. What about to the leaders of independent militias? Here, 
soldiers can find strong reasons for loyal service: To defend their 
fellow sectarians, families, and relatives. And that is why the 
government cannot disband them. It has insufficient loyal troops to do 
so.
    As a military planner working on the pacification programs in 1970-
71 in Vietnam, I had the chance to judge the results of training both 
regular South Vietnamese forces and so-called ``regional'' and 
``popular'' forces. Some were technically proficient, but that did not 
ensure that they would always fight for the government in Saigon. Nor 
were they always loyal to their commanders. And they occasionally 
fought each other when bribed by Viet Cong agents to do so. The 
``popular forces'' at the village level often failed to protect their 
villages. The reasons varied but in several cases it was the result of 
how their salaries were funded. Local tax money was not the source of 
their pay; rather it was U.S.-supplied funds. Thus these troops, as 
well as ``regional forces,'' had little sense of obligation to protect 
villagers in their areas of responsibility. For anyone who doubts that 
the Vietnam case is instructive for understanding the Iraqi case, 
recommend Ahmed S. Hashim's recent book, ``Insurgency and 
Counterinsurgency in Iraq.'' A fluent Arab linguist and a Reserve U.S. 
Army colonel, who has served a year in Iraq and visited it several 
other times, Hashim offers a textured study that struck me again and 
again as a rerun of an old movie, especially where it concerned U.S. 
training of Iraqi forces.
    U.S. military assistance training in El Salvador is often cited as 
a successful case. In fact, this effort amounted to letting the old 
elites, who used death squads to impose order, come back to power in 
different guises. And death squads are again active there. The real 
cause of the defeat of the Salvadoran insurgency was Gorbachev's 
decision to cut off supplies to it, as he promised President George H. 
Bush at the Malta summit meeting. Thus denied their resource base, and 
having failed to create a self-supporting tax regime in the countryside 
as the Viet Cong did in Vietnam, they could not survive for long. Does 
the administration's new plan for Iraq promise to eliminate all outside 
support to the warring factions? Is it even remotely possible? Hardly.
    The oft-cited British success in Malaysia is only superficially 
relevant to the Iraq case. British officials actually ruled the 
country. Thus they had decades of firsthand knowledge of the local 
politics. They made such a mess of it, however, that an insurgency 
emerged in opposition. A new military commander and a cleanup of the 
colonial administration provided political consolidation and the 
isolation of the Communist insurgents, mostly members of an ethnic 
minority group. This pattern would be impossible to duplicate in Iraq.
    An infusion of new funds for reconstruction. A shortage of funds 
has not been the cause of failed reconstruction efforts in Iraq. 
Administrative capacity to use funds effectively was and remains the 
primary obstacle. Even support programs carried out by American 
contractors for U.S. forces have yielded mixed results. Insurgent 
attacks on the projects have provoked transfers of construction funds 
to security measures, which have also failed.
    A weak or nonexistent government administrative capacity allows 
most of the money to be squandered. Putting another billion or so 
dollars into public works in Iraq today--before a government is in 
place with an effective administrative capacity to penetrate to the 
neighborhood and village level--is like trying to build a roof on a 
house before its walls have been erected. Moreover, a large part of 
that money will find its way into the hands of insurgents and sectarian 
militias. That is exactly what happened in Vietnam, and it has been 
happening in Iraq.
    New and innovative counterinsurgency tactics. The cottage industry 
of counterinsurgency tactics is old and deceptive. When the U.S. 
military has been periodically tasked to reinvent them--the last great 
surge in that industry was at the JFK School in Fort Bragg in the 
1960s--it has no choice but to pretend that counterinsurgency tactics 
can succeed where no political consolidation in the government has yet 
been achieved. New counterinsurgency tactics cannot save Iraq today 
because they are designed without account for the essence of any 
``internal war,'' whether an insurgency or a civil war.
    Such wars are about ``who will rule,'' and who will rule depends on 
``who can tax'' and build an effective state apparatus down to the 
village level.
    The taxation issue is not even on the agenda of U.S. programs for 
Iraq. Nor was it a central focus in Vietnam, El Salvador, the 
Philippines, and most other cases of U.S.-backed governments embroiled 
in internal wars. Where U.S. funding has been amply provided to those 
governments, the recipient regime has treated those moneys as its tax 
base while failing to create an indigenous tax base. In my own study of 
three counterinsurgency cases, and from my experience in Vietnam, I 
discovered that the regimes that received the least U.S. direct fiscal 
support had the most success against the insurgents. Providing funding 
and forces to give an embattled regime more ``time'' to gain adequate 
strength is like asking a drunk to drink more whiskey in order to sober 
up.
    Saddam's regime lived mostly on revenues from oil exports. Thus it 
never had to create an effective apparatus to collect direct taxes. 
Were U.S. forces and counterinsurgency efforts to succeed in imposing 
order for a time, the issue of who will control the oil in Iraq would 
become the focus of conflict for competing factions. The time would not 
be spent creating the administrative capacity to keep order and to 
collect sufficient taxes to administer the country. At best, the war 
over who will eventually rule the country would only be postponed.
    This is the crux of the dilemma facing all such internal wars. I 
make this assertion not only based on my own study but also in light of 
considerable literature that demonstrates that the single best index of 
the strength of any state is its ability to collect direct taxes, not 
export-import tax or indirect taxes. The latter two are relatively easy 
to collect by comparison, requiring much weaker state institutions.
    The Iraq Study Group. The report of this group should not be taken 
as offering a new or promising strategy for dealing with Iraq. Its 
virtue lies in its candid assessment of the realities in Iraq. Its 
great service has been to undercut the misleading assessments, claims, 
and judgment by the administration. It allows the several skeptical 
Republican Members of the Congress to speak out more candidly on the 
war, and it makes it less easy for those Democrats who were, 
heretofore, supporters of the administration's war to refuse to 
reconsider.
    If one reads the ISG report in light of the four points in the 
strategic overview above, one sees the key weakness of its proposals. 
It does not concede that the war, as it was conceived and continues to 
be fought, is not ``winnable.'' It rejects the rapid withdrawal of U.S. 
forces as unacceptable. No doubt a withdrawal will leave a terrible 
aftermath in Iraq, but we cannot avoid that. We can only make it worse 
by waiting until we are forced to withdraw. In the meantime, we prevent 
ourselves from escaping the paralysis imposed on us by the war, unable 
to redefine our war aims, which have served Iranian and al-Qaeda 
interests instead of our own.
    I do not criticize the report for this failure. As constructed, the 
group could not advance a fundamental revision of our strategy. Its 
Republican and Democrat members could not be said to represent all 
members of their own parties. Thus the most it could do was to make it 
politically easier for the administration to begin a fundamental 
revision of its strategy instead of offering a list of tactical changes 
for the same old war aim of creating a liberal democracy with a pro-
American orientation in Iraq.
                what would a revised strategy look like?
    How can the United States recover from this strategic blunder? It 
cannot as long as it fails to revise its war aims. Wise leaders in war 
have many times admitted that their war aims are misguided and then 
revised them to deal with realities beyond their control. Such leaders 
make tactical withdrawals, regroup, and revise their aims, and design 
new strategies to pursue them. Those who cannot make such adjustments 
eventually face defeat.
    What war aim today is genuinely in the U.S. interest and offers 
realistic prospects of success? And not just in Iraq but in the larger 
region?
    Since the 1950s, the U.S. aim in this region has been ``regional 
stability'' above all others. The strategy for achieving this aim of 
every administration until the present one has been maintaining a 
regional balance of power among three regional forces--Arabs, Israelis, 
and Iranians. The Arab-Persian conflict is older than the Arab-Israeli 
conflict. The United States kept a diplomatic foothold in all three 
camps until the fall of the Shah's regime in Iran. Losing its footing 
in Tehran, it began under President Carter's leadership to compensate 
by building what he called the Persian Gulf Security Framework. The 
U.S. Central Command with enhanced military power was born as one of 
the main means for this purpose, but the long-term goal was a 
rapprochement. Until that time, the military costs for maintaining the 
regional power balance would be much higher.
    The Reagan administration, although it condemned Carter's Persian 
Gulf Security Framework, the so-called ``Carter Doctrine,'' continued 
Carter's policies, even to the point of supporting Iraq when Iran was 
close to overrunning it. Some of its efforts to improve relations with 
Iran were feckless and counterproductive, but it maintained the proper 
strategic aim--regional stability.
    The Bush administration has broken with this strategy by invading 
Iraq and also by threatening the existence of the regime in Iran. It 
presumed that establishing a liberal democracy in Iraq would lead to 
regional stability. In fact, the policy of spreading democracy by 
forces of arms has become the main source of regional instability.
    This not only postponed any near-term chance of better relations 
with Iran but also has moved the United States closer to losing its 
footing in the Arab camp as well. That, of course, increases greatly 
the threats to Israel's security, the very thing it was supposed to 
improve, not to mention that it makes the military costs rise 
dramatically, exceeding what we can prudently bear, especially without 
the support of our European allies and others.
    Several critics of the administration show an appreciation of the 
requirement to regain our allies' and others' support, but they do not 
recognize that withdrawal of U.S. forces from Iraq is the sine qua non 
for achieving their cooperation. It will be forthcoming once that 
withdrawal begins and looks irreversible. They will then realize that 
they can no longer sit on the sidelines. The aftermath will be worse 
for them than for the United States, and they know that without U.S. 
participation and leadership, they alone cannot restore regional 
stability. Until we understand this critical point, we cannot design a 
strategy that can achieve what we can legitimately call a victory.
    Any new strategy that does realistically promise to achieve 
regional stability at a cost we can prudently bear, and does not regain 
the confidence and support of our allies, is doomed to failure. To 
date, I have seen no awareness that any political leader in this 
country has gone beyond tactical proposals to offer a different 
strategic approach to limiting the damage in a war that is turning out 
to be the greatest strategic disaster in our history.

    The Chairman. Thank you very much, General.
    Impressive testimonies. Thank you very, very much.
    We'll do 8-minute rounds, if that's OK. And if our 
colleagues have an opportunity to stay, maybe we can have a 
second round. I know everyone's not here, but--is that all 
right with you, Mr. Chairman?
    What I've tried to do with these talented panels that we've 
had is, as you've spoken, and as I've read your statements, 
I've tried to discern where there are points of agreement and 
points of departure. So, we can sort of start from there. At 
least it helps my mind order things a little better.
    There's universal judgment here that the mission--the 
strategy and the mission--and they're separable--have, thus 
far, been a failure, that there's a need for a new strategy and 
a more clearly defined mission for the region. You all say the 
region is important, so you can't just view Iraq as a stand-
alone proposition. And, second, that the mission inside Iraq 
has to be more clearly defined. And the third thing you all 
agree on, I think--correct me if I'm wrong--is, the allies are 
leaving; this is a wholly owned American subsidiary here. I 
mean, there's--there really isn't anybody else in the deal, as 
a practical matter, and no one's coming. If anything, people 
are going, correct?
    Another thing that you all seem to agree on is that 
somewhere between ``if we surge, we really have to do it and 
stick around,'' and ``we shouldn't even be surging, we should 
be using a different method, announcing or, in fact, beginning 
to withdraw''--we need a real plan, from General Odom's 
standpoint, to begin to shift the burden more clearly, or to 
enable Iraqi forces, as General McCaffrey says. General, I've 
been there seven times, and, talking to our men and women on 
the ground, they say they wouldn't do what we ask the Iraqis to 
do. They wouldn't get in a Toyota pickup truck and--you know, 
and arrive at such-and-such a place or go to such-and-such a 
deal.
    General Odom, your strategic vision here is, I think, not 
only fascinating, but I think I agree with it. The irony of all 
ironies is, the underlying rationale, not just for Iraq, but 
for the region, has been a mistake. The way we were going to 
have our interests solidified and sustained and increased was 
to deal with the word you didn't use, ``regime change.'' The 
way to deal with the Iranian situation, we no longer have a 
foot in the Persian camp, so get rid of the foot--get rid of 
the present Persian camp.
    General Odom. I would even go so far as to say--I'd pay the 
price of saying I'm not going to oppose, all that strongly, the 
Iranian nuclear weapons program if Iran becomes our ally.
    The Chairman. Yeah. And----
    General Odom. I'd pay that price, I would buy that deal, 
it's so important.
    The Chairman. So that--so, let me ask some specific 
questions that we get asked a lot--I get asked a lot.
    General Keane, I've read what you've written--in the past, 
as well. This is not--I'm not going to be Tim Russert and flip 
up the chart and say, ``This is what you said last time.'' But 
the essence of what you said here today, if I read your 
testimony correctly, is that you do think that pacification of 
the population, which has not been a mission--by the way, I 
agreed. The irony is, 2 years ago in this committee, and 2 
years ago on the ground with General Chiarelli and General 
Casey and General Abizaid--and, before that, with their 
predecessors, and O'Donovan, a marine--my argument was: Why 
aren't we protecting the populations? Because I'd get in a 
Humvee, and we'd fly through a neighborhood at 35 miles an 
hour, and the Iraqis looked at us as a distraction or as a 
problem, not as if anyone who's flying through the neighborhood 
is going to have a cop on the corner to protect them. It wasn't 
going to enable their kid to go, as I used to say, from their 
home to the equivalent of the corner store to bring back the 
milk. But General, I think that we have passed that point.
    And so, my question for you, General Keane, is that we're 
told, surging 21,000 troops, 17,000 of which would go into 
Baghdad into those 23 neighborhoods--although they're saying 
they're limited to the 23 neighborhoods; I know politically, 
they're saying that--and they're saying that it'll be Iraqi-
led. The Secretary of State was very precise about, ``There's 
not going to be any American knocking on the door; it's going 
to be an Iraqi, and we're going to be in a background 
situation. And this is a short duration.''
    Can a surge plan work with those parameters--Iraqis in the 
lead--if that's true--Iraqis in the lead, a short duration? As 
one of you said, 5 months to ramp it up to that peak of an 
additional 17,000, and then start to draw it down in November. 
Is that workable, or should we tell the American people that, 
from your perspective, the only way it can work is if we make a 
significant commitment here for a significant amount of time, 
meaning at least the next year or so?
    General Keane. No. No; that's not workable. The--when you 
analyze this, it--it'll take you 3 to 4 months to clear the 
neighborhoods, to get them--to bring the level of violence 
down. And then you bring in a protect force that will stay in 
those neighborhoods, both Iraqi and United States. And then, 
that'll take months, as well, to be able to change the attitude 
of those people in there to--where their quality-of-life 
experience starts to change rather dramatically and they're 
getting back to some sense of normalcy. So, you're--now you're 
into the fall and winter of the year, in Baghdad alone----
    The Chairman. Yeah.
    General Keane [continuing]. To be able to do this. Now, 
will there be some progress where people will see it, and--some 
near-term progress? I would think yes.
    The Chairman. But that only----
    General Keane. But----
    The Chairman [continuing]. Works if----
    General Keane. But----
    The Chairman [continuing]. If they stay, if you all stay.
    General Keane. Only if you stay. And then----
    The Chairman. You've got to stay around.
    General Keane [continuing]. The economic packages have to 
come in. And Baghdad is a beginning, not an end.
    The Chairman. Yeah. Well----
    General Keane. So, you have to go to Al Anbar and secure 
that population. And I think you're doing that in 2008.
    The Chairman. Yeah. Well, I think my colleagues are tired 
of hearing me say this, but no foreign policy can be sustained 
without the informed consent of the American people. You just 
can't sustain it. And so, if we're going to do this thing, this 
surge, we should just tell the American people what is the only 
possibility of it working. In my humble opinion, in listening 
to you and some of your colleagues in and out of uniform, 
you've got to do more of it if you're going to do it. If it has 
any shot, you've got do more of it, and you've got to do it for 
a longer period of time. You've got to sustain it, and you've 
got to expand it beyond Baghdad. I----
    General Odom. I don't agree.
    The Chairman [continuing]. Happen to be in your----
    General Odom. I don't----
    The Chairman [continuing]. Camp, General Odom. I think the 
only way you get any movement is, you've got to be moving the 
other direction to change the dynamic here. But----
    General Odom. Well, I'm a dissenter on increasing anything 
now.
    The Chairman. No, no; I understand that. All I'm----
    General Odom. OK. I just----
    The Chairman. No, no; what I'm----
    General Odom [continuing]. You said I had agreed to that.
    The Chairman. I understand that----
    General Odom. All right.
    The Chairman. Those whom I've spoken to who say increase, 
say: If you're going to increase, you better have a plan to 
increase that has multiple pieces to it. One, that it is 
sustainable for an extended period of time, because you've got 
to go, clear, hold, maintain, build up, and so on, and that 
takes time. And two, you're then going to have to move from 
those 23 neighborhoods to Anbar province, and God only knows 
what we may or may not have to do relative to Sadr City, 
depending on how they accept or don't accept this as 
confirmation that we're good guys, and we're not going to hurt 
them, and we're helping their cause.
    The other side of the equation is whether or not you 
drawdown. And the perils of drawing down create this 
catastrophe where we have a regional war that spreads across 
the borders as a consequence.
    General McCaffrey, why do you think that--well, let me just 
say it, and then I'll ask you to respond. In my trips to Iraq--
I haven't been there since the Fourth of July--speaking off the 
record, because a lot of you guys in uniform at the time are in 
a difficult spot with a guy like me and others coming over 
there. You have a mission stated by the Pentagon. You may or 
may not agree with it, so you're in a tough spot. When I ask, 
General, several folks with more than one star on their 
shoulder, why we weren't equipping the Iraqis more, they gave 
me the answer that we may just be equipping death squads and 
equipping competing factions of the civil war, and we may come 
to regret it. Do you think that's the reason we haven't 
equipped? Or do think there's another reason, or other reasons?
    General McCaffrey. Well, I think, first of all, it's a 
silly response, because it implies, ``I believe we're going to 
lose, and, therefore, I won't start a program that's a 
prerequisite to success, because I don't think it's going to 
work,'' which, again, would argue for beginning withdrawal and, 
``Let's give up on this thing.''
    I'm not sure that equipping the Iraqi Army is going to 
work, providing 3,000 to 5,000 light-armored vehicles and 150 
U.S. helicopters and decent small arms, but I do know that 
we're not going to pull the 1st Cavalry Division out of Baghdad 
until there's an Iraqi Army that can go--they took 12,000 
killed last year, for God's sakes. We're asking them to take on 
a mission for which they are inadequately resourced.
    I think the--you know, the second argument that you've--
that I've heard is, ``Come on, these are simple people, they 
don't understand how to do U.S. small arms,'' which is 
ridiculous. These people had the fourth largest air force on 
the face of the Earth. They're flying MIG-29 fighter aircraft. 
They're pretty clever people. Of course they can operate this 
equipment.
    I think there was another argument that said, ``You'd be--
you don't understand the nature of the struggle. It's really--
they're not here to threaten the Syrians and the Iranians, 
they're here to conduct counterinsurgency.'' But, again, you 
know, the tools that we're using--we're pretty good at this, 
actually. You know, counterinsurgency operations in urban areas 
up in Tal Afar, where the--this very bright colonel, we did a 
classic job, but we did it trying to minimize U.S. casualties.
    And then, the final argument, that I actually think is the 
major argument--and I don't pretend to be an economist, but if 
we've got giant United States internal domestic budget problems 
with decreasing taxes and increasing expenses, and you're 
shooting up $8 billion a month in Iraq and a billion or more in 
Afghanistan, when I--the first time I came back, 3 years ago, 
and argued for equipping the Iraqis, a Wall Street Journal 
reporter--in fact, I came down to see you, sir, if you----
    The Chairman. Yes.
    General McCaffrey [continuing]. Remember.
    The Chairman. Oh, I remember.
    General McCaffrey. He added up all the numbers----
    The Chairman. Got me in trouble. I argued for equipping 
them, too.
    General McCaffrey. Well, they added up all----
    The Chairman. I happen to think we should.
    General McCaffrey [continuing]. The numbers, and they said, 
``That's silly. It's something like $5 billion to do what he's 
suggesting.'' But the illogic of shooting $8 billion a month at 
them and not being capable of equipping people so you could get 
out just escapes me.
    So, I think the generals who are over there are in a box, 
and if you ask them the question, ``Have you got enough 
equipment?'' they'll say yes. The real question is, to the 
distinguished OMB Director Rob Portman, ``Why haven't we paid 
for this program, and why hasn't the Congress authorized it?''
    The Chairman. Well, my time is up. Matter of fact, it's the 
first time I've gone over here. I apologize. I agree with you 
about Petraeus and Crocker. I spent 5 days with Crocker in 
that--I think 3 or 5 days after which he opened up the 
Afghanistan Embassy that had been closed in Kabul. He is really 
a serious, serious guy, and I don't know anybody better than 
Petraeus. That's the only thing that gives me pause about this, 
that he supports it. But I still don't get it.
    I yield to Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    As I've listened to you, I'm not certain that any of the 
four of you--and you can correct me if I'm wrong--believes that 
the so-called ``benchmarks'' that are being suggested by our 
new policy can be met; certainly not within a period of a year, 
or maybe 2 years. By the ``benchmarks,'' I mean coming to 
resolution on the oil law, including revenue distribution and 
the manner in which new fields will be developed; the autonomy 
and federalism issues--that is, which provinces are going to 
join together to form regional governments, and, therefore, 
what will the role of the central government be, vis-a-vis 
these autonomous regions. And perhaps a third point, and that 
is, can there be recognition, of the roles and responsibilities 
of national army, that would be maintained by the central 
governmenttoward these autonomous regions? And, of course the 
others: De-Baathification and amnesty agreements, 
constitutional amending process and a subsequent referendum, 
the capabilities of the Iraqi security forces, and what have 
you.
    Now, as we have heard rhetoric with regard to our plan, the 
thought is that Maliki and/or the government that he heads, 
must meet certain benchmarks, and it must do so fairly 
promptly, the implication being that, if the benchmarks are not 
met, that we will withdraw.
    Now, maybe so, maybe not. The question, really, I have of 
you is: Politically, is it conceivable that President Maliki 
and his government could meet any of these benchmarks within a 
year or two? And, second, is it conceivable, picking up General 
Keane's point, that there is a citizenry that, in the event 
that we get rid of the malefactors for a period of time, and 
hold the territory, that citizens will, in fact, discourage the 
insurgents, discourage people from arming themselves? From what 
I'm listening to from the others, I would gather that you feel 
there are inclined to be many people who are going to continue 
to arm themselves, because they see this as a terminal problem, 
that either somebody prevails or does not, and that there is 
not a good government ethic, for the moment, in trying to pull 
together, to somehow back a central government or Maliki or 
somebody else. If that is the case, then, perpetually people 
will be arming themselves and will be shooting at each other. 
Now, in--whether it's Baghdad or wherever else they try to 
resolve their situations.
    The third question I want to ask, and then I'll retire for 
your responses, is: In the event that we get into a withdrawal 
strategy, should the withdrawal be complete or should we, in 
fact, retain some forces in Iraq, as opposed to the general 
region, on the basis that we would still like to try to help 
the training or equipping of an Iraqi Army and some forces for 
the future, and/or that we offer a sense of stability to the 
surrounding countries that they would not need to intervene 
immediately, whoever they may be and for whatever purposes, 
because we are still there? Furthermore, our presence, even 
diminished in terms of numbers, allows an opportunity, if not 
to engage the neighborhood in diplomacy, at least to have a 
better basis on which to conduct diplomacy, vis-a-vis Iraq or 
the Middle East. Or should the withdrawal be complete--staged, 
orderly, but out of there altogether? In essence, troops and/or 
ships of the fleet or air units or what have you in the region, 
but not in Iraq?
    Do any of you want to try on any of those for size? Yes, 
General McCaffrey.
    General McCaffrey. Senator Lugar, the last point, 
withdrawal, was one of the things that really got me energized 
out of that Baker-Hamilton report. It scared me half to death. 
The notion that--we've got a domestic political problem. It's 
hard to--going to be difficult to ask either political party to 
explain, in 2008, what they did about this mess. So, we will 
pull out our combat forces, except for some unspecified over-
the-horizon, modest, rescue cavalry presence, we'll put 30,000, 
40,000, 50,000 Americans scattered about Iraq, we'll embed them 
in squad-sized units at Iraqi company level, not speaking 
Arabic, not having a support structure, and, therefore, our 
casualties, our political vulnerability will disappear, and 
we'll be out of there. That, it seems to me, is a recipe for 
disaster on the order of what happened in Mogadishu, except, 
instead of 150 casualties, it'll be 5,000 to 15,000. So, I have 
urged the President, personally, and others, that, as you 
drawdown--I arbitrarily picked a floor--you've got 15 brigades 
there now, you think you're going up to 20--that our lowest 
floor should be 7 brigades in Iraq--a couple of Army divisions 
and a Marine regiment. If you decide to go below that level--
you can pull them out of the urban areas and get them in 
concentrations--get out of Iraq--I think it will--we are 
inviting a major disaster, you know, and I feel very strongly 
about it.
    So, again, the withdrawal, in the short run, I think, 
precipitous withdrawal, would probably be a terrible blow to 
our interests in the region.
    Senator Lugar. Well, just following up that, if the 
benchmarks are not met--if you can't meet these markers, then, 
is the President's logic that we withdraw, as you understand 
his plan?
    General McCaffrey. I don't think there's--we have--the 
current administration, I don't think, has any intention of 
withdrawing from Iraq. They're going to----
    Senator Lugar. Benchmarks or not.
    General McCaffrey. They're going to try and muscle this 
thing out in the next 24 months with an urban counterinsurgency 
plan that I personally believe, with all due respect, is a 
fool's errand. So, I'm looking for the economic component, the 
peace negotiation component, and the army--the Iraqi, 
component, as a way to cover our withdrawal from Iraq.
    Senator Hagel. Senator Lugar, may I intervene to ask you a 
question, and our panel? Because I don't think you answered the 
question, General. We're threatening consequences? What are the 
consequences?
    General McCaffrey. There are none.
    Senator Hagel. No, what----
    General McCaffrey. Nor are there any----
    Senator Hagel [continuing]. What are the consequences, in 
your opinion? I know he has not, I suspect, asked you that, but 
what Senator Lugar's asking, then, he's--this rhetoric, ``You 
either do this, or else.'' We heard Secretary Rice say this. 
So, in your opinion, what are those consequences? Do we pull 
out?
    General McCaffrey. Well, if you don't have an economic 
incentive, you can't withdraw it. If you're not equipping their 
military forces, you can't stop equipping them. If there's no 
peace dialog to be enforced or encouraged with our good 
offices, you're left with 15 Army and Marine combat teams 
fighting among 27 million angry Arabs. So, I personally think, 
in the short run, the current strategy is nonsensical.
    Senator Lugar. General Hoar.
    General Hoar. Yes, sir. I'd like to, first of all, say that 
I agree with General McCaffrey. But there is a larger issue, 
and that's the regional issue. The countries in that region 
that have supported us are scared to death of the possibility 
of a failed state that is aligned politically with Iran. And 
while Bill Odom, I think, makes some very good points, there 
may be an interim step in there, where you have an Iraqi 
Government that is responsive to the Iranian Government. And 
so, we must stay in the region. The possibilities of 
destabilizing Saudi Arabia, Bahrain, Kuwait, are quite large--
--
    Senator Lugar. By ``region,'' you don't necessarily mean 
Iraq, right?
    General Hoar. That's right. This is quite different from 
Iraq.
    Senator Lugar. We might still get out of Iraq, but stay in 
the region.
    General Hoar. My crystal ball would say that in 2008, the 
Presidential candidates are all going to favor getting out.
    Senator Lugar. General Odom.
    General Odom. Yeah. The benchmark business, I think, you've 
pretty well unraveled. It's a charge or a demand that you can't 
implement. And it reminds me of Vietnam. When you start these 
metrics, what it tells you is, you don't have the indigenous 
political apparatus to run the country, and you're trying to 
run it by ventriloquy. And I----
    [Laughter.]
    General Odom [continuing]. In a book I wrote, ``On Internal 
Wars,'' that was what I called most U.S. cases of supporting 
client states against insurgencies. You know, we can't own them 
like the British owned Malaysia, because we don't have 
colonies, so we pay them to say and do what we think that they 
should do. And, of course, we eventually lose, or we've pasted 
over, in some way, so that it looks like a success. I've heard 
some people say that El Salvador is an example of a success. 
I've looked around for a case that you could say is a precedent 
for having any optimism about Iraq. Well, if you look more 
closely at El Salvador, you discover that the real reason the 
insurgency dried up there was that President Bush, the first 
Bush, got a deal with Gorbachev to cut off the outside support. 
And we allowed was elections in which the old death-squad 
parties changed their label and won the elections; the 
insurgents weren't running their own tax structure as the 
Vietcong did in Vietnam, so they dried up, and the death-squad 
people are back in power today.
    No; you know, if you want to side with the Sunnis and their 
organizational capability and--in this war--you might have some 
success in Iraq. But that makes you say, ``Well, where's Saddam 
when we need him?'' Saddam was stabilizing. You know, getting 
rid of Saddam ensured that domestic order would come unglued.
    Now, will the population stop fighting if we give them 
security? And if we give them an economic package? Look, 
politics is about who gets what, when, and how. Military 
action, or war is merely the most extreme form of politics, 
when the military will determine who gets what, when, how in 
Iraq. And what is there to be got? Huge oil revenues. And we 
can't offer an economic package that's going to match that. So, 
the idea that we're going to have some economic package that's 
going to get us out of this strikes me as just not looking at 
what's at stake. The order of battle is just not properly 
developed here, what you're against. And the leaders who get 
the oil will have to run the country with an iron-hand regime. 
They can't have a democracy or a pro-U.S. Government. That's 
another thing we ought to understand now. Nobody can rule Iraq, 
and keep it from fragmenting, who's pro-American. So, you know 
that a priori. It's like as if we were in the middle of our 
civil war and somebody parachuted in from Britain and said, 
``Well, we're going to resolve this. You people must 
negotiate,'' et cetera. We would think they were crazy.
    And, finally--I want to make this point on withdrawal, 
complete or partial withdrawal. I agree with General McCaffrey: 
If you start getting out, then get out all the way. You can 
stay in the region. You can stay in Kuwait. We can stay on 
carriers or--we can keep a force that can be airlifted in. 
Force projection back into the region was a central element of 
the CENTCOM from its very beginning, and has been, on up until 
today. So, the notion that you'll get out of Iraq does not mean 
you're leaving the region. We should never leave any mistake 
about that.
    Senator Lugar. General Keane.
    General Keane. Yes. In reference to the benchmarks, I think 
it's within Maliki's capability to certainly offer 
reconciliation and amnesty to adjust the de-Baathification 
program, to some of the mistakes that have been made with it, 
and certainly to do something about the oil law. The problem 
with all of that is, is that the Sunnis aren't coming to that 
table. That's the reality of it, and we have to face that 
reality. The Sunnis absolutely believe that they are winning. 
And these measures, though prudent from our perspective, are 
not going to be persuasive to them, when they believe that they 
can fracture this government and they can begin to have their 
way. It's unclear, you know, how you go from fractured 
government to civil war to failed state and return to Sunni 
power. I mean, they don't describe that. But, clearly, they 
want to leverage that. So, I don't think that benchmarks are 
going to have any impact on the Sunnis, is my point.
    Security on the streets. Establishing security on the 
street is an achievable issue. I mean, the fact that we just 
throw up our hands and say, ``People are always going to kill 
each other, and a population in a given city, in that place, in 
that world will always be at risk.'' I don't accept that. We 
can provide security. We provide it for our own people. We can 
provide security in Baghdad, despite some of the horrors of the 
conflicts that are taken. It is a definable problem that can be 
achieved. It has to do with resources, obviously, to be able to 
do it.
    The withdrawal strategy, certainly the--what would happen 
to us during a withdrawal is--one is, we're going to be--we 
will be shot at going out as that country begins to fracture 
around us. That--that's the issue. And Brookings has done a 
thoughtful analysis, and it may be someone you should consider 
bringing over here, if you haven't done it already--Ken Pollack 
did an historical analysis of, When you do have a civil war, 
what is the spillover effect, and what are some of the 
conditions that drive a spillover effect that lead to a 
regional war? And is Iraq one of those that could lead to a 
regional war? He admits, when they started this process, they 
thought maybe not, but, when they finished the historical 
analysis, he and his colleagues agreed that Iraq, in all 
likelihood, would spill over into a regional civil war because 
of the conditions in the countries around them and their 
interests in--and the stakes that are there.
    And then we have a much larger problem. And this is where I 
part company with General Odom. If we have a regional civil war 
raging there, we brought that on by our precipitous withdrawal, 
and what are our challenges then, and what are our options, in 
terms of dealing with that? Do we have a stake and an interest 
in it? We are sitting on top of the second largest oil reserve 
in the region, and it puts the other oil reserves in the region 
also at risk. These are realities that we have to deal with, in 
terms of our own economic interest.
    So, those are huge problems, I think. Again, the 
benchmarks--in the end, it's not going to work. Strategy is 
achievable on the streets. And withdrawal, in my mind, does 
lead to a fractured state, civil war, with the likelihood that 
we will have a regional conflict then.
    The Chairman. Thank you very much.
    General Odom. May I make a brief comment? We already have a 
regional civil war. We've got one right now.
    The Chairman. As I understand your position, General, 
you're saying that if, in fact, we start to withdraw, that will 
wake up the surrounding nations to their interest and avoid 
that war.
    General Odom. Yes. I said, we don't have enough military 
power in the region to prevent the war, and, to get enough 
power, we have to start getting out in order to gain allies.
    The Chairman. I realize we've done it a little bit 
differently here, folks. I've let people go over, and even the 
questions of mine. I will do that for each of you, as well. I 
mean, we try to end your questions by 8 minutes, but I find 
this, and I hope you all find it equally as enlightening, 
hearing them disagree.
    General Keane, there's a famous expression attributed to 
G.K. Chesterton. He said, ``It's not that Christianity has been 
tried and found wanting. It's been found difficult and left 
untried.'' That, to me, is the dilemma I have about Iraq, 
whether we've actually tried.
    But, Senator Boxer--Chairman Boxer.
    Senator Boxer. Thank you so much, Mr. Chairman, for what 
you're doing--and Senator Lugar--in allowing us to take our 
time and listen to these wise people.
    Each of us may have different opinions as to who is 
responsible for this horrific situation in Iraq, but I know all 
of us agree that our military troops have done every single 
thing they've been asked to do. Their work made three elections 
possible--actually, two elections and one referendum possible--
in an amazing show of strength, I think. And now, there's an 
Iraqi Government that's been freely elected. And so, the 
question before us today is how much more our brave men and 
women in uniform should be asked to sacrifice in order to 
support the Iraqi Government, when 70 percent of the Iraqi 
people want us to leave within a year and 60 percent--61 
percent of the Iraqis say it's OK to shoot an American soldier.
    And, General Odom, I really thank you for mentioning that 
statistic, because it amazes me how many people just ignore it. 
They say, ``Oh, the Iraqi Government wants us here and there.'' 
What about the Iraqi people? Over 60 percent of them say it's 
OK to shoot an American soldier. And now, our President wants 
to send more of our own into that circumstance. I believe, 
personally, our military personnel have sacrificed enough. I'm 
staunchly opposed to the President's plan for the surge, 
because, to me, it's time, as the Iraqi Study Group said, for a 
major conference--and this is also something my chairman has 
called for, for a very long time--to find a political solution 
to a civil war.
    Now, instead, this new policy that we thought was coming 
turns out to be, really, a military surge. That does not a new 
policy make. So, it seems to me we're asking our troops--or the 
President is, and I'm hoping that a majority of Senators will 
not agree with it--the President is asking them to do the 
impossible, to rectify the gross failures of political leaders, 
in both the United States and in Iraq, and to turn Iraq around 
using military means, when almost everyone I know agrees we 
need a political solution. This is far more than unfair, it's 
an enormous risk.
    And we should listen to General Schoomaker, the Army's 
Chief of Staff, who recently told Congress that the burden on 
the Army is simply too great, and that, at the current pace of 
deployments, ``We will break the active component.'' I mean, 
that's stunning. And the strain on our servicemembers is 
intensifying.
    During a Senate Foreign Relations Committee hearing with 
Secretary of State Condoleezza Rice, I asked a pretty simple 
question, that got a lot of notoriety, which is, ``Who pays the 
price?'' And so, I'm going to continue asking that at today's 
hearing, and offer up some facts.
    Clearly, servicemembers suffer horrific injuries, lose 
their buddies in combat. It's the military families who have to 
learn to adapt to a severely wounded servicemember or the fact 
that their loved one is never coming home. It's the soldiers 
who are being sent on multiple tours--two, three, four--and are 
spending years away from their families. Marines are making 
similar sacrifices. And it's the servicemembers who are facing 
problems as a result of their experiences, their combat 
experiences.
    One area I've been focusing on, Mr. Chairman, has been 
mental illness, including post-traumatic stress. Both are 
skyrocketing. And I won't go into all the stats, except to say 
the rate of suicide for the Army nearly doubled between 2004 
and 2005. I became so concerned about mental health problems 
among our men and women in uniform, that, with the support of 
Senators Warner and Levin, I was able to establish the Defense 
Task Force on Mental Health. The task force, which is headed by 
Army Surgeon General Kevin Kiley--if you don't know him--he is 
quite a wonderful man--is currently in the process of 
conducting hearings around the Nation.
    I mention the task force because I want to briefly tell you 
about one mother, who testified before the task force, whose 
son committed suicide after returning from his second tour in 
Iraq. His mother spoke of conversations she had with her son. 
And I'm not going to go into the details of this, it's too 
graphic, but suffice it to say his reaction to seeing dead and 
blackened bodies in Iraq, and seeing his own commander killed 
in front of him--I understand that these are the horrors of 
war. I am not naive about that. Indeed, I know these are the 
certainties of war. And that is why making mistakes in a war 
have an immeasurable cost. You cannot put a number to it. It is 
not like making a mistake in politics, it is not like making a 
mistake in business, it not like making a mistake on the 
football field.
    And so, this brings me to my first question, and I'd like 
to ask it to General Odom. I am concerned about the will of 
many individuals in the current Iraqi Government to truly 
pursue a policy of national reconciliation. And in this month's 
Atlantic Monthly, in an article called ``Streetwise,'' the 
author, a former Assistant Secretary of Defense, details the 
pervasive security problems that are destroying Iraq and the 
failures of the Iraqi Government to effectively confront them. 
In particular, the author details the refusal of Prime Minister 
al-Maliki to take on the Shiite militias who, we know, are 
orchestrating horrific sectarian violence against the Sunni 
population. One lieutenant colonel is even quoted as saying he 
knows of, ``police chiefs who have been relieved of duty by the 
Maliki government for cracking down on militia members.'' How 
confident are you, General, that Nouri al-Maliki and other 
Shiites, particularly the hard-liners in the Iraqi Government, 
are truly committed to national reconciliation with their 
counterparts?
    General Odom. I don't think they're committed to it at all. 
And I think, as General Keane said here, the Sunnis certainly 
are not committed to it. And I don't think the Shiites have 
ever been committed to it. I was very impressed with Ahmad 
Hashim's book on the insurgency--counterinsurgency in Iraq, a 
man who's spent quite a bit of time there and is a Reserve Army 
colonel, who said that his many discussions throughout Iraq was 
that the Shiites revealed that they feel it's their turn to own 
the country and to own the oil. They're not about to give that 
up.
    Senator Boxer. Well, this is very----
    General Odom. I think, also--I'd make one other point 
about----
    Senator Boxer. Please.
    General Odom [continuing]. Mr. Maliki and the government. 
They live in the Green Zone. If you want to see who owns and 
runs Iraq, look at the people who do not look to the United 
States for security and live outside the Green Zone. Otherwise, 
you don't have any troops, you have a government that has no 
administrative capacity to implement. So, if you tell them to 
implement these things, you're asking them to do the 
impossible. That's why most all of these economic and other 
programs that we propose have not the least prospect of 
success.
    Senator Boxer. Well, thank you, sir. I have just a little 
bit of time left, so I will ask one more question, but I wanted 
to say, this is the point that my chairman has been making over 
and over and over again. He has said--asked very specifically: 
Can you ever imagine a situation where a police force that's 
dominated by the Shia are going to go into a Sunni neighborhood 
and actually be able to patrol? And not one person, no matter 
what their views on this, has ever said, ``I can imagine it.'' 
So, I worry--I fear--we know these things. This is--these are 
things we know. And yet, we're going to take our young people, 
already stressed to the point--to a terrible point--and put 
them in such a circumstance, where they're partnering with a 
partner who we're really very nervous about.
    So, my last question, because of time, I want to ask 
General Hoar this question. What does it mean when only 35 
percent of servicemembers approve of the way that the President 
is handling the Iraq war?
    General Hoar. I've noticed, here in Washington, a change, 
Senator, among senior military people. I think there is a 
growing disillusionment among the senior people. I attribute it 
to the mismanagement of this war, and, more specifically, to 
the fact that the civilian leadership is tone deaf. The 
execution of Saddam Hussein on this--the first day of the Sunni 
feast day, of Eid--these kinds of things should never happen; 
and yet, you can't expect us to be successful unless we have an 
understanding of the culture. And I think that our colleagues 
on active duty have come to the conclusion that we're not up to 
the task.
    There was an editorial last week in the--one of the 
English-language Egyptian newspapers, that blamed the United 
States for the execution of Saddam Hussein. And among the Shia 
population throughout the Middle East, he has become a hero and 
a martyr. And that's because, again, of our inability to see 
the consequences of particular actions in the region.
    Senator Boxer. Did you mean among the Sunni?
    General Hoar. Yeah.
    Senator Boxer. Because you said ``Shia.''
    General Hoar. I'm sorry, I----
    Senator Boxer. Among the Sunni, he's become----
    General Hoar [continuing]. I mean the Sunni.
    Senator Boxer. Well, I just want to thank you for very 
much. I--after listening to this, I'm just--I'm hopeful that, 
with a bipartisan surge here in the Senate, maybe we can turn 
this around.
    The Chairman. Senator, thank you very much.
    I want the witnesses to know--and I don't know how much 
time they have, but--the freshman members--we have a remarkable 
group of new people on this committee--are required to attend 
an 11:30 meeting, at least on the Democratic side. They ought 
to be able to be back within, I'm told, 20 minutes to half an 
hour. And I think it'll take that much time anyway before we 
get there, but if you're able to stay til they get back, which 
will be around 11 o'clock--excuse me, around 12, they have some 
very good questions. If you're able to do that, I'd appreciate 
it.
    And I just want to explain, as they get up, it's not lack 
of interest. It's another obligation. Is that correct, General?
    Senator Webb. Thank you, Mr. Chairman.
    The Chairman. Yeah.
    So, Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Gentlemen, as I was sitting listening attentively to each 
of you--being an old Army sergeant, I always listen attentively 
to generals and respect generals--I was thinking, Mr. Chairman, 
this panel before us represents, I suspect, around 150 years of 
distinguished service to this country. That's pretty 
remarkable. And you all deserve, certainly, our thanks, but 
also remarkable is the fact that you are each still engaged on 
behalf of this country and are willing to come before the 
people of our Nation, through the appropriate congressional 
committees, and state your concerns, your thoughts, your 
solutions. And for that, this country owes you a great deal. 
So, thank you.
    Mr. Chairman, as we all know on this panel, these are not 
only military leaders, these are some of the best geopolitical 
thinkers in our country. They have had to be not only very 
acute geopolitical thinkers, but practitioners of all of these 
dynamics in the commands that they have held and the successful 
careers that they have accomplished.
    We could spend hours--and I suspect, if that it was up to 
the chairman, he would--keeping you all here; but we don't have 
hours, and I have a limited amount of time, and I do have a 
couple of questions. But I want to go to a point that General 
McCaffrey made, and I think all three would agree. I believe 
you said, General, you are concerned that we are putting our 
generals in a box, in Iraq. I, too, am concerned about that. 
And, as we sit here and lavish great deserved praise on Crocker 
and Petraeus and Fallon and others who will be the new team for 
us, we are putting them in a box, because if the policy is 
flawed, it won't make any difference how brilliant and 
wonderful and dedicated and smart they are. They are doomed for 
failure if the policy is flawed. I think our policy is flawed.
    I appreciate the four of you articulating some very 
specific areas where that flaw exists. And I wish our country 
could hear this, because this is not about politics, this is 
not about theory, this is not about bean-counting, this is 
about something very real for our short-term and long-term 
interests in the country. And I--and, to that point, here's a 
question for each of you.
    You noted, I suspect, this morning, in the front page of 
all the papers, that, in an interview yesterday, the Prime 
Minister of Iraq was quite critical of the President of the 
United States, was quite critical of the Secretary of State of 
the United States. One specific thing he mentioned about 
Secretary Rice--I believe she made that comment before this 
committee last week--that the Maliki government was living on 
borrowed time. Well, if I was the Prime Minister of Iraq--
specifically, Prime Minister Maliki--I might have some issue 
with that, as well. I'm not certain that was a particularly 
astute thing to say, but Secretary Rice can answer for herself.
    Surprisingly enough, we say a sovereign government, 
sovereign country, so the Prime Minister of this sovereign 
country, a sovereign Prime Minister, takes some issue with its 
strongest ally, Secretary of State, saying, ``This guy's living 
on borrowed time.''
    President Talibani said, a couple of weeks ago--and this 
goes right back to the number of points that you each have 
made--in particular, you, General McCaffrey, being quite 
critical of this administration--in training Iraqi troops, not 
providing Iraqi troops with equipment, not doing the things 
that President Talibani believes, at least--and I suspect he 
speaks for a number of Iraqis--that we should have been doing.
    Well, does that not present to all of us some sense of 
disconnect or contradiction or some dynamic here in--on one 
hand, we are about to make a commitment of at least 22,000 more 
troops in the most dangerous parts of Baghdad, where there will 
be more casualties, and billions of dollars of more money going 
in, but yet, we have a government that is sovereign saying 
these things about our leaders. Now, that may not strike you as 
strange. It strikes me as strange.
    So, how can, then, you put these great people that we are 
putting over there, all our military, asking them to do the 
things that they are doing, and have done brilliantly, as has 
been noted here today, with that kind of disconnect with the 
two governments? How does that possibly work? How can that 
work? We talk about--poll numbers and confidence of the 
American people and the Iraqi people has been also noted here 
this morning. Well, no wonder. Does that not confuse both 
publics? Does that not confuse the people of the Middle East, 
when we have these major criticisms of each other publicly? You 
all have noted, in some detail, some of the other specifics.
    So, I would like each of you, in the time I have, to 
reflect on that. I do not know how this country can execute any 
kind of a policy when you have two different governments, 
supposedly sovereign--we say they're a sovereign government, 
but we're in the shadows over here, threatening them; we're in 
the shadows over here, saying, ``Well, we will pull out 
security''--question that Senator Lugar asked, which was a very 
important question, What are the consequences? Words have 
consequences. Words have meanings. We should have figured that 
out 4 years ago, before we got ourselves in the hole, as you 
all have suggested. We should have thought about that. We did, 
on this committee. A lot of us asked tough questions, and many 
of you came before this committee and gave us some pretty good 
answers. We didn't listen. We are where we are. We're not going 
to go back and unwind the bad decisions.
    We can't, obviously, leave the Middle East, just as all of 
you say. That's a false choice. That makes no sense, and that's 
silly, and those who try to make a political dynamic out of 
this do a great disservice to this country, in both political 
parties. This isn't a political issue, this is a--the most 
significant, divisive issue facing this country since Vietnam. 
Since Vietnam. And we are in a box, just as General McCaffrey 
said. And we are putting our soldiers and our Marines in even 
more of a box and asking them to do things that they can't 
possibly do.
    Now, if you would each respond to that observation about 
the two governments being in conflict and thinking that somehow 
we're going to be able to move forward and hold hands with the 
constant bludgeoning and public humiliation of our so-called 
sovereign allies--how that--will that play out, then, with the 
new policy that the President announced on Wednesday? Can it 
work with that kind of a relationship?
    I'll just start right at the front end and--General 
McCaffrey--and go down the line. Thank you.
    And thank you, again, each of you, for your service and 
coming before us today.
    General McCaffrey. I've listened, Senator Hagel, very 
closely to General John Abizaid throughout this war. I've 
admired him for 30 years. You know, I love to introduce the 
guy. He's bilingual in Arabic, and, you know, a Stanford fellow 
and an Olmsted Scholar, and on and on. He--plus, you've got 
the--he's a real fighter, Ranger company commander, airborne 
battalion commander, in combat. And for--you know, from the 
start, I think he understood this conflict, tried to be candid 
in his dealings with the civilian leadership, and then loyally 
followed his instructions.
    Where we are now, looking at a snapshot of the notion of 
largely withdrawing our combat forces and embedding trainers, 
minus the equipment, minus the economic piece, minus the peace 
negotiations, it's almost an out-of-body experience to me to 
listen to that argument as to why it would work, why you would 
be putting 10 U.S. Army soldiers, at company level, 40-50 in a 
battalion, they don't speak Arabic, there's dual chains of 
command--what--why would you think that's going to work? Why 
would they operate as police storefront stations in the nine 
districts of Baghdad? Where is their support base? And, you 
know, I've listened--out-of-body experience--getting denounced 
by former Attorney General Meese and Vernon Jordan on CNN, that 
I obviously didn't understand the nature of combat advisors and 
why this really was----
    The Chairman. Well, that's obviously clear.
    General McCaffrey [continuing]. Going to work.
    The Chairman. That's clear. You haven't had much 
experience.
    General McCaffrey. Well, you know, I--it struck me----
    The Chairman. By the way, for the record----
    General McCaffrey [continuing]. As novel----
    The Chairman [continuing]. That is an attempt at--a very 
poor attempt at humor. [Laughter.]
    General McCaffrey. But it struck me as novel that, you 
know, I--one of my earlier combat tours, a 1st--2d Vietnamese 
airborne battalion, they spent 10 months getting us ready to 
go, to include language training. We clearly weren't there to 
inspire and take command of those battalions, we were a liaison 
element to U.S. logistics, intelligence, combat power, et 
cetera. I think that's the only useful role we will play with 
well-equipped and reliable Iraqi Army forces. So, the notion 
that we will take a--it'll be like the Sepoy rebellion of 
India, we're down there with our guys, sort of, subverting 
their own chain of command, and they're going to do the right 
thing. It strikes me as laughable that we would think that 
would work.
    What I think might work--and, again, like you, I'm 
searching for--given where we are, what's the best outcome? Get 
them more--more legs to this stool--economic and political and 
equipment--and start getting out at some measured pace, which, 
hopefully, we would communicate to the Iraqis and not to our 
enemies. I don't--since we can't keep a secret, I--I don't see 
how that would work, but I do think we're coming out.
    General Hoar said, next President's pulling the plug on 
this operation. I don't think there's much doubt about that. 
So, how can we get it where it looks like it's sort of working 
in 24 months? And that's Petraeus's challenge.
    Senator Hagel. Thank you.
    General Hoar.
    General Hoar. Sir, I've had some experience with advising, 
as well, in Vietnam, and I agree with Barry's assessment. But, 
to the specific question that you raised, I think there's two 
elements of this. One is that Maliki is, in fact, the Prime 
Minister, and he is feeling his own position as being the 
senior political person in the country, and certainly would 
take umbrage when he is criticized by the President and the 
Secretary of State, which, in my judgment, is unfortunate.
    I think the next issue down, though, is to watch Maliki and 
see what he has to say about what we've asked him to do. I 
think the first indicator is, he's apparently appointed a 
lieutenant general from the south, a Shia, a guy that has not 
got a good reputation with working with U.S. military. I think 
that's an indication of where this thing is going. And I think 
day by day we will see the decisions that he makes in order to 
meet the requirements the President of the United States has 
put on him. And I don't think we're off to a good start.
    Senator Hagel. Thank you.
    General Odom.
    General Odom. Well, I think you've framed the issue very 
clearly. And the only thing I could add was, this was eminently 
foreseeable. Once you crossed the border to invade this 
country, this kind of outcome was inexorably going to be the 
case. And we're just now getting around to it. The issue is not 
whether that's the case, the issue is whether you're going to 
face up to it or continue to buy a stock that is falling. I 
think this is a sunk-cost proposition, to put it in economic 
terms. If you want to lose more money, keep buying the stock. 
This place is headed to bankruptcy.
    Senator Hagel. General Keane.
    General Keane. Thank you.
    Well, I think that's a great question. And it really is, 
you know, Who is Maliki and who is the Maliki government? And I 
don't believe our Government--I don't pretend to speak for 
them, but I--I don't believe our Government truly knows that 
answer. I mean, is Maliki genuinely interested in a unified 
government with the Sunnis participating in it, at some level 
of consequence for the Sunnis, or is he truly interested in a 
Shia-dominated government and living on the emotion and 
psychological energy from 35 years of repression, and appealing 
to that power base? I don't think we really know that answer, 
to be honest.
    This government's been in power less than a year. His 
criticism, I think, is flapping his wings. He's got a--
probably, a right to make criticism like that. I'm more 
interested in what he does, what are going to be his political 
steps here forward. We have an opportunity to strengthen his 
hand here. And remember this military operation; its only 
intended purpose is to seek a political solution. That's what 
this is all about. So, hopefully this will strengthen his hand 
so that he can move in the right direction, but I don't know, 
myself, you know, who he really is and what that government 
really is.
    Senator Hagel. Thank you.
    Mr. Chairman, thank you.
    The Chairman. May I--I'm sorry. No; go ahead.
    Senator Hagel. No; I'm done, thank you.
    The Chairman. Would you fellows like a 5-minute break? Why 
don't we break for 5 minutes, and you can take a break back 
here, if you'd like, and the staff can show you--if you need 
the phone or anything else.
    [Recess.]
    The Chairman. If we could come back to order.
    Senator Feingold, please.
    Senator Feingold. Thank you so much, Mr. Chairman, again, 
for all of these hearings and for what you're doing here.
    And let me thank all of you, Generals, for testifying in 
front of the committee today on such an important issue. You 
are all outstanding citizens, and I sincerely appreciate the 
service you've given to our country.
    Before I get to my questions, let me say that I was struck 
by your opening statements. While you differ about how we can 
best address the profound implications of the conflict in Iraq, 
you have all highlighted, directly or indirectly, how damaging 
this administration's present course in Iraq is to our national 
security. Each of you, directly or indirectly, highlighted how 
important it is for our Government to change course in Iraq, 
and each of you alluded to the fact that the solutions in Iraq 
will not come from military efforts or from maintaining such a 
sizable military presence there indefinitely.
    I respect, of course, the opinion you've shared with us, 
and I'd like to spend a few minutes with you talking about how 
we can start preparing, strategically, to redeploy our brave 
troops from Iraq. So, what I want to do is, without debating 
about when redeployment should occur, I think this is a 
valuable forum to share your thoughts, as retired senior 
military officers, on how we should plan and execute a 
redeployment strategy that will protect the safety of our 
troops in Iraq and that will help position our forces and our 
Government for success in other efforts--including 
counterterrorism efforts--throughout the region and the world. 
Again, I'm not interested in debating, today, when or why we 
should redeploy. I'm operating under the assumption that we 
should at least prepare to do so and that each of you will have 
valuable insights as to what we should be thinking about and 
how we can best do that, while protecting our troops and 
strengthening our national security.
    So, let me begin with a general question for all of you. 
Putting aside the political debate about whether or not the 
United States troops should remain in Iraq, and for how long, I 
think we can all assume that the United States will, at some 
point, begin a redeployment or a drawdown or a phased 
withdrawal from Iraq. Clearly, this is something we need to 
plan for. So, I'd like each of you to briefly discuss what you 
feel would be the important elements of a redeployment plan on 
how we can redeploy U.S. military personnel safely, while 
mitigating any negative impact on the Iraqis and our allies in 
the region.
    General Hoar.
    General Hoar. Yes; thank you, Senator.
    I think that there are several things. First of all, as a 
preface to your point, I think it's essential that we go ahead 
and talk to Syria and Iran about the region and what can be 
done. I think Syria is the easier of the two. I think, while we 
still have a very serious problem with respect to Lebanon, we 
have a country that, right after 9/11, when they were helping 
us, was willing to open up to the peace process, and we 
rebuffed them. I think that we would help solve some other 
problems in the Middle East if we could come to some agreement, 
as we had, early after 9/11, with Syria.
    With respect to Iran, we have allowed the Brits, the 
French, and the Germans to work with Iran. We are the only 
country that has any traction with respect to--we have their 
money, we have them embargoed, we have not given them political 
recognition. We have a lot of things that we could offer.
    Beyond that, within the region, we already have a sizable 
presence in Kuwait, Bahrain, UAE, and Qatar. We need to stay in 
the area. We need to keep combat troops in the area. We have 
the capacity for over 10,000 troops in Kuwait, and we could 
keep them very close to that area if we needed to. But we need 
to engage the neighbors, all of them. And, of course, that 
includes the GCC plus the two, Egypt and Jordan, but should 
also include Turkey, because they have a dog in this fight, as 
well.
    Senator Feingold. So, the notion I'd take would be to 
safely redeploy troops to some of the places you've mentioned.
    General Hoar. To stay engaged in the region.
    Senator Feingold. OK.
    General Hoar. But we need to engage the other countries in 
the neighborhood.
    Senator Feingold. Thank you.
    General McCaffrey.
    General McCaffrey. Well, Senator, if--one caution. It seems 
to me that the idea that--with 150,000 troops in combat in Iraq 
who are failing to achieve our political and military purpose--
that we can actually start thinning out and we can perch on 
lily pads in the region and maintain influence, I think, is 
nonsense. The Kuwaitis, the Persian Gulf coast states, the 
Saudis, and others, if they see is in a determined strategic 
withdrawal, are not going to be inclined to give us an 
alternative. They will now find ways to accommodate Iranian 
influences and others. So, I don't believe, and I've heard 
people suggest, that--and clearly we ought remain engaged--
10,000 troops, Kuwait, maybe a brigade, a Marine battalion 
afloat, that kind of thing, but if we start coming out, our 
military power in the region will go down to a percent or so of 
what it is today, not that today is necessarily useful.
    Second, I think that clearly the only part of the 
redeployment that's easy is get out of the Iraqi cities, get 
into brigade- and division-protected positions in the south, in 
Tallil Air Base and--out at Balad and out in the western 
province of Anbar, and protect yourself and be a force in 
readiness to protect the Iraqi Government in the event of a 
coup, intervene, threaten the Syrians and Iranians by our 
presence. So, getting out of the cities, not taking part in 
urban warfare, is step one.
    And then, finally, I would be--and, again, it's a caution--
I'd be very careful as either a retired military officer or a 
Member of Congress, to get involved in the tactics of 
disengagement. The political question is the important one for 
the Congress to answer.
    Senator Feingold. That's fair, General.
    General McCaffrey. And it's----
    Senator Feingold. Let me just say----
    General McCaffrey [continuing]. Not clear to me what that 
answer is.
    Senator Feingold. If I could respond to that, I think 
that's a fair point. In order for someone to responsibly vote 
for the policy, we want to know, from people like you, that it 
can, in fact, be done. And so, that's the spirit of it, not 
being----
    General McCaffrey. I think----
    Senator Feingold [continuing]. Interested in trying to----
    General McCaffrey. I think we could----
    Senator Feingold [continuing]. Micromanage it, or me making 
a decision.
    General McCaffrey. Right.
    Senator Feingold. But I want to know, from these hearings--
and I think it's one of the reasons it's so good the chairman 
is doing it----
    General McCaffrey. I think we could come out----
    Senator Feingold [continuing]. That this is something----
    General McCaffrey [continuing]. And 6 months----
    Senator Feingold [continuing]. That can be done.
    General McCaffrey. I wrote a--I left a Washington Post op-
ed I wrote with you, and I think, you know, literally, we could 
be out of there in 6 months, close down the whole thing, set 
fire to our ammunition stockpiles, fight down corridors back to 
the sea and the U.S. Navy, and withdraw. The consequences of 
that might be catastrophic, but the withdrawal could clearly--
--
    Senator Feingold. I understand----
    General McCaffrey [continuing]. Be achieved.
    Senator Feingold [continuing]. Your feelings on that, but I 
do appreciate your practical observations, as well.
    General Odom.
    General Odom. There are two levels from which to approach 
this, and I think, at the level of practical implementation, 
the issue is which question to ask. You've got to go back and 
ask the questions that they're raising, and I think you've got 
to ask how much sea and airlift we have, and the inventory of 
other places in the region you can keep U.S. troops. Then the 
issue comes up as to whether our troups still will be welcome 
when we pull out. And I don't think that's something we can 
answer today but these are the questions that should be put to 
the Joint Chiefs and to the CINC on a contingency basis. They 
should, in my view, have already been put to the Pentagon. The 
Joint Chiefs need to think about all scenarios, from an 
uncontested withdrawal down to fighting our way out. And I 
think the kinds of concerns about whether the Saudis and 
others--Kuwaitis--will want us to remain open, and that talking 
about that with them early and what we'll do about the Iranian-
Arab conflict that's really going to be serious after this, 
that's got to be dealt with, and you've got to talk to those 
people so that they understand what you're willing to do, and 
they've got to let you know what they're willing to do in order 
to begin to develop a strategy.
    In my earlier remarks, I made that point. That's one of the 
things that must be developed. Once we start getting out, if 
other countries in the region are not asking the kinds of 
questions you are to the American Government, we should be 
asking them.
    Senator Feingold. Well, I really appreciate that comment, 
because, you know, as I said to some people at the Intelligence 
Committee hearing, you know, since we didn't have a real plan 
getting in, we'd darn well better have a plan to get out, and 
talk about it a little bit. It doesn't mean that everybody 
agrees, but we ought to have a plan, instead of just being in--
--
    General Odom. I would add one last point about this. You 
know, everybody sees this so-called catastrophe--there's just 
going to be a big bloodbath, all sorts of awful things. Well, I 
heard that about Vietnam, and it wasn't nearly as bad as a lot 
of people thought it would be. And I'm prepared, for strategic 
reasons that I gave earlier, if there is a terrible disaster, 
we're just going to have to accept that. That's a cost we're 
going to have to bear. My own guess is that it won't be quite 
that bad, because it will not be in other countries' interest--
the neighbors' interest to have the region destabilized. I 
don't think they'll want that, and, therefore, they will not 
immediately launch into the fight and expand it without some 
other provocations.
    Senator Feingold. I think that's a very insightful remark, 
thank you, General.
    General Keane.
    General Keane. Thank you, Senator.
    Well, you know, I would--I disagree with the withdrawal 
policy and the consequences that would take place, but, from a 
military practitioner's point, certainly that's a military 
operation, we know how to conduct it. Certainly, the--I would 
keep nothing in the south. I would go north to Balad, where 
there's a very good base there. I would pull everything out of 
the Green Zone in Baghdad. I would pull out of Victory, except 
for a very small security detachment there to maintain the--
keep the airport running. And if we could contract that out, 
we'd probably contract it out and let them do it, pull us out 
of there. I'd also pull out of Al Anbar, as well.
    So, you would pull back from the major contentious areas. 
And I agree with General McCaffrey, probably, in 6 to 8 months 
you could execute a military operation to do that. You'd be 
concerned about the safety of your forces, certainly, while 
you're doing this, so it would be preeminent for you. But it is 
a military operation. We know how to do it. And military had 
the mission, they would develop the plans to do it and execute 
it properly.
    Senator Feingold. Thank you, Generals. I thought your 
answers were very helpful and responsive, and I appreciate it.
    Thank you, Mr. Chairman.
    The Chairman. Senator Voinovich.
    Senator Voinovich. Thank you. I congratulate the chairman 
for the hearings that he's been having on this issue.
    And I thank you very much for being here today.
    Mr. Chairman, one of the books that largely affected my 
decisionmaking on Iraq, was ``The Threatening Storm: The Case 
for Invading Iraq'' by Ken Pollack. I don't know whether you 
have read it, but I would be really interested to get Mr. 
Pollack here before the committee to share with us what his 
opinion was then and what his observations are now that we've 
been involved in Iraq.
    The Chairman. Senator, I think that's a good idea. I want 
to make it clear, these aren't going to be the totality of the 
hearings we're going to have on Iraq. These are the important 
opening salvo. So I think that's a great idea. I will pursue 
that.
    Senator Voinovich. The other influential book that I read--
is ``The War for Muslim Minds'' by Gilles Kepel, which I read 
that about 2 years ago. After reading it, I concluded that we 
were completely misreading this area of the world and need to 
learn a lot more about it. Moqtada al-Sadr and his family have 
been revolutionaries for a long time. They are populists, and 
their goal in life is to assume power over Iraq. In his mind, I 
believe Sadr wants to be the next Ayatollah of Iraq, and, 
ultimately, wants to create a theocracy there. Because of my 
concerns, I continue to ask questions in the committee's closed 
sessions about Sadr. For example: How can there be a unity 
government with Sadr? He is the dominant figure there. And I 
really don't know where Sistani is anymore. He seems to have 
disappeared from the scene.
    But, as I analyze the situation, the Shiites were 
previously out of power, and only the Sunnis ruled--but now the 
Shiites are in, and I think they will want a Shiite-dominated 
government. So then the question is: What happens to the Sunnis 
if the Shiites take over?
    The Sunnis are still there, and I think one of you 
mentioned that Saddam is now their hero. What we failed to 
realize, at least from what I read, is that this struggle 
between the Shiites and the Sunnis has transpired for many, 
many years.
    The central question is: If America leaves Iraq and things 
start to unravel, what's going to happen? Pollack says there 
could be a regional confrontation that spirals out of Iraq. 
From what I understand, both Shiites and Sunnis want to 
dominate the area, from a religious point of view. Saddam 
Hussein was a Sunni, and the Sunnis are trying to draw even 
more Sunnis to the region to fight in the conflict.
    So will there be a regional conflict? The most important 
question I want to address is: If the leaders in the region, 
Shiite and Sunni, understand that utter chaos could very well 
erupt, what incentives do they have to work together on 
reaching a political solution in Iraq? Are there enough 
incentives for them to get involved there? There are currently 
700,000 refugees and probably more to come, which creates a 
refugee problem. There's a lot of disruption going on in these 
respective countries. And if the Shiites fight the Sunnis, will 
the Saudis be forced to intervene? Is there any way the Saudis 
could avoid getting involved if this happens?
    How do we leverage incentives to involve regional leaders? 
When should an effort be made to do so? We're discussing a 
military surge and some argue that we should engage in regional 
diplomacy after the military surge. But if it were my decision, 
I'd work on the regional diplomacy immediately, because I think 
the real challenges are political. We need to focus on the 
associated political incentives so we can get the regional 
parties involved in bringing stability to the region.
    General.
    General Hoar. May I give a crack at that, Senator?
    I would say, first of all, that the countries you mentioned 
are all--the governments are dominated by the Sunni, they all 
have substantial Shia minorities, and they're all terribly 
worried about this. My understanding today is that the 
Secretary of State is traveling in the region to encourage 
these governments to put pressure on the Sunni in Iraq to 
support the central government, which is quite different from 
the question that you asked, which is the bigger one, What are 
they going to do when this thing goes to a catastrophe? And I 
think this is why we need to be talking to them right now. The 
Saudis' answer to this question is to build a wall, which, in 
my judgment, will be as--about as successful as our efforts to 
put a barrier along the DMZ in Vietnam or the current planned 
one between Mexico and the United States. Barriers don't work.
    The point is, we need to be engaged with them and explain 
to them that they are in serious trouble if Iraq craters, and 
they need to get involved in taking some steps now to protect 
their own political arrangements in their own countries.
    Senator Voinovich. General Odom.
    General Odom. I think you've put your finger on a key issue 
which I tried to highlight in my opening remarks, that the war 
was never in our interest, that it actually was undercutting 
our interest in the region: Regional stability. Because by 
going in and knocking off Saddam, we ensured that this kind of 
conflict would eventually come about. And what we've been 
trying to do ever since is evade the inevitable. And I tried to 
explain that the alignment of forces is such that no matter how 
much we surge in Iraq, other surges from outside, with money or 
people themselves, can more than counter that. So, I think 
you're exactly right. And the only option left open to us, if 
we're going to get back and try to achieve regional stability, 
is to get out. And it may cost us a lot, it may not cost us as 
much, but we can't turn our strategy around unless we do. 
That's the precondition. So, I agree with you, and I think it's 
really hard--it's the thing that has everybody stopped in this 
debate. If they once realize that you don't have a choice to 
stay in there and get what was originally defined as victory--
victory would be a liberal, democratic, pro-American Iraqi--if 
you realize that's a mirage, then maybe you'll wise up and 
realize that you've got to adjust to those realities. So----
    Senator Voinovich. That----
    General Odom [continuing]. It seems to me that is the crux 
of the issue we're facing. The issue just at what point do you 
say, ``That's a mirage and we're not going to pay any more in 
pursuit of it''?
    General Keane. Well, you have to remember that the Sunnis 
really do want it to blow. I mean, that--the armed conflict 
that they are--that they are prosecuting is to fracture this 
government and create the conditions for all-out civil war in a 
failed state. That is what they want. So, I mean, the issue is, 
can we do anything----
    Senator Voinovich. General, excuse me, how could the Sunnis 
conclude that they could win, militarily?
    General Keane. It--I agree with that, it makes no sense----
    General Odom. I don't. But go ahead.
    General Keane. It makes no sense, but, nonetheless, that is 
what they believe. Out of the anarchy of a failed state, they 
believe it suits their political objectives better than any 
course they have right now. That's a fact.
    So, is there something to work with there? Right now, 
there's nothing to work with. That's a fact. And you've got the 
Sunni Arab States that are cheerleading the insurgency, not 
direct aiding and abetting, like Syria is the insurgency and 
the Iranians, in terms of the militias, but, nonetheless, 
cheerleading it. You have to change that. You have to deal with 
the Sunnis and convince them that their political objectives 
cannot be achieved by armed violence. And I think we can do 
that. We can start to change that equation, and then you have 
something to work with. Right now, there's nothing to work 
with. They're not monolithic; I'm not suggesting that they are. 
And there are different groups there, as we all know. And their 
former regime element, the Saddamists, are clearly different 
than some of the other more mainstream. But the fact is that 
they want a fractured government. So, we have to stabilize this 
situation, bring this level of violence down, convince them 
that they cannot achieve their political objectives by armed 
violence. Then Maliki has something to work with. And the 
question is: Is Maliki willing to work with it?
    Senator Voinovich. Well, you just said--and I wrote it 
down--that you're not sure who Maliki is exactly: Does he want 
a unity government? Does he want a government that's just 
dominated by the Shiites? You've indicated that we've got some 
real reservations about this guy.
    General Keane. We do. And, at the same hand--time, I don't 
think we just pull the plug and deal with the consequences. 
What I'm suggesting is, despite those reservations, despite the 
fact we don't know--and I don't think anybody truly does know--
we should strengthen his hand. And----
    Senator Voinovich. But the question----
    General Keane [continuing]. We had an opportunity to do 
that.
    Senator Voinovich. The question I've got is--I was out at 
Bethesda Naval Hospital 2 days ago and visited a soldier who 
was in Baghdad. He was responsible for several men in Iraq and 
he described how he gets up every morning with the goal of 
keeping them alive. They were in one of the neighborhoods in 
which houses were unoccupied. So he and his soldiers would go 
on patrols to check them out. They would get information from 
people about what they ought to look into. But in doing so, he 
said they would take several potshots from the enemy, who would 
never directly engage them. He said that he doesn't know how it 
happens, but the improvised explosive devices constantly show 
up on the streets, and they have to just deal with it. Well, he 
has dealt with one of them, and now he's not sure if he will 
ever see again, and what will happen with his arm. He told me: 
``Look, this is my third term over here. I've got two kids out 
in California. I'm getting out.''
    General Keane. Yeah.
    Senator Voinovich. We also forget, sometimes, what impact 
these tragedies have on the generals and how they feel about 
the way things are going. There were times when I saw General 
Abizaid at the end of the meetings--there weren't tears, but he 
was emotionally involved in this issue. He was really 
concerned, and he just felt frustrated. I know he was. He would 
take a beating from us with these questions. So, how do the 
tragedies impact these people? And how does it impact the men 
that we're calling to go into the war, when there are so many--
--
    General Keane. Well, I----
    Senator Voinovich [continuing]. Questions about whether or 
not this whole thing is going to work, and they're putting 
their lives on the line?
    General Keane. Well, the human dimension of this in--is 
certainly staggering, and all of us have been around this most 
of our adult lives, and, you know, we have a sense of what this 
is. Their sacrifice is--they represent a body of people in the 
United States that have true honor, in every sense of the word. 
And it--when you ruck up and become a soldier, a marine, an 
airman, or a navy guy, I mean, you're always going to get some 
orders that you don't like, but being a soldier is about 
following your orders, regardless.
    Senator Voinovich. Yeah, but the fact----
    General Keane. And----
    Senator Voinovich. The fact is, we have a civilian control 
of the military----
    General Keane. Sure.
    Senator Voinovich [continuing]. In this country. We, as 
civilians, have something to say about that.
    General Keane. And you do. And all I'm saying is, is that 
their performance is absolutely extraordinary. What I'm trying 
to suggest is that we, for the first time, give them some of 
the conditions so that they can be successful. And I don't 
believe they've had those conditions. And that's one of my----
    Senator Voinovich. Let me ask you----
    General Keane [continuing]. Concerns, that----
    Senator Voinovich [continuing]. This. If you gave our 
military the conditions to make success possible and you took 
them in there, but you really believed in your heart that the 
end result was going to be a Shiite-dominated government, that 
they're going to take over, and that Sadr and company are going 
to be in charge and maybe end up with theocracy--if that's what 
you really believed was going to be the end result, then why 
would you stick them into a----
    General Keane. We wouldn't.
    Senator Voinovich [continuing]. Temporary situation that 
means that a lot of them are not going to not come home?
    General Keane. If we knew that for a fact, then we 
probably--we'd have no business doing it. It would be 
absolutely irresponsible to do what I'm suggesting or what the 
United States is about to do. That would be irresponsible, if 
that's what we knew.
    And by the way, in terms of General Abizaid, there--what a 
magnificent leader he truly is, and the sacrifice that he's 
made, and the--and we probably haven't had a smarter guy put 
his mind on this problem. And certainly, it is a really 
difficult problem. So, the emotion that you see there is a 
reflection of that. Every question that you've asked him, he's 
probably asked himself many, many times, over and over and over 
again. And that's why I think you see some of that emotion, 
because he knows what he represents. He represents the honor of 
all those men and women who serve him so loyally and so 
dedicated.
    The Chairman. Senator.
    Senator Voinovich. Is--anyone else want to comment?
    General McCaffrey. Well, a quick comment.
    Senator Voinovich. Is that OK?
    The Chairman. Yeah, sure.
    General McCaffrey. It seems to me that I would define 
success in Iraq, from where we now are--successful outcome 
would be that we're there for 10-15 years with 50-75,000 
troops, we're out of the urban area, there's a loose federal 
structure of government in which the Shia and the Kurds mostly 
have autonomy for internal security in their areas, and that 
our primary role there is to deter outside active intervention, 
to guarantee against a countercoup, and to protect the Sunnis 
from the justifiable rage of the Shia. That, to me, would be a 
successful outcome. It wouldn't mean $8 billion a month, it 
wouldn't be 1,000 killed and wounded a month, but it would be 
an enormous commitment of U.S. resources and power.
    If we're not willing to see that as an option, if we don't 
think it's worth it, then I personally would flip over and 
start arguing for a measured, but deliberate, withdrawal from 
this current strategy, because I don't--do not believe we are 
there to fight a counterinsurgency campaign or to win the 
hearts and minds of the Iraqi people. We're trying to stand up 
a government, get the economy going, get a security force in 
place, and get out of there.
    The Chairman. General, I want a clarification on the last 
point you just made. The political incentive you indicated--the 
political dynamic--that needs to be in place for that outcome 
to occur is, essentially, that the Constitution let them form 
regions, like the Kurds have, where they have local control 
over their local police, their local security, correct?
    General McCaffrey. Already happened.
    The Chairman. Oh, I know. It's the plan I've been 
promoting, and everyone, up to now, has been saying----
    General McCaffrey. Well, I think there's always anxiety 
about the notion----
    The Chairman. Yeah. I just think it's inevitable. It's 
already done. I mean----
    General McCaffrey. Right.
    The Chairman. I'm not suggesting that it works, but I don't 
know how anything works without those two pieces in it.
    Yes, General.
    General Odom. I'd like to comment on both the----
    The Chairman. Oh, I'm sorry, I beg your pardon. I didn't 
realize you didn't comment.
    General Odom. No; the--I'd like to add something to 
what's----
    The Chairman. I realize I'm going over it, General. I want 
you to----
    General Odom [continuing]. Been said about the Sunnis.
    The Chairman [continuing]. Go over it as well.
    General Odom. I think General Keane is quite right about 
most of what he said about the Sunnis, but I'd like to ask--add 
another dimension to understanding their behavior as to why 
they're determined to try to do this, no matter what, and that 
the odds may not look very good to them.
    The alternative for them is to be decimated by Shiites. All 
U.S. policies are empowering the Shiites. They've done it from 
the day we came in there. And now we're in this position: Do we 
side with the Shiites, and win? Well, you don't want that, 
because you don't want an Islamic government. And why should 
the Sunnis sign up for that? I would say, don't count the 
Sunnis out. The Baathist Party is based on Leninist-Stalinist 
organizational principles. That organizational administrative 
capacity is lacking on the Shiite side. And a minority could 
eventually win the struggle. I'm not saying it will. I don't 
think anybody knows who can win. But we've been too quick to 
count the Baathists out, and we're too quick to attribute far 
too much administrative political capacity to the Shiites. I 
see it in some--in Sadr and some of these limited groups, but 
not in the aggregate.
    I would make one last point, on the partition business. The 
problem with that is, you end up presiding over ethnic 
cleansing, which we're doing anyway.
    The Chairman. No; it's not partitioning. If you read the 
Constitution----
    General Odom. No; but if you start that way, it won't stop 
with the Constitution.
    The Chairman. Well, General, no, I understand, but my 
problem is, they voted for a constitution. The Constitution 
explicitly says----
    General Odom. Well, that----
    The Chairman [continuing]. Anybody--any governate can 
decide to be a region, and, when you are, here are the 
authorities and powers you have. They already wrote into the 
Constitution that the Kurds have that status. They've already 
written into the Constitution that, in fact, this is how it 
would proceed. They've already voted for the enabling law to do 
that. It's like pushing a rope. I mean, you know, if we want to 
change something, we'd better change it. But I agree with the 
overarching principle, the strategic notion you've laid out.
    I'm now trespassing on my colleague's time in a way that I 
won't. I've let everyone go over, so that----
    Senator Bill Nelson. Well----
    The Chairman. Let me make one last point, administratively. 
I want to explain why we don't have an afternoon hearing. We 
were going to have Congressman Hamilton, and Secretary Baker 
initially indicated he did not want to participate in these 
hearings. He subsequently has called and indicated that he 
would be prepared to do that. And Congressman Hamilton 
indicated that he would think it best that they appear as the 
chairpersons of the Iraq Study Group. And we've worked out a 
common time, which I think is the 30th, where they're going to 
be here. I want you to know that's the only reason the 
afternoon schedule has changed. That's bad news for you guys, 
because if you can, I'd like you to be able to stay--not 
through the afternoon, but maybe well into the lunch hour, to 
answer these guys' questions.
    But, anyway, my friend from Florida, the clock is yours.
    Senator Bill Nelson. Well, before you get to the clock, 
could General Odom--he was continuing to answer, and I wanted 
to hear the remainder of that answer, about----
    The Chairman. Well, sure.
    Senator Bill Nelson [continuing]. About the partition.
    General Odom. Well, the--constitutions don't necessarily 
have to be written on paper. And I'm--I've always been 
impressed with a Russian proverb that Stalin loved, ``Paper 
will put up with anything written on it.'' [Laughter.]
    So, you don't have a constitution until the rules have been 
agreed on by the elites. Who are the elites? Anybody with 
enough guns or money to violate the rules with impunity. If the 
elites agree, the constitution will stick. If they don't, it 
won't. The elites don't agree in Iraq; therefore, you don't 
have a constitution, and you will have violence until somebody 
wins out. That may be a long time, but, until somebody can 
restore order on part of the terrain or all of it, you won't 
have an order.
    Senator Bill Nelson. Mr. Chairman, I've said this to you 
privately, and I just want to say publicly, that this an 
outstanding series of hearings that you are doing, and I am 
very grateful, particularly because of the candor that we are 
hearing from different points of view at that table. And that 
is in marked contrast to the lack of candor that we have had in 
witness after witness representing the administration over the 
last 6 years. I erupted, in this committee last week, with the 
Secretary of State, saying that time and time again I have not 
been told the truth.
    Now, I want to ask you all a question, because I want to 
understand this. How can, over and over, the representatives at 
the highest level of the U.S. military come in here and say 
what they are saying to us? And I would say that the one 
exception--and it's not just here, it's also on other 
committees, including the Armed Services Committee--the one 
exception is General Abizaid. You all have achieved the highest 
levels in the U.S. military. We're supposed to be getting the 
truth from the military. And we haven't. Over and over. Why?
    General Keane. I'd like to take that on. Well, first of 
all, I think you have got the truth from them. Look, if John 
Abizaid and George Casey put together a strategy in Iraq, that 
was principally theirs. And that strategy had a political 
objective to it, and it had this military objective to it that 
we've discussed, which was transition to the Iraqi security 
forces. And they believed in it. There's a thought in this town 
that this is really Secretary Rumsfeld's strategy and he's 
forced it on these generals and that's one of the reasons why 
they never asked for more troops. Well, I think John Abizaid--I 
find that very insulting to these generals to think that, that 
they wouldn't have the moral courage to stand up and tell the 
Secretary, one, the strategy is--needs to be changed, or, two, 
they need more troops as a manifestation of that change. They 
believed in the strategy they were executing, and they thought 
it would work. And I believe that. And I think when John or 
George talk about they don't need more troops, I think they've 
been very sincere about that, that that's their belief. I don't 
think they're shading the truth whatsoever. And I find it 
insulting to suggest that they are.
    Senator Bill Nelson. Well, you didn't hear what I said. I 
said the one exception is General Abizaid.
    General Keane. Uh-huh. I heard that.
    Senator Bill Nelson. And, indeed, he sat at that table 
last--it was November or December--and said that he did not 
think that they needed additional troops.
    General Keane. And I believe that's their conviction.
    Senator Bill Nelson. Well, I believe it, too. But, for the 
last 6 years, we haven't been--over and over, we've had 
generals come up here and say, ``The war is going very well. 
Victory is right around the corner. We have 350-400,000 Iraqi 
troops that are trained.'' You all have worn that uniform, you 
knew that wasn't true. Why are they saying that?
    General McCaffrey. You know, this is a very difficult 
subject, certainly for us to address, and there--I might add, 
there's a good reason why I was never the Chairman of the JCS. 
But let me, sort of, underscore, there's a bit of unfairness to 
how you characterize this. First of all, if you pick up the 
phone or visit a senior military officer in the field, and you 
say, ``Off the record, tell me what you think,'' you will get 
100 percent of what they think. And so, throughout the last 4 
years, the Congress has unmistakably heard from field-level 
officers right through general officers--you know, Senator 
Biden's been in and out of there, they talk to him explicitly 
every time he's on the ground, so you knew what was going on, 
and you allowed the Secretary of Defense and his senior people 
to come over here and baldly mischaracterize the situation, 
that there is no insurgency going on, this is just like Germany 
in 1945, just like the American Revolution, it's crime rate in 
D.C. The denial of the evidence in front of their eyes has been 
preposterous. The broken Army equipment--the country is 
currently at strategic peril, and it was the Congress's job to 
raise and equip an Army and Navy, and people were telling you 
that. So, when you had Dr. Chu come over here and say, ``We're 
not having a problem on recruiting''--we're now taking 42-year-
old grandmothers into the Army, and their current health is so 
good that, unlike 40 years ago, there's no degradation in 
standards, while we quadruple the number of non-high-school 
graduates, quadruple the number of people with moral and 
criminal waivers, and clearly had degraded the input to the 
Army--so, again, I wouldn't focus on the obedient generals and 
admirals who made their views known to the Secretary and his 
people and then came over here and signed up to support the 
President's budget and his strategy. I think----
    Senator Bill Nelson. Is that----
    General McCaffrey. I think there's been a huge failure in 
the U.S. Congress, in both parties, to speak up and provide 
oversight on this disastrously incompetently mismanaged war.
    Senator Bill Nelson. I'm asking, because I admire each one 
of you--going ahead in the future so that we can get correct 
information in--upon which to make, hopefully, correct 
judgments: Is it the responsibility of an admiral or a general 
to sit at that table and be silent when the Secretary of 
Defense says that the Iraqi Army is well-trained and they have 
all these thousands of troops that are ready to do the battle? 
Is it the responsibility of admirals and generals to sit there 
and be silent when the Secretary of Defense and others in the 
civilian positions say that we're meeting our recruiting goals 
and we don't have a problem in the Reserves and in the National 
Guard? Help educate us----
    General Odom. Can I----
    Senator Bill Nelson [continuing]. To understand, so that 
we'll have a filter with which to sort out truth from nontruth 
in the future.
    General Odom. May I try and answer that?
    Senator Bill Nelson. Please.
    General Odom. I used to discuss this issue with the late 
General Goodpaster, because, when I was in Vietnam, I 
understood that we were fighting a war the strategic 
consequences of which were much more in the Soviet interest 
than ours, namely the containment of China and of North 
Vietnam. So, it was very analogous to the present situation, 
where we've charged off on a war that achieves our enemy's 
goals, and not ours.
    Now, I was really upset in that war. We never heard from 
senior generals, and I used to think that generals were a 
menace to the national security because they didn't speak up. 
One retired general did speak out, Marine General Shoup. And I 
remember him extraordinarily well for that. He faced--he stood 
up and then took the heat for it.
    And you've had a young officer, a very outstanding young 
officer, H.R. McMasters who's written a book, ``Dereliction of 
Duty,'' in which he lays the blame on the Joint Chiefs for not 
standing up to McNamara. And when I pressed General Goodpaster 
as to how to come down on this--and I think this is a real 
dilemma, particularly ones that senior officers face--do you 
break with the policy and put out the unvarnished truth, and 
quit, or do you say, as Goodpaster said, ``Isn't it also 
professional integrity to stay with these political leaders and 
try to help them in spite of themselves?'' In other words, 
you're really copping out if you don't do the best you can, and 
try to save the day.
    So, I don't think there's a clear-cut answer to this, but 
in this war it seemed to me, as it was in the Vietnam war, 
after you'd been there for a while and quite a few things were 
becoming pretty clear, the argument for abandoning ship and no 
longer doing the best you can to help our political leaders 
would be reached, but each individual has to decide what he 
thinks is professional integrity in that regard.
    General Hoar. I'd like to add to the comments that have 
been made. I think that all of us agree that civilian control 
of the military is an immutable concept. There's no question 
that the President and Vice President and the people that they 
have appointed, with the advice and consent of the Senate, are 
the people that make these decisions. The difficult question 
is: How do you break with your boss when you don't agree with 
him? I would like to think that all of us would stand up and be 
counted, but I don't think it's that easy.
    Because I have written and spoken repeatedly in the last 4 
years about my objection to the way this war has been handled, 
I find that, in some forums, this question comes up. There are 
a lot of active duty officers that believe they are not 
responsible for speaking up, that they have to follow the 
leadership of the civilians that are over them. I don't think 
that's true, but I think it would be an interesting question in 
the Senate Armed Services Committee, when a man is--or a woman, 
for that matter--is nominated for a third or a fourth star, to 
ask this question.
    Eric Shinseki, to the President of the United States, 
voiced his discontent with the plan to invade Iraq, and he was 
publicly demeaned for that. I'm not sure, given that kind of 
behavior, how people respond to this. I would prefer not to go 
into individual cases and circumstances, but I don't think, in 
all cases, people have been entirely candid.
    Senator Bill Nelson. In the last 6 years, we've had a 
credibility problem. And what I'm trying to get at is the 
truth. And I'm asking four generals who have given 
extraordinarily candid testimony today about how to solve this 
problem going forward. I'm not talking about those officers 
lower down in the chain of command, I'm talking about the 
officers that come here and present testimony to us and sit by 
as if corroborating the testimony of their civilian bosses.
    General Hoar. I think it would help if you could frame the 
question in a way that you would ask them their personal 
opinion of the value of a particular course of action. I think 
that's how General Shinseki first went public, in my 
recollection. He was asked, in the Senate Armed Services 
Committee, if there were enough troops, and some other 
questions, and he gave his honest response.
    Senator Bill Nelson. I asked him the question, and the 
question was: How many will it take, and for how long? And he 
said several hundred thousand for several years. And for that, 
he was significantly--well, we know the rest of the story.
    General Hoar. I think that's the key, though, Senator. If 
you have enough understanding of the issues to ask the hard 
questions directly, I think you have a better chance of getting 
the answer.
    Senator Bill Nelson. Thank you, again, Mr. Chairman, for 
this extraordinary panel.
    The Chairman. Thank you very much.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    I want to thank all of the generals for their service, 
individually and collectively, to our country, and for their 
insights today. I had another hearing, but I read all of your 
testimony last night, and I got a synopsis of some of your 
answers, and I want to pursue some questions.
    And I would say, to my distinguished colleague from 
Florida, that one of the things, I would think, that would make 
it easier is to put witnesses under oath, in which case they 
would feel compelled to make sure that they gave an answer that 
would not put them in violation of the law. And that might be 
something that the chairmen of the committees, when 
appropriate, might consider.
    You know, General Keane, let me start with you. I 
understand--and correct me if I'm wrong--based upon press 
accounts, that you and Dr. Kagan are sort of like the 
architects of the President's latest plan. Is that a fair 
characterization?
    General Keane. All I can attest to is that I made a 
recommendation to the President, and I'll let him speak in 
terms of what he thought of that. I do know that the plan, as 
the administration has announced, is remarkably similar to what 
we had talked about, you know, Fred and I. But I wasn't privy 
to their, you know, staff deliberations and----
    Senator Menendez. You made those recommendations directly 
to the President, did you not?
    General Keane. I made a recommendation to the President, 
yes.
    Senator Menendez. And were there others? Was the Vice 
President involved?
    General Keane. Yes.
    Senator Menendez. And in the recommendations that you 
made--in addition to the escalation, did you offer a form of 
benchmarks that you thought needed to be established, and 
consequences for benchmarks not achieved?
    General Keane. No. Did not.
    Senator Menendez. Now, let me ask you this. I understand 
that, during your answer to some of the questions, you said 
that Iraqis should not be in the lead on this mission. Is that 
correct?
    General Keane. Well, yes; I have problems with it, because 
one--what that really means, when you say Iraqis are in the 
lead, is that we're going to have two chain of commands. The--
obviously, we're not going to work for the Iraqis, so we'll 
have our own chain of command, and the Iraqis will have their 
own chain of command. That has not been the case in the 
operations that we've been conducting in Iraq to date. The 
Iraqis have been responding to us when we're working combined 
operations together. So, we've made a conscious decision here 
to make this their operation, and we're in support of it.
    My problem with that is, we're talking about a partnership. 
I think that's a business term, it's not a military term. It 
doesn't have much application on a street where you have 
soldiers from the Iraqi military who are responding to orders 
from a different chain of command than the United States 
soldiers are responding to. And that doesn't make a lot of 
sense to me, militarily. Politically, it probably makes lots of 
sense, but militarily, it does not.
    Senator Menendez. Let me ask you this. Does it matter 
whether the Iraqis show up or not, for our purposes of 
executing this plan?
    General Keane. It does matter that they show up.
    Senator Menendez. Does it matter that they show up in the 
quantities that we have been told that they need to show up 
if----
    General Keane. We can afford for them not to show up in 
some of the quantities that are expected. This plan takes into 
account that the Iraqis may not be able to meet all of their 
expectations, as they have in the past failed to meet those 
expectations, as well.
    Senator Menendez. Does it matter about the quality of the 
troops that will show up on the Iraq side?
    General Keane. Well, certainly it does. Certainly it does. 
And the Iraqis, as you well know, are a mixed group. Some 
perform well, and some do not perform well at all.
    Senator Menendez. Here is my concern, in addition to my 
opposition to the war and my vote against it, and my opposition 
to this escalation--even as I try to understand it, I cannot 
fathom, for the life of me, how it is that every administration 
witness that has come here--Secretary of State, most pointedly, 
but others, as well--have clearly made the case that the 
administration has tried to sell this, that this is an Iraqi 
initiative, that Iraqis will be at the forefront, that they 
will conduct the missions, and we will be in support of them. 
And I just don't understand, when I hear--and I will give you 
the title of the ``architect of the plan''--how it is possible 
that we are being told by the administration that the Iraqis 
will finally be at the forefront of the fight for their own 
security, and we will be in a supporting role. You have just 
described your concerns about it, which are exemplified by a 
New York Times article, this Monday, in which the United States 
and Iraqis are wrangling over the war plans and exactly who 
commands what. When there's a dispute, what happens? And then 
we see today's article, or NPR story, where Kurdish soldiers 
are being sent as part of this overall effort. And the Kurds 
don't know the area, they don't speak Arabic, and their 
deployment is a question of extreme popularism. Even one of the 
commanders of a team of American military advisors say there 
have already been desertions and that out of the battalion of 
1,600 Kurdish soldiers, he only expects a few hundred to show 
up.
    So, we are being told by the administration that, in fact, 
this is an Iraqi plan, Iraqis are going to take the lead, 
they're going to show up en masse, and that we are in support 
of that. Yet everything that we see unfolding shows that we 
clearly are in the lead; we clearly are going to be at the 
greatest risk. And if that's the truth, versus what we are 
being told--aren't we rolling the dice--General, when you say--
and I think it's a very true comment--when you say that, in 
fact, we don't know what Maliki is all about, we don't know 
what his true desires are. Why are we rolling the dice for 
someone and something that we're putting a lot of capital into, 
both in lives and money, without knowing where it's headed? And 
why would the Sunnis--why would the Sunnis, based upon 
everything that we're doing? Even listening to you, where you 
suggest that the Sunnis want an all-out civil war, a failed 
state; it's a better course than anything they have right now--
it's a better course than anything they have right now because 
they're not doing very well under the present political 
process. So, if that's the case, we sound like we are going to 
be at the lead--we are going to be at the lead of helping Shias 
ultimately suppress Sunnis, under the goal that that will put 
them into submission so that they will ultimately accept 
whatever deal is granted to them. That, to me, is not a recipe 
for success. Now, tell me where I'm wrong in this.
    General Keane. No; I agree with you. And, as I said, I 
think there are real problems there.
    What I would ask you to do is, in terms of the operation 
itself and--is pause a little bit. Let's get General Petraeus 
into this country--get him confirmed up there, get him into the 
country, let him be able to analyze this, himself. I mean, 
obviously, he's doing it from afar here, but it's not the same 
as the fidelity he will have there. He knows a lot of these 
Iraqis, himself. And I think he's capable of working out a much 
better command-and-control relationship than this appears to be 
right now, and resolving some of those differences so that we 
do not have problems, you know, on the streets of Baghdad, or 
in Al Anbar, because of who's in the lead and who's not. I 
think it's resolvable, and I would ask you to give him an 
opportunity to resolve it and get on top of this situation.
    Senator Menendez. But not resolvable is taking a roll of 
the dice with the lives of America's sons and daughters and its 
national treasure on a government that we have no idea whether 
they are committed to the political reconciliation that's 
necessary.
    General Pace, the Chairman of the Joint Chiefs of Staff, 
said to us--in an answer to a question in a briefing, he said, 
``We need to get to have the Iraqis love their children more 
than they hate their neighbors.'' That's probably a powerful 
truism, but it doesn't come through military might, achieving 
that--that they love their children more than they hate their 
neighbors. And so, it goes beyond military equation and whether 
or not we have a partner who is truly willing, with the 
benchmarks and consequences for not meeting those benchmarks, 
to move in the political process. We are also risking the lives 
of America's sons and daughters for a venture that has already 
gone bad and doesn't seem to change.
    And I find that to be a problem. And I'd love to hear any 
of the other generals' views on this, if they have any, as a 
final question.
    General Hoar. I think your questions are well founded, 
Senator----
    Senator Menendez. General, you and I met a while back----
    General Hoar [continuing]. About Mr. Maliki.
    Senator Menendez [continuing]. And one of the things you 
said is about standing up--getting Iraqis to ultimately stand 
up as Iraqis--it seems to me that a good part of this mission 
needs Iraqis to come together and stand up as Iraqis. How do we 
get them to have that national spirit, versus the sectarian 
spirit they have right now?
    General Odom. Well, that's a--that's an issue that T.E. 
[sic] Lawrence faced, it's an issue the British faced, it's an 
issue that Saddam faced, and----
    Senator Menendez. And it's an issue we face.
    General Odom [continuing]. What the answer was. Fear, 
terror, and repressive organizations.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Do you have any more 
questions? You have time for another one.
    Senator Casey, thank you.
    Senator Casey. Mr. Chairman, thank you. I want to reiterate 
what was mentioned before about the way these hearings have 
proceeded and the panels you've put together, in concert with 
Senator Lugar, and we're grateful for that.
    And I know we have much more to do, but in particular today 
when I look at this panel and listen to what you've said--I've 
heard most of it, probably 80 percent, in and out of here, for 
other committee obligations--but it brings to mind something my 
father said when he was Governor of Pennsylvania, the night 
before the 1991 gulf war. He was talking about the troops and 
obviously asking the people of our State to pray for the 
troops, but he also said something I'll never forget. He said, 
``We pray for the troops, but we also pray for ourselves, that 
we may be worthy of their valor.'' And I think, by your service 
and your own valor, you have proven yourselves worthy of that 
on the battlefield, as well as the testimony today and the 
dedication you bring to these issues, and the scholarship you 
bring.
    And I'd love to talk to each of you about politics and 
diplomacy, because you bring a lot more to this table than just 
your military experience and knowledge, but, because of limited 
time and because of your experience, I want to focus on the 
military questions, as best I can in the limited time.
    I have one question about Iraqi security forces' 
preparedness, but I guess the underlying premise of my question 
is in itself a question--is this issue that we've read about in 
the press over the last couple of years, but it doesn't get 
much attention--as much attention now as before--level-one, 
level-two readiness, based upon Pentagon definitions--(a) is 
that kind of measuring stick operable, still, today, and, (b) 
if it is, from--based upon your information, your knowledge, 
how many Iraqi security forces do we have trained at level one, 
meaning, in my layman's term, that they can take the lead 
independently, and level two, meaning that they take the lead, 
with American forces supporting them? So, General Keane, if you 
could start, and----
    General Keane. I can't get at the number. I've been briefed 
on it, a number of weeks ago, and, you know, I just can't 
refine the number, in terms of who's level one and who's level 
two.
    Look at the--the command in Iraq was using these different 
levels as a measuring stick to measure the capacity of these 
forces, not just in terms of their performance, but in terms of 
the number of people they had in it: Where had they been 
trained? Did they get through those gates, in terms of officer/
NCO training? And how much time did they have in operational 
units? What is their equipment status? It's a--it's something 
very similar that United States units go through every single 
month in assessing their own readiness. So, it was not too 
surprising that officers who grew up with that system imposed 
that as a basis for making an evaluation. And I think what it--
where it serves a useful purpose is in attempting to allocate 
resources, and realizing, you know, where you're having your 
shortfalls. And for that, I think it had some merit. I think we 
also got too bogged down by it, you know, bureaucratically, in 
terms of what it meant to us, and made far too much of it, in 
my judgment.
    But the--look, it--the overall issue dealing with the Iraqi 
security forces is, they still are not at the level where they 
can cope with this violence, certainly by themselves, and will 
not be for some time. That's the harsh reality that we have to 
deal with, and that's the problem I have with just turning it 
over to them, because they--the level of violence will go up in 
2007. It's actually predicted to go up in 2007, unless we do 
something about it. So, that would mean an even further step 
toward a fractured state and anarchy.
    So, what this is about is bringing it down to a level where 
they can cope with that reality. And it buys time for their 
growth and development. They--we need to improve those forces. 
All the things that have been suggested by the ISG in that make 
sense to me, in terms of strengthening our advisory program, 
making certain they're better educated, our advisors, that they 
have much more cultural awareness than they currently have 
before they go over there, there's more of them, embed some 
U.S. forces with them, as well. And I would grow the size of 
the Iraqi security forces, also. So, I mean, your emphasis is a 
right one. The Iraqi security forces truly do matter. I mean, 
they are our exit strategy. We have to turn this over to them 
at a level where they can perform. But to help them, we must 
bring the violence down, in my judgment, so they can cope with 
it.
    Senator Casey. Can you just put two numbers on this, if you 
can: (a) Do you know any kind of a rough estimate of how many 
forces you think--or forget level one or level two, just 
generally--do you think we're prepared to take on this 
responsibility? And, (b) whatever that number is, what do we 
need to get to? I mean--because I think--I'm like a lot of 
Americans, we need to have some kind of standard where we can 
say, at some point, in terms of troop numbers and readiness, 
depending on how you define that--we're at a point now where we 
can have consequences that flow from that, in terms of our own 
troops. And I know it's not always easy, you can't do a 
numerical specific or precise numerical determination, but, I 
mean: How are we doing, in terms of identifying the number of 
troops they have to take on this responsibility? Are we way 
off? Are we halfway there? Is there any way you can put a 
number on that?
    General Keane. Well, I still think--the administration--you 
know, where we are is 325,000, and that totals every--all of 
it. Out of that is--about 125,000 would be United--Iraqi 
military forces; the rest are broken down into police and 
national police and border guards, et cetera. In my own mind, 
the best organization of the Iraqi security forces is their 
army. They have performed the best. And even they have serious 
problems. Sixty-five percent of them, on average, show up any 
single day for duty. Some of them are on leave, and some of 
them are just not showing up for duty. We call it Absent 
Without Leave, or deserting. So, that's still an issue, and 
will continue to be an issue.
    I think that you have to grow the size of this force, the 
military piece of this force, at 125,000. I think it has to go 
beyond 300,000, itself, and we would need advisors to do that.
    The army size of the force, while it is their strongest 
institution in Iraq, the numbers of that force is inadequate. 
The quality of the force is improving. It's not satisfactory 
where it is. That's the truth of it. And I think that 
strengthening it with our advisory program and some of the 
other steps we're going to take, certainly with better 
equipment, and, most importantly, the appropriate equipment, 
all make sense. But that still will take time to get them to 
where they need to be.
    Senator Casey. Thank you. And I wanted to leave some time 
for the others to respond to that----
    General McCaffrey. Well, I might just add to----
    Senator Casey [continuing]. Series of questions.
    General McCaffrey [continuing]. That, I--because I 
basically agree with Jack Keane.
    We should never, by the way, run too quickly to conclusion. 
I've been in Iraqi battalions that I thought were patriots, 
courageous, convinced that they're going to create a new Iraqi 
nation. And, so far, not an Iraqi Army battalion has flipped 
over to the other side, so that at 2 o'clock in the morning, 
suddenly they seize their advisory group and they declare 
themselves to be Shia militia. That's good news, and we 
shouldn't discount it.
    I also believe that there has been such deliberate 
deception on the part of the Secretary of Defense and his 
senior people over the caliber, the status of these forces, 
that it boggles the mind. Callous----
    Senator Casey. In terms of the----
    General McCaffrey [continuing]. Open, disingenuous 
explanation, putting Iraqi protective security forces as part 
of total numbers, inventing a force that was growing at 100,000 
per 60 days. How could that be true? Where is the equipment? It 
was utter nonsense.
    Senator Casey. But you mean deception, in terms of 
numbers----
    General McCaffrey. Sure, numbers----
    Senator Casey [continuing]. In saying where we are?
    General McCaffrey [continuing]. Caliber, equipment, 
reliability. They were making it up.
    Now, where are we today? Probably--and I've watched numbers 
out of Cordesman very closely, because I think he tries to be 
objective and neutral. I think there's less than 100,000 Iraqi 
soldiers who show up on a given day to defend the country. 
There's 27 million of those people. It is a tiny force. It's 
much smaller than the U.S. military presence in country. Many 
of the other services are either inadequate, incompetent, or 
uniformed terrorists under the control of one faction or 
another. So, you've got less than 100,000.
    Their equipment status is so bad that, were they U.S. units 
on this mission, they would be declared ineligible for military 
operations. They have no equipment appropriate for their task. 
And then, finally, going forward--because I've been saying, 
``Look, you know, 3 years from now we're going to be gone,'' 
and we're going to be gone, make no doubt about it. Who's going 
to be flying helicopters in Iraq? It's not going to be the U.S. 
Army. We--I think we've got probably 1,000 aircraft there right 
now. It probably takes 36 months, on a crash basis----
    The Chairman. Right.
    General McCaffrey [continuing]. To manufacture a Black 
Hawk, train the crew, put them in the field, and have them 
flying. Have we started that process yet? And the answer is no. 
And, therefore, 3 years from now, there will be no solution, 
there won't be an Iraqi security force adequate to maintain 
internal order.
    Now, final thought, because I--you know, I think the five-
brigade surge is a surge of the wrong stuff, but if I was a 
three-star commander--General Odierno, a terrific soldier--I'd 
want five more brigades, because in a Sunni neighborhood in 
Baghdad today--and I got this directly from General Abizaid, 
the neighborhood will beg us to not leave. So, having a U.S. 
Army battalion or a Marine battalion there clearly dampens down 
the violence. It's a good thing. They're honest kids, they're--
you know, they're spending CERP money, they're--lots of good 
things comes out of it. So, my only question is: How do we 
create a condition so we can leave? The presence of U.S. forces 
is a boon to Iraq, is a gift to take that monster out of power 
and hang him. All that was a good thing. Now we're trying to 
figure out: How do we stand up a state and get out of there? 
And the prerequisite is not to just say, ``We're going to go in 
and clear and hold neighborhoods in Baghdad with U.S. 
privates.''
    Senator Casey. Thank you.
    General Hoar. I can't add anything to Barry McCaffrey, sir.
    Senator Casey. Yes, General.
    General Odom. I would ask you to ask a prior question. Do 
you know any examples where you've had weak governments, where 
foreigners have gone in and stood up their military and it was 
a success? I don't know of any.
    General Hoar. The United States.
    General Odom. When you try to get--well, you--there was 
political leadership. The Congress was in charge through the 
whole revolution. You could have said it pulled a coup, but it 
was Americans standing up, it wasn't other countries coming in 
and do it--doing it by ventriloquy. So, I think it's a bit like 
trying to put a roof on a house before it has the walls built 
up.
    Senator Casey. You mean, the----
    General Odom. Dealing with training up Iraqis.
    Senator Casey [continuing]. The civilian government is the 
foundation of the house. Yeah.
    General Odom. The way it happens in most places. And very 
often, the military--I mean, there were so many military 
regimes in the world, because military power is political 
power. And if you stand up the military first, there's a high 
chance you'll have a practorian, or military, regime take over. 
That's what we found all through Africa and South America in 
our 1950s, 1960s, 1970s, with military assistance programs to 
these areas.
    Senator Casey. I have lots more, but I know I'm over.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Again, I am the last person between these people and lunch, 
but I appreciate all of you hanging around. I appreciate your 
testimony. I've been able to know some of you personally, read 
articles and editorials that have been written about this 
issue, written by people at the table over the years. I want to 
know--I want you to know that I respect the service of everyone 
at the table, and I certainly respect the integrity of everyone 
at the table. And the--no matter where their views are on this, 
that this political/military interface that we've been debating 
is probably the hardest issue, in terms of how our government 
works. I've dealt with it every way you can deal with it, I 
think, in my lifetime.
    General Odom, I would like to say to you that I very much 
appreciate your writings over the past several years. They have 
been invaluable, I think, in providing a strategic umbrella 
under which we're able to examine the implications of our 
policy. This is a challenge that is not simply in Iraq. It's--
as you have written and as other people have said, this 
challenge can only be addressed regionally and beyond. It 
relates to the stability of the region. It relates to our 
ability to fight the war against terrorism elsewhere. It 
relates to strategic challenges that are in other than the 
region, and we really do need to address this for the well-
being of our military and our country, I believe.
    And, General Hoar, I'd like to say to you, first of all, 
General Keane mentioned a phrase, a little while ago, ``moral 
courage.'' One of my great heroes was GEN Bob Barrow, who was 
Commandant of the Marine Corps, and used to say, frequently, 
``There's physical courage and then there's moral courage, and 
moral courage is quite often harder than physical courage.'' 
And the courage that you showed, standing up, speaking out 
about this early, along with people like Tony Zinni, who also 
commanded CENTCOM, people like General Shinseki, General 
Newbold, who I admire greatly, and General Van Riper, and 
others, I think is going to stand as a mark when history looks 
at where we have gone and how we, hopefully, will get out of 
this in a way that retains our national esteem around the 
world--or regains our national esteem around the world.
    General McCaffrey, I want to clarify one thing that you 
said about the Constitution. You said it twice. And I'm not a--
I'm not a constitutional lawyer, I am an attorney. But the 
language in the Constitution, about armies and navies, is--it 
comes from two separate phrases in article 1, section 8. And 
this is important, I think, when we examine what our 
responsibilities are, in terms of looking at how the military 
has been used in this war.
    The Constitution empowers the Congress to ``raise and 
support armies,'' but to ``provide and maintain a navy.'' And 
the distinction was put there for a reason, with the historical 
experiences in continental Europe, with turning over standing 
armies to monarchs and having militaries used for adventurism. 
And so, when I look, even at the issue right now, of increasing 
end strength in the Army and the Marine Corps--and I'm very--I 
had a lot of experience, when I was ASD, in looking at Army 
force-structure issues, and, as you know, I'm intimately 
familiar with the force-structure difficulties in the Marine 
Corps right now. But my cautionary note has been that I don't 
want to put a vote in place that will ratify what I believe has 
been the lack of strategy, just through the momentum of the 
fact that we have troops at risk. I mentioned that to Secretary 
of Defense Gates last week. He told me that there were off-
ramps, as he called them, in case our troop levels in Iraq went 
down, but that's one question that I'm going to be asking. And 
I hope my colleagues will be asking, is that the justification 
for these increases in end strength should take into account, 
hopefully, what I would see as a reduction in force structure.
    I have two questions. The first is, General McCaffrey, on 
your proposal to--or your suggestion that $10 billion a year be 
put into development programs, I know that you have a good bit 
of experience in this, and you're on the boards of--according 
to your bio, of companies that are more than likely doing 
business in Iraq. I'm concerned about accountability on the 
funds that have been spent. I'm also concerned about where this 
money would come from. Are you suggesting a reprogramming or an 
addition to the budget?
    General McCaffrey. By the way, I am on the board of 
directors of one company, DynCorp, that is very heavily 
involved in providing 3,000 or 4,000 people in Iraq, and 
several hundred, I believe, in Afghanistan. And I frequently 
make a point to underscore, because there's the debate inside 
the profession on how come contractors are on the battlefield, 
providing almost all of our long-haul communications, our 
logistics? For God's sake, it's incredible. I'd prefer to have 
an active military force that does most of these functions, but 
the facts of the matter are, they're not there, and, without 
these contractor operations, we would grind to a halt 
immediately.
    So, I'm inclined to say, let's treat them with respect, 
because they're getting killed and wounded in huge numbers. And 
they actually, when you talk to these kids, or older single 
women, they see themselves doing a patriotic bit--KBR, 
Halliburton, et cetera. So--but that's an aside.
    I think, back to your central question, the notion of 
``development program,'' I'm not sure you can spend $10 billion 
a year successfully in Iraq. The Congress provided $18.6 
billion; it's all gone, essentially. The President just said he 
wants a billion more CERP funds, local employment. I don't know 
that, given the lack of security, given the nature of the 
Maliki government, that that would work. I am confident that if 
our only trick in this game is, ``let's put five more brigades 
in downtown Baghdad and fight neighborhood by neighborhood,'' 
this is a loser. So, I told the President, 2 years ago, ``When 
the development money runs out, and when Congress won't provide 
more, that's the day you lost the war.'' So, I would have great 
oversight of $10 billion a year, or $1 billion a year. Is it 
going to be spent effectively? You've clearly got to look at 
waste, fraud, and abuse on U.S. or other contractors, but I 
think it's just a vital aspect of moving forward.
    Senator Webb. Yeah, I obviously am new to this position, 
but that's one of the concerns that I've had, looking at this--
the conduct of the war----
    General McCaffrey. A legitimate concern.
    Senator Webb [continuing]. Throughout the past several 
years. It----
    General McCaffrey. Right.
    Senator Webb [continuing]. Trying to figure out where all 
this money has gone already.
    This is a general question, but I'll go first--General 
Keane, your comments very heavily involve the Sunni--you know, 
the need to stand up to the Sunni insurgency. And one of the 
concerns that I've had on that is, given the divisions--the 
obvious divisions in the country, that we're almost in what 
would be called a strategic mousetrap here, where the harder we 
fight against the Sunni insurgency, the more the Shia 
population is empowered and the more influence Iran has in 
Iraq. And so, I'm interested in the views of all of you about 
the notion of that mousetrap.
    General Keane. Well, I think it's a concern, certainly. I 
just mention that, because when you try to define the problem, 
it's--I find it useful to go back and understand how we got 
here. And it was the Sunnis who were rejecting the--our 
occupation and rejecting what we believe is a new form of 
government. And they started this, and the al-Qaeda enabled it, 
and now we have, obviously, considerable sectarian Shia 
violence that's provoked by the Sunnis.
    You have to--certainly, if we go into these neighborhoods, 
as I believe we will, we're going to deal with al-Qaeda, we 
will deal with Shia, and we will deal with Sunnis, to be sure, 
at the tactical level. And--we'll have the capacity to deal 
with all of that. Your question is much more of a strategic 
one, in terms of: Are we picking sides here? And what is the 
implications of that?
    We are where we are. We have a government--and that 
government is a fledgling government, at best, trying to find 
itself--that's grown out of a consensus, and it has factions in 
it. And by anybody's definition, it's weak. What I think we 
need to do is help it and strengthen it. And by doing so, and 
working with the Sunni insurgency, we can get the Sunnis to 
participate in a way that they're not willing to do now.
    And I'm absolutely convinced we can push back on the Shia 
violence by truly protecting the people. We can't be 
Pollyannaish about this. We know that Sadr and others are using 
the violence against their people to seek their own political 
advantage and leverage in the country. That's a given. But the 
reality is, also, that by bringing that violence down, you 
start taking their issue away for--from them that justifies 
what they're doing.
    So, I'm hopeful that we can do something that's very 
constructive here in--and it is a military application of force 
designed singularly to get a political solution. It's the only 
reason why we're doing this. You buy time for the growth and 
development of Iraqi security forces, which helps in our 
ability to exit the country, and then you strengthen Maliki's 
hand, both with the Sunnis and with the Shias, so that we can 
get a better form of government, in terms of representation, 
and move the Sunnis to that table and take away what is now 
their single option and what they believe is their only option, 
which is: Continue the armed violence.
    So, you have to deal with them, but certainly you also have 
to deal with the Shia violence that's there and the incredible 
level of it that took place. I recognize the mousetrap, but I 
still think we have to go ahead and work this, because it's the 
only thing we can do, I believe, that will strengthen the 
government that we currently have. The benchmarks, by 
themselves, to me, don't mean a lot. I don't think you're going 
to get anything out of it.
    Senator Webb. General Hoar.
    General Hoar. Yes, sir. I hesitate to recite history to 
you, but when the two principal institutions in that country, 
the armed forces and tribalism, were destroyed or dismembered 
as a conscious policy of this Government, you automatically 
reduce the possibility of finding good outcomes. Ninety-five 
percent of the people in Iraq belong to a tribe. And tribes 
transcend religion and ethnicity. The armed forces is a no-
brainer, that there should have been a de-Baathification at the 
top end, and retain that--all of that, that went with it. So, 
we have few institutions to fall back on. And so, as a result, 
we're trying to build from the bottom up; and, in my judgment, 
you can't get there from here. It's too late, we're asking too 
much of what needs to be done.
    Senator Webb. General McCaffrey, you have a thought on 
that?
    General McCaffrey. The--I think I'd actually agree with 
General Odom's characterization, and maybe--perhaps come to a 
slightly different conclusion. When you step into Iraq, took 
out a cruel ruling elite, maybe 15 percent of the population 
that had dominated the military, the intelligence service, 
business, academics, et cetera, and you said, ``We're going to 
institute democratic reforms,'' then you gave the government to 
a Shia-Kurdish overwhelming majority who had been abused for 
hundreds of years, if not for 30-plus by Saddam and his 
criminal regime. So, that was the outcome we understood when we 
set foot in the country.
    I'm not sure that's necessarily unacceptable, if we 
maintained a presence to ensure that there wouldn't be a 
violent decimation in retribution against the Sunnis, if we 
kept peace with their neighbors. I'm not quite sure why a 
Government of Iraq that was more closely aligned, by far, with 
Iran than Saddam's 7-year war against the Iranians--I'm not 
quite sure why that doesn't suit our own interests.
    I do think that we ought to have a regional focus. Our 
focus should be peace and some form of stability, and that 
our--as you have said, though, the current mousetrap, in my 
view, is, our strategy is failing and our current responses, it 
seem to me, will not break out of the box.
    Senator Webb. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Gentlemen, I just have a few closing questions, if I may. I 
can't tell you how much I appreciate your perseverance, as well 
as your answers.
    To continue with the conundrum that my friend from Virginia 
has mentioned, one of the reasons I always have trouble--and 
I'm not being facetious--with this administration, is 
understanding their strategic objective. Internally in Iraq, 
the premise is, as stated clearly and articulately by General 
Keane, that if we gain control of the insurgents who are 
needlessly going after our troops, but also fomenting this 
sectarian war by going after Shia indiscriminately, that 
somehow the Shia will feel they can stand down, and the 
political process can begin. Let's assume that's true.
    At the same time, I don't know whether this is true, but it 
seems clear, overall--the administration and the President 
clearly stated that he is going to do all he can to deal with 
Syria and Iran, but particularly Iran.
    Now, everything I read--and I've been here 34 years; I've 
learned to read between the lines. I don't always read it 
accurately, but there is always a message between the lines. 
The President didn't have a throwaway phrase about Iran in his 
speech for nothing. That was the red light that went on for me, 
beyond the surge. Of the things that concern me about the 
speech, more than anything else was the emphasis on Iran.
    And, again, it seems to me, to raise the conundrum 
mentioned, or the mousetrap, whatever you want to say, is that 
at the very time we are taking on the Sunnis, which, I can tell 
you from my personal discussions, upsets our allies in the 
region--they are very uneasy about that in Saudi Arabia and in 
Egypt and other places--at the very time that's happening 
internally, the Shia, who seem satisfied with that, are very 
upset that we seem to be focusing on the Shia influence in the 
region, outside the country. So, I don't know how you square 
that. I don't understand, strategically, how you can accomplish 
both objectives. Am I missing something? Or am I overreading? 
Anyone?
    Yes, General.
    General Hoar. Right on. That's the short answer, sir. 
[Laughter.]
    The longer answer is, there are people--Seymour Hersh among 
them--that have been writing, for the last 8 or 10 months, in 
the New Yorker about the plan to attack Iran. I think that 
replacing an officer with ground combat experience in CENTCOM 
with an admiral, by sending a second carrier battle group into 
the gulf,
by sending Patriot batteries into the region, are--I would use 
a slightly different word than you, but ominous, nonetheless.
    I would tell you a story that I believe to be true. Hamad 
bin Jassim, the Foreign Minister of Qatar, went to Tehran. He 
told the Iranians that, while his government had supported 
United States efforts in Iraq, that he would not--their 
government would not support any adventurism toward Iran. The 
Iranians told him that he had it all wrong, that they do not 
have the capability to strike the United States, but, if 
attacked by the United States, they would attack infrastructure 
targets up and down the gulf among those countries that have 
supported the United States.
    If I were going to do this, I would assuage the concerns of 
my friends in the region by bringing Patriot batteries in. I 
don't know why you have two carrier battle groups in the gulf, 
when fixed-wing air, while an essential part of any campaign, 
doesn't require a lot of airplanes on a day-to-day basis, and 
why you would have an admiral in charge of CENTCOM, when you 
have two essentially ground combat operations going on in two 
separate campaigns, would all indicate to me that there's 
something moving right now toward Iran.
    The Chairman. I happen to agree with that. You would know, 
much better than I would, what these moves meant. That's how I 
read it. But I'm trying to get at the more fundamental 
question. I never can understand--there seems to be no 
coherence to the strategy of this administration, from the 
beginning. We seem to have a little of this, a little of that; 
and the objectives, the stated objectives, the stated missions, 
seem at odds with one another.
    Again, let's assume it made sense to go into Iran. Here, 
you have the present Shia-dominated government opening up 
meetings with, trying to establish a diplomatic relationship 
with, Tehran, trying to extend a relationship to Syria, as 
well, at the very moment we seem to be trying to satisfy them 
internally by staying out of Sadr City, focusing on the Sunni. 
But at the same time at odds with their stated, or at least 
apparent, foreign policy--regional policy. It seems like we are 
our own worst enemy, in terms of the strategic notions that we 
have. They seem inconsistent.
    General McCaffrey. The--I think you, again, pose another 
principal strategic challenge we're facing. I personally have 
been to see the Secretary of State, my travels in the region, 
listening to our allies in the Persian Gulf--and I used, with 
General Hoar, a corny story. I started with my first platoon 
Sergeant in the 82d Airborne. He said, ``Sir,'' he said, 
``don't you ever threaten people in public, but make sure, if 
you do threaten them, you can carry out your threat.''
    The Chairman. Bingo.
    General McCaffrey. So, we've had a combination of public 
threats to the Iranians, which has horrified our allies, which, 
it seems to me, from a strictly military perspective, are sheer 
insanity that we would try and end a nuclear capability of the 
Iranians, take down their air defense in the process of doing 
it, neutralize their naval threat to the Persian Gulf oil 
supplies, and to do it while we have 150,000 GIs stuck 400 
kilometers up into Iraq, with our lines of communication back 
to the sea and the safety of the Navy--going through 400 
kilometers of Shia population. So, this doesn't make any sense.
    I hope it's just a lower-level notion, ``Well, you're 
always supposed to put a carrier out there to empower your 
ambassador demarche, but if it goes beyond that, this is truly 
the most significant blunder in strategic thinking we will have 
seen since World War II.
    General Odom. One----
    The Chairman. Yes, General.
    General Odom [continuing]. One brief comment. I'd like to 
commend you for bringing up that paradox and putting this light 
directly on Iran. If I were in your position, or members of 
this committee, I would be thinking about how I will vote when 
an apparent Iranian terrorist attack occurs against the United 
States, not necessarily in the United States, but against some 
of its interest in the future--and the war cries for bombing 
Iran go up.
    The Chairman. Well, quite frankly, General, I'm thinking of 
going farther than this. I haven't discussed this with my 
colleagues yet. I'm in the process of trying to draft 
legislation that would make it clear that the authorization for 
the use of force that was passed, which I think is essentially 
no longer relevant. It was put forward to take out Saddam. It 
was put forward to deal with weapons of mass destruction. If 
they were there, they ain't there now; they never were, in my 
view. And he's gone. So, what's the raison d'etat for this? I 
want to make it clear, I've been around here too long--I take 
the President seriously when he says things that seem to me to 
be outrageous. I'm not being a wise guy now, I--I'm not trying 
to be disrespectful, I give you my word. But I take it 
seriously, because the first time out, when we gave the 
President the authority to move forward, Lugar and I had a 
resolution that was much more restrictive than the one that 
passed in the authorization of the use of force. And remember, 
everybody--not you guys, but everybody has sort of a selective 
memory about the moment. The moment we were voting on that, the 
issue was: Do we lift sanctions on Saddam, which the rest of 
the world was pushing, or do we give the President the 
political clout to demonstrate to the world that we stood with 
him in insisting they stay on by giving this authority to use 
force, if need be? And we had assurances, ``No, no, no, no, no; 
we're not going to use the force, we're not going to move 
forward.'' And then the writing began to be on the wall, when 
every time it looked like Powell was making progress 
diplomatically, there would be a deliberate effort to undercut 
that, coming from the administration.
    And the press now says, ``It was obvious to everyone that 
these guys were going to do that.'' It wasn't obvious. They 
acted responsibly on Afghanistan. They did it in the right way. 
They marshaled authority, they had the bill of particulars, 
they put forward the indictment, they sent folks out around the 
world, to the world capitals, including our friends and enemies 
alike, they dealt with Iran. I mean, it was done logically, and 
it was done rationally, and it gave some of us hope--and 
remember what was being written at the time, gentlemen. I know 
you do remember. I was having scores of interview requests, and 
some of you were also being asked, ``Has the administration 
become internationalist? Has the President changed his mind? 
Has he moved from neoisolationism to engaging the rest of the 
world?'' Remember that? And there were all these articles 
written in December, after we gave him the authority, but 
before we went to war. And so, the idea that everybody knew 
they would be, in my view, as incredibly irresponsible as they 
were is--
    Matter of fact, back in the days when I was chairman, 
again, not a whole lot of difference between Senator Lugar and 
me on these things--we held a series of hearings, and it was an 
extensive series--before the authority was given. Not ``What 
happens the day after Saddam?'' The title of the series was, 
``The Decade After.''
    Now, the reason I bother to state this, gentlemen, is that 
it seems to me that we still don't quite have a strategy. But 
let me get into a tactical question, and then, with one other 
question, let you all go. I really appreciate you doing this.
    From a military perspective, again, I spent a lot of time, 
as I think General McCaffrey knows--a lot of time with General 
Petraeus--in theater, in e-mails. I mean, I find the guy to be 
exactly what you all advertise him to be. That's my impression 
of him, a really smart guy. Well, it's often suggested by my 
friends who have a different view about ``the surge,'' who 
think it's a good idea, that, ``Look what he was able to do up 
in the north.'' And my instinct is, we're comparing apples and 
oranges here. And that's what I want to ask you, a tactical 
question.
    Is there a difference between fighting foreign jihadis and 
domestic insurgents--Baathists, Saddamists, et cetera--and 
trying to stop a sectarian war? In the north, where Petraeus 
did so well, in Mosul and in Tal Afar, my recollection was, 
there was not a civil war. It wasn't predominantly Shia killing 
Sunni, Kurds killing Shia, et cetera. It was dealing with an 
insurgency trying to kill American forces and prevent an Iraqi 
Government from becoming a reality. Now, I may be wrong. You 
don't all have to comment, but you are welcome to. But tell me: 
Is there a difference?
    General McCaffrey. I think you summarized it correctly. I 
remember going up to see Dave Petraeus in his command post in 
Mosul, and he had an unbelievable grasp of the--of how you go 
about--economically, politically, militarily--jump-starting the 
region. He had incredible interpersonal relationships with the 
Arab leadership. It was a phenomenal performance. He understood 
the disastrous judgments of Mr. Bremer, et al., in the central 
government, standing down the army, firing the officer corps, 
de- Baathicizing the country. He goes back to a totally 
different situation.
    The Chairman. Absolutely.
    General McCaffrey. I'll guarantee you, he understands that.
    The Chairman. Well, I have no doubt that he does. Let me 
put it this way. I've thought there is a fundamentally 
different circumstance, and, if it is, I'm confident he 
understands it. I am just perplexed as to what happens.
    My prediction, for what it's worth--and I obviously am not 
a military man, but I do know a fair amount about policing--as 
you know, General, I've become a student of that for 35 years--
what's needed here is, essentially, community policing, and 
that is a long, long investment. That is gigantic--even in a 
metropolitan city in America, where there's not a civil war--
and I don't know whether we have the stomach for it, or the 
capacity.
    And my guess is, you're going to see Sadr being smart 
enough to stand down, take his folks out of uniform, put them 
in civilian clothes, drop the checkpoints, take away the 
rationale for the U.S. military to move on Sadr City, hopefully 
we--to use your point, General--go do their work in the Sunni 
areas, and then step up. Who are we benefiting? But that's 
neither here nor there.
    Last question, and it really is the last question, 
gentlemen. Underlying--the underlying issue here, for me, is: 
Assume I buy into the rationale that you need a military 
solution to create an atmosphere in which a political solution 
can emerge. I've said, at the outset, in my strong opposition 
to this surge, that if you somehow convince me there is a 
connection and a correlation and an agreement between an 
underlying political objective and the military--I could see 
the possible rationale for it. But here's my problem. When you 
talk about ``To give the Iraqis some breathing space by 
bringing order in Baghdad to allow for a political settlement 
to emerge,'' is there any evidence anywhere that, even if 
tomorrow we dropped 500,000 troops into Iraq, completely shut 
down the civil war temporarily, that that is going to change 
the conditions that are required for the Sunni and Shia to make 
some serious, serious, serious and dangerous political 
concessions?
    What makes us think that that would have SCIRI or Dawa 
conclude that we're going to give a big chunk of the revenues 
to the Sunnis? What would make us think that the Sunnis are 
prepared to sign on to essentially a Sunni constituency 
equivalent to Kurdistan? What makes us think that these giant 
dividing issues are going to be resolved? Is there any reason 
to think that, even if there is not a single Iraqi killed in 
the next 6 months, there's incentive to make these very 
difficult political decisions that have to be made to allow 
this country, once we lift the siege, to live together? I've 
not seen any. There may be.
    That's the question I have, and that's the last question. 
And, as I said, I've really trespassed on your time, but you're 
all so darn good, I can't resist.
    Senator Casey. Senator, let me--can I just----
    The Chairman. Sure.
    Senator Casey. I want to make sure I understand what you're 
asking. Your--and I was thinking about this before, and I ran 
out of time--your question is basically: Will restoring order 
automatically trigger political momentum?
    The Chairman. Will restoring it--or not even 
automatically--will--is there any evidence that restoring order 
will make the Dawa-SCIRI parties, Sadr's party, the Sunni 
tribal leaders and the Sunni party more inclined to settle what 
everyone acknowledges is the underlying problem: Their 
significant political differences? And, if so, what are those 
differences that have to be resolved so that, when we do step 
back and say, ``It's yours, fellows,'' that it's not going to 
immediately return to the sectarian chaos that exists today?
    General Odom. Can I give a--I'll give you a fairly short 
answer. I don't think there's any evidence for that. The 
question, as you've posed it, has been addressed since the 
fall--the breakup of the Ottoman Empire, and there have been 
efforts, again and again, to give somebody time to put it 
together. It always failed.
    In Vietnam, I used to address this issue with the--in the 
Pacification Development Program. The country field submission 
for more money for Vietnam would come out from the Embassy to 
the MACV Headquarters for staffing, and they'd say, ``Well, 
they need more time, they're not ready to take over yet, so we 
can't give them all they want, but let's give most of what they 
want.'' So, we--you know, leave an incentive for them to--``We 
won't give everything, but we won't let them fall.''
    So, I pulled the files out for the last 6 years, and every 
year, you had the same argument, and every year, the amount of 
money they wanted, and we were willing to give them, went up. 
Well, I caused a little disturbance by suggesting that to do 
this is like advocating that a drunk man drink more in order to 
sober up.
    And then, I've since seen a lot of literature on other 
countries, cases that suggest that the worst thing you can do 
to help a client against an insurgency in an internal war is to 
give them help. It--an internal war is about who's going to 
rule, and who's going to rule is the guy who can tax and 
control the resources. And if you give these guys time, through 
money and resources, they will use you as their tax base, and 
their opponents will take over the domestic tax.
    The Chairman. I love that quote--and I must admit, I 
thought I was a relatively good student of the Communist 
revolution, but I love that quote, ``Paper will put up with 
anything written on it.'' That was Stalin's, I guess you said?
    General Odom. Well, it's an old Russian proverb.
    The Chairman. An old--oh, a Russian proverb. I----
    General Odom. He loved that.
    The Chairman. I must admit, I had not heard it before. But, 
having said that, there still is a paper with stuff written on 
it out there called a constitution. And if you look at the 
Constitution, interesting thing, the central government, as 
envisioned by the Iraqis, has no taxing power. There is no 
taxing power.
    General Odom. Then it's a joke.
    The Chairman. I had this little debate with Prime Minister 
Maliki, who--for the sake of discussion, I'll acknowledge he 
has this overwhelmingly difficult job, and it may be putting 
too much on him, et cetera, but we were meeting, and I asked 
him about what he was going to do about such and such? He said, 
``That's already taken care of in the Constitution.'' I said, 
``Mr. Prime Minister, you and I''--this was in Baghdad, on July 
7, 8, 9, 10; I don't recall exactly which day it was--I said, 
``Mr. Prime Minister, you and I may be the only two people who 
have read the Constitution.'' It's fascinating. The strong 
central government our Government keeps insisting on--under the 
organizing principle of that government, the Constitution, the 
central government has no power to tax. Explicitly. Explicitly. 
And it explicitly states that governates, the 18 of them, have 
explicit power, if they choose the title ``region'' rather than 
``governate,'' to maintain their security.
    And in Kurdistan, if I'm not mistaken, General, you can't 
even fly the Iraqi flag, and no Iraqi forces are allowed within 
what is now called Kurdistan. You understand----
    General Keane. Can I have one comment?
    The Chairman [continuing]. My frustration.
    Yes, please, General.
    General Keane. You know, to accept the premise that you 
just suggested is--you know, that insurgencies, irregular 
warfare, internal conflicts, when they're challenging like 
this, and they're difficult, that it's hopeless, that there's 
no way to be able to resolve it--and I don't suggest, for a 
minute, that this is not very difficult, and certainly General 
Petraeus is fully aware of what his challenges are in front of 
him, and they are very different than what he faced in Mosul, 
much more--much more difficult--but the reality is that you can 
use military force to compel people's wills. You can change 
their will, using force. You can begin to set some conditions 
to get some political results.
    The question that will remain--I'm convinced we can do 
that--the question remains, for me, which--I've tried to be as 
straightforward about it as I can----
    The Chairman. You have been.
    General Keane [continuing]. Is the government itself, 
where--even if we do that, where will--their political will 
would be. I would like to think that after we have strengthened 
his hand, and then he can bring the Sunnis to the table, and 
the Shias are back behind their barricades, and the violence 
has gone down, that those benchmark things then make sense. But 
that remains an open question. I'm not going to try to put a 
spin on this; it's not my style. But----
    The Chairman. Well, I'm not suggesting you were, General. I 
think you've been straightforward----
    General Keane [continuing]. But the fact is, is that I 
believe you can establish some conditions to get some results. 
It'll still be Maliki and his government, whether they're 
committed to those results or not.
    The Chairman. Anyone else?
    General Hoar. Sure. I think that many people in this 
Government--or they don't understand the depth of enmity that 
exists between Shia and Sunni. This is big-time and real, and 
it has been for centuries, as we know. And my view, as I 
indicated to you earlier, is that if you got some political 
movement on the part of Maliki, then you could perhaps talk 
about troops, but if he's not committed to make hard choices 
early on, there is no chance of pulling this thing out, in my 
judgment.
    The Chairman. Gentlemen, you've been incredibly generous 
with your time, your knowledge, your wisdom, and your 
straightforwardness. It is refreshing. It is welcome. It is 
needed. I thank you all for allowing us to take you through the 
lunch hour.
    We are adjourned.
    [Whereupon, at 1:33 p.m., the hearing was adjourned.]


   ALTERNATIVE PLANS CONTINUED--FEDERALISM, SIDE WITH THE MAJORITY, 
                 STRATEGIC REDEPLOYMENT, OR NEGOTIATE?

                              ----------                              


                    TUESDAY, JANUARY 23, 2007 [A.M.]

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:20 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Feingold, Boxer, Nelson, Obama, 
Menendez, Cardin, Casey, Lugar, Hagel, Corker, Voinovich, 
Murkowski, and Isakson.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. Hearing will please come to order.
    This morning, we begin our third week of hearings on the 
remaining options in Iraq. Today, we'll have two distinguished 
panels of witnesses presenting alternative proposals of the way 
forward in Iraq.
    I'd like to take a moment to outline, briefly, the schedule 
over the next 2 weeks, if I may.
    Tomorrow, we'll take a break, of sorts, from our hearing 
schedule to hold a business meeting in which we'll consider a 
bipartisan resolution on Iraq. We will return to our hearings 
on Thursday morning with a panel on the administration's new 
reconstruction strategy, followed by an afternoon panel 
focusing on Iraq's internal politics.
    A week from today, we'll hear from Secretary Baker and 
Congressman Lee Hamilton, and the following day, we'll be 
joined by Secretaries of State Kissinger and Albright. We will 
close this series on Thursday of next week, with three former 
National Security Advisors: General Scowcroft, Dr. Brzezinski, 
and Mr. Berger.
    And let me return to today's hearings.
    We have with us four articulate experts who will present 
specific recommendations regarding our policy in Iraq.
    Les Gelb is a president emeritus and board senior fellow at 
the Council on Foreign Relations. He and I have put forward a 
plan for a political settlement in which the unity of Iraq is 
preserved by creating three or more regions, as provided by the 
Iraqi Constitution. The plan would guarantee the Iraqi Sunnis a 
fair share of oil revenues, and it urges the creation of a 
contact group to support the political settlement among the 
Iraqis. And finally, it calls for the redeployment of most of 
American troops over the next 18 months.
    Edward Luttwak is a friend and a senior advisor to the 
Center for Strategic International Studies. He argues, and I 
quote, ``Only with United States disengagement can Iraqis find 
their own equilibrium. Twenty thousand U.S. troops in desert 
bases suffice to deter foreign intrusion.''
    And we have Robert Malley, who is the director of the 
Middle East Program at the International Crisis Group. He 
advocates, and I quote, ``a clean break in the way the United 
States deals with the Iraqi Government and the region. The 
United States should seek to enlist broad international support 
for a new political compact among Iraqis, cease treating the 
Iraqi Government as a privileged partner and start seeing it as 
a party to the sectarian war, and engage in real diplomacy with 
all Iraqis' neighbors, Iran and Syria included.''
    And Larry Korb, who is a senior fellow at the Center for 
American Progress and a senior advisor to the Center for 
Defense Information. Mr. Korb has testified many times before 
this committee. His plan calls for, and I quote, ``a diplomatic 
surge and the strategic redeployment of our military forces. 
U.S. troops would redeploy completely from Iraq in the next 18 
months, remain in the region, and be increased in 
Afghanistan.''
    We look forward to the testimony of all the witnesses. And 
now I'll turn to Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, I thank you, Mr. Chairman, again, for 
holding this important hearing.
    Today, we will have an opportunity to broaden our focus 
beyond the President's plan as we explore an array of 
strategies in Iraq. The variance among the plans offered at 
this hearing underscores the complexity of the situation in 
Iraq and the need to provide close oversight of the 
administration's policies.
    Although the President is committed to his approach and has 
initiated steps to implement it, planning by the administration 
must continue. We must plan for contingencies, including the 
failure of the Iraqi Government to reach compromises and the 
persistence of violence despite United States and Iraqi 
Government efforts.
    Last week, our committee had the opportunity to engage 
military experts on the President's plan, as well as military 
conditions in Iraq. Our panel of four distinguished retired 
generals voiced deep concerns about how we translate our 
military position in Iraq into political gains. It remains 
unclear how expanded, continued, or reduced United States 
military presence can be used to stimulate Iraqi political 
reconciliation.
    Wide, though not unanimous, agreement exists that our 
military presence in Iraq represents leverage, either because 
it can be expanded or because it can be withdrawn, but there is 
little agreement on how to translate this leverage into 
effective action by the Iraqi Government. Some commentators 
talk of ``creating space'' for the Iraqi Government to 
establish itself, but it is far from clear that the government 
can or will take advantage of such space.
    In a previous hearing, Secretary Richard Haass highlighted 
a fundamental disconnect that we must overcome for any plan to 
work, when he observed, ``The U.S. goal is to work with Iraqis 
to establish a functioning democracy in which the interests and 
rights of minorities are protected. The goal of the Iraqi 
Government appears to be to establish a country in which the 
rights and interests of the Shia majority are protected above 
all else.''
    In such a situation, even if additional troops have a 
discernible impact on the violence in Iraq, this progress in 
the street may be immaterial to achieving political 
reconciliation. If this is true, all we would gain with a surge 
is a temporary and partial reduction of violence in Baghdad. 
That would have some salutary benefits for some Iraqis, but it 
would not help us achieve our strategic objectives.
    If we undertake the tremendous investment that sending more 
American soldiers to Iraq represents, it should be in support 
of a clear strategy for achieving a negotiated reconciliation. 
We should not depend on theories or hopes that something good 
may happen if we dampen violence in Baghdad.
    Thus, as the administration increases troops, it becomes 
more imperative to develop a backup plan and aggressively seek 
a framework for a political solution. It is not enough to set 
benchmarks to measure the progress of the Iraqi Government. If 
the Iraqi Government has different timetables and objectives 
than we do, such benchmarks will not be met in a way that 
transforms the politics of the nation.
    Backup plans must be synchronized with a wider strategic 
vision for the Middle East. The fall of Saddam Hussein and the 
rise of the Shia majority in Iraq have opened possibilities for 
broader conflict along sectarian lines. Sunni Arab regimes in 
the region are deeply concerned about the influence of Iran and 
its growing aggressiveness. An Iran that is bolstered by an 
alliance with a Shiite government in Iraq or a separate Shiite 
state in southern Iraq would pose serious challenges for Saudi 
Arabia, Jordan, Egypt, and other Arab governments. The 
underlying issue for American foreign policy is how we defend 
our interests in the Middle East, given the new realities that 
our 4 years in Iraq have imposed. We need frank policy 
discussions in this country about our vital interests in the 
region. The difficulties we have had in Iraq make a strong 
presence in the Middle East more imperative, not less.
    I welcome, along with you, Mr. Chairman, our distinguished 
guests, and we look forward to a very thoughtful hearing.
    The Chairman. Thank you very much, Mr. Chairman.
    We'll begin in order--starting with Mr. Gelb, Luttwak, 
Korb, and Malley.
    The floor is yours, Les. You have to press that button 
there to turn this thing on.
    Dr. Gelb. Oh, there we go.
    The Chairman. Thank you.

STATEMENT OF HON. LESLIE H. GELB, PRESIDENT EMERITUS AND BOARD 
   SENIOR FELLOW, COUNCIL ON FOREIGN RELATIONS, NEW YORK, NY

    Dr. Gelb. Mr. Chairman, Mr. Former Chairman, member of the 
committee, permit me a moment of reflection.
    I know well the bipartisan power of this committee. I 
worked here over 40 years ago for Senator Jacob Javits, and, in 
1966, this committee conducted hearings on Vietnam that really 
changed the course of the debate in the United States about 
that war. It illuminated the situation in Vietnam, and our 
choices. Those hearings were a monument to bipartisanship and 
to democracy.
    I am honored to be here to present the proposal, strategic 
alternative, developed by the chairman and myself, now almost a 
year ago. And since we first put it forward, it has been so 
misrepresented, maligned, and attacked that my wife now calls 
it ``The Biden Plan.'' [Laughter.]
    The essence of the idea, as the chairman just outlined it a 
moment ago, is that if there is to be a settlement of this 
war--and we may be beyond that point--it has to be a political 
settlement based on a power-sharing arrangement. And there are 
two kinds of power-sharing arrangements. One can strive for a 
strong central government or one can strive for a decentralized 
or federal system. The administration has tried for over 3 
years now to build a strong central government. It has not 
worked, it will not work, because there are not sufficient 
common interests and there's almost total lack of trust. That 
government is inefficient and corrupt.
    Most of the ministers--and I know you've all been there--
don't even leave the Green Zone to go to their ministries to 
run their departments. So, the alternative for the Iraqis is a 
decentralized system. And I say ``for the Iraqis,'' because 
they themselves, as the chairman noted, have called what they 
have a federal system, and in their Constitution, they put 
forward a federal structure and provide for provinces joining 
with other provinces to form regional governments. This is not 
an invention of Chairman Biden and myself; it is in their 
Constitution. They also passed implementing legislation a few 
months ago to make this happen, though they deferred it.
    Now, what would a government like this look like? Why is 
there opposition to the idea of actually getting it done, 
implementing the federal system? And finally, how would you 
overcome that opposition and resistance?
    The government would look like this. The central government 
would be based on the areas where there are genuine common 
interests among the different Iraqi parties; that is, foreign 
affairs, border defense, currency, and, above all, oil and gas 
production and revenues. I'll come back to that in a moment. 
But that's where they share real interests.
    As for the regions, whether they be three or four or five, 
whatever it may be--it's up to--all this is up to the Iraqis to 
decide--would be responsible for legislation, administration, 
and internal security. Very important. Because they would 
defend themselves. They have that interest in taking care of 
their own people.
    Now, 80 percent of the Iraqi people approved that 
constitution and that federal system. Eighty percent of the 
national assembly backed the idea of moving forward on the 
federal system because it's a way of letting the different 
communities run their own affairs and, at the same time, 
keeping the country together.
    So, why the opposition? The opposition comes principally 
from the Sunnis and principally because they've been used to 
running that country for hundreds of years, and they still view 
themselves as the natural rules of the whole country; they 
don't want to give it up. And they are backed in that desire by 
their Sunni Arab neighbors, who like the idea of the Sunnis 
running Iraq, don't like the idea of the Shiites running it, 
and don't want to see Iraq broken up in any fashion whatsoever, 
because it's a bad precedent for them. And they're, in turn, 
backed by the Bush administration and by most of the Middle 
East experts in this country, who tend to follow the Sunni way 
of thinking on this.
    There are Shiites opposed to this, too. And those Shiites 
are opposed to it because they think it's now their turn to run 
all of Iraq, so they don't want to see it federalized to weaken 
their power. And they've resisted it on those grounds.
    The Kurds are all for it, and, for almost 13 years, they've 
been running their own regional government, and very 
successfully.
    Now, how do you overcome their resistance? This is a big 
problem, and it may not be doable, but here is what the 
chairman and I have put forward.
    First and foremost, you try to make the Sunnis an offer 
they can't refuse. You let them run their own region. And they 
have to see that that's preferable to their being a permanent 
minority in a government run by the Shiites and the Kurds. This 
way, they can run their own affairs, and it's their last chance 
to do so.
    Second, you've got to make it economically viable for the 
Sunnis to have their own region. And the only way you can do 
that is by changing the Constitution so that it guarantees the 
Sunnis 20 percent--based on their proportion of the 
population--20 percent of the oil revenues, present and future. 
Right now, they're guaranteed nothing.
    How do you convince the Shiites? Basically, you've got to 
convince them that, if they try to run the whole country, 
they're going to be faced with endless insurgencies, 
themselves; they'll have to pick up the civil war, they'll 
never be able to enjoy the riches of that country of Iraq.
    But those arguments, even though they make sense, aren't 
enough, and we've got to go further. The second element of the 
plan is how you use United States military withdrawals and 
redeployments, both within Iraq and within the region, to 
reinforce the kind of political settlement we would hope the 
Iraqis could reach. The chairman and I have a little 
disagreement over what that military plan should look like, 
because I don't see it in terms of any fixed timetables, I see 
it more as a process that we ask our military to arrange with 
the Iraqi military over the course of, say, 2 years, where we 
can make adjustments according to the situation.
    Now, the withdrawal process opens up political doors for us 
that reinforce this decentralization, or federal idea. In the 
first place, it allows us to move toward an alliance with many 
of the Sunnis in the center of that country--with the 
Baathists, with the sheikhs, and with the secular leaders of 
that society--because once they see we're not going to be there 
and remain their central enemy, they can band with us against 
the common enemy, the terrorists in their midst, the jihadis, 
the al-Qaeda people, and they are the common enemy for both of 
us. Those are the people who are destroying the homes of most 
of the Sunnis in the center of the country, destroying their 
lives. And once they see that we're not there as a permanent 
military factor in the center of that country, we can begin to 
make that alliance with them. The same goes with the Shias. 
Once they see that we're in the process of leaving, we can 
develop common interests with them, as well.
    These are, in the last analysis, Iraqi Arab Shias, not 
Iranian Persian Shiites. And there's an important historical 
difference there. And we can play on that in order to develop a 
relationship with the Shia that will help us advance a new 
government.
    There's also a difference in religious tradition, where the 
Iraqi Shias are much less willing to have their high clergy be 
involved directly in government than the Iranian Shiites. So, 
there's area for us to work with once they see we're not going 
to be a permanent military presence.
    The diplomacy is the final factor here. And as we see the 
diplomacy, it is not something that can create a solution, nor 
should we try to create or impose one on the Iraqis. The 
diplomacy can't solve the problem within Iraq, but it can 
reinforce any kind of arrangement that the Iraqis themselves 
are moving toward. The Iranians or the Saudis are not going to 
impose a settlement on their allies within Iraq, but they'll 
support something they themselves want to achieve.
    Now, finally, Mr. Chairman, members, I know it's very 
fashionable to talk about the United States being in a weak and 
waning position in the Middle East and the gulf, and that Iran 
is in the ascendancy. I think this is nonsense. The United 
States is a great power, the Iranians are a puny power. Their 
importance in that area is temporary and based on the fact that 
the people of that area, the leaders, don't see a coherent 
policy from the United States of America. When we have a 
coherent policy, those countries will come to us.
    After the Vietnam war--and it ended in an awful way--
President Nixon and Secretary of State Kissinger had a coherent 
strategy, and the nations of Asia rallied to the United States, 
because they did not want to see United States weakened in 
their part of the world. They understood that they could not do 
what they wanted economically and protect their security 
without a strong United States, and they rallied to us. The 
same will happen in the Middle East and gulf once the leaders 
and peoples of that area of the world believe we have a 
sensible strategy and have returned to a commonsense approach 
to the area.
    I thank you very much for your attention.
    [The prepared statement of Dr. Gelb follows:]

Prepared Statement of Hon. Leslie H. Gelb, President Emeritus and Board 
       Senior Fellow, Council on Foreign Relations, New York, NY

                       we're fighting not to lose
(By Leslie H. Gelb and Richard K. Betts, director of Columbia 
University's Saltzman Institute of War and Peace Studies--The 
Washington Post, Jan. 14, 2007)

    Iraq is not Vietnam, yet history seems intent on harnessing them 
together. Three years ago this seemed an unlikely pairing; surely 
President Bush would not take the United States down the same trail as 
Lyndon B. Johnson. Yet, even though Iraq's story is far from complete, 
each day raises the odds that the U.S. fate in Iraq could eventually be 
the same as it was in Vietnam--defeat.
    The differences are clear. The policy consensus over the Vietnam 
war ran deeper and lasted longer than on the Iraq conflict. While 
Johnson and his advisers slogged deeper into Vietnam with realistic 
pessimism, Bush and his colleagues plunged ahead in Iraq with reckless 
optimism. And in Vietnam, U.S. leaders made most of their mistakes with 
their eyes wide open, while it is impossible to fathom exactly what the 
Bush team thought it was doing after the fall of Baghdad.
    Twenty-eight years ago, we wrote a book, ``The Irony of Vietnam: 
The System Worked,'' which argued that although U.S. policy in that war 
was disastrous, the policymaking process performed just as it was 
designed to. It seems odd that a good system could produce awful 
results, but the subsequent declassified documents and the public 
record showed it to be true. U.S. officials generally had accurate 
assessments of the difficulties in Vietnam, and they looked hard at the 
alternatives of winning or getting out.
    On Iraq the insider documents are not available, but journalistic 
accounts suggest that Bush's policy process was much less realistic. 
The President did not take seriously the obstacles to his goals, did 
not send a military force adequate to accomplish the tasks, failed to 
plan for occupation, and took few steps to solve the underlying 
political conflicts among Iraqis.
    Despite these different paths, Bush now faces Johnson's dilemma, 
that of a war in which defeat is unthinkable but victory unlikely. And 
Bush's policy shift last week suggests that he has come to the same 
conclusion as Johnson: Just do what you can not to lose and pass the 
problem on to your successor.
    In both cases, despite talk of ``victory,'' the overriding 
imperative became simply to avoid defeat.
    How did these tragedies begin? Although hindsight makes many 
forget, the Vietnam war was backed by a consensus of almost all 
foreign-policy experts and a majority of U.S. voters. Until late in the 
game, opponents were on the political fringe. The consensus rested on 
the domino theory--if South Vietnam fell to communism, other 
governments would topple. Most believed that communism was on the march 
and a worldwide Soviet-Chinese threat on the upswing.
    The consensus on Iraq was shallower and shorter lived. Bush may 
have been bent on regime change in Baghdad from the start, but in any 
case a consensus emerged among his advisers that Saddam Hussein was on 
the verge of securing nuclear weapons capability--and that deterrence 
and containment would not suffice. That judgment came to be shared by 
most of the national security community. Congress also saluted early 
on. The vote to endorse the war was less impressive than the Gulf of 
Tonkin resolution, which passed almost unanimously, but many Democrats 
signed on to topple Hussein for fear of looking weak.
    As soon as the war soured, the consensus crumbled. Without the 
vulnerability of middle-class youth to conscription, and with the 
political left in a state of collapse since Ronald Reagan's Presidency, 
the antiwar movement on Iraq did not produce sustained mass protests as 
Vietnam did by the late 1960s. But the sentiment shows up just as 
clearly in the polls.
    Consensus held longer over Vietnam because few in or out of the 
government had ever expected a quick and easy resolution of the war. 
Officials knew what they were up against--the force of nationalism 
embodied by Ho Chi Minh, and a succession of corrupt, inefficient, and 
illegitimate South Vietnamese governments. Officials usually put on a 
brave face, but they understood that Washington was in for the long 
haul. In the Bush administration, by contrast, a gap opened almost 
immediately between senior political leaders on one side, and most 
military and diplomatic professionals, as well as the media, on the 
other. The steady optimism of the former in the face of the reporting 
of the latter quickly undid public confidence in the Pentagon's and 
White House's leadership.
    By 1968, Johnson understood that victory was not in the cards at 
any reasonable price, but that defeat would be catastrophic. The war 
had reached a deteriorating stalemate. If victory were possible, it 
would require all-out use of military force against North Vietnam, a 
move that the administration believed ran the risk of war with the 
Soviet Union and China. If the United States were defeated, however, 
the dominos would fall, and one of those dominos would be the occupant 
of the White House. Periodically, top officials concluded that events 
in Vietnam had taken another turn for the worse, and to prevent defeat 
they had to dispatch more troops and do more bombing--and so the steady 
escalation proceeded without lasting effect on the balance of power in 
Vietnam.
    Constrained against achieving victory or accepting defeat, Johnson 
and his aides chose to do the minimum necessary to get through each 
crunch in Vietnam and at home, hoping that something would turn up to 
save them. In the end, Johnson made the ultimate political sacrifice 
and declined to run for reelection. But as he announced a halt of the 
bombing and the offer of negotiations with Hanoi, he also increased the 
number of U.S. troops in Vietnam. Even as he was leaving office, he had 
no intention of being ``the first American President to lose a war.''
    By contrast, Bush never had to worry that escalation would bring an 
all-out global war; the United States is the world's sole superpower. 
Nonetheless, until last week, he never chose to increase the combat 
commitment significantly; the ``surge'' announced last week is but the 
latest experiment with a temporary increase in forces. At the beginning 
this was probably because he did not believe more troops were needed to 
win. As the venture went bad, the Volunteer Army was stretched too thin 
to provide an option for massive escalation. But now it is clear that 
Bush does not believe he can possibly win with anything close to the 
number of forces currently committed. The President certainly perceives 
the risks of losing, and at this moment of truth, he is repeating 
Johnson's decision pattern--doing the minimum necessary not to lose.
    Whatever the similarities in the way Washington dealt with Vietnam 
and Iraq, there were few similarities between the two wars themselves. 
Vietnam was both a nationalist war against outside powers--first the 
French, then the Americans--and a civil war. In Iraq, the lines of 
conflict are messier. The main contest is the sectarian battle between 
Arab Shiites and Arab Sunnis. The Kurds, so far, are mostly bystanders, 
while the Americans struggle to back a weak yet balky government they 
hope can remain a secular alternative.
    Combat in Vietnam was a combination of insurgency and conventional 
warfare, and the conventional element played to U.S. strengths. By 
contrast, Washington's massive firepower advantages are nullified in 
Iraq because the fighting remains
at the level of guerrilla warfare and terrorism. Iraq is harder for our 
military than Vietnam was, yet we eventually had 540,000 troops in 
Vietnam compared with barely a quarter of that number in Iraq. The 
current U.S. footprint in Iraq is much smaller--only about one-tenth 
the density of U.S. and allied forces per square mile in South Vietnam 
at the height of U.S. involvement, and with an Iraqi population 50 
percent larger than South Vietnam's. Consequently, the security 
situation was never as bad in Vietnam as it is in Iraq today. In 
Vietnam, Americans could travel most places day and night, while in 
Iraq it is dangerous to leave the Green Zone. Even Bush's planned 
21,500-troop increase will not make a lasting difference if the host 
government does not become far more effective. As in Vietnam after the 
Tet Offensive of 1968, the enemy can lie low until we stand down. In 
both countries, U.S. forces worked hard at training national armies. 
This job was probably done better in Vietnam, and the United States 
certainly provided South Vietnamese troops with relatively better 
equipment than they have given Iraqis so far. South Vietnamese forces 
were more reliable, more effective, and far more numerous than current 
Iraqi forces are.
    In both cases, however, the governments we were trying to help 
proved inadequate. Unlike their opponents, neither Saigon nor Baghdad 
gained the legitimacy to inspire their troops. At bottom, this was 
always the fundamental problem in both wars. Americans hoped that time 
would help, but leaders such as South Vietnam's Nguyen Van Thieu and 
Iraq's Nouri al-Maliki were never up to the job.
    Americans have not stopped arguing about Vietnam--about whether the 
war could have been won if fought differently, or was an impossible 
task from the outset, or about who was to blame. Hawks claim that the 
United States could have won in Vietnam if the military had been 
allowed to fight without restraint. Supporters of the war in Iraq say 
that the United States could have prevented the resistance if it had 
been better prepared for occupation after the fall of Baghdad. Doves in 
both cases say that the objectives were never worth any appreciable 
price in blood and treasure.
    After Vietnam, recriminations over failure became a never-healed 
wound in American politics. Now Iraq is deepening that wound. With some 
luck, Washington may yet escape Baghdad more cleanly than it did in the 
swarms of helicopters fleeing Saigon in 1975. But even if the United 
States is that fortunate, the story of the parallel paths to disaster 
should be chiseled in stone--if only to avoid yet another tragedy in a 
distant land, a few decades down the road.
                                 ______
                                 
                     UNITY THROUGH AUTONOMY IN IRAQ

(By Joseph R. Biden, Jr., and Leslie H. Gelb--The New York Times, May 
1, 2006)

    A decade ago, Bosnia was torn apart by ethnic cleansing and facing 
its demise as a single country. After much hesitation, the United 
States stepped in decisively with the Dayton Accords, which kept the 
country whole by, paradoxically, dividing it into ethnic federations, 
even allowing Muslims, Croats, and Serbs to retain separate armies. 
With the help of American and other forces, Bosnians have lived a 
decade in relative peace and are now slowly strengthening their common 
central government, including disbanding those separate armies last 
year.
    Now the Bush administration, despite its profound strategic 
misjudgments in Iraq, has a similar opportunity. To seize it, however, 
America must get beyond the present false choice between ``staying the 
course'' and ``bringing the troops home now'' and choose a third way 
that would wind down our military presence responsibly while preventing 
chaos and preserving our key security goals.
    The idea, as in Bosnia, is to maintain a united Iraq by 
decentralizing it, giving each ethnoreligious group--Kurd, Sunni Arab, 
and Shiite Arab--room to run its own affairs, while leaving the central 
government in charge of common interests. We could drive this in place 
with irresistible sweeteners for the Sunnis to join in, a plan designed 
by the military for withdrawing and redeploying American forces, and a 
regional nonaggression pact.
    It is increasingly clear that President Bush does not have a 
strategy for victory in Iraq. Rather, he hopes to prevent defeat and 
pass the problem along to his successor. Meanwhile, the frustration of 
Americans is mounting so fast that Congress might end up mandating a 
rapid pullout, even at the risk of precipitating chaos and a civil war 
that becomes a regional war.
    As long as American troops are in Iraq in significant numbers, the 
insurgents can't win and we can't lose. But intercommunal violence has 
surpassed the insurgency as the main security threat. Militias rule 
swathes of Iraq and death squads kill dozens daily. Sectarian cleansing 
has recently forced tens of thousands from their homes. On top of this, 
President Bush did not request additional reconstruction assistance and 
is slashing funds for groups promoting democracy.
    Iraq's new government of national unity will not stop the 
deterioration. Iraqis have had three such governments in the last 3 
years, each with Sunnis in key posts, without noticeable effect. The 
alternative path out of this terrible trap has five elements. The first 
is to establish three largely autonomous regions with a viable central 
government in Baghdad. The Kurdish, Sunni, and Shiite regions would 
each be responsible for their own domestic laws, administration, and 
internal security. The central government would control border defense, 
foreign affairs, and oil revenues. Baghdad would become a federal zone, 
while densely populated areas of mixed populations would receive both 
multisectarian and international police protection.
    Decentralization is hardly as radical as it may seem: The Iraqi 
Constitution, in fact, already provides for a federal structure and a 
procedure for provinces to combine into regional governments.
    Besides, things are already heading toward partition: Increasingly, 
each community supports federalism, if only as a last resort. The 
Sunnis, who until recently believed they would retake power in Iraq, 
are beginning to recognize that they won't and don't want to live in a 
Shiite-controlled, highly centralized state with laws enforced by 
sectarian militias. The Shiites know they can dominate the government, 
but they can't defeat a Sunni insurrection. The Kurds will not give up 
their 15-year-old autonomy.
    Some will say moving toward strong regionalism would ignite 
sectarian cleansing. But that's exactly what is going on already, in 
ever-bigger waves. Others will argue that it would lead to partition. 
But a breakup is already under way. As it was in Bosnia, a strong 
federal system is a viable means to prevent both perils in Iraq.
    The second element would be to entice the Sunnis into joining the 
federal system with an offer they couldn't refuse. To begin with, 
running their own region should be far preferable to the alternatives: 
Being dominated by Kurds and Shiites in a central government or being 
the main victims of a civil war. But they also have to be given money 
to make their oil-poor region viable. The constitution must be amended 
to guarantee Sunni areas 20 percent (approximately their proportion of 
the population) of all revenues.
    The third component would be to ensure the protection of the rights 
of women and ethnoreligious minorities by increasing American aid to 
Iraq but tying it to respect for those rights. Such protections will be 
difficult, especially in the Shiite-controlled south, but Washington 
has to be clear that widespread violations will stop the cash flow.
    Fourth, the President must direct the military to design a plan for 
withdrawing and redeploying our troops from Iraq by 2008 (while 
providing for a small but effective residual force to combat terrorists 
and keep the neighbors honest). We must avoid a precipitous withdrawal 
that would lead to a national meltdown, but we also can't have a 
substantial long-term American military presence. That would do 
terrible damage to our Armed Forces, break American and Iraqi public 
support for the mission, and leave Iraqis without any incentive to 
shape up.
    Fifth, under an international or United Nations umbrella, we should 
convene a regional conference to pledge respect for Iraq's borders and 
its federal system. For all that Iraq's neighbors might gain by picking 
at its pieces, each faces the greater danger of a regional war. A 
``contact group'' of major powers would be set up to lean on neighbors 
to comply with the deal.
    Mr. Bush has spent 3 years in a futile effort to establish a strong 
central government in Baghdad, leaving us without a real political 
settlement, with a deteriorating security situation--and with nothing 
but the most difficult policy choices. The five-point alternative plan 
offers a plausible path to that core political settlement among Iraqis, 
along with the economic, military, and diplomatic levers to make the 
political solution work. It is also a plausible way for Democrats and 
Republicans alike to protect our basic security interests and honor our 
country's sacrifices.

    The Chairman. Thank you. I still want to be associated with 
the plan.
    Dr. Luttwak.

 STATEMENT OF DR. EDWARD N. LUTTWAK, SENIOR FELLOW, CENTER FOR 
      STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Dr. Luttwak. I, of course, am honored to be before you 
today.
    I emphatically agree with Mr. Gelb's closing remarks. The 
Iranians stride around as if they have won great victories, but 
this generation of Pasdaran, of Iranians, have only fought one 
war, with Iraq, which they lost. I'd agree that they are not a 
great power.
    Further, I believe that, inadvertently, what we have done, 
and what certain Iranians have done, has brought about a 
fracture in the Middle East. The ancient quarrel between the 
Shia interpretation and the Sunni interpretation of Islam has 
been activated and turned into a dynamic conflict. This has had 
all kinds of unexpected consequences.
    I notice that, for the first time in all the years I've 
followed foreign affairs, the Saudi Government has become a 
real ally of the United States. Back in 2000, some Saudis 
supported al-Qaeda, funded it, others let it operate, others 
winked at al-Qaeda. Today, the Saudis are real allies in 
Lebanon, where they are helping Prime Minister Siniora to block 
the Hezbollah.
    The Jordanians are very active. They were, in the past, 
too, but not as much.
    The Egyptians were also real allies in the past but are 
much more active today. Why? Because they're afraid of the so-
called Shia ``crescent'': It starts with Iran, extends to a 
Shia-dominated Iraq and the Alawite-dominated government of 
Syria--they are not Twelver Shia and would be persecuted in 
Iran, but nevertheless cooperates politically with Iran, and 
then, of course, the Hezbollah of Lebanon. That is the famous 
Shia ``crescent'' from Iran to the Mediterranean. The Sunni 
states are afraid of it, partly because of their own Shia 
minorities, and the result is an unfriendly equilibrium between 
Shia and Sunni states, but of course inside Iraq there is Shia-
Sunni violence instead of a strategic equipoise. Whether we 
want it or not, the Bush administration--which certainly never 
intended it--has brought about a classic situation that critics 
might describe as ``Divide and Rule.'' It is not what anyone 
wanted, but this equilibrium means, in my view, that the risks 
and the costs of whatever we do in Iraq are much less than they 
seem. Many people say that the war in Iraq has brought about a 
tremendous geopolitical disaster in the Middle East. I would 
simply say that it's brought into existence a new equilibrium, 
where the Shia of Iraq absolutely need American power, because, 
as Les Gelb correctly pointed out, the Sunnis, minority as they 
are, they have always ruled Iraq, for a reason because the Shia 
are always so divided. So, the Shia of Iraq need the United 
States, absolutely. And that's why we've had the spectacle of 
Mr. Abdul Aziz al-Hakim, son of a radical Ayatollah, himself a 
radical--the same al-Hakim, who spent 23 years in Iran, where 
many times he declaimed ``Death to America''--coming to the 
White House and sitting with President Bush to ask for American 
help. So, in Iraq, the Shia need us; outside Iraq, the Sunnis 
need us. This is called ``divide and rule,'' whether you wish 
it or not. You don't have to be Machiavellian, you do not have 
to be a Metternich; it just happens quite naturally. No great 
cleverness brought it about, no great cleverness is needed to 
operate it in our interest. It means that the costs and risks 
of whatever we do are much less than they would have been 5 
years ago.
    This is the context in which I recommend disengagement. It 
is a context, which I do not see as tragic and disastrous, 
because it is an equipoise. Disengagement is not withdrawal, it 
is not the leap in the dark of abandonment. Disengagement means 
just that, that is, you don't patrol the villages and towns, 
you don't outpost, you don't checkpoint the roads but still 
remain in Iraq with a fraction of the present force.
    I should inform you, parenthetically, that primarily I made 
my living as a tactical consultant all these years, dealing 
with such things as how to organize patrols and I have field 
experience. Therefore, I am acutely aware of the difference 
disengagement would make.
    Disengagement is not withdrawal. What does it mean? You 
don't patrol, you don't outpost, but you don't leave the 
country; you stay, for example, in ``Camp Victory,'' the 
Baghdad International Airport. You might stay in the Green 
Zone, at least transitionally. You would certainly stay in a 
major logistic base, which already exists in western Iraq which 
is largely desert. Saddam Hussein, helpfully, built a couple of 
good bases there that can easily be rehabilitated, they just 
need some plumbing work done on them.
    So, the United States would be there with what? With a 
force-level that has to be determined, but it should be of the 
order of one-tenth of the force we now have.
    And what would that force do? Well, it would give general 
political backing to the elected Government of Iraq. It is an 
elected government, it deserves our general political backing. 
It would stop any invasions or rather, deter any invasions. And 
if anybody--let's say that some al-Qaeda-type extreme groups 
takes over a town and starts going around with flags and making 
itself visible, a strike force could sally out and hit it.
    At the present moment, as you all know, we are not 
expending a lot of ammunition in Iraq; and, therefore, the 
enormous costs of the Iraq war have to do with the logistics. A 
lot of it is contractor-protected logistics, it's moving things 
around to supply things to all our forces scattered in what is, 
in fact, a vast country. With disengagement, the remaining 
bases would be, supplied the way bases are now supplied, which 
is primarily by Air Force C-130s from Kuwait, bringing the 
supplies. And, therefore, there would be no U.S. traffic on the 
roads. Once in a while, heavy equipment would be moved with 
road transporters. Once in a while, there would be a rare 
convoy, unannounced, heavily protected, and so on. This is 
not--these are not all ways of reducing casualties, although 
that is, indeed, very important. These are ways to reduce our 
intrusions in the life of the Iraqis.
    Politically, disengagement would end what we are now doing. 
And what are we doing now? We are interposing ourselves between 
the peoples in Iraq. We are preventing the Iraqis from having 
their own history, from doing their own thing. We are 
protecting the Shia, as a whole, from the Sunnis. We are 
protecting them so well that some of the Shia, mostly the Jaish 
al-Mahdi, politically headed by Muqtada al-Sadr, feels free to 
attack Americans and British troops. Disengagement would stop 
that--they would be busy defending themselves.
    As for the wider context of disengagement, I believe the 
Iranian strategy has failed. They tried to become the leaders 
of the Middle East by being more anti-American than anybody 
else, more anti-Israeli, and, indeed, more anti-Jewish, with 
the Holocaust provocations of Ahmadinejad. The Sunni arabs have 
not been persuaded to follow Iran. They call them Persians--
Ajamis, which implies by the way, pagan Persians, because when 
the Arabs first encountered them, they were pagans, and today 
they are pagans again. Because according to any orthodox 
interpretation of Sunni Islam--and I don't mean fundamentalist 
or extremist, just orthodox--today's Twelver Shias of Iran with 
their Ayatollah-saints and temporary marriages have become 
apostates, unlike most Shias in the past. So, the entire 
Iranian strategy has failed. They are not gratefully accepted 
as leaders by the Arabs. They are feared as enemies.
    Given all of this, I respectfully disagree with any plan 
that would seek to manage, micromanage, macromanage, or 
minimanage the Iraqi reality. It is very complicated. Even the 
supposed facts are misleading. For example, some of the Kurds 
are Shia. Some are Sunni fundamentalists. They're a small 
minority, but they happen to be the toughest of all the 
extremists that we have encountered in Iraq--they have 
accounted for some of the worst attacks. Some of the Kurds are 
not Muslim at all, they are Yazidis. People talk about Shia and 
Sunni, meaning Arab Shia Arab Sunni, but, in Kirkuk, the No. 1 
problem is the Turkmen, who are supposed to be mostly Shia. The 
Turks claim they are Turks. They are not, they are Azeris; and 
they are not Twelver Shia, they are mostly Alevis. So, the fact 
is that the situation is extremely complicated. And in this 
complicated situation, to talk in a facile manner, or even in a 
well-pondered and serious manner, the way the chairman and Dr. 
Gelb have done, is really risky.
    What I see now happening in Iraq is that we have an 
emerging equilibrium. Civil war is a terrible thing, but it 
does bring civil peace by burning out the causes and 
opportunities of civil war. Mosul is mostly quiet. Two and a 
half million people, the American presence being less than 
2,000, and Mosul is relatively quiet. You can actually visit 
Mosul. You go to Kurdistan, you take a taxi, and you go to 
Mosul.
    The Basrah area has seen relatively little violence, except 
when the al-Mahdi Militia attacks the British to generate 
publicity for themselves.
    And, of course, as the chairman has pointed out, Kurdistan 
is mostly quiet. Kurds, with all their divisions--tribal, 
linguistic, religious--are in equilibrium.
    So, what is going on? There is a civil war in the remaining 
areas where the populations haven't been sorted out yet. 
Sorting out is what civil wars do, and, when they finish, the 
civil war ends and there is civil peace. The United States had 
a civil war. England had a civil war. Even the Swiss 
Confederation had a civil war before it attained its perfect 
peace. And I believe that by interfering with the civil war, we 
are prolonging it. And by trying to direct it and decide how 
Iraqis should organize their affairs, we are intruding in 
matters that we cannot manage successfully. Therefore, I 
believe that disengagement is the right way to go. I believe 
that disengagement is also sustainable. Surge is not 
sustainable.
    A few final tactical comments. Even if we had 400,000 
troops, the canonical number, it would not make a big 
difference. What actually do soldiers do? They outpost and go 
on patrol. That is effective insofar as U.S. troops are 
successfully turned into a Mesopotamian constabulary; that is, 
that they walk along, people come out and tell them things. If 
people don't tell them things, the patrol is useless.
    As for outposting, that is useful when you know what to 
look for and you can tell the difference between local and 
foreign Arabs, between Sunni and Shia, not if you have just 
arrived and you're sitting there seeing people that you don't 
recognize and don't know.
    So, even if we had 400,000 troops in Iraq it would be hard 
to use them effectively. Intelligence is to counterinsurgency 
what firepower is to conventional war. We don't have local 
intelligence, because our soldiers are not an efficient 
constabulary. Precisely because they are very good combat 
soldiers they are not a good constabulary, they don't even 
speak the languages of Iraq.
    So you can send troops to Iraq, but you cannot tactically 
use them well. When generals say, ``We don't need more troops 
in Iraq,'' it is not that they were patsies playing along with 
the administration policy at the time. They did not want more 
troops because they could not employ them usefully--you cannot 
patrol without intelligence. And, unfortunately, Central 
Intelligence doesn't provide it.
    We have raiding forces in Iraq which could be tremendously 
effective. They are hardly ever used, because to make a raid, 
you need intelligence, and we don't have the intelligence. That 
is why even if you knew nothing of the politics or the strategy 
or the theater strategy, purely at the tactical level you would 
say, ``Don't send me more troops. Reduce them.''
    Thank you very much.
    [The prepared statement of Dr. Luttwak follows:]

Prepared Statement of Dr. Edward N. Luttwak, Senior Fellow, Center for 
          Strategic and International Studies, Washington, DC

    Given all that has happened in Iraq to date, the best strategy for 
the United States is disengagement. This would call for the careful 
planning and scheduling of the withdrawal of American forces from much 
of the country--while making due provisions for sharp punitive strikes 
against any attempts to harass the withdrawing forces. But it would 
primarily require an intense diplomatic effort, to prepare and conduct 
parallel negotiations with several parties inside Iraq and out. All 
have much to lose or gain depending on exactly how the American 
withdrawal is carried out, and this gives Washington a great deal of 
leverage that should be used to advance American interests.
    The United States cannot threaten to unleash anarchy in Iraq in 
order to obtain concessions from others, nor can it make transparently 
conflicting promises about the country's future to different parties. 
But once it has declared its firm commitment to withdraw--or perhaps, 
given the widespread conviction that the United States entered Iraq to 
exploit its resources, once visible physical preparations for an 
evacuation have begun--the calculus of other parties must change. In a 
reversal
of the usual sequence, the American hand will be strengthened by 
withdrawal, and Washington may well be able to lay the groundwork for a 
reasonably stable Iraq. Nevertheless, if key Iraqi factions or Iraq's 
neighbors are too short-sighted or blinded by resentment to cooperate 
in their own best interests, the withdrawal should still proceed, with 
the United States making such favorable or unfavorable arrangements for 
each party as will most enhance the future credibility of American 
diplomacy.
    The United States has now abridged its vastly ambitious project of 
creating a veritable Iraqi democracy to pursue the much more realistic 
aim of conducting some sort of general election. In the meantime, 
however, it has persisted in futile combat against factions that should 
be confronting one another instead. A strategy of disengagement would 
require bold, risk-taking statecraft of a high order, and much 
diplomatic competence in its execution. But it would be soundly based 
on the most fundamental of realities: Geography alone ensures all other 
parties are far more exposed to the dangers of an anarchical Iraq than 
the United States itself.

                               PRECEDENTS

    If Iraq could indeed be transformed into a successful democracy by 
a more prolonged occupation, as Germany and Japan were after 1945, then 
of course any disengagement would be a great mistake. In both of those 
countries, however, by the time of the American occupation the 
populations were already well educated and thoroughly disenthralled 
from violent ideologies, and so they eagerly collaborated with their 
occupiers to construct democratic institutions. Unfortunately, because 
of the hostile sentiments of the Iraqi population, the relevant 
precedents for Iraq are far different.
    The very word ``guerilla'' acquired its present meaning from the 
ferocious insurgency of the illiterate Spanish poor against their 
would-be liberators under the leadership of their traditional 
oppressors. On July 6, 1808, King Joseph of Spain and the Indies 
presented a draft constitution that, for the first time in the Spain's 
history, offered an independent judiciary, freedom of the press, and 
the abolition of the remaining feudal privileges of the aristocracy and 
the church. Ecclesiastical overlords still owned 3,148 towns and 
villages, which were inhabited by some of Europe's most wretched 
tenants. Yet the Spanish peasantry did not rise to demand the immediate 
implementation of the new constitution. Instead, they obeyed the 
priests who summoned them to fight against the ungodly innovations of 
the foreign invader, for Joseph was the brother of Napoleon Bonaparte, 
placed on the Spanish throne by French troops. That was all that 
mattered for most Spaniards--not what was proposed, but by whom.
    Actually, by then the French should have known better. In 1799 the 
same thing had happened in Naples, whose liberals, supported by the 
French, were massacred by the very peasants and plebeians they wanted 
to emancipate, mustered into a militia of the ``Holy Faith'' by 
Cardinal Fabrizio Ruffo, coincidentally scion of Calabria's largest 
land-owning family. Ruffo easily persuaded his followers that all 
promises of merely material betterment were irrelevant, because the 
real aim of the French and the liberals was to destroy the Catholic 
religion in the service of Satan. Spain's clergy repeated Ruffo's feat, 
and their illiterate followers could not know that the very first 
clause of Joseph's draft constitution had declared the Roman Apostolic 
Catholic Church the only one allowed in Spain.
    The same dynamic is playing itself out in Iraq now, down to the 
ineffectual enshrinement of Islam in the draft constitution and the 
emergence of truculent clerical warlords. Since the invasion in 2003, 
both Shiite and Sunni clerics have been repeating over and over again 
that the Americans and their mostly ``Christian'' allies are in Iraq to 
destroy Islam in its cultural heartland as well as to steal the 
country's oil. The clerics dismiss all talk of democracy and human 
rights by the invaders as mere hypocrisy--except for women's rights, 
which are promoted in earnest, the clerics say, to induce Iraqi 
daughters and wives to dishonor their families by aping the shameless 
disobedience of Western women.
    The vast majority of Iraqis, assiduous mosque-goers and 
semiliterate at best, naturally believe their religious leaders. The 
alternative would be to believe what for them is entirely 
incomprehensible--that foreigners have been unselfishly expending their 
own blood and treasure to help them. As opinion polls and countless 
incidents demonstrate, accordingly, Americans and their allies are 
widely hated as the worst of invaders, out to rob Muslim Iraqis not 
only of their territory and oil, but also of their religion and even 
their family honor.
    The most direct and visible effects of these sentiments are the 
deadly attacks against the occupiers and their Iraqi auxiliaries, the 
aiding and abetting of such attacks, and their gleeful celebration by 
impromptu crowds of spectators. When the victims are members of the 
Iraqi police or National Guard, as is often the case these days, 
bystanders, family members, and local clerics routinely accuse the 
Americans of being the attackers--usually by missile strikes that 
cleverly simulate car bombs. As to why the Americans would want to kill 
Iraqis they are themselves recruiting, training, and paying, no 
explanation is offered, because no obligation is felt to unravel each 
and every subplot of the dark Christian conspiracy against Iraq, the 
Arab world, and Islam.
    But it is the indirect effects of the insurgency that end whatever 
hopes of genuine democratization may still linger. The mass instruction 
of Germans and Japanese into the norms and modes of democratic 
governance, already much facilitated by preexisting if imperfect 
democratic institutions, was advanced by mass media of all kinds as 
well as by countless educational efforts. The work was done by local 
teachers, preachers, journalists, and publicists who adopted as their 
own the democratic values proclaimed by the occupiers. But the locals 
were recruited, instructed, motivated, and guided by occupation 
political officers, whose own cultural understanding was enhanced by 
much communing with ordinary Germans and Japanese.
    In Iraq, none of this has occurred. An already difficult task has 
been made altogether impossible by the refusal of Iraqi teachers, 
journalists, and publicists--let alone preachers to be instructed and 
instruct others in democratic ways. In any case, unlike Germany or 
Japan after 1945, Iraq after 2003 never became secure enough for 
occupation personnel to operate effectively, let alone carry out mass 
political education in every city and town as was done in Germany and 
Japan.

                       NO DEMOCRATS, NO DEMOCRACY

    Of course, many Iraqis would deny the need for any such 
instruction, viewing democracy as a simple affair that any child can 
understand. That is certainly the opinion of the spokesmen of Grand 
Ayatollah Sistani, for example. They have insistently advocated early 
elections in Iraq, brushing aside the need for procedural and 
substantive preparations as basic as the compilation of voter rolls, 
and seeing no need at all to allow time for the gathering of consensus 
by structured political parties. However moderate he may ostensibly be, 
the pronouncements attributed to Sistani reveal a confusion between 
democracy and the dictatorial rule of the majority, for they imply that 
whoever wins 50.01 percent of the vote should have all of the 
government's power. That much became clear when Sistani's spokesmen 
vehemently rejected Kurdish demands for constitutional guarantees of 
minority rights. Shiite majority rule could thus end up being as 
undemocratic as the traditional Sunni-Arab ascendancy.
    The plain fact is that there are not enough aspiring democrats in 
Iraq to sustain democratic institutions. The Shiite majority includes 
cosmopolitan figures but by far its greater part has expressed in every 
possible way a strong preference for clerical leadership. The clerics, 
in turn, reject any elected assembly that would be free to legislate 
without their supervision, and could thus legalize, for example, the 
drinking of alcohol or the freedom to change one's religion. The Sunni-
Arab minority has dominated Iraq from the time it was formed into a 
state and its leaders have consistently rejected democracy in principle 
for they refuse to accept a subordinate status. As for the Kurds, they 
have administered their separate de facto autonomies with considerable 
success, but it is significant that they have not even attempted to 
hold elections for themselves, preferring clan and tribal loyalties to 
the individualism of representative democracy.
    Accordingly, while elections of some kind can still be held on 
schedule, they are unlikely to be followed by the emergence of a 
functioning representative assembly, let alone an effective cohesive 
government of democratic temper. It follows that the United States has 
been depleting its military strength, diplomatic leverage and treasure 
in Iraq to pursue a worthy but unrealistic aim.
    Yet Iraq cannot simply be evacuated, abandoning its occupation-
sponsored government even if legitimized by elections, to face 
emboldened Baath loyalists and plain Sunni-Arab revanchists with their 
many armed groups, local and foreign Islamists with their terrorist 
skills, and whatever Shia militias are left out of the government. In 
such a contest, the government, with its newly raised security forces 
of doubtful loyalty, is unlikely to prevail. Nor are the victors likely 
to peacefully divide the country among themselves, so that civil war of 
one kind or another would almost certainly follow. An anarchical Iraq 
would both threaten the stability of neighboring countries and offer 
opportunities for their interference--which might even escalate to the 
point of outright invasions by Iran or Turkey or both, initiating new 
cycles of resistance, repression, and violence.

                          HOW TO AVOID A ROUT

    The probable consequences of an abandonment of Iraq are so bleak 
that few are willing to contemplate them. That is a mistake, however; 
it is precisely because unpredictable mayhem is so predictable that the 
United States might be able to disengage from Iraq at little cost, or 
even perhaps advantageously.
    To see how disengagement from Iraq might be achieved with few 
adverse effects, or even turned into something of a success, it is 
useful to approach its undoubted complications by first considering the 
much simpler case of a plain military retreat. A retreat is notoriously 
the most difficult of military operations to pull off successfully. At 
worst, it can degenerate into a disastrous rout. But a well-calculated 
retreat can not only extricate a force from a difficult situation, but 
in doing so actually turn the tide of battle by luring the enemy beyond 
the limits of its strength until it is overstretched, unbalanced, and 
ripe for defeat. In Iraq the United States faces no single enemy army 
it can exhaust in this way, but rather a number of different enemies 
whose mutual hostility now lies dormant but could be catalyzed by a 
well-crafted disengagement.
    Because Iraq is under foreign occupation, nationalist, and pan-Arab 
sentiments currently prevail over denominational identities, inducing 
Sunni and Shiite Arabs to unite against the invaders. And so long as 
Iraqis of all kinds believe that the United States has no intention of 
withdrawing, they can attack American forces to express their 
nationalism or Islamism without calculating the consequences for 
themselves of a post-American Iraq. That is why Muqtada al-Sadr's 
Shiite militia felt free to attack the U.S. troops that, elsewhere, 
were fighting Sunnis bent on restoring their ancestral supremacy, and 
why the action was applauded by the clerics and Shiite population at 
large. Yet if faced by the prospect of an imminent American withdrawal, 
Shiite clerics and their followers would have to confront the equally 
imminent threat of the Baath loyalist and Sunni fighters--the only 
Iraqis with recent combat experience, and the least likely to accept 
Shiite clerical rule.
    That is why, by moving to withdraw, the United States could secure 
what the occupation has never had, namely the active support of its 
greatest beneficiaries, the Shiite clerics and population at large. 
What Washington needs from them is a total cessation of violence 
against the coalition throughout Iraq, full cooperation with the 
interim government in the conduct of elections, and the suspension of 
all forms of support for other resisters. Given that there is already 
some acquiescence and even cooperation, this would not require a full 
reversal in Shiite attitudes.

                             THE NEIGHBORS

    Iran, for its part, has much to fear from anarchy in Iraq, which 
would offer it more dangers than opportunities. At present, because the 
Iranians think the United States is determined to remain in Iraq no 
matter what, the hard-liners in Iran's Government feel free to pursue 
their anti-American vendetta by political subversion, by arming and 
training al-Sadr's militia, and by encouraging the Syrians to favor the 
infiltration of Islamist terrorists into Iraq.
    Yet anarchy in Iraq would threaten not merely Iran's stability but 
also its territorial integrity. Minorities account for more than half 
the population, yet the Government of Iran is not pluralist at all. It 
functions as an exclusively Persian empire that suppresses all other 
ethnic identities and imposes the exclusive use of Farsi in public 
education, thus condemning all others to illiteracy in their mother 
tongues. Moreover, not only the Bahai but also more combative heterodox 
Muslims are now persecuted. Except for some Kurds and Azeris, no 
minority is actively rebellious as yet, but chaos in Iraq could 
energize communal loyalties in Iran--certainly of the Kurds and Arabs. 
An anarchical Iraq would offer bases for Iranian dissidents and exiles, 
at a time when the theocratic regime is certainly weaker than it once 
was; its political support has measurably waned, its revolutionary and 
religious authority is now a distant memory, and its continued hold on 
power depends increasingly on naked force--and it knows it.
    Once the United States commits to a disengagement from Iraq, 
therefore, a suitably discreet dialog with Iranian rulers should be 
quite productive. Washington would not need to demand much from the 
Iranians: Only the end of subversion, arms trafficking, hostile 
propaganda, and Hezbollah infiltration in Iraq. Ever since the 1979 
revolution, the United States has often wished for restraint from the 
theocratic rulers of Iran, but has generally lacked the means to obtain 
it. Even the simultaneous presence of U.S. combat forces on both the 
eastern and western frontiers of Iran has had little impact on the 
actual conduct of the regime, which usually diverges from its more 
moderate declared policies. But what the entry of troops could not 
achieve, a withdrawal might, for it would expose the inherent 
vulnerability to dissidents of an increasingly isolated regime.
    As an ally of longstanding, Turkey is in a wholly different 
category. It has helped the occupation in important ways--after 
hindering the initial invasion--but it has done less than it might have 
done. The reason is that Turkish policy on Iraq has focused to an 
inordinate extent on the enhancement of the country's Turkmen minority, 
driven not by a dubious ethnic solidarity (they are Azeris, not Turks) 
but by a desire to weaken the Iraqi Kurds. The Iraqi Turkmen are 
concentrated in and around the city of Kirkuk, possession of which 
secures control of a good part of Iraq's oil-production capacity. By 
providing military aid to the Turkmen, the Turkish Government is, 
therefore, assisting the anti-Kurdish coalition in Kirkuk, which 
includes Sunnis actively fighting Americans. This amounts to indirect 
action against the United States at one remove. There is no valid 
justification for such activities, which have increased communal 
violence and facilitated the sabotage of oil installations.
    Like others, the Turkish Government must have calculated that with 
the United States committed to the occupation, the added burden placed 
on Iraq's stability by their support of the Turkmen would make no 
difference. With disengagement, however, a negotiation could and should 
begin to see what favors might be exchanged between Ankara and 
Washington in order to ensure that the American withdrawal benefits 
Turkish interests while Turks stop making trouble in Iraqi Kurdistan.

                     WITH FRIENDS LIKE THESE . . .

    Even Kuwait, whose very existence depends on American military 
power, now does very little to help the occupation and the interim 
Iraqi Government. The Kuwaiti Red Crescent Society has sent the odd 
truck loads of food into Iraq, and a gift of some $60 million has been 
announced, though not necessarily delivered it. Given Kuwait's 
exceptionally high oil revenues, however, not to mention the large 
revenues of Kuwaiti subcontractors working under Pentagon logistics 
contracts, this is less than paltry. The serious amounts of aid that 
Kuwait could well afford would allow the interim government to extend 
its authority, and help the post-election government to resolve 
differences and withstand the attacks destined to come against it. In 
procuring such aid, it would not take much reminding that if the United 
States cannot effect a satisfactory disengagement, the Kuwaitis will be 
more than 10,000 miles closer to the ensuing anarchy than the Americans 
themselves.
    As for the Saudi regime, its relentlessly ambiguous attitude is 
exemplified by its July 2003 offer of a contingent of ``Islamic'' 
troops to help garrison Iraq. Made with much fanfare, the offer sounded 
both generous and courageous. Then it turned out that the troops in 
question were not to be Saudi at all--in other words, the Saudis were 
promising to send the troops of other, unspecified Muslim countries--
and these imaginary troops were to be sent on condition that an equal 
number of U.S. troops be withdrawn.
    In the realm of action rather than empty words, the Saudis have not 
actually tried to worsen American difficulties in Iraq, but they have 
not been especially helpful either. As with Kuwait, their exploding oil 
revenues could underwrite substantial gifts to the Iraqi Government, 
both before and after the elections. But Riyadh could do even more. All 
evidence indicates that Saudi volunteers have been infiltrating into 
Iraq in greater numbers than any other nationality. They join the other 
Islamists whose attacks kill many Iraqis and some Americans. The Saudis 
share a long border with Iraq along which there are few and rather 
languid patrols, rare control posts, and no aerial surveillance, even 
though it could be readily provided. And the Saudis could try to limit 
the flow of money to the Islamists from Saudi Jihad enthusiasts, and do 
more to discourage the religious decrees that sanction the sanctity 
killing of Americans in Iraq.
    As it is, the Saudi authorities are doing none of this. Yet an 
anarchical Iraq would endanger the Saudi regime's already fragile 
security, not least by providing their opponents all the bases they 
need and offering Iran a tempting playground for expansion. Here too, 
therefore, hardheaded negotiations about the modalities of an American 
withdrawal would seem to hold out possibilities for significant 
improvements.
    The Syrian regime, finally, could also be engaged in a dialog, one 
in which the United States presents two scenarios. The first is a well-
prepared disengagement conducted with much support from inside and 
outside Iraq, that leaves it with a functioning government.
    The second is all of the above reinforced by punitive action 
against Syria if it sabotages the disengagement--much easier to do once 
American forces are no longer tied down in Iraq. For all its anti-
American bluster, the Syrian regime is unlikely to risk confrontation, 
especially when so little is asked of it: A closure of the Syrian-Iraqi 
border to extremists, and the end of Hezbollah activities in Iraq, 
funded by Iran but authorized by Syria.
    Of all Iraq's neighbors only Jordan has been straightforwardly 
cooperative, incidentally without compromising any of its own sovereign 
interests.

                  THE ULTIMATE LOGIC OF DISENGAGEMENT

    Even if the negotiations here advocated fail to yield all they 
might, indeed even if they yield not much at all, the disengagement 
should still occur--and not only to keep faith with the initial 
commitment to withdraw--the United States cannot play diplomatic parlor 
games. Given the bitter Muslim hostility to the presence of American 
troops--labeled ``Christian Crusaders'' by the preachers--its 
continuation can only undermine the legitimacy of any American-
supported Iraqi Government. With Iraq more like Spain in 1808 than 
Germany or Japan after 1945, any democracy left behind is bound to be 
more veneer than substance in any case. Its chances of survival will be 
much higher if pan-Arab nationalists, Islamists, and foreign meddlers 
are neutralized by diplomacy and disengagement. The alternative of a 
continuing garrison would only evoke continuing hostility to both 
Americans and any Iraqi democrats. Once American soldiers leave Iraqi 
cities, towns, and villages, some might remain awhile in remote desert 
bases to fight off full-scale military attacks against the government 
but even this might incite opposition, as happened in Saudi Arabia.
    A strategy of disengagement would require much skill in conducting 
parallel negotiations. But its risks are actually lower than the 
alternative of an indefinite occupation, and its benefits might 
surprise us. An anarchical Iraq is a far greater danger to those in or 
near it than to the United States. It is the time to collect on that 
difference.

    The Chairman. Thank you very much.
    Dr. Korb.

 STATEMENT OF HON. LAWRENCE J. KORB, SENIOR FELLOW, CENTER FOR 
               AMERICAN PROGRESS, WASHINGTON, DC

    Dr. Korb. Mr. Chairman, Senator Lugar, thank you very much 
for inviting me here today to talk about where we should go in 
Iraq. And I commend the committee for holding these hearings. I 
can't think of a more critical issue facing this country and 
the world.
    Let me begin by saying that, given why we went in, the 
reasons that we were given, which turned out not to be true, 
and the way in which we've conducted the occupation, there are 
no good options. No matter what we propose--and my 
distinguished colleagues here have proposed various things--no 
one can guarantee that the outcome will be what we want. 
Therefore, I think it's important to keep in mind that what we 
have to do is select an option that gives us the best chance of 
protecting overall American security interests.
    And I would argue, as I do in my prepared statement, that 
surging militarily for the third time in a year is the wrong 
way to go, we should surge diplomatically. I put myself--I 
support the comments that were made to you last week about a 
further--a military surge, by Generals Hoar and McCaffrey, that 
it's too little, too late, and a fool's errand, because what it 
would mean, in my view, is merely repeating a failed strategy.
    We've seen that when that, when we've surged twice in the 
last 6 months, the violence and death of Americans and Iraqis 
has increased dramatically. An increased surge would only 
create more targets, put more American lives at risk, increase 
Iraqi dependence on the United States, further undermine the 
precarious readiness of our ground forces, and, if we send all 
the troops that are supposed to go, we will have no Strategic 
Reserve left in the United States, and this will be contrary, 
not only to the wishes of our commanders on the scene in Iraq--
and to the American people and to the Iraqi people. Keep in 
mind that more than 70 percent of the Iraqis think we're 
causing the violence; they want us out within a year, and, more 
ominously, 60 percent think it's OK to kill Americans. Rather 
than escalating militarily, the United States should 
strategically redeploy all American forces from Iraq over the 
next 18 months, and we should not keep any permanent bases.
    I first put forth this proposal in September 2005 with my 
colleague at the center, Brian Katulis. Since then, it has been 
completely mischaracterized. People have called it ``cut and 
run,'' they've talked about that it would undermine U.S. 
security, they've called it ``retreat.'' When you use military 
force, it must enhance the security of the United States. And 
if we do not strategically redeploy our forces from Iraq over 
the next 18 months, our security is going to be undermined. We 
need more troops in Afghanistan. If, in fact, you send these 
21,500 more to Iraq, you simply cannot put more troops in 
Afghanistan without really causing unfair burdens on our 
existing ground forces.
    I commend the President for finally agreeing to increase 
the size of our ground forces, but this is something that 
should have been done several years ago.
    If, in fact, we do redeploy our forces, this will also 
allow us to bring our National Guard forces home here to focus 
on homeland defense, which is a critical security mission.
    If, by strategically redeploying, we can gain control over 
our own security interests--in many ways we have put our 
security in the hands of the Iraqis by saying, ``We will stand 
down when you stand up,'' and, in my view, it's the only real 
leverage that the United States has to get the Iraqis to make 
the painful political compromises necessary to begin the 
reconciliation process. As has been mentioned here, these 
compromises involve balancing the roles of the central and 
provincial governments, distribution of oil revenues, 
protecting minority rights. Until that process is completed, 
the United States can put a soldier or a marine on every street 
corner in Baghdad, and it would not make a real difference.
    I would remind the committee that when President Reagan, 
the President I had the privilege of serving, left from 
Lebanon, we did not leave the area. We maintained our interest 
in the Middle East. And our strategic redeployment plan would 
do the same. We're not going to leave the region. We can keep 
forces in Kuwait. We can put a Marine expeditionary force in a 
carrier battle group in the gulf.
    Let me explain to you how I think this would work. And it 
has worked.
    When Zarqawi was killed, the intelligence came to the 
Iraqis, the Iraqis told us, and we sent in combat aircraft to 
attack them. We could still do that. If, after we leave, Iraq 
should become a haven for al-Qaeda, or a country like Iran 
should decide to invade, we would be able to deal with that 
situation.
    Now, the diplomatic surge that we urge would involve 
appointing an individual with the stature of former Secretary 
of State Colin Powell or Madeleine Albright as a special envoy. 
This individual would be charged with getting all six of Iraq's 
neighbors--Iran, Turkey, Syria, Jordan, Saudi Arabia, and 
Kuwait--involved more constructively in stabilizing Iraq. It's 
important to note that all of these countries are already 
involved, in a bilateral self-interested and disorganized way. 
And, in addition, this distinguished envoy should convene a 
Dayton-style conference to get all of the factions in Iraq, as 
well as all the countries in the region, together.
    Now, a lot of people will argue: Why would countries like 
Iran and Syria, whose interests are not identical to ours, want 
to get involved in such a conference? Remember that, after we 
leave, and if we set a date, date certain, they do not want 
Iraq to become a failed state or a humanitarian catastrophe 
that would involve sending millions of refugees into their 
country or a haven for terrorists--remember that if Iraq should 
become, as some people argue, that--when we leave, a haven for 
groups like al-Qaeda, this would not be in the interest of a 
country like Iran. And remember that the Iranians have been 
very helpful to us in Afghanistan, not because their interests 
are--they want to help us, but because they do not want to see 
the Taliban come back to power. The Iranians have given close 
to $300 million in aid to the Karzai government. They're 
building roads and highways. They furnished us intelligence 
when we went in there. They were helpful in Iraq, according to 
Secretary Gates, until early 2004. So, the idea that somehow 
they would not be helpful, to me, is simply mistaken.
    We--I would expect this high-profile envoy to also address 
the Israeli-Palestinian conflict, the role of Hezbollah in 
Syria and Lebanon, and Iran's rising influence in the region. 
Now, this--the aim would not necessarily be to solve all these 
problems immediately, but prevent them from getting worse, and, 
most importantly, to show the Arab and the Muslim world that we 
share their concerns about the problem in the region.
    Now, let me be very specific here. I think we have to take, 
with a grain of salt, the advice of those inside and outside 
the government arguing for further military escalation, not 
only because it's the wrong strategy, but because most of those 
people urging this military surge are the same people who got 
us into the quagmire in the first place. They told us the war 
would be a cakewalk, we'd be greeted as liberators, we could 
rebuild Iraq at a cost of $1.5 billion, and we could reduce our 
military strength to 30,000 by the end of 2003.
    I think we should also take, with a grain of salt, what the 
administration is saying to us. The President assured us, as 
recently as October, that we were winning. And if you look at 
his State of the Union Address a year ago tonight, when he 
talked about how good the Iraqi security forces were, how Iraq 
was close to democracy, how, in fact, our policy would allow us 
to withdraw, because the Iraqi security forces were getting so 
well. And this idea that somehow things began to go downhill 
with the bombing of Samarra last February--simply not true. 
Things were going downhill in 2005. The Shiite death squads 
were already exacting revenge on the Sunnis.
    Now, let me conclude by saying that this committee and this 
Congress has a responsibility to the American people to take a 
greater role in shaping our Iraq policy. And although we all 
understand that you must provide the funding for the troops 
already in Iraq, there are things that you can do to assert 
control over the policy.
    For example, you can make it very clear that if the 
administration wants to mobilize Guard and Reserve units again 
that have already been, that they must come back to the 
Congress. The law allows them to mobilize them for up to 2 
years, as long as it's not consecutive. But this idea of 
sending them back for a couple of days and bringing them back 
seems to me contrary to the desires of the people who wrote the 
law and also would allow, again, the administration to get 
around whatever controls you put on the number of active 
forces.
    I think that you should require a new NIE, as you have 
asked for, that talks about whether Iraq is in a civil war, a 
recertification by the President that the war in Iraq does not 
undermine the war on terror. Remember that this was in the 
authorization that was passed, back in 2002, allowing the 
President to go to war.
    And finally, that you should base funding and assistance on 
Iraqi performance.
    Let me conclude by saying that one more military escalation 
in Iraq offers little hope for stabilizing the country, risks 
doing permanent damage to our U.S. ground forces, and could 
undermine U.S. efforts to defeat what the President called the 
``global terrorist networks'' that were responsible for 
attacking us on 9/11. The only responsible path forward is a 
new forceful integrated strategy that marshals the right assets 
for the challenges the United States faces not only in Iraq, 
but the Middle East and around the world.
    Thank you.
    [The prepared statement of Dr. Korb follows:]

Prepared Statement of Hon. Lawrence J. Korb, Senior Fellow, Center for 
  American Progress, Senior Advisor, Center for Defense Information, 
                             Washington, DC

    Chairman Biden, Senator Lugar, and members of the Senate Foreign 
Relations Committee, I appreciate the opportunity to appear before you 
to discuss the war in Iraq. I cannot think of a more critical issue 
facing the Nation at this time.
    It is important to note right upfront that, because of numerous 
mistakes made during the last 46 months, no good options now exist. As 
the Iraq Study Group (ISG) report noted, the situation in Iraq is 
``grave and deteriorating,'' and no one can guarantee that any course 
of action in Iraq at this point will stop the sectarian warfare, the 
growing violence, or the ongoing slide toward chaos. Inaction is drift, 
and sticking with the ``current strategy'' is not an acceptable option.
    In 2003, the Bush administration made a fundamental strategic 
mistake in diverting resources to an unnecessary war of choice in Iraq 
and leaving the mission unaccomplished in Afghanistan. This error has 
allowed the Taliban to reconstitute in Afghanistan, weakened the 
position of the United States in the world, and undermined the fighting 
strength of U.S. ground forces. It also diverted critical U.S. 
resources from effectively addressing the Iranian nuclear threat, the 
Israeli-Palestinian conflict, and the situation in Lebanon.
    Today, the United States once again finds itself at a strategic 
crossroads. This time, however, there are at least nine key lessons of 
the past 4 years of failure that make choosing the right path forward 
abundantly clear. These nine lessons point to the obvious--it is time 
to strategically redeploy our military forces from Iraq and begin a 
diplomatic surge not a further military escalation as the President has 
proposed.

    1. The fundamental security challenge in Iraq is a violent struggle 
for power among empowered Shiites, embittered Sunnis, and secessionist 
Kurds.

    The United States cannot solve Iraq's problems militarily. No 
matter how long the United States stays or how many troops are sent, 
Iraq will never become a stable, peaceful state unless the Iraqis 
themselves make the painful political compromises necessary to create a 
new Iraq. These compromises are hard because they involve balancing the 
power of the provincial and central governments, sharing oil revenues, 
and protecting minority rights. Only when the reconciliation process is 
complete will the Iraqis be willing to disband their militias and cease 
their support for the insurgency. Until then, American forces, 
augmented or not, can no longer stop the civil war.
    More than a year after its most recent national election, during 
which time the United States has lost the equivalent of 13 battalions 
killed or wounded soldiers and marines, Iraq's leaders remain 
internally divided over critical issues of political and economic 
sharing. The national unity government has not achieved sufficient 
progress on addressing the key questions that drive Iraq's violence. A 
fundamental challenge in today's Iraq is that too many Iraqi political 
leaders are hedging their bets: They halfheartedly support the national 
government while simultaneously maintaining their independent power 
bases through ties to militias and other groups based on sect or 
ethnicity.
    War is the most extreme form of politics. Since Iraq's current 
government is neither taking control of the chaos swirling around it, 
nor settling disputes over key issues that might bring an end to the 
sectarian bloodbath, more and more Iraqis are turning to violence.
    Resolving Iraq's civil war requires a new political strategy, such 
as a Dayton style peace conference supported by the international 
community and Iraq's neighbors. In 1995 it would have been impossible 
for the United States and its allies to bring peace to Bosnia without 
engaging Serbia and Croatia, the two states responsible for the civil 
war in that country.
    As Generals Abizaid and Casey, the commanders conducting the war, 
and the majority of Iraq's elected leaders agree, additional military 
escalation, as proposed by the President, runs a high risk of only 
inflaming Iraq's violence and increasing American casualties and Iraqi 
dependence on the United States.

    2. The open-ended U.S. combat deployment fosters a culture of 
dependency in Iraq.

    Iraqi leaders will have no incentive to undertake these painful 
steps unless the United States and the international community apply 
significant pressure on Iraq's leaders. The best way to press Iraq's 
leaders is to set a plan that aims to complete the U.S. military 
mission by a certain date, thereby creating incentives for Iraq's 
leaders to settle their disputes and assume greater control of the 
country. Given our moral obligation to the Iraqis and the practical 
considerations involved in redeploying about 150,000 troops, a 
reasonable target date for completing the U.S. combat mission should be 
18 months from now, or the summer of 2008. If the Iraqis do not make 
these difficult choices over the next 18 months, they will have to live 
with the consequences. It would then be their problem, not just ours.
    In the weeks before his dismissal, even former Secretary of Defense 
Rumsfeld, a fervent supporter of staying the course and only standing 
down when the Iraqis stand up, and a key figure responsible for the 
Iraq quagmire, finally admitted that last October, ``The biggest 
mistake would be not to pass things over to the Iraqis. It's their 
country. They are going to have to govern it, they're going to have to 
provide security for it, and they're going to have to do it sooner 
rather than later.''
    Further military escalation, or a so-called ``surge'' or 
augmentation of additional U.S. troops, would only continue to prevent 
Iraqis from taking greater responsibility and settling their disputes.

    3. Iraq's neighbors are already involved in Iraq and must be part 
of the solution.

    Iraq's six neighbors--Iran, Turkey, Syria, Jordan, Saudi Arabia, 
and Kuwait are already involved in some fashion in Iraq. This 
involvement is bilateral, self-interested, disorganized, and not 
channeled toward a constructive purpose that benefits the common good 
of all Iraqis, in large part because of the internal divisions among 
Iraqis on full display in the daily violence in Iraq's streets. 
Moreover, the spillover effects of Iraq's civil war on the region have 
been growing throughout 2006 and into 2007, with Jordan, Lebanon, and 
Syria receiving about 2 million Iraqis fleeing the violence. Leaders 
throughout the region, not only on Iraq's borders, fear the ripple 
effects of the chaos on their immediate horizons.
    To end Iraq's civil war, the country's neighbors need to be 
involved more constructively. These countries have an incentive to 
participate, and one way to increase those incentives is to send a 
clear signal that the United States is setting a target date for 
completing its military mission in Iraq and will not maintain any 
permanent bases in Iraq. None of the countries in the region including 
Iran, want to see an Iraq that becomes a failed state or a humanitarian 
catastrophe that would lead to it becoming a haven for terrorist groups 
like al-Qaeda or sending millions of more refugees streaming into their 
countries.
    Even U.S. adversaries such as Syria and Iran will have to alter 
their policies once the United States begins to redeploy its military 
forces from Iraq. Both countries recognize that, with the United States 
mired in the Iraq quagmire, it has reduced its ability to confront 
Damascus and Tehran. These countries will continue to have every 
incentive to work together to keep U.S. forces bleeding as long as we 
keep increasing our forces.
    Moreover, despite the fact that Syria and Iran do have different 
agendas than the United States and are contributing to the problems in 
Iraq, both of these nations have demonstrated a willingness to act in 
their own self-interest even if the United States is also a 
beneficiary. For example, in the 1991 Persian Gulf War, the Syrians 
contributed troops to the American-led coalition that evicted Iraq from 
Kuwait. In 2001, the Iranians worked with us by providing extensive 
assistance on intelligence, logistics, diplomacy, and Afghan internal 
politics that helped to oust the Taliban from Afghanistan. The Iranians 
also developed roads and power projects and dispersed more than $300 
million of the $560 million it pledged to help the Karzai government. 
Moreover, in 2003, the Iranians sent Washington a detailed proposal for 
comprehensive negotiations to resolve bilateral differences and 
according to Secretary Gates were helpful in Iraq as recently as 2004.
    The administration's refusal to deal with Syria and Iran, without 
preconditions, not only harms U.S. strategic interests in the Middle 
East--it is deadly. To refuse to talk to Syria and Iran, unless they 
change their foreign policies, means that many Americans will die 
needlessly. This lack of confidence in the U.S. ability to assert its 
interests diplomatically only further weakens the U.S. position in the 
Middle East.
    As 2007 begins, the absence of a new diplomatic and political 
strategy is a missing link in getting Iraq's neighbors to play a more 
constructive role.

    4. The United States must deploy its full diplomatic weight to 
address the problems in Iraq and the Middle East.

    A new political and diplomatic surge is necessary to address Iraq's 
civil war and the growing instability in the Middle East. So far, the 
United States has not deployed all of the assets in its arsenal to 
address the growing strategic challenges in the Middle East. It is 
still relying too much on its military power rather than integrating 
its military component with the diplomatic component.
    Sporadic trips to the region by Secretary of State Rice are 
necessary but not sufficient. The Bush administration should send a 
signal of its seriousness by appointing an individual with the stature 
such as that of former Secretaries of State Colin Powell or Madeleine 
Albright as special Middle East envoys. Former Presidents Bill Clinton 
and George Bush have advanced U.S. interests and improved the U.S. 
standing in the world by addressing the aftermath of the 2004 Asian 
tsunami. Individuals like Colin Powell and Madeleine Albright can help 
the United States address the geostrategic tsunami that has been 
unfolding in Iraq and the Middle East during the past 4 years.
    As special envoys, the former secretaries could spearhead a new, 
forceful diplomatic offensive aimed at achieving peace in Iraq and 
making progress on other key fronts in the Middle East, including 
efforts to address the Israeli-Palestinian conflict, the role of 
Hezbollah and Syria in Lebanon, Iran's rising influence in the region, 
and the concerns that many traditional allies, such as Jordan and Saudi 
Arabia, have about the shifting dynamics in the region.
    This diplomatic surge must also focus on getting support and 
assistance from other global powers like European countries to provide 
more political and economic support in Iraq than they have over the 
last 4 years. U.S. diplomats must make clear to the world that no 
nation anywhere in the world can escape the consequences of continued 
chaos in the Middle East.

    5. Further U.S. military escalation in Iraq will not make Iraq more 
secure.

    Doubling down on a bad hand as we have done repeatedly by sending 
more troops to Iraq will not change the outcome. Statements by 
President Bush and other top officials that the United States is ``not 
winning but not losing,'' are misleading. In asymmetrical guerilla 
warfare, the insurgents win if the occupying power does not. The 
situation in Iraq has reached a point at which even former Secretary of 
State, Henry Kissinger, a leading advocate of invading and staying the 
course, has acknowledged that military victory is no longer possible in 
Iraq.
    The additional 21,500 U.S. troops that would be sent in over the 
next 5 months represent a marginal increase in the U.S. combat presence 
in Iraq, not a decisive number. Even if the United States had the 
necessary number of men and women with the technical and language 
skills available to operate as a true stabilizing force or to embed 
with the Iraqi units--which it does not--the additional troops would 
likely be unable to significantly improve Iraq's security situation, 
certainly not without a major shift in political and diplomatic 
strategy.
    Iraq now has more than 300,000 members in its security forces which 
do not lack the necessary training to quell the violence. In fact, some 
of them have more training than the young soldiers and marines the 
United States has sent to Iraq. Iraq's security forces are not tasked 
with fighting a major conventional war against a significant military 
power. Rather, what they need to do is essentially police work, that 
is, to stop Iraqis from killing other Iraqis.
    The central problem with Iraq's security forces is not skill-
building or training. It is motivation and allegiance. Most of the 10 
divisions in the Iraqi Army are not multiethnic. They are staffed and 
led by members of their own sect. The problem is that the units are 
reluctant to take military action against members of their own groups 
who are perpetrating the violence.
    Case in point: Only two of the six Iraqi battalions ordered to 
Baghdad this fall by the Maliki government actually showed up. What 
leads us to believe that three brigades now promised will show up or 
take military action against their own sect? And what will we do if 
they fail to fulfill their promises? Moreover, many of the security 
forces have been infiltrated by the insurgents and criminals who tip 
off the enemy and that are supervised by corrupt and incompetent 
ministers who purge the most effective commanders. As a result, the 
units then often employ the weapons and tactics furnished by the United 
States against their sectarian enemies, not those of the Iraqi State.
    During the last 6 months the United States has increased, or 
``surged,'' the number of American troops in Baghdad by 12,000, yet the 
violence and deaths of Americans and Iraqis has climbed alarmingly, 
averaging 960 a week since the latest troop increase. This ``surge,'' 
known as Operation Together Forward, failed to stem the violence. This 
past October, Army MG William Caldwell IV said that the operation ``has 
not met our overall expectations of sustaining a reduction in the 
levels of violence.''
    As U.S. military commanders in Iraq have acknowledged, the United 
States could put a soldier or marine on every street corner in Baghdad 
and it would not make a difference if the Iraqis have not begun the 
reconciliation process.
    Sending more troops now will only increase the Iraqi dependence on 
us, deplete our own Strategic Reserve, force the United States to 
extend the tours of those already deployed, send back soldiers and 
marines who have not yet spent at least a year at home, and deploy 
units that are not adequately trained or equipped for the deployments. 
Colin Powell, the former Secretary of State and former Chairman of the 
Joint Chiefs, summarized the situation on December 19, 2006, when he 
said that the Active Army was just about broken and he saw nothing to 
justify an increase in troops.
    Powell's comments echo those of LTG Peter Chiarelli, the deputy 
commander of the Multi-National Corps in Iraq, who said that deploying 
more U.S. forces will not solve Iraqis problems. A further U.S. 
military escalation will not tackle these core problems and would 
likely further exacerbate the situation and make the challenges more 
difficult to address.

    6. The U.S. military escalation in Iraq will undermine the fight 
against global terrorist networks.

    The brave soldiers and marines are not fighting the violent 
extremists who supported the attacks of September 11. They are 
essentially refereeing a civil war. It is time to redeploy U.S. 
military assets where a real military surge is desperately needed, like 
Afghanistan.
    As President Reagan found out in Lebanon in the 1980s, U.S. 
military forces cannot serve as referees in a civil war. It is a no-win 
situation militarily. The United States will end up serving as little 
more than a lightening rod for the blame. According to recent measures 
of Iraqi public sentiment, more than 70 percent of the Iraqis believe 
that American troops are responsible for the violence and 60 percent 
think it is acceptable to kill Americans. A majority of Iraqis want 
U.S. troops out of the country within a year.
    If Iraqi leaders veto requests by U.S. military commanders to take 
on Shiite militias as happened this fall, and if Iraqi judges are 
frequently demanding the release of captured insurgents, U.S. troops 
will continue to face an impossible situation--no matter how qualified 
and motivated they are. As Senator Gordon Smith (R-OR) recently noted, 
a policy that has U.S. soldiers and marines patrolling the same streets 
in the same way and being blown up by the same bombs day after day is 
absurd.
    The al-Qaeda insurgents are no longer the main problem in Iraq. We 
are not (if, in fact, we ever were) fighting them over there so we will 
not have to fight them here. Military intelligence estimates they make 
up less than 2 to 3 percent of those causing the chaos. Only 5 percent 
of the Iraqis support the philosophy of al-Qaeda, and once U.S. forces 
leave, the Iraqis will turn against al-Qaeda as they have in the past. 
The vast majority of the violence is caused by nearly two dozen Shiite 
militias and Sunni insurgents who are maiming and killing each other 
mainly because of religious differences that go back over a thousand 
years. Meanwhile, the real al-Qaeda problem in places like Afghanistan, 
Pakistan, and Somalia is not being addressed adequately.
    A phased strategic redeployment of U.S. troops from Iraq should 
include sending 20,000 additional troops to Afghanistan leaving an Army 
brigade in Kuwait, and a Marine Expeditionary Force and a carrier 
battle group in the Persian Gulf. This will signal to the countries in 
the region that we will continue to be involved. Moreover, this force 
will have sufficient military power to prevent Iraq from becoming a 
haven for al-Qaeda or being invaded by its neighbors. A good example of 
how this would work is illustrated by the killing of Zarqawi, the 
leader of al-Qaeda in Iraq. Iraqi citizens provided the intelligence to 
Iraqi security forces, who in turn informed us. The United States then 
sent F-16's to bomb the hideout, something that we could do after we 
implement a strategic redeployment.

    7. Many of the proponents for the proposed U.S. military escalation 
of 21,500 troops got us into the Iraq quagmire.

    The Congress and the American people should ignore the advice of 
those who got us into this mess in the first place and pay attention to 
those who cautioned us not to get involved in this misadventure, among 
them GEN Colin Powell, Vice President Al Gore, and Senator Barack 
Obama.
    Supporters of U.S. military escalation in Iraq in 2007 are among 
the same pundits and so called experts who assured the country and the 
American people that the U.S. invasion was necessary; that the war 
would be a cakewalk; that we would be greeted as liberators; that we 
could rebuild Iraq at a cost of $1.5 billion a year; that we could 
reduce our troop strength to 30,000 by the end of 2003. In addition 
many of these same experts did not speak up for General Shinseki before 
the invasion; made misleading assertions about mushroom clouds, 
yellowcake, and ersatz meetings in Prague; and told us as late as 2005 
that the situation in Iraq was positive and in 2006 that we needed a 
surge of as many as 80,000 more troops.
    Now many of these same pundits, who apparently seem to have no 
sense of shame about their previous errors, are telling us to ignore 
the bipartisan recommendations of the Iraq Study Group to begin to 
withdraw combat troops, open a regional dialog with Iran and Syria, and 
take a comprehensive diplomatic approach to the region. Instead, they 
want to throw more good money after bad, by sending more troops to 
achieve their version of victory in Iraq; i.e., a stable democratic 
Iraq that will transform the Middle East.

    8. The 110th Congress has a responsibility to the American people.

    Any new proposal must have the support of the American people and 
the international community. It is difficult, if not impossible, for 
the United States to wage a war of choice, effectively, if it does not 
have the support of the American people. After all it is they who must 
send their sons and daughters, husbands and wives into the conflict and 
spend their hard earned dollars on waging this conflict.
    The American people made it clear in the congressional elections 
and in recent public opinion polls that they do not favor further 
military escalation but want a diplomatic surge, and want us to begin 
to withdraw.
    Similarly without international support, the ability of the United 
States to get other nations to share the human and financial burden 
declines. Even our closest allies, the British, refuse to join us in 
the latest military escalation and will continue to withdraw. By May 
the British will reduce the number of their soldiers and marines from 
7,000 to 3,000. In 2003, there were more than 20,000 coalition troops 
in Iraq. Today there are less than 10,000 and all will be out by this 
summer. Even when the American people supported the initial invasion 
they did so on the condition that it be multilateral.
    The President may say that he does not have to listen to the 
American people. The Congress should not let him ignore this most 
fundamental principle of democracy.
    The President will soon submit a supplemental funding request to 
the defense budget of at least $100 billion to fund the cost of the 
wars in Iraq and Afghanistan through the end of FY 2007. This is in 
addition to the $70 billion bridge fund Congress has already provided, 
bringing the total cost of the wars for this fiscal year to $170 
billion, more than $14 billion a month, the vast majority of which is 
for Iraq.
    The 110th Congress should heed the American people and fulfill 
their obligation to protect American security by preventing a military 
escalation in Iraq. They can fulfill this obligation in several ways, 
and one vehicle will is the supplemental funding request President Bush 
will present to Congress for an additional $100-$150 billion to fund 
military operations in Iraq and Afghanistan. As a coequal branch of 
government, Congress can place conditions for funding additional 
deployments to Iraq. While Congress should not move to cut off funds 
for troops already deployed, it can exercise its constitutional powers 
to halt President Bush's proposed military escalation with amendments 
to the budget request:

    A. Require clarification on the law that allows the President to 
mobilize Guard and Reserve units for up to 2 years. Congress can 
condition funding for a military escalation on a measure that makes 
clear that the total mobilization of Guard and Reserve units beginning 
on 9/11 cannot exceed 2 years in total, even if they are not 
consecutive. This will prevent the administration from calling up Guard 
and Reserve units for a second time without congressional approval.
    B. Require a new National Intelligence Estimate on Iraq's internal 
conflict. Last summer, congressional leaders requested that the 
Director of National Intelligence prepare a National Intelligence 
Estimate that includes an assessment on whether Iraq is in a civil war. 
The 110th Congress can condition funding for a military escalation on 
receiving this updated estimate and submitting a declassified version 
to the American public.
    C. Require recertification that the war in Iraq does not undermine 
the war against global terror networks. The joint resolution of 2002, 
authorizing the use of force in Iraq, required the Bush administration 
to certify that the Iraq war would not harm the effort against 
terrorism. Congress can condition funding for a military escalation on 
a recertification that the Iraq war does not undermine the war in Iraq.
    D. Traunche funding and assistance on Iraqi performance. The 110th 
Congress can require a transparent, verifiable plan that conditions 
funding for a military escalation on the performance of Iraqi leaders 
to fulfill their commitments and responsibilities. Congress can mandate 
that the Bush administration may not obligate or expend funds unless 
periodic verification and certification is provided on key metrics for 
progress, including: (1) Steps to disband ethnic and sectarian 
militias; (2) measures to ensure that Iraqi Government brings to 
justice Iraqi security personnel who are credibly alleged to have 
committed gross violations of human rights; and (3) steps toward 
political and national reconciliation.

    9. We must change course now.

    The United States cannot wait for the next President to resolve the 
problems in Iraq. In fact, we have already waited too long. Nor should 
they heed the dictates of a President who has mislead us about this war 
for almost 4 years, most recently on October 24, 2006, when he told us 
we were winning the war, constantly reinvents history, and now has 
proposed yet another strategy for victory. We now know that the 
President knew that the situation in Iraq was deteriorating 6 months 
ago, but waited until after the election to change course. The 110th 
Congress has a special responsibility to assert its constitutional role 
and make sure that the Bush administration does not sink the country 
deeper into Iraq's civil war by escalating failure.
    A U.S. military escalation in Iraq as proposed by President Bush 
holds little hope for stabilizing the country, risks doing permanent 
damage to U.S. ground forces, and would undermine U.S. efforts to 
defeat the global terrorist networks that attacked the United States on 
9/11. Choosing this course would be, as Senator Smith notes, is absurd 
and maybe even criminal. The only responsible path forward is a new, 
forceful strategy that marshals the right assets for the challenges the 
United States faces in Iraq, in the Middle East, and around the world 
and redeploys our forces, strategically, over the next 18 months.

    The Chairman. Thank you very much.
    Mr. Malley.

  STATEMENT OF ROBERT MALLEY, DIRECTOR, MIDDLE EAST AND NORTH 
   AFRICA PROGRAM, INTERNATIONAL CRISIS GROUP, WASHINGTON, DC

    Dr. Malley. Thank you, Mr. Chairman, Senator Lugar. Thank 
you very much for having me here today.
    You've heard now, for some time, many descriptions of how 
calamitous the situation is in Iraq and in the region, and I 
don't need to expand on that. But I think what's important, 
given all that, is to cut to the chase and to be blunt and 
frank.
    It's very hard today to imagine a positive outcome to this 
war. What we do know is that mere tinkering is not going to 
lead to success. And what we do know is that only a clean 
break, a dramatic change in our approach to Iraq, to its 
government, and to the region presents a possible chance of 
getting out of this in a stable way. So, either we undertake a 
clean break or we should stop the illusion.
    If we're not prepared--if the administration is not 
prepared to undertake a clean break, of if the--our Iraqi 
allies are not prepared to undertake a clean break, we should 
stop pretending that we're in Iraq for a useful purpose, we 
should stop squandering our resources, we should stop losing 
the lives of young men and women; we should bring this tragic 
episode to a close.
    Unfortunately, the plan that President Bush put on the 
table does not meet the test of a clean break. There are some 
welcome changes, most of them overdue, but, in its underlying 
assumptions, it basically is stay-the-course-plus-20,000--its 
underlying assumptions about the Iraqi Government, about our 
role, and about the region. In other words, it's an inadequate 
answer to a disastrous situation that, at best, is going to 
delay what only a radical course correction could prevent.
    Three basic flaws that I then want to address, in terms of 
the plan that the International Crisis Group has put on the 
table.
    The first flaw is that it relies on military tools to 
resolve a political problem. A lot of people have said that, 
but I think it's worth emphasizing. This may not be a war of 
all against all in Iraq, but it certainly is a war of many 
against many, not just Sunnis, Shiites, and Kurds, but within 
the Shiite community, within the Sunni community. The 
government itself, we know, is supporting militias. We know 
they're part of the conflict. And, therefore, this is not a 
struggle in which our goal is to strengthen one side to defeat 
another, it's to see whether all sides can reach a political 
compact, or else decided this is simply not solvable at this 
time.
    The other problem with using a military tool to resolve a 
political problem is that it's a short-term answer to a long-
term issue. And we know--and we're seeing it already--that the 
militias may melt away, they may choose other places to go, 
rather than Baghdad. And so, the administration's strategy of 
``clear, build, and hold'' is no answer to the insurgents' and 
the militia strategy of ``recoil, redeploy, and spoil.''
    No. 2. To end the sectarian fighting, the President's plan 
relies on the Iraqi Government and our allies in Iraq, who are 
party to the sectarian conflict. And that's been evidenced, to 
us at least, for at least the last 2 years. It hasn't started 
only in 2006, as Larry Korb rightly pointed out. There is no 
government of national unity. We may talk about it; there is no 
such thing. It's not a partner in our efforts to stabilize 
Iraq. It hasn't been a partner in our efforts to stem the 
violence. It's one side in a growing and every-day-dirtier 
civil war.
    We need to be--impose real conditionality, real toughness, 
including on those who we brought to power--in particular on 
those that we brought to power--and we need to get them to 
adhere to a real vision for Iraq, or, again, we should get out 
of that business.
    The third problem with the President's plan is that its 
regional strategy is at war with its strategy for Iraq. If the 
priority today is to stabilize Iraq and to get out of there 
with our vital interests intact, we can't, at the same time, 
try to destabilize Iran and Syria. We have to choose what our 
goals for the region are. And right now, unfortunately, the 
President's plan has us going in two different directions at 
once. It's not as if the region has played a determining role 
in leading us to where we are, but it's hard for me to see how 
we can get out of where we are if we don't enlist the support 
and cooperation of all countries in the region.
    So, what is our proposal? The International Crisis Group, 
which I have to say is based not on simply my abstract thinking 
at all, it is--we have analysts and consultants who have been 
in Iraq nonstop since 2003. Many of them have met with members 
of your staff. They go there, they meet not only with members 
of the government, but with insurgents and militia groups. And 
what I'm saying now reflects, to the best of my ability, what 
they have said to me. And, again, what they say is that only a 
radical and dramatic policy shift, which entails a different 
distribution of power in Iraq, a different vision for the 
country, and a different set of outside pressures and 
influences exercised within Iraq, has a possibility of 
arresting the decline.
    Three--the three assumptions that the President's plan has, 
and which we disagree with, is, No. 1, we think that the Iraqi 
Government and the parties that we support are one of the 
actors in the sectarian violence and not partners in fighting 
extremists. We believe that the entire political structure that 
has been set up since 2003 has to be overhauled and not 
strengthened. And we believe that the United States must engage 
with all parties, rather than isolate those who precisely have 
the greatest capacity to sabotage what we're trying to do.
    And so, what we need is a strategy that does, for the first 
time, what has not been done since the outset, which is a 
strategy that puts real pressure on all Iraqi parties to try to 
do the right thing. It really is the last chance to see if we 
could salvage Iraq today as a state.
    It won't be done simply by dealing with the government, for 
the reasons I expressed before. And, to expand on it a little 
bit--and I think you'll hear about it more next week, or 
tomorrow, when you have testimony on the internal situation in 
Iraq--though parties, the politicians who are supporting, have 
turned out to be warlords who are lining their pockets, who are 
promoting their own interests, who are advancing their own 
personal party agendas, they've become increasingly indifferent 
to the country's interests as they prepare to strengthen their 
own position within their community, against other communities, 
and within their own communities. They're preying on state 
coffers, and they're preying on the reconstruction funds that 
our taxpayers, in particular, have been paying for.
    So far, our strategy has been to provide unconditional 
support for them, which gives them the best of both worlds. 
They can act like warlords and they could have the appearance 
of being statesmen. We have to tell them to choose. It's either 
warlord or it's statesmen, it can't be both. To achieve that, 
we propose three interrelated steps, many of which echo what 
the Iraqi Study Group has--says, many echo what Larry Korb just 
said.
    The first thing is to try, for the first time, to get all 
Iraqi stakeholders around the table and to see whether we can 
come--they could come up with a consensus plan. And that means 
not treating the government as a privileged party, but as one 
of the actors in this conference. And it means not to support 
the Iraqi Government, but to support Iraq.
    And we know the compromises that need to be made, whether 
it has to do with the distribution of resources, with 
federalism, with de-Baathification, with amnesty, with the 
rollup and integration of militias into the security forces, 
and, of course, with the timetable for the withdrawal of our 
own forces. And that has to be done, as I said, not only with 
the Iraqi Government, but with members of militias, insurgent 
groups, civil society, political parties, to the exclusion of 
the jihadist al-Qaeda group, but, other than that, erring on 
the side of inclusiveness rather than narrowness.
    How do we get to do that? The second point we need to 
emphasize is that we need, as I said earlier, regional and 
international support. We can't do this alone. And it's not a 
matter of whether the United States has become a weak party in 
the Middle East, although I would submit that we've lost a lot 
of our credibility and a lot of our leverage in the region 
because of our policies over the last few years, but it has to 
do with the fact that Iraq today has become such a fragmented 
country in which there is no central state institution and in 
which militia groups, insurgent groups, and others build on 
this--on their ties to outside actors, and outside actors can 
always, if they want to, destabilize the situation by promoting 
the agendas of any group within Iraq. So, we need the help of 
anyone in the region who is prepared to do so. The neighbors 
didn't instigate the crisis, it's hard for me to imagine that 
the crisis can be resolved without them today.
    The third point, which is essential in order to get a 
multinational strategy, is to engage with all parties in the 
region--and that means Iran and Syria, in particular--and to 
revive the Arab-Israeli peace process. It was a core 
recommendation of the Iraq Study Group. It was one of the first 
to be summarily dismissed by the President. But let me explain, 
again, why I think--and I think Larry Korb made some of those 
points--why we need to engage with Syria and Iran despite all 
the skepticism that one may have about it.
    Both of them have huge ability to spoil the situation in 
Iraq. We know that. We know that they have ties to tribal 
groups. We know that they have ties to Sunni Arabs, in the case 
of Syria; with Shiite militias, in the case of Iran; and they 
could do much worse than they've done already, and they use 
their leverage to help if they were brought to the table and 
they had that interest. And, again, if we don't bring them in, 
we know all the harm they can do.
    Why revitalize the Arab-Israeli peace process? And, Mr. 
Chairman, I know--I've read your remarks about how you don't 
believe that by resolving the Arab-Israeli conflict, it's going 
to make any bit of difference between how Sunnis and Shiites--
--
    The Chairman. No; I--just for clarification, that's not 
what I said. I said settling it----
    Dr. Malley. Yes.
    The Chairman [continuing]. Does not settle the other.
    Dr. Malley. No, no.
    The Chairman. It would positively impact, but it does not 
settle.
    Dr. Malley. OK. And I agree, I was going to say, I agree 
with that. Of course, the notion that, because Arabs and 
Israelis are going to be at peace, Sunnis and Shiites would be 
at peace, is a fantasy. I do think that if we want to have a 
strategy that gains credibility in the region, we need to 
revitalize, as I know you agree. I also think it's very 
important to revitalize the Syrian-Israeli track, both because 
Syria plays a critical role in Iraq, vis-a-vis Hamas, vis-a-vis 
Hezbollah, but because it also is quite ironic that, for the 
first time, at least in my memory, the United States is 
standing in the way of an Arab country that wants to negotiate 
with Israel.
    If--and I think this is an important part--I've put on the 
table the three components that we need. If this is not 
undertaken by the administration, or if it's undertaken and our 
Iraqi partners are not prepared to cooperate, then we should 
bring this adventure to an end. And I say that aware of the 
moral and political responsibility the United States has. We 
played a critical role, if not the determining role, in 
bringing Iraq to the situation in which it finds itself today. 
And it's a heavy responsibility to say today, ``Well, because 
the Iraqis are not behaving the way we expected them to, even 
though we're at fault, we're going to get out of this.'' But 
there is no possible justification for an open-ended commitment 
in a failing state, and there certainly is no possible 
justification to be complicit in the nefarious acts of our 
allies in Iraq.
    A word about troop levels, which has consumed a lot of the 
attention and the debate here as a result of the President's 
request for a surge. It's the wrong question at the wrong time, 
disconnected from realities. A troop surge, independent from a 
political strategy, won't make any difference. I think everyone 
today has agreed with that. Maybe it will make a marginal and 
temporary difference, but, if you don't affect the underlying 
structural dynamics--at best, the violence will resume the day 
this troop surge comes to an end; at worst, the violence will 
simply move to other places.
    If, on the other hand, a new compact can be reached, if we 
find that the Iraqi actors, all of them, are prepared to turn 
the page, then part of the dialog that they need to have with 
us is how to negotiate a troop withdrawal. I don't think the 
United States should stay there a long time, in any event, but 
we should negotiate it, we should negotiate the timetable, we 
should talk--use it as leverage to ensure that they hold their 
commitments. If, on the other hand the compact is not reached, 
or it's reached but it's not implemented, then, of course, we 
should significantly accelerate the withdrawal of our forces, 
perhaps maintaining some forces to maintain--to protect our 
vital interests, in terms of border security.
    In conclusion, I want to emphasize, again, this is really 
not only a last opportunity, it's a feeble hope. I think we 
have to be candid about it. It's a hope that's dependent on the 
fundamental shift on the part of Iraqi actors who have shown 
themselves to be mainly preoccupied with short-term gain. It's 
a hope that's dependent on the radical rupture on the part of 
an administration that's shown itself reluctant and resistant 
to pragmatic change. It's a hope that's dependent on a 
significant change in our relationship with countries in the 
region--in particular, Syria and Iran--a relationship that's 
been marked by deep distrust and strategic competition. And, 
finally, it's a hope that's dependent on involvement by 
international actors who, so far, have seemed to be more 
content staying on the sidelines.
    But it is the only hope, at this point, that would justify 
remaining in Iraq in the way we--the administration intends to 
remain. It's the only possible justification for investing our 
resources and the lives of our men and women. And it's 
certainly the only justification for not bringing this 
misbegotten, tragic adventure to a close. If we cannot do what 
I've laid out, I think it's time to end this chapter.
    Thank you.
    [The prepared statement of Dr. Malley follows:]

   Prepared Statement of Robert Malley, Middle East and North Africa 
      Program Director, International Crisis Group, Washington, DC

    Mr. Chairman, first, let me express my deep appreciation for the 
invitation to testify before the Senate Foreign Relations Committee. By 
now, you have had many days of important testimony; virtually all your 
witnesses have emphasized the gravity of the situation in both Iraq and 
the region. The United States unmistakably is at a crossroads. If it is 
poorly managed, our Nation will have to live with the consequences of 
regional instability, rising extremism and diminished American 
credibility for a long time to come.
    It is difficult, at this late stage, to imagine a positive outcome 
to this war. But to have any chance of success, mere tinkering will not 
do. What is needed today is a dramatic change in our approach toward 
both Iraq and the region, so that we seek to enlist broad international 
support for a new political compact among Iraqis, cease treating the 
Iraqi Government as a privileged partner rather than an integral party 
to the sectarian war; and engage in real diplomacy with all Iraq's 
neighbours, Iran and Syria included.
    To be clear: If the administration is not prepared to undertake 
such a paradigm shift, then our Nation has no business sending its men 
and women in harm's way. It has no business squandering its precious 
resources on a growing civil war. And it will be time to bring this 
tragic episode to a close through the orderly withdrawal of American 
troops in a manner that protects vital U.S. interests with some 
remaining to contain the civil war within Iraq's borders.
    Unfortunately, the plan announced by President Bush does not 
reflect the necessary clean break. It adheres to the same faulty 
premises that have guided its approach since the onset of the war and, 
therefore, suffers from the same fatal contradictions. In its essence 
it amounts to ``stay the course plus 20,000''--an inadequate answer to 
a disastrous situation that at most will delay what only radical course 
correction can avert. Under the best case scenario, it will postpone 
what, increasingly, is looking like the most probable scenario: Iraq's 
collapse into a failed and fragmented state, an intensifying and long-
lasting civil war, as well as increased foreign meddling that risks 
metastasising into a broad proxy war. Such a situation could not be 
contained within Iraq's borders.
    There is abundant reason to question whether the administration is 
capable of such a dramatic course change. But there is no reason to 
question why we ought to change direction, and what will happen if we 
do not.
    Mr Chairman, at the outset it is important to begin with an honest 
assessment of where things stand. My assessment is based on the 
longstanding field work performed by the International Crisis Group's 
staff and consultants who have been in Iraq repeatedly, outside of the 
Green Zone, in contact with militiamen and insurgents, almost without 
interruption since the war.
    Two key factors are critical in understanding the country's current 
condition. One is the utter collapse of the state apparatus which 
created both a security and managerial vacuum that 3\1/2\ years of 
reconstruction have failed to overcome. The security vacuum has been 
filled by autonomous, violent actors--militias linked to the Shiite 
Islamists (the Badr Corps and Muqtada al-Sadr's Mahdi Army), as well as 
an array of smaller groups, among them Mahdi Army offshoots, 
neighbourhood vigilantes, private sector contractors guarding 
politicians as well as oil, power, and other key facilities and 
criminal mafias. The armed groups' and militias' most important source 
of legitimacy and power has become the conflict's very radicalisation: 
The more they can point to the extreme violence of the other, the more 
they can justify their own in terms of protection (of one's community) 
and revenge (against another). In the absence of a state apparatus 
capable of safeguarding the population, civilians are caught in a 
vicious cycle in which they must rely on armed groups.
    The other factor is the rise of a class of politicians, 
predominantly former exiles and emigres enjoying little legitimacy 
among ordinary Iraqis, who have treated the country and its resources 
as their party or personal entitlement, have encouraged a communal-
based political system that has polarised the country and, in some 
cases, have advanced separatist agendas that are tearing the nation 
apart. Political actors have accentuated differences through their 
brand of identity politics and promotion of a political system in which 
positions are allocated according to communal identities. With few 
exceptions, the parties and individuals that came to represent these 
communities--themselves internally divided--carved out private fiefdoms 
in the ministries and institutions they acquired, preying on state 
coffers and reconstruction largesse to finance their militias and line 
their pockets. The absence of politics also raised the stock of both 
Sunni and Shiite clerics and, over time, the more radical among them, 
at the expense of secular minded forces.
    Not unlike the groups they combat, the forces that dominate the 
current government thrive on identity politics, communal polarisation, 
and a cycle of intensifying violence and counterviolence. Increasingly 
indifferent to the country's interests, its political leaders gradually 
are becoming local warlords when what Iraq desperately needs are 
national leaders.
    And so, hollowed out and fatally weakened, the Iraqi State today is 
prey to armed militias, sectarian forces, and a political class that, 
by putting short-term personal concerns ahead of long-term national 
interests, is complicit in Iraq's tragic destruction.
    The implication is clear and critical: The government--by which I 
mean the entire institutional apparatus set up since the fall of 
Saddam--is not and cannot be a partner in an effort to stem the 
violence, nor will its strengthening contribute to Iraq's stability. 
The Sunni Arab representatives it includes lack meaningful support 
within their community and have no sway with the armed opposition 
groups that are feeding civil war dynamics. Conversely, its most 
influential Shiite members control the most powerful militias, which 
also are involved in brutal sectarian violence. Given the depth of 
polarisation, the United States must come to terms with the fact that 
the current government is merely one among many parties to the 
conflict. The manner of Saddam Hussein's execution was only the latest 
and most vivid illustration: It was Green Zone meets Red Zone, the 
pulling of the curtain that revealed the government in its rawest, 
crudest form.
    One additional comment: It has been argued that the ongoing 
sectarian division of the country could be a pathway toward Iraq's 
eventual stabilisation through a rough division into three entities. 
There is little doubt that Iraq's territory is being carved up into 
homogeneous sectarian zones, separated by de facto front lines. What 
were once mixed neighbourhoods--and whose identity as chiefly Sunni or 
Shiite areas would have been impossible to presume prior to the war--
are in the process of being consolidated according to a single 
religious identity.
    But there remain countless disputed areas, resolution of which 
would entail far greater and more savage levels of violence than 
currently is occurring. Even in Baghdad, the mosaic has not 
disappeared; it has evolved. Sunni and Shiite neighbourhoods are 
gradually being consolidated, but the process is far from complete, and 
in any event these neighbourhoods are still intermingled. Current 
confessional boundaries will be fiercely fought over; minority enclaves 
will be the targets of bloody assaults. Moreover, the violence is 
taking place within communities, with intrasectarian tensions giving 
rise to fratricidal clashes. In other words, Iraq's division may soon 
become inevitable. But it will not be a tidy three-way split and it 
will entail violence on a scale far greater than anything witnessed so 
far. It may become the final outcome. It should not be a U.S. goal.
    The absence of an effective central state, coupled with Iraq's 
growing fragmentation and increased power of autonomous groups and 
militias, has enhanced the role of outside actors both as potential 
spoilers and as needed partners in any effort to stabilise the country. 
This is an issue over which there has been considerable confusion, but 
the reality is simply this: The fact that Iraq's neighbours did not 
instigate the crisis does not mean they could not sustain it if they so 
desired, nor that it can be resolved without their help. Given how dire 
things have become, it will take active cooperation by all foreign 
stakeholders to have any chance to redress the situation.
    Regrettably, opposite dynamics today are at play. As it approaches 
its fifth year, the conflict has become a magnet for deeper regional 
interference and a source of greater regional instability. As the 
security vacuum has grown, various neighbours and groups have sought to 
promote and protect their interests, prevent potential threats and 
preempt their counterparts' presumed hostile actions. In principle, 
neighbouring countries and other regional powers share an interest in 
containing the conflict and avoiding its ripple effects. But, divided 
by opposing agendas, mistrust and lack of communication, they, so far, 
have been unable to coordinate strategies to that effect. Most damaging 
has been competition between the United States and Iran and the 
conviction in Tehran that Washington is seeking to build a hostile 
regional order. As a result, instead of working together toward an 
outcome they all could live with (a weak but prosperous and united Iraq 
that does not present a threat to its neighbours), each appears to be 
taking measures in anticipation of the outcome they all fear--Iraq's 
descent into all-out chaos and fragmentation. By increasing support for 
some Iraqi actors against others, their actions have all the wisdom of 
a self-fulfilling prophecy: Steps that will accelerate the very process 
they claim to wish to avoid.
    Iraq's sectarian tensions are also spreading throughout the region. 
They are exacerbating a Sunni-Shiite divide that is fast becoming the 
dominant lens through which Middle East developments are apprehended. 
The most serious repercussions are felt in confessionally mixed 
societies such as Lebanon, Syria, and some gulf countries. One of the 
more perilous prospects is that of renewed conflict along an Arab-
Persian divide. The more it develops, the more Iraq will become the 
theatre of deadly proxy wars waged by others. Should this happen, the 
United States will be fighting a difficult and highly unpredictable 
battle.
    Mr. Chairman, the President's newly announced approach can only be 
properly assessed in light of this assessment. And it is in light of 
this assessment that its fundamental flaws and contradictions become 
clear: It seeks to provide a military solution to a political crisis; 
it leaves the political dimension to an Iraqi Government that is an 
integral party to the sectarian conflict; and it seeks to stabilise 
Iraq without offering a regional strategy or engagement with pivotal 
neighbours without which such a goal simply is unattainable.
    1. The President's plan essentially relies on military means to 
resolve a political problem: Iraq may not be experiencing a war of all 
against all, but it is at the very least a war of many against many. 
Government-supported militias as much as Sunni insurgents are part of 
this confrontation, and intersectarian fighting mixes with 
intrasectarian struggles. The implication--critical in terms of 
devising an effective response--is that this is not a military 
challenge in which one side needs to be strengthened and another 
defeated, but a political one in which new understandings need to be 
reached. Even if the addition of several thousand U.S. troops quells 
the violence in Baghdad--an uncertain proposition at best--insurgent 
groups and militias are likely to focus their efforts elsewhere and/or 
to melt away. The President's plan is at best a short-term answer to a 
long-term problem: The moment the U.S. ``surge'' ends, violent actors 
will resume their fighting. In short, Washington's contemplated 
strategy of ``clear, build, and hold'' is no response to the 
insurgents' and militias' strategy of ``recoil, redeploy, and spoil.''
    2. To end the sectarian fighting, the President's plan depends on 
an Iraqi Government that has become an integral party to the sectarian 
war: The President repeatedly describes the Iraqi Government as one of 
national unity. It is nothing of the sort. It is not a partner in an 
effort to stem the violence nor will its strengthening contribute to 
Iraq's stabilisation. The administration must come to terms with the 
fact that the current government has become one side in a growing dirty 
war. It is incapable of generating the compromises required to 
restabilize the country and rebuild institutions that have decayed, 
been corrupted, and are today, unable to either provide security or 
distribute goods and services.
    This does not mean, as sometimes is suggested, that the United 
States should engineer another Cabinet change, trying to forge an 
alliance that excludes Sadr and may ultimately sacrifice Maliki. Maliki 
and the Cabinet are symptoms, not causes of the underlying problem: The 
core issue is not with the identity of Cabinet members; it is with the 
entire political edifice put in place since 2003. No Prime Minster 
operating under current circumstances could do what Prime Minister 
Maliki has not. Structural, not personnel changes, are now needed.
    3. The President's plan is premised on contradictory and self-
defeating regional goals. One cannot simultaneously stabilise Iraq and 
destabilise Iran and Syria. Although neither Tehran nor Damascus is at 
the origins of, or even plays a major part in, Iraq's catastrophe, the 
situation has reached the point where resolution will be impossible 
without their cooperation, as both states have the ability to sabotage 
any U.S. initiative and as both are needed to pressure or persuade 
insurgents and militias to pursue a political path. Former U.S. 
Assistant Secretary of State, Jim Dobbins, no stranger to successful 
U.S. efforts at conflict resolution, put it well: It has never been 
likely that the United States could stabilise Iraq and destabilise Iran 
and Syria at the same time. As long as the United States continues to 
operate at cross purposes with nearly all its neighbours, and 
particularly the most influential, American efforts to promote peace 
and reconciliation are unlikely to prosper. In refusing to combine 
coercion with communication in its dealings (or nondealings) with 
Iraq's neighbours, the Bush administration is making peace in Iraq less 
likely, and increasing the chances for war throughout the surrounding 
region.\1\
---------------------------------------------------------------------------
    \1\ The International Herald Tribune, 18 January 2007.
---------------------------------------------------------------------------
    In lieu of talking to Iran and Syria, the administration is 
proposing a different kind of engagement: Military threats addressed 
toward Iran, combined with attempts to build an anti-Iranian coalition 
of pro-Western Sunni Arab governments. Besides raising the most obvious 
question (How can the United States rely on Iranian allies in Baghdad 
at the same time as it is developing a tough anti-Iranian strategy for 
the region?), this approach runs the risk of promoting internecine 
conflict and, possibly, all-out and unwinnable civil wars in Lebanon 
and Palestine--yet another series of catastrophes in the making.
    At this late stage, only a radical and dramatic policy shift--
entailing a different distribution of power and resources within Iraq 
as well as a different set of outside influences mobilised to achieve 
it--can conceivably arrest the spiralling decline. In contrast to the 
President's plan, the International Crisis Group bases its own on the 
belief that the Iraqi Government is one of actors in sectarian 
violence, not a partner in fighting extremists; that the entire post-
2003 power structure must be overhauled, rather than strengthened; and 
that the United States must engage with all relevant regional actors, 
rather than seek to succeed alone and isolate those who, in response, 
are most likely to destabilise Iraq.
    The International Crisis Group's proposal aims to meet the three 
most important challenges: To end the civil war, reconstruct the state 
and its institutions, and prevent dangerous regional spillover. This is 
not something the United States can do alone nor is it something it can 
count on the Iraqi Government achieving. It needs to reach out widely 
to seek collaboration from friends and foes alike. That will require 
not only requesting others to play a part in implementing a new policy 
but also giving them a key role in shaping it. Crisis Group advocates 
three essential and interrelated steps:
    1. A new forceful multilateral approach that puts real pressure on 
all Iraqi parties: The Baker-Hamilton report was right to call for the 
creation of a broad International Support Group; it should comprise the 
five permanent Security Council members, Iraq's six neighbours, and the 
United Nations represented by its Secretary General. But its purpose 
cannot be to support the Iraqi Government. It must support Iraq, which 
means pressing the government, along with all other Iraqi constituents, 
to make the necessary compromises. It also means defining rules of the 
game for outside powers vis-a-vis Iraq, agreeing on redlines none would 
cross, and, crucially, guiding the full range of Iraqi political actors 
to consensus on an acceptable end-state. This does not entail a one-
time conference, but sustained multilateral diplomacy.
    The absence of an effective Iraqi State apparatus, the fragmented 
nature of Iraqi society, and the proliferation of self-sustaining 
militias and armed groups underscore the urgency of a much more 
substantial role for the international community, and in particular for 
neighbouring states. The United States, unfortunately, no longer 
possesses the credibility or leverage to achieve its goals on its own 
and Iraqi actors are unlikely to budge without concerted effort by all 
regional players with influence and leverage over them. Although what 
happens in Iraq will depend, above all, on the creation of a new 
internal momentum, such momentum cannot be sustained without 
cooperation from neighbors who each possess considerable nuisance and 
spoiling capacity.
    2. A conference of all Iraqi and international stakeholders, 
modeled after the Dayton conference for Bosnia and the Bonn conference 
for Afghanistan, to forge a new political compact: A new, more 
equitable and inclusive national compact needs to be agreed upon by all 
relevant actors, including militias and insurgent groups, on issues 
such as federalism, resource allocation, de-Baathification, the scope 
of the amnesty, the structure of security forces, and the timetable for 
a U.S. withdrawal. This can only be done if the International Support 
Group brings all of them to the negotiating table and if its members 
steer their deliberations, deploying a mixture of carrots and sticks to 
influence those on whom they have particular leverage.
    Indeed, if enlarging the scope of international players is one 
essential pillar, enlarging the range of Iraqi actors and injecting new 
momentum in national reconciliation efforts must be another. Much of 
the past few years of diplomacy have had an extraordinarily surreal and 
virtual quality: Pursuit of an Iraqi political process that is wholly 
divorced from realities on the ground through dealings between the 
United States and local leaders who possess neither the will nor the 
ability to fundamentally change current dynamics--who, indeed, have 
been complicit in entrenching them. The present government does not 
need to be strengthened--say, by expanding Iraqi security forces; it 
needs to have a different character and pursue different objectives. 
The time has come for a new, more inclusive Iraqi deal that puts 
rebuilding a nonethnic, nonsectarian state at the top of its 
objectives.
    The conference should include all Iraq's political stakeholders--
leaders of parties, movements, militias, insurgent groups, tribal 
confederations, and civil society organisations across the political 
spectrum. The point is to exercise pressure from above--through foreign 
supporters of local groups--and below--by enlisting the far more 
reasonable and conciliatory aspirations of most ordinary Iraqis. The 
conference's objective should be to guide Iraqi actors toward an 
internal consensus on the principal issues of dispute and amend the 
constitution accordingly.
    3. A new U.S. regional strategy, including engagement with Syria 
and Iran, and to end efforts at forcible regime change and 
revitalisation of all tracks of the Arab-Israeli peace process: Polite 
engagement of Iraq's neighbours will not do. Rather a clear 
redefinition of U.S. objectives in the region will be required to 
enlist regional, but especially Iranian and Syrian help. The goal is 
not to bargain with them but to seek agreement on an end-state for Iraq 
and the region that is no one's first choice, but with which everyone 
can live.
    Engagement with Iran and Syria was one of the core recommendations 
of the Iraq Study Group, and one of the first to be summarily dismissed 
by the President. Seriously engaging Syria and Iran will not be easy; 
bringing them around will be even harder. But the United States has no 
workable alternative if its objective is to restore peace in Iraq and 
defuse dangerous tensions threatening regional stability. On top of 
refraining from damaging steps, there is much Iran and Syria can do to 
help: Enhance border control; using Damascus's extensive intelligence 
on, and lines of communication with, insurgent groups to facilitate 
negotiations; drawing on its wide-ranging tribal networks to reach out 
to Sunni Arabs in the context of such negotiations; and utilising 
Iran's leverage to control SCIRI and its channels in southern Iraq to 
convince the Sadrists they have a stake in the new compact.
    Given current U.S. policy, neither Iran nor Syria today sees much 
to gain from helping us extricate ourselves from Iraq. The question is 
not whether either side will surrender to the other. The question is 
whether there exists some accommodation that, while short of either 
side's ideal outcome, nonetheless meets each side's minimum vital 
interests. The answer is at best uncertain, given the considerable 
mistrust that currently prevails. But there are considerable costs for 
all sides with continuing along the present course: A deepening crisis 
for the United States in Iraq, the prospect of further international 
sanctions and isolation for Iran and Syria, and dissolution of the 
Iraqi State with potential harmful consequences for all. In other 
words, the most powerful inducement for a compromise are the risks 
associated with the status quo.
    The issue of troop levels, which has consumed so much of the debate 
and to which the administration has offered its response, is the wrong 
question, disconnected from ground realities. On its own, and in the 
absence of significant political change, the addition of troops will 
have only marginal and temporary impact on the intensity of violence. 
Without fundamental changes in Iraq and in U.S. policy, a continued 
American presence serves little purpose. In fact, it risks making 
Washington complicit in the worst excesses of the Iraqi Government, 
providing it with both public excuses and the security to operate with 
impunity.
    Rather, the issue of U.S. troops can only be properly understood in 
relation to whether or not a new Iraqi political compact is reached. If 
it is, then what are needed are negotiated arrangements for a 
relatively rapid coalition military withdrawal. The coalition's 
military roles, rules of engagement, and withdrawal schedule should be 
an item for discussion at the Dayton/Bonn-like conference, an 
instrument of leverage for the United States and a means of ensuring an 
orderly withdrawal. The coalition presence would be conditioned on this 
compact being reached and implemented; the schedule for its withdrawal 
should be agreed and, in any event, should be completed within a 
reasonable time period, probably not more than 2 to 3 years. If a 
consensus emerges for longer stay, that could then be considered. 
Should the consensus back a more rapid withdrawal, it should, of 
course, be carried out.
    But, and by the same token, if the compact is not reached or not 
implemented, the United States should significantly accelerate the 
withdrawal of forces that then will have lost their main purpose. A 
residual number may remain, for example at the borders in order to 
contain the conflict within Iraq. Any such withdrawal raises difficult 
political and even moral issues, as the United States undeniably bears 
responsibility for Iraq's current calamity. But there can be no 
possible justification for an open-ended investment in a failing state.
    Mr. Chairman, implementation of the plan put forward by the 
International Crisis Group would present one last opportunity. It is at 
best a feeble hope, dependent on a fundamental shift among Iraqi 
political leaders who have long been preoccupied with only short-term 
gain; on a radical rupture by an administration that has proved 
resistant to pragmatic change; on a significant alteration in relations 
between the United States and key regional countries that have been 
marked by deep distrust and strategic competition; and on involvement 
by international actors that have warily watched from the sidelines. 
But it is the only hope to spare Iraq from an all-out disintegration. 
And it would be the only possible justification for continuing to 
invest our troops and our resources in this misbegotten adventure.

    The Chairman. Thank you all very much.
    You know, this is one of those cases where I wish we had a 
mandatory session in this Senate, and all of you sat in the 
well, and all four of you spoke to 100 Senators. They're all 
very busy. They all have other committee assignments. And they 
don't have the benefit of hearing the detail we just heard. I 
think the testimony this morning has been really very 
enlightening.
    Let me say, we'll do 8-minute rounds. And, if possible, 
depending on the time of--the availability of the witnesses and 
on the participation here, maybe have a second round.
    Let me start, if I may, by suggesting that as I listened to 
all of you, there is agreement on at least three or four items. 
One; the surge is not a good idea. Matter of fact, it's a very 
bad idea. Two; if we should begin to redeploy American forces, 
the timeframe over which that redeployment should take place, 
whether things are going well or poorly, is a frame that begins 
now and has an outside life of about 18 months. Three; that we 
need some regional interaction that is--engages all the 
neighbors. And four; that the United States has vital interests 
in the region.
    Now, the reason I mention these is, the first three are in 
direct odds with the administration. It's not merely the 
redeployment that's at odds with this administration's 
strategy. It is all three of the areas of agreement that I've 
mentioned. I know some of you better than others, but I know of 
all of you, and one of the problems that you recognize, but 
that the vast majority of the public has understandable 
difficulty recognizing, is: We don't get to formulate foreign 
policy here. We get to react to it. We can, hopefully, 
influence it, but that's not always certain. And most times 
we're left with Hobson's choices here. The other thing you all 
agree on is, there's no, really great choices here. None of you 
are bullish on the notion that there is a good way out, a good 
way to resolve the situation in Iraq. And we're left with an 
administration who's not likely to listen, thus far, and a 
government in Iraq that left us with a constitution that, as 
Les points out, 80 percent of the Iraqis voted for. And yet, 
with the exception of Les, basically the three of you are 
saying we should basically disregard that constitution. I'm not 
suggesting I'm certain that is wrong, but that's basically what 
you've all said.
    Now, one of the things that the Constitution says is--and 
we essentially helped write it--in article 115, ``The federal 
system in the Republic of Iraq''--I'm quoting--``is made up of 
decentralized capital regions and governates and local 
administration.'' And to go back to your point, Les, this 
administration has continued to push a rope here, they 
continue--and all of you point out--to insist on a strong 
central government that we would put our full faith and credit 
behind and support, yet there is nothing I have seen in the 
Constitution or in the conduct of the Iraqis that they're 
inclined to support a strong central government, which the very 
Constitution doesn't even call for.
    So, my question is this: Do we essentially try to 
accommodate this Constitution functioning, or do we just 
pretend like it doesn't even exist, as we move from this moment 
on, in terms of ``a clean break, a different policy, et 
cetera''?
    Let's start with you, Les. Do we----
    Dr. Gelb. I completely agree with your question, Mr. 
Chairman. There is no way we can get out of this without a 
disaster without at least trying to help them to reach a 
political settlement. They put themselves on a road to a 
federal or decentralized alternative, and every time we raise 
this, people talk as if we're trying to stuff this down their 
throats. I think a majority of Iraqis would want to live this 
way, would want to be able to run their own affairs in their 
own regions. I've talked to them, too, and I do not ignore the 
fact that 80 percent voted for that Constitution, or that 80 
percent voted for that implementing legislation. The support is 
there. The resistance is also there. But unless we help them 
toward this kind of political agreement, nothing is going to 
happen except trouble, and worse trouble than we've had.
    Now, I don't disagree with Ed Luttwak about our inability 
to transform other societies, but I do disagree that the United 
States shouldn't interfere in the domestic politics of another 
state, particularly where we have such deep involvement and 
where we have real responsibility. That's really what foreign 
policy is all about. Foreign policy, serious foreign policy, is 
the interference by one country in the domestic politics of 
another country. And if you don't interfere successfully, you 
don't have a successful foreign policy.
    But, in the end, this will work, or not, depending upon 
whether the Iraqis want to do it. But we have the 
responsibility, I think, to lean on them and to work with them.
    One final point, quickly. I stress ``to work with them,'' 
because there's got to be working at two ends here. First of 
all, working between you folks on this committee and the 
administration for a real bipartisan approach. It hasn't 
happened. And, second, between our administration and the 
Iraqis. And it hasn't happened. A 2-hour visit by a senior 
official to Baghdad is not the way to work out a common 
strategy or to move these issues forward.
    The Chairman. Now, let me say, since my time is up, I don't 
want to start by asking a question that gets everyone involved, 
and I end up spending 15 minutes, and my colleagues don't get 
to ask questions, so I'll go back to ask you all to illuminate 
on that, as well. I would like, in the minute I have left--
there are several proposals put forward so far. One is to try 
to accommodate a bipartisan foreign policy, a bipartisan 
approach here to demonstrate to the administration to cease and 
desist from what they're doing. It looks like there's 
overwhelming support for that, in the sense that you have the 
proposal put forward by me and Levin and Hagel and Olympia 
Snowe. And then you have a proposal that says almost the same 
thing being put forward by Warner and leading Republicans. So, 
my guess is, there'll be an overwhelming rejection on the 
record of this President's continuing, as was stated by one of 
you, to ``stay the course with 20,000 more,'' or whatever the 
phrase was that was used.
    But there are also other proposals that I'd like to ask 
your input on. There are proposals just to cap the number of 
forces in Iraq and make that law. There are proposals to cut 
off funding for the ``war in Iraq.'' Would you, each of you, as 
briefly as you can, respond to the efficacy of setting a cap? 
And what does that mean in Iraq, in the region? What are the 
consequences of that? Hard number. And two, the idea of cutting 
off funding, generically, for ``the war in Iraq.'' And I'll 
start with you, Ed, and then end up with Les.
    Dr. Luttwak. I really believe that this committee, led as 
it now is by people of unparalleled experience and seriousness, 
can acquire enough authority with your colleagues in the 
Congress--enough authority to guide policy the right way 
without the--what I--you know, the arbitrary cutoffs and 
putting yourself in a position where you, yourself, might 
hesitate about the absolute nature of it, and so on. I think 
that, you know, Senators Lugar and Biden and the--all their 
colleagues--as a voice of moderation, can guide them in the 
right direction. But I would really be opposed to these drastic 
sort of measures.
    The Chairman. Mr. Korb.
    Dr. Korb. I think that you can cap the forces, which 
doesn't mean that the President can't send more, but he has to 
come back to you to justify what more. And I would recommend 
that right now, given the situation, you put a cap, say, at 
150,000, which would allow him to send more troops, because you 
don't want to hamstring him from having to deal with situations 
that occur, and for what military commanders want. But that 
certainly would enough. After that--and I think it's been 
misunderstood--people say, ``Well, if you cap him, you're 
undermining the authority of the Commander in Chief.'' No, you 
just ask him to come back and justify why it has to go more 
than 150,000.
    I think you can also condition the funding, not, you know, 
this year, but you're going to take up--my understanding is, 
when they submit the 2008 budget, they're also going to submit 
the supplemental for 2008, it's all going to be together--you 
can--you know, can condition the funding in fiscal 2008, where 
the administration provides verification and certification on 
key metrics for progress in Iraq, that they've talked about. 
After all, remember, Secretary Gates has said, ``If they don't 
do what we said, we may not even send all of the--all of the 
troops.'' So, I think that you can require steps to disband the 
ethnic and sectarian militias, measures to ensure that the 
Iraqi Government brings to justice Iraqi security personnel who 
are alleged to have committed gross violations of human rights, 
and steps toward political and national reconciliation.
    You can't run foreign policy from here, but you can put the 
onus on the administration to demonstrate why their policy is 
the right policy.
    The Chairman. The cap that's being discussed is a cap to 
prevent the troops from being able to be sent, so the cap is at 
135 or whatever the number is. Would you support that?
    Dr. Korb. Not right now, because, again, you started with 
132, you got one brigade in there, another one's--to go. I 
mean, because it seems to me--I don't know what could happen 
there, but you don't ever want to put yourself in a position 
where the place goes to hell in a handbasket and you stop the--
--
    The Chairman. And you can't--that would also prevent 
brigades we have in the outlying countries from being able to 
surge----
    Dr. Korb. That's right. And the other thing that I 
recommended, if you constrain their ability to mobilize Guard 
and Reserve units for the second time, they're the ones that 
are supposed to replace the forces that have been sent, so this 
would give you an opportunity, again, to present this surge----
    The Chairman. That's a different----
    Dr. Korb [continuing]. From going on.
    The Chairman [continuing]. Way than capping.
    Dr. Korb. Yes.
    The Chairman. OK. And, Mr. Malley, the cap and cutoff----
    Dr. Malley. Well, let me start by saying I'm very 
comfortable, as Les said, intervening in the domestic politics 
of other countries, much less comfortable dealing with the 
domestic politics of the Democratic or Republican Party. So, 
I--not going to get into the--I don't think----
    The Chairman. Well, there are people on both sides support 
all of these things.
    Dr. Malley. No; exact--but--and my view is that right now 
the main priority is to send a message about what is not right, 
and that that plan that was put on the table is not right. And 
then you need to have an open discussion about what is right. 
And talking about numbers and troops, as I said earlier, 
abstracted from the political strategy, is an exercise in 
fantasy. I mean, let's get the political strategy right, then 
we would know what kind of troops we need. If we don't get the 
political strategy right, any talk of capping or anything else, 
for me, is surreal.
    The Chairman. I agree. But--
    Les, you have a final word? And I'll yield the floor.
    Dr. Gelb. I'm in favor of serious bipartisan consultations. 
The initiative for that has to come from the administration. 
The only decent way out of this situation is for the two 
parties and for the two branches to share responsibility for 
the very tough decisions that have to be made. And if the 
administration won't seriously consult, then I think these 
resolutions are the least you can do.
    The Chairman. Thank you.
    Mr. Chairman.
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    I appreciate not only the advice you have given with regard 
to foreign policy, but the advice you have given to this 
committee, and perhaps to advise our consultations with the 
President.
    There could be, certainly, difference of judgment in this 
committee, how effective we can be. My hope is that, picking up 
the theme that you have just enunciated, Les Gelb, that is 
possible to work out, on a bipartisan basis, the best strategy 
for America, and a perception on the part of the rest of the 
world that we have the capability of doing that.
    Now, the chairman has been pursuing that. I have been 
pursuing it, in my own way, and I would just report, without 
breaching confidentiality, that I had an opportunity, with 
Senator Warner, to sit down with the President for 15 minutes 
to talk about the things we have talked about today, I 
presented, as precisely as I could, most of the arguments that 
you have. We had another meeting 4 days later with at least 
eight other members of the Republican leadership, joined by the 
Vice President, the Secretaries of State and Defense, and so 
forth. Then, last week, we met with Steve Hadley, our National 
Security Director, with eight or nine Republicans sitting 
around the table. And I'm sure other meetings have occurred 
with Democratic Members of the Senate and the House. At least I 
hope that's the case. But I would just say that these have been 
opportunities, at least, to make the case, to hear the 
President, to hear his advisers.
    Now, I don't think we have been necessarily overwhelmingly 
convincing in the arguments that we have made, although 
sometimes in politics persistence and the ability to stay the 
course is important. But let me just say, the President's 
arguments, as I have jotted down this morning--if he were here, 
perhaps he would say the same thing--is that he has a feeling 
there is going to be a large human loss. People might well be 
killed in Baghdad by the forces of the army or the police or 
the militia. He feels that, in essence, without an American 
presence in the nine police districts, there is going to be a 
great deal of killing perhaps, of Shiites by Sunnis, and that, 
as a humanitarian situation, although there has been counseling 
on the part of you and me and maybe others for, if not a 
withdrawal, at least a disengagement from Baghdad. Let's keep 
from sending our people out on patrol or into the various 
stations as you've talked about, Dr. Luttwak. The President 
believes that this is probably the only way that this killing 
is to be mitigated.
    You have argued that might be the case for a while. A surge 
denotes a discreet period of time. And to execute a proper 
``clear and hold,'' probably many more troops than 21,500 would 
be needed--but, nevertheless, giving the argument its due, 
there is, on the part of our President, a humanitarian feeling 
here with regard to people that are going to be lost without 
our intervening.
    And, second, he believes that the democratic structure of 
the country is unlikely to be perfected without there being 
substantially more American intervention in this process, that 
the Iraqis have got it right, in terms of various elections and 
constitution-building and so forth, but that without these so-
called benchmarks, these messages, essentially, to Maliki or to 
others, the rest of the job is unlikely to be perfected very 
well, if at all, and democracy is very important to our 
country, very important to the objectives, at least, that the 
President has stated. So, he sees that faltering badly without 
our being more involved.
    There is also--I believe I fairly state the President's 
point of view--a feeling that there is now an impression that 
our military might is not as effective as it should be, or 
should have been, and that it is important to establish that 
impression, that we cannot be pushed around, that the assertion 
of these forces at this particular time is important, once 
again, in terms of credibility of our military.
    And, finally, the President argues, both publicly and 
privately, that if we are not successful in this new strategy, 
it will be a setback in our overall war against terror. He 
brings up, frequently, the thought that we, here in the United 
States, may feel the impact of our failure to back our 
military, to perfect democracy, to take a view of humanity.
    What I would like to explore for a moment with you, Dr. 
Luttwak, is the intriguing ideas that you have about 
disengagement. In essence, without being cynical about it, you 
suggested, in your testimony using the Spanish example, back in 
1800 or so, and indicate that they were on the threshold of 
democracy, or at least some felt that way, but there were 
others in the country with religious motivation, other 
leadership, who delayed that democracy for several decades, if 
not longer. They felt that the time was not ripe, given the 
demographics of the country or the religious affiliation, and 
that the situation in Iraq now is much closer to that of Spain 
in 1800 than it was to Germany and Japan in 1945, for example. 
Therefore, disengagement, as you are suggesting, is a 
sophisticated process in which, as a matter of fact, you might 
find some bases in the desert, which you say were identified 
before. For a while, you keep out the invaders, you probably 
help continue training of Iraqi forces. You have an influence 
on democracy--but albeit from afar--and you allow the fact that 
some civil war might occur, that this is almost inevitable, 
given the artificial contrivance of the country to begin with. 
And that, finally, you have some basis to negotiate with all 
the parties, either all eight at the same time, or two plus 
six, or however you want to do it.
    Nevertheless, all the parties in the region understand that 
we are going to be a force in the Middle East for a significant 
time to come. If not in the Iraqi desert, then certainly close 
by; but before we get out of the desert, we at least have made 
sure we have provided for safe passage out of the country, 
rather than in a haphazard, expeditious manner.
    You bring up an intriguing set of suggestions, and that's 
why I underline it again. But why do you feel that the civil 
war is inevitable, and that, unhappily, a very large amount of 
killing, bloodshed, and so forth, even if not our own, is 
almost inevitable, which we must accept from afar, from the 
desert or from the boundaries, or so forth, of Iraq?
    Dr. Luttwak. Senator, you have, indeed, presented many of 
my ideas in such an effective way that I don't want to repeat 
them. Instead, I'd like to address the specific point.
    In the written statement, which will be submitted just 
after this hearing, I specifically address, as I must, the 
impact of disengagement on civil violence. I cannot sit here 
calmly in Washington and advocate a policy that will lead to 
the death of many people.
    I believe that disengagement will not increase the level of 
violence, that reducing troop levels will not do it. And why is 
that? The reason is not philosophical, but, again, very 
tactical. As you all know from long experience, 
counterinsurgency without intelligence is a form of 
malpractice, because you are there, you're visible, you're 
spending money, you're moving around, you're wearing the right 
boots, but you're not doing the work. Now, you also know that 
the enemy is elusive, that he's low contrast, as they call it 
technically. You also know that there are so many different 
insurgent groups that normal processes of penetration cannot 
work. Moreover, when groups are very unstable, even when you 
penetrate a group, the group dissolves. There was a recent 
case, with a lot of work to penetrate the group; all members of 
that group essentially went out of business. So, without the 
intelligence, counterinsurgency is not effective.
    Now, in a broader sense, what we're doing is interposition. 
We are trying to interpose ourselves, and yet, we cannot 
prevent the attacks. Why? Because the attacks are carried out 
by elusive, unstable, low-contrast targets that we cannot 
identify even when we see them. We cannot stop them. They go 
right through the checkpoints because they look like anybody 
else, and then they kill people.
    If I believed that the current troop level would prevent 
mass death, I would never recommend its reduction. If I 
believed a surge could reduce deaths, I would be very hesitant 
to speak against it. On humanitarian grounds, that would be our 
duty.
    However, I am convinced that because of tactical reasons, 
there is no relationship between U.S. troop levels and the 
number of Iraqi casualties and victims. And, moreover, I note 
that the fighting that's taking place, the terrorism that's 
taking place is over disputed zones. And by interposing 
ourselves, we are preserving those disputed zones. That's why 
you can take a taxi, right now, from Arbil, got to Mosul--it 
takes a few hours--and drive around a quiet Mosul, because the 
Arab Shia have gone from Mosul, it is dominated by Arab Sunnis.
    Now, the final point--and, again, you take seriously the 
President's concerns as I think we should--we certainly do not 
want to disengage or withdraw, whatever the words are, and 
leave a vast zone where, let's say, groups such as al-Qaeda can 
run around. Well, the fact is that in Mosul Arab Sunnis are 
running the show; they don't want competition. The foreign 
jihadis who call themselves al-Qaeda are Sunnis themselves, but 
they happen to be of a different strain of Sunni. They are not 
nationalists at all. They believe that nationalism is a sin, 
that there should be the undivided Ummah of the Muslim nation. 
So, if you're an Iraqi nationalist, you are their enemy. If 
you're a Baathist, you are their enemy. They never forget that 
Baath was founded by Michel Aflaq, a Christian. And, therefore, 
there is no al-Qaeda Mosul. Al-Qaeda exists in disputed areas 
created by our own interposition. That's why I'm convinced that 
disengagement and the refusal of the surge would not increase 
deaths in Iraq.
    Senator Lugar. Thank you very much.
    Dr. Luttwak. Thank you, Senator.
    The Chairman. Thank you.
    I would note one thing. My last trip to Iraq I flew out to 
an airbase called Al Asad Airbase. Middle of nowhere. If you 
all look at that map, those two lakes that you see up there--it 
was from Fallujah north and west. And all of a sudden, I looked 
out there, Ed, and I saw these--looked like two superhighways 
in the middle of this vast desert. And there are two 10,000-
foot runways sitting there in pretty good shape. We landed 
there. There was a small fire brigade for fire suppression, in 
case someone landed. We had a young general, a very impressive 
guy, and a few troops out there. And he pointed out that the 
nearest city was a place called Baghdadi, which was only--was 
about, I don't know, 20, 30, 40 kilometer--I can't remember how 
far--6,000 people. And he pointed out that he thought there 
would be an awful lot of American forces there in the not-too-
distant future. Is that the kind of prepositioning you guys are 
talking about, to drop 10-20,000 American forces there, with 
the surge capacity to go other places? Is that what you're 
talking about?
    Dr. Luttwak. Sir, first of all, the places where Americans 
would remain must have airports, because the supply must be 
done by C-130, with the shuttle, which already exits, out of 
Kuwait, with no routine road convoys, because otherwise we 
would still be there, still interfering, still taking 
casualties. Any remote base would be suitable for a raiding 
force that would sally out to deal with any bad guys who show 
themselves, al-Qaeda and such.
    The Chairman. All right, thank you.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Let me first, again, thank the chairman for holding these 
hearings. They are very important. They are measured, with 
excellent witnesses. And I have been mostly in listening mode 
at these hearings, as I was at the excellent hearings that 
Senator Biden and Senator Lugar held in 2002, where people like 
you came before this committee. And, frankly, I couldn't 
imagine how anyone could possibly have voted for the war, after 
I listened to those 2 days of testimony. It made no sense to 
me. None of my questions were answered.
    Well, we know the history since then, and we know that the 
President made a terrible mistake here. We know that that 
mistake continues. But let us remember that the Democrats were 
in the majority of the U.S. Senate when this was approved. So, 
anyone who thinks that Congress gets off scot-free here is 
wrong.
    This is the moment. We are going to decide whether we take 
the most narrow view of our constitutional powers to end this 
or a reasonably broad view, based on history, based on the use 
of the power of the purse in the past, whether it be Cambodia 
or Somalia in the early nineties. I have to raise a concern. To 
the extent these hearings are used as a way to quell or limit 
Congress's responsibility and role, I have a problem. It is 
entirely reasonable to look at whether it's caps or fencing or 
using the power of the purse to try to bring this disaster to 
an end. And it is our historic responsibility in this committee 
and in this Senate to stand up now and not let this taboo, this 
notion that you can't reasonably talk about using congressional 
power. It is irresponsible, and it puts us in the position of 
continuing a very unwise war that will cost many more American 
lives unnecessarily.
    Let me use the rest of my time to ask a question that puts 
that aside, in terms of whether it's a good idea or not, 
putting aside the political debate about whether or not United 
States troops should remain in Iraq. I think we can all assume 
that the United States will, at some point, begin to redeploy 
troops from Iraq. So, leaving alone the issue of when that 
deployment should begin or end, I'd like each of you to briefly 
discuss what you feel would be the important elements of a 
deployment plan, and how we can redeploy our United States 
military personnel safely while mitigating the impact on the 
Iraqis and our allies in the region.
    Let's start with each of you. Go ahead. Korb.
    Dr. Korb. I think you are quite right that if--when the 
history of this war is written, you will find out that lots of 
institutions in this country didn't play their proper role--not 
only the Congress; I think, the media; I think, the generals 
who didn't back General Shinseki; members of the Joint Chiefs 
of Staff who didn't speak out; and even my own profession, the 
academic profession, many of whom glossed over the real 
problems that you would have.
    Now, in terms of leaving, let me make a--I think that we 
should leave, and I--take 18 months. Actually, I recommended 
September 2005, but it hasn't happened yet, so I think--all 
right. And I think the way to leave in a responsible way is 
simply not to replace the units that, when their time is up, 
they come home. And I don't think this is going to involve any 
risk to the troops. And if you go 18 months, that's roughly 
about 8,000 troops a month. The reason I pick 18 months, I 
think you can do that without endangering the troops. It also, 
I think, fulfills our moral responsibility to the Iraqis. As 
has been pointed out, we broke it, we have some responsibility. 
And I think 18 months is a reasonable time. That would mean 
we'd be there to the middle of 2008, which is more than 5 
years, which would--should be enough time for them to basically 
get their act together. And I think leaving troops in the 
region protects American interests. Putting more troops in 
Afghanistan, which is really the central front in the war on 
terror, putting our National Guard back home here to provide 
for homeland defense, overall will increase our security.
    Let me quote a surprising person, Bill Buckley, editor of 
the National Review. He said, ``Had we not left Vietnam, we 
would have lost the cold war.'' If you don't leave Iraq, you're 
not going to win the war on terror.
    Senator Feingold. That's just an excellent answer.
    Mr. Malley.
    Dr. Malley. So, I agree with what Larry said. I want to say 
one thing about your first comments. As I said in my testimony, 
I believe that if we don't take the political steps that are 
needed, then there is no justification for remaining in Iraq, 
and we should leave. And, at that point, I think this 
committee, the Congress, needs to do what it needs to do to 
ensure that that takes place.
    The issue of withdrawal, for me, is intimately tied to what 
happens politically in Iraq, and all the scenarios would 
dictate something different. Under any scenario, I think the 
withdrawal should not last more than a few years--2 years, 
perhaps, at the outer limit, depending, again, on what happens 
in Iraq and what Iraqis themselves say they want from us and 
whether they're taking the steps that we believe are consistent 
with a residual or remaining United States presence.
    Senator Feingold. Do you think it's possible to construct a 
plan to bring the troops home safely over that time period?
    Dr. Malley. I would believe so. I would defer to military 
experts, but I would believe that it's--from what I've heard, 
that it is--that it is possible. But, again, I would defer to 
others on that.
    Senator Feingold. Dr. Luttwak.
    Dr. Luttwak. Senator, in spite of my rather weak-kneed 
response previously, I'm aware of the fact that, historically, 
a very sharp congressional intervention, a very rigid one, 
worked out very well. That famous case was El Salvador. 
Congress set a limit of 55 advisors, and that was the key to 
victory, because it forced responsibility on the Salvadorians, 
who rose up to it--militarily, because they fought like hell 
instead of standing back waiting for our troops to fight; and 
politically, because eventually, as you know, everything was 
resolved.
    So, I'm not unsympathetic. It's only that, in this context, 
because of the considerations mentioned by Senator Lugar, 
placing the President under some mechanical constraint could be 
damaging in a broader sense. But I think that congressional 
action that would prescribe a gradual withdrawal without an end 
date, without a final exit date could work, if presented 
properly and with bipartisan support.
    The Chairman. Gelb.
    Dr. Gelb. I've studied these matters all my life, and I 
don't know how to answer your question. I would have to sit 
down--and, if I were in this administration, I would sit down--
with our military and work out, first and foremost, what our 
missions would need to be over the next couple of years, and 
then I'd work with them on how to redeploy troops within that 
country, and withdraw them from the country, in order to 
fulfill that mission. I don't believe this is the job for 
professors and senior fellows at Washington think-tanks.
    Senator Feingold. And that's fair enough. And I--you know, 
just the theme I'm trying to pursue during these hearings, 
which, again, I appreciate, is that, since we did not appear to 
have a plan when we went into Iraq, isn't it time that we 
construct a plan for the possibility that we might be leaving 
Iraq, at some point----
    Dr. Gelb. Yes, I----
    Senator Feingold [continuing]. Instead of acting as if it's 
some kind of thing that'll never happen? That--and I'm--this 
isn't directed at you.
    Dr. Gelb. Absolutely.
    Senator Feingold. This is what's going on. People don't 
want to talk about redeployment in a serious way, they want to 
talk about taking the little steps that may lead to that. But 
we need a full plan, with all the considerations of what it 
means for the troops, what it means for the region. And these 
need to be open discussions from all of our people.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you very much, Senator. I 
happen to agree with you.
    Senator Boxer, I guess.
    Senator Boxer. Thank you very much, Mr. Chairman, for these 
hearings.
    I want to place in the record the eight times Congress used 
the power of the purse to stop U.S. casualties. Could I do 
that?
    The Chairman. Without objection.
    I might add, not on your time, all the statements, as 
submitted, will be placed in the record in full, in addition to 
your oral testimony. I did not do that little mechanical thing 
at the front end.
    Senator Boxer. OK. I'd like to start all over again, 
please.
    I'd like to place in the record, at this time, the eight 
times the Congress used the power of the purse to stop 
escalation of wars.
    The Chairman. Without objection.
    [The information submitted by Senator Boxer follows:]

       Congress's Historical Role in Policing Military Escalation

    On numerous occasions over the past several decades, Congress has 
exercised its constitutional authority to limit the President's ability 
to escalate existing military engagements by capping the number of 
American military personnel available for deployment and by refusing to 
release appropriated funds. It is incumbent upon Congress to exercise 
that authority to ensure that our men and women are not put in harm's 
way unnecessarily or without a plan worthy of their great sacrifice.

  <bullet> In the Foreign Assistance Act of 1974, P.L. 93-559, enacted 
        during the Vietnam war, Congress limited the number of American 
        military personnel in South Vietnam to 4,000 within 6 months 
        and 3,000 within a year of the act's enactment.
  <bullet> The Lebanon Emergency Assistance Act of 1983, P.L. 98-43, 
        required the President to ``obtain statutory authorization from 
        the Congress with respect to any substantial expansion in the 
        number or role in Lebanon of the United States Armed Forces, 
        including any introduction of United States Armed Forces into 
        Lebanon in conjunction with agreements providing for the 
        withdrawal of all foreign troops from Lebanon and for the 
        creation of a new multinational peacekeeping force in 
        Lebanon.''
  <bullet> Through the Department of Defense Authorization Act of 1985, 
        P.L. 98-525, Congress prohibited the use of funds appropriated 
        in the act or in subsequent acts from being used to increase 
        the number of U.S. military personnel deployed in European 
        nations of NATO. The act provided that Congress might authorize 
        increased troop levels above the prescribed ceiling upon the 
        Secretary of Defense's certification to Congress that the 
        European nations had taken significant measures to improve 
        their defense capacity.
  <bullet> In the Military Construction Appropriations Act of 2001, 
        P.L. 106-246, Congress limited the involvement of U.S. military 
        personnel and civilian contractors in counternarcotics 
        activities in Colombia by prohibiting the use of appropriated 
        funds to expand their presence above specified levels.
  <bullet> The Second Supplemental Appropriations Act of 1973, P.L. 93-
        50, specified that none of the funds appropriated by the act 
        were to be used ``to support directly or indirectly combat 
        activities in or over Cambodia, Laos, North Vietnam, and South 
        Vietnam or off the shores of Cambodia, Laos, North Vietnam and 
        South Vietnam by United States Forces and after August 15, 
        1973, no other funds heretofore appropriated under any other 
        act may be expended for such purpose."
  <bullet> Congress authorized the use of U.S. Armed Forces in Somalia 
        in the Department of Defense Appropriations Act of 1994, P.L. 
        103-139, but set a deadline after which appropriated funds 
        could no longer be used to pay for their involvement. The act 
        specified that the deadline could only be extended if requested 
        by the President and authorized by the Congress.
  <bullet> In the Department of Defense Appropriations Act of 1995, 
        P.L. 103-335, Congress required congressional approval of ``any 
        change in the United States mission in Rwanda from one of 
        strict refugee relief to security, peace-enforcing, or nation-
        building or any other substantive role'' and blocked funding 
        for continued participation of the U.S. military in Operation 
        Support Hope beyond a specified date.
  <bullet> The National Defense Authorization Act for Fiscal Year 1998, 
        P.L. 105-85, provided that no funds appropriated for fiscal 
        year 1998 or any subsequent year could be used for the 
        deployment of any U.S. ground combat forces in Bosnia and 
        Herzegovina after a specified cutoff date unless the President 
        first consulted with Congress and then certified to Congress 
        that certain conditions existed in the field.

    Senator Boxer. And that started in the 1970s, and it--the 
most recent one was in 2001. So, all this talk about, ``Oh, my 
God, you can't do it''--I want to commend Dr. Korb for laying 
out what I think is a very smart and straightforward idea. You 
cap the forces. What you cap it at is something that has to be 
debated. I would discuss it with the military people. And then 
you say to the President, ``Come back to us and tell us why it 
makes sense to redeploy some of our people who have been there 
three and four times.''
    I wanted to thank you for that clarity, because I sense a 
lot of weaving and bobbing among a lot of people, you know, on 
this point.
    Congress has the power of the purse. And, God forbid, if we 
didn't, because there's checks and balances in the 
Constitution. Our chairman's an expert on the Constitution. He 
teaches. And I would say that, particularly in a democracy like 
ours, which is being tested every day, when people go the 
polls, Mr. Chairman, and they register dissent, which I believe 
they did, and then, in the polls, they register their very 
strong dissent with this President's policies, and then the 
Iraq Study Group registers its dissent with this President's 
policies and says, ``Change from a combat role to a support 
role''--and I could just go on--all the generals on the ground, 
including General Abizaid said, ``This escalation makes no 
sense.'' They call it a ``surge,'' whatever term is used, the 
same thing. It's more of my people, and our people, being put 
in the middle of a civil war, which, as people know, I express 
myself every day on, because a lot of times we have these 
hearings and no one talks about who's paying the price. And 
that's why I raised it with Secretary Rice, and that's why I 
raised it last time we had the experts. Who's paying the price? 
It's all well and good for us to talk about this in an abstract 
way, but who's paying the price? And I always come back to 
that.
    Dr. Luttwak, I have a question for you, because you talked 
about our enemies, and you were eloquent on the point. Do you 
think an enemy of America would be someone who says, ``If an 
American troop is standing in my town, it's OK to kill that 
American''? Is that person an enemy?
    Dr. Luttwak. Yes; certainly. But in Iraq today, there are 
not just friends and enemies. In Iraq, there are many different 
groups that have many different orientations, some of which 
have been on our side from the beginning very consistently, and 
others, who are not against us, but don't do anything for us, 
because we are doing the fighting for them.
    Senator Boxer. Yes.
    Dr. Luttwak. So, what's happening now, as I see it--and you 
draw attention to our casualties--I've had my nephew in Iraq--
is that our troops are actually having very little affect on 
the situation.
    Senator Boxer. OK. Excuse me, sir. I value your further 
explanation, but I'm running out of time, and I want to get to 
that point, because I'm glad you said, if somebody says it's OK 
to kill an American soldier, that they should be considered an 
enemy. And I would go to Dr. Korb's testimony, and I would 
thank him for pointing out that 61 percent of the Iraqi people 
say it's OK to kill an American. So, you know, we can make 
excuses for those folks--you didn't; you said, ``Yeah, that's 
an enemy''--you are now admitting what I believe to be the 
case, where we're in a country where 61 percent of the people 
say it's OK to kill an American, 70 percent say we should get 
out in a year. So, you know, sometimes I think we need a 
reality check of what we are doing. It's--we get so caught up, 
you know, in, you know, a lot of minutia here, when I think we 
need to keep our eye on what we're trying to do. We're trying 
to bring a stable Iraq, and, instead of working on a political 
solution, as many of you have called out very eloquently for 
today, and my chairman has called out eloquently for, for a 
long time, we're sending our troops in the middle of a 
situation where 61 percent of the people say, ``Yeah, it's OK. 
Kill that soldier.'' And I just cannot sit back and say, 
``Well, I don't know that I could vote to cap the troops, 
because the executive branch should have the ability''--I think 
we have a responsibility here, through this committee, and I 
think that these hearings are giving us this opportunity.
    I want to make the point that even the most far-reaching 
bring-the-troops-home resolution, which is the Feingold-Boxer 
resolution, keeps our troops there, without a timeframe, to 
deal with the terrorism--for example, al-Qaeda in Anbar 
province--to deal with training the Iraqis, to deal with 
protection of our forces. So, there isn't anyone here--and I 
heard the word ``irresponsible''--that basically says, 
``Tomorrow, we're all leaving.'' So, I think that's an 
important point.
    Now, the other thing is, no one conceived to tell us what 
the casualty numbers will be. We've tried to get that. And it 
seems to me, if you're going to turn over a new page, which is 
the President's point, ``This is a new policy''--of course, I 
don't really think it is--you at least owe that to the American 
people.
    And, Dr. Luttwak, I was confused, you said you didn't see 
increasing human cost by the surge. What did you, exactly, 
mean?
    Dr. Luttwak. I said that rejecting surge would not lead to 
increasing casualties.
    Senator Boxer. I'm sorry.
    Dr. Luttwak. What I said was that if you oppose the surge--
--
    Senator Boxer. Yes.
    Dr. Luttwak [continuing]. Nobody can say that you have, 
thereby, caused increased casualties for the Iraqis, because 
our troops--because the enemy is so elusive, so transient, 
cannot be seen, has no contrast, cannot be penetrated, because 
of the instability of the insurgent groups, there is no 
relationship between troop levels and the number of Iraqis who 
will die. Therefore, we are not, in fact, containing the 
insurgency. And if you argue that you want to reduce troop 
levels, nobody can say that it will cause more deaths for 
Iraqis because our troops are not preventing the deaths for 
Iraqis. We have----
    Senator Boxer. Because there's a civil war going on. Is 
that----
    Dr. Luttwak. Our--we have----
    Senator Boxer [continuing]. Correct?
    Dr. Luttwak [continuing]. Conventional forces in Iraq, 
structured to attack visible, high-contrast conventional 
forces. And they cannot see the enemy, they cannot intercept 
him, they cannot detect him; therefore, the--at the tactical--
that's why these generals, for the last few years, have been 
saying, ``No, don't send us more troops.'' It was not because 
they were insincerely lying patsies to the administration. They 
actually know that, at the tactical level, when you send a 
platoon to a locality, you don't know what to do with that 
platoon, because it's not a constabulary. Constabulary walks 
down the street, people talk to the--to them and tell them, 
``You know, there's a bad guy around the corner.'' When nobody 
talks to you, the patrol is blind and achieves nothing. Hence, 
surge, in detail, or the entire deployment as a whole, cannot 
achieve the tactical effect, cannot reduce Iraqi casualties. 
Therefore, if you oppose surge, people can criticize you, but 
they cannot say, ``Now you will be responsible with death 
of''----
    Senator Boxer. Well, I don't--you're talking politics to me 
about something that we're trying----
    Dr. Luttwak. It is not politics----
    Senator Boxer [continuing]. To get beyond----
    Dr. Luttwak [continuing]. At all. I'm----
    Senator Boxer. We're trying----
    Dr. Luttwak [continuing]. I'm addressing a very serious 
issue, that anybody who makes recommendations, one way or the 
other, must carry the burden.
    Senator Boxer. OK.
    Dr. Luttwak. The burden. And I'm saying there is no burden, 
because our--there is no relationship between our troop 
presence and casualties.
    Senator Boxer. Dr. Korb, could you respond to that? 
Because--this is interesting, because when I met with General 
Casey--it was a year and a half ago--he said our troop presence 
was fueling the insurgency. So, I--is that what you're saying? 
Our troop presence is fueling the insurgency? That--am I 
missing what you're saying?
    Dr. Luttwak. No, Senator, what I'm saying is----
    Senator Boxer. So, he's not----
    Dr. Luttwak [continuing]. That our troop presence is, of 
course, fueling the nationalist reaction, and, therefore, the 
insurgency.
    Senator Boxer. You are saying----
    Dr. Luttwak. But--yes--at the same time--you see, whenever 
you introduce troops anywhere in the world, you will cause some 
national reaction. But you, nevertheless, introduce them, 
because they achieve tactical operational purposes. Iraq is 
different. That is, by being there, you evoke a nationalist 
reaction, but you're not getting the tactical payoff, because 
they cannot even see the enemy.
    Senator Boxer. Well, sir----
    Dr. Luttwak. And that is the reason why the position is 
taken by Senator Biden and by all--by many people, including 
our generals, that we should not have more troops, but less 
troops.
    Senator Boxer. Yes.
    The Chairman. He's agreeing----
    Dr. Luttwak. And be----
    The Chairman [continuing]. With you.
    Dr. Luttwak [continuing]. Less visible.
    Senator Boxer. I appreciate that.
    Dr. Luttwak. Yes.
    Senator Boxer. Dr. Korb, anything? And then I'll stop. I'd 
just like your response.
    Dr. Korb. Well, I think that Ed makes a terrific point 
here, and that the generals were correct that more troops will 
not stop more Iraqis from dying. And one of the things I think 
we have to be very careful of--I see this undercurrent from the 
administration and some of their supporters, blaming Casey and 
Abizaid for the failed strategy. No; they had the right 
strategy, and to put them up and to blame them, to me, is 
simply irresponsible. What I do think is, more American troops 
will mean more American casualties, rather than the question 
that Ed talks about with the Iraqi casualties.
    The Chairman. So, I understand that you both agree with the 
Senator, that we should not surge, and a reduction in troops is 
more likely to lead to a positive outcome than a negative 
outcome.
    Dr. Luttwak. Yes, sir.
    Dr. Korb. Yes.
    The Chairman. Thank you.
    Senator Boxer. Thank you.
    The Chairman. There you go. Governor.
    Senator Voinovich. Thank you, Mr. Chairman. I want to say 
that I congratulate you and Senator Lugar for the hearings that 
you've had on Iraq, because I think it's one of the most 
important issues that have come before us, and it will have a 
longstanding impact on our national security and peace in the 
world.
    You all agree that we need to engage more in the region, 
and get more parties involved in Iraq, but what is the best way 
to do that? Do you agree that we should sit down at a summit or 
a conference and talk about Iraq, or should it occur 
bilaterally? Should the Iraqis lead this process, or should the 
United States? Should America reach out to Syria and Iran? Most 
of you have said that we should. Is it possible to talk with 
Iran without involving Iran's President? And how would 
engagement with Iran and Syria affect the internal political 
situation in Iraq?
    So, there is a series of things I'd like you to comment on. 
And the last one is the question I've been asking for 2\1/2\ 
years studying the history of Muqtada al-Sadr and his family. 
How can there possibly be a unity government with Sadr, who, 
from everything I read, wants to be the next Ayatollah of Iraq, 
and who has very close family connections with the Iranians--
though some of you have said that the Shiites in Iraq are 
somewhat different from those in Iran?
    Dr. Malley. Senator, as you know, I--as I said in my 
testimony, I believe that a multilateral strategy of engagement 
with the region is absolutely critical to success, not because 
the region--the neighbors play--have played a critical role in 
instigating the crisis, but because the crisis has gone so far 
that, without the help of all the actors who have leverage, 
influence, contacts, whether with tribes, militias, groups in 
Iraq, it's simply going to be impossible to stabilize the 
situation.
    Senator Voinovich. And what are the incentives for regional 
parties to come to the table to help stabilize Iraq?
    Dr. Malley. I think there are two series of incentives. 
Some of them already exist. Basically, I don't think any 
country in the region has a real incentive in seeing Iraq 
collapse into civil war. We're already seeing--we have a 
presence in Syria, and we're already seeing the--some Syrians 
being very worried about the impact of having a civil war in 
Iraq, possible civil war in Lebanon, a minority Alawite regime 
in Damascus. That's not a comfortable position for them to be 
in. So, they are already built-in incentives that the status 
quo is dangerous for them. But that's not going to be enough. I 
think we know that both Iran and Syria, if nothing else 
changes, would prefer to see instability in Iraq rather than a 
United States victory there--United States success there. So, 
there's going to have to be--if we really want to engage the 
region--and, in particular, Iran and Syria--a revisiting of our 
strategy toward those two countries.
    Now, that's doesn't mean, as Secretary Rice has said, that 
we're going to give in to extortion or that we're going to 
surrender to them. This is what diplomacy is about, and you've 
had a lot of testimony over the last few weeks of people who 
have been saying that. That's what diplomacy is, it's to try to 
put our interests on the table and see whether there's a way 
that their interests could also be taken into account. It may 
not work. I--just one more--it may not work, but at least it 
has to be tried. And for the last 6 years, we've given up 
diplomacy in the region, on the assumption that talking to 
people we don't agree with somehow is a sign of weakness.
    Dr. Luttwak. I respectfully disagree with this. I note that 
it's been espoused by the most distinguished people, but I 
still disagree. Our cooperation with Iran, which was very real 
over Afghanistan, took place situationally. They had been 
supporting the Northern Alliance, keeping it alive. We needed 
to go in. They had their own interest in the Hazara and Herat. 
They were very concerned about the Hazara, because they are 
Shia. You know, they are the so-called oriental Shia of 
Afghanistan who were killed by the Taliban. In this context, we 
didn't discuss, we didn't negotiate. If we had negotiated with 
Iran at the time, we would not have had cooperation, because 
whoever Iranian would have negotiated with us would have been 
immediately attacked in his own country as a traitor and 
undermined because he talked to us. Formal diplomacy does not 
work in a situation where the politics within the ever-
narrowing group of extremists who run Iran, mandates that 
whoever talks to the Americans is a traitor. So, formal 
diplomacy advocated by so many people--and I'd defer to their 
great experience and high reputations--is bound to fail----
    Senator Voinovich. So----
    Dr. Luttwak [continuing]. We've had with----
    Senator Voinovich. So, you----
    Dr. Luttwak. Yes; you talk to them, you get nowhere, but--
--
    Senator Voinovich. So, you would not talk with Iran, but 
you would talk with the Saudis and with the Egyptians and 
with----
    Dr. Luttwak. Again, it is not the talking--it's the 
situation that is driving things. We negotiated and talked to 
the Saudis for decades, and they were never our true allies. 
But when the Shia ``crescent,'' as they call it, from Pakistan 
to the Mediterranean, emerges, suddenly here are the Saudis, 
spending hundreds of millions of dollars in Lebanon to help 
Prime Minister Siniora hold up the Hezbollah with one finger. 
He's holding them with one finger, because of--the Saudis are 
behind him. The Saudis have cut off Hamas. The Saudis are 
really cooperating, for the first time, because they're 
terrified of the Shia. Similarly, the Iranians cooperate in 
Afghanistan because of the objective circumstances. The moment 
you sit down and talk to them, you are entering in a 
negotiating process in which the internal dynamics of it make 
it difficult or impossible for them to really cooperate with 
you.
    So, what we have to do is to continue to handle the 
situation. We did not create this division between Sunni and 
Shia. You could argue that it was implicit as soon as the 
Sunnis became fundamentalists, the emergence of the Shia 
identified as heretics and apostates----
    Senator Voinovich. All right.
    Dr. Luttwak [continuing]. Was inevitable. The situation 
is----
    Senator Voinovich. So, you're saying that you wouldn not 
even gather the different regional parties and factions 
together to talk about----
    Dr. Luttwak. What happens is that we--you are gathering, 
you are influencing, you're achieving an equilibrium. You 
disengage American forces. You don't abandon, you don't run. 
You disengage. And you force responsibility on people. You see, 
you can sit and talk--you see, there are complexities here. For 
example, you mentioned Muqtada al-Sadr.
    Senator Voinovich. Yes.
    Dr. Luttwak. The Sadr family has historically been in a 
feud with the al-Hakim family, which is the so-called Supreme 
Council for the Islamic Revolution in Iraq. And that's how we 
saw the spectacle of al-Hakim coming to the White House and 
talking to President Bush--a man who spent 23 years in Iran 
declaiming ``Marg Barg America,'' death to America. He was in 
Washington, talking to President Bush. That's the reality 
level.
    You manage the situation, and then you have the substance 
of diplomacy.
    Senator Voinovich. All right, let me just----
    Dr. Luttwak. But the act of talking destroys the substance.
    Senator Voinovich. Let me get back to the last question. In 
your opinion, can there be a political deal that achieves a 
unified Iraq, with the presence of Muqtada al-Sadr?
    Dr. Luttwak. Well, Sadr--you said that Sadr is pro-Iranian. 
Actually, Sadr's polemic in Arabic, is constantly attacking 
Ayatollah Sistani for being an Iranian. As you know, Sistan is 
the most remote province of Iran, on the Pakistani border. He's 
saying, here we have a remote Persian who is supposedly the 
leader of the Shia in Iraq. That's his polemic. So, again, 
there are great complexities.
    As you would not want to go and manage the school board 
politics in Mississippi because of complexities beyond you, 
similarly we should not be going and trying to manage the 
complexities of Iraq. By disengaging, we are imposing 
responsibilities on everybody, including the Iranians, 
including the Syrians. The Alawite regime in Damascus is not 
even Shia, they're only nominally Shia; they're Nusayris, who 
are considered apostates from Islam, and pagans by orthodox 
Sunni Muslims. Once we withdraw, the Syrians will stop 
cooperating with the bad guys. So, in other words, the 
substance of diplomacy, but not its formality.
    Dr. Gelb. Senator, if I may respond to your question?
    Dr. Korb. Well, let me----
    Senator Voinovich. Yes.
    Dr. Korb [continuing]. Go. I missed my chance here. It went 
right by me. I was about to go, and Ed took the microphone 
here.
    Once we announce that we're leaving and we don't want to 
have any permanent bases in Iraq, the countries in the region, 
as well as the Iraqi people, know that it's no longer just our 
problem, it's theirs. None of the countries, including Iran and 
Syria, want to see Iraq become a failed state or a haven for 
al-Qaeda. And so, therefore, I think, if you appoint a high-
level envoy of the stature of somebody like Colin Powell or 
Madeleine Albright, they will be able to get the countries in 
the region together.
    I don't know if it's true, I've seen reports that the 
Saudis may have been responsible for the missile that shot down 
the American, you know, helicopter. We--so, they're involved, 
as well. They're not going to let the Sunnis lose, however you 
want to define that. So, they all have an interest in 
stability, and once they know that we will not be there 
forever, they're going to be willing to cooperate. Now, the 
form, I think, you know, becomes immaterial.
    In terms of Sadr, it's very interesting, what Sadr has said 
is he's coming back into the government, but he wants an 
American withdrawal, he wants us, you know, to set a date to--
you know, to get out. Remember that Maliki was not the original 
choice of the Iraqis. We did not like the original choices of 
the Iraqis. Jaafari and we put pressure on them to come up with 
someone else, so we're partly responsible, you know, for this. 
But, again, I think, once you set a date to get out and they 
know you will not be there permanently, a lot of the people 
will not continue to fight. Many of the people over there are 
fighting simply because they see this as an American 
occupation, and they will not, as has been pointed out here, 
ally themselves with al-Qaeda. They don't like al-Qaeda. Less 
than 5 percent of the Iraqis support them. So, once it's clear 
we're getting out, the violence, I think, should diminish.
    But let me conclude with this on negotiations. Every time I 
hear people say, ``Well, you shouldn't negotiate, it's a sign 
of weakness,'' I remember what the late Yitzhak Rabin said when 
they asked him, ``Why are you negotiating with Arafat? How can 
you negotiate''--and he said, ``You've got to negotiate with 
your enemies. It's your friends you consult with.''
    Dr. Gelb. If I may, Senator, briefly, although your 
question deserves a long answer--and you may want to devote a 
session to the diplomacy of the region, it's worth it. To me, 
diplomacy is absolutely essential, but you can't talk about 
diplomacy as if to do it represents American weakness. And I 
think that's a fundamental mistake that the administration is 
making. Diplomacy is going to give us answers to questions we 
don't really have good answers to right now. That's why you 
engage. We've engaged with some of our worst enemies throughout 
our history, and we prevent some things from getting worse, and 
we begin to use American power through diplomacy. And we 
shouldn't be afraid of doing it.
    On the issue of Muqtada al-Sadr, I think none of the 
parties are going to give up their militias. They just aren't 
going to do it. You don't have any trust and confidence. You 
have hatred. And the militias protect the various sectarian 
groups, so they're not going to give them up. I think the only 
way to deal with them is in the context of a decentralization 
or federal system where the Shiites would be responsible for 
dealing with Muqtada. And I think they're better able to do it 
than we or the Sunnis or the Kurds. Muqtada is going to be a 
real problem, but let him be the Shiite problem, not ours.
    Senator Voinovich. Thank you very much, Mr. Chairman. 
Appreciate the time.
    The Chairman. Thank you very much, Senator.
    Senator Obama.
    Senator Obama. Thank you very much, Mr. Chairman.
    Thank you, to all the panelists. This is an illuminating 
discussion.
    I would just like to summarize what I've heard. Because we 
have a very practical decision that Congress is facing, and 
that is, how do we approach the administration's proposal to 
escalate troop levels. And so, I just want to be focused on, 
and make sure that I'm hearing your testimony properly.
    Is there anybody on the panel who thinks that it is the 
right approach for us to escalate troop levels, at this point?
    [No response.]
    Senator Obama. As far as I could tell, I didn't hear 
anybody suggest that increasing troop levels would be the 
correct approach. So, the second question I have is: Would 
everybody be in agreement with this premise that initiating 
some sort of phased redeployment or withdrawal of our troop 
levels--understanding that some United States troops would 
remain for force protection, training of Iraqi security forces, 
and counterinsurgency activities--would be more likely to 
result in a better outcome than the course that we're on right 
now? Is there anybody who disagrees with that?
    [No response.]
    Senator Obama. Since that is the case, I would like to note 
that one of the difficulties that all of us here are grappling 
with is that the tools available to Congress to force the 
administration's hand are quite limited. So, an issue that I'm 
interested in is the panel's assessment as to how quickly we 
could potentially begin a phased withdrawal in a responsible 
fashion. And I'm wondering if anybody has opinions on that. I'm 
interested if any of you have a timetable that you would feel 
comfortable with, saying, let's say, in May or June, that we 
would begin some phased redeployment to send a clear signal to 
the Iraqi Government, and to the factions involved, that 
they're going to have to move forward on a political solution. 
Anybody want to address that question?
    Dr. Gelb. My opinion is that we sit down with our military, 
on an urgent basis, and get an answer to your question.
    Senator Obama. OK.
    Dr. Korb. I think that you should begin to withdraw right 
now, take out about 8,000 troops a month, so you'd be there 
over the next 18 months. When we withdrew from Vietnam, we took 
out 10,000 troops a month to get the number down to what it was 
at the time of the Paris Peace Accords, which was about 21,000. 
I think that can be done safely. I think it helps us fulfill 
our moral responsibility to the Iraqis. It gives them time to 
do what they need to do. And it also improves our ability to 
deal with our other strategic interests around the world.
    Senator Obama. Good.
    Dr. Malley. Senator, two points. First, I think it's not 
only a matter of withdrawing. I mean, it is withdrawing, but 
also changing the task that our troops are currently involved 
in. The other point, which I emphasized in the testimony, is I 
think it's--the administration is taking this backward--it's 
not a matter of deciding the troop level, it's having a 
political strategy that you could then adapt your troop 
presence to. We could withdraw, but that needs to be attached 
to a political strategy. If there is no political strategy, I 
think you accelerate the withdrawal far more----
    Senator Obama. OK. So, let's shift gears to address the 
political strategy. I'll start with Mr. Gelb. I know you and 
Senator Biden have put forward a proposal that I believe makes 
some persuasive points.
    The only question I have on a more active federalist 
strategy of the sort that you're pursuing is whether that's one 
that we should be initiating, as opposed to letting that unfold 
as a consequence of us putting more pressure on the Iraqis to 
figure out their problems. In short, if we begin a phased 
withdrawal, it strikes me that this places pressure on the 
Iraqis to forge and subsequently own a political settlement 
that is going to work. And, at that stage, then, it might be 
that the proposals that you and the chairman have suggested are 
the ones around which we arrive at an Iraqi consensus. But is 
there a concern that if we predetermine what that consensus 
should be, and push that too hard, that there might be 
significant suspicion on the part of the Sunnis that this is 
just a strategy to disadvantage them?
    Dr. Gelb. Well, we haven't predetermined it. It's in their 
Constitution.
    Senator Obama. OK.
    Dr. Gelb. And the chairman read from their Constitution, a 
moment ago.
    Senator Obama. Right.
    Dr. Gelb. It explicitly calls it a federal system, it 
explicitly provides for provinces to unite with other provinces 
to create regional governments. Eighty percent of the country 
approved. Eighty percent of the national assembly approved 
implementing legislation for it, although they've deferred that 
because of the opposition. The opposition is based on some 
legitimate arguments, because everything is hard. People say 
it's going to lead to partition. But what's happening now is 
producing partition. People say it's going to lead to ethnic 
cleansing. But that's what we've been witnessing for the last 
several years.
    When you can't reach reconciliation politically on the 
basis of a strong central government, the historical 
alternative has been decentralization and federalism. We can't 
shove it down their throats, obviously, but we can help them to 
reach the conclusion that I think the majority of Iraqis want 
to reach; namely, stay together as a nation, with the central 
government performing certain essential functions, but with the 
regions doing the legislating and administering according to 
their own ethnic and religious wishes.
    Senator Obama. OK.
    Dr. Luttwak. May I?
    Senator Obama. Please. Why don't we just go down the line, 
and then----
    Dr. Luttwak. Yes.
    Senator Obama [continuing]. I will just listen and ask no 
followup questions.
    Dr. Luttwak. Senator, I don't like the word ``withdrawal.'' 
I like the word ``disengagement.'' It means you don't patrol 
the villages and towns, you don't interfere, you don't go 
through their underwear searching for items in their houses. 
You do stay in bases, and the number, therefore, you require--
if you had no concern with numbers and you had an infinite 
number of troops, you still would not want more than 12,000, 
15,000. And then, you allow the normal processes of politics to 
take place and allow the Iraqis to have their own history. I'm 
very uncomfortable about this talk of a federal constitution 
based on the principles of Locke, Burke, and Madison, which 
are--in the society that is tribal, that is multiethnic, 
multireligious, and which is in a completely different 
situation. And I believe that the act of disengagement will 
force responsibility on the Iraqis. And I believe that all 
their different politics will not result in areas of Iraq where 
you're going to have al-Qaeda living comfortably, because they 
want to rule in their own homes. And I additionally believe 
that the process will not increase the number of people who die 
in the process.
    Senator Obama. Thank you.
    Dr. Korb. I think that they may end up in the situation 
described by Chairman Biden and Les Gelb, but I think we have 
to be careful that it doesn't look like a ``Made in America'' 
type of solution. I think, as I suggested in my testimony, that 
we convene a Dayton-style conference, get the parties together, 
let them work out the arrangements that are most amenable to 
them. And it--and as long as those--that arrangement involves 
the--deciding what the provincial government should do, what 
the central government should do, the oil revenues are 
distributed fairly, minority rights are protected, the role of 
religion in society--as long as those issues are handled, the 
way they handle them really has got to be up to them.
    Senator Obama. Thank you.
    Robert.
    Dr. Malley. Four quick points.
    First, we've not tried, really, to create a political 
reconciliation between the parties. What we've done is, we've 
worked with a select group, many of whom, in fact, had as an 
explicit or implicit agenda, the division of the country and 
their own personal private interests, as I said, acting--
earlier--acting as warlords rather than statesmen.
    Second, yes; there's going to have to be, if you want 
reconciliation, an amendment to the Constitution. I think, 
actually, the Gelb-Biden plan does include amendments to the 
Constitution. A constitution that is rejected almost en bloc by 
20 percent of the population defined through sectarian--in 
sectarian ways, is not a constitution that could bring the 
country together. We know that, and--we should know it from our 
own history.
    The third point is--and this is not in the Gelb-Biden plan, 
but there are some who are appealed--attracted to the notion 
that Iraq could simply devolve into a three-way confederation. 
Let's not kid ourselves, that's going to be extremely bloody, 
the lines are still shifting, it's a mosaic, but it's a mosaic 
that's continually being redefined. There are clashes within 
communities that sometimes are as vicious as between 
communities. It may be the outcome. I think that's something 
that we've all agreed with. It may be that the country just 
collapses. But it's not something that we should be a party to, 
it's something that we should--if it happens, we should stay 
away from.
    Senator Obama. Thank you very much.
    Mr. Chairman, thank you.
    The Chairman. Thank you very much.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    I want to thank all of the panelists for their tremendous 
insights.
    Let me just ask--I'll start with you, Dr. Korb, but also 
anyone who wants to respond--it seems to me, whether it's 
disengagement, strategic redeployment, or even the 
administration's plan, which I oppose, the question is: Don't 
we need benchmarks that have consequences? We had the Secretary 
of State here, and she clearly did not have that view. But it 
seems to me that benchmarks without some form of consequences 
are merely aspirations. And we have seen, already on several 
occasions, where benchmarks without consequences have come and 
gone. And it just seems to me that they're critical, both in 
our context for the Congress, in keeping people accountable, 
particularly in Iraq and its leadership. Do you believe that we 
need to have benchmarks with consequences?
    Dr. Korb. Very definitely, because if we do not, then the 
Iraqis will avoid making these painful political compromises 
that we spoken--because they are difficult, they want to remain 
in power and keep the government together. So, without these 
benchmarks, they'll continue as they have.
    Let me make a point which I think is very important. They 
had their elections over a year ago. In that time, we have lost 
a battalion's worth of soldiers and marines, killed or wounded, 
while they have been dithering. They promised to modify the 
Constitution 4 months after the election. We're now 13 months. 
We have seen, for the last 5 years, ``Give us 6 more months, 
give us 3 more months, and things will change.'' How many times 
do we have to do it? So, I think, yes; you need to have 
benchmarks. If you don't, there's no way in which you can use 
whatever leverage we have left to get them to do what they need 
to do.
    Senator Menendez. Now, National Security Advisor Hadley 
seems to be, sort of spinning the escalation plan by discussing 
the idea of benchmarks. He said on Friday, ``It's going to be a 
little bit pay-as-you-go,'' which is a budgetary provision we 
have here, or we should have here, but we don't have it right 
now--and it's going to depend a lot on Iraqi performance. But 
without benchmarks to determine what those performances are, 
and consequences, it really isn't very much pay-as-you-go. Is 
that a fair statement?
    Dr. Korb. Very, very definitely. I mean, one of the most 
interesting things I've seen on this is a column by Charles 
Krauthammer in the Washington Post on the 19th of this month, 
where he basically said, ``We need to find a redeployment 
strategy that maintains as much latent American strength as 
possible, but with minimal exposure. We say to Maliki, `Let us 
down, and we dismantle the Green Zone, leave Baghdad and let 
you fend for yourself. We keep the airport and certain 
strategic bases in the area.' '' And he goes on and on with 
other things. And I think that's the key thing. We've got to 
put pressure on him.
    Senator Menendez. Yes.
    Dr. Malley. If I could add, I think this is the key point. 
It's benchmarks, it's accountability, it's conditionality, 
things that have been completely lacking so far. And the 
problem in the way that I'm seeing the administration doing it 
is we're first giving--we've said we're going to send the 
troops, we say we're going to continue support, before having 
gotten from them the kind of commitments and the kind of proof 
that they're acting in the way they need to act. And I think 
that's taking it backward and upside down. We need to make sure 
that they are acting in the way that they need to act, and we 
need to condition any support on them delivering on those 
promises.
    Senator Menendez. Now, Dr.----
    Dr. Gelb. May I respond to the question, too----
    Senator Menendez. Surely, yes; please.
    Dr. Gelb [continuing]. Senator? Two things. First, on the 
issue of conditionality--to me, there's only one condition, and 
that is political reconciliation. I think if they don't achieve 
that, nothing else is going to be possible. They can go through 
kabuki acts about dismantling militias, and arrest 400 militia 
from Muqtada al-Sadr, and then release them 2 weeks later. The 
only thing that's going to work is political reconciliation, a 
political power-sharing agreement.
    Meantime, I think the way to reinforce this and help bring 
it about is to start the withdrawal process.
    Senator Menendez. Even under political reconciliation, you 
could have benchmarks to determine whether you're moving in 
that direction.
    Dr. Gelb. You could. It's hard to define them, but I think 
we'd know it when we see it.
    Senator Menendez. Yes.
    Dr. Korb, let me just take a moment--because I think one of 
the legacies here, one of the consequences of escalation, as 
the Congress thinks about its position on the votes that will 
be upcoming on the President's plan, is the consequences and 
the legacy of what happens to both our Armed Services and 
Reserve. And since you were an Assistant Secretary of Defense, 
particularly on manpower and Reserve affairs, and have written 
on some of that, it seems to me that one of the important 
legacies of this war of choice for the American people and its 
leaders is--to wrestle with for the foreseeable future--is the 
consequences on our force structures, our Reserves and our 
Guards. And I'd like to ask you to comment on that. I know you 
were quoted, in December, talking about a post-deployment death 
spiral. Maybe you could speak a little bit to that. Also, what 
are the consequences of the President's plan, increasing the 
number of troops in Iraq, on both the Armed Forces and the 
Guard and Reserves, both in the short and the long term? I 
think those are real consequences, when we think about national 
security in an even broader context with some of our other 
challenges in the world as we debate Iraq, specifically.
    Dr. Korb. I--if, in fact, you--this surge becomes 
permanent, it becomes--you're going to keep 21,500 more troops 
in Iraq over the long term, you're going to have to mobilize 
Guard and Reserve units who have already been mobilized at 
least once. When--as they say, when I was in the building, our 
policy was not to mobilize them for more than 1 year out of 
every 5, because the data showed, if you do that, you're going 
to lose a lot of the people. If you take a man or woman who's 
in the Guard, and you want to take more than 20 percent of 
their time away from their civilian career, they're simply not 
going to stay, they might as well join the Active Forces. So, 
you're going to have to mobilize units again that have already 
been mobilized at least once for close to 2 years, since 
September 11. And I think, if you do that, that will bring 
about this death spiral.
    In my testimony, I urge Congress to clarify the law and 
force the President to come back if he wants to remobilize 
those units again and present the--present the reasons.
    Let me put it very bluntly. I think it's--we have missed 
something in this whole war. When we created the volunteer 
military, the idea was that we would have a small Active Army, 
and that Guard and Reserve would be a bridge to conscription, 
to the draft, if we had a long ground war. That was the idea. 
What has happened is, the Guard and Reserve have become an 
adjunct to the Active Force, and we haven't even thought about 
going back to--going back to the draft. It's important to 
remember, this is the first extended conflict we've ever had 
where we have not had conscription and we have actually lowered 
taxes, not raised taxes.
    And so, I say, you know, as look at this, you cannot--you 
need to understand, you've misused the Guard and Reserve. This 
was not what we intended for the Army Guard and Reserve. The 
first Persian Gulf war was the way the volunteer military was 
constructed, not the second Persian Gulf war.
    And then, finally, one of the reasons I urge redeployment 
is, the Guard, particularly, has a role in homeland defense. 
This has become a new critical area of security. If they are 
spending their time away from--they're not going to be able to 
fulfill that. Remember, now, that you've taken a lot of the 
equipment, from the Guard particularly, sent it to Iraq, left 
at Iraq. The people home here do not have enough equipment to 
train on. So, you had not only--that's why I talked about the 
death spiral--it's not just the personnel, it's also the 
training of these units.
    Senator Menendez. And, very quickly, several of the 
testimonies we've had here talks about--including the 
architects of this plan--talk about several years more of 
engagement, in a military context. If that is the case, how 
long can we continue to go through the present structure, 
engage for several years, and not, at some point, look at the 
question of whether conscription is necessary?
    Dr. Korb. Well, the President has belatedly agreed to raise 
the size of the ground forces. This is something that should 
have been done, and many of us urged, right after September 11. 
That was the time when you could have gone and won. I don't 
think you can continue to maintain 150-or-so-thousand troops in 
Iraq, whatever--you know, 20-30,000 in Afghanistan, 
indefinitely without breaking your volunteer ground forces. You 
would have to really consider going back to some form of 
conscription. After all, if people are registering for the 
draft, and you don't use it now, when will you use it? I mean, 
why--we go through this thing about having people register. And 
I have urged the Congress to take a look at Congressman 
Wrangle's proposal. It doesn't mean you have to adopt it, but I 
do think it needs to be debated. And the American people have 
no emotional involvement in this conflict, and, because of 
that, I don't think that, even though they voted one way, 
they're going to be as involved as we were, for example, back 
in Vietnam.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    I have been in the confirmation hearings on General 
Petraeus. And, of course, this same issue has been discussed 
quite extensively.
    Thank you all for coming, and thank you for your expertise, 
thank you for your public service.
    With every mistake that has been made, we are where we are. 
I guess the essential question I want to ask is: What do we do? 
Aggressive diplomacy? Bring the people and countries in the 
region in to help us solve the problem? Reach out to those who 
have been ignored, with aggressive diplomacy? And, possibly, 
Senator Biden's plan of trying to separate the various sectors, 
to try to bring stability to the region? Please comment.
    Dr. Luttwak. Should I----
    Dr. Gelb. Please.
    Dr. Luttwak. Senator, many things have happened since this 
war started. Unplanned, unwanted. But some of the things that 
have happened have gone in our way and not against us. The 
ancient quarrel between Sunni and Shia has become a dynamic 
conflict. That has terrible consequences, but it also gives us, 
for the first time, real allies. Sunni states that, before, 
were taking our aid and support, but never did anything for us, 
are now working for us in Lebanon, they're working for us with 
the Palestinians--for example, the Saudis have finally cut off 
Hamas because of it, because they see how much it aligned with 
Iran, and anybody that's aligned with Iran is out. Another 
unexpected consequence is that this entire campaign by the most 
extreme element in Iran, to become leaders of the Middle East 
by being the most anti-American, anti-Israeli, and anti-Jewish 
has entirely failed. Now they are no longer considered Middle 
Eastern fellow brothers, they are called Ajamis, which are 
apostates and so on.
    Senator Nelson. So, on the----
    Dr. Luttwak. So, in all these----
    Senator Nelson. Let me just make a----
    Dr. Luttwak. Sure.
    Senator Nelson [continuing]. Parenthetical that will 
corroborate what you said. As I was sitting with King Abdullah, 
and he was talking about the threat of Iran, if I had closed my 
eyes, he could have been saying almost word for word what 
Benjamin Netanyahu had said about the threat in the region by 
Iran, only 7 days earlier.
    Dr. Luttwak. Indeed. And this is--has consequences. And, at 
the same time, within Iraq, the different Shia groups rely on 
us to protect them from the Sunni revival, because, as you 
know, even though the Sunnis have always been--the Arab 
Sunnis--a small minority in Iraq, they've always ruled, because 
of--the Shia are fragmented hopelessly. Now, in this 
environment, if we remove and reduce--without disappearing or 
abandoning, we just withdraw our active presence, we 
disengage--we will impose on them the obligation and necessity 
of resolving these issues. And we have large areas of Iraq 
which already are at peace. And I mentioned the big city of 
Mosul, most of Basrah--Basrah, most of the time, and the areas 
are narrower and narrower. So, I think that the situation is 
not catastrophic, and I believe that if we just disengage our 
forces, we will allow more of this natural equilibrium to arise 
and that we'll be able to retain our influence.
    I remember, in Vietnam--most of you are too young to 
remember this, but when we had United States forces in Vietnam, 
there was a ``Hanoi Hilton,'' the prison where they kept 
American POWs, mostly pilots. Today in Hanoi, there is a Hilton 
and a Sheraton and a Marriott, and they're all coming up. In 
other words, the situation is not so bad as it is, and 
paradoxically--and there, I agree with the entire panel in 
every respect--by being, ourselves, active in the environment, 
we are generating negative elements, and that is why surge is a 
bad idea, why disengagement will bring, I think, positive 
results.
    Dr. Gelb. Senator, if I would answer your question very 
briefly, it is that we--if we have any chance of doing 
anything, given all the blunders that have been committed, it's 
got to be a strategy where politics is in the lead, where 
political settlement is the first thing we try for, and where 
we put forward a realistic way of doing it; namely, a 
decentralized federal system. I don't think anything else will 
work. And the military withdrawals, which ought to be taking 
place as soon as possible, and the diplomacy, should be in 
support of that political settlement.
    If that doesn't happen, if the Iraqis don't want to do it, 
and we can't help them to do it, then we're going to have to 
think of more direct means to disengage.
    Dr. Korb. Senator, I think you're right that we are where 
we are; however, I hope that we've learned the lessons, over 
the last couple of years, that will guide as the way to go 
forward. It's also important to keep in mind, as I mention in 
my testimony, that, given where we are, there are no good 
options. If we knew what to do, we--you know, there would be 
complete agreement in the country. The question is, Do you pick 
an alternative that maximizes the chances of protecting overall 
American security interests and fulfills our moral obligation 
to the Iraqis? And as my colleagues have said, it's got to be 
not a military surge, but a diplomatic surge. And I would argue 
for a phased redeployment that gets completed by the summer of 
2008. And, while I recognize that taking all of our troops out 
of there could have some potential drawbacks, the fact of the 
matter is, there are many people in Iraq who don't believe 
we'll ever leave, many people in the Middle East that think we 
see Iraq as another base to project American power, and I think 
it would diminish that. And I am also convinced that once we're 
out of Iraq, al-Qaeda will not get the support from the Iraqi 
population. Ninety-five percent of the Iraqis don't like al-
Qaeda, and they're about 2 to 3 percent of the problem there 
right now.
    Senator Nelson. Before Dr. Malley comments--I just want to 
say, regarding lessons learned, you're absolutely right, Dr. 
Korb. And, sadly, one of the questions I had to ask General 
Petraeus today--and I told him, before, I was going to ask him 
this--``Will you sit silently by your civilian superiors when 
you know that they are giving incorrect and misleading 
information?'' In answer to that question, he said no; he would 
not. But I had to ask that question.
    Dr. Malley. Senator, first let me say, even though it may 
end up that we disengage, as Ed Luttwak said, I don't think we 
should look at that complacently. We've rolled the dice once by 
going in. Rolling the dice by coming out is--could be a very 
risky venture. I'm not quite as optimistic about events in the 
region. I think the sectarian strife in Iraq is fueling 
sectarian tensions outside of Iraq, and vice versa, and that is 
not a very optimistic picture, I think, for U.S. interests. 
That's why I would argue--and along with what Les Gelb said, I 
think he said it very well--we have one last chance now to try 
to see whether we can achieve a political reconciliation, 
whether the Iraqis can achieve a political reconciliation. And 
that means using two tools we haven't used so far--multilateral 
diplomacy, diplomacy in the region, and a far more inclusive 
approach to Iraqis, not simply playing with those who we've 
played with so far, whose agendas have been, as I've said 
earlier, very personal partisan agendas rather than having an 
inclusive strategy in Iraq itself--and trying to reach a new 
political compact, and giving a real choice to those in Iraq 
who we've put in power, ``Either you act in a national interest 
or we're going to cease supporting you.''
    If we take that chance, I think we should develop it 
immediately and see whether it can work, and then use our troop 
presence or withdrawal as leverage to achieve that end. If we 
don't, if the administration chooses not to, or if our Iraqi 
allies are not prepared to do it, then I think we need to very 
quickly accelerate our withdrawal and end this sad chapter in 
our history.
    Dr. Korb. Senator Nelson, if I may, you raised the point 
about General Petraeus, and I made it before, I do not want to 
see this administration blaming the generals there for the 
policy. And General Abizaid and Casey were very honest with 
you, and it looks to me that now people are, you know, blaming 
them for being honest. So, I think it's important to keep in 
mind, it's not that the predecessors haven't been honest--and I 
assume that General Petraeus will be as honest, as well--but 
that you ensure that people are not being punished for being 
honest and testifying forthrightly before the Congress.
    Dr. Gelb. Both General Abizaid and General Casey, I think, 
have been incredibly up front on the central point of this war; 
namely, that there is no military solution to it, there is 
only, if we can do it, a political solution. And they've said 
it week after week.
    Senator Nelson. I agree with you about both Abizaid and 
Casey. And I was often the one asking the question of both of 
them, particularly Abizaid, because as I would tell him, ``I 
trust you. I trust your judgment''--I'm referring to 6 years of 
the Secretary of Defense sitting at the table and saying such-
and-such about troop levels, saying such-and-such about the 
cost of the war, saying such-and-such about weapons of mass 
destruction, saying such-and-such about sectarian violence. And 
it wasn't the truth. About the reenlistments, about the state 
and readiness of equipment of the Guard and the Reserves. And, 
often, generals were sitting there silently. That's what I'm 
referring to.
    Dr. Korb. If I may, I think one--and I mentioned this 
before, and I think it's very important--when General Shinseki 
was asked by Senator Levin how many troops we needed, there 
were other generals sitting at the table who did not support 
him, and I think that is a very, very critical issue. And, as 
you know, that he basically was told he didn't know what he was 
talking about by civilian leaders in the Pentagon. And I don't 
remember, at that time, even people who now are urging more 
troops, speaking up for General Shinseki.
    Dr. Luttwak. Sir--Senator, it's not just General Shinseki, 
although what was said is completely accurate. My own 
experience was, I was working with the Marine Corps in the 
preparation for the war. There was a consensus--there were 
young Marine officers in Quantico who had all the facts about 
Iraq. They knew about the fact that, in addition to Sunni and 
Shia, there are Yazidis. They knew about the situation of the 
Turkmen in Kirkuk. They knew about the correct force level. 
There was a consensus. In fact, our system worked. Their system 
worked. The professionals who were supposed to know these 
things knew them. So, if you want to draw a lesson from it, it 
is: There was a disconnect here between the policy level, that 
was much more optimistic and dealt in general categories called 
freedom and democracy, and the people who actually had to worry 
about what they called ``rear-area security.'' Because the 
actual territorial control was viewed under the heading of 
``rear-end security.'' That's how General Shinseki came up with 
the number, because General Shinseki didn't think you needed 
400,000 troops to defeat Saddam Hussein, it was the consensus 
that it would be very easy to defeat him. There was no 
disagreement. It was about how many troops you would need to 
control the environment. And I got myself labeled as a racist, 
by a nameless policy person in the Pentagon, because I said 
that our troops would have to guard everything including 
protecting hospitals and schools from the people who use those 
same hospitals and schools. I was labeled a racist. But that 
was the consensus view of all the military officers I was 
dealing with professionally. So, that was a mistake. And today, 
the consensus is against surge, simply because the enemy is low 
contrast, unstable, cannot be seen. And we didn't listen to 
them before, we should listen to them now.
    Dr. Gelb. You know, Senator, I feel the military are in a 
particular bind on these questions. I sat and listened to your 
description of what they did while Rumsfeld testified, and it 
was heartaching, because you know that they felt very 
differently than he was testifying. But they're torn between 
telling what they believe is the best military advice and the 
need to salute the Commander and have a can-do attitude. And 
they're torn between that all the time.
    Senator Nelson. But we are entitled to the truth.
    Dr. Gelb. Indeed. Indeed----
    Senator Nelson. And the making----
    Dr. Gelb [continuing]. You are.
    Senator Nelson [continuing]. Of policy is not just the 
executive branch with a compliant Congress. The making of 
policy is with a separate, but equal, branch of government 
asserting itself in the making of policy.
    Dr. Gelb. It's true. And you know the bind they're in, in 
dealing with it.
    Senator Nelson. And that's why I had to ask him the 
question.
    Dr. Gelb. Absolutely.
    Dr. Luttwak. Well, General Petraeus is the author of the 
new counterinsurgency manual, and that counterinsurgency manual 
writes, page after page, chapter after chapter, how you can do 
this and you can do that and do the other, but the actual 
historical experience is that the only people who do 
counterinsurgency well are the ones who can out-terrorize the 
terrorists, that we absolutely cannot do, must not do, will 
never consider. In fact, counterinsurgency is a form of 
malpractice. And there are issues here, beyond the can-do-ism 
and the desire to be loyal, and the desire to tell the truth. 
Counterinsurgency worked for the Germans in World War II. They 
sent a dispatch rider into a village, and he was killed, they 
went and killed everybody in the village. That village and 50 
villages round about were safe for the next--years. We cannot 
do that. We will never compromise our values to win a war or 
anything of the kind. It's unthinkable. And hence, we have a 
problem beyond honesty, beyond can-do-ism, and that is a 
specific issue called counterinsurgency.
    Dr. Korb. Senator, if I might, because you raise something 
important, in terms of military people. They have an obligation 
before you, that's why you gave them fixed terms in office, so 
they could be honest. One of the things that concerns me is 
them showing up on Sunday morning talk shows, you know, and 
things like this. And, for example, let me read you this, 
``Today, approximately 164,000 Iraqi police and soldiers--of 
which about 100,000 are trained and equipped--and additional 
74,000 facility protection forces, are performing a wide 
variety of security missions. Six battalions of the Iraqi 
regular army and the Iraqi intervention force are now 
conducting operations. Iraqi national guard battalions have 
also been active in recent months. Some 40 of the 45 existing 
battalions are conducting operations on a daily basis, most 
alongside coalition forces, but many independently.'' That was 
said--written in the----
    Senator Nelson. By General Petraeus.
    Dr. Korb [continuing]. By--in September of 2004.
    Senator Nelson. 2\1/2\ years ago.
    Dr. Korb. Why was he writing that?
    Senator Nelson. I asked him that. I asked him that, this 
morning. And I said, ``You say that they were trained, but 
they're not, so tell me: How do you think they're going to be 
trained any better today? And how many do we have trained?'' 
And I didn't get a clear answer.
    The Chairman. What we have here is a failure of 
communication.
    Senator, we went almost 10 minutes over, because it was 
worthwhile.
    Let me yield to the chairman, if you have any questions, 
and then I know Senator Boxer has another question, and I have 
a few as well. No?
    Senator Boxer, I'll yield to you.
    Senator Boxer. Yes; thank you so much. This has been really 
illuminating.
    I can't thank you enough. It's a hard time, when there are 
no good choices, there are no great choices, and I think that's 
the--frankly, the worst kind of leadership, is when you're left 
with no good choices, but we'll leave that for another time.
    When I was in Iraq, I rode in a--in an armored vehicle with 
General Petraeus. And I just want to underscore, Senator 
Nelson, what you were saying. When I was in Iraq, 18 months 
ago, I rode with General Petraeus, and he showed me his whole 
thing he was doing to train the Iraqis. We went out on the 
field, and they were driving around, and they were simulating a 
hostage-taking, and they jumped out of the truck, and it was 
impressive. And then he had all the soldiers there, and he 
said, unequivocally, he was very, very, very high on the 
quality of these soldiers. And when I came back, I said, 
``Terrific, let's get out, because General Petraeus said''--and 
remember that joke?
    The Chairman. I do remember.
    Senator Boxer. General Petraeus said, ``This is fabulous, 
we've got 200,000-plus, trained, ready to go,'' and General 
Casey said, ``The bigger our footprint, the worse off we are. 
We're fueling the insurgency.'' Now, the tragedy is, as I hear 
you--you're not the tragedy, you're helping us try to find the 
way here--I wrote down the things I take away, which is exactly 
what I took away 18 months ago, that our presence is fueling 
the insurgency--and whether you use the word ``disengage,'' 
which I respect your view on that, or ``get out'' or some 
fancier word, ``redeploy,'' it doesn't matter--that's part of 
the solution. And I take that away from you.
    Now, I think one of the things that we never say, so I'm 
going to say it--and I always get myself in trouble for saying 
the truth; I'm going to say it--is that we do have to increase 
the end strength. But one of the reasons is a lot of our folks 
are gone--3,000-plus dead, and, I just asked, 10,000 of our 
wounded, out of the 20, cannot come back to fight. So, when we 
talk about increasing the end strength--and I understand 
Defense Secretary Gates says 65,000--I hope we don't lose sight 
of--one of the reasons we have to do this is because some 
people can't come back. So, I want to put that out there.
    The question I had--and I so very much--I have two 
questions, and I'll ask them now, and be quiet and let you 
finish, because I've got 5 minutes left.
    The Chairman. You can take your time.
    Senator Boxer. I have not heard--and please correct me if 
I'm wrong, because if I'm wrong, I'll be happy--I have not 
heard Prime Minister al-Maliki ever say--and he's a leader of a 
country that is going through hell--when we look at the 
pictures of the Iraqis, we feel a pang, whether it's at a 
supermarket, whether it's at a mosque, innocent children, 
babies, mothers, men, women, old, young, screaming in pain, and 
running from the scene--I have never heard him use the word 
``Cease fire. Let's come around the table. This is one 
country.''
    Now, I would like you--if I am wrong on this, please 
correct me, because that's the kind of leadership I'd like to 
see. If, in fact, it is one country, which leads me to my 
comments about the Biden-Gelb idea--which I think is gaining 
ground, Mr. Chairman; I hope you don't give up, because I 
think, at the end of the day, it's the only way, it's already 
happening--but I would say to Dr. Gelb, when you talked about 
it, you said, ``Ethnic cleansing, well, it's already 
happening.'' I would use the word--yours isn't ``ethnic 
cleansing,'' it's ``ethnic separation,'' to avoid ethnic 
cleansing. So, I hope you'll go back and read what you said and 
correct the record, because I--no, I feel you said ``ethnic 
cleansing is already happening,'' but I think the point is, 
your plan and the chairman's isn't for--it's to stop ethnic 
cleansing.
    The Chairman. Thank you.
    Dr. Gelb. Absolutely.
    Senator Boxer. Yes. And I think you should stick with it 
and--listen, I'm someone who knows how people can pound on you 
and pound on you and pound on you. You know, you have a 
solution, a political solution--and I agree--somebody said, 
``It shouldn't look like it's `Made in America.' '' One person 
said that. Fine. Better than a war that's ``Made in America.'' 
OK? Better that a solution percolates from America than this 
war continues without end in the face of world opposition.
    So, I guess I have--if you can comment if I'm wrong on al-
Maliki. If anyone says I'm wrong, I'd like to know. And my 
question deals with a poll that just came out in--Tuesday, 
January 23.
    Mr. Chairman and Senator Lugar, I don't know if you've seen 
this, ``Global opinion of U.S. foreign policy has sharply 
deteriorated in the past 2 years, according to a BBC poll 
released today. Three-quarters of those polled in 25 countries 
disapprove of U.S. policies toward Iraq.'' Seventy-five percent 
of those polled in 25 countries. They asked 26,000 people, and 
the GlobeScan president said, ``It's a horrible slide,'' and, 
``If this keeps up, it's going to be difficult for the United 
States to exercise its moral suasion in the world.''
    Now, you are much wiser than I am on the whole big picture, 
but this, to me, is frightening, because--we were attacked on 
September 11, 2001. The whole world was with us. Mr. Chairman, 
do you remember that? The whole--and I remember going down to 
the floor of the Senate, just shaking and trembling after what 
had happened, and saying, ``There's only one thing I could see 
that--a piece of sun--and that is that the world is with us, 
and, in this war against terror, we can lead with moral 
authority and get the whole world to stand with us.'' Now we 
have a world, because of the Iraq war--mostly, although there 
are other reasons, too--is against us.
    So, I guess my question to you is: Could you respond to 
this poll? Does it alarm you? What is it going to take for us 
to turn around world opinion? Because it's a global economy, 
it's a global war on terror. Everywhere you look, it's global, 
global, and this is where we are.
    Thank you, Mr. Chairman, for the courtesy.
    The Chairman. Very good questions, Senator. I'm anxious to 
hear their answers.
    Dr. Luttwak. I'd like to refer you to the testimony of 
Secretary Condoleezza Rice, not her testimony now, but what she 
said at the very beginning of the Bush administration. She said 
that American foreign policy needs humility. The argument is 
that American economic, technological, and media power is so 
great that the world could not also tolerate very assertive 
U.S. policies, let alone much military action. That is to say, 
the moment a country is so inherently powerful in so many 
different dimensions of life, starts using its military force, 
you immediately evoke a reaction, even by people who are not 
anti-American, simply because they want to safeguard their 
independence, their sense of independence. So, reducing our 
profile, reducing our level of activity, could paradoxically 
increase our real leverage. And different--I think the Biden 
plan, the Gelb-Biden plan, whichever way your wife calls it, is 
part of----
    The Chairman. Depends on the outcome of this hearing.
    Dr. Luttwak [continuing]. Is recognizing, is disengaging 
the--allowing equilibrium to emerge naturally. Iraq is, indeed, 
a divided country; it will not be a unitary country, unless 
it's an evil dictatorship. So, I think that there's a remedy, 
Senator, to the very real situation that you have outlined, and 
the remedy is to go back to the original intention of the Bush 
administration, which was to follow a low profile foreign 
policy of humility, where you oblige others to come to us here 
in Washington, say, ``Please intervene, please help out in this 
multilateral venture or that.''
    The Chairman. I think he's right.
    Dr. Korb. To pick up on what Ed said in the debate between 
then-Governor Bush and Vice President Gore, he said he wanted a 
humble foreign policy, which I think underscores what Ed has 
said. It's not just Iraq, because we went in there without 
waiting for a second U.N. resolution, not allowing the 
inspectors to do their job, but it's other things, like in 
saying we're not bound by the Geneva Conventions, the 
renditions, Guantanamo. All of those things, I think, have hurt 
us. And the real key thing is, we're not going to prevail in 
this war on terror without convincing people around the world 
that what these al-Qaeda-like groups say about us is simply not 
true, and it is a war of ideas, and--with a poll like this, it 
doesn't help us. Look how our opinion went up when we sent the 
Marines to help Indonesia after the tsunami. Look how the 
opinion in a Muslim country went up. And I think that that 
answers your question.
    Dr. Malley. Senator, you raised several issues I want to 
address. First, on the issue of training, I think one of the 
big misconceptions of--from the beginning of the war is this 
notion that by training the Iraqis in the abstract, it's going 
to make a difference. That's--it's a question of loyalty and 
allegiance that matters, and if they are--if they're loyal to 
their group or to their militia, it doesn't matter how well 
trained they are, and that's why so often trained troops have 
not performed.
    Second, on the issue of Maliki, I don't know if he said--if 
he called for a cease-fire. Frankly, even if he did, I'm not 
sure what difference it would make. But I think that they 
would--it would be wrong right now to focus on the person of 
Maliki. And there's some whispering about, ``Well, maybe he'll 
be changed, maybe we'll bring in a different alliance, with 
SCIRI and the Kurds and some Sunnis, for a different form of 
government.'' It's a structural problem. And if you just shift 
these actors, you're not going to make a difference. So, maybe 
Maliki today, Jaafari yesterday. And I remember when Maliki was 
appointed, and people were saying, ``Well, he's much better 
than Jaafari.'' I'm not sure we see any difference. The next 
person won't be different unless you change--unless you reach a 
political reconciliation.
    And finally, on the issue of United States image, which has 
been something I've been deeply preoccupied with for some time, 
of course Iraq is, in great part, responsible. There are other 
things, as well. I think our diplomacy in the Middle East has 
been notoriously absent. I think our disengagement from Arab-
Israeli peacemaking has been extremely irresponsible. And I 
think there are things that we're going to have to do. 
Unfortunately, at this point, because of our lack of 
credibility, even good things we might do risk being perceived 
in a very negative way, so I think it's a very uphill battle, 
but we need to start.
    The Chairman. Senator Boxer, thank you very much.
    I'd like to ask a question, if it's OK.
    Gentlemen, again there's been a remarkable consensus on the 
big issues that have to be addressed relative to Iraq, not just 
from you gentlemen, who are among the brightest people we have 
in the foreign policy establishment, but, quite frankly, from 
former generals we had last week. We had a remarkable panel, I 
thought, of four generals representing about 15 stars, and 
there was remarkable consensus across the board of all the 
testimony we had, except from Dr. Rice. And I'm trying to be 
facetious. I mean, when she testified--I've been here a while, 
I was here during the tail end of Vietnam--as you know, Ed, 
that's when you and I met. And I've never attended a hearing 
that said as much by the response, universally, of a 21-member 
committee to a major initiative from a President presented by 
his Secretary of State. I mean, it was truly, in that sense, 
historic. I can't think of any time in the 34 years I've been 
here where there was such an outright range from skepticism to 
hostility toward the proposal being put forward.
    But one of the things that you all said here--and it 
relates to what Senator Boxer raised, is that in order to have 
any salvageable best-case outcome of the bad outcomes that are 
likely, and there's no great outcome that's likely--there must 
be a political reconciliation in Iraq. Now, I keep trying to 
find points of common agreement here, not just with you all, 
but across the board. Political reconciliation, either as a 
consequence of a civil war, where the objectives of the warring 
parties finally get resolved on the battlefield, or a 
reconciliation brought about by nudging from the international 
community, a reconciliation brought out of just self-interest 
being realized among the parties--does anybody picture that 
reconciliation, by any means, resulting in a strong central 
government in Iraq?
    Dr. Malley. Let--just--and, obviously, it's a difficult 
question to answer. What do you mean by a ``strong central 
government''? I think----
    The Chairman. I mean what the administration is talking 
about, a central government--that's a democracy--where you have 
a majority population--meaning that over 60 percent of it is 
likely to be represented by the Shia, controlling the security 
of the entire country and controlling the security of each 
hamlet with a national police force which is now envisioned--
not just national army, a national police force. You know what 
I mean by a ``strong central government.''
    Dr. Malley. Well, Mr. Chairman, I would--I think it's--and 
it's in our plan, it's in, I think, everyone's plan, at this 
table at least, the notion of federalism. It's been what the 
Iraqis want, themselves.
    The Chairman. No, no--now, please answer my question.
    Dr. Malley. OK.
    The Chairman. Can anybody envision a strong national 
government, as has been pushed by the administration for the 
last 5 years?
    Dr. Luttwak. Every Arab country, Senator, from Morocco to 
Iran, has a strong central government. But that is a strong 
central government, because the--any--there are plenty of local 
autonomous tendencies of different entities--are simply 
suppressed by dictatorship.
    The Chairman. Right.
    Dr. Luttwak. Therefore, whoever advocates a strong central 
government in Iraq is advocating dictatorship.
    The Chairman. Well, you've----
    Dr. Luttwak. Unless we are ready to install our own 
dictatorship--I mean, Saddam Hussein is no longer with us. I 
notice that he seemed to be in good health before he died, and 
so on. Unless we are prepared to find a Saddam Hussein and 
install him in Baghdad, there cannot be a strong central 
government in Iraq.
    The Chairman. Well, you've said it better than I asked it. 
In other words, is it possible to have a strong central 
government without a dictatorship or an authoritarian regime in 
Iraq? Is it possible for that to happen?
    Dr. Korb. No, sir.
    The Chairman. OK. Now everyone I've asked that question to 
but the administration has stated that. I find it interesting 
that there is this sort of nuance as to what constitutes a 
federal system. Whatever it is, the idea that, in the next 
decade, I would say, that there is an ability to have a united 
Iraq without an authoritarian government rests upon the notion 
that there is local control over their own personal security. I 
mean, does anybody think there's any time in the next 10 years, 
without an authoritarian regime in Baghdad, that you're going 
to have a national police force patrolling Fallujah without 
there being war, without there being civil chaos? Does anybody 
think that's possible? And I haven't found anybody who does.
    So quite frankly--I'm expressing my own frustration about 
the plan that used to be spearheaded by Gelb, but now is, I 
guess, just Biden--I'm joking. But this is why I find it so 
fascinating that people seem to fixate on whether or not we're 
splitting up a country, why I find it so fascinating whether or 
not what we're calling for is just what the Constitution says. 
And what it says--again, I know you all know this, but it's 
amazing how few people have read this document--it says in 
article 116, ``This Constitution shall appropriate the region 
of Kurdistan.'' It sets in place, in the Constitution, that 
Kurdistan is a region, right from the get-go. Then it says, 
``This Constitution shall establish new regions in accordance 
with the provisions.'' Then it goes on to state what power it 
gives you if you decide to be a region. And it merely says what 
you've all been saying, ``regional authorities shall have the 
right to exercise executive, legislative, and judicial 
authority in accordance with this Constitution, except for the 
powers stipulated to the central government,'' which Les laid 
out. Two; in the case of contradiction between regional and 
national, national wins. Three; region and governate shall 
allocate an equitable share of the national revenues. Four; the 
regions and governates shall establish offices and embassies 
and diplomatic missions. I mean, this is even beyond our 
Articles of Confederation, 200 years ago. And regions shall be 
responsible for all administrative requirements in the region, 
particularly the establishment and organization of internal 
security forces.
    So, why do we keep pushing a rope here?
    Dr. Luttwak. Senator, I would not be frustrated, if I were 
you, because it is an iron law of politics all over this planet 
that when you have strongly constituted ethnic and religious 
identities, you can only have one of two modes, either some 
form of decentralization, federalism, and so on, or an 
oppressive dictatorship. Indeed, if and when Iran becomes a 
democracy, in the full sense, you will see that Iran, too, will 
have to go federal, because they have the Azeri--population, 20 
million, they have the Kurds, they have the Baluch, they have 
some--even some Tajiks, and they will have to be federal. So, 
you're going to win. Your proposal shall be reality whenever 
there is no dictatorship--in Iraq, as in Iran. So, this will 
succeed, and you shouldn't be frustrated.
    The reason there has been some hesitation even at this 
table--Larry, for example--is the notion that we would 
prescribe a very specifically written constitution----
    The Chairman. Gotcha.
    Dr. Luttwak [continuing]. That, as I say, is redolent and 
has connotations. You can see, you know, Locke, Burke, Madison, 
and these other strange creatures in it who do not correspond 
to their culture and their history. And, you know, people like 
Sistani, in their Web sites, have little notes about politics 
in which they evoke discussions about democracy conducted in 
the ninth century----
    Dr. Gelb. But, Edward, I would just note that Locke did not 
write the Iraqi Constitution.
    Dr. Luttwak. No. [Laughter.]
    I will stop, then.
    Dr. Gelb. OK.
    The Chairman. Well, I obviously cannot speak for Les Gelb, 
and I'll ask you to respond to this, Les, but I suspect that 
neither Les nor I would quarrel with the idea that there would 
be some other way in which reconciliation takes place. The 
central point of what we are--we have been attempting to do, 
and it seems to be a consensus without people willing to state 
it's a consensus--is that we've got to get off this wicket of a 
strong central government, led by Maliki or anybody else, who's 
going to be in total control of the security of the whole 
country, and who is going to be able to decide, at a majority 
vote in the Parliament, how to distribute revenues, when they 
feel like distributing them--in terms of oil--and expect 
anything to happen positively within Iraq.
    I can understand--and I'll conclude with this--if you did 
not think that a political solution and reconciliation was the 
key to moving beyond the quagmire we find ourselves in, then I 
would say it is rational and reasonable to argue that there's 
still some basis for suggesting that a military solution might 
be appropriate. But nobody thinks it can be solve militarily. I 
just hope my colleagues, as well as the administration--and I 
think my colleagues are way ahead on this--understand that the 
elements of reconciliation relate to a little bit of political 
breathing room, a little bit less of forcing all the parties 
together under a strongly constituted central government, which 
the Constitution doesn't call for, and some way to work out 
giving each of the major constituencies a reason to buy in to 
the notion of a united Iraq.
    And I think I'll conclude by saying, Ed, I am always 
impressed by your--I'm not being facetious--you talked about 
your tactical input--by your strategic vision here. I happen to 
agree with you on one overarching point, the same point made by 
Les--that Iran is somehow this new, emboldened superpower in 
the region, or, second, that a disintegration of our efforts in 
Iraq will result in an international catastrophe in the region 
that requires us, even when we're ``losing,'' keep American 
forces in Iraq.
    And so, the last point I'd like to ask each of you to 
comment on, as briefly as you can: If all fails--meaning that 
the administration does not budge over the next 2 years on 
insisting that a military solution has to predate the 
possibility of a political solution--if, in fact, the surge is 
as counterproductive as all of us--well, five of us, anyway--
think it's likely to be, and if the result will be--which I 
predict, as Senator Boxer said--the American public will not 
sustain this effort for 2 more years, I predict that you will 
see a whole cadre of people running, in both parties--new 
people, as well--in 2008, who will not only be calling for us 
to get out of Iraq, they'll be calling for us to get out of the 
region. And I think that would be a real problem.
    Here's my question. What is the worst case that you can see 
if, in fact, we end up having to, absent any political 
solution, disengage from Iraq? I refer to ``disengage and 
contain,'' and I don't think it's the end of the world. If all 
this fails, what do you see as the downside? Is it as bleak as 
the President paints it for our interests in the region and the 
country and the world?
    Dr. Korb. Oh, I think he's well overstating the danger to 
American foreign policy. I mean, when he talks about Iraq being 
the central front on the war on terror, and somehow, if we 
leave Iraq, you know, they're going to come over here and 
attack us, I mean, that assumes there's a sort of a finite 
number of terrorists, and they're all in Iraq, and so we keep 
them busy there, they won't--they will not come here.
    To me, the real danger is the one you pointed out, is that 
Americans will tire of bearing their responsibilities around 
the world, they will not trust their political leaders when 
they tell them about danger. And that's why I think it's 
important that we have to stay involved in the region, because 
we do have strategic interests. I think the worst thing that 
could happen is that you would have even more violence than you 
have now, though when people say, ``Gee, if we leave, there 
will be a civil war.'' Well, what's going on now? I mean, in 
terms of the number of--the number of casualties. And as long 
as we're in the region, we can prevent that from undermining 
regional stability.
    The Chairman. Thank you. Anyone else want to comment?
    Dr. Gelb. If I may, Mr. Chairman. And, again, thank you 
very much, Mr. Chairman, Mr. Former Chairman, for this 
opportunity.
    I think the real catastrophe would be staying the course. 
That's the main thing causing all these problems. And they've 
been listed ad nauseam from the beginning of this hearing and 
from the beginning of your hearings on this subject. And it's a 
catastrophe, in my point of view, that the President and the 
White House keep saying there are no alternatives. There are 
alternatives. And until you recognize the legitimacy of these 
alternatives, you can't have a decent dialog. And that dialog 
is absolutely essential if we're to have a bipartisan foreign 
policy on Iraq, and that bipartisanship is essential for making 
the very tough decisions that lie ahead.
    I would only remind the committee what I know many of you 
remember. In the waning days of the Vietnam war, President 
Nixon said that losing would make the United States a pitiful 
helpless giant. Well, heaven forfend, we did lose, or the South 
Vietnamese lost, and we took Americans off the rooftops of our 
Embassy in Saigon, and we all shuddered at the thought. But 
then, having predicted the worst, having created the most 
fears, President Nixon and Henry Kissinger set about to do 
diplomacy to blunt this. They opened the door to China, they 
created the trilateral diplomacy to put pressure on both Moscow 
and Beijing. They strengthened our relations and our security 
relations with the countries of Asia. And 3 years after we 
lifted our people off the rooftops of the Embassy in Saigon, 
the United States position in Asia was stronger than it had 
been at any time since the end of World War II.
    This country is still the paramount power in the world. 
We're not a hegemon. We can't order anyone else around. But 
others still look to us to prevent great harm and to do good. 
And that is a basis for recovering from the horrors of these 
blunders of the last 3 years.
    Dr. Malley. Mr. Chairman.
    The Chairman. If you can do it briefly, if you would.
    Dr. Malley. OK. Mr. Chairman--oh, you want to add something 
there?
    Mr. Chairman, first, on the issue of the internal 
disposition of Iraq, I think the main issue on which there is 
consensus from all of us is that the key is reconciliation, 
however the Iraqis choose to reach their compromises on 
federalism, on a weak central government, but on keeping their 
country together, hopefully, in some fashion.
    The worst-case scenario, as you said, would be to stay the 
course and then end up, a year or 2 years from now, doing what 
people are calling for us to do today, but in a far weaker 
position. I don't think we should underestimate the damage 
that's already been done by the years we've been there. No 
doubt about it, I think, in the region, there has been damage. 
We may not be a weak power, but we are a weaker power. But, if 
in fact, we chose to listen--if we try to do a political 
reconciliation, and it doesn't work, and we choose to leave 
more quickly, then our emphasis needs to be on reengaging 
diplomatically in the region, something we haven't done, to 
prevent the breakdown in Iraq from spreading to the rest of the 
region. And I think we can do that.
    Dr. Luttwak. There is now a so-called way of jihad, whereby 
you go to Jordan, or you go to Syria, and then you go to Anbar 
province, and then you enter the jihadi group. They are not the 
largest group, but they are the ones we are most troubled by. 
There is no doubt that, if there is no way of jihad leading to 
Anbar, there will be people who will attack elsewhere. So, 
Senator, I think that you have an opportunity here, with 
Senator Lugar, of exercising great influence over this policy 
and bringing everybody to their senses, because I want to show 
you that the Bush administration is full of people who agree 
with you two. Full of it. They're--so, our--but I don't think 
one should give hostages to fortune and totally ignore the 
considerations that Senator Lugar presented, which he got from 
his encounters with President Bush. Yes; there could be dangers 
in some. But I believe that Les Gelb is entirely accurate, the 
fundamental global equilibria are what they are. Iran is not a 
great power. We are more than a great power. And, moreover, my 
concept of the division of the Middle East giving us 
equilibria. So, I don't think, in the macrosense--but there's 
no reason to give hostages to fortune here, because there is a 
bit of a mechanical factor, which is: Right now, if you're a 
jihadi anywhere in the world, you want to go to Anbar. You 
close down Anbar, they'll find some other places. But the 
totality of it will be trivial, as opposed to the--what's 
happening now.
    The Chairman. Thank you very much. I hope we keep focus on 
the big picture here. Your testimony has been incredibly 
helpful.
    I was told, if it really is a brief question--do you have 
one question left, Senator? Would you mind asking it briefly, 
and maybe we can let these folks go to lunch? Because we're 
back here at 2:30 again.
    Senator Nelson. I just wanted to say to Dr. Korb, in you 
quoting the article by General Petraeus from 2\1/2\ years ago, 
specifically, when I asked him that today, ``How many do you 
think we have trained today?'' And he said 300,000. And I said, 
``How many of them are reliable?'' And he said he didn't know. 
And I said, ``Well, can you put a percentage on it?'' And he 
said, no; he couldn't.
    Now, I'm going to insist, as a member of the Senate Armed 
Services Committee, that we get an answer from the Government 
of the United States as to how many, or what percentage, do we 
think, of the Iraqi Army and police force, are trained.
    The other thing I wanted to ask was--I went to Syria as 
part of the Iraq Study Commission. And, of course, the White 
House roundly criticized me. In this aggressive diplomatic 
initiative that you all have been discussing, what part do you 
think Syria can play in that, in helping us in our situation in 
Iraq?
    Dr. Malley. Senator, I think I was in Syria the same time 
as you, and, certainly from my discussion with Syrian 
officials, they claim that they are prepared to do things if, 
in fact, there's reciprocation.
    I think there's a lot they can do because of the links they 
have to Sunni Arab tribes. I think there's a lot they can do 
because of links they have to the insurgents. I think there's a 
lot they can do because of their historical links with the 
Baath Party. So, there are things they can do in the context of 
a political reconciliation that is led by us in which they can 
then play a part. In the absence of that, and if they don't see 
any engagement with them, then I think we could be pretty sure 
that they won't be doing too much good to help us stabilize the 
situation.
    Dr. Korb. One good thing is, we have this--all the parties 
in the region together, and the United States is clear that 
we'll be leaving. We're going to break this axis, if you will, 
between Syria and Iran, because one is Sunni, the other is more 
Shia. And so, I think, based upon what Rob said, you can get 
them involved, but you've got to get all the countries 
involved, because even the Saudis, if we can believe the press 
reports, are causing problems there now with the money that 
they are sending in.
    And if I can briefly--think--the problem with the Iraqi 
security forces is not training, it's motivation. That's the 
real key. And you won't have that motivation until they make 
these political compromises.
    The Chairman. Ed, if you make it brief, OK?
    Dr. Luttwak. Yes; just very briefly. The word ``militia'' 
describes somebody who is in a group that he believes in, that 
he identifies with. He's for real. It's the army and police who 
are not for real.
    Senator Biden's plan--one of the reasons his plan will 
succeed, unless it becomes a brutal dictatorship, is because, 
in effect, there'll be these regional forces which are true to 
their identity. So, this--whenever I hear people now--and Larry 
made the same point, I think everybody agrees--talking about 
numbers, numbers are irrelevant. They really are. The only ones 
I trust are the militias, which is the militias reaching an 
equilibrium in what will be a decentralized system.
    The Chairman. Well, gentlemen, I'm never going to get you 
all back here if I don't let you go. I would say to my 
colleagues and anyone who's listening, we'll reconvene here at 
2:30, and we'll have Congressman Murtha and former Speaker 
Gingrich, who will be testifying.
    I thank you for your input. It's been invaluable.
    We are recessed til 2:30.
    [Whereupon, at 12:37 p.m., the hearing was adjourned.]


                     ALTERNATIVE PLANS (CONTINUED)

                              ----------                              


                    TUESDAY, JANUARY 23, 2007 [P.M.]

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:34 p.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Dodd, Feingold, Boxer, Menendez, 
Casey, Lugar, Coleman, Corker, Isakson, and Vitter.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will please come to order.
    Let me suggest--we've got two very important witnesses who 
are also significantly well grounded in the ways of the House 
and Senate. There's a vote at 2:45. What I'd like to suggest we 
do when that vote comes is to recess the committee so we all go 
and vote and all come right back, because it's too important 
what these two gentlemen have to say to let this sort of go on, 
you know, one at a time.
    I also want to say to Senator Casey before I begin, when it 
comes time to question, I'm going to yield my spot to you 
first, because you had waited all this time to question our 
early morning panel. You had to speak and preside, and so, I 
will do that, just so no one's surprised.
    I have consulted with Chairman Lugar's staff. He has no 
opening statement and suggests that we get going right away. I 
have a very brief opening statement.
    This afternoon, we continue our thorough examination of the 
remaining options in Iraq, and we're very honored--and we are 
honored--to have with us Chairman Murtha and Speaker Gingrich. 
Both are men of stature, both are patriots, and both have 
offered serious and provocative ideas that have helped frame 
this debate on Iraq and our overall national security policies.
    We will hear specific recommendations today. We have heard 
specific recommendations from 18 witnesses in the past 2 weeks, 
and we'll hear specific recommendations over the next 2 weeks--
so much for Vice President Cheney's assertion that Members of 
the Congress ``have absolutely nothing to offer'' in place of 
the current policy.
    The White House has grown accustomed to policy debates in 
an echo chamber. Dismissing competing ideas has become a matter 
of routine, but it's a dangerous way to govern and conduct this 
war. And that's the most partisan thing I've said since these 
hearings began, but I want to make it clear--make no mistake--
there are a number of very serious people with very specific 
alternatives that have been offered.
    Our goal in these hearings is to strike a different tone, 
it's to start from the proposition that all of us are united in 
our devotion to this country and our desire to help see it 
through a difficult time. I believe no foreign policy can be 
sustained unless there are two essential elements. First, it 
must be bipartisan, and, second, it has to have the informed 
consent of the American people. I think both are lacking right 
now.
    Our policy today lacks these fundamental ingredients, in my 
view, and it's my hope that the hearings we have held the last 
2 weeks and the next week and a half will help generate that 
bipartisan consensus on key elements of a successful strategy 
in Iraq.
    Our witnesses today are going to contribute to that effort 
mightily. Chairman Murtha single-handedly shifted the debate--
and I can't emphasize that enough; whether you agree or 
disagree with him, he single-handedly shifted the debate in 
Iraq when he had the courage to challenge a policy that was 
clearly failing. No one's said it more clearly, whether you 
agree with him or not. And, I might add, Mr. Chairman, we've 
had a score of witnesses--I mean, left, right, center, 
Democrat, Republican, military, retired military, et cetera--I 
have not heard anybody--I've never heard the word ``redeploy'' 
used as much as when you said it, what, a year and a half ago, 
or however long ago it was. And so--
    Speaker Gingrich is one of the most eloquent spokesman of a 
strategy on foreign policy. And he's argued eloquently about 
what's at stake in Iraq. He's offered creative proposals to 
succeed there and in other foreign policy challenges 
confronting this Nation.
    I just want you to know, if you call his cell phone, you're 
not going to get through. I left four messages on your cell 
phone to come and testify. I don't want you to think, Newt, I 
wasn't trying to get you here, because I think it's real value-
added, having you here, and I appreciate it very much.
    Senator, do you have anything you'd like to say?
    Senator Lugar. Thank you, Mr. Chairman. I look forward to 
hearing from two good friends. I'll forego another opening 
statement, so we could expedite the hearing.
    The Chairman. Great.
    Let's start with you, Chairman Murtha, and then--take what 
time you need, and we will--when we get to questioning, we'll 
limit it to 8-minute rounds again, and if there's time, and the 
witnesses' physical constitution will bear it, we may ask them 
a second round, if that works, based on their schedules.
    So, Jack, it's all yours.

    STATEMENT OF HON. JOHN P. MURTHA, U.S. CONGRESSMAN FROM 
 PENNSYLVANIA, CHAIRMAN, SUBCOMMITTEE ON DEFENSE, COMMITTEE ON 
         APPROPRIATIONS, U.S. HOUSE OF REPRESENTATIVES

    Mr. Murtha. Mr. Chairman, I'm delighted to be here. And I 
want to say that I won by 122 votes in my first election, and 
Joe Biden came to Johnstown--he just had been elected Senator--
and he swung the election. I attribute my election to him. So, 
anybody that's got criticism can criticize Joe Biden, because 
he got me elected. [Laughter.]
    The Chairman. Well, Mr. Chairman, if you don't mind the 
point of personal privilege here, the word was, you would have 
won by 1,022 votes had I not shown up. [Laughter.]
    The Chairman. But, at any rate, thank you.
    Mr. Murtha. And Senator Lugar and I went to the 
Philippines, and, I have to say, we changed the election in the 
Philippines. We made sure--we convinced President Reagan that--
what was that guy's name that had to go? Marcos had to go, 
yeah.
    And, of course, I'm delighted to be here with Bob Casey, 
who's such a good friend, his dad and his family have been such 
a good friend, and two distinguished Senators.
    So, let me say, Mr. Chairman, Senator Lugar, for the past 5 
years, the United States has had an average of 130,000 troops 
in the ground in Iraq. The Pentagon reports that the Iraqi 
security forces have grown in number, nearly reaching their 
goal of 325,000 equipped and trained. The Iraqis have a 
constitution and have held national elections.
    These milestones have been met, yet security in Iraq 
continues to deteriorate. The past 4 years, the Iraq war has 
been plagued by mischaracterizations based on optimism instead 
of realism. Reality dictates that conditions on the ground are 
simply moving in the wrong direction. There are limits to 
military power. And I've said this over and over again. There's 
no military solution to Iraq's civil war. It's up to the 
Iraqis.
    Beginning in May 2005, after 2 years of 
mischaracterizations and misrepresentations, the Defense 
Appropriations Subcommittee required the Department of Defense 
to submit quarterly reports to the Congress on facts necessary 
to measure stability and security in Iraq. Since July 2005, 
we've received these reports. They are dismal, and they 
demonstrate a clear lack of progress in the vital areas of 
concern. Electricity, oil production, employment, and potable 
water are all below prewar level. The average weekly attacks 
have grown, since I spoke out last year--from 430 per week, in 
July 2005, to well over 1,000. Iraq casualties have increased 
from 63 per day to 127 per day, to date. The latest polls show 
that 91 percent of the Sunni Iraqis and 74 percent of the Shia 
Iraqis want the United States forces out of Iraq. In January 
2006, 47 percent of Iraqis approved of attacks on United 
States-led forces. Now it's 61 percent approve of attacks on 
U.S. forces. Support of the American public continues to erode, 
and there's little confidence in the current strategy. Today, 
less than 30 percent of Americans support the war, and only 11 
percent support the President's plan to increase troop levels.
    February 2006 polls showed that 72 percent of American 
troops--and I picked this up long before I saw it in the 
polls--in Iraq believe the United States should exit Iraq 
within a year; and 42 percent said that their mission was 
unclear; they didn't understand what they were doing.
    Wars cannot be won with slogans, there must be terms for 
measuring progress, and a clearly defined purpose, if success 
is ever to be achieved.
    General Schoomaker said, in a recent hearing, that in order 
for a strategy to be effective, we have to be able to measure 
the purpose, yet the President sets forth a plan with no 
defined matrices for measuring success, and a plan that, in my 
estimation, is simply more of the same plan that has not 
worked. A new strategy that is based on redeployment, rather 
than on further military engagement, and one that is centered 
on handing Iraq back to the Iraqis, is what is needed. I do not 
believe that Iraq will make the political progress necessary 
for its security and stability until the United States forces 
redeploy.
    Now, here's what I believe, if we're going to achieve 
stability in Iraq and in the region. I believe the first step 
is to redeploy American forces; the execution of a robust 
diplomatic effort and a restoration of international 
credibility; the repairing of our military readiness, and the 
rebuilding of our Strategic Reserve to face future threats--and 
this is probably as important as anything else that I have 
found in my hearings that I've just concluded in the last week 
or so.
    Now, redeployment of United States forces in Iraq. To 
achieve stability in Iraq, I believe we first must have a 
responsible phased redeployment of U.S. forces. General Odom, 
Army retired, recently testified, ``We're pursuing the wrong 
war. Stability and security in the region should be the 
overarching strategy, not a victory in Iraq.'' I agree with 
General Odom, and I believe that regional stability can only be 
accomplished through redeployment.
    Who wants us to stay in Iraq? I am convinced, in my 
opinion, that Iran and al-Qaeda, because we intensify the very 
radical extremism we claim to be fighting against, while, at 
the same time, depleting our financial and human resources.
    As long as the United States military continues to occupy 
Iraq, there'll be no real security. Maintaining United States 
troop strength in Iraq, or adding to the strength in specific 
areas, has not proven effective in the past, it didn't work 
recently in Baghdad. We just put 10,000 to 15,000 troops in 
Baghdad, increased the strength, and the violence has increased 
substantially. Nor do I believe it will work in the future. The 
Iraq war cannot be won by the United States military, 
predominantly because of the way our military operates. They 
use overwhelming force--and I advocate that--to save American 
lives. But, let me tell you, that makes enemies. When you go 
and kick down the doors--and we have to do that in order to 
protect our people--when you use mortars and all the ammunition 
we have to use to protect our Americans, you kill the enemy, 
you kill other people, and inadvertently kill civilians, and 
34,000 people have been killed--not by Americans, but have been 
killed in this civil war--and it doesn't help us to win the 
hearts and minds of the people.
    Now, how would you redeploy? I recommend the phased 
redeployment of U.S. forces from Saddam's palaces. That's where 
we are. We're in the palaces. I've told them that when I was 
over there, ``Get them out of the palaces.'' Then from the 
Green Zone, get them out of the Green Zone. The Green Zone is 
surrounded by Iraqis who have no electricity, no water, none of 
the things they need, and yet, inside the Green Zone, they have 
everything that they need. They have electricity, they have all 
the food that they want, and everything else.
    Next, from the prime real estate, redeploy from the prime 
real estate of Iraq's major cities--out of the factories and 
universities. We own the best in the cities. We go in and take 
it over. Finally, out of the country altogether.
    We need to give the communities back to the Iraqis so they 
can begin to self-govern, begin economic recovery, and return 
to some sort of normality. I recommend the adoption of United 
States policy that encourages and rewards reconstruction and 
regional investment, and one that is dictated and administered 
not by the United States, but by the Iraqis.
    Restoration of international credibility. I think this is 
just as important. I believe that a responsible redeployment 
from Iraq is the first step necessary in restoring our 
tarnished international credibility. Since the United States 
invasion of Iraq, our international credibility, even among 
allies, has plummeted. Stability in Iraq is important, not only 
the United States, but it is important to the region and 
important to the entire world.
    Just this morning, the BBC released a poll showing that 
nearly three-quarters of those polled in 25 countries 
disapproved of United States policies toward Iraq. More than 
two-thirds of those polled said the U.S. military presence in 
the Middle East does more harm than good. And 29 percent of 
respondents said the United States has a general positive 
influence in the world, down from 40 percent 2 years ago--29 
percent.
    How do we restore international credibility? I believe that 
it's necessary for the United States to completely denounce any 
aspirations of building permanent United States military bases 
in Iraq. I believe we should shut down Guantanamo detention 
facility. We must bulldoze Abu Ghraib, just because of the 
symbolism of it. We must clearly articulate and demonstrate a 
policy of no torture, no exceptions, and directly engage 
countries in the region with dialog instead of directives. This 
includes allies, as well as our perceived enemies.
    Repairing our military readiness. Now, that's the business 
I'm in. Our annual defense spending budget is currently in 
excess of $450 billion. Above this amount, we are spending $8.4 
billion a month in the war in Iraq. And yet, our Strategic 
Reserve is in desperate shape. While we are fighting an 
asymmetric threat in the short term, we have weakened our 
ability to respond to what I believe is a grave, long-term 
conventional and nuclear threat. At the beginning of the Iraq 
war, 80 percent of all Army units, and almost 100 percent of 
Active combat units, were rated at the highest state of 
readiness. Hundred percent. Today, virtually all of our Active-
Duty combat units at home, in the continental United States, 
and all of our Guard units are at the lowest state of 
readiness, primarily due to equipment shortages resulting from 
the repeated and extended deployments to Iraq.
    In recent testimony given by a high-ranking Pentagon 
official, it was reported that our country is threatened 
because we lack readiness at home. Our Army has no Strategic 
Reserve. None. No Strategic Reserve. And, while it's true that 
the U.S. Navy and the Air Force can be used to project power, 
there's a limit to what they can achieve. Overall, our military 
remains capable of projecting power. We must be able, also, to 
sustain that projection. In this regard, there's no replacement 
for boots on the ground.
    How do we repair readiness and rebuild our Strategic 
Reserve? We must make it a national priority to restrengthen 
our military and to repair readiness. I advocate an increase in 
overall troop strength. The current authorized level is below 
what I believe is needed to maintain an optimal military. In 
recent testimony, the Defense Subcommittee I chair, the Army 
and Marine Corps commanders testified that they could not 
continue to sustain the current deployment practices without an 
adverse effect on the health and well-being of servicemembers 
and their families.
    For decades, the Army operated on a deployment policy that, 
for every 1 year of deployment, 2 years were spent at home. 
This as considered optimal for retraining, reequipping, and 
reconstituting. Without relief, the Army will be forced to 
extend deployments to Iraq to over 1 year in country. It will 
be forced to send troops back with less than 1 year at home. 
The Army reported that a 9-month deployment was preferable.
    Medical experts testified, that, in intensive combat, 
deployments of over 3 months would increase the likelihood of 
servicemembers to develop post-traumatic stress syndrome. We 
must invest in the health and well-being of our servicemembers, 
providing the right amount of troops for the appropriate 
deployment and rotation cycles.
    Our military equipment inventories are unacceptably low. 
The services report that at least $100 billion more is needed 
to get them back in a ready state. In doing so, we must not 
neglect the investment in military technologies of the future. 
While we remain bogged down in Iraq, the size and 
sophistication of other militaries are growing. We must not 
lose our capability to deter future threats.
    And let me conclude by saying, historically, whether it's 
India, Algeria, or Afghanistan, foreign occupations do not 
work. In fact, they incite civil unrest. Our military remains 
the greatest military in the world, but there are limits to its 
ability to control a population that considers them as 
occupiers. And I've said this before, and I continue to say it, 
there are essentially only two plans. One is to continue an 
occupation that has not worked and has shown no progress toward 
stabilization, and the other, which I advocate, is to end the 
occupation of Iraq, redeploy and restrengthen our military, and 
turn Iraq over to the Iraqis.
    [The prepared statement of Mr. Murtha follows:]

      Prepared Statement of Congressman John P. Murtha, Chairman, 
  Subcommittee on Defense, Committee on Appropriations, U.S. House of 
                            Representatives

    Mr. Chairman, Senator Lugar, and distinguished members of this 
committee, for the past 5 years, the United States has had, on average, 
over 130,000 troops on the ground in Iraq. The Pentagon reports that 
the Iraqi Security Forces have grown in number, nearly reaching their 
goal of 325,000 trained and equipped. The Iraqis have a constitution 
and have held national elections. These milestones have been met, yet 
security in Iraq continues to deteriorate. The past 4 years of the Iraq 
war have been plagued by mischaracterization based on unrealistic 
optimism instead of realism. Reality dictates that conditions on the 
ground are simply moving in the wrong direction.
    There are limits to military power. There is no U.S. military 
solution to Iraq's civil war. It is up to the Iraqis.
    Beginning in May 2005, after 2 years of mischaracterizations and 
misrepresentations by this administration, the Defense Appropriations 
Subcommittee required the Department of Defense to submit quarterly 
reports to Congress on the facts necessary to measure stability and 
security in Iraq. Since July 2005 we have received these reports. They 
are dismal and demonstrate a clear lack of progress in vital areas of 
concern. Electricity, oil production, employment, and potable water 
remain at woeful levels.
    The average weekly attacks have grown from 430 in July 2005 to well 
over 1,000 today. Iraqi casualties have increased from 63 per day in 
October 2005 to over 127 per day.
    The latest polls show that 91 percent of Sunni Iraqis and 74 
percent of Shia Iraqis want the U.S. forces out of Iraq. In January 
2006, 47 percent of Iraqis approved of attacks on U.S.-led forces. When 
the same polling question was asked just 8 months later, 61 percent of 
Iraqis approved of attacks on U.S-led forces.
    The support of the American public continues to erode and there is 
little confidence in the current strategy. Today only 30 percent of 
Americans support the war and only 11 percent support the President's 
plan to increase troop levels in Iraq. A February 2006 poll showed that 
72 percent of American troops serving in Iraq believed the United 
States should exit Iraq within the year and 42 percent said their 
mission was unclear.
    Wars cannot be won with slogans. There must be terms for measuring 
progress and a clearly defined purpose, if success is ever to be 
achieved. General Peter Schoomaker, Chief of the United States Army, 
said in a recent hearing that in order for a strategy to be effective 
we ``have to be able to measure the purpose.'' Yet the President sets 
forth a plan with no defined matrices for measuring success and a plan 
that in my estimation is simply more of the same plan that has not 
worked. A new strategy that is based on redeployment rather than 
further U.S. military engagement, and one that is centered on handing 
Iraq back to the Iraqis, is what is needed. I do not believe that Iraq 
will make the political progress necessary for its security and 
stability until U.S. forces redeploy.
    In order to achieve stability in Iraq and the region, I recommend

          (1) The redeployment of U.S. forces from Iraq;
          (2) The execution of a robust diplomatic effort and the 
        restoration of our international credibility; and
          (3) The repairing of our military readiness and the 
        rebuilding of our Strategic Reserve to face future threats.
Redeployment of U.S. forces from Iraq
    To achieve stability and security in Iraq, I believe we first must 
have a responsible phased redeployment of U.S. forces from Iraq. GEN 
William Odom (U.S. Army, Retired) recently testified, ``We are pursuing 
the wrong war.''
    Stability and security in the region should be our overarching 
strategy, not a ``victory in Iraq.'' I agree with General Odom and 
believe that Regional Stability can only be accomplished through the 
redeployment of U.S. forces from Iraq.
    Who wants us to stay in Iraq? In my opinion, Iran and al-Qaeda, 
because we intensify the very radical extremism we claim to be fighting 
against, while at the same time depleting our financial and human 
resources.
    As long as the U.S. military continues to occupy Iraq, there will 
be no real security. Maintaining U.S. troop strength in Iraq or adding 
to the strength in specified areas, has not proven effective in the 
past (it did not work recently in Baghdad) nor do I believe it will 
work in the future. The Iraq war cannot be won by the U.S. military, 
predominantly because of the way our military operates. They use 
overwhelming force, which I advocate to save American lives, but it is 
counter to winning the hearts and minds of the people.
How to redeploy
    I recommend the phased redeployment of U.S. forces, first from 
Saddam's palaces, then from the Green Zone. Next, from the prime real 
estate of Iraq's major cities, out of the factories and universities, 
and finally out of the country all together. We need to give 
communities back to the Iraqis so they can begin to self-govern, begin 
economic recovery, and return to some type of normality. I recommend 
the adoption of a U.S policy that encourages and rewards reconstruction 
and regional investment and one that is dictated and administered, not 
by the United States, but by the Iraqis themselves.
Restoration of international credibility
    I believe that a responsible redeployment from Iraq is the first 
step necessary in restoring our tarnished international credibility. 
Since the U.S. invasion of Iraq, our international credibility, even 
among allies, has plummeted. Stability in Iraq is important not only to 
the United States, but it is important to the region and to the entire 
world. In a 2006 world opinion poll, France, Russia, Turkey, Pakistan, 
India, and China believed that the United States presence in Iraq was 
more of a danger to world peace than Iran, North Korea, or the Israeli-
Palestinian conflict. In 2002, public opinion in Great Britain was 75 
percent favorable toward the United States; today it is 56 percent 
favorable. In France, it was 63 percent favorable in 2002 and is now 39 
percent favorable. Germany has gone from 61 percent to 37 percent, 
Indonesia 61 percent to 30 percent, and Turkey now has only a 12-
percent favorability rating of the United States.
How to restore our international credibility
    In order to restore international credibility, I believe it is 
necessary for the United States to completely denounce any aspirations 
of building permanent U.S. military bases in Iraq; I believe we should 
shut down the Guantanamo detention facility; and we must bulldoze the 
Abu Ghraib prison. We must clearly articulate and demonstrate a policy 
of ``no torture, no exceptions'' and directly engage countries in the 
region with dialog instead of directives. This includes allies as well 
as our perceived adversaries.
Repairing of our military readiness and rebuilding our Strategic 
        Reserve to face future threats
    Our annual Defense spending budget is currently in excess of $450 
billion. Above this amount, we are spending $8.4 billion a month in the 
war in Iraq and yet our Strategic Reserve is in desperate shape. While 
we are fighting an asymmetric threat in the short term, we have 
weakened our ability to respond to what I believe is a grave long-term 
conventional and nuclear threat.
    At the beginning of the Iraq war, 80 percent of all Army units and 
almost 100 percent of Active combat units were rated at the highest 
state of readiness. Today, virtually all of our Active-Duty combat 
units at home and all of our Guard units are at the lowest state of 
readiness, primarily due to equipment shortages resulting from repeated 
and extended deployments to Iraq. In recent testimony given by a high-
ranking Pentagon official it was reported that our country is 
threatened because we lack readiness at home.
    Our Army has no Strategic Reserve, and while it is true that the 
U.S. Navy and the U.S. Air Force can be used to project power, there is 
a limit to what they can achieve. Overall, our military remains capable 
of projecting power, but we must also be able to sustain that 
projection, and in this regard there is no replacement for boots on the 
ground.
How do we repair readiness and rebuild our Strategic Reserve
    We must make it a national priority to restrengthen our military 
and to repair readiness. I advocate an increase in overall troop 
strength. The current authorized level is below what I believe is 
needed to maintain an optimal military. In recent testimony to the 
Defense Subcommittee that I chair, the Army and Marine Corps commanders 
testified that they could not continue to sustain the current 
deployment practices without an adverse effect on the health and well-
being of servicemembers and their families.
    For decades, the Army operated on a deployment policy, that for 
every 1 year of deployment, 2 years were spent at home. This was 
considered optimal for retraining, reequipping and reconstituting. 
Without relief, the Army will be forced to extend deployments to Iraq 
to over 1 year in-country and will be forced to send troops back with 
less than 1 year at home. The Army reported that a 9-month deployment 
was preferable. Medical experts testified that in intensive combat, 
deployments of over 3 months increased the likelihood for 
servicemembers to develop post traumatic stress disorders.
    We must invest in the health and well-being of our servicemembers 
by providing for the right amount of troops and for appropriate 
deployment cycles.
    Our military equipment inventories are unacceptably low. The 
Services report that at least $100 billion more is needed to get them 
back to ready state. In doing so, we must not neglect investment in 
military technologies of the future. While we remain bogged down in 
Iraq, the size and sophistication of other militaries are growing. We 
must not lose our capability to deter future threats.
    Let me conclude by saying historically, whether it was India, 
Algeria, or Afghanistan, foreign occupations do not work, and, in fact, 
incite civil unrest. Our military remains the greatest military in the 
world, but there are limits to its ability to control a population that 
considers them occupiers.
    I have said this before and I continue to say that there are 
essentially only two plans. One is to continue an occupation that has 
not worked and that has shown no progress toward stabilization. The 
other, which I advocate, is to end the occupation of Iraq, redeploy our 
military, and turn Iraq over to the Iraqis.

    The Chairman. Thank you very much, Mr. Chairman.
    I say to the Speaker, there's about 9 minutes left in this 
vote; because I think it's important we all hear you, I'd like 
to suggest, Mr. Chairman, we recess to go vote, and get back 
here as quickly as we can to hear the Speaker.
    We'll recess until the call of the Chair.
    [Recess.]
    The Chairman. Hearing will come to order.
    Mr. Speaker, thank you for your number, as well as for your 
time. I have never been in your presence when I haven't learned 
something, and so, I'm anxious to hear what you have to say, 
for real. Welcome. Thank you.

  STATEMENT OF HON. NEWT GINGRICH, FORMER SPEAKER OF THE U.S. 
 HOUSE OF REPRESENTATIVES; SENIOR FELLOW, AMERICAN ENTERPRISE 
                   INSTITUTE, WASHINGTON, DC

    Mr. Gingrich. Thank you very much.
    And I just want to start by both commending you and 
reminding you that almost ruined my career, I think, the last 
time I was before this committee, by recommending I become the 
Ambassador to the United Nations. So, I'm hoping there's 
nothing----
    The Chairman. It was a good idea----
    Mr. Gingrich [continuing]. Nothing I say----
    The Chairman [continuing]. And it's still a good idea.
    Mr. Gingrich [continuing]. Today will reinforce those kind 
of thoughts.
    But I want commend you, Mr. Chairman and Senator Lugar, for 
going through these kind of hearings. And I want to build on a 
comment you made earlier, which is that in the larger war--
getting beyond Iraq for a moment--in the larger threat that 
faces us, from North Korea to Iran and Syrian to Venezuela, 
having the kind of effort to reach out and develop a bipartisan 
national strategy, in the way that Democratic President Truman 
and Republican Senator Vandenberg laid the base for a 44-year 
containment strategy, I think, is probably the most important 
national security challenge this country faces, and these 
hearings, which I am well aware of, at times, contentious, are 
a part of that dialog and a part of that process. And I really 
want to thank both of you for your joint leadership in working 
together in trying to move this entire process forward.
    I also want to say that, while I disagree with Chairman 
Murtha on some things, which I'll get to, I could not agree 
with him more strongly on the need to develop and strengthen a 
larger military, and particularly a larger Army and Marine 
Corps. And there, I think those who have advocated a larger 
system have proven to be entirely right, and those who are 
trying to defend getting along with an inadequate system have 
been proven, I think, decisively wrong. And I commend the 
chairman for that.
    The real danger we face, if I can frame my comments, writ 
large, and come down to Iraq, is that we live in a world in 
which the combination of nuclear and biological weapons, 
combined with a set of dictators who hate the concept of 
freedom because it threatens their dictatorships, and a 
religiously motivated movement that is irreconcilable with the 
modern world, creates a danger that Americans have not yet come 
to grips with. I believe it is entirely possible that, in our 
lifetime, we will lose three or more cities to nuclear weapons, 
and I believe that my two grandchildren, who are 5 and 7, are 
in greater danger of being killed by enemy activity than I was 
at any time when I was--throughout the cold war.
    I first wrote on the danger of terrorists and nuclear 
weapons in 1984, in a book called ``Window of Opportunity.'' I 
participated, working with President Clinton, on the Hart-
Rudman Commission, which, in March 2001, warned that the 
greatest danger to the United States is a weapon of mass 
destruction going off in an American city, probably by 
terrorists. And I think we have to start with the following 
observation.
    We find ourselves in a world in which there are determined 
deadly enemies. Iraq is a campaign in that larger contest. It's 
more like Sicily as a part of the Second World War, rather than 
an isolated war on its own.
    Let me say, bluntly, that Iraq is currently a mess. This is 
not something from me that is new. In December 2003, I publicly 
said we had gone off a cliff during the summer of 2003, and, 
both in a long Newsweek interview and in an appearance on Meet 
the Press, I was very explicit about how much I thought we were 
on the wrong track.
    Where we find ourselves is very hard. And I think there are 
largely three paths, two of them at this table, and the third 
in the White House.
    The first path, the White House path, is to stay the 
course, with marginal change. I believe, frankly, that that 
will fail. And I'll come back to that.
    The second is to accept that we have not succeeded, to try 
to manage the defeat, and to try to think through how you would 
reassure our allies, deal with people who might be--have their 
lives threatened, and try to restabilize the system after the 
world comes to recognize that we have, in fact, been defeated.
    The third is to determine that we will take whatever 
changes are necessary to defeat our enemies.
    Let me start by saying that I think the present course is 
inadequate, and is based on an inherently confused argument. As 
I cite in my--and I ask permission to submit for the record my 
much longer testimony.
    The Chairman. If the Speaker will yield, I failed to 
mention, both your written statements will be placed in the 
record as if delivered. Congressman Murtha has submitted--and 
I'll make them available to all Senators--a chronology of 
statements and comments made on this issue, which will also be 
put in.

[Editor's note.--The submitted material mentioned above was too 
voluminous to include in the printed hearing. It will be 
retained in the permanent record of the committee.]

    Mr. Gingrich. In that context, in the written statement, I 
have a much longer section, I'm not going to use in detail, of 
just quoting--quote after quote in which President Bush says 
that Iraq is a matter of vital national security of the United 
States, and then ends up by saying, ``And we're going to do as 
well as the Iraqi Government lets us do.'' Now, they can't both 
be true. If Iraq is genuinely a matter of vital national 
interest, then, as Americans, we have an obligation to do what 
it takes to win. If Iraq is so unimportant that it's up to a 
new, relatively incompetent and untested Iraqi Government, then 
why are we risking a single young American? They can't both be 
true. We did not say, in the Second World War, that as soon as 
the Free French liberated Normandy, we would be glad to land. 
And this is the core problem the administration faces, that it 
has a harder problem than it wants to confront, and, therefore, 
it doesn't undertake the scale of change it needs.
    Now, Chairman Murtha outlines a legitimate strategy that 
has, I think he would agree, some hard consequences and would 
take enormous management, but it's--it is, nonetheless, a 
legitimate reaction to where we are.
    I'm going to outline a different strategy, but I want to be 
clear, up front, it's equally hard. I think there are no easy 
solutions in Iraq.
    Essentially, what I want to suggest is that we can insist 
on defeating the enemies of America and the enemies of the 
Iraqi people, and we can develop the strategies and the 
implementation mechanisms necessary to force victory, despite 
the incompetence of the Iraqi Government, the unreliability of 
Iraqi leaders, and the interference of Syria and Iran on behalf 
of our enemies. But it will be difficult. I would commend to 
all of the Members of the Senate, General Petraeus's comments 
this morning in front of the Armed Services Committee, which I 
think are candid and which indicate this is a hard road, and 
which also indicate that most of what we have to get done is 
not combat military kinetic power. And I want to emphasize 
that. So, I want to very briefly, without going into great 
detail--and I'll be available for questions, obviously--outline 
18 steps. And they're basically a sentence each.
    One, place General Petraeus in charge of the Iraq campaign 
and establish that the Ambassador is operating in support of 
the military commander. That's how Eisenhower ran the Second 
World War in Europe; that is how Wellington ran the campaign in 
Portugal. You cannot have two people trying to collaborate in a 
setting like this.
    Two, since General Petraeus would now be responsible for 
victory in Iraq, all elements of achieving victory are within 
his purview, and he should report daily to the White House on 
anything significant which is not working or is needed.
    Three, create a Deputy Chief of Staff to the President and 
appoint a retired four-star general or admiral to manage Iraq 
implementation for the Commander in Chief on a daily basis.
    Four, establish that the second briefing after the daily 
intelligence brief that the President gets every day is from 
his Deputy Chief of Staff for Iraq Implementation.
    Five, establish a War Cabinet, which will meet once a week 
to review metrics of implementation and resolve failures and 
enforce decisions. The President should chair the War Cabinet 
personally, and his Deputy Chief of Staff for Iraq 
Implementation should prepare the agenda for the weekly review 
and meetings.
    Six, establish three plans, one for achieving victory with 
the help of the Iraqi Government, one for achieving victory 
with the passive acquiescence of the Iraqi Government, one for 
achieving victory even if the current Iraqi Government is 
unhappy. The third plan may involve very significant shifts in 
troops and resources away from Baghdad and a process of 
allowing the Iraqi central government to fend for itself if it 
refuses to cooperate.
    Seven, communicate clearly to Syria and Iran that the 
United States is determined to win in Iraq and that any further 
interference, such as the recent reports of sophisticated 
Iranian explosives being sent to Iraq to kill Americans, will 
lead to direct and aggressive countermeasures.
    Eight, pour as many intelligence assets into the fight as 
needed to develop an overwhelming advantage in intelligence 
preparation of the battlefield.
    Nine, develop a commander's capacity to spend money on 
local activities sufficient to enable every local American 
commander to have substantial leverage in dealing with local 
communities.
    Ten, establish a job corps or civil conservation corps of 
sufficient scale to bring unemployment for males under 30 below 
10 percent. And I have attached an op-ed that Mayor Giuliani 
and I wrote on this topic.
    Eleven, expand dramatically the integration of American 
purchasing power in buying from Iraqi firms, pioneered by 
Assistant Secretary of Defense, Paul Brinkley, to maximize the 
rate of recovery of the Iraqi economy.
    Twelve, as--and here, I think I'm totally in agreement with 
Chairman Murtha--expand the American Army and Marine Corps as 
much as needed to sustain the fights in Iraq and Afghanistan, 
while also being prepared for other contingencies and 
maintaining a sustainable rhythm for the families and the 
force.
    Thirteen, demand a war budget for recapitalization of the 
military to continue modernization while defeating our enemies. 
And, here again, I want to associate myself with Chairman 
Murtha. They should quit trying to fund this war with 
supplementals, be honest up front about the total budget, fight 
over the total budget, and have a rational track of spending. I 
would point out that, as big as the dollars sound, the current 
national security budget is lower, as a percentage of the 
economy, than at any time from Pearl Harbor through the end of 
the cold war. It is less than half the level Truman sustained 
before the Korean war.
    Fourteen, the State Department is too small, too 
undercapitalized, and too untrained for the demands of the 21st 
century. There should be a 50-percent increase in the State 
Department budget and a profound rethinking of the culture and 
systems of the State Department so it can be an operationally 
effective system.
    Fifteen, the Agency for International Development is 
hopelessly unsuited to the new requirements of economic 
assistance and development and should be rethought from the 
ground up. The Marshall Plan, and Point Four, were as important 
as NATO in containing the Soviet empire. We do not have that 
capability today.
    Sixteen, the President should issue executive orders, where 
possible, to reform the implementation system so it works with 
the speed and effectiveness required by the 21st century.
    Seventeen, where legislation is needed, the President 
should collaborate with Congress--and let me reemphasize those 
words, because I think the chairman will find them interesting 
words--the President should collaborate with Congress in 
honestly reviewing the systems that are failing and developing 
new merits--new metrics, new structures, and new strategies.
    Eighteen, under our Constitution, it is impossible to have 
this scale of rethinking and reform without deep support from 
the legislative branch. Without Republican Senator Arthur 
Vandenberg, Democratic President Harry Truman could never have 
developed the containment policies that saved freedom and 
ultimately defeated the Soviet empire. The President should ask 
the bipartisan leaders of Congress to cooperate in establishing 
a joint legislative/executive working group on winning the war, 
and should openly brief the legislative branch on the problems 
which are weakening the American system abroad. Only by 
educating and informing the Congress can we achieve the level 
of mutual effort and mutual support that will be needed for a 
generation if we are to save this country from the threats that 
exist.
    And I appreciate very much the chance to offer these ideas.
    [The prepared statement of Mr. Gingrich follows:]

 Prepared Statement of Hon. Newt Gingrich, Former Speaker of the U.S. 
House of Representatives; Senior Fellow, American Enterprise Institute, 
                             Washington, DC

    Chairman Biden, Ranking Member Lugar, and members of the committee, 
thank you for allowing me to testify.
    This is an extraordinarily important series of hearings on a topic 
of enormous national importance.
    The United States finds itself in a global struggle with the forces 
of Islamic fascism and their dictatorial allies.
    From a fanatic American near Chicago who attempted to buy hand 
grenades to launch a personal jihad in a Christmas mall, to 18 
Canadians arrested for terrorist plots, to the Scotland Yard disruption 
of a plot in Britain to destroy 10 civilian airliners in one day that 
if successful would have shattered worldwide confidence in commercial 
aviation and potentially thrown the world into a deep economic 
contraction.
    We are confronted again and again with a worldwide effort to 
undermine and defeat the system of law and order which has created more 
prosperity and more freedom for more people than any previous system.
    The threats seem to come in four different forms:
    First, from individuals who are often self-recruited and randomly 
inspired through the Internet, television, and charismatic social and 
religious friendships.
    Second, from organized nonstate systems of terror of which al-
Qaeda, Hezbollah, and Hamas are the most famous. Additional groups have 
sprung up and provide continuity, training, and support for terrorism.
    Third, from dictatorships in the Middle East, most notably Iran and 
Syria who have been consistently singled out by the State Department 
(including in 2006), as the largest funders of state-supported 
terrorism in the world. These dictatorships are investing in more 
advanced conventional weapons and in chemical and nuclear weapons.
    Fourth, from a strange assortment of anti-American dictatorships 
including North Korea, Venezuela, and Cuba.
    This coalition of the enemies of freedom has growing power around 
the world. Its leaders are increasingly bold in their explicit 
hostility to the United States.
    To take just two recent examples: Ahmadinejad of Iran has said 
``[t]o those who doubt, to those who ask is it possible, or those who 
do not believe, I say accomplishment of a world without America and 
Israel is both possible and feasible.'' He has also said that Israel 
should be ``wiped off the map.'' Chavez of Venezuela, just last week in 
a joint appearance with the Iranian leader in Latin America, announced 
a multibillion-dollar fund to help countries willing to fight to end 
``American imperialism.''
    Both of these statements were on television and are not subject to 
misinterpretation.
    Similarly, there are many Web pages and other public statements in 
which various terrorists have described in great detail their 
commitment to killing millions of Americans. I described these publicly 
delivered threats in a speech on the fifth anniversary of 9/11 which I 
gave at the American Enterprise Institute. The text of this speech is 
attached to this testimony.

[Editor's note.--The attached speech mentioned above was too voluminous 
to include in the printed hearing. It will be retained in the permanent 
record of the committee.]

    These threats might be ignored if it were not for the consistent 
efforts to acquire nuclear and biological weapons by these enemies of 
freedom.
    I first wrote about the extraordinary increase in the threat to our 
civilization from nuclear weapons in the hands of terrorists in 
``Window of Opportunity'' in 1984. Attached to this testimony is a copy 
of the relevant pages from this book.
    It is not accurate to suggest today that people were not aware of 
terrorism or were not warning about the threat to America's very 
survival prior to 9/11.
    Many sophisticated observers and professional military and 
intelligence officers have been issuing these warnings for two decades.
    What has been amazing to watch has been the absolute inability of 
our system of government to analyze the problem and react effectively.
    It is this collapse of capacity for effectiveness which is at the 
heart of our current dilemma.
    The United States is now in a decaying mess in Afghanistan and an 
obviously unacceptable mess in Iraq.
    While this language may seem harsh to defenders of the current 
policy, it is sadly an accurate statement of where we are.
    Efforts to think through and solve the problems of Afghanistan and 
Iraq have to be undertaken in a context of looking at a wider range of 
challenges to American leadership around the world and potentially to 
our very survival as a country. These larger challenges are described 
in my attached presentation entitled ``The Real World and The Real 
War.''

[Editor's note.--The attached presentation mentioned above was too 
voluminous to include in the printed hearing. It will be retained in 
the permanent record of the committee.]

    With these caveats I want to focus on the challenge of Iraq.
                  two very hard paths forward in iraq
    America is faced with two very hard paths forward in Iraq.
    We can accept defeat and try to rebuild our position in the region 
while accommodating the painful possibility that these enemies of 
freedom in Iraq--evil men, vicious murderers, and sadistic inflictors 
of atrocities will have defeated both the millions of Iraqis who voted 
for legal self-government and the American people and their government.
    Alternatively, we can insist on defeating the enemies of America 
and the enemies of the Iraqi people and can develop the strategies and 
the implementation mechanisms necessary to force victory despite the 
incompetence of the Iraqi Government, the unreliability of Iraqi 
leaders, and the interference of Syria and Iran on behalf of our 
enemies.
    Both these paths are hard. Both involve great risk. Both have 
unknowable difficulties and will produce surprise events.
    Both will be complicated.
    Yet either is preferable to continuing to accept an ineffective 
American implementation system while relying on the hope that the Iraqi 
system can be made to work in the next 6 months.
             the inherent confusion in the current strategy
    There are three fundamental weaknesses in the current strategy.
    First, the strategy relies on the Iraqis somehow magically 
improving their performance in a very short time period. Yet the 
argument for staying in Iraq is that it is a vital American interest. 
If we are seeking victory in Iraq because it is vital to America then 
we need a strategy which will win even if our Iraqi allies are 
inadequate. We did not rely on the Free French to defeat Nazi Germany. 
We did not rely on the South Koreans to stop North Korea and China 
during the Korean war. When it mattered to American vital interests we 
accepted all the help we could get but we made sure we had enough 
strength to win on our own if need be.
    President Bush has asserted that Iraq is a vital American interest. 
In January 2007 alone he has said the following things:

          ``But if we do not succeed in Iraq, we will leave behind a 
        Middle East which will endanger America in the future.''

          ``[F]ailure in one part of the world could lead to disaster 
        here at home. It's important for our citizens to understand 
        that as tempting as it might be, to understand the consequences 
        of leaving before the job is done, radical Islamic extremists 
        would grow in strength. They would be emboldened. It would make 
        it easier to recruit for their cause. They would be in a 
        position to do that which they have said they want to do, which 
        is to topple moderate governments, to spread their radical 
        vision across an important region of the world.''

          ``If we were to leave before the job is done, if we were to 
        fail in Iraq, Iran would be emboldened in its pursuit of 
        nuclear weapons. Our enemies would have safe havens from which 
        to launch attacks. People would look back at this moment in 
        history and say, what happened to them in America? How come 
        they couldn't see the threats to a future generation?''

          ``The consequences of failure are clear: Radical Islamic 
        extremists would grow in strength and gain new recruits. They 
        would be in a better position to topple moderate governments, 
        create chaos in the region, and use oil revenues to fund their 
        ambitions. Iran would be emboldened in its pursuit of nuclear 
        weapons. Our enemies would have a safe haven from which to plan 
        and launch attacks on the American people. On September 11, 
        2001, we saw what a refuge for extremists on the other side of 
        the world could bring to the streets of our own cities. For the 
        safety of our people, America must succeed in Iraq.''

          ``Iraq is a central component of defeating the extremists who 
        want to establish safe haven in the Middle East, extremists who 
        would use their safe haven from which to attack the United 
        States, extremists and radicals who have stated that they want 
        to topple moderate governments in order to be able to achieve 
        assets necessary to effect their dream of spreading their 
        totalitarian ideology as far and wide as possible.''

          ``This is really the calling of our time, that is, to defeat 
        these extremists and radicals, and Iraq is a component part--an 
        important part--of laying the foundation for peace.''

    The inherent contradiction in the administration strategy is 
simple. If Iraq matters as much as the President says it does (and here 
I agree with the President on the supreme importance of victory) then 
the United States must not design and rely on a strategy which relies 
on the Iraqis to win.
    On the other hand if the war is so unimportant that the fate of 
Iraq can be allowed to rest with the efforts of a new, weak, untested, 
and inexperienced government then why are we risking American lives.
    Both propositions cannot be true.
    I accept the President's analysis of the importance of winning in 
Iraq and, therefore, I am compelled to propose that his recently 
announced strategy is inadequate.
    The second weakness is that the current strategy debate once again 
focuses too much on the military and too little on everything that has 
not been working. The one instrument that has been reasonably competent 
is the combat element of American military power. That is a very narrow 
definition and should not be expanded to include the noncombat elements 
of the Department of Defense which also have a lot of difficulties in 
performing adequately.
    The great failures in the Iraq and Afghanistan campaigns have been 
in noncombat power. Intelligence, diplomacy, economic aid, information 
operations, support from the civilian elements of national power. These 
have been the great centers of failure in America's recent conflicts. 
They are a major reason we have done so badly in Iraq.
    The gap between the President's recent proposals and the required 
rethinking and transforming of our noncombat instruments of power is 
simply breathtaking.
    No military leader I have talked with believes military force is 
adequate to win in Iraq. Every one of them insists that the civilian 
instruments of power are more important than the combat elements. They 
all assert that they can hold the line for a while with force but that 
holding the line will ultimately fail if we are not using that time to 
achieve progress in nonmilitary areas.
    This failure of the noncombat bureaucracies cannot be solved in 
Iraq. The heart of the problem is in Washington and that brings us to 
the third weakness in the current strategy.
    The third weakness in the current strategy is its inability to 
impose war-time decisionmaking and accountability in Washington.
    The interagency process is hopelessly broken.
    This is not a new phenomenon. I first wrote about it in 1984 in 
``Window of Opportunity'' when I asserted:

          [W]e must decide what sort of executive-branch planning and 
        implementation system are desirable.
          At a minimum, we will need closer relationships between the 
        intelligence agencies, the diplomatic agencies, the economic 
        agencies, the military agencies, the news media, and the 
        political structure. There has to be a synergism in which our 
        assessment of what is happening relates to our policies as they 
        are developed and implemented. Both analyses and implementation 
        must be related to the new media and political system because 
        all basic policies must have public support if they are to 
        succeed.
          Finally, once the professionals have mastered their 
        professions and have begun to work in systems that are 
        effective and coordinated, those professionals must teach both 
        the news media and the elected politicians. No free society can 
        for long accept the level of ignorance about war, history, and 
        the nature of power which has become the norm for our news 
        media and our elected politicians. An ignorant society is on 
        its way to becoming an extinct society.

    In 1991 my concern for replacing the broken interagency system with 
an integrated system of effective coordination was heightened when GEN 
Max Thurmond who had planned and led the liberation of Panama told me, 
unequivocally, that the interagency process was broken.
    In 1995 that process was reinforced when General Hartzog described 
the failures of the interagency in trying to deal with Haiti.
    As early as 2002 it was clear that the interagency had broken down 
in Afghanistan and I gave a very strong speech in May 2003 at the 
American Enterprise Institute criticizing the process.
    By the summer of 2003 it was clear the interagency was failing in 
Iraq and by September and October 2003 we were getting consistent 
reports from the field of the gap between the capability of the combat 
forces and the failure of the civilian systems.
    No senior officer in the Defense Department doubts that the current 
interagency cannot work at the speed of modern war. They will not 
engage in a fight with the National Security Council or the State 
Department or the various civilian agencies which fail to do their job. 
But in private they will assert over and over again that the 
interagency system is hopelessly broken.
    It was very disappointing to have the President focus so much on 
21,500 more military personnel and so little on the reforms needed in 
all the other elements of the executive branch.
    The proposals for winning in Iraq, outlined below, follow from this 
analysis.
                      key steps to victory in iraq
    1. Place General Petraeus in charge of the Iraq campaign and 
establish that the Ambassador is operating in support of the military 
commander.
    2. Since General Petraeus will now have responsibility for victory 
in Iraq all elements of achieving victory are within his purview and he 
should report daily to the White House on anything significant which is 
not working or is needed
    3. Create a Deputy Chief of Staff to the President and appoint a 
retired four star general or admiral to manage Iraq implementation for 
the Commander in Chief on a daily basis.
    4. Establish that the second briefing (after the daily intelligence 
brief) the President will get every day is from his Deputy Chief of 
Staff for Iraq implementation.
    5. Establish a War Cabinet which will meet once a week to review 
metrics of implementation and resolve failures and enforce decisions. 
The President should chair the War Cabinet personally and his Deputy 
Chief of Staff for Iraq implementation should prepare the agenda for 
the weekly review and meeting.
    6. Establish three plans: One for achieving victory with the help 
of the Iraqi Government, one for achieving victory with the passive 
acquiescence of the Iraqi Government, one for achieving victory even if 
the current Iraqi Government is unhappy. The third plan may involve 
very significant shifts in troops and resources away from Baghdad and a 
process of allowing the Iraqi central government to fend for itself if 
it refuses to cooperate.
    7. Communicate clearly to Syria and Iran that the United States is 
determined to win in Iraq and that any further interference (such as 
the recent reports of sophisticated Iranian explosives being sent to 
Iraq to target Americans) will lead to direct and aggressive 
countermeasures.
    8. Pour as many intelligence assets into the fight as needed to 
develop an overwhelming advantage in intelligence preparation of the 
battlefield.
    9. Develop a commander's capacity to spend money on local 
activities sufficient to enable every local American commander to have 
substantial leverage in dealing with local communities.
    10. Establish a jobs corps or civil conservation corps of 
sufficient scale to bring unemployment for males under 30 below 10 
percent (see the attached op-ed by Mayor Giuliani and myself on this 
topic).
    11. Expand dramatically the integration of American purchasing 
power in buying from Iraqi firms pioneered by Assistant Secretary Paul 
Brinkley to maximize the rate of recovery of the Iraqi economy.
    12. Expand the American Army and Marine Corps as much as needed to 
sustain the fights in Iraq and Afghanistan while also being prepared 
for other contingencies and maintaining a sustainable rhythm for the 
families and the force.
    13. Demand a war budget for recapitalization of the military to 
continue modernization while defeating our enemies. The current 
national security budget is lower as a percentage of the economy than 
at any time from Pearl Harbor through the end of the cold war. It is 
less than half the level Truman sustained before the Korean war.
    14. The State Department is too small, too undercapitalized, and 
too untrained for the demands of the 21st century. There should be a 
50-percent increase in the State Department budget and a profound 
rethinking of the culture and systems of the State Department so it can 
be an operationally effective system.
    15. The Agency for International Development is hopelessly unsuited 
to the new requirements of economic assistance and development and 
should be rethought from the ground up. The Marshall Plan and Point 
Four were as important as NATO in containing the Soviet empire. We do 
not have that capability today.
    16. The President should issue executive orders where possible to 
reform the implementation system so it works with the speed and 
effectiveness required by the 21st century.
    17. Where legislation is needed the President should collaborate 
with Congress in honestly reviewing the systems that are failing and 
developing new metrics, new structures, and new strategies.
    18. Under our Constitution it is impossible to have this scale of 
rethinking and reform without deep support from the legislative branch. 
Without Republican Senator Arthur Vandenburg, Democratic President 
Harry Truman could never have developed the containment policies that 
saved freedom and ultimately defeated the Soviet empire. The President 
should ask the bipartisan leaders of Congress to cooperate in 
establishing a joint legislative-executive working group on winning the 
war and should openly brief the legislative branch on the problems 
which are weakening the American system abroad. Only by educating and 
informing the Congress can we achieve the level of mutual understanding 
and mutual commitment that this long hard task will require.
    Thank you for this opportunity to share these proposals.
                                 ______
                                 

             [From the Wall Street Journal, Jan. 12, 2007]

                          Getting Iraq to Work

                  (By Newt Gingrich and Rudy Giuliani)

    The American mission in Iraq must succeed. Our goal--promoting a 
stable, accountable democracy in the heart of the Middle East--cannot 
be achieved by purely military means.
    Iraqis need to establish a civil society. Without the support of 
mediating civic and social associations--the informal ties that bind us 
together--no government can long remain stable and no cohesive nation 
can be maintained. To establish a civil society, Iraqis must rebuild 
their basic infrastructure. Iraqis must take control of their destiny 
by rebuilding houses, stores, schools, roads, highways, mosques and 
churches.
    But the constant threat of violence, combined with a high 
unemployment rate estimated between 30 percent and 50 percent, 
fundamentally undermines that effort. This not only sustains the 
fertile breeding ground for terrorist recruiters but has the same 
corrosive effect as it would in any city--raising the likelihood of 
further violence, civic decay, and a crippling sense of powerlessness.
    A massive effort must be made to engage in a well-organized plan to 
rebuild Iraq. The goal: An infrastructure to support and encourage a 
strong, stable, civil society.
    The week before Christmas, the Pentagon asked Congress to approve a 
supplemental $100 billion for military operations in Iraq and 
Afghanistan, on top of the estimated $500 billion spent to date. The 
administration should direct a small percent of that amount to create 
an Iraqi Citizen Job Corps, along the lines of FDR's civilian 
conservation corps during the Great Depression. The Job Corps can 
operate under the supervision of our military and with its protection. 
The Army Corps of Engineers might be particularly helpful in directing 
this effort. It will place our military in a constructive relationship 
with the Iraqis--both literally and figuratively.
    Today, Iraq has almost 200 state-owned factories that have been 
abandoned by the governing authorities since the outbreak of war in 
2003. Deputy Under Secretary of Defense Paul A. Brinkley has led a team 
to 26 of those facilities, traveling far beyond the Green Zone to idled 
plants from Fallujah to Ramadi. Mr. Brinkley believes that under 
Department of Defense leadership, at least 10 of these facilities could 
be reopened almost immediately, putting more than 10,000 Iraqis to work 
within weeks. This should be done without delay--and it is only the 
beginning.
    The wages that these thousands of gainfully employed workers 
receive will be used to purchase goods and services that will employ 
other Iraqis. Those goods and services must be produced by still other 
Iraqis. These are the first steps in creating the requisite conditions 
of a stable functioning economy and the best hope of displacing 
retribution and violence with hope and opportunity.
    We must try to achieve constructive and compassionate goals through 
conservative means--jump-starting civic improvement and the individual 
work ethic in Iraq, without creating permanent subsidies. The goal is 
to get more Iraqis working, especially young males, who are most 
susceptible to the terrorist and warlord recruiters.
    There are many lessons from the successful welfare reforms in New 
York City that can be readily applied in Iraq. In the early 1990s, New 
York City suffered an average of 2,000 murders a year while more than 
1.1 million people--one out of every seven New Yorkers--were unemployed 
and on welfare. Too many neighborhoods were pervaded by a sense of 
hopelessness that came from a combination of high crime, high 
unemployment and despair. ``Workfare'' proved an excellent method to 
change this destructive decades-long paradigm. It required able-bodied 
welfare recipients to work 20 hours a week in exchange for their 
benefits. In the process, we reasserted the value of the social 
contract, which says that for every right there is a responsibility, 
for every benefit an obligation.
    As many as 37,000 people participated at a single time, working in 
the neighborhoods that most needed their help, cleaning up streets with 
the Sanitation Department, removing graffiti from schools and 
government buildings, or helping to beautify public spaces in the Parks 
Department.
    More than 250,000 individuals went through our Workfare Program 
between 1994 and 2001, and their effort helped to visibly improve the 
quality of life in New York City. Many of them moved on to permanent 
employment. This change from welfare to work did as much as the New 
York Police Department Compstat Program to keep reducing crime. A 
similar model can work in Iraq.
    There is an opportunity not only to increase employment by 
rebuilding roads, houses, schools, and government buildings, but also 
to engage the Iraqi people to participate in laying the foundation for 
a civil and prosperous society.
    The population of Iraq is roughly 30 million with a prewar median 
annual income equivalent to $700. Subsidizing unemployed Iraqis with a 
meaningful wage in exchange for meaningful work rebuilding their 
society is well within the means of the United States and its allies.
    The entire effort will help stabilize and grow the Iraqi economy. 
It should be open to all willing Iraqis--Sunnis, Shiites, and Kurds--as 
a means of helping to create a common culture through shared 
participation in work projects to rebuild and take ownership of their 
nation.
    One word of caution: The program should be overseen by the U.S. 
military, not private contractors, to avoid unnecessary delays in 
deployment or accusations of cronyism in the bidding process. Our 
military will still be devoted to its primary role of hunting down 
terrorists and patrolling the streets, but administering a jobs program 
would be a direct extension of their effort to secure law and order. 
After the program has been started and becomes successful, it can be 
transferred to a civilian authority within the Iraqi Government.
    The creation of an Iraqi Citizen Job Corps will help expedite the 
establishment of a more stable civil society and improve the growing 
Iraqi economy through the transforming power of an honest day's work.
                                 ______
                                 

                         Window of Opportunity

          (excerpts on terrorism and strategic effectiveness)
    The fact is that we stand on the brink of a world of violence 
almost beyond our imagination.
          * * * * * * *
    The picture is sobering indeed. Imagine the more extreme elements 
in any terrorist movement with weapons of mass destruction. It is a 
prospect likely to gray the hair of any reasonable person.
          * * * * * * *
    Just as the comfortable Russian landowner before Stalin could not 
imagine the horrors of collectivization and the comfortable bourgeois 
German Jew really could not believe Hitler was serious in his speeches, 
so it is hard for us to believe that these kinds of nightmares are 
possible. We keep rejecting information about the world around us 
because it is too far outside our personal experiences, our historical 
experience, and our shared general view of the world.
    It is the refusal to think seriously about the violence we see each 
night on television and to develop a new explanation for the world we 
live in which keeps us at a level of shock and surprise. Watch your own 
reactions the next three or four times you see really violent news 
reports about a terrorist or a war or the latest atrocity somewhere.
    We are going to have to develop an intellectual split-vision which 
allows us to accept both the reality of our peaceful neighborhood and 
the reality of a horribly dangerous outside world. If we don't develop 
a new sophistication to analyze and deal with the dangers from abroad, 
we will find those dangers creeping closer and closer to our 
neighborhood. If we don't learn to take serious precautions and to be 
honest with ourselves about all levels of violence--from individual 
terrorist-criminal all the way up to a Soviet-American nuclear war--
then we increase the danger that these events will occur.
          * * * * * * *
    Yet our problem will not come only from terrorist, illegal 
organizations. There are bandit nations willing to operate outside the 
tradition of modern international behavior. The three most obvious 
current bandit governments are North Korea, Libya, and Iran. The 
leaders of all three countries are inner-directed and likely to do what 
they personally decide is appropriate. All three leaders have proven 
themselves risk-takers willing to subsidize terrorist organizations and 
willing to kill innocent people in the pursuit of their goals. The 
thought of them having nuclear weapons is daunting indeed.
    . . . Furthermore, we must remember that it is only in the West 
that we focus military power on military engagements. There is every 
reason to believe that Middle Eastern ideologies will strike at the 
American heartland rather than at our military power if we threaten 
them directly.
          * * * * * * *
    We have been surprised again and again by other nations because we 
refuse to study their habits, their culture, and their history. Five 
hundred years before Christ, Sun T'zu stated, ``know the enemy and you 
have won half the battle. Know yourself and the battle is yours.'' We 
have a passion for knowing about technology, hardware, and management, 
but we disdain knowing much about either the capacity of others or 
ourselves to endure (e.g. Vietnam) or our opponents' techniques and 
approaches.
    Only this willful ignorance can explain our underestimation of the 
Japanese before Pearl Harbor. Bernard Fall warned us again and again in 
the early 1960s who Ho Chi Minh was and how long he would fight, but we 
continued to underestimate the North Vietnamese until they defeated us 
just as Fall had predicted. We underestimated the Lebanese-Syrian-
Iranian-Soviet terrorist connections which had already used vehicle 
bombs and produced numerous young fanatic volunteers willing to die for 
their cause, and 241 U.S. Marines died as a result.
    Because we reject history as a serious preparation for 
understanding and operating in the work at large, we find ourselves 
consistently underestimating how difficult, how intractable, how brutal 
and violent that world can be. History is powerful precisely because it 
carries us outside our peaceful neighborhoods and our calm communities. 
At its best, history can open our minds to possibilities which we would 
never encounter in our own family or surroundings. The world that has 
been can be again.
    Americans in general tend to underestimate the savagery of the 
world, but Liberals in particular carry the tendency to extremes. 
Liberals seem to have an ideological block against accepting the notion 
that there really are dangerous people out there who will do evil 
things unless they are stopped.
          * * * * * * *
    If we do not become practical and candid about the nature of the 
dilemma we face, we will lose many more men, women, and children to 
bombings, and we will begin to experience an erosion of civilization 
here at home. We must develop a doctrine which states clearly American 
policy toward violence aimed at the destruction of our society. We must 
take the steps necessary to prove that no terrorist organization can 
kill Americans with impunity.
    The long-term struggle against terrorism will be a dark and bloody 
one, involving years of vigilant counterterrorism--a level of 
surveillance and spying that Liberals will call intolerable--and a 
willingness to strike back with substantial force at the originators of 
the action rather that the foot soldiers of the terrorist movement.
    A free, open society cannot survive by trading violence for 
violence. If we kill an Iranian extremist every time Iranians kill an 
American soldier, we will lose the struggle. In the end, no free 
society can keep pace in enduring pain with a fanatical terrorist 
organization. We must develop a doctrine which severely and directly 
threatens the leaders of terrorist movements that they refrain from 
attacking the United States because they fear personal consequences. 
Any other policy is an invitation to a blood bath in which we will 
certainly be losers.
    The need to develop doctrines and tactics of aggressive 
counterterrorism goes against the grain of the American historical 
memory as taught in modern schools. By blotting out the wars against 
the Indians, the Barbary Pirates, the pacification of the West, and the 
campaigns against guerrillas in the Philippines and Central America, it 
has been possible for the Wilsonian intellectual tradition to 
dominate--a tradition that argues for a sharp and vivid distinction 
between war and peace. Liberals dominated by this tradition declare war 
on a country or are impotent to challenge it; they have no capacity for 
a long and difficult struggle in the twilight zone of low-intensity 
conflict.
          * * * * * * *
    Only when our professionals master their professions can we begin 
to design structures that will work. Then we must decide what sort of 
executive-branch planning and implementation system are desirable.
    At a minimum, we will need closer relationships between the 
intelligence agencies, the diplomatic agencies, the economic agencies, 
the military agencies, the news media, and the political structure. 
There has to be a synergism in which our assessment of what is 
happening relates to our policies as they are developed and 
implemented. Both analyses and implementation must be related to the 
news media and political system because all basic policies must have 
public support if they are to succeed.
    Finally, once the professionals have mastered their professions and 
have begun to work in systems that are effective and coordinated, those 
professionals must teach both the news media and the elected 
politicians. No free society can for long accept the level of ignorance 
about war, history, and the nature of power which has become the norm 
for our news media and our elected politicians. An ignorant society is 
on its way to becoming an extinct society. It is to be the two great 
centers of political behavior, the news media and the politicians, that 
we must now turn.

    The Chairman. I appreciate very much the breadth and the 
depth of your recommendations.
    I might note that one of the things I've been quoting--
someone in the press asked me to make sure I was quoting it 
correctly. I want to say it again. I have quoted General 
Petraeus over the last several months about armies of 
occupation when he was first in Iraq. And in July 2004, he 
said, ``An army of liberation has a certain half-life before it 
becomes an army of occupation.'' And for those who have asked 
me that question, that's the answer. And my rhetorical question 
is: Has that half-life passed? I think it has. But that's 
another question.
    I'm going to proceed, Mr. Chairman, on my side, with--and I 
will ask questions last--I'm going to yield to my friend from 
Pennsylvania, because he sat through the whole morning, and, by 
the time it got his time to question, he had to preside over 
the Senate. And that will not mean I will usurp my other two 
colleagues. I will ask after my other two colleagues on this 
side, as well.
    So, the floor is yours, Senator Casey.
    Senator Casey. Mr. Chairman, thank you very much for that 
point of personal privilege, but also for your leadership of 
this committee and the great hearings we've had already; and 
Senator Lugar, you, as well. And I just want Senator Biden to 
know that he's made me look really good in front of the dean of 
our delegation to the Congress of the United States.
    But first of all, I want to commend both Chairman Murtha 
and Speaker Gingrich for your presence here, for your 
patriotism, and for your public service over many years. We're 
grateful for all of that.
    I want to add a few personal comments, even though it's 
against my time, I think it's important that I say hello and 
welcome in a formal way to Chairman Murtha. I know that Speaker 
Gingrich is a native of Harrisburg. He was born there. And 
I'm--we're all a little bit Pennsylvania on this committee 
today, I guess. But I'm grateful to Congressman Murtha for his 
leadership on the issues that surround the important question 
of what we do in Iraq, for the leadership he's shown over many, 
many years, not just on the battlefield, as a solder, but also, 
of course, in the Congress of the United States. And I wanted 
to direct my first question to Chairman Murtha.
    You talked, at the outset here today, about a couple of 
very important points about readiness, specifically on pages 7 
and 8 of your testimony. I didn't want to read all of that, 
obviously, but I was struck by what you testified to and what 
you wrote. You wrote that--this is in the middle of page 7--at 
the beginning of the Iraq war, 80 percent of all Army units and 
almost 100 percent of Active combat units were rated at the 
highest state of readiness. Today, virtually all of our Active-
Duty combat units at home, and all of our Guard units, are at 
their lowest state of readiness, primarily due to equipment 
shortages resulting from repeated and extended deployments in 
Iraq.
    If you had a chance to expound on that, because I think 
that's critically important, in terms of our ability to 
confront threats all over the world. And I just wanted to give 
you that opportunity, if you----
    Mr. Murtha. I appreciate that, Senator.
    I want to say to the committee that there's nothing more 
important to our subcommittee than trying to get the readiness 
back. If Gingrich were still the Speaker, this wouldn't have 
happened, he would not have allowed this to happen, because the 
money we're spending in Iraq was diverted from the spending of 
the money at home. There's no question, if you go to any unit 
in the United States today, in continental United States, Guard 
and Reserve, no units are above the lowest state of readiness. 
The Active-Duty units I'm talking about, our Strategic Reserve, 
is well below any deployment level, partly because of 
equipment, but also because of changed standards, also because 
the families are disrupted by these continued deployments. But 
the biggest thing is the equipment shortages. For instance, I'm 
the one that found the shortage of body armor when I went to 
Iraq in the first place. We sent insufficient forces with 
inadequate equipment to Iraq in the first place. Then, during 
the war, we made sure that they had everything they needed in 
the war zone, but then, back at home, we started to deplete the 
resources of our Strategic Reserve.
    The Air Force and Navy aren't so bad, but we only bought 
six ships last year, so we are beginning to dissipate our 
ability to act in the future, not only to deter a war, but to 
project and sustain a war. As serious as the deployment 
schedule is, one of the most serious problem we have, is this 
depletion of our Strategic Reserve. And we're going to fix that 
as quickly as we can. That's one of the things the subcommittee 
is working on.
    Senator Casey. I think I have two more. One that I'll hold 
for last. I'll go to Speaker Gingrich on the second one. I 
wanted to ask you two, but I may not have time for two.
    I was struck by the list of recommendations you made, and 
we could spend a lot of time on each of them, but I wanted to 
focus for a moment on diplomacy, No. 14, where you assert the 
State Department is too small, too undercapitalized, too 
untrained for the demands of the 21st century. I just wanted to 
have you expound on that, if you could, because a lot of what 
we're trying to grapple with here on this committee, as 
everyone across America is, is not just how we get the military 
strategy right, but also in terms of the politics and the 
diplomacy involved. And I just want to give you a chance to 
expound on that.
    Mr. Gingrich. Well, I think that--let me tell you a very 
simple example. If you go to a senior military command, Central 
Command in Tampa, the quality of their videoconference 
capabilities, their ability to have secure conferences across 
the world, is a stunning ability to improve our communications, 
our leadership, our decisionmaking. If you go to the average 
embassy, they are operating on 25-year-old capabilities. And 
so, you can't have, for example, in a region, a videoconference 
capability to get seven ambassadors to talk with each other on 
a regular basis, to just share the problems. And just take that 
one capital investment as an example.
    Second, if you look at the career track of a rising 
military person, they have time to go off to school, they have 
time, on occasion, to be interns and do fellowships. The 
Foreign Service is--and you can imagine, for a right-wing 
Republican, how difficult this conversation is--the Foreign 
Service is simply too small to have the level of professional 
development necessary for the kind of ongoing complexity we 
need.
    So, just take those two examples. And I must say, by the 
way, I think that Secretary Powell did an extraordinary job in 
recognizing how badly underfunded the Department was. And I 
would have to say that the Republican Congress, when I was 
Speaker, was part of that problem, because what happens is, if 
you're conservative, you don't like many aspects of the Foreign 
Service, although you really wish we were more effective 
overseas, and if you're liberal, you, kind of, don't want to 
reform the Foreign Service, because you like it. And so, the 
result is, they stay permanently underfunded and permanently 
too small. And I think Secretary Rice is working in this 
direction, but I also think that they need, frankly, 
dramatically more resources than she feels comfortable asking 
for. And I would strongly urge this committee to look at 
comparative investment between DOD and State, and look at the 
notion of bringing State up to the quality of information flow, 
and also the quality of training, which inherently requires a 
larger State Department.
    Senator Casey. Thank you.
    One last question. I'll make it very brief. We're going to 
listen to the President tonight on a whole range of topics, 
very important issues. The one part of his--what he calls a 
``surge,'' what others call an ``escalation''--the one aspect 
of it, I think, that doesn't get enough attention, to some 
degree, in the press--but, in terms of your--both of you, in 
terms of your understanding of the reality on the ground in 
Baghdad, in neighborhoods, from what you've heard of the 
President's plan and what you know about it, can you just 
describe--and I know we only have less than a--less than half a 
minute now--just describe, as best you can, in a few seconds, 
what that means for the--for a combat soldier on the ground, 
going door to door. What does that mean--the reality of that, 
apart from the deployment--what does that mean, kind of, hour 
to hour, day to day? What are they going to be doing on those 
streets?
    Mr. Murtha. Let me tell you, I go to the hospitals almost 
every week. I go to Bethesda and Walter Reed. I've been to all 
the hospitals--Landstuhl--and the problem is--and we have tried 
to disassociate the policy from the guy on the field. We try to 
make sure they understand we support them. But they go out in 
the most intense situation, where somebody in front of them 
gets blown up, somebody behind them gets blown up, and the 
mental anguish that they go through is absolutely unbelievable. 
IEDs or sniper fire, whatever it might be--this is much more 
intense than Vietnam, much harder emotionally. We're going to 
have a lot of problems, a lot of money we're going to have to 
spend afterward for----
    The Chairman. Mr. Chairman, did you say harder than in 
Vietnam?
    Mr. Murtha. Oh, I believe----
    The Chairman. And you were in Vietnam.
    Mr. Murtha. Yes. I believe this is much more intense, much 
harder, because you just never know--you don't have any idea 
who the enemy is. You're walking down the street, and somebody 
pops out or you don't even see anybody and they're blown up. In 
talking to the troops--and I tell them, ``Look, I was wounded 
in Vietnam, but let me tell you something, I believe this is 
much worse than Vietnam.''
    Senator Casey. Thank you.
    Mr. Chairman, thank you.
    Mr. Gingrich. Let me just say, for 1 minute--my dad was a 
career infantryman in the U.S. Army in World War II, Korea, and 
Vietnam. I agree with Chairman Murtha, that--I think urban 
policing and warfare is far and away the most intense thing you 
have going. I suspect, if you were to ask a number of the 
majors, lieutenant colonels, and colonels, they would tell you 
that the additional troops will probably be useful, but they 
are, by themselves, not an answer. They will tell you that 
they're proud of what they're doing, and the reenlist rates 
prove they're willing to walk those streets, but they, frankly, 
deserve dramatically larger changes in our policy if we're 
going to stay, and, if we're not prepared to make the larger 
changes, then, frankly, I think we have to look seriously at 
what Chairman Murtha is saying, because--and General Petraeus 
said this, this morning. The core to the--the key to this is 
not simply military power, it's an entire range of things, many 
of which have to be driven from the White House if they're 
going to be effective.
    The Chairman. Thank you very much.
    Senator Lugar.
    Senator Lugar. Mr. Chairman, let me begin by making a 
comment on Speaker Gingrich's thought that we ought to manage 
defeat. Now, I have a problem here, because clearly the idea of 
victory and defeat, success and failure, and so forth, bring 
forward emotions, and my thought here is to quote a very novel 
interpretation of what has occurred that Ed Luttwak gave us 
this morning. He said, ``The Iraq war has, indeed, brought into 
existence a new Middle East in which Arab Sunnis can no longer 
gleefully disregard American interests, because they need help 
against the looming threat of Shiite supremacy, while in Iraq, 
at the core of the Arab world, the Shias are allied with the 
United States. What past imperial statesmen strove to achieve 
with much cunning and cynicism the Bush administration has 
brought about accidentally, but the result is exactly the 
same.'' Now, President Bush might not accept this as victory or 
success, but Ed Luttwak says, inadvertently, accidentally, 
whatever the case is, there is progress here. And this is what 
I want to emphasize, in a way.
    I appreciate very much both of you stressing the Truman-
Vandenberg relationship, and the 44 years of strategic 
bipartisanship that flowed from their mutual vision of the 
security imperatives our nation faced and which enabled 
American power to express itself magnificently. This is a 
necessary part of our current predicament. And this morning, I 
tried to indicate, without breaking confidence, conversations 
with the President about this, one involving Senator Warner and 
myself, for 50 minutes, talking about some of the things that 
you've talked about. I won't characterize the conversation as 
victory or defeat, or successful or unsuccessful. I would say 
it's ongoing. It has to be ongoing, because everything is very, 
very serious for our country, quite apart from our President or 
the Congress or the prestige of any of us.
    Now, tomorrow we will have a debate about various motions, 
and I appreciate the need for members to vent their feelings 
about this. Some want to get on record, tweaking the President 
and others will defend the President. My own view is that this 
is probably not particularly helpful, in that essentially what 
needs to happen is something you have suggested. Whether we do 
it in twos or fours or as a group, there will have to be a 
coming to grips with the predicament, which is, as you've 
suggested, the need for a long-term strategy that talks about 
our whole Armed Forces and the civilian components of the 
government. How many people do we need, men and women under 
arms, really, to do the job for America everywhere against the 
war on terror or instability or however you wish to 
characterize it? What sort of appropriate equipment is going to 
be required to fulfill these missions? You've mentioned 
specifically what kind of diplomacy is going to be required, an 
upgrading of the people on the ground, whether it's the State 
Department or Commerce or Interior or whoever else is going to 
be required if we are involved, really, in technical issues.
    In other words, what I'm talking about is how we provide a 
complete situation with our military, our diplomacy, and 
comprehensive intelligence. We had testimony this morning that 
it's very difficult to succeed in quelling an insurgency, or in 
this case in surging into cities--where you are putting forces 
on the street to secure neighborhoods--without adequate 
intelligence. There is doubt that we do not have adequate 
intelligence, and we will need to perfect that a great deal 
more.
    So, I would simply hope that there would be the potential 
for a development that we would recognize over the course of 
time, and that we would say, essentially, that, for the moment, 
we want to provide presence--a long-term presence in the Middle 
East. We want to do this so that economic development might 
occur, and provide greater hope for the people. We want to do 
this so that democratic development might occur over time, 
albeit incrementally. We want finally, at least by having a 
presence there, to be able to prevent al-Qaeda from developing 
training camps or prevent others who are able to gather in 
subversion; and, that we have bases for our forces and improved 
intelligence capacities.
    Now, if you come at it from that standpoint, then we've had 
all sorts of testimony as to where our troops might be 
emplaced. Some suggested there were desert locations in Iraq, 
in Al Anbar and elsewhere, that are being used and have been 
used before. We might establish striking or reaction forces so 
if there are difficulties on the border or if there's lack of 
confidence of our allies, we can respond and reassure.
    Now, I go through all of this, because it's--it appears to 
me that we need to have a dialog. For the moment, this evening 
in fact, the President may present another program to the 
Nation. But some of us do not accept that that's the end of the 
affair. The dialog, engagement and consensus-building with the 
Congress and with the Nation as a whole on what is to happen in 
Iraq and the Middle East must continue.
    Now, with all that precis, let me just ask either one of 
you: Do you accept the fact that we ought to have a presence in 
the Middle East in an attempt to develop relations with all of 
these countries in a long-term pattern, and that, essentially, 
our basic objective ought to be that, to have a presence, which 
is welcomed, or at least supported, because that will be 
required for us to fight the war on terrorism in the long term, 
as well as to advance Middle Eastern people, who, for the 
moment, don't like us, indicate frequently, as they have an 
opportunity, that they would prefer not to be dealing with us?
    Mr. Murtha. I think the Middle East, Iraq, the whole area 
is absolutely essential, not only to the United States, but to 
Europe. I think we have to restore our credibility by opening a 
dialog with them and getting suggestions from them, absolutely. 
I think we need a presence there, I just don't think we 
necessarily need a presence in Iraq itself. So, I absolutely 
think it's important that we have an influence, because of the 
resources they have in the Middle East, and because of our 
allies there.
    Senator Lugar. But, Jack, would you accept, though, the 
thought that, by having a presence in Iraq, we are in a better 
position to keep the borders stable, to keep others from 
intervening, even if we are not in the middle of Baghdad, in 
the nine districts?
    Mr. Murtha. No; I think the opposite. I think if we don't 
get out, if we stay there, we increase the intensity of the 
opposition. I think there's a civil war going on. I know a lot 
of people don't define it that way, but I see it, and we're 
caught in that civil war. Our troops are caught in that civil 
war. I think the Iraqis will get rid of al-Qaeda. There's not 
that many al-Qaeda, and they weren't there before we invaded. 
So, I'm convinced that, when we leave, the Iraqis themselves 
will get rid of al-Qaeda. There'll be instability, but I just 
think we're adding to the instability by being in Iraq itself. 
So, my phased withdrawal, I think, is the answer to this thing.
    Mr. Gingrich. Let me comment briefly. I think you've put 
your finger on, maybe, a fundamental challenge. Let me say, 
first of all, we do not have adequate intelligence. There is no 
reason to believe we're going to have adequate intelligence. We 
are no more than 10 percent into the process of reforming 
intelligence, and it is a fundamental problem, and should be a 
fairly large-scale scandal, how bad our intelligence is, still. 
OK? That's an institutional problem, not a Bush administration 
problem, and it is a deep American problem.
    Second, there's riots underway in Lebanon today. Hezbollah 
has been rearmed in south Lebanon. Hamas is being paid for by 
Iran. The Taliban elements in northwest Pakistan are stronger 
than they were a year ago. This is a really dynamic, dangerous 
environment. And I want to make two points about it that I 
suspect will be controversial.
    The first is, the notion that Iran and Syria are going to 
be our allies--and I'm not against talking with them, but I 
would talk with them rather bluntly about what they need to do 
without us hurting them. We can hurt them in lots of ways that 
don't involve ground troops, and in lots of ways that don't 
involve bombing. Now, there's a virtue to having the largest 
navy in the world, and there are many things you can do to make 
life stunningly harder for very weak dictatorships. But this 
idea that Iran and Syria, which are consistently listed by the 
State Department as the largest supporters of state terrorism 
in the world, and an Iranian leader who comes to Venezuela to 
announce publicly the creation of a joint Venezuelan-Iranian 
fund for the end of the American empire, and who says publicly 
he wants to wipe Israel from the face of the Earth and defeat 
the Americans, the idea that we're now going to find a way to 
have a dialog that will lead them to be nice to us or help us 
win in Iraq just strikes me as a fundamental misunderstanding 
of the dynamics of the war that we're in. The bigger war, not 
just the Iraq war.
    Second, historically, there is an enormous danger from the 
psychology of defeat. In 1977, I was in the Vice Chief of Staff 
of the German Army trying to get them to help me with 
something, and that morning they had announced that we were 
shifting a brigade to Bremerhaven, and there was a lot of 
turmoil in Germany, and I said, ``Oh, they're worried that 
we're securing the brigade like Dunkirk.'' He said, ``No, like 
Saigon.'' And I think we underestimate what defeat--al-Qaeda 
and the world, including the BBC, which is often worse than al-
Qaeda, will define an American-forced withdrawal from Iraq as a 
defeat, no matter how you describe it. The last time we were 
seen as weak in the Middle East, we had a 444-day hostage 
crisis in Iran, the American Embassy in Pakistan burned, and 
the American Ambassador in Afghanistan killed. A Marine general 
told me recently, ``If we are perceived as having lost our 
nerve, there are not enough Marine detachments to evacuate the 
number of embassies he suspects will be under siege.''
    And finally, if the Chinese conclude we've lost our nerve, 
Taiwan is going to suddenly become a dramatically more 
dangerous place. What we are talking about here--and the 
Congress has every right to debate this, and if the Congress 
decides to cut off the funding, the Congress has the legitimate 
constitutional right to do so, but what we're talking about 
here will be perceived in the world as defeat, and defeat in 
the world is a very dangerous commodity if you are the leading 
guarantor of the system.
    Senator Lugar. Thank you.
    The Chairman. Senator Dodd indicated he's prepared to yield 
to Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. And thank you, 
Senator Dodd, of course.
    These have all been great hearings. This is a particularly 
distinguished and unique panel. And I have really enjoyed 
listening to you.
    Congressman Murtha, you have been tremendous on this issue. 
You and I haven't just been on the same page for years, we've 
been on the same sentence. Everything you have said about this 
has rung true for me, and I thank you for your leadership.
    And Speaker Gingrich, you and I don't always agree, but I 
am impressed by your candor about the Foreign Service, about 
the State Department, the examples you give. This is what I 
observe, as well. And perhaps on a bipartisan basis, we can 
work together to address some of those issues. So, I have 
limited time, so I want to get directly--despite your different 
perspectives that you come from, I want to get right to this.
    Both of you have been critics of this President's handling 
of this war, and you've talked about the strain it's put on our 
national security. So, what does Congress need to be doing 
right now to ensure that the President does not continue to 
pursue a course in Iraq that is putting such a strain on our 
national security and that, obviously, has not brought 
stability in Iraq?
    Congressman Murtha.
    Mr. Murtha. What I'm trying to do is to build a case in the 
subcommittee for rebuilding our Strategic Reserve. I worry 
about defeat in Iraq, but I worry more about the fact that 
we're going to get out at some point. It doesn't make any 
difference if it's going to be tomorrow or it's going to be the 
next day--the way things are going, I see no way that this is 
not going to ultimately lead to the United States having to 
redeploy. But to restore our Strategic Reserve is absolutely 
essential. And then, I think we have to look at how we restore 
international credibility, and I listed some of the things I 
think are important. I think we need to close the Guantanamo 
detention facility. I think we need to bulldoze Abu Ghraib. And 
I think we need to stop torture--when I say ``stop torture,'' 
we need to make sure that the world knows we're not torturing. 
Our poll numbers are so low, we can't get anybody to cooperate. 
I think there's a diplomatic element to this. And I've said 
this from the very start. We have to use diplomacy, and 
diplomacy is going to be the key in the end. And how we manage 
getting out or redeploying is going to the key to how 
successful we'll be in the end.
    But events on the ground are going to control what happens. 
And, so far, they've gotten worse and worse. Everything I 
predicted, unfortunately, has turned out to be true. It hasn't 
gotten any better.
    So, we need to find out how we can reinvigorate our 
Reserves, our Active-Duty Reserves, our Strategic Reserves. So, 
it's not an easy problem. It's going to be very expensive. But 
when you're spending $8 billion a month--$2 billion just to get 
equipment back and forth--we've got to find a way to reduce 
that expense.
    Senator Feingold. Speaker Gingrich, what should Congress be 
doing right now about this?
    Mr. Gingrich. Let me say, first of all, as I indicated 
earlier, I mean, the Congress does have constitutional 
authority, if it wants to exercise it, but that is, (a) not 
very likely, and (b) an enormous acceptance of responsibility.
    I think General Petraeus has made an offer which is unique 
and very important, in that he has indicated a willingness to 
brief the Congress directly. I have a hunch that Secretary 
Gates is much more open to the kind of genuine dialog I 
described in my earlier comments.
    And I think that there are two large-scale strategies that 
people up here should be exploring. And I tried to define them 
earlier. And I don't--I--they're--neither one's easy. One is: 
What will it take us to succeed? And here, we disagree on 
whether it's even possible, but what would it take? But the 
other is: If we are determined--if we decide, for whatever 
reason, that we truly cannot succeed, then how do you manage 
the consequences? I think sometimes the debate gets to be 
bunchball about Iraq--you know, 21,000 troops, more or less, 
frankly, in the end, is irrelevant. I mean, it's not going to 
decide this. What's going to decide this is either a dramatic 
change in the capacity of the American system to be effective 
or a decision that we have lost, and, therefore, we'd better--
and we will still be the most powerful nation in the world, 
even if we lose. I mean, our ability to rebuild our relations 
in the region will be nontrivial, but may involve, frankly, 
greater violence, in the long run.
    But I think that--it's important for you, up here, to 
explore, you know, and to bring in experts and to--and, 
frankly, to send delegations to the region to find out from 
people who are our allies, ``If X happens, what's your reaction 
going to be? If Y happens, what are you going to do?'' And, 
again, I mean--and I'm not--I'm talking, here, to some of the 
people who have traveled the most in the history of the Senate. 
You all know every single one of these people intimately, 
personally. Because we've got to be prepared, I think, almost 
like an option playing football--we've got to be prepared 
either to drive to victory or to manage the cost of defeat and 
understand, you know, that this is just the nature of the world 
we're caught in.
    Senator Feingold. Well, I--Mr. Speaker, I certainly agree 
with that, as I've said at a number of these hearings, since we 
didn't have a plan when we went into Iraq, we sure as heck 
better have a plan for getting out. And that gets me back to 
Congressman Murtha, where you said what I believe is, obviously 
there is going to be a redeployment at some point, whether it's 
sooner or later. And you've studied the approach, and you've 
talked with senior military commanders. Can you say a little 
bit more, in terms of detail, about how a redeployment would 
actually work and how we can be sure that the lives of 
Americans will be protected as we redeploy? The--of course, the 
statement that's always made is, ``Well, this will endanger the 
troops.'' Well, you know, could you talk about that a little 
bit?
    Mr. Murtha. Yeah.
    Senator Feingold. Isn't there a safe way to redeploy the 
troops?
    Mr. Murtha. Absolutely. And I think the first thing that 
I've heard from all the experts--not necessarily just the 
military experts--is, ``Get out of Saddam Hussein's palace. Get 
out of the Green Zone.'' We have everything you need in the 
Green Zone. We have all the amenities. The troops are eating 
the best food, they have electricity, they have all the things 
that they need. And right around them, people have 5 or 6 hours 
of electricity in Baghdad. So, the psychological impact of 
getting out is so important. Then you phase it out of the city 
itself, and then you phase them out of Iraq.
    The military can plan a redeployment, and it won't be any 
problem at all. What I worry about more is restructuring our 
Strategic Reserve. That's where it's going to take a lot of 
money. And the minute the war ends, we're not going to have the 
money to do that, and that worries me as much as anything else. 
These supplementals, I don't like them. But the minute the 
war's over, money for defense will be cut even more. And I can 
remember when Cheney was Secretary of Defense, he said it ought 
to be 5 percent over GDP. Well, he's the Vice President, and 
it's a helluv a lot less than 5 percent. We need more troops to 
change the redeployment schedule.
    But the big thing is, if you start redeployment, I think 
that starts us on the road to reintroducing some dialog, 
reintroducing credibility to the United States, and then these 
other things that I've mentioned need to be done. I don't think 
there's any problem at all with the redeployment.
    Senator Feingold. And if you could just elaborate, finally, 
as my time expires, on your proposal for what the force 
presence should be in the region. Could you be a little more 
specific about what you envision there?
    Mr. Murtha. I think it's very difficult to know what it 
ought to be in the region. I think it could be much less. I 
think a division, at the most, in the periphery, whether it's 
Kurdistan or whether it's Bahrain or Qatar, wherever it is--or 
over the horizon. And I don't advocate going back in, unless it 
affects our national interests or the interests of our allies. 
I mean, I don't get involved in the civil war. So, I think we 
could reduce our presence substantially and have the forces 
necessary to go in if it affects our national security.
    Senator Feingold. Thank you, Mr. Chairman.
    Thank you, Senator Dodd, again.
    The Chairman. Thank you.
    Let me say, to the chairman and to the witnesses, it's 
possible, in the next 10 minutes, I may have to leave and 
hopefully come back, but, if I do not, Senator Dodd is able to 
stay. He will ask his questions, but Senator Boxer has 
graciously indicated she would stay and chair this, if that 
becomes necessary. So, if you see me get up, gentlemen, it's 
not out of a lack of respect. I just want you to know why.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    Mr. Chairman, I have great respect for you, though we 
probably disagree on a number of things. And Speaker Gingrich, 
I find myself consistently being on the same page as you. I 
appreciate the broad view that you take on this issue, and your 
mayor-like approach--from my perspective as a mayor--to getting 
things done.
    Chairman Murtha, where I agree with you is on the 
rebuilding of the Strategic Reserve of our Armed Forces. I 
think there is broad bipartisan support for that. What I'm 
struggling with is the consequences of failure in Iraq. I'm one 
of those who is concerned about whether 20,000 extra American 
troops in Baghdad is going to make a difference in the midst of 
sectarian battle. On the other hand, when I visited with 
General Zilmer in Anbar, I saw that our Marines are doing what 
Marines do well there--they are killing the enemy, and they're 
making progress on stifling the insurgency there. If the 
General needs more support in Anbar, I'm not going to stand in 
the way of that. And I have consistently heard, in the 
discussions we've had here, praise for General Petraeus. I 
don't know if there's a finer military leader than him. But we 
still face major challenges in our military campaign in Iraq.
    I just want to be clear--as I understand, Mr. Chairman, 
when you talk about redeployment, you are talking about an 
American troop withdrawal. You want us out of Iraq. Is there a 
timeframe for that withdrawal for you?
    Mr. Murtha. I've never set a timetable. I said, obviously 
they could do it within 6 months if the military decides it's 
going to do it. But that's purely an arbitrary figure that I 
said. I'm just saying that I don't think there's anything that 
can stop the momentum in the direction it's going now. I think, 
at some point, we're going to have to get out, and I think the 
lack of support of the American public--and I don't think the 
21,000 troops are going to make any difference, because an 
increase in Baghdad for 5 months made no difference; everything 
got worse.
    What we measure it by is what we--the committee asked--
electricity production, which is below prewar level, oil 
production, water, all those kind of things, we measure. And, 
of course, unemployment is 30 to 60 percent. So, I see no way, 
the direction it's going now, that we can recover from this. 
So, I say we're going to have to get out, but we have to do it 
in a way that protects our troops the most, and put them in the 
periphery, where, if something happens that affects our 
national security, they can go back in.
    Senator Coleman. The concern that I have is with your 
statement that somehow we restore credibility through a U.S. 
withdrawal. The Iraqi Study Group said this, ``A premature 
American departure from Iraq would almost certainly produce 
greater sectarian violence and further deterioration of 
conditions, leading to a number of the adverse consequences 
outlined above. The near-term results would be a significant 
power vacuum, greater human suffering, regional 
destabilization, and a threat to the global economy. Al-Qaeda 
would depict our withdrawal as a historic victory. If we leave 
and Iraq descends into chaos, the long-term consequences could 
eventually require the United States to return.''
    I would ask both of you: Do you agree or disagree with that 
statement?
    Chairman Murtha.
    Mr. Murtha. Well, I have a great regard for the Study 
Group, and I don't doubt that they may be accurate, but I've 
heard so many predictions about how it was going, and none of 
them turned out to be true. As the Speaker said, our 
intelligence has been abysmal. And so, these predictions have 
been abysmal. No matter what the predictions were, they turned 
out not to be true.
    My predictions, unfortunately, have been accurate in 
everything that I've predicted. I'm not happy that that's 
happened, but I saw--in talking to the military commanders, in 
talking to wounded, I saw there's no way this thing can come to 
a happy conclusion for us. So, we have to find a way, I think, 
to restore our credibility. Now, how do we restore it? I think 
we have to do the things that I listed before to restore part 
of our credibility. But I think redeployment is the first step. 
We, at first, were liberators, now we're the enemy. And we're 
the enemy because of the way we have to operate.
    The military cannot win this. This is what I've said over 
and over again. The military tactics that we have to use when 
we go into--overwhelming force. I advocate that. I want to save 
American lives. I want to protect American lives. But you make 
enemies when you do that. If you fly a Black Hawk in, and they 
use missiles, if you send mortars in, or artillery to protect 
Americans, you kill people inadvertently, and we become the 
enemy. Even if they kill each other, we get blamed for it. So, 
I just don't see any way that we're not going to have to 
redeploy, at some point.
    Senator Coleman. I don't think there's much disagreement on 
that point. Speaker Gingrich talked about Iraq being ``a 
mess.'' But the question gets back to the consequences of our 
actions in Iraq--and the consequences of withdrawal that the 
Study Group laid out are not only from intelligence analysts. A 
broad cross-section of military folks, diplomats, and others, I 
think, would clearly come to the conclusion Speaker Gingrich 
provided when he described the consequences of defeat. I just 
want to make sure we understand that the price that has been 
laid out here with regards to an immediate withdrawal is pretty 
dramatic.
    Speaker Gingrich, do you have a perspective on that?
    Mr. Gingrich. Yeah; I want to--I mean, first of all, I do 
think it's important to emphasize that, no matter how clever we 
think we are, if we are driven out of Iraq--and Chairman Murtha 
may be right, we may be driven out of Iraq--the world will see 
that as a defeat. And so, we need to think through how you 
manage, on a world basis, all the different implications of 
that.
    Second, I think where I disagree--and I apologize, I've--I 
had a very hard time figuring out how to say this--I don't 
think it's a question of staying or leaving, because staying, 
without a--without the drive and the energy and the toughness 
to win, is a dead loser in the long run. I mean, presence is 
negative. And I agree entirely. I was deeply opposed to an 
American occupation. That's why, as early as the fall of 2003, 
I spoke out so angrily, because I really believe that that 
system was doomed to failure, and did fail. The question is: 
Now that we are where we are, is it possible to win? Now, it 
may not be possible. Let me be clear. I think the odds are--
they're never 100 percent, because the enemy gets a vote.
    I believe, with the 18 specific suggestions I brought 
today, on top of what the President wants to do--if the 
President were driving the system, if he was genuinely 
Commander in Chief, and if he had a Deputy Chief of Staff with 
genuine ability to drive the system, we would have at least a 
three-out-of-four chance of winning.
    But nobody should kid themselves. I mean, General Petraeus, 
General Mattis, General Odierno, these are first-rate people 
who will do the best they can do. These are people who are very 
good at their job. But in the end, if we can't fix our 
systems--and I would argue, the American bureaucracies are a 
bigger problem than the Iraqi bureaucracy, and the American 
inability to deliver economic aid, the American inability to 
get things done in a timely way, is a bigger problem, because 
you can't manage the Iraqis if you can't manage yourself. And I 
just think we're faced with a lot of problems.
    I just wanted to say one other thing, Senator. One of the 
reasons I--and I think we're a lot like Lincoln, in 1862, when 
the Union Army kept getting beaten in the east all the time, or 
like Lincoln in August 1864, when he really thought he was 
going to lose reelection and was trying to figure out what they 
would do to try to save the Union after they lost--after they 
lost the election. I mean, history is dynamic, you can't be 
sure what's going to happen. But what worries me as much as 
anything is if we accept defeat, we will never fix the large 
bureaucracies of our own system that are failing--the 
intelligence bureaucracy, the State Department bureaucracy, the 
noncombat parts of defense, the problems in the interagency, 
the problems with all the civilian agencies that refuse to 
cooperate. And the next time we get hit, it'll be worse. And I 
think that if we don't force ourselves to fix these systems 
now, we will someday, down the road, pay a horrendous price for 
our growing bureaucratic incompetence.
    Senator Coleman. I know my time is up--are we going to have 
a second round, Mr. Chairman?
    Senator Dodd [presiding]. Well, I won't be here, but I'm 
sure you can.
    Senator Coleman. There is so much more that I want to 
inquire about, but I appreciate your perspective, Mr. Speaker.
    Mr. Dodd. Thank you, and I'll--thank you both, two of my 
favorite people in public life. I agree with one more, 
probably, than the other, but always--to listen to Newt 
Gingrich and not be provoked and to think is--there's something 
wrong with you. I appreciate your passion, Newt, and it's good 
to have you. Jack, always good to see you, and thank you for 
coming before us.
    Sort of related questions, in a way. Chairman Murtha, I 
went to the barber in Deep River, CT, the other day, and the 
barber's son is going to his fourth tour in Iraq. And I know 
that's probably the exception right now, but if you take the 
argument that many are putting forth, and implicitly--and Newt 
will correct here on this--but the idea the three options here, 
the third being that we sort of have to do it whether the 
Iraqis like us or not. Do we have the capacity to do that? Even 
if the President, tonight, decided that he was going to 
massively increase the number of people in this surge, decide 
that he really has to do what should have been done, many 
argue, at the outset--give us a very specific reality-check, as 
to whether or not, even if that were an option we'd want to 
exercise, are we capable of exercising that option tonight if 
we wanted to?
    Mr. Murtha. We're not capable of substantially increasing 
the number of troops. But I don't think we can win it 
militarily anyway. I think the military tactic we have to use 
in an occupied country to protect our military--and I agree 
with the tactic we use, but I don't think they work. We just 
can't win it militarily. But as far as the facts are, we don't 
have a Strategic Reserve. We have none of the units in the 
United States that are up to what I would call the top level of 
readiness. As a matter of fact, 80 percent are not at the top 
level. None of the National Guard units are.
    We're extending troops in Iraq, but we're also sending 
troops back that have not had a year at home. They like 2 years 
at home to rebuild and rehabilitate them. But the next tranche 
is going to be less than 1 year, they're going to have 9 months 
at home. So, we're stretched so thin--now, if we had to deploy 
a substantially larger number of troops, it would be 
impossible, because we don't have the equipment to do it, and 
we have to build up the equipment. We have a $100 billion 
shortage of equipment. So, we could not increase it more than 
the surge. I would assume the President probably asked the 
question, ``Could I send in 40,000,'' and the military said, 
``You cannot.'' And this is going to be a stretch, even to do 
it this way. We can't sustain it, even if we were able to 
deploy 20,000 troops, we won't be able to sustain that 
deployment without using National Guard and Reserve forces who 
now, in this country, are below the readiness level to be 
deployed.
    Senator Dodd. So, as a practical matter, even if they 
wanted to do it, they really could not.
    Mr. Murtha. They couldn't do it, that's exactly right.
    Senator Dodd. Newt, you were on the Defense Policy Board, 
going back, with Don Rumsfeld, back earlier, and this 
transformational doctrine that he embraced. Share with us your 
views, at the time that discussion was going on--were you 
supportive of it, not supportive of it? What was your reaction 
to that approach that became at least the tactical approach 
that the administration took in 2003?
    Mr. Gingrich. Well, let me----
    Senator Dodd. If you want to comment on----
    Mr. Gingrich. Yeah; let me also comment, just for a 
second--I--in my 18 recommendations, I don't recommend any 
increase in forces, except for intelligence. I don't think 
combat forces are the key to this, although I think you can 
reorganize them some. And I agree with Chairman Murtha, that 
they should be repositioned in certain ways, although I'd 
reposition them in the country, not out of it. But I think 
there are things you can do to have more effective forces. But 
I think most of the major changes we need are, in fact--and 
I'll give you a specific example. We currently have tolerated 
an Iraqi policy of releasing people we arrest as terrorists and 
as insurgents. So, we have a catch-and-release policy--and I've 
been told about this by lieutenant colonels and colonels for 
the last 2 years--where we pick up the same person seven times. 
Well, that's not a number-of-troops problem, that's a policy 
problem. And there are a whole series of things like that, that 
could be reformed pretty dramatically, I think.
    Let me draw a distinction about transformation. And I think 
this is a legitimate argument. I was with General Zinni the 
other night, reminiscing about plans they had at CENTCOM when 
he was there. And I know you've talked with him and have had 
testimony from him. I think transformation is real. I think 
that there are amazing things we are doing today, you couldn't 
have done 5 or 10 years ago. And I think it gives us 
capabilities that are pretty remarkable.
    It is not a substitute for the right strategy in the right 
circumstance. Transformation clearly worked in Afghanistan, 
where a much smaller land force was successful than anybody 
would have predicted historically. Transformation worked 
reasonably well up through capturing Baghdad. I mean, 23 days 
is about as good a campaign as you're going to get.
    What didn't work was that you had--you had to do one of two 
things immediately after you occupied Baghdad. You either had 
to hire the Iraqi Army, which is what I favored, and 
immediately--because I didn't want an occupation--or you had to 
do what Central Command had always planned, which is put about 
400,000 people in, so you had physical presence everywhere. 
They adopted the worst of both worlds. They had the right size 
army to not be an occupation, and then sent in Ambassador 
Bremer to be an occupied leader, giving speeches on television. 
I mean, if you're going to do that, you'd better be so 
overwhelmingly dominant that nobody becomes an insurgent 
because it's physically impossible.
    So, we literally created a mess that was unnecessary. But 
it wasn't because of transformation. It was because, at the key 
moment, when people like, by the way, David Petraeus, Jim 
Mattis, were doing exactly the right things--Petraeus hired 
15,000 Iraqi soldiers, put them on the payroll, had them busy. 
Then the Coalition Provisional Authority reversed virtually 
everything.
    So, I wouldn't put the--I wouldn't get in--personally, 
would not associate transformation as part of the problem. The 
problem was a fundamental mistake made, I presume, in the end, 
by the Commander in Chief. I'm not picking on Paul Bremer. He 
reported, ultimately, to the Commander in Chief. It was a 
fundamental mistake about the nature of what you do in a 
country once you've won the campaign.
    Senator Dodd. Thanks for that. And I'll yield in a minute. 
I was in Baghdad about a month ago. Senator Kerry and I were 
there, in the region. We were in Lebanon and Syria and Jordan 
and Israel, as well. I just want to share with both of you and 
my colleagues one of the--about 5 o'clock one evening, as our 
helicopter came down in the Green Zone, a young man walked up 
to both of us and introduced himself. I haven't used his name. 
I will now. Brian Freeman was his name. He was a West Point 
graduate, a captain. And he pulled us both aside, Brian did, 
and said, ``I want to share with you what I'm concerned 
about.'' In these days, it was just a discussion of this surge, 
nothing had been laid out very specifically--but he warned us 
about it, and said, ``This is a very bad idea.'' And he said, 
``Look, I'm sending 19-year-olds, and their mission is to go 
out on a patrol and be shot at or blown up and come back, not 
to hold anything, not to secure anything, not to defend 
anything. Their mission is really to become a target.'' And he 
said, ``I can't do this much longer. I'm being asked to do 
State Department jobs I was never trained to do.'' And he was 
just very impressive, about 6,2", 6,3"--he's about as handsome 
a kid as you'd ever see.
    We lost him on Saturday. I spent last evening talking to 
his parents, his wife. He's got a 14-month-old and a 3-year-
old. And losing the Brian Freemans of this world just cannot go 
on. This is crazy. And I would hope the President, tonight and 
in the coming weeks, would listen to people like John Warner, 
listen to people like Norm Coleman, listen to others who--good, 
card-carrying strong Republicans who have no interest in seeing 
this President fail at all. But he needs to get this message. 
This has got to stop. And my hope is, he'll listen to people 
like you, Newt, and others.
    I don't want to hear about any more Brian Freemans--a 
remarkable young man, with a bright, bright future, who had the 
guts to come up and talk to two Senators about what he thought 
was wrong.
    John.
    Senator Isakson. Thank you, Senator Dodd.
    Jack, I--first of all, it's great to see you again. And I 
want to apologize, I'm not going to ask you a question, because 
I've known Newt Gingrich for 33 years, when we both entered 
politics in Georgia in 1974, and this is the first time I've 
had control of 8 minutes when he and I were in the same room, 
so----
    [Laughter.]
    Senator Isakson [continuing]. This is a real treat for me, 
and I want to be able to do that. But, Jack, it's a privilege 
to have you here.
    Newt, you--we have heard a lot of testimony in the last 2 
weeks regarding what happens if we withdraw, redeploy, et 
cetera, but don't escalate our troop force in Baghdad. And to--
and the ones I've heard--and I haven't heard all of them--
almost to the one, they've suspected that the violence has 
gotten so bad, the sectarian violence, both inter- and 
intrasectarian violence, that there would be an increase in 
violence--in Baghdad, in particular--if we did. Do you agree 
with that? Or do you have an opinion on that?
    Mr. Gingrich. Well, I think it's likely--I mean, you know, 
when people talk--and I agree with Chairman Murtha, we can 
arrange an American withdrawal in a way which protects our 
troops reasonably well. What we can't do--and we did this in 
Vietnam; we didn't lose many people, leaving--what we can't do 
is protect all the people who help the United States, who are 
going to get slaughtered. And you--people just need to think 
through the cost of defeat. I mean, it's a legitimate strategy 
to say we can't win, and cutting our losses is better than 
continuing to get beaten up. But when we make that decision, 
we're going to watch a lot of people killed.
    I also believe the odds are at least even money that you'll 
immediately have the Shia attempt to massacre the Sunnis, who 
they outnumber by better than three to one, and you will then 
have the Saudis finance the Sunni, who are better organized, 
who will then promptly countermassacre the Shia, and you will 
have Lebanon times 50, in terms of sheer violence. And I 
think--there's a lot to think about in this region. It's a very 
hard region. And my only point is, is that--is not that I think 
the President did the wrong thing--here, we obviously would 
have some arguments--but that the administration has 
consistently underestimated how hard this region is and how 
difficult it is to get these things done, and that we need to 
be dramatically more determined--because I agree entirely with 
what Senator Dodd said, I don't think a single young American 
should be sacrificed if we're not serious about winning. And, 
therefore, my reaction is to say I think we should--we should 
be very serious about doing everything it takes to fix our own 
systems so these young men and women have a reasonable chance 
to actually accomplish the mission.
    Senator Isakson. I don't want to put words in your mouth, 
but you correct me if I'm wrong. What I have heard you say is 
that the President's recommendation is incomplete, in terms of 
dealing with the situation in Iraq, and, in the absence of 
substantially all, if not all, of the 18 recommendations, then 
it is problematic that it will be successful. Is that a fair 
statement?
    Mr. Gingrich. Yes. I had somebody I trust a great deal who, 
like Chairman Murtha, has had long, sad experience of being 
correct in their negative predictions, who said to me the other 
day that he thought, in its current form, that we had about one 
chance in six of succeeding, and that, as I walked him through 
these 18 recommendations, he thought it got you up to about 
three out of four. You never get much above that in this kind 
of a conflict, because the other side gets to vote, too. I 
mean, you can, in a Second World War kind of environment, where 
you just drown the other side and crush them, but we're not 
prepared to do that. But I do not think the President--I think 
the President's intentions are correct, and I would rather take 
the gamble of trying to win than take the gamble of trying to 
manage defeat. But I would hope that those members of the House 
and Senate who believe we should be successful in Iraq would 
insist that the President take very seriously profound changes 
in Washington, because most of the biggest implementation 
problems that General Petraeus is going to face are going to be 
Washington problems, not Baghdad problems.
    Senator Isakson. Well, you've led me to where I had hoped 
that we would go in this ``managing defeat'' versus 
``winning''--and I put ``winning'' in quotation marks--vis-a-
vis the Iran and Syria question. And item seven in your 
recommendations was for us to make it clear--I believe; I'm 
restating this--would make it clear to Iran and Syria that we 
are determined to win, and call on them to behave. And I 
think--and, if they don't, it'll lead to direct and aggressive 
countermeasures. That was your statement. There have been some 
on Capitol Hill in recent weeks that have been suggesting we, 
in Congress, get into directing policy or resolutions not to 
engage either Iran and Syria on any pretense, no matter whether 
there's provocation or not. Is that a faulty mentality for us 
to take at this time?
    Mr. Gingrich. Well, I'm not opposed to talking with them, 
if what we say to them is stunningly clear. But I think when 
you have evidence, as was reported last week by Government 
officials, that there are Iranian sophisticated explosives 
being sent into Iraq for the purpose of killing Americans, and 
we don't do anything about it, there's just something 
fundamentally wrong.
    Senator Isakson. Well, the----
    Mr. Gingrich. And we have enormous capacity to make life 
extraordinarily difficult for both of these fragile 
dictatorships; and, for a variety of reasons, we are 
psychologically immobilized. The Syrian dictatorship is a 
family-owned monopoly of power on behalf of 15 percent of the 
country, the Alawites. The Iranian dictatorship routinely has 
to stop people from running for office, because the fact is 
there are thousands of candidates they kick off the ballot 
because they are moderates who are disgusted with the regime. 
And they're already suffering severe economic problems. They 
import 40 percent of their gasoline, because they don't have 
adequate refinery capability. And the idea that Iran is 
powerful and can bluff us, and we are weak and timid and cannot 
bluff them, is entirely a figment of Washington's imagination.
    Senator Isakson. Well, lastly--and I guess this is a 
combination of a comment and a question. Your opening sobering 
remarks about the potential dangers to this country, vis-a-vis 
terrorism, and, second, your acknowledgment--and I--again, I 
think I'm right--that this is a battle in the overall war on 
terror, makes it very important that whatever we do--I think 
Chairman Lugar is very correct in encouraging diplomacy all the 
time, and he is an absolute first-rate gentlemen of that, and 
has been in this Congress for years--but we should not, as a 
Senate, preclude, by policy, the administration from taking 
measures that are appropriate against any country if they're 
going to be out to destroy us or to do harm to our citizens. Is 
that not a fair statement?
    Mr. Gingrich. Well, I think all I--along that line, all I 
would leave for the Senators to contemplate is--we told the 
North Koreans, this summer, that missile tests were 
unacceptable, so they picked the Fourth of July to fire seven 
missiles, which we then accepted. We then told the North 
Koreans that a nuclear test was unacceptable, so they set off a 
nuclear weapon. Now, if you're the rest of the planet watching 
this dance, what you begin to learn is that it's absolutely 
irrelevant what the Americans say and that they will put up 
with almost anything. So, you end up with Chavez's grotesque 
speech at the United Nations, followed by the performance, this 
last week, where he and Ahmadinejad created a fund for the 
defeat of the United States, publicly. And, over time, these 
dances have consequence. And all I would suggest is that--if 
anything, my concern with the administration is that it zigzags 
back and forth, that--I can't figure out what their policies 
are toward North Korea, Iran, and Syria right now. I mean, are 
they countries we should be talking with to try to find out 
what they mean, or are they countries that we know what they 
mean, and we should be doing something to stop them? Are they 
actually helping kill young Americans, or are they people we 
should be chatting with to help us solve Iraq? I mean, which 
country are they? And my experience, looking at the open press, 
is that they're actually pretty straight. These are 
dictatorships who hate us and are determined to drive us out of 
the region, and are defined by our own State Department as the 
two largest financers of terrorism in the world. Now, what--so 
I would agree with Senator Lugar, there's nothing at all wrong 
with talking to them, but I would talk to them in a fairly 
direct way, and have consequences to the conversation as part 
of that process.
    Senator Isakson. Thank you, Mr. Speaker. And thank you, 
Jack.
    Senator Boxer [presiding]. OK. I will ask some questions, 
and then we'll go back to Senator Vitter, and then to--have you 
already asked questions? I think Senator Menendez is coming 
back.
    Thank you both for being here. This has been really 
important for us.
    Congressman Murtha, I've known you for a very, very, very 
long time, worked with you since 1983. It's hard to believe. 
You always have been tough. You've always been direct. You've 
always been the best friend the military's ever had. I think, 
in presenting your views, and when you presented them, you were 
tough, you were direct, but, to me, you were correct. And to 
the vast majority of the American people, who now agree with 
what you're saying. And I want to thank you from the bottom of 
my heart. When history is written, you have a place in it, a 
very important place in it.
    Now, anyone who takes the time to read your testimony will 
have hope, because--here's the point. I love to write. I used 
to be a newspaper reporter and an editor. This is direct. This 
is clear. You tell the truth. You don't use, as the Speaker 
would say, bureaucratic, you know, dodging. You're just right 
there. And everything you say makes sense, ``The past 4 years 
of Iraq have been plagued by mischaracterization based on 
unrealistic optimism instead of realism. The conditions on the 
ground are simply moving in the wrong direction.'' Who could 
argue with it? ``There are limits to military power. There is 
no U.S. military solution to Iraq's civil war. It's up to the 
Iraqis.'' Now, there--there may be a disagreement with the 
Speaker, because I read his, and his is very strong for a 
military solution. I'm going to get to that. But I think most 
people agree with you, that if there's not a political 
solution, there'll never be an end to a civil war. Never. And 
there are some great ideas out there. My chairman has, I think, 
a very sound idea about following the Constitution, looking at 
semiautonomous regions, getting the neighbors to sit down, and 
so on.
    So, I could go through this, and I--I won't go through 
everything, but I think your point that you made today, which 
Dr. Korb made this morning, 61 percent of Iraqis approve of 
attacks on United States-led forces. Now, I don't know how 
anyone, in good conscience, I swear--and I must be missing 
something--could send our troops to help liberate a country and 
rebuild it when 61 percent of the people say it's OK to shoot 
our soldiers. I just don't get it. And that's, I think, one of 
the reasons why you see, in the Army Times here, which I've 
talked about before, now only 35 percent of the troops approve 
of the way this war is being handled. And if you--if Speaker 
Gingrich is right, and the only way to win--and he talks about 
winning; I want to talk about winning--is to have a good--and, 
Speaker, if I don't say this right, please correct me--that 
people are strong for winning, that they feel good about the 
mission, they want to stay there, and the public supports it, 
and the troops support it--if that's the only way to win, then, 
unless something major happens, this is a problem.
    Now, I take a little different view about winning and 
losing, and I'd like to put this out here. Maybe it's because I 
think I've negotiated a lot of issues in Congress and in my 
household, where everyone comes out a winner, which is what 
good leadership is. Everyone comes out a winner. Now, I would 
ask both of you to comment on this, really tell me if I'm onto 
something or not.
    If I were to have told both of you, years ago--let's say, 
like, 5 years after gulf war one, that Saddam would have been 
overthrown by the Americans, that there were--we were sure 
there were no weapons of mass destruction, because our people 
could assure us of that, that things were such that there--that 
the American military was able to make sure that there could be 
not one, not two, but three elections where the turnout was 
huge and people were excited about it and showed their purple 
dot on their finger--two elections, one referendum--if I were 
to tell you that in the mid-1990s, and say, ``This is what 
America did for this country: The tyrant is gone, they've had 
their elections, and there are no weapons of mass 
destruction,'' would you say--would you have said, ``What an 
accomplishment''? I just wonder if you would have said that, in 
the--if somebody came up and said, ``This is what's going to 
happen in Iraq,'' would you have said that was an 
accomplishment?
    Mr. Murtha. Well, I'll tell you what they look at. They 
look at the amount of electricity they have. They look at the 
employment. They look at potable water. They look at the basic 
things that our people in the United States look at. And that's 
why it's been so distressing to go from very popular to 
unpopular. So, those things are certainly important, from an 
overall standpoint, but not near as important as insecurity, 
increased incidence, unemployment, and electricity----
    Senator Boxer. OK. So, if I had said to you, that, in the 
1990s, you would have said, ``Well, that's good, but how's 
their daily life?'' Is that what you would have said at that 
point in the mid-1990s? Or would you have said, ``Barbara, 
there's no way to get rid of Saddam. It would have been too 
hard. There's no way he could have had three elections.'' See, 
I think it's a huge accomplishment by our military. And that's 
why, when Newt Gingrich talks about losing, losing, losing, I 
don't look at what we've done there as a loss. I just think 
it's been changing missions. ``Mission accomplished,'' was 
stated----
    Mr. Murtha. Let me tell you----
    Senator Boxer [continuing]. At a time when it wasn't--it 
wasn't right to say that. But the bottom line is, it depends on 
your mission.
    Mr. Murtha. I thought we could prevail in Vietnam. When I 
came back, in 1967, they had an election right after that, and 
President Johnson said, ``It's all over. We had an election--
Vietnam had an election. Everything's going to be all right.'' 
We lost 35,000 people after that. There's no question in my 
mind that I was mistaken. I went to Vietnam, asked by Gerry 
Ford to go there--and I found that there was going to be a 
bloodbath. I said there's going to be a bloodbath in Cambodia, 
and that we'd have a terrible problem--that's going to happen. 
There's nothing we can do about that, because we are not 
prevailing, and it's getting worse.
    So, yes; I agree with you, those kind of accomplishments 
are magnificent. Our military did a marvelous job. But we can't 
win this, militarily. We're considered occupiers, and the way 
we have to operate is to use overwhelming force, and that 
forces us into a position where we----
    Senator Boxer. OK.
    Mr. Murtha [continuing]. Kill people.
    Senator Boxer. So, just going a little further, if I were 
to just summarize what I think you said to me, it's that, yes, 
the military did some magnificent things, in terms of getting 
rid of Saddam and in terms of allowing the people to freely 
choose their leaders, but, in your opinion right now, that 
can't be perceived as a win.
    Mr. Murtha. Well, I think the polls and internationally, 
we're looking at it as being defeated. I understand what you're 
saying, but I think there's no question in my mind that 
internationally and in the United States people are fed up with 
it, they've lost confidence, they want out. That's what they're 
saying. Now, that's not necessarily the reason to leave, but I 
just don't see any chance of prevailing. I understand what 
you're saying, and I praise the military all the time. Nobody 
has a higher regard for the military than I do. But they can't 
prevail in this thing, because of, just, the guerrilla war and 
the type--Algeria, India, Afghanistan--the Russians had----
    Senator Boxer. Well, I totally agree. The only place we 
disagree is--I feel, just from my seat, what the military did 
was amazing win for a people.
    Mr. Murtha. It is.
    Senator Boxer. And the question is what they do with it. If 
they choose not to treat each other the way they should and 
have a country that can work, I don't think we can fix it. 
But--so, I don't like to see things as losing and winning, 
which you and Newt, I think, agree on, that it's--if we leave, 
it's a loss. You agree it would be a loss. The situation is a 
loss.
    So, I--my time has run out, but I'm going to ask, just, 
Newt, this one question, then I'm going to go to Senator 
Vitter.
    I read your 18 key steps to victory in Iraq. I notice that 
you say something here, ``Establish three plans, one for 
achieving victory with the help of the Iraqis, one for 
achieving victory with the passive acquiescence of the Iraqis, 
one for achieving victory even if the current Iraqi Government 
is unhappy.''
    If the current Iraqi Government said, ``Get out. You're 
making things worse for us, you're fueling the insurgency, 
you're fueling al-Qaeda, and we just want to deal with our own 
country, ourselves,'' would you not leave, at that point?
    Mr. Gingrich. Well, I think if the current Iraqi Government 
said, ``Get out,'' we would leave.
    Senator Boxer. But you say--but you say a plan--we should 
have a plan. It seemed to me you're implying that we would 
stay, because you say, ``achieving victory even if the current 
Iraqi Government----
    Mr. Gingrich. Well----
    Senator Boxer [continuing]. ``Is unhappy,''
    Mr. Gingrich [continuing]. Let me draw a distinction----
    Senator Boxer. And before, you said, ``Leaving is defeat.'' 
So, explain that to me.
    Mr. Gingrich. Well, I think--I think, as a practical 
matter, in the modern world, if you have a sovereign 
government, and the sovereign government asks you to leave 
you'd have a relatively difficult time staying. The question 
would be: What would be the odds that the Iraqi Government 
could, in fact, achieve clarity of asking you to leave, if all 
of your allies inside the Iraqi Government were blocking them 
from doing so? So, you could end up in a situation where 
Maliki's unhappy, but is very constrained.
    And the only reason I raised this is--I don't--I don't 
think you can deal with Iraq in isolation. If you don't wake up 
every day and look at Iran first, Syria second, international 
terrorism third, and say to yourself, ``What's the implication 
of our defeat on all of these various moving parts?''--and I 
think if the United States is defeated in Iraq, that the 
consequences, in terms of an Iranian surge in the Persian Gulf 
and an Iranian belief that their model of terrorism will work, 
will be extraordinary and will be very, very violent.
    Senator Boxer. Well, you know, it's interesting, because a 
lot of things were said about Vietnam that would happen, and 
now the President went there, and he is just thrilled to be 
there, and he's thrilled with what they're doing. So, I think, 
you know, we all heard that before. But I think--but I just 
worry a lot about this. If I--you know, you set up a War 
Cabinet. I don't see anything about a political solution. I 
don't see anything about a postwar solution here. And I just 
would urge you--because, you know, a lot of these things are 
good and I do agree with, but I don't see anything here that 
leads you to political solution. And I think right now the 
biggest winner is Iran. My gosh, we're doing for them what they 
were unable to do for themselves. And that's a disaster.
    Senator Vitter.
    Senator Vitter. Thank you, Senator Boxer.
    And I join all my colleagues in thanking the two of you for 
your service and ideas, and for being here. I deeply appreciate 
it, as well.
    Chairman Murtha, I believe a few minutes ago you talked 
about a ``phased withdrawal,'' and you used that term, but 
resolution 18, which you introduced, says withdrawal, ``at the 
earliest practicable date.'' And neither of those is really 
precise about time, but they sound different to me. So, would 
you advocate a phased withdrawal, or would you advocate getting 
our troops out as quickly as is consistent with their safety?
    Mr. Murtha. Yeah, I would advocate getting out as quickly 
as possible, but I think it still has to be phased. I've always 
believed that the military could set the timetable, and that 
would give the incentive to the Iraqis to take over their 
responsibility. For instance, I said earlier that they first 
ought to get out of the palaces. You've been there, and you 
know the palaces are where Saddam Hussein was. Then they ought 
to get out of the Green Zone. Then they ought to get out of 
Baghdad. And then they ought to get out of the country itself. 
I believe we need stability in the Middle East, there's no 
question about that. I think it's absolutely essential to our 
international interests, but I believe that both are 
consistent. A phased withdrawal is something that it would have 
to be. I don't think you could protect our troops if you didn't 
do it that way.
    Senator Vitter. So, what I'm hearing is: Relatively 
quickly, consistent with the troops' protection.
    Mr. Murtha. Exactly.
    Senator Vitter. Is that fair to say?
    Mr. Murtha. Exactly, yeah.
    Senator Vitter. What--none of us have a crystal ball, 
obviously, but what would your prediction be about the level of 
violence and sectarian conflict following that in Iraq?
    Mr. Murtha. Well, I think there would be instability. And I 
don't think any of us can predict how much there'll be. And 
I've heard all kinds of estimates. But they're going to have to 
do this themselves. Just like our own Civil War, we had to 
settle it ourself, and nobody else can settle it for us. Our 
troops are caught in the middle of a civil war; you call it 
``sectarian violence.'' That's the thing that worries me the 
most. We can't do it militarily. The way we have to operate 
militarily is overwhelming force, and that makes enemies.
    Senator Vitter. Right.
    Mr. Murtha. And so, I just believe that--even though there 
will be instability--now, we should be----
    Senator Vitter. Would you expect that violence, following 
our relatively quick withdrawal, to go up, or not?
    Mr. Murtha. I don't know that I could predict whether it 
would go up or down, but one thing I do predict is: The longer 
we're there, the more troops are going to be killed, and we're 
not going to make any more progress. And so, I believe the 
sooner we get out, the better off we'd be, and the violence is 
going to come, whether we get out now or we get out 6 months 
from now or a year from now. Unless, what the Speaker said, we 
were to put an overwhelming force into place, 4 or 500,000 
troops----
    Senator Vitter. Well, I guess the biggest reason I ask is 
because you say, ``Well, we might have to go back in if certain 
things happen.'' And so, therefore, it seems pretty important 
to me to understand the likely consequences of whatever action 
we're going to take. None of us have a crystal ball, but it 
seems pretty important to try to figure out if violence would 
surge following a relatively quick withdrawal, or not.
    Mr. Murtha. Yeah; I appreciate that question, because what 
I've said is, we wouldn't go back in unless our national 
interests were affected.
    Senator Vitter. Right.
    Mr. Murtha. I wouldn't go back in to interfere in the civil 
war, and that's where our troops are caught now.
    Senator Vitter. Right.
    Mr. Murtha. So, I would have a very small force stationed 
in Okinawa, even, which is a long ways off, but we could get 
back there in a short period of time, and the periphery, even 
Kurdistan, I would----
    Senator Vitter. In that scenario, would our national 
interests be affected if Iraq was being controlled by clearly 
extremist elements which had a violent worldwide agenda, like 
other of our enemies do?
    Mr. Murtha. Well, Iraq is an old established civilization, 
and I don't think they're going to fall under the purview of 
Iran or anybody else. I know that's what everybody thinks. I'm 
worried about Iran. I've always worried about Iran.
    Senator Vitter. Let me clarify. I'm not talking about Iran. 
I'm talking about forces within Iraq that I think we would all 
agree to characterize as extremist elements with a violent 
agenda.
    Mr. Murtha. Yeah, I see what you mean, and I think the 
Iraqis will handle that. I think the al-Qaeda presence is 
minimal compared to the sectarian violence that's going on. I 
absolutely believe that they will get rid of them. In the Sunni 
areas----
    Senator Vitter. Well, again, I'm--and I'm not trying to cut 
you off, but I do have limited time.
    Mr. Murtha. Yeah.
    Senator Vitter. I'm not talking only about al-Qaeda either. 
I'm talking about, for the most part, religious-motivated, 
ultraextremist groups who would have an anti-American violent 
agenda.
    Mr. Murtha. Well, the longer we're there, the more 
possibility of that happening, in my estimation. The sooner we 
redeploy, the less chance of that happening.
    Senator Vitter. OK. Another scenario. Would it be in our 
national interest if--to get reinvolved directly in the 
situation if that sectarian and other violence was spilling 
over to the broader Middle East region?
    Mr. Murtha. Well, I think it depends on which countries 
you're talking about, and that certainly is something that we'd 
have to decide whether it's in our national interest. The oil 
reserves are so important to everyone. And this is why we need 
to get the Europeans involved; they're the ones that have as 
much stake as we do. In the first gulf war, you remember, we 
had 170,000 troops from the coalition. They paid for it 
themselves. They understood the importance of the Reserves in 
that country. And that's the same thing today. But they haven't 
gotten involved, because we've tried to do it on our own. We 
need their involvement. I'm saying redeployment is the first 
step to get them involved, and then a heavy diplomatic effort, 
working with them and doing some of the things that I've 
suggested.
    Senator Vitter. But you'd admit, certainly, that if that 
violence was spilling to the Middle East more broadly, it--
something like that could get into that category you're talking 
about, where it involves our national interests.
    Mr. Murtha. If it affected Saudi Arabia, if it affected 
Israel, if it affected our allies in that area, certainly we'd 
have to think about getting involved.
    Senator Vitter. OK. Mr. Chairman, you seem to be saying 
that it's inevitable that the presence of United States forces 
cannot be successful in Iraq. Is it also--is part of reaching 
the conclusion you've reached that it is inevitable that this 
attempt to have a stable democracy in Iraq is a failure, or is 
that still a possibility?
    Mr. Murtha. I think--that's a possibility, but I think the 
longer we occupy Iraq--for instance, the examples I used, in 
Afghanistan and India and countries like that, where their 
occupation created civil unrest--I think the sooner we get out, 
the more chance we have of democracy in Iraq.
    Senator Vitter. So, you would allow for some possibility of 
that success of a stable democracy.
    Mr. Murtha. Absolutely. They've had an election. They 
wanted an election. They want to have a stable government. But 
they have to settle it themselves. We cannot prevail, 
militarily, in Iraq. There's a limit to military power, and 
we've reached that limitation by not getting it under control 
earlier.
    Senator Vitter. Mr. Speaker, let me--I'm running out of 
time, but let me pick up there with you, at least quickly.
    Senator Boxer. This is the last question, because we need 
to vote and----
    Senator Vitter. Sure.
    Senator Boxer [continuing]. Senator Menendez still needs a 
turn.
    Senator Vitter. That's fine. Sure.
    You start your column with Mayor Giuliani saying that our 
goal promoting a stable, accountable democracy in the heart of 
the Middle East cannot be achieved by purely military means. I 
think we all agree with that. I assume you would also agree 
that achieving that goal takes, under the present 
circumstances, some military security component.
    Mr. Gingrich. Absolutely. It takes a--it takes a 
substantial advantage in intelligence, it takes a capacity to 
impose security, it takes a requirement to grow the Iraqi 
security forces so that they're capable, on their own, of 
helping implement security. But if you read General Petraeus's 
testimony this morning to the Senate Armed Services Committee, 
he is equally clear that the military, by itself, cannot 
succeed. I mean, even those of us who are optimistic about the 
opportunity of success believe that there are very substantial 
elements of the American Government, outside the combat 
military, that have to be effective for us to be able to have 
any hope of succeeding in Iraq.
    Senator Vitter. Right. Thank you very much, to both of you.
    Thank you, Madam Chair.
    Senator Boxer. Thank you very much, Senator, for being so 
mindful that Senator Menendez has been waiting. And please go 
ahead.
    Senator Menendez. Thank you, Madam Chair.
    Let me thank both of you. I had the privilege of serving 
with both of you in the House and appreciate your commitment to 
our country and your leadership. Chairman Murtha, I always 
appreciated all of the insights and the plain-spokenness with 
which you brought powerful arguments in our caucus and to the 
Congress, and so I appreciate you coming over here today to 
share your insights.
    Mr. Speaker, I will probably concern some people back in 
New Jersey by saying there's a lot I agree with in the 
statement that you gave, and particularly in the written 
statement. I want to read from part of it, as a preface to a 
question.
    You said, ``The second weakness is, the current strategy 
debate once again focuses too much on the military and too 
little on everything that has not been working. The one 
instrument that has been reasonably competent is American 
military power, but that's a very narrow definition and should 
not be expanded to include the noncombat elements of the 
Department of Defense, which also have a lot of difficulties in 
performing adequately. The great failures in the Iraq and 
Afghanistan campaigns have been in noncombat power: 
Intelligence, diplomacy, economic aid, information, operations, 
support from the civilian elements of national power. These 
have been the great centers of failure in America's recent 
conflicts. They are a major reason why we've done so badly in 
Iraq. The gap between the President's recent proposals and the 
required rethinking and transforming of our noncombat 
instruments of power is simply breathtaking.'' And I agree with 
you on all of that.
    So, as I look at your 18 points for success in Iraq, I ask: 
If one were to accept that all of those 18 points were vital to 
success in Iraq, how long do you think that would take to 
accomplish?
    Mr. Gingrich. Let me say, first, that what is truly 
discouraging is--I included, as an appendix, some things I 
wrote in 1984 on the fact, that the interagency was broken, and 
I reported on conversations, that Chairman Murtha will 
remember, with very fine people--General Thurmond, after the 
1990 Panama campaign, and General Hartzog, after Haiti, in 
which they both reported that the interagency was broken. I 
mean, this is a longstanding reality.
    I believe--and, again, General Petraeus talked about this 
some this morning--I believe that it is possible, with luck, 
that, within a year, there will be fewer American casualties, 
and there would be a dramatically greater Iraqi capability. And 
I believe, if you did all 18 points, which includes a great 
deal of economic breakthrough and a great deal of effort to 
change the tone and the quality of life for the Iraqi people, 
that you would have the beginnings of moving in the right 
direction. But----
    Senator Menendez. But the----
    Mr. Gingrich [continuing]. But I think----
    Senator Menendez [continuing]. The implementation of your 
18 points would take a significant amount of time to achieve, 
certainly----
    Mr. Gingrich. No; look----
    Senator Menendez [continuing]. Some of them.
    Mr. Gingrich. Here's the great dilemma of the American 
system. And I have to say, as somebody who spent 20 years 
representing Georgia, that, in fact, we ended our Civil War not 
by political discussion, but by defeat, as seen from a Georgia 
perspective. I mean, there are moments in history--Yankees may 
not always fully appreciate this view, but there are moments in 
history when, in fact, you just have to drive through. Lincoln 
changed things every day. George Catlett Marshall, when he was 
creating the American Army of the Second World War, changed 
things every day. If this President were to bring in a Deputy 
Chief of Staff who is a senior retired military person of the 
right background and were to genuinely drive the system, 90 
days from now we would be in a different system, we'd have--
and, by the way, if he also brought in the Congress, something 
that I mentioned when you weren't here, I think----
    Senator Menendez. I did----
    Mr. Gingrich [continuing]. OK--and genuinely worked, on a 
bipartisan basis, on those aspects of the law which are 
genuinely destructive--I mean, they're not Republican or 
Democrat, liberal or conservative, they're just stupid----
    Senator Menendez. I don't mean to interrupt you, but----
    Mr. Gingrich [continuing]. I think, that Congress would 
help pass it.
    Senator Menendez [continuing]. But the--I looked at your 18 
points. Some of them clearly could be done by executive 
prerogative and order, but there is a fair number there that 
would take a very significant restructuring, which means time.
    And so, my question is: In your defeat or victory, what is 
the price of victory, as defined by you? How many American 
lives, how much money, how much time? Because I think the 
American people need to have a sense--in the honesty that you 
were talking about before, when I was listening to your 
testimony and your answer to questions--I mean, we are being 
told that this plan is the Iraqis'--we're following the Iraqis 
somehow. But I don't believe it for a moment. We're being told 
that we're following the Iraqis, Iraqis are going to take the 
lead, we're going to be there in a supportive context, and 
that's what makes this plan so fundamentally different than 
every other plan the President has had in the past as it 
relates to surges or escalations in the process. And yet the 
reality is that when we listen to all the other expert 
testimony--there's no way that that's going to happen, if we're 
going to have any degree of success--and I oppose the 
escalation--but if we're going to have any degree of success, 
it certainly is not going to be under that scenario.
    So, the question is: Isn't it fair for the American people 
to know, for those who advocate that, ``We cannot accept a 
defeat, in classic terms, that, therefore--and we must strive, 
at all costs, to have victory''--what is the quantifiable 
aspects of victory, in both lives and national treasure?
    Mr. Gingrich. Well, I want to--I think, first of all, you 
shouldn't underestimate that it will cost lives. I think it'll 
cost money. I think it will cost time. I think the total lives 
engaged would probably be less than 1 percent of the lives 
we'll lose when we lose an American city. I think that the 
amount of money we lose will be dramatically less than it will 
take us to build one American city. And I think that anybody 
who can make a decision on Iraq without worrying about nuclear 
war and the degree to which our opponents in Iran, North Korea, 
Syria, Venezuela, and elsewhere, are emboldened by our defeat 
are kidding themselves. So, I would say to you, Senator, how 
much do you think it's going to cost in American lives when the 
terrorists around the planet are emboldened?
    Senator Menendez. That's if one accepts your proposition 
that----
    Mr. Gingrich. And----
    Senator Menendez [continuing]. In fact, that's what happens 
in Iraq, as defined by you, in terms of success, means the loss 
of an American city.
    Chairman Murtha, do we lose an American city, thousands of 
American lives, because we follow your plan in Iraq?
    Mr. Murtha. No; I think, actually, we reduce the intensity 
in the recruiting that goes on in Iraq. We have become the 
enemy, and that's actually increasing the intensity of the 
recruiting against us. So, I really believe the first step to 
rehabilitating ourselves is to redeploy our troops and to 
lessen this intense aggravation and hate that they have toward 
Americans. The BBC just did a poll showing the whole world says 
we're making a mistake. They believe we're more dangerous than 
Iran. This is people, ordinary people, of course. But, no, I 
don't think that solves the problem at all. I think we've got 
to reduce our presence, and that is the start of stability in 
Iraq.
    Senator Menendez. Isn't it fair to say security is worse 
today than it was before?
    Mr. Murtha. When I spoke out, there were 400 incidents--
that's over a year ago--400 incidents a week, and now there's 
over 1,000 a week. That's attacks. So, it's much worse than it 
was. Plus, the things that I measure, the things that our 
subcommittee asked them to measure, is potable water, 
electricity, oil production, and unemployment. All those are 
worse than they were--or less than prewar.
    Senator Menendez. Well, I'll close by simply--and I see my 
time's now up--by saying that General Pace was giving a 
briefing here, about 6 months ago, I guess it was, and he said 
something that was fundamental. He said, ``We have to get the 
Iraqis to love their children more than they hate their 
neighbors.'' And that's probably a very powerful truism, it's 
just that it doesn't happen by military might.
    Thank you, Madam Chair.
    Senator Boxer. Thank you so much, Senator.
    The reason I'm trying to move us along is because of a vote 
that's coming. And I know Senator Coleman wants to take a 
round. I'm going to give you 4 minutes, I'm going to give you 4 
minutes, Senator, and I'll take 4 minutes, and we'll be done.
    I just wanted to recognize the military Reservists who are 
here from all the different services. Will you just raise your 
hand? You're attending a course, at the National Defense 
University, on national security and policy development. Well, 
we hope that this is so clear today that you come away with a 
very good feeling that we're getting it together. But I think 
we are, and this is democracy, and this is important in this 
great free country. And that's why it breaks my heart that we 
were able to offer this up to a country that doesn't seem to be 
able to want to deal with it. And--well, we'll move on.
    Senator Coleman, you have 4 minutes, please.
    Senator Coleman. Thank you, Madam Chair. This is a good 
discussion.
    What are the consequences of failure? What's the--is there 
a path to success? I share the Speaker's concern about failure. 
I remember the al-Zawahiri letter to al-Zarqawi, where he says, 
``Here's what we're going to do. Americans are going to lose 
heart in Iraq. We'll establish a caliphate, take over the rest 
of the region, destroy Israel, and then destroy you--destroy 
the West.'' Take him at his word.
    On the other hand, what's the path to success? I don't know 
if putting 21,000 more troops in the midst of what's going on 
in Baghdad, without the Iraqis showing that they're going to 
take greater responsibility--I don't know if that will do 
anything.
    I have two questions, then, for the Speaker.
    No. 1, so--do I understand--does your 18-point plan--does 
it necessarily involve an upsurge of--an increase in troops in 
order for us to achieve some kind of victory?
    Mr. Gingrich. I think it accepts, as part of the plan, the 
President's increase in forces, and it does suggest that a lot 
more intelligence people would be used in the area.
    But if I could ask your indulgence, Senator, I just want to 
make a point that I think is very hard for Americans to accept. 
If you have people who hate you enough----
    Senator Coleman. Let me--before you comment--I want you to 
do this, in my 2 minutes, but maybe the second question----
    Mr. Gingrich. Good.
    Senator Coleman. Fit it right in. You talk about achieving 
a bipartisan, and Congress--is there any way to get the 
American people to understand the cost of failure? And can we 
get the--right now, there is not support for this war--is that 
at all possible? And maybe your response can, kind of, tie 
those two together.
    Mr. Gingrich. Well, I--first of all, as I said a while ago, 
I mean, in the American Civil War, Abraham Lincoln fully 
expected to lose, as late as August 1864, and didn't think he'd 
get reelected. I mean, wars are hard. People don't like wars. 
People shouldn't like wars. They're terrible. And they're hard 
to sell, in that sense. So, I don't know that that's what we 
should do.
    The only point I wanted to make, because I think, 
intellectually, the American leadership has to come to grips 
with this--what if you have enemies, as we discovered this 
summer in Britain, when Scotland Yard arrested a couple who 
were going to use their 8-month-old baby to disguise the bomb 
as baby milk--if you have enemies who are prepared to kill 
their 8-month-old baby as long as they get to kill you, you're 
up against a hard problem.
    And one of the places I guess I disagree with some of my 
friends is that the Baker-Hamilton Commission was very clear 
that they believe that a defeat in Iraq will lead to a 
substantial increase in terrorist recruiting worldwide and a 
substantial increase in terrorist aggressiveness.
    And, last, I would say, every American should simply be 
shown what Ahmadinejad, the Iranian leader, says publicly and 
routinely about eliminating Israel from the face of the Earth 
and defeating the Americans, and just ask: What do you think 
they mean? And that's why I think this is--this is a very 
serious period, where we're making decisions that may affect 
the lives of our children and grandchildren for a very, very 
long time.
    Senator Coleman. And is there any question in your mind 
that precipitous withdrawal would embolden Iran in its effort--
would embolden the enemies of the United States? Any question 
in your mind?
    Mr. Gingrich. There's no--first of all, I don't want to 
disagree with my good friend, Chairman Murtha, with 
``precipitous.'' There's no question in my mind that if we are 
perceived as having been defeated, that the Iranian hard-
liners, the Syrian dictatorship, and the terrorists of al-
Qaeda, Hamas, Hezbollah, and others will all feel a surge of 
jubilation, increase their recruitment dramatically, and be far 
more aggressive in pushing us than they have been up till now. 
I have zero doubt that, historically, that's what will happen.
    Senator Coleman. Thank you, Madam Chair.
    Senator Boxer. Thank you so much. And I guess I will have 
the last word, because I'm the last one here and I have the 
gavel.
    But I want to thank both of you very, very much. It's been 
very provocative, very interesting. And I'm going to make my 
comments on what I see here.
    The greatest country in the world needs to respond to every 
threat to its national security with all the power and force 
that we have, if necessary. That's why I think Congressman 
Murtha is so on the right track, because what happened, when we 
went into Iraq and stayed there too long, was that we took our 
eye off the terrorism ball. I agree with everything that 
Speaker Gingrich says about the enemy we face with the 
terrorists. That's why it was shocking to me, as someone who 
voted to go to war against Osama bin Laden--and every Senator 
did--every Senator did--that suddenly we turned away from that 
and find ourselves in a situation where we're stretched thin. 
And that's why I think what Congressman Murtha is doing--and I 
would posit--and this is always up for debate--that of all the 
people in this room who are elected people, knows more about 
the real thing of war than any of us do. I may be wrong on 
that. Maybe reading books is important, too. We all do that. 
But I've got to say, brings this credibility, as someone who's 
known to fight with every fiber in his body for our fighting 
men and women. And when he came out, as he did--I'll tell you, 
it was a turning point with the American people, because of the 
credibility.
    So, I would argue, the kind of plan that you have put out--
and Russ Feingold and I have a similar--a bit different--we--I 
think we stay right over the horizon to--with a force that 
could quickly respond to terrorism, training the Iraqis, and 
protecting American forces. But, other than that, it's pretty 
similar. Nobody says precipitous. I mean, I think, in your 
plan, it's done in an orderly way, and you've laid that out, 
how you would even do it; you've gone that far.
    So, what we would do, by redeploying our troops and 
changing the mission from combat to support and freeing our 
troops up, is make us stronger in the world.
    The world, right now, doesn't think much of us. This is 
true. And Speaker Gingrich says, ``Oh, my God, if you lose, you 
lose the support of the world.'' Well, the world doesn't 
support what we're doing. As you pointed out, Congressman 
Murtha, the latest poll shows--it's unbelievable. Even in 
Indonesia, where we were way up there, we've slipped, even 
after what we did for them.
    So, I would say that your plan makes us stronger, gets us 
ready for everything that's to come, stops fueling al-Qaeda, 
stops fueling the insurgency, and, if we do this right, we can 
still have a rapid-reaction force to go where we need to go, 
especially if things get out of hand, which you talked to 
Senator Vitter about.
    So, I think--you know, I look at where we are. Thirty-five 
percent of the military now supports the President. I think 
that's shocking. The people don't support this war, which I 
think--
Speaker Gingrich, I didn't hear you make the point, but I think 
one of the things we did learn after Vietnam is that the people 
have to be behind it. You can't--you can't--this is not a 
dictatorship, this is a democracy. People's voices have to be 
heard.
    But I think what you have put before us is the best. And I 
just--I'd like to just close, asking you one quick question, 
Congressman, about this surge. According to the Baltimore Sun, 
21,500 troops, who will be ordered into this escalation 
strategy, will not have access to specialized blast-resistant 
armored vehicles, because they're in such short supply. The Sun 
also reports the Army is 22-percent short of the armored 
Humvees it needs in Iraq for the troops currently there. I want 
to know if you agree with this assessment and if you have 
looked into what we're going to do about sufficient equipment 
if we do not succeed in stopping this surge.
    Mr. Murtha. We're looking into, right now, whether those 
figures are accurate.
    Senator Boxer. OK.
    Mr. Murtha. We don't know, and we'll find out. You 
remember, we sent troops in, the first time, 44,000 of them 
didn't have adequate armor, Humvees weren't armored, all kinds 
of problems. So, we're looking into that. We're going to make 
sure that we point out whether that's true or not. I just don't 
know whether it's true or not.
    Senator Boxer. Well I would really appreciate it if you 
would keep in touch with us----
    Mr. Murtha. Yeah.
    Senator Boxer [continuing]. And let us know the fruits of 
your research.
    And I just want to say, there's 5 minutes left in the vote. 
We have made the most of every minute of your time. Speaker 
Gingrich, Congressman Murtha--Chairman Murtha--we're just 
honored that you've spent so much time with us, and I think 
this has been very productive.
    And the hearing stands adjourned.
    [Whereupon, at 4:58 p.m., the hearing was adjourned.]


                        RECONSTRUCTION STRATEGY

                              ----------                              


                   THURSDAY, JANUARY 25, 2007 [A.M.]

                                       U.S. Senate,
                               Foreign Relations Committee,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Joseph R. Biden, 
Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Feingold, Obama, Cardin, Webb, 
Lugar, Hagel, Coleman, Corker, Voinovich, Murkowski, Isakson, 
and Vitter.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order.
    I apologize to my colleagues, as well as the witnesses and 
the press for starting a few minutes late. Since I commute 
every day on Amtrak from Wilmington, DE, as my colleagues--
especially Senator Lugar, after the last three decades--used to 
say, ``Well, the train was late.'' Well, the truth of the 
matter was, I stayed down here last night, and I was late. But 
I do apologize, it's not Amtrak's fault this time.
    Ladies and gentlemen, let me begin by saying to my 
committee members that, regardless of the outcome of the vote 
we had yesterday on the resolution, I want to say how proud I 
was to be a member of this committee. The way in which my 
colleagues on both sides of the aisle were so articulate in 
expressing their concerns I think was truly impressive.
    And, one of the things that the chairman and I have talked 
about in the different contexts over the years is that, what 
happens here, more and more because of the rush of business 
regarding who is in charge on the floor, and the like, we don't 
have much real live interaction with one another on the floor, 
or in the committee.
    And I was enlightened yesterday, and I really mean it--I 
don't want to hurt anybody's reputation, but I was really 
impressed with Senator Murkowski. I was impressed with Senator 
Cardin, I was impressed with all of you, the way you 
articulated your positions. And I hope that doesn't sound 
gratuitous, but I genuinely mean it. I was proud of the 
committee. And I want to thank you.
    And that is not self-congratulatory. The only guy who 
wasn't so good yesterday was me. You all were really 
impressive, and I appreciate it. Hopefully we can continue in 
the same spirit this has started, and I'm confident we can.
    Today we're going to wind down the third week of intensive 
hearings--intensive, that's a self-serving, self-descriptive 
adjective--but the serious hearings we've had here on Iraq, and 
continuing the pattern set by Chairman Lugar.
    This morning, we're going to hear from the administration 
about its reconstruction strategy in Iraq. We go back in this 
committee to hearing about reconstruction, legitimately, back 
to the first ``$87 billion vote'' on reconstruction. It's been 
a long haul. It's been a tough road, and there were a lot of 
obstacles put in the way of this effort on the ground.
    This afternoon, we're going to hear from experts on Iraq's 
internal political dynamics, and appearing before the committee 
now, Ambassador David Satterfield, Senior Advisor to the 
Secretary of State, and Coordinator for Iraq at the U.S. 
Department of State. A man that I've come to respect and know, 
and I'm delighted he's here.
    And BG Michael D. Jones, the Deputy Director for Middle 
East Political-Military Affairs of the J-5 on the Joint Chiefs 
of Staff, probably the toughest staff job on the joint chiefs, 
and we're delighted he's here. Both men have long, 
distinguished careers, but most importantly, they have both 
also spent a lot of time on the ground in Iraq, which is a 
different dynamic.
    Ambassador Satterfield served for more than a year as 
Deputy Chief of Mission in Baghdad. We crossed paths, I think, 
three times, during his tenure in Iraq. And he was always, 
always straightforward and helpful and informative to the 
delegations that I was a part of.
    From June 2003 until March 2005, General Jones served as 
the Assistant Division Commander for the 1st Cavalry. I think 
he may not remember, but when General Chiarelli gave us that 
first briefing, I think he was--I may be mistaken, General, but 
I think you were an integral part of that. And I was impressed 
then, and came away convinced that if--it's a heck of a thing 
to say--if the military had more leeway in terms of those 
funds, we might have gotten even further. But you guys did a 
great job with what you were given.
    General, I'd like to offer you, as I said, a special word 
of appreciation for your willingness to appear before the 
committee on such short notice.
    General Jones. I'm honored, sir.
    The Chairman. In light of that, we understand that you 
didn't have time to prepare a detailed witness statement, and 
if you get questions today that you would rather answer in 
writing, that's fine too. We're just trying to get the facts as 
best we can.
    To this point, we have not been successful in our mutual 
desire--and in some cases Herculean efforts--to rebuild Iraq as 
we had hoped we could. Three and a half years ago, we held a 
similar hearing to this one. Ambassador Paul Bremer sat where 
you are sitting now and told us about the administration's need 
for an $18.4 billion in reconstruction money.
    Here's what he said; he said, ``We have a plan, with 
milestones, dates, and benchmarks. No one part of this $87 
billion supplemental is dispensable, and no part is more 
important than any other. This is a carefully considered, 
integrated request. This request is urgent. The urgency of 
military operations is self-evident. The funds for nonmilitary 
action in Iraq are equally urgent. The link to the safety of 
our troops is indirect, but no less real.''
    Mr. Ambassador, General--$14.7 billion of that integrated 
$18.4 billion strategy that Ambassador Bremer presented has now 
been distributed. And, as you know better than I do, the 
results aren't pretty.
    Let me just cite two examples: Before the war began, Iraq 
pumped an average of 2.5 million barrels of oil per day. The 
administration's initial goal was 3 million barrels per day, 
later reduced to 2.5 million barrels per day. Three and a half 
years later, we have never met this reduced goal, to the best 
of our knowledge. The average crude oil production last week 
was only 1.7 million barrels per day, a third less than the 
prewar levels.
    Of this total, according to an article in yesterday's 
Washington Post, 200,000 barrels are siphoned off and smuggled 
out of Iraq, with much of the proceeds ending up fueling Iraqi 
violence.
    Before the war began, Iraq's electricity production was 
about 4,000 megawatt/hours. Ambassador Bremer warned the 
committee, unless Congress quickly approved the 
administration's reconstruction proposal, and I quote, ``Iraqis 
face an indefinite period of blackouts, 8 hours per day.'' The 
goal was to raise that level to 6,000 megawatts by July 2004. 
This month's electric production is averaged 3,600 megawatts, 
below prewar levels. Last week, the average Baghdadi only had 
4.4 hours of electricity a day, and the average Iraqi had an 
average of 7.7 hours of electricity a day. At this point, the 8 
hours of daily blackouts that Ambassador Bremer warned about 
would be a dramatic step in the right direction.
    The reconstruction efforts have not been a total failure, I 
might add. The administration is moving toward small-bore 
reconstruction projects. I can remember, and I think it, 
coincidentally, was the three of us sitting here in a row, who 
were in Baghdad shortly after the statue fell, and I think--
I'll speak for myself--my recollection is that then, and 
subsequent to that, I made--and I think my colleagues did as 
well, but they speak for themselves--arguments that we should 
focus a lot more on small-bore projects, rather than mega-
projects.
    General Chiarelli, your former commander, that was one of 
his mantras. I remember him saying to us that, you know, we've 
got a tertiary sewage treatment plant that's being built that's 
going to cost X hundreds of million or billion dollars, it's 
going to take Y years, he said, ``Just give me some PVC pipe, 
let me hook it into the back of these homes,'' and he showed us 
your Humvees going through, in Sadr City going through--up to 
their hubcaps, you may remember, I know you know this better 
than I do--up to their hubcaps in raw sewage. Literally, 
stepping off the front porch of homes. And then he showed us 12 
and 15 feet of piles of garbage that were unable to be 
collected. And he said, ``Let me drain that swamp, let me--I 
know it's not environmentally sound, but it's urgent--let me 
put some PVC pipe in the back of the homes, and get it to the 
Tigris River,'' and you know, he said, ``I'll quiet this 
neighborhood, let me clean up this garbage.''
    So, the fact of the matter is that we're now moving to 
smaller bore projects that involve Iraqis in tribal areas, 
doing this stuff themselves, as I understand it.
    A first, General, in my seven trips to Iraq, I've been--as 
I've said--highly impressed by the Commander's Emergency 
Response Program, which you will speak to. This program allows 
our soldiers to fund low-cost, commonsense projects, which can 
potentially produce big results, such as building wells, buying 
textbooks, or fixing up health clinics.
    Second, the decision to focus on local capacity development 
with the Provincial Reconstruction Teams, I believe, still has 
some promise.
    Third, the USAID Community Action Program--which partners 
with communities in determining their own needs, I think, has 
had impressive results. And I hope the program is going to 
continue.
    I understand the President's going to ask for an 
additional--I don't know this for a fact--but an additional 
$1.2 billion in reconstruction funds for Iraq. Though, in 
principle, I believe these programs are vitally important to 
our efforts in Iraq, I hope that we will hear today some 
concrete details of why these funds will achieve better results 
than we've been able to achieve before.
    Gentlemen, I want to thank you for being here. You are in 
front of, not a hostile, but a friendly committee who wants 
very much to make this work, but some of us have become very 
skeptical of your capacity to organize this, and the capacity 
to actually implement it. At least, speaking for myself, and I 
think some of my colleagues. But again, welcome, and I now 
yield to Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you, Mr. Chairman. And I would 
echo your thoughts about the importance of our meeting 
yesterday, and the conduct of all members. That was at the 
highest level, I'm sure that will be true today.
    Although, I would just say, at the outset, that my opening 
comments will echo, I suspect, in a bipartisan way, many of the 
thoughts that you have expressed so well.
    Let me just reflect, that since the war in Iraq started, 
the United States has allocated more than $35 billion for 
reconstruction assistance. We have achieved some successes: 
Children are being immunized, the deepwater port near Basra has 
been rebuilt, and thousands of schools have been rehabilitated.
    But overall, the results have been disappointing to the 
Iraqi people, to Congress, and to American taxpayers. 
Electricity remains in short supply, oil production is far 
below its potential, scores of health clinics remain 
unfinished, and most roads still need repair. The economy is 
encumbered by high unemployment, high inflation, widespread 
poverty--all of which contribute to conditions that intensify 
the insurgency.
    I would just say the Minister of Industry of Iraq visited 
with us last week, estimated unemployment at 40 to 45 percent, 
described how difficult it is--even for Iraqis--to fix the grid 
system, given restrictions maybe they have imposed, or we have 
imposed.
    The security situation, including deliberate sabotage, has 
played a major role in these failures. But so, too, has the 
inadequate performance by U.S. Government agencies, including 
poor planning, shifting priorities, insufficient integration of 
civilian and military activities, and uncertain lines of 
authority.
    President Bush has said that as part of his decision to 
send more troops to Iraq, he will ask Congress for another $1.2 
billion in reconstruction initiatives. This gives us a new 
opportunity to review the basis for the President's new request 
and we look forward to exploring how the new funds might help 
us reach our reconstruction goals, and what measures should be 
put in place to ensure that they will be spent effectively.
    The President's proposed funding includes $350 million for 
the Commander's Emergency Response Program (CERP), which has 
proven effective in the past. This program allows American 
military officers to distribute development grants at the local 
level. Another $400 million is designated for the civilian 
version of CERP. This funding must be accompanied by an 
effective sequencing plan, so that the benefits flow quickly to 
neighborhoods in the wake of any security progress made by 
United States or Iraqi forces.
    Also, the President has suggested adding $414 million to 
nearly double the number of Provisional Reconstruction Teams 
that operate outside of Baghdad. This is designed to widen the 
effectiveness of these teams, which have seen mixed results to 
date, and have struggled to recruit qualified staff.
    As we consider this reconstruction boost, Congress must 
know the administration's procedures for ensuring that funds 
are not stolen or siphoned off for other purposes. This plan 
must achieve a difficult balance between anticorruption 
measures, and excessive redtape. Reports indicate that 
bureaucratic obstacles and long delays have occurred because 
both Iraqi and American officials are afraid of being accused 
of corrupt practices. And this is one reason why, according to 
some news reports, Iraqis last year were able to utilize only 
about 20 percent of their $6 billion capital budget.
    Oil production is at the heart of the Iraqi economic 
potential. Iraq is still pumping less oil than it did before 
the war. What is necessary to achieve an Iraq oil production? 
We surely must find this. And under the best-case scenarios, 
how soon can we expect a significant increase in oil revenue 
for the Iraqi Government? When is it likely that the new Iraqi 
hydrocarbon law will take effect? What impact will the law have 
on oil production, and on foreign investment in the petroleum 
sector, absent any significant change in the security 
situation? Is there reason to believe that this law could 
improve the security situation by guaranteeing the Sunnis a 
portion of the oil revenue?
    Finally, one must ask how President Bush's request fits 
into the larger picture of getting the Iraqi economy on its 
feet, which is the ultimate purpose of reconstruction. Is there 
a plan that will lead to a sustainable economic growth? To 
complement the proposed United States funds, Prime Minister 
Maliki has committed $10 billion of Iraqi funds for 
reconstruction, including a jobs program. Are these make-work 
jobs that will expire when the funds dry up? Or will they serve 
to prime the pump to create long-term employment? Is this Iraqi 
program well-coordinated with the United States efforts? And is 
it dependent on Congress appropriating all of the funds the 
President will now request?
    I welcome, as you do, Mr. Chairman, our distinguished 
panel, we look forward to our discussion with you today. Thank 
you.
    The Chairman. Thank you.
    Gentlemen, the floor is yours.

  STATEMENT OF HON. DAVID SATTERFIELD, SENIOR ADVISOR TO THE 
  SECRETARY OF STATE AND COORDINATOR FOR IRAQ, DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ambassador Satterfield. Mr. Chairman, Senator Lugar, 
members of the committee, I appreciate the opportunity to 
appear before you today. And I would like to talk about the 
reconstruction efforts that we are currently undertaking, as 
well as our plans for the future in the light of the 
President's strategy, enunciated on January 10. And I would ask 
concurrence in my more lengthy written remarks being entered 
into the record.
    The Chairman. They will be placed in the record.
    Ambassador Satterfield. On January 10, the President 
outlined the need for a new way forward in Iraq, and on January 
11, Secretary Rice provided further detail on how we would be 
pursuing this strategy.
    I'd like to reiterate briefly both the premise of the 
strategy she and the President outlined and then expand 
further. And in response to your specific questions during the 
course of the hearing today, on how we plan to bring our 
civilian resources into the fight.
    There are five core principles underlying our strategy. 
First, the Government of Iraq is in the lead. It is not a 
question of putting them in the lead, or encouraging them to 
take the lead--it is a recognition of reality. They are 
responsible for their country, they are a sovereign government, 
and they have to act as such. Success will not, in Iraq, be 
dependent primarily on United States resolve and effort, 
however strong they are. It will depend on the commitment, the 
performance, the will, and the skill of the Iraqi Government.
    Second, we will support the Government of Iraq's efforts to 
stabilize that country, to bolster their economy, to achieve 
national reconciliation. Here again, Iraqis are in the lead, 
but we recognize they require help in certain critical areas.
    Third, we will decentralize; we will diversify our civilian 
presence and our civilian assistance to the Iraqi people. While 
we will continue to work closely with the central government in 
Baghdad--Baghdad is the center of gravity, both for 
governments, but also for the sectarian violence now affecting 
that country. But we also have to reach beyond the Green Zone. 
We have to reach to help local communities and leaders 
transition to self-sufficiency, and to encourage moderates 
throughout that country.
    Fourth, we will channel our targeted assistance to those 
Iraqi leaders, regardless of party or sectarian affiliation, 
who reject violence and pursue their agendas through peaceful, 
democratic means. We must isolate extremists, we must help 
empower moderates throughout the country.
    Finally, we will be engaging in reinvigorated regional 
diplomacy, beginning with the Secretary's recent trip to Egypt, 
Saudi Arabia, and Kuwait, to try and strengthen support for the 
Government of Iraq. Iraq cannot emerge from its current 
situation without the positive influence, without the positive 
role being played by its neighbors.
    We're going to be applying these principles I've just 
articulated on three critical fronts: Security, economic, and 
political. All of which are inextricably tied to the others.
    As you know, the President has decided to augment our force 
levels in Baghdad and Anbar by 21,500 forces. The mission of 
this enhanced force is to support Iraqi troops and commanders 
who are in the lead, to help clear and secure neighborhoods, 
protect the local population, provide essential services, and 
create conditions necessary to spur local economic 
development--the ``build'' part of Clear, Secure, Build.
    The Department of State is contributing robustly to this 
effort, by expanding our present, very close coordination with 
our military counterparts in and outside of Baghdad, and with 
the Iraqi Government, to capitalize on expected security 
improvements by creating jobs and promoting economic 
revitalization. There has to be the fullest possible civil-
military unity of effort, if we are to be successful. That is 
what our mission in Baghdad, that is what our missions at the 
existing PRTs, are committed to achieve.
    But to help make this possible, we are immediately 
deploying greater resources alongside our military, first in 
Baghdad and Anbar province. The centerpiece of our efforts will 
be the expansion of the Provincial Reconstruction Teams, the 
PRTs, which will be doubled from a current number of 10 to 20. 
We will be adding more than 300 new civilian personnel, and 
will be expanding our PRTs in three phases.
    The first phase is going to occur over the next 90 days and 
it will coincide with, and complement, our expanded military 
efforts. We hope to colocate nine new PRTs, six in Baghdad, 
three in Anbar, with the brigade combat teams engaged in 
security operations there.
    Now, the Department of State will be recruiting and 
deploying senior-level team leaders for these new Provincial 
Reconstruction Teams. They will work closely with their brigade 
commander counterparts, to develop plans for that critical 
``build'' part of Clear, Secure, Build. Well-qualified State 
Department officers have already stepped forward for these 
assignments.
    The PRTs will target both civilian and military resources, 
including foreign assistance in the commanders emergency 
response program, against a common of a jointly developed 
strategic plan to sustain stability, promote economic growth, 
and foster Iraqi self-sufficiency where we have made security 
gains.
    In the next two phases of our PRT expansion, we're going to 
be adding a new PRT in North Babil; we will augment our 
existing PRTs in the country with specialized technical 
personnel, such as irrigation specialists, veterinarians, and 
agricultural development experts based on local needs. And I 
want to talk a little bit here about how we developed our sense 
of what was needed, who was needed.
    This didn't come from Washington. It was not a top-down 
process. It was developed from the ground up, in consultation 
between our brigade commanders, our existing PRT figures, 
through divisional command, to Baghdad and then came back to 
here. This is a real-world, ground-based assessment of what is 
needed, province by province, area of operation by area of 
operation--it is designed to affect the greatest possible 
synergy between our military and our civilian experts.
    The PRTs will have a role beyond simple development 
assistance. They will support local, moderate Iraqi leaders 
through targeted assistance such as microloans and grants to 
foster new businesses, create new jobs, and develop provincial 
capacity to govern in an effective, sustainable manner. We 
intend to complete all three phases of our PRT expansions by 
the end of this calendar year. Completion, I would note, 
though, is dependent both on funding levels and on 
circumstances on the ground.
    And with respect to funding levels, I'd like to express a 
particular note about funding. While we are currently applying 
fiscal year 2006 funds to begin implementation of this new 
strategy, we will need additional funds very shortly. Under the 
continuing resolution, we are now requesting $538 million to 
avoid a shutdown of mission-critical programs--programs 
directly related to the ``build'' phase of Clear, Secure, and 
Build. Delaying funding of these programs until future budget 
requests would undermine our ability in a very real sense, to 
support our military counterparts and our Iraqi partners.
    Now, those Iraqi partners must do their part, to invest in 
their country's own economic development, and follow through on 
our joint strategy.
    The Government of Iraq, as the chairman noted, is committed 
to spending $10 billion to help create jobs, and to further 
national reconciliation. Serious progress has been made on the 
National Hydrocarbon Law, which we expect will be completed 
very shortly, and then submitted to the Council of 
Representatives.
    The Council of Representatives has taken the first steps 
toward holding provincial elections, and drafting de-
Baathification reform legislation. They have also agreed to an 
impressive set of very far-reaching and comprehensive economic 
reforms, as part of the International Compact with Iraq. We 
expect that compact to be completed formally in the coming few 
weeks.
    The most pressing challenge facing Iraqis on the fiscal 
side, however, is budget execution. Simply put, the Government 
of Iraq has available assets--the product of last year's and 
previous year's underspent budgets, and profits from higher-
than-anticipated oil prices. But they do not have the 
mechanisms to spend those funds, especially with the speed 
necessary for post-kinetic stabilization in Baghdad and Anbar. 
Iraq must develop the means to put its money to use, both for 
short-term build efforts, and longer term capital investment.
    To help the Iraqi Government face this challenge and take 
responsibility for its own economic future, Secretary Rice has 
appointed Ambassador Tim Carney as her new coordinator for 
Economic Transition. Ambassador Carney will head to Embassy 
Baghdad in the days ahead, to help the Government of Iraq meet 
its financial responsibilities, especially on budget execution, 
job creation, and capital investment projects.
    A note about the environment which Iraq faces, we face, in 
the region as a whole. Iraq doesn't exist in isolation from its 
neighbors. It will require the help and support of the region 
to have a stable, prosperous, and peaceful future. While we are 
working with our partners in the region to strengthen peace, 
two governments--Syria and Iran--have chosen to align 
themselves with the forces of violent extremism in Iraq and 
elsewhere. The problem is not a lack of dialog, but a lack of 
positive action by those states.
    As you know, Secretary Rice recently returned from travel 
to Egypt, Saudi Arabia, and Kuwait, to urge support for the 
Government of Iraq and for our new strategy. Her interlocutors 
expressed their very strong concern over the growth of negative 
Iranian influence in Iraq, and al-Qaeda terror. At the same 
time, they made equally clear their concern that the current 
Iraqi Government was acting in a manner that reflected a 
sectarian, rather than a national, agenda.
    We understand these concerns. We believe the Iraqi 
Government understands them as well. Prime Minister Maliki and 
his government have pledged not to tolerate any act of violence 
from any community or group. That means that all those engaged 
in killing, and intimidation--whether Shia or Sunni--need to be 
confronted. We have already begun to see positive steps taken 
by the Iraqi authorities in this regard. Notably, Iraqi 
security forces in recent weeks have detained more than 600 
Jaysh al-Mahdi fighters. They are currently in detention, 
including over a dozen senior leaders, responsible for 
organizing and ordering sectarian attacks against innocent 
Sunnis.
    Iraqi forces are operating in all areas of Baghdad, 
including Sadr City. We will need to see more sustained, robust 
action in the weeks and months ahead. And in this regard, Prime 
Minister Maliki delivered a speech this morning to the Council 
of Representatives in Baghdad in which he stated his support--
strong political support--and that of his government, for the 
security efforts being undertaken in the joint security plan 
now unfolding in Baghdad. He noted that there would be no 
quarter for any involved in violence against civilians, that 
there would be no immunities granted to Sunni or Shia mosques, 
that all those engaged in killing would be confronted and would 
be stopped. This is a very positive step.
    Only through fact on the ground--tangible evidence of 
action against all those pursuing violence--can the Government 
of Iraq establish the credibility at home, abroad, and here in 
the United States that it needs to charter a successful future.
    The President's strategy is intended to lower the level of 
sectarian violence, and to ensure that Iraq's political center 
has the space it needs to negotiate lasting political 
accommodations through Iraq's new, democratic institutions. 
But, ultimately, Iraqis must make the difficult decisions that 
are essential to the success that is so critical for Iraq and 
the United States. We know there are no silver bullets, no 
guarantees regarding the question of Iraq. We know that most 
Americans are deeply concerned about the prospects for success 
there. But the situation now in Iraq, and the stakes for the 
United States, the region, and the international community are 
extraordinary. We believe that the strategy the President, 
after deep reflection and consultation, has outlined, is the 
best approach possible to serve our vital national interests.
    We ask for your support and time for this new course to 
work. I thank you very much, and look forward to your 
questions.
    [Prepared statement of Ambassador Satterfield follows:]

 Prepared Statement of Ambassador David M. Satterfield, Senior Advisor 
   to the Secretary of State and Coordinator for Iraq, Department of 
                         State, Washington, DC

    Mr. Chairman, Mr. Lugar, members of the committee, ladies and 
gentlemen, thank you for the opportunity to appear before you today to 
discuss implementation of the President's new strategy for Iraq, to 
review what we have achieved with the foreign assistance Congress has 
provided and to highlight the steps we have taken to improve its 
administration.
                            new way forward
    On January 10 the President outlined the need for a New Way Forward 
in Iraq. On January 11, Secretary Rice provided further detail on how 
specifically we will pursue our new strategy. I would like to reiterate 
briefly both the premise of the strategy she and the President outlined 
and then expand further on how we plan, specifically, to bring our 
civilian resources to the fight.
    There are five core principles underlying our strategy.
    First, the Government of Iraq is in the lead. Success will not be 
dependent primarily on U.S. resolve and effort, but on the commitment 
and performance of the Iraqi Government.
    Second, we will support the Government of Iraq's efforts to 
stabilize the country, bolster the economy, and achieve national 
reconciliation. The Iraqis are in the lead, but they require our help 
in certain critical areas.
    Third, we will decentralize and diversify our civilian presence and 
assistance to the Iraqi people. While we will continue to work closely 
with the central government in Baghdad, we must reach beyond the Green 
Zone to help local communities' and leaders' transition to self-
sufficiency.
    Fourth, we will channel targeted assistance to those Iraqi leaders 
regardless of party or sectarian affiliation who reject violence and 
pursue their agendas through peaceful, democratic means. We must 
isolate extremists and help empower moderates throughout the country.
    Fifth, we will engage in reinvigorated regional diplomacy to try 
and strengthen support for the Government of Iraq. Iraq cannot emerge 
from its current predicament without the positive influence of its 
neighbors.
    We will apply these principles on three critical fronts--security, 
economic, and political--all of which are inextricably linked to the 
others.
                             implementation
    As you know, the President has decided to augment our own troop 
levels in Baghdad and Anbar by 21,500. The mission of this enhanced 
force is to support Iraqi troops and commanders, who are now in the 
lead, to help clear and secure neighborhoods, protect the local 
population, provide essential services, and create conditions necessary 
to spur local economic development.
    The Department of State is contributing robustly to this effort by 
expanding our present close coordination with our military counterparts 
in and outside of Baghdad, as well as with the Iraqi Government, to 
capitalize on security improvements by creating jobs and promoting 
economic revitalization. There must be the fullest possible civilian-
military unity of effort if we are to be successful.
    To that end, we will immediately begin deploying greater resources 
alongside our military in Baghdad and Anbar. The centerpiece of this 
effort will be our expansion of our Provincial Reconstruction Teams. We 
will double our PRTs from 10 to 20, adding more than 300 new personnel. 
We will expand our PRTs in three phases with the first phase occurring 
over the next 3 months to complement our enhanced military efforts. In 
that time, we plan to colocate nine new PRTs--six in Baghdad and three 
in Anbar--with brigade combat teams engaged in security operations.
    The Department will recruit and deploy senior-level team leaders 
for these 9 new PRTs who will work jointly with brigade commanders to 
develop plans for the ``build'' phase of Clear, Hold, and Build. Well-
qualified officers have already stepped forward for these assignments. 
These PRTs will also include USAID development advisors, as well as 
civil affairs officers and bilingual advisors from the Department of 
Defense. Although State will have the lead in recruiting and hiring 
staff, full interagency support and robust interagency contributions 
will be necessary to deploy the new staff to Iraq as quickly as 
possible.
    PRTs will target both civilian and military resources, including 
foreign assistance and the Commanders' Emergency Response Program, 
against a common strategic plan to sustain stability, promote economic 
growth, and foster Iraqi self-sufficiency where we have made security 
gains.
    In the next two phases of our PRT expansion, we will add a new PRT 
in North Babil and augment our existing PRTs with specialized technical 
personnel, such as irrigation specialists, veterinarians, and 
agribusiness development experts, based on local provincial needs.
    PRTs will support local moderate Iraqi leaders through targeted 
assistance (e.g., microloans, vocational education, and grants) to 
foster new businesses, create jobs, and develop provincial capacity to 
govern in an effective and sustainable way. PRTs will continue to play 
a leading role in coordinating several U.S. programs funded by the 
Congress, including Iraqi Provincial Reconstruction Development 
Councils (PRDC) and USAID's local governance, community stabilization, 
and community action programs.
    We intend to complete all three phases of our PRT expansion by the 
end of the calendar year. Completion, however, will be dependent both 
on the level of funding appropriated in the FY07 supplemental (and its 
timing) and circumstances on the ground in Iraq.
                             iraqi efforts
    The Iraqi Government must also do its part to invest in its own 
economic development and to follow through on our joint strategy. The 
Government of Iraq is committed to spending $10 billion to help create 
jobs, to remove impediments to economic growth, and to further national 
reconciliation. Serious progress has been made on the vital national 
hydrocarbon law, which we expect will be completed very shortly and 
then submitted to the Council of Representatives. The Council of 
Representatives has taken the first steps toward holding provincial 
elections--essential to ensuring full participation in local governance 
by all of Iraq's communities--and drafting de-Baathification reform 
legislation. They have also agreed to an impressive set of far-reaching 
and comprehensive economic reforms as part of the International Compact 
with Iraq. We expect the compact to be completed formally in the coming 
weeks.
    The most pressing funding challenge facing Iraqis is budget 
execution. Simply put, the Government of Iraq has available assets, the 
product of last year's underspent budget and profits from higher than 
anticipated oil prices, but they do not have the mechanisms to spend 
them--especially when money must move rapidly, as is the case with 
post-military action stabilization in Baghdad and Anbar. Iraq must 
develop the means to put its money to use, both for short-term 
``build'' efforts and longer term capital investment.
    To help the Iraqi Government improve budget execution and take on 
more responsibility for Iraq's own economic future, Secretary Rice has 
appointed Ambassador Tim Carney as her new Coordinator for Economic 
Transition. Ambassador Carney will head to Embassy Baghdad in the days 
ahead to help the Government of Iraq meet its financial 
responsibilities, specifically on budget execution, job creation, and 
capital investment projects.
                           regional diplomacy
    Iraq does not exist in isolation from the region. It will require 
the help and support of its neighbors to have a stable, prosperous, and 
peaceful future. As you know, Secretary Rice recently returned from 
travel to Egypt, Saudi Arabia, and Kuwait--where she met with the 
Foreign Ministers of the Gulf Cooperation Council (GCC) plus Egypt and 
Jordan to urge support for the Government of Iraq and the President's 
new strategy. Her interlocutors expressed their strong concern over the 
growth of negative Iranian involvement in Iraq and al-Qaeda terror. At 
the same time, they made clear their concern that the current Iraqi 
Government was acting in a manner that reflected a sectarian rather 
than national agenda.
    We understand these concerns, and we believe the Iraqi Government 
understands as well. Prime Minister Maliki and his government have 
pledged not to tolerate any act of violence from any community or 
group. That means that all those engaged in killing and intimidation, 
whether Shia or Sunni, need to be confronted.
    We have already begun to see some positive steps taken by the Iraqi 
authorities on this front. Notably, Iraqi security forces in recent 
weeks have detained more than 400 JAM fighters, including some high-
level leaders responsible for ordering sectarian attacks against Sunni 
innocents. Iraqi forces have operated in all areas, including Sadr 
City. However, we will need to continue to see more sustained robust 
action in the weeks and months ahead.
    Only through new facts on the ground--tangible evidence of action 
against all those who pursue violence--can the Government of Iraq 
establish the credibility at home and abroad that it needs to chart a 
successful future.
    While we are working with our partners in the region to strengthen 
peace, two governments--Syria and Iran--have chosen to align themselves 
with the forces of violent extremism in Iraq and elsewhere. The problem 
is not a lack of dialog, but a lack of action by those states. As the 
President and Secretary Rice have stated, we will continue, in 
particular, to work with the Iraqis and those who support peace and 
stability in the region, using all our power to limit and counter the 
activities of Iranian agents who are attacking our people and innocent 
civilians in Iraq.
 supporting physical infrastructure and democracy with the iraq relief 
                     and reconstruction fund (irrf)
    While our focus is on the way forward, we are also determined to 
manage, as effectively as possible, the remaining funds for Iraq 
reconstruction.
    In fiscal years 2003-04, we received $20.9 billion in the Iraq 
Relief and Reconstruction Fund (IRRF). This funding was intended to 
kick start the Iraqi economy, and focused primarily on helping to 
reestablish the Iraqi security forces and police; restore essential 
services like water, electricity, and oil; and improve health and 
education. Despite challenges, including insurgent attacks, IRRF 
projects have made significant improvements in Iraq. We have increased 
access to clean water for 4.2 million Iraqis and to sewerage for 5.1 
million; installed, rehabilitated, or maintained 2,700 MW of 
electricity; and helped Iraq increase oil production over prewar 
levels. Democracy programs also helped Iraq hold three elections and 
provided advisers to support the drafting of the constitution.
    We have obligated 98 percent, or $18.08 billion of IRRF II, and, as 
of January 9, have disbursed $14.7 billion (79.9 percent). The 
remaining funds under IRRF II are ``expired,'' and will be used to 
cover any unanticipated increases in costs in ongoing projects. We 
expect to complete most ongoing IRRF II projects during the course of 
2007.
    We have made significant improvements in essential services 
available to the people of Iraq, of which U.S. taxpayers and the 
Congress can be proud. But we know that not every project has 
progressed as we would have wished. Some projects have deservedly 
attracted attention, including from the Congress and from Special 
Inspector General for Iraq (SIGIR), with whom we work very closely. In 
all such cases, we have taken action to get them moving back in the 
right direction and have moved over the past 18 months to put in place 
management oversight structures to help ensure that similar problems do 
not occur.
    supporting iraq's transition to self-sufficiency with the fy06 
                  supplemental and fy07 budget request
    We carefully designed the FY06 supplemental and the FY07 budgets as 
two parts of a coordinated whole. The FY06 supplemental was designed to 
be integrated with the military's counterinsurgency operations, 
recognizing that economic development cannot take place without a 
secure environment, and that better economic and political prospects 
would undermine the recruiting efforts of the insurgency. The FY06 
supplemental addressed the urgent programs needed to support military 
counterinsurgency programs, while the FY07 budget contained the 
programs needed to create and sustain economic, political, and rule-of-
law improvements.
    We received $61 million in the FY06 budget, and an additional $1.6 
billion in the FY06 supplemental budget at the end of FY06. Of total 
funding in FY06 (base and supplemental), we have obligated $1.4 billion 
(86 percent) for programs in the security, economic, and political 
tracks of the President's strategy. Of this funding, more than $500 
million is allocated to support programs coordinated by the Provincial 
Reconstruction Teams (PRTs) to build the capacity of local and 
provincial governments to provide services for the Iraqi people. Over 
$300 million is being used for programs to enhance the rule of law; 
governance, civil society, and political party development; and Iraqi 
ministerial capacity. Other programs in the FY06 supplemental are also 
helping Iraq improve the protection of its critical oil and electricity 
infrastructure.
    We directed the $771 million in the FY07 budget request to support 
a new phase of policy engagement with the first full-term Government of 
Iraq (GOI) on a range of programs, including rule of law, democracy, 
and economic reforms essential to Iraq's transition to self-reliance.
                    need for fy07 foreign assistance
    While we are currently applying FY06 funds to begin implementation 
of our new strategy, we will need additional funds very soon. Under a 
continuing resolution (CR), we are now requesting $538 million to avoid 
a shutdown of mission critical programs for which we requested funding 
11 months ago.
    Delaying funding of these programs until future budget requests 
would undermine our ability to support our military counterparts and 
our Iraqi partners. Without funding for our PRT expansion and programs 
to support economic development and assistance to moderate Iraqi 
leaders, it will be difficult to achieve the unity of effort we need to 
be successful.
                           achieving success
    The Iraqi Government must meet the goal it has set for itself--
establishing a democratic, unified, and secure Iraq. We believe the 
Iraqi Government understands very well the consequences of failing to 
make the tough decisions necessary to allow all Iraqis to live in peace 
and security. President Bush has been clear with Prime Minister Maliki 
on this, as have Secretary Rice and other senior officials. We expect 
the Prime Minister to follow through on the pledges he made to the 
President to take difficult decisions.
    A political solution in Iraq is indeed critical to long-term 
success, but since al-Qaeda launched the Samarra attack a year ago, 
extremists and terrorists have been able to hold the political process 
hostage. The President's strategy is intended to lower the level of 
sectarian violence and to ensure that Iraq's political center has the 
space it needs to negotiate lasting political accommodations through 
Iraq's new democratic institutions.
    The President has made clear to Prime Minister Maliki that 
America's commitment is not open-ended. The Government of Iraq must--
with our help, but with their lead--articulate and achieve the 
political, security, and economic goals that are essential to the 
success that is so critical for Iraq and for the United States.
    Thank you very much. I look forward to your questions and ideas.

    The Chairman. Thank you very much.
    General.

STATEMENT OF BG MICHAEL D. JONES, USA, J-5 DEPUTY DIRECTOR FOR 
POLITICAL-MILITARY AFFAIRS--MIDDLE EAST, JOINT CHIEFS OF STAFF, 
                         WASHINGTON, DC

    General Jones. Mr. Chairman, Senator Lugar, and members of 
the committee, I'm honored to be here. And, Mr. Chairman, I do 
vividly remember your visit to Baghdad and I just want to say--
to all of the members of this committee--how grateful the 
military is for the numerous trips that you all have made to 
Iraq to listen to the commanders and the servicemembers on the 
ground about the situation there. It means a great deal.
    And also, to thank you for your steadfast support of the 
men and women in uniform, and providing them the tools that 
they need to accomplish their mission. And I'd be remiss if I 
didn't also say, thank you for your support of our civilians 
who serve with us side-by-side and are exposed to the same 
dangers. So, thank you very much for your support, and I look 
forward to answering your questions.
    The Chairman. Thank you very much.
    We'll begin with 8-minute rounds of questioning, if that's 
all right with my colleagues.
    Let me, Mr. Secretary, begin with one of the things that I 
still find factually conflicting, and I don't know who's 
correct. You quoted, and it's been quoted repeatedly in the 
last week or so, that to demonstrate that the Prime Minister is 
going to be even-handed in dealing with the bad guys, that I 
think you said 600 and some members of the Mahdi Militia have 
been arrested.
    Now, Sadr, when confronted with these numbers, indicated 
that it was really 425 that had been arrested, and of that 425, 
96 had been arrested in 2006, and the remainder had been 
arrested in 2004, after the uprising in Najaf. So, for a point 
of clarification, if you know, and if you don't, submit it for 
the record--how many of these 600 and some Mahdi Militia have 
been arrested in the last 2 months, or thereabouts?
    Ambassador Satterfield. Mr. Chairman, there are some 600 
Jaysh al-Mahdi figures currently in coalition custody as a 
result of joint Iraqi-United States operations. I will get back 
to you with the details on the timing of their detention. What 
I can tell you is that a very significant portion of those 600 
were detained in operations that have been undertaken over the 
course of the recent past.
    The Chairman. Recent past meaning weeks? Or years?
    Ambassador Satterfield. Recent past meaning weeks.
    The Chairman. Well that would be----
    Ambassador Satterfield. I'll get you the numbers, Mr. 
Chairman.
    The Chairman. That'd be very useful, because, as you know, 
that matters, because a lot of us have seen--have thought we 
have seen an erosion of the willingness of the government to 
deal with Sadr--as a matter of fact, it seemed to me in 2004 
there was a greater willingness to deal with him than there was 
in 2005, than there was in 2006, and the question is: ``What 
about 2007?'' Anyway, that was the first question.
    [The information supplied by the State Department follows:]

    As Vice President Cheney said on January 28, Iraqi forces have 
rounded up as many as 600 members of the Jaysh al-Mahdi in the last 
couple of weeks. This number is changing due to ongoing operations. For 
the most current figures, we recommend you contact the Department of 
Defense.

    Second, the supplemental that is being requested, $238 
million--how much of that supplemental, if you know, will go to 
private security for contracts, and how much of that is 
actually going for specific reconstruction projects? In other 
words, labor costs and material, versus private--and I'm not 
suggesting there's anything wrong or nefarious about hiring 
private security contractors--but as we know, as your office 
has reported to us over the last year--a significant portion of 
the reconstruction money has not gone to physical bricks and 
mortars and paying employees, but it's gone to private security 
forces. Can you give us some sense, of the supplemental, what 
portion of that is really going to security, as opposed to 
bricks, mortar, and labor costs?
    Ambassador Satterfield. Certainly, Mr. Chairman, we will 
get you those specific breakdowns.
    [The information submitted by the State Department 
follows:]

                                  U.S. Department of State,
                                  Washington, DC, February 1, 2007.
Hon. Joseph R. Biden, Jr.,
Chairman, Committee on Foreign Relations,
U.S. Senate, Washington, DC.
    Dear Mr. Chairman: In response to your question to Ambassador David 
Satterfield during his testimony before the Senate Foreign Relations 
Committee on January 25, we would like to provide you with the 
following information.
    You asked about project security costs. Under the Iraq Relief and 
Reconstruction Fund (IRRF), security costs represent 16-22 percent of 
the overall cost of major infrastructure reconstruction projects in 
Iraq. For nonconstruction projects such as national capacity 
development or policy reform, USAID's security costs represent 18-22 
percent of overall costs, but can be as low as 4-5 percent. The U.S. 
Army Corps of Engineers estimates that security costs are only 5-10 
percent for nonconstruction projects, such as infrastructure 
sustainment or technical training.
    Please note that we do not plan to use the FY06 Supplemental funds 
for new, large-scale infrastructure construction. Therefore, given the 
current security environment, we expect that the great majority of 
funding (80-90 percent) will be used for direct costs and project 
management costs, and the remainder for security costs.
    The President's forthcoming foreign assistance requests are also a 
critical part of our strategy to assist Iraq's transition to self-
reliance, providing crucial support for programs in democracy, economic 
growth, community stabilization, rule of law, and other critical areas. 
We look forward to working with the committee to answer any questions 
you may have on this or any other matter.
            Sincerely,
                                        Jeffrey T. Bergner,
                          Assistant Secretary, Legislative Affairs.

    The Chairman. Third, are you able to report to us at this 
time what progress is actually being made on de-Baathification? 
Again, I have vivid memory of my second trip, and being with 
Ambassador Bremer, and him very proudly announcing to our 
collective surprise that we were going to shut down all of the 
government-run factories, and some of us pointed out that this 
wasn't Poland, and Jeffrey Sachs wasn't the economist running 
the show, and second, that there was basically total de-
Baathification, including teachers and anyone that had ever 
belonged to the party. And a number of us in this committee, 
including the chairman, thought that was maybe not the smartest 
thing to do, and so we've been trying to climb back out of that 
hole.
    But then again, we've had our great ally in charge of de-
Baathification, the man who gave us all of the inside 
intelligence as to what we're going to find in Iraq--Ahmed 
Chalabi. Is he still in charge of de-Baathification? And has 
he--as they say in the southern part of my State, has the boy 
had an alter call? Has he figured out anything?
    Ambassador Satterfield. Mr. Chairman, de-Baathification 
reform is a critical element in any meaningful national 
reconciliation. The effect of how de-Baathification has been 
applied is to exclude from participation in national life, 
large classes of Iraqis who have no individual criminality 
associated with them. They need to come back into national 
life, for a number of different reasons related to the future 
of that country.
    The Chairman. That's a welcome change in our policy, it's 
been changed for awhile.
    Ambassador Satterfield. Yes; it has.
    The Chairman. Now, can you tell me what progress--you said, 
I don't want to put words in your mouth, I got the impression 
you were optimistic about reforms that were going to take place 
within the present unity government to deal with de-
Baathification in the sense that--say, commonsense terms, more 
folks will be brought in out of the cold. Can you tell us 
anything about that progress?
    Ambassador Satterfield. Yes; I can Mr. Chairman. The 
Parliament is responsible, the Council of Representatives, for 
de-Baathification. Ahmed Chalabi is indeed in charge of the 
committee responsible for this program. The initial outlinings 
of the reforms proposed, frankly, are not adequate to meet the 
needs of meaningful national reconciliation--they need to be 
changed. We have had very direct conversations with Mr. Chalabi 
and others on this issue; the Prime Minister has articulated 
publicly a very expansive intent with respect to de-
Baathification reform, but that expansive intent needs to be 
translated from rhetoric into reality and it needs to happen 
soon.
    The Chairman. Well, if it goes through Chalabi, it will be 
a cold day in Hades before I have confidence in anything he 
undertakes. Just for the record--I want to emphasize it, I 
can't emphasize it enough--I have zero, zero, zero confidence 
in anything Mr. Chalabi undertakes, just to be on the record. I 
find him to be a duplicitous individual. And I have no faith, 
and I think he's one of our giant problems, and continues to 
be. But as you can see, I have no strong feelings about it.
    Senator Hagel. Mr. Chairman, if I may, I might add my 
absolute agreement, and would the record show that I support 
everything you've said. I find it astounding. I find it 
astounding--it's not my time to question--that this man is 
still on the American payroll. You might, when I get my chance 
to question, recite Mr. Chalabi's record on behalf of this 
country.
    Ambassador Satterfield. Mr. Chairman, if I could just----
    Senator Hagel. Thank you, Mr. Chairman, it's your question.
    Ambassador Satterfield [continuing]. Comment. Ahmed Chalabi 
is not on the American payroll.
    The Chairman. That's good news.
    Senator Hagel. No; that's a question, but what I'm saying 
is, when I have my opportunity to question you, Mr. Ambassador, 
I would like a reflection of his record, on our payroll, all 
the money we've given him, what he did to us, the bad 
information, the mischaracterization of what was going on--I'll 
ask that for the record, but you might want to be thinking 
about that, as well as you, General, if you can offer anything. 
Thank you very much, I'm sorry that----
    The Chairman. No; that's OK. We have a small enough group 
here that I don't mind at all any of this interchange.
    I'll just conclude, though, by asking you, General. I 
wasn't being solicitous when I said, I have been so impressed--
so incredibly impressed--with the talent of our uniformed 
military, working with the American civilians who--as you 
pointed out, are risking their lives.
    I can remember my son, when he was in, as a civilian--he's 
now in the military--but a civilian working in Kosovo for the 
Justice Department, he was a representative for the U.S. 
Justice Department. And I remember him coming back, and the way 
he talked about the military and what they did. As a matter of 
fact, you guys were a bad influence on him. He got back and at 
32 years old, he joined the military. He's now the attorney 
general of the State of Delaware, and he's joined the military. 
You guys. My wife will never forgive you for being so good.
    But, my point is this, and I'm not joking about this--the 
efficacious way in which you have used the funds in what is--
what's the term of art again? It slipped my mind, the fund 
available to the military for reconstruction?
    General Jones. CERP funds, sir?
    The Chairman. CERP funds. How much is plussed up on those 
funds? What portion of this supplemental, what portion of the 
billion, if it is--it might turn out to be $2 billion--are they 
in the same basket, or are they separate accounts? Can you tell 
us how that works?
    General Jones. Sir, my understanding is that all of the 
CERP funds are out of the DOD portion of the supplemental, and 
they're designated as such.
    The Chairman. So the $538 million supplemental would not 
cover any of the CERP funds?
    Ambassador Satterfield. Mr. Chairman, the $538 million is 
continuing resolution moneys.
    The Chairman. No; I'm sorry, that's what I meant to say.
    Ambassador Satterfield. Under the supplemental, we will be 
requesting a significant amount of funding, which the Secretary 
will be enunciating when she comes up before the Congress 
shortly, for what amounts to a civilian CERP program, with a 
request for the kinds of authorities to spend those funds on 
the ground, as the military commanders now have.
    We view the military CERP program as an outstanding 
success. We want to help augment, supplement, and expand along 
the purposes of the military CERP with a civilian CERP 
administered in large part, through the new PRTs, the existing 
PRTs, with their military columns. So, there will be a 
significant request coming.
    The Chairman. I'm about 20 seconds over, if you'll indulge 
me for one more quick question. One of the things that all of 
us have talked about on this committee, and both parties, I 
think, is the need to get more talented civilians on the 
ground.
    Under the leadership--and I'm not being solicitous here--
sometimes, I think people think we're just being solicitous, 
saying nice things about this guy. Let me be precise--the 
chairman had hours and hours and hours of meetings with 
Democrats and Republicans, former high-ranking administration 
officials in previous administrations. The best that he could 
muster, and we agreed on, the most talented people we've worked 
with, I'd say, in the last I don't know how many years, and the 
idea the chairman had, and I hope you will expand on this, and 
I don't want to suggest what he should question, but I hope he 
talks about at some point, was the recognition that the missing 
ingredient--among other things--and such a massive undertaking 
as we did in Iraq, was to have a readily available cadre--
essentially a civilian army--of people with real, genuine 
skills, interagency cooperation. As the retired generals before 
you went in said to us in our July 2002 hearings: Look, the 
problem we have with the proceedings in Iraq--of course this is 
before we went in--is that we need as many talented civilians, 
military police, civilian experts going in with the military to 
have any chance of making it work in Iraq.
    And so the chairman came up with a very, very thoughtful 
proposal that we ended up getting into the State Department 
legislation. The President referenced it in the written 
document, and I guess, now that I say it, I'm a minute and 20 
over--I'll withhold, because it will take awhile for you to 
answer that question. But I want to come back and have you 
speak, for the record, to what the President talked about. It 
comports with the legislation from the Senator from Indiana, 
and I was happy to cosponsor, and put it forward. And what that 
means in terms of a reorganization, is that we have to have a 
different mindset about us when we project force into another 
country. That's a more complicated, longer subject, but the 
real quick question that relates to that is, you indicated that 
you were pleased that some talented State Department people 
have signed up to step into the breach and go into Iraq. From 
our discussions in Iraq, at the Embassy, inside the Green 
Zone--between you and me and others, I know firsthand that 
there are some very talented people at the State Department.
    I asked the same question 6 months ago, about agriculture 
people, about Commerce Department people, about people who are 
in the public works side of this event. The agencies that are 
basically--according to General Chiarelli--incapable. A great 
line I heard from the General, ``Senator, if you ever hear me 
criticize a bureaucrat again, pop me.'' There's no bureaucracy 
here.
    And he gave an example about you guys going out and 
spraying the date palms because the Agriculture Department did 
not do it and the State Department wasn't particularly 
interested in it, other than letting them do it. So, my 
specific question, and I'll cease--is how many State Department 
personnel are we talking about that are going to be moving from 
the building in town to Baghdad to help implement this new or 
more informed reconstruction effort?
    Ambassador Satterfield. Mr. Chairman, the State Department 
currently has over 140 Foreign Service officers in Baghdad, 
over 50 in the existing PRTs--that's the largest presence of 
the Foreign Service in any country in the world.
    The Chairman. Right, I know that.
    Ambassador Satterfield. We have an additional large number 
of individuals contracted through the State Department who 
serve as full-time employees working with IRMO and other 
entities in the country. As a result of this surge, some dozen 
additional State Department officers will be heading the new 
PRTs; but the skill sets, of the over 300 civilians whom our 
brigade commanders, our own PRT staffs want out there, are not 
skill sets which one finds within, typically, the Department of 
State. They're camel vets----
    The Chairman. Right.
    Ambassador Satterfield [continuing]. They're agricultural 
irrigation specialists. They are very highly----
    The Chairman. Are they contractors, or are they out of the 
Department of Agriculture? Are they out of----
    Ambassador Satterfield. Senator, we are going to be 
working--and are working now--with the Department of Defense as 
well as with other agencies, including Agriculture, when 
identifying who and when bodies will be produced. I can tell 
you that for the initial surge, the majority of the individuals 
that we will be bringing in--let's look at the next 6 to 9 
months, period--where we've got to get guys on the ground--will 
be coming out of Department of Defense resources. They can 
tap--they can move people with these skills.
    The Chairman. Contractors? Contract personnel? That's not 
bad; I just want to understand what we're talking about here. I 
mean----
    General Jones. Sir, I believe that between the two 
Secretaries what they've discussed are actually reservists who 
have skill sets which in our Reserve component----
    The Chairman. That's what I thought.
    General Jones. They're very talented.
    The Chairman. So, you're talking a total of roughly a dozen 
State Department officers----
    Ambassador Satterfield. To head the PRTs.
    The Chairman. Head the Department. OK; thank you. I've gone 
well over my time, 5 minutes, and I apologize.
    Senator Lugar. Thank you very much, Mr. Chairman.
    I just wanted to carry on in that area, is that Senator 
Biden has generously referenced our meetings with people from 
various Departments. The total view was that in the old days we 
were not involved in ``nation-building.'' And some people feel 
we should still not be involved, but we are, in fact, and we're 
talking about this very explicitly today. And in order to have 
the Civilian Reserve Corps that we need--whether lawyers, 
attorneys, economists, engineers, health workers, and so 
forth--this is going to require a lot of organization.
    Now, we didn't raise the question of who does it. But, at 
some point--and I was intrigued, as Senator Biden was, when the 
President in his State of the Union Message mentioned this 
Civilian Reserve Corp. We are not asking you today to flesh 
this out, but it almost is as revolutionary as the year before 
when the President said we were addicted to Middle East oil. In 
other words, it was an extraordinary breakthrough.
    Now, bureaucrats, or even the Secretaries may not 
understand what the President has in mind yet. I hope that they 
do. There is no possible way in which the United States can 
become successfully involved in one country after another, 
without having a huge number of people who are willing to serve 
in a Reserve capacity, willing to go when called, and who have 
skills.
    When the three of us were in Baghdad at the time the 
chairman has referenced, fortunately, the security was better. 
We were venturing out into neighborhoods. We visited a 
neighborhood council meeting in which people raising concerns 
about what was going to happen in their schools, or what was 
going to happen in the neighborhood group, and so forth.
    Now, unfortunately, in one of these meetings, there was a 
brilliant second lieutenant----
    The Chairman. That's right, yeah.
    Senator Lugar [continuing]. Who was, really, serving almost 
like the superintendent of schools for this area. For that 
matter, he had legal training, he was able to advise these 
people, they had extraordinary confidence in him. And I 
thought, thank goodness, somehow or other, in the course of all 
of this, somebody like this arrived quite by chance as it was 
explained to us.
    But we really cannot always guess that this will happen, 
and this, in fact, was an Army reservist as I--and he was going 
to be gone in 3 months, and so, you know, we're back to ground 
zero. And I just ask you not, today, to produce, in response to 
this question, all the explicit details, but please, you know, 
for the record, give us some idea of how serious the 
President's proposal is going to be taken? The legislation we 
passed last year, in 2006, that several of us cosponsored, is 
there for the taking, and we'll have another go at it 
legislatively and hopefully see it pass the House this time 
around. But ultimately, someone in the administration has to 
act upon it--and really press the action.
    Ambassador Satterfield. Senator and Mr. Chairman, because 
you both referred to the same concept--this is an 
extraordinarily good idea; it's a very necessary thing. State 
Department Foreign Service officers are commissioned officers, 
the military are commissioned officers, we can order service. 
The Department of Agriculture doesn't have the ability to order 
its civilians to deploy to a combat zone. There needs to be a 
reserve of talented individuals in a database that can be 
tapped--not just for Iraq--but for other situations like this. 
And we very much want to move forward on this, it's very 
necessary.
    And just a word on the date-palm spraying--this was an 
extraordinary example of civilian military coordination. The 
Iraqi agriculture authorities were unable in the end to 
organize themselves to obtain the necessary spraying equipment 
for this vital undertaking. Through close work with our 
military, the Corps, General Chiarelli, our Embassy in Maldova, 
I was directly involved in this--we mobilize the delivery of 
the helicopters necessary--but this was very much a State 
Department and military joint undertaking.
    Senator Lugar. Well, I'm--we congratulate you on that 
coordination.
    Let me just say, getting back to the beginning of your 
statement as you talked about the $538 million and the 
continuing resolution to avoid the shutdown--quite apart from 
the additional moneys--what, I've found, at least in our 
oversight thus far, is that the State Department is not unique 
in this, but today I'll--since you're here, Secretary 
Satterfield, I would just say, there's never been very much 
explicit detail as to how many persons were going, what they 
were doing, and so forth.
    In other words, we have on the one hand, now, a much more 
explicit detail in terms of the armed services, how many 
persons are going where, and almost detailing neighborhood by 
neighborhood--but when it comes to the civilian side, this has 
never been quite so explicit.
    My general feeling is from the tenor of the conversation we 
had around the table yesterday, that this committee, maybe 
others, in terms of our oversight, are going to request 
frequently--if not weekly, biweekly--what's happening? In other 
words, this is not a situation now in which we go on from year 
to year and we take a look back a couple of years ago, and see 
how it all went. This is very much on the minds of the American 
people now. As to, physically, who gets there, and where they 
go and what they do. So I--once again, you cannot furnish a 
book today for us, but I'm really asking you to begin to 
prepare something that is much more detailed, in terms of the 
precise amounts of money. Otherwise, the $538 in the minds of 
many--hopefully not around this table, but elsewhere--will be 
lumped with the military, somewhere, as just additional funds. 
And, in fact, you've tried to give an explicit way in which 
these, other than military procedures, are going to progress. 
And we're going to have to try segregate those in our minds, 
and the minds of press people who cover this and the audience 
that witnesses, because it's very important.
    Ambassador Satterfield. Senator, I appreciate that point, 
and it's a very good one. And it is very germane to what we 
will be doing along with our military colleagues with this 
committee, and I think with others, here and in the House, over 
the time ahead.
    There is a synergy between our request, and programs, and 
what the military is requesting and doing on the ground.
    Senator Lugar. Exactly.
    Ambassador Satterfield. But, there is also a distinction. 
And we know that there is a requirement, that we not only 
explain heading in what we want these funds for and what they 
will do, but explain to you as time progresses what is 
happening on the ground. We are full scale and we do have a 
report on this, which we will look forward to discussing in 
great detail.
    Senator Lugar. That would be important, and there is a 
distinction between--they're all a part of a synergy, but 
nevertheless, we need to know the facts.
    My office has been sending out the facts that you, or 
others, produce monthly to all of our colleagues. So, we know 
how many barrels of oil, how many kilowatts in Baghdad--we're 
trying to finally get down to the facts, as opposed to some 
generalization about the country. Having more details would be 
extremely important here.
    Now, finally, let me just say, we like to know the facts 
about what Ambassador Tim Carney will actually do. Now, we want 
to know whether his role will be different, say, from the 
Office of Strategic Effects, the Reconstruction Management 
Office, the USAID Mission Director--in essence, there are 
people doing various things. And it does not occur to some of 
us what they do, either. But now that we're explicitly sending 
Ambassador Tim Carney, and I think that's a very important 
move. What is his authority? What will he do? Does he supervise 
the rest of this crew? Or, if not--try, if you can, in some 
additional testimony for the record, so that we have some idea 
of how to follow him. How oversight can occur with regard to 
this very important appointment.
    Ambassador Satterfield. Certainly, Senator, we will get 
back to you with more detailed commentary on Ambassador Carney 
and his role, but if I can, I can summarize it very shortly.
    Ambassador Carney will be going out to oversee Iraqi 
performance and to help coordinate United States performance 
with all of the entities, all of the offices now responsible--
IRMO, AID, our own economic section working closely with MNF-I 
and MNC-I on execution of the economic ``build'' part of the 
current security undertaking. This is not the job which existed 
before this surge; it is something very much related to making 
effective what Iraq has to bring to the fight, and coordinate 
what we are bringing to the fight. It is to bird-dog, if you 
want to use that term, Iraqi performance in a constant dialog. 
You need a dedicated person, a single person to be focused on 
that effort, and to have the resources and the data from our 
side, collectively, on what we're bringing in, to make sure the 
two work together. That, in a nutshell, will be Ambassador 
Carney's role.
    Senator Lugar. Will you be able to share his reports with 
us, in other words, as a part of this oversight, what he's 
going to be seeing, what you've just described he's going to be 
doing. It's tremendously important for all of us to know. Is 
there likely to be some reporting flow, in which you get 
information from the Ambassador and you can share that for us?
    Ambassador Satterfield. Senator, he will be under Chief of 
Mission authority, reporting through the Deputy Chief of 
Mission and the Ambassador back to the Department of State, and 
we'd be delighted to keep you updated on the progress of those 
undertakings.
    Senator Lugar. Well, that would be great, hopefully 
whatever he has to say will not be muffled by the rest of this. 
In other words, we really want to know from somebody on the 
ground, what the Iraqis are doing, what they're contributing, 
the whole raft of questions, others will ask about that, but 
maybe Ambassador Carney can be illuminating.
    Ambassador Satterfield. Senator, if I could just comment a 
moment longer on what you just raised--what's happening on the 
ground? What are Iraqis doing? And I'll be expansive in this 
response.
    Whether it is on the security side, the political side, or 
the economic side, the American people--we in the Government--
will demand an updating on what is actually happening. Are 
Iraqis doing what they need to do? They've got to be held to a 
standard, which is ultimately not ours. But the standard the 
Iraqi people demand. That information will be available, and it 
is something we will all be following very closely.
    Senator Lugar. Thank you very much, thank you, Mr. 
Chairman.
    The Chairman. Thank you very much.
    Senator Obama.
    Senator Obama. Let me defer to Senator Webb.
    The Chairman. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman. First, Mr. Chairman, 
I ask you a question, I'm new to this committee, although I did 
work as a committee counsel for a number of years on the House 
side, and I'm curious about the general rules in the committee 
about when testimony is supposed to be submitted? Witness 
testimony?
    The Chairman. Well, generally, I think it's 24 hours, 24 
hours before. But, in the case of General Jones, I'm told we 
went to him, we got to him fairly late, is that correct?
    Senator Webb. Well, Ambassador, we got your testimony, I 
think, after 7 o'clock last night? That makes it very difficult 
for myself and my staff to prepare. And I hope that you can 
show us a greater courtesy in the future.
    I'd like to first make a statement, a statement of strong 
concern here. I'm new to this committee, I'm not new to the 
issues, I spent 4 years on the Defense Resources Board, going 
through these kinds of programs. I'm a data guy, I intend to 
really develop some energy--devote some energy to these 
programs, not only the State Department side, but I'm on the 
Armed Services Committee as you know, and on the Department of 
Defense side.
    The administration's Iraq construction programs have been 
plagued by miserable planning. Iraq is, obviously, not a safe 
or an easy place to work, but according to the Special 
Inspector General for Iraq Reconstruction, as well as numerous 
public reports, this has been the most poorly managed 
reconstruction program in recent memory.
    The inspector general has dozens of cases pending, 
regarding fraud and abuse. The worst blunders have been made by 
the CPA in the Department of Defense. I want you to know that I 
am not inclined to support any additional funding in this area 
without strong assurances that this sort of mismanagement has 
been alleviated.
    I've got a number of reports that have been provided to me 
by staff, and by the way, this is not anecdotal, and I don't 
think it's below the belt to make that comment. Report after 
report, oil revenues are in the billions, but Iraq is failing 
to spend them--they don't know how to spend the money. I know 
this is a chaotic country, but I don't think that really 
answers the mail on this kind of stuff.
    Idle contractors add millions to Iraq rebuilding. The 
highest proportion of overhead--and this is from the New York 
Times--overhead costs have consumed more than half of the 
budget of some of these reconstruction projects. The highest 
percentage was incurred in oil facility contracts--one by KBR, 
a Halliburton subsidiary which frequently has been challenged 
by Congress--more than half of their money is oversight, just 
housing people.
    The United States has said to fail on tracking arms shipped 
to Iraqis. We don't know, in some cases, whether the weapons we 
are sending them are actually ending up in the hands of the 
insurgents.
    I've got a Special Inspector General Report here on Iraq 
reconstruction--I'm sure you're aware of it, I intend to go 
through it in detail. I have a GAO study, and what I would like 
to ask of you, first of all, here, is that you can make 
yourselves available, and if you are otherwise occupied, key 
members of your staff. I would like to meet in other than a 
committee forum, and to talk with you about these issues.
    Ambassador Satterfield. Senator, we are delighted to meet 
with you to discuss these issues. And we can certainly bring 
the staff that is necessary to----
    Senator Webb. I appreciate that.
    Ambassador Satterfield [continuing]. Explore in detail 
these reports.
    Senator Webb. When you address your fourth point in here, 
you say that you will target, or you will ``channel targeted 
assistance to Iraqi leaders, regardless of party or sectarian 
affiliation who reject violence and pursue their agendas 
through peaceful, democratic means,'' how are you going to 
measure this? How are you going to quantify that?
    Ambassador Satterfield. There's a very simple test: Are 
individuals engaged in violence as a pursuit of their political 
or individual ambitions? Or are they working through a 
political process?
    Senator Webb. Who makes that determination? Who's going to 
make that determination?
    Ambassador Satterfield. It is the U.S. officials on the 
ground--civilian and military--in their direct contact on the 
ground who make that determination.
    Senator Webb. It's a fairly vague standard, wouldn't you 
agree?
    Ambassador Satterfield. No; I think it's a very crisp 
standard. I think it is very clear who is engaged in violence, 
and who is engaged in the political process.
    Senator Webb. It's only clear if you have adequate 
intelligence.
    Ambassador Satterfield. That's correct, Senator, and we do 
have intelligence.
    Senator Webb. I think we've pretty well demonstrated, 
throughout this war, that on the ground there is frequently 
inadequate intelligence.
    Ambassador Satterfield. Senator, the purpose of the 
expansion of the Provincial Reconstruction Teams, the 
additional pairing with our brigade commanders, is to enhance 
our ability at a finer and finer level. To have a better 
sense----
    Senator Webb. I understand. I understand that.
    Ambassador Satterfield [continuing]. Of development on the 
ground----
    Senator Webb. I understand that.
    Ambassador Satterfield [continuing]. For exactly this 
reason.
    Senator Webb. I understand that, Ambassador. I understand 
that. These are judgments, though, right? These are going to be 
judgments by people on the ground?
    Ambassador Satterfield. They are, of course, judgments by 
people on the ground.
    Senator Webb. OK. So, are you gonna let us know exactly 
what kind of standards are being used?
    Ambassador Satterfield. We certainly can discuss with you 
the kinds of criteria, the kinds of information that we use in 
making these determinations.
    Senator Webb. You know, basically saying--and having been 
in that environment, in this environment, not only in the 
military, but as a journalist--including in Afghanistan in 
2004, basically saying that someone has rejected violence, to 
me, is just a vague standard. We don't know--unless you can 
document that in some way--unless you have some assurance. 
You're going to be giving people money other than, sort of, 
some vague form of payola?
    Ambassador Satterfield. Senator, we take very seriously, 
the issue of who U.S. funding----
    Senator Webb. I understand the intention, Ambassador.
    Ambassador Satterfield. It is based upon a best and better 
assessment----
    Senator Webb. I understand the intention, and I agree with 
the intention. What I'm asking for is some assurance that, in 
carrying out that intention, there are measurable standards 
that we can apply with respect to intelligence.
    Ambassador Satterfield. I can certainly give you that 
assurance.
    Senator Webb. OK. Can you tell us what percentage of the 
funding in these programs has gone to American companies?
    Ambassador Satterfield. For the extended IRRF funds?
    Senator Webb. For the reconstruction programs.
    Ambassador Satterfield. We can get you that information.
    Senator Webb. Particularly the construction programs.
    Ambassador Satterfield. We can get you that information.
    Senator Webb. You don't know that at this moment?
    Ambassador Satterfield. I don't have those numbers in front 
of me. What I can tell you is that the majority of the funds in 
the initial phases of execution went primarily to American and 
other multinational design/build companies. That has turned 
around, almost completely. The majority of that funding is now 
going over 80 percent to Iraqi firms. That is part of a 
fundamental reform, from the bottom up, of the reconstruction 
program undertaken over the last 18 months. It is a different 
program than the program that was initiated in 2006.
    Senator Webb. So, in terms of the funding that has been 
going forward from what point? Are they now principally Iraqi?
    Ambassador Satterfield. Particularly in the course of the 
last year, but really, the last 18 months, there has been a 
steady shift in funds away from the large design/build 
multinationals, including United States firms, to Iraqi 
contractors.
    Senator Webb. And so you can provide us the information in 
terms of the aggregate amounts, and then where your present 
contracts are?
    Ambassador Satterfield. We can indeed, sir.
    Senator Webb. OK; I would like to see that.
    Ambassador Satterfield. You will, sir.
    Senator Webb. And, again----
    The Chairman. You will submit that for the record?
    Ambassador Satterfield. Certainly, sir.
    [The information supplied by the State Department follows:]

                                     U.S. State Department,
                                    Washington, DC, March 16, 2007.
Hon. Jim Webb,
U.S. Senate,
Washington, DC.
    Dear Senator Webb: In response to your question to Ambassador David 
Satterfield during his testimony before the Senate Foreign Relations 
Committee on January 27, we would like to provide you with the 
following additional information.
    You asked for a breakout of reconstruction funds that have gone to 
American firms vs. local Iraqis. In our interim response we provided 
general information about the evolution of U.S. implementing agencies' 
contracting practices. We also undertook to investigate your question 
more thoroughly and to provide additional information.
    From October 2003 to December 2005, an average of 5.4 percent of 
all USG-funded contracts was awarded to Iraqi contractors. However, in 
the last 6 months this average has increased to approximately 80 
percent. This change reflects a major shift from large, multi-year 
contracts implemented by international firms, including U.S. and 
regional firms, to small contracts awarded to Iraqi firms.In addition, 
many international contractors, including U.S. firms, employ local 
staff to execute projects; this should be considered when evaluating 
where contract dollars are spent to benefit local employment.
            Sincerely,
                                        Jeffrey T. Bergner,
                          Assistant Secretary, Legislative Affairs.

    Senator Webb. And I--as I said--I would reiterate my desire 
to be able to meet with you, or your key members in an, other 
than a committee setting, so that we can try to get into this 
data and try to get a--from my perspective, being a new member 
on a committee, an examination of where this past money has 
gone.
    Ambassador Satterfield. Certainly, sir.
    Senator Webb. Thank you.
    The Chairman. Thank you very much, Senator.
    There is a vote on, and I'm happy to yield to the Senator 
from Tennessee. He'll have time to do his 8 minutes, and then 
what we'll do if, by that time, anyone is back from having 
voted, we'll just continue the hearing. If not, we'll recess 
very briefly.
    I want to point out for the record that a number of 
Senators who couldn't be here today have expressed the desire 
to submit questions in writing, and so, with your permission, 
we will submit those to you.
    And I hope that the response is quicker than--and I ask you 
to make it quicker--than those Senators submitted last July, 
which weren't received until December. So, we're not going to 
overburden you, but we expect you to answer them in 10 days or 
so. By the time we get the answers, they're almost no longer 
relevant.
    And one last point before I yield is that, I'm going to 
enter into the record, there's two very distinguished people in 
our audience today--Paul and Rosemary, Paul Schroeder and 
Rosemary Palmer--who are parents of Marine LCpl Edward 
``Augie'' Schroeder, who was killed on August 3, 2005, near 
Haditha. They formed an organization called Families for the 
Fallen for Change. It's a nonpartisan organization representing 
an awful lot of people.
    And I'd like to submit, for the record, for the edification 
of all of you, the letter that they addressed to me, but it is, 
I think, worthy of every member on the committee having it 
available to them. And there's just one quote I'd like to read, 
``In our last conversation with Augie,'' that is their son, 
``In our last conversation with Augie, he said, `Pop, the 
closer we get to leaving, it's clear this is less and less 
worth the cost.' '' That's really the question I think we're 
all wrestling with here. Is it worth the cost?
    Senator Voinovich. Senator, I'm really pleased that you're 
submitting the letter from these parents to the record. The 
Schroeders are from Ohio, I've met with them----
    The Chairman. Oh, is that right? I apologize; I should have 
let you do that.
    Senator Voinovich. I'm meeting with them today again, and 
they're very serious people, they're very concerned, and I 
think they've got some questions, it's constructive to hear 
from them.
    The Chairman. They're here today, I'm corresponding with 
them, and I'm glad to hear you say that. We welcome them, and 
they have our deepest sympathy.
    With that, let me yield now to my friend from Tennessee, 
and I'm going to go vote, and come back.
    Senator Corker. I'm going to let you're--I think we're 
under 6 minutes now on the vote, and I don't know if it's 
practical to actually----
    The Chairman. All right. Well, as you all know, we never 
let the vote go off on time, but I think you're probably right. 
Maybe what we should do is recess, recall the chair, and when 
Senator Lugar gets back, or whomever gets back, we'll yield 
immediately to the Senator from Tennessee, and so we'll 
temporarily recess. I thank the witnesses.
    [Recess at 10:42 a.m.]
    [Reconvened at 11:02 a.m.]
    Senator Lugar [presiding]. For the sake of continuity, the 
chairman has asked me to continue the meeting, and I'll 
recognize now Senator Hagel for his questions.
    Senator Hagel. Mr. Chairman, thank you.
    Gentlemen, thank you, for your time this morning, as well 
as your good work and your efforts on behalf of our country, 
and please, relay to your colleagues that we appreciate your 
efforts and your good work.
    I wanted to go back, Mr. Ambassador, briefly to the point I 
made regarding the chairman's reference and question regarding 
Mr. Chalabi. I don't want to take any of my time dealing with 
Mr. Chalabi, but what I would request if you and General Jones 
could provide some history of Mr. Chalabi's relationship with 
this Government, with this country, including the contracts 
that our Government had with him, how much money he got per 
month, what was he required to do for that money, and some 
history of his record, involvement with the Iranians, and other 
pertinent issues that would be helpful to this committee, and I 
appreciate that very much. Both DOD and State Department, thank 
you.
    [The information supplied by the State Department follows:]

    In response to your question, we have reviewed this matter and have 
determined that the relationship between Dr. Chalabi and the U.S. 
Government was addressed in considerable detail by the Senate Select 
Committee on Intelligence (SSCI) in a report entitled ``The Use by the 
Intelligence Community of Information Provided by the Iraqi National 
Congress,'' issued September 8, 2006, in both unclassified and 
classified versions. Specifically, section II of the report, entitled 
``Background on IC Relationships With the INC,'' contains a history of 
the U.S. Government's relationship with the INC and Dr. Chalabi, 
beginning in May 1991 through May 2004, when the Department of Defense 
announced a termination of its funding relationsip. As this is a report 
of the Senate Select Committee, I do not wish to comment on its overall 
findings. Nevertheless, the Department of State provided extensive 
information for that report and made numerous officials available for 
interview by the committee. except for some minor issues and omissions, 
we find this report, particularly the classified version, a factually 
accurate account of the USG's relationship with Dr. Chalabi.
    Since the termination of the relationship with the DOD in 2004, the 
U.S. Government has maintained contacts with Dr. Chalabi, as we do with 
Iraqi officials and other influential members of Iraqi society. Dr. 
Chalabi was from 2005 to 2006 the Deputy Prime Minister of Iraq and has 
been a member of the Higher National de-Baathification Commission from 
its inception to the present. Since 2004, however, Mr. Chalabi and the 
Iraqi National Congress have not received any direct or indirect 
funding from the U.S. Government.
    We have coordinated this response with the Department of Defense, 
the Central Intelligence Agency, and the National Security Council 
staff.

    [The information supplied by DOD follows:]

    Elements of the USG maintained contacts with a wide variety of 
individuals and groups opposed to Saddam Hussein's regime prior to 
Operation IRAQI FREEDOM, including Dr. Chalabi and the Iraqi National 
Congress (INC). The Defense Intelligence Agency (DIA) did not have a 
relationship with Dr. Chalabi personally, but rather with the INC, a 
coalition of Iraqi opposition parties in which Dr. Chalabi served as 
the chairman. DIA's routine points of contact with the INC in the 
United States were Mr. Intifadh Qanbar and Frances Brooke, the INC 
representatives in Washington. DIA maintained contact prior to the war 
and in Iraq with Mr. Arras Habib Kareem, Chief of Intelligence for the 
INC, in the INC offices in London and Baghdad. DIA was directed by the 
Department of Defense to establish an overt Information Collection 
Program with the INC, which began in October 2002 and lasted until May 
2004. Prior to October 2002, this program was managed by the Department 
of State.
    DIA did not have any contracts with Dr. Chalabi and therefore he 
was not provided any funds. The INC was provided $350,000 each month to 
their INC bank account for operational expenses. They submitted a 
monthly voucher/expense report that was audited by the DIA Inspector 
General's office, and there were no findings.
    (U) Like almost all groups opposed to Saddam Hussein's regime, Dr. 
Ahmad Chalabi dealt with the Iranians prior to operation IRAQI FREEDOM 
as a means to operating in Iraq and surviving Saddam's tyrannical 
regime. [Deleted]

    Senator Hagel. As I listened carefully, as I always do, 
Ambassador Satterfield, to what you have to say, you are one of 
our most respected and senior diplomats, and for those years of 
service, we appreciate it.
    You talked, in your testimony, in fact it was a subheading, 
``Regional Diplomacy,'' and you went into a paragraph saying, 
``While we are working with our partners in the region to 
strengthen peace, two governments--Syria and Iran--have chosen 
to align themselves with the forces of violent extremism in 
Iraq and elsewhere. The problem is not a lack of dialog, but a 
lack of action by those states.'' My question is this: What new 
diplomatic U.S. initiatives are we putting forward in the 
region, as you have noted here, Regional Diplomacy, trying to 
build, focus on a regional strategic framework that would be, I 
hope, a rather significant part of what the President is 
talking about in his total package.
    And, I would add to that, in way of addressing this, 
somewhat directly to you, General Jones, as General Petraeus 
assumes his new, critically important position in Iraq--and we 
all have the highest regard for General Petraeus--he, as you 
know, has recently finished rewriting our counterinsurgency 
field manual.
    And, in that I have not read every page of it, I have read 
some of it, in that he notes that probably the most significant 
part of success in dealing with counterinsurgencies, is to have 
and employ a political strategy. In fact, I think he says 
something to the effect that it's almost more important than a 
military strategy.
    So, with that added into the mix of my question, I would 
very much appreciate your thoughts, and if you could enlighten 
our committee on what new diplomatic efforts, regarding what 
you said here, the United States is taking, and General Jones, 
I'd like to hear from you on this, as well. Thank you very 
much.
    Ambassador Satterfield. Thank you, Senator.
    Secretary Rice, commencing in September of the past year, 
has been working with our partners in the gulf, with Jordan and 
with Egypt to construct a new framework, we call it the GCC for 
Gulf Coordination Council, plus two--Jordan and Egypt--as a 
framework in which strategic issues can be discussed in a 
strategic frame, rather than purely in bilateral fashion.
    The Secretary has had several meetings with the GCC-plus-
two Foreign Ministers, most recently this past week in Kuwait. 
The topics discussed there were broad: Iraq, Iran--Iran, not 
just with respect to its threats to Iraqi security and 
stability, but also Iran in a broader regional context, the 
Palestinian-Israeli issue--and you know the Secretary had just 
been involved prior to her visit to Kuwait in rather intense 
diplomacy that established a meeting to take place between 
Prime Minister Olmert and President Abu Mazen--as well as the 
issues of Lebanon, broad discussion of how those in the region 
who are committed to a political process can be strengthened, 
can be invigorated, against those radicals who are using 
violence; whether that violence is in Palestinian territories, 
in Lebanon, in Iraq, or elsewhere, to achieve their ends.
    The GCC-plus-two is a very good format for this, because 
there's enormous receptivity to the strategic view of the 
region, rather than taking each issue independently. I said in 
my oral remarks, Iraq can't be considered in isolation from the 
region, Iran can't be considered solely as an Iraq-related 
issue, either. They need to be addressed comprehensively.
    We are seeing progress made, this is the beginning, it's 
not the end, of a long process. But we have seen the beginning 
taken. But I will note again, with respect to Iraq, there is a 
significant impediment to moving forward in mobilization of 
real and effective support from the Gulf States for Iraq. And 
that is the perception that this government in Baghdad is not 
acting from national motivations, but indeed is pursuing a 
sectarian agenda.
    This is a reality. Whatever one discusses on reality versus 
perceptions, it is what they see. And they need to change what 
they see. That is why it is so important for the Iraqi 
Government, and the conduct of the Baghdad Security Campaign, 
in the political initiatives which the government itself is 
committed to undertake, that it shows it is a national 
government, and is not operating from sectarian motives.
    Senator, we can say--the Secretary, the President--all we 
want, to our colleagues in the gulf. But they're going to 
watch, and what they're going to pay attention to is what 
happens on the ground, in Baghdad and elsewhere. And this is a 
message we believe Prime Minister Maliki and the senior leaders 
around him understand as well.
    Senator Hagel. Well, let me follow up a little bit on what 
you've said. If I'm hearing this correctly then, what you're 
saying there is that there's not going to be a military 
solution to this, it's the Iraqi Government, representing the 
Iraqi people, representing the various sectarian factions that 
must come together to bring stability, security, and peace to 
their nation. Is that right?
    Ambassador Satterfield. Senator, there is no question that 
the ultimate resolution in Iraq, on security as well as on 
other issues, has to be political. But there are real security 
deficits right now, because of the sectarian violence focused 
in Baghdad that are affecting the ability of Iraqis to move 
forward to that political solution.
    Senator Hagel. What are the regional partners doing in the 
way of, for example, the President laid out a plan to increase 
our troop levels--Americans--by 22,000, roughly. Tens of 
billions of dollars of new American taxpayers' money going in. 
What are we getting from our regional partners? For example, 
our coalition of the willing, and you, General, tell me this is 
not correct, the Ambassador certainly knows this one way or the 
other, but put it on the record. The British are pulling out 
their troops, most all of our allies have been there are 
withdrawing troops, or have gone.
    I asked Secretary Rice when she was here a week and a half 
ago, who is putting more troops in, for example. Unless 
something's changed, no one is. Who is putting more billions of 
dollars in? Who is putting more investment in? Who is doing 
more? If you'll answer that, I'd appreciate it, because I do 
not see, or have not been told that anybody is doing anything, 
other than United States putting more of its blood and treasure 
into Iraq. But yet, as you have just noted, Ambassador, this is 
Iraqi--this is an Iraqi issue that will be resolved by the 
Iraqis. I understand the security issue, and I don't think 
there's anybody who doesn't quite get that. But when we talk 
about regional diplomacy and regional issues, and working with 
our partners, what are our partners doing?
    Ambassador Satterfield. Senator, and I'll defer to my 
colleague, General Jones, for specific commentary on the 
military side.
    What we are doing is trying to mobilize on two different 
fronts. To mobilize both politically and in terms of meaningful 
economic support--primarily through debt forgiveness, but also 
private sector investment. Support, not just from the region, 
the primary debtholders we're talking about are in the gulf--
but also from the broader international community, including 
Asia and the European Union.
    The Iraqis have moved forward with a very bold, very 
progressive, economic statement of principles, much of which 
have already been implemented, or are being implemented, and 
deserve quite a bit of praise. But the ability to rally 
meaningful support in the face of these positive steps on 
macroeconomic issues by the Iraqis is colored by the security 
situation on the ground in Baghdad, and with respect to the 
Gulf States, by this perception of sectarian/vice-
national agenda, and that needs to be addressed by Iraqis.
    On the coalition side, the coalition remains intact. Our 
critical partners, the United Kingdom, which has indicated a 
desire over the course of the next several months to reduce 
force levels to, I believe, 4,500, but to keep forces in Iraq 
at least through the end of this year. Poland, which is 
similarly committed to retaining its forces, El Salvador, the 
South Koreans, our key partners are not moving.
    But they are not engaged----
    Senator Hagel. They are moving; they're reducing their 
forces.
    Ambassador Satterfield. But they are not leaving.
    Senator Hagel. But they're not increasing, like we are, and 
that's my overall question: Who is putting more investment in, 
like we are? Who is putting more dollars? Who is putting more 
of their reputation, their treasure, their blood, their 
investment, in? That's my question.
    Ambassador Satterfield. Senator, there is--the Baghdad 
Security Plan augmentation is U.S., it is not a coalition 
issue. And that's based upon our own commander's assessment of 
the kind of forces, the numbers of forces and the timing for 
the application of those forces required.
    On the economic side, there is continued fund flow from 
partners, such as the European Union, from Japan, from others, 
but not directly associated with this surge.
    Senator Hagel. Well, my time is up, and I've gone over and 
I appreciate that, and if we have another round, I'll have a 
chance to come back.
    Ambassador Satterfield. Certainly.
    Senator Hagel. But, General Jones, I know you've not had a 
chance to answer, but we'll come back.
    Thank you, Mr. Chairman.
    Senator Lugar. Thank you, Senator Hagel.
    Senator Feingold.
    Senator Feingold. Thank you, General Jones and Ambassador 
Satterfield, thank you for coming today.
    Ambassador, let me take a minute to thank the men and women 
who work at the State Department. At this and other hearings 
we, of course, appropriately and often recognize the sacrifices 
and valor of U.S. military personnel in Iraq, and rightly so. 
We should not forget the dedication and determination and 
courage of the members of the U.S. Foreign Service and civil 
servants, that they have displayed in Iraq.
    State Department personnel are accustomed to hardship 
assignments--which are now becoming almost the norm in the 
world--and these mostly, unarmed, individuals are working hard 
in Iraq under the most dangerous of circumstances. My 
colleagues and I appreciate the U.S. Foreign Service and their 
families, and the civil servants at the State Department for 
their unique efforts in Iraq, and around the world.
    Ambassador and General, let me move to some questions. 
Given the fact that the topline indicators in Iraq--things like 
the number of displaced persons, and attacks on civilians, and 
the strength of militias, just to name a few--are all 
increasing, it appears that our efforts in Iraq--whether 
political, military, or economic--have yet to yield significant 
results.
    Can you explain how, given this rising instability, the 
administration is adjusting or calibrating its efforts to 
continue reconstruction efforts in the future? More 
specifically, what are you going to do differently, in the 
President's, so-called, ``New Wave Forward'' that we've heard a 
lot--we've heard a lot about these kinds of things before, 
including the PRTs.
    Ambassador.
    Ambassador Satterfield. Certainly.
    Senator, first let me thank you for your kind remarks 
regarding the Foreign Service and our civilian colleagues, and 
I'd just like to note, five of those colleagues perished this 
week from BlackWater in a shoot-down that was attendant to 
their efforts to secure one of our reconstruction officer's 
safety as he moved from one of his official meetings back to 
the Embassy compound. And we remember them, as well as our 
other colleagues who have sacrificed so much in Iraq, both from 
the military and civilian services.
    With respect to your question--we have radically 
transformed--and I use the term radically in an advised 
fashion--over the course of the last 18 months. And we will 
continue that reformation of how and what we do with taxpayer 
moneys in Iraq.
    We took the IRRF program--that's the large $20 billion 
reconstruction program launched in 2003--we reexamined it from 
the bottom up, starting in the late summer of 2005. We relooked 
at where we could reallocate funds to achievable projects, to 
Iraqi-contracted projects, rather than multinational or design/
build contracts, to place greater responsibility and 
accountability into Iraqi hands and to ensure that we had--the 
U.S. Government--a much greater ability than the admittedly, 
very defective oversight mechanisms which existed during the 
earlier part of the IRRF program. And with the good work of Stu 
Bowen, and the SIGIR, we have been able to affect very 
significant changes.
    We're going to continue those because, Senator, we're 
getting out of the reconstruction business in Iraq. Over the 
course of 2007, the calendar year, at the latest, the beginning 
of 2008, the remaining unspent, but obligated, IRRF funds will 
burn through. They will be spent on projects.
    What we are asking money for is not more reconstruction. 
Iraqis need to take charge of reconstruction of their country; 
the international community needs to come up to the table on 
reconstruction, as they always have needed to do.
    We're going to be focused on programs like community 
support. Working with local leaders, local figures, local 
projects that are Iraqi-designed, that have Iraqi stakeholders, 
that are designed to improve the situation at a local level. 
Obviously, we're not ignoring Baghdad. There is a critical 
post-kinetic stabilization requirement in Baghdad as we move 
from Clear and Secure, to Build. And there will be a similar 
need in Anbar province. And we've asked for the resources in 
terms of people and in terms of money to do that.
    But it's not going to be big-ticket reconstruction anymore. 
It's going to be small projects, microenterprise lending, job 
generation. And the chairman asked a question about: What kind 
of jobs are we talking about here? Well, we're talking about, 
on the Iraqi and the United States side, in the immediate term, 
after you clear and secure a neighborhood, getting people back 
to work. That's a short-term undertaking. But short-term, 60/
90/128 job programs really can't be sustained over time, and 
they're not good to sustain over time. You need a longer term, 
employment generating program that brings meaningful jobs to 
people--not just picking up trash, not just rebuilding damaged 
roads.
    And that's where the Iraqis kick in. Their $10 billion 
needs to be applied, in large measure, to those longer term 
programs. We're working with them on the kinds of training, 
structures they will need to generate those kinds of jobs in 
Baghdad, Anbar, and other troubled areas.
    Senator Feingold. General.
    General Jones. Senator, first of all, I would endorse this 
change in direction that the Ambassador just outlined, in terms 
of the types of projects and the effect that they will have. 
Essential to that, I believe, are the PRTs, as well as the 
Minister of Capacity Development that is going on, because as 
we do this shift, what I believe is important is Iraqi 
capacity.
    The reconstruction teams, one of--if I had to say what I 
thought their most important contribution will be--is in 
helping the Iraqis to develop capacity of their government to 
do the things to, for instance, spend this $10 billion in a 
productive way that's going to make a real difference in the 
country for its people.
    So, I think the renewed emphasis by the Iraqis on using 
their money to do reconstruction will make a significant 
change, as well as our commitment to helping them develop the 
capacity to spend it well.
    Senator Feingold. But, you know, I hear the ideas of a 
different approach, but let me just ask you this: I've been 
given this horrible story, Ambassador, you just told about 
trying to secure a reconstruction site--does the administration 
have a contingency plan? If security and economic and military 
efforts don't work in this President's New Way Forward?
    Ambassador Satterfield. Senator, I'll answer that in two 
different parts.
    First, with respect to the specific funding that we will be 
requesting--the projects, the kinds of purposes we were 
applying those moneys to very much reflect the reality, the 
stark reality of the security situation on the ground. We're 
not engaging in projects we don't believe can be completed, and 
completed by Iraqis under the conditions that prevail today. 
We're trying to change those conditions, but we're not blue-
skying this. This is a very reality-based set of programs.
    The second answer to your question, which is really--if I 
can take it--what's the plan B? We're focused on making plan A 
a success, we believe it can succeed, and we're not going to 
discuss the alternatives, that is, the plan for a less than 
successful option while we are trying now to initiate the steps 
necessary to make our primary strategy succeed.
    Senator Feingold. Well, I hope you'll consider that, 
because I think one of the problems we have here is that we, 
obviously, hope things work out, and this has to do with the 
whole mission, with the whole military issue. But I think we do 
have to think at two different levels at the same time and have 
a contingency plan.
    Ambassador Satterfield. Senator, we appreciate----
    Senator Feingold. Because there's so many things that have 
been tried haven't worked. So I would urge you to do both, I 
know you have a lot on your plate.
    And just, again, on the PRTs you said that the State 
Department plans on doubling the number of PRTs, and sending an 
additional 300 new personnel to staff them.
    Given that these have worked pretty well in Afghanistan, 
why has it taken so long to get PRTs up and running in Iraq? I 
know there's security concerns, but why hasn't it been made 
more of a priority in the past?
    Ambassador Satterfield. Several issues here, Senator. The 
Baghdad, or I'm sorry, the Iraqi PRTs--going back to their 
launch in late summer of 2005/early fall 2005, are 
fundamentally different from the Afghan PRTs, both in their 
structure--the Afghan PRTs are almost entirely military--they 
are very small scale. The Baghdad and the non-Baghdad PRTs in 
Iraq are very large entities, they are located in areas which 
are often contested, they are active combat zones, and they are 
very much a civil military undertaking. They are a much more 
sophisticated and complex set of bodies.
    They have taken off. The 10 PRTs that exist today have been 
up and running for some time, they've got a lot of successes 
under their belts, and we're moving these next 10 PRTs, 
starting with the critical nine in Anbar and Baghdad very, very 
swiftly. This is a 60-to-90-day up and running timeframe.
    Senator Feingold. My time is up, but General, do you want 
to quickly respond to that?
    General Jones. Yes, Senator. I'd reinforce that they are 
two significantly different situations. In Afghanistan, a lot 
of what the PRTs are doing is trying to create those efforts in 
order to tie into what has been a very weak central government 
in that country.
    In Iraq, you have a fundamentally opposite problem, and 
that is overcentralization of the government, so now the PRTs 
need to help create capacity in provinces and in municipalities 
where before, they didn't have the authority or the resources 
to be able to function. So, there are significant differences 
between the two.
    Senator Feingold. Thanks to both of you.
    Thank you, Mr. Chairman.
    Senator Lugar. Thank you very much.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    First I want to associate myself with the praise that my 
colleague from Wisconsin has offered to the State Department 
folks for their service and their sacrifice--you've got some 
extraordinary people there. In Iraq I met with Ambassador Joe 
Saloom, who is overseeing reconstruction efforts--I don't know 
if there's anybody better in that area. And Bob Murphy, dealing 
with rule of law and Par Sido and others, and they're really 
extraordinary folks.
    Ambassador Satterfield. Thank you.
    Senator Coleman. And I hope they know how much we 
appreciate their service, and the challenge of their service.
    Let me talk a little bit about oil production. I think it 
was the chairman who noted in his opening comments that we may 
be looking at 200,000 barrels a day of what I call ``corruption 
leakage'' from the production output. When we were there, in 
the briefings we received, it was indicated that it's hard to 
distinguish between the common criminals, the terrorists, and 
the government folks. And I'm wondering if we have a New Way 
Forward in terms of dealing with the oil production issue, 
dealing with the security issue, dealing with the corruption 
issue. Is there a New Way Forward in protecting oil production, 
a New Way Forward in dealing with the corruption leakage?
    I believe that this ``corruption leakage'' from the oil 
production is clearly, at least in part funding some of the 
violence in Iraq. It is funding the extremist killings that are 
taking place. So this is a critical element, I think, of 
security. Not just the economy, but security. I would like to 
be updated as to what our plan is to do a better job of 
protecting oil production and limiting corruption associated 
with it.
    Ambassador Satterfield. Senator, oil production has 
steadily increased, and at a sustainable figure over the course 
of 2006. And, in fact, both production and export levels are up 
over all but the 2 weeks that immediately preceded the March 
invasion of Iraq. Over the average of production and exports 
from Iraq in 2002, and that's a very positive sign. Because oil 
remains the primary money earner for the Iraqi economy, and 
frankly, will for some time to come.
    Corruption robs Iraq of a considerable share of what should 
be national resources, national revenues. It is a critical 
problem; indeed, it is one of the fundamental problems 
affecting the economy, along with execution skills.
    There are two aspects to this corruption. First is the 
northern oil sector, second is the south. In the north, the 
sector is essentially shut down for export purposes, and has 
been for some years. The attacks on the pipelines which feed 
the export routes to Turkey have been so consistent, so 
professional, so well done, that our very good efforts, Iraqi 
good efforts to build new pipelines, to get old pipelines in 
operation, are thwarted at just the moment when we're ready to 
start moving product, or crude, through those lines.
    If you'd asked us 2 years ago: What's the major source of 
those attacks? We would have answered insurgency. They are 
ideological and insurgency-motivated. That's not our answer 
today, they're criminal. They may well involve insurgents, but 
profit's the motive here. It's redirecting product or crude to 
another place where it can be profited from.
    How do you get at this? I could tell you it's by fighting 
corruption in Iraq, but that's going to be a generational 
undertaking, and a very significant one.
    But there's a more immediate way to get at it, and that is 
by disincentivizing oil sector corruption, by raising the 
prices of fuel and product to a level that at least matches 
regional prices. When it pays a smuggler to move a small 
quantity of crude or refined product to Kuwait, to Iran, to 
Saudi Arabia, because it's at a cheaper price in Iraq, then 
they're going to smuggle it. When you raise market prices, then 
you not only increase revenues to the central government, you 
disincentivize smuggling.
    The Iraqi Government has moved over the course of the past 
year-plus, to double the price, the market price, of crude and 
products. They need to take additional steps now, we want to 
see it come up fully, at least to the regional market price, 
and that's a big step forward.
    Senator Coleman. I presume there's a political challenge to 
increasing the market price of oil in Iraq. You've got a 
populace in Iraq that had gotten used to subsidized oil, and 
now all of a sudden the price is increased. Oil was so much 
cheaper under Saddam's regime because it was given away. Do the 
Iraqis have the political will to meet this challenge?
    Ambassador Satterfield. Senator----
    Senator Coleman. To do what has to be done?
    Ambassador Satterfield. Yeah.
    Senator Coleman. To deal with this market price issue, so 
as to undercut some of the corruption?
    Ambassador Satterfield. They have, indeed, the picture is 
very positive on that.
    The Iraqis moved, as I said, over the course of the last 
year to meet and exceed the standard set by the IMF by the 
standby arrangement on fuel price increases. There's another 
increase which is due now, very shortly, which they will need 
to meet as well. But, yes, they have taken those steps.
    But you touch upon a very important issue, and it's a 
public issue. When people were used to free electricity, to 
free gasoline, they're willing to pay a black marketer 
outrageous prices to get it. But when the government comes in, 
they expect it to be free. That's a mentality, that's a 
mindset, not just in Iraq, but elsewhere in the region, that 
very much needs to change. And that's something where the 
government needs to take the lead.
    Senator Coleman. General Jones, is there more we can be 
doing on the military side to deal with the terrorism that is 
disrupting the oil production?
    General Jones. Senator, that's a very good question. And, 
in fact, over the course of the last year, there have been a 
lot of work that's been done in order to try to reduce the 
number of attacks, and in fact, it has happened. If you look at 
the attack trends, the attack trends are down significantly. 
And I'd be happy to take that for the record, and provide that 
information to the committee.
    Senator Coleman. I would appreciate that.
    Can we just turn, in the time left to electricity? It is a 
somewhat similar issue to that of oil production. I'm a former 
mayor, and it is these kind of basic needs such as electricity 
that keep people satisfied with their local government. If 
people have electricity, they feel better about a lot of 
things. On the electricity front, one of the things that I 
heard when I was in Iraq is that there is a profit issue there, 
too. Folks don't want electricity flowing from one region into 
the other. I also observed, for the first time, a kind of black 
market electricity operation. You fly over Baghdad at night, 
and you'll see lights on, even though the electricity is shut 
off for the city. And I understand that there are private 
generators. In my conversations in Iraq I was told that some of 
the folks on the private side cut the government lines, because 
they don't want the government to be providing electricity. How 
do you deal with that?
    Ambassador Satterfield. Senator, there are overlapping 
issues that affect electricity, particularly in Baghdad. The 
first is, the provinces are reluctant to shed electricity to 
the capitols--the opposite of the system Saddam built, where 
provinces could only send their power into Baghdad, and Baghdad 
had to shed back out again. That system was physically 
destroyed in 2003.
    The provinces now, Anbar province, enjoys perhaps the 
highest level of electricity anywhere in Iraq--they don't shed 
to Baghdad. Baghdad has suffered from--here it is an insurgent 
campaign to cut off both power-line supplies and fuel supplies 
for the plants in Baghdad as a metropolis, deliberately to deny 
the government the ability to be seen as providing essential 
services to that capitol.
    O&M has been badly mismanaged by Iraqis. We have put in, 
taxpayer money has put in, half--2,500 megawatts--of generation 
capacity in Iraq. That is very significant, but it's 
underutilized because of O&M issues, wrong fueling issues, and 
then because of the effect of the insurgency on supplies. And 
an entrepreneurial body has, indeed, arisen. Perhaps some 2,000 
megawatts a day of power in Baghdad are supplied by the black 
market, by private entrepreneurs.
    It is a significant problem, how do you get to that? You 
get to it by a government that is committed rationally to using 
the generation facilities it has, to applying the right 
resources to protecting those facilities, and to putting those 
involved in the black market out of business, because the 
government shows that it can deliver a product more cheaply.
    Senator Coleman. And again, I think my time is up.
    But General, the question I had, for you to think about, is 
whether there is a military piece to the issues we've described 
here? Do we need a new way to deal with things like oil 
production and electricity production? These are things where 
the indicators aren't where we'd like them to be and if they 
were raised, I think the situation would be much better.
    General Jones. Senator, I'll just take that for the record, 
and give you a written response, if that's OK.
    Senator Coleman. Thank you, General.
    [The information previously referred to follows:]

    The U.S. military is engaged in training and equipping Iraqi 
Security Forces (ISF) responsible for securing critical infrastructure. 
Coalition forces work side by side with the ISF along critical 
infrastructure nodes. Part of this effort includes developing 17 
Strategic Infrastructure Battalions; units which did not exist prior to 
2005. Infrastructure hardening projects have been accomplished to 
increase physical security measures along infrastructure corridors. 
Additional hardening measures are planned or underway. Attacks on 
infrastructure were down to 1.4 attacks per week from 6.7 per week in 
2004. However, attacks on infrastructure have continued to result in 
disruption of services. In addition, weak ministerial oversight, 
ineffectual rapid-repair teams, and criminal harvesting of 
infrastructure assets (e.g., copper from power lines) have proved to be 
major impediments to improving the supply of essential services.
    Coalition forces are actively supporting Embassy Baghdad's Anti-
Corruption Strategy for Iraq, which includes initiatives in the energy 
sector. Working closely with the Government of Iraq and Iraqi Security 
Forces, MNF-I advisors are assisting the Iraqi Army with their security 
operations supporting ground transportation of petroleum products to 
facilitate careful accounting of the quantities of product at both 
departure and arrival points. Most corruption in the Ministry of Oil 
and Ministry of Electricity is not observable by military advisors of 
security forces, and is therefore in the domain of Embassy Ministerial 
Advisory Teams. For greater detail on Iraq's efforts toward market 
reform, financial transparency, and public integrity in their energy 
sector, we recommend you contact the Department of State.
    Coalition forces are determined to work closely with the ISF, the 
Ministries of Electricity and Oil, and U.S. Embassy Baghdad to resolve 
issues related to the security of Iraq's critical infrastructure.

    Senator Coleman. Thank you, Mr. Chairman.
    The Chairman [presiding]. Thank you very much. The Senator 
from Georgia.
    Senator Corker, have you already gone? I didn't see you 
there. I apologize.
    Senator Corker. No; no problem.
    Thank you, gentlemen, both for being here, I would like to 
say that General Jones is a constituent of mine. He was 
educated in Tennessee and, more importantly, met his wife in 
Tennessee, and my understanding is he votes in Tennessee. Don't 
know how he votes, but thank you for your--thank you for being 
here.
    Listen, I--we're looking at the economic efforts that are 
underway. And Ambassador Carney is in this new position, I 
guess, to coordinate those efforts.
    And yet there's been a lot of discussion about the fact 
that security depends a great deal on Iraqis having jobs that 
take them away from being part of sectarian violence, take them 
apart from criminality. And yet, it does seem that there's a 
lot of impatience, if you will. That, in essence, people are 
focusing on this effort as something that needs to take place 
in a very short amount of time as far as showing results.
    And I look at our own country, you look at what happened in 
Louisiana and Mississippi, and here we are a sophisticated 
society with everything working and bureaucrats to deal with 
these kind of things that certainly do a good job at what they 
do, and yet, we have trouble ourselves doing that. We have a 
very low-functioning government in Iraq today.
    Talk to us about the realities, if you will, of those 
moneys actually doing the kind of good that people are placing 
a lot of faith in happening in a very short amount of time?
    Ambassador Satterfield. Senator, we're going to be asking 
the administration, Congress and the American people through 
the Congress to approve an extraordinary thing. To approve a 
significant amount of assistance to a country that has 
significant resources, financial resources of its own. We do 
this very rarely, if at all.
    We're justifying this request in the case of Iraq for a 
reason directly related to the question you posed. Iraq does 
have fiscal resources; it has money in the bank, some $12.5 
billion from unspent prior budget years, and also a certain 
amount from windfall profits from unexpected oil prices. They 
lack the resources, the mechanisms to move that money within 
their own budget. On an urgent basis, they lack it, frankly, to 
move it on even a year budget-cycle basis. And we're working 
with them on developing, over the course of this year, the 
mechanisms to do that.
    But, when we look at Clear, Secure, Build, at the 
employment generation part of it, at the nonemployment 
generation, but financial part of that picture--money has to be 
moved quickly. We are the body to do that, in this immediate 
time ahead.
    Now, the Iraqis have to be in the fight as well, both on 
developing budget execution mechanisms, and also moving moneys 
of their own as rapidly as possible for the ``build'' part of 
things. But we have a critical obligation here, to make our 
military strategy--our joint military strategy--succeed over 
the long run. And that requires an economic plan as well.
    So, we do believe we have the ability to move these 
resources out of the box, onto the street, rapidly in the days 
and weeks that follow the ``secure'' part of Clear, Secure, and 
Build. We need the support of Congress, though, both in 
approving those moneys, and moving them out expeditiously so 
that we and our military colleagues have them available at the 
right time in Baghdad and in Anbar.
    Senator Corker. And so you're talking about timeframes 
where 30, 60 days after approval, the moneys will be on the 
streets, in people's hands.
    Ambassador Satterfield. We are talking, ideally, Senator, 
of a situation in which if--on a given day, a neighborhood has 
been cleared and secured, we--the U.S. Government, and to the 
maximum extent, the Iraqi Government--are able to move moneys 
to begin employing people, taking them out of their houses, 
putting them onto the streets, in a positive sense, working, 
and then to build longer term, sustainable projects to give a 
stake in the economy, those areas, those neighborhoods.
    General Jones. Senator, if I could, just as an example. We 
had a significant fight in Sadr City in the August/September 
timeframe of 2004. About the southwest third of that city, we 
had very good control of, and even during that fighting, we 
were continuing to employ and to do projects in that part.
    What we saw was a difference in the population, in terms of 
their response to the Mahdi Militia--in the April 2004 
timeframe, in those same areas, in those same fights, when we 
would have an engagement, generally a militiaman would run back 
through a house, go into an alley and we would lose them.
    After we had worked those construction projects, worked 
with those people, developed confidence, when they went to 
houses, they found doors locked. So, it makes--you can, as 
close as you can to where military operations are being 
conducted, have integrated the economic part of this; it is a 
combat multiplier from a military perspective.
    Senator Corker. I know that this is not our subject today, 
but I know that based on your backgrounds you both know much 
about this.
    A lot has been said about the fact that the Iraqi Army is 
way underequipped. We had General McCaffrey in the other day 
and talked about the fact that we're spending $8.4 billion a 
month, and yet have been--have decided not to actually equip 
the military side of the Iraqi operations the way that they 
need to be equipped. He suggested a number of $5 billion 
necessary to actually cause them to have a helicopter, the 
tanks, the things they need to actually be an army.
    I've had other comments made offhanded that actually are 
stunning, I referred to those yesterday. I'd like for you all 
to just, if you will, talk a little bit about what really is 
happening there. Whether there are, in fact, serious 
deficiencies as it relates to having an army, in Iraq, by the 
Iraqi people that really has people, but not the equipment 
resources to actually defend themselves, secure themselves, do 
the things that we're depending upon them to do.
    General Jones. Yes, Senator, I can address that.
    In terms of the equipment that the Iraqi forces have, the 
thinking that they are somehow out-gunned or somehow out-
equipped by the people that they fight, I believe, is 
erroneous. The, typically--the kinds of insurgents that the 
Iraqi Army has been fighting has small arms, machine guns, on 
occasion you see body armor or something, but rarely. The Iraqi 
Armed Forces are not nearly as well equipped as United States 
forces. There are no forces I know of that are as well equipped 
as U.S. forces. But, in addition to those kinds of things, they 
have body armor--we started to design this force as a 
counterinsurgency force, which is relatively light infantry 
with some mechanized capability.
    We have adjusted over time, to give them increasing 
capabilities for the counterinsurgency force that we are 
building, based on the enemy's increase in attacks, increase in 
capabilities. We are fielding up-armored systems--they do have 
tanks, they do have armored personnel-carrier kinds of 
vehicles--not in the quantities it takes to have a defense 
force, where they can defend their country from outside 
aggression. That plan is in the works, and will be a future 
fielding plan that will have to happen in order to transition 
them once they have succeeded against the insurgency.
    I will say, however, that in terms of equipment, the Iraqis 
have, in fact, stepped up to the plate. I believe they've 
committed about $700 million--and I'll get the numbers for the 
record, if it's OK, Senator, but I think it's about $700 
million of their own funds to buy additional equipment. They 
also have, I believe, $1.5 billion in a foreign military sales 
account in order to buy additional equipment that they think 
will help them meet needs.
    [The information submitted by DOD follow:]

    Answer. The GoI has committed nearly $1.2B of CY06 Security Funding 
against Foreign Military Sales (FMS) cases for equipment requirements. 
There are additional cases for infrastructure and sustainment 
requirements which total approximately $500M. Furthermore, the GoI is 
on the verge of committing approximately up to $1B of its currently 
available CY07 Security Funding against additional equipment, 
infrastructure, and sustainment FMS cases.

    So, I think that we have had to adapt because the situation 
has changed, I think that they are absorbing equipment at the 
ability that they have, and we have not fielded some types of 
systems like aircraft, and other kinds of things that are much 
more sophisticated, because we've given priority to the 
insurgency fight that they're in, where those kinds of assets 
aren't quite as important.
    Senator Corker. I think my time is up, but I want to thank 
you both for your testimony, for your service, and what you're 
doing on behalf of our country, thank you.
    General Jones. Thank you, Senator.
    The Chairman. Thank you, Senator.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    And I want to echo what Senator Feingold, Senator Colman, 
and others have said about the State Department. In my 
experiences around the world where I have encountered State 
Department people, they're the unsung heroes of America around 
the world, and we appreciate very much what you do.
    In your printed testimony, Ambassador Satterfield, you 
said, ``Serious progress has been made on the vital national 
hydrocarbon law,'' and then in the answer to Senator Coleman 
you said, I believe you said, and I want to make sure I heard 
this right, or it gets corrected if I heard it wrong, you 
virtually said, at this time we can't secure the oil pipeline, 
because of the criminal element more than the insurgents, is 
that correct?
    Ambassador Satterfield. With respect to the northern oil 
production----
    Senator Isakson. Right.
    Ambassador Satterfield [continuing]. At the northern oil 
export facilities, it has been an exceedingly difficult task of 
securing that in a sustained fashion over the last several 
years; yes, Senator.
    Senator Isakson. And you then said that the best hope to 
secure it is to increase the price, so there's not profit to 
attract the criminal element. It would seem like, to me, that 
it's equally important that this hydrocarbon deal become 
completed. The Middle East--and I said this in one of the other 
testimonies--suffers, and Iraq principally suffers, from what's 
known as the Dutch Disease, where the governments have run off 
the profit of oil, the countries have not developed, because 
they have a rich, natural resource. People aren't used to 
entrepreneurship, running businesses or anything else, and one 
of the key things to stability in that country is going to be 
for the people themselves to get a piece of the action, which 
is petroleum.
    So, my first question is how: How serious is the progress 
and what are the obstacles that remain for them to complete the 
deal?
    Ambassador Satterfield. Senator, the progress is critical, 
just as you have outlined. It's critical to developing a free 
market economy in this critical sector. There are many 
investors outside Iraq who want to come in, if they see a 
stable, economic framework--business framework--for their 
investments.
    The law that is under consideration is a very progressive 
one. It is part of a set of laws that will reform the 
hydrocarbon sector in Iraq, but it's the beginning, it's the 
frame. And it's a framework that contemplates several very 
important principles.
    First, that oil is a national resource. It should be 
maximized for the benefit of all Iraqis. That the central 
government is responsible in the first instance for receiving 
revenues, and then distributing revenues back out, because that 
avoids the chaos of revenues being managed at a local level 
entirely.
    But, it has the important corollary principle, that the 
federal government, the central oil authority will redistribute 
revenues to local authorities, and that local authorities will 
have the initial responsibility for soliciting investment 
opportunities, for working on a national model of working 
contracts, which will then be submitted for some form of 
national consideration.
    And on that last point, Senator, lies the essential 
controversy, or dispute that has held up moving this law 
forward this law. What will be the nature of the relationship 
between a national oil authority, and local oil authorities 
with respect to either disapproval, or approval--and there's a 
difference between the two--of contracts that are set. We 
believe the road is open to a resolution of this issue within 
the coming days, if not weeks.
    Senator Isakson. Well, I think this is probably the most 
critical thing that needs to be accomplished, personally.
    I'm going to send you a paper that a constituent of mine, 
who is a distinguished citizen of Georgia and has been in the 
bond business for the better part of 30 years, has written. 
It's an intriguing suggestion, dealing with the deployment of 
capital, and the difficulty you referenced the Iraqis have.
    If we could get an oil deal, and we had a reasonably secure 
situation in Iraq, you could actually bond the Iraqi oil 
production to front-end the flow of money in the world 
marketplace and get it deployed almost immediately, rather than 
on a cash-flow basis. His name is John Mobley, and I'm going to 
send you that information, because it is very intriguing. I 
know Senator Clinton and Senator Murkowski and some others have 
talked about some way to get that benefit to the people; Mr. 
Mobley has an outstanding proposal, and I would like for you 
to, at least, get it in the right hands and see if it has some 
merit.
    Mr. Chairman, if I could ask you a question while I've got 
my time----
    The Chairman. Take what time you need, there are not many 
people here.
    Senator Isakson. Have we scheduled, yet, a hearing on John 
Negroponte?
    The Chairman. Yes. We have scheduled it. Tuesday, at 9:30.
    Senator Isakson. I want to commend the Chair--although the 
mind can only absorb what the seat can endure--I've enjoyed all 
of our hearings, and being here, listening to everything that 
we've heard. But in particular, I appreciate that, because I 
think John Negroponte comes to the State Department at a 
critical time. When you talk about the accountability measures, 
you talk about the civilian and the military efforts that are 
going on, you talk about the difficulty the centralization of 
the Iraqi Government as it is right now, and makes it somewhat 
stodgy and removed from the people, we have in Negroponte 
somebody who's been there and done that. And I had the 
privilege of being in Iraq when he was there, and I think he 
will bring a wealth of knowledge to State as you're involved 
with the Department of Defense and everyone else in this plan.
    Last, I guess, my final point is: I can't stress how 
important I think the accountability factor of this New Way 
Forward is. For whatever the reasons that we haven't had good 
accountability on the part of the Iraqis, I have said in my 
statements that the New Way Forward is also to me, the last way 
forward, or the last best way forward. And, its success is 
going to be dependent on the Iraqis and them delivering. And, I 
want to commend you on what you're doing, and commend the 
general on what the Joint Chiefs are doing to see to it there's 
meaningful accountability on the Iraqis, because if they drop 
the ball on their part, then there's no way we can have the 
type of success that we need to have to ultimately have the 
reconciliation in that country. And that's not a question, 
that's just a comment.
    Ambassador Satterfield. We fully agree, sir.
    Senator Isakson. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I just have one question, Mr. Ambassador. Last July when we 
met in Baghdad, you indicated to me you'd provide the committee 
with a plan to build the capacity of the Iraqi Ministries. And 
then I asked the Ambassador that question later, and before 
these hearings, he said he would provide such a plan as well. 
And, I haven't received it--is it because there isn't one, or 
there is a plan and you don't want to share it with us? Or 
there is a plan and you thought you shared it with us?
    And I will say that, from an unclassified report, I don't 
know the exact date, but during early 2005, you attempted to 
take all of the Ministries of Iraq, from Finance through 
Agriculture--Finance, Oil, Electricity, Municipalities, Water 
Resources, Justice, Education, Health, Planning and 
Development, Agriculture--and you gave them a rating, based on 
a color chart, of whether or not they had performed--from red, 
essentially no capacity to perform the function, to green, 
indicating developed capacity to perform ministerial functions. 
And you broke it down by leadership, strategy and planning, 
partnership, resources, program, budget, et cetera.
    Can you tell us, do you have a plan to build capacity in 
the Iraqi Ministries that have so far shown very little 
capacity to function on their own?
    Ambassador Satterfield. Senator, we certainly do, and we 
certainly have, and I will follow up on----
    The Chairman. Can you follow up within the next 3 days?
    Ambassador Satterfield [continuing]. Standing request which 
I thought had been answered.
    The Chairman. No, within the next 3 days? If you have a 
plan, you ought to be able to get it to me, literally, you 
ought to be able to e-mail it to me in the next 2 hours. We 
waited now for 6 months, and I would truly appreciate it.
    You talk about these new plans, though I've yet to find out 
what you have underway already. Quite frankly, it undermines my 
confidence in what you all are doing.
    [The information supplied by the State Department follows:]

                                  U.S. Department of State,
                                  Washington, DC, January 30, 2007.
Hon. Joseph R. Biden, Jr.,
Chairman, Committee on Foreign Relations,
U.S. Senate, Washington, DC.
    Dear Mr. Chairman: In response to your question to Ambassador David 
Satterfield during his testimony before the Senate Foreign Relations 
Committee on January 25, we would like to provide you with the 
following information.
    You asked for information about our Ministerial Capacity Strategy 
and related progress chart (from July 2006 and a current version). You 
also asked for information on metrics or indicators used to measure 
progress. The interagency Embassy team in Baghdad has developed a 
robust Ministerial Capacity development program, which began with a 
baseline assessment of the capacity of ten key Iraqi Ministries in nine 
areas, such as leadership, strategy and budgeting. Ambassador 
Satterfield's staff has contacted your staff to arrange a more detailed 
briefing on the details of these programs.
    Continuing these efforts to build Iraqi ministerial capacity to 
perform core functions, such as design and execution of budgets, will 
be a key component of ``The New Way Forward'' announced by the 
President.
    I hope this information is useful for you.
            Sincerely,
                                        Jeffrey T. Bergner,
                          Assistant Secretary, Legislative Affairs.

    The Chairman. The second half of that question is: Is there 
a relationship between, I ask you both this question, between 
the potential efficacy of this new plan with regard to PRTs and 
their backup capacity to go in and build, et cetera; and the 
capacity of the Iraqi Ministries? In other words, we're going 
in there, and you're bringing in folks who are going to try to 
get potable water to every part of the city, and other places; 
you're going to try to get their electricity and educational 
systems back up and running. But is our doing this going to 
improve the capacity of the Iraqis to be able to eventually run 
their own government?
    Ambassador Satterfield. Absolutely, Senator.
    The Chairman. What is it?
    Ambassador Satterfield. There's a very material 
relationship, and it falls into two categories. One encompasses 
all of the Iraqi Ministries, and its budget execution--it's 
their ability to move their own moneys out, onto the street, 
into the field, in Baghdad and beyond. Which is very, very 
defective, and deficient and we are focusing, perhaps, the 
largest share of our ministerial capacity efforts, right now, 
on budget execution governmentwide, but focused on the critical 
Ministries. Finance, above all, Planning, Oil, Electricity. 
That's the first step.
    The Chairman. Beyond moving the moneys out, what about the 
operational control of whatever it is you're moving them out 
for? Increasing the effectiveness of the electric grid, getting 
more oil pumped through the pipeline, so that the central 
government has resources, et cetera. What is the relationship? 
Do you have confidence that you have a partner in the Iraqi 
Ministries that you can essentially hand this off to?
    I mean, I'll give you one example. Your former commanding 
officer, General Chiarelli, used a specific example, and I'll 
not belabor the point, it was along the lines of what Senator 
Webb was talking about. He said, ``We build a first class,'' he 
called it, ``the biggest water fountain in the Middle East.'' 
He talked about how we had successfully built within Baghdad a 
water facility that could provide potable water to all of the 
city. But, we decided--if I understood him correctly--that it 
was up to the Iraqis to connect--what he referred to as the 
fountain--to Iraqi homes. And that meant laying pipe. That 
meant laying the facility to get the water from the facility to 
the spickets of Iraqi homes. And he talked about the 
ineffectiveness of the Iraqi Ministry to get that done.
    So, these are very practical considerations. And tell me, I 
would like for the record, if you're willing, to update us on 
the present status of these Ministries? Because to go back to 
what Senator Webb and also, I think, Senator Lugar talked 
about--we're not even rebuilding, sufficiently, New Orleans. 
We're not rebuilding, we're surging into Baghdad, and we're 
surging police out of American cities as the crime rate rises. 
We're eliminating the crime bill, we're eliminating funding for 
local law enforcement, or drastically cutting it by $2 billion 
a year.
    And so, we want to help--I speak for myself--I want to 
help. But it's kind of hard to go back and explain to my 
constituency why I am conceding to the President's request for 
another, total this calendar year, as it will turn out, year 
and a half, probably a billion and three-quarters dollars. You 
know, your $588 million supplemental, your billion, two or 
three, whatever. It's a big number. It's a big number, and that 
billion dollars would go a long way to providing housing in the 
ninth ward. It would go a long way to reinstate the cops in the 
34 largest cities in America. It would go a long way to provide 
interoperability to cities that have no interoperability if 
another hurricane or disaster strikes.
    So, we have to get down to the weeds. Not now, I'm not 
asking for an answer, unless you want to provide one, I'd like 
one in writing, where you're able to demonstrate to us that 
we're going to go in, risk American lives to clear, we're going 
to risk American lives, as stated, to hold, and then we're 
going to build. Once we build, we've got to turn it over to 
somebody. And is there any reason for us to believe this time 
out that there no longer exists, what I believe to be, an 
almost totally ineffectual ministerial bureaucracy in almost 
all of the Ministries?
    Now, I may be dated here, maybe things have really 
progressed in the last year or 6 months. But we need some hard 
data. We need your best assessment to pile onto what my friend 
from Virginia is saying, we need some metrics. We want to know 
what it is you are basing it on. Because I do agree, and I'll 
conclude with this, there is a correlation between the standard 
of living for Iraqis increasing, and the likelihood of them 
wanting to shoot at our men and women in uniform. I do think 
there's a correlation.
    And thus far--and I don't want to go back, I said these 
hearings would not be about the past, but about the future--I 
am very skeptical of taking very limited resources and 
assigning them to a worthy goal without much, much, much harder 
data. Much tighter reasoning, and much closer oversight on a 
monthly basis as to what's going on. And I think you will find 
that it's not just Senator Webb who is knowledgeable about 
these things due to his past duties at the Pentagon, but I 
think you're going to find a lot of us are equally 
knowledgeable, on both sides of the aisle.
    Senator Webb. Mr. Chairman, if I may?
    The Chairman. Please.
    Senator Webb. I--Mr. Ambassador, I want to clarify the 
concern that was behind the questions that I asked, and the 
exchange that we had. I have a great deal of respect for your 
career of focusing on this region and the positions that you've 
held, and at the same time, I'm very mindful that you're here 
as a member of the administration. And these kinds of concerns 
are not simply whether the programs are working inside Iraq--
although there is a great deal of concern. And the questions 
that I asked about where these contracts have gone, you know, 
to American companies, and et cetera, I think they are relevant 
to the way that we're trying to examine fairness, misuse of 
funds, those sorts of things.
    And it's not only how this impacts the region. It's how 
we're trying to look at fairness in terms of situations like 
the aftermath of Katrina, and the obligations that we have. And 
so, one of the questions, really, honestly at this point, is to 
what extent is the United States actually responsible for the 
full reconstruction of Iraq--this is not a question for you, 
it's just a clarification of what I was saying before--and to 
what extent the Iraqis themselves are ultimately going to have 
to be responsible. They have a long history of entrepreneurial 
activities, notwithstanding some of the more recent events 
under Saddam Hussein, so you know, for me looking at this and 
coming here, and having heard again, and again, and again, on 
the campaign trail and through the course of this war, about 
the misuse of money, and the favoritism that went into 
contracts, and a lack of performance, and these sorts of 
things.
    I believe that a lot of arguments that are fueled by 
emotion are best resolved by going to the facts. And that's the 
motivation behind my questions, and I'm looking forward to 
being able to sit down, again, as I said, with you, or someone 
who is a representative of your office, and also with people 
from the Department of Defense and let's start breaking down 
the facts, and reporting to the American people.
    Ambassador Satterfield. Mr. Chairman, Senator, we'll 
certainly respond, Mr. Chairman, to the various questions that 
you posed.
    But, the last point that you raised--confidence in 
execution because that's really, if I take it, what you're 
asking.
    The Chairman. At the end of the day.
    Ambassador Satterfield. In the ability of Iraqis and the 
United States to execute the critical economic steps necessary 
to build a success. We would be happy to brief you on the 
considerations that have gone into our planning, how we are 
working with the Iraqi Government on this score because it is 
the fundamental challenge, and it's the fundamental element in 
success on this part.
    Which leads me, Senator Webb, to your question--are we 
responsible, the United States, the American people, for the 
reconstruction of Iraq? Absolutely not.
    In 2003, the World Bank estimated the reconstruction figure 
for Iraq to be something around $100 billion. With all of the 
generosity of the American people and the U.S. Congress, the 
$20 billion that was allocated--and those portions of it that 
were actually applied to reconstruction--were only intended to, 
if you will, jumpstart, other than security, efforts in oil, 
electricity and certain other sectors. There was every 
expectation that the Iraqis themselves, the international 
community, the region, would come to the table and play their 
part.
    And I can assure you, Senator, there is more than an 
expectation right now that Iraqis are, and must be, responsible 
for the reconstruction of their country. They need help from 
outside, they should get that help, but they are going to have 
to take the lead on this. This is not a U.S. challenge.
    The Chairman. The jumpstart--I'm sorry, General, please.
    General Jones. I'm sorry.
    The Chairman. No----
    General Jones. Mr. Chairman, the Department of Defense is 
responsible for two Ministries--Ministry of Interior and 
Ministry of Defense--and we will provide you those assessments 
promptly.
    [The information provided on the slides submitted by 
General Jones follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. I appreciate that because I know that it's 
beyond. I appreciate, Mr. Secretary, your willingness to sit 
down and further discuss with us these issues. But you all have 
produced, in making this assessment, specific data. We'd like 
to have the data. Not just the explanation, generically, of why 
you've arrived at the conclusions you have reached.
    And, in terms of the international community, I was voting 
when Senator Hagel was questioning, but my understanding from 
my staff was that there was some discussion about whether this 
is a wholly owned American subsidiary here. Whether or not we 
really are getting cooperation from a consortia of other 
countries.
    I noticed we are rightfully dropping the charade of 
speaking of Coalition Forces--the Brits are on their way out, 
in large part. They only have 7,000 folks there, and you add up 
every other force from every other country in the region and 
you don't get as many people as are in the Washington, DC, 
police force.
    So, I guess what I'm trying to say is, it goes down a 
little bit to truth in advertising here. For me to go back to 
my home constituents and justify voting, again, for 
``reconstruction'' moneys, I'd better have a much, much tighter 
understanding of the process and be able to demonstrate with 
specificity to my constituents why I think this may work.
    With regard to the international community--my observation, 
and it may not be complete--my observation is that there is an 
awful lot of people sitting on their hands. It seems to me 
there would be an overwhelming interest on the part of the 
Saudis who are awash in oil money to commit moneys to the 
reconstruction of Iraq. The Saudis who have more money than the 
Lord Almighty these days, and for them to commit $10, $20, $30 
billion would not take up a month's profit. Whether it's 
literally a month's profit or not, I don't know--but this is 
not a heavy lift for them financially. I guess it is a heavy 
lift in terms of diplomacy and politics, and the question is: 
How are we going to feel if, in fact, there is continued 
financial assistance and outreach from the existing government 
of Iran? Iran has a fair amount of money right now because of 
oil.
    And so, I hope at some point we'll be able to discuss that. 
So, I'm not asking you to respond, but I'd invite your 
response, if you could tell us about, or if you'd rather do it 
for the record--about what are the hard donor commitments, 
other than from the United States Government, for the 
reconstruction of Iraq.
    And I'll conclude by saying, the World Bank has concluded 
that we're talking about $100 billion, thereabouts. Well, if it 
takes $100 billion to rebuild it, and we spend $10 billion to 
rebuild it, we're not likely to succeed. And so, if we're 
pouring our $10 billion into an empty bucket here, that there's 
no prospect of Iraq and the international community keeping the 
pace to get to $60 billion, $100 billion, or $120 billion. It 
makes you sort of reassess the investment.
    So, that's why I ask the question, but if you want to 
respond to the participation of the international community, 
feel free. My time is up and I will close the hearing after 
this, unless my friend has more questions.
    Ambassador Satterfield. Mr. Chairman, we'll respond on the 
hard commitments and the delivered commitments.
    We've got some significant partners--the Japanese, the 
Canadians, the Italians, the European Union--have all moved 
forward with significant amounts of economic assistance.
    The Chairman. Can you give me a sense, have they moved 
forward----
    Ambassador Satterfield. And we can give you the specifics 
on that, Mr. Chairman.
    The Chairman. When you say ``significant amounts'' could 
you be more specific, because without specifying we'll leave 
this public hearing believing that the international community 
is contributing ``significant amounts'' of economic assistance 
to the reconstruction effort. When you say significant amounts, 
I suspect the average Senator watching this in their office, or 
their staff, or the public watching it, thinks that means 
``significant,'' like us. That means, you know, hundreds of 
millions, billions of dollars, combined. Is that what we're 
talking about?
    Ambassador Satterfield. In the aggregate, it is in the 
hundreds of millions.
    The Chairman. Hundred of millions?
    Ambassador Satterfield. Hundreds of millions.
    The Chairman. Yeah?
    Ambassador Satterfield. But, there are very significant 
donor pledges which have not been fulfilled, that date back to 
the Madrid Conference, and as significantly, there are tens of 
billions of debt forgiveness from the Gulf States, over $30 
billion from Saudi Arabia alone.
    The Chairman. How much from us?
    Ambassador Satterfield. Which we're pledged. We have 
forgiven all of Iraq's debt.
    The Chairman. But how much did that add up to?
    Ambassador Satterfield. It was around $4 billion, I 
believe, Senator. I will get you the precise number.
    But, those commitments remain to be fulfilled.
    The Chairman. OK, I thank you.
    Senator Webb, do you have any further questions?
    Senator Webb. No, thank you, Mr. Chairman. I appreciate the 
testimony of the witnesses.
    The Chairman. And I thank you and look forward to your 
written comments, as well as to the reports we've requested. I 
thank you for your cooperation, and--to state the obvious--we 
hope it works. We hope it works.
    We are recessed. Adjourned.
    [Whereupon, at 12:06 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   ``Families of the Fallen for Change'' Letter Submitted by Senator 
                          Joseph R. Biden, Jr.

                         Families of the Fallen for Change,
                                   Cleveland, OH, January 15, 2007.
Senator Joseph R. Biden, Jr.,
Chairman and Members, Senate Foreign Relations Committee,
U.S. Senate, Washington, DC.
    Mr. Chairman and Committee Members: Recognizing error, cutting 
losses, altering course, is not something governments are good at. 
Changing course requires considerable self-confidence on the part of 
leaders, something we are hoping you have today.
    We are the parents of Marine Lance Corporal Edward ``Augie'' 
Schroeder who was killed August 3, 2005, near Haditha, Iraq, while 
deployed with the Third Battalion, 25th Marines, a Reserve unit based 
in Brook Park, Ohio.
    In November 2005 we founded Families of the Fallen for Change, a 
non-profit organization that seeks to bring about change in overall 
Iraq policy and strategy. Today, Families of the Fallen for Change has 
more than 1,500 members nationwide, half of whom are veterans.
    Though we are not novices at foreign relations (one doctorate in 
international relations and several years of living and working 
abroad), we remain amateurs in Middle East affairs in comparison to 
those who have testified and are scheduled to testify before the 
committee.
    Thus we do not speak from the head, so to speak, but from the 
heart, and our hearts are broken. Though family members of American 
service men and women who have been killed in Iraq may differ on the 
validity of American efforts there, I am certain that their hearts, 
too, are broken.
    We grieve as each additional American KIA is announced, for we feel 
the pain of each new broken heart added to the list.
    Further, we understand that the families and friends of the 140,000 
or so Americans remaining in Iraq--and those of others about to be 
deployed--are living each day with the anxiety that comes from fear 
their loved one may be killed or grievously injured.
    In our last conversation with Augie, he said, ``Pop, the closer we 
get to leaving, it's clear this is less and less worth the cost.''
    He described his unit's repeated efforts to clear the same cities 
and towns of insurgents, only to leave and let the insurgents come 
back. Augie said: ``We don't have enough troops to do this. We can't 
hold these places.''
    He went on: ``Two guys were killed walking past a wall. The wall 
just blew up. We all walked past that wall everyday. It could have been 
any one of us. It's just a crap shoot.''
    We heard the fear in his voice. We've seen a haunted expression in 
some of the last photos taken of him. We felt the helplessness of being 
unable to do anything to take care of our only son.
    Augie's KIA number was 1,824 if we go alphabetically (he died with 
13 comrades in a single explosion). Today, that number is 3,020. In 
Augie's estimation, the efforts in Iraq were not worth the cost nearly 
1,200 deaths ago. In his estimation, survival for American marines and 
soldiers in Iraq was ``just a crap shoot.'' To be sure, this is the 
case in any war, and we believe that at times war is necessary. But in 
the case of Iraq, it was not.
    It is obvious from the reaction of many committee members and 
others in Congess that you understand the human costs of this war. For 
the sake of urgency, however, there is a need to consider these costs 
in terms of what lies ahead. At the current daily Killed-in-Action rate 
of 2.34 since the war started (according to http://icasualties.org/oif/
):

  <bullet> Number 4,000 will be recorded on or about March 7, 2008. 
        That is an additional 982 American lives as of today.
  <bullet> The death toll on January 1, 2008 (first day of troop 
        withdrawal recommended by the Iraq Study Group--first quarter 
        next year), will be 3,846. That is an additional 828 American 
        lives as of today.
  <bullet> The death toll on January 20, 2009 (Inauguration Day), is 
        4,747. That is an additional 1,729 American lives as of today.

    These estimates do not consider that attacks on American troops 
could escalate, which would push the daily KIA rate higher. It also 
does not consider the hundreds of thousands of Iraqi civilians who have 
been killed, wounded, or displaced.
    Nonetheless, additional American lives will be lost after a 
majority of the American public, the American military, and Members of 
Congress have recognized that this war cannot be won militarily and 
that a political solution must be sought as soon as possible.
    These lives are worth much more than Secretary of State Rice's 
concern about negotiating a political solution from a ``supplicant'' 
position.
    Mr. Chairman and members of the committee, it is long past time to 
withdraw our troops. It is a moral imperative that we do so.
    In the last 18 months, we have given a lot of thought to one 
question: Why did our son die?
    We don't mean the manner of his death. We don't mean the reasons 
why he joined the Marines. And we don't mean the specifics of why and 
how we got involved in Iraq in the first place.
    We're trying to get at the larger Gestalt, the historical, perhaps 
even the philosophical reasons that prompted his death.
    Augie is part of that long line of ghosts whose lives were taken by 
the folly of governments.
    The lessons of history are seldom heeded. Samuel Taylor Coleridge 
said that ``passion and party blind our eyes, and the light which 
experience gives us is a lantern on the stern, which shines only on the 
waves behind us.''
    Barbara Tuchman, in her book ``The March of Folly: From Troy to 
Vietnam.'' (1984, Michael Joseph, Ltd.) wondered why governments pursue 
policies that are clearly not in the best interests of their nation or 
the people.
    She identifies three stages of folly.
    First is a standstill, when principles and boundaries governing a 
political problem are fixed.
    Second, failure and criticism begin to appear, which in her words 
``rigidify'' those principles and boundaries.
    It is here that changes in policy are possible, but Tuchman calls 
them ``rare as rubies in the backyard.''
    More typical in this stage are increased investments along with an 
increasing need to protect egos that make a change in course next to 
impossible.
    In the third stage, the pursuit of failure enlarges the damages 
until it causes the fall of Troy or the American humiliation in 
Vietnam.
    So Augie is dead because of folly. American folly that all the 
world sees. Iraq is just another chapter in Barbara Tuchman's book.
    How sad that we haven't come any further than the Trojans, who let 
that horse into the gates. Mr. Chairman and members of the committee, 
we have a request.
    These two parents--and a large number of other parents with whom we 
have spoken--turn to you and all Members of Congress to consider the 
lives now at risk. Consider the additional families and the broken 
hearts they will suffer by inaction or delay.
    As soon as possible, bring 'em home Senators, bring 'em home.
            Thank you.
                                             Paul E. Schroeder,
                                             Rosemary A. Palmer,
                                 Families of the Fallen for Change.
                                 ______
                                 

  Responses of Ambassador David Satterfield to Questions Submitted by 
                            Senator Jim Webb

    Question. Please provide a description of measurable standards--
criteria used by the USG to award reconstruction contracts and 
prioritize and control distribution of funds.

    Answer. After consultations with the administration, Congress 
provided specific funding levels for sectors under the Iraq Relief and 
Reconstruction Fund (IRRF). This allowed Congress to give the initial 
legislative direction on the prioritization of funds. Following the 
closure of the CPA, the State Department, through the Iraq 
Reconstruction Management Office (IRMO), determined specific USG 
implementing agencies for IRRF sector projects, within guidelines 
established by Congress. The primary IRRF implementing agencies are the 
U.S. Army Corps of Engineers Gulf Region Division (USACE-GRD) and the 
U.S. Agency for International Development (USAID).
    The more than 13,000 IRRF projects vary widely in their scope and 
purpose. Some are relatively simple contracts for procurement of goods 
and services, while others involve the construction of large, complex 
electricity, oil, and water facilities. For more complex construction 
projects, the implementing agencies write detailed scopes of work for 
projects, which form the basis for requests for proposals from 
contractors. Depending on the nature of the project, these scopes of 
work tend to be very detailed, and are project specific. The 
implementing agencies follow their relevant Federal Acquisition Rules 
governing contract award, which allow a range of procurement 
approaches. For example, the Department of State has asked contractors 
to comply with FAR competitive contracting to the greatest extent 
practicable in a post-conflict environment.
    IRMO prioritizes and manages funds by developing and coordinating 
the Iraq foreign assistance budget request. The implementing agencies 
make every effort to monitor the contracts for compliance with the 
specific requirements, and verify that work has been completed 
satisfactorily before disbursing payment. They also work closely with 
our auditors, including SIGIR and GAO, to ensure that we are conducting 
adequate project oversight. While SIGIR and GAO have identified 
specific problems, SIGIR has consistently noted that most U.S. 
reconstruction projects have been completed satisfactorily. Finally, 
reporting mechanisms are in place to assist implementing agencies and 
IRMO in identifying early any potential issues with project progress 
and compliance.
    Over the last 3 years, we have learned a number of lessons in 
managing our reconstruction contracts in Iraq. Although we initially 
awarded large contracts to international design-build contractors, we 
have increasingly shifted our focus toward specific, fixed-cost 
contracts, which we have awarded to regional and Iraqi contractors in 
larger numbers. Along the way, we have improved our management 
capabilities, including on-sight inspections and financial tracking. 
These efforts contributed to improved distribution of funds by 
providing greater information on which reform and reconstruction 
efforts may require greater or lesser resources to achieve U.S. policy 
objectives. We will continue to work closely with our auditors to 
improve our project management as we complete the remaining IRRF 
projects.

    Question. Please provide a breakout of reconstruction funds that 
have gone to U.S. companies versus local Iraqis. Ambassador Satterfield 
said 80 percent of assistance is now going to Iraqis. Since when?

    Answer. We are currently working with IRMO and the agencies 
responsible for implementing IRRF projects to compile a specific 
response to your inquiry, and we expect to respond more completely by 
February 16.
    As a general matter, early in the reconstruction effort U.S. 
implementing agencies entered into contracts with large American 
international design-build contractors. Later, in an effort to complete 
reconstruction projects more effectively and at lower cost, the 
implementing agencies shifted toward direct fixed-price contracts with 
Iraqi and regional firms and labor to the greatest possible extent.
    This allowed quicker disbursement of funds while reducing security 
risks to Americans, lowering overhead costs and increasing employment 
opportunities for Iraqis.

    Question. Please provide a chart of all Iraq reconstruction funds 
to reflect how much has been appropriated, obligated, expended, and for 
what activities.

    Answer.

                                                                            IRRF FINANCIAL SUMMARY--JANUARY 30, 2007
                                                                                      (In millions of USD)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                         Committed                               Obligated                               Disbursed
                           Sector                             Apportion  -----------------------------------------------------------------------------------------------------------------------
                                                                           Last week     Current       Change      Last week     Current       Change      Last week     Current       Change
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Security and Law Enforcement...............................    $5,002.59    $4,988.66    $4,988.17       ($O.49)    $4,986.19    $4,986.19         0.00     $4,715.92    $4,716.47        $0.56
Electricity Sector.........................................     4,239.51     4,222.70     4,224.34         1.64      4,079.16     4,080.91        $1.75      3,016.61     3,029.57        12.95
Oil Infrastructure.........................................     1,724.70     1,678.03     1,678.03         0.00      1,584.47     1,584.47         0.00      1,318.17     1,318.28         0.12
Justice, Public Safety and Civil Society...................     1,304.15     1,303.93     1,303.93         0.00      1,297.72     1,297.72         0.00        981.13       982.42         1.28
Democracy..................................................     1,001.85     1,001.71     1,001.74         0.03      1,001.71     1,001.74         0.03        893.05       893.61         0.55
Education, Refugees, Human Rights, Governance..............       401.50       401.33       401.26        (0.08)       401.33       401.26        (0.08)       343.90       354.55        10.65
Roads, Bridges and Construction............................       333.60       331.94       331.95         0.00        325.84       324.59        (1.26)       209.56       209.55        (0.01)
Health Care................................................       818.90       817.57       817.61         0.04        801.69       801.76         0.07        614.47       621.37         6.90
Transportation and Communications..........................       464.12       464.11       464.11         0.00        458.23       458.30         0.068       339.70       339.69        (0.01)
Water Resources and Sanitation.............................     2,131.08     2,121.16     2,119.78         1.38      2,049.75     2,048.37        (1.38)     1,436.47     1,444.08         7.61
Private Sector Development.................................       813.95       813.91       813.95         0.04        813.91       813.95         0.04        764.90       765.96         1.06
Admin. Expense (USAID, State)..............................       213.00       212.45       212.45         0.00        212.45       212.45         0.00        164.05       164.24         0.19
                                                            ------------------------------------------------------------------------------------------------------------------------------------
      Total................................................    18,448.95    18,357.52    18,357.33        (0.19)    18,012.46    18,011.71        (0.74)    14,797.93    14,839.79        41.85
                                                            ====================================================================================================================================
IRRF II Construction.......................................                 10,573.40    10,573.21        (0.19)    10,250.09    10,249.35        (0.75)     8,027.37     8,053.62        26.25
IRRF II Non-Construction...................................                  6,782.41     6,782.38        (0.03)     6,760.65     6,760.62        (0.03)     5,877.51     5,892.56        15.05
IRRF II Democracy..........................................                  1,001.71     1,001.75         0.03      1,001.71     1,001.75         0.03        893.05       893.61         0.55
                                                            ====================================================================================================================================
      IRRF I Total.........................................     2,473.30     2,473.30     2,473.30         0.00      2,232.30     2,232.30         0.00      2,139.00     2,139.00         0.00
                                                            ====================================================================================================================================
      Grand Total IRRF I & II..............................    20,922.25    20,830.82    20,830.63        (0.19)    20,244.76    20,244.01        (0.74)    16,936.93    16,978.79        41.85
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                                 ______
                                 

    Contributions From Other Donors Supplied by the State Department

                                  U.S. Department of State,
                                  Washington, DC, February 1, 2007.
Hon. Joseph R. Biden, Jr.,
Chairman, Committee on Foreign Relations,
U.S. Senate, Washington, DC.
    Dear Mr. Chairman: In response to your question to Ambassador David 
Satterfield during his testimony before the Senate Foreign Relations 
Committee on January 25, we would like to provide you with the 
following information.
    You asked about the latest information on non-United States 
international donor contributions to the reconstruction of Iraq. We are 
therefore including the most recently relevant edition of the October 
2006, 2207 Report. As you will note, significant progress has been made 
on the International Compact for Iraq.
    More recent and updated information will be included in the new 
2207 Report set for release early this year.
    We look forward to working with the committee to answer any further 
questions you may have on this or any other matter.
            Sincerely,
                                           Jeffrey Bergner,
                          Assistant Secretary, Legislative Affairs.
    Attachment: Appendix II

                              APPENDIX II

                    Contributions From Other Donors

         international resources for the reconstruction of iraq
    During this past quarter, the United States has been continuing to 
work very closely with Iraq and international donors to broaden and 
deepen international assistance for Iraq. A major development was the 
launching on July 27 of work on a new International Compact for Iraq 
that is similar to the International Compact for Afghanistan that was 
adopted in January 2006. Iraq and the United Nations, in close 
cooperation with the World Bank, share the lead in developing this new 
agreement between Iraq and the international community. Under the 
Compact, the Iraqi Government will undertake a series of economic 
reforms and initiatives for good governance (for example, to combat 
corruption) in return for commitments of financial and other forms of 
foreign assistance. On September 18, 2006, at sessions held to inform 
about the Compact held alongside the U.N. General Assembly and IMF/
World Bank Annual Meetings in New York and Singapore to inform the 
international community about the Compact, the Foreign and Finance 
Ministers of more than 35 countries and international organizations 
expressed their support for the Compact. Final work on the Compact is 
expected to be completed in time for formal adoption before the end of 
November 2006, by Iraq and an even larger group of countries and 
organizations. Deputy Secretary of the Treasury Robert Kimmitt and 
State Department Counselor Philip Zelikow are co-leads in USG efforts 
in support of the Compact.
    At the October 2003 Madrid International Donors' Conference, donors 
other than the United States pledged over $13.5 billion in assistance 
for the reconstruction of Iraq. This includes $8 billion in assistance 
from foreign governments and $5.5 billion in lending from the World 
Bank and International Monetary Fund (IMF)--all to be disbursed between 
2004 and 2007. In January 2006, $3.2 billion of the pledges of non-U.S. 
assistance had been disbursed. By August 2006, disbursements of non-
U.S. assistance had increased significantly, to about $3.7 billion; 
approximately $3 billion of this was from other donor governments, 
either in bilateral projects, or through the World Bank and U.N.-
administered International Reconstruction Fund Facility for Iraq 
(IRFFI). (Currently, United Nations and World Bank projects in water, 
electricity, education, health and other areas are in various stages of 
completion.) By the end of August 2006, of a total of $1.16 billion 
deposited in the U.N. Trust Fund, $861 million had been committed to 
specific projects and $534 million disbursed. Of the $456.8 billion 
pledged to the World Bank, $395 million had been committed and $67.5 
million disbursed. The IMF approved $436 million in balance-of-payments 
support in September 2004 and an additional $685 million of such 
support in December 2005.
    Since Madrid, donors have pledged an additional $652 million. A 
number of countries and institutions have disbursed assistance above 
and beyond what they pledged at the 2003 Madrid Conference, including 
Australia, the European Commission, Finland, Greece, Hungary, Iceland, 
the Netherlands, New Zealand, and Norway.
    Donor government disbursements are defined here as funds that have 
left government treasuries. Because, however, much of the assistance is 
being channeled for implementation through trust funds, contractors, 
NGOs, international organizations and Iraqi institutions, there is 
normally some time between disbursement by the donor and impact on the 
ground in Iraq.
    Donors committed an additional $235 million in new contributions to 
the IRFFI at the July 2005 meeting of the IRFFI Donors' Committee at 
the Dead Sea in Jordan. Most of this was new pledges since Madrid, and 
most has already been deposited in the IRFFI. The Islamic Development 
Bank agreed that it would make $300 million in new concessional 
financing available in November 2005. The World Bank and Iraq agreed in 
principle on an up to $500 million framework program for concessional 
IDA lending. The World Bank Board has approved two IDA loans under this 
program: A $100 million education project and a $135 million 
transportation project, approved in June 2006, that will help 
rehabilitate roads and bridges. In December 2005, the IMF agreed to a 
Stand-By Arrangement (SBA) with Iraq that makes $685 million available 
for balance-of-payment support.
    the international reconstruction fund facility for iraq (irffi)
    The Madrid Conference authorized the establishment of the IRFFI, 
which gives donors a multilateral channel for their Iraq assistance--in 
addition to their bilateral efforts. The IRFFI contains two primary 
trust funds, one managed by the World Bank, the other by the United 
Nations. Funds channeled through the IRFFI come from donors' pledges 
made at the Madrid Conference and those made subsequently. There are 
currently 116 IRFFI projects (103 United Nations, 13 World Bank) in 
various stages of completion. Details on the IRFFI can be found at 
www.irffi.org.

  <bullet> Current donor commitments to the IRFFI total about $1.6 
        billion. Of this amount, $491 million is from Japan; $620 
        million from the European Commission; $127 million from the 
        United Kingdom; $69 million from Canada; $40 million from 
        Spain; $36 million from Australia, $29.8 million from Italy; 
        $13.7 million from Norway; $12.9 million from the Netherlands; 
        $16.4 million from Sweden; $15 million from the Republic of 
        Korea; $10 million each from the United States, Denmark, 
        Germany, India, Iran, Kuwait, and Qatar. Belgium, Finland, 
        Greece, Iceland, Ireland, Luxembourg, New Zealand, and Turkey 
        have committed varying amounts under $10 million.
  <bullet> Of the approximately $1.6 billion in commitments, donors 
        (including the United States) have deposited $1.54 billion in 
        the IRFFI trust funds as of August 31, 2006.
  <bullet> The United Nations and World Bank submit their project 
        proposals for approval to the Iraqi Strategic Review Board 
        (ISRB). The ISRB is an Iraqi coordinating body chaired by the 
        Minister of Planning and Development Cooperation that reviews 
        requests for and offers of external donor assistance.
  <bullet> The IRFFI Donors' Committee held its fourth meeting at the 
        Dead Sea in Jordan, on July 18-19, 2005. The Donors' Committee 
        consists of 18 countries that have committed at least $10 
        million to the fund facility and two rotating representatives 
        (currently Finland and Turkey) from countries that have 
        committed less than $10 million. As of the end of September 
        2006, the implementing U.N. agencies have legally committed 
        $644 million and disbursed $546 million of total approved 
        projects amounting to $861 million. So far in 2006, the IRFFI 
        has received approximately $168 million in new commitments 
        ($152 million from the European Union, $10 million from 
        Germany, $2.4 million from Spain, $1.5 from Australia, $1.1 
        from Luxembourg, $1 million from New Zealand and smaller 
        contributions from Finland, Greece, Hungary, Iceland, the 
        Netherlands, and Norway). Canada continued its chairmanship of 
        the IRFFI Donors' Committee, which it assumed from Japan in 
        February, 2005.
  <bullet> At the Dead Sea meeting, the Iraqi Transitional Government 
        (ITG) assumed its central role in soliciting and coordinating 
        international support for Iraqi reconstruction. It presented an 
        updated National Development Strategy and a series of new donor 
        coordination mechanisms on the ground in Iraq. Together these 
        efforts represented an important shift toward an Iraq-led 
        reconstruction process, strongly supported by the international 
        community. Chaired by the ITG, but supported by the United 
        Nations and World Bank, these new coordinating bodies, which 
        include a ``Baghdad Coordination Group'' of all donors on the 
        ground and ``Sectoral Working Groups,'' have been holding 
        meetings since August 2005. So far, Sectoral Working Groups 
        have been established for Health, Education, Rule of Law, and 
        Electricity.
  <bullet> The next IRFFI Donors' Committee meeting will be scheduled, 
        after close consultation with the new Iraqi Government, and 
        depending on developments with the International Compact with 
        Iraq. The Donor Committee will discuss how to best align IRFFI 
        with the Compact Process.
                    updates on selected major donors
    The January 2004 report to Congress included a table of pledges 
made at the Madrid International Donors Conference. Since that report, 
donors have begun disbursing and implementing their assistance. Below 
are major donor highlights:
Japan
    Japan has pledged and disbursed more assistance to Iraq than any 
other country except the United States. By May 2005, Japan had entirely 
obligated the $1.5 billion of grant aid that it had pledged in Madrid. 
Japan is currently in discussions with Iraq on the first projects to be 
implemented from its $3.5 billion concessional loan program. Moreover, 
based on the agreement of the Paris Club concerning the treatment of 
Iraq's debt, the Government of Japan and the Government of Iraq agreed 
upon the details of the conditions for debt relief. Notes to this 
effect were exchanged on November 24, 2005, in Tokyo between both 
Ministers for Foreign Affairs.
    The debt will be cancelled by 80 percent in three stages, which 
amounts to a reduction of approximately US$6 billion. In late March, 
Japan announced and notified the Iraqi side of its intention to provide 
yen loans up to the total amount of 76,489 million yen (approximately 
$655 million) toward three projects in Iraq. On June 18, Japan 
confirmed with the new Iraqi Government the decision to extend yen-loan 
up to 3,348 million yen (approximately $28 million) for implementing 
another project in Samawah. Exchange of Notes will be signed with the 
new Iraqi Government regarding the provision of these loans. The four 
projects are:

  <bullet> Umm-Qasr Port Sector Rehabilitation Project ($259 million): 
        To dredge the port and surrounding shipping lanes, remove 
        wrecked ships and rehabilitate the port facilities, as well as 
        to provide equipment and materials such as dredgers and other 
        items. This project aims to reconstruct the Port of Umm-Qasr 
        and its function as the transportation and distribution network 
        hub.
  <bullet> Irrigation Sector Loan ($81 million): To provide irrigation 
        drainage pumps and equipment and materials for maintaining the 
        operation of irrigation channels in some sites where 
        agriculture is important, including in the Governorate of Al-
        Muthanna. This sector loan aims to improve the agricultural 
        production and increase employment in Iraq.
  <bullet> Al-Mussaib Thermal Power Plant Rehabilitation Project ($315 
        million): To rehabilitate the existing Al-Mussaib thermal power 
        plants (units 1 and 3), located in the Baghdad suburbs. This 
        project aims to improve the power supply mainly targeting 
        Baghdad.
  <bullet> Samawah Bridges and Roads Construction Project ($28 
        million): To construct a new bridge (Samawah North Bridge), 
        rebuild provisional bridges (Mandi Bridge and Hillal Bridge) to 
        cross over the Euphrates and construct their connecting roads 
        in Al-Samawah and its vicinity.

    In December 2005, Japan decided to extend a grant of $14.4 million 
to UNDP for the Iraqi Reconstruction and Employment Program and 
Electricity Network enforcement Program in Al-Muthanna.
    In earlier disbursements of its grants assistance, Japan deposited 
a total of $491 million to the IRFFI ($361 million to the U.N. fund and 
$130 million to the World Bank fund). Japan has also deposited $10 
million to the International Finance Corporation's (IFC) Small Business 
Financing Facility. In addition, Japan has disbursed $116 million 
directly to international organizations to implement projects such as 
restoration of water and sewage systems, garbage collection and 
sanitation. The balance of Japan's disbursements, $938 million, have 
been in direct bilateral projects or channeled through Iraqi 
institutions and NGOs for implementation. Major Japanese contributions 
(in grants):

  <bullet> Electricity: Rehabilitation of four electrical power 
        stations (Taji Gas Turbine, Mosul Gas Turbine, Mosul 
        Hydroelectric and Hartha Power), construction of a diesel power 
        station and provision of generators in Samawah, rehabilitation 
        of the National Dispatch Center and provision of 27 mobile 
        electricity substations.
  <bullet> Water and Sanitation: Provision of 38 water tankers, 311 
        water tanks and 6 water treatment units in the Al-Muthanna 
        governorate. Provision of 30 compact water treatment units in 
        Baghdad and rehabilitation of water and sewage facilities in 
        schools in Baghdad and Nineveh.
  <bullet> Health: Grant assistance for Japanese NGO projects to the 
        Samawah Maternity and Children's Hospital, which have provided 
        medical equipment, including infant incubators, phototherapy 
        units for incubators and electrocardiographs to the only 
        children's and maternity hospital in the Al-Muthanna 
        Governorate. Medical supplies and equipment also have been 
        provided to the Samawah General Hospital and Al-Rumaytha and 
        Al-Khidhur hospitals and to 32 primary health centers in the 
        Al-Muthanna governorate. Rehabilitation and equipping of four 
        general hospitals (Nasiriyah, Najaf, Diwaniyah and Samawah) in 
        southern Iraq, four more in northern Iraq (Kirkuk, Erbil, 
        Mosul, and Dahuk) and three in Central Iraq (Baghdad, Amarah, 
        and Kut).
  <bullet> Roads and Bridges: The repair of roads between Al-Khidhur 
        and Darraji and between Mandi and Sawa and other roads in Al-
        Muthanna governorate as well as the provision of construction 
        equipment to restore damaged roads and bridges in the 
        governorate. Rehabilitation of 90 kilometers of roads in Al-
        Muthanna governorate.
  <bullet> Education and Culture: Contributions to UNESCO, which are 
        building capacity at the Ministry of Education and restoring 
        the Iraqi National Museum's restoration laboratory. Through 
        HABITAT, assistance for rehabilitation of about 200 schools in 
        Basrah, Samawah, Nashiria and Amra and of about 3,000 houses 
        and community facilities in Baghdad, Samawah and Kirkuk.
  <bullet> Security: Donation of 1,150 police vehicles, 150 police 
        buses, 500 police motorcycles and 20 armored vehicles. Donation 
        of 70 fire trucks to Baghdad, Basrah, and Al-Muthanna. Donation 
        of 742 ambulances.
  <bullet> Capacity Building: Training over 1,200 Iraqis, including 
        Iraqi diplomats, staff of the Al-Muthanna TV station, museum 
        officials, statisticians, election officials, medical staff, 
        and hospital directors.
The United Kingdom
    At Madrid, the United Kingdom pledged <brit-pound>296 million ($545 
million) for the Iraq reconstruction effort for 2004 through 2006. This 
was included in the United Kingdom's total pledge of <brit-pound>544 
million ($920 million), which counted the United Kingdom's previously 
announced assistance for the humanitarian effort and its assessed 
portion of the European Commission's assistance. As of September 2006, 
the United Kingdom had disbursed <brit-pound>277 million ($521 million) 
of its Madrid $545 million reconstruction pledge.
    The United Kingdom has disbursed approximately <brit-pound>193 
million ($360 million) for projects in support of reconstruction in 
southern Iraq, governance and economic capacity-building, the justice 
sector, independent media and civil society. The United Kingdom's 
Department for International Development (DFID) is responsible for 
these projects. The United Kingdom also deposited $127 million in the 
IRFFI--$71 million to the World Bank Trust Fund and $56 million to the 
U.N. Trust Fund.
    The DFID program in 2006-2007 is entirely bilateral and focuses on 
economic reform; infrastructure (improving power and water services in 
the south); governance and institutional-building in Baghdad and in the 
south; and support for civil society and political participation.
    In southern Iraq, the United Kingdom has provided support to 
rehabilitate emergency infrastructure, working closely with the United 
Kingdom military; an infrastructure project to deliver improved power 
and water services; support to build the institutional capacity of the 
four southern governorates and private sector development; a team of 
technical specialists to advise local councils, U.K. military and other 
donors on infrastructure rehabilitation and construction; and support 
to strengthen independent broadcasting.
    In central Iraq, the United Kingdom has supported the Iraqi 
Government on economic reform issues; supported the Center of 
Government Program to improve functions of government; supported the 
justice sector; provided funds for a Civil Society Fund (CSF) to 
develop legitimate and representative Iraqi NGOs; and provided funds 
for a Political Participation Fund (PPF) to encourage poor and 
marginalized sections of Iraqi society to engage in the constitutional 
process. Major U.K. contributions:

  <bullet> Electricity: Repaired transmission lines from Hartha Power 
        station to Basrah city, securing electricity supplies for 1.5 
        million residents; improved power distribution to 13 areas of 
        Basrah. U.K. support will add or secure an additional 470 MW of 
        power equivalent to a 24-hour supply to over 235,000 
        households.
  <bullet> Water and Sanitation: Replaced 800 km of water mains, 
        repaired over 5,000 leaks, cleared out 7,000 septic tanks and 
        cleared over 40 kms of drains across the four southern 
        governorates; constructed a water training center in Basra to 
        increase the skills of Iraqi engineers in water treatment and 
        leakage repair, and improved water supply to 60,000 people in 
        Al Amtahiyah. Current activities include refurbishing a reverse 
        osmosis unit, building water towers and reservoirs, and 
        refurbishing a pump station. These will directly benefit up to 
        1 million people in Basra.
  <bullet> Capacity-Building: Supported new Provincial Development 
        Committees which produced Iraq-led draft Provincial Development 
        Strategies, which included resource statements to bid for 
        funding from the central government. Trained 216 Iraqi judges, 
        lawyers, and prosecutors in human rights, international 
        humanitarian law and independence of the judiciary. Trained 182 
        journalists, editors and media managers on humanitarian and 
        independent reporting. New, independent TV and radio programs 
        in southern Iraq went on air during summer 2005 through DFID 
        funding.
  <bullet> Supporting Iraqi Humanitarian Response: DFID consultants to 
        the IIG Fallujah Core Coordination Group from December 2004 
        helped set up mechanisms for the Iraqi Government to respond to 
        future crises.
  <bullet> Macroeconomic Reform: Assisted the Iraqi Government in 
        drawing up its 2006 budget, reaching agreement with the IMF on 
        a $436 million Emergency Post-Conflict Assistance package, 
        negotiating the Paris Club debt reduction deal and drafting a 
        National Development Strategy.
  <bullet> Support to the Political Process: Helped to promote the 
        political process through support for the electoral commission 
        ($10 million plus advisers on security and public information), 
        civil society organizations ($8.7 million) and public 
        participation in the elections ($12.6 million). Helped to set 
        up the Prime Minister's office and the Cabinet and Committee 
        system. Helped achieve continuity in the transition to the new 
        elected administration.

    Further information on the DFID program in Iraq, including 
quarterly updates, is available at http://www.dfid.gov.uk/countries/
asia/iraq.asp.
Canada
    Canada has pledged C$300 million (about $230 million) for Iraq's 
humanitarian relief and reconstruction, including C$245 million ($187 
million) pledged at Madrid and C$55 million ($42 million) in urgent 
humanitarian relief disbursed through multilateral relief agencies in 
response to the U.N. Humanitarian Appeal. Canada became Chair of the 
IRFFI Donors' Committee in 2005. Canada has committed C$100 million 
(about $76 million) to the IRFFI, of which it initially deposited C$60 
million ($44.7 million) equally divided between the United Nations and 
the World Bank trust funds. In September 2004, Canada deposited another 
C$20 million ($15.3 million) in the U.N. trust fund to be used to 
support Iraqi elections. In December 2005, an additional C$10 million 
(about $8.5 million) was deposited to support United Nations support to 
elections and human rights.
    In addition to funding to IRFFI, Canada has allocated over C$100 
million in other, non-IRFFI assistance. This includes C$40 million 
(about $34 million) to UNICEF for social sector funding and bilateral 
assistance through CARE Canada for reconstruction work to improve basic 
services in water and sanitation, basic health and education and child 
protection. CIDA also allocated C$3 million (about $2.6 million) to 
assist in the restoration and management of the ecological health of 
the ``Mesopotamian Marshes.''
    In the area of governance, human rights and civil society capacity-
building, Canada is supporting a number of projects including: C$15 
million (about $12.8 million) for the Rapid Civilian Deployment 
Mechanism for capacity-building, including governance; C$10 million 
(about $8.5 million) for a civil society capacity-building fund, 
including media and human rights training; C$5 million (about $4.2 
million) to the Middle East Good Governance Fund; $C2 million (about 
$1.7 million) for human rights and diversity management training; C$2 
million (about $1.7 million) for support to the constitutional process 
and federal systems; C$700,000 million (about $600,000) to UNDP for 
research on governance questions; and a small fund for building a 
culture of human rights in Iraq and the Middle East. Canada also 
supported elections with an additional C$7 million (about $5.8 million) 
allocated to the International Mission for Iraq Elections. In the 
security sector, Canada allocated C$10 million (about $7.9 million) 
over 2 years for deployment of Canadian police instructors to assist in 
the training of Iraqi police at the Jordan International Police 
Training Center (JIPTIC) as well as funding to deploy senior police 
advisors to the Ministry of Interior. Since January, Canada has 
provided an additional C$7.5 million (about $6.4 million) to these 
activities. Total Canadian assistance to the security sector is now 
C$17.5 million (about $15 million). Canada plans to focus the remainder 
of its assistance on good governance and the promotion of human rights 
including women's rights.
    More details on Canadian assistance to Iraq are available at 
www.acdi-cida.gc.ca/iraq.
The European Commission (EC)
    There have been several notable developments in EC assistance to 
Iraq. Since April, the EC has prepared a communication entitled, ``The 
EU and Iraq: A Framework for Engagement,'' which is intended to provide 
the basis for an EU-wide strategy and proposes EU support to the new 
Iraqi Government in five areas:

  <bullet> To further an inclusive democracy;
  <bullet> To strengthen rule of law and respect for human rights;
  <bullet> To support basic services and job creation;
  <bullet> To economic recovery and reform; and,
  <bullet> To the development of a functioning administration.

    Additional information on the EU Framework for Engagement can be 
found at: http://europa.eu.int.
    Following discussions among member states, 120 million euros of the 
EC's =200m allocated for 2006, was designated for IRFFI, to support 
provision of basic services, as was previous financing. At the same 
meeting, a 6-million-euro proposal to provide a technical assistance 
facility was agreed upon. The EC will be entering into discussion with 
member states on the balance of the 200 million euro pledge for 2006 
later in October 2006.
    The Head of the EC Delegation has been in Baghdad for the past few 
months and the Commission is in the process of training and deploying 
additional staff. In addition, with the new Iraqi Government in place, 
the EC soon expects to launch negotiations for a Trade and Cooperation 
Agreement.
United Nations (U.N.)
    As of August 31, 2006, donors had committed approximately $1.1 
billion to the U.N. trust fund of the IRFFI. Of this, about $1 billion 
had been deposited. The United Nations has developed a strategic 
planning framework and organized their programs into ``clusters'' with 
various U.N. specialized agencies working together under a cluster lead 
agency in each. Originally comprised of 11 clusters, the United Nations 
reorganized the clusters into 7 lettered clusters adopted in July 2005. 
The clusters are:

        A. Agriculture, Food Security, Environment and Natural Resource 
        Management
        B. Education and Culture
        C. Governance and Human Development
        D. Health and Nutrition
        E. Infrastructure Rehabilitation
        F. Refugees, IDPs and Durable Solutions
        G. Support to Electoral Process

    As of August 2006, the United Nations had developed 103 projects, 
valued at $861 million, all of which have been approved for 
implementation by the Iraqi Government. Among these projects, the 
United Nations has provided school supplies, rehabilitated schools, 
provided vaccines, supported internally displaced persons (IDPs) and 
refugees, conducted capacity-building training programs for Iraqi 
officials and assisted in the elections. In January 2006, the U.N. 
trust fund had legally committed $564 million and disbursed $430 
million of the total approved funding. By the end of August 2006, the 
U.N. trust fund had obligated $644 million in binding contracts for 
implementation and had disbursed $546 million. A full list of the 
U.N.'s IRFFI projects is available at the www.irffi.org Web site.
World Bank
    As of September 2006, donors had pledged approximately $457 million 
to the World Bank trust fund of the IRFFI, of which approximately $454 
million had been deposited. With these deposits, the World Bank is 
implementing the following 13 projects amounting to US$401 million:

                        [In millions of dollars]

                                                               Projected
        Operation                                                  costs
Emergency Textbooks...........................................       $40
Emergency School Rehabilitation...............................        60
Emergency Baghdad Water Supply and Sanitation.................        65
Emergency Water Supply, Sanitation and Urban Reconstruction...        90
Emergency Health Rehabilitation...............................        25
Emergency Private Sector Development I........................        55
Capacity Building I...........................................       3.6
Capacity Building II..........................................         7
Emergency Community Infrastructure............................        20
Emergency Disabilities........................................      19.5
Emergency Social Protection...................................         8
Emergency Household Survey, Technical Assistance..............       1.5
Emergency Household Survey & Policies for Policy Reduction....       5.1

    Ten of the thirteen World Bank trust fund-financed projects, valued 
at US$388 million, are grants implemented directly by Iraqi 
governmental authorities. Three projects, amounting to US$12 million, 
are capacity-building and technical assistance activities implemented 
by the World Bank.
    Through these projects, the World Bank has financed more than 79 
million textbooks, rehabilitated or constructed more than a hundred 
schools, trained hundreds of Iraqi officials, and rehabilitated dozens 
of rural irrigation or drainage schemes. The World Bank is also 
rehabilitating and upgrading hospitals, centers for the disabled, and 
telecom and water supply systems in Iraq. The latest World Bank ITF-
financed projects focus on helping Iraq develop strategic approaches to 
reducing poverty, protecting the vulnerable, and designing sustainable 
economic programs. These new projects support the Bank's core objective 
to help Iraq develop institutional frameworks, policies, and systems 
for more effective and transparent use of Iraq's resources.
    The World Bank relies mainly on a cadre of high-level Iraqi staff 
providing daily support in Iraq to protect management teams. The Bank 
also has two contracted international staff in Baghdad's International 
Zone, and is in the process of further strengthening its presence in 
Baghdad. The Bank has several video-conferencing facilities in Baghdad 
and an office in Amman that supports the Iraqi program.
    The World Bank places a major emphasis on capacity-building, policy 
advice, and economic and sector work, which are funded from the Bank's 
own budget. The Bank has prepared policy papers for the Iraqi 
Government on a wide range of topics, responding to urgent Iraqi 
Government requests for policy advice. In July 2006, the Bank provided 
the Iraqi Government with a Briefing Book on core reforms, which was 
prepared in close cooperation with Iraqi authorities. The Briefing Book 
gives priority to strengthening governance and institutions, 
modernizing social safety nets, and accelerating economic reforms. The 
Bank is currently providing technical support to the Iraqi Government 
in the formulation of the International Compact. In 2007, the Bank 
plans to undertake, in partnership with the Iraqis, a Public 
Institutional and Expenditure Assessment to outline the steps for 
strengthening the transparency and accountability of Iraq's public 
finance policies and institutions, and help Iraq meet the goals set in 
the Iraq Compact.
    At Madrid, the World Bank announced an anticipated lending envelope 
of $3 to $5 billion, conditional on Iraq's creditworthiness. In 
December 2004, Iraq cleared its arrears to the World Bank, one of the 
requirements to resume lending. The World Bank provides a framework for 
up to $500 million of IDA (International Development Association) 
concessional lending. The strategy also provides for up to $500 million 
in IBRD (nonconcessional) lending, assuming Iraq makes critical 
progress regarding IBRD creditworthiness. In November 2005, the World 
Bank Executive Board approved the first $100 million IDA loan within 
the $500 million program. The $100 million Third Emergency Education 
Project (TEEP) will help the Government of Iraq alleviate school 
overcrowding and lay the groundwork for educational reform. In June 
2006, the Bank approved a $135 million IDA transportation project that 
will help rehabilitate Iraqi roads and bridges.
IMF
    At the Madrid Donors' Conference, the IMF pledged to provide over 
$2.55 billion in lending to Iraq. On September 29, 2004, the IMF Board 
approved an Emergency Post-Conflict Assistance (EPCA) package that 
provided Iraq SDR 297.1 million (about $430 million) in balance-of-
payments support. The main goals under the EPCA were to maintain 
macroeconomic stability and lay the groundwork for a long-term 
development and reform program. On December 23, 2005, the IMF approved 
a Stand-by Arrangement (SBA) for Iraq that provides SDR 475 million 
(about $685 million) in balance-of-payments support. The 15-month SBA 
provides a comprehensive framework of policies for economic reform and 
growth in coming years. The first tranche of the SBA, worth $114 
million, became available to the Iraqi Government at the time of SBA 
approval. To date, Iraq has not drawn against the funds in either the 
EPCA or SBA programs. The IMF was to do quarterly reviews of Iraq's 
progress under the SBA. The first such review, scheduled for March 
2006, was postponed because of the lengthy Iraqi Government formation 
process. IMF Executive Board consideration of the combined first and 
second quarterly reviews is now scheduled for August 2.
    Reaching the SBA also triggered the second 30 percent tranche of 
debt reduction under Iraq's agreement with the Paris Club. To obtain 
the final 20 percent tranche of Paris Club debt relief, Iraq must 
complete 3 years of successful performance under the SBA.
    The IMF also provides technical assistance to Iraq, including 
training in such policy areas as public expenditure management, fiscal 
federalism, tax policy, tax and customs administration, monetary 
operations, banking supervision, payments system reform and statistics. 
Some of this training has been done jointly with the World Bank. The 
IMF has assisted in coordinating macroeconomic training with the other 
major providers: The World Bank, the United States, and the United 
Kingdom.
                            debt forgiveness
    Reduction of Iraq's external debt burden to sustainable levels, 
another top priority for Iraq's economic development, is a key 
component of U.S. donor coordination. In November 2004, the Paris Club 
group of creditors agreed to forgive, in phases, 80 percent of 
approximately $40 billion in Iraqi debt held by its members. As of July 
2006, 17 of 18 Paris Club signatories of that agreement have signed 
bilateral debt agreements with the Iraqis implementing the 2004 
agreement. Russia is the only remaining Paris Club signatory not to 
have signed a bilateral debt agreement with Iraq; Russia has indicated 
it could conclude an agreement soon. The United States itself went 
beyond Paris Club terms and has forgiven 100 percent of the $4.1 
billion in U.S.-held Iraqi debt. In total, over $30 billion in Iraqi 
debt either has been forgiven, or will be, by Paris Club and several 
non-Paris Club countries, provided Iraq meets agreed-upon conditions, 
including 3 years of successful performance under the SBA. The United 
States continues to encourage non-Paris Club countries to provide debt 
reduction to Iraq at terms at least comparable to those offered by the 
Paris Club. The terms for forgiveness of what Iraq owes to non-Paris 
Club countries and commercial creditors are closely tied to the Paris 
Club deal. Iraq has completed a debt exchange with its commercial 
creditors on terms comparable to the Paris Club deal. One hundred 
percent of eligible large commercial creditors contacted accepted 
Iraq's offer. Iraq offered smaller creditors cash for debt, rather than 
new debt. Altogether, an overwhelming majority of commercial claimants 
has accepted Iraq's offer, covering about $20 billion in debt, which 
will result in approximately $16 billion in debt reduction over time.
                          other major efforts
    With the help of U.S. advisors, the Ministry of Planning and 
Development Coordination has completed plans to eliminate the major 
hurdles faced by donors on the ground in Baghdad. Plans are being 
implemented to provide security, housing and office space to potential 
donors inside the International Zone. The accommodations, called 
``Donor Village,'' are inside the secure Army Corps of Engineers/PCO 
compound. Donors can occupy space, and they will reimburse the USG for 
billeting arrangements, office space, and meals. The cost-prohibitive 
nature of setting up individual offices and providing security for 
accommodations had previously been a major impediment to obtaining 
further donor assistance, and this integrated plan has been well 
received and coordinated.
      useful references for international donor assistance to iraq
  <bullet> The Donor Assistance Database: http://www.mop-iraq.org/dad.
  <bullet> The UNDG Iraq Trust Fund and the World Bank Iraq Trust Fund 
        Newsletters, updated every 2-3 months and both accessible at: 
        http://www.irffi.org.


                           POLITICAL STRATEGY

                              ----------                              


                   THURSDAY, JANUARY 25, 2007 [P.M.]

                                       U.S. Senate,
                             Commitee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:47 p.m., in 
room SD-628, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Menendez, Casey, Webb, Lugar, 
Isakson.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order.
    This afternoon's hearing may be one of the most important 
in the series of hearings we've had, and I'm not being 
solicitous to the witnesses that are here. We've heard 
repeatedly that there can be no stability in Iraq absent a 
political settlement. And I don't say what I'm about to say 
being critical of anyone particular. But, we are--find 
ourselves in a part of the world where our experience is not 
that deep. And where a lot of people formed opinions about what 
our policy should be in this capital without knowing, not just 
some of the basic history, but also the nuances based on 
religion, ethnicity, tribalism--very complicated. And although 
I'm sure everyone in this body and the press covering it was 
fully aware of the nature of the formation of what is now the 
Republic of Iraq and World War II, the panel we have before us 
today are eminently familiar with the intricacies of Iraqi 
politics. They are going to help us understand the likelihood 
of what everyone is saying is needed. We say it, everyone says 
there is no military solution, even those who are strongly 
supporting the President's new mission. And there's a need for 
a political solution.
    We have asked the panel prior to their being here, to offer 
their assessment of the main elements of what any such 
political solution, assuming they believe one is possible, 
would look like. What compromises would be required and by 
whom. And what is a reasonable timeframe, if any, in which a 
settlement could be achieved, a political settlement.
    What are likely to be the main sticking points? Has, as 
they say, too much water gone under the bridge to be able to 
get to the point where there is a possibility of a political 
solution? And we're very interested in their views on influence 
capacity and will of the main political actors to bring about 
national reconciliation. We also want to better understand the 
political objectives of the various actors, such as the 
insurgents, the terrorists, the jihadis, the militia groups, 
some of the religious leaders, Sunni and Shia alike, Arab and 
Kurd.
    And finally, we have asked the witnesses to comment on the 
role the United States and the international committee can 
play, if
any, in facilitating a political settlement. And our witnesses 
are uniquely qualified to address these questions.
    Not necessarily in this order, but first we will have the 
executive director of the Iraqi Foundation and senior fellow at 
the U.S. Institute of Peace, Ms. Rahim. The fact is she served 
as Iraq's representative to the United States. In 2003 and 2004 
she testified before this committee, back in August 2002, and 
Madam, we welcome you back. It's a delight to have you here.
    We also have the director for Middle East and North African 
Affairs of the National Endowment of Democracy, who has served 
as a spokesman for the Government of Iraq during the tenure of 
Prime Minister Jaafari. And we appreciate his interrupting his 
trip to London to fly. Doctor, thank you for literally having a 
little bit of a detour here. It's a significant detour to join 
us.
    And, Mr. Talabani is the Washington representative of 
Kurdistan Regional Government, and we welcome you here today. 
You were kind enough to host Senator Hagel and me several years 
ago in Kurdistan, in what turned out to be a very bumpy ride 
for 7 hours through the mountains to get to that hospitality, 
and we appreciate it very much.
    And Dr. Toby Dodge is a consulting senior fellow for the 
Middle East at the International Institute for Strategic 
Studies. He is the author of two similar books that I would 
strongly recommend to everyone. I'm not even asking for a share 
of the royalties. ``Iraq's Future: The Aftermath of Regime 
Change,'' and ``Inventing Iraq: The Failure of Nation Building 
and a History Denied.'' He has testified before this committee 
previously. He is articulate and insightful, and we want to 
thank him for coming today. It's not like he walked across the 
street. He had to come from London to do this and alter his 
schedule, and we truly appreciate it. So, I look forward to the 
testimony from all of you.
    And I now yield to Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman. I thank 
you, again, for holding this hearing, and for the continuing 
series of hearings that we are enjoying on Iraq.
    During the last several weeks, the Foreign Relations 
Committee has had the opportunity to engage policy experts and 
administration officials in a wide range of questions related 
to Iraq, including military strategy, economic reconstruction, 
regional dynamics. We have reviewed the President's current 
plan, and at least half a dozen alternatives. We have discussed 
what impact these plans might have on United States national 
security. We have examined our obligations to our troops, to 
the American people, and to our Iraqi allies.
    Virtually all these inquiries have confirmed that the 
outcome in Iraq will hinge on whether a political 
reconciliation can be achieved in that country. As I have said 
on many occasions during the last several years, it depends on 
whether Iraqis want to be Iraqis. Will various factions and 
subfactions within Iraq buy into a political compromise, and 
can such a political deal create stability and prevent violent 
fragmentation of the country? Can the Maliki government manage 
this process effectively and lead the nation, rather than act 
as representatives of the Shiite majority?
    These questions are especially vital to our current policy 
discussions because the President's plan depends on the premise 
that reducing violence in Baghdad will create political 
stability that is a precondition for political reconciliation. 
In previous testimony, Secretary Richard Haass, highlighted the 
fundamental disconnect with which we are contending when he 
observed, and I quote from Secretary Haass, ``The U.S. goal is 
to work with Iraqis to establish a functioning democracy in 
which the interests and right of minorities are protected. The 
goal of the Iraqi Government appears to be to establish a 
country in which the rights and interests of the Shia majority 
are protected above all else.''
    In such a situation, even if additional troops have a 
discernable impact on the violence in Baghdad, this progress in 
the streets may be immaterial to achieving political 
reconciliation. And if this is true, all we can gain from a 
troop surge is a temporary and partial reduction of violence in 
Baghdad. That would have some salutary benefits for some 
Iraqis, but it would not help us achieve our strategic 
objectives.
    In the absence of a clear connection between additional 
troops and political reconciliation, we might be better served 
by a course in which United States forces in Iraq are 
redeployed outside urban areas. From such positions they would 
still be a source of stability in the region and a deterrent to 
terrorism, adventurism by Iraq's neighbors, or a broader 
regional war.
    We are grateful to our panel for joining us to discuss 
these critical questions this afternoon. We look forward to a 
thoughtful discussion about whether a political reconciliation 
in Iraq is possible. Whether the United States can affect the 
chances for such a reconciliation and whether the President's 
plan, or other alternatives, offer the best hope for 
accelerating that process.
    I welcome the witnesses and look forward to their comments.
    The Chairman. Thank you very much. With such a 
distinguished panel I always--the Chairman is better than me at 
knowing what the protocol should be, but I think on two 
measures, Ms. Rahim, you should begin first, and then with your 
permission we'll move to Mr. Talabani, then to Dr. Kubba, and 
then to Dr. Dodge. And I still love your books and I like you 
best. Anyway, very seriously, thank you for being here, Ms. 
Rahim, and the floor is yours. We look forward to your 
testimony.

   STATEMENT OF REND AL-RAHIM, EXECUTIVE DIRECTOR, THE IRAQ 
                  FOUNDATION, WASHINGTON, D.C.

    Ms. Rahim. Thank you Mr. Chairman. I appreciate the 
opportunity to appear before your committee and it's certainly 
a pleasure to see you, and Senator Lugar again. I want to say 
that the views I express here are mine alone, they are not the 
views of any of the institutions with which I am affiliated. I 
was asked to speak for 8 minutes, which is an incredibly short 
period of time.
    The Chairman. If you need to speak for more, you go ahead. 
Just try to----
    Ms. Rahim. I will make short remarks. A written statement 
is filed for the record and I----
    The Chairman. It will be entered in--all of your written 
statements will be placed in the record.
    Ms. Rahim. And I'm hoping that in the question-and-answer 
period, we'll be able to elaborate on more issues and I can 
talk about it in my presented statement.
    I want to focus on the Shia-Sunni relationship in Iraq 
because I believe that, at present, this is the nexus of the 
problem that we have.
    The situation in Iraq is indeed bleak, and as General 
Batraiz said, dire. We have an insurgency that is composed of 
many groups with different agendas. We have sectarian violence 
in which the actors are shadowy and the motives are murky. We 
have a political structure that feeds on and strengthens 
sectarian and ethnic divisions. We have political deadlock and 
a national reconciliation process that is going absolutely 
nowhere, state institutions that are undercapacitated or 
downright dysfunctional and a government that is ineffective in 
its primary task of serving the people.
    Despite this, we should not fall into the fallacy of post 
hoc ergo propter hoc. The situation we have now in Iraq is not 
the inestimable result of the collapse of Saddam Hussein's 
regime. Instead, it is my firm view, that the political 
structure that was adopted by the CPA, in the early days, along 
with policies that were flawed and decisions that were 
disastrous for the country taken by the CPA--and I might add 
with the support of many Iraqi actors made the outcome that we 
see today virtually certain.
    The cardinal and root error committed by the CPA with Iraqi 
collusion was to place Iraqi politics along purely sectarian 
and ethnic lines. This was a gross oversimplification of Iraqi 
society, arising from ignorance and intellectual laziness. And 
it ignored the complex texture and weave of the Iraqi social 
fabric.
    This reductionist model served certain vested interests 
amongst Iraqi political groups. And yet the structure also 
increased religious, sectarian, and ethnic fanaticism in the 
country. It has entrenched the groups in their positions and 
deepened the divides instead of bridging the gaps.
    What should our goals be in Iraq now? There is some short-
term goals and some medium-term goals and the short-term I 
would single out the following very broadly: The reduction of 
violence in Baghdad and in the surrounding five governorates is 
essential; a political settlement that can give confidence to 
all groups in Iraq is absolutely indispensable; and, the 
strengthening of Iraq's national institutions is an essential 
component of building a viable state. Those are our three broad 
goals.
    There are some medium goals that I will not go into in my 
oral statement, but I want to point out here that the vast 
majority of Iraqis want coexistence. They want a national 
political agenda, as opposed to a sectarian agenda. However, as 
in most countries, the majority is disempowered and voiceless.
    I also want to address a misconception common today in 
Washington, which is that Sunnis and Shias in Iraq have been 
fighting it out for centuries. That is not accurate. The 
incidents of sectarian violence in Iraq's history is rare. 
Certainly nothing like the religious wars that raged in Europe 
intermittently for many centuries. The fighting we see today in 
Iraq is absolutely the worst in Iraq's history.
    While it's true that the solutions to Iraq's problems are 
political, the violence impedes the quest for a political 
settlement. The violence in Baghdad and surrounding areas 
exacerbates the political tensions and deepens the sectarian 
divide. This level of violence also blinds the politicians, and 
the public, and saps the national will for reconciliation and 
for compromise. We need to reduce the level of violence in 
order to move the reconciliation process forward. We need to 
break the vicious cycle that currently dominates Iraqi politics 
and turn it, if possible, into a virtuous cycle in which a 
reduction of violence leads to a step in the right direction in 
politics and a step in the right direction in politics reduces 
the violence and so on and so forth. This is the opposite of 
what we have now.
    So, instead of thinking of ending the violence, I would 
like to speak about breaking the cycle of violence in order to 
give Iraqis the opportunity to address and implement political 
objective.
    Moreover, the model of ``Clear, Hold, and Rebuild,'' 
although frequently annunciated has never actually been 
implemented. This needs to be implemented now. And whenever 
possible, Iraqi troops should be in the forefront of the 
rebuild phase of the Clear, Hold, and Rebuild because Iraqi 
forces need to be seen rebuilding in order to gain the trust of 
the people and to build their own confidence in themselves.
    Simultaneously, the Government of Iraq should substantially 
increase the size of the Iraqi Army, and with multinational 
assistance, improve training, equipment, and command and 
control structures.
    Mr. Chairman, I do not believe that there is ever a 
possibility of handing over to the Iraqi forces unless there is 
a serious effort, and the accomplishment of a much larger, much 
better trained, much better equipped Iraqi Army. At present, it 
is my view that the Iraqi forces that we have are simply unable 
to take over.
    I spoke about broad objectives and I want to single out 
some of the prerequisites for a successful dialog. Iraqi 
political leaders have to abandon the ``winner takes all'' 
concept of politics. And for the time being politicians must 
abandon majoritarian and minoritarian modes of thinking. The 
Shia must accept that--however large their majority--they must 
share the territory, the resources, and the State of Iraq with 
all the others. The Shia leaders must change their rhetoric, 
which currently swings between victimhood and triumphantism.
    The Sunnis on the other hand must relinquish the power they 
have been accustomed to and accept that there is a new order in 
Iraq. And the Sunni leaders have to declare against the 
insurgency and condemn the violence in a way that they have 
failed to do so far. They need to be squarely within the 
political framework, and can not continue to straddle both 
sides of the fence.
    In practice, there are several areas that will contribute 
to national reconciliation. The first one is a constitutional 
revision. The current Constitution, Mr. Chairman, is not 
conducive to a viable state. And furthermore, it enshrines many 
of the problems that plague the Iraqi political process right 
now, and that divide the communities from one another. The 
Constitution has to be redrafted, both in terms of individual 
articles, and in terms of the architecture of the state that it 
envisions. The Sunnis were not involved in the writing of this 
Constitution to any significant measure. They need to have a 
strong say in what kind of constitution they are going to be 
living under. So, a constitutional revision must be an 
important element of the political framework, and it has to be 
started as soon as possible.
    There is a committee that was established to review the 
Constitution, but I know that there is a certain level of 
resistance to such a review, both from some Shia groups and to 
some extent by the Kurds. And I think if we have this 
resistance continue, we are going to be in serious problems.
    Another element of national reconciliation is a legislative 
agenda. And within that there is a de-Baathification law that 
needs to be revised. There is a new draft, but that draft has 
not gone to Parliament, and has been languishing in the de-
Baathification committee.
    An amnesty law has been talked about, but to my knowledge 
an amnesty law has not been drafted. Both of these need to be 
drafted, voted on by Parliament, and they need to be very 
closely linked to a credible judicial process. These laws 
should not be an excuse either for scapegoating or for allowing 
Baathis criminals back into politics. So a judicial process 
that is linked to those laws is essential.
    At the same time we ought to have laws against hate speech 
and incitement to violence. A further element of legislation is 
that the Constitution talks about a bicameral Parliament. 
Nothing has been done to create a Iraqi Senate so far. It is my 
view that an Iraqi Senate, which does not depend on 
proportionality, and does not depend on majorities and 
minorities can be an important element in creating national 
consensus and in creating a forum for dialog and for 
problemsolving. I would urge the Iraqi Government to move 
forward with legislation on a Senate as quickly as possible.
    On the issue of disarming the militias, I think a great 
deal has been said about this, but I do not think that it's 
possible to disarm the militias at this stage. Operationally 
the Iraqi Government does not have the forces to disarm the 
militias. Much more seriously, the political parties, which are 
all important, don't have the will for disarming the militias. 
All the political parties have their own militias, and if we 
start disarming one we must disarm all. There is simply no 
appetite in Iraq for doing that at present.
    I think the best thing that we can do, for the moment, is 
to go after the renegade elements of the militias, to go after 
the criminal elements, to seize those and to curtail their 
activities. And as far as the orderly militias that are 
actually answerable to political parties, we should put 
pressure on the political parties to reign in those militias, 
to keep them at home, and to put them under strict discipline. 
The eventual disbanding of militias is going to be essential in 
Iraq's future. However, that will have to wait until a time 
when we do have a political compact, when Iraqi institutions 
are credible and powerful, and furthermore, when we have an 
economic cycle that can ensure jobs and an economic life for 
the members of those militias.
    A further point in national reconciliation is reaching out 
to Sunnis, and I mean here, those Sunni groups that have not 
entered into the political process yet. The Iraqi Government 
and different Iraqi political parties have, from time to time, 
made an effort to reach out to those groups of Sunnis who are 
perhaps part of the insurgency or who are certainly supportive 
of the insurgency.
    This in itself is a very important undertaking, but it has 
yielded limited outcome so far. The contacts have not resulted 
in an abatement of insurgency activities and have not promoted 
a national dialog with those insurgent groups. The demands of 
militant groups are frequently unrealistic and they cause deep 
concern particularly to the Shia. We should certainly not make 
national dialog contingent on the participation of militant 
Sunni groups, but we must accept those Sunni groups if they 
voluntarily wish to participate in political dialog.
    Very quickly, I want to address some of the impediments to 
a national reconciliation. First of all, we should say that the 
Prime Minister has expressed a national reconciliation plan. He 
presented one back in June and it was very laudable, but we 
haven't seen very much happen. We can only assume that the 
Iraqi Government has the desire to affect such a national 
reconciliation, but we are not sure as to its ability.
    And I think here we should not think about Prime Minister 
Maliki, himself, and we should not personalize it. The will and 
the capability has to come from a much wider group of political 
leaders. They as a totality, as a collective, have to have a 
will for this national reconciliation.
    However, as far as the Shia are concerned, they are 
reluctant to relinquish any of their newfound power, and they 
are intellectually still afraid of the return of the Baathis in 
any guise or form, and although they will not admit that, this 
really--they are afraid of the Sunnis as being a broad cover of 
a return of the Baath.
    The Sunnis, on the other hand, approach the political 
process with great distrust. They can not reconcile themselves 
yet to their loss of status and they have watched their 
position erode in state institutions that are built on 
proportionality and ethnicity and sectarianism. As a 
consequence, the Sunni political groups tacitly, or even 
openly, support the insurgency as their ultimate insurance 
policy.
    Another major problem is the way that these groups view the 
nature of the Iraqi State. The Sunnis wish to see a stronger 
national government, which has the ability to acquire income 
and distribute income. The Shia prefer a much weaker government 
in which they could have a strong southern federation and they 
can order their own affairs. They have access to huge oil 
resources, they have agricultural resources, and importantly, 
they have access to ports. The Shia also want to have their own 
social and religious system in the south, and they want minimal 
interference in the government. Unfortunately, the Sunnis view 
such a system of government as depriving them of all resources 
and relegating them to the poor cousins in the countryside.
    Mr. Chairman and Senator Lugar, I do not want to take the 
time from my colleagues. I would like to stop here, but I will 
be very glad to answer questions on a host of other issues.
    Thank you.
    [The prepared statement of Ms. Rahim follows:]

   Prepared Statement of Rend al-Rahim, Executive Director, The Iraq 
                       Foundation, Washington, DC

    Mr. Chairman, thank you for the opportunity to appear before your 
committee. The views I express are mine only, and not those of any 
organization with which I am affiliated.
    I will focus on the impact of Shia-Sunni relations on the situation 
in Iraq, as I believe this to be the nexus of the problems.
    At present the situation in Iraq looks bleak. We have,

  <bullet> An insurgency composed of many groups with different 
        agendas.
  <bullet> Sectarian violence in which the actors are shadowy and the 
        motives are murky.
  <bullet> A political structure that feeds on and strengthens 
        sectarian and ethnic divisions.
  <bullet> Political deadlock and a national reconciliation process 
        that is going nowhere.
  <bullet> State institutions that are undercapacitated or downright 
        dysfunctional
  <bullet> A government that is ineffective in its primary task of 
        serving the people.

    Despite this, we should not fall into the fallacy of post hoc ergo 
propter hoc: The situation we have now is not the inevitable result of 
the collapse of Saddam Hussein's regime. Instead, the political 
structure that was adopted by the CPA in the early days, along with 
flawed policies and decision on the part of the CPA and Iraqi political 
actors, made this outcome virtually certain. The cardinal, root error 
committed by the CPA was to define and build Iraqi politics along 
purely sectarian and ethnic lines. This was a gross oversimplification 
of Iraqi society arising from ignorance and intellectual laziness, and 
it ignored the complex texture and weave of the Iraqi social fabric. 
Unfortunately, this reductionist model was encouraged by some Iraqi 
political groups that had a vested interest in promoting a sectarian or 
ethnic agenda. This structure has in turn increased religious, 
sectarian, and ethnic fanaticism in the country. It has entrenched the 
groups in their positions and deepened the divides instead of bridging 
the gaps.
    In this regard, I would like to quote from a report I wrote in 
September 26, 2003:

          [When] the CPA appointed the GC, it promoted a blueprint for 
        sectarian and ethnic proportional representation, rather than 
        political representation.
          The sectarian and ethnic basis of the political process in 
        Iraq and the prevalence of a clientage system are contrary to 
        the establishment of democracy in Iraq based on a common and 
        equal Iraqi citizenship. This puts Iraq well on the road to 
        Lebanonization, a prospect (allegedly condemned by Iraqi 
        politicians) that carries with it the seeds for grave future 
        dangers in Iraq. As in Lebanon, it paves the way for future 
        friction and the interference of external influences, two 
        dangers that a still vulnerable Iraq is ill-equipped to face. 
        The constitutional process that is taking shape is likely to 
        entrench the flawed nature of this political process. Unless 
        this tendency is countered by the emergence of national, 
        recognizable political parties, particularly from the 
        democratic center, the prospects for a true democracy are 
        limited.

    What should our goals in Iraq be? In the short term, we should aim 
for:

          1. Reduction of violence in Baghdad and the five central 
        governorates;
          2. A political settlement that can give confidence to all 
        groups in Iraq;
          3. Strengthening of national institutions.

    For these short-term goals to be sustainable, we need to set 
medium-term goals:

          4. An end to zero-sum politics;
          5. The development of national political platforms in lieu of 
        sectarian and ethnic platforms;
          6. A rational system of devolution of power to provinces or 
        federated regions.

    I would like to underline that the vast majority of Iraqis want 
coexistence, want a national political agenda, and are opposed to 
sectarian violence. However, as in most countries, the majority is 
disempowered. May I also address the misperception common today in 
Washington, that the Sunnis and the Shia in Iraq have been ``fighting 
it out for centuries.'' That is not accurate. The incidence of 
sectarian violence in Iraq's history is rare: Certainly nothing like 
the religious wars that raged in Europe intermittently for many 
centuries. The fighting we see today is the worst it has ever been in 
Iraq's history.

                     BREAKING THE CYCLE OF VIOLENCE

    While it is true that the solution to Iraq's problems is political, 
the violence impedes the quest for a political settlement. The violence 
in Baghdad and surrounding areas exacerbates the political tensions and 
deepens the sectarian divide. Whether perpetrated by insurgents or 
death squads, every killing calls forth an act of revenge in an endless 
bloody cycle of retaliation and counterretaliation. Every bombing in a 
Shia market inflames the Shia community against the Sunnis. In the 
mayhem, a Shia backlash against innocent Sunnis is inevitable.
    This level of violence blinds the politicians and the public and 
saps the national will for reconciliation and compromise. It is 
imperative to reduce the level of violence in order to ease sectarian 
tensions and launch a credible reconciliation process. We need to break 
the vicious cycle that currently dominates Iraq and turn it into a 
virtuous cycle, in which lower levels of violence encourage 
reconciliation efforts, and more compromises reduce the violence.
    Instead of thinking in terms of ``ending the violence,'' it may be 
more useful to think of ``breaking the cycle of violence,'' especially 
in Baghdad, in order to provide an opportunity for Iraqis to address 
and implement political objectives. The model of ``clear, hold, and 
rebuild'' has never been fully implemented because of lack of assets, 
and needs to be implemented now. Whenever possible, Iraqi troops should 
be in the forefront of the ``rebuild'' phase, to gain the trust of the 
people and build up their own confidence.
    Simultaneously, the GOI needs to substantially increase the size of 
the Iraqi Army and, with multinational assistance, improve training, 
equipment, and command and control structures. But operational 
improvements alone cannot do the job: The Iraqi Army has to be infused 
with a sense of national mission, determination, and pride. Such 
intangible buildup is best provided by Iraqi commanders.

                  ELEMENTS OF NATIONAL RECONCILIATION

    National dialog in Iraq is overdue. Iraqi political actors need to 
enter into a meaningful national dialog aimed at national 
reconciliation and a political compact. So far, there have only been 
large conferences full of fanfare and feel-good speeches in full view 
of the media. The dialog must be sustained, serious, and far-reaching 
in confronting differences and resolving disagreements.
    There are prerequisites for a successful dialog:

  <bullet> Iraqi political leaders have to abandon the ``winner takes 
        all'' and ``loser loses all'' mentality.
  <bullet> For the time being, politicians must abandon 
        ``majoritarian'' and ``minoritarian'' thinking.
  <bullet> The Shia must accept that, however large their majority, 
        they must share the territory, the resources, and the state of 
        Iraq with others.
  <bullet> Shia leaders must change their rhetoric, which currently 
        swings between victimhood and triumphalism.
  <bullet> The Sunnis must learn to relinquish the power they have been 
        accustomed to and accept the new political order.
  <bullet> Sunni leaders have to declare against the insurgency and 
        condemn violence. They need to be squarely within the political 
        framework, and cannot continue to straddle both sides of the 
        fence.
Constitutional revision
    More specifically, revision of the Constitution is a central 
component of national reconciliation. The present Constitution is not 
conducive to a viable state and it enshrines many of the problems that 
plague Iraqi politics now. It has to be redrafted in terms of 
individual articles and in terms of the structure of the state it 
projects. Additionally, the Constitution was written by the Shia and 
the Kurdish parties; the Sunnis were invited into the process late and 
did not have a significant input. The Sunnis have deep fears about 
aspects of the Constitution, and their concerns must be addressed.
Legislative agenda
    Specific laws have to be revised or enacted that bolster confidence 
among the different social groups. Among these are the de-
Baathification law and an amnesty law, both of which should be tightly 
linked to a credible judicial process. There cannot be national 
reconciliation while Sunnis continue to be eyed with suspicion and 
stereotyped as covert Saddam loyalists. At the same time, laws against 
hate speech and incitement to violence must be enacted to reassure the 
Shia and ease their fears. The Constitution provides for a bicameral 
Parliament. An Upper House can serve as a forum for national dialog and 
provide a much needed counterweight to the sectarian and ethnic 
dynamics governing Iraqi politics today. The Iraqi Parliament should 
begin looking at models and drafting legislation for a second chamber 
that is not based on demographic proportionality or electoral 
majorities and minorities.
Disarming the militias
    Most political groups in Iraq have militias. The political groups 
need the militias not only for protection; they are a means to 
political power, territorial control, and economic control. In 
addition, there are local gangs that have acquired the status of 
militias. The GOI should not pick and choose: If it disbands one, it 
must eventually disband all. This is the principle that only the state 
has the legitimate use of force.
    Operationally, the Iraqi Government does not have adequate army 
forces; the troops are not sufficiently equipped and trained, and their 
resolve in such politically sensitive operations may waver. Shia army 
troops may be reluctant to seize and disarm Shia militias. Sunni troops 
may have the same problem. Far more important, the GOI needs the broad 
support, consensus, and cooperation of the political parties in order 
to disarm the militias. Although everyone pays lip service to the need 
to eliminate militias, currently there is no visible political support 
for disarming or disbanding them.
    At present, it is perhaps a more realistic strategy to pursue and 
eliminate the renegade groups that are guilty of crimes rather than 
attempt a wholesale policy toward militias. This, in fact, is happening 
in Baghdad, Basra, and other cities. In the meantime, the more orderly 
militias should be contained. Eventually, the demobilization and 
disarming of militias will require a political compact, easing 
sectarian tensions, economic recovery, job-creation, and a number of 
other transformations in political and economic life that are not 
available now.
Broadening outreach to Sunnis
    The GOI has made efforts to reach out to groups of Sunnis who have 
so far stayed out of the political process and who may be part of, or 
supportive of, the homegrown elements of the insurgency. This in itself 
is an important undertaking, but it has yielded limited outcomes. The 
depth of the problem is demonstrated by the nomenclature: The Sunnis 
call these groups ``the honorable national resistance,'' while the Shia 
call them ``terrorists.''
    In Anbar province, and to some extent in Diyala, local tribes have 
indeed been battling al-Qaeda, but this may be because of local 
conflicts of interest and tribal divisions rather than an outcome of 
national outreach. The insurgency has not abated as a result of dialog 
with Sunni militant groups. The demands of militant groups are 
frequently unrealistic and cause deep concern to the Shia. We should 
certainly not make national dialog contingent on the participation of 
militant Sunni groups, although they should be welcomed if they choose 
to join.

                 IMPEDIMENTS TO NATIONAL RECONCILIATION

    Shortly after taking office, Prime Minister Maliki presented an 
ambitious national agenda which included a 24-point reconciliation 
plan, a proposal for a national amnesty law, a decision to disband the 
militias, and a commitment to reform the Ministry of Interior. To date, 
the national reconciliation project has been confined to the level of 
rhetoric; the revised de-Baathification law has not been presented to 
Parliament; the militias are still going strong; and the Ministry of 
Interior still has a long way to go.
    Because of the PM's statements, we must assume that the Government 
of Iraq has the desire to achieve these objectives. The reality is that 
it is under severe constraints, some of which are operational but the 
more important ones are of political.
    The phrase ``Iraqi leadership'' rightly refers to a collective that 
lies beyond the institutions of the state, and includes the leaders of 
the major political groups in Iraq, who may or may not be members of 
state institutions. The government's ability to execute policy is 
contingent upon the willingness of others to support and help implement 
policies. Without the support of this broader leadership, the 
Government of Iraq is seriously hampered.
    Thus a national compact is not dependent solely on the will of the 
government. Political actors have to reach agreements, but at present 
even the parameters of a national dialog are in dispute.
    After decades of disenfranchisement, the Shia are now enjoying the 
spoils of victory, and are reluctant to give up any of their new-found 
supremacy. Intellectually, the Shia concede that not every Sunni is a 
Baathi and Saddam supporter, but viscerally their suspicions linger. 
They are mortally afraid of the return of the Baathis to power, even 
under other names and other guises, and, therefore, the de-
Baathfication law and the amnesty law present difficulties.
    Sunnis approach the political process with distrust and misgivings. 
They cannot reconcile themselves to their loss of status, and they have 
watched their position erode in the institutions of the state under a 
system of sectarian and ethnic proportional representation. They fear 
that they will be the new underdog and will be subject to persecution 
and revenge measures by the Shia. As a consequence, they tacitly or 
openly support the insurgency as their insurance policy.
    From these central reciprocal fears stem a host of subsidiary 
problems that impede national reconciliation. The Shia and the Sunnis 
do not agree on who should be included in the national dialog. 
Currently the Baath Party is banned in Iraq. Can a reformed Baath Party 
be part of the political process? Should any of the armed Sunni groups 
be included and on what conditions?
    Another major problem is the nature of the Iraqi State. The Sunnis 
wish to see a stronger national government, whereas some Shia religious 
parties want a weak one. These Shia groups see an enormous advantage to 
a grand federated state in the south, with huge oil resources, 
agricultural opportunities, and access to ports. They also want to 
organize their social and civic affairs along religious lines, and want 
minimal interference by the national government. Should Iraq have loose 
federations in the north and south, with little national authority to 
earn income and distribute revenue, they will be bereft of resources.
    Despite these difficulties, national reconciliation must proceed at 
full speed. The alternatives: Continued bloodshed, ethnic cleansing, 
civil war, are horrific and the spillover into the region is 
inevitable.

                         MEDIUM-TERM STRATEGIES

    Iraq is too important to United States strategic interests to be 
allowed to descend into chaos. In order for a national compact to take 
root and for the state to function effectively, the nature of politics 
of Iraq must be changed from a sectarian/ethnic base to a base of 
cross-sectarian, multiethnic national parties. It will be essential to 
develop national institutions that have both capacity and credibility. 
The responsibility for carrying this out obviously lies, first and 
foremost, with this and successive Iraqi governments, but the United 
States, Iraq's neighbors, and the international community must 
recognize that they have a role to play if only for their own self-
interest.

    Senator Lugar [presiding]. Thank you very much.
    Mr. Talabani.

   STATEMENT OF QUBAD TALABANI, REPRESENTATIVE TO THE UNITED 
     STATES, KURDISTAN REGIONAL GOVERNMENT, WASHINGTON, DC

    Mr. Talabani. Thank you, Mr. Chairman. Thank you, Senator 
Lugar, distinguished members of the Senate Foreign Relations 
Committee for the opportunity to testify on the topic of a 
political strategy for Iraq.
    I'd also like to take the opportunity to thank the chairman 
and Senator Lugar for your leadership and support throughout 
the years, when we were in the opposition, and today.
    I'd also like to take this chance to thank the chairman for 
introducing to the debate on Iraq, the modalities of a plan 
that I believe will work. A plan that is not too dissimilar 
from what most Iraqis actually want.
    Key components of the so-called Biden-Gelb plan are viable, 
because there is in it an appreciation of history, and of 
modern-day reality. Let me also take this opportunity to thank 
all those--whether civilian or military--that were, and are 
still part, of this noble effort to liberate and rebuild Iraq, 
as well as express the Kurdistan Regional Government's 
appreciation for the support and sacrifice of the American 
people and Government.
    On that note, a special note must go out to the outgoing 
Ambassador, Zalmay Khalilzad. The Ambassador's work was as 
unique as it was effective. Many in the Iraqi leadership, 
including Iraq's President are sad that Ambassador Khalilzad 
will be leaving us at this critical time, and while everyone is 
looking forward to working with Ambassador Crocker, if he is 
approved, Zal--as we've all come to know him by--will be sorely 
missed.
    Allow me to open by stating that, while many of you may 
know me as the son of Iraq's President, I'm in no way 
representing his, or the Government of Iraq's view, in this 
testimony. I am testifying in my official capacity as the 
representative of the Kurdistan Regional Government to the 
United States.
    A political strategy for Iraq must be just that--political. 
We are still too focused on the military aspect of this 
strategy. The talk of a potential escalation, or deescalation 
in Iraq has overshadowed what really needs to be done in Iraq, 
and by whom. A successful strategy in Iraq that will alter 
Iraq's current, deteriorating situation, must come from within 
Iraq, and not Washington.
    It is precisely for this reason that the Iraq Study Group 
report was met with such visceral opposition by Iraqis on the 
ground. An imposition of a policy from the outside, especially 
one that ignores the glaring realities on the ground, will 
always lead to failure. Only a sound political and economic 
strategy, combined with a military strategy, if implemented, 
will greatly improve Iraq's security situation.
    There can be no successful strategy to resolve Iraq's 
problems, however, if Iraq's leaders themselves do not wish to 
reach a resolution. If they desire reaching a political 
settlement and wish to end the violence--and I believe that, at 
least some do--then they must begin to act as leaders, and come 
to the realization that they are on the brink to leading Iraq 
to failure. The failure of successive Iraqi regimes to rule 
justly has created irreparable divisions, and insurmountable 
insecurities within Iraq. It is precisely these insecurities 
that exacerbate the mistrust between Iraq's Sunni-Arab, and 
Shia-Arab communities. Iraq's Kurds, not lacking insecurities 
of our own, have gone to great lengths to attempt to ease the 
tension between these groups. We have led most, if not all, the 
negotiations between the conflicting parties, and continue to 
lead efforts to resolve the outstanding issues.
    A sustainable political settlement in Iraq cannot be 
reached unless certain issues are tackled--swiftly, and by 
Iraqis. These include: Resolving and passing Iraq's national 
oil, revenue-sharing, and budget laws, all of which are 
critical to national reconciliation. Revising and implementing 
a sound de-Baathification policy that does not exclude all 
members of the outlawed party from public service, just those 
that, because of the crimes that they had committed, could 
never be accepted back into government.
    Also, as Rend Rahim stated, that devising an amnesty 
program that separates terrorists from those that have 
legitimate grievances, and could be encouraged to return to a 
political process. We must take necessary steps at disarming, 
and bringing to justice death squads and rogue militias that 
act outside of the law. We must also address, once and for all, 
the issue of Kirkuk and its future.
    Rather than coming up with solutions to our problems, the 
United States should work harder to foster and nurture the 
ongoing negotiations on these issues. The United States must 
have a comprehensive strategy, that does not deal with the 
various communities in isolation. Simultaneous messages must be 
related to both Iraq's Sunni-Arab, and Shia communities. Sunni-
Arab leaders must be warned that if they continue along this 
path of using both violence and politics, that they will lose, 
and that the United States will not be there to save them.
    At the same time, it is critical to pressure Iraq's Shias 
to follow for a genuine, inclusive political process for a 
system of government that shares power, and the country's 
wealth, equitably.
    International pressure can be applied to Iraq's unity 
government, by making assistance programs, and the World Bank 
and IMF assistance packages contingent on good governance. 
Iraq's leaders must be held accountable for the actions of 
their constituents. Their legitimacy, and that of the 
government's, in the eyes of the international community must 
hinge on a strong and tangible commitment to accountability.
    There can be no political settlement without addressing the 
issue of federalism. Federalism as defined by Iraq's 
democratically ratified Constitution, and further put into law 
by Iraq's Parliament, should not be met with fear or suspicion 
in Washington. Although it will be initially met with 
skepticism, it will, over time, in my opinion, foster success 
stories similar to that which we see in the Kurdistan region.
    Iraqi-Kurdistan stands today as a federal region with its 
own government, security structure, and development plan. 
Indeed, it is one of the few successes in Iraq.
    In this instance, it is not about what the United States 
should do, but rather what the United States should not do. If 
other Iraqis want to federalize the rest of the country, 
providing that such steps are taken democratically, and with 
the support of the people who live in those regions, then we 
must stand on the side of the Constitution, and not obstruct 
democracy. As long as the political prize remains Baghdad, and 
all of the decisionmaking powers rest within a central 
authority that is not trusted, then there will remain violence.
    No federal system can succeed without a sound natural 
resources policy. Cooperation on Iraqi oil production and 
revenue-sharing presents an opportunity to bring peace and 
stability to Iraq. Significant progress has been made in 
establishing a cooperative agreement on oil. A draft oil law 
was prepared in December last year, which includes the creation 
of an intergovernmental entity, the Federal Council for Oil and 
Gas, with both federal and regional membership. This will be 
the supreme body for establishment of petroleum policy in Iraq.
    A revenue-sharing law will soon be prepared, that will 
ensure that all petroleum revenues in Iraq are forwarded, 
again, to this intergovernmental body, and shared equitably 
across Iraq, based on population. We must guarantee that the 
flow of oil revenues to parts of Iraq that lack oil resources--
including the so-called Sunni Triangle--which is the source of 
so much violence today.
    These two laws will each constitute major achievements. I 
am proud to say that the KRG has been at the very forefront of 
these drafting efforts. Importantly, these two laws will 
contain major concessions by the Kurdistan Regional Government. 
Although the Constitution of Iraq gives us the sole authority 
to develop new fields, and receive revenues from those fields, 
we have agreed to share those revenues with the rest of Iraq.
    It is--we have also agreed to share information with the 
central government about future petroleum contracts, and 
provide it with the ability to object to those contracts, based 
on economic or technical grounds.
    However--and this is important--this cooperative agreement 
will depend on it respecting the right of the regions to make 
the final decision on petroleum contracting in the region, 
while at the same time, respecting the right of the regions to 
receive its proportionate share of the national revenue. Let me 
be very clear, that while we are prepared to cooperate fully, 
there will be no Iraqi law or revenue-sharing law that violates 
these rights.
    The KRG very much looks forward of receiving the advice of 
international institutions on the creation of a transparent, 
corruption-free, Iraq revenue-sharing system that can guarantee 
the viability of the central government, and the right of 
regions to their proportionate share of the revenue.
    A sound national development plan is also critical for 
Iraq's stability. Advancements in the political process and 
security will not, alone, bring peace and prosperity. 
Collectively, we must devise an approach that expands on the 
successes of the stable parts of the country, in order to 
isolate the trouble spots, and spread the circles of stability 
across the country.
    If successful, citizens will see that the government is 
actually working to provide the basic services, and is putting 
money into development. In turn, the population will have more 
to lose by turning a blind eye to the terrorists. As part of 
national reconciliation, we must turn the Iraqi citizens 
against al-Qaeda, and other extremists.
    National reconciliation can never be reached, unless the 
status of Kirkuk is resolved. Kirkuk, a governorate that 
underwent decades of ethnic cleansing of Kurds and Turkomans by 
Saddam's regime symbolizes Iraq's tragedy today. While we are 
bringing to justice the perpetrators of ethnic cleansing, their 
racist handiwork remains intact. Significantly, Iraqis 
themselves have devised a process to rectify this injustice, 
committed by the former regime.
    It would be wise for the United States to allow this 
process to progress naturally, and according to a timetable 
that Iraq's leaders have agreed upon. Imposing a delay on the 
proposed referendum that determines whether Kirkuk will be 
administered by the Kurdistan Regional Government or by the 
central government, will only raise the risk of the situation 
erupting out of control. The grim reality is, that whether we 
tackle this issue now, or 10 years from now, the final outcome 
will still be messy. The longer we delay the process, the 
greater the tensions will become, and the uglier the fallout 
will be.
    To conclude, whether or not a political settlement in Iraq 
can be reached will depend largely on Iraq's leaders 
themselves, and not on a strategy imposed from the outside. If 
all sides involved can come to the realization--and most have--
that a centralized system of governance cannot and will not 
work in Iraq, and that a sound federal system is set in place, 
then we can begin to take steps to reduce the people's 
insecurities.
    The international community, and in particular, the United 
States can be helpful in managing and nurturing this dialog, 
not dictating it. We must be pressured to implement our own 
national reconciliation plan. All sides must make compromises: 
Sunnis must compromise on their demands for a unitary state, 
Shiites must compromise by loosening their grip on power, and 
we Kurds have to come to an agreement with a central government 
on certain mechanisms of governance and revenue-sharing, as has 
been done thus far.
    Having just returned from a trip to my homeland, where I'm 
happy to say we no longer have to take the 7 bumpy hours' 
drive, we can fly directly from many European cities, I would 
like to take this opportunity to express some of the grievances 
of the people of Kurdistan. Most, if not all Kurds feel, that 
all of goodwill shown by the Kurdish side, and its proactive, 
positive engagement in the new Iraq have yielded limited gains 
for our people.
    While clearly no longer fearing that Saddam Hussein or his 
regime cannot commit genocide against us is not insignificant, 
certain United States policies continue to irk the whole 
community in Iraq that most closely shares American values, and 
considers the United States a close friend and partner.
    The United States development strategy for Iraq is a case 
in point. Of the $21 billion or so put aside for Iraq 
reconstruction, a comparatively small $600 million has been 
spent in the Kurdistan region, a figure of 3 percent, a figure 
that bemuses our citizens. While, in some areas, we are 
advanced, we still lack the critical infrastructure and the 
industries that exist elsewhere in Iraq.
    During a talk that I gave at the University of Suleimani in 
Iraqi-Kurdistan last week, I was constantly asked this 
question, ``When Iraq fails, and the United States leaves, what 
guarantee is there that they--the United States--will protect 
our hard-earned gains?'' It is fair to say that both the Kurds 
in Iraq and the United States have put all our eggs in one 
basket, that is Baghdad. I fear that this basket will burn in 
the fire of that city, and all that we have accomplished 
together over the past 15 years will be in jeopardy.
    Distinguished Senators, the Kurds will remain forever 
grateful for the protection provided under Operation Northern 
Watch, and for the ouster of Saddam and his regime. However, we 
still remember the American abandonment of 1975, and the 
miscalculation of 1991. And while we will continue to commit to 
do all that we can to ensure a viable, political solution for 
Iraq, including not breaking away from Iraq, we cannot 
guarantee that Iraq will not break away from us.
    In such a scenario, resulting also in a likely American 
withdrawal, we seek a guarantee that our success story--one of 
the few that the United States has helped with in the Middle 
East--will be protected. After all the Americans and the Kurds 
have been through, a relatively democratic and open Kurdistan 
in the heart of the Islamic Middle East, should be protected. 
It is in the United States interest, and should be the moral 
obligation.
    I will end with four goals for which our people seek your 
support. And one is, to provide an American security guarantee 
to the people of Iraqi-Kurdistan no matter what happens in 
Iraq. And a commitment that the United States spend at least 17 
percent of congressionally appropriated funds intended for 
Iraq's development in the Kurdistan region. This goes in line 
with the Government of Iraq's own economic policy, of 
allocating the Kurdistan region the 17 percent of revenues 
gleaned from sale of oil.
    We also seek a commitment to assist in the development--
developing greater public/private partnerships between the 
United States and the Kurdistan Region. We feel that our region 
has not--the United States has not used our region enough, to 
the fact that it's stable and secure, to promote greater 
business investment that could ultimately help all of Iraq, and 
not just the Kurdistan region.
    And finally, I call on all Members of Congress visiting 
Iraq to move beyond the Green Zone, and come visit us up in the 
North, to see some of the successes that you've invested so 
much in.
    Thank you.
    [The prepared statement of Mr. Talabani follows:]

 Prepared Statement of Qubad Talabani, Representative of the Kurdistan 
    Regional Government of Iraq to the United States, Washington, DC

    Thank you, Mr. Chairman, Senator Lugar, distinguished members of 
the Senate Foreign Relations Committee, for the opportunity to testify 
on the topic of a political strategy for Iraq. I would also like to 
take this opportunity to thank the chairman and Senator Lugar for your 
leadership. Your support to Iraq goes back to the days when we were in 
the Iraqi Opposition. While I am grateful for the many visits committee 
members have taken to Iraq, I do hope that congressional delegations 
will visit Iraq's Kurdistan region as well. As you know, Mr. Chairman, 
an accurate analysis of Iraq requires visits to every region of the 
country.
    I would also like to take this chance to thank you, Mr. Chairman, 
for introducing to the debate on Iraq the modalities of a plan that I 
believe will work. Key components of the so called ``Biden-Gelb'' plan 
are viable because there is in that plan an appreciation for history 
and modern day reality. Indeed, we must understand Iraq's faulty past 
to reach a political settlement that sticks in the future, while 
recognizing that Iraq has changed as a country and new realities have 
become facts on the ground. I commend you for offering an alternative 
approach.
    Let me take this opportunity to thank the brave men and women of 
the U.S. Armed Forces who are serving or who have served in Iraq as 
well as the American diplomatic corps and civilian employees who labor 
tirelessly with Iraqi officials to ensure that the fruit of our 
partnership is a prosperous and peaceful Iraq. A special note must go 
to Ambassador Khalilzad. The Ambassador's work was as unique as it was 
effective. Many in the Iraqi leadership, including Iraq's President are 
unhappy that Ambassador Khalilzad is leaving at this critical time. 
While everyone is looking forward to working with Ambassador Crocker, 
Zal, as we have all come to know him, will be sorely missed.
    Allow me to open by stating that while many of you may know me as 
the son of Iraqi President Jalal Talabani, I am in no way representing 
his, or the Government of Iraq's view in this testimony. I am 
testifying in my official capacity as the representative to the United 
States of the Iraqi Kurdistan Regional Government (KRG). I was also 
asked by the committee staff to provide a quick description of my post. 
In my capacity, I work closely with the executive and legislative 
branches of the U.S. Government as well as the media and research 
institutions, providing analysis and up-to-date information about the 
situation in Iraq and the Kurdistan region. Finally, there may be 
instances during the question and answer segment when it would be more 
advantageous to committee members that I speak in a closed session. I 
would be happy to do so.
    Distinguished Senators, excuse me if I appear blunt in some of what 
I say today. There is a time for more diplomatic speeches, but given 
the gravity of the situation, and the fact that American and Iraqi 
lives are being lost every day, now is not such a time.
    A political strategy for Iraq must be just that, political. We are 
still too focused on the military component of the Iraq debate. The 
talk of a potential escalation or deescalation in Iraq has overshadowed 
what really needs to be done in Iraq and by whom.
    The reality is that upon handing over sovereignty in June 2004, the 
ability of the United States to effectively direct the situation on the 
ground has been reduced. This means that a successful strategy in Iraq, 
one that will alter Iraq's current deteriorating situation, must come 
from within Iraq, not Washington. It is precisely for this reason that 
the Iraq Study Group (ISG) report was met with such visceral opposition 
by Iraqis. An imposition of a policy from outside, especially one that 
ignores the glaring realities on the ground will lead to more failure 
and more bloodshed in Iraq.
    There are, of course, aspects of any strategy for Iraq that must be 
coordinated between Baghdad and Washington, such as the roles and 
responsibilities of the U.S. Armed Forces in theater, and their 
interaction and coordination with Iraq's developing security forces. 
But in my honest opinion, it will be a sound political and economic 
strategy, not a military strategy alone, which, if developed and 
undertaken, will greatly improve Iraq's security situation.
    There can be no successful strategy to resolve Iraq's problems if 
Iraqi leaders themselves do not wish to reach a resolution. If they 
desire reaching a political settlement and wish to end the violence, 
and I believe that at least some do, then they must begin to act as 
leaders and come to the realization that they are on the brink of 
leading Iraq to failure.
    Iraq is a country, that in the eyes of many, was founded on faulty 
logic. It was founded on a principle that a representative of a 
minority can rule a multiethnic and multisectarian society. Such logic 
could have succeeded if Iraq's past rulers had ruled justly, treating 
all as equal. However, successive Iraqi regimes have failed to do just 
that, creating irreparable divisions and insurmountable insecurities 
within Iraqi society.
    Today, insecurities run deep within all segments of Iraqi society. 
Indeed, it is precisely these insecurities that exacerbate the mistrust 
between Iraq's Sunni Arab and Shiite Arab communities; a mistrust that 
has resulted in the violence we see today. Iraq's Kurds, not lacking 
insecurities of our own, have gone to great lengths to attempt to ease 
the tension between these groups. We have led most, if not all, 
negotiations between the conflicting groups. We have and will continue 
to bridge the many significant and potentially damaging differences 
that exist within the Iraqi polity today, sometimes to the disadvantage 
of our interests and against the wishes of our own constituency.
    A sustainable political settlement in Iraq cannot be reached unless 
certain issues are tackled swiftly, and by Iraqis. These include:

  <bullet> Resolving and passing Iraq's national oil, revenue-sharing, 
        and budget laws--all of which are critical to national 
        reconciliation;
  <bullet> Revising and implementing a sound de-Baathification policy 
        that does not exclude all members of the outlawed party from 
        public service, just those that, because of crimes they had 
        committed, will never be accepted back into government;
  <bullet> Devising an amnesty program that separates terrorists from 
        those that have legitimate grievances and could be encouraged 
        to return to a political process;
  <bullet> Taking necessary steps to disarm and bring to justice death 
        squads and rogue militias;
  <bullet> Addressing, once and for all, the tense issue of Kirkuk and 
        its future.

    Rather than coming up with solutions to our problems, the United 
States should work harder to foster and nurture the ongoing 
negotiations on these key issues.
    The United States must have a comprehensive strategy that does not 
deal with the various communities in isolation. Simultaneous messages 
must be related to both Iraq's Sunni Arab and Shiite communities.
    Sunni Arab leaders must be warned that if they continue along this 
path of using both violence and politics, they will lose, and the 
United States will not be there to save them. A political settlement 
will more likely be reached if and when our Sunni Arab brothers come to 
the realization that they will no longer hold the ascendancy in Iraq. 
Our American friends must help to make Iraq's neighbors aware of this 
reality. The days of a minority dominating all aspects of Iraqi 
politics are over. At the same time, it is critical to (1) alleviate 
the insecurities of Iraq's Shiites by clarifying that the United States 
and the West do not see them as Iranian proxies, and (2) pressure them 
to allow for a genuine inclusive political process through a system of 
governance that shares power and the country's wealth equitably.
    International pressure can be applied to a Shiite-led unity 
government by limiting assistance programs and/or restricting World 
Bank and IMF assistance packages. Pressure must also be applied to the 
Shiite leadership to stand up to rogue militias and death squads that 
have fueled this ever-increasing sectarian bloodshed. Leaders of both 
Shiite and Sunni communities must be held accountable for the actions 
of their constituents. Their legitimacy, and that of the government's, 
in the eyes of the international community, must hinge on a strong and 
tangible commitment for accountability.
    There can be no political settlement without addressing federalism. 
Federalism in Iraq will be key to ensuring a longer term, sustainable 
political settlement.
    The creation of federal regions, as defined by Iraq's 
democratically ratified Constitution and further put into law by Iraq's 
Parliament, should not be met with fear or suspicion in Washington. 
Allowing Iraqis the right to determine their own future by devolving 
power to communities governing their own areas will most probably be 
met with skepticism at first. Over time, in my opinion, this approach 
will foster success stories similar to those that we see in Iraqi 
Kurdistan. Iraqi Kurdistan stands today as a federal region with its 
own government, security structure, and development plan. Indeed, it is 
one of the few successes in Iraq. As long as the political prize 
remains, Baghdad and all decisionmaking powers rest within a central 
authority, there will remain violence, especially as there exists today 
very little trust between the various communities in Iraq.
    In this instance, it is not about what the United States should do, 
but rather what the United States should not do. If other Iraqis want 
to federalize the rest of the country, providing such steps are taken 
democratically and with support of the people who live in those 
regions, then we must stand on the side of the Constitution, and not 
obstruct democracy. Attempts to impose an unworkable unity, merely for 
the sake of addressing the concerns of Iraq's neighbors or for the 
purpose of creating an illusion against the will of its people, will 
lead to disaster.
    No federal system can succeed without a sound natural resources 
policy. Cooperation on Iraqi oil production and revenue-sharing 
presents an opportunity to bring peace and stability to Iraq. This has 
been the constant message of the Kurdistan Regional Government (KRG) 
leadership, and particularly its Minister for Natural Resources, Dr. 
Ashti Hawrami. It is excellent to see in Washington that others are 
reaching the same conclusion. Oil revenues, if managed well, can ensure 
both a viable federal government as well as strong, self-sustaining 
federal regions, as the Constitution of Iraq envisages. There is an 
opportunity to guarantee the flow of oil revenues to parts of Iraq that 
lack oil resources, including the so-called Sunni Triangle, which is 
the source of so much violence.
    Significant progress has been made in establishing this cooperative 
agreement. A draft oil law was prepared in December last year that 
includes the creation of an intergovernmental entity, the ``Federal 
Council for Oil and Gas,'' with both federal and regional membership. 
This will be the Supreme Body responsible for petroleum policy. 
Significantly, under that law there will be a role for private sector 
petroleum investment, to maximize the speed and size of the returns to 
the Iraqi people. A revenue-sharing law will soon be prepared that will 
ensure that all petroleum revenues in Iraq are forwarded--again to an 
intergovernmental body--and shared equitably across Iraq based on 
population. These two laws will each constitute major achievements. 
They are achievements, I might add, which are genuine Iraqi agreements, 
and not the product of outside influence or pressure. I am proud to say 
that the KRG has been at the very forefront of these drafting efforts. 
Indeed, it is Kurdistan's own investor-friendly legislation that is 
serving as a model for the Iraq-wide regime.
    Importantly, these two laws will contain major concessions by the 
KRG. Although the Constitution of Iraq gives the KRG the sole authority 
to develop new fields and receive revenue from those fields, the KRG 
has agreed to share those revenues with the rest of Iraq. It has agreed 
to share information with the central government about future KRG 
petroleum contracts, and provide it the ability to object to those 
contracts on technical or economic grounds.
    However--and this is important--this cooperative agreement will 
depend on two things. First, it must respect the right of regions to 
make the final decision on petroleum contracting in the region.
    Second, it must respect the right of any region to receive its 
proportionate share of the national revenue. (These rights are 
contained in articles 110, 112, 115, and 141 of the Constitution.) Let 
me be very clear: While the KRG is prepared to cooperate fully, there 
will be no Iraq oil law or revenue-sharing law that violates these 
rights. Reports that arose last week that there will be a new oil law 
that ``centralizes'' control of Iraq's oil are incorrect. From now on, 
in Iraq, petroleum policy will be a cooperative agreement, not one that 
is imposed from Baghdad or anywhere else. The oil law that was prepared 
last December has not been altered and will hopefully be finalized as 
quickly as possible. And as we begin our talks on the revenue-sharing 
law, the KRG very much looks forward to receiving the advice of 
international institutions on the creation of a transparent, 
corruption-free Iraq revenue-sharing system that can guarantee the 
viability of the central government and the right of regions to their 
proportionate share of revenue.
    A sound national development plan is also critical to Iraq's 
stability; advancements in the political process and security will not 
alone bring peace and prosperity. The Iraqi Government should work 
closely with the U.S. Government as well as other nations and 
international institutions to devise an approach that expands on the 
successes of the Kurdistan region as well as parts of the south and 
east. Working in areas of the country that are more stable and 
accommodating will isolate those in trouble spots that seek only to 
attack reconstruction projects and everyday services. Certainly, such 
an approach is a better use of U.S. taxpayer dollars. Successful 
development projects will increase the circles of stability and 
progress across the country. Indeed, citizens will see that the 
government both provides services and is putting money into 
development, and in turn the population will have more to lose by 
turning a blind eye to terrorists and criminals.
    National reconciliation can never be reached unless the issue of 
Kirkuk is resolved once and for all. Kirkuk, a governorate that had 
been ethnically cleansed by Saddam's regime, where several hundreds of 
thousands of Kurds and many Turkomans had been evicted from their homes 
purely because of their identity, symbolizes Iraq's current tragedy. It 
is a tragedy because communities have been pitted against one another. 
While Baath leaders are facing trial in Baghdad, and the head architect 
of a policy of genocide in Kirkuk, Saddam Hussein, is no longer with 
us, his racist handiwork remains intact.
    While we are bringing to justice the perpetrators of ethnic 
cleansing, Iraqis themselves have devised a process to rectify the 
injustices committed by the former, criminal regime. It would be wise 
for the United States to allow this process to move forward naturally 
and according to a timetable that Iraq's leaders agreed upon in the 
most important document: The nation's constitution. Imposing a delay on 
the proposed referendum that resolves the status of Kirkuk--i.e., 
whether it will be administered by the KRG or by the central 
government--will only lead to increasing, already high tensions and 
will raise the risk of the situation erupting into full-scale 
bloodshed. The grim reality is that whether we tackle this issue now or 
in 10 years, the final outcome will still be messy. However, the longer 
we delay the process, the greater the tensions will become, and the 
uglier the fallout will be. We have kicked this explosive can down the 
road for too long.
    Finally, a word about Kirkuk's oil. In advance of the referendum on 
Kirkuk, the KRG has taken great care to ensure that tensions are not 
raised on Kirkuk's petroleum. Even at such time when Kirkuk becomes 
part of the Kurdistan region following the referendum, the KRG has 
confirmed, and here I will reaffirm, that it has no unilateral claim to 
the rights or revenues on the Kirkuk oil fields. Under the Iraq 
Constitution--which must always be our guide--the management of those 
fields is to be shared by the central government and the region, and 
the revenues shared throughout the country.
    To conclude: Whether or not a political settlement in Iraq can be 
reached will depend largely on Iraq's leaders, and not a strategy 
imposed from outside. Iraq's leaders, except by and large the Kurds, 
have yet to demonstrate a true willingness to reach across ethnic or 
sectarian boundaries and offer compromises that will lead to a calming 
of the situation.
    If all sides involved can come to the realization, and most have, 
that a centralized system of governance cannot and will not work in 
Iraq and a sound federal system is set in place, then we can begin to 
take steps to reduce the peoples' insecurities.
    The international community, and in particular the United States, 
can be helpful in managing and nurturing this dialog, not dictating it.
    All sides must also make compromises. All or nothing polices will 
inevitably lead to failure. Sunnis must compromise on their demands for 
a unitary state. Shiites must compromise on loosening their grip on 
power. And we Kurds have to come to an agreement with the central 
government on certain mechanisms of governance and revenue-sharing as 
has been done thus far.
    Having just returned from Kurdistan, I would like to take this 
opportunity, as the KRG representative in the United States, to express 
the grievances of the people of Kurdistan. Most, if not all, Kurds feel 
that time after time they have been taken for granted by the U.S. 
Government. All the good will shown by the Kurdish side in its 
proactive, positive engagement in the new Iraq has yielded limited 
gains for our people. It is significant that the fear of Saddam 
Hussein's regime and its genocide are gone. However, certain policies 
and statements by senior United States Government officials continue to 
irk an entire community in Iraq that most closely shares American 
values and considers the United States a close friend and partner.
    The American development strategy for Iraq is a case in point. Of 
the $21 billion or so put aside for Iraq reconstruction, a very small 
$600 million has been earmarked or spent in the Kurdistan region. That 
is 3 percent, a figure that bemuses our citizens precisely because the 
Kurdish population in Iraq is closer to 20 percent. While in some areas 
we are advanced, we still lack the critical infrastructure and 
industries that exist elsewhere in Iraq. The U.S. Government's official 
line on Iraq reconstruction, of working by sector not region or 
province, has never sat well with the Kurdish leadership or our ever 
increasingly frustrated population.
    We hope that with the opening of the Regional Reconstruction Team 
(RRT) in Erbil, thanks in great measure to the United States, we will 
begin to see a change in strategy that takes into account the efforts 
and the hard work of the Kurdish side and translates into significant 
improvements in the region's development. One stark example: After all 
that has been achieved, the Kurdistan region only gets 2-3 hours of 
electricity a day. The region is constantly touted as a success story 
and given Iraq's current predicament one can say that we are. However, 
we are a success because of, and I'm sorry to say sometimes despite of, 
U.S. foreign policy.
    I will end by sharing a story. During a talk I gave at the 
University of Suleimani, in Kurdistan, I was constantly asked, ``When 
Iraq fails, and the United States leaves, what guarantee is there that 
they--the United States--will protect our hard-earned gains?'' It is 
fair to say that both the Kurds of Iraq and the United States have put 
all our eggs in one basket. That is, Baghdad. I fear that our basket 
will burn in the fire of that city, and all that we have accomplished 
together over the past 15 years will be in jeopardy. Distinguished 
Senators, the Kurds will remain forever grateful for the protection 
provided under Operation Northern Watch, and for the ouster of Saddam 
and his regime. However, we still remember the American abandonment of 
1975, and the miscalculation of 1991. While we will continue to commit 
to do all that we can to ensure a viable political solution for Iraq 
including not breaking away from it, we cannot guarantee that Iraq will 
not break away from us. In such a scenario, resulting also in a likely 
American withdrawal, we seek a guarantee that our success story--one of 
the few that the United States has helped with in the Middle East--will 
be protected. After all that Americans and Kurds have been through, 
good and bad, a relatively democratic and open Kurdistan, in the heart 
of the Islamic Middle East, should be protected. It is in the U.S. 
strategic interest and should be your moral obligation.

    Senator Lugar. Well, thank you very much, Mr. Talabani.
    The Chair will recognize now, Dr. Kubba.

 STATEMENT OF DR. LAITH KUBBA, SENIOR DIRECTOR FOR THE MIDDLE 
   EAST AND NORTH AFRICA, NATIONAL ENDOWMENT FOR DEMOCRACY, 
                         WASHINGTON, DC

    Dr. Kubba. Thank you, Ranking Member Lugar, distinguished 
members of the committee.
    Thank you for the opportunity to address the committee on 
Iraq at such a critical moment. And, I am aware of the 
difficulties facing decisionmakers who have to strike painful 
balances between so many conflicting demands.
    Without repeating some of the views my colleague Rend Rahim 
had mentioned, I'd like to focus more on how to deal with the 
Iraqi politics, on the future rather than the past, and make, 
maybe one or two recommendations in view of the prognosis of 
Iraqi politics. I will be brief, for the record, I do not 
oversee the Iraq Program at the National Endowment for 
Democracy, and the views I express are mine, and not those of 
the endowment.
    I want to start by emphasizing the obvious, and that is, 
failure in Iraq is not an option, that the essence of the 
problem is political, and that the responsibility is mainly 
with the Iraqi Government and its elected politicians. My main 
remarks will be more, or mainly, on Arab-Iraq and, to a lesser 
extent, on the Kurdish-Iraq or Kurdistan.
    Iraq faces multiple, interwined challenges, ranging from 
violence, sectarianism, terrorism, to developing the economy, 
expanding the job market, to controlling and influencing--
controlling the influence of Iraq's neighbors. Most of these 
challenges have been complicated by one cause--the breakdown of 
the Iraqi State, and the continued absence of an effective 
government.
    Iraqi politicians, and its government could and should do 
more. But under current circumstances, they will not. They are 
dug deep in a zero-sum survival game--survival struggle--and 
are prepared to go down, and take Iraq down with them. However, 
to leave Iraq or simply hand over the problem to the Iraqi 
Government will make it even worse.
    There are huge hidden dangers, and suggestions to encourage 
dividing Iraq or pulling back troops to safe areas, where Arab 
Shias and Sunnis militias exhaust themselves and the country to 
death in their fights. Iraq's current mess has already happened 
on America's watch, and more should not be allowed to happen, 
as such.
    Whatever the plans might be, the United States needs, in 
the Iraqi Government, a partner who is willing and capable to 
rebuild Iraq as a nation-state. The government currently lacks 
such a collective will, and/or vision on how to do it. It is 
yet to build its own effective army and democracy above 
communal loyalties and sectarian politics. Without such 
collective will and shared vision, Iraqi politicians and the 
government cannot build a strong, functioning institution.
    Millions of Iraqis suffer the consequences of a 
dysfunctional state, controlled by ethnoreligious politics, 
with many regional ties. It is wishful thinking to assume that 
the threat of withdrawal--American withdrawal--or suspending 
financial aid to Iraq will pressure the Iraqi Government into 
the right course. Only through much closer and accurate 
diagnosis of the predicament of Iraq--of Iraqi politics--the 
United States can find the right pressure points that will 
force politicians into compromise.
    It is unrealistic to expect the Prime Minister, the Iraqi 
Prime Minister, alone, to change the nature of the Iraqi 
Government or the politics behind it. Prime Minister Maliki, I 
think, is a willing partner who shares a vision of building a 
state above identity politics. Firm statements of U.S. support 
and troop surge, recent troop surges in Baghdad, have 
strengthened his hand. But this will not be sufficient to 
change the behavior of elected Iraqi politicians.
    With the best of his will and ability, and with the maximum 
support the United States can afford, and maximum pressure the 
United States can put on Prime Minister Maliki, there is 
obviously a very clear limit to how far he, and his government, 
can go. By design, the Prime Minister's position is weak, and 
controlled by the politicians, who will not loosen their grip 
over the State, having tasted its privileges, and the power 
that comes with it.
    I would like to sum the predicament of the Iraqi State 
Government and its politics. Since June 2003, the United States 
effort in Iraq focused on three tracks--delivering a political 
process, ensuring security, and developing the economy. The 
political process was real and successful. It brought about 
important and valuable outcomes, an elected legitimate 
Parliament, and a coalition government. However, this 
successful political process took place while Iraq had no 
effective state institutions to deliver security and services 
to all citizens.
    The state was dismantled in April 2003, and since then, all 
attempts to rebuild it took place parallel to formulating a 
democratic process. Nearly all Iraqi administrative and 
security problems branched out of an absent state. Without a 
functioning state, identity politics flourished.
    There was a rapid emergence of communal, tribal, religious, 
and ethnic politics. The prolonged absence of the state led to 
the emergence of militias and alternative power centers. 
Identity politics today dominates Iraq.
    Iraq's democratic political process is now seriously 
undermined by the weakness and absence of the state from 
citizens' lives. People left to their own devices, they rallied 
naturally behind their ethnic, tribal, and religious leaders. 
Today, a new class of politicians thrive, they play on identity 
politics, hating and fearing the other.
    Elections, unfortunately, legitimized and empowered them. 
They control Iraq, its resources, and its people, and will 
continue to fight their own narrow agendas over turf and 
resources, and expose the whole country to the consequences.
    Today, Iraq is in a vicious circle, where rebuilding the 
state requires national politics, but that in turn, requires 
the presence of a strong state. The past investment in 
rebuilding the state failed because of the ethnosectarian 
politics. More of the same will not work: More time, more 
trained Iraqi police and army, more resources--all of these 
previously tried measures may be necessary, but surely 
insufficient.
    It is clear by now that Iraqi politics needs a fix, without 
which, a surge in security measures can bring temporary relief, 
but not a cure for the problem. It is unrealistic to assume 
that the threat of withdrawal from Iraq would pressure 
politicians into political compromise, cooperation, or better 
behavior. Some would welcome it.
    Due to the geographical, historical, and political factors, 
I would suggest that the prospect of involving Iraq's 
neighbors, resolving Iraq's security problems, has the 
potential to force Iraqi politicians to make the necessary 
compromises, and take the right course. The Prime Minister 
needs United States support to lead a roundtable conference for 
Iraq's neighbors to agree a compact on security, to include 
border controls, the flow of cash and arms to communities, and 
rebuilding Iraq.
    Only through the prospect of such a regional involvement, 
Iraqi politicians will compromise their positions, and work out 
a shared vision on future Iraq. Only a united Iraq, with an 
effective government, and an agreement with its neighbors can 
deny al-Qaeda its breeding grounds in lawless Iraqi cities, and 
end sectarian violence.
    The stakes could not be higher for America, and hence 
domestic politics, regional concerns, and any other special 
interest must all be balanced to ensure success in Iraq.
    Thank you.
    [The prepared statement of Dr. Kubba follows:]

Prepared Statement of Laith Kubba, Senior Director for the Middle East 
   and North Africa, National Endowment for Democracy, Washington, DC

    Chairman Biden, Ranking Member Lugar, and distinguished members of 
the committee, let me begin by expressing my appreciation for the 
opportunity to address the committee on Iraq at such a critical time, 
and as an Iraqi American, to express my appreciation to you, Mr. 
Chairman, for your thoughtful insights and firm commitment to ensure 
that America succeeds in Iraq. In 2005, I took a leave of absence from 
the National Endowment for Democracy to become the spokesman for the 
former Iraqi Prime Minister, Ibrahim Jaafari. I had the pleasure of 
meeting you, Mr. Chairman, and many of your distinguished colleagues 
during your frequent visits to Baghdad. For the record, I do not 
oversee the Iraq program at the National Endowment for Democracy and 
the views I express today are mine and not those of the Endowment.
    At the outset, I would like to express my respect, appreciation, 
and admiration to all the men and women, military and civilians, Iraqis 
and Americans, who are trying hard to make Iraq succeed. I have seen 
the difficulties facing decisionmakers who have to strike painful 
balances between so many conflicting demands. I would like to focus on 
the future rather than the past, and make recommendations in view of a 
prognosis of Iraqi politics.
    Mr. Chairman, I would like to start my testimony by stating the 
obvious.
    President Bush rightly reminds us that victory in Iraq is a vital 
U.S. interest and failure is not an option. Sustaining such message is 
critical. Leaving Iraq torn with violence and sectarianism is not an 
option. Al-Qaeda will expand in the ruins of Iraqi cities and torn 
communities. In a failed Iraq, al-Qaeda will become stronger, recruit 
more terrorists, advance its training and carry out more 9/11s. Simply 
put, Iraq is a zero-sum equation between the United States and al-
Qaeda.
    Iraq faces multiple intertwined challenges, ranging from violence 
and sectarianism to developing the economy and expanding the job market 
to controlling the influence of its neighbors. Most of these challenges 
originated from one cause, the breakdown of the Iraqi State, and they 
have become difficult to resolve because of the continued absence of an 
effective government.
    Disarming the militias is a case in point. Shia militias filled the 
streets in districts left exposed to persistent al-Qaeda attacks. Under 
the watchful eyes of a dysfunctional government, the militias displayed 
their arms, exploited Shia needs for protection and grew unchallenged 
in most districts. Similarly, Sunni districts suffered the wrath of 
Shia militias revenge and were not protected by the Iraqi police. Local 
Sunni-armed groups saw the need to collaborate with insurgents in order 
to protect themselves in a brutal mad conflict. Not surprisingly, most 
Sunni politicians and some armed groups have welcomed the recent surge 
in American troops as means to disarm rival militias. Without expanding 
and elevating the Iraqi Army and police force above sectarian, ethnic, 
and political loyalties, all security measures remain short term and 
unsustainable.
    Building modern state institutions transcending ethnoreligious 
lines has been the U.S. goal for the past 3 years. All opinion polls 
showed that throughout 2003, 2004, and 2005, Iraqis wanted a central 
government with strong national institutions controlling arms, 
intelligence, and borders and strong local administrations providing 
services and jobs. The United States has provided enormous technical 
assistance to build Iraqi ministries and bureaus. The United States 
acted on good faith that a legitimate political process would 
eventually bring peace and national unity. The political process 
successfully delivered a legitimate government but failed to bring 
either an effective government or a government of national unity. This 
failure lies today exclusively in the hands of post-Saddam Iraqi 
politicians, who have risen to power in deadly exceptional 
circumstances. It is dangerously misleading to assume that the problem 
is historically rooted in Iraqi communities or externally caused by 
rouge neighbors.
    Iraq's predicament is found in its current electoral laws and in 
fundamental disagreement among its communal leaders over the concept of 
the state and the design of government. Under current electoral rules, 
Iraq will always have a weak executive and a fragile coalition 
government, where the Prime Minister cannot hire and fire incompetent 
or corrupt ministers without causing a political crisis. It took months 
to form a Cabinet whose success is not defined by services but by 
continuity. It is formed without a shared vision but with a complex 
quota system dividing ministries. Inevitably autonomous ministers are 
more accountable to their party bosses and less to the Prime Minister. 
Such a system will not deliver an effective government.
    Changing the current system to bring about a strong government 
requires prior agreements and a high level of trust between its 
communities. There is little reason to believe that Iraqi politicians 
will reach agreement by themselves. Today there are two Iraqs, Kurdish 
and Arab, and three main parliamentary blocs with tens of political 
groups. Kurdish Iraq is stable, prosperous, and determined to expand 
and maximize its control to ethnically mixed areas beyond its current 
regional border. Arab Iraq is at war with itself and approaching a 
full-blown civil war. The Kurds can factor in this effort in as much as 
they may help or hinder rebuilding Arab Iraq. The key to bringing 
stability back to Iraq depends on Shia and Sunni agreement on how to 
govern Iraq. So far, there are no signs of any agreement.
    Last June, Iraq's Prime Minister Maliki launched a reconciliation 
initiative to reach out to Sunni insurgents and consolidate his 
government of national unity. He solicited support from Gulf States, 
supported reconciliation conferences in Baghdad and Mecca, and pledged 
that only government forces will bear arms. His Ministries of Defense 
and Interior have no ties to armed political groups and militias and he 
started his campaign against the al-Mahdi Militias. However, such 
measures and gestures are helpful but dwarf in significance compared to 
the challenge of bringing unity of vision among the three main 
communities in Iraq (Sunnis, Shias, and Kurds) to agree on 
constitutional amendments.
    Iraq passed the Constitution in a national referendum in October 
2005 despite Sunnis' overwhelming rejection. Only the promise and hope 
of future constitutional amendments brought back the Sunnis to 
participate in December 2005 elections and Maliki's government. Since 
then, no progress has been made on constitutional amendments. Behind 
the political paralysis is a lack of clear ideas on how to reconcile 
differing views. Pushing amendments without prior agreements will 
escalate the political crisis and violence even further and deny Iraq 
its last chance to resolve constitutional differences. If the minimum 
of Sunni hopes in amendments are not realized, then the country will 
sink into more violence. Without accommodating Sunni grievances and 
fully engaging them in rebuilding the state and running the government, 
it would not be possible to separate al-Qaeda and criminal networks 
from the rest of the insurgency.

                        IS COMPROMISE POSSIBLE?

    Differences run deep among the three major groups on nation-state-
building. Behind their commitment to national unity are different 
visions on how to build Iraqi governing institutions, in particular on 
the nature of the state, the mandate of central government, and the 
control of security and natural recourses. Reconciliations are 
difficult because of hardened positions, zero-sum perspectives to 
politics, historical grievances, mistrust, inflated assumptions about 
negotiating positions, and lack of experience. A closer look at their 
differences suggests that not all can easily or quickly be resolved. 
Arab Sunnis, who are most experienced in administrating a central state 
and least in negotiating with local politicians, seek the return of a 
centralized Iraq with an autonomous Kurdish administrative region. 
Kurds, who secured a constitutionally recognized and highly empowered 
federal region with strong hold in Baghdad, will not accept any 
rollback from such position. Moreover, they expect to add Kirkuk to 
their region. Arab Shias, with least experience in government, have 
mixed positions about the return of a centralized state without the 
Kurdish region. Some groups are pushing toward a southern federal 
region, similar to the Kurdish one. The parliamentarian committee to be 
tasked with drafting amendments has not brought forward new ideas on 
how to proceed. The future of Kirkuk and the prospect of forming a 
southern region are perceived by Arab Sunnis as most problematic. At 
dispute are articles on the control of natural resources and the 
concept of citizenship and state institutions. If Iraqis fail to agree 
peacefully through parliamentary daytime debates, they will fight 
street battles outside Parliament at night.
    Iraq's destiny is in the hands of elected politicians who have no 
incentive to compromise. They thrive on hard-line identity and communal 
politics. They are deeply linked to militias and illicit siphoning of 
Iraq's petro-dollars. They have adjusted to violence, established 
supply lines to a prolonged conflict, and shielded themselves from the 
suffering of ordinary people. Iraq awaits the move of these politicians 
to compromise and come to agreement on their differences, work toward a 
shared vision, and allow technocrats to rebuild the state. Without 
pressure, Iraqi politicians will not move. The United States can bring 
in additional leverage over Iraqi politics through Iraq's neighbors. 
The threats of bringing in the neighbors will change the dynamic and 
force compromises. Unlike the United States, Iraq's neighbors are there 
to stay and Iraqi politicians fear their intervention. Sunnis, Shias, 
and Kurds are all exposed to the influence of neighbors, who have 
legitimate concerns about the deteriorating security conditions in 
Iraq. The alternative to direct discussions with the neighbors is war 
by proxy and indirect and unregulated competition over Iraq. This can 
provide sufficient deterrent and incentive to affect Iraqi politicians 
and community leaders. Iraq can call its neighbors to a conference on 
border security, disarming militias, and reconstruction.
    The most important and urgent issue in such a conference is 
restoring the ability of the state to control all armed groups and 
exert authority all over Iraq. The government has to negotiate 
disarming militias whose loyalties--ethnic, religious, or political--to 
their leaders are above their loyalty to the state. The top three 
militias are the Kurdish Peshmerga, who are the best trained and 
disciplined; the Shia Bader Brigade with its extended networks of 
social organizations; and the least organized and most thuggish, the 
Mahdi Army. Integrating members of these groups into Iraqi units must 
come through rigorous selection and training procedures. Some Sunni 
armed groups are tribal but most are not affiliated with Sunni 
political leaders.
    The United States should continue to be involved in security 
planning and leverage its political influence to ensure a buy-in from 
all parties to Iraq's national security policies. In confronting 
complex networks of kidnappers, smugglers, white collar criminals, and 
financers of armed groups and political parties, Iraq needs U.S. 
advanced technical support and expertise. Iraq also needs to revive its 
own security agencies and measures that were effective in fighting 
crime under the previous regime. For example, the previous regime ran 
successful undercover security agency to expose white collar corruption 
in all ministries.

                          THREATS OF CIVIL WAR

    Fixing Iraqi politics is the most important challenge but putting 
down the rapidly spreading sectarian violence has become most urgent. 
Iraq did not have communal conflicts in its history, and until 2003, 
Iraqis prided themselves with the extent of mixed marriages and 
neighborhoods. For more than three decades, Saddam played communities 
against each other, elevated mistrust between citizens and caused 
communal tensions. Still Iraqis blamed the government but not each 
other for Saddam's repression of Shias and Kurds and refused 
sectarianism. Some Iraqi exile leaders with external influence fed 
ethnoreligious agendas into Iraqi politics and institutionalized 
sectarian quotas at all state levels. For obvious political gains, 
they, too, pushed sectarianism. That partially explains the passive 
slow reaction of some Iraqi political elites to growing sectarian 
conflicts.
    Until recently, al-Qaeda was the number one threat to Iraq, 
followed by the other two deadly forces: Sunni insurgency and 
sectarianism. Although it exploited Sunni political isolation and 
dysfunctional government security agencies, al-Qaeda failed to block 
the political process and the emergence of an Iraqi national unity 
government. The killing of Zarqawi was a severe blow. As al-Qaeda and 
Saddam loyalists were running out of time, they unleashed their most 
devastating weapon: Sectarianism. For the past 3 years, they have been 
trying to stir up Arab Shia-Sunni violence. They brutally beheaded 
Shias, blew up their mosques, and destroyed their most holy shrine. 
Now, their fire of sectarian violence is spreading and threatening the 
whole process. Iraqi police and army units can easily get sucked into 
sectarian violence. Without agreement with Iraq's neighbors on ending 
sectarianism, Iraq's modest political progress and the unity of its 
Armed Forces may not survive long.
    Within this fragile and problematic political setting, al-Qaeda 
succeeded in unleashing sectarian violence with far reaching 
consequences. Sectarian violence has seriously undermined the political 
process and changed Iraq's landscape. Persistent communal violence and 
politicians' failure to agree on constitutional amendments will bring 
about a de facto breakdown of Iraq along communal lines. Such an 
outcome will prolong the conflict and sew seeds of additional communal 
and regional violence

                         LOWERING EXPECTATIONS

    This Iraqi Government has a long way to go before making any 
noticeable difference. The alternative to a national unity government 
is a full meltdown into violence and chaos. Iraq needs help in both 
tracks: Security and politics while the United States can no longer 
instruct the Iraqis on how to govern, the security of the government 
and the delicate balance among Shia, Sunni, and Kurdish parliamentary 
blocs still hinge on U.S. support. This gives the United States 
significant influence and leverage over the course of Iraqi politics 
and the development of its security.
    Only a united Iraq with an effective government and in agreement 
with its neighbors can deny al-Qaeda its breeding grounds in lawless 
Iraqi cities and end sectarian violence. The stakes cannot be higher 
for America and hence domestic politics, regional concerns, and special 
interests must all be balanced to ensure success in Iraq.

    Senator Lugar. Thank you very much, Dr. Kubba.
    Let me mention that rollcall votes are anticipated at 3:45, 
and this is always an unfortunate occurrence as we proceed 
through hearings, but we'll have time for your testimony, Dr. 
Dodge, and then the chairman will probably return, and we will 
make some determination as to how to proceed so that we can ask 
questions of you, and continue the hearing.
    Dr. Dodge.

 STATEMENT OF DR. TOBY DODGE, CONSULTING SENIOR FELLOW FOR THE 
  MIDDLE EAST, INTERNATIONAL INSTITUTE FOR STRATEGIC STUDIES, 
                     LONDON, UNITED KINGDOM

    Dr. Dodge. Thank you.
    First, can I say that it's an honor to be here today. 
Second, I've submitted a longer written testimony that I'd like 
to be placed on the record.
    I think that the publication of the Iraq Study Group report 
in early December, and the President's major policy speech on 
Iraq on January 10, marked a decisive change in attitudes 
toward Iraq here in Washington. The acceptance in policy 
circles of clear-eyed, realistic, and necessarily pessimistic 
assessment is clearly to be welcomed.
    However, acknowledgement that the situation is dire, and 
getting worse, conceals both disagreement and confusion about 
the underlying causes of the violent civil war, and how it 
dominates the country, and hence, possible solutions.
    What I want to do this afternoon is run through the major 
drivers of the conflict, and suggest that neither the Baker-
Hamilton report, nor President Bush's new policy, fully deal 
with the causes of the problem. To explain the evolution of 
violent instability in the wake of regime change, the collapse 
of the Iraqi State is of much greater importance than the 
existence of communal antipathies, or indeed, the ineptitude of 
Iraq's new ruling elite.
    The entrance of U.S. troops into Baghdad triggered 3 weeks 
of violence and looting that destroyed the state's 
administrative capacity. As we know, 17 of Baghdad's 23 
ministry buildings were completely gutted.
    Finally, de-Baathification removed what was left--its 
institutional memory, and a large section of its skilled 
personnel. This, along with the disbanding of the Iraqi Army 
resulted in the acute security vacuum that we have today.
    Second, the lack of the Iraqi Government capacity and 
coherence, has taken away the legitimacy that began to accrue 
to the government after the elections of 2005. The collapse of 
the state, and the resulting security vacuum that has driven 
Iraq into civil war has created--or at least empowered--three 
distinct sets of groups deploying violence for their own ends.
    The first are the industrial-strength criminal gangs, who 
terrorize what is left of Iraq's middle class. The persistent 
reports of crime is as big a problem for the citizens as Basra, 
as Baghdad, indicates that the State's inability to impose and 
guarantee order is a general problem across large swathes of 
southern and central Iraq, going well beyond the government's 
inability to increase electrical output, or stimulate the job 
market, the continued ability of criminals to operate is 
indicative of a failed state.
    The second type of organization capitalizing on the 
collapse of the state are the myriad groups that make up the 
Iraqi insurgency, thought to have between 20-50,000 fighters in 
their ranks.
    The violence that erupted following the destruction of the 
al-Askariya Mosque in the city of Samarra on February 22, 2006, 
saw a third group of who have capitalized on the failure to 
impose order. The militia is estimated to hold between 60 and 
102,000 fighters in their ranks.
    The militias themselves can be divided into three broad 
categories, depending on their organizational coherence and 
relation to national politics.
    The first, including the most disciplined group, consists 
of the two Kurdish militias associated with the Kurdish 
Democratic Party, and the Party for the Union of Kurdistan.
    The second set of those that were created in exile, and 
brought back to Iraq in the wake of Saddam's fall. The most 
powerful of these is the Badr Brigade, the military arm of the 
Supreme Council of the Islamic Revolution in Iraq, estimated to 
have roughly 15,000 fighters in its ranks. It is the Badr 
Brigade's colonization of large swathes of the security forces, 
notably the police and paramilitary units associated with the 
Ministry of Interior, which has done so much to delegitimize 
the already extremely limited power of state-controlled law and 
order.
    Jawad al-Bulani, the Minister of Interior since May 2006, 
has clearly struggled to reform this Ministry. He has 
reportedly sacked more than 3,000 employees, but the Ministry 
is still dogged by repeated allegations that its forces and 
prisons are using murder and torture with impunity.
    The third group of militias that dominate society are those 
that were created in Iraq since regime change. The largest and 
most coherent of this is the 50,000-strong Jaish al-Mahdi, set 
up by Muqtada al-Sadr.
    Now, the speed with which the militia itself was built, and 
the two prolonged conflicts it's had with the U.S. military, 
has taken its toll on its coherence. Muqtada militia commanders 
have become more financially independent of Sadr through 
hostage-taking, ransom, and the smuggling of antiques and 
petroleum. In spite of Sadr's repeated calls for calm, it was 
the Muqtada army that was blamed for the majority of the 
violence in and around Baghdad, following the destruction of 
the al-Askariya Shrine in February.
    The Badr Brigade and the Muqtada army are in competition to 
control Iraq's Shias. This has led to a low-level civil war 
between them. This struggle erupted in Basra in April and May 
2006, and then again in Amarah in October. The fighting in 
April was not caused by religion, or even ideological 
differences, but money. Basra is the center of Iraq'a oil 
exports, and the conflict was primarily concerned with the 
division of the spoils.
    The fighting in Amarah in October was again about the 
dominance of the town, once British forces had left. In each 
case, none of these groups involved were strong enough to win 
outright, and so the conflict simmers on, erupting 
periodically, triggered either by competition, or Iranian 
interference.
    The dominance of the militias was not an inevitable result 
of regime change, but a direct response to the collapse of the 
state. If Iraq is to be stabilized, if central government--a 
central government with a monopoly on coercion must be rebuilt 
with administrative capacity to give it legitimacy. Sadly, 
there's no shortcut to this end-state. If it's possible at all, 
it could take many years, and a great deal of resources to 
achieve.
    Ever since 2003, when Paul Bremer signed a November the 
15th agreement, the U.S. Government has subcontracted this 
complex job of rebuilding the state to a small group of 
inexperienced, formerly exiled Iraqis who were long absent from 
the country.
    Two elections and a referendum in 2005, were meant to give 
Iraq's new political elite democratic legitimacy. However, the 
nature of the electoral system chosen, the way the parties 
decided to fight the elections, and the constitutional position 
of the Prime Minister in their aftermath, have all combined to 
break the political coherence and administrative efficiency of 
this government.
    The Office of Prime Minister has become the main vehicle 
for delivering government coherence. However, the Prime 
Minister is in a very weak position, both constitutionally, and 
electorally. Real power is vested in the parties who fight the 
election.
    For the parties, electoral success within larger coalitions 
is rewarded by dividing up the spoils of government, cabinet 
portfolios, and the jobs and resources they bring. Prime 
Minister Nouri al-Maliki has acted as a broker, facilitating 
negotiations within his own coalition, the United Iraqi 
Alliance, between it, the American Ambassador, and the other 
coalitions. The Prime Minister's decisions are based on the 
comparative power of the parties, and the coalitions he's 
negotiating with, not on his own political vision, or agenda 
for rebuilding the Iraqi State.
    The Cabinet, instead of acting as a vehicle for national 
unity and state-building, has become a mechanism for dividing 
up the spoils of electoral success. If government ministers are 
answerable to anyone, it's to their party bosses, not the Prime 
Minister, or beyond him, the electorate. The ministries these 
politicians now run have become personal and party fiefdoms. At 
best, and this is at best, scarce government resources are 
diverted to build party constituencies, with each minister 
clearing out the payrolls of their ministries to appoint 
friends, followers, and faction members. At worst, there is 
little or no Cabinet responsibility or administrative 
oversight. This system encourages both personal and political 
corruption to flourish.
    Against this background of state collapse and the resultant 
civil war, both the Iraq Study Group, and President Bush argue 
that only Iraqis can end the sectarian violence and secure 
their people. However, once state capacity has collapsed, civil 
society's ability to positively influence events quickly 
disappears.
    The Iraq Study Group's main suggestion is a dramatic 
empowerment of Iraq's current governing elite. However, the 
current governing elite is not coherent enough to fulfill this 
role. It does not act with anything approaching unity, and 
Prime Minister Maliki's position is not strong enough to impose 
his will, or indeed, the United States will in this disparate 
group of, basically, squabbling politicians.
    President Bush, on the other hand, favors a dramatic 
increase in United States troops to impose some order on 
Baghdad and northwest Iraq, adding a further 21,000 troops to 
the current, roughly, 132,000 American troops in the country. 
Even with a new total of 153,000 troops, U.S. troops, this 
number would be far short of the number needed to impose order 
on the country.
    President Bush's new approach would see a total of 32,000 
U.S. troops in Baghdad, a city of roughly 6 million. This gives 
commanders one American soldier for every 184 Baghdadians. This 
new, enlarged number of U.S. troops is still well below even 
the 50 per 1,000 that the new Army and Marines field manual on 
counterinsurgency recommends.
    In addition, simply flooding one area of Iraq--in this 
case, Baghdad--with troops, neglects the subtler aspects of 
counterinsurgency doctrine. For a surge in troops to Baghdad to 
be sustainable, it has to be married with the second stage of 
the process. After areas have been cleared of insurgents, the 
government needs to reconstitute sustainable security, building 
up its administrative capacity, and then establishing the rule 
of law.
    The Iraqi Government, I would argue, is neither willing nor 
able to follow up the ``clear'' phase of counterinsurgency with 
the ``build'' stage. First, in the aftermath of a successful 
U.S. counterinsurgency operation to gain control of the 
northern city of Tel-Afar, the Iraqi Government proved 
remarkably reluctant to secure this victory by employing 
enhanced government resources.
    Second, in a country dominated by the collapse of the 
state, the ability of the government to build up its capacity 
across a sustained geographical area is highly limited. There 
is a distinct danger that neither President Bush nor the Iraq 
Study Group's proposals for extracting the United States from 
Iraq recognize the root cause of the violence.
    The origins of the Iraqi civil war lie in the complete 
collapse of both the administrative and coercive capacity of 
the state. It is the United States inability to date to 
reconstruct them that lies at the heart of the Iraqi problem. 
If, and until, the state's capacity is substantially rebuilt, 
then Iraq will continue to be a wellspring of violence and 
instability.
    Thank you very much.
    [The prepared statement of Dr. Dodge follows:]

Prepared Statement of Dr. Toby Dodge, Consulting Senior Fellow for the 
  Middle East, International Institute for Strategic Studies, London, 
                             United Kingdom

                  INTRODUCTION: STATE COLLAPSE IN IRAQ

    The publication of the Iraq Study Group (ISG) report in early 
December 2006 and President George W. Bush's major policy speech on 
Iraq in January 2007, marked a decisive change in attitudes in 
Washington. The acceptance in policy circles of a clear-eyed, 
realistic, and necessarily pessimistic assessment of Iraq, is clearly 
to be welcomed. However, acknowledgement that the situation is dire and 
getting worse, may conceal both disagreement and confusion about the 
underlying causes of the violent civil war that now dominates the 
country.
    To explain the evolution of violent instability in the wake of 
regime change, the collapse of the state is of much greater 
significance than the supposedly transhistorical existence of communal 
antipathies or indeed the ineptitude of Iraq's new ruling elite. The 
entrance of U.S. troops into Baghdad in the first weeks of April 2003, 
resulted in the death of the Iraqi State. Faced with the widespread 
lawlessness that is common after violent regime change, the United 
States did not have the numbers of troops needed to control the 
situation. After 3 weeks of violence and looting, the state's 
administrative capacity was destroyed. Seventeen of Baghdad's twenty-
three ministry buildings were completely gutted. Looters first took 
portable items of value such as computers, then furniture and fittings. 
By the time I reached Baghdad, a month after U.S. forces, they were 
systematically stripping the electric wiring from the walls of former 
government buildings, to sell for scrap. Following the destruction of 
government infrastructure across the country, de-Baathification purged 
the civil service of its top layer of management, making between 20,000 
and 120,000 people unemployed. The administrational capacity of the 
state was shattered by over a decade of sanctions, three wars in 20 
years and then 3 weeks of uncontrolled looting. Finally de-
Baathification removed what was left: Its institutional memory and a 
large section of its skilled personnel.
    Iraq today finds itself in a situation of state failure. Against 
this background instability is driven by two interlinked problems, 
which have caused the profound insecurity and violence that now 
dominates the country. The complete collapse of state capacity and the 
U.S. disbanding of the Iraqi Army resulted in an acute security vacuum. 
This was seized upon by myriad groups deploying violence for their own 
gain. Organized crime became a dominant source of insecurity for 
ordinary Iraqis. For coalition and Iraqi security forces, it is the 
diffuse groups fighting the insurgency in the name of Iraqi 
nationalism, increasingly fused with a militant Islamism, that have 
caused the highest loss of life. But in early 2006, a new crisis arose 
with even greater potential for destabilization: Civil war. The 
explosion that destroyed the al-Askariya Mosque in the Iraqi city of 
Samarra, on February 22, 2006, marked a watershed, exacerbating already 
mounting sectarian violence and the resultant population transfers.
    The second problem that has dominated the politics of the country 
since the fall of Saddam Hussein, is the question who should rule? How 
to find Iraqis who after 35 years of dictatorship have both the 
technical capacity and national legitimacy to rule over a country of 26 
million people? 2005 was dominated by the struggle to build a 
representative government that could act as a rallying point for the 
country; allowing the population to invest hope and legitimacy in a new 
ruling elite that could stabilize the nation and move toward rebuilding 
the state. For Iraq to stabilize a regime change to be a success, 
sustained progress will have to be made in two areas: The building of 
countrywide state capacity and the growth of a legitimate and competent 
governing elite.

                   STATE COLLAPSE LEADS TO CIVIL WAR

    The collapse of the state and the resultant security vacuum that 
has driven Iraq into civil war has created, or at least empowered, 
three distinct sets of groups deploying violence for their own ends. 
The first are the ``industrial strength'' criminal gangs who terrorize 
what is left of Iraq's middle class. Although there is a clear overlap 
between simple criminality and politically motivated violence, 
especially where kidnapping is concerned, the continuing crime wave is 
a glaring example of state incapacity. The persistent reports that 
crime is as big a problem for the citizens of Basra as Baghdad, 
indicates that the state's inability to impose and guarantee order, is 
a general problem across large swathes of southern and central Iraq. 
The high levels of criminal activity indicates that violence is driven 
primarily by opportunity, springing from state weakness, not the 
antipathy of competing groups within Iraqi society. Crime is obviously 
instrumentally driven, primarily noncommunal and a key factor 
delegitimizing the new Iraqi ruling elite. Exceeding the government's 
inability to increase electrical output or stimulate the job market, 
the continued ability of criminal gangs to operate is indicative of a 
failed state.
    The second type of organization capitalizing on the collapse of the 
state are the myriad groups that make up the Iraqi insurgency. In the 
aftermath of regime change, the insurgency was born in a reactive and 
highly localized fashion, as the U.S. military's inability to control 
Iraq became apparent. This process saw the creation of a number of 
small fighting groups built around personal ties of trust, cemented by 
family, locality, or many years of friendship. Disparate groups, formed 
to rid the country of U.S. forces are estimated to consist of between 
50 and 74 separate autonomous units, with between 20,000 to 50,000 
fighters in their ranks. Over the past 3 years they have been 
innovative in the technology they deploy and the tactics they use. 
Since 2005 however, the insurgency, has to some degree, consolidated 
around four or five main groups. These organizations include the 
Islamic Army in Iraq, the Partisans of the Sunna Army, the Mujahidin's 
Army, Muhammad's Army, and Islamic Resistance Movement in Iraq. As 
their names suggest, political violence has been increasingly justified 
in religious terms. Over the last year these main insurgent groups have 
found ideological coherence by fusing a powerful appeal to Iraqi 
nationalism with an austere and extreme Sunni Salafism: The attraction 
of the Salalfist doctrine for the insurgents is that it allows a 
distinction to be drawn between those involved in the jihad or struggle 
(the true believers), and those who are not. Under Salafism those not 
backing the struggle can be branded nonbelievers and as such be killed. 
This Salafist approach has also lent itself to the increased use of 
sectarian violence. Shias can be murdered both because they do not 
follow the ``true path of Islam'' and because they form the majority of 
those staffing the security forces against whom the violence is 
directed.
    The numbers and role played by Arabs from neighboring countries and 
beyond them the organizing capacity of al-Qaeda in Mesopotamia, is 
estimated by the U.S. military to be between 5 and 10 percent of the 
total. These foreign fighters have played a disproportionately large 
role in the insurgency's ideological coherence. It is al-Qaeda in 
Mesopotamia that has driven the rising influence of Salafist doctrine 
and has claimed responsibility or been blamed for the majority of the 
violence that has increased sectarian tensions in the country. This 
dynamic reached it peak with the destruction of the al-Askariya Mosque. 
Although the city of Samarra has long been dominated by the insurgency, 
the destruction of the mosque, one of Shia Islam's most important 
shrines, was an act calculated to outrage Shia opinion.
    The violence that erupted following the Samarra bombing saw 
criminals and insurgents combine with a third group who have 
capitalized on the failure of occupation forces and the Iraqi 
Government to impose order. The plethora of independent militias is 
estimated to hold between 60,000 to 102,000 fighters in their ranks. 
The militias have overtly organized and legitimized themselves by 
reference to sectarian ideology. Their existence is testament to the 
inability of the Iraqi Government to guarantee the personal safety of 
Iraqis on the basis of equal citizenship, not sectarian identity.
    The militias themselves can be divided into three broad groups, 
depending on their organizational coherence and relationship to 
national politics. The first and most disciplined group consists of the 
two Kurdish militias of the Kurdistan Democratic Party (KDP) and the 
Patriotic Union of Kurdistan (PUK). The second set are those that were 
created in exile and brought back to Iraq in the wake of Saddam's fall. 
The most powerful of these is the Badr Brigade, the military arm of 
Supreme Council for the Islamic Revolution in Iraq (SCIRI), estimated 
to have 15,000 fighters in its ranks. The Badr Brigade along with SCIRI 
itself, was set up as a foreign policy vehicle for the Iranian 
Government. Indeed the Badr Brigade was trained and officered by the 
Iranian Revolutionary Guard, at least until their return to Iraq. It 
remains comparatively disciplined and responsive to its senior 
commanders. However it is the Badr Brigade's colonization of large 
swathes of the security forces, notably the police and paramilitary 
units associated with the Ministry of Interior, which has done so much 
to delegitimize the already limited power of the state-controlled 
forces of law and order. Badr's dominance of the Ministry of Interior 
reached its peak when one of its former commanders, Bayan Jabr, served 
as a minister under the Jaafari government. The Ministry's Wolf Brigade 
commandos were repeatedly accused of acting as a death squad, 
frequently resorting to extra-judicial execution and torture. 
Complaints reached their peak in November 2005, when U.S. forces raided 
a Ministry of Interior detention facility and found 170 detainees ``who 
had been held in appalling conditions.'' However SCIRI's dominance of 
government was such that Jabr was not removed until the end of May 
2006. His replacement, Jawad al-Bulani, a nonaligned politician, has 
struggled to reform the Ministry. He has reportedly sacked more than 
3,000 employees, but the Ministry is still dogged by repeated 
allegations that its forces and prisons are still using murder and 
torture with impunity.
    The third group of militias that dominate society in the absence of 
a state are those that have been created in Iraq since regime change. 
They vary in size, organization, and discipline, from a few thugs with 
guns controlling a street or a neighborhood to militias capable of 
running whole towns. The largest and most coherent is the 50,000-strong 
Jaish al-Mahdi, set up by Muqtada al-Sadr. The core of the Mahdi 
militia is organized around the offices of Sadr's religious charity, 
the Martyr al-Sadr. Each office is run by a cleric appointed by Sadr's 
headquarters in Najaf, with full-time fighters paid as much as $300 a 
week. However, the speed with which the militia was built after regime 
change and the two prolonged conflicts with the U.S. military have 
taken a toll on its organizational coherence. Mahdi militia commanders 
have become more financially independent of Najaf through hostage-
taking, ransom, and the smuggling of antiquities and petroleum. Sadr 
has repeatedly tried to instil discipline but, as one of his own 
commanders admitted, ``Even when Sadr fires the brigade commanders, 
their soldiers follow them and not Sadr. Now Sadr fires commanders 
every month, so their fighters will not become too loyal to them.'' In 
spite of Sadr's repeated calls for calm, it was the Mahdi Army that was 
blamed for the majority of violence in and around Baghdad following the 
destruction of the al-Askariya shrine in February.
    The Badr Brigade and Mahdi Army both claim to represent the same 
constituency, urban Iraqi Shias. They have both tried to legitimize 
their coercive role in terms of defending this section of the 
population against violence and instability. However the instrumental 
basis to their actions, capitalizing on the absence of the state, as 
opposed to their alleged position as protectors of the Shia population, 
has been highlighted by the low-level civil war they have been fighting 
against each other. This struggle erupted in Basra in April and May 
2006 and then again in Amarah in October. Basra has a very small Sunni 
population, the fighting in April that was responsible for the deaths 
of 174 Iraqis was not caused by religious or even ideological 
differences, but money. Basra is the centre of Iraq's oil exports and 
the conflict was primarily concerned with the division of the spoils. 
The fighting in Amarah in October was again about the dominance of the 
town once British forces had left. In each case, none of the groups 
involved were strong enough to win outright and so the conflict simmers 
on, erupting periodically, triggered by rival machinations and Iranian 
interference.
    Once a state has failed, once its coercive and administrative 
capacity is removed from society, the population has to seek new local 
ways to survive, to gain some degree of day-to-day predictability. This 
is the quest that has haunted the majority of Iraq's population since 
regime change. The result has been the rise of the militias. The 
quality of an individual Iraqi's life depends on the discipline, 
organizational coherence and central control of the militias that 
dominate their streets, neighborhoods, and towns. In the areas of 
northern Iraq, the Kurdish militias of the KDP and PUK, since fighting 
a civil war against each other in the mid-1990s, have centralized and 
largely institutionalized their military forces. Elsewhere in Iraq, the 
militias who came into existence after regime change are far more 
unstable, prone to criminality and divided loyalties. Although the 
militias were formed as an instrumental response to the security 
vacuum, they have attempted to legitimize themselves by the deployment 
of hybrid ideologies; sectarian, religious, and nationalist. This has 
caused the ethnic and religious cleansing across the country from 
Kirkuk in the north, to Basra in the south, but most powerfully in 
Baghdad. This was not an inevitable result of regime change but a 
direct response to the collapse of the state. If Iraq is to be 
stabilized, a central government with a monopoly on coercion must be 
rebuilt with administrative capacity to give it legitimacy. Sadly there 
is no shortcut to this end-state, if it is possible, it could take many 
years and a great deal of resources to achieve.

            IRAQ'S NEW POLITICAL ELITE: PART OF THE PROBLEM

    Ever since 2003, when Paul Bremer, head of the Coalition 
Provisional Authority, signed the ``November 15 agreement,'' the U.S. 
Government has subcontracted the complex job of rebuilding the state to 
a small group of inexperienced, formally exiled Iraqis who were long 
absent from the country. Their task was to erect a sustainable and 
legitimate post-regime change political order. This has been hampered 
by the two dominant facts of Iraqi politics today. The major political 
problem they face is the legacy left by 35 years of Baathist rule. 
Before the imposition of sanctions in 1990, Saddam Hussein used oil 
wealth and hitherto unheard of levels of state violence, to break any 
organizing capacity within Iraqi society. Those who were active in 
antiregime politics were murdered, imprisoned, tortured, or driven into 
exile. Those who stayed in the country increasingly realized that 
survival and economic well-being were directly linked to complete 
political passivity. Consequently indigenous political organization 
beyond the Baath did not exist in any measurable form. There was no 
civil society in Iraq before the U.S. military reached Baghdad. Iraqi 
politics began from scratch in April 2003.
    The Iraqi politicians subcontracted by the Americans to rebuild the 
state have been active in indigenous politics for less than 4 years. 
The majority were also long absent from the country. Hence they have 
had to battle against indigenous hostility and suspicion since their 
return. The intense political process that stretched across 2005 was 
meant to overcome these two hurdles: Anointing Iraq's new political 
elite with the legitimacy of two electoral mandates and a constitution 
approved by popular referendum. However the nature of the electoral 
system chosen, the way the parties decided to fight the elections, and 
the constitutional position of the Prime Minister in the aftermath, all 
combined to break the political coherence and administrational 
efficiency of the government created by this process.
    Iraq's new electoral system, based on large multiparty coalitions, 
is one of the major problems dominating the politics of government. 
Whilst the President fulfills a mainly ceremonial role, the office of 
Prime Minister has become the main vehicle for delivering governmental 
coherence. However the Prime Minister is in a weak position both 
constitutionally and electorally. Real political power is vested in the 
parties who fight the elections. For them, electoral success within 
larger coalitions is rewarded by dividing up the spoils of government, 
Cabinet portfolios, and the jobs and resources they bring. The Prime 
Minister does not dominate the Cabinet as first among equals. Instead 
Prime Minister Nouri al-Maliki has to act as a broker, facilitating 
negotiations within his own coalition, the United Iraqi Alliance and 
between it, the American Ambassador and the other coalitions. The Prime 
Minister's decisions are based on the comparative power of the parties 
and coalitions he is negotiating with, not his own political vision or 
agenda for rebuilding the Iraqi State.
    In the aftermath of the December 2005 elections Prime Minister al-
Maliki's task was to build a government of national unity. This 
involved rewarding the main coalitions while also seeking to balance 
electoral achievement with the identity politics that the main parties 
claim to personify. In addition, al-Maliki had to move ministers who 
under his predecessor, Ibrahim al-Jaafari, were too inefficient, 
scandal ridden, or controversial to continue in office. The Cabinet 
that was created sacrificed the needs of a population traumatized by 
the invasion, occupation, collapse of the state, a crime wave, and the 
growing civil war, at the altar of party politics and electoral 
outcomes. An unintended consequence of this system was to prevent the 
Prime Minister sacking incompetent or corrupt ministers without the 
agreement of their party bosses. Even when this was possible, party, 
coalition, and sectarian mathematics meant that other senior party 
figures replaced them.
    The limitations placed upon the Prime Minister's powers of 
appointment were personified by his relations with Bayan Jabr. Jabr is 
a key member of SCIRI and a former commander in its militia, the Badr 
Brigade. As Minister of Interior in the Jaafari government, he was the 
focus of sustained criticism for politicizing the Ministry of Interior, 
sacking longstanding members of staff, only to replace them with loyal 
lieutenants from his own militia and party. Maliki eventually succeeded 
in moving Jabr from the Interior Ministry, replacing him with the 
nonaligned Jawad al-Bulani. However the weakness of the Prime 
Minister's position meant that Jabr could not simply be sacked from the 
Cabinet, but was instead moved sideways, to become Minister of Finance. 
In his new job Jabr has been accused of obstructing reconstruction 
initiatives, designed to rebuild support for the government in the 
Sunni neighborhoods of Baghdad following the counterinsurgency 
operation Together Forward II, in the summer and autumn of 2006.
    During 2005 Iraq did indeed hold two comparatively successful 
elections and a referendum for the new Constitution. However the 
government and Cabinet that this electoral process delivered are unfit 
for their purpose: Rebuilding the Iraqi State. The weakness of a Prime 
Minister in a system dominated by parties has directly undermined the 
coherence of the government. The Cabinet, instead of acting as a 
vehicle for national unity and state-building has become a mechanism 
for dividing up the spoils of electoral success. If the ministers that 
al-Maliki appointed are answerable to anyone it is to their party 
bosses, not the Prime Minister or the electorate. The ministries these 
politicians now run have become personal and party fiefdoms. At best, 
scarce government resources are diverted to build party constituencies, 
with each minister clearing out the payrolls of their ministries to 
appoint friends, followers, and faction members. At worst, with little 
or no Cabinet responsibility or administrational oversight, this system 
encourages both personal and political corruption to flourish.
    Under the transition from regime change, 2005 was meant to give 
Iraq's new ruling elite the legitimacy to rule the country. However the 
way that electoral mandate was delivered, through large multiparty 
coalitions, has directly hindered the government's main and crucial 
task: The rebuilding of the Iraqi State. Instead the Cabinet has become 
highly fractured. Ministries have been turned into party fiefdoms 
directly breaking governmental coherence. In the aftermath of each 
election, politicians were locked away within the fortified Green Zone 
in the centre of Baghdad. They became quickly removed from the everyday 
concerns of a population struggling to survive in the midst of an 
increasingly bloody civil war. The new government has followed the path 
of its two predecessors; it has become mired in the incestuous politics 
of zero-sum party competition. The state, both coercively and 
administrationally, is still largely irrelevant to the Iraqi 
population's lives. As such, it is hastening Iraq's further descent 
into intercommunal strife and collapse.

                           PROPOSED SOLUTIONS

    Against a background of state collapse and the resultant civil war 
both the Iraq Study Group and President Bush argue, ``Only Iraqis can 
end the sectarian violence and secure their people.'' However once 
state capacity has collapsed, civil society's ability to positively 
influence events quickly disappears. The Iraq Study Group's main 
suggestion is a dramatic empowerment of Iraq's current governing elite. 
They would be forced to take on the role of state-builders by the 
application of both carrots and sticks; greater and speedier devolution 
of power, increased funding but also the threat of reduced aid or 
complete U.S. withdrawal. Under these policy proposals the United 
States would exercise influence over the Iraqi Government in two ways. 
First, it would make Iraq's rulers understand that America's commitment 
to the country was not open-ended. U.S. troops would be reduced and 
eventually withdrawn from Iraq, irrespective of the progress made on 
the ground. The minds of those in the Iraqi Government would be focused 
by a clear and unambiguous time limit placed upon U.S. support for the 
country. They would have no American safety net. If the current ruling 
elite failed it would be their own lives that would be put at risk. 
More immediately the Iraq Study Group suggested the imposition of 
strict conditionality on further U.S. aid. If specific milestones were 
not reached by the Iraqi Government over the next 2 years, then U.S. 
troops and money would be reduced incrementally, until Iraqi Government 
policy was changed for the better.
    Given that the Iraqi governing elite play such a central role in 
the ISG's recommendations, their response is instructive. The Iraqi 
President, Jalal Talabani, gave the government's most sustained and 
detailed reaction stating, ``as a whole I reject this report.'' 
Talabani rejected the report's suggestion of embedding up to 17,000 
U.S. advisers across the Iraqi Army and police force. This he claimed, 
``is not respecting the desire of the Iraqi people to control its army 
and to be able to rearm and train Iraqi forces under the leadership of 
the Iraqi Government.'' Talabani also minimized the potential for aid 
conditionality to influence the government. Overall, Iraq's President 
saw the ISG's recommendations as a negation of Iraq's hard-won 
sovereignty and thus unacceptable to his government.
    Hoshyar Zebari, the Foreign Minister, and Mowaffak al-Rubaie, the 
National Security Adviser, developed a much more cautious critique of 
the report. Speaking at the International Institute for Strategic 
Studies' Manama Dialogue in Bahrain, al-Rubaie broadly agreed with the 
change in the U.S. military mission suggested by the ISG. The 
government, he argued, has been asking for the accelerated training and 
equipping of Iraqi security forces. Zebari claimed that on the military 
front the ISG recommendations were in line with the agreement recently 
reached between President Bush and Prime Minister al-Maliki at their 
meeting in Amman. This was to accelerate the transfer of security 
responsibilities to Iraqi troops in command and control, training, 
arming, and equipment.
    However, the final response to the report was not at all positive. 
If the ISG's recommendations on national reconciliation were meant to 
be perceived as an olive branch to the insurgency then the reaction of 
the Baath Party cannot have given its author's much room for optimism. 
The Baath Party, in its official response, saw the ISG report as 
confirmation of America's dire position in Iraq, commenting that the 
United States had been defeated and ``the Iraqi national resistance has 
achieved a practical victory. This much was clear from the Baker 
report. Now Bush has also admitted that America had failed.''
    The ISG's report selected the ruling elite of Iraq as the best tool 
available to the United States, to shape events on the ground. However 
the logic of two nationwide elections and a constitutional referendum 
since the invasion works against this strategy. It means that Iraqi 
politicians like Talabani feel they have developed a large degree of 
autonomy from the U.S. Government who originally put them in power. 
This explains why the ISG's call for conditionality was rejected in the 
name of Iraqi sovereignty and the government's electoral mandate. 
Amongst both American diplomats and Iraqi politicians working in the 
Green Zone, there is a recognition that the negative consequences of a 
precipitous American withdrawal from Iraq would be as great for the 
U.S. Government as it would be for the Iraqi ruling elite, many of whom 
are very lightly attached to their country. This gives Iraqi 
politicians a good deal of leverage over their American colleagues. 
Their response to the ISG report has been to call America's bluff, not 
taking seriously either its demands for conditionality or threats of 
withdrawal. This means Iraqi politicians will continue to squabble 
amongst themselves directly undermining the coherence of the government 
and the rebuilding of the state.
    President Bush, on the other hand, favours a dramatic increase in 
U.S. troops to impose some order on Baghdad and the northwest of Iraq, 
adding a further 21,500 troops to the current 132,000 troops in the 
country. His desire for greater numbers of U.S. troops in Iraq has been 
shaped by the military and political difficulties faced by the most 
recent attempt to control Baghdad, operation Together Forward II. This 
operation began in August 2006, with plans to deploy 7,000 extra U.S. 
troops in combination with a similar number of Iraqis. However the 
Iraqi Government found itself unable to deliver the troops or 
reconstruction assistance it had promised. Several battalions refused 
orders to deploy to Baghdad. In addition, U.S. commanders had to 
counter sustained political interference in their operations from the 
highest levels of the Iraqi Government.
    President Bush's new proposals for a surge in troops may also 
suffer from logistical and strategic shortcomings. Even a new total of 
153,500 U.S. troops would be far short of the numbers needed to impose 
order on the country. A technocratic study on state-building published 
just after the invasion concluded that occupying forces would need 20 
security personnel, (both police and troops), per thousand people. It 
estimated that coalition forces should have had between 400,000 and 
500,000 soldiers to impose order on Iraq. Even this figure compares 
unfavourably to the estimated 43 per 1,000 that sustained Saddam in 
power. President Bush's new approach would see a new total of 32,500 
U.S. troops in Baghdad, a city of 6 million people. This gives 
commanders 1 American solider for every 184 Baghdadis. This new 
enlarged number of U.S. troops is still well below even the 50 per 
1,000 that the new Army and Marines field manual on counterinsurgency 
recommends.
    In addition, simply flooding one area of Iraq, in this case parts 
of Baghdad with troops, neglects the subtler aspects of 
counterinsurgency doctrine. A surge in troops to Baghdad may be 
understood as the beginning of an ``oil spot'' strategy. But to be 
sustainable this has to be married with the second stage of the 
process. After areas have been cleared of insurgents the government 
needs to reconstitute sustainable security (particularly police 
forces), build up its administrative capacity, establish the rule of 
law, and transform its despotic capacity for violence into an 
infrastructural power for governance. The Iraqi Government is neither 
willing nor able to follow up the clear phase of counterinsurgency with 
the infrastructural build stage. First, in the aftermath of a 
successful U.S. counterinsurgency operation to gain control of the 
northern city of Tel Afar, the Iraqi Government proved remarkably 
reluctant to secure this victory by deploying enhanced government 
resources. After the clear phase U.S. forces found themselves overtly 
cajoling the Iraqi Government, in an effort to get funds released for 
the area, while trying to stop covert attempts at undermining the whole 
operation. Second, in a country dominated by a collapsed state, the 
ability of the government to build up its capacity across a sustained 
geographical area is very limited.

                              CONCLUSIONS

    There is a distinct danger that neither President Bush nor the 
Iraqi Study Group's proposals for extracting the United States from the 
debacle that Iraq has become have recognized the root causes of the 
violence and instability that has plagued the country since April 2003. 
The origins of the Iraqi civil war lie in the complete collapse of both 
the administrative and coercive capacity of the state. The Iraqi State, 
its ministries, civil servants, police force and army ceased to exist 
in a meaningful way in the aftermath of regime change. It is the United 
States inability to reconstruct them that lies at the heart of the Iraq 
problem. If and until the state's capacity is substantially rebuilt, 
then Iraq will continue to be a wellspring of violent instability, with 
the population dominated by the Hobbsian nightmare that their lives 
will be nasty, brutish, and short.

    The Chairman [presiding]. Thank you very much, Doctor.
    Let me explain and apologize to the two witnesses I didn't 
hear. I was on the phone with one of the former Secretaries of 
State who was supposed to testify--he will testify--trying to 
work out a scheduling problem, and I apologize for my absence 
during your testimony.
    We've just been told that the vote that was supposed to 
take place at 2:45 has been pushed back a little bit, and 
again, since my colleagues are always so patient, I'm going to 
begin by yielding to the Senator from New Jersey, to give him a 
chance to ask questions first.
    Senator Menendez. Thank you, Mr. Chairman, I appreciate it.
    Let me say----
    The Chairman. We'll do 8-minute rounds today.
    Senator Menendez. Let me say that, having sat through all 
of these hearings, and they've all been incredibly instructive, 
and I appreciate you and Senator Lugar bringing us together on 
this, I don't know which one has created a greater frustration 
for me.
    Having listened to what you all had to say, which was very 
insightful, I'm trying to reconcile what you all had to say, 
and I think there's some elements that I heard that have a 
common thread. I was also reading as you gave your more concise 
statements, which are in conflict with what I've heard from 
other panels.
    And that is--I've heard time and time again, particularly 
from the administration, that in essence, this government, the 
Maliki government, is now ready to deal with the substantive 
and political issues that are critical for the possibility of a 
government of national unity to be realized, if it can be 
realized--regarding the deployment of Iraqi troops, as it 
relates to the President's escalation of the war and seeking 
security in Baghdad, as it relates to the political issues, as 
it relates to the economic issues, on the oil revenues 
redistribution--all of these things. And yet, I listened to 
what I think was the one thread that unified your testimony--
that the political players beyond the Maliki government that 
obviously have enormous impact here, are not quite at the table 
and have not been incentivized by either the inclusion of 
regional partners or by other ways, to come to the process of 
what is necessary to move forward on the possibility of a 
national agenda, and reconciliation, reconstruction, and moving 
forward.
    If that is the case, then everything we hear from the 
administration about that the way in which we are going to 
achieve success is not possible because it depends on a 
government that you, Dr. Dodge, described as basically 
incapable, because of the structural way in which we took 
action after the invasion.
    And then I listened to several of the other testimonies 
talk about how the political players are not there, or are not 
incentivized and have reaped the benefits of being in power 
through their party process and the powers of appointment, 
Cabinet positions, and what not. And then, listening to Mr. 
Talabani--tell me: How do we move this forward? Because we're 
being asked to send 22,000 of America's sons and daughters into 
a fight, an escalation of a fight, in which the political will 
doesn't seem to be there to accomplish what is--at least at 
this point in time--what is necessary on behalf of its own 
people, and possibility of its own nation? And yet, we are 
being told that's the very essence of what we should do. So 
that we can give them all the wherewithal to achieve that. I 
don't hear it, in all of your respective testimonies. So, I 
open it to whoever wants to comment.
    Dr. Dodge. You've got my message exactly right, and I think 
Laith and at least two of my colleagues probably wouldn't 
disagree with the sentiment, if not the way it was delivered.
    I think it is the electoral system, I think the electoral 
system has deliberately structured a weak Prime Minister, I 
think once the representatives of the parties get hold of their 
ministries, they do what they please with them. And the course 
of what--that the painful example of this is by in Jaabar, 
first in Interior, and now in Finance. There was a series of 
scandals in the Interior Ministry, highlighted by the U.S. 
military in, I think, November 2005, finding detention centers 
which were truly horrific, but it was not until May 2006 that 
anyone could remove that minister from his post, and then he 
wasn't removed, he was shifted sideways into anything, a more 
important job in the Finance Ministry. What does that tell us 
about the government? It's not fit for purpose.
    Now, I could explain it by detail I have in my testimony, 
what it is about the electoral system that's delivered this, 
but I think, if the surge has one positive aspect, it is in 
protecting--on a very flat terrain--the one institution of the 
Iraqi Government that is, at the moment, coherent, and is not 
politicized or sectarianized to the degree that the others are, 
the Iraqi Army. By pumping in these new troops to Baghdad, what 
you're doing is putting an American shield round the only 
institution that has the capacity to deliver services to the 
Iraqi population that it needs: Law and order.
    So, I think, although I've criticized the surge for being 
too small, and actually, for neglecting the second phase of 
counterinsurgency, it may have, possibly the unintended 
consequence of protecting the Iraqi Army from the way that the 
rest of the institutions theoretically----
    Senator Menendez. This is an institution that is, at least 
at this stage, clearly not delivering on behalf of the Iraqi 
people. It doesn't seem to have the political will to do what 
is necessary to achieve real delivery service. How is it--as 
you answer these questions, I would ask, in my time that's 
left--tell me how is it that you would change the dynamics? 
What is it that we can do to change the dynamics, externally or 
internally, in order to move the political players to a much 
higher calling?
    Dr. Dodge. Well, I think when you look at President's 
Talabani's response to Baker-Hamilton, all Baker-Hamilton was 
merely suggesting, and I think, on a misunderstanding of the 
Iraqi Government, the Iraqi Government must do specific things 
for the money that it's being given, and that it must accept 
large number of American trainers into the Iraqi Army. 
President Talabani said, ``I reject this report. I won't have 
anything to do with this report.''
    So, you have a problem that those two elections and that 
referendum have given a degree of perceived autonomy and 
sovereignty to the Iraqi politicians who are not doing their 
job.
    Dr. Kubba. If I may, I just want to remark--irrespective of 
how we go there today, we have a reality, that political 
landscape that has its hold over the State, it's stagnant and 
we can spend the next 3 years going round and round. The 
country is rich enough, it's pumping oils, there are 
beneficiaries that are controlling this state, they will not 
let it go. Even if 4 million Iraqis are displaced as refugees 
and hundreds are killed every week, they will not let go.
    In my understanding, the only way is to change the dynamic 
of the Iraqi politics. The only way I can see it, is something 
strong enough that will make them shift and seriously think 
about it, they know the neighbors are not going to go away, 
unlike American troops, which are bound to go away. They know 
that the neighbors have influences over them, and they do not 
want them in Iraq at all. Maybe that thing they fear most can 
be leveraged to bring a real change in dynamic, and force 
them--if they want their country, then work toward it, and do 
not run it down.
    Ms. Rahim. Mr. Chairman, may I add? I agree with my 
colleagues, but I want to add one or two points.
    First of all, the Prime Minister is constrained both 
constitutionally, and also by the fact that he is head of a 
coalition government. As Prime Minister, in the Constitution, 
he already doesn't have very many powers. But as the head of a 
coalition government, he has even fewer powers.
    I can tell you that the Prime Minister cannot fire any of 
his ministers. He has been talking about firing three ministers 
since last July, and has not been able to do so. So, that is a 
given. However, we also have a National Emergency Law, which in 
my view, we have not taken advantage of fully. And I think we 
ought to be looking at that law, and seeing whether the Iraqi 
Government, the Iraqi Cabinet and Prime Minister Maliki, 
specifically, can actually use that law to give himself some 
greater capacities than he already has.
    That's one point. The second point is that we need to 
pressure--the United States needs to pressure--not just Prime 
Minister Maliki. The pressure has to be applied on all those 
recalcitrant political actors who are unwilling to make 
concessions and compromises. And, in order to do so, I think 
the United States needs to do something that we really have not 
done a good job of, and that is assess our leverage.
    What is United States leverage in Iraq today? Where does it 
reside? Where are the points where the United States can 
actually make an impact on the political process? Now, it seems 
to me that there definitely has to be leverage with 150,000 
troops there, but I do think we've done a very good job of 
identifying where it is, specifically, and we perhaps should be 
engaging in that kind of exercise.
    Mr. Talabani. I think, Senator, if I could just add. The 
problems are clear for all to see. There is a major mistrust 
between the people that are, today, sitting around the table, 
deciding the future of this country. It is not the fact that 
it's a faulty political system, or it's a faulty electoral 
system, or it's a faulty constitution that has got us to this. 
It is about bad leadership, politically immature leadership.
    And this cannot, most of the people that are in government 
today were in the opposition. Few have had experience at 
administering, and one of the reasons of the Kurdistan region 
today is a little more stable than the rest is because we've 
had 15 years of administering our affairs. If you look back at 
the Kurdistan region in the early nineties, it was as bad as 
Iraqis today--the parties were fighting each other, there was 
mistrust, there were rivalries about money, about power.
    Eventually, as we saw a larger goal, the mistrust began to 
go away, and it ultimately was a major role of the United 
States that brought the two Kurdish parties together, sat them 
down at the table and gradually--slowly but surely--trust began 
to develop.
    Now, I don't think Iraq has 15 years to wait before the 
trust can begin to develop, and that just shows you what a 
major task we have ahead of us, to eliminate centuries of 
mistrust that has existed within Iraqi society, the mistrust 
between Sunni-Arab and Shia-Arab communities hasn't just been 
created since the removal of Saddam's regime--these are deep-
rooted insecurities. And you cannot address these people's 
insecurities with a policy or a strategy. It ultimately has to 
come about by leaders leading. And reaching beyond their ethnic 
and sectarian boundaries, and I don't know how we do it, to be 
honest with you, sir.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. There are about 5 minutes left of the vote. 
Senator Casey, I believe, is coming back, and possibly Senator 
Webb. I would like to come back and ask you some questions.
    If you would like to continue for a few, if you have 
anything you want to finish up with, I----
    Senator Menendez. Well, sure.
    The Chairman. Because I don't want to make you have to come 
back again.
    Senator Menendez. I would--you know, you spoke of, is it, 
Ms. al-Rahim? You spoke of us assessing what leverage we have, 
and making a decision to use it on the other political players 
within Iraq. Do you, would you have any suggestions in that 
regard?
    Ms. Rahim. Senator, it's not really up to me to make those 
decisions, I think that American policymakers ought to sit down 
and assess what kinds of leverage they can have.
    But while I have the opportunity, I want to recall 
something, and that is, I believe way back when I testified 
before this committee in 2002, I spoke about a date in process 
that was required in Iraq, that we really need to bring the 
Iraqi players.
    And I don't see, necessarily, just the United States 
bringing the players, but there has to be some way by which we 
can persuade, and put pressure on those players to come 
together and say, ``OK, you've got, you know, we've got a 
week,''----
    The Chairman. What do the rest of you think about that idea 
of a date in process?
    Excuse me for interrupting.
    Senator Menendez. Sure, no, absolutely.
    The Chairman. Because it wasn't the United States just 
bringing them together. Russia was there, France, I mean, there 
were other nations. It was a major effort--what do you all 
think about that notion?
    Dr. Dodge. I think I've written at length about, and when I 
testified before this committee last time, spoke about the 
desperate need to multilateralize. But on two levels.
    First, I think, undoubtedly, no one around this table would 
disagree that certain neighbors, and I think, increasingly more 
neighbors will start to play into Iraq with destabilizing 
effect. So, you need to put the neighbors in a multilateral 
framework that convinces them that collective cooperation as 
opposed to individual machinations will be to their benefit.
    But you need, certainly, to bring the United Nations back 
in, maybe not for the structure of the United Nations, but for 
the resources that the Permanent Five can deploy, and also the 
diplomatic cover that it would give to the United States, it 
would be much more muscular in Iraq.
    Over a period of 2 months I met three very senior Iraqi 
politicians who'd been in the first two governments, and then 
had left government, and they were the most haunted and 
profoundly depressed individuals who said, ``You know what you 
did? You gave us power back too soon.'' And I think the Iraqi 
people are reaping the hell of that mistake around the November 
15, 2003.
    So, I think the United Nations, or at least a multinational 
framework needs to be, Iraq needs to be inserted within that, 
to bear the burden of state-building.
    The Chairman. Mr. Talabani, Dr. Kubba. Briefly, if you can, 
because I think we've got about a minute left in the vote with 
the time.
    Mr. Talabani. Sure, I think some sort of international 
process could be helpful, but only if it helps to alleviate, 
again, the concerns of the various players in the country. I'm 
skeptical of how much pressure could be applied by the United 
States, by an international body. It's not about pressure--it's 
about some sort of incentives that will ultimately help create 
some sort of rational thinking and wise judgment that doesn't 
exist today.
    Dr. Kubba. I clearly see that the pressure point that can 
come is from Iraq's neighbors for--on many grounds. They can 
contribute to security, they can assure the communities, or 
have the opposite effect on others. But more importantly, I 
think if the Iraqi Government takes the lead, with the support 
of the United States, the focus on bringing Iraq's neighbors 
would definitely bring the right change in the environment, and 
some results.
    The Chairman. Well, thank you, we're going to recess, with 
your permission, for about--it takes about 10 minutes to get 
over, and there's two votes in a row, but one vote is almost 
out, and the other we'll vote at the front end, so with a 
little bit of luck, we'll be back here at about a quarter 
after, OK?
    We'll recess until the call of the Chair.
    [Recess 4:05 p.m.]
    [Reconvened at 4:28 p.m.]
    The Chairman. The hearing will please come to order.
    I thank the panel for their indulgence. Because of so much 
happening on the floor of the Senate now, I'm not sure who's 
going to be able to come back, but I do have some questions, 
with your forbearance here, if I may.
    I'm going to ask some pretty broad questions, if I may, and 
they're going to sound--well, I won't characterize how those 
sound, you can make a judgment. What happens if the United 
States just gets up and leaves? What happens if the United 
States of America announces that over the next 6 months we're 
going to engage in an ``early'' withdrawal, we're leaving Iraq. 
What happens?
    Rend, I'll start with you----
    Ms. Rahim. Mr. Chairman. Yes----
    The Chairman [continuing]. And work our way across.
    Ms. Rahim. Looking almost exclusively at U.S. interests in 
the region, I would say it would be catastrophic. There would 
be----
    The Chairman. Catastrophic for U.S. interests?
    Ms. Rahim. For the--for the United--yes; for U.S. 
interests.
    The Chairman. In what sense? How would it be catastrophic?
    Ms. Rahim. The----
    The Chairman. I'm just being the Devil's advocate here. I 
like----
    Ms. Rahim. Yes, yes. And we'll parry here.
    The situation in Iraq will deteriorate into total chaos and 
mayhem, there will be--if we're not now in civil war, we will 
be definitely in civil war. I believe that neighboring 
countries will not stand by, they will intervene in that civil 
war, either by sending in their own forces, or by funding and 
facilitating. I think the civil war----
    The Chairman. A cynic would say that's already happening, 
funding and facilitating.
    Ms. Rahim. Well, even more so.
    And I would also suggest that this civil war may actually 
spill over into some neighboring countries, particularly in 
Kuwait, Saudi Arabia, perhaps Syria, Jordan, so on. So, I don't 
think we can contain what goes on in Iraq if it deteriorates.
    Obviously, oil flows will be disrupted and----
    The Chairman. In addition to Iraq, they'll be disrupted in 
other countries as well?
    Ms. Rahim. Yes; oh, absolutely.
    Of course, we will also be giving major players that we are 
not necessarily friends with, such as Iran, the ability to 
manipulate Iraqi affairs, even, to an even greater degree than 
they are doing now. And I don't think that's a desirable 
outcome.
    So, I think we need to think very, very carefully about 
consequences of withdrawal.
    The Chairman. Dr. Dodge.
    Dr. Dodge. I agree with President Bush on this, he said it 
would force a collapse of the Iraqi Government, tear the 
country apart, and result in mass killings, I think that, 
that's--I think he's spot on there.
    I think the--if we look at the comparison with the Lebanese 
civil war, the region was comparatively successful in 
containing this struggle, but what resulted? As the region, and 
more importantly, the international community invariably turned 
its back on Lebanon, one state through murder, bribery or 
whatever, dominated Syria. So, I think the example would be as 
the United States draws out, pulls out, the Iranians will come 
in and dominate the terrain through nefarious means, and 
through violence. So, I think it would be disastrous for Iraq. 
It may not spread the civil war beyond the boundaries, but Iraq 
would then become a regional cockpit where Iran and Saudi 
Arabia, Jordan would then fight this so-called presence of 
crisis war for----
    The Chairman. Including Kurdistan?
    Dr. Dodge. Pardon?
    The Chairman. Including Kurdistan?
    Dr. Dodge. Well, I think it depends on the Turkish general 
staff there, doesn't it? And one hears two different arguments, 
one that the opinion in membership is a constraining factor, 
but two, all of the opinion poll data coming out of Turkey 
suggests that Turks have waited too long, and are turning away 
from the Holy Grail of Europe, which means Turkey then would, 
as it turns back to the region, have greater capacity to pursue 
its interests in the North.
    Mr. Talabani. I think----
    The Chairman. Mr. Talabani.
    Mr. Talabani. Mr. Chairman, the only thing I would add to 
my esteemed colleagues' comments, which I agree with in their 
entirety, is the free access that would be given to al-Qaeda to 
come in a benefit from this failed state. And wreck havoc, 
really, from a failed state like Iraq.
    The Chairman. How would that happen, since each of the 
major constituencies have no interest in al-Qaeda occupying any 
part of their territory?
    Mr. Talabani. I think they will most likely benefit the 
western part of the country. They will use their ability to 
move around in the western part of the country to impose on the 
people in that part of the country a rule of fear. They won't 
have success in Kurdistan, they won't be able to walk around 
freely in the southern part of the country, but I think we will 
see an emergence of an extreme Taliban-style way of life in 
western Iraq.
    Dr. Kubba. If I may, Senator, the--I think the communities 
are more or less prepared for that eventuality in the worst 
possible way, which is going to lead to, naturally--to suck in 
the neighbors into Iraq. Iraq's immediate neighbors have their 
own national interest tied with what happens in their country, 
if the United States was to abandon it, abandon a weak Iraq 
without a state to defend itself, it's basically inviting 
neighbors to step in, and the communities will rush to 
neighbors to find protection.
    So, for sure we're going to have a much prolonged war 
within Iraq that involved the neighbors. And I think in the 
atmosphere of ruins and no government, al-Qaeda will flourish. 
They'll find fresh grounds for recruits, for training people, 
creating networks of murderers, it will just be ideal grounds 
for them.
    The Chairman. Now, let me ask you a second question. Does 
the leadership among the Sunnis and the Shia and the Kurds 
understand that that's going to be an inevitability if things 
don't start to straighten up? Does anybody think that the 
United States of America, forget what I think, is going to, 18 
months from now--there's a lovely woman in here with a shirt 
that said ``3061'' on her chest. Do they think they're going to 
let it go to 6058? With no maturation of the political system 
or circumstance? What do you think they think?
    Dr. Kubba. My belief is that they are prepared for it. They 
think they are in a survival game, very much as Euros fight, 
and they are prepared for it. The Sunnis have their strategic 
depth in other countries, they think the flow of money and 
volunteers will continue, the Shia have their strategic depth 
in Iran, and I think the Kurds are fairly strong in their 
region to face that eventuality if it comes.
    The Chairman. So, then, we talked about earlier, Ms. Rahim, 
the notion that the United States has to figure out where its 
pressure point is, where its--I forget the exact phrase you 
used for Senator Menendez, and he asked you what that was, and 
you said, obviously, that's for us to determine as a country, 
not for you to presume. But it seems to me you all are 
painting--and I'm not taking issue, I'm just trying to 
understand, a fairly bleak picture here.
    If, in fact, we do not stay and keep ourselves interposed 
as sort of ``apartheid cops'' keeping things from blowing out 
of control fully, we will reap the whirlwind. That, if we stay, 
there's very little prospect to think that any of the present 
actors who are the major players in determining outcomes, 
whether it's the militia, whether it's the political parties 
they're attached to, whether it's the political leadership that 
exists in the so-called central government now, that they have 
no incentive to see things change. And, because of the reasons 
you've stated, Dr. Kubba. And so it is a bit of, as I say, a 
conundrum here.
    And, one of the things I've observed is, and Dr. Dodge, 
you're a historian and you, and all of you may know better than 
I, but I can't think of a circumstance in the 20th century 
where a nation has been willing to continue to have its blood 
and treasure bled for the express mission of just keeping 
things from getting worse. I don't know when that's ever 
happened.
    And so, I know you all fully understand, I mean, you've 
said things, and as you know--I'm not being solicitous, I have 
great respect for you all--you've all laid out the elements of 
what, if it occurred, would be the building blocks for the 
United States to be able to, over time, leave Iraq without 
leaving chaos behind, and having some sense of stability in a 
country that did not invite the neighbors in, was secure within 
its own borders, not a haven for al-Qaeda, and not a threat to 
its neighbors.
    But all of the things you have stated, and all of you have 
used the same kind of terminology, and you've cited the same 
goals--you basically all say, with the exception of Mr. 
Talabani, that the system that was set up, the governmental 
system, is broken. It is not, it cannot carry the weight of the 
change that's required. Yes--and I happen to agree with your--
some of your criticism about how we got to where we got to--but 
as an old bad, tried expression goes, ``We are where we are.'' 
You have this overwhelming portion of Iraqis voting for a 
constitution, that everyone who comes and testifies before us 
says, basically, ``Ignore it, ignore it.''
    That's--when you cut through all of the terminology with 
notable exceptions like Mr. Talabani, most people say, ``Hey, 
the political vehicle that's in place, that's designed to bring 
about political accommodation, makes political accommodation 
impossible, so, therefore, ignore it.'' And the international 
community has put its stamp of approval on this thing called a 
constitution, and the Constitution calls for regionalism, and 
locks, Mr. Talabani, it locks the Kurds into a position--which 
they want--a position of regional autonomy. It says it straight 
out in the Constitution, and then it says, I forget, I think 
it's section 115, or article 115, and it says right below that, 
subsection--or part two of that--I should have it committed to 
memory like my own Constitution, I've read it enough--but it 
says that any other governorate can determine it should be a 
region, and it defines what the responsibility of a region is. 
What authority they have. And it says that it cannot contravene 
the laws of the national government, but the laws of the 
national government, as you point out, there's a weak Prime 
Minister, and a weak national government, the national 
government can't even tax. There's not even the power in 
Baghdad to tax.
    And that's the system set up, and yet, every expert that 
comes before us, with notable exceptions says, ``You can't have 
these regions, you allow these regions to occur and you have 
chaos, and you just increase the sectarian identity, and you 
increase the--'' and you know, it goes on.
    We have an expression that, I think, comes from you Brits: 
It's like pushing a rope. So, I mean, tell me, straight up--do 
we disavow the Constitution, say, ``from this moment on, the 
United States of America does not think that implementing the 
terms of the Iraqi Constitution are in the interests of the 
Iraqis or the United States?'' Do we say that?
    Mr. Talabani. Mr. Chairman, if I can.
    The Chairman. Yes.
    Mr. Talabani. Iraq has been a failed state since its 
inception. It's been a failed state, because its been ruled by 
a minority from a center that has imposed its will, through 
fear and terror, on the majority of the country. This has 
created the situation that we have today. It wasn't Ambassador 
Bremer that created this situation.
    The Chairman. No; I didn't say that, as you know.
    Mr. Talabani. The CPA made many mistakes, we made many 
mistakes, but it's the fact that Iraq's history has created the 
situation. The mistrust that exists between these communities.
    So, people have come forward and have put forward a 
system--a proposed system of government, through a federal 
structure that takes away the insecurities. It tells the Sunni-
Arab that no longer will the Shia dominate them. It tells the 
Shia that no longer will the Baathis dominate them. It tells 
the Kurds that no longer will we be deprived of our own oil. It 
puts in place sound mechanisms for coexistence. It is the only 
way that we can keep this country together.
    The country today stands divided, Mr. Chairman. And through 
a federal structure, and through creating regions that can 
administer their own affairs, we can keep Iraq as one country.
    The Chairman. As one of my friends says, ``Let's get up to 
30,000 feet here, and look down.'' It has been argued by some 
equally bright and dedicated people who have been before this 
committee in the past 3 weeks, with regard to a failed state, 
if it is, and was, there's generally only two prescriptions. 
One is a strong man, and/or an empire being able to govern it, 
or two, federalization. Federalize it. That there is very 
little prospect of transitioning from a strong-man/empire-
dominated country constructed by an Englishman drawing a pen 
along a piece of paper representing the map of the world--
there's no way to get from here to there. There's no way to get 
to a strong, central government that does not rely on ethnic 
and/or religious blocks as the instruments of political 
accommodation, that allows you to have a unified, central 
government. So, the transition, if there is any, has to be to 
an imperfect regional government--not necessarily a 
Balkanization, not necessarily. Not necessarily splitting up 
the country. But at a minimum, a very loosely federated 
government. What's the alternative?
    Ms. Rahim. Mr. Chairman, I think that Iraqis have accepted 
the principle of federalism. I don't think there are many 
Iraqis that will oppose federalism, it is what kind of 
federalism, and at what pace, and what are the residual----
    The Chairman. Let me define it so we can get into it, OK?
    Ms. Rahim. OK.
    The Chairman. What the Constitution says is: If you seek to 
participate and become a player in the federal system, any 
governorate on its own or joining another can become a region, 
a term of art in the Constitution, and it's very explicit about 
the powers of the region.
    One of those powers, I think it's section 5, if anybody has 
a Constitution, section 5 says--let me make sure, he just 
handed me the whole Constitution here, but let me find the 
exact part. I'm looking at it--section 6, article 109, 
subsection--is this right? I'm sorry, I beg your pardon. 
Article 113, subsection, it's listed sixth: ``To formulate 
public,'' excuse me, let me find the right section here, 
because I've got this backward.
    Where's that section about control over security? Oh, here 
it is. I unfortunately know more about this than my staff, 
which worries me.
    Article 120, they talk about having the responsibility if 
you choose to be a region. And the fifth section says, ``The 
regional government shall have responsibility for all 
administrative requirements in the region, particularly the 
establishment and organization of internal security forces for 
the region, such as police, security forces, and guards of the 
region.'' Now that's pretty basic stuff. Article 120 lists a 
total of six, excuse me, five powers that inure to a region if 
a governorate chooses to become a region or part of a region.
    Article 119 says, ``the region shall adopt a constitution 
that defines the structure of the regional government, it's 
authorities and mechanisms for exercising those authorities, 
provided they do not contradict with the constitution.''
    Article 120 says, first, ``regional authorities shall have 
the right to exercise executive, legislative,'' and it defines 
them. But the fifth one is pretty profound. Every expert and 
every historian we've had here said, ``Whoa, you can't do that. 
You can't let these guys have control over, like you do, with 
the pesh merga, the total security of your country.'' We all 
act like we're, you know, we're in Alice in Wonderland here.
    These guys are up there saying, ``By the way, you can't 
even put the Iraqi Army in my neighborhood, unless we agree. 
The Constitution says, they can say, your dad can say, 
``Nobody; forget it. General so-and-so, you cannot.'' You can't 
even fly the Iraqi flag if you all don't want them to fly it in 
your territory. And you all are talking about a united Iraq, 
like somehow there's going to be a strong, central government, 
where we pretend there isn't anything having to do with these 
sectarian and regional, ethnic, and tribal differences. So, 
what are we talking about here?
    Dr. Dodge. Mr. Chairman, if you'd let me blunt----
    The Chairman. I'd like you to be, believe me. I need 
bluntness right now.
    Dr. Dodge. The Constitution is irrelevant to Iraq.
    The Chairman. All right.
    Dr. Dodge. It's like rearranging the deck chairs of the 
Titanic as it slips between the icy waves of chaos and 
violence.
    But basically, we have a representative from the Syrians in 
the audience, apparently the Syrians have been promised Ninewa. 
Who is going to protect them when they're given Ninewa. What 
are they going to do with Ninewa?
    And the point that I--in my testimony about the----
    The Chairman. I'll tell you one thing. Americans don't want 
to die over Ninewa, while you all are figuring it out.
    Dr. Dodge. The point about Badr and Sadr's low-level civil 
war, it goes straight to your point. You divide the country up, 
you give the South to who? The Iraqi people don't care about a 
constitution, what they care about is the day-to-day struggle 
to survive, which is getting more and more difficult in the 
chaos that's Iraq.
    The Chairman. Let me play Devil's advocate. Let's assume 
that the law passed by the Parliament, suspended for 18 months 
now, what, 10 months left?
    Mr. Talabani. Ten months, yes.
    The Chairman. Or 12 or whatever months left, allowing these 
regions to be set up. You come along and what happens is two, 
three, five, seven governorates in the south made up of a Shia 
coalition that's at odds with itself, becomes a region. Well, 
if I'm sitting in Kurdistan, and if I'm sitting in the Sunni 
province, I think, ``You know, the good thing is, Sadr's going 
to have to go kill somebody in that outfit that I don't like 
anyway, that the SCIRI part that was trained by the Iranians, 
the Badr Brigade. At least they're not in my neighborhood 
killing me.''
    Dr. Dodge. But they will be as well, won't they?
    The Chairman. Why?
    Dr. Dodge. Because Baghdad is 6 million people, the most 
ethnically mixed city in Iraq.
    The Chairman. Again, being the Devil's advocate, you've got 
a million, 200,000 people already headed out. You've got ethnic 
cleansing already occurring in a race. I mean, it is a deluge 
that's occurring without any regional government being set up 
except Kurdistan. And so, again, I'm trying to figure out--I 
agree with you, the ideal thing is to have a Democratic central 
government that has figured out a mechanism for sharing the 
oil, for controlling the militia, from allowing the neighbors 
to interfere in internal affairs. That is what I'd like to see.
    Now I sit here and say--and I'll end with this and yield to 
my colleague--I sit here and say, ``Do I continue to vote to 
keep somewhere between 135,000 and 160,000 forces, while all 
you Brits are heading home real quick?'' You're packing up and 
leaving, no one else is in the deal. I mean, if you notice, no 
one talks about the coalition forces anymore. At least they 
have the good grace to drop the facade, that there's a 
coalition force.
    And I say, ``But I tell you what, I'm going to send my son, 
who is in the National Guard, let him go on over there, and let 
him take care of helping you guys from killing each other, even 
though we may have been the reason you started killing each 
other. And we're going to do this for awhile, and we have no 
real hope that you all are going to get together, but we're 
going to do this, because we think a central government is a 
good idea.''
    Mr. Talabani. Mr. Chairman.
    Ms. Rahim. Mr. Chairman, may I----
    Mr. Talabani. Please.
    Ms. Rahim. May I say a couple of things about this?
    First of all, I have two problems with this scenario, or 
three.
    The Chairman. I got a bunch.
    Ms. Rahim. One of them is that the--if the National 
Government has dysfunctional institutions, I can assure you 
that with the exception of Kurdistan the other provincial 
governments are nonexistent. They are----
    The. Chairman. I agree.
    Ms. Rahim [continuing]. Even more dysfunctional, if that 
were possible. And so what is there to federate to? I am a 
proponent of federation in Iraq, and not only of Arab-Kurdish 
federalism, but a more complex federal system. It is just that 
I think this is not the way to go about it because those 
provinces simply are not ready. There is nothing there, there.
    The Chairman. Do you agree with Dr. Dodge that the 
Constitution that exists in Iraq is really, you know--someone 
told me there's a famous phrase that a paper can hold anything 
that's written upon it, or some phrase like that--do you think 
it means anything?
    Ms. Rahim. I think this Constitution does not make for a 
viable state.
    The Chairman. So does the United States come along and say, 
``We're changing your Constitution?''
    Ms. Rahim. No.
    The Chairman. So what do we do to change the Constitution?
    Ms. Rahim. But I think we ought to have a constitutional 
convention in Iraq. And this must be, ours must be, or the 
Iraqi Constitution----
    The Chairman. Now who's going to do that? I apologize for 
being precise here. You say we should have a constitutional 
convention; don't disagree with you.
    Mr. Talabani. We've already had that, though.
    The Chairman. That's my point.
    Mr. Talabani. We've already been through this.
    The Chairman. Who's going to show up? Who's going to call 
it?
    Mr. Talabani. The Constitution today is a compromise, it's 
a compromise by those that sat there and fought for days to try 
to get something out of this. It's not that we haven't tried 
this. It's not that we haven't tried to create a central 
government. It's the fact that central governments have failed 
in Iraq. It's failed because Iraq is a multiethnic, 
multisectarian society, which has complete and immense mistrust 
within it.
    And I think that in 1992 when we came down from the 
mountains into Kurdistan, we had nothing. There were no 
administrative structures in Kurdistan. The Iraqi regime had 
pulled out completely. We encountered a completely decimated 
region. And it took us time to develop the political 
institutions. We held elections, they weren't the best. We had 
a government, it wasn't the most competent. But in time, after 
even some skirmishes, we built what we have today.
    And I don't think that this can't be done in the south. I 
don't think this can't be done in other parts of the country, 
but all I can tell you is centralized governments have failed 
in Iraq. And I think they'll continue to fail, and will lead to 
more bloodshed the more we try to create something for the sake 
of illusions over the sake of pleasing the Iraq's neighbors.
    The Chairman. I yield to Senator Casey, but Dr. Kubba, you 
wanted to say something and the floor is yours, sir.
    Dr. Kubba. Mr. Chairman, Iraq today is two Iraqs. There is 
Kurdish Iraq, which is stable, prosperous running itself in a 
very good position. And there is the rest of Iraq, Arab Iraq, 
which is very much on fire. And I can understand every reason 
for the Kurdish region absolutely to try consolidate what has 
been achieved after a long period of struggle.
    Putting that out of the equation, we need to focus on where 
the problem is. And the problem is very much in Arab Iraq. The 
current Constitution allows all the 15 remaining provinces, 
even to come up and be one region if they want to. The real 
problem is political, it's not to do with the Constitution. And 
the way the politics is set at the moment, unless we push 
that--change the dynamic that governs the politicians--they're 
going to drag Iraq and the rest of the region down with them.
    My own assessment, left to the Iraqis alone, they will not 
do it. The United States can not brighten open chat and do it 
indefinitely. I do firmly believe time has come to call up for 
a roundtable conference where Iraq's neighbors who have genuine 
interest in the stability of their neighborhood, be 
participants and they pull the rug from underneath the players 
who think they have the strategic depth and can play neighbors 
to their advantage. I believe if we do not do this now, we will 
be forced to do it at much worse conditions later.
    The Chairman. I happen to agree with you, but--Senator 
Casey.
    Senator Casey. Mr. Chairman, thank you for this opportunity 
again.
    This is, as the panelists may know and the audience knows, 
one of many great hearings we've had in this committee and I 
appreciate the chairman's work on that, putting these together.
    This is a rare opportunity because we have probably more 
time than I'd get otherwise, but I'll try not to press too 
long.
    The Chairman. But take your time.
    Senator Casey. He's been very generous with our time.
    My first question, I guess, Doctor, is I want to pick up on 
where you just left off. In terms of this, we've heard and we 
read in American newspapers all the time, the need for--
obviously to get the military strategy right, the political 
strategy, and the diplomatic initiatives right. I think the 
administration has fallen short on all three in one way or 
another. We've heard a lot about, in the last couple of weeks 
now about, and experts have sat at a similar table talking 
about military aspects.
    You're here talking mostly about the politics and 
governance, and that's why it's important we're here listening. 
But pick up where you just left off from two vantage points. 
One, and I'd also open this up to other panelists, when you 
talk about getting the politics right on the ground and having 
an effort in the region. (A) How should that work? If you had a 
magic wand, so to speak, if you could charter a course that 
would be, in your judgment, the best.
    And then second, how has this Government, the Government of 
the United States, done or not done things in the last couple 
of, certainly the last 2 years, to move that forward? Just the 
political effort. Start with the ideal, and then move to an 
evaluation of what our Government has done or not done 
effectively to make that happen.
    Dr. Kubba. Well on the realistic----
    Senator Casey. I know it's broad, but----
    Dr. Kubba [continuing]. On the realistic ideal, I wouldn't 
say just abstract ideal, I think what can be done now is for 
the Iraqi Prime Minister, with the clear support from the 
United States, calls for a roundtable for Iraq's neighbors 
directly to discuss security, not only control over borders, 
but political, financial, and other forms of interaction taking 
place between the different players in Iraq and the neighbors. 
The United States ought to be clearly present in that meeting, 
and I do believe if we can reach a compact with Iraq neighbors 
on these issues, this will put a ceiling to how far Iraqi 
politicians can indulge while the country is on fire.
    So, I think this is something feasible--doable--it takes, 
including Iran and Syria, Saudi Arabia, Turkey, Kuwait, Jordan, 
all these countries, six of them must be involved to very much 
the displeasure of the Iraqi politicians, but to the need to 
save Iraq. I think this ought to take place.
    Senator Casey. I just want to interrupt you for one second 
just so I'm hearing you right. You called that a roundtable. Is 
that the term you used?
    Dr. Kubba. Yes.
    Senator Casey. And you think that should be called by whom?
    Dr. Kubba. The Iraqi Prime Minister, the Iraqi Government.
    Senator Casey. OK; so let's say Prime Minister Maliki calls 
that kind of a roundtable. You're saying at that table should 
be which countries.
    Dr. Kubba. I think America and Britain because of----
    Senator Casey. Right.
    Dr. Kubba [continuing]. The size of their involvement. Of 
course, not only the Iraqi Government led by the Prime 
Minister, but the six of Iraq's neighbors, all of them.
    Senator Casey. OK. So that's a specific step that could be 
taken.
    Dr. Kubba. Yes.
    Senator Casey. Let me, and I don't want to press too hard 
on the details, but I think it's important. The American people 
pick up their newspaper everyday, they turn on the television 
set, and they see something very specific on the military part 
of this. They see that the President has proposed having a 
surge, what I and many others call an escalation of troops. So, 
it's something specific and it's got a number on it. It's very 
easy to understand that, right?
    But then they hear all this, it's kind of murky when it 
gets to these others steps that are diplomatic and political. 
That's very helpful just to identify that step that you just 
pointed out.
    So, let's say in this ideal situation that the Prime 
Minister calls that kind of a roundtable, that's one. What else 
do you think you'd put on your list in terms of a next--let's 
say it's reasonably successful, and try to play this out as 
best you can. And I know this is hypothetical, but believe me, 
it helps. Because we don't have enough of this.
    Dr. Kubba. Well, I believe if that takes place, of course 
that will be step one to create a mechanism to build not only 
trust, but to look at specific measures, maybe and building a 
confidence, working issues on security, which is a collective 
interest shared by everybody, all of----
    Senator Casey. Right.
    Dr. Kubba [continuing]. Iraq's neighbors. This can happen. 
It can start a process. And I am certain if this was to be 
triggered then Iraqi politicians, themselves, would rush 
against the clock to try to come up with their own visions 
because they all will be threatened by the prospect of losing 
control of the situation at the moment. I believe this can take 
place.
    The issues on constitutional amendments, how to resolve 
other issues, I do have specific proposals, but I believe it's 
not for the United States to do it for the Iraqis. It must come 
from the Iraqis themselves. What the United States can do is 
create a better environment and help change the dynamic of 
Iraqi politics. This is something doable and the United States 
not only has an interest in seeing it done--the alternative if 
it's not done, I think the United States can not simply pack 
and leave.
    The Chairman. Senator, would you tell me, specifically, how 
would the United States do that?
    Senator Casey. Yes.
    Dr. Kubba. I think, again, to be specific, there are two 
channels. Publicly, I think the United States ought to make it 
clear to Prime Minister Maliki that it is important to hold a 
conference with Iraq's neighbors, specifically on the issues--
--
    The Chairman. And if he says no?
    Dr. Kubba. My own information; he is for the idea.
    The Chairman. Well, let's just assume, like most other 
things we've suggested, he says no. Now you may have inside 
information and I'm not being facetious, You may very well. I 
don't doubt that.
    Dr. Kubba. I think, Mr. Chairman, the next best step is for 
the United States to talk directly to Iraq's neighbors and that 
will then send a clearer and louder message. If you're not 
going to fix your country, we'll bring others to fix it for 
you.
    The Chairman. Now we asked for that, and the others say, 
``You're on your own. We like it the way it is.'' Iran says, 
``It's kind of nice. You're there and you're spending $8.5 
billion a month. You're losing thousands of Americans. You're 
not able to rally any military capacity to threaten us, and we 
kind of like it just the way it is.''
    Dr. Kubba. If that fails, I have no answers.
    Dr. Dodge. Mr. Chairman, if I can just add----
    The Chairman. Thank you for your honesty. I'm sorry, 
Senator, go ahead.
    Senator Casey. I want to get other reactions too, but often 
when we, in America, when people out there who aren't sitting 
through hearings and don't have, frankly, the luxury that we 
all have up here to listen and to ask a lot of questions.
    When they hear that someone says in order for the Iraqis to 
do what they must do politically, the Americans must create--
and you used these words, Doctor; everyone has used similar 
words--but create a better environment, OK?
    Now most people hearing that--when I hear it as well--this 
is how it's translated to me, ``create a better environment'' 
means boots on the ground, so you can stabilize things. It's 
the foundation of the President's escalation, OK? But let's set 
that aside for a moment.
    Creating a better environment, because it seems like 
nothing's going to happen unless Americans take the lead on 
something like this, even if it's in the political sphere. What 
do we have to do, other than having the President of the United 
States call Prime Minister al-Maliki and saying, ``Please 
convene a roundtable,'' or ``I'm directing you,'' or ``I'm 
urging you,'' whatever way he conveys that. Other than that 
kind of a communication of the Prime Minister, what does the 
Government of the United States have to do, or if not directly, 
how else do you create a better environment?
    Should we have an envoy there who has sustained 
involvement, or do you need an envoy just to do diplomacy and 
then another person, pick the term, envoy or assistant to the 
President who's on the ground every day pushing and pushing and 
pushing relentlessly on the politics? I'm just trying to get a 
sense of very specific things we can recommend here.
    Dr. Kubba. Senator, I served nearly 1 year at the Prime 
Minister's office in Baghdad. I think the American Embassy is 
one of the largest in the world. I know for sure, not only 
through the Embassy, but through so many other channels, 
America has a lot of influence over Iraqi politicians. I know 
that many Iraqi groups acknowledge that influence and know that 
in the long term they need to keep good relationship with the 
United States. I believe all these assets can be put in an 
effective way if there was a strategy that is mainly political 
that looks at the big picture, and, of course, not only at 
troop level.
    Senator Casey. I want to give others a chance, but I'm, 
I'll ask another question later. I want to go down the list so 
you don't----
    Mr. Talabani. Thank you Senator.
    Senator Casey [continuing]. I don't dominate here.
    Mr. Talabani. Senator, I think that we tried something 
collectively with the United States and the Iraqis and to try 
to bring in the region and that was the International Compact 
for Iraq. This was a, quite and ingenious idea that Iraq would 
receive certain economic assistance or debt relief and positive 
engagement from the region and the international community, 
only if Iraq met certain benchmarks, certain criteria, economic 
criteria, governance criterias, economic reforms.
    And it was, it created quite a bit of excitement. And a lot 
of the region were interested. The United States did a major 
diplomatic offensive to try to get Saudi Arabia, Egypt, Jordan, 
some European countries interested in this. And there was quite 
a bit of interest. And I think certain actions by the 
Government of Iraq over the last 4 or 5 months have caused that 
situation, the way that Saddam was executed, for example, made 
many of the countries in the region kind of back off this idea. 
And this idea is somewhat dead in the waters now, as we speak.
    I think that we have to be strategic in the way we think 
about how we include the region, and our neighbors. We have to 
be realistic to think that many of our neighbors are strong 
today because Iraq is weak. And deep in their minds they may 
not want Iraq to one day regain the strength that it had in the 
region. So we have to be somewhat cynical of the motives of 
some of our neighbors.
    Not to say we shouldn't rule out some sort of international 
dialog. I wouldn't limit it just to our neighbors. I would 
bring in other major powers. Japan has major influence, and has 
donated a lot of funds to Iraq, for example. Korea has made a 
significant investment. And I think if we do have some sort of 
forum, it's got to be along the lines and the thinking that 
existed with the international compact where it's not just 
assistance given to Iraq, it's assistance given to Iraq, only 
if Iraq meets certain benchmarks and certain standards.
    Senator Casey. Thank you.
    Doctor.
    Dr. Dodge. I think Laith's suggestion is explicitly 
designed to scare the politicians of Iraq into some 
constructive dialog, constructive movement and I think that 
we've got to this, that it needs to be external to do that. And 
I think that's right. So if there is a future for Iraq, it's 
external, it's not in the Green Zone amongst those squabbling 
politicians.
    Now, two things need to be done. First, I would agree 
exactly with calling not a roundtable, but a regional 
conference. And, you know, Iraq is, the United States major 
foreign policy issue for a generation. Their regional policy, 
Iraq, regional United States policy should tie Iraq into the 
wider region and a regional conference should say to Iran, 
``Yes, we'll talk to you, but on the basis of a quid pro quo 
that you give us cooperation on Iraq,'' same with Turkey, 
Saudi, and especially Syria.
    So there needs to--Hamilton was right on that basis, that 
Iraq needs to be the primary issue for the United States in the 
region, and the United States needs to get behind a major 
regional conference.
    Second, conditionality, I think, my colleague has said 
that--that money, troops, advisors should be delivered with 
specific demands tied to them. And if that means riding rough-
shod over the Constitution or the precious, but largely 
irrelevant sovereignty of the Iraqis, that should be done. 
Because Iraq doesn't exist without United States forces and 
United States money and those forces and money should be 
deployed to some positive end, which they're not being done at 
the moment.
    Ms. Rahim. Senator.
    Senator Casey. I have more, but----
    The Chairman. Take your time, you keep going.
    Ms. Rahim. May I address----
    Senator Casey. Sure.
    Ms. Rahim. First of all you mentioned, should the United 
States take the lead? Indeed the United States must take the 
lead. Nobody else will and we need that. The other thing is 
about this roundtable, regional, or whatever. Remember we not 
only have had the meeting called ``Iraq's Compact,'' which was 
an international meeting. Before that we also had Arab League 
meetings----
    Senator Casey. Right.
    Ms. Rahim [continuing]. About Iraq. Unfortunately, none of 
these meetings have yielded anything and although I am not 
against a regional meeting, I am in favor of one, but it has to 
be used as a tool toward another end. And what we need to use 
that regional meeting for, is to pressure the Iraqi political 
leaders to then talk to each other and solve their problems.
    I think it is much more useful to force the Iraqi 
politicians to sit together and solve their problems. If we can 
do that without a regional meeting, so be it. If we think that 
the regional meeting is a good vehicle, good pressure point, in 
order to force the Iraqis to sit together, then by all means 
let's do it through this regional meeting. But that is not 
going to solve the problem. Unless the Iraqi politicians sit 
down together and resolve their differences, they will, they 
are likely to ignore all those meetings.
    They have ignored the Iraq compact, they have ignored Arab 
League meetings, they've ignored the Conference of Islamic 
State meetings on Iraq, and so on and so on. They have 
entrenched, vested, interests that they are finding it very 
hard to overcome.
    So this is, the other thing that I want to caution against 
and please don't misunderstand me, I'm in favor of a regional 
roundtable. I am highly doubtful that our neighbors, and 
particularly Iran, will be willing to help--let's forget about 
the United States--I am doubtful that they are willing to help 
Iraqis resolve their differences. I think many countries in the 
region are just very happy to see where Iraq is now, provided 
it stays where it is now. In other words, they've got us 
exactly where they want us. Both the United States, and in 
terms of Iraq, it's just what they want to see. So, let us not 
overestimate the willingness of our neighbors and particularly 
Iran, to step forth and make concessions or come up with 
solutions and provide assistance. I think that is a little bit 
of a Pollyannaish approach. However, I want to insist, I think 
we should also take that tact and see what it yields and use it 
as a vehicle and a point of pressure if possible.
    Senator Casey. Well let's assume that that won't happen or 
they try and it doesn't work. What's plan B? Because I think a 
lot of people in this country have had the patience of, it's 
almost Biblical--Joab, pick your figure--tremendous patience 
and, with an awful lot of sacrifice. And you know the story, I 
don't have to repeat it, about the sacrifice of this country, 
not to mention the horror that the people of Iraq have 
suffered.
    But let's, I think what people expect is, OK, if A's not 
going to work we want to see plan B. If B's not going to work 
we want to see C, D, E, and F. They want to go down, somewhat 
down the alphabet, so to speak, but they're getting pretty 
desperate now, I think, in terms of their willingness to allow 
this to go on much longer. They've kind of reached their 
boiling point.
    So say that doesn't work, what's plan B in terms of getting 
the Iraqis to get it right politically? What can this country 
do to incentivize that, to nudge it along, to push it along? 
Give us some ideas.
    Ms. Rahim. Well----
    Senator Casey. Which you've already given by the way, I 
know.
    Ms. Rahim. If I may say that, we have to assume that our 
goal is to get the Iraqis to reach a political settlement 
amongst themselves. That's the goal.
    Senator Casey. Right.
    Ms. Rahim. And then we say, OK, what are the tools, what 
are the mechanisms that are most likely to get us to that 
point. Now one tool could be this regional conference. Another 
tool could be an international conference. Conditionality of 
aid, and so on could be other tools. I have mentioned possible 
points of pressure that the United States can apply in 
different ways other than money, and so on that could be 
applied. All of these are different ways that we can try.
    Also none of these are mutually exclusive. We could use 
several of them at the same time. And I think we should, in 
fact, not be trying one item at a time and going down the list. 
This is no time to work consecutively. We need to work 
simultaneously.
    Senator Casey. And I know you have those in your testimony. 
Dr. Dodge, any?
    Dr. Dodge. I think plan C will come into action when the 
next President of the United States comes into power. He will 
be, he or she, sorry, will be greeted with a sigh of relief in 
Europe and, to be frank, in the Security Council in the United 
Nations. She or he will then say, as you've said, ``the 
patience of Joab is ending. We've suffered enough. Last time we 
looked Iraq is on the edge of Europe, not on the edge of the 
United States, and we need to multilateralize because we can't 
do it anymore.'' And then we'd be seeing a tipping point, one 
would hope, in Europe and in the Security Council and we'd step 
forward.
    Now one of the many things Senator Biden said that I didn't 
have time to pick up on was, failed states are rebuilt by 
strong men or empires. What I would be describing then is a 
temporary multilateral empire under the legal agreement of the 
United Nations. I think that's the only way to go.
    Now plan D, by the way, if that fails and I'm not very 
optimistic, is not emirates or regional fragmentation, it's 
fragmentation down to streets and house level. It's the 
complete fracturing of Iraq. This won't fall into easy pieces; 
it will fall into a vicious war against all, all against all.
    Now, to a certain extent, the North because of the strides 
it's made and the fact that it's finished its own civil war in 
the nineties can, to some extent, immunize itself from that. 
But the rest is an absolute--is absolute chaos at the heart of 
the most strategic and economically important area in the 
world. Now the tipping point may happen in Washington, but one 
would hope it would happen Paris and New York at the same time. 
If we get that out of sequence, as Laith has said, then we will 
revisit Iraq, but 10 years down the line when the situation is 
much, much worse and there's no stomach whatsoever for doing 
anything about it. Somalia or Afghanistan is then the 
comparative example I have in mind.
    The Chairman. Someone suggested to the Senator, that 
Kurdistan is the example. They had their civil war. They 
exhausted that. They figured out that--some very smart people 
here, people you know, not in this Chamber, but foreign policy 
gurus, as they say here in town, have suggested that until they 
exhaust--the civil war is exhausted, there's not much that's 
going to happen, and they point to Kurdistan. I remember going 
into Kurdistan, as I said, before the war began.
    Mr. Talabani. Two thousand and two.
    The Chairman. The reason I went was, quite frankly, we 
didn't know whether or not the Talabani and Brazani were going 
to, in fact, join us, whether they really wanted us to 
overthrow Saddam, and whether or not they had reached an 
accommodation, because 2 years earlier it wasn't so sure.
    Ms. Rahim. Senator, in 1998, as I recall, and my colleague 
Qubad can correct me, the war amongst the Kurdish parties was 
actually ended by very strong U.S. intervention and at the time 
the, Secretary Albright, asked those--the parties to come to 
Washington and, in a sense, the United States, I won't say 
enforced, but----
    Mr. Talabani. Brokered.
    Ms. Rahim [continuing]. Brokered a peace agreement between 
the two.
    The Chairman. We had an incredible incentive. There was a 
thing called no-fly zone. You didn't come, we wouldn't fly.
    Ms. Rahim. So I want to say that----
    The Chairman. So there was an overwhelming incentive. So I 
think it's totally irrelevant, the example you just gave, with 
all due respect. Totally completely irrelevant, because we had 
what you were talking about now; leverage. There was 
overwhelming leverage. So we didn't fly, you had a problem. So 
guess what? There's nothing like a hanging to focus one's 
attention, as Ben Johnson said, or some version of that.
    Anyway, I apologize. I truly am not being dismissive of 
your suggestions, but you understand the frustration, and it's 
getting very hard to convince the American people that other 
major investments in what is--by any stretch of the 
imagination. Let me ask you another way: Do any of you think 
there's going to be a national police force in Iraq that 
patrols the streets of Ramadi in your lifetime? Raise your 
hand.
    Dr. Kubba. Mr. Chairman, police is always local and I can 
not see it other than being local.
    The Chairman. It is not now.
    Dr. Kubba. It's not now. I can not envisage Iraq, for 
example, not having a national intelligence agency, but I can--
--
    The Chairman. That's a different issue.
    Dr. Kubba. I can't envision Iraq having local police, not 
necessarily all under one administration.
    The Chairman. You all agree with that?
    Ms. Rahim. Senator----
    Mr. Talabani. Yes.
    Ms. Rahim [continuing]. Actually we do have local police 
now, and not just in Kurdistan. If I may say something here. We 
do have local police, and we have a national police force. But 
local police is the way to go and that is part of the 
federalism and evolution of power that we all believe in 
fervently.
    But, if I could just say something here that hasn't been 
said. Eventually, Iraq can not survive unless we change the 
course of politics. If we continue on the path of ethnic, 
sectarian politics the end result is civil war inevitably, just 
as happened in Lebanon. This always ends in the same way.
    We must, in the medium term, and the reason I didn't raise 
this is because we're looking at a very short window of time, 
but in the medium term we must foster a brand of national 
politics, national agendas, national platforms. And if that can 
take root in Iraq, then indeed some of the police force could 
be a national police force. It may not be necessary, but it 
would be possible. But we have to work----
    The Chairman. Senator Casey, I will not interrupt again. 
Why don't you finish up.
    Senator Casey. He didn't interrupt, I stopped. I was trying 
to think of some other questions. One question I had, and this 
is a question that some of you may have a sense of or maybe 
it's very hard to determine the answer to this question, but 
let me try.
    We've had an ambassador there and he's gotten pretty good 
reviews and my sense of him is that he's had a significant 
amount of respect. I know that's in transition now, but answer 
me this question: Do you think that the normal structure we 
have in place--meaning this government has an ambassador in 
this country, in this case Iraq--do you think that's enough? 
And do you think that more traditional structure works?
    In other words, do you think that the Prime Minister or any 
significant leader in Iraq thinks that that ambassador is 
vested with real power or has a direct line to the President? 
And if that's not the case, is there some other--in other 
words, do you think the Iraqi Government looks upon that 
structure as something that really isn't connected to the 
reality of how decisions are made in the White House or by the 
President? In other words, do we need someone, even if you have 
an effective ambassador in place, do you need yet another 
person that has, I don't know, the perception of a more 
stature, or more experience, or more clout? I just throw that 
out as a--because you know what it's like in the halls of the 
government over there.
    Dr. Kubba. Senator, I can tell you that the chronic problem 
of Iraq that is branching out and mushrooming into other 
problems, is we do not have effective government institutions. 
Including one which is the Foreign Office and the other 
embassies, including the day to day running of all these 
missions.
    The reason why we have spent so much money and put so much 
effort in the last 3 years, yet we do not have an effective 
government, because the block of politicians who are 
controlling Parliament, who are running government by coalition 
do not share a vision on what sort of state they want to build.
    So, everything is on--ongoing mode and more or less every 
minister is a government, or every minister is an island on its 
own. And there is really no coherent effective government. And 
the main cause why we don't have that, because the politicians 
are not really interested in doing that. They are interested in 
other benefits they are getting.
    Senator Casey. And you are talking the Iraqi ministries, 
the governorates.
    Dr. Kubba. Correct.
    Senator Casey. And I guess I'm thinking more along the 
lines of what our Government can do to foster a political 
settlement, even apart from what the ministries do day-to-day. 
Just in terms of the Ambassador, our State Department, which I 
think is something that doesn't get enough attention, but, I'm 
sorry.
    Talabani.
    Mr. Talabani. Senator, I think, obviously Ambassador 
Khalilzad, when he was there, was treated with much respect and 
people knew that when they were speaking with him, they were 
speaking with the U.S. Government. I think he fostered a very 
good relationship with everybody and earned the trust of a lot 
of people, as well.
    I can say that something that, if I'm allowed to be a 
little critical, and that is that sometimes the--especially in 
the past--the interagency battles that took place in Washington 
have had a very negative impact on the situation on the ground. 
We do see that less these days, but certainly in the early part 
of post-Saddam Iraq that kind of interagency tension was quite 
prevalent and was quite visible to the Iraqis on the ground.
    Senator Casey. Doctor, anything?
    The Chairman. Senator, I think maybe we should----
    Senator Casey. We have to vote again.
    The Chairman [continuing]. Begin to wind up. We're going to 
vote, and let the witnesses go. So, I'm not, I don't want to 
cut you off, but if you have additional questions I think it 
would be a good time, but we'll promise we'll have you out of 
here at 5:30 or thereabouts, OK? I know we trespass on your 
time a lot and it's important to us that we hear what you have 
to say and we appreciate it.
    Senator Casey. No, Mr. Chairman, I thank you and I thank 
the panel. I appreciate your scholarship and what you 
contributed here today.
    The Chairman. Let me conclude by thanking you all. It's 
hard to disagree with the aspirational notions you've all put 
forward. It's a lot harder to figure out the means to 
accomplish those aspirational goals. And, but that's the nature 
of what we do, and as one of my colleagues said the other day, 
``If you don't want to make difficult decisions, sell shoes.'' 
Well, that sounds like there's some difficult decisions there, 
too.
    But let me conclude by reading from today's New York Times. 
And I know you know it, but it's important to get a sense of 
why so many Americans are wary of the new proposal of the 
President to provide this breathing space by establishing 
security in order to allow a political settlement, a 
germination of a political settlement.
    ``Baghdad, January 24: In the battle for Baghdad, Haifa 
Street has changed hands so often that it has taken on the feel 
of a no-man's land, the deadly space between opposing trenches.
    ``On Wednesday, as American and Iraqi troops poured in, the 
street showed why it was a sensitive gauge of an American, of 
an urban conflict marked by front lines that melted into 
confusion. Enemies with no clear identity, and allies who 
disappear or do not show up at all. In a miniature version of 
the troop increase, the United States hopes to secure the city. 
American soldiers in armored vehicles raced into Haifa Street 
before dawn to dislodge Sunni insurgents and Shia militia 
who've been battling for a stretch of the ragged slums and most 
abandoned high rises.
    ``But as the sun rose, many of the Iraqi units who were 
supposed to do the actual searches of the buildings did not 
arrive on time, surprise. Forcing the American's to start the 
job on their own. When the Iraqi units finally did show up, it 
was with the air of a class outing. Cheering and laughing, as 
the Americans blew locks off the doors with shotguns. As the 
morning wore on, and the troops came under fire from all 
directions another apparent flaw in this strategy became clear. 
As empty apartments became lairs for gunmen who flitted from 
window to window and killed at least one American soldier with 
a shot in the head.
    ``Whether the gunfire was coming from the Sunni or Shia 
insurgents, or the militia fighters, or some of the Iraqi 
soldiers themselves who had disappeared into the Gotham-like 
cityscape, no one could say. `Who in the hell is shooting at 
us?' shouted Sergeant First Class Marc Biletski, whose platoon 
was jammed into a small room off an alley that was being swept 
by sniper bullets. `Who's shooting at us? Do we know who they 
are?'
    ``Just before the platoon tossed smoke bombs and sprinted 
through the alley to a more secure position, Sergeant Biletski 
had a moment to reflect on his spot, which the United States 
has now fought to regain from a mysterious enemy at least three 
times in the last 2 years. `This place is a failure. Every time 
we come here we have to come back.' He paused there and said, 
`Well, maybe not a total failure, since American troops have 
smashed opposition in Haifa Street each time they have come 
in.' ''
    Hearing is adjourned.
    [Whereupon, at 5:31 p.m., the hearing was adjourned.]


                ALTERNATIVE PLANS: THE IRAQ STUDY GROUP

                              ----------                              


                       TUESDAY, JANUARY 30, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:05 p.m., in 
room SH-216, Hart Senate Office Building, Hon. Joseph R. Biden, 
Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Dodd, Menendez, Cardin, Casey, 
Webb, Lugar, Hagel, Coleman, Sununu, and Voinovich.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order.
    First of all, I want to thank you, Mr. Secretary, for being 
here, and thank you, Congressman Hamilton.
    I want to say, from the outset, both of these gentlemen 
were prepared to be here. The problem is, they have very, very 
busy schedules. And I want to thank the Secretary for extending 
his schedule here in Washington, and Congressman Hamilton for 
adjusting his and changing the timing. Last week, the Secretary 
was just not able to be here. And so, it's very important 
you're both here, and we thank you.
    I also want to explain to you, as you both know this place 
well, there will be people coming in and out in order to 
accommodate their schedules. We are starting the afternoon 
session earlier than we usually would, because it's so 
important to have both these distinguished men before us. So, 
Senator Lugar, for example, is required to be in his leadership 
caucus, party luncheon that's going on now, as others are. And 
so, there will be a little bit of in and out.
    I'm going to urge my colleagues, as they come in, and their 
staffs to let them know, that I told the witnesses, again, we 
would try to see that they're out of here by 3 o'clock. They 
have planes and trains and commitments to meet, and this is not 
their first testimony before the U.S. Congress.
    But having said all of that, we'll try our best--Lee, you 
know how the place works but, so far, we've had some 
considerable cooperation.
    We begin the fourth and final week of the hearings on the 
remaining options for the United States in Iraq. And these will 
not be the last hearings we hold, because we're going to be 
engaged in vigorous oversight for the remainder of this 
Congress, which I think everyone expects.
    But we're privileged today to be joined by Secretary James 
Baker and Chairman Lee Hamilton, who are cochairs of the Iraq 
Study Group, and the country owes both of you an enormous debt. 
Your willingness to seek a bipartisan solution, which is a 
dangerous thing to do in this town, to take on that 
responsibility, to our most urgent and vexing national security 
problem is appreciated by everyone, and your statesmanship has 
been obvious.
    The bipartisan commission produced a very worthwhile 
document. Bipartisan commissions are often criticized for 
producing the lowest common denominator, but your report broke 
new ground and changed the debate in this country. I don't 
agree with every detail of it, and I have proposed a different 
plan for Iraq, but I am in total agreement with your central 
recommendations.
    To quote the report, ``The most important recommendations 
call for new and enhanced diplomatic and political efforts in 
Iraq and the region and a change in the primary mission of 
forces that will enable the United States to begin to move 
combat forces out of Iraq responsibly. We believe that these 
two recommendations are equally important and reinforce one 
another.''
    The report goes on to recommend that, ``By the first 
quarter of 2008, subject to unexpected developments in the 
security situation on the ground, all combat brigades not 
necessary for force protection could be out of Iraq.''
    You also state, ``The recommendations should not be 
separated or carried out in isolation.'' As you said, Mr. 
Secretary, ``This report should not be treated as a fruit 
salad.''
    Unfortunately, it appears to be exactly what's happening 
here, and I hope we get a chance to pursue some of the debate 
that is now swirling around the report and the President's 
present posture relative to Iraq.
    We're very anxious to hear your thoughts, as well, on how 
we can contain Iraq's civil war in the event your 
recommendations are not implemented and the situation continues 
to deteriorate, which we hope it won't, but we have to be 
prepared.
    So, I thank you.
    In the absence of the distinguished ranking member, Senator 
Lugar, I would like to invite Senator Hagel, if he wishes to 
make any opening comments.
    Senator Hagel. Mr. Chairman, thank you. I would just add my 
welcome to our distinguished witnesses and to say, again, how 
much we appreciate your continued service to our country and 
important contributions at, I believe, one of the most 
critically important and defining times in our history. So, 
thank you. I look forward to your comments.
    The Chairman. By the way, I should add as they say, a 
housekeeping measure. On Wednesday, we will hear from former 
Secretaries Kissinger and Albright, who will testify 
separately. And on Thursday, we'll hear from National Security 
Advisors Brent Scowcroft and Zbigniew Brzezinski, who will also 
testify separately. So, there will be two more days of 
hearings.
    Mr. Secretary, the floor is yours. And, again, thank you 
for accommodating the schedule.

   STATEMENT OF HON. JAMES A. BAKER III, COCHAIR, IRAQ STUDY 
          GROUP; PARTNER, BAKER-BOTTS LLP, HOUSTON, TX

    Mr. Baker. Thank you, Mr. Chairman. And thank you, Senator 
Hagel and distinguished members of the Committee on Foreign 
Relations. It's an honor for me to be before you this 
afternoon, as I'm sure it is for cochairman, Lee Hamilton.
    I'll take the first part of our written statement, Mr. 
Chairman, and Lee will take the second part.
    I'll begin by thanking you for the opportunity to appear 
and to discuss our recommendations. We'd like to begin, I 
think, by noting some common elements in the Study Group Report 
and the President's speech of January 10. For example, we agree 
with President Bush that the situation in Iraq is unacceptable 
to the American people, that the consequences of failure would 
be severe, that it is clear that we need to change our strategy 
in Iraq, and that only Iraqis can end the sectarian violence 
and secure their people.
    We support increasing the number of American advisors 
embedded in the Iraqi Army, with the goal that the Iraqi 
Government will assume control of security in all provinces in 
Iraq by November 2007, as the President stated.
    We support the benchmarks President Bush outlined for Iraq, 
and we agree that now is the time for the Iraqi Government to 
act.
    As part of our testimony, we've attached a joint statement 
that we released right after the President's speech on January 
10.
    Now, the report of our Study Group, Mr. Chairman, has been 
analyzed at length, so we would like to be fairly brief, and we 
will concentrate on a few points: First, the security mission; 
second, benchmark performance; third, diplomacy; fourth, 
economic assistance; and fifth, the Iraqi Government.
    There are some very important points of similarity between 
the Study Group's Report and the President's plan for security. 
Both of them keep rapid-reaction and special-operations forces 
available to undertake force protection and strike missions 
against al-Qaeda in Iraq, as well as for other missions 
considered vital by the United States commander in Iraq. Both 
increase the number of United States personnel embedded with 
Iraqi Army units, and both emphasize the mission of training 
Iraqi troops.
    The President said, ``We will accelerate the training of 
Iraqi forces, which remains the essential U.S. security mission 
in Iraq.'' To accomplish that goal, the President intends to 
double the number of advisors that are embedded with Iraqi Army 
units.
    The Study Group Report stated, ``The primary mission of 
U.S. forces in Iraq should evolve to one of supporting the 
Iraqi Army, which would take over primary responsibility for 
combat operations.'' The Study Group suggested that such a 
mission could involve 10,000 to 20,000 American troops.
    The Study Group stated that the United States should not 
make an open-ended commitment to keep large numbers of American 
troops in Iraq. We rejected an immediate withdrawal, because we 
believe that so much is at stake.
    The Study Group further stated, ``While these training and 
supporting efforts are building up, and as additional Iraqi 
brigades are being deployed, U.S. combat brigades could begin 
to move out of Iraq.'' And we said, ``By the first quarter of 
2008, subject to unexpected developments in the security 
situation on the ground, all combat brigades not necessary for 
force protection could be out of Iraq.''
    But the Study Group set no timetables, and we set no 
deadlines. We believe that military commanders must have the 
flexibility to respond to events on the ground. We also 
believe, however, that if the important recommendations of the 
study group are implemented, it will enable the United States 
to begin to move its combat forces out of Iraq responsibly.
    The Study Group Report recognizes that even after the 
United States has moved all combat brigades out of Iraq, we 
would maintain a considerable military presence in the region 
with our still-significant force in Iraq and with our powerful 
air, ground, and naval deployments in Kuwait, Bahrain, and 
Qatar, as well as an increased presence in Afghanistan. These 
forces would be sufficiently robust to permit the United 
States, working with the Iraqi Government, to avoid the Iraqi 
Government's collapse and the disintegration of the country. 
They would be sufficiently robust to fight al-Qaeda and other 
terrorist organizations in Iraq using special-operations teams 
and to train, equip, and support the Iraqi security forces, and 
sufficiently robust to deter even more destructive interference 
in Iraq by Syria and Iran.
    With regard to the military planning of the United States 
and Iraq and the region, the Study Group said, ``The United 
States must make it clear to the Iraqi Government that the 
United States could carry out its plans, including planned 
redeployments, even if Iraq does not implement its planned 
changes.'' And we further said, ``America's other security 
needs and the future of our military cannot be made hostage to 
the actions or the inactions of the Iraqi Government.''
    The President's plan does not mention the possibility of 
combat troops moving out of Iraq as the training mission 
proceeds. The President's plan makes clear that United States 
forces will be sent to Baghdad to help Iraqis clear and secure 
neighborhoods. That means combat operations, including, 
possibly, door-to-door sweeps.
    The Study Group made the assessment that the security of 
Baghdad is crucial to security in Iraq, more generally. And 
while we were in Baghdad at the end of the summer, Iraqi and 
American leaders told us that, ``as Baghdad goes, so goes 
Iraq.'' We state in our report that there is no action the 
American military can take that, by itself, can bring success 
in Iraq. To reduce the violence in Baghdad and in Iraq, 
national reconciliation is essential.
    To provide for the long-term security of the Iraqi people, 
the Iraqi Government must step up and take responsibility for 
the security of its citizens. The Study Group, however, did 
state that it could support a short-term redeployment or surge 
of American combat forces to stabilize Baghdad or to speed up 
the training-and-equipping mission, if the United States 
commander in Iraq determines that such steps would be 
effective. Our soldiers have the ability to undertake both 
missions. It is critically important, however, that the 
training mission not suffer while the United States military is 
engaged in a surge for Baghdad.
    The Study Group believes the training mission should be the 
primary mission. Otherwise, United States risks delays in the 
completion of the training mission, in the handover of 
responsibility to the Iraqis, and thereby in the departure of 
United States forces from Iraq. No security plan can work, 
however, in the absence of national reconciliation.
    The Study Group Report stated that the United States forces 
cannot stop the violence, or even contain it, if there is no 
underlying political agreement among Iraqis about the future of 
their country.
    The Study Group, the President, and Prime Minister Maliki 
agree on key measures that the Iraqis need to take, and they 
include: Legislation to share oil revenues among all Iraqis; 
provincial elections later this year; reform of the de-
Baathification laws; and a fair process for considering 
amendments to Iraqi's Constitution.
    The Study Group Report calls on the United States to 
consult closely with the Iraqi Government to develop additional 
milestones which are tied to calendar dates. The Iraqi 
Government's words on behalf of these measures have been good, 
Mr. Chairman, but its performance has been weak.
    We commend the President's statement in which he made clear 
to the Prime Minister and Iraq's other leaders that America's 
commitment is not open-ended. If the Iraqi Government does not 
follow through on its promises, it will lose the support of the 
American people and it will lose the support of the Iraqi 
people. Now is the time to act.
    We believe the administration must hold Iraqi leaders to 
those specific benchmarks and those specific dates for 
performance. The United States needs to use its leverage to get 
Iraqi leaders to perform. We use conditionality, Mr. Chairman, 
with many other recipients of United States assistance, and we 
should do so with Iraq.
    The Study Group stated in its recommendation No. 21, ``If 
the Iraqi Government does not make substantial progress toward 
the achievement of milestones on national reconciliation, 
security, and governance, the United States should reduce its 
political, military, or economic support for the Iraqi 
Government. Conditionality is necessary to press the Iraqi 
Government to perform. Conditionality is necessary to press for 
national reconciliation. In the absence of national 
reconciliation, there will be sectarian violence without end.''
    And now, Mr. Chairman, Chairman Hamilton will present the 
balance of our joint statement.
    But, before he does, let me just say to you and other 
members of the committee that it has been a great pleasure for 
me to work with Lee on this matter. I need not tell this 
committee that passions in this country on Iraq understandably 
run very, very high. But, thanks to Lee Hamilton's broad-gauged 
and steady commitment to our effort, we have been able to 
maintain/sustain a bipartisan approach from the beginning of 
our efforts.
    Thank you.
    The Chairman. Thank you, Mr. Secretary.

 STATEMENT OF HON. LEE H. HAMILTON, COCHAIR, IRAQ STUDY GROUP; 
  DIRECTOR, WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS, 
                         WASHINGTON, DC

    Mr. Hamilton. Mr. Chairman Biden, Senator Hagel, and other 
distinguished members of the committee, thank you very much for 
letting us appear before your committee this afternoon to talk 
about the recommendations of the Iraq Study Group.
    Chairman Biden, I remember that you were instrumental in 
the rollout of the Iraq Study Group, way back, early last year, 
and we deeply appreciated that.
    Let me also say what a great privilege it has been for me 
to work with Secretary Baker. He is easily one of the most 
distinguished public servants of our generation, and I found, 
in every respect, at times when we agreed and at times when we 
disagreed, that it was a genuine pleasure to work with him.
    But both Jim and I would say that we were merely the 
chairmen, and that each of the members of the group made very 
important contributions to the report.
    I take up with diplomatic recommendations.
    We were encouraged by the President's statement that we 
will use America's full diplomatic resources to rally support 
for Iraq from nations throughout the Middle East. We believe 
there are additional steps, specific steps, that should be 
taken.
    The President did not endorse a diplomatic effort including 
all of Iraq's neighbors. The Study Group took the view that the 
United States should engage directly with Iran and Syria in 
order to try to obtain their commitment to constructive 
policies toward Iraq and other regional issues. We recognize, 
of course, that dealing with Iran and Syria is controversial, 
but it is clear that Iran and Syria have influence in Iraq. 
They are part of the problem. It is also our assessment that 
neither Syria nor Iran have a long-term interest in a chaotic 
Iraq which could negatively affect their own national security 
interests. Accordingly, it was our view that the United States 
should try to make them a part of the solution.
    Sometimes, the argument is made that Iran has momentum in 
the region, and the United States should not negotiate until it 
has more leverage over Iran. We disagree. We negotiated with 
the Soviet Union during the cold war. We can negotiate with 
Iran on behalf of stability and our interests in Iraq. The 
United States and Iraq cooperated in Afghanistan, and they 
should explore replicating that model.
    The Study Group also calls for a renewed and sustained 
commitment by the United States to an Arab-Israeli peace on all 
fronts. The group laid out specific and detailed steps that 
should be undertaken in order to achieve a comprehensive peace 
on all fronts, including Israeli-Palestinian, Israeli-Lebanese, 
and Israeli-Syrian.
    Secretary of State Rice has been traveling in the region. 
Her efforts to launch informal talks between Palestinian and 
Israelis are a positive development, but they do not yet 
include the Israeli-Lebanese and the Israeli-Syrian tracks of a 
comprehensive peace. We feel particularly strong that the 
United States is missing an opportunity to promote its goals in 
Iraq and the broader region by not talking to Syria.
    Some have asked us: What does the Arab-Israeli conflict 
have to do with the war in Iraq? Why make one problem harder by 
taking on two? The answer is simple. It is difficult to 
establish regional stability in the Middle East without 
addressing the Arab-Israeli issue. We want other countries, 
especially the Sunni Arab countries, to help us. When we go to 
talk to them about Iraq, they will want to talk about the Arab-
Israeli conflict.
    The United States says it wants to empower moderate 
Muslims, yet the only way to empower the moderates is to take 
away the most potent grievance of the extremists, that the 
United States does not care about the Palestinians. A 
comprehensive Arab-Israeli peace would deal the extremists a 
blow in Baghdad, Beirut, the Palestinian territories, and 
elsewhere. It would certainly bolster America's prestige. And, 
above all, it would guarantee the long-term security of 
America's ally: Israel.
    All of us understand that the peace process is difficult, 
that results will be measured in years, not months, but a 
sustained and comprehensive effort counts. A sustained effort 
will help us with Iraq and will win us important diplomatic 
leverage across the board in the Middle East and elsewhere.
    The President asked for over $1.1 billion in additional 
economic assistance for Iraq. That, too, is a step in the right 
direction. The Study Group believes the commitment should be 
substantially larger, $5 billion per year. We need to do many 
things right in Iraq if we're going to succeed. We certainly 
need to devote resources to job creation and capacity-building.
    The President has stated that Iraq will spend $10 billion 
of its own money on reconstruction and infrastructure projects 
that will create new jobs. We agree that job creation is 
necessary to give some hope and purpose to young Iraqis. Too 
many of them are frustrated and cannot provide for their 
families. Too many have turned to militias and the insurgency. 
Our commitment to job creation should include the Commander's 
Emergency Response Program, but it must be broader; we need to 
help Iraqis restart their many idle factories.
    Capacity-building is also necessary, because the Iraqi 
Government is weak. It cannot deliver the basic services of 
government. It falls short in providing electricity and water, 
it falls short in providing security. The current Government of 
Iraq can succeed only if it starts to win the confidence of 
those it governs. Capacity-building means technical assistance 
and advice, it means better procedures in government agencies, 
including a greater delegation of authority and better internal 
controls.
    The Secretary of State has named a reconstruction 
coordinator in Baghdad. That will be helpful, but that will not 
address another problem we described in our report. The problem 
of coordination is interagency. It is most acute in Washington. 
The new coordinator is capable, but he is the Secretary of 
State's appointee, not the President's appointee. He cannot 
make other agencies do what he tells them to do.
    Mr. Chairman, the President has decided on a new strategy. 
Much of the attention right now is on the troop surge. To some 
degree, that is understandable. We are all concerned when more 
of our young men and women are put in harm's way. The 
political, diplomatic, and economic pieces of our policy are 
just as important as the military piece.
    The Study Group was explicit on the importance of a 
comprehensive approach. All elements of our policy should be 
pursued at the same time. National reconciliation cannot wait. 
Make no mistake, the violence in Baghdad will not end without 
national reconciliation. The violence will not end unless 
Iraq's leaders step up and make difficult decisions about the 
future of their country.
    The President correctly stated that only the Iraqis can end 
the sectarian violence. We are placing all of our bets on the 
performance of the Iraqi Government. The rhetoric of the Iraqi 
Government has been good. Its performance has been 
disappointing. Too often, Iraqi leaders have acted in their 
sectarian interests, not the national interests.
    The Study Group believes in a comprehensive military, 
diplomatic, economic, and political approach: Training as the 
primary United States military mission in Iraq; engaging Iraq's 
neighbors and the international community on behalf of 
stability in Iraq and the region; building the capacity of the 
Iraqi Government, and focusing on job creation as a part of a 
robust economic program; and, of course, holding the Iraqi 
Government to performance benchmarks, particularly on national 
reconciliation.
    Mr. Chairman and members of the committee, thank you for 
your attention. We would be pleased to respond to your 
questions.
    [The prepared joint statement of Mr. Baker and Mr. Hamilton 
follows:]

  Prepared Joint Statement by Hon. James A. Baker III and Hon. Lee H. 
               Hamilton, Cochairs of the Iraq Study Group

    Chairman Biden, Ranking Member Lugar, distinguished members of the 
Committee on Foreign Relations, it is a distinct honor to appear before 
you this afternoon. Thank you for the opportunity to discuss the 
recommendations of the Iraq Study Group report.
                              introduction
    We would like to begin by noting some common elements in the Study 
Group report and the President's recent speech. We agree with President 
Bush:

  <bullet> The situation in Iraq is unacceptable to the American 
        people;
  <bullet> The consequences of failure would be severe;
  <bullet> It is clear that we need to change our strategy in Iraq; and
  <bullet> Only the Iraqis can end the sectarian violence and secure 
        their people.

    We support increasing the number of American advisors embedded in 
Iraqi Army units with the goal that the Iraq Government will assume 
control of security in all provinces in Iraq by November 2007, as the 
President has stated.
    We support the benchmarks President Bush outlined for Iraq, and 
agree that now is the time for the Iraqi Government to act.
    As part of our testimony, we have attached a joint statement that 
we released after the President's speech on January 10.
    The report of the Study Group already has been analyzed at length. 
So, we would like to be fairly brief in our opening remarks and 
concentrate on a few points:

  <bullet> The security mission;
  <bullet> Benchmark performance;
  <bullet> Diplomacy;
  <bullet> Economic assistance; and
  <bullet> The Iraqi Government.
                          the security mission
    There are important points of similarity between the Study Group 
report and the President's plan for security. Both keep rapid reaction 
and special operations forces available to undertake force protection 
and strike missions against al-Qaeda in Iraq, as well as for other 
missions considered vital by the U.S. commander in Iraq. Both increase 
the number of U.S. personnel embedded with Iraqi Army units. Both 
emphasize the mission of training Iraqi troops.
    Training. The President stated: ``. . . we will accelerate the 
training of Iraqi forces, which remains the essential U.S. security 
mission in Iraq.'' To accomplish that goal, the President intends to 
double the number of advisors embedded with Iraqi Army units.
    The Study Group stated: ``The primary mission of U.S. forces in 
Iraq should evolve to one of supporting the Iraqi Army, which would 
take over primary responsibility for combat operations.'' The Study 
Group suggested that ``such a mission could involve 10,000 to 20,000 
American troops.''
    Troop Levels. The Study Group stated that ``the United States 
should not make an open-ended commitment to keep large numbers of 
American troops in Iraq.'' We rejected an immediate withdrawal because 
we believe that so much is at stake.
    The Study Group stated: ``While these (training and supporting) 
efforts are building up, and as additional Iraqi brigades are being 
deployed, U.S. combat brigades could begin to move out of Iraq. By the 
first quarter of 2008, subject to unexpected developments in the 
security situation on the ground, all combat brigades not necessary for 
force protection could be out of Iraq.''
    The Study Group set no timetable and set no deadlines. We believe 
that military commanders must have the flexibility to respond to events 
on the ground. We believe, however, that if the important 
recommendations of the Iraq Study Group are implemented, it ``will 
enable the United States to begin to move its combat forces out of Iraq 
responsibly.''
    The Study Group recognizes that ``even after the United States has 
moved all combat brigades out if Iraq, we would maintain a considerable 
military presence in the region, with our still significant force in 
Iraq and with our powerful air, ground, and naval deployments in 
Kuwait, Bahrain, and Qatar, as well as an increased presence in 
Afghanistan. These forces would be sufficiently robust to permit the 
United States, working with the Iraqi Government, to avoid the Iraqi 
Government's collapse and the disintegration of the country; fight al-
Qaeda and other terrorist organizations in Iraq, using special 
operations teams; train, equip, and support the Iraqi security forces; 
and deter even more destructive interference in Iraq by Syria and 
Iran.''
    With regard to the military planning of the United States in Iraq 
and the region, the Study Group recommended, ``The United States must 
make it clear to the Iraqi Government that the United States could 
carry out its plans, including planned redeployments, even if Iraq does 
not implement its planned changes. America's other security needs and 
the future of our military cannot be made hostage to the actions or 
inactions of the Iraqi Government.''
    The President's plan does not mention the possibility of combat 
troops moving out of Iraq as the training mission proceeds.
    Troop Surge. The President's plan makes clear that U.S. forces will 
be sent to Baghdad to ``help Iraqis clear and secure neighborhoods.'' 
That means combat operations, including possibly door-to-door sweeps.
    The Study Group made the assessment that ``the security of Baghdad 
is crucial to security in Iraq more generally.'' While we were in 
Baghdad at the end of the summer, Iraqi and American leaders told us 
that as Baghdad goes, so goes Iraq.
    We state in our report that, ``there is no action the American 
military can take that, by itself, can bring about success in Iraq.'' 
To reduce the violence in Baghdad and in Iraq, national reconciliation 
is essential. To provide for the long-term security of the Iraqi 
people, the Iraqi Government must step up and take responsibility for 
the security of its citizens.
    The Study Group did state that it could ``support a short-term 
redeployment or surge of American combat forces to stabilize Baghdad, 
or to speed up the training and equipping mission, if the U.S. 
commander in Iraq determines that such steps would be effective.''
    Our soldiers have the ability to undertake both missions. It is 
critically important, however, that the training mission not suffer 
while the U.S. military is engaged in a surge for Baghdad. The Study 
Group believes the training mission should be the primary mission. 
Otherwise, the United States risks delays in the completion of the 
training mission, in the handover of responsibility to the Iraqis, and 
thereby in the departure of U.S. forces from Iraq.
                       performance on benchmarks
    No security plan can work in the absence of national 
reconciliation. The Study Group report stated that U.S. forces ``cannot 
stop the violence--or even contain it--if there is no underlying 
political agreement among Iraqis about the future of their country.''
    The Study Group, the President, and Prime Minister Maliki agree on 
key measures the Iraqis need to take. Those measures include: 
Legislation to share oil revenues among all Iraqis; provincial 
elections later this year; reform of the de-Baathification laws; and a 
fair process for considering amendments to Iraq's Constitution. The 
Study Group calls on the United States to consult closely with the 
Iraqi Government to develop additional milestones tied to calendar 
dates.
    The Iraqi Government's words on behalf of these measures have been 
good, but its performance has been weak. We commend the President's 
statement: ``I have made clear to the Prime Minister and Iraq's other 
leaders that America's commitment is not open-ended. If the Iraqi 
Government does not follow through on its promises, it will lose the 
support of the American people and it will lose the support of the 
Iraqi people. Now is the time to act.''
    We believe the administration must hold Iraqi leaders to those 
specific benchmarks and specific dates for performance. The United 
States needs to use its leverage to get Iraqi leaders to perform. We 
use conditionality with many other recipients of U.S. assistance. We 
should do so with Iraq. The Study Group stated in its Recommendation 
21: ``If the Iraqi Government does not make substantial progress toward 
the achievement of milestones on national reconciliation, security, and 
governance, the United States should reduce its political, military, or 
economic support for the Iraqi Government.''
    Conditionality is necessary to press the Iraqi Government to 
perform. Conditionality is necessary to press for national 
reconciliation. In the absence of national reconciliation, there will 
be sectarian violence without end.
                               diplomacy
    We were encouraged by the President's statement that ``We will use 
America's full diplomatic resources to rally support for Iraq from 
nations throughout the Middle East.''
    We believe there are additional specific steps he should take. The 
President did not endorse a diplomatic effort including all of Iraq's 
neighbors. The Study Group took the view that ``the United States 
should engage directly with Iran and Syria in order to try to obtain 
their commitment to constructive policies toward Iraq and other 
regional issues.''
    We recognize that dealing with Iran and Syria is controversial. But 
it is clear that Iran and Syria have influence in Iraq. They are part 
of the problem. It is also our assessment that neither Syria nor Iran 
have a long-term interest in a chaotic Iraq which could negatively 
affect their own national security interests. Accordingly, it is the 
view of the Study Group that the United States should try to make them 
part of the solution.
    Sometimes the argument is made that Iran has momentum in the 
region, and the United States should not negotiate until it has more 
leverage over Iran. We disagree. We negotiated with the Soviet Union 
during the cold war. We can negotiate with Iran on behalf of stability 
and our interests in Iraq. The United States and Iran cooperated in 
Afghanistan, and they should explore replicating this model.
    The Study Group also calls for a renewed and sustained commitment 
by the United States to an Arab-Israeli peace on all fronts. The Study 
Group laid out specific and detailed steps that should be undertaken in 
order to achieve a comprehensive peace on all fronts, including 
Israeli-Palestinian, Israeli-Lebanese, and Israeli-Syrian. Secretary of 
State, Condoleezza Rice, has been traveling in the region. Her efforts 
to launch informal talks between Palestinians and Israelis are a 
positive development, but they do not yet include the Israeli-Lebanese 
and Israeli-Syrian tracks of a comprehensive peace. We feel 
particularly strongly that the United States is missing an opportunity 
to promote its goals in Iraq and the broader region by not talking to 
Syria.
    Some have asked us: What does the Arab-Israeli conflict have to do 
with the war in Iraq? Why make one problem harder by taking on two?
    The answer is simple. It is difficult to establish regional 
stability in the Middle East without addressing the Arab-Israeli issue. 
We want other countries, especially the Sunni Arab countries, to help 
us. When we go to talk to them about Iraq, they will want to talk about 
the Arab-Israeli conflict.
    The United States says it wants to empower ``moderate Muslims.'' 
Yet the only way to empower the moderates is to take away the most 
potent grievance of the extremists: That the United States does not 
care about the Palestinians.
    A comprehensive Arab-Israeli peace would deal the extremists a blow 
in Baghdad, Beirut, the Palestinian territories, and elsewhere. It 
would bolster America's prestige. And, above all, it would guarantee 
the long-term security of America's ally: Israel.
    All of us understand that the peace process is difficult, and that 
results will be measured in years, not months. But a sustained and 
comprehensive effort counts. A sustained effort will help us with Iraq 
and will win us important diplomatic leverage across the board in the 
Middle East and elsewhere.
                          economic assistance
    The President asked for over $1.1 billion in additional economic 
assistance for Iraq. That is a step in the right direction. The Study 
Group believes the commitment should be substantially larger--$5 
billion per year. We need to do many things right in Iraq if we are 
going to succeed. We need to devote resources to job creation and 
capacity-building.
    The President has stated that Iraq will spend $10 billion of its 
own money on reconstruction and infrastructure projects that will 
create new jobs. The Study Group agrees that job creation is necessary 
to give some hope and purpose to young Iraqis. Too many of them are 
frustrated and cannot provide for their families. Too many have turned 
to militias and the insurgency. Our commitment to job creation should 
include the Commander's Emergency Response Program, but it must be 
broader. We need to help Iraqis restart their many idle factories.
    Capacity-building is necessary because the Iraqi Government is 
weak. It cannot deliver the basic services of government. It falls 
short in providing electricity and water. It falls short in providing 
security. The current Government of Iraq can succeed only if it starts 
to win the confidence of those it governs. Capacity-building means 
technical assistance and advice. It means better procedures in 
government agencies, including a greater delegation of authority and 
better internal controls.
    The Secretary of State has named a reconstruction coordinator in 
Baghdad. That will be helpful, but that will not address another 
problem we described in our report. The problem of coordination is 
interagency. It is most acute in Washington. The new coordinator is 
capable, but he is the Secretary of State's appointee, not the 
President's appointee. He cannot make other agencies do what he tells 
them to do.
                              conclusions
    Mr. Chairman, the President has decided on a new strategy.
    Much of the attention right now is on the troop surge. To some 
degree, that is understandable. We are all concerned when more of our 
young men and women are put in harm's way.
    The political, diplomatic, and economic pieces of our policy are 
just as important as the military piece. The Study Group was explicit 
on the importance of a comprehensive approach. All elements of our 
policy should be pursued at the same time.
    National reconciliation cannot wait. Make no mistake: The violence 
in Baghdad will not end without national reconciliation. The violence 
will not end unless Iraq's leaders step up and make difficult decisions 
about the future of their country.
    The President correctly stated that only the Iraqis can end the 
sectarian violence. We are placing all of our bets on the performance 
of the Iraqi Government. The rhetoric of the Iraqi Government has been 
good. Its performance has been disappointing. Too often, Iraqi leaders 
have acted in their sectarian interest, not the national interest.
    The Study Group believes in a comprehensive military, diplomatic, 
economic, and political approach:

  <bullet> Training as the primary U.S. military mission in Iraq;
  <bullet> Engaging Iraq's neighbors--and the international community--
        on behalf of stability in Iraq and the region;
  <bullet> Building the capacity of the Iraqi Government and focusing 
        on job creation as part of a robust economic program; and
  <bullet> Holding the Iraqi Government to performance benchmarks, 
        particularly on national reconciliation.

    Mr. Chairman and members of the committee, we would be pleased to 
respond to your questions.
                                 ______
                                 

                             Appendix No. 1

 statement of the cochairs of the iraq study group, james a. baker iii 
                   and lee hamilton, january 11, 2007
    We are pleased that the President reviewed the report of the Iraq 
Study Group carefully and seriously. Some of our recommendations are 
reflected in the new approach that he outlined Wednesday, while others 
have not been adopted.
    We agree with President Bush that, ``the situation in Iraq is 
unacceptable to the American people,'' the consequences of failure are 
severe, and ``only the Iraqis can end the sectarian violence and secure 
their people.'' As the President said, ``the essential U.S. security 
mission'' in Iraq is the training of Iraqi forces. We support 
increasing the number of American advisors embedded in Iraqi Army units 
with the goal that the Iraq Government will assume control of security 
in all provinces in Iraq by November 2007. We recommended many of the 
benchmarks President Bush outlined for Iraq, and agree that now is the 
time for the Iraqi Government to act.
    We hope the President and his administration will further consider 
other recommendations of the Iraq Study Group. The President did not 
suggest the possibility of a transition that could enable U.S. combat 
forces to begin to leave Iraq. The President did not state that 
political, military, or economic support for Iraq would be conditional 
on the Iraqi Government's ability to meet benchmarks. Within the 
region, the President did not announce an international support group 
for Iraq including all of Iraq's neighbors, nor mention measures we 
suggested to reach a comprehensive Arab-Israeli settlement.
    The Iraq Study Group indicated that it could ``support a short-term 
redeployment or surge of American combat forces to stabilize Baghdad'' 
complemented by comprehensive political, economic, and diplomatic 
efforts. Questions, of course, remain about the nature of the surge. We 
are encouraged by the President's statement that ``America's commitment 
is not open-ended'' and Secretary Gates' statement that the addition of 
21,000 troops would be viewed as a temporary surge. The violence in 
Baghdad will not end without national reconciliation.
    America's political leaders have a responsibility to seek a 
bipartisan consensus on issues of war and peace. We want to be helpful 
in forging that unity of effort. We welcome President Bush's commitment 
to form a working group with congressional leaders that will work 
across party lines in pursuit of a common policy.

    The Chairman. Thank you very much.
    We'll go 8-minute rounds.
    And let me begin by asking either, or both, of you to 
expand on what is throughout the report, that it is not in the 
interest of Iran for there to be chaos in Iraq. That has met 
with overwhelming skepticism by the administration and many 
others. Could you be more specific? Why is it that Iran would 
not be interested, ``in more chaos in Iraq''?
    Mr. Baker. Well, Mr. Chairman, I'll take a shot at that, 
and then Lee can add to it.
    Iran has many disparate elements in its polity, and they 
have differing views among those elements. If there were 
absolute chaos in Iraq, Iran could be expected to be overrun by 
literally thousands of refugees, in our opinion. With respect 
to Iraq--and so, I think that's the main reason that they would 
not have an interest in a chaotic Iraq. Having said that, 
there's no doubt but what they are--they take great pleasure in 
seeing the United States tied down there and the United States 
facing difficulties there.
    And with respect to Iran, generally, may I just say that 
the recommendation in our report regarding talking to Iran is 
really a recommendation about talking to them in the context of 
the formation of an international Iraq support group. That is, 
a group of nations--a coalition, if you will--that would help 
us with some of the difficulties we have in Iraq, including all 
of Iraq's neighbors.
    I was authorized by the President to approach the 
Government of Iran as we were conducting our Study Group's 
efforts. We did so. We broached this possibility to them that 
you've heard us articulate here this afternoon--that is, they 
helped us in Afghanistan when we approached them, it was to the 
joint benefit of both Iran and the United States that they did 
so; and our view is, we ought to try to replicate that 
situation. But we make--we take great pains to point out we 
should not--we are not talking about a broad-based dialog with 
Iran that would, for instance, include her nuclear efforts, 
which we specifically say in the report, should remain in the 
United States--in the U.N. Security Council.
    When I approached a representative of the Government of 
Iran, the answer came back that they would have little interest 
in participating to help because of the attitude of our 
Government. We say, however, in our report, we still think we 
ought ask them, and, when they refuse, alone, we think, among 
all of Iraq's neighbors, we can hold them up for--to be the 
rejectionist government or state that they really are.
    The Chairman. We heard today from the----
    Mr. Hamilton. Mr. Chairman, let me just----
    The Chairman. I'm sorry.
    Mr. Hamilton [continuing]. If I may, add to that.
    The Chairman. Sure.
    Mr. Hamilton. Of course, I agree with what Jim has said. We 
tend to look at Iran as a very monolithic state, which it is 
not. A little under 50 percent of the Iranian population is 
Persian, but about 24-25 percent of the population is Azeri. 
There are a lot of Kurds in that country. All you have to do is 
read the press in the last 2 or 3 days to see that there are a 
lot of centrifugal forces operating inside Iraq today.
    If you had a territorial disintegration in Iraq, if you had 
chaos there, you could certainly inflame sectarian tensions in 
that region, which would be very, very adverse to Iran. So, 
we----
    The Chairman. In what way? Again, I know--I believe--I 
share your view, and I think I know the answer, but we use 
those phrases, because we're involved in this foreign-policy-
speak a lot. The administration made it clear today, and has 
made it clear throughout, that merely having them part of a 
support group would enhance their influence in the region. We 
don't want to enhance their influence. So, when you say this 
disintegration would cause great difficulty, beyond population 
flows of refugees, what other aspect with----
    Mr. Baker. Regional--the possibility of regional 
conflagration, I think, Mr. Chairman. I mean, if you had a 
chaotic situation in Iraq, you're much more likely to have 
Iraq's neighbors move in there to--each to protect its own 
particular interest.
    The Chairman. The argument that is made again by 
administration supporters, is that's exactly what Iraq would 
want, to allow them to essentially annex the Shia territories, 
which make up 60 percent of the population and a considerable 
part of the territory.
    Mr. Hamilton. Let's take a look at present policy today, 
Mr. Chairman.
    The Chairman. Make it clear, I agree with you guys, but 
it's----
    Mr. Hamilton. I understand that, but----
    The Chairman [continuing]. Important that this be 
discussed.
    Mr. Hamilton [continuing]. Let's make it clear that the 
current policy is not working. There's a big article on the 
front page of the Washington Post about that today. We've tried 
to isolate Iran, we've tried to isolate Syria, and it simply 
hasn't worked. What's happened? Iran has become the most 
powerful country in the region. It continues to support 
terrorist organizations, it's continuing to develop its nuclear 
potential. How can anyone say, today, that our policy toward 
Iran is working? It is not.
    Likewise, Syria--Syria has certainly been a negative force 
in Iraq. It continues to support terrorist organizations in 
Lebanon and the Palestinian territories.
    But our policy of isolation is not working. We don't have a 
lot to lose, frankly, by engaging these countries. Now, Jim and 
I are not starry-eyed about this. We don't think you sit down 
with these folks and immediately come to solutions. There isn't 
any country on the face of the Earth that has caused us more 
heartburn over the last several decades than Iran has. So, 
these solutions are going to come hard.
    We do not view talking as appeasement. And the argument you 
mentioned a moment ago is that we enhance their influence when 
we sit down with them.
    The Chairman. That's what is being stated by----
    Mr. Hamilton. I understand that. But, my goodness, surely 
we have enough confidence in American diplomats to know, or to 
think, that if they sit down with Iran, we are not putting our 
stamp of approval on Iran, nor are we agreeing to concessions. 
Look, you sit down to talk to people for a lot of different 
reasons, and among those is to collect intelligence, to dispel 
misunderstandings, and to explain our policies and a lot of 
other reasons. The Iranians have a lot of influence in Iraq 
today. And they are certainly part of the problem, but they 
also have to be part of the solution, as well.
    The Chairman. Thank you.
    Mr. Baker. Mr. Chairman, we don't think they'll help us, as 
I indicated. We say that in our report. On the other hand, the 
engagement we're talking about is a very limited engagement, 
it's to do the same thing with us that they did in Afghanistan. 
And, as you probably know, the Iranians were--are members of 
the so-called ``compact.'' They attended the meetings in New 
York, the Iranian Foreign Minister and our Secretary of State. 
So, we're not----
    The Chairman. I----
    Mr. Baker [continuing]. Going much----
    The Chairman. Gentlemen----
    Mr. Baker [continuing]. Beyond where we are.
    The Chairman [continuing]. I agree with you completely. My 
time is almost up.
    Let me just conclude by asking you--you point out that you 
would support a short-term redeployment or surge of American 
combat forces to stabilize Baghdad, but you condition it in two 
ways. The remainder of that sentence says, ``complemented by a 
comprehensive political, economic, and diplomatic effort and if 
the commanding officers ask for it.'' When you write the 
report, the commanding officers were explicit that they did not 
want it. General Abizaid and General Casey were explicit that 
they did not want the surge. Did that in any way color your 
recommendation? And do you think there is the necessary 
complementary, comprehensive economic and political effort 
going on? Obviously, the diplomatic is not. What about the 
other two?
    Mr. Hamilton. Well, Mr. Chairman, it makes all the 
difference, when you talk about a surge, how it is done, for 
how long it is done, for what purpose it is done, and in what 
context it is done. And where we clearly say that we can 
support a surge for Baghdad, or, we put it in the alternative, 
for training, we also put it in the context that there must be 
an effort at national reconciliation at the same time.
    Now, one of the major differences we have here with the 
administration, at this point, is highlighted in Mr. Hadley's 
article this morning. He has this----
    Mr. Baker. Yesterday.
    Mr. Hamilton. Yesterday, thank you. He says, ``Ultimately, 
a strategy for success must present a realistic plan for 
bringing security to the people of Baghdad.'' Then, this is the 
key sentence, ``This is a precondition to advancing other 
goals.'' In other words, he is saying that you must have 
security before you can advance other goals.
    Our approach in the Iraq Study Group was that you've got to 
deal with these problems comprehensively, and that if you are 
focused solely on the question of security, you're not going to 
get there, because you cannot isolate that security from the 
other aspects of the----
    The Chairman. Thank you for making----
    Mr. Hamilton [continuing]. Problem.
    The Chairman [continuing]. That very, very important 
statement.
    Mr. Baker. But let me add to that, Mr. Chairman, if I 
might, the comment that I think I made in my portion of our 
formal statement, and that is, when we were in Baghdad, 
everybody told us--everybody told us that, ``As Baghdad goes, 
so goes Iraq.'' And we believe that our forces are able to 
undertake both a surge in Baghdad, under the conditions we laid 
out--short term, and provided the commander on the ground 
authorizes it--and the training of Iraqi forces. Our report, I 
think, makes that clear, and I need to say that, because----
    The Chairman. Well, it doesn't sound like that's what 
Congressman Hamilton is saying.
    Mr. Hamilton. Well, there's another point here that's very 
important, Mr. Chairman. I'm sorry to go on and----
    The Chairman. No, this is--this is the key distinction, and 
it's worth you----
    Mr. Hamilton. We say----
    The Chairman [continuing]. Taking time----
    Mr. Hamilton [continuing]. That the training of the Iraqi 
forces must be the primary mission. By ``primary mission,'' we 
mean we have to put the highest priority on training the Iraqi 
forces. The sooner you get to that, the sooner you do it, the 
sooner you are able to withdraw American forces. I don't think 
you're going to be able to withdraw American forces until you 
train the Iraqis. So, the highest priority is training Iraqi 
forces.
    Now, if your focus is all on the surge, as it has been, 
frankly, up to this date--if it's all on the surge, you make 
secondary the training of Iraqi forces. And we said the primary 
mission has to be the Iraqi forces.
    Now, I think it's a positive thing that, in Mr. Hadley's 
article, he uses the words ``training and supporting Iraqi 
troops will remain our military's essential''--that's what the 
President said--``and primary mission. My concern about this 
article, frankly, is that he then goes on to talk in some 
detail about the surge and what you do to get the security of 
Baghdad. He does not give us any detail about what he means by 
``the primary function of training.''
    Mr. Baker. At the same time, we do know that the 
President's plan contemplates doubling the number of our combat 
forces engaged in the training mission, so there has been an 
enhancement of the training function, as we recommended. Excuse 
me.
    Mr. Hamilton. That was for embedding forces, I think.
    The Chairman. I would love to continue this, but my time is 
up.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    And, again, gentlemen, we are grateful, this country is 
grateful, for the contributions that you and your eight 
distinguished colleagues made, and continue to make, who served 
on the Iraqi Study Commission.
    In pursuing the conversation that the two of you are having 
with Chairman Biden, the question of: Well, why would Iraq be 
interested in cooperating?--and you both have answered it, I 
think, clearly. And I would be remiss if I didn't say, which I 
have a number of times, that I am strongly supportive of what 
your commission has recommended.
    There's an old saying, that you all are both aware of, 
because you are practitioners of this business, and that is, 
``Nations respond in their own self-interest.'' There is 
something rather reassuring about that. That means that there's 
some consistency and continuity. As you both know, what is most 
dangerous is the unpredictable. And we have that, I think, in a 
constant state of play with North Korea.
    Now, if, as you have both articulated, that it would be in 
the interest of Iran to find some solution, resolution for 
their interest--not that they would like to help us out, 
necessarily, we know that's not the case; and, as Secretary 
Baker said, you both come at this, as your commission, very 
clear-eyed; I don't think anyone would ever accuse Ed Meese, 
for example, of being a squishy person on these kinds of 
things--and, as you have each said, as has been framed in the 
commission's report, that a comprehensive Middle East peace 
deal must be part of this--you've used, a number of times, 
``comprehensive''--your 79 recommendations, ``comprehensive''--
you talk about maybe a surge of troops, training, primary 
mission--but what, in my opinion, has been dangerously missing 
from what the President laid out the other day is that I see no 
new diplomatic initiatives. I see no diplomatic focus or 
efforts. Take the Hadley piece that Chairman Hamilton has just 
referred to; it is all military, it is all surge. There is 
training, but where is the diplomatic focus and effort?
    I find it almost incomprehensible, when you talk about Iraq 
and Iran and America's policy, that we won't talk with them, we 
won't engage them, when, in fact, our allies, the sovereign 
Government of Iraq, is engaging the Iranians. The Prime 
Minister of Iraq, the President of Iraq, in and out of Tehran, 
meeting. You all saw this piece in the New York Times a couple 
of days ago regarding the Iranian Ambassador to Iraq saying 
that the Iranians are going to deepen their political, 
economic, and security ties with Iraq. But yet, the 
contradiction, at least in my mind, is our Government, that we 
are supportive of, in Iraq, is going down one path with the 
Iranians and we're going down another.
    Now, you have said, both of you today and in--again in your 
report, that the outcome in Iraq is not going to come from the 
military, it's going to come from a comprehensive policy, which 
you've articulated rather clearly. But, again, what I heard 
from the President--another carrier battle group in the Persian 
Gulf, Patriot antimissile batteries going in, more troops--as 
well as the Hadley piece. And I think there's rather 
significant evidence of further focus on this administration's 
policy.
    So, my question is, then: If all of this is playing out, as 
the two of you have noted today and is articulated quite 
clearly in your commission report, then what do you believe is 
the outcome? It seems to me folly to believe, as Chairman 
Hamilton has said--the Iranians are already in there, they 
already have an immense amount of influence--that we can't stop 
that. That is part of it. I mean, let's be real here. Many of 
the senior Iraqi Government officials were exiled in Iran 
during Saddam Hussein's time. So, I think we somehow are 
getting a foggy sense of this.
    So, my question to each of you is: If all these dynamics 
are in play, as you have just noted, then where is this going? 
Where is this going without any American diplomatic effort 
here, or initiative, to try to frame up the very things that 
you have all focused on in your 79 recommendations?
    Mr. Baker. Well, Senator, there are diplomatic efforts. 
That's mentioned, of course, in Steve Hadley's piece. And, by 
the way, before we say that that piece only deals with surge, 
let's remember that there are resolutions pending up here to, 
in effect, say the surge is not a national interest, so, quite 
naturally, he's going to concentrate on the surge in his piece.
    The President has said that the training is the essential 
mission for our--us in Iraq. And Steve has said that training 
and supporting Iraqi troops will remain our military's 
essential and primary mission. Now, I think we ought to take 
that--take them at their word, and we ought to be glad that 
they are, in effect, reiterating one of the principal 
recommendations of our Iraq Study Group.
    But, you know, when we talk about ``talking to Iran''--and 
neither Lee nor I are suggesting that you just talk to them 
about incentives. We say, in fact, in here, that when we 
contemplate talking to Syria or Iran, we talk about using 
incentives and disincentives. I think, to some extent, that's 
what you're seeing happening now, when you talk about carrier 
battle groups and so forth.
    And our report also makes clear, Senator Hagel, that we 
don't think Iran will talk to us about helping in Iraq, the way 
they did in Afghanistan, even though they might fear a chaotic 
Iraq. We don't think it's going to happen. But we still think 
we ought to make the proffer. And, as I indicated earlier, we 
have sat down with Iran, in the compact group, at the level of 
Foreign Minister, so it's not as if nothing's being done.
    Where I think we're missing the boat, if I might jump ahead 
a little bit--and I know Lee probably has comment on this, 
too--where I think we're really missing the boat is Syria. I 
think we have tremendous opportunity here to perhaps move them 
away from a marriage of convenience with Iran. And in our 
report, on page--let me refer you to page 56 and 57--we lay 
out, in specific detail there, Senator Hagel, what we ought to 
be talking to Syria about. And it's--there are a lot of issues. 
But they're things that Syria is--has to deal with. We lay it 
all out there. And I really hope that, if you haven't focused 
on that--the committee--that you'll focus on it. I think 
there's a real opportunity there to move them away from Iran 
without giving up anything, where--you know, as Lee said, we're 
not talking about starry-eyed naive--talking to them about 
giving them this or that without getting something that's 
really important for us. But if we were able to flip Syria away 
from Iran and back toward where I think they would like to be, 
based on a 2\1/2\- to 3-hour discussion I had at the--with the 
President's approval--with the Syrian Foreign Minister, I think 
they're ready to come back. And what could we do? We could get 
them to get Hamas, which is headquartered in Damascus, to 
recognize Israel's right to exist. Boy, would that be a step in 
the right direction. You'd give Israel a negotiating partner on 
the Palestinian track. I think we could cut off the flow of 
arms to Hezbollah, because Syria is the transit point for all 
of those. And I'm not--we're not suggesting you give up 
anything. Certainly you hold their feet to the fire on the 
investigations going on with the assassinations in Lebanon; you 
get them to stop screwing around in Lebanon, to the degree and 
extent that they have been; you get them to do a better job of 
closing their borders.
    So, that's a long-winded answer to your question, and I 
know Lee wants to add to all of it.
    Mr. Hamilton. Let me just----
    Senator Hagel. Before I ask the chairman to respond, Mr. 
Secretary, you still didn't answer the question. But what's 
interesting about your point is, you used the term ``if'' more 
than once--``if Syria''--and I--by the way, I agree with 
everything you've just said. But that isn't the case, that's 
not reality, unless this administration changes, rather 
significantly, its direction. So, your ``ifs, ifs, ifs'' are 
not the reality of what we're dealing with.
    Mr. Baker. The ``ifs'' relate--that's why we have to talk 
to them, Senator.
    Senator Hagel. I'm a--I agree with you. Is the President 
listening to this? He--as of today at 1 o'clock, what you have 
just talked about--``if, if, if''--that isn't where the 
administration is going.
    Mr. Hamilton. Senator----
    Mr. Baker. Well, I didn't suggest that it was. I----
    Senator Hagel. I asked you----
    Mr. Baker. I know that.
    Senator Hagel [continuing]. What you thought was the 
outcome of the reality of where we're going. And--but that 
isn't reality, when you say, ``Well, if we would do this, if we 
would do this.''
    Mr. Baker. Well, they aren't--the administration is--they 
are pursuing a diplomatic approach, not the one, necessarily, 
that we lay out in here, perhaps----
    Senator Hagel. Well, can you----
    Mr. Baker [continuing]. Not as----
    Senator Hagel [continuing]. Define that diplomatic 
approach?
    Mr. Baker. Yes. They're lining up our historic allies in 
the region to enlist them in adopting the same policy toward 
Iran that we have, which is a policy of isolation. Now, they 
are doing that. And they are also doing--Secretary Rice has 
lined up--I think it's confirmed--a meeting between President 
Abbas of the Palestinian National Authority, and Prime Minister 
Olmert, so she's working the Israeli-Palestinian track, not 
working the Israeli-Syrian or -Lebanese track right now, but 
they are--they are pursuing diplomacy, it's just not as broad 
and extensive as what we recommend.
    Senator Hagel. Well, thank you. And I know I'm over my 
time, but I do want to get the chairman's point on this.
    Thank you, Mr. Secretary.
    Mr. Hamilton. Well, let me make one point, very quickly, 
about talking with Iran. In today's context, part of the reason 
for talks with Iran is to prevent the unnecessary inadvertent 
escalation of tensions. That can become hugely important in the 
days ahead.
    Now, in listening to your question, Senator, I think you've 
got it right when you understand that in order to be effective 
in Iraq, you have to integrate all of the tools of American 
power. You cannot just emphasize the military and expect to 
succeed. You cannot just emphasize diplomatic. You cannot just 
emphasize political and economic. You have to integrate. And 
this is the tough challenge in Iraq.
    Now, part of the use of the tools of American power is the 
tool that Secretary Baker--Jim--has been talking about, and 
that is the diplomatic offensive. I want you to take a careful 
look if--you've probably already done it--at our 
recommendations on the new diplomatic offensive. We recommended 
that it be launched in December; in other words, immediately. 
We believe there is a genuine urgency about it. And then, look 
at the countries that we talked about. All of the attention, of 
course, has been on Iran and Syria, for understandable reasons. 
But when we're talking about this new diplomatic initiative, 
we're talking about engaging the Arab League, we're talking 
about engaging all of the key regional states, we're talking 
about the states bordering Iraq, we're talking about the 
European Union, possibly Germany, Japan, South Korea. In other 
words, we need a lot of help in stabilizing things in Iraq. And 
we think there is a high degree of urgency needed on a 
diplomatic offensive.
    I take the initial steps by Secretary Rice to be positive. 
I think they're very modest, but they're positive. But we 
certainly need to build on them, and we need to build on them 
with a much, much greater sense of urgency than I see.
    Senator Hagel. Thank you.
    Senator Dodd [presiding]. Thank you.
    Senator Biden's out of the room momentarily, so I'm now in 
command here. I'm going to deal myself several hours, here, of 
questioning. [Laughter.]
    Well, thank you both. And you've heard this repeatedly from 
others, and I'm sure you'll convey this to your colleagues who 
did the work over these 9 or 10 months, it was a tremendous 
effort, and I think all of us in the country are grateful to 
both of you for putting your time and effort.
    I've read this so many times, I can almost quote it without 
reading it, but it just deserves being repeated over again. The 
opening sentence in your executive summary in December, ``The 
situation in Iraq is grave and deteriorating.'' That sentence 
is a compelling sentence. And, skipping down to the next 
paragraph, ``Our most important recommendations call for new 
and enhanced diplomatic and political efforts in Iraq and the 
region and a change in the primary mission of U.S. forces in 
Iraq that will enable the United States to begin to move its 
combat forces out of Iraq responsibly. These recommendations, 
the two recommendations, are equally important and reinforce 
one another.''
    I'd want you to--to come back to Syria in a minute, and I 
want to thank Secretary Baker for talking about it. We were in 
Syria, Senator Kerry and I, in December, and we were in 
Lebanon, as well as Jordan and Israel, and in Iraq. And we had 
Embassy people in the room there. This was obviously a 
conversation, but, as I said, what went on there, the offer to 
really work with the United States and others--the first time 
in 24 years you have an exchange of ambassadors between Baghdad 
and Damascus. Maliki, the Prime Minister, was in exile in 
Damascus during much of that period of Saddam Hussein's rule. 
They were exchanging ministers back and forth. And I don't want 
to exaggerate the point, but when asked, to Assad, what his 
goals were in Iraq, his answer was, ``I want a pluralistic Arab 
State. We're not interested in having an Iranian Shia-dominated 
fundamentalist state.'' Now, it was said in English in a 
private meeting. I'm repeating what he said to us in that room, 
and it was reported in cable traffic back. I'm not going to 
verify for the voracity of the statement, but it seems to me if 
two United States Senators, in the presence of Embassy 
personnel, have a President of Syria saying this is what he's 
interested in, why wouldn't you pursue that, in my view? I 
called the State Department when I got back, and repeated 
privately what the answer was. This was now 2\1/2\ months ago. 
You could prove me wrong. Maybe he was just saying that for our 
consumption, maybe it was a political trick. I don't know what 
the purpose was. It also may have been true, in which case, it 
seems to me, we are wasting valuable time to get someone with 
whom we have significant disagreements on a variety of issues, 
but who may agree with us on this issue, to play a constructive 
role.
    And so, I, at some point, would like both of you to respond 
to whether or not you believe the situation is still as you 
describe it in the first sentence, or maybe worse, today, as we 
approach the month of February; and, second, as a practical 
matter, on the surge question, putting 17,000 young men and 
women in a city of 6 million people where there are 23 militias 
operating, not to mention Baathist insurgents, maybe some al-
Qaeda elements--how is this in any way going to enhance the 
recommendations you make here, given the goal would be to 
either arrest or engage Shia or Sunni militias, which, in an 
article written by Fareed Zakaria, it talks about failing or 
succeeding absolutely makes the goal of political 
reconciliation maybe that much more difficult, even if it 
succeeds, because, once we've engaged these elements, rather 
than figure out ways to bring them together, you get further 
away from the strong recommendation you make about internal 
reconciliation, political reconciliation.
    So, I'd like you to respond to how, in any way, you can see 
this surge contributing to the very recommendations, the most 
serious recommendations you make in your report.
    So, on Syria--and, Secretary Baker, you might just, for the 
purpose of discussion here, share with us your experience back 
in October--it was--1991, the gulf war. I know I've heard you 
talk about 15 trips to Syria. I think you said it was the 15th 
trip.
    Mr. Baker. I made 16 trips.
    Senator Dodd. Well, it might be----
    Mr. Baker [continuing]. Senator----
    Senator Dodd [continuing]. Constructive just to talk about 
that and how long it took and why you did it.
    Mr. Baker. Let me just say that, at the time, it was not 
particularly popular to talk to Syria. On the 16th trip, Syria 
changed 25 years of policy refusing to sit down to negotiate 
peace with Israel, and they came to the Madrid Conference and 
sat down and negotiated peace with Israel. Syria, at that time, 
was on our list of states that sponsored terrorism, but we 
talked to them, we spent a lot of time, we practiced diplomacy 
full time, and it paid off.
    Senator Dodd. On the 16th trip.
    Mr. Baker. On the 16th trip. Now, let me just say, with 
respect--one other thing with respect to Syria and your comment 
about it--their exchanging ambassadors with Iraq----
    Senator Dodd. Yes.
    Mr. Baker [continuing]. And that they--and that Assad wants 
a secular Iraq, which is quite true. But Syria, if we could--if 
we could--and I believe we can--move them away from their--
again, their marriage of convenience with Iran, that would do a 
lot--that would do a lot more than, I think, we are able to do 
right now to marginalize Iran.
    Senator Dodd. Right.
    Mr. Baker. And it would--and it would really help us with 
Hezbollah and Hamas. If the Syrian Foreign Minister--and I have 
no reason to think he is not right--if he's right that Hamas 
officers are in Damascus, if they could get Hamas to come--to 
recognize Israel's right to exist, maybe they could get a unity 
government with Fatah, and then you'd have a negotiating 
partner for Israel with the Palestinians. It would be a huge 
step in the right direction.
    Senator Dodd. He also added, by the way--and I just say 
this to you--we asked about a direct negotiation between Syria 
and Israel. In the past, the Golan has been the precondition.
    Mr. Baker. That's right.
    Senator Dodd. He said, ``I'm dropping the precondition. I'd 
negotiate without--I want the Golan back,'' he said, ``but I'm 
not going to make it a precondition.''
    Mr. Baker. That is the key, of course, to an ultimate 
peace. There--someday--and hopefully in my, and in your, 
lifetime, Senator--there will be peace between Israel and 
Syria. I believe there will be. That will be the key. We 
mention that in our report, but we go further--further, I 
think, than any other--than any administration has gone to 
date--and we suggest that we give Israel a United States 
security guarantee in order to assuage their concern--their 
security concerns in the event that they were to trade the 
Golan for a full, complete, and secure peace with Syria.
    Mr. Hamilton. Senator, let me make a few comments, if I 
may, first of all on the Syrian matter. I think there are a lot 
of indications coming out of Syria today, including your 
conversations, which indicate that they're very, very 
interested in engagement with the United States. Not all of 
those are official contacts, like yours, but there are many, 
many contacts in the nonofficial private sector. They are 
sending signals to us.
    Now, when you stop to think about it, the alliance between 
Syria and Iran is an unnatural one. Syria is Sunni, Iran is 
Shia. And it's not something that is bound to stay permanent. 
And we ought to be, as Jim has said, ready to exploit that.
    You also asked about the trend line since the Iraqi 
report----
    Senator Dodd. Right.
    Mr. Hamilton [continuing]. Was issued. I don't think the 
trends have gotten much better. December was the deadliest 
month of the year for 2006. We had 108 fatalities in that 
month. The United Nations reported, recently, 3.7 million 
refugees since we issued our report. That's one in eight 
Iraqis. Saddam Hussein's execution made him a martyr in the 
Arab world, in the manner in which it was handled. Oil 
production is still down below prewar levels. General Petraeus 
testified before one of your committees the other day, that 
life is a daily struggle to survive in Iraq. And the end of the 
year passed and the Iraqi Government hasn't met--still hasn't 
met any of these benchmarks. These benchmarks are all agreed 
upon, they've been known for months, but still have not met 
those benchmarks. What's happening? Why are they not acting to 
meet those benchmarks? And weeks have passed since our report 
came out. And, of course, the American people, the polls show 
very clearly they continue to sour on this war. So, the trend 
lines are not positive with regard to Iraq since the report 
came out. They continue to be negative.
    Senator Dodd. But to go back to the first question I asked: 
As a practical matter, given the number of troops we're going 
to place on the ground in Baghdad, given the size of that city, 
the number of militias operating, given your strong 
recommendations here, the two strong recommendations, how does 
that in any way contribute to achieving the goals that you two 
have outlined, along with your colleagues, in this report in 
December?
    Mr. Hamilton. Well, it----
    Senator Dodd. Putting 17,000 kids----
    Mr. Hamilton. I know----
    Senator Dodd [continuing]. In a cauldron like Baghdad.
    Mr. Hamilton. I understand. It is possible, Senator, that 
the infusion of 20,000 additional troops will bring about--as 
the Generals said to us, and they didn't recommend it, it is 
possible, if you put in a lot of additional troops into a 
fairly localized area, you can bring about a temporary 
improvement in the situation there. That could happen with the 
surge. We hope it does happen. But--I'm not predicting it, but 
it could happen.
    Senator Dodd. But even if it does succeed, don't you run 
the risk of keeping the Shia and Sunni further apart, given the 
policing role they'll function, which runs directly contrary to 
exactly what we're trying to achieve here, and that is 
political reconciliation.
    Mr. Baker. I don't think so, Senator. I don't think you run 
the risk of--you can't--you couldn't get them much further 
apart today than they are in Baghdad. And let me say, one more 
time, everybody we talk to says that, ``As Baghdad goes, so 
goes Iraq.'' And one of our first tentative conclusions was 
that we needed to put even more forces into Baghdad, but we 
concluded we didn't have them available. Now, that was not a 
conclusion of the Iraq Study Group, it was an informal 
discussion we had among ourselves.
    So, I guess the bottom line--my bottom line on the surge 
is, look, the President's plan ought to be given a chance. Give 
it a chance. Because we heard all of this. The general that you 
confirmed, 81 to nothing, day before yesterday, this is his 
idea. He's the supporter of it. He's now the commander on the 
ground in Iraq. Give it a chance.
    The Chairman [presiding]. Senator Sununu.
    Senator Sununu. Thank you very much, Mr. Chairman.
    Welcome, to both of you. Congressman Hamilton, I well 
remember serving in the House with you, and, while I'm sure you 
don't remember it--there's no reason that you should--I always 
found it extremely helpful, whether I was voting with you or 
against you, to ask you why you were voting the way you were. 
And it always seemed to be revealing of some aspect of the 
debate that I didn't have the opportunity to consider. So, I 
very much appreciate you both being here.
    And I enjoyed, to the extent that anyone could, reading the 
Study Group Report, and I will make the observation, as I've 
made to a number of people who asked me about it, some of them 
being in the press, it was very clearly written. I mean, it 
wasn't--it was a dark assessment, in many ways, but it was 
clear, it was direct, and it was to the point, which makes it 
especially ironic that, over the last 3 or 4 weeks, everyone 
has looked at that report and walked away with it perceiving, 
in some ways, what they wanted to perceive, that they used it 
to reinforce preconceptions rather than to engage in a 
discussion of how best to implement as many of the 
recommendations in the report, the vast majority of which I 
agree with. And, in fact, to that end, some of my colleagues 
probably read the benchmarks that come out every week about 
what's happening, and, you know, we've mentioned electricity 
and the performance--our performance and the Iraqi performance 
on electricity has been an absolute disaster. But I noted that, 
last week, the oil output, the exports of oil, plummeted, I 
mean, to the lowest level, perhaps, in 3 or 4 years. And, 
fortunately--I didn't have to make too much of a commotion--
there was a footnote; the reason for that was that they finally 
installed meters. They went to the port, and they installed 
meters, so that they could actually measure throughput, which 
is, you know, one of the recommendations, in the oil sector, 
that you made. And it is a shame, in some ways, that it's taken 
so long. I've talked a great deal in this committee about the 
importance of distribution of oil revenues and actually 
measuring economic performance, because you want to enfranchise 
people economically, and that's the way to do it. So, there is 
a recommendation that I think we've made progress on. 
Unfortunately, in other areas, perhaps not so much.
    Secretary Baker, I want to ask a question about 
conditionality. You mentioned conditionality. First, what 
specific conditions should we look at and consider most 
strongly? And, second, on conditions, or on encouraging Iraqis 
to take the various steps, measures that we've encouraged them 
to do on oil and elections and in reconciliation, are there 
other methods to facilitate their active engagement on these 
issues, or are hard conditions the best way to do it?
    Mr. Baker. Well, we--Senator, we call for, in our report, 
additional benchmarks to be worked out with the Iraqi 
Government, in addition to those benchmarks that the 
administration has already come up with. We suggest that they 
be tied to specific dates. We do not--we do not spell out, in 
exquisite detail, the conditionality, but we have that one 
sentence that I read in my part of the prepared statement that 
says if they don't meet these benchmarks, the United States 
should either make it clear or reduce--I guess we said ``should 
reduce its political, military, or economic support.'' And we 
wrote it that way intentionally. It's general, it's a bit 
vague, but the administration would then have, we think, all 
the flexibility they need to say, ``If you don't do this, we're 
going to take this away or do this. If you don't do that, we're 
going to take that away or do that.'' I mean, there's a lot of 
flexibility in there, but we make it very clear that there 
ought to be conditionality.
    Senator Sununu. Understood that you don't want to be more 
specific. Let me ask you a question, though, about approaching 
the Iraqis on conditions. Simply put, there are two ways to do 
it. You can do it publicly and make it known what you expect 
them to do, and, in return, what conditions you're going to 
impose on it. Or you can ask--or you can make the point 
privately.
    Mr. Baker. Well, let me just----
    Senator Sununu. Two questions. One, which is more 
effective? And, or two, what do you--what factors do you use to 
determine whether you're private in your setting conditions----
    Mr. Baker. I was just whispering----
    Senator Sununu [continuing]. Or public?
    Mr. Baker. I was just whispering to Lee, this is the very 
debate that we had, on any many occasions, in--during the 
preparation of this report, because Lee wanted us to be--to say 
that the President should lay it all out there publicly, and, 
in effect, make a public statement or a threat. And maybe it 
was because I was a former Secretary of State, I thought it 
might be better done privately.
    Senator Sununu. I'm sorry to have driven such a sharp 
wedge----
    Mr. Baker. Well----
    Senator Sununu [continuing]. Between the two of you.
    Mr. Baker [continuing]. You didn't--no; you didn't. The 
wedge was there, but we worked it out. And I think sometimes 
publicly it might work better. Generally speaking, I think that 
it--sometimes when you do it publicly, you put a government in 
a position to where it can't take the action you want them to 
take.
    Mr. Hamilton. Senator, first of all, I want to say that 
neither Jim nor I can claim credit for the clear writing. The 
people that did it are sitting behind us here----
    Mr. Baker. That's right.
    Mr. Hamilton. Chris Kojm and John Williams and Ben Rhodes. 
They're the gentlemen who deserve the credit for that.
    I was amused by your comment that everybody reads the 
report and sees something in it they can support. I suppose 
that's the result of a bipartisan effort. And there isn't any 
doubt that we tried to deal pragmatically and realistically 
with the political situation in two countries--Baghdad and 
Washington--and to reach an agreement--and, as you know, that's 
not easy to do.
    I think Jim's expressed my view on conditionality. I--quite 
frankly, I've lost my patience with Maliki. He has known what 
he needs to do for a long time. I would give preference to an 
approach that deals with it privately, but we've used that 
approach for better than a half a year now, and it hasn't 
worked. And I think we've got to put the screws on this fellow.
    Senator Sununu. I want to ask a question, next, about 
discussions, not necessarily negotiations, but involved 
discussions with those in the region--in particular, Syria and 
Iran--but it could apply to any adversary. When those countries 
come up, there are two specific concerns that are raised, or at 
least that I've heard raised over again. And I want you to 
respond to both of them. One concern is that we're reluctant to 
engage in discussions because the counterpart might insist on 
something that we're not prepared to agree to or that we may 
find unacceptable. The second concern that's often raised, or 
point that's often made, is that the adversary understands what 
they need to do and what we want them to do, so there's no 
point in speaking with them. Can you address both of those 
concerns?
    Mr. Hamilton. Well, on the first point, if they will insist 
on us doing something that we object to, we just tell them no. 
Do we have no confidence in American diplomats? Do we assume 
that, if the American diplomats sit down at the table with 
them, they're just going to agree to everything? My goodness, 
no. So, all you've got to do is say no. And, believe you me, 
there would be plenty of things they'd ask us to do that we'd 
say no to.
    On the second point, the adversaries----
    Senator Sununu. That they know everything they need----
    Mr. Hamilton. They know----
    Senator Sununu [continuing]. To do, we've already 
instructed or----
    Mr. Hamilton. Well, look----
    Senator Sununu [continuing]. Given an indication of what 
our objectives are.
    Mr. Hamilton. It's very easy to sit in Washington and 
speculate about the intentions and the motivations of the other 
side. And you can--you know, every op-ed is filled with these 
guesses. They're guesses. We don't really know. Now, we can 
make an educated guess, but we don't really know. The only way 
you really know is to put them down at the table and test them. 
And you may not get it the first time, either, but you may get 
it the 50th time when you talk to them.
    I just find rather disconcerting the speculation that we 
enter into about the intent of the other side with such 
assurance. Now, we may be right, and we may also be wrong.
    Senator Sununu. Thank you both very much.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Secretary, and Congressman Hamilton, who I had the 
privilege of serving with in the House and under your 
leadership as the chairman of the International Relations 
Committee, I appreciate both of your work. And I appreciate a 
lot of what you put in the Iraq Study Report.
    My sense--and I've tried to pursue this with Secretary Rice 
when she was here earlier today with Ambassador Negroponte in 
his confirmation hearing--is that, while our focus has been, 
obviously on the President's escalation, it seems to me that 
everything I read from your report, the whole assessment part 
of it, for starters, speaks volumes on the urgency of the 
moment. And second, that that urgency is overwhelmingly in the 
context of having a diplomatic surge. When I look at the 
assessments that you made about how Iraq has an elected 
government that acts in a sectarian context; at the corruption 
that is involved; at the lack of capacity that is involved, by 
virtue of de-Baathification; of an Iraqi Army where the equal-
number divisions sign up only to serve in certain parts of the 
country, unwilling to respond to a national context, and a 
whole host of other things--it just seems to me that when I see 
the President's response, which I personally disagree with, I 
don't understand how we have not seen a surge in all of the 
diplomacy and the actions necessary to achieve all those other 
elements that are really about success. When we speak about 
success in Iraq, in my mind that's what success is.
    So, my question is: Is there not a real sense of urgency? 
Has much changed since you issued your report, in the context 
of that assessment? Third, you refer to benchmarks in the 
report, but is it not necessary to have benchmarks with some 
form of conditionality? Whether it is timeframe or 
consequential, or for not meeting in some way? Because we've 
had benchmarks, and those benchmarks have, many times, not been 
achieved. So, at the end of the day, benchmarks without 
consequences are aspirations, nothing else. I'd like to hear 
some of your responses in those three areas: Sense of urgency, 
a sense of having the surge be more diplomatic than anything 
else, and the consequences--the necessity to have benchmarks 
with real consequences, combination deadlines and/or actual 
consequences that are invoked for not meeting them, when we 
believe that they're not being met.
    Mr. Baker. Senator, we just had a--we just had a colloquy 
here about conditionality on the benchmarks, and we think there 
should be conditionality. There should be consequences. I don't 
want to speak for Lee, but I believe he would agree with the 
statement that I think there's a sense of urgency here in our 
report with respect to all of our recommendations because of 
the grave and deteriorating situation we found in Iraq as we 
studied this problem. And so, I don't know that you can say 
that there's no sense of urgency with respect to military, but 
there is with respect to diplomatic--I think there's a sense of 
urgency with respect to both.
    Do you want to add anything?
    Mr. Hamilton. Well, Senator, as you correctly note, in the 
report there is a sense of urgency almost with every 
recommendation, whether it's diplomatic or changing the mission 
of American forces or conditionality, or other aspects of the 
report. So, the urgency is clearly there. We do not believe we 
have a lot of time. We've got to get this right, and we've got 
to get it right pretty quickly, because events are continuing 
to move against us. I spelled out those events a moment ago, I 
think before you were in the room, that are moving against us 
since we issued our report. And so, all of us have a great 
sense of urgency.
    And with regard to the surge, we say in the report that we 
can support a surge but that is in the context of doing a lot 
of other things at the same time, including political, 
diplomatic, and economic action.
    Senator Menendez. But, with all due respect----
    Mr. Hamilton. You have to integrate all of these things.
    Senator Menendez. With all due respect, do you sense that 
this administration has captured that same sense of urgency on 
these other matters?
    Mr. Hamilton. No; I do not. I think that, for example, on 
the conditionality question, the President's approach has been, 
``I must try to give Mr. Maliki confidence.'' And he has been 
unwilling to be critical of Mr. Maliki. Now, maybe that's the 
approach by which you would begin. I think you're at a point 
now where you have to bear down on the Maliki government 
because of their nonperformance over a period of time. And if 
they don't perform, and if they don't perform pretty quickly, 
then we will lose it. I don't care how many troops you put in 
there, we're going to lose it. They must begin to perform, and 
they must begin to perform promptly.
    Senator Menendez. We've heard about the escalation of the 
war, and what we've heard, starting with Secretary Rice and 
others, is that the Iraqis will be at the forefront of this and 
we'll be assisting them. And then we've heard testimony quite 
to the contrary of that. I looked at your report, and clearly, 
based upon that report's assessment of Iraqi troop strength, 
capability, preparedness, and willingness to fight in a 
national context, and surge is just simply not there at this 
time.
    Mr. Hamilton. Well, you're correct. The surge is not a new 
idea. We've had several surges there. And what has been very 
clear is that the Iraqi forces have not performed. They didn't 
show up, on some occasions, or they showed up much fewer in 
strength than we had anticipated. Now, the argument is made 
that things have changed, that they're ready to go. I hope 
that's the case. But we certainly haven't seen solid evidence 
of that up to this point.
    Senator Menendez. Well, it seems to me we're rolling the 
dice on putting 20-some-odd-thousand extra troops up first, in 
the hope and expectation of a quantity that has been proven to 
date not to meet the obligations that we would want to see, and 
that, therefore, if the troop strength isn't there, their 
ability to fight in a national context isn't there. If we're 
told that that's what's necessary and they're going to lead the 
way and we're going to follow them, and if all of the 
diplomatic efforts necessary, and conditionality on benchmarks 
necessary are not being pursued with the urgency that is 
needed, I don't understand how we are moving forward, in this 
context, to success.
    Mr. Hamilton. What we said was, ``If you do the things we 
recommend, we have a chance, and we----
    Senator Menendez. But the clock is ticking.
    Mr. Hamilton [continuing]. ``And we believe there is a 
chance, at this point.'' In other words, we did not, in the 
Iraq Study Group Report, come to the conclusion that it was 
hopeless, and, therefore, we should just pull out immediately. 
We believe, if a lot of things happen, quickly, there is a 
chance we can succeed. Now, you can get into some dispute as to 
definitions of ``success,'' but we can reasonably succeed. But 
we recognize that that is a very, very daunting challenge, and 
we recognize that you've got to get at it with a great sense of 
urgency.
    The questions you are raising relate to the competence of 
the Iraqi Government. Can they perform? There isn't any doubt, 
in the President's proposals and in ours, that we are depending 
on--very heavily--an improvement in the performance of the 
Iraqi Government. Will it happen? I don't know. If it doesn't 
happen, then the result will be very, very bad. But if we can 
put this together, there's a chance we can reasonably succeed.
    We do believe that we have a lot of interests in this 
region that need to be protected, and we think that we have to 
behave very carefully and very responsibly in order to protect 
those interests. And we, therefore, rejected the idea of just 
pulling out immediately.
    But it does make you uneasy--there is no doubt it--it makes 
you uneasy when you have to depend on this government, which, 
as you say, hasn't performed very well in the past. But what 
other alternative do you have?
    Mr. Baker. One of the purposes----
    Mr. Hamilton. You can't go out on the street of Baghdad and 
pick 10 people and put your confidence in them. This is a duly 
elected government, it is a democratically elected government. 
It has a lot of problems, but it does have a basic legitimacy. 
Therefore, you have to deal with it.
    Mr. Baker. Senator, one of the purposes of the surge, as 
I'm sure you heard from General Petraeus when you confirmed 
him, is to give the Iraqi Government a little more running room 
in order to help it achieve national reconciliation by tamping 
down the violence, or pacifying, if you will, Baghdad.
    Let me, if I might, Mr. Chairman, read from the report with 
respect to this issue of a surge, because there are only two 
conditions upon our support for a surge. One is that it be 
short term, and the other is that it be--is that it be called 
for by the commander in Iraq. President Bush said this is not 
an open-ended commitment. Secretary Gates said this is a 
temporary surge. And, of course, General Petraeus is the guy 
that's to carry it out, and he was the person that originally 
recommended it. This is the--this is the language, and all of 
the language, of the report with respect to a surge, ``We 
could, however, support a short-term redeployment or surge of 
American combat forces to stabilize Baghdad or to speed up the 
training-and-equipping mission if the United States commander 
in Iraq determines that such steps would be effective.'' The 
only two conditions are: Short term, commander in Iraq 
determines it would be effective. Both of those conditions have 
been met, unless you disbelieve the President and his National 
Security Advisor and General Petraeus.
    Mr. Hamilton. I do think, Senator, in addition to what 
Secretary Baker said, is that we recommended the surge but we 
believe that that surge has to take place in the context of a 
lot of other things happening, including political action, 
diplomatic action, and economic action. And that sentence that 
is quoted about the surge--that sentence that is quoted in the 
report--is in a section that talks about the importance of 
national reconciliation.
    Senator Menendez. Mr. Chairman, my time is up. I just would 
note that giving the Iraqis running room suggests that they're 
ready to run the race. And, second, I know the temporary 
nature, Mr. Secretary, that you cited in the report. A problem 
is that, as presented to us, there's no timeframe here 
whatsoever. So, it may be suggested that it is temporary, but 
there's no clear timeframe as to how long these troops would be 
committed.
    Mr. Baker. The Secretary of Defense says it's going to be a 
temporary surge, and the President says it's not going to be 
open-ended, and then there have been some suggestions from some 
quarters--and, again, I don't know whether this came up in 
General Petraeus's hearing in the--before Armed Services--but 
there were some suggestions that we would pretty well know 
whether this works by the summer or early fall. I don't know 
exactly who said it, but I know it's out there.
    The Chairman. Mr. Secretary, I want to make it clear what I 
read--your statement--was the appendix 1 on your July 11, 2007, 
statement that you and----
    Mr. Baker. You mean January 11?
    The Chairman. January 11, 2007. It says ``Statement of Co-
Chairs, January 11, 2007, Appendix 1, James Baker, Lee 
Hamilton.'' I'm not in any way contradicting what you're 
saying. I wanted you to understand where I got the phrase----
    Mr. Baker. Yes; I see it there.
    The Chairman. The phrase I got was ``complemented by''--it 
says ``The Iraq Study Group indicated it could support a short-
term redeployment or surge of American combat forces to 
stabilize Baghdad complemented by comprehensive political, 
economic, and diplomatic----
    Mr. Baker. That's right.
    The Chairman [continuing]. ``Efforts.'' I assume that's the 
context that----
    Mr. Baker. That's the----
    The Chairman [continuing]. Secretary Baker----
    Mr. Baker [continuing]. Context.
    The Chairman [continuing]. Was talking about. I didn't mean 
to imply, if you thought I did, that the actual page 72 said 
that.
    Mr. Baker. Thank you.
    The Chairman. Now, everyone's being very generous. The 
ranking member is here, as is Senator Coleman, and they both 
had indicated that, since Senator Voinovich has been here, they 
would be prepared to yield to him to go next.
    I want to make it clear, I'm going to be stepping out of 
the room, and, in my absence, I'd ask Senator Dodd to chair 
this, but we're going to promise, we're going to try to get you 
out of here around 3 o'clock. So, lots of luck in your senior 
year. But, at any rate, all kidding aside, I appreciate your 
patience.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    I want to thank both of you for your service to your 
country. Lee, you have been involved in numerous public service 
projects and committees. And, Secretary Baker, we are fortunate 
to have you contribute your insight and best judgment on the 
Iraq issue. You have certainly been through the mill over the 
years.
    When the President's new plan for a troop surge in Iraq was 
announced, I indicated that I was skeptical of it because, 
first of all, Generals Casey and Abizaid--whom we have long 
relied upon-- were not enthusiastic about it, and many other 
experts and witnesses believed a surge might exacerbate the 
situation and make America a greater target for attacks in 
Iraq.
    I also considered the hearings that we had earlier in the 
war. And, Mr. Chairman, at that time, we were given the 
impression that certain critical activities needed to accompany 
our invasion. We discussed political issues, security, 
infrastructure, economy, and we believed the administration was 
sufficiently planning for these things. Jay Garner was sent to 
Iraq as the post-war administrator and had begun to implement 
some of his plans, but then suddenly Garner was replaced by L. 
Paul Bremer, who pulled the plug on much of the progress and 
existing structure in the Iraqi society. So, my confidence in 
the fastidiousness necessary to our current work is a little 
low.
    You said that you support both the surge and 
``comprehensive political, economic, and diplomatic efforts.'' 
Deputy Secretary Negroponte was here today and we asked him 
whether or not the diplomatic issue had been carried as far as 
possible. Of course, Secretary Rice has been out talking with 
other nations, but it seems to me that at this stage of the 
game I don't think that we have made the diplomatic efforts 
that we need to make. I'd like your comment on that.
    Second, concerning economic issues, some officials were 
here discussing Provisional Reconstruction Teams, and we found 
out that they have about $11 billion in their treasury but 
don't know how to spend it properly.
    So it seems these conditions that you laid out as part of 
the surge have not been met. I would like your opinion on that.
    You also mentioned that America's commitment is not open-
ended, but when does it end? What does that mean? How do you 
determine that? Are there measures in place that we can use to 
determine whether conditions warranting America's continued 
support have actually been met?
    I'd like you to comment on that.
    Mr. Baker. Senator, I'll comment on the first part, because 
it was the same discussion we just had with the chairman.
    The diplomatic, economic, and so forth, complementary 
issues are not conditions to the surge. The surge is 
conditioned--our approval of a surge is conditioned only by the 
fact that it be short term and, second, that it be approved by 
the commander in Iraq.
    Senator Voinovich. When you said ``short term,'' what do 
you mean?
    Mr. Baker. Yes; OK. ``Short term,'' I've already set out 
the--you have to look at Secretary Gates's comment, ``this is a 
temporary surge.'' Now, does that mean 2 months? Does that mean 
12 months? I can't answer that. The President said it's not 
going to be open-ended. Now, has there been a specific date put 
on there? No; there hasn't. The commander on the ground, we 
think--and I think the President obviously feels--has to have 
the flexibility to conduct the surge in the best manner 
possible to pacify Baghdad, so you don't have a date put on it. 
But the language that you read is context language as to--as 
Chairman Hamilton has indicated. Those are not conditions to 
our approval of a surge.
    Mr. Hamilton. Well, Senator, I agree with your observation. 
The diplomatic effort has not been full enough. I said, 
earlier, that I thought Secretary Rice's trip was a positive 
step. But if you look at the recommendations we make, we really 
make recommendations for a very, very comprehensive diplomatic 
offensive in which we engage all of the countries in the 
region, the Perm 5, the Arab League, and a lot of others, not 
all at once, but in stages. And we see that diplomatic effort 
as a very important reinforcing mechanism, along with the other 
steps you take internally in Iraq, in order to bring stability 
to Iraq. And we think there is a real urgency to that 
diplomatic effort, that we cannot proceed with ``business as 
usual'' here. We think it's terribly important----
    Senator Voinovich. But do you think it would be easier to 
begin that urgent diplomatic effort in the region now or later? 
Do you think that now is the time to clearly state that 
ultimately we are leaving Iraq?
    Mr. Hamilton. Look, I think things in Iraq continue to go 
down. We don't have the time to wait on any of the 
recommendations we made. I feel a real sense of urgency on all 
of these recommendations. We recommended that the diplomatic 
offensive that we spell out start in December 2006. And here we 
are, almost February 2007, and a very modest step, I think, has 
been taken.
    Senator Voinovich. Well I----
    Mr. Hamilton. Now, on the----
    Senator Voinovich [continuing]. I think that the American 
people probably would feel a whole lot better if we had already 
started the diplomatic effort recommended by the Iraq Study 
Group or had announced that we are aggressively going to do it, 
or at least if we got Iraqi Prime Minister Maliki to say that 
he needs help from his neighbors and then have him convene 
them.
    Mr. Hamilton. I agree with that. You asked about ``not an 
open-ended commitment.'' We're quite specific here about what 
the Iraqis must do, and we are demanding that they make, in the 
phrase of the report, ``substantial progress'' toward very 
specific goals that are broadly agreed upon, and that if they 
do not make substantial progress, then we are going to reduce 
our commitment. Now, how much time do you give them to make 
substantial progress? Well, I guess people would vary in their 
judgment about that, and, at the end of the day, it's going to 
be the President's call what constitutes ``substantial 
progress,'' and how quickly. The point we make is that you set 
out these benchmarks, they have to make substantial progress in 
hitting those benchmarks pretty soon, in our judgment, or we're 
going to reduce our commitment. If you do not get a bona fide 
effort by the Iraqi Government to perform--in governance, in 
national reconciliation, and in carrying their share of the 
load on security, recognizing they're going to need some United 
States help--then there is no way that the United States is 
going to succeed there, no matter what we do. The Iraqi 
Government has to perform.
    Mr. Baker. Senator, if you look at the President's speech 
of January 10--and I mentioned this in my opening remarks--he 
says--he talks about increasing the number of American advisors 
embedded in Iraqi Army units, ``with the goal that the Iraqi 
Government will assume control of security in all provinces in 
Iraq by November 2007.'' Now, that's further out than the 
summer that I mentioned in my answer to Senator Menendez.
    Mr. Hamilton. I might just say, on this surge question, 
that there isn't any doubt in my mind that the United States 
forces are going to win every battle. That's not the problem. 
I'm not suggesting that it's easy, but it's not the problem. We 
can clear out any neighborhood we want to clear out. We did it, 
last summer. The question is: Can you hold it, and can you 
build it after you've cleared it out? And that has to be 
primarily, it seems to me, up to the Iraqis, not up to us to do 
that. And, to date, no one can claim that their performance has 
been very good.
    I want to point out, on this surge question, which keeps 
coming up here, the surge was not one of our 79 
recommendations; it was a part of a discussion of the military 
options that are available to us there; and we continued to say 
throughout the report, that the primary mission of U.S. forces, 
as I said earlier in the testimony, should be to train Iraqis. 
The question in my mind, frankly, is not whether you should 
train Iraqis, but when. We're going to have to do it. We've 
been working at it for several years. We didn't do a very good 
job of it, to be blunt about it, for several years. I think 
we've improved. I think we're much better today at training the 
Iraqis than we were 3 or 4 years ago. But we've still got a 
long way to go. And I think that has to be the primary mission, 
and it has to be accelerated. And the more you talk about the 
surge and the details of the surge, the less likely it is that 
you are to focus on what we consider the primary mission, which 
is training those Iraqis. If you want to get out of Iraq, the 
best way, most feasible way, to get out of Iraq is to train 
those forces.
    Senator Dodd [presiding]. Thank you.
    Senator Cardin.
    Senator Cardin. Secretary Baker and Congressman Hamilton, I 
want to thank both of you for your service.
    The Iraq Study Group was created by Congress to help us and 
the American people better understand our options in Iraq. Now, 
I'm going to be--as you probably know, I voted against the war 
4 years ago--I want us to win in Iraq. I want us to succeed in 
our mission. And, Congressman Hamilton, I appreciate the manner 
in which you have presented the options that we have 
available--and Secretary Baker.
    My concern is--I go back to the original justification for 
entering Iraq. The President talked about the attack on our 
country on September 11, talked about weapons of mass 
destruction. And now I'm trying to figure out the justification 
for the escalation of our military presence as the President 
talks about benchmarks and talks about diplomatic efforts. And 
I'm concerned that that's liable to get lost in the President's 
desire to win a military victory in Iraq, where, as your report 
underscores, a military victory in Iraq is not possible, that 
it needs to be--it needs to have the diplomacy and the economic 
reforms and all the other issues that are spelled out in your 
report.
    So, I guess my question to you, particularly to Congressman 
Hamilton--you served this Nation with great distinction, not as 
a Member of Congress, but in the 9/11 Commission. And the thing 
that impressed me the most is that, when that commission issued 
its report, it didn't go out of existence. Some may have 
thought it would, but it didn't. And it's helped us, and 
assisted us, to stay on track to try to accomplish an objective 
to make this Nation safer.
    I would like to solicit your help, as we go forward in 
Iraq, as to whether, in fact, we have effective and enforceable 
benchmarks. I must tell you, I am somewhat confused as to what 
the benchmarks are. I've listened to the Secretary of State, 
I've listened to the President, I've heard what they've said 
about the Iraqis standing up and taking responsibility for 
their own country and doing all these other things. But I also 
could find that, a couple of months from now, the President 
said, ``Well, they're doing better here, they're doing--
there,'' and that the benchmarks are certainly not very 
definitive as to what they have to do by certain dates, and the 
consequences if they don't.
    As far as diplomatic efforts are concerned, I've listened 
very carefully to this administration, and I have yet to see 
them engage all-out effort in the region or internationally for 
effective diplomacy. It still appears to be America, rather 
than looking at the region and an international community for 
an effective solution to the political problems in Iraq and the 
region.
    So, I welcome your thoughts as to whether--going forward. I 
certainly hope the President will change his policies in Iraq, 
but I do think that this Study Group Report and your 
recommendations gives us a comprehensive plan that could 
succeed in Iraq. And I think it would be very helpful to us to 
get your continued involvement as to--you pointed out, in the 
last 2\1/2\ months, very little has happened, and your report 
talked about the urgency of the situation--but I would find it 
helpful if you would continue to give your views as to whether 
the recommendations that have been made by the Study Group are, 
in fact, being followed by the players.
    Mr. Hamilton. Senator, I think our view is that many of the 
recommendations have been partially accepted, not totally 
accepted. Some have been totally accepted. One or two, three 
maybe, have been outright rejected. But there isn't the view, 
in the Iraq Study Group, to engage in the kind of a followup 
effort that we had in the 9/11 Commission.
    Now, I am doing quite a bit of testifying and speaking with 
regard to the Iraq Study Group. I think other members of the 
Iraq Study Group, including Secretary Baker, are doing 
likewise. But it is not--we no longer meet, we're out of 
existence, and there isn't any followup taking place as a 
group. There is followup on an individual basis. I have seen 
statements, for example, by several of the members of the Study 
Group as they have spoken to press around the country and to 
groups around the country.
    I do want to say a word about these benchmarks. I think the 
benchmarks, where we're asking the Iraqi Government to perform, 
are very clear. And we're asking them to be more inclusive in 
that constitution, to include the Sunnis. We're asking them to 
put in a program of de-Baathification that requires the 
reintegration of the Baathists, except those at the very top 
level of Saddam Hussein's regime, to get them into the national 
life of the country. We're asking for an oil revenue-sharing 
program that is fair.
    Senator Cardin. But oil revenue, I think we've seen some 
action. But on the other----
    Mr. Hamilton. Well, not much.
    Senator Cardin. Are you comfortable that there's a 
reasonable timeframe that would have consequences?
    Mr. Hamilton. Well--no, I'm not comfortable on the 
timeframe. I think these things need to be done urgently. And 
I'm very impatient.
    Senator Cardin. Well, I--let me put it a different way. Are 
you--do you believe that the Iraqis are under the impression--
the current government--of consequences and a timeframe in 
which they have to perform?
    Mr. Hamilton. I do not believe they are sufficiently alert 
to that. Now, I think our administration has talked to them 
about it. I think they've agreed on benchmarks. I think they 
even now have dates. We've put out a lot of the dates in our 
report. They have to achieve certain things by certain dates. 
But these dates have slipped in the past, and they are not 
performing on time, in my judgment about it.
    How do you change that? Well, you change it, I think, by 
putting more leverage on Maliki through conditionality, and 
perhaps some opportunities would arise on the diplomatic track, 
as well. It is not an easy thing to do. But it is key.
    Mr. Baker. Senator Cardin, I think they are much more aware 
of it today, let's say, than they were 4 or 5 months ago. And I 
think that--without doing it publicly, that the President and 
the administration have made it pretty clear to that government 
that we need to see performance on these benchmarks. Now, I 
can't tell you that for a fact, because I wasn't in any of the 
meetings or anything else, but I think--I think they're much 
more focused on it today than they have been in the past.
    Just here, the other day, they arrested 40--as I 
understand, 40 followers of Muqtada al-Sadr. That--they got an 
oil law. They've done a few other things like that, that looked 
like things are finally beginning, maybe, to happen. Time will 
tell. We'll just have to see. But I think the President--and I 
don't know this for a fact, and I don't mean to be suggesting 
that I do know it for a fact, but I'm--I think he had to come 
to you-know-what meeting with the Prime Minister when he last 
met with him--pretty well made it clear that--you know, and 
he--as he said in his speech, the patience of the American 
people is not unending, ``If you don't perform, you're going to 
lose the support of the American people,'' and if you read that 
carefully, I think that means you'll lose the support of the 
administration.
    Senator Cardin. I just want to compliment the bipartisan 
leadership of our committee and Congress, because I think it's 
also helped get the message out. We'll see whether there is 
accountability.
    Thank you, Mr. Chairman.
    Senator Dodd. Thank you, Senator Cardin.
    Senator Lugar.
    Senator Lugar. Thanks very much for coming. I'm going to 
make a comment, and I would like for your reflections on this 
idea.
    Secretary Rice has recently outlined what appears to be a 
shift in emphasis in United States policy toward countering the 
challenges posed by Iran. Under this new approach, the United 
States would apparently organize regional players--Saudi 
Arabia, Jordan, Egypt, Turkey, the Gulf States, and others--
behind a program of containing Iran's disruptive agenda in the 
region. Such a realignment has relevance for stabilizing Iraq 
and bringing security to other areas of conflict, such as 
Lebanon and the Palestinian territories. Moderate states in the 
Middle East are concerned by Iran's aggressiveness and the 
possibility of sectarian conflict beyond Iraq's borders. They 
recognize the United States as indispensable counterweight to 
Iran and a source of stability in the region. The United States 
has the leverage to enlist greater support for our objectives 
inside Iraq and throughout the region.
    Now, quite apart from the military-diplomatic surge in Iraq 
that's been the focus of our attention, we're now seeing the 
outlines of a new United States regional approach, more 
assertive stance by our military toward Iranian interference in 
Iraq, a renewed diplomatic effort on the Israeli-Palestinian 
conflict, substantial U.S. security assistance to Palestinian 
President Abbas, and a United States-led effort to bolster the 
Lebanese Government against Hezbollah.
    In the Washington Post today, I noted that the United 
States should recalibrate our reference points on Iraq. We 
should not see the President's current Iraq plan as an endgame, 
but rather as one element in a larger Middle East struggle that 
is in the early stages.
    The President's Baghdad strategy is still aimed at an 
optimal outcome, the creation of a democratic pluralist society 
that would cooperate with us to achieve regional security. But, 
at this state, that is a goal we're pursuing, but our strategy 
in Iraq must be flexible enough to allow for changing 
circumstances. And even as the President's Baghdad strategy 
proceeds, we need to be preparing for how we will array U.S. 
forces in the region to defend oil assets, target terrorist 
enclaves, deter adventures by Iran, provide a buffer against 
regional sectarian conflict, and generally reassure friendly 
governments the United States is committed to the Middle East 
security.
    Such a redeployment might well involve bases inside Iraq 
that would allow us to continue training Iraqi troops and 
delivering economic assistance, but would not require us to 
interpose American soldiers between Iraqi sectarian factions.
    One of the ironies of the highly contentious debate over 
President Bush's new Iraq plan is that it is focused on the 
strategically narrow issue of what United States troops do in a 
limited number of multiethnic neighborhoods in Baghdad that 
contain only about 7 percent of the Iraqi population, what GEN 
Jack Keane has called the ``key terrain.'' Undoubtedly, what 
happens in those Baghdad neighborhoods is important, but it is 
unlikely that this mission will determine our fate in the 
Middle East. And, remaking Iraq, in and of itself, does not 
constitute a strategic objective. The risk is that we will 
define success and failure in Iraq so rigidly that our Iraq 
policy will become disconnected or even contradictory to 
broader regional goals.
    Do either of you have a comment on that outlook?
    Mr. Baker. I don't think anything that I heard in there, 
Senator--and I don't--you read it fairly quickly, but nothing 
that I heard in there is inconsistent in any way with the call 
we made in the Iraq Study Group Report for a new diplomatic 
offensive and an international Iraqi support group. I think 
it's complementary of it. What we suggest would be 
complementary of those efforts, and vice versa.
    Mr. Hamilton. Senator, I think the diplomatic initiatives 
that you mentioned are all worthy. I guess I'm a little 
impatient. I want to see them proceed more quickly and with a 
greater sense of urgency than I have, thus far, seen.
    But what really interested me about your excellent piece 
this morning in the Post was the so-called plan B. We were 
urged, on occasion, in the Iraq Study Group, to go beyond what 
we recommended and develop a plan B. We rejected that idea, 
because we reasoned that if you're going to make a proposal, 
you ought to advocate it and ought not to immediately begin 
thinking about a second plan. But there is, very clearly, need 
for policymakers, including yourself, to be thinking about a 
plan B. And you call for a redeployment of forces in the region 
to defend the oil and target the terrorist enclaves, deter 
adventurism. We would certainly agree to all of that.
    So, I react positively to your statements here, with the 
caveat, I guess, that full speed ahead is necessary on the 
diplomatic side.
    Mr. Baker. And may I add to that, Senator Lugar, that when 
Lee says ``we were urged to take a look at a plan B,'' I 
suppose I was the primary urger, because I was, and still am, 
interested in the proposal that Senator Biden and Les Gelb put 
forward with respect to the idea that ultimately you may end up 
with three autonomous regions in Iraq, because I was worried 
that there's--that there are indications that that might be 
happening, in fact, on the ground anyway, and, if it is, we 
ought to be prepared to try and manage the situation. So, we 
have a sentence in our report that says, ``If events were to 
move irreversibly in this direction, the United States should 
manage the situation to ameliorate humanitarian consequences, 
contain the violence, and minimize regional stability.'' 
That's, of course, with respect to the Biden-Gelb proposal.
    But, again, let me repeat, there's nothing in your proposal 
that I heard that would be in any way inconsistent with, and 
would, in fact, be complementary of, the new diplomatic 
offensive that we call for in the Iraq Study Group Report.
    Senator Lugar. Well, the reason I shamelessly cite the 
Washington Post editorial I wrote for this morning's paper, and 
repeat it here, is that I hear, both on the Republican and 
Democratic sides, that people are formulating resolutions that 
they might offer next week in our debate. They are using such 
terms as ``last chance.'' In other words, a number of people 
are saying the surge is the last chance, or, second, that there 
have to be rigid benchmarks, or that we've got to tell the 
Iraqis, ``By golly, this is your last chance. Either you pass 
the oil law, you get the devolution of authority or the 
provinces done, or all the rest of it, or,'' the thought is, 
``we're out of there.''
    Now, that is my worry. In other words, if we come into a 
debate in which we--I characterize the situation today in 
football terms--this is like 3rd down and 20, and you call a 
draw play. Well, it turns out you can get 6 yards, and you punt 
on 4th down. It is in the first quarter, and so you are now in 
more favorable territory to try another strategy. What I fear 
we are heading toward, on both sides, is a situation in which 
we say, we are either tired of it, stop the funds, bring home 
the troops, or, maybe some on the Republican side are saying 
this is it, this is the surge, these are the benchmarks. An 
interesting pretense, when, in my judgment, there's not a 
scintilla of hope that the Iraq Government, could fulfill all 
of this. And so, then you--as suggested, I think, by Senator 
Cardin--get some fudging, ``Well, there was progress made,'' 
and we note a little headway here and there, and, once again, 
we're back into the same debate.
    What I would hope is that the diplomatic side, which I 
think Secretary Rice is now beginning to put together, offers 
several years of evolving activities not only focused on Iraq, 
but, likewise, involving the entire Middle East.
    Thank you, Mr.----
    Mr. Baker. You didn't ask this question, Senator, but I--
and I don't mean to speak for my cochairman--I think we're 
going to be there a long, long time, and that's why, in my 
formal remarks, I mentioned the continuing presence--large, 
substantial, robust presence--of the U.S. military in the 
region, in the area.
    Senator Lugar. Thank you.
    Senator Dodd. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Secretary Baker, Chairman Hamilton, this is my first 
opportunity to publicly thank you for the work that you did on 
this Iraq Study Group. It's been enormously valuable to the 
country, for people who have had strong concerns. And everybody 
said all this to you before, but I want you to know that you've 
set an example here for a lot of people, showing that we can 
work across party divides and other divides, and try to come to 
some sort of a solution.
    I want to associate myself with the views that both of you 
expressed with respect to Syria. We tend to focus on Iran, and 
rightly so, but, as you've said, as I've tried to say a number 
of times, Iran and Syria are not natural allies, and it's very 
much in our strategy interest that we should be dealing with 
these two countries rather than causing them to be working 
together largely because they're on the other side of the 
diplomatic fence. I can't say it any more clearly than the two 
of you did. I think it's vitally important that we do that.
    With respect to this discussion now about the surge and, 
quite frankly, how this is going to be used in our debate that 
will be coming up on the floor, I would like to start off, 
first, by saying we had Admiral Fallon at a confirmation 
hearing this morning on the Armed Services Committee, and he 
gave some very nuanced answers, which encouraged me a great 
deal. One of the points that he made was that it's not 
particularly the number of troops that are involved in any of 
these endeavors, it's how they're used. And one of the concerns 
that I have had with where we are right now is that I don't see 
anything that's been proposed over the last month as truly a 
change in strategy, I see it as more an adjustment, a tactical 
adjustment, without changing our national strategy. And, in 
that respect, what we're doing is moving forward on one area 
without having implemented the other key recommendations in 
your Iraq Study Group. There is not a robust diplomatic effort 
that, as Chairman Hamilton has mentioned several times, should 
have begun a month or so ago.
    And so, the down side of that, from people like myself who 
have a concern about how our Army and Marine Corps have been 
used on the ground there, is that we may end up, just through 
momentum, continuing the same practices, which is going to have 
an impact on the force-structure issues in the Army and the 
Marine Corps, on troop rotations and these sorts of things, 
without a change in strategy.
    And, just for the record, I want to say that I voted for 
General Petraeus. I listened to him in the Armed Services 
Committee hearings, and I did not vote on him because I believe 
in his strategy, I voted for him because I believe he is a 
person who is eminently capable of assuming that command. And 
he has told us, in clear terms, that he is going to be candid 
with us about his operational matters as they go forward.
    What I really have a concern on here--and this is a great 
opportunity for me, just sitting, listening--I know it's never 
particularly fun to testify like this, as has been intimated a 
few times, but it's a great opportunity for me to sit and 
listen to your views. And the question I really have is: How do 
we get to the end of this? You know? And that's a substantive 
question that we've been kicking around. But, Secretary Baker, 
you've got as much experience as anyone in the country, in 
terms of dealing with these issues in a procedural way, and I 
know there are a broad range of diplomatic efforts that are 
mentioned in your report, but what would be the best procedural 
format for us to be able to create this international support 
structure that we've been talking about? How do we get there 
from here?
    Mr. Baker. Well, Senator, we--we're fairly specific in the 
diplomatic portion of our report, in laying out the steps we 
think need to be taken. We call for a new diplomatic offensive. 
We call for the creation of an international Iraq support 
group. We call for the convening of various meetings. We 
mentioned the countries we think ought to be in that 
international support group, including all of Iraq's neighbors, 
which, of course, would include Iran and Syria. We go further 
with respect to Syria, because we see that as a distinctly 
different case than Iran, and that it has--it has fundamental 
application with respect to the issue of Arab-Israeli peace. 
So, it's pretty much all laid out there.
    You say: How do we get to the end of this? Let me make--let 
me throw something out here that maybe nobody will stand up and 
salute, and I haven't talked to anybody downtown about this, 
and I don't speak for the administration, and--but, look, 
neither the administration nor the Congress has adopted all of 
the recommendations of our report, or all of the conclusions of 
our report. The administration has--as Lee put it earlier, 
has--and as you've just put it, Senator--has not gone as far, 
diplomatically, as we proposed. The Congress is not in favor--
or at least it looks like there may be a majority of the 
Congress that is opposed to the surge and is preparing to vote 
a resolution of disapproval.
    Back in 1983, when I was Ronald Reagan's Chief of Staff, we 
decided we wanted to try to do something with Social Security, 
if we could. Social Security was the third rail of American 
politics, and still is today, in my view. We concluded we 
weren't going to ever be able to do anything with Social 
Security unless we got the leadership of both parties together. 
And they sat down--I'm talking, now, about--at the level of the 
Senate majority leader and the Speaker of the House and the 
President of the United States--and they sit down, and they 
decide, ``This problem is of such fundamental importance to our 
country that we need to take it out of politics, we need to 
give each other cover in a way that would permit us to deal 
with this and to move forward.''
    And I know the chairman is, I guess, gone to another 
appointment, but I have to tell you, I look at this situation 
today a little bit in those same terms. And we were able, in 
1983, to come up with a--with an agreed solution, a bipartisan 
solution, Republicans and Democrats, that made Social Security 
whole for at least 30 years. And this issue of Iraq is every 
bit as emotional, and certainly every bit as important to the 
country, as what we were dealing with back then.
    So, I guess what I would like to throw out here for people 
to consider is whether or not there couldn't be some sort of a 
grand negotiation between the executive and the legislative 
branches of our Government to come together on a way forward in 
Iraq. There are things that the majority up here on the Hill 
think should be undertaken by the administration that are laid 
out in this report, and there are things that the President, as 
Commander in Chief, and his military advisors, think ought to 
be done; specifically, the surge. Why not get together and 
agree that both sides are going to do some or all of those 
things so we can move forward together on Iraq in a bipartisan 
way? Wouldn't that be better than what we have now?
    Again, that's not something I've even ever discussed with 
my cochairman. He may disagree with me on that. But it ought--
we ought to be able to work across party lines on something as 
important as this. So, how about at least giving it some 
thought? That's, maybe, not really a direct answer to your 
question, Senator.
    Senator Webb. If I may clarify, procedurally, here. I mean, 
this is--and I--by the way, I think that's what you all have 
been doing--you know, that's what your Study Group has been 
doing, is a first step in that direction.
    Procedurally, the United States has lost so much esteem in 
that part of the world as a result of this Iraq endeavor. It 
would be an awkward thing for the United States to step forward 
and say, ``OK, we are going to convene an Iraq Study Group, and 
we want Iran and Syria to the table.'' Procedurally, how do 
we--where do we go to get that issue on the table? It doesn't 
have to be a long answer. I've--it's a question I've had for 
some time.
    Mr. Hamilton. We put the responsibility on the President 
and the Secretary of State. They've got to take the action.
    Senator Webb. Wouldn't you think that the United Nations--
--
    Mr. Hamilton. Well, OK, the----
    Senator Webb [continuing]. Would be----
    Mr. Hamilton [continuing]. They have to launch this effort. 
We were not all that specific as how to launch it, but you are 
dealing with a sovereign country here--Iraq. You are dealing in 
an environment where the United States has lost standing and 
prestige. But, at the same time, there is a recognition that 
nothing is going to happen in that region if the United States 
doesn't lead. So, I think we have to step forward. And we 
recommend a very, very comprehensive effort, multilaterally, 
bilaterally, with the establishment of the support group as a 
principal objective, and involving many, many countries in the 
region and outside the region. We can't tell exactly how that 
would proceed. I'm hoping that's what Secretary Rice was doing 
while she was out there.
    Senator Webb. Well, my time is expired, but--Mr. Chairman, 
just if I can nail this down. From my perspective, this is the 
key issue here, because, on the one hand, we have lost so much 
standing in the region, and, on the other, this administration 
refuses to negotiate with Iran and Syria, and yet, there has to 
be a vehicle in order to bring this forward. And that's the 
concern that I have. And I'll----
    Mr. Baker. Well, Senator Webb, there is--the administration 
has, ongoing, the compact for Iraq, which is essentially a 
collection of the same countries. That was organized, 
procedurally, by Iraq and the United Nations. It was called for 
by Iraq. It contains Iran, it contains Syria. We attend, and 
they attend. And so, something like that. But we did 
specifically, as Lee said, avoid the difficult question of 
exactly how to call this, leaving it up to the President. And 
we didn't have a specific suggestion on that point, but that 
you could do it the way the administration did the compact for 
Iraq.
    Senator Webb. Well, I would hope they would consider doing 
that. I appreciate your testimony.
    Mr. Hamilton. Senator, I'll make one other comment here. 
You folks are headed for some rough patches in your 
relationship with the executive branch. And they probably begin 
next week, if I understand your schedule. My hope is that, as 
you go through this process--and I don't think it'll be an easy 
one for you--resolutions that are nonbinding, a supplemental, 
then the appropriation bills, down the line--you're going to 
have all kinds of amendments and clashes in that process. And, 
maybe it's being a little Pollyannaish, I hope not, but, in 
that process, I hope, at the end of the day, we come to a 
little better unity of effort in this country on Iraq.
    I wouldn't, for a minute, think it'll be unanimous. I think 
the divisions are just too deep. But everybody in this room 
understands the importance of unity of effort in foreign policy 
if you're going to have an effective foreign policy. So, it's 
not an easy process for you, and you're going to have some 
tough debates, and there are going to be some hard edges to it, 
and maybe some bad feelings now and then, but it is the process 
we have to work toward a greater unity of effort.
    Senator Dodd. Let me just say, Jim Baker--before I turn to 
Senator Coleman--the case you cited, the Social Security case--
I remember another case. I remember you walking into my office 
in 1989 and saying to me, ``We're not going to spend all day in 
the White House debating Central America. We're going to sit 
down and figure what has to be done on this. We're going to 
come up with some common answers.'' We went through some 
difficult negotiations back and forth, but, under your 
leadership, we came up with a common plan and a common idea 
that got us out of the daily quagmire of dealing, in Central 
America, with all the other issues we had to grapple with.
    The point I want to make is, I think the United States has 
to lead, but leadership in this country begins at the executive 
branch. Asking 535 Members of Congress with disparate districts 
and constituencies to lead on this issue is--we can play an 
important role--and we will, in a vacuum, otherwise--but the 
real leadership has to come from the President and that office. 
That's what you did, and I'll never forget it. Because you 
said, ``Enough of this stuff, we're going to work together and 
find some answers here.'' That has to start at the White House.
    Mr. Baker. In those days, Senator, you remember very well, 
that the war in Central America was the Holy Grail of the left 
in this country and the Holy Grail----
    Senator Dodd. Right.
    Mr. Baker [continuing]. Of the right in this country. And I 
tell people, even to this day, many years later, that my first 
serious negotiation as Secretary of State was not with a 
foreign power----
    Senator Dodd. No.
    Mr. Baker [continuing]. It was with the Congress of the 
United States. And we got it done.
    Senator Dodd. Got it done.
    Mr. Baker. And I'm--and all I'm saying is, we ought to be 
thinking about something like that here. This--these issues are 
tough, as Lee says, and they're very emotional, as I mentioned 
in my opening comments, but there are some things here that you 
oppose that the President wants, and there are some things here 
that you want that the President opposes, and rather than just 
doing this for a couple of years, why don't we see if there's 
not a way--the country has a huge interest in a successful 
conclusion of this problem.
    Senator Dodd. Well, again----
    Mr. Baker. Why not find out if there's not a way to do it? 
And----
    Senator Dodd. Again, I'll make the point, it was the guy 
who was going through a confirmation process to be Secretary of 
the State, who took the leadership--with the approval and 
support of the President, I might add----
    Mr. Baker. Yes, yes.
    Senator Dodd [continuing]. To get that ball moving. And 
that's missing today, I must tell you, must in candor, in this 
hearing room.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    I would say, first of all, gentlemen, thank you for your 
service. Thank you for your service on this and so many other 
issues. We're certainly very, very appreciative.
    Mr. Congressman--I don't think there is any lack of 
appetite for clashing with the executive in both parties right 
now. I think there is a common understanding that a lot of 
things have gone wrong in Iraq. I think the real challenge is 
not about a willingness to clash with the executive, but I 
would like to share at least two concerns that I have as we 
move forward. The most important one is the impact of our 
actions on the troops on the ground. Things that we do and we 
say have consequences. They are young men and women in harm's 
way. Many of us have visited them on a number of occasions. 
We've been to Walter Reed.
    The second concern I'll share--where perhaps there isn't a 
common ground right now, and maybe we have to get to that 
point--is regarding an understanding of the long-term 
consequences of failure in Iraq. The ISG report itself, on page 
37 as I recall, discusses the consequences of failure. And 
we've had a number of hearings that have discussed the near-
term results associated with a precipitous withdrawal from 
Iraq. The report uses words such as ``precipitate'' and 
``premature.''
    Mr. Hamilton. Yes.
    Senator Coleman. I'm going to ask, in a second, what you 
mean by the terms used in the report. Talk about the 
significant power vacuum, greater human suffering, regional 
destabilization, and the threat to the global economy; talk 
about al-Qaeda declaring our withdrawal as a victory, Iraq 
descending into chaos, and how the long-term consequences could 
eventually require the United States to return.
    And as we've had a number of hearings, I have observed that 
people have different perspectives on the consequences of 
failure. Some folks have said, ``Well, Iraq's a mess.'' They 
say so as if it can't get any worse. My sense is that it could 
get worse if we take the wrong steps.
    Mr. Hamilton. Yes. It clearly is. And we think that the 
emphasis you're making in your second point, on the 
consequences of failure, are terribly important to focus on. We 
want to try to avoid the expansion of Iranian influence in the 
region. We don't want to jeopardize the energy resources. We 
don't want to abandon our Arab friends, the so-called 
moderates. We don't want America to have a strategic defeat in 
the region. We don't want to have the stability of Iraq 
jeopardized. We don't want to see Sunni and Shia clashes across 
the region. We don't want to see chaos in the region. We don't 
want to see terrorism grow, and al-Qaeda. There are a lot of 
very, very important consequences here, that people who favor a 
precipitate withdrawal just, I don't think, have encountered.
    On the first point, incidentally, the impact on U.S. 
troops, you brought us to the right point there, I believe. The 
section in our report about restoring U.S. military is in a 
very important section. It begins on page 76. And we are deeply 
concerned about resetting the American military as a result of 
the drain in Iraq.
    Senator Coleman. And I think the one area on which there is 
a bipartisan vision is on that issue----
    Mr. Hamilton. Yes; I think so, too.
    Senator Coleman [continuing]. And I think----
    Mr. Hamilton. Yes.
    Senator Coleman [continuing]. That's a good thing.
    The other issue where I see a divergence of views--and I'm 
trying to figure out if we can reconcile them--is on the issue 
of the loss of esteem of the United States in connection to its 
actions in Iraq. We tend to reflect mainly upon the loss of 
esteem for the United States that is related to what we 
currently see in Iraq. On the other hand, I look at this issue 
of consequences of failure again. The President has talked 
about this. If we were to withdraw precipitously, if we were to 
leave without finishing the mission, what does that do to the 
esteem of America abroad? Mr. Secretary, you've been in this 
business a long time. What does that do?
    Mr. Baker. It destroys--well, it would destroy our 
credibility, not just in the region, but around the world. And, 
of course, as Lee pointed out, we are strongly against a 
precipitate withdrawal. I mean, we think the consequences, as 
we say, would be severe. I think they would be catastrophic. 
You'd see a regional war in the Middle East.
    Senator Coleman. OK, I'm going to try to tie these 
different perspectives together in the time I have remaining. 
Mr. Secretary, you reflected that we're going to be in Iraq a 
long time.
    Mr. Baker. Yes; we are.
    Senator Coleman. We're going to be there a long time. On 
the other hand, Mr. Congressman, you used the phrase that 
``nothing's going to happen'' in the Middle East, until we 
leave. Can you help me understand the seeming discrepancy 
between these statements? Is there a difference in views 
between the two of you?
    Mr. Baker. I don't think so.
    Senator Coleman. Can you please help me reconcile the idea 
that we're going to be in Iraq a long time with the idea that 
we can't get things moving forward until we leave?
    Mr. Baker. Well, let me explain what I meant when I said 
we're going to be there a long time. In addition to being in 
Kuwait, Bahrain, and Qatar to protect our interests in the 
region, we're going to have a fairly large residual presence in 
Iraq itself, as our report says. We don't spell out the 
numbers. They're going to be significant. We talk about leaving 
special operations forces. We talk about leaving rapid-reaction 
forces to go after al-Qaeda and for other missions that the 
commander on the ground thinks is important, particularly with 
respect to the war on terror. And we talk about force 
protection units that would be left there.
    So, when I say we're going to have a presence for a long 
time in the region, we're going to have a presence in Iraq, for 
those purposes, and in the region, in my opinion, for a long 
time.
    Mr. Hamilton. I'd simply emphasize, Senator, in response, 
that I just don't think things will happen in that region 
unless the United States leaves.
    Senator Coleman. Does your use of the term ``leave'' have a 
different sense than the way the Secretary has used it?
    Mr. Hamilton. Well, he's talking about a military presence 
in Iraq, but also a military presence in the region. We're 
going to have a large military presence in that region for a 
very, very long time to come. I agree with that part of it. 
Will we have a large military presence in Iraq? I don't know. 
But I can certainly see, if you're going to be embedding 
troops, if you're going to be training troops, if you're going 
to be going after al-Qaeda, if you're going to be protecting 
the United States troops who are embedded with the Iraqi 
troops, you're going to have to have substantial American 
combat power in Iraq for a period of time. I don't know how 
long that is, but it's an extended period of time. But in the 
region itself, there has to be--will be for a long, long time 
to come--substantial American military and diplomatic and 
political presence.
    Senator Coleman. If I can, I'd like to ask two other 
questions.
    One question is that some of us see a qualitative 
difference between the battle that's being waged, in, let's 
say, the Anbar province--against al-Qaeda, against the foreign 
fighters, against the insurgents--and what we've seen in 
Baghdad, where there is a sectarian battle going on between the 
Sunni extremists and the Shia extremists--and I was there about 
a month ago. And the concern I have is, at this point, putting 
Americans in the center of the sectarian battle in Baghdad 
before the Iraqis have met the benchmarks that you've talked 
about, and that some of us here in Congress have talked about.
    Did you at all, either in the Study Group Report or through 
your own reflections, see that kind of distinction between the 
type of violence that is seen in places like Anbar versus that 
which is seen in Baghdad?
    Mr. Baker. We did see that difference, when we were there. 
I think it's valid. I think there is a difference.
    Mr. Hamilton. Yes; I agree with Jim on it. We did not make 
any recommendation with regard to Anbar province. We did, as 
Jim has pointed out, with regard to Baghdad, but we did not 
make it with regard to Anbar.
    Senator Coleman. Senator Nelson----
    Mr. Baker. But the difference in function of our troops is 
something we recognized.
    Mr. Hamilton. Oh, yes. Al-Qaeda has much more of a presence 
there.
    Mr. Baker. That's right. And sectarian violence in Baghdad.
    Senator Coleman. Very last question, then. Mr. Secretary, 
you talked about your experience in addressing the Social 
Security issue and about resolving things here with the 
Congress, and the chairman talked about leadership. But, on 
this issue, it's the American public that clearly does not have 
any sense of confidence of where we're at in Iraq. The American 
public has clearly lost the appetite for the long-term 
commitment in Iraq, of whatever level, particularly if we 
continue to suffer loss of life. How do you get the American 
public to understand the consequences of failure?
    Mr. Baker. If you have----
    Senator Coleman. How do we do that?
    Mr. Baker [continuing]. If you have a truly bipartisan 
policy, and you have the executive branch and the legislative 
branch pulling together on the same oar, I dare say you're 
going to see the numbers on the public perception change.
    Senator Dodd. Officer.
    Senator Coleman. Thank you, Mr. Chairman.
    [Pause.]
    Senator Dodd. Senator Coleman.
    Senator Coleman. I think my time is up, Mr. Chairman.
    Thank you very much.
    Senator Coleman. Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    I'm the last questioner, and I know that's good news to 
both of you. And I'll stay within my time.
    I want to focus and try to direct your attention to a very 
important aspect of what you've already testified to. And, of 
course, before doing that, I want to thank you for your 
contribution, your public service already, prior to this work, 
your ongoing scholarship and work that has gone into this, and 
the questions you've been asked and the way you've dealt with 
them. We're in your debt for that. And I'm certainly grateful, 
as a first-year Senator.
    I want to direct your attention at the training aspect of 
what you testified to today. And I think both of you, in one 
way or another, said that training is the primary mission, or 
must be the primary mission. And I think we've heard about 
training for a long time now--many, many years, since 2003, 
when this engagement started. And we've heard it over and over 
again, how important it is. I appreciate the fact that you 
highlighted it today as the primary mission. I think, 
Congressman Hamilton, you not only have it in the report, but 
you've enunciated it as the foundation of how we get American 
sons and daughters home from Iraq.
    Here's the question. What, in your judgment, based upon 
what you know up to this moment, the work that went into the 
Iraq Study Group conclusions, all of the testimony you've 
heard, everything you've read--based upon all of that, what do 
you think is the problem with this mission of training of these 
Iraqi security forces? What's the----
    Mr. Hamilton. I think the problem, Senator, is, we just 
haven't given it enough priority. And--or, to put it another 
way--and I don't mean to disparage anyone here, but we have not 
put our best people into training. If you look at it in terms 
of a career path in the military, that's not the way you get to 
be a general. That mindset has to change. And we have to 
understand, in this situation we're confronted with in Iraq, 
that we have to put our very best people in there to train 
these forces. So, it's a question of resources. It's also a 
question of priorities.
    Now, I want to repeat what I said earlier. I think we 
didn't do a very good job of this for about 3 years because of 
that. And I really do think there's been improvement in the 
training of the Iraqi Army--I have a lot of doubt, still, about 
the police--but the training of the Iraqi Army is better. And 
we are saying that the military priorities in Iraq must change. 
That's one of the recommendations. They must change. And we 
have to give highest priority to this effort.
    Senator Casey. So that those who are training have elevated 
status. Is that what you mean? In other words, they're 
recognized as important as any other----
    Mr. Hamilton. The Iraqi----
    Senator Casey [continuing]. Military----
    Mr. Hamilton. I'm no expert on all the incentives that can 
be offered. Maybe it's financial. But I think, more important 
even than the financial, is status and a career path for 
promotion within the services, because these people all are 
ambitious, and we encourage that.
    Mr. Baker. Senator Casey, the President's plan calls for 
doubling the number of troops we have embedded with Iraqi 
forces and engaged in training, as I understand it. And the 
President himself said that training is the essential mission 
of our forces. And I think it was Steve Hadley's op-ed piece 
yesterday in which he said that training and supporting Iraqi 
troops will remain our military's essential and primary 
mission.
    So, at least--I mean, there's not a lot of daylight between 
what we call for in this report and where the President--where 
the President's plan is, assuming that those comments are true. 
And I, for one, take them at their word.
    Senator Casey. Well, I appreciate that highlight of his 
plan. But, I'll tell you, in your report, very early in your 
report, first of all, you talk about the Iraqi Army, and said 
the police are a lot worse. But when you're----
    Mr. Baker. They are.
    Senator Casey [continuing]. Talking about the army, you're 
saying they lack leadership, equipment, personnel, logistics, 
and support.
    Mr. Baker. Yes; well, that's what Lee said, that we--that 
we did a bad job for a number of years.
    Senator Casey. Well, it's been going on for several years, 
and I'm glad you pointed it out, but when you--here's my 
problem. All right? I come from a State--we lost 140 lives 
already. You know that. I mean, we're third on the death toll. 
Hundreds and hundreds of kids have lost their lives there. And 
we've been hearing about this for years now. And it should 
never have taken the administration all these years--and it, 
frankly, should not have taken your report for them to get the 
message about training. They've had this problem for years. 
People have had it up to here. Their patience is gone, 
virtually, on this, because of the sacrifices they've made.
    And then, you pick up the New York Times, last week--and 
this is a predicate of the whole escalation--you pick up the 
New York Times, and they talk about the main mission, they call 
it a miniature version of what the troops will be doing in the 
so-called surge, ``As the sun rose, many of the Iraqi Army 
units, who were supposed to do the actual searches of the 
buildings, did not arrive on time, forcing the Americans to 
start to doing the job on their own. When the Iraqi units 
finally did show up, it was the air of a class outing, cheering 
and laughing as the Americans blew locks off the doors with 
shotguns. An American soldier is shot in the head.'' And then, 
it goes on later, ``Many of the Iraqi units that showed up late 
never seemed to take the task seriously. At one point, Iraqis 
completely disappeared, leaving the American units working with 
them flabbergasted.'' It goes on and on and on.
    So, my question is--and you've done the hard work already. 
I just wish the President would read and internalize and act 
upon what you have already found is a major problem. But he 
doesn't seem to want to do that. And so, you pick up the paper, 
and you read that, and families out there, who--every one of 
those families who lost someone in Iraq, I think, today would 
stand up and say, ``We support this mission. We support this 
President.'' Most of them would say that. But they have the 
right to expect that, when American sons and daughters are 
going into those dangerous neighborhoods, that some of what you 
have pointed out becomes a real priority. I have seen no 
evidence of that. And the whole escalation is based upon the 
fact that these Iraqi Army units and soldiers are going to be 
up to a certain level to take the lead. And there's no evidence 
that I can see that that is happening. It's more commentary 
than question, but there doesn't seem to be any evidence, in 
your report and in recent reporting right on the ground in real 
time, that this thing is getting any better when it comes to 
training. And I leave that for----
    Mr. Hamilton. Senator----
    Senator Casey [continuing]. For comment.
    Mr. Hamilton. Well, one thing, in the Iraq Study Group we 
did not look back----
    Senator Dodd. Please.
    [Pause.]
    Senator Dodd. The hearing will come to order.
    Congressman.
    Mr. Hamilton. We did not look back, and we did not 
criticize mistakes that have been made. That was one point. But 
the second point you make, I personally agree with. In other 
words, I see some positive movement in Steve Hadley's statement 
here, where he says that training and supporting will remain 
our military's essential and primary mission. I do not yet see 
enough action to support that. And I am concerned about it. I 
am pleased that Mr. Hadley has recognized training as a primary 
mission. The President did not mention that as a primary 
mission in the State of the Union Address, he did not use the 
word ``primary'' in his comments in his speech on Iraq. But the 
National Security Advisor's statement is encouraging. I hope 
the President repeats it. And I hope that we are now in a 
position to really put the highest priority on training. Now, 
one of the risks of a surge is that you lose emphasis and 
priority on the training mission. You've got to keep them both, 
I guess.
    Senator Casey. Mr. Secretary.
    Mr. Baker. I would agree with that. I--well, but let me 
just say, I take the President at his word when he said, in 
that speech, that this will be ``the essential mission.'' I 
don't see the difference between if it's ``the essential'' and 
``primary.'' He didn't say ``one essential mission,'' he didn't 
say ``an essential mission,'' he said training will be ``the 
essential mission.'' That means, to me, that it'll be the 
primary mission. He didn't use the word ``primary.'' Lee's 
right about that. But Steve Hadley has.
    Senator Casey. I think that's progress. Let me make one 
more point. Not enough progress, but they're moving in the 
right direction. But they've got a long way to go.
    I was heartened by--and I want to commend you, not only for 
your report and your testimony today, but this statement on 
January 11, which I didn't focus on at the time. I'm glad you 
included it. What you talked about here with regard to what the 
President had said, in respect to his policy, you say the 
following, in the third paragraph--you say--and I quote from 
the January 11 statement--``The President did not suggest the 
possibility of a transition that could enable U.S. combat 
forces to begin to leave Iraq.'' That's No. 1. ``The President 
did not state that political, military, or economic support for 
Iraq would be conditional on the Iraqi Government's ability to 
meet benchmarks.'' No. 2 thing; he didn't say. And third, you 
say, ``Within the region, the President did not announce an 
international support group for Iraq,'' and it goes on from 
there.
    And I appreciate the fact that you carefully examined what 
he said, and highlighted that, because I think that kind of 
accountability, or oversight, in a sense, has been missing for 
the last couple of years.
    Thank you very much.
    Senator Dodd. Thank you, Senator Casey.
    I just have a couple of quick points.
    I was impressed, in the report, on page 39, the--paragraph 
4, the devolution into three regions, which the commission, or 
the committee, the group, was pretty firm, in pretty good 
language, I thought--and a position I share with you--about 
trying to keep this country together, not--the idea of 
spreading it up into three loose federated states--may end up 
there, but it should be our position to do what's possible to 
keep this country together.
    I was disturbed to hear, the other day, that there was 
apparently a secret meeting of the Turkish Parliament, debating 
whether or not to send Turkish troops into northern Iraq--on 
the border with northern Iraq. One of the points you raise in 
concern--why this ought to concern all of us--Secretary Baker, 
I--in talking about the proposal has been made by some, to 
actually have this become a part of policy. I'll be curious as 
to whether or not you're in any way retreating from the 
recommendations here in the report, in light of--that was 
December, this is almost February. Are there events now that 
would cause you to feel less certain about that conclusion?
    Mr. Baker. No.
    Senator Dodd. OK.
    Mr. Baker. We stand by the report, and particularly that 
conclusion. I mentioned, earlier, Senator Dodd, the sentence on 
that page 39 that says, ``If events were to move irreversibly 
in this direction, we ought to jump in there and manage it.''
    Senator Dodd. And it----
    Mr. Baker. But, no, we still feel that there's serious 
questions about that approach, having to do with such things 
as: Where do you draw the boundaries between Sunni areas and 
Shia areas? What do you do about the major cities? Wouldn't 
this encourage regional players to come in to begin to protect 
their interests more so than they're even doing today, if they 
thought there were going to be three semiautonomous regions, or 
three autonomous regions?
    Senator Dodd. So, your concerns expressed then are the same 
today. In fact----
    Mr. Baker. Same today as they were----
    Senator Dodd. Do you agree with that, Lee?
    Mr. Baker. Yes.
    Mr. Hamilton. I do agree with it. I think our concerns 
about that devolution plan is that it goes against a unified 
Iraq----
    Senator Dodd. I agree with that.
    Mr. Hamilton [continuing]. Fundamentally. And then, for the 
other reasons we state in the report.
    Senator Dodd. Let me ask you two other quick questions, if 
I can.
    One is on--and I'm picking up with Jim Webb's questions 
here in the--I think Dick Lugar raised the--in his points, 
too--we've talked a lot about Syria and Iran, and I think many 
of us here agree with the points that have been raised by the--
both of you this afternoon, as well as the comments made by our 
colleagues here about how we ought to approach those two. But 
you point out, as well, that there's almost as much of an 
emphasis on the so-called moderate Arab States. Answer, if you 
can, the question--I've been surprised there hasn't been at 
least more of an expression of concern from the moderate Arab 
States about events in Iraq and the growing concerns of Iranian 
influence. And there are a lot of ways of doing this. I realize 
they're not societies that have a lot of forums such as we're 
having here today, but this has gone on now for 4 years, where 
they have some very immediate threats. I know there are things 
going on quietly, but I'm a little mystified as to why there 
has not been a more outspoken support for the efforts to 
achieve some success in Iraq and bring about some stability, 
given the immediately implications to many of these countries, 
if this situation continues to crater, as it is. We, obviously, 
are concerned about it, for all the reasons you've outlined. 
But if I were sitting in Riyadh or sitting in a Amman, Jordan, 
or Cairo or Beirut, I'd be a lot more concerned, in the shorter 
term, about my conditions and what's apt to happen here as a 
result of what goes on. Why aren't we hearing more from these 
countries? Why doesn't there seem to be more of a willingness 
to participate in some solution here, despite the outcry from 
you and others about being involved in a political-diplomatic 
solution here?
    Mr. Hamilton. Well, first of all, we share your concern. I 
think one of the things that has marked the response of these 
regimes is passivity, in all respects. They haven't helped us 
on the money side, with resources, and they haven't been very 
helpful diplomatically. They've done some training, they've 
done some things that are mildly helpful, but they haven't 
really been engaged on it.
    I'm not sure I know the answer to your question, except I 
think they're still waiting to see how this thing comes out.
    Senator Dodd. Well, doesn't it--I mean, that's kind of a--
``wait til you see how it comes out.''
    Mr. Hamilton. They're hanging back. There is a strong 
feeling in the region there that America is losing and that 
Iran may emerge as the winner.
    Senator Dodd. I've also heard the concern----
    Mr. Hamilton. If that's the case----
    Senator Dodd [continuing]. Expressed there that----
    Mr. Hamilton [continuing]. That's a very different 
environment. Now, I'm----
    Senator Dodd [continuing]. I'm going to be----
    Mr. Hamilton. Let me be----
    Senator Dodd [continuing]. One head of state----
    Mr. Hamilton [continuing]. Clear here, I'm speculating. I 
don't know this.
    Senator Dodd. One head of state said to me--and I'm going 
back about 4 or 5 months ago, when I was there--said, ``My 
great concern is that the United States is going to cut its own 
deal with Iran at our expense.''
    Mr. Hamilton. Yes. Yes.
    Mr. Baker. There is concern about that. There is concern 
about that on the part of these countries. I mentioned--if 
you'll look on page 44, Senator, we mention the efforts under--
with the ``Gulf-plus-Two''----
    Senator Dodd. Yes.
    Mr. Baker [continuing]. That the Secretary of State is--has 
been engaged in. These are very beneficial, in my opinion. We 
indicated in our report that it didn't--maybe it didn't go as 
far as it should, in terms of creating an Iraq international 
support group. But nothing but positive, I don't think, can 
come from those efforts. So, it's a good thing to be doing, but 
that maybe that it would be good to fold those into a broader 
effort.
    Senator Dodd. Uh-huh.
    Mr. Baker. Same with the compact for Iraq. These countries 
do participate in the compact for Iraq.
    Senator Dodd. Uh-huh.
    Mr. Baker. The countries you're talking about, the Gulf-
plus-Two.
    Senator Dodd. Last, at some point, you might want to 
expound on this further. And, Secretary Baker, you've had years 
of experience dealing very directly with some of these folks as 
to why there isn't a more aggressive approach on being active 
in the diplomatic front.
    One of the problems I hear all the time from people--and it 
sort of underscores the point that my colleague from 
Pennsylvania has raised here this afternoon. I don't know how 
accurate, again, polling data is in these matters. I'm not sure 
how you do a good poll in a place like Iraq today, given the 
circumstances. The number we hear bandied around quite a bit 
is: Something in the neighborhood of 60 percent of the Iraqi 
people are hostile to the notion of us even being there. One 
number has 61 percent suggesting that they were not opposed to 
attacks on American forces in Iraq. It's a pretty difficult 
deal to explain to anyone why you're here sending your sons and 
daughters to this situation, when a majority--not an 
insignificant majority of these people, if these numbers are 
even remotely close--are hostile to the very presence of the 
people who are there for the purposes of providing them a 
better opportunity. How do you make a case when people here--
    Could I please just finish the thought here? Thank you.
    [Pause.]
    Senator Dodd. My point being, here, is it's one thing about 
the polling data here--and there's, obviously, numbers that 
think we ought to be removing troops--but the polling data in 
Iraq suggesting that they're opposed and hostile to use being 
there makes it very difficult for us to sustain the kind of 
support in this country and elsewhere, if, in fact, people are 
cheering when American soldiers are being shot at, wounded, or 
killed. I don't know how we sustain a policy with that kind of 
activity going on in a country where we talk about giving them 
some hope for the future.
    Mr. Baker. Very true. I can't quarrel with the conclusion. 
It makes it very difficult. That doesn't mean we ought not to 
try. We have a lot at stake. We've talked here today about the 
consequences of failure. And they're severe. Catastrophic, in 
my view.
    Senator Dodd. Lee, any final point on that?
    Mr. Hamilton. Well, the perceptions that we have of what 
we're trying to do, and the perceptions they have of what we're 
trying to do, are just miles and miles apart. And bridging 
those perceptions will just be exceedingly difficult to do, 
but, you know, these people today are living a miserable life. 
And anybody who visits Baghdad gets a sense of the hopelessness 
of life there for these people. And when you're in that 
circumstance, you blame somebody. And we happen to be the 
foreign power that's present, and I guess a lot of them blame 
us.
    Senator Dodd. Well, I thank you both. We've kept you a 
little longer than we promised, and I apologize to that.
    Do any of my colleagues have any final comments?
    We've kept you beyond 3 o'clock. Again, I think all of us 
have deep appreciation for the amount of effort you've put into 
your staffs--they were here, as well, should be recognized, and 
other members of the group. So, we thank you immensely for your 
effort.
    Senator Dodd. Thank you for your presence, and this 
committee will stand adjourned until further call of the Chair.
    [Whereupon, at 3:43 p.m., the hearing was adjourned.]
                              ----------                              


             Additional Statement Submitted for the Record


 Prepared Statement of Hon. Richard G. Lugar, U.S. Senator From Indiana

    I thank Senator Biden for holding this hearing, and I welcome two 
good friends to the committee. It is a privilege to have the benefit of 
their long experience and the impressive study that went into their 
report.
    This hearing is timely because the Iraq Study Group Report 
represents the only comprehensive policy prescription for Iraq 
undertaken by a bipartisan group of experienced decisionmakers under 
time pressure. The process that led to its conclusions, therefore, 
bears some resemblance to the task before the President and Congress. 
For this reason, as well as the insight of the group's members, the 
report is especially relevant to our own decisionmaking process.
    Although the report offered many recommendations, it underscored 
that there are no foolproof options in Iraq. It stated: ``During the 
past 9 months, we have considered a full range of approaches for moving 
forward. All have flaws.'' Our experience on this committee during the 
last 3 weeks of hearings has been similar. We are seeking the best 
course, while knowing that we are choosing from among imperfect 
options.
    A key point that requires much greater clarification is how 
expanded, continued, or reduced U.S. military presence can be used to 
stimulate Iraqi political reconciliation. There is wide, though not 
unanimous, agreement that our military presence in Iraq represents 
leverage either because it can be expanded or because it can be 
withdrawn. But there is little clarity on how to translate this 
leverage into action by the Iraqi Government. Many commentators talk of 
``creating space'' for the Iraqi Government to establish itself, but it 
is far from clar that the government can or will take advantage of such 
space.
    Thus, as the administration increases troops, it becomes even more 
imperative to develop a backup plan and aggressively seek a framework 
for a political solution. It is not enough to set benchmarks to measure 
the progress of the Iraqi Government. If the Iraqi Government has 
different timetables and objectives than us, such benchmarks will not 
be met in a way that transforms the politics of the nation.
    If we undertake the tremendous investment that sending more 
American soldiers to Iraq represents, it should be in support of a 
clear strategy for achieving a negotiated reconciliation. We should not 
depend on theories or hopes that something good may happen if we dampen 
violence in Baghdad.
    The Iraq Study Group has been one of the most definitive advocates 
for a broader regional dialog accompanying our efforts inside Iraq. We 
need frank policy discussions in this country about our vital interests 
in the region. The difficulties we have had in Iraq make a strong 
presence in the Middle East more imperative, not less. Our nation must 
understand that if and when withdrawal or redeployment from Iraq 
occurs, it will not mean that our interests in the Middle East have 
diminished. In fact, it may mean that we will need to bolster our 
military, diplomatic, and economic presence elsewhere in the Middle 
East.
    I have urged the Bush administration to be aggressive and creative 
in pursuing a regional dialog that is not limited to our friends. If we 
lack the flexibility to communicate with unfriendly regimes, we 
increase the chances of miscalculations, undercut our ability to take 
advantage of any favorable situations, and potentially limit the 
regional leverage with which we can confront Iran and Syria.
    Again, I welcome our distinguished guests and look forward to a 
thoughtful hearing.


                     IRAQ IN THE STRATEGIC CONTEXT,
                               SESSION 1

                              ----------                              


                      WEDNESDAY, JANUARY 31, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Joseph R. Biden, 
Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Kerry, Feingold, Boxer, Bill 
Nelson, Obama, Menendez, Casey, Lugar, Coleman, Corker, 
Voinovich, Murkowski, and Isakson.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will please come to order.
    This morning, we are privileged to have with us former 
Secretary of State, Dr. Henry Kissinger, whose name is 
synonymous with effective diplomacy, effective American 
diplomacy, and, I think few would argue with the fact, one of 
the best strategic minds in the country.
    Before we begin, I'd like to take a moment to present some 
of the key findings, in my view, that we've found in the last 4 
weeks, where there is consensus. While no unanimous 
prescription has emerged thus far from our hearings, there is 
remarkably broad consensus, in my view, on three points. First, 
our troops can't stop the sectarian warfare in Iraq, only a 
political settlement can do that. Second, we should be engaging 
in intensive regional diplomacy to support such a settlement 
among the Iraqis. And third, the United States military should 
focus on combating terrorist--i.e., jihadists and al-Qaeda; 
keeping Iraq's neighbors honest, and training Iraqis, not 
policing a civil war. Indeed, combat troops should start to 
redeploy, and redeploy soon.
    Since a political settlement is so critical, we've examined 
some of the likely components. We've discussed the benchmarks 
the President has proposed--the oil law, de-Baathification 
reform, constitutional reform, and provincial elections. But 
the divisions are so deep and the passions are so high within 
Iraq that I believe that we are well past the point of 
implementing such modest measures in order to make a meaningful 
difference in stabilizing Iraq. I believe some bolder moves are 
necessary.
    A colleague of our witness and our next witness, the former 
Secretary of State Madeleine Albright, Les Gelb, put forward 
such a proposal with me 9 months ago. It is premised on our 
conviction that the heart of the administration's strategy--
building a strong central government--cannot succeed. There is 
not enough trust within the government, no trust of the 
government by the people, and no capacity of the present 
government to deliver services and security. Instead, we must 
bring Iraqis' problems and the responsibilities for managing 
them, in our view, down to the local and regional level, where 
it can help the Iraqis build trust and capacity more quickly 
and more efficiently.
    We have proposed that Iraqis create three or more regions, 
consistent with what their Constitution calls for, and we call 
for oil to be shared equitably, with a guaranteed share going 
to the Sunnis enshrined in their Constitution. We also call for 
aggressive diplomacy and the creation of a contact group 
consisting of Iraqis' neighbors--Iraq's neighbors and the other 
major powers necessary for a political settlement, not unlike 
we did, I might add, when we went into Afghanistan.
    We believe that we can redeploy most, if not all, of our 
troops in Iraq within 18 months under this plan, leaving behind 
a small force in the region to strike at terrorists and keep 
the neighbors honest while training Iraqis. I believe this plan 
is more relevant than ever. It takes into account the harsh 
realities of self-sustaining sectarian violence. I believe it's 
consistent--I know it's consistent with the Iraqi Constitution. 
And it can help produce, I hope, a soft landing for Iraq and 
prevent a full-blown civil war that tears the country apart and 
spreads beyond the region.
    I found it interesting that one of the leading columnists 
in the New York Times, David Brooks, referred to it as ``soft 
partition.'' I never thought of it. His words, not mine.
    It may be too late for our plan, or any other plan, to 
work, I have to acknowledge. Iraqis may be too blinded by their 
sectarian hatred and revenge to see their own self-interest. 
And if that's the case, then we need to consider, more rapidly, 
how we disengage and contain the war within Iraq. And that will 
not be easy. But we have--we don't have the luxury--we don't 
have the luxury, as you've heard the chairman and others say, 
of walking away. Confining the violence to Iraq and preventing 
a regional war, proxies or otherwise, is going to require an 
awful lot of heavy lifting if we don't get it right inside 
Iraq.
    I hope that you will share with us what you think we need 
to be doing now to put in place such a strategy, if you agree 
that that may come to pass, Mr. Secretary--and I'm not 
suggesting you do--if all our efforts within Iraq fail. One of 
the things I've noticed in my long years of having an 
opportunity to learn from you is, we should always have 
alternative plans. Whether they're announced or not, we should 
always be prepared to deal with the possibility that the 
present strategy may not work. And I am absolutely convinced 
that the present strategy of this administration is not going 
to work.
    So, I'm eager to hear your testimony, Mr. Secretary. Again, 
I know you had to go way out of your way to be here. You're 
kind to do this. You will find a receptive and friendly 
audience here. We're anxious to hear what you have to say. And 
I now yield to my colleague, Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, I thank Chairman Biden for holding 
this hearing. I welcome our distinguished former Secretaries of 
State.
    The United States has vital and enduring interests in the 
Middle East, including preventing terrorism and proliferation, 
protecting the free flow of oil and commerce, ensuring the 
security of our friends and our allies. Our intervention in 
Iraq has dramatically changed the geopolitical landscape of the 
Middle East, with unpredictable consequences. Today, we'll 
explore our strategic options for advancing our interests in 
this evolving region.
    Secretary Rice has recently outlined what appears to be a 
shift in emphasis in United States policy toward countering the 
challenges posed by Iran. Under this new approach, the United 
States would organize regional players--Saudi Arabia, Jordan, 
Egypt, Turkey, the Gulf States, and others--behind a program of 
containing Iran's disruptive agenda in the region.
    Such a realignment has relevance for stabilizing Iraq and 
bringing security to other areas of conflict in the region, 
such as Lebanon and the Palestinian territories. Moderate 
states in the Middle East are concerned by Iran's 
aggressiveness and by the possibility of sectarian conflict 
beyond Iraq's borders. They recognize the United States is an 
indispensable counterweight to Iran and a source of stability 
in the region. The United States has leverage to enlist greater 
support for our objectives inside Iraq and throughout the 
Middle East.
    Quite apart from the military-diplomatic ``surge'' in Iraq 
that has been the focus of so much attention, we are now seeing 
the outlines of a new, United States regional approach: A more 
assertive stance by our military toward Iranian interference in 
Iraq, a renewed diplomatic effort on the Israeli-Palestinian 
conflict, substantial United States security assistance to 
Palestinian President Abbas, and a United States-led effort to 
bolster the Lebanese Government against Hezbollah.
    Writing in the Washington Post yesterday, I noted that the 
United States should recalibrate our reference points on Iraq. 
We should not see the President's current Iraq plan as an 
endgame, but rather as one element in a larger Middle East 
struggle that is in early stages. The President's Baghdad 
strategy is still aimed at an optimal outcome: The creation of 
a democratic pluralist society that will cooperate with us in 
achieving regional stability. At this stage, that is a goal 
worth pursuing, but our strategy in Iraq must be flexible 
enough to allow for changing circumstances.
    Even as the President's Baghdad strategy proceeds, we need 
to be preparing for how we will array United States forces in 
the region to defend oil assets, target terrorist enclaves, 
deter adventurism by Iran, provide a buffer against regional 
sectarian conflict, and generally reassure friendly governments 
that the United States is committed to Middle East security. 
Such a redeployment might well involve bases inside Iraq that 
would allow us to continue training Iraqi troops and delivering 
economic assistance, but would not require us to interpose 
American soldiers between Iraqi sectarian factions.
    One of the ironies of the highly contentious debate over 
President Bush's new Iraq plan is that it's focused on the 
strategically narrow issue of what United States troops do in a 
limited number of multiethnic neighborhoods in Baghdad that 
contain only about 7 percent of the Iraqi population, what 
General Jack Keane has called the ``key terrain.'' Undoubtedly, 
what happens in those Baghdad neighborhoods is important, but 
it's unlikely that this mission will determine our fate in the 
Middle East. Remaking Iraq, in and of itself, does not 
constitute a strategic objective. The risk is that we will 
define success and failure in Iraq so rigidly that our Iraq 
policy will become disconnected, or even contradictory, to 
broader regional goals.
    It is important that the Congress and the public fully 
understand any strategic shift in our policy. The President 
should be reaching out to the Congress in an effort to 
construct a consensus on how we will protect our broader 
strategic interests, regardless of what happens in Baghdad 
during the next several months.
    The worst outcome would be a wholesale exit from vital 
areas and missions in the Middle East precipitated by United 
States domestic political conflict and, simply, fatigue over an 
unsustainable Iraq policy.
    We look forward, Dr. Kissinger, to your thoughts on these 
questions, your advice and counsel on the best way forward for 
the United States in this important part of the world.
    I thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Secretary----
    Senator Kerry. Mr. Chairman, if I could just have 1 minute, 
I'd appreciate it.
    The Chairman. Just 1 minute, Senator, or we'll have 
everybody else----
    Senator Kerry. Oh, no, no, no, I just wanted to make my 
excuses to the Secretary----
    The Chairman. Oh----
    Senator Kerry [continuing]. Because I have----
    The Chairman [continuing]. Please.
    Senator Kerry [continuing]. To go chair another hearing, 
and I wanted to apologize for not being able to be here to 
listen to your testimony. I'm going to take it with me, read 
it. I hope to get back before the end of it, but I just wanted 
to welcome you here and thank you for taking time to be with 
us, and we really look forward to the advice and counsel you'll 
give us.
    Thank you.
    The Chairman. Thank you, Senator, that's----
    Dr. Kissinger. Thank you.
    The Chairman [continuing]. That is necessary. And I--in a 
moment, Mr. Secretary, I will--I'll wait until your testimony 
is finished. Senator Hagel is not here, because he's attending 
the funeral of a young lieutenant who was recently killed in 
Iraq, whom he appointed to the Academy, and whose younger 
brother is at the Academy. But I want to honor the young man, I 
want his name in the record. It is Army First Lieutenant Jacob 
Fritz of Verdon, Nebraska, Senator Lugar wanted me to express 
his apologies as to why he is not here.
    Please proceed, Mr. Secretary.

   STATEMENT OF HON. HENRY A. KISSINGER, FORMER SECRETARY OF 
  STATE; CHAIRMAN, KISSINGER McLARTY ASSOCIATES, NEW YORK, NY

    Dr. Kissinger. Mr. Chairman, I have submitted an article I 
wrote a week ago in lieu of a statement. But I will make a few 
extemporaneous remarks to begin this discussion.
    The fundamental issue in the region is not the tactical 
issue that we--that's received so much of attention--namely, 
the specific deployments inside Baghdad; the fundamental issue 
is the one that has been identified by you and by Senator Lugar 
about the long-term role of the United States in the region and 
the basic challenges that it faces.
    The United States has been involved in military actions in 
the region now since the 1950s--in Lebanon in 1958; in the 
alert over Jordan in 1970; an alert over the Middle East war, 
or the conclusion of the Middle East war, in 1973; over the 
evacuation of Lebanon in 1975; in the--with a military force in 
Lebanon in the 1980s; military action over Iraq and Kuwait in 
1991; in several air attacks on Iraq in the late 1990s; and 
then again in the war in which we face. This must reflect the 
judgment of a succession of Presidents of the vital importance 
of Middle East--the Middle East, and of stability in the Middle 
East, to the United States.
    Now, the current situation in the Middle East has some 
features that are relatively unique. Most of the crises that I 
described earlier were between states and arose out of the 
conflict of states or out of the Palestinian issue. The current 
crisis arises out of the fact that the state, which we take for 
granted as the organization of international affairs, is 
weakening all over the region, because in most countries it is 
a product of the post-World War I period that was introduced 
into the area by Western nations. And, in many countries, it is 
not tied to the nation as it is in Europe, the United States, 
and many other parts of the world. The borders were 
artificially drawn. And, indeed, this is one of the dilemmas of 
Iraq, that Iraq was created out of three provinces of the 
Ottoman Empire in order to provide a strategic buffer between 
French and British zones that, themselves, were artificially 
created. So, the disintegration of that system is one of the 
factors of the region.
    One of the attributes of such a disintegration is that 
ideologies trump traditional loyalties, and so that the Islamic 
religion, and the radical aspect of the Islamic religion, is--
goes across borders. One result is the existence--on the 
territory of what we consider sovereign states and what 
international law has considered sovereign states--of units 
that have the character of states but are not really states, 
like the Hezbollah, like the Hamas, like the Mahdi Army in 
Baghdad, organizations that, on the one hand, participate in 
the government, but, on the other, are tied to loyalties that 
go beyond the national borders, and whose outcome is--cannot be 
defined by national interests as it has been, heretofore, 
conceived. So, we are dealing with an upheaval that goes across 
the whole region.
    And, given the fact that much of it receives its impetus 
from the Islamic religion and from the attempt to restore the 
significance of the Islamic methods, the impact of what occurs 
in that region will be not confined to the region, it will go 
from Indonesia, which is a Muslim--which is the largest Muslim 
state, to Malaysia, to India, which has--it's the second 
largest Muslim state, even though its 160 million Muslims are a 
minority, to the suburbs of Paris, where there are large 
Islamic populations. So, this is what is at stake in that 
region and in terms of which the impact must be considered.
    Now, the United States has been attempting, for 50 years, 
to contribute to stability and progress and peace in the region 
by leading negotiations, by intervening militarily. And it's in 
this context, Mr. Chairman, that I look at what we are now 
facing in Iraq.
    Major mistakes have been made. We have reached a very 
difficult situation, because we have not found it easy to bring 
the--some traditional American premises in line with cultural 
and regional realities. But I will confine myself to where we 
are--where we are today.
    In Iraq, we face a number of only partially connected 
problems. We face the impact of neighbors from across the 
border: Iran, with respect to the Shia south; Turkey, 
indirectly, with respect to the Kurdish north; Syria, with 
respect to the Sunni west; and others that have an interest, 
partly because Iraq is also the tipping point for a Shia-Sunni 
confrontation that is taking its most acute form precisely on 
the territory of Iraq.
    Second, we have the insurrection of the Sunni population 
against the shift in power from its traditional dominance to a 
democratic principle of majority rule, which empowers the 
Shiites and the--and, to some extent, the Kurds.
    Third, we have the al-Qaeda influence that--it's a cross-
border assault, but--not on a national basis, but on an 
ideological basis. And then, we have the Shia-Sunni conflict. 
And they're all merging together in a sort of amorphous 
explosion of violence. The American interest is in preventing 
the radical Islamic element from achieving a domination that 
will then infect the other regions that I have already 
discussed. The--America has no interest in the outcome of a 
Sunni-Shia rivalry, as long as it is not achieved by ethnic 
cleansing and genocidal practices.
    So, I would say that if we are talking about long-range 
strategy, we should move into a position from which our forces 
can intervene against the threats to the regional security that 
I have identified and becomes a lesser and lesser element in 
the purely Shia-Sunni struggle.
    The only--the principal relevance of the current debate 
about Baghdad is the judgment whether suppressing the militias 
in Baghdad can make a contribution to this process. And this is 
where opinions divide. I lean toward the fact that they--that 
it is something that should be attempted.
    There will be two possible outcomes: That it succeeds, in 
which case, the government could pursue preferred policies of 
reconciliation, if it is able to, and we concentrate in the 
strategic issues that I have mentioned before. If it fails, our 
strategic mission will still be the same, except we will then 
have to take care to separate ourselves from the sectarian 
civil war that will emerge.
    Now, all this needs to be conducted within the framework of 
a diplomacy that permits other nations to participate 
increasingly in the political future of the region. And I 
would--I have to define my perception of diplomacy, which is 
not always identical with others.
    I very often hear the statement that something should be 
left to a political solution rather than a military solution. 
In my view, diplomacy is an amalgam of penalties and rewards, 
and it cannot be segmented into a political phase, into a 
military phase. But, by the same token, the military actions--
just as the political actions require some understanding of the 
military element, so the military element has to be geared to a 
possible political outcome.
    There has been much discussion about whether to negotiate 
with Iran and Syria. I would separate those two countries. The 
Iranian issue is--the Syrian concern is primarily one of 
national interest. Its primary concern is Lebanon and the 
Golan, and its influence in Iraq is relatively marginal. The 
Iranian problem is one that will beset us for many 
administrations, because it is not only the strongest country 
in the region, but it is also, at this precise moment, 
developing nuclear weapons, in defiance of the Security Council 
plus Germany. And if one--if an outcome emerges in which Iran 
has nuclear weapons and a vacuum in front of it in Iraq, that 
would be a potentially disastrous outcome for the peace in the 
region.
    I have always had the view that the issue of whether one 
should negotiate is--should not be a central issue. We should 
always be prepared to negotiate. The fundamental issue is what 
to negotiate about and what the purpose of the negotiation 
should be. I see little incentive Iran has to help us solve the 
Iraqi problem unless it occurs in a constellation in which 
there can also--in which they cannot achieve their maximum 
objective by themselves. And, therefore, a diplomacy has to 
include, as Senator Lugar pointed out, a creation of a group of 
states that have their own interest in preventing Iranian 
domination. And, to make the matter more complex, all of this 
has to be in the context of a willingness to talk to Iran.
    Now--but that has to take into--but that has to be based, 
in my opinion, on the following theme. I don't think Iran will 
help us in Iraq, as such. And, therefore, we cannot avoid 
creating conditions in Iran that make it unattractive for them. 
But the challenge that Iraqi leaders will have--Iranian leaders 
will have to face at some point is this: We have no quarrel 
with Iran as a nation. We can respect Iran as a major player in 
the region with a significant role in the region. What we 
cannot accept is an Iran that seeks to dominate the region on 
the basis of a religious ideology and using the Shia base in 
other countries to undermine stability in a region on which the 
economic well-being of such a large part of the world depends.
    Under the previous Iranian Government, the United States 
had excellent relations with Iran. And they were not tied to 
the personality of the ruler, but to the importance of the 
country. So, the question before our diplomacy and before the 
Iranian diplomacy is: Can we define objectives that bring peace 
and progress to the region? And that gets me to my final point.
    If all of what I've said is correct, or most of it is 
correct, then the United States must be present in the region 
for a foreseeable future. It cannot be ended in one 
administration, because even total withdrawal will have 
consequences that the next administration will have to live 
with.
    This is--so, the key question is: What kind of a presence, 
in what manner, and for what outcome, in Iraq? And it's in this 
spirit, Mr. Chairman, that I've taken the liberty of stating 
some semiphilosophical points, in anticipation of your 
questions.
    Thank you very much.
    [The prepared statement of Dr. Kissinger follows:]

Prepared Statement of Hon. Henry Kissinger, Former Secretary of State; 
          Chairman, Kissinger McLarty Associates, New York, NY

         [From the International Herald Tribune, Jan. 18, 2007]

                      Withdrawal Is Not An Option

                        (By Henry A. Kissinger)

    President Bush's bold decision to order a ``surge'' of some 20,000 
American troops for Iraq has brought the debate over the war to a 
defining stage. There will not be an opportunity for another 
reassessment.
    The Baker-Hamilton commission powerfully described the impasse on 
the ground. It is the result of cumulative choices--some enumerated by 
the President--in which worthy objectives and fundamental American 
values clashed with regional and cultural realities.
    The important goal of modernizing U.S. Armed Forces led to 
inadequate troop levels for the military occupation of Iraq. The 
reliance on early elections as the key to political evolution, in a 
country lacking a sense of national identity, caused the newly 
enfranchised to vote almost exclusively for sectarian parties, 
deepening historic divisions into chasms. The understandable--but, in 
retrospect, premature--strategy of replacing American troops with 
indigenous forces deflected U.S. forces from a military mission, and it 
could not deal with the most flagrant shortcoming of Iraqi forces, 
which is to define what the Iraqi forces are supposed to fight for and 
under what banner.
    These circumstances have merged into an almost perfect storm of 
mutually reinforcing crises: Within Iraq, the sectarian militias are 
engaged in civil war or something so close to it as to make little 
practical difference. The conflict between Shiites and Sunnis goes back 
1,400 years. In most Middle Eastern countries, Shiite minorities 
coexist precariously with Sunni majorities. The civil war in Iraq 
threatens to usher in a cycle of domestic upheavals and a war between 
Shiite and Sunni states, with a high potential of drawing in countries 
from outside the region. In addition, Iraqi Kurds seek full autonomy 
from Sunnis and Shiites; their independence would raise the prospect of 
intervention from Turkey and Iran.
    The war in Iraq is part of another war that cuts across the Shiite-
Sunni issue: The assault on the international order conducted by 
radical groups in both Islamic sects. Functioning as states within 
states and by brutal demonstrations of the inability of established 
governments to protect their populations, such organizations as 
Hezbollah in Lebanon, the Mahdi Army in Iraq, and the al-Qaeda groups 
all over the Middle East seek to reassert an Islamic identity 
submerged, in their view, by Western values. Any enhancement of radical 
Islamist self-confidence, therefore, threatens all the traditional 
states of the region, as well as others with significant Islamic 
populations, from Indonesia through India to Western Europe. The most 
important target is the United States, as the most powerful Western 
country and the indispensable component of any attempt to build a new 
world order.
    The disenchantment of the American public with the burdens it has 
borne largely alone for nearly 4 years has generated growing demands 
for some type of unilateral withdrawal, usually expressed as benchmarks 
to be put to the Baghdad government that, if not fulfilled in specific 
timeframes, would trigger American disengagement.
    But under present conditions, withdrawal is not an option. American 
forces are indispensable. They are in Iraq not as a favor to its 
government or as a reward for its conduct. They are there as an 
expression of the American national interest to prevent the Iranian 
combination of imperialism and fundamentalist ideology from dominating 
a region on which the energy supplies of the industrial democracies 
depend. An abrupt American departure would greatly complicate efforts 
to stem the terrorist tide far beyond Iraq; fragile governments from 
Lebanon to the Persian Gulf would be tempted into preemptive 
concessions. It might drive the sectarian conflict in Iraq to genocidal 
dimensions beyond levels that impelled U.S. intervention in the 
Balkans. Graduated withdrawal would not ease these dangers until a 
different strategy was in place and showed progress. For now, it would 
be treated within Iraq and in the region as the forerunner of a total 
withdrawal, and all parties would make their dispositions on that 
basis.
    President Bush's decision should, therefore, not be debated in 
terms of the ``stay the course'' strategy he has repeatedly disavowed 
in recent days. Rather, it should be seen as the first step toward a 
new grand strategy relating power to diplomacy for the entire region, 
ideally on a nonpartisan basis.
    The purpose of the new strategy should be to demonstrate that the 
United States is determined to remain relevant to the outcome in the 
region; to adjust American military deployments and numbers to emerging 
realities; and to provide the maneuvering room for a major diplomatic 
effort to stabilize the Middle East.
    Of the current security threats in Iraq--the intervention of 
outside countries, the presence of al-Qaeda fighters, an 
extraordinarily large criminal element, the sectarian conflict--the 
United States has a national interest in defeating the first two; it 
must not involve itself in the sectarian conflict for any extended 
period, much less let itself be used by one side for its sectarian 
goals.
    The sectarian conflict confines the Iraqi Government's unchallenged 
writ to the sector of Baghdad defined as the Green Zone. In many areas 
the militias exceed the strength of the Iraqi national army. Appeals to 
the Iraqi Government to undertake reconciliation and economic reforms 
are not implemented, partly because the will to do so is absent but 
essentially because it lacks the power to put such policies in place, 
even if the will to do so could suddenly be mobilized. If the influence 
of the militias could be eliminated--or greatly reduced--the Baghdad 
government would have a better opportunity to pursue a national policy.
    The new strategy has begun with attempts to clear the 
insurrectional Sunni parts of Baghdad. But it must not turn into ethnic 
cleansing or the emergence of another tyrannical state, only with a 
different sectarian allegiance. Side by side with disarming the Sunni 
militias and death squads, the Baghdad government must show comparable 
willingness to disarm Shiite militias and death squads. American policy 
should not deviate from the goal of a civil state whose political 
process is available to all citizens.
    As the comprehensive strategy evolves, a repositioning of American 
forces from the cities into enclaves should be undertaken so that they 
can separate themselves from the civil war and concentrate on the 
threats to international security described above. The principal 
mission would be to protect the borders against infiltration and to 
prevent the establishment of terrorist training areas or Taliban-type 
control over significant regions. At that point, too, significant 
reductions of U.S. forces should be possible. Such a strategy would 
make withdrawals depend on conditions on the ground instead of the 
other way around. It could also provide the time to elaborate a 
cooperative diplomacy for rebuilding the region, including progress 
toward a settlement of the Palestine issue.
    For such a strategy, it is not possible to jettison the military 
instrument and rely, as some argue, on purely political means. A free-
standing diplomacy is an ancient American illusion. History offers few 
examples of it. The attempt to separate diplomacy and power results in 
power-lacking direction and diplomacy being deprived of incentives.
    Diplomacy is the attempt to persuade another party to pursue a 
course compatible with a society's strategic interests. Obviously this 
involves the ability to create a calculus that impels or rewards the 
desired direction. The outcome, by definition, is rarely the ability to 
impose one's will but a compromise that gives each party a stake in 
maintaining it.
    Few diplomatic challenges are as complex as that surrounding Iraq.
    Diplomacy must mediate between Iraqi sects that, though in many 
respects mortal enemies, are assembled in a common governmental 
structure. It needs to relate that process to an international concept 
involving Iraq's neighbors and other countries that have a significant 
interest in the outcome.
    Two levels of diplomatic effort are necessary:

  <bullet> A contact group should be created, assembling neighboring 
        countries whose interests are directly affected and which rely 
        on American support. This group should include Turkey, Saudi 
        Arabia, Egypt, and Jordan. Its function should be to advise on 
        ending the internal conflict and to create a united front 
        against outside domination.
  <bullet> Parallel negotiations should be conducted with Syria and 
        Iran, which now appear as adversaries, to give them an 
        opportunity to participate in a peaceful regional order. Both 
        categories of consultations should lead to an international 
        conference including all countries that have to play a 
        stabilizing role in the outcome, specifically the permanent 
        members of the U.N. Security Council as well as such countries 
        as Indonesia, India, and Pakistan.

    Too much of the current discussion focuses on the procedural aspect 
of starting a dialogue with adversaries. In fact, a balance of risks 
and opportunities needs to be created so that Iran is obliged to choose 
between a significant but not dominant role or riding the crest of 
Shiite fundamentalism. In the latter case, it must pay a serious, not 
rhetorical, price for choosing the militant option. An outcome in which 
Iran is approaching nuclear status because of hesitant and timid 
nonproliferation policies in the Security Council, coupled with a 
political vacuum in the region, must lead to catastrophic consequences.
    Similar principles apply to the prospects for settlement in 
Palestine.
    Moderates in Israel and the neighboring Arab countries are evolving 
compromises unimaginable a decade ago. But if the necessary outcomes 
are perceived as the result of panic by moderates and an exit from the 
region by the United States, radicals could raise unfulfillable demands 
and turn the peace process against the moderates.
    In all this, the United States cannot indefinitely bear alone the 
burden for both the military outcome and the political structure. At 
some point, Iraq has to be restored to the international community, and 
other countries must be prepared to share responsibilities for regional 
peace. Some of America's allies and other countries seek to escape the 
upheavals around them by disassociating from the United States. But 
just as it is impossible for America to deal with these trends 
unilaterally, sooner or later a common effort to rebuild the 
international order will be imposed on all the potential targets. The 
time has come for an effort to define the shoals within which diplomacy 
is obliged to navigate and to anchor any outcome in some broader 
understanding that accommodates the interests of the affected parties.
                                 ______
                                 

               [From the Washington Post, Nov. 24, 2006]

                   Deal With Tehran, Not Its Crusade

                        (By Henry A. Kissinger)

    Iran's nuclear program and considerable resources enable it to 
strive for strategic dominance in its region. With the impetus of a 
radical Shiite ideology and the symbolism of defiance of the U.N. 
Security Council's resolution, Iran challenges the established order in 
the Middle East and perhaps wherever Islamic populations face dominant, 
non-Islamic majorities.
    The appeal for diplomacy to overcome these dangers has so far 
proved futile. The negotiating forum the world has put in place for the 
nuclear issue is heading for a deadlock. Divisions among the 
negotiating partners inhibit a clear sense of direction.
    The five permanent members of the Security Council plus Germany--
known as the ``Six''--have submitted a package of incentives to get 
Tehran to end enrichment of uranium as a key step toward putting an end 
to the weapons program. They have threatened sanctions if their 
proposal is rejected. Iran has insisted on its ``right'' to proceed 
with enrichment, triggering an allied debate about the nature of the 
sanctions to which the Six have committed themselves. Even the minimal 
sanctions proposed by Europe's ``E3'' (Britain, France, and Germany) 
have been rejected by Russia.
    Reluctant to negotiate directly with a member of the ``axis of 
evil,'' the United States has not participated in the negotiations. But 
recently Secretary of State, Condoleezza Rice, has announced a reversal 
of policy. The United States--and she herself--will participate in the 
nuclear talks, provided Iran suspends its enrichment program while 
discussions take place.
    Tehran, however, has so far shown no interest in negotiating with 
the United States, either in the multilateral forum or separately. This 
is because Iran sees no compelling national interest in giving up its 
claim to nuclear power status, and strong domestic political reasons to 
persist. Pursuing the nuclear weapons program is a way of appealing to 
national pride, and it shores up otherwise shaky domestic support. The 
proposed incentives, even if they were believed, would increase Iran's 
dependence on the international system that Iran's current leaders 
reject.
    The European negotiators accept the importance of preventing the 
spread of nuclear weapons. But they govern societies increasingly loath 
to make immediate sacrifices for the sake of the future--witness the 
difficulty of passing legislation on domestic reform. Europe's leaders 
know that their publics wouldn't support military action against Iran 
and would probably prove very shaky in a prolonged political crisis 
over sanctions.
    America's European allies have decided to opt for minimum sanctions 
because they hope that the mere fact of united action by the Six will 
give Iran's leaders pause. The conviction expressed by some European 
diplomats that Iran will not wish to be a pariah nation indefinitely, 
and will, therefore, come to an agreement, is probably wishful 
thinking. As this becomes apparent, the European allies will probably 
move reluctantly toward escalation of sanctions, up to a point where 
Iran undertakes a confrontational response. Then they will have to 
choose between the immediate crisis and the permanent crisis of letting 
the Iranian nuclear program run free.
    The dilemma is inherent in any gradual escalation. If initial steps 
are minimal, they are presumably endurable (and are indeed chosen for 
that reason). The adversary may be tempted to wait for the next 
increment. Thus gradualism may, in the end, promote escalation and make 
inevitable the very decision being evaded.
    Russia's position is more complex. Probably no country--not even 
the United States--fears an Iranian nuclear capability more than 
Russia, whose large Islamic population lies just north of the Iranian 
border. No country is more exposed to the seepage of Iranian nuclear 
capabilities into terrorist hands or to the jihadist ideological wave 
that the Iranian President, Mahmoud Ahmadinejad, encourages. For that 
reason, Russia does not want to unleash Iranian hostility on itself 
without a prospect of probable success.
    In addition, Russian attitudes toward the United States have 
undergone a significant change. There is a lessened commitment to 
strategic partnership. Suspicion has grown on both sides. The United 
States fears that Russia is striving to rebuild its imperial influence 
in what Russia calls the ``near-abroad''; Russia believes that America 
is seeking to pressure the Kremlin to change its domestic policies and 
to reduce Russia's international influence.
    Because of its conviction that Iran will be a formidable adversary 
and its low assessment of the American effort in Iraq, the Kremlin 
doubts that the United States has the staying power for a prolonged 
confrontation with Iran and chooses to avoid manning barricades on 
which it might be left alone. In consequence, Moscow has shifted its 
emphasis toward Europe and, on Iran, shares Europe's hesitation. The 
difference is that if matters reach a final crunch, Russia is more 
likely to take a stand, especially when an Iranian nuclear capability 
begins to look inevitable and even more so when it emerges as imminent.
    The nuclear negotiations with Iran are moving toward an 
inconclusive outcome. The Six eventually will have to choose either 
effective sanctions or the consequences of an Iranian military nuclear 
capability and the world of proliferation that implies. Military action 
by the United States is extremely improbable in the final 2 years of a 
presidency facing a hostile Congress--though it may be taken more 
seriously in Tehran. Tehran surely cannot ignore the possibility of a 
unilateral Israeli strike if all negotiation options close.
    More likely, the nuclear issue will be absorbed into a more 
comprehensive negotiation based on geopolitical factors. It is 
important, however, to be clear as to what this increasingly 
fashionable term implies. The argument has become widespread that Iran 
(and Syria) should be drawn into a negotiating process in the hope of 
bringing about a change of their attitudes, as happened, for example, 
in the opening to China a generation ago. This, it is said, would 
facilitate a retreat by the United States to more strategically 
sustainable positions.
    A diplomacy that excludes adversaries is a contradiction in terms. 
But the argument on behalf of negotiating focuses too often on the 
opening of talks rather than on their substance. The fact of talks is 
assumed to represent a psychological breakthrough. However, the relief 
supplied by a change of atmosphere is bound to be temporary. 
Diplomacy--especially with an adversary--can succeed only if it brings 
about a balance of interests. Failing that, it runs the risk of turning 
into an alibi for procrastination or a palliative to ease the process 
of defeat without, however, eliminating the consequences of defeat.
    The opening to China was facilitated by Soviet military pressures 
on China's northern borders; rapprochement between the United States 
and China implemented an existing common interest in preventing Soviet 
hegemony. Similarly, the shuttle diplomacy in the Middle East made 
progress because it was built on a preexisting equilibrium that neither 
side was able to alter unilaterally.
    To the extent that talk becomes its own objective, there will 
emerge forums without progress and incentives for stonewalling. If, at 
the end of such a diplomacy, stands an Iranian nuclear capability and a 
political vacuum being filled by Iran, the impact on order in the 
Middle East will be catastrophic.
    Understanding the way Tehran views the world is crucial in 
assessing the prospects of a dialogue. The school of thought 
represented by President Ahmadinejad may well perceive Iranian 
prospects as more promising than they have been in centuries. Iraq has 
collapsed as a counterweight; within Iraq, Shiite forces are led by men 
who were trained in Tehran and spent decades there. Democratic 
institutions in Iraq favor dominance by the majority Shiite groups. In 
Lebanon, Hezbollah, trained and guided by Iran, is the strongest 
military force.
    In the face of this looming Shiite belt and its appeal to the 
Shiite population in northeast Saudi Arabia and along the Persian Gulf, 
attitudes in the Sunni states--Egypt, Jordan, Saudi Arabia--and the 
Gulf States range from unease to incipient panic. This may explain 
Ahmadinejad's insolent behavior during his visit to New York. His theme 
seemed to be: ``Don't talk to me about your world order, whose rules we 
did not participate in making and which we disdain. From now on, jihad 
will define the rules or at least participate in shaping them.''
    These attitudes will not be changed simply for the opportunity of 
talking to the United States. The self-confident Iranian leaders may 
facilitate a local American retreat but, in their present mood, only 
for the purpose of turning it into a long-term rout. The argument that 
Iran has an interest in negotiating over Iraq to avoid chaos along its 
borders is valid only as long as the United States retains a capacity 
to help control the chaos. There are only two incentives for Iran to 
negotiate: The emergence of a regional structure that makes imperialist 
policies unattractive and the concern that, if matters are pushed too 
far, America might yet strike out.
    So long as Iran views itself as a crusade rather than a nation, a 
common interest will not emerge from negotiations. To evoke a more 
balanced view should be an important goal for U.S. diplomacy. Iran may 
come to understand sooner or later that, for the foreseeable future, it 
is a relatively poor developing country in no position to challenge all 
the industrialized nations. But such an evolution presupposes the 
development of a precise and concrete strategic and negotiating program 
by the United States and its associates.
    With the Sunni states of the region terrified by the Shiite wave, 
negotiation between Iran and the United States could generate a 
stampede toward preemptive concessions, unless preceded, or at least 
accompanied, by a significant effort to rally those states to a policy 
of equilibrium. In such a policy, Iran must find a respected, but not 
dominant, place. A restarted Palestinian peace process should play a 
significant role in that design, which presupposes close cooperation 
among the United States, Europe, and the moderate Arab States. What 
must not happen is to trade relief from geopolitical pressures for 
acquiescence in an Iranian military nuclear program. That would 
mortgage the future, not only for the region but for the entire global 
order.
    Iran needs to be encouraged to act as a nation, not a cause. It has 
no incentive to appear as a deus ex machina to enable America to escape 
its embarrassments, unless the United States retains an ability to fill 
the vacuum or at least be a factor in filling it. America will need to 
reposition its strategic deployments, but if such actions are viewed as 
the prelude to an exit from the region, a collapse of existing 
structures is probable.
    A purposeful and creative diplomacy toward Iran is important for 
building a more promising region--but only if Iran does not, in the 
process, come to believe that it is able to shape the future on its own 
or if the potential building blocks of a new order disintegrate while 
America sorts out its purposes.

    The Chairman. Mr. Secretary, thank you very much. Quite 
frankly, that's the very reason why we wanted you and Secretary 
Albright and two former National Security Advisors to close 
this first, initial set of hearings.
    Mr. Secretary, I had the opportunity to speak to you in 
private over the last couple of months, and you've always been 
available to all of us, I know, for your counsel. And it seems 
to me that the case you make is a fairly compelling philosophic 
case, as well as a reality check of what's happened on the 
ground. You have, essentially, a nontraditional state, where 
ideology is the dominant competing unifying element within it--
that is, it's causing it to split the country, as well. You 
point out that, in Iraq, the impact of the neighbors, the Sunni 
insurrection they're dealing with, their lack of dominance, the 
al-Qaeda, ideologically driven nonstate actors; and the Shia 
difficulty in coming to grips with their now being in the 
ascendancy. And you said these all merge together, and the 
greatest concern is, they create an explosion that could result 
in radical domination, a radical notion dominating the region, 
and it's then spreading.
    What that adds up to, to me--and I don't disagree with what 
you've said, and I also don't disagree that there is a need 
that there--military force is necessary, but not sufficient, to 
solve this, and we're going to have to be in the region a long 
time. That leads me--if I understood you correctly--to this 
question. A number of witnesses have testified that in 
nontraditional states that are infected by this ideology and 
this competition, one of two things works. You either have a 
strongman or a dominant power, an imperial power, dominating, 
or you have federation, where, in order to keep these--this 
country intact, although it was an artificial construct, you 
have to give breathing room to those elements that you've 
outlined--Sunni, Shia, et cetera--to prevent the very 
explosion.
    So, why is it--why does it not make sense, consistent with 
our military presence, to be accommodating what history seems 
to dictate, as well as what their Constitution calls for, and 
that is allowing more local control over the physical security 
and safety of their ideologically defined and/or tribally 
defined areas, while, at the same time, promoting a central 
government that has broad responsibilities, instead of 
insisting on a strong central government, which seems to me to 
be, to use a slang expression, like pushing a rope right now?
    Dr. Kissinger. I'm sympathetic to an outcome that permits 
large regional autonomy. In fact, I think it is very likely 
that this will emerge out of the conflict that we are now 
witnessing. Now, the conventional wisdom of many experts in the 
region is that we must not be perceived as bringing that about, 
because doing so would have--would inflame the Shia community 
and enhance Iranian influence, and also because of the danger 
of Turkish intervention in the Kurdish area. And I think that's 
an opinion we should take seriously.
    I neglected to mention one thought I have, which--actually, 
I think it's fairly central; I got carried away, I didn't get 
to it--which is this: Somewhere along this process in which 
we're now engaged, there is the need for an international 
conference on Iraq, because Iraq has to be reintegrated into 
the international system, and because other nations have to be 
brought into assuming the responsibility for the political 
future of the region. It may be premature at this moment, but 
in the process that we foresee over, say, the rest of this 
year, there should be some such concept. And, in my view, that 
should include the neighbors, the Security Council, and 
countries like Indonesia, India, possibly Pakistan. And that 
would be a rather large and unwieldy body that could then form 
subgroups for certain regional issues.
    But the importance is that only in such a framework can you 
really deal with the issue of autonomy, because you have then 
to create a wider legitimacy for what is emerging and against 
intervention from outside countries.
    The Chairman. I would argue it's the only thing that will 
lead the bordering countries to conclude that intervention is 
not in their interest. But I fully agree with you.
    I have a minute left of my time, but I will yield to my 
friend, Senator Lugar.
    I thank you very much, Mr. Secretary.
    Senator Lugar. Well, thank you much, Mr. Chairman.
    Secretary Kissinger, I appreciate your opening comments 
about the importance of the region, the continuity, in a way, 
of American foreign policy, and its interest in the area over a 
long period of time, and now your suggestion that there be an 
international conference, is something, in my judgment, that 
would strengthen Secretary Rice's attempts to make certain that 
other countries know of our continuing interest in the area and 
might be prepared, under various circumstances, to work with 
us. For the moment, out of fear of Iranian domination of Iraq, 
but, more importantly, because there are conflicting interests 
among the group, and we have been a stabilizer.
    With regard to the current situation in Iraq, what are the 
possibilities for the Iraqi Parliament, or its government, as 
constituted now, to reach an oil agreement that, in essence 
parses out the revenues and the development rights? And, 
secondarily, what are the possibilities for autonomous regions; 
for that idea to proceed, there may be some agreement among 
Shiite to come together; likewise, the Kurds, who have moved 
out strongly to set up their region, will there be an 
acceptance then by the Sunnis? Is that predicated on their 
sharing the oil wealth? I ask those two questions, because very 
frequently, as Senators and Members of the House discuss this 
problem, they talk about so-called benchmarks for Prime 
Minister, Mr. Maliki, or his government. The suggestion is that 
they need to get on with this rather swiftly, that the United 
States is losing patience in their inability to come together, 
to get a quorum in the Parliament, for example, and to act. But 
as a practical political matter, what is your prediction on the 
potential for their making these solutions? And, even if they 
make them, how does that fit into the overall testimony you 
have given about Iraq being reintegrated with the rest of the 
countries in the region?
    Dr. Kissinger. The difficulty of the democratic process in 
multiethnic societies is that the democratic process is 
predicated on the possibility of a minority becoming a 
majority; and, therefore, the minority can accept the decisions 
of the majority, in the hope of reversing it later on. The 
essence of multiethnic societies is that minorities are 
permanent and that, therefore, the democratic process, to the 
minority, appears like a--like just another form of domination. 
Therefore, it is, first, difficult to come to an agreement; 
and, second, difficult to implement the agreement, even if it 
should be made, because the Parliament does not have the same 
legitimate quality in the whole country that the American 
Congress or British Parliament have in our country or in 
Britain. That is the inherent problem.
    Usually, civil wars are ended with the victory of one side 
or the other, or with exhaustion. I know no civil war that has 
been ended--well, I may be wrong--by a--it's, in any rate, very 
rare, or it takes a dominating figure like Mandela in South 
Africa, who rises to spiritual heights.
    I'm not very optimistic, even if this is achieved in Iraq 
as a parliament. It's a worthy goal. We are right to support 
it. It would be the best outcome, if it could be achieved. 
But--there may be a thousand years of history against it, but 
it has to be our objective.
    Senator Lugar. You are somewhat pessimistic about this 
outcome. What I fear in the current argument some of us are 
having is that some would say if this is not achieved, if 
certain benchmarks are not arrived at by the current 
government, then this is the last chance; we're out of there. 
This is one reason why I appreciate so much your statement this 
morning. And I've made an opening comment which indicates that 
we are--we cannot be in a situation in which we say we're out 
of there. Rather, we are talking about 50 years of history in 
which we have been in there. Maybe not in Baghdad, in nine 
police districts, but in the region where we could be effective 
in terms of American security and American interest.
    In talking about the war against terrorism, it's very 
important to be effective and to be working with these other 
nations who, otherwise, might have some terrorist tendencies of 
their own or be subverted by such persons. So, I think we're on 
the same page, but I just take advantage of your testimony to 
make these comments and to ask for your comment.
    Dr. Kissinger. I believe very strongly that we cannot 
withdraw from the region, and we should not conduct a debate 
with the expectation of a total withdrawal of American forces 
from the region. We can discuss, and should discuss, the 
deployment of our forces in such a way that it can serve the 
strategic objectives that we have discussed earlier, or other 
strategic objectives that might be defined.
    And with respect to the Government in Iraq, I think one 
should distinguish two aspects. Is it as efficient as it can be 
within its capabilities? Probably not. But will its 
capabilities ever be up to, in the foreseeable future, for what 
we would consider adequate, by American standards? Also 
probably not, because it is, after all, a collection of 
ministers. The Prime Minister doesn't have a militia of his 
own. Others have access to militias. So, it's a balance of 
forces without the authority that we associate with government. 
And, therefore, one has to have some understanding for what it 
is possible to do.
    But, to sum up my answer, I do not believe we should set 
benchmarks, the penalty for which is our withdrawal. There may 
be other penalties, but withdrawal should not be one of them.
    Senator Lugar. Thank you.
    The Chairman. The committee will stand in recess until the 
police please remove the demonstrator.
    [Recess.]
    The Chairman. The committee will come back to order.
    I'd just like to ask one point of clarification in taking 
advantage of the minute I didn't use. Do you make a distinction 
between the region and Iraq, Mr. Secretary? Can you picture the 
circumstance where we may have to have most of our troops out 
of Iraq, but still in the region? Or do you make that 
distinction?
    Dr. Kissinger. I would have difficulty defining exactly 
where in the region they could be in substantial numbers, 
especially if we withdraw from Iraq in a way that is considered 
a major withdrawal. But I would put this in relation to time. 
There's certainly no magic number of American forces that must 
be in Iraq forever or for a long period. We should be flexible 
about this.
    The Chairman. Almost every plan that's been put forward 
contemplates some American forces being left in Iraq, in a 
totally different--with a totally different mission. But I 
thank you.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, very much.
    And, Dr. Kissinger, it's always good to hear your views.
    I want to, sort of, follow on what both Senator Lugar and 
the chairman were getting at, this question of not so much 
whether we withdraw from the region--I certainly agree with you 
that we cannot disengage from the region--but what about 
redeployment from Iraq? Leaving aside the question of whether 
it's a good idea, whether--when it should begin or end, maybe 
you can help us with, what are some of the key diplomatic steps 
in the region that we have to do to ensure that Iraq's 
neighbors are sufficiently engaged to deal with Iraq's 
challenges, and how can we best prepare that aspect of whatever 
kind of withdrawal we will ultimately engage in?
    Dr. Kissinger. Of course, an important step would be if the 
militias in Iraq could be eliminated or sharply reduced, 
because they constrict the ability of the government to take 
actions that we have identified with government. Second, the 
development of a national Iraqi Army that can deal with some of 
the problems that I have described, like cross-border 
incursions, acts by al-Qaeda. Third, the development of--we 
have, up to now, carried the political responsibility for the 
future of Iraq, entirely by ourselves. I believe the time has 
come to engage the international community, to some degree, and 
to an increasing degree, in the political future of Iraq, 
without raising the question of what participation they might 
have in military actions.
    And, therefore, I believe that a diplomacy should start, 
and probably it's been started, to begin consultation on the 
manner in which this--it can be brought about in such a 
framework.
    Of course, significant American forces can be withdrawn. 
What we should avoid is a redeployment of a nature that creates 
the perception that America separates itself from the region 
and from its interests that we have defined here. And so, the 
staging of these measures is of great importance.
    Senator Feingold. I understand the answer with regard to 
the international community, as a whole. What I was especially 
interested in is Iraq's neighbors. How do we engage Jordan, 
Kuwait, others, in a more serious way in the steps that need to 
occur?
    Dr. Kissinger. Of course, one of the great dangers when we 
talk about Iran's neighbors is that--Iraq's neighbors--is that 
Iran pursues its objectives, and that then the Sunni states 
will organize to create a counterweight, and then we'll see a 
reoccurrence of the Sunni-Shia wars, traditional Sunni-Shia 
wars, on Iraqi soil, and that would have extraordinary 
consequences for the whole region.
    So, it's--but, the question of how to engage Iran, one of 
the unfortunate aspects of a concentration on Iraq is that the 
issue of proliferation of nuclear weapons to Iran is sort of 
being swept under the table, and yet, for the peace of the 
world, nuclear proliferation to Iran could be an--much 
greater--of an even greater significance, because it may really 
be the country which will then trigger a whole series of other 
countries. And, after that, the calculations of deterrence, as 
we have known it, will no longer be operational.
    Senator Feingold. Well, Dr. Kissinger, that really relates 
to my next question. What you've just, sort of, indicated, a 
problem with a great emphasis on Iraq, vis-a-vis our attention 
to Iran--a lot--many observers, in my view, even some very good 
ones, tend to make the mistake of looking at Iraq in isolation. 
Obviously, this doesn't apply to you. But many will say, ``What 
will happen to Iraq if we redeploy our troops?'' But I don't 
hear them asking, very often, ``What will happen in Somalia or 
Afghanistan or many other trouble spots in the world, if we 
remain bogged down in Iraq?'' Do you share my concern that 
we're devoting too many of our resources to Iraq and not enough 
to other areas, or to the, clearly, global fight against al-
Qaeda?
    Dr. Kissinger. We should not be bogged down in an 
inconclusive operation in Iraq. I supported the original 
decision. It has taken forms that went beyond many 
expectations. But we should deal with that new situation in a 
way that does not accentuate the dangers that you mention, 
because we have to balance our presence in Iraq against the 
impetus to radical self-confidence that might be achieved if we 
suddenly withdrew from Iraq. So, a staged withdrawal geared to 
specific criteria, along the lines we have discussed here--that 
is, a strengthening of the central government, some 
relationship to the outside world--would, of course, be 
helpful.
    Senator Feingold. Thank you, Dr. Kissinger.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    Thank you, Dr. Kissinger.
    The Chairman. And, again, I want to emphasize--excuse me; 
don't start the clock yet--that it was very important to 
Senator Hagel that you know that it's--that this young man, 
First Lieutenant Fritz, who was killed in the Karbala action 
recently, he is flying to his home State to attend the funeral.
    I thank you for the interruption.
    Senator Coleman. Thank you, Mr. Chairman.
    A key point, Mr. Secretary, that you keep referring to is 
the danger of Iran obtaining a nuclear weapon. We could tie in 
that point with another point where I think there's bipartisan 
agreement, which is that what we do in Iraq has an impact not 
just on Iraq, but upon the region. And you used the phrase 
``radical self-confidence.'' People talk a lot about American 
standing and how it's being impacted by what we're doing in 
Iraq. Is it your belief that a precipitate withdrawal, which 
the Iraq Study Group warned against, and that would generate a 
radical self-confidence would have a greater negative long-term 
impact on the U.S. standing in the region and peace and 
stability in the region?
    Dr. Kissinger. That is my conviction. A withdrawal geared 
to American internal debates and not to the local situation 
would have some of these consequences.
    Senator Coleman. I'd like to raise another issue so I can 
get a clear understanding of it, and maybe, again, it is one 
where there is some agreement. There is a lot of talk about 
redeployment. And my understanding of what I heard the chairman 
say is that redeployment doesn't mean moving all of our troops 
outside of Iraq, but perhaps reposition them in a way that 
doesn't lead them into the middle of sectarian civil wars. My 
question, just so I can be clear, relates to a statement made 
by Secretary Baker yesterday--he said that we're going to be in 
Iraq for a long time. Is it your belief that we're going to be 
in Iraq--not just in the region, but in Iraq, in some capacity, 
for a long time?
    Dr. Kissinger. I agree with Senator Baker--with Secretary 
Baker.
    Senator Coleman. And another issue where I think there is 
agreement on is reintegrating Iraq into the international 
community, but here's my question. One way to phrase it might 
be, ``What is Iraq?'' In other words, if Iraq is seen as simply 
being a tool for protecting the Shia militia--rather than a 
civic Iraqi State encompassing all groups, but instead as a 
religious state dominated by the Shia majority--my sense is 
that countries such as Egypt and Saudi Arabia and others, where 
the Sunni population is dominant, will have less of an interest 
in being involved in an ultimate solution, because of their 
fear that the Iranians are really in control. So my question 
is: Does there have to be a clear sense from the Iraqi 
Government that it represents an inclusive national government 
that is not being directed by Iran, or dictated to by Muqtada 
al-Sadr, in order to get anything out of this international 
conference on Iraq that you've talked about?
    Dr. Kissinger. The best outcome would, of course, be if the 
Shia government that is now dominant in Baghdad created a truly 
national government, and if the Sunni part of the population 
felt that there is such a thing as an Iraqi nationality and 
they are being dealt with fairly. And when you look at what 
Mandela has done in South Africa, something along that line 
would, of course, be--with all the shortcomings that one might 
see in South Africa, would be an--very desirable outcome. The 
likelihood of this is not great, but we should certainly 
encourage it. And it may come about if the Shia realize that 
they will not be able, by themselves, to impose a theocratic 
state over the whole country. And if we do not participate in 
an effort to create a theocratic state, we have to walk a fine 
line. On the one hand, there is the danger you describe, that 
we do not want to demoralize our Sunni potential allies, and we 
want to have them in a position where they are willing--where 
they want to resist Iranian domination. On the other hand, we 
want to leave open the possibility of an ultimate settlement 
with Iran if it can put its nuclear program into some framework 
that the international community can accept, and if it confines 
itself to objectives of a national state. So, we have to 
maneuver between those two extremes. The Sunni states must know 
that we will back them against Iranian domination, but not on a 
jihad of their own. And the same is true for the theocratic 
Shia part.
    Senator Coleman. But if the Iraqis themselves are either 
not ready, or not able, to do that right now, what is it that 
we can do that we're not doing? This whole discussion of 
benchmarks, I think, is to say to the Iraqis, ``We need you to 
show us that you're doing this,'' because of the consequences 
we're talking about.
    Dr. Kissinger. I do not believe that American withdrawal is 
a way of enforcing benchmarks. There may be--there must be 
other ways of the degree of aid we give, and it may be that 
there is nothing we can do, beyond a certain point. From some 
of the verbal things that I've seen, it seems to me that the 
Iraqi Prime Minister at least has taken aboard some of the 
principles that we have put forward. We have, now, to see 
whether he will execute them.
    Senator Coleman. We have talked about a regional conference 
for Iraq. Should there be a regional conference about Iran? In 
other words, if we don't deal with the Iran issue, how will we 
achieve stability in that part of the world?
    Dr. Kissinger. In a way, there is a regional conference. 
There's an international conference about the nuclear program 
of Iran. And I believe that if that ever makes progress, as it 
should, it could merge into a discussion of the political role 
of Iran in the region, because if Iran is really interested in 
security, and not in fulfilling old imperial order that it 
dreams, then this ought to be an element of the discussion with 
respect to nuclear weapons.
    Senator Coleman. And the consequence of Iran getting a 
nuclear weapon would be disastrous, not just for the region, 
but for the world.
    Dr. Kissinger. The consequence of Iran getting nuclear 
weapons is disastrous, and we must keep the diplomacy focused 
on that.
    Senator Coleman. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. And I do agree with your call for a 
regional conference. It's long overdue. And I think one of the 
most disappointing things for me is that the Iraq Study Group 
was so clear in their call. They issued an urgent call, they 
said by the end of last year, right now. And it never happened. 
And what happened is, the American people went to the polls, 
they voted for, in my opinion, a new strategy to end the war in 
Iraq--to end the war in Iraq--and, instead, what they're 
getting is a military strategy to have a surge. And many 
Americans believe--and I agree with them--that it's time for a 
political solution.
    Now, I want to probe what you said to my chairman, because 
if I heard you right--I want to make sure I heard you right, 
because it's hard to hear you. So, tell me if I heard you 
right. Senator----
    Dr. Kissinger. Which one?
    Senator Boxer [continuing]. Biden has been working--the 
chairman of the committee, Senator Biden--is working with 
Leslie Gelb, and they have come up with a proposal, which has 
been out there for quite a while now, to have semiautonomous 
regions--Kurds, Shia, Sunni--and a--not three separate 
countries, but one country with semiautonomous regions, to 
essentially separate the warring parties, and have a--still 
have, of course, a national government be involved in 
redistributing the oil, and tax policy, and other very 
important functions. Now, when he asked you about it--I think I 
heard you say this, so please tell me if I heard you right--
``that may well be the outcome, at the end of the day.'' Is 
that approximately what you said?
    Dr. Kissinger. That's correct.
    Senator Boxer. OK. Now--but then, you went on to say, ``But 
we shouldn't be perceived as pushing this forward.'' Is that 
correct?
    Dr. Kissinger. That's correct.
    Senator Boxer. OK. Well, I'd like to challenge that, 
because, as I see it, you know, every option has its drawbacks, 
but it seems to me either we're in the middle of a solution or 
in--we're in the middle of a civil war. And what Senator Biden, 
I think, has been pushing is, yes; let's get in the middle of a 
political solution and out of the civil war. So, I know that 
diplomats--because I've been around here a long time, and, as 
you know, I could never be a diplomat----
    [Laughter.]
    The Chairman. Oh, don't say----
    Senator Boxer. Admit it.
    The Chairman. Madam Chairman, I'm not sure----
    Senator Boxer. I admit it.
    The Chairman [continuing]. That's true. [Laughter.]
    Senator Boxer. I----
    The Chairman. You got Fritz Hollings to want you on this 
committee.
    Senator Boxer. Right.
    The Chairman. You surely could be a diplomat.
    Senator Boxer. Well, all I could tell you is, I 
respectfully admit that.
    But I think what happens is, sometimes diplomats get stuck 
in a kind of a ``think.'' And their ``think'' is, ``Well, we 
have to be careful, we have to sit back in this case, not go 
out there with a political solution.'' I think, given events on 
the ground--and I would urge you--you don't have to even 
respond to this, but I want to urge you to please break free 
from this diplomatic ``think.'' Because I think, at this stage, 
all you have to do is read the details of what's coming out of 
Iraq on the ground, for our beautiful men and women thrust in 
the middle of a civil war, I don't think anyone who voted for 
that resolution--and I thank God, every day, I didn't--ever 
dreamed that that would be the end result, that our troops 
would be in the middle of this civil war, there would be 3,080 
dead, 22,000 wounded, half of those never come back to the 
military again, many, many more with post-traumatic stress and 
all these problems. And so, it seems to me, at this stage of 
what a lot of people are saying have been a failure, including 
people in this administration admitting it, that we shouldn't 
worry so much that we may be perceived as pushing one political 
solution or another. And I think if just one establishment 
diplomat came out and said, ``You know, normally I wouldn't say 
this, but, given where we are''--I hope you'll think about 
that.
    Mr. Secretary, you said--you were quoted in State of Denial 
here--and I'm assuming it's an accurate quote; it's in 
quotation marks--``In early September 2005, Mike Gerson went to 
see Kissinger in New York. `Why did you support the Iraq war?' 
Gerson asked him. `Because Afghanistan wasn't enough,' 
Kissinger answered. `In the conflict with radical Islam,' he 
said, `they want to humiliate us, and we need to humiliate 
them.' '' And that's a quote.
    Now, a year before that, Peter Bergen, CNN analyst, said, 
``What we have done in Iraq is what bin Laden could not have 
hoped for in his wildest dreams. We invaded an oil-rich Muslim 
nation in the heart of the Middle East, the very type of 
imperial adventure that bin Laden had long predicted was the 
United States long-term goal in the region. We deposed the 
secular socialist Saddam, whom bin Laden had long despised, 
ignited Sunni and Shia fundamentalist fervor in Iraq, and have 
now provoked a defensive jihad that has galvanized jihad-minded 
Muslims around the world.'' And this is what he said, ``It's 
hard to imagine a set of policies better designed to sabotage 
the war on terrorism.''
    So, I juxtapose these things. This is terrorist--terrorism 
analyst Peter Bergen in 2004. And in 2005, you say you 
supported the war in Iraq because we need to humiliate radical 
Islam.
    So, could you please--I mean, I think what we see here is--
what Peter Bergen said looks to be happening. And I wonder if 
you could comment on: Who do you think is right, at the end of 
the day, at this stage?
    Dr. Kissinger. Well, it's alleged quotation. It's a kind of 
journalism that uses a quotation that somebody may have made, 
and then spins a whole theory about--around it. It grew out of 
a conversation I had with Mr. Gerson, a speechwriter of 
President Bush, who then reported his version of the 
conversation to Woodward. I've written a lot of articles on the 
subject, and I've never said anything like this.
    Senator Boxer. OK.
    Dr. Kissinger. And so, whether phrases like this floated 
through the conversation--I wrote an article in August 2002, 
prior to the war, in which I stated my view on the subject. I 
did believe there was a geostrategic reason for doing it, based 
on the fact that here was a country, with the second largest 
oil revenues, that had violated the U.N. cease-fire 16 times, 
that was believed to have weapons of mass destruction. And I 
thought, if those resources would be put at the service of a 
terrorist, or even of a regime that was undermining our 
interests, it would be too dangerous, and the American Senate 
had voted for regime change. But what I also said in that 
article was that if we did it, we should move it to 
international control as quickly as possible, and not try to 
run it on a unilateral basis. So, those two have to be put 
together. And those are my views, not what Woodward reports 
having heard from Mr. Gerson, even if fragments of the--of such 
sentences floated through a conversation. I've only met Mr. 
Gerson once, for less than half an hour.
    The Chairman. Last time you'll help him write a speech, 
huh? [Laughter.]
    Dr. Kissinger. He wrote a good speech on it. [Laughter.]
    If I may make a point on your first thing--your first 
observation, which--I mean, it's an important observation. The 
hesitancy one has in pushing for the solution is that one has 
to think of the impact on Turkey of a Kurdish independent 
state----
    Senator Boxer. Undependent? On an independent state.
    Dr. Kissinger [continuing]. On the temptation it may create 
for an Iranian push into--so, one has to stage it in such a way 
that a significant Iraqi support for it exists, and where we 
are not perceived as doing this in order to break up an Arab 
State for our own purposes. But if the Iraqis cannot solve the 
problems that have been described, I've told the chairman 
privately that I thought that this was a possible outcome, and, 
at the right moment, we should work in the direction that--for 
maximum stability and for maximum chances of peace. But it's--
unfortunately, everything in that region is so fraught with 
implications that one has to move with care and thoughtfulness.
    Senator Boxer. Mr. Chairman, I know my time is up. Could I 
have just 10 seconds to wrap up?
    What I think we heard here is good, because I think that 
when you look at what our chairman is talking about, it's not 
three separate countries, it's semiautonomous regions within 
Iraq. So, I think that he and Mr. Gelb have looked at that. But 
I do appreciate--because I think even what you just said now 
moves us a little bit more toward maybe pushing harder for a 
specific diplomatic solution.
    Thank you.
    Dr. Kissinger. I also think it would occur more naturally 
if part of an international conference----
    The Chairman. That was the point.
    Senator Boxer. Yes.
    Dr. Kissinger [continuing]. Than as an American national 
policy.
    Senator Boxer. I think you're right
    The Chairman. Mr. Chairman, I apologize for speaking, since 
the plan has been discussed over--I'm glad this--the Secretary 
added the last point of our private conversations. I think if 
there were--and that's what we call for, an international 
conference--that if it's in the context of that, it doesn't 
appear to be us enforcing it. I think we should start to call 
this the Boxer Plan, because you're more articulate than I am 
about pushing it. And I really----
    Senator Boxer. I'm not the diplomat.
    The Chairman. No, no, well, you're doing pretty well. I--
and I thank you for it.
    Senator Boxer. Thank you.
    The Chairman. Thank you, Mr. Secretary.
    Senator.
    Senator Corker. Mr. Secretary, thank you for your 
testimony. And I think what I'm seeing here is someone 
testifying, and almost everyone on this committee agreeing with 
much of what you have to say. And it's an interesting thing to 
watch here.
    You've talked a lot about the long-term issues that we're 
going to be dealing with, the fact that we've been there for 50 
years, and that we're going to be there for many more years 
down the road.
    One of the concerns that I hear debated a lot privately is 
that so much focus has been placed on this surge, which is 
really not a strategy, but a tactic, something that you said 
you even lean toward. But the fact that we've focused so much 
on this surge that many people, who do believe we're going to 
be in Iraq for many, many years, and in the Middle East for 
many years, are concerned that, with so much focus on it, so 
much discussion on it, that if nothing good comes out of that 
in the next 5 or 6 months, that what's going to happen is going 
to be a reaction, an adverse reaction, if you will, that really 
does affect our actions in the Middle East for many, many years 
down the road. And I think there's a concern that if 
something--if no positive comes out of this, there's going to 
be a greater push, if you will, to withdraw from the region--
and I wonder if you could respond to that--in ways that would 
not be beneficial to our national interests down the road.
    Dr. Kissinger. Well, under present conditions, as I have 
said, I would--I think the surge is the better option, but we 
have to keep in mind that at whatever point we decide whether 
it has succeeded or failed, we--it's a tactical move to give us 
the maneuvering room to move to the strategy on which, it seems 
to me, a considerable consensus has emerged, to me, out of what 
I have heard in front of this committee and of what I believe 
needs to be done.
    I do not believe we can withdraw from Iraq. That is the key 
question. We can discuss the kind of deployment, size of the 
deployment, but it should be done in relation to the conditions 
on the ground and to our national objectives, and not to 
abstract timetables.
    Senator Corker. This may not be the kind of question to ask 
someone coming before our committee, but, because you do feel 
sort of a consensus around much of your testimony, and because 
you see a sense of the Senate wanting to express itself out of 
frustration, and because you have said that you don't think 
benchmarks predicated on not being met, or benchmarks not being 
met, causing withdrawal, that that's the penalty, what would be 
a resolution, if one has to be--if the Senate has to express 
itself on this matter--what would be some of the components of 
a resolution that you think might be sensible?
    Dr. Kissinger. I'm very flattered. That's not the sort of 
question I'm usually asked. And I would think that a resolution 
that states a concept of national objectives, that's not 
ambiguous, but indicates a direction around which the country 
could rally, I think would be important, because I don't think 
we can go on with the appearance of such basic divisions, 
because whichever way it is interpreted abroad, it's not 
helpful. And so, if it were possible to--I would not have 
recommended it to begin with, but I think a resolution that 
states a direction, which hopefully the administration would 
join, too, would then create a benchmark for everybody.
    And on the substance, when we--if we separate the surge 
from it--on where to go afterward, I think there is a--more of 
a coming together than there is on the surge option itself, at 
least from what I've read. But it's my strong view that it 
cannot include a time limit for withdrawal or a withdrawal 
geared to our domestic calendar.
    Senator Corker. Would you state the last phrase again? Or--
withdrawal based on?
    Dr. Kissinger. Our domestic calendar.
    Senator Corker. Would you want to expand a little bit on 
who the audience really is as it relates to these resolutions, 
the audience that really matters most as it relates to these 
resolutions?
    Dr. Kissinger. Well, of course, you all are running for 
election at some point. Some of you know your audiences well, 
at least those of you who are here. But I would say, of course, 
a principal audience has to be the American people, and one has 
to keep in mind there, not only what the American people think 
today, but what they will think 2 years, 3 years from now, when 
the consequences of some decisions become apparent, and when it 
could happen that they will not approve of decisions, even if 
those decisions seem to reflect the mood of a moment, which has 
happened before. So, of course one has to think of the American 
people first, but one also has to think of the actors 
internationally who gear their action to their expectation of 
an American performance, and how they interpret actions in 
terms of their own judgments. And that, I think, is a major 
responsibility, as well, in drafting a resolution.
    Senator Corker. Thank you.
    The Chairman. Thank you.
    Senator Obama.
    Senator Obama. I'm going to defer to----
    The Chairman. You're going to yield to Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman. I also 
thank my colleague from Illinois. Mr. Secretary, I appreciate 
your testimony, and I just want to explore some areas with you. 
Let me ask you: Would you agree that every course of action, at 
this point of time, every alternative, carries with it some 
rather grave risks and the potential for even deeper and wider 
strife?
    Dr. Kissinger. Absolutely.
    Senator Menendez. Would you also agree that success--or, 
should I say not success but that each of those alternatives 
for success depends far more on what others are going to do, or 
can do, than what we can do by ourselves?
    Dr. Kissinger. I'm not sure I would agree completely with 
that. I think it depends on what others can do. But that will 
be heavily influenced by our----
    Senator Menendez. Well----
    Dr. Kissinger [continuing]. Actions.
    Senator Menendez [continuing]. Listening to Secretary Baker 
and Congressman Hamilton yesterday, among others, and listening 
to the administration talk about how the Iraqis themselves have 
to make some hard choices, compromises, negotiations for a 
government of national unity, security forces have to be built 
up in a way that they can respond and stand up for their own 
country, the context of regional partners and some of your own 
testimony, it seems to me that, while we may lead, at the end 
of the day success in Iraq depends, to a great deal, upon what 
others--the Maliki government, the Iraqis, the regional 
partners--will or will not do than what we will do just by 
ourselves.
    Dr. Kissinger. I would turn it around. We cannot do it all 
by ourselves, but we can act in such a way as to evoke actions 
from others that create the maximum chance for success.
    Senator Menendez. Now, let me ask you--you say, in the 
testimony, that the United States, ``must not involve itself in 
the sectarian conflict for any extended period, much less let 
itself be used by one side for its own sectarian goals.''
    Dr. Kissinger. Right.
    Senator Menendez. Now, I listen to that, and I say, isn't 
that, in essence, what we're doing? Aren't we largely involved 
in a sectarian conflict? The Sunnis want us to protect them 
from the Shiites. The Shiites want us on the sidelines so they 
can consolidate power. Both are divided among themselves. I've 
heard some of my colleagues here talk about the escalation and 
sending a very significant amount into Anbar province, where 
the Sunnis and the concerns about al-Qaeda are. But it seems to 
me that we, and I've heard other testimony from other witnesses 
who suggest similarily, need to break the back of the Sunnis so 
that they stop their insurgency and come to a realization that 
they need a political process. At the end of the day, though, 
isn't that taking sides?
    Dr. Kissinger. Well, of course we're taking sides against 
some of the groups that I have mentioned. And, to some extent, 
what you say is quite valid, in the sense that if the 
government is a primarily Shia government, and it wants to 
extend its authority, that will not be appreciated by the 
Sunnis. So, what we should attempt to do, and what I think we 
are attempting to do, is to make this attempt to break the back 
or reduce the impact of the militias, both the Sunni militias 
and the Shia militias. Now, at that point, the national 
government could then perform the police functions with its own 
forces, and our effort will be directed against terrorism and 
outside forces, recognizing that the dividing line is not 
absolute. If the effort does not succeed in reducing the 
militias, then we have to draw the dividing line between 
sectarian violence and the American participation much more 
sharply, because--and then, our deployments should reflect 
that.
    Senator Menendez. Mr. Secretary, let me ask you this. I've 
listened to you talk about withdrawal. But is there not a 
difference between withdrawal from Iraq at a certain point of 
time, taking in consideration even under your own statement 
that we cannot involve ourselves in a sectarian conflict for an 
extended period--and a withdrawal from the region? One can, 
over time, withdraw from Iraq, but not withdraw from the 
region, if it doesn't go in a certain way that we believe that 
our success there would not be better transformed by having a 
phased withdrawal. And how do we get the Iraqis to come to the 
conclusion that they have to make the hard choices, 
compromises, and negotiations necessary, if it's possible, for 
a government of national unity, if they believe that we are 
there in an open-ended commitment? And, last, how do we get the 
regional partners, and I appreciate you yourself describing 
this as desirable to participate in, when, in fact--there's no 
real incentive from some of them? We know that an unstable Iraq 
is an incentive, but there's been some testimony here that it 
hasn't gotten so bad that other regional partners are willing 
to participate at this time because they believe that, in fact, 
we will continue to stay there with our blood and our national 
treasure. And, therefore, it's not necessary for them, at this 
time to engage. How would you respond to that?
    Dr. Kissinger. With respect to your first point, of course, 
the danger is that withdrawal from Iraq of a certain type could 
trigger withdrawal from the region, because everybody will then 
accommodate, or might--may accommodate to the dominant trends. 
In addition, it's not easy to see where one would deploy in the 
region after a debacle--after a debacle in Iraq.
    Now, I've forgotten your second point.
    Senator Menendez. How do we get the Iraqis----
    Dr. Kissinger. Oh, how do we get--yeah.
    Senator Menendez [continuing]. And the regional partners to 
understand that they have to move----
    Dr. Kissinger. Now----
    Senator Menendez [continuing]. In a different direction; 
and move, in the case of the regional partners?
    Dr. Kissinger. Much of the discussion around the table here 
is of a regional conference. I differ somewhat with--I prefer 
an international conference in which countries that have 
broader interests, and that ought to have a direct experience 
of the Islamic challenge, participate, because if you take the 
countries of the region only, they are either threatened, some 
of them, or aggressive, some of them, or potentially 
aggressive, some of them, so their conflicting interests may be 
so great that it is difficult to distill them into some kind of 
consensus, while I think a wider international conference might 
create some criteria which then can be guideposts to the more 
immediately involved countries. But that, of course, would 
require careful exploration by the Secretary of State and 
others. But, how do we get them to do it? That's, of course, 
our challenge.
    The Chairman. Senator, I apologize, but we promised this--
the Secretary that we'd have him out of here by 11:30, because 
he's got to catch a flight, and if we do it, we can----
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman [continuing]. We can try to get that done, 
I'd--try to keep----
    Senator Voinovich. Thank you, Mr. Chairman.
    The Chairman. Senator Voinovich.
    Senator Voinovich. Secretary Kissinger, I would like to say 
that the testimony you have submitted for this hearing is the 
best paper that I have seen in all of the hearings the Senate 
Foreign Relations Committee has had with various people that 
have come before us. It is concise, relevant, comprehensive, 
and it explains how important the state of Iraq is to world 
peace, to peace in the region, and to our national and economic 
security. What I really like is that although we have been 
talking about a plan B, we have not really defined what plan B 
is, but your paper does.
    Starting on page 2 of your paper, you state, ``The purpose 
of the new strategy should be to demonstrate that the United 
States is determined to remain relevant to the outcome in the 
region, to adjust American military deployments and numbers to 
emerging realities, and provide the maneuvering room for a 
major diplomatic effort to stabilize the Middle East.'' That 
effectively summarizes the plan.
    I would like you to comment on two things. First of all, do 
you believe that the President of the United States has done a 
sufficient job explaining to the American people how strategic 
our involvement in the Middle East is to our national security 
and to our economic security? Second, if you were the Secretary 
of State or the President, how would you go about speaking to 
the Arab League, to the U.N. Security Council, or the 
international community, to say, ``Here are the important 
reasons why you should be interested in what has happened in 
Iraq, and why it is in your best interest to come together to 
help us try to stabilize that region?''
    Dr. Kissinger. I've seen the President on television, on 
many talk shows on which one normally hasn't seen Presidents 
before, in recent weeks, making a major attempt to explain his 
position to the American public. And I don't--I think it would 
be presumptuous for me to tell somebody who's been elected 
twice by the American public in what form he should present his 
case. He's certainly doing it in a dedicated and serious 
manner, and he should be listened to carefully.
    Senator Voinovich. Pardon me, but would you agree that we 
have not done an adequate job talking about plan B, in concert 
with what we are now doing in Baghdad and the surge, putting it 
in context with the big picture about how we would like to 
proceed in the region?
    Dr. Kissinger. I think the focus has been on the surge. My 
focus, it's the other way around, to explain the surge in terms 
of the strategy to which we should go. Whatever we--happens in 
the surge, I look at the surge as giving us maneuvering room to 
go do what you call plan B and what I call the necessary 
strategy.
    Senator Voinovich. How would you convince other nations to 
attend an international conference or regional conference? What 
would you say to the Saudis?
    Dr. Kissinger. Well, I think the Secretary of State is 
extremely articulate, and she should certainly--I mean, once 
the concept is established, I have every confidence in her 
being able to do this.
    Senator Voinovich. When would we engage these other 
nations? Lee Hamilton was here before the Senate Foreign 
Relations Committee yesterday with the Iraq Task Force. The 
task force said that we should begin diplomacy and engage our 
partners in the region immediately. When will we do this? 
Tomorrow? Next week? Six months from now?
    Dr. Kissinger. No; now.
    Senator Voinovich. Well----
    Dr. Kissinger. I think you cannot segment policy. If you 
have a concept where to go, you ought to start preparing the 
ground for it as soon as you have agreed on what you're going 
to do.
    Senator Voinovich. I think we have a big public relations 
problem with the American people, because I don't think we are 
effectively communicating what we are really doing in Iraq and 
how important the entire region is to our future. I think that 
is part of the reason why so many people are taking the 
position that we should pull our troops out of Iraq. For 
example, I don't think we have made it clear that we have been 
protecting American oil interests in that area for years. I did 
not know, until I joined this committee how many billions of 
dollars we spend every year to protect American oil interests 
in the region, which are crucial to the economic security of 
the United States. This starts back from President Roosevelt's 
administration. I did not know that prior to serving on the 
Foreign Relations Committee, and many Americans are not aware 
of that. We have been spending money in the Middle East for 
years to protect oil. If Iraq and the region disintegrate, our 
economy could come to its knees.
    Dr. Kissinger. We have permanent interests there. The 
situation is changing rapidly in directions which are 
unfamiliar to Americans, because we are not used to dealing 
with people who are willing to kill themselves for--in this 
manner. And we have to understand conditions in this area and 
not act impulsively at a moment that will affect the next 
decade.
    The Chairman. Thank you very much, Senator.
    Senator Obama.
    Senator Obama. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your testimony. I have to ask 
just a couple of questions based on, sort of, the interaction 
here, because I--from what I understand, the implication of 
your testimony and some of the responses to your questions is 
that you think the only way to express our understanding that 
there are permanent interests in the Middle East is to maintain 
our troop levels in Iraq or, in fact, increase them, and that 
if we did not maintain current troop levels or increase them, 
that somehow that would be abdicating responsibility and 
suggesting that we didn't have permanent interests in the 
region. Is that my understanding of your testimony, or did I 
misunderstand it?
    Dr. Kissinger. No; I believe that, at this moment, if the 
option proposed by the administration is the best way to get 
the maneuvering room to the changes in deployment and strategy 
that will be required by the evolving situation. At that point, 
we can decide what levels we should have and in what mix. But 
it should not be debated, in terms of, ``Are you for withdrawal 
or for an increase in the present situation?'' You have 
correctly characterized my view, but not as a permanent view of 
that.
    Senator Obama. Well, let's focus on this. I mean, the--
because I completely agree with you that the argument about an 
additional 20,000 troops, in and of itself, is not the central 
issue. The central issue: What is this grand strategy in Iraq?
    Dr. Kissinger. Right.
    Senator Obama. Now, you suggest that this is a precursor to 
a grand strategy. You indicate that this will provide us 
maneuvering room to pursue this strategy. Do you know what the 
strategy is? Has the President articulated what this strategy 
is, this grand new strategy? Because, as far as I can tell, 
nobody on this committee knows what this grand strategy is.
    Dr. Kissinger. No; I'm speaking here----
    Senator Obama. And the American public doesn't seem to 
understand what it is. So----
    Dr. Kissinger. I'm speaking here on my own behalf.
    Senator Obama. No; I understand, but I'm--it was--I just 
want to establish, for the record, is there--because the notion 
is, is that this is a precursor--this lays the groundwork, the 
foundation provides us the maneuvering room, for a grand 
strategy that will stabilize the situation there. Is there any 
place that you're familiar with where the administration has 
articulated this strategy?
    Dr. Kissinger. I don't know anyplace where the 
administration has articulated this particular strategy. From 
my acquaintance with some of the people, I think it is possible 
that they will come to this strategy, but I'm not here as their 
spokesman.
    Senator Obama. Well, I understand. But I think it's 
important, I guess. Obviously, Mr. Secretary, you know, you 
have enormous experience in this field, and are very well 
respected. What I gather, then, is you're presuming that 
there's a grand strategy in which--would justify the escalation 
of troop levels, or at least preclude withdrawal. And yet, what 
I'm hearing is, is that, in fact, there is no articulation of 
that strategy, that you're aware of right now, and you're 
presuming that somebody, somewhere, must have one.
    Dr. Kissinger. No; I'm making two points. I'm saying that 
if we now act out of frustration----
    Senator Obama. Right.
    Dr. Kissinger [continuing]. We may set--we may start a 
process that prevents a grand strategy and that will drive us 
into an outcome that nobody wants. If we do this, we should do 
it in the expectation of a grand strategy. And, as I've said 
before, I would not object to a statement that outlines a grand 
strategy that--especially if it were done on a bipartisan basis 
the----
    Senator Obama. Well, let me suggest that, within your----
    Dr. Kissinger [continuing]. Administration would then join.
    Senator Obama. I'm sorry. Let me suggest that, within 
your--the papers that you provided us, I think your approach, 
in terms of a regional diplomatic strategy makes perfect sense. 
I think that the Baker-Hamilton Commission recommended this, as 
well. As far as we can see--and I think your interaction with 
Senator Voinovich indicates this--the administration doesn't 
seem to be embarking on this particular strategy. It's not 
clear to me that we could not pursue that strategy, even as we 
were initiating a phased redeployment, as opposed to a 
precipitous one, and which brings me, I guess, to a critical 
point. In your estimation, is there anything that can get the 
Iraqi factions to change their behavior, other than ongoing 
occupation with perhaps increased forces--U.S. forces for an 
indeterminate period of time? What would change the political 
dynamic on the ground where the Shia, the Sunni, the Kurds, to 
a lesser extent, have a different set of calculations that they 
would be making?
    Dr. Kissinger. I--look, the Sunni-Shia conflict has lasted 
1,400 years----
    Senator Obama. Right.
    Dr. Kissinger [continuing]. And has been bloody and brutal. 
So, one should not pretend that one can solve it----
    Senator Obama. It won't be----
    Dr. Kissinger [continuing]. In any----
    Senator Obama [continuing]. Be easy in any event, right.
    Dr. Kissinger. For any American polity or quickly. We can 
only do what we think is right and most likely to produce a 
desirable result. Now, it is clear that there is a limit to 
what the American public can support, or will support. And all 
of these issues that we're discussing are based on assessments 
you cannot prove when you make them. That's what makes them so 
difficult. My assessment is that the debate of this--about the 
surge exaggerates an essentially tactical move. The real issue 
is the long-term roll of the United States. I agree with 
Secretary Baker that we are likely to be in Iraq for a long 
period. But that does not mean it has to be, or should be, at 
the present level or in the present deployment.
    This is what our next discussion should be about. And 
whatever happens, it will go on for the next few 
administrations, the impact of what we are deciding now. It 
can't end with one administration, no matter what we do. I 
think that the best course is to attempt to deal with the 
militias, and whatever else happens--whatever happens in that; 
and while that happens, prepare ourselves for what I describe 
as the grand strategy. I hope that it's done in accord between 
the executive and the Congress, because that will be best for 
the long-term health of the American public, no matter what 
happens in the future.
    Senator Obama. Mr. Chairman----
    Dr. Kissinger. And that is what I'm trying to contribute 
to--I cannot--I can't speak for the administration, but I would 
be disappointed and surprised if they did not accept some of 
the elements of what has been discussed here.
    Senator Obama. Well, but--let me just close--and I know I'm 
out of time----
    The Chairman. That's OK, you're making a very salient point 
here.
    Senator Obama [continuing]. By simply saying this. I think 
the American people are disappointed. I'm disappointed with the 
manner in which, over the last several years, we have proceeded 
in Iraq. And I just--I want to dispute this notion, somehow, 
that the American people aren't clear about interests in the 
Middle East. I think the majority of the American people 
understand that we have significant interests there. That is 
the reason that they were willing to authorize--or at least a 
number of the Members of the Senate were willing to authorize 
going in. I think they perfectly understand the severity of the 
Islamic threat. What they don't understand is how, after all 
the commitments that we have made, all the lives that have been 
lost, and the billions of dollars that have been sent, the 
situation seems to deteriorate, and we are actually less safe, 
and the region is less stable, and we have less leverage with 
the players in the region. That's what they don't understand. 
That's what they're frustrated with, is the fact that they've 
made an enormous investment in blood and treasure, and the 
outcome is worse than when we started.
    And so, I just think it's important, Mr. Chairman, for the 
record to indicate that if, in fact--I completely agree with 
the Secretary that the surge, or escalation, whatever you want 
to call it, in and of itself, is not the salient issue. The 
issue is: Is there a strategy to stabilize Iraq that prevents 
us from establishing a permanent occupation in that region that 
further destabilizes it and further inflames anti-American 
sentiment? And that strategy has not been forthcoming from this 
administration.
    And I don't--I understand, Mr. Secretary, you don't speak 
for the administration, but I--to the extent that you are 
suggesting that they have some secret strategy that we have not 
been made privy to, and that's why we should not speak out 
against it, I would strongly differ with you, recognizing that 
you have far more experience in this field than I do.
    Dr. Kissinger. Well, I think----
    The Chairman. Senator----
    Dr. Kissinger. I'm not saying you shouldn't speak out on 
behalf of the strategy that should be pursued.
    Senator Obama. Well, I think the concern you expressed 
was----
    Dr. Kissinger. I'm hoping----
    Senator Obama [continuing]. Is that we should not--that 
there should be some sense of cooperation between the 
administration and Congress so that we don't send a message 
that we are divided to the world. I completely agree with that. 
We had the opportunity to do that with the Baker-Hamilton 
Commission, which has essentially been ignored by this 
administration. And so, the frustrations that many of us have 
is, if we have an administration that does not seem willing to 
listen, and we have a strategy that, to all eyes, is not 
working, at some point we have to make some decisions, in terms 
of getting it on track.
    I'm way over time, Mr. Chairman.
    The Chairman. Thank you.
    Senator Obama. Thank you for----
    The Chairman. Thank you very much.
    Some are--I let that go, because I think it's such an 
important exchange.
    The problem, Mr. Secretary, is, in a nutshell, that most of 
us view the President's projection of forces as his strategy, 
and he's explicitly rejected the strategic suggestions you and 
others have made. It's been explicit. But having said that, let 
me yield now to Senator Isakson----
    Senator Isakson. And I will----
    The Chairman [continuing]. And then we'll be finished.
    Senator Isakson. I will be quick.
    Thank you very much, Mr. Secretary, for your years of 
service to the United States. And I really only have one 
question, which relates to the most recent exchanges. And so, 
I'll state this question and then allow you to respond. But 
thank you so much for your service and for this paper.
    My memory is that the United States of America went into 
Iraq and had three specific goals. The first was to enforce 
U.N. Resolution 1441, because the entire world, 176 countries, 
thought there were weapons of mass destruction in Iraq, and 
there was no confusion on that, and Hussein gave us no comfort 
that that wasn't true. The second goal was to allow the Iraqi 
people to hold free elections and write a constitution. Now, we 
accomplished both of the first two goals. The third-stated goal 
by the President of the United States in his speech prior to 
our vote was that we would train the Iraqi military in order 
for them to keep the peace and allow that fledgling government 
to survive. I believe I'm right that those--those are not the 
same words, but those are the specific goals.
    The strategy to accomplish those was a military strategy, 
because it took a military strategy to accomplish goals one, 
two, and three. Our current dilemma is our failure in No. 3, 
which has come about because of the rise of sectarian violence, 
in addition to all the other violence that is precipitated by 
other interests in the region and al-Qaeda.
    Here's the question. You state, in your--where Senator 
Voinovich was--``It should be seen as''--``it,'' meaning the 
current move by the President, in terms of Anbar and Baghdad--
``It should be seen as the first step toward a new grand 
strategy relating power to diplomacy for the entire region, 
ideally on a nonpartisan basis.'' And then, in the next 
paragraph, the last conjunction in that sentence says ``and to 
provide the maneuvering room for a major diplomatic effort to 
stabilize the Middle East.''
    That's a lot, I'm sorry, but my question is this. My hope 
for the President's strategy, currently, is that it will 
produce enough stability in the current violent neighborhoods 
where the sectarian violence is going on, where some 
reconciliation can take place and you can begin diplomacy. Am I 
wrong in the--in that hope?
    Dr. Kissinger. I believe that the objectives that I have 
stated, and the objectives you have stated, are compatible with 
what the President is attempting to do. And certainly mistakes 
have been made. Some of these mistakes derived from an 
overestimation of the ability to apply American domestic 
experiences to the Iraqi situation. In our country, elections 
are a way of shifting responsibilities. In Iraq, they were a 
way of deepening ethnic rivalries. That's hard for Americans to 
absorb right away.
    I am convinced, but I cannot base it on any necessary 
evidence right now, that the President will want to move toward 
a bipartisan consensus, and that the things I have said here 
are not incompatible with his convictions. And I have 
confidence that he will attempt to do this.
    It's, of course, your responsibility to determine to what 
extent that has been done by the administration. I cannot--but 
I think that to spend the last 2 years of an administration in 
a sort of civil war between the executive and the legislative 
should be avoided by both sides. And we should be able to 
evolve a position on which so much depends for such a long time 
as a joint national enterprise. That's my plea. But if I were 
before the President, I'd say the same thing to him.
    Senator Isakson. Well, I appreciate the answer, because 
that, too, is my goal.
    You know, Mr. Chairman, every one of us prefers a 
diplomatic solution to a military solution. But we can't 
forget, those three goals, which I--nobody disputed what I 
said--that we went into Iraq--went into Iraq, because diplomacy 
had failed, worldwide diplomacy at the United Nations had 
failed, in terms of Iraq refusing to comply with those 
resolutions. That meant the strategy had to go to a military 
one or a look the other way, and if you ever look the other way 
when you're telling people there are going to be consequences, 
then you have no diplomacy. So, I think it's very dangerous for 
us to be talking about a circumstance in which there would be 
no consideration of diplomacy. We are there because diplomacy 
failed, and what will ultimately succeed will be diplomacy. But 
my belief in this is that quelling the sectarian violence and 
stabilizing the conditions long enough for the beginning of 
reconciliation can be the first step toward regional 
negotiation and diplomacy working.
    And I won't make any more speeches, but I want to thank the 
Secretary again. He's given me a lot of good lines for the 
remarks I'm going to have to make on the floor in a few days, 
and I appreciate it a lot.
    The Chairman. Thank you----
    Senator Isakson. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Mr. Secretary, thank you very much for being here. I want 
to make it clear to you, we're waiting for the invitation from 
the President to discuss this. We have tried. I have tried, and 
I'd respectfully suggest a lot of people here have tried. We're 
also waiting for a strategy. The President has explicitly 
rejected international involvement and has--the disagreements 
we have with them is no international involvement and the 
definition of the Iraqi mission.
    But I want to make it clear, I stand ready, as just one of 
100 Senators, to work with this President. I have privately 
told him that--publicly told him that--and we're waiting for 
both an invitation and a wholesome discussion, a fulsome 
discussion, about what the strategy should be. What is the 
strategy?
    And everyone I have talked to, thus far--there may be 
exceptions--from his former Secretary of State to you to 
Democrats involved, to the best of my knowledge, no one can 
come forward and say how we can get from here to there absent 
engaging the international community, and that's been flatly 
rejected. Flatly rejected. Involving the United Nations, 
involving the Permanent Five, involving a larger construct of 
Muslim nations, as you suggested, has been, every time, flatly 
rejected.
    So, I'm not quite sure, Johnny, I'm ready to work. I am--
and I'm sure everyone is. And so, again, I don't want you to 
leave, Mr. Secretary, thinking that we're looking for a fight 
with the President. We're looking for the President to engage 
us. Not Democrats--Democrats and Republicans looking for him to 
engage us.
    And I'll conclude by saying, Mr. Secretary, I suggested, 
and others suggested the same thing on the Republican side, 
that what the President should have done after the last 
election--invite those of us on both sides that he thinks have 
some modicum of influence here, to Camp David--no staff, no 
telephones, no nothing--just to sit down and have a real 
discussion.
    I have found, at least in my experience thus far, there is 
not, really, a desire to do that. I think it's best for the 
country, I think it's best for the region, I think it's best to 
respond to the American people that way. But, in the meantime, 
this is all about responding to a tactic masquerading as a 
strategy that changes a mission that many of us think is not 
able to be accomplished by what he's suggesting.
    But, again, your contribution is significant. It always has 
been. I thank you very much, and I hope you'll remain available 
to us, both publicly and privately.
    Dr. Kissinger. Thank you for the spirit in which this 
session has been conducted.
    The Chairman. Thank you, Mr. Secretary. You're well 
respected by everyone on this committee.
    OK. I thank you, Mr. Secretary. Our next witness is an 
equally distinguished former Secretary of State, and I 
understand she is in the anteroom and will--I'll--we'll get her 
and escort her in.
    [Recess.]
    The Chairman. The hearing will come back to order.
    And, again, I want to thank Secretary Kissinger, but 
welcome enthusiastically, as well, Secretary Albright.
    Staff has pointed out to me I should make a clarification 
so no one misunderstands. There has been an invitation to the 
White House to work on a group called the Lieberman--or, not 
called--the Lieberman, and others, Antiterrorism Group, but 
that is not the invitation I'm talking about, so I don't want 
anybody to misunderstand. The White House is always generous in 
their invitations for us to come down and talk, but I think we 
need to have a real sense of where they want to go.
    At any rate, having said that, Madam Secretary, welcome. 
It's a great honor having you here. And I want to publicly 
thank you for your continued involvement, in a very detailed 
way, in engaging with your former colleagues--Foreign 
Ministers--and you've put together a group of--talk about 
bipartisan, it's multinational, as well as sharing every 
ideological stripe, and you've kept that group together. It is 
a very influential group of individuals you continue to meet 
with, and the collective input is, I'm sure, as welcomed in 
other capitals as it is here. So, I thank you.
    I made an opening statement earlier, so I'm not going to go 
any further, other than to say you're very welcome here, as you 
know, Madam Secretary, and we're anxious to hear what you have 
to say.
    Senator Lugar.
    Senator Lugar. I'd simply follow you, Mr. Chairman, and 
we're looking forward to hearing the Secretary's testimony.
    The Chairman. The floor is yours, Madam Secretary.

 STATEMENT OF HON. MADELEINE K. ALBRIGHT, FORMER SECRETARY OF 
    STATE; PRINCIPAL, THE ALBRIGHT GROUP LLC, WASHINGTON, DC

    Ms. Albright. Thank you very much, Mr. Chairman and Senator 
Lugar and members of the committee.
    I am delighted to be here and to return to these very 
familiar surroundings and to have the opportunity to testify. 
Thank you, Mr. Chairman, for saying what you did about my 
former Foreign Ministers group. It grows by virtue of what it 
is. And so, we have a lot of interesting discussions and good 
hopes that some of our words will be taken seriously.
    I am very glad to testify, and I will speak both plainly 
and bluntly. There are no good options. If there were, many of 
us, including many of you, would not have been issuing such 
urgent warnings for the past 4 years. Those warnings were 
ignored. The result is that every available alternative now 
carries with it grave risks. Each raises moral and practical 
questions about our responsibilities. And each depends for 
success far more on what others do than on what we do, which is 
another way of saying that, despite our power, we have lost 
control of the most important U.S. national security initiative 
of this decade.
    I desperately want General Petraeus and our forces to 
succeed. Those troops are the finest in the world and will 
accomplish any mission that is within their power, but it is 
the responsibility of civilian authorities to assign the 
missions that make sense. Instead, we have put our forces in 
the absurd position of trying to prevent violence by all sides 
against all sides. The Sunnis want us to protect them from the 
Shiites. The Shiites want us on the sidelines so that they can 
consolidate their power. Both are divided among themselves. Al-
Qaeda is using the turmoil to recruit the bin Ladens of 
tomorrow. And Iran's regional influence is greater now than it 
has been in centuries. If I were a soldier on patrol in 
Baghdad, I wouldn't know whom to shoot at until I was shot at, 
which is untenable.
    I agree with the President that it would be a disaster for 
us to leave Iraq under the present circumstances, but it may 
also be a disaster for us to stay. And if our troops are not in 
a position to make a decisive difference, we have an overriding 
duty to bring them home.
    The Iraq Study Group recommended a more limited role for 
the United States troops. Their view, which I share, is that 
Iraqis must take responsibility for their own security, 
because, although we can assist, we cannot do the job for them. 
We do not have enough people, we do not speak the language, we 
do not know the culture well enough, and, quite frankly, we do 
not have the recognized legal and moral authority to go into 
Iraqi homes and compel obedience. Each time we do, we lose as 
much ground politically as we might hope to gain militarily, 
and that's why the President's current policy should be viewed 
less as a serious plan than as a prayer. It is not about 
reality, it is about hope. But hope is not a strategy.
    The truth is that Iraqis will continue to act in their own 
best interests, as they perceive them; and we must act in ours. 
Today in Iraq, three nightmares come to mind. First, an Iraq 
that serves as a training and recruiting ground for al-Qaeda. 
Second, an Iraq that is subservient to Iran. Third, an Iraq so 
torn by conflict that it ignites a regionwide war. We may well 
end up with one, or all three, of these nightmares. There is no 
easy exit. And I expect this year to be brutal.
    Accordingly, I offer my recommendations with genuine 
humility, for they are designed simply to make the best of a 
truly bad situation.
    First, we should do all we can to encourage a political 
settlement that would reduce the violence. Americans are united 
on this. We favor an arrangement that would recognize the Shia 
majority, protect the Sunni minority, and allow the Kurds a 
high degree of autonomy. In recent days, there has been some 
movement in the right direction. The overall violence, however, 
remains at a record level, and the prospects for a real 
breakthrough are tenuous, at best.
    My second recommendation supports the first, which is to 
increase diplomatic activity. Mr. Chairman and members of the 
committee, we both know that we can talk to governments without 
endorsing them or overlooking past actions. Talking to 
governments about hard problems is why diplomacy matters. It's 
actually what diplomats do.
    The case for talking to Syria is strong, if only to warn 
its government about the dangers of supporting violent 
elements, either in Iraq or Lebanon. Further, we have 
cooperated with Syria in the past on some issues, including 
Iraq, and might well be able to do so now.
    As for Iran, there are many serious people with whom one 
might talk. The problem is that President Ahmadinejad is not 
one of them. We should do nothing that might bolster his 
standing, but we should indicate our desire over the long term 
to have good relations with Iran's people. More broadly, United 
States efforts to put diplomatic pressure in Iraq with regard 
to its nuclear program deserve the support of every member of 
this committee, and those efforts may still work.
    I do, however, urge the committee to ask detailed questions 
about every aspect of the administration's intentions toward 
Iran, and to demand credible answers. I--it would be 
interesting to know why the statements have gotten more 
bellicose. It would be interesting to know why there are 
aircraft carriers in the region. It would just be interesting 
to know where they're going. We have learned the hard way what 
happens when this administration decides on a policy without 
putting its assumptions to the test of legislative scrutiny and 
informed debate.
    Third, we should do all we can to revive a meaningful Arab-
Israeli peace process. This is important for the Israelis and 
Palestinians themselves, but I also say this because United 
States prestige in the region has suffered due to our 
inactivity these past 6 years, but, more important, because 
peace is the right goal to pursue.
    As shown by her recent trip, Secretary Rice has begun to 
engage. I only worry that it is too little, too late. Middle 
East diplomacy is a full-time job, and a roadmap does no good 
if it is never taken out of the glove compartment.
    Fourth, both in Iraq and in the region, we must avoid the 
temptation to take sides in the millennium-old Sunni-Shiite 
split. We must be mindful of the interests of all factions and 
willing to talk to every side, but our message should not vary. 
We should pledge support to all who observe territorial 
borders, honor human rights, obey the rule of law, respect holy 
places, and seek to live in peace.
    Fifth, Congress should continue to support efforts to build 
democratic institutions in Iraq. As chair of the National 
Democratic Institute, I'm not neutral about this, but it was 
always unrealistic to believe that a full-fledged democracy 
could be created in Iraq overnight. It is, however, equally 
unrealistic to think that a stable Iraq will ever be created if 
democratic principles are not part of the equation.
    One of my great fears is that our Nation's experience in 
Iraq will cause Americans to abandon efforts to build democracy 
over the long term. That would be a mistake. There are wise and 
unwise ways to go about the task. But the goal of supporting 
democracy is the right one. It is intimately connected to 
America's role in the world, both historically and in the 
future. And if we give up on democracy, we give up not only on 
Iraq, but also on America.
    Sixth, we should make one more effort to encourage others, 
especially our NATO allies, to expand their training of Iraq's 
military and police. Every country in Europe has a stake in 
Iraq's future. Every country should do what it can to help.
    Finally, we should call on religious leaders from all 
factions to take a stand against the violence in Iraq. Everyone 
is so convinced they have God on their side, we should at least 
make the case that God is on the side of peace.
    At the same time, we should reiterate our own pledge, on 
moral grounds, to minimize harm to civilians and guarantee 
humane treatment of prisoners. And element of confession in 
this would not hurt.
    The bottom line is that there must be an evolution in the 
political situation in Iraq that will curb sectarian violence 
and reduce the level of insecurity to something that can be 
managed. With a settlement, we could withdraw gradually, with 
nightmares avoided. Without a settlement, our troops cannot 
make a decisive difference, and might as well begin to 
redeploy.
    Mr. Chairman, America's own war between the States lasted 
about as long as the current war in Iraq, and it went on so 
long that Abraham Lincoln said, in frustration, that the 
heavens were hung in black. We might say the same today.
    I see profound problems ahead, but I have confidence in the 
resilience of our Nation. We can, in time, regain our balance, 
restore our reputation, and all that is required is that we 
respond creatively to change, live up to our own principles, 
and ensure that America becomes America again.
    Thank you very much, and now I look forward to responding 
to your questions.
    [The prepared statement of Hon. Albright follows:]

 Prepared Statement of Hon. Madeleine K. Albright, Former Secretary of 
        State; Principal, The Albright Group LLC, Washington, DC

    Good morning, Mr. Chairman and members of the committee. I am 
pleased to return to these familiar surroundings and to have the 
opportunity to testify regarding U.S. policy toward Iraq. To maximize 
time for discussion, I will speak both plainly and bluntly. There are 
no good options.
    If there were, many of us--including many of you--would not have 
been issuing such urgent warnings these past 4 years. Those warnings 
were ignored. The result is that every alternative now carries with it 
grave risks and the potential for even deeper and wider strife.
    Each raises moral and practical questions about our 
responsibilities--to the people of Iraq, to our troops, and to our 
collective future.
    Each depends for success far more on what others do than on what we 
do, which is another way of saying that--despite our power--we have 
lost control of the most important U.S. national security initiative of 
this decade.
    I desperately want General Petraeus and our forces in Iraq to 
succeed. Those troops are the finest in the world and will accomplish 
any mission that is within their power, but it is the responsibility of 
our civilian authorities to assign them missions that make sense.
    Even with all that has gone wrong, I could have supported an 
increase in troops if that increase had been tied to a clear, 
important, and achievable mission--and if we were guaranteed that our 
forces would have the best training and equipment.
    Instead, we have put our fighting men and women in the absurd 
position of trying to prevent violence by all sides against all sides. 
The Sunnis want us to protect them from the Shiites. The Shiites want 
us on the sidelines so they can consolidate their power. Both are 
divided among themselves.
    Al-Qaeda is using the turmoil to recruit the Zarqawis and bin 
Ladens of tomorrow. Violent criminals operate with impunity. And as a 
direct result of our actions, Iran's regional influence is greater now 
than it has been in centuries.
    If I were a soldier on patrol in Baghdad, I wouldn't know whom to 
shoot at until I was shot at, which is untenable.
    To quote 1stSgt Marc Biletski while under sniper fire in the 
capital last week, ``Who the hell is shooting at us? Who's shooting at 
us? Do we know who they are?'' Or to quote Specialist Terry Wilson, a 
soldier on that same patrol, ``The thing is--we wear uniforms, they 
don't.''
    I agree with the President that it would be a disaster for us to 
leave Iraq under the present circumstances. But it may also be a 
disaster for us to stay--and if our troops are not in a position to 
make a decisive difference, we have an overriding duty to bring them 
home sooner rather than later.
    James Baker and Lee Hamilton recommended a more limited role for 
U.S. troops--with an emphasis on training, working in tandem, and 
providing a backup rapid reaction capability.
    Their view, which I share, is that Iraqis must take responsibility 
for their own security--because although we can assist--we cannot do 
the job for them. We do not have enough people; we do not speak the 
language; we do not know the culture well enough and, quite frankly, we 
do not have the recognized legal and moral authority to go into Iraqi 
homes and compel obedience. Each time we do, we lose as much ground 
politically, as we might hope to gain militarily.
    This is crucial because, if there is to be a solution in Iraq, it 
will come about through political means. This has been obvious for 
years. An arrangement must be worked out that will give each side more 
than they can obtain through continued violence.
    If Iraq's leaders finally begin to move in this direction, we would 
likely see progress on the security front. And I think the American 
people would be more patient about the continued presence of our 
troops.
    But from the evidence thus far, this is neither a likely outcome, 
nor one we can dictate. For better or worse, Iraqis appear to think 
they know their own society and their own interests better than we do. 
They have responsibilities to each other that they must meet, but no 
reason, based on the ``thousands of mistakes'' Secretary Rice admits we 
have made, to take our advice.
    They have no appetite, after Abu Ghraib and Haditha, to listen to 
our lectures about human rights. And they know that President Bush has 
ruled out leaving, so where is our leverage? That is why the 
President's current policy should be viewed less as a serious plan than 
as a prayer. It is not about reality. It is about hope. But hope is not 
a strategy.
    The truth is that Iraqis will continue to act in their own best 
interests as they perceive them. We must act in ours.
    Today, in Iraq, three nightmares come to mind.
    First, an Iraq that serves as a training and recruiting ground for 
al-Qaeda. Second, an Iraq that is subservient to Iran. Third, an Iraq 
so torn by conflict that it ignites a regionwide war. We may end up 
with one of these nightmares; we could end up with all of them. There 
is no easy exit.
    Ordinarily, civil wars end in one of three ways: One side defeats 
the other; an outside force intervenes to compel peace; or the sides 
exhaust themselves through violence. The first outcome is unlikely in 
Iraq and the second unrealistic.
    I expect this year to be brutal. Accordingly, I offer my 
recommendations with genuine humility, for they provide no magic 
answers; they are designed simply to make the best of a truly bad 
situation.
    First, we should do all we can to encourage a political settlement 
that would reduce the violence. Americans are united on this. We favor 
an arrangement that would recognize the Shia majority, protect the 
Sunni minority, and allow the Kurds a high degree of autonomy. Such an 
arrangement would share oil revenues fairly, ensure the protection of 
basic infrastructure, and spur economic reconstruction.
    In recent days, there has been some movement in the right 
direction.
    For example, there has been progress toward approval of a national 
oil law and some evidence of restraint--both voluntary and otherwise--
on the part of the largest Shia militias. The overall violence, 
however, remains at a record level--and the prospects for a real 
breakthrough are tenuous at best.
    My second recommendation supports the first, which is to increase 
diplomatic activity throughout the region. This was proposed by the 
Iraq Study Group and ignored by the administration with respect to 
Syria and Iran.
    Mr. Chairman, we both know that we can talk to governments without 
in any way endorsing them or overlooking past actions. Talking to 
governments about hard problems is why diplomacy matters; it is what 
diplomats do. Iraq's neighbors are relevant to Iraq and anyone who is 
relevant to Iraq is relevant to the security and mission of American 
troops.
    The case for talking to Syria is strong, if only to warn its 
government about the dangers of supporting violent elements either in 
Iraq or Lebanon. Further, we have cooperated with Syria in the past on 
some issues, including Iraq, and might well be able to do so now.
    As for Iran, there are many serious people with whom one might 
talk; the problem is that President Ahmadinejad is not one of them. We 
should do nothing that might bolster his standing, but we should 
indicate our desire over the long term to have good relations with 
Iran's people. Iran's influence in Iraq is, of course, inevitable given 
its closeness and shared religion. It is not possible to exclude Iran 
from Iraq.
    However, we should bear in mind that no Arab population will take 
orders from Tehran if it has an alternative. Iran will dominate Iraq 
only if Iraq's Shiite population feels it must turn in that direction 
for protection.
    More broadly, U.S. efforts to put diplomatic pressure on Iran with 
regard to its nuclear program deserve the support of every member of 
this committee; those efforts may still work.
    I do, however, urge the committee to ask detailed questions about 
every aspect of the administration's intentions toward Iran and to 
demand detailed and credible answers. We have learned the hard way what 
happens when this administration decides on a policy without putting 
its assumptions to the test of rigorous legislative scrutiny and 
informed public debate.
    Third, we should do all we can to revive a meaningful Arab-Israeli 
peace process. I say this because U.S. prestige in the region has 
suffered due to our inactivity these past 6 years, but more important, 
because peace is the right goal to pursue. This is true politically, 
militarily, and morally for Arabs and Israelis alike.
    Secretary Rice appears to understand this and, as shown by her 
recent trip, has begun to engage. A meeting of the quartet is scheduled 
for Friday. I only worry that it is too little, too late. Middle East 
diplomacy is a full-time job. It requires a willingness to be blunt and 
the resources and prestige to encourage real compromise. A roadmap does 
no good if it is never taken out of the glove compartment.
    After all that has happened, the prospects for peace may seem dim, 
but the logic of peace has never been more compelling. Although we 
should focus first on Israel and the Palestinians, the question of a 
comprehensive settlement should also be addressed provided Syria 
changes course and begins to play a positive regional role. The basic 
outlines of a just and lasting peace in the Middle East are well known. 
America's urgent commitment to such an agreement must also be clearly 
understood.
    Fourth, both in Iraq and in the region, we must avoid the 
temptation to take sides in the millennium old Sunni-Shiite split. It 
would be an error to align ourselves with the Shiites (because Saddam 
Hussein's loyalists and al-Qaeda are Sunni) or the Sunnis (because 
Iraq's worst militias and Hezbollah are Shia). We must be mindful of 
the interests of all factions and willing to talk to every side, but 
our message should not vary.
    We should pledge support to all--Sunni, Shia, Christian, Druze, 
Jew, Arab, Kurd, Persian--who observe territorial borders, honor human 
rights, obey the rule of law, respect holy places, and seek to live in 
peace.
    Fifth, Congress should continue to support efforts to build 
democratic institutions in Iraq including the next step--provincial 
elections. Though the odds seem long, the best news coming out of Iraq 
these past few years have been the rounds of balloting, the approval of 
a constitution, the convening of a national parliament, and the 
beginning of a multiparty system. Given where Iraq began, these events 
have occurred with startling rapidity. As chair of the National 
Democratic Institute (NDI), I am not neutral about this but neither is 
America. It was always unrealistic to believe that a full-fledged 
democracy could be created in Iraq even in a decade. But it is equally 
unrealistic to think that a stable and peaceful Iraq will ever be 
created if democratic principles and institutions are not part of the 
equation.
    I must add that, 2 weeks ago, an employee of NDI was killed in an 
attack on a convoy in which she was riding. Three dedicated security 
personnel were also killed. I said then that there is no more sacred 
roll of honor than those who have given their last full measure in 
support of freedom. Andrea Parhamovich was from Ohio, a constituent of 
Senator Voinovich on this committee. According to her family, ``Andi's 
desire to help strangers in such a dangerous environment thousands of 
miles away might be difficult for others to understand, but to us, it 
epitomized Andi's natural curiosity and unwavering commitment. She was 
passionate, bold, and caring, as exemplified by her work to improve the 
lives of all Iraqis.''
    One of my great fears is that our Nation's experience in Iraq will 
cause Americans to abandon efforts to build democracy over the long 
term. That would be a mistake. Obviously, security issues have to be 
taken into account in particular cases, and in every case, there are 
wise and unwise ways to go about the task; but the goal of supporting 
democracy is the right one. It is intimately connected to America's 
role in the world, both historically and in the future. If we give up 
on democracy, we give up not only on Iraq, but also on America.
    Sixth, we should make one more effort to encourage others, 
especially our NATO allies, to increase their training of Iraq's 
military and police. Every country in Europe has a stake in Iraq's 
future; every country should do what it can to help. In the Balkans, we 
used a diplomatic contact group of interested nations to coordinate 
policy, generate resources, and take steps to improve security on a 
regional basis. Something similar should have been established for Iraq 
immediately after the invasion; it remains a useful idea.
    Finally, we should call on religious leaders from all factions and 
faiths to take a stand against the violence in Iraq. Given our own lack 
of credibility, we can't get too close to this initiative without 
poisoning it--but there are figures of respect--Mustafa Ceric (Grand 
Mufti of Sarajevo), Mohammed Khatami (former President of Iran), King 
Abdullah of Jordan, Malaysian Prime Minister Abdullah Ahmad Badawi, 
Ayatollah Sistani--who might be willing and able to articulate the 
religious case for reconciliation in Iraq. It's worth a try. Everyone 
is so convinced they have God on their side; we should at least make 
the case that God is on the side of peace.
    At the same time, we should reiterate our own pledge--on moral 
grounds--to minimize harm to civilians and guarantee humane treatment 
to prisoners. An element of confession in this would not hurt.
    The bottom line is that there must be an evolution in the political 
situation in Iraq that will curb sectarian violence and reduce the 
level of insecurity to something that can be managed. With a 
settlement, we could withdraw gradually, with nightmares avoided. 
Without a settlement, our troops cannot make a decisive difference and 
might as well begin to redeploy. In that case, we should do all we can 
to help the Iraqis who have taken risks to support us these past few 
years.
    Ordinarily, I am an optimist, but in this case I am not optimistic. 
I do, however, oppose efforts at this point to cut off funds for 
military operations in Iraq. As many members of this committee are in 
the process of showing, there are more constructive ways to express 
concern about administration policies.
    Mr. Chairman, America's own war between the States lasted about as 
long as the current war in Iraq. It went on so long that Abraham 
Lincoln said in frustration that the heavens were hung in black. We 
might say the same today.
    I see profound problems ahead, but I have confidence in the 
resilience of our Nation. We can, in time, regain our balance and 
restore our reputation. All that is required is that America become 
America again.
    We must respond creatively to change. We must use the full array of 
our national security tools. We must live up to our own democratic 
principles. We must, in the words of John Kennedy, pursue peace as the 
necessary rational end of rational man.
    And we must honor the men and women of our Armed Forces by ensuring 
that they have the right equipment, the right leadership, and the right 
missions.

    The Chairman. Thank you, Madam Secretary.
    I'm going to yield to Senator Boxer and then I'll go last 
in this round.
    Senator Boxer. Thank you so much, Mr. Chairman. I so 
appreciate it.
    Madam Secretary, thank you very much for your clarity. And 
I think you're the first person in a long time that came before 
us and used the word ``peace'' a few times. And I like that, 
because it's a vision. And I remember, during the darkest days 
of the Vietnam war, there was a bumper sticker that appeared, 
Mr. Chairman, on some cars, and it said, ``Imagine peace.'' And 
at first I looked at it, because where I was, definitely in the 
antiwar camp, and saying, ``What does that mean?'' And then I 
realized that we had almost gotten to a point where we couldn't 
imagine what it would be like not to turn on the TV and see 
dead soldiers, Americans, as we're seeing now every day. So, we 
need to always think ahead to the day when we will have that. 
And we need to have action now to get to that place.
    And here's where I'm worried. I see paralysis setting in, 
in the political sector of our own country. And it's almost--
it's a fear of what's happening now, but a fear of how it could 
look, ``It could be worse.'' And I think when you get into that 
place, where you're fearful of what's happening now, but you 
fear the unknown of what could be worse, you're stuck. And I 
think we're stuck, and I think we need to start talking about a 
vision. We have to think diplomacy and talk about diplomacy. We 
have to think about peace and talk about peace. We have to 
challenge al-Maliki, who--and now, if--I apologize to him in 
advance--I have never heard the man stand up in a speech and 
say, ``I am calling for a cease-fire in my country that I love 
so much.'' I haven't heard that. I want to hear that.
    And it's one thing to talk about the American civil war, 
where Americans versus Americans; it's another thing to have an 
Iraqi civil war, where Americans are paying a huge price. And 
you quoted, in your written statement, your longer version, of 
a soldier--and you name him--that was from the New York Times 
story--who said, ``Who the hell is shooting at me?'' They don't 
know. And, to this, we're going to escort another 21,000 of our 
beautiful children, and some of them are fathers and mothers. 
We're putting them into that hell.
    So, I'm glad that you're using the words ``peace,'' and I 
want to talk to you about something I've been pushing, and my 
chairman knows I am, because I said most people are paralyzed, 
not everyone. Our chairman has come forward with a vision of 
how this thing can end up in a place where people will stop 
killing each other and yet keep together the country of Iraq to 
do the things a country has to do, including making sure the 
oil is shared in a fair way. It's not three separate countries. 
He's gotten a rap on that. Never was. Always semiautonomous, 
policing by your own people, trust built up in that kind of--
it's just what's happening in Kurdistan.
    Now, today we had a breakthrough, I think, with Dr. 
Kissinger. Dr. Kissinger said, essentially--and I am being fair 
in what he said--he said, ``You know, I think that's where it's 
going,'' he said, in answer to my question, ``it's going to the 
Biden plan. It's moving that way, but we have to be careful not 
to put the American stamp on it, because that wouldn't be 
good,'' to which I said, ``I'd rather have us in the middle of 
a diplomatic solution than in the middle of a civil war.''
    And I'm asking you the same question. And I'm not asking 
you to endorse the Biden-Gelb plan, or the Gelb-Biden plan, 
however it is, but isn't it time now to think--not only think 
diplomacy, but act as if that is where we're going? The 
American people voted to get us out of there, in my opinion. 
Yes; they're cautious. None of our plan--I'm on the Feingold 
bill, Feingold-Boxer--we say it's going to take 6 months, and 
we're going to leave antiterror forces there, we're going to 
leave training forces there. Not one plan says we're walking 
away from the region. But the American people want us to get 
out, want our soldiers to stop dying, want a diplomatic 
solution. What did the President give them? A military 
strategy, a battle plan, for 21,000 troops.
    So, I'm asking you, because I get frustrated sometimes with 
diplomats, of which I readily admitted before, I'm not one, you 
know that--because I'm afraid that diplomats sometimes, by 
nature, are cautious in what they say, because that's your job, 
that--you have to keep everybody moving, and you can't shut off 
any ideas. And I get it. But if we could agree that now is the 
time to think diplomacy, rather than keep talking about surges 
and so on, is it not time for, maybe, a consensus to develop 
around this notion of a meeting, whether it be regional, 
international, where everyone comes to the table with their 
plans?
    You know, yesterday, I had an all-day hearing on global 
warming. It was the most interesting thing. And, Mr. Chairman, 
I missed you desperately. You were here. But we had--a third of 
the Senate came--a quarter in person, the rest wrote. What was 
that--why was it important to do that? Because we want to see 
where everybody is, and we want to envision not the catastrophe 
of global warming, but how we're going to solve it. And so, we 
came together as a U.S. Senate yesterday. It was a fascinating 
thing. And I think we are way past the time where we have to be 
much more aggressive about demanding a kind of a conference 
where the ideas to solve this problem all come on the table. 
And I'm wondering if you feel that sense of urgency for 
diplomacy and specific solutions.
    Ms. Albright. Thank you, Senator. And I think that I have 
sometimes been known for being fairly blunt while I have been 
trying to be diplomatic.
    I think we need a surge in diplomacy. That is what is 
essential here. And what has troubled me is that there has not 
been any kind of a comprehensive diplomatic approach to what is 
happening--in the Middle East, specifically; but generally. 
Comprehensive diplomatic planning is not a hallmark of this 
administration. And I think that that has been very much 
missing.
    So, I would agree that what has to happen is a big 
diplomatic push. I was interested in what Dr. Kissinger had to 
say. I think--he and I obviously talk fairly frequently, and we 
have talked about the idea of a regional diplomatic approach, 
where, in fact, you actually talk to everybody, where you might 
begin by having a contact group of the immediate powers, the 
Permanent Five of the Security Council and then the regional 
countries. But I believe that what is happening in the region 
is in the national interest of a number of different countries, 
and they should be at the table. So, I think that there needs 
to be a very comprehensive diplomatic approach.
    On the idea of what happens to Iraq, I think that--I do 
think it's essential to talk about the territorial integrity of 
Iraq, which both you and Chairman Biden have talked about. What 
I am troubled by is that this administration failed, after the 
invasion, to discuss with the political people in Iraq the 
concept of federalism--that is something we happen to know 
something about--when they were searching for particular ways 
to run a country that clearly is composed of a variety of 
different sects, groups, and religious approaches. And so, I 
think the idea of the--as the Constitution of Iraq is written, 
which allows for--and mandates, in fact--a great deal of 
regional autonomy, is appropriate. I think there are certain 
central powers that a government needs. Some of it has to do 
with the oil revenue and various other parts. So, without 
endorsing any plan, I do think reality here sets in that there 
will be regional autonomy. I do think we have to be very 
careful not to pursue or precipitate a breakup of Iraq as a 
country, because I think, as all of you have described, it 
would have a dangerous impact on the rest of the region. But it 
is time for us to have a surge in diplomacy.
    Senator Boxer. Mr. Chairman, can I just finish, in 30 
seconds? Thank you.
    Senator Biden's plan never called for breaking up the 
country into separate countries, so I have to say that a 
hundred times. Never, ever did. It's always been the type of 
system that is allowed in the Iraqi Constitution. I just think 
sometimes, you know--no one, that I know of, is suggesting it, 
at least not in the Senate. So, I wanted to clear the point on 
that.
    But I just want to thank you very much. I don't know how 
many people saw--in the news this weekend, there was a 
conversation with the people who were close to al-Sadr. And 
what al-Sadr said is, as soon as the American troops are ready 
to go after him, he's gone away. And he and his boys are going 
to other parts of Iraq to increase their organization. They're 
not going to stand out there and be killed. And so, while we're 
surging, he's going to expand his influence in the rest of the 
country. So, how this surge, in the long run, is going to help 
us resolve things is beyond me, and the only way is what you 
say, a diplomatic surge, an idea such as the chairman's and 
others, on the table to give hope to the people that there is a 
peaceful way out of this nightmare. And I just want to thank 
you for continuing to come forward, because it's very charged, 
and it's very hard, and I thank you for your words today.
    Ms. Albright. Thank you. If I might just comment, I have--
when asked about Senator Biden's plan, I have said that, in 
fact, it is an attempt to keep the country together----
    Senator Boxer. Good.
    Ms. Albright [continuing]. Which I do believe is what it is 
about. I'm just talking about, in the long run, what might 
happen that we do have to watch out for. But I think it is very 
clear, from my reading of the plan, that it is done in order to 
keep the country together, and I do think that is an essential 
point.
    I also think that a point that you make is, our troops are 
in a very difficult position. They are there, their presence is 
necessary for security, but their presence is also a flypaper 
attracting everybody who hates us. So, there are no simple 
solutions here, which is why I think that we have to have a 
discussion, such as you all are initiating.
    Next, on Iran, I would like to know what is going on with 
our Government's policy toward Iran.
    Senator Boxer. Thank you.
    The Chairman. Thank you. So would I, Madam Secretary.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Madam Secretary, let me ask you a question based upon your 
longtime extraordinary leadership with the National Democratic 
Institute and your interest in democracy, generally. We had a 
panel, the other day, which included a witness who had been 
working for the National Endowment for Democracy, but also 
included the son of President Talibani, and two other persons 
with roots in Iraq. What I took away from that panel was a 
description of Iraq after our military operations were 
concluded; in a word: Anarchy. They described how there was 
very little policing in most of the areas of the country. As a 
result, bandits, common criminals, preyed upon people, not 
simply in Baghdad, but really throughout the country. And, 
therefore, the thing people care about most there, quite apart 
from our interest in democracy for the country, or some central 
government, was simply protection for themselves, for their 
property, and so forth.
    From this desire for security, they suggested, grew many 
militia, not simply the well-known ones that involve thousands 
of persons, or those identified with sectarian causes, but 
local groups of people who exercise some political authority.
    Out of the midst of this, the United States worked with 
some authorities in Iraq to have elections, elections with 
regard to people in Parliament, one with regard to the 
Constitution, but some of our witnesses said these elections 
confirmed about the number of Sunnis there are in the country, 
how many Shiites, likewise, and how many Kurds. So, it is as if 
we took a census. The Shiites, as the most numerous group 
predictably got more representatives than the others.
    Secretary Kissinger, this morning, made the point that in a 
situation in which there are not well-established institutions 
which recognize minority rights, which have these checks and 
balances and human rights and so forth, in essence, democratic 
votes may simply confirm that one side is dominant and there is 
a sectarian feeling that dominance may then be enforced by a 
government which comes from all of this.
    I'm asking your view--was our pursuit of democracy, the 
stages that occurred there, appropriate? If it was not, was 
there, at any point, an opportunity for these institutions that 
buttress democracy to grow? Or, in the sectarian situation, is 
there going to be a sense, for a while, of minority rights, 
rather than winner-take-all? And, finally, if, in this current 
situation, the Maliki government, the Shiite government, feels 
that somehow it is being undermined and seeks assistance from 
Iran so that it preserves at least the Shiite side of it, as 
well as maybe some civil authority in Iraq, how are we to 
respond to that?
    Ms. Albright. Well, we've hit on my favorite subject, so--
but I think that the issue here is that I think we're all 
alike, and people want to be able to make decisions about their 
own lives. Therefore, I do believe that democracy is not just a 
Western whim, but something that does fit across the world. But 
you cannot impose democracy. Imposing democracy is an oxymoron. 
And what the National Democratic Institute had done in various 
places--we're in over 60 countries now--is to support democracy 
in various places where there are ideas and people want to 
participate in their own government.
    I think that many mistakes were made early on in Iraq, in 
terms of not understanding what had to be done with the 
political structure. We talked about the federalism issue. 
Also, that elections would, in fact, make clear that the Shia 
were the majority population. But it is possible to have 
elections in which the majority is elected, while minority 
rights are also honored.
    And I think that we have learned that democracy is not an 
event, democracy is a process. And there have been, I think, 
positive feelings about democracy in Iraq. I do think, when we 
saw the purple fingers and everything, it was a legitimate 
movement, there were people who took great risks to go out and 
vote at that time. NDI has been on the ground, we have been 
training a lot of people. Very sadly, we lost a person last 
week, Andrea Parhamovich--from Ohio--who was a wonderful young 
woman.
    But the truth is that we can't give up on Iraq. We will not 
have a functioning Jeffersonian democracy, or Jacksonian or any 
other, for the time being. But I do believe in the idea of 
democracy support. I do not believe in the possibility of 
imposing democracy on Iraq, which I think was really part of 
what was happening there.
    Senator Lugar. I offer my sincere condolences to the entire 
NDI family on the death of Ms. Parhamovich. But, let me ask one 
question you've raised that Iran brings into this international 
context. There are fears on the part of some of the Sunni 
nations surrounding Iraq that the Shiite government might ally 
with Iran. What are the dangers there?
    Ms. Albright. Well, I think that we have to be very careful 
about a long-range trend in the region which is an Arab-Persian 
war--Sunni-Shia, if you want to describe it that way. And I 
think that it is of great concern. And we should try, in many 
ways, to hope that we're not in the middle of it, and also to 
do everything to try to mitigate such a possibility. That is 
not done, frankly, by deciding that we're never going to talk 
to Iranians. And the relationship between the Shia in Iraq and 
the Iranians exists, that's there. And I do think that our main 
problem is trying to figure out how to develop an area within 
the Middle East where these shifts can be absorbed peacefully, 
where we are part of some kind of a new security framework and 
are able to deal with what I think could be a disaster, which 
is a Persian-Arab war.
    Senator Lugar. Thank you.
    The Chairman. Thank you very much.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. I appreciate 
your courtesy, as well, throughout the hearing.
    And, Madam Secretary, it's great to see you again, and we 
appreciate your service. And I want to thank you for your 
candor.
    You know, I read your testimony before Secretary Kissinger 
finished his, and used some of it to ask questions, so there's 
some degree of unanimity on one or two of these issues. Part of 
your testimony talks about that there are no good options, just 
the best of what exists. And the result is that every 
alternative now carries with it great risk and the potential 
for even deeper and wider strife. Secretary Kissinger agreed 
with that.
    But then, you go on to say, ``Each depends,'' talking about 
the alternatives, ``for success far more than what others--on 
what others do than on what we do,'' This is another way of 
saying that, despite our power, we have lost control of the 
most important U.S. national security initiative of this 
decade. And Dr. Kissinger had a little bit of a different view 
of that. He felt that we could still drive the effort by our 
leadership to try to get others, who are critical to achieving 
success, to do what we would help them to do to achieve that.
    How do you see that? At this point, how do you see us being 
able to drive, or to change that dynamic, so that, while we may 
have lost control, as you say, of the most important U.S. 
national security initiative of the decade, we seek to regain 
some of that control? In another part of your written 
statement, you say, ``An arrangement must be worked out that 
will give each side more than they can obtain through continued 
violence.'' The question is: How do we get to that set of 
circumstances? How do we make, in other words, Iraqis love 
their children more than they hate their neighbors?
    Ms. Albright. It's going to be very difficult for me to say 
what I'm about to say, which is that I am very troubled by 
America's reputation, at this point. I very much thought, and 
continued to say, often, when I was Secretary, that the United 
States was the indispensable nation. I have fully believed 
that, and I have thought and believed in the goodness of 
American power. I continue to believe in the goodness of the 
American people and our overall direction, but, rather than 
being in a position where we can drive something now, when we 
get involved in something, people are very suspicious about it.
    I just came back from West Africa and East Africa, where 
people were saying, ``Well, you know, America's position on 
Sudan is really basically some kind of a reaction to what 
they're not doing in the Middle East.'' And everything is 
viewed with suspicion. And that troubles me incredibly, because 
the world needs America to have ideas, to put bridging 
proposals on the table, and yet, at the moment, our motives are 
suspect everywhere.
    Therefore, I think that what is essential is for us to 
begin to use the diplomatic tool much more, which is why I 
thought that working through some kind of a contact group would 
be a good idea, also trying to see the Middle East as a 
regional issue. Secretary Kissinger spoke at length about 
history, and I think--feel very strongly that people need to 
look at the Middle East in a historical way. President Clinton 
told me to read one particular book, called ``The Peace to End 
all Peace,'' which provides a history of how the modern Middle 
East was created after the end of the First World War. And the 
short version was that it happened because the British and 
French bureaucracies were lying to each other. When the British 
left the area, the United States became the, kind of, governing 
power.
    And what is viewed in the Middle East now is that we are 
all colonial powers, and there is a massive shift going on in 
the region. I think we have to recognize that. We have to be 
there to support those who want to live in peace and live in 
countries that make sense. But I'm sorry to say that, at this 
moment, it's a little hard for the United States to put down a 
plan and say, ``Salute,'' because our motives are suspect. That 
is the reason that there has to be very active diplomacy, a 
regional plan.
    And I also would say the following. We have to be 
protective of our national interest. The United States did not 
begin World War I or World War II, but, when we saw that it 
affected our national interest, we went in there and fought. 
The Europeans and others who did not favor this war and have 
criticized it, need to understand that what is going on in the 
Middle East affects their national interest, and they need to 
get in there and help. They have to help in the training of a 
lot of the Iraqis, they have to help in a lot of the 
reconstruction. It means we have to share the contracts a bit. 
But they need to understand that they also have a national 
interest in this. And, therefore, internationalizing this 
issue, understanding the shifts in the Middle East, is where I 
think we need to go.
    But I don't want anybody to misunderstand me in terms of my 
respect for what our troops have done, the support that the 
American people have given, and the necessity that ultimately 
America continues to play a vital role in the world. But, at 
the moment, our moral authority is seriously damaged.
    Senator Menendez. Under the heading of the part of your 
statement that says, ``An arrangement must be worked out that 
would give each side more than they can obtain through 
continued violence''--what would you envision some of that 
being?
    Ms. Albright. Well, I think that the violence is just--I 
can't visualize what it's like to live in Baghdad or Basra or 
places where people are terrified to go to meetings. Violence 
is getting them nowhere. And I think that what needs to be done 
is to really work on--as everybody has said, there have to be 
political solutions to this; there are no purely military 
solutions. A political solution will provide majority rule, 
but, as many people here have learned, minority rights are also 
very important. And so, there has to be a structure which 
permits that, which recognizes the differences among the 
various groups in Iraq, where they gain by not killing each 
other, but in sharing the wealth of what is a pretty resource-
rich country. And I think, also, that the religious leaders 
need to play an important part in this search for common 
ground. None of it is easy, believe me. And it has been 
exacerbated by the fact that, as others have described, there 
is routine killing and gangs. But they can gain more by a 
political solution in which minority rights are recognized and 
resources are shared.
    Senator Menendez. One very last question. Lee Hamilton was 
here with Secretary Baker and he basically said he has little 
faith in Prime Minister Maliki, in terms of having a series of 
benchmarks, chances to meet them, and not achieving them. 
What's your assessment of that?
    Ms. Albright. Well, I don't know Prime Minister Maliki. I 
think that it is very hard for us to say they're a sovereign 
government and then expect them to do exactly as we want them 
to. On the other hand, if our forces are there, helping, then 
we do have the right to advocate certain--``benchmarks'' is the 
best word, not a timetable, but--benchmarks, in terms of what 
they need to achieve in moving forward on getting the oil 
legislation passed or in working together on developing some of 
the political institutions.
    We cannot leave this as open-ended. I think that's an 
essential part. We also have to make clear that we don't want 
to have permanent bases there. And we have to make clear that 
we need to see some progress. So, I would agree with the 
general thrust of the Iraq Study Group on this, and some others 
who have testified.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Lugar [presiding]. The Chair has asked me to 
recognize Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Madam Secretary, thank you for your public service and your 
levelheaded approach to foreign affairs. And thank you for your 
great accomplishments while heading up our diplomatic efforts.
    The Iraq Study Commission said, we ought to open up to 
Syria. Now, I understand you've already discussed this issue 
here earlier today. I went to Syria. We saw a little crack in 
the door after a very sharp exchange between myself and 
President Assad on things that we disagree on. But he did open 
the door, as he did 3 years ago, to cooperation with the 
Americans on better control of the border. And he followed 
through on that over the last 3 years; albeit sporadic, there 
was cooperation, and then the cooperation precipitously stopped 
a couple of months after the assassination of Rafik Hariri. Now 
President Assad has opened the door again. What would be your 
advice to us in order to continue this dialog if the executive 
branch refuses to engage in it?
    Ms. Albright. Well, first of all, my general belief is that 
one gains by communication with countries with whom we 
disagree. In fact, it is even more important, because we need 
to know what's going on and what their thinking is. And I 
certainly met with people that I didn't agree with--Milosevic 
or Kim Jong Il. But I think that it is a way to learn a lot and 
to deliver some pretty tough messages.
    I think that we need to take advantage of openings that 
President Assad provides, for a number of reasons. One, we need 
their--we need Syria's help, in terms of the way you have 
talked about the border issues, but also I think it would be 
very useful to somehow separate, a bit, this kind of peculiar 
alliance or relationship between Iran and Syria. I also, 
without breaking any laws, in terms of negotiations, I think 
that there are ways for various parliamentarians to meet, for 
dialog through private channels, track-two diplomacy, and a way 
to try to indicate that Americans are interested in learning 
what is going on in Syria.
    We also learned, through the newspapers, that there were 
some attempts to restart the Israel-Syria talks. So, there are 
any number of avenues, I think, where it would not hurt, and I 
think it would be in U.S. national interests, to try to find 
out more what President Assad is thinking, which in no way 
would lessen our interest or our desire to find out what 
happened on the assassination of Prime Minister Hariri. I think 
we're able to do both things at the same time.
    Senator Bill Nelson. I raised the issue of Iran with 
President Assad, in the way of, ``Would you not realize, Mr. 
President, that, down the line, your interests are opposite 
those of Iran, and that Iran ultimately wants Persian 
domination of the Arab countries in the region? And yet, you're 
establishing a relationship right now that ultimately is going 
to haunt you.'' He disputed that. What would you, as someone 
who is extraordinarily experienced in these matters of 
diplomacy, advise us as an avenue to convince Syria--
specifically, Assad--that Iran is really not his friend?
    Ms. Albright. Well, I think you've pointed out the whole 
value of having these kinds of conversations, because there are 
not a lot of people around President Assad who, I think, are 
willing to challenge a lot of his thinking. And, therefore, it 
is important for people with historical background and 
understanding of the long-term problems to sit there with him 
and point up what you have said you did. It doesn't mean he's 
going to agree with you overnight, but if enough people deliver 
the same message--I dealt with President Assad, and--having 
also dealt with his father, before that--and I think that 
repetition works and that it is important. And that's the 
reason to open up a variety of channels to be able to point up 
what is happening in the whole Middle East, that Syria can, in 
fact, ultimately take its position within the Arab world, but 
that it has to behave responsibly and it has to understand what 
the threats to its national interests are, too. And that's why 
an outsider that can point these things up, I think, is very 
useful.
    Senator Bill Nelson. Given the fact that there is a schism 
in Iran--we've seen it in the local elections recently, we've 
seen other evidence that Ahmadinejad is being reined in--would 
you advise that this is an opening for the United States? Could 
some kind of dialog ultimately bring about more moderation in 
the extremist kind of statements and views expressed by the 
President of Iran?
    Ms. Albright. Well, let me start out by saying none of this 
is easy. Iran is a very complex place. Our history with Iran is 
equally complex. And during the Clinton administration, we 
tried a number of ways to push. This is when President Khatami 
was in office, and one had to be very careful. They, in fact, 
did not respond, and I have it on pretty good authority that 
some of them are sorry that they didn't. But, again, I do think 
the statements that President Ahmadinejad has been making are 
preposterous and do not deserve a face-to-face meeting, then, 
with an American official leader. But there are a number of 
different groups in Iran. We do know--I found Tom Friedman's 
column, this morning, very interesting, where he points up how 
many people are educated in Iran, what the problems are, in 
terms of dissent, the fact that people feel that they are not 
getting a reward for the richness of Iran's oil wealth. And I 
think that there, again, are ways that there can be track-two 
diplomacy and that there are other people in Iran that can be 
spoken to by Americans, as well as non-Americans. And so, for 
the same reason, I would try to parse that situation and make 
it--it's interesting to me that, in fact, there has been 
criticism of Ahmadinejad in Iran for the statements that he's 
made, both on the nuclear issue and others. And I think we need 
to be able to work within that, through a variety of other 
groups and track-two diplomacy, as well as official contacts.
    The Chairman [presiding]. Do you have any--you want to 
follow up with anything, Senator? You're welcome----
    Senator Bill Nelson. Well, I'm so shocked.
    The Chairman. Well, you're here, and, even more shocking, I 
haven't asked any questions yet, so I'm going to--the Secretary 
has been very gracious with her time, and the good news is, 
there's not a lot of people left here, at this moment, and----
    Senator Bill Nelson. Well, I would like to ask one more 
question.
    The Chairman. Please. You go right ahead.
    Senator Bill Nelson. I went to Saudi Arabia specifically at 
the request of General Hayden, the head of the CIA, because 
there hadn't been a lot of congressional delegations going to 
Saudi Arabia. And personal relationships are important in that 
part of the world. So, again, this idea of dialog, building the 
relationships, and so forth. But, as I pushed, in my talk with 
the King, and then a number of his nephews with whom I met, who 
were responsible in the various ministries for the different 
functions of the government, I didn't get the straight feeling 
that they would really get involved in Iraq and help us through 
their Sunni tribal contacts as I was requesting. From the Saudi 
point of view, clearly a more stable Iraq is in their 
interest--but I didn't get the warm feeling that they were 
really foursquare going to get in and do it. And that's not 
even to bring up the issue of: Would they help fund some of the 
reconstruction of Iraq? Can you give me an insight into the 
Saudi mind as to why? And does that portend it will be very, 
very difficult to get all the rest of those neighboring 
countries to come together and help move Iraq toward political 
compromise?
    Ms. Albright. Well, I think one of the more difficult 
things, even when one has access to all the intelligence, is to 
know exactly what's on the Saudi mind. And when we were in 
office, I found, actually, that often the Saudis were more 
helpful than the public ever knew. So, I don't know whether 
that's going on now or not. I do think that they are very 
concerned--I know King Abdullah pretty well from when he was 
Crown Prince, and I do think that they are concerned about 
changes within their own country, and--as you point out, a 
number of different sects and divisions there, and a slowness 
to reform. And, obviously, that is their major concern.
    I think that it would be good, also, for them to try to 
help in what is going on in Iraq. On the other hand, I don't 
think we want to start seeing stories in the papers, ``All of a 
sudden the Saudis are going into Iraq,'' and there's a kind of 
a concern that that will broaden everything.
    So, the question is how to get their help, in terms of 
understanding that the Sunnis should be a part of the entire 
system, and that they also need to help, ultimately, with the 
large funds that they have. And that all the countries, with 
the Saudis in the lead, would benefit if there were not such 
turmoil in the region.
    But that, again, is part of what the job of diplomacy is. 
You can't just, kind of, all of a sudden decide that the Vice 
President is going to Saudi Arabia. You need to have very 
constant contact, you need to know what is on the Saudi mind. 
As I read, there's about to be a new Saudi Ambassador here. And 
I think, again, it is very important for all of you, and many 
of us, to go to Saudi Arabia on a regular basis and talk about 
things with them. I find my trips there always very 
enlightening. And we need to know more about Saudi Arabia and 
about Jordan and Egypt and all the countries, because, as I 
said earlier, there is a massive shift going on in the region, 
and it behooves us to understand that we are in the middle of a 
systemic change and that our role there will be different.
    And I hope that we think more about some kind of an overall 
security system for the region, which is why I talked, earlier, 
about a comprehensive diplomatic approach to this area.
    Senator Bill Nelson. Do you think, after 1,327 years of 
hatred between Sunnis and Shiites, that we have a chance of 
bringing those two together----
    Ms. Albright. Well----
    Senator Bill Nelson [continuing]. In the midst of this 
sectarian violence?
    Ms. Albright [continuing]. I don't think we do, because 
most people don't even know the difference between them. I do 
think, however, that we should be in a position that we can--to 
encourage. And I never--I wrote a book about the role of God 
and religion in foreign policy--got a good title, ``The Mighty 
and the Almighty.'' And what I--I had trouble, even there, 
trying to figure out the adjectives and the nouns, and to say 
``moderate Muslims,'' because moderate Muslims don't believe 
moderately. So, I think that moderates need to be passionate 
about what they believe in. But I think that there are elements 
within Islam that are more capable of helping in this than we 
are. And that is one of the reasons that I believe that it's 
essential to get religious leaders involved in this.
    Senator Bill Nelson. Thank you.
    The Chairman. Thank you.
    Senator Casey. And then I'll wait until the end here.
    Senator Casey. My----
    The Chairman. Unless you want some time, Senator.
    Senator Casey. No; my timing is better than it normally is.
    Madam Secretary, thank you very much for your testimony 
today and for being with us, and for your public service. 
Remarkable public service at, then, a difficult time in our 
Nation's history and, I think, today, as well.
    One of the areas that I've tried to focus on in the midst 
of the great panels that Chairman Biden and Senator Lugar have 
put together for us that come from the perspective of military 
strategy and the questions that surround that, the political 
and governmental challenges that we face in Iraq, and that they 
face, of course. But I've tried to focus, as many of us have, 
on diplomacy, and sometimes, in my judgment, the lack thereof, 
or the lack of a strategic commitment to diplomacy. And I know 
you may have covered this today, but I wanted to get your 
thoughts, in terms of (a) what's gone before us since 2003, in 
terms of what I think is a lack of a strategy on diplomacy, and 
(b) and, I guess, more importantly, what we should be doing, 
what our Government should be doing--the President, the State 
Department, and certainly this committee and the Congress, in 
its oversight role--to foster a strategic diplomatic surge, if 
you will, as opposed to what I seem to see as a--kind of, 
tactical in responding to changes on the ground or public 
pressure, as opposed to a strategy effort that's sustained, and 
there's--kind of a sustained engagement over time. I don't know 
if you can answer that, in terms of what's gone before us and 
what's ahead, if you had the ability to directly impact it.
    Ms. Albright. Let me just say this, there's nothing easier 
than to be on the outside and criticize those that are 
currently involved in American diplomacy, especially when they 
criticized what we had been doing in American diplomacy. But I 
will try to contain myself.
    I do think that what has not happened is to have any kind 
of a comprehensive approach to diplomatic solutions. To a great 
extent, one of the most interesting things that's happened in--
from the perspective, now, of a professor--of the struggles 
between the State Department and the Defense Department is: 
What is the role of diplomacy? To what extent is there a real 
partnership between force and diplomacy? It is one of the 
things that was very much on my mind when we were dealing with 
the issues of Kosovo. Chairman Biden mentioned this Foreign 
Ministers group that I've pulled together. We are the people 
that worked all together through Kosovo, which is how we began 
to understand how force and diplomacy work together. And I 
don't see that happening, particularly, here. Diplomacy really 
is taking very much of a back seat. To the extent that one has 
seen it, a lot of it is ad hoc, rather than being part of a 
larger comprehensive plan.
    I believe that it is absolutely essential to begin to see 
the issues of Iraq within the region and to understand that 
diplomatic efforts have to also involve the other countries in 
the region and then other countries in the world, because what 
is happening in Iraq is definitely affecting their national 
interests.
    People often talk about diplomacy as a chess game between 
two people. It's not a chess game. In chess, you have a lot of 
time, you sit there between moves, and it's relatively quiet. I 
think it's more like a game of pool, where, in fact, there are 
balls on a table. You pick up a cue stick, you hope very much 
you can get the ball into the pocket on the other side, but, on 
the way, you hit a lot of other balls. And that's what's 
happening. And we are not considering enough the horizontal 
aspect of diplomacy and getting enough players involved in it.
    I think, also, we need to consider, for instance, that it 
isn't just the issues in the region. As we talk about Iran and 
what they're doing on their nuclear program, or not doing on 
their nuclear program, you can just bet that Kim Jong Il, in 
Pyongyang, is listening also. So, I think we have to understand 
much more the interaction of all of this and to understand that 
diplomacy is not appeasement, that it is the vehicle for 
delivering some pretty tough messages, and to get the help of 
others in trying to resolve some of these problems. So, I'm 
very glad that you are focusing on that, also very glad to see 
you here.
    Senator Casey. Thank you.
    And I was thinking, as well, about the--I think it helps 
those of us in government--and you've dealt with a lot of us 
over the years, and we're better if we have lists that are very 
specific. And I'm just wondering whether there's a--and you may 
have covered this earlier, and I had one of those five-
different-hearings-in-one-morning days, so--it's not an excuse, 
it's just an explanation for where we've been today--but I 
guess if you were thinking of the next--maybe not even 6 
months, but 3 to 6 months, if you had a short list of things we 
should do diplomatically, very specific steps, what would they 
be? If you can----
    Ms. Albright. Well----
    Senator Casey. Boiling it down.
    Ms. Albright [continuing]. I think that one which has to be 
done, for its own sake, as well as, obviously, the effect in 
the region, is for very strong concentration on the Israeli-
Palestinian issue. I know that there are those who want to make 
it central to resolving what's happening in the Middle East, 
and I think that linkage is not correct, because it's important 
to understand that issues there have to be dealt with for their 
own sake, but they have to be dealt with. And so, I was very 
glad to see Secretary Rice go to the region. I understand the 
Quartet is going to be meeting in Washington on Friday, so that 
there is some activation of that. And I think that would help 
not only the immediate issue, but also show American interest 
that has been lacking.
    I, then, also would work on trying to pull together this 
contact group of countries that have an interest in the region, 
the Permanent Five of the Security Council, plus the countries 
that surround Iraq, and--we did that when we were dealing with 
the Balkans, and it creates kind of an executive committee or a 
group that deals with this issue on a day-to-day basis, and 
then they are able, each one, as a part of that, to broaden the 
circle by having relationships with other countries. So, that 
would be one thing.
    I also would try, through diplomacy, to get other countries 
to help in the reconstruction of Iraq and in the training of 
Iraqis, because the only way that we're going to get out of 
there, which I believe we have to do, is if the security 
situation is dealt with, and the only way the security 
situation will be dealt with is if the Iraqis themselves begin 
to deal with it.
    So, I could make a longer list, but, I think, if they did 
that much, that would be a big step forward.
    The Chairman. It would keep them occupied for a while.
    Senator Casey. Three is a good list for the Congress, I 
know that.
    That's--but I know my time is almost expired, and I just 
want to reiterate our thanks to you for your public service and 
for your continuing public service in addition to which your 
testimony today gives us a lot of food for thought, and I'm 
grateful.
    Ms. Albright. Good. Thank you, Senator.
    Senator Casey. Thank you.
    The Chairman. Well, Madam Secretary, thank you. It's kind 
of like the old days. I get to sit down with you alone, and I, 
quite frankly, miss your energy and your insight.
    Madam Secretary, I just want to make a couple of things 
clear. I believe that, had the President come up to the 
Congress and to the leadership here in both parties and said, 
``Look, I have a comprehensive plan, which includes the need to 
temporarily alter force in Iraq, but here's the whole plan,'' 
he may have gotten a very different reception.
    The problem with the President's plan: It's the tactic. 
It's a tactical change in mission, inserting our troops in the 
midst of a civil war, in the single most white-hot portion of 
that civil war, a city of 6.3 million, in the middle of 
Baghdad. And so, that's what most of us are reacting to. And 
now, as Senator Lugar has said, we share the view that the 
concern is that you have friends like my good friend Senator 
McCain, who supports this, saying, ``This is the last chance.''
    Now, what I'm worried--and you and I have had discussions 
about this--my great worry is, as this administration continues 
to mishandle Iraq, the American people are not going to be 
prepared to act even in those areas where there is an 
overwhelming rationale to need to have forward-based forces, 
have forces engaged in certain circumstances. So, I'm worried 
the President's proposal here is not only going to fail, but, 
in its failure, the American people will walk away from 
whatever everybody acknowledges, from Senator Boxer to Senator 
Isakson, which says that we have interest in the region.
    And so, that takes me to the next point that I want to 
discuss with you. I realize that--I was warned, by many very 
smart people you and I both know, not to put forward a specific 
plan, months ago. It's been the only specific plan out there. 
It's not because I'm so smart. There's a lot of very, very 
important people. But it's a dangerous thing to put out a 
specific plan, as we know, in this town. And--but I was so 
convinced, from my experience in Bosnia--as you and I well 
know--I don't think it's an exaggeration to suggest, Madam 
Secretary--other than you, from the outside, I was the most 
consistent pounding voice to get us engaged in Bosnia and to 
stop the genocide, and in Kosovo. But it was your leadership--
your leadership inside that got that done. And I learned a lot 
of lessons from Bosnia.
    The sectarian violence in Bosnia and in the Balkans 
overall, for 800 years, from Vlad the Impaler on, equals 
anything that we've seen in Iraq. And I noticed what you did. I 
noticed what--at least with a little nudging and a little bit 
of help from the outside by me, what--it would be an 
exaggeration--what we did--you did it. But I was--I was rooting 
you on and making every bit of--using every bit of influence I 
could to move.
    But what did you do? You had Dayton. And what did you do in 
Dayton? You not only brought in the regional players, you 
brought in Russia, you brought in all the major players. And 
you locked everybody in a room, and you came up with something 
far, on paper, more divisive than anything I've suggested with 
regard to Iraq. You set up the Republika Srpska, with a 
separate President. You set up Bosnia, with two Presidents, one 
Croat and one Bosniak, a Muslim. And you were right. Because 
the only way there was any possibility to keep that country 
from shattering, even though all of your interlocutors, from 
France to England--I need not remind you, I know--said, ``No, 
no, no, no, no, no. No.'' Well, where are we today? The 
genocide has stopped. They're working like the devil to unite 
the country under a different constitution. Things are not all, 
as they say, ``hunky-dory'' in Kosovo, but--guess what?--
they're not killing each other, and there's hope.
    Now, what I have been amazed at is why everyone thinks, 
when I took the Iraqi Constitution--I was there that day, and 
put my finger in the ink, and I read the Constitution that we 
helped write. It calls for, it sets out explicitly that 
Kurdistan is a republic, is what they call a region. They 
define what powers regions have, what the powers of the central 
government are. I met, in my seven trips, with as many people 
as anybody in this government has, I suspect. I have been to 
Basrah. I've been to Fallujah. I've been even out into Al Asad 
Air Force Base, in the middle of God knows where. And guess 
what I found out? If you're going to keep this country 
together, you'd better give it some breathing room. The idea 
you're going to take a country, with all due respect to 
everyone, that has been a construct of the postwar era, World 
War I, that put together groups of personages who would never 
have been together as a unified country, and say, ``By the way, 
now Saddam's gone. The wicked witch is dead. You're going to 
have a strong central government,'' is beyond my comprehension. 
Beyond my comprehension.
    And so, now we're down to a situation that the only two 
plans being debated are the Biden-Gelb plan and the President's 
nonplan. Nobody else has a plan. If you look at the Iraq Study 
Group, God love them, they have proposals, but what do they 
say? They say national reconciliation, ``U.S. forces can help 
provide stability, but they cannot stop violence, they cannot 
contain it. The Iraqi Government must send a clear signal to 
the Sunnis,'' and it makes recommendations that are totally 
consistent with what I laid out 9 months ago.
    But what I can't understand is why this administration will 
not do what you and every one of us has suggested. A year ago, 
I wrote an op-ed piece, you did, Secretary Schultz, Secretary 
Kissinger, calling for an international conference. Not just 
the regional powers. What you did in Dayton. And so, what we 
call for here is to get the Islamic countries involved. Get 
Iran involved, but also get France, Germany, the Permanent 
Five--Germany is not one--the Permanent Five of the United 
Nations. Bring in Indonesia, possibly even Pakistan, India. 
Bring them in. Create a circumstance where there is incredible 
pressure to accept a system arrived at by the Iraqis that will 
be honored by the immediate neighbors. And so, what I don't 
understand is: Why do we continue to talk about something that 
I've not found a single solitary person thinks can happen in 
your lifetime or mine, and that is a strong united central 
government in Baghdad whose purpose is to rule the country and 
have the ability to get trust from all the warring factions to 
trust they'll distribute the revenues fairly, to trust that 
everyone will be treated equally? It's not going to happen. 
I've been around as long as you, Madam Secretary. It is not 
going to happen in anyone's lifetime in this room.
    So, I appreciate you suggesting that my plan--our plan--is 
to hold Iraq together, but I'd like to ask the central 
question. Do you see any possibility--and if you would, would 
you outline for me--within the next 10 years, of a strong 
central government without constitutional guarantees relating 
to energy and guarantees relating to local protecting security 
forces? I ask this question to everyone, which is: Can anyone 
picture the possibility of the Iraqi national police force--
that's what it is now--ever patrolling the streets of Fallujah? 
Can anyone imagine that happening? You know and I know, you're 
not even allowed--those forces are not even allowed to set foot 
in the Kurdish area, under the Constitution, without their 
permission. What is it that makes anybody think we're going to 
get a strong central government that will allow our troops to 
come home and not continue to be sacrificed to a sectarian 
cycle of revenge?
    Ms. Albright. Mr. Chairman, I agree with what you have 
said, in terms of the actual impossibility, I think, at this 
point, to get a kind of dominant centralized government. And if 
it comes, it will come at great expense of all minority rights, 
and, therefore, will continue the fighting.
    I appreciate all your kind words about the Balkans, and I 
do think we developed a great partnership. And we did manage to 
get all those people--we had to lock them at Dayton, but we did 
manage to get something done.
    Every situation is slightly different, but I do think that 
the concept of having an international conference where others 
participate in the solution is what is necessary. And I must 
say I regret the extent to which your ideas were misinterpreted 
up front, because some people just talked about it as a 
partition. It is not a partition. And I agree, also, with you, 
that there has to be breathing space for the various regions.
    I do think there is a problem, in that some of the 
neighboring countries might then take advantage of it, and 
there also might be elements within some of these regions who 
would then move for some kind of independence. But the bottom 
line is, that is not the necessary outcome of it.
    I think the reason that it is not--that an international 
conference is not being considered is that this administration 
is not exactly big into international conferences or 
partnerships or trying to work a problem out. And it is an 
issue, because, as powerful as we are, the issues that are out 
there cannot be dealt with by the United States alone, and it 
is not a derogation of our responsibilities in order for us to 
share this problem with other countries.
    Which leads me to say what you started out with. I am 
deeply concerned that when this war is over--and it will be 
over--that the American people will basically say, ``We've had 
it. We have enough problems in this country.'' And we do. It's 
what I call the ``Katrina Effect.'' If you can't pay attention 
to what's happening at home, then people are not eager to help 
abroad. But we have to be engaged. The world could not exist 
without American engagement. And I hope that we do not allow 
that to happen.
    And further, Mr. Chairman, I'm very troubled about what has 
happened to the word ``democratic.'' This administration, 
because of--it has militarized democracy in Iraq--is giving 
democracy a bad name. And the United States cannot be the 
United States if we do not understand that we are better off if 
other countries are democratic, if we support democratic 
movements. We can't impose them. But I hope very much that we 
all do not turn away from the concept that democracy is the 
best form of government.
    Thank you.
    The Chairman. Well, Madam Secretary, I appreciate your 
testimony. The reason I waited to go last was to be able to 
raise that broad context with you. And you and I, as I said, go 
back a long way. And I appreciate your input and response to my 
larger question.
    I'll conclude by saying that it's about time we 
acknowledged the reality which is happening on the ground. It's 
about time we get specific about a political solution, not just 
calling for one--suggesting one. And it's about time we get the 
international community, who I believe is ready to embrace it. 
And I assure you, in my view--if the Kurds understand, which 
they do in my discussions, that a disintegration of Iraq, which 
may happen, putting them in the position where they're de facto 
independent, is the very thing that will bring the Turks in. 
The only way to keep the Kurds safe and not have that 
expression they have, ``the mountains are their only friends,'' 
is to make sure there is a united Iraq, loosely federated. 
Absent that, we have a war on our hands, in my humble opinion.
    But I believe this is becoming inevitable. I think we'll 
find a lot of people coming around to, if not exactly what Les 
Gelb and I proposed--something closer to it, because the 
reality is 3.5 million people have already fled Iraq. The 
cleansing is well underway. And the rest of the concerns we 
have are: Iran is getting involved, the Syrians are indirectly 
involved, the Saudis are threatening to become more involved. 
So, the question is: How do you stop the thing that we're all 
saying we don't want to have happen? And I would respectfully 
suggest, if not the only way, one of the ways is as I've 
suggested.
    And I mean what I said about your leadership on Bosnia and 
your leadership in Kosovo. It saved a serious, serious, serious 
dislocation, and not just in the Balkans, but all of Europe, 
and you--in my view, your tenure will go down in history for 
having avoided that.
    I thank you very much. We are adjourned. Excuse me for my--
--
    Ms. Albright. Mr. Chairman, could I just thank you----
    The Chairman. Sure.
    Ms. Albright [continuing]. For having these hearings? I 
have very carefully followed and read the transcripts. I think 
you have, in fact, provided a forum for a truly serious 
discussion of the issues in Iraq, and I hope, Mr. Chairman, 
that you do the same for Iran.
    The Chairman. I will.
    Ms. Albright. You made very clear that the President does 
not have authority to expand the war into Iraq, and I hope very 
much that, as chairman of this committee, that you will also 
proceed to give this kind of a discussion on that.
    Thank you so----
    The Chairman. Be sure I----
    Ms. Albright [continuing]. Much for asking me to come.
    The Chairman [continuing]. Madam Secretary. Thank you.
    [Whereupon, at 1:02 p.m., the hearing was adjourned.]


                     IRAQ IN THE STRATEGIC CONTEXT,
                               SESSION 2

                              ----------                              


                       THURSDAY, FEBRUARY 1, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:23 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Joseph R. Biden, 
Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Bill Nelson, Menendez, Cardin, 
Casey, Webb, Lugar, Hagel, Coleman, Sununu, and Voinovich.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order.
    Mr. Chairman, before we begin the hearing, I'd like to make 
a very brief comment on Senator Warner's resolution on Iraq.
    Three weeks ago before this committee, Secretary Rice 
presented the President's plan for Iraq. It's main feature is 
to send more American troops into Baghdad in the middle of what 
I believe is a sectarian war. The reaction on this committee, 
from Republicans to Democrats alike, ranged from profound 
skepticism to outright opposition. And that pretty much 
reflected the reaction across the country.
    Senators Hagel, Levin, Snowe, and I wrote a resolution to 
give Senators a way to vote what their voices were saying. I 
believe that was the quickest, most effective way to get the 
President to reconsider the course he's on and to demonstrate 
to him that his policy has little support across the board in 
this body.
    After we introduced our resolution, Senator Warner came 
forward with his. The bottom line of our resolution is the same 
as Senator Warner's: ``Mr. President, don't send more troops 
into the middle of a civil war.''
    There was one critical difference. As originally written, 
Senator Warner's resolution left open the possibility of 
increasing the overall number of troops in Baghdad, as well as 
in Iraq. We believed--the sponsors of our resolution--that that 
would send the wrong message. We ought to be drawing down and 
redeploying within Iraq, rather than ramping up, to make clear 
to the Iraqi leaders that they must begin to make the hard 
compromises necessary for the political solution virtually 
everyone acknowledged is needed to bring this conflict to a 
somewhat successful end.
    We approached Senator Warner, my cosponsors and I, several 
times, to try to work out our differences, and I am very 
pleased that last night we succeeded in doing just that. The 
language that Senator Warner removed from his resolution 
removed the possibility that it can be read as calling for more 
troops in Iraq. With that change, I am pleased to support 
Senator Warner's resolution.
    When I first spoke out against the President's planned 
surge before the new year, I made it clear that I hoped to 
build a bipartisan opposition to his plan, because this was the 
best way to have him reconsider. And that's exactly what we 
have done. We'll see what happens on the floor. But this is 
exactly what we have done with the Biden, Levin, Hagel, Snowe, 
and the Warner, Nelson, et cetera, resolution now, all of us 
joining Senator Warner, as amended.
    Now, we have a real opportunity for the Senate to speak 
clearly. Every Senator will be given a chance to vote on 
whether he or she supports or disagrees with the President's 
plan, as outlined by Secretary Rice. If the President does not 
listen to the--and assuming that the majority is where I 
believe it is, with Senator Warner and myself and others--if 
the majority of the Congress and the majority of the American 
people speak loudly, it's very difficult, I think, for the 
President to totally dismiss that. But this is an important 
first step.
    Before we begin, let me make clear that the purpose, from 
the outset, was to get as much consensus as we could on the 
President's overall plan, and that's why I am delighted to join 
and work off of Senator Warner's resolution, which, quite 
frankly, is even a more powerful statement than ``a Biden 
resolution'' coming from one of the leading Republicans in the 
U.S. Senate.
    And today marks the final day of our initial series of 
hearings. I remind our members what they already know, that 
this committee will, as under my friend and former chairman and 
future chairman of this committee, because we've been here for 
an awful lot of changes back and forth over the years--that we 
will continue to engage in aggressive oversight in the coming 
weeks, in the coming months, and throughout this year.
    We are joined this morning by two very distinguished former 
National Security Advisors. First, we'll hear from GEN Brent 
Scowcroft, and later we'll hear from Dr. Zbigniew Brzezinski. 
They are among the best strategic thinkers in America, and 
we're honored that they're here to join us.
    And without further ado, since I did not know we would have 
worked out a compromise with Senator Warner last night--rather 
than read the remainder of my statement, I'll ask unanimous 
consent that it be placed in the record.
    [The prepared statement of Senator Biden follows:]

  Prepared Statement of Hon. Joseph R. Biden, Jr., U.S. Senator From 
                                Delaware

    Before we begin, let me make a brief comment on Senator Warner's 
resolution on Iraq.
    Three weeks ago, before this committee, Secretary of State Rice 
presented the President's plan for Iraq. Its main feature is to send 
more American troops into Baghdad, in the middle of a sectarian civil 
war.
    The reaction on this committee, from Republicans and Democrats 
alike, ranged from skepticism to prfound skepticism to outright 
opposition. And that pretty much reflected the reaction across the 
country.
    Senator Hagel, Senator Levin, Senator Snowe, and I wrote a 
resolution to give Senators a way to vote what their voices were 
saying.
    We believe that the quickest, most effective way to get the 
President to change course is to demonstrate to him that his policy has 
little or no support across the board.
    After we introduced our resolution, Senator Warner came forward 
with his. The bottom line of our resolutions is the same: Mr. 
President, don't send more Americans into the middle of civil war.
    The was one critical difference. As originally written, Senator 
Warner's resolution left open the possibility of increasing the overall 
number of American troops in Iraq.
    We believed that would send the wrong message. We ought to be 
drawing down, not ramping up, and redeploying our forces that remain in 
Iraq. That's the best way to make it clear to the Iraqi leaders that 
they must begin to make the hard compromises necessary for the 
political solution virtually everyone agrees is necessary.
    We approached Senator Warner several times to try to work out the 
differences. I am very pleased that last night, we succeeded in doing 
just that.
    The language Senator Warner removed from his resolution removed the 
possibility that it can be read as calling for more U.S. troops in 
Iraq.
    With that change, I am pleased to support his resolution.
    When I first spoke out against the President's planned surge before 
the new year, I made it clear that I hoped to build bipartisan 
opposition to his plan because that was the best way to turn him 
around. And that is exactly what we have done.
    Now, we have a real opportunity for the Senate to speak clearly. 
Every Senator will be given a chance to vote whether he or she supports 
or disagrees with the President's plan to send more troops into the 
middle of a civil war.
    If the President does not listen to the majority of Congress and 
the majority of the American people, we will look at other ways to 
change the policy.
    But this is an important first step.

    The Chairman. And welcome to you, General. It's truly an 
honor to have you here. You're one of the most respected men in 
this country.
    And I will now yield to my colleague, Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    I thank you for holding this hearing, and I welcome our 
distinguished former National Security Advisors.
    This is, by our count, the 14th meeting of this committee 
on Iraq since the committee began its series of hearings, on 
January 9. And, just parenthetically, Mr. Chairman, I 
congratulate you, and your staff working so well with our 
staff, in a bipartisan way, on bringing before the committee, 
and, therefore, before the Senate and the American people, a 
galaxy of remarkable people, both American and Iraqi, who have 
addressed this issue, with profit to all of us.
    These bipartisan hearings have given us the opportunity to 
engage administration officials, intelligence analysts, 
academic experts, former national security leaders, Iraqi 
representatives, and retired military generals on strategy in 
Iraq and the broader Middle East. And this process has provided 
members a foundation for oversight, as well as an opportunity 
to dialog with each other.
    On Tuesday, our committee hosted Secretary of State James 
Baker and Representative Lee Hamilton, the cochairs of the Iraq 
Study Group. Both witnesses voiced the need to move Iraq policy 
beyond the politics of the moment. Even if Congress and the 
President cannot agree on a policy in Iraq in the coming 
months, we have to find a way to reach a consensus on the 
United States role in the Middle East.
    Yesterday, Secretary of State Henry Kissinger recalled a 
half-century of U.S. involvement in the Middle East. He argued 
that this history was not accidental. We have been heavily 
involved in the region because we have enduring interests at 
stake, and these are interests that are vital to our country. 
Protecting those interests cannot be relegated to a political 
timeline. We may make tactical decisions about the deployment 
or withdrawal of forces in Iraq, but we must plan for a strong 
strategic posture in the region for years to come.
    Both the President and Congress must be thinking about what 
follows our current dispute over the President's troop surge. 
Many Members have expressed frustration with White House 
consultations on Iraq. I've counseled the President that his 
administration must put much more effort into consulting with 
Congress on Iraq, on the Middle East, on national security 
issues, in general. Congress has responsibility in this 
process. We don't owe the President our unquestioning 
agreement, but we do owe him, and the American people, our 
constructive engagement.
    I appreciate that the administration wants a chance to make 
its Baghdad strategy work, and, therefore, is not enthusiastic 
about talking about plan B. Similarly, opponents in Congress 
are intensely focused on expressing disapproval of the 
President's plan through nonbinding resolutions. But when the 
current dispute over the President's Baghdad plan has reached a 
conclusion, we will still have to come to grips with how we are 
to sustain our position in the Middle East.
    At yesterday's hearing, I noted that Secretary Rice had 
taken steps that shift the emphasis of U.S. Middle East policy 
toward countering the challenges posed by Iran. Under this new 
approach, the United States would organize regional players--
Saudi Arabia, Jordan, Egypt, Turkey, the Gulf States and 
others--behind a program of containing Iran's disruptive agenda 
in the region. This would be one of the most consequential 
regional alignments in recent diplomatic history. Such a 
realignment has relevance for stabilizing Iraq and bringing 
security to other areas of conflict in the region, including 
Lebanon and the Palestinian territories. Moderate states in the 
Middle East are concerned by Iran's aggressiveness and by the 
possibility of sectarian conflict beyond Iraq's borders. They 
recognize the United States is an indispensable counterweight 
to Iran and a source of stability. The United States has 
growing leverage to enlist greater support for our objectives 
inside Iraq and throughout the region. In this context, the 
President's current Iraq plan should not be seen as an endgame, 
but, rather, as one element in a larger Middle East struggle 
that is in its early stages.
    The President should be reaching out to the Congress in an 
effort to construct a consensus on how we will protect our 
broader strategic interests, regardless of what happens in 
Baghdad in the next several months. Without such preparation, I 
am concerned that our domestic political disputes or 
frustration over the failure of the Iraq Government to meet 
benchmarks will precipitate an exit from vital areas and 
missions in the Middle East. We need to be preparing for how we 
will array United States forces in the region to defend oil 
assets, target terrorist enclaves, deter adventurism by Iran, 
provide a buffer against regional sectarian conflict, and 
generally reassure friendly governments the United States is 
committed to Middle East security.
    We look forward to the insights that will be brought to us 
by our distinguished witnesses this morning on the strategic 
and political dynamics involved in our Middle East policy.
    I thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    General, the floor is yours.

STATEMENT OF LTG BRENT SCOWCROFT, USAF (RET.), FORMER NATIONAL 
 SECURITY ADVISOR; PRESIDENT, THE SCOWCROFT GROUP, WASHINGTON, 
                               DC

    General Scowcroft. Thank you, Mr. Chairman.
    I want to commend you, Senator Lugar, and the committee, 
for undertaking this series of hearings. By any measure, the 
United States finds itself in a most difficult situation in 
Iraq. If there were an easy solution to our difficulties, we 
would have found it before now.
    In our search for resolution, we must, above all, keep our 
focus on the U.S. national interest. It is with this in mind 
that I would like, this morning, to look at Iraq in a regional 
context.
    The conflict in Iraq has brought to the surface a number of 
seemingly disparate tensions, issues, and conflicts which have 
stirred various parts of the Mideast region in a way in which 
they have now become interrelated, yet we still generally tend 
to consider Iraq as if it were in a regional vacuum. For 
example, the costs of staying in Iraq are brutally apparent to 
us, daily--troops killed, hundreds of millions of dollars 
spent--but the costs of leaving Iraq are almost never 
mentioned. It is almost as if pulling out our troops and 
leaving Iraq were cost-free. Even those who do not support 
pulling out assert that our patience is not unlimited or that 
President Maliki must step up to his responsibilities, or else. 
Or else what?
    In fact, however, the costs for U.S. withdrawal before a 
stable Iraq emerges are enormous. Our friends would feel 
abandoned, left to cope by themselves with a debacle we had 
created. Our opponents would be emboldened and encouraged to 
take the offensive. Terrorists everywhere would trumpet the 
driving of the Great Satan from the region. Moderates in the 
region, who are our great hope, would be demoralized and run 
for cover. I could go on, but the almost inevitable result 
would be a region in chaos, our friends in disarray, radicalism 
on the march, and U.S. credibility in the region, and the world 
at large, seriously damaged.
    But just as the region would suffer if we abandoned Iraq, 
the region can help us deal with Iraq. It is clearly in the 
interests of the countries of the region to help. After all, 
countries of the region provided troops and money for the 1991 
gulf war. Even Syria joined us in that conflict. But since 
then, it has come to be seen by our friends to be dangerous to 
be identified with the United States. We need a diplomatic 
initiative to change that; one which involves the entire 
region. That means Syria, Iran, and the Arab-Israeli peace 
process.
    A vigorously renewed effort to resolve the Arab-Israeli 
conflict could change both the dynamics in the region and the 
strategic calculus of key leaders. Hezbollah and Hamas would 
be--would lose much of their rallying appeal. American allies, 
like Egypt, Saudi Arabia, the Gulf States, would feel liberated 
to assist in stabilizing Iraq. And Iraq would finally be seen 
by all as a key country that had to be set right in pursuit of 
regional stability.
    Resuming the peace process is not a matter of forcing 
concessions from either side. Most of the elements of a 
settlement are already agreed as a result of negotiations in 
2000 and the roadmap of 2002. What is required is to summon the 
will of Arab and Israeli leaders, led by a determined American 
President, to forge the various elements into a conclusion that 
all parties have publicly accepted, in principle. As for Syria 
and Iran, we should not be fearful of opening channels of 
communication, but neither should we rush to engage them as 
negotiating partners. Moreover, they should be dealt with 
separately. Their interests, their concerns, are different, and 
we should not treat them as a duo. Syria cannot be comfortable 
in the sole embrace of Iran. It also has much to gain from a 
settlement with Israel, and it may be even more eager if it 
sees the peace process moving forward without it.
    Iran is a different matter. Nuclear issues, first of all, 
should be dealt with on the U.N. track, not as a part of a 
regional forum. In its present state of euphoria, Iran has 
little interest in making things easier for the United States. 
However, if the peace process makes progress, and other 
regional states become more interested or engaged in 
stabilization in Iraq, Iran may be more inclined to negotiate 
seriously.
    In Iraq itself, we should continue to encourage moves 
toward reconciliation and a unified government. With respect to 
the surge, I consider it a tactic rather than a strategic move. 
If it is successful in stabilizing Baghdad, that could begin to 
change the climate and bring a new self-confidence to Iraqi 
forces, which could be important. But it will not end the 
problem. As I say, it is a tactic rather than a strategy.
    As a general proposition, I believe American troops should 
gradually be deployed away from intervening in sectarian 
conflict. That must be done by Iraqi troops, however well or 
badly they are able to do it. Our troops should concentrate on 
training the Iraqi Army, providing support and backup to that 
army, combating insurgents, attenuating outside intervention, 
and assisting in major infrastructure protection. That does not 
mean that the American presence should be reduced. That should 
follow success in our efforts, not the calendar or the 
performance of others.
    As I said at the outset, there are no easy answers to the 
problems we face. As we move ahead, we will not find 
impatience, a quick fix, or seeking partisan advantage a friend 
to U.S. national interests over the long run. It is going to be 
hard to make a bad situation better. It will be easy to make it 
worse.
    Thank you, Mr. Chairman.
    [The prepared statement of General Scowcroft follows:]

Prepared Statement of LTG Brent Scowcroft, USAF (Ret.), Former National 
    Security Advisor; President, The Scowcroft Group, Washington, DC

                [From the New York Times, Jan. 4, 2007]

                Getting the Middle East Back on Our Side

                          (By Brent Scowcroft)

    Washington.--The Iraq Study Group report was released into a sea of 
unrealistic expectations. Inevitably, it disappointed hopes for a clear 
path through the morass of Iraq, because there is no ``silver bullet'' 
solution to the difficulties in which we find ourselves.
    But the report accomplished a great deal. It brought together some 
of America's best minds across party lines, and it outlined with 
clarity and precision the key factors at issue in Iraq. In doing so, it 
helped catalyze the debate about our Iraq policy and crystallize the 
choices we face. Above all, it emphasized the importance of focusing on 
American national interests, not only in Iraq but in the region.
    However, the report, which calls the situation in Iraq ``grave and 
deteriorating,'' does not focus on what could be the most likely 
outcome of its analysis. Should the Iraqis be unable or unwilling to 
play the role required of them, the report implies that we would have 
no choice but to withdraw, and then blame our withdrawal on Iraqi 
failures. But here the report essentially stops.
    An American withdrawal before Iraq can, in the words of the 
President, ``govern itself, sustain itself, and defend itself'' would 
be a strategic defeat for American interests, with potentially 
catastrophic consequences both in the region and beyond. Our opponents 
would be hugely emboldened, our friends deeply demoralized.
    Iran, heady with the withdrawal of its principal adversary, would 
expand its influence through Hezbollah and Hamas more deeply into 
Syria, Lebanon, the Palestinian territories, and Jordan. Our Arab 
friends would rightly feel we had abandoned them to face alone a 
radicalism that has been greatly inflamed by American actions in the 
region and which could pose a serious threat to their own governments.
    The effects would not be confined to Iraq and the Middle East. 
Energy resources and transit choke points vital to the global economy 
would be subjected to greatly increased risk. Terrorists and extremists 
elsewhere would be emboldened. And the perception, worldwide, would be 
that the American colossus had stumbled, was losing its resolve and 
could no longer be considered a reliable ally or friend or the 
guarantor of peace and stability in this critical region.
    To avoid these dire consequences, we need to secure the support of 
the countries of the region themselves. It is greatly in their self-
interest to give that support, just as they did in the 1991 Persian 
Gulf conflict. Unfortunately, in recent years they have come to see it 
as dangerous to identify with the United States, and so they have 
largely stood on the sidelines.
    A vigorously renewed effort to resolve the Arab-Israeli conflict 
could fundamentally change both the dynamics in the region and the 
strategic calculus of key leaders. Real progress would push Iran into a 
more defensive posture. Hezbollah and Hamas would lose their rallying 
principle. American allies like Egypt, Saudi Arabia, and the Gulf 
States would be liberated to assist in stabilizing Iraq. And Iraq would 
finally be seen by all as a key country that had to be set right in the 
pursuit of regional security.
    Arab leaders are now keen to resolve the 50-year-old dispute. Prime 
Minister Ehud Olmert of Israel may be as well. His nation's long-term 
security can only be assured by resolving this issue once and for all. 
However, only the American President can bring them to the same table.
    Resuming the Arab-Israeli peace process is not a matter of forcing 
concessions from Israel or dragooning the Palestinians into surrender. 
Most of the elements of a settlement are already agreed as a result of 
the negotiations of 2000 and the ``roadmap'' of 2002. What is required 
is to summon the will of Arab and Israeli leaders, led by a determined 
American President, to forge the various elements into a conclusion 
that all parties have already publicly accepted in principle.
    As for Syria and Iran, we should not be afraid of opening channels 
of communication, but neither should we rush to engage them as 
negotiating ``partners.'' Moreover, these two countries have differing 
interests, expectations, and points of leverage and should not be 
treated as though they are indistinguishable.
    Syria cannot be comfortable clutched solely in the embrace of Iran, 
and thus prying it away may be possible. Syria also has much to gain 
from a settlement with Israel and internal problems that such a deal 
might greatly ease. If we can make progress on the Palestinian front 
before adding Syria to the mix, it would both avoid overloading 
Israel's negotiating capacity and increase the incentives for Damascus 
to negotiate seriously.
    Iran is different. It may not be wise to make Iran integral to the 
regional strategy at the outset. And the nuclear issue should be dealt 
with on a separate track. In its present state of euphoria, Iran has 
little interest in making things easier for us. If, however, we make 
clear our determination, and if the other regional states become more 
engaged in stabilizing Iraq, the Iranians might grow more inclined to 
negotiate seriously.
    While negotiations on the Arab-Israel peace process are under way, 
we should establish some political parameters inside Iraq that 
encourage moves toward reconciliation and unified government in Iraq. 
Other suggested options, such as an ``80 percent solution'' that 
excludes the Sunnis, or the division of the country into three parts, 
are not only inconsistent with reconciliation but would almost 
certainly pave the way to broader regional conflict and must be 
avoided.
    American combat troops should be gradually redeployed away from 
intervening in sectarian conflict. That necessarily is a task for Iraqi 
troops, however poorly prepared they may be. Our troops should be 
redirected toward training the Iraqi Army, providing support and 
backup, combating insurgents, attenuating outside intervention, and 
assisting in major infrastructure protection.
    That does not mean the American presence should be reduced. Indeed, 
in the immediate future, the opposite may be true, though any increase 
in troop strength should be directed at accomplishing specific, defined 
missions. A generalized increase would be unlikely to demonstrably 
change the situation and, consequently, could result in increased 
clamor for withdrawal. But the central point is that withdrawing combat 
forces should not be a policy objective, but rather, the result of 
changes in our strategy and success in our efforts.
    As we work our way through this seemingly intractable problem in 
Iraq, we must constantly remember that this is not just a troublesome 
issue from which we can walk away if it seems too costly to continue. 
What is at stake is not only Iraq and the stability of the Middle East, 
but the global perception of the reliability of the United States as a 
partner in a deeply troubled world. We cannot afford to fail that test.

    The Chairman. Thank you very much, General.
    We'll have 7-minute rounds with these two witnesses, all 
right?
    General, thank you for your testimony. It's quite clear, as 
I understand it, we can't win in Iraq--succeed in Iraq--without 
a political settlement; we can't leave Iraq, because of the 
regional and global consequences if we did, absent a 
settlement. We need regional cooperation, but our friends are 
reluctant to be associated with us in this present atmosphere, 
so it's unlikely to get regional cooperation, but one way to 
get it would be if we demonstrated a sincere effort to get the 
Israeli-Palestinian peace process back on track.
    Let me ask you, specifically, whether you believe that the 
Israelis see a benefit in getting the peace process back on 
track.
    General Scowcroft. I don't know, Mr. Chairman, exactly what 
the Israelis are thinking now. Their government is in a very 
difficult situation, as popularity is near zero. A tough 
response for the Prime Minister is very difficult. It seems to 
me, in his inner heart, he must feel that this could be his 
salvation. It, after all, is Israel's salvation. Israel cannot 
permanently live surrounded by hostile forces. And so, a 
solution to this problem is very much in Israel's interest, 
just as our leaving the region would be the worst possible 
outcome for Israel.
    The Chairman. My instinct is that Prime Minister Olmert 
understands that. What I get fed back from different and 
disparate sources in Israel is--well, let me characterize it a 
different way. Were you the National Security Advisor today, 
would you be pushing the President--any President--to have a 
much more focused and clear attempt to get this peace process 
back on track?
    General Scowcroft. Yes; I would. I believe the 
administration, at least from all appearances, is moving in 
that direction. But----
    The Chairman. One of the things that perplexes me, anyway, 
is how long it took the administration to engage the Israelis 
and be public in any utterances with regard to the war in 
Lebanon, how--I mean, we just don't seem to have anybody of 
real consequence on the ground full time that the Israeli 
leadership knows has the ear of the President of the United 
States. This is a risk, I know. I've been here for seven 
Presidents, and every President, I know, calculates the risk of 
getting himself deeply involved in trying to resolve this 
crisis. But I guess what I'm asking you is: Isn't it necessary 
for the President to get deeply involved in--not telling Israel 
what to do, but making it clear that we are willing to take 
risks along with them to get this process underway?
    General Scowcroft. I think it is critical for the President 
to be involved, because the states of the region are very 
nervous, they're worried about the spread of radicalism. If you 
noted, at the time of the Lebanese incursion, the first word 
from the Arab governments was ``condemnation of Hezbollah''----
    The Chairman. Yeah.
    General Scowcroft [continuing]. For kidnaping the soldiers. 
That turned, in about 3 days----
    The Chairman. Yeah.
    General Scowcroft [continuing]. To ``condemnation''----
    The Chairman. Seems to me----
    General Scowcroft [continuing]. ``Of Israel.''
    The Chairman [continuing]. We missed a significant 
opportunity to--I see a common interest with the Sunni states 
and Israel right now. In my dialogs with leaders in the leading 
Sunni states, from Egypt to Saudi Arabia, they seem much more 
concerned about this--they refer to the Shia Crescent. It seems 
to me there is a mutuality of interest here. It seems to me 
they're in the position where they may be prepared to be much 
more responsible than they have in the past--excluding Egypt; I 
think they've been responsible, by and large--to actually be a 
proactive player in bringing about a positive settlement 
between Israel and the Palestinians. From my perspective, it 
even looks as though Syria is in an unholy alliance with a 
country that they don't have a real shot for a long-term future 
with: Iran. So, I happen to agree with your assessment that 
there's an opportunity here for, really, some solid diplomacy.
    Let me conclude by asking you this: Many of our witnesses 
we've had have laid out, in, sort of, historical terms, that 
when you deal with a country that was literally the consequence 
of a diplomat's pen on a map, like the Balkans, like Syria--we 
could name other places in Africa, as well--that one of two 
formulas seem to work. Either you have a strongman take hold to 
hold that country together, or, two, you have some form of a 
loosely federated system with a central government, with some 
significant authority in the regions, particularly over their 
own security. That's what happened in Dayton, that's what 
happened other places.
    Can you comment briefly on what you see down the road as 
the outlines of a political settlement that might hold that 
country together--Iraq--where it's not a threat to its 
neighbors, where it's not a haven for terror, and where we can 
be a positive influence in providing assistance for both of 
those things?
    General Scowcroft. I believe that it's possible to have a 
centralized Iraqi State, but it won't be easy, and it may take 
a long time to resolve itself. It is similar, in some respects, 
to Yugoslavia. The difference, however--loosely federated or 
even independent states in Yugoslavia has worked reasonably 
well. Although if our troops left Kosovo, or our troops--or the 
troops that are still in Bosnia left, I fear we'd find it was 
not over.
    But Iraq happens to be surrounded by powerful neighbors, 
relatively powerful neighbors, with intense interests in the 
future of Iraq. I think a loosely federated system would be an 
invitation to meddling and would perhaps even hasten the 
regionalization of a conflict.
    The Chairman. Well, if there's a second round, I will come 
back and talk a little bit about the Iraqi Constitution, which 
is explicit in setting out Kurdistan as one of those loosely 
federated areas, by definition, and lays out where any of the 
18 other governates can conclude they have local control over 
their security. I'd like to talk with you, but my time is up.
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    General Scowcroft, I would just like you to think aloud 
about Iraq in this sense. We've had testimony from Iraqis that 
as our military forces obtained military victory over Saddam 
Hussein, the Iraqi Armed Forces essentially disintegrated, 
people fled, leaving their uniforms and their arms, and were no 
longer identified with the military force. In addition to that, 
we heard that the police forces, various other coercive 
elements, also dissipated to a point that we had not only the 
celebrated sacking of the museums in Baghdad, and looting of a 
tremendous scale but back in the provinces, people who were 
robbers, thieves, and ne'er-do-wells really terrorized people. 
Now, the question that was raised by these Iraqis comes down to 
this. We have worked--that is the United States and our 
allies--with some Iraqi politicians to bring about a 
constitution, even elections, a Parliament--which seems to be 
meeting on occasion--ministers, and a Prime Minister. But at 
this point the whole country lacks what at least these Iraqis 
said were coercive elements, not in the sense of torture and 
debilitating the people, but simply keeping some degree of 
order, law and order, so that ordinary people could go about 
without being hit by predators. We hear, too, that some people 
have formed militias, not the celebrated ones with thousands of 
people, but simply groups to protect themselves.
    It's not clear, at least to me, as I've listened to all of 
this, how order comes to this situation and whether our 
aspirations--by that, I mean Iraq becoming a model example of 
democracy in the Middle East--works, really, in this situation. 
Can you share with us some of the thought you have given to 
this with respect to Yugoslavia and other nations that have 
struggled to build institutions and such capacities following 
conflict. And what sort of prognosis can you give of what would 
be a reasonable government situation in Iraq that would fit 
with the rest of the surrounding territories and fit with our 
strategy, perhaps, of withdrawal from sectarian violence, but 
providing sufficient presence to batten down the hatches with 
regard to terrorists or those that would be totally disruptive 
of borders?
    General Scowcroft. You have asked a very difficult 
question, Senator. And I think, for the United States, Iraq is 
perhaps sui generis. You know, we've had heavy involvements in 
Korea, heavy involvements in Vietnam, and so on; but there, we 
participated alongside a government which was constituted, 
which was operating, which had people who knew how to run a 
government. Iraq has none of those. It is destroyed. It's a 
blank slate, seething with the sectarian, religious, ethnic 
tensions that resulted from it being an artificial state. So, 
we have to put the whole thing together. And it's not as if 
Maliki were part of a government firmly in power and so on; 
we're trying to set up a government. The situation is much more 
like Somalia, for example, than it is like Vietnam.
    And I don't know how we end this up. I think we have to 
push for reconciliation. We have to try to train--not just 
train the Iraqi Army, but convince them what they're fighting 
for, who they're fighting for. Is it a sect? Is it a religion? 
Is it an ethnic group? Or is it the symbol of the state of 
Iraq? And I don't think we're there yet. We're apparently 
closer in the army than we are in the police, which is badly 
infiltrated by these, let's call them, private forces. To me, 
that's going to take time. And it's going to take patience. And 
it's going to take a presence; hopefully, over time, a 
decreasing presence, as they start to learn how to govern 
themselves. Most of the people in the government now have never 
held any kind of office. You can't expect an instantaneous 
democracy to emerge. You may have to go through strongman 
phases and so on. But hopefully we can be increasingly a Big 
Brother, offering a helpful hand, admonishing here, helping 
there. As we and, if we're successful in the region, as the 
regional partners of Iraq begin to play a role, we can succeed. 
But it's--there is no magic wand, and it's a daunting task.
    Senator Lugar. What you've described is something perhaps 
like South American democracy that arose--this is a broad 
characterization--but the army was the powerful group, and it 
provided some order, and then, in due course, it said, ``We're 
tired of governing. We want to invite some civilians in to 
participate and provide some elements of democracy.'' And 
sometimes when the civilians don't do well, the army returns, 
dismisses the civilians, tries again. Is this roughly what 
you're talking about?
    General Scowcroft. Well, there are a number of models of 
democracy--the Latin American model, the Turkish model. There 
are a lot of them. And each culture has to figure out its own. 
But we have a heavy responsibility now in Iraq figuring out its 
own, without plunging the entire region into turmoil with all 
those consequences.
    Senator Lugar. Thank you very much.
    Thank you.
    The Chairman. Thank you very much.
    Senator, welcome. And----
    Senator Cardin. Thank you.
    The Chairman [continuing]. It's nice not to have to wait 
all this time, isn't it? [Laughter.]
    Senator Cardin. Thank you, Mr. Chairman.
    General Scowcroft, thank you very much for your service to 
our country and for being here. We very much appreciate your 
advice.
    I'm having some difficulty reconciling the additional 
troops being sent into Baghdad with your advice that we should 
be redeploying troops away from the sectarian violence as part 
of our strategy. It seems to me that the President's 
announcements move in the wrong direction there, but also 
signal to the Iraqis that we intend to keep our troops where 
sectarian violence is the worst.
    I want to concentrate on the Israeli-Palestinian conflict, 
because I think you've raised some very valid concerns. We've 
been talking about this for a long time, but the framework for 
resolving the conflict between the Israelis and the 
Palestinians is fairly well defined. And I don't believe time 
works to the advantage of resolving the issue. I think there is 
an opportunity. We should be taking advantage of that 
opportunity, and it requires a very strong presence from the 
United States--as the chairman said, not to dictate the terms 
of the peace, but to be the force for keeping the parties at 
the table to resolve their differences and to implement a peace 
plan.
    So, if you were to give the President advice as to how we 
could elevate and move forward with the Israeli-Palestinian 
peace process, could you share with us how you would see the 
President elevating that issue? And, second, how would you 
advise Congress to try to move forward with the Israeli-
Palestinian peace effort?
    General Scowcroft. Certainly, Senator. I think a strong 
sense of Presidential leadership is essential in order to give 
heart to our friends in the region who--most of whom have been 
vocal in wanting to pursue the peace process, but are afraid to 
get out in front of the United States. If the President shows 
some determination that he wants to press forward, I think he 
will find a lot of help. And a lot of help is needed. One of 
the conventional arguments is that Israel now has a government 
under siege and is not in a position to negotiate. And, on the 
Palestinian side, there is a struggle between Fatah and Hamas, 
and there is no negotiator. I believe those problems are 
fixable.
    The more difficult one probably is the Palestinian issue. 
But, even there, there's some movement. The Hamas external 
leader in Damascus recently said that, ``Israel is a reality. 
There will remain a state called Israel. This is a matter of 
fact.'' Now, that's not recognizing Israel, which we have 
demanded of Hamas, but it's a--certainly a step, a big step 
away from driving Israel into the sea. So, there's something 
there we can work with. And the Egyptians are working hard to 
resolve that problem.
    So, those are the things I think we need to pay attention 
to originally, to get the negotiators ready to talk at the 
table. As you say, if they sit down, most of the issues have 
already been agreed, and those that haven't, the outlines of an 
agreement are still there. It will take tough negotiating, but 
I think it is there.
    Senator Cardin. Is there a specific positive role that you 
envision for the U.S. Congress in this regard?
    General Scowcroft. I think the Congress should be 
supportive of that kind of effort. I certainly am not prepared 
to tell the Congress what it ought to do. On your first point, 
about the surge, there's no question that the surge go--is in 
contradiction to my general statement, ``We need to get out of 
sectarian conflict.'' But there is a particular problem right 
now in Baghdad, and if Baghdad should become a single-sect 
city, we would have a new and different kind of a problem for 
the whole of Iraq. So, I think there is a rationale for trying 
to stabilize the situation in Baghdad, which violates the 
general rule that we shouldn't do that.
    Senator Cardin. I would point out that there are, right now 
in Iraq, so many displaced individuals as a result of sectarian 
violence. I understand the importance of Baghdad to maintain 
ethnic diversity, but it seems like Iraq has moved in the wrong 
direction now for a period of time.
    General Scowcroft. Well, I wouldn't disagree with that. 
And, as I say, on the surge--the President has decided he wants 
to surge. I think that the Congress role here is unlikely to be 
helpful in the direction that it's going, in the sense that 
what you send is signals abroad that if they just push a little 
harder, then the President may have to change his mind.
    Senator Cardin. Of course, I would argue that if the 
President would work with Congress and listen to our hearings 
here, there could be much more unity in our position in Iraq.
    I thank you, Mr. Chairman, for----
    General Scowcroft. My guess is the President is listening 
attentively right now.
    The Chairman. I hope so.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Welcome, General Scowcroft. It's always pleasant, 
enlightening, informative to have you before us, and we always 
appreciate your thoughts.
    I have just a quick response to a point you made, and then 
I want to go back to a comment in your testimony and ask a 
question.
    We all appreciate, I think, that there are no clear 
comparisons of past conflicts the United States has been 
involved in, with Iraq. You noted that Somalia may be, in many 
regards, closer to a comparison with Iraq than Vietnam. But, 
because you have served as National Security Advisor to two 
Presidents and your entire career has been about national 
security, very few understand it as well as you do. But I would 
make this observation. I do think there is one clear comparison 
with Vietnam where we are in Iraq, and that is that we continue 
to get bogged down more and more. When the President's talking 
about sending 22,000 more U.S. troops, you can define that in 
any way you want, but that's an increase in our involvement, 
our military involvement. The President will soon be coming 
before the Congress for another $100 billion emergency 
supplemental, most all of that for Iraq. That is certainly an 
additional amount of involvement. We have the largest Embassy--
U.S. Embassy in the world, by far, in Iraq, and we continue to 
keep building up that Embassy. That's certainly a significant 
increase in our involvement. So, rather than going the other 
way, we continue to bog ourselves down, and our country. And 
the consequences of that, you being a career professional 
military man, certainly are aware, just as the Washington Post 
noted a couple of days ago, what this is doing to our force 
structure, specifically our equipment, that we will not have 
enough equipment. And I had the Secretary of the Army in my 
office, 2 days ago, asking him about that. The rotation 
patterns, all the consequences that most people don't 
understand. You do. So, it's my observation that that is the 
one clear comparison, just like Vietnam, ``Just send more 
troops, send more money, send more involvement, give us more 
time.'' And I don't think there's any way you can escape that 
reality.
    Now, that leads me into a question that was prompted by a 
comment you made. And you, I think, said something to the--I 
don't have your testimony, so I can't quote exactly, but 
something to the effect that our withdrawal, or decrease of 
involvement, should follow--not timelines or any other 
definitions--but it should follow, I believe, in your words, 
should follow success in our efforts. Well, next month, it'll 
be 4 years that we have been there. We are nearing 3,100 
deaths. And I was just at a funeral of a Nebraska Army 
lieutenant who was one of those abducted in Karbala. We are 
over 23,000 wounded. And I can recite all the other numbers, 
which you're familiar with. So, after 4 years, then, based on 
what you said, we should base any withdrawal or plans for 
decreasing our involvement--that should follow success in our 
efforts.
    My question is: What do you define ``success'' as being? 
And the other question picks up a little bit on your exchange 
with the distinguished Senator from Maryland. Do you believe 
the Congress has a role in this? You mentioned something about 
resolutions sending wrong signals. Do you believe that Congress 
has a constitutional responsibility and role in war? What is 
that? And I'd like you to define that, if you would, and answer 
that question. So, two questions, General. And thank you.
    General Scowcroft. Absolutely. To answer the last one 
first; of course I think Congress has a role. One of the 
distinguished constitutional jurists, whose name I can't recall 
now, said, ``In matters of war and international relations, the 
Constitution is an invitation to struggle between the executive 
and the legislature.'' And I'll just leave it there.
    Do I think Congress has a role? Absolutely. And the 
ultimate role that Congress has in the making of war is the 
power of the purse. There's no question about that.
    Senator Hagel. I appreciate that. And, of course, there are 
more definition of our role, which is heavy in precedent over 
the last 230 years, as well, not just the power of the purse, 
as you well know. But we're not here before the Judiciary 
Committee, so--
    But, please, sir, thank you, if you would answer the other 
question, as well, I appreciate your comments.
    General Scowcroft. Now, the other question?
    Senator Hagel. The other question was based on your 
testimony when you said that U.S. withdrawal or----
    General Scowcroft. Oh, yes.
    Senator Hagel [continuing]. Any efforts to move out should 
be----
    General Scowcroft. Right.
    Senator Hagel [continuing]. Your words, should follow 
success in our efforts. Now, after 4 years and all that we've 
put in, and we're continuing to put more in, what is your 
measurement of success? You said this should--this may go on 
for years and years, we may go through strongmen. Well, what is 
our responsibility?
    General Scowcroft. I think----
    Senator Hagel. And what is that measurement of success?
    General Scowcroft. I think our responsibility is a state 
which is stable enough to be a force for stability in the 
region, not for disruption in the region. And our goal, I 
think, has to be the region itself now. And I think we cannot 
afford chaos in the Middle East.
    Senator Hagel. Well, that's not my question. We----
    General Scowcroft. I----
    Senator Hagel [continuing]. All agree with that. But what 
is your--we hear a lot of rhetoric, General----
    General Scowcroft. It----
    Senator Hagel [continuing]. From the President----
    General Scowcroft. I----
    Senator Hagel [continuing]. And others, saying, ``Well, we 
ought to have a measurement. We ought to know when--we're going 
to threaten and we're going to pull out and we're going to have 
benchmarks.'' Well, when is that measurement of some precision 
so that you know? Or is it beyond----
    General Scowcroft. I don't----
    Senator Hagel [continuing]. Our control?
    General Scowcroft. I don't know what the precision is. We 
have troops in Korea 50 years after that war----
    Senator Hagel. But you're surely----
    General Scowcroft [continuing]. Was over.
    Senator Hagel [continuing]. Not making a comparison to 
Korea.
    General Scowcroft. No; I'm not making a comparison to 
Korea. But I don't know when you can let the hand--when you're 
training your child with training wheels on the bicycle, how do 
you know when to take the training wheels off?
    Senator Hagel. Well, again, I wouldn't use----
    General Scowcroft. I don't know.
    Senator Hagel [continuing]. That analogy, either. And when 
you've got----
    General Scowcroft. But----
    Senator Hagel [continuing]. Seventy percent or more of the 
Iraqi people who don't want us there, and over 60 percent say 
it's OK to kill Americans, and we're going to put a number of 
new troops in Baghdad, which you have just noted that you 
don't, I guess, to some extent, agree with--you've noted it's 
sectarian--those are sectarian issues. So, then, isn't there 
some jumble in all this? And when you say we ought to have, as 
your--in your words, ``a success in our efforts,'' well, how do 
you measure----
    General Scowcroft. Well----
    Senator Hagel [continuing]. Success in----
    General Scowcroft. It would be----
    Senator Hagel [continuing]. Your efforts?
    General Scowcroft. It would be nice to be precise and to 
have all these benchmarks that everybody can see and so on. 
This is not that kind of a problem. We're in a mess, and we've 
got to work our way out of it.
    Senator Hagel. Well, that's----
    General Scowcroft. And----
    Senator Hagel [continuing]. That's true, but how----
    General Scowcroft. And we've----
    Senator Hagel [continuing]. To do that?
    General Scowcroft [continuing]. Got to work our way out of 
it, not into a bigger mess, a regional mess, where one of the 
results will make $60 oil look like a bargain.
    Senator Hagel. You do that by continuing to put more troops 
in Baghdad?
    General Scowcroft. I did not say put more troops in.
    Senator Hagel. Well, how do you work your way out of the 
mess?
    General Scowcroft. Well, I can repeat what I said. You 
focus on training, you focus on backing up the army, you focus 
on lines of communication, you focus on infrastructure, you 
focus on keeping the outsiders from intervening, and you 
encourage reconciliation and consolidation of the government.
    Senator Hagel. Then how do you measure that?
    General Scowcroft. The way you measure anything.
    Senator Hagel. Would you give us a good grade, over the 
last 4 years, of measuring success? Are things getting better?
    General Scowcroft. No.
    Senator Hagel. So, another 4 years, we take another look, 
and maybe the Congress should look at a resolution, and maybe 
it shouldn't?
    General Scowcroft. I think this problem is not going to be 
over inside a decade.
    Senator Hagel. Does that mean more American troops----
    General Scowcroft. No.
    Senator Hagel [continuing]. Get fed into the grinder and--
--
    General Scowcroft. I do not believe we need more American 
troops.
    Senator Hagel. My time's up. Thank you, General. Thank you 
very much.
    General Scowcroft. Because I want to get out from in 
between the sectarian violence.
    The Chairman. Senator Casey.
    Senator Casey. Thank you very much. Senator Menendez has 
graciously allowed me to jump ahead.
    General, I'm grateful for your presence here and your 
service to the Nation.
    And I'm going to ask a--maybe two questions about Iraq, 
specifically, but, before I do that, I wanted to ask a question 
which I think is on the minds of a lot of people when the 
American people think about Iraq, and they think about the 
sacrifice that both you and Senator Hagel were just reviewing, 
in terms of the loss of life. In my State, the State I 
represent along with Senator Specter, we've lost the third 
highest number. So, we're cognizant of that. I think a lot of 
Americans are concerned about what happens next, not just with 
regard to Iraq, but what happens next with regard to Iran.
    Someone that I respect greatly--I won't use his name, but--
many months ago, said to me--made the assertion, and I'll 
paraphrase, that if this Government were to strike Iran, one of 
the immediate and direct consequences of that would be the 
slaughter of GIs, hundreds, if not thousands, right away. And I 
don't know if that's correct or not, but I wanted to ask you 
that question, based upon your experience as a national 
security expert, your experience in war, and what you've seen 
and read and analyzed with regard to what's happening now in 
the Middle East as it pertains to Iran. Do you think--and let 
me just put it plainly to you--do you think that if there is a 
military strike by this Government on Iran--do you think it is 
highly likely, or unlikely, maybe--maybe you have a third 
option--that a large number of American GIs would be 
slaughtered in Iraq?
    General Scowcroft. Well, Senator, I can't really tell you, 
there. I must say that the utility, at this point, of a strike 
on Iran escapes me, so I haven't pursued what the consequences 
will be. It seems to me that there are many other options open 
with Iran--there being a very difficult person in the 
Presidency at the present time--both their general sectarian 
threats and the nuclear issue, but I think we have maneuvering 
room with them, and time with them. I don't think that the 
Iranian structure is quite as unified and monolithic as it 
appears to some and, with some very careful diplomacy, we might 
be able to uncover more fissures there. And I would certainly 
pursue diplomacy.
    Iran didn't just rise yesterday from the ashes to be a 
threat. Iran's been there for a long time. We've had problems 
with them since the fall of the Shah. But I see no reason that 
those problems suddenly have become overwhelmingly menacing.
    Senator Casey. But can you assess the question I just asked 
about American troops in Iraq?
    General Scowcroft. Well, if I were--if I were an Iranian 
leader, having been struck by a United States air attack, for 
example, having no means to retaliate directly on the United 
States, I would do whatever I could to take it out on United 
States interests, where I could reach them.
    Senator Casey. I also wanted to point to--and I appreciate 
your statement today, some of which was contained in a New York 
Times op-ed on January 4--and I was struck by a number of--a 
number of statements in your op-ed. One was that--I want to 
read, in part--when you're speaking of Iran, you talked about 
failure in Iraq or withdrawal being the catalyst for an 
expansion of Iranian influence in the region, and then you go 
on to say, and ``Our''--this is in the context of some kind of 
withdrawal--``Our Arab friends would rightly feel we had 
abandoned them to face, alone, Iraq radicalism that has been 
greatly inflamed by American actions in the region and which 
could pose a serious threat to their own governments.''
    I was struck by the juxtaposition of the sense that you 
would have that they would--our Arab friends would feel 
abandoned, but also your assertion that radicalism in the 
region has been greatly inflamed by American actions in that 
region. I just wanted to have you talk about that, in terms of 
what actions have inflamed that radicalism in the region.
    General Scowcroft. Well, I think the situation in Iraq has 
inflamed it. It has exacerbated the century-old tension between 
Sunnis and Shias. And it has brought to the fore conflicts--
again, historic, but quiescent--between Persians and Arabs. And 
all of those now are surfaced and are boiling. And I think that 
the Iraq developments have helped to create that kind of a 
situation.
    Senator Casey. I almost am out of time, General. Let me 
just see if I can get one more in.
    Again, on the question of Iran, you assert, with regard to 
the reaction that Iran would have if our forces were to be 
withdrawn or largely redeployed--just specifically--I know we 
only have a few seconds, but--what do you think the Iranian 
reaction would be to a total withdrawal of U.S. forces?
    General Scowcroft. Well, that's very speculative, Senator. 
I don't know. I think--in some respects, they may be dismayed, 
but, in other respects, I think they would be very encouraged, 
because they could see the way open for the expansion of 
Iranian or Shia influence throughout the region, with us having 
vacated. And I think that would probably be the predominant. 
They would think they had won a victory.
    Senator Casey. Thank you, General.
    The Chairman. Thank you very much.
    Before I move to Senator Menendez, I have to make a point 
that we're going to be having three votes in a row, I'm told, 
around noon, and we have need for a business meeting to pass 
out a resolution to the committee, which is pro forma, but it 
sets out the budget for the committee for the 110th Congress. 
So, I'm going to suggest to my colleagues, between the first 
and second vote on the floor, we go down to our Foreign 
Relations Committee meeting room in the Senate on the first 
floor, S-116, and we'll take 30 seconds to vote out the 
resolution.
    With that--excuse me--oh, I'm sorry. Senator Coleman. I beg 
your pardon.
    Senator Coleman. Thank you, Mr. Chairman.
    Following up on Senator Casey's comment about the Iranian 
reaction to the withdrawal of our forces, in the New York Times 
article you talked about withdrawal, and to describe the 
consequences you used a phrase, ``Our opponents would be hugely 
emboldened, our friends would be deeply demoralized.'' That 
statement resonates with what we've heard throughout the 50 
hours of hearings that we have had here in the Foreign 
Relations Committee on Iraq, as well as numerous briefings and 
markups--the committee really has done an extraordinary job of 
examining this issue. The one obvious thing is that this is a 
complex issue. There's not a silver bullet here. And there are 
consequences to the things that we do. Understanding that Iraq 
is a mess today, it could be much worse tomorrow. Is that a 
fair statement? If we withdraw precipitously, as the Iraqi 
Study Group talked about--and I think your New York Times piece 
also touched on this--al-Qaeda would be emboldened, and our 
allies would be left with long-term doubt about American 
reliability. Those who have stepped up to the front in Iraq 
alongside us would probably be slaughtered. And so, there are 
great consequences to withdrawal.
    One of the issues that we have talked about here is the 
perception of America in the global arena. If we do the wrong 
thing in Iraq, if we simply abandon Iraq, that perception could 
be worse. Would that be a fair statement?
    General Scowcroft. I believe that's a fair statement, 
Senator. I think we would be perceived in the world, ``Well 
America's lost it,'' you know, we're a force of the past, we're 
fading, we're not up to the challenges. I think that would be 
wrong, but I think that would be the perception.
    Senator Coleman. What are the consequences of that 
perception?
    General Scowcroft. Well, it would be--it would be a subtle 
shifting of where you want to put your confidence. Who do you 
want to stand with, who do you want to be careful about, and so 
on, and so forth? And I think it would be significantly 
deleterious.
    Senator Coleman. There are some of us who understand the 
consequences of failure--and, again, it's laid out in the Iraqi 
Study Group, Secretary Kissinger talked about it yesterday, and 
Secretary Baker talked about it when he testified before the 
committee. They also pointed out that they believe that we're 
going to be in Iraq for a long time--hopefully, though, not in 
the middle of a sectarian civil war. But it is important to let 
our allies know, and to let the Iranians know, that we're not 
abandoning Iraq. We must let al-Qaeda know we're not walking 
out on Iraq, but we don't want American troops to be in the 
middle of the sectarian battle that is engulfing parts of it.
    General Scowcroft, you have military experience and can 
offer us a certain perspective. We have debates in the Senate. 
We pass resolutions. In the case of our Iraq policy, the 
Senate's discussion involves a resolution that may challenge an 
aspect of the President's policy. Can you help me understand if 
this debate we're having has an impact on the folks on the 
ground? Does the nature of the debate that is taking place here 
in Congress on our Iraq policy embolden our enemies? Or do 
people simply think: This is the way the United States works, 
it's the way the Congress works, and folks understand that?
    General Scowcroft. I think it--I don't think it has much 
effect on the troops. Troops know what they're doing. They're 
following their orders. They're doing their damnedest. And I 
don't think the Congress voting a nonconcurrence or something 
in what the President has done will affect their attitudes or 
anything. I don't know how it will affect those who are 
opposing us over there if they would think, ``Well, look, you 
know, we've got the President on the run now. If we just push a 
little harder, he'll cave.'' I don't know that. That's pure 
speculation.
    Senator Coleman. As I approach this issue, I don't want to 
do anything to undermine the resolve of the folks on the 
ground. I want them to know we support them. We may disagree 
with an aspect of what the President is doing, but in the end 
we still want to see--or at least I want to see--success, 
however it's defined. Success in Iraq would perhaps be defined 
by some stability, by al-Qaeda not having a base in Iraq from 
which to sow greater uncertainty and instability in the region. 
On the other hand, here in the Senate we have this--I believe--
constitutional responsibility to represent what our citizens 
are saying about U.S. policy. If we're troubled by something 
that the President is doing, we have to say it. But it's an 
important question. I appreciate the response.
    Let me ask you about benchmarks. Yesterday Secretary 
Kissinger said that he was concerned about this idea of 
benchmarks and the consequences of holding Iraqis accountable 
if they don't achieve them. I believe in your article in the 
Times you also talked about benchmarks--if the Iraqis fail to 
meet the benchmarks, what do we do about it? And part of the 
problem--and I hope the debate here in the United States helps 
on this front--is that the Iraqis have to understand that our 
patience is not infinite. Maybe we'll leave them to kill each 
other in Baghdad and move American troops to other areas where 
they can focus on missions such as keeping the Iranians out of 
Iraq. I don't know whether the Iraqis are tired of killing each 
other. I don't know whether they're exhausted from that yet. 
How do we insist, or let the Iraqis know, that they've got to 
actually do some things that we've agreed to for us to continue 
with the sacrifice of blood and treasure?
    General Scowcroft. Well, one of my problems with benchmarks 
is that it sort of presupposes that the government is not doing 
its best; the Iraqi Government. Well, by our lights, they're 
not doing their best, but it's not that they are disinterested 
and just sitting on their hands. They believe passionately, but 
not all in the same direction, and they're killing each other 
for their beliefs. And what we're trying to do is to put 
together a government which can draw together these disparate 
elements in some kind of a unified approach that you could call 
Iraq. The problem with benchmarks is, as this government 
struggles, if they don't meet the first benchmark, we drawdown 
some support almost making certain they can't meet the second 
benchmark. And so, it begins to look like a recipe for 
withdrawal and blaming the Iraqi Government. Is the Iraqi 
Government what we would wish? No. But it's--we're trying to 
set up a government from zero. There is no government in Iraq. 
When we destroyed Saddam Hussein and the Baathists, there was 
nobody left who had any experience in governing. And so, all of 
the tensions, all of the sectarian and religious tensions boil 
up, and you put in a bunch of people and you write a 
constitution quickly, and you hope that it's going to work. But 
it's going to take time.
    Senator Coleman. I see that my time is expired. Thank you, 
Mr. Chairman.
    The Chairman. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    General, thank you for your service to our country. Thank 
you for your testimony.
    I have a couple of questions that I hope you could be 
helpful with. You know, many of our colleagues who are 
concerned about challenging our present course of action all 
want to achieve success. The question is: How does one do that?
    And some who challenge this and say the consequences of 
failure make that a linkage in the case for escalation, but, 
overwhelmingly, the testimony that we have heard here, 
including from experts who come from both sides of the 
political divide, have said, largely, that you cannot achieve 
victory here through a classic military context. And so, you 
know, I don't quite buy the escalation aspect as the pivotal 
issue as to whether we have success or failure in Iraq.
    But that goes to the broader question. Isn't, in essence, 
what we are doing here with our troops a role of nation-
building? Is that an appropriate mission for the U.S. military?
    General Scowcroft. It is an appropriate role for the United 
States military in a situation where conflict is a predominant 
fact of the nation, yes. Hopefully, we can gradually get out of 
that, but right now, without the military, there would be--
there would be no hope.
    Senator Menendez. Well, I asked you that question because 
when I served in the House of Representatives, for a long time 
I heard my colleagues on the other side of the aisle rail 
against the context of nation-building and having the military 
be an integral part of nation-building. But it seems to me 
that's very much what we're doing.
    But to further go down this line, I looked at your January 
op-ed piece, and I read it with great interest. There are a 
couple of things that you said that concerns me with our 
present course of action. You said, ``American combat troops 
should be gradually redeployed away from intervening in the 
sectarian conflict.'' And you also said that controlling the 
sectarian conflict, ``is a task for Iraqi troops, however 
poorly prepared they may be.'' And that's where I want to take 
off the next line of questioning with you.
    Everything we hear from the administration suggests, or 
tries to suggest, to the American people, and to the Congress, 
that it is Iraqis who are leading this effort, that it is 
Iraqis who are going to be on point, and that we are there, 
filling in, in the background along the way, and being helpful, 
and talking about embedding. But when I look at some of the 
most recent news reports from the front lines, I see an 
incredible lack of troop strength and training of Iraqi forces 
and the confusion that comes along with having them take the 
lead. Here's one quote from an article, ``As the sun rose, many 
of the Iraqi Army units who were supposed to do the actual 
searches of the building did not arrive on time, forcing the 
Americans to start the job on their own. When the Iraqi units 
finally did show up, it was with the air of a class outing, 
cheering and laughing as the Americans blew locks off doors 
with shotguns. Many of the Iraqi units that showed up late 
never seemed to take the task seriously, searching haphazardly, 
breaking dishes, rifling through personal CD collections in the 
apartments.'' In the article, a lieutenant colonel of the 3d 
Stryker Brigade combat talked about the difficulty of 
conducting such operations. He said, ``This was an Iraqi-led 
effort, and with that comes challenges and risks. It can be 
organized chaos.''
    Twenty-some-odd-thousand more troops into that scenario? I 
don't understand that.
    And then, balancing that and your answer, how do we, in 
such a scenario, send 20-more-thousand troops? You say that, at 
some point, no matter how poorly prepared they may be, they 
should lead in this effort. I probably agree with you, they 
need to stand up, at some point, on their own, particularly in 
a sectarian conflict. And why is it that, notwithstanding your 
recommendations and the recommendations of so many others, we 
do not seem to have an administration willing to engage in a 
very vigorous way, as so many members in a nonpartisan effort 
here have called for, in the regional summits and the high 
level of engagement of other countries in the region, which you 
yourself call for, as a significant comprehensive part of this 
plan? Why is there such a reticence, from your perception of 
the administration, to do that? If you could pursue those two 
lines, I'd appreciate it.
    General Scowcroft. Well, I think, as to the surge, as I 
said, I describe the surge as a tactical maneuver, not as a 
strategic move. The reason for it, that I would adduce, is that 
Baghdad is a special case, and if one can stabilize Baghdad, 
then it would have a great psychological impact in the country 
and also might give the Iraqi forces a greater sense of self-
confidence than the article that you read indicates that they 
have.
    But it won't change the situation, fundamentally, in Iraq. 
It might be a blip, it might be a positive blip, but it won't. 
And, as Senator Hagel said, you know, we've got a long, hard 
slog here, and this is--it might be helpful. If it doesn't 
work, it'll--it might be harmful. But it's--you know, I didn't 
focus on it, because it's a decision that the President has 
made, and it is being implemented, even as we--even as we 
speak.
    Now, I think the administration is moving to greater 
regional involvement. And I think that Secretary Rice's last 
trip, where she spoke some, and listened a lot, will encourage 
them to move further. What I worry about is that it's going to 
take not just gradual movement, it's going to take visible 
determination in order to rally our friends behind us.
    Senator Menendez. My time is up, but Lee Hamilton and Jim 
Baker were here, and I think it was Lee Hamilton specifically 
who said that the sense of urgency--and, on the diplomatic 
side, I don't get the sense of intensity and urgency that is 
necessary in order to achieve our goals. But I hope both these 
sets of hearings and the vote that will soon take place will 
have the administration understand the sense of urgency, 
certainly on the diplomatic side.
    Thank you, Mr. Chairman.
    Senator Lugar [presiding]. Well, thank you very much, 
Senator Menendez.
    The chairman has been called to the floor for a moment. The 
thought is that we will recess the hearing and wait for Dr. 
Brzezinski's appearance, which should be in a few minutes.
    Let me just ask, before I take that action, whether there 
are members who have additional questions of General Scowcroft.
    [No response.]
    Senator Lugar. Seeing no further questions, we thank you 
very much for coming, once again, to be part of a very 
important hearing. You've made a wonderful contribution, and we 
look forward to seeing you again soon.
    General Scowcroft. I thank you all for your listening to 
me. Thank you very much.
    Senator Lugar. For the moment, the committee is recessed, 
and we will wait for Dr. Brzezinski's appearance.
    [Recess.]
    Senator Lugar. The committee is called to order.
    We welcome Dr. Brzezinski, a wonderful friend of the 
committee, for this very important appearance today.
    We have asked Dr. Brzezinski to present an opening 
statement, and he will do that, and then we'll proceed to 
questions. I think Senators know that we are heading toward 
rollcall votes at noon or shortly thereafter. Therefore, we'll 
begin immediately, given the chairman's instructions.
    Dr. Brzezinski, we're delighted to have you, and would you 
please proceed?

STATEMENT OF DR. ZBIGNIEW BRZEZINSKI, FORMER NATIONAL SECURITY 
   ADVISOR; COUNSELOR AND TRUSTEE, CENTER FOR STRATEGIC AND 
             INTERNATIONAL STUDIES, WASHINGTON, DC

    Dr. Brzezinski. Thank you, Mr. Chairman. Thank you, indeed. 
Your hearings come at a critical juncture in the United States 
war of choice in Iraq, and I commend you and Senator Biden for 
scheduling them.
    In my view, it is time for the White House to come to terms 
with two central realities. First, the war in Iraq is a 
historic, strategic, and moral calamity. Undertaken under false 
assumptions, it is undermining America's global legitimacy. Its 
collateral civilian casualties, as well as some abuses, are 
tarnishing America's moral credentials. Driven by Manichean 
impulses and imperial hubris, it is intensifying regional 
instability.
    Second, only a political strategy that is historically 
relevant, rather than reminiscent of colonial tutelage, can 
provide the needed framework for a tolerable resolution of both 
the war in Iraq and intensifying regional tensions.
    If the United States continues to be bogged down in a 
protracted, bloody involvement in Iraq--and I emphasize what 
I'm about to say--the final destination on this downhill track 
is likely to be a head-on conflict with Iran and with much of 
the world of Islam at large. A plausible scenario for a 
military collision with Iran involves Iraqi failure to meet the 
benchmarks, followed by accusations of Iranian responsibility 
for the failure, then by some provocation in Iraq or a 
terrorist act in the United States, blamed on Iran, culminating 
in a, ``defensive'' United States military action against Iran 
that plunges a lonely America into a spreading and deepening 
quagmire eventually ranging across Iraq, Iran, Afghanistan, and 
Pakistan.
    Indeed, a mythical historical narrative to justify the case 
for such a protracted and potential expanding war is already 
being articulated. Initially justified by false claims about 
WMDs in Iraq, the war is now being redefined as the decisive 
ideological struggle of our time, reminiscent of the earlier 
collisions with Nazism and Stalinism. In that context, Islamist 
extremism and al-Qaeda are presented as the equivalents of the 
threat posed by Nazi Germany and then Soviet Russia, and 9/11 
as the equivalent of the Pearl Harbor attack which precipitated 
America's involvement in World War II. This simplistic and 
demagogic narrative overlooks the fact that Nazism was based on 
the military power of the industrially most advanced European 
state and that Stalinism was able to mobilize not only the 
resources of the victorious and militarily powerful Soviet 
Union, but also had worldwide appeal through its Marxist 
doctrine.
    In contrast, most Muslims are not embracing Islamic 
fundamentalism, al-Qaeda is an isolated fundamentalist Islamist 
aberration, most Iraqis are engaged in strife because of the 
American occupation which destroyed the Iraqi State, while 
Iran, though gaining in regional influence, is, itself, 
politically divided, economically and militarily weak. To argue 
that America is already at war in a region, with a wider 
Islamic threat of which Iran is the epicenter, is to promote a 
self-fulfilling prophecy.
    I then go on, Mr. Chairman, to compare the posture of the 
United States, insofar as negotiations are concerned as, in 
some ways, reminiscent of the moralist self-ostracism that the 
United States practiced in the early 1950s toward Communist 
China. But, for the sake of time, I'll not read that passage.
    Let me end this introductory remark before advocating some 
policy by noting that practically no country in the world--no 
country in the world--shares the Manichean delusions that the 
administration so passionately articulates, and the result, sad 
to say, is growing political isolation of, and pervasive 
political--or popular antagonism toward the U.S. global 
posture.
    I think it is obvious, therefore, that the American 
national interest calls for a significant change of direction. 
There is, in fact, consensus in America in favor of a change, a 
consensus that the war was a mistake. It is a fact that leading 
Republicans have spoken up and expressed profound reservations 
regarding the administration's policy. I can simply invoke here 
the views of former President Gerald Ford, former Secretary of 
State Baker, former National Security Advisor Scowcroft, and 
several of your colleagues, Mr. Chairman, including Warner, 
Hagel, Smith, among others. And hence, the urgent need today is 
for a strategy that seeks to create a political framework for a 
resolution of the problems posed both by the United States 
occupation of Iraq and by the ensuing civil and sectarian 
conflict. Ending the occupation and shaping a regional security 
dialog should be the mutually reinforcing goals of such a 
strategy, but both goals will take time to be accomplished and 
require a genuinely serious U.S. commitment.
    The quest to achieve these goals should involve four steps:
    First, the United States should reaffirm explicitly and 
unambiguously its determination to leave Iraq in a reasonably 
short period of time. Let me comment. Ambiguity regarding the 
duration of the occupation, in fact, encourages unwillingness 
to compromise and intensifies the ongoing civil strife. 
Moreover, such a public declaration is needed to allay fears in 
the Middle East of a new and enduring American imperial 
hegemony. Right or wrong, many view the establishment of such a 
hegemony as the primary reason for the American intervention in 
a region only recently free of colonial domination. That 
perception should be discredited from the highest U.S. level. 
Perhaps the U.S. Congress could do so by a joint resolution.
    Second, the United States should announce that it is 
undertaking talks with the Iraqi leaders to jointly set with 
them a date by which U.S. military disengagement should be 
completed, and the resulting setting of such a date should be 
announced as a joint decision. In the meantime, the United 
States should avoid military escalation.
    Comment briefly. It is necessary to engage all Iraqi 
leaders, including those who do not reside within the Green 
Zone, in a serious discussion regarding the proposed and 
jointly defined date for United States military disengagement, 
because the very dialog itself will help to identify the 
authentic Iraqi leaders with the self-confidence and capacity 
to stand on their own legs without United States military 
protection. Only Iraqi leaders who can exercise real power 
beyond the Green Zone can eventually reach a genuine Iraqi 
accommodation. The painful reality is that much of this current 
Iraqi regime, characterized by the administration as 
representative of the Iraqi people, defines itself largely by 
its physical location, the 4-square-miles-large United States 
fortress within Baghdad, protected by a wall, in places 15 feet 
thick, manned by heavily armed United States military, 
popularly known as the Green Zone.
    Third, the United States should issue, jointly, with 
appropriate Iraqi leaders, or perhaps let the Iraqi leaders 
issue, an invitation to all neighbors of Iraq, and perhaps some 
other Muslim countries, such as Egypt, Morocco, Algeria, and 
Pakistan, to engage in a dialog regarding how best to enhance 
stability in Iraq in conjunction with United States military 
disengagement, and to participate eventually in a conference 
regarding regional stability.
    Brief comment. The United States and the Iraqi leadership 
need to engage Iraq's neighbors in a serious discussion 
regarding the region's security problems, but such discussions 
cannot be undertaken while the United States is perceived as an 
occupier for an indefinite duration. In fact, I would argue, 
Mr. Chairman, that the setting of a date for departure would 
trigger a much higher probability of an effective regional 
dialog, because all of the countries in the region do not want 
to see an escalating disintegration in the region as a whole. 
Iran and Syria have no reason, however, to help the United 
States consolidate a permanent regional hegemony. It is ironic, 
however, that both Iran and Syria have lately called for a 
regional dialog, exploiting thereby the self-defeating 
character of the largely passive--and mainly sloganeering--
United States diplomacy. A serious regional dialog promoted 
directly or indirectly by the United States could be buttressed 
at some point by a wider circle of consultations involving 
other powers with a stake in the region's stability, such as 
the EU, China, Japan, India, and Russia. Members of this 
committee might consider exploring informally, with the states 
mentioned, their potential interest in such a wider dialog.
    Fourth and finally, concurrently the United States should 
activate a credible and energetic effort to finally reach an 
Israeli-Palestinian peace, making it clear in the process as to 
what the basic parameters of such a final accommodation ought 
to involve.
    Brief comment. The United States needs to convince the 
region that the United States is committed both to Israel's 
enduring security and to fairness for the Palestinians who have 
waited for more than 40 years now for their own separate state. 
Only an external and activist intervention can promote the 
long-delayed settlement, for the record shows that the Israelis 
and the Palestinians will never do so on their own. Without 
such a settlement, both nationalist and fundamentalist passions 
in the region will, in the longer run, doom any Arab regime 
which is perceived as supportive of U.S. regional hegemony.
    After World War II, the United States prevailed in the 
defense of democracy in Europe because it successfully pursued 
a long-term political strategy of uniting its friends and 
dividing its enemies instead of dividing our friends and 
uniting our enemies, of soberly deterring aggression without 
initiating hostilities, all the while also exploring the 
possibility of negotiating arrangements. Today, America's 
global leadership is being tested in the Middle East. A 
similarly wise strategy of genuinely constructive political 
engagement is now urgently needed. It is time for the Congress 
to assert itself.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Brzezinski follows:]

  Prepared Statement of Zbigniew Brzezinski, Former National Security 
Advisor; Counselor and Trustee, Center for Strategic and International 
                        Studies, Washington, DC

    Mr. Chairman, your hearings come at a critical juncture in the U.S. 
war of choice in Iraq, and I commend you and Senator Lugar for 
scheduling them.
    It is time for the White House to come to terms with two central 
realities:
          1. The war in Iraq is a historic, strategic, and moral 
        calamity. Undertaken under false assumptions, it is undermining 
        America's global legitimacy. Its collateral civilian casualties 
        as well as some abuses are tarnishing America's moral 
        credentials. Driven by Manichean impulses and imperial hubris, 
        it is intensifying regional instability.
          2. Only a political strategy that is historically relevant 
        rather than reminiscent of colonial tutelage can provide the 
        needed framework for a tolerable resolution of both the war in 
        Iraq and the intensifying regional tensions.
    If the United States continues to be bogged down in a protracted 
bloody involvement in Iraq, the final destination on this downhill 
track is likely to be a head-on conflict with Iran and with much of the 
world of Islam at large. A plausible scenario for a military collision 
with Iran involves Iraqi failure to meet the benchmarks; followed by 
accusations of Iranian responsibility for the failure; then by some 
provocation in Iraq or a terrorist act in the United States blamed on 
Iran; culminating in a ``defensive'' U.S. military action against Iran 
that plunges a lonely America into a spreading and deepening quagmire 
eventually ranging across Iraq, Iran, Afghanistan, and Pakistan.
    A mythical historical narrative to justify the case for such a 
protracted and potentially expanding war is already being articulated. 
Initially justified by false claims about WMD's in Iraq, the war is now 
being redefined as the ``decisive ideological struggle'' of our time, 
reminiscent of the earlier collisions with Nazism and Stalinism. In 
that context, Islamist extremism and al-Qaeda are presented as the 
equivalents of the threat posed by Nazi Germany and then Soviet Russia, 
and
9/11 as the equivalent of the Pearl Harbor attack which precipitated 
America's involvement in World War II.
    This simplistic and demagogic narrative overlooks the fact that 
Nazism was based on the military power of the industrially most 
advanced European state; and that Stalinism was able to mobilize not 
only the resources of the victorious and militarily powerful Soviet 
Union but also had worldwide appeal through its Marxist doctrine. In 
contrast, most Muslims are not embracing Islamic fundamentalism; al-
Qaeda is an isolated fundamentalist Islamist aberration; most Iraqis 
are engaged in strife because the American occupation of Iraq destroyed 
the Iraqi State; while Iran--though gaining in regional influence--is 
itself politically divided, economically and militarily weak. To argue 
that America is already at war in the region with a wider Islamic 
threat, of which Iran is the epicenter, is to promote a self-fulfilling 
prophecy.
    Deplorably, the administration's foreign policy in the Middle East 
region has lately relied almost entirely on such sloganeering. Vague 
and inflammatory talk about ``a new strategic context'' which is based 
on ``clarity'' and which prompts ``the birth pangs of a new Middle 
East'' is breeding intensifying anti-Americanism and is increasing the 
danger of a long-term collision between the United States and the 
Islamic world. Those in charge of U.S. diplomacy have also adopted a 
posture of moralistic self-ostracism toward Iran strongly reminiscent 
of John Foster Dulles's attitude of the early 1950s toward Chinese 
Communist leaders (resulting among other things in the well-known 
episode of the refused handshake). It took some two decades and a half 
before another Republican President was finally able to undo that 
legacy.
    One should note here also that practically no country in the world 
shares the Manichean delusions that the administration so passionately 
articulates. The result is growing political isolation of, and 
pervasive popular antagonism toward the U.S. global posture.
    It is obvious by now that the American national interest calls for 
a significant change of direction. There is, in fact, a dominant 
consensus in favor of a change: American public opinion now holds that 
the war was a mistake; that it should not be escalated, that a regional 
political process should be explored; and that an Israeli-Palestinian 
accommodation is an essential element of the needed policy alteration 
and should be actively pursued. It is noteworthy that profound 
reservations regarding the administration's policy have been voiced by 
a number of leading Republicans. One need only invoke here the 
expressed views of the much admired President Gerald Ford, former 
Secretary of State James Baker, former National Security Advisor Brent 
Scowcroft, and several leading Republican Senators, John Warner, Chuck 
Hagel, and Gordon Smith among others.
    The urgent need today is for a strategy that seeks to create a 
political framework for a resolution of the problems posed both by the 
U.S. occupation of Iraq and by the ensuing civil and sectarian 
conflict. Ending the occupation and shaping a regional security dialog 
should be the mutually reinforcing goals of such a strategy, but both 
goals will take time and require a genuinely serious U.S. commitment.
    The quest for a political solution for the growing chaos in Iraq 
should involve four steps:

    1. The United States should reaffirm explicitly and unambiguously 
its determination to leave Iraq in a reasonably short period of time.
    Ambiguity regarding the duration of the occupation in fact 
encourages unwillingness to compromise and intensifies the on-going 
civil strife. Moreover, such a public declaration is needed to allay 
fears in the Middle East of a new and enduring American imperial 
hegemony. Right or wrong, many view the establishment of such a 
hegemony as the primary reason for the American intervention in a 
region only recently free of colonial domination. That perception 
should be discredited from the highest U.S. level. Perhaps the U.S. 
Congress could do so by a joint resolution.

    2. The United States should announce that it is undertaking talks 
with the Iraqi leaders to jointly set with them a date by which U.S. 
military disengagement should be completed, and the resulting setting 
of such a date should be announced as a joint decision. In the 
meantime, the United States should avoid military escalation.
    It is necessary to engage all Iraqi leaders--including those who do 
not reside within ``the Green Zone''--in a serious discussion regarding 
the proposed and jointly defined date for U.S. military disengagement 
because the very dialog itself will help identify the authentic Iraqi 
leaders with the self-confidence and capacity to stand on their own 
legs without U.S. military protection. Only Iraqi leaders who can 
exercise real power beyond ``the Green Zone'' can eventually reach a 
genuine Iraqi accommodation. The painful reality is that much of the 
current Iraqi regime, characterized by the Bush administration as 
``representative of the Iraqi people,'' defines itself largely by its 
physical location: The 4-square-miles-large U.S. fortress within 
Baghdad, protected by a wall in places 15 feet thick, manned by heavily 
armed U.S. military, popularly known as ``the Green Zone.''

    3. The United States should issue jointly with appropriate Iraqi 
leaders, or perhaps let the Iraqi leaders issue, an invitation to all 
neighbors of Iraq (and perhaps some other Muslim countries such as 
Egypt, Morocco, Algeria, and Pakistan) to engage in a dialog regarding 
how best to enhance stability in Iraq in conjunction with U.S. military 
disengagement and to participate eventually in a conference regarding 
regional stability.
    The United States and the Iraqi leadership need to engage Iraq's 
neighbors in serious discussion regarding the region's security 
problems, but such discussions cannot be undertaken while the United 
States is perceived as an occupier for an indefinite duration. Iran and 
Syria have no reason to help the United States consolidate a permanent 
regional hegemony. It is ironic, however, that both Iran and Syria have 
lately called for a regional dialog, exploiting, thereby, the self-
defeating character of the largely passive--and mainly sloganeering--
U.S. diplomacy.
    A serious regional dialog, promoted directly or indirectly by the 
United States, could be buttressed at some point by a wider circle of 
consultations involving other powers with a stake in the region's 
stability, such as the EU, China, Japan, India, and Russia. Members of 
this committee might consider exploring, informally with the states 
mentioned, their potential interest in such a wider dialog.

    4. Concurrently, the United States should activate a credible and 
energetic effort to finally reach an Israeli-Palestinian peace, making 
it clear in the process as to what the basic parameters of such a final 
accommodation ought to involve.
    The United States needs to convince the region that the United 
States is committed both to Israel's enduring security and to fairness 
for the Palestinians who have waited for more than 40 years now for 
their own separate state. Only an external and activist intervention 
can promote the long-delayed settlement for the record shows that the 
Israelis and the Palestinians will never do so on their own. Without 
such a settlement, both nationalist and fundamentalist passions in the 
region will, in the longer run, doom any Arab regime which is perceived 
as supportive of U.S. regional hegemony.
    After World War II, the United States prevailed in the defense of 
democracy in Europe because it successfully pursued a long-term 
political strategy of uniting its friends and dividing its enemies, of 
soberly deterring aggression without initiating hostilities, all the 
while also exploring the possibility of negotiated arrangements. Today, 
America's global leadership is being tested in the Middle East. A 
similarly wise strategy of genuinely constructive political engagement 
is now urgently needed.
    It is also time for the Congress to assert itself.

    The Chairman [presiding]. Thank you very much----
    Dr. Brzezinski. And welcome, Mr. Chairman.
    The Chairman. I read, as I commended your testimony, this 
morning, to my colleague, who was about to read it, and has 
read it. I apologize for being absent for a moment. I had to be 
on the floor.
    As usual, you are direct, cogent, and insightful. I 
appreciate your availability to the committee and, also, your 
availability to a number of us individually to seek your 
advice.
    We just heard from a man we all regard well, one of your 
successors, who cautioned that if we were to ``leave,'' Iraq, 
there would be these dire consequences. I read, with incredible 
interest, your paragraph on page one of your testimony, saying, 
``If the United States continues to be bogged down in a 
protracted, bloody involvement in Iraq, the final destination 
on this downhill track is likely to be a head-on conflict with 
Iran and much of the world of Islam at large.''
    Now, the argument the President is making is: The conflict 
with Islam intensifies if we withdraw. You're making the 
argument that continuing to be bogged down here is more likely 
to result in that outcome. Could you expand on that for me?
    Dr. Brzezinski. Conflict, by its very nature, is not self-
containable. It either diminishes, because one side has 
prevailed or because there is an accommodation, or it 
escalates. If we could prevail militarily and in a decisive 
fashion, even though I oppose the war, there would be a strong 
case to be made for it. But I think we know by now that to 
prevail we would need to have 500,000 troops in Iraq, wage the 
war with unlimited brutality, and altogether crush that 
society, because it would intensify, probably, its resistance. 
So, that's a no-starter.
    Escalating the war as a consequence of protracting it, is 
hardly an attractive option for the United States, because, 
before too long, as I say in my statement, we could be facing a 
20-year-long involvement, not only in Iraq, but Iran, 
Afghanistan, and Pakistan. And think how precarious Pakistan 
is, and how uncertain the situation in Afghanistan is becoming. 
So, it's in our interest to isolate the conflicts and to 
terminate them. And we have to exploit, at least try to 
exploit, the political possibility, the political option.
    Now, in the end, I cannot dogmatically argue that it is 
certain to succeed. But if we don't try, we know we'll never 
have had the chance.
    The Chairman. You seem to be arguing that if we stay on the 
particular course we're on now, it will not succeed. You're 
confident the present course will not succeed?
    Dr. Brzezinski. Well, I think every indicator over the last 
3 or so years indicates that. The situation is worsening. 
Hostility toward the United States is intensifying. Our 
isolation worldwide is both being perpetuated in some respects, 
becoming more culturally grounded. Look at the public opinion 
polls.
    I think we have to take a hard look at what the options 
are. Now, I realize there are risks in a strategy in which the 
goal is to find an alternative outcome than a military victory. 
But, at the same time, we shouldn't become prisoners of 
apocalyptic and horrific scenarios, in some respects 
reminiscent of those which were described and drawn in the 
latter phases of the Vietnamese war, and which did not take 
place. I'm not sure that if we were to disengage from Iraq, 
that the consequence is this kind of horrific set of dominoes 
falling all over the Middle East. Moreover--and please notice 
carefully, in my statement I'm not saying we should 
unilaterally disengage.
    The Chairman. I understand that.
    Dr. Brzezinski. I'm saying we should work with the Iraqis 
on setting a date, and use that as a trigger for an 
international conference of Iraq's neighbors. Because I don't 
believe, if you look carefully at the interests of Saudi Arabia 
or Jordan or Syria or Iran, that they have a stake, an 
interest, in making the explosion get out of hand. They're----
    The Chairman. Well, quite frankly----
    Dr. Brzezinski [continuing]. Vulnerable regimes.
    The Chairman. Unless I'm missing something, that was pretty 
much the consensus of most of the witnesses we've had in the 
last 4 weeks, and that is, they have an interest in it not 
exploding.
    You echo the comments made yesterday and the day before and 
throughout this hearing process about Iran when you say Iran 
is, ``politically divided and economically and militarily 
weak.'' Now, the question is: If that is true--and I think we 
overlook how politically divided it is and overlook how 
economically weak it is. We seem to be building it up to be, 
you know, 20 feet tall, and that this is the new superpower in 
the region. Matter of fact, some have used that phrase. Give me 
your assessment of the present threat that Iran poses in the 
region and what you think a continued protracted American 
presence in Iraq will do to impact whether they grow weaker, 
stronger, et cetera.
    Dr. Brzezinski. I think some form of American presence in 
Iraq is going to be a fact, assuming even a political 
settlement. But it will not be the same as a military 
occupation and a political hegemony imposed by a militarily 
successful campaign. I think that kind of presence, Iran has no 
choice but----
    The Chairman. Do you think that was the objective of this 
administration, initially?
    Dr. Brzezinski. I have no idea what its initial objective 
was, because the motives it provided for the action proved to 
be entirely erroneous. And if they were the real motives, then 
the whole campaign was based on false assumptions.
    The Chairman. It's unfair to ask you to be a soothsayer, 
I----
    Dr. Brzezinski. Yeah.
    The Chairman [continuing]. Apologize.
    Dr. Brzezinski. Now, if there were hidden motives--I can 
imagine, potentially, several. One would be to gain American 
domination over the region's oil, to put it very 
simplistically. Another, it could be to help maximize Israel's 
security by removing a powerful Arab State. Another one could 
have been to simply get rid of an obnoxious regime with which 
the United States had accounts to settle, going back to 1991 
and the alleged assassination attempt against President Bush 
senior. There could be a variety of motives. But the official 
motives were WMDs.
    The Chairman. Can you expand slightly on the notion--
because I interrupted you--that Iran is politically divided, 
economically and militarily weak?
    Dr. Brzezinski. It is economically weak, because it is an 
economy that hasn't been thriving and it's one-dimensional, and 
it's relatively isolated. It's politically divided, in the 
sense that, in my judgment, the mullahs are Iran's past, and 
not its future, and that its fundamentalist regime is not very 
popular with the masses, and particularly with the younger 
generation, much of which is very pro-American. But, sadly, it 
is also more united, nationalistically, in part because of our 
attitude toward Iran, which has been extremely hostile and 
which has gelled together a kind of residual national 
sentiment, particularly in support of the nuclear program. And 
I think our policy has unintentionally--I hope, 
unintentionally--maybe it was devilishly clever--but I think 
unintentionally helped Ahmadinejad consolidate himself in power 
and exercise a degree of influence, which actually his position 
doesn't justify. You know, most Americans, when they say 
``President Ahmadinejad,'' they think he is the equivalent of 
President Bush. He's not. He's roughly a third-level official 
who doesn't even control the military resources of the country.
    The Chairman. That's an important point to make. I think 
the vast majority of Americans would think he controls the----
    Dr. Brzezinski. Yeah.
    The Chairman [continuing]. Security apparatus.
    Dr. Brzezinski. And he doesn't.
    The Chairman. Well, I thank you very much.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Dr. Brzezinski, just to follow through on that questioning 
of the chairman, you've called for U.S. military disengagement 
on a schedule to be jointly set with the Iraq leadership. Now, 
as I just heard you speaking, could this mean that in these 
talks with the Iraqi leaders, they decide that there should be 
some United States military presence in Iraq for an indefinite 
future. Would that be a contingency of these talks? But what 
I'm wondering is, as we engage in the talks with the Iraqi 
leadership, if it would not come, at least into their minds, 
that they do not want the United States to depart altogether 
from Iraq, nor, in fact, if we were to get into the second part 
of your thought, and that is, having entered into these talks, 
or even begun to discuss a date or a timeframe, the other 
countries might very well come to a conclusion that an American 
presence in Iraq of some sort, of some quantity, was a very 
important issue for them. Are these potential consequences of 
these talks that you've prescribed?
    Dr. Brzezinski. Absolutely. I have drafted the statement 
very carefully to take into account the existing situation. I 
have felt, some time ago, that we should have indicated a 
deadline for our departure, and, roughly a year or more ago, I 
said we should aim at a year. But I'm also aware of the fact 
that, during the intervening period of time, the situation has 
deteriorated and the consequences of our departure are probably 
going to be more difficult than had we done it a year or a year 
and a half ago. And time is not working in our favor.
    Nonetheless, having said this, I would personally use these 
discussions with the Iraq leaders--not only the ones in the 
Green Zone, I emphasize--to identify those Iraqi leaders who 
have the sense of confidence to stand on their own feet, and 
then set with them a date. I would still advocate roughly a 
year. But I would certainly consider favorably any Iraqi desire 
for residual American presence. And I can envisage it occurring 
in a variety of ways. For example, the Kurdish leaders might 
say that they would welcome some residual American presence, 
because they are understandably fearful that either the 
Iranians or the Turks could use our departure as an excuse for 
dealing with what they view as a Kurdish irridenta directed 
against them. I can envisage some situation in which we will 
want to retain a military presence, perhaps, in Kuwait; and, 
thereby, in the immediate proximity. Theoretically, one could 
envisage some residual American presence in some remote base in 
Iraq, if that was the wish of the Iraqi leaders. And I think 
these are the kinds of things we can discuss with them with a 
deadline in mind, and then negotiate a mutually satisfactory 
deadline. And then, that deadline, I think, would make it 
easier to trigger a serious negotiating process with all of the 
neighbors regarding stability in Iraq and their stake in that 
stability.
    Senator Lugar. Well, that very nuanced and thoughtful 
suggestion, I think, is important to make a part of the record, 
because, frequently in these debates, Senators or the general 
public end up with the idea of everybody in, everybody out. 
There aren't too many nuances in this, sort of a rush--the 
image of the evacuation of the Vietnam Embassy is given as 
symbol--the photo of the helicopter lifting the last persons 
out. Now, this is obviously not what we're talking about here, 
particularly in the context of Afghanistan, nearby, in which 
the counsel right now of our NATO allies, quite apart from our 
situation, is that probably we should do more. Now, that comes, 
then, into some conflict with our military's ability to stretch 
to do a number of things at the same time, but--
    Now, let me just ask--furthermore, you say, things may have 
deteriorated. Indeed, Secretary Rice has made the rounds. 
That's certainly what she seems to have found from some of the 
parties. So, this would lead those countries that have Sunni 
affinity to hope, at least for the time being, that the United 
States was not in a rush for the borders. And that sort of 
conference that you're suggesting, of the neighbors, which I 
think is an excellent idea, would bring together all of these 
parties that we're dealing with bilaterally, but increasingly 
appear to have some common themes, which includes a U.S. 
presence of some sort as a stabilizing factor.
    I laboriously want to trace through what I think are 
excellent suggestions to make sure that the nuances of this are 
understood by Senators, and by the public that may take 
seriously your testimony, as we do.
    Now, I want to ask, finally--given the fact that the amount 
of government anywhere in Iraq is, in some cases almost de 
minimis at this point--one of the effects of our invasion and 
military operations, as we've seen, was not only the army 
disintegrated, so did the police force, so did what some Iraqis 
have said, almost any coercive ability to bring about order. 
The period of rebuilding is likely to be very long, and it's 
not really clear who helps do this rebuilding, aside from us. 
And I--I'm troubled by that, because we've had testimony from 
Iraqis that the problem is not just insurgents and militia and 
sectarian violence--just common criminals, thousands of them, 
preying upon Iraqis who do not have much protection, wherever 
they may be in the country. We have some responsibility for 
that, and, at the same time, it's not really clear how you 
fulfill a rebuilding of Iraq, at least in that comprehensive 
sense. That--and I hope maybe that might be a part of this 
leadership parley between the Iraqi leaders and ourselves. 
Maybe the United States doesn't do all of the nation-building, 
but, very clearly, someone will have to try to help restore 
some fabric in the provinces, in addition to the Baghdad 
situation that we've visited about.
    Dr. Brzezinski. I very much agree with what you say, 
Senator Lugar. Let me just add one preliminary point and then 
address specifically the points you have just raised.
    My horror scenario is not a repetition of Saigon, the 
helicopters on top of the Embassy, and the flight out of the 
country. My horror scenario is that by not having a plan--and I 
understand that my friend, yesterday, discussed perhaps the 
possibility of a secret plan that the administration has--what 
I fear is that the secret plan is that there is no secret plan. 
My horror----
    The Chairman. That's a good bet.
    Dr. Brzezinski [continuing]. Scenario is that we'll simply 
stay put, this will continue, and then the dynamic of the 
conflict will produce an escalating situation in which Iraqi 
failure to meet the benchmarks will be blamed on the Iranians. 
There will be, then, some clashes, collisions, and the war 
expands.
    Now, as far as dealing with the rebuilding of Iraq in a 
setting in which we commit ourselves to disengage, and the 
commitment to engage, set jointly, becomes a trigger for an 
international conference, I think a great deal depends not on 
us engaging in nation-building, but on the surfacing of a 
genuine Iraqi motivation. I personally view with great 
skepticism all this talk about us creating an Iraqi national 
army, creating a nation, building--nation-building, and so 
forth. The problem is, we have smashed this state. We have 
given an enormous opportunity for narrow sectarian interests 
and passions to rise. What is needed, again, is a sense of 
Iraqi nationalism. And that residualist still exists. But to 
make it possible, it has to be led by Iraqi leaders who are 
viewed by their country as authentic. And I'm sorry to say, but 
the leadership, sitting in an American fortress, which doesn't 
venture outside is not very authentic. The authentic leaders 
are those who have their own bodyguards--indeed, their own 
militias--and their own capacity to assert their power. They 
have to be engaged in a dialog, and then in the solution, a 
political solution. And that's what we very badly need.
    Senator Lugar. Thank you very much.
    The Chairman. Thank you very much, Mr. Secretary.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Dr. Brzezinski, thank you for your testimony.
    Let me ask you--we've had other witnesses here who have 
said that, in their opinion, that the biggest winner from our 
engagement in Iraq, as a result of our policies there, to date, 
at least--has been Iran. Would you agree with that?
    Dr. Brzezinski. Yes. I wouldn't use the word ``winner,'' 
but I would say geopolitical beneficiary. Yes; they have 
benefited a great deal.
    Senator Menendez. You started off your statement today 
saying that, ``If the United States continues to be bogged down 
in a protracted, bloody involvement in Iraq, the final 
destination on this downhill track is likely to be a head-on 
conflict with Iran and with much of the world of Islam at 
large.'' That's a pretty dire assessment. Could you take us 
through what you see happening if we don't change the course of 
events?
    Dr. Brzezinski. Well, I have alluded to it, but you cannot 
be precise, because the future is always so full of 
contingencies that, simply, there is no way of picking out 
which ones you think really will happen. But, basically, 
escalation, accusations, some incidents--there have already 
been some incidents between us and the Iranians--there are some 
allegations that the Iranians are responsible for certain acts; 
allegations, but not facts--and that would spark, simply, a 
collision. It could even be, in some fashion, provoked.
    Let me draw your attention to something that your staff 
should give you and, I think, that might be of interest to some 
other members of this committee, and that's a report in the New 
York Times, dated March 27, 2006. It's a long report on a 
private meeting between the President and Prime Minister Blair 
2 months before the war, based on a memorandum of conversation 
prepared by the British official present at this meeting. And 
in it, according to this account, the President is cited as 
saying that he's concerned that there may not be weapons of 
mass destruction found in Iraq, and that there must be some 
consideration given to finding a different basis for 
undertaking the military action. And I'll just read you what 
this memo allegedly says, according to the New York Times.
    The memo states, that, ``The President and Prime Minister 
acknowledged that no unconditioned--no unconventional weapons 
had been found inside Iraq.'' This is 2 months before the war. 
``Faced with the possibility of not finding any before the 
planned invasion, Mr. Bush talked about several ways to provoke 
a confrontation.'' And he described, then, several ways in 
which this could be done. And I won't go into that. I don't 
know how accurate these ways were. They're quite sensational, 
at least one of them. And if one is of the view that one is 
dealing with an implacable enemy that has to be removed, that 
course of action may, under certain circumstances, be 
appealing. I am afraid that the situation in Iraq continues 
deteriorating. And if Iran is perceived as, in some fashion, 
involved or responsible, or the potential beneficiary thereof, 
that temptation could arise.
    Senator Menendez. If the Iranians are training Shiite 
militias, as I think there's a general perception that they 
are--isn't the administration also, despite all of its recent 
statements about how it's going to deal with Iranian personnel 
in Iraq and the carrier group that went into the gulf--isn't it 
equally as important to tell Prime Minister Maliki that he has 
to be as forceful in demanding that Maliki cut ties to these 
groups, and clear about the consequences if he refuses? Isn't 
that equally as important as the messages we're sending to the 
Iranians?
    Dr. Brzezinski. The problem here is that we have destroyed 
the Iraqi State. The Iraqi so-called national army is composed 
of people with very strong sectarian loyalties, and that the 
militias that exist are, in some respect, the real expressions 
of existing residual political power in Iraq. If Maliki 
undertakes an assault on some of these militias--and some are 
said to be well armed and as large as 60,000 men--he's going to 
be further isolated and further weakened. So, in a sense, he's 
being asked to undertake an impossible assignment. A political 
settlement has to aim at drawing in those elements in the Iraqi 
political spectrum, which is now very volatile and very 
confused, that have a long-term interest in the existence of an 
Iraqi State.
    Senator Menendez. Well, let me ask you, then, on that 
point. If the people we need to be engaged with are the people 
who are beyond the Green Zone and have power by virtue of the 
militias and the political backing of elements of Iraqi 
society, what is the catalyst that gets them to the table to 
move them in the direction to achieve the goal, if it's 
possible--if it's possible--of a government of national unity? 
That's the first question.
    And the second question, in the remaining time that I have, 
is, it seems to me that with Iraq's neighbors, while they 
should have a stake, it has not gotten to a point sufficiently 
bad to catalyze a change in the behavior of Iraq's neighbors. 
They haven't seemed to be incentivized as long as they believe 
that we will shed our blood and our national treasure. They 
are, I believe, reticent to do anything. We have not led a real 
effort to get them engaged in any significant way. It seems to 
me that sometimes, and there are other witnesses here who have 
said that, things have to get worse before they, in fact, can 
cross the threshold of understanding what their interests are.
    So, I'd like your perceptions on those two things. What is 
it that catalyzes these groups that you suggest are the 
essential elements to try to achieve some success in a 
political context? And how do we get these other countries 
engaged, who--we believe have a stake, and they probably think 
they have a stake, but don't believe that it's time for them to 
pull the trigger yet?
    Dr. Brzezinski. Well, actually, my answer is the same to 
both questions. Namely, the realization that the United States 
is not there indefinitely, and that, within a reasonable period 
of time, with a jointly set date, the United States will 
disengage. That will have the effect of forcing, first of all, 
the various Iraqi parties to think of the consequences of 
American departure. Right now, in a curious way, the 
occupation, even though resented by most Iraqis, is an umbrella 
for internal intransigence. Nobody really feels any incentive 
to compromise, because ultimately they know the situation is 
being kept more or less afloat by our occupation, though most 
Iraqis dislike it.
    And, as far as the neighbors are concerned, they don't fear 
any real explosion in Iraq, because we're there. And hence, 
they may have different interests--the Saudis certainly have 
different interests than the Iranians--but they know that there 
is a kind of enduring volatile status quo, at our expense, but 
which doesn't confront them with any real choices. But if we 
were to set, jointly--and I keep emphasizing ``jointly''--the 
date with Iraqis for our departure, it would have the effect of 
forcing all of the governments around Iraq to ask themselves, 
How do we deal with the problem of stability in Iraq? Do we 
really want to have a regional war among ourselves? The Saudis 
and the Jordanians, theoretically against the Iranians, and the 
Syrians in between, is that really appealing to anybody in the 
region? Most of the regimes in the region know that that kind 
of a war could spread and destroy them. And hence, we are far 
more likely to mobilize some degree of responsible interest in 
an accommodation that reinforces Iraqi stability if we do what 
I am advocating, a conjunction of the two actions, one 
triggering the other.
    And I deliberately included in my suggestions countries 
like Pakistan, Morocco, Algeria, Egypt, because they may have 
some military resources that could be available for helping an 
Iraqi Government stabilize and police internal arrangements and 
develop a national army, a national army that's not developed 
by an occupier that's alien--namely, us--but by fellow Muslims. 
They may be willing to do that. And I would like to see other 
countries involved, countries that have a stake in that 
region's stability because of their dependence on energy, and 
they could be helpful particularly in a massive international 
recovery program for Iraq, which would be triggered by those 
two steps that I've advocated.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Casey.
    Senator Casey. Doctor, thank you for your testimony and for 
your great public service to the Nation, continuing to this 
very moment, because I believe what you're doing here is very 
important to helping the Congress play the role it must play 
when it comes to Iraq and our national security generally.
    I want to try to ask some very brief questions, and try to 
get at least three, but I want you to take your time in 
answering them as thoroughly as you think they warrant.
    You made one assertion, during your testimony, about troop 
levels, saying that any kind of success in Iraq means, by 
definition, an American commitment of 500,000 troops. I wanted 
to have you expound on that, or just indicate that that's--is 
that--that's an accurate assessment of what you've testified 
to, the--that number?
    Dr. Brzezinski. Oh, you want me to answer each----
    Senator Casey. Yes.
    Dr. Brzezinski. Fine. Look, that figure is illustrative of 
a larger proposition; namely, to win this kind of a war, you 
have to have an overwhelming force. I'm not going to fight to 
the death for 500. It could be 550, it could be 480, or it 
could be 600. My point is, we're no longer trying to crush a 
regime with a traditional army in the field, often led by 
corrupt officers without much loyalty in the rank and file to 
the cause on the other side. We're fighting, increasingly, the 
kind of chaotic, amorphous, sectarian, ethnic, religious 
resistance that's more pervasive. And we're discovering the 
same thing that the Russians discovered in Afghanistan, that 
the Israelis recently discovered in Lebanon, that that kind of 
a popular war requires a far higher commitment of resources on 
the part of the external power that has come in, in order to 
win. And, therefore, our military effort would simply have to 
be immeasurably greater. And that's the purpose of the 500,000.
    Senator Casey. Certainly greater than what we have there 
now, even----
    Dr. Brzezinski. Considerably----
    Senator Casey [continuing]. With----
    Dr. Brzezinski [continuing]. Greater.
    Senator Casey. Right.
    Dr. Brzezinski. Not 21,500 greater.
    Senator Casey. I'd ask you to evaluate, or critique, in any 
way that you think is appropriate, two basic assertions, among 
many, but two basic assertions by President Bush and his 
administration that we hear over and over and over again. One, 
the most recent assertion, that any kind of engagement with 
Iran and Syria would be, ``extortion.'' Secretary Rice said 
that in her testimony. We've heard that. That's No. 1. And not 
in any order, necessarily. No. 2, the assertion, ongoing now 
for several years, that the war in Iraq is the central front on 
the--with regard to the war on terror, or the most important 
front with regard to the war on terror. I guess both of those 
assertions, if you can respond to both of them.
    Dr. Brzezinski. Well, engagement equals extortion, that's a 
very curious way of defining diplomacy. In other words, 
diplomacy only makes sense if the other side, in advance, 
concedes our desires and indicates its willingness to accept 
them.
    The Chairman. I think you got it right. I think you've 
defined it.
    Dr. Brzezinski. Diplomacy that way is very one-sided and 
unlikely to be seriously practiced. So, this is what I meant, 
that we are sloganeering rather than strategizing in our 
democracy.
    We negotiated with the Soviets at a time when they could 
have destroyed us almost instantly. The threat we face here is 
not even remotely comparable. I was responsible, for 4 years, 
for actually informing the President of a nuclear attack on the 
United States. I had 4 minutes in which to present the basic 
facts to the President. Excuse me, I had 3 minutes to present 
the basic facts to the President. The President had 4 minutes 
in which to make a decision as to how to respond. Twenty-eight 
minutes later, there would be nuclear exchange. Six hours 
later, 150 people--150 million people might have been dead. 
That is the kind of threat we faced, and yet we negotiated. In 
fact, negotiations were very important in marginally 
stabilizing that relationship.
    We should negotiate with Iran. It won't be easy. We have 
conflicting interests. There are conflicts outside of the 
region that we have with Iran, like the nuclear problem. But 
certainly, attempting a diplomacy is essential. And freezing 
oneself in ostracism is reminiscent, as I said in my testimony, 
of the position maintained by John Foster Dulles toward China 
in the early fifties.
    On the second point, the central front--well, if it is the 
central front, it certainly is self-created, because the ``war 
on terror,'' started 2 years earlier, or a year and a half 
earlier. And we had the problem with terror. I would never call 
it a ``war,'' anyway. But we have had, and continue to have, a 
serious problem with the threat of terrorism. But the war in 
Iraq has, to me, the most elusive connection with the war on 
terror. The Iraqi regime, abhorrent though it was, was not 
engaged in terrorist activity against us. And I do not see the 
argument that, if we were not to continue the military campaign 
in Iraq, somehow or other, those who are opposing us in 
Fallujah or in Ramadi or in Najaf will swim across the Atlantic 
and engage in terrorist acts in the United States. It just 
strains credulity to hear arguments like that.
    Senator Casey. One final question. I only have a minute 
left. And I asked General Scowcroft this question this morning. 
It's been asserted by some--and I heard it from one individual 
for whom I have a lot of respect--that any military strike by 
the United States on Iran would obviously have a lot of 
ramifications, but one direct and immediate and unmistakable 
consequence of that would be the slaughter of American GIs 
currently in Iraq, probably mostly in Baghdad, almost like a--
President Kennedy, years ago, talked about a nuclear sort of 
Damocles, in a--in the context of Iran and Iraq, a sort of 
Damocles over the head of American GIs that would be an 
immediate consequence.
    I just want to get your assessment of that, quickly, in the 
context of highly likely or unlikely, and then whatever you can 
do to amplify that.
    Dr. Brzezinski. I would say, speculatively--I'm not certain 
of my answer, but I would say, instinctively, it's not very 
likely.
    Senator Casey. Not very likely.
    Dr. Brzezinski. Not very likely. I think the resistance 
against us in Iraq is largely indigenous, and, more or less, it 
expresses itself in terms of its current capability. In other 
words, there is no sort of hidden residual capability that 
could suddenly be unleashed because Iran has been attacked.
    The fact is, you know, that most Iraqi Shiites fought 
pretty well against Iran during the 8-year-long war. It's a 
kind of simplistic generalization that many people employ, to 
the effect that the Shiites in Iraq are, somehow or other, 
beholden entirely to Iran. There are affinities and 
connections, undeniably, but there is an Iraqi identity, and 
the Shiites fought very well against the Iranians.
    The Iranians can do a lot of other things if we attack 
Iran, but that one, I think, is unlikely.
    Senator Casey. Thank you, Doctor.
    Thank you, Mr. Chairman.
    The Chairman. The Senator from Florida, Senator Nelson.
    Senator Bill Nelson. Good morning----
    Dr. Brzezinski. Good morning.
    Senator Bill Nelson [continuing]. Dr. Brzezinski.
    Dr. Brzezinski. Hi.
    Senator Bill Nelson. In your statement, I am drawn to the 
paragraph about calling for an international conference 
regarding regional stability. And I quote you, ``a serious 
regional dialog promoted, directly or indirectly, by the United 
States could be buttressed at some point by a wider circle of 
consultations.'' I certainly agree with you. Would you expand 
on that?
    Dr. Brzezinski. Yes, Senator. It seems to me that--and I'm, 
to some extent, repeating myself--that we have not yet tapped, 
in a constructive fashion, the underlying interest of the 
states adjoining Iraq, and we haven't tapped sufficiently their 
underlying fear regarding their future by engaging them in a 
process in which they're only likely to be engaged if they 
think the American occupation is coming to an end; namely, 
Syria's discussions, among themselves, but also with the Iraqi 
authorities, whoever they are, and with us, about how regional 
stability ought to be preserved and how regional stability 
within Iraq ought to be consolidated. And we can't do that 
until and unless we, one, create the preconditions for it by 
the decision to leave, and, two, by engaging them in an effort 
which involves discussions.
    Now, you don't go to a conference simply out from the cold, 
all of a sudden. You engage in previous discussions. That's 
what we hire a Secretary of State for, not to sit there and 
proclaim categorical statements, but to engage in the process. 
And the process itself, over time, can generate some degree of 
responsiveness, it can identify irreconcilable issues, as well 
as issues in which there is some shared stake. That is the 
purpose of diplomacy. Diplomacy isn't the answer to everything, 
but it is an important component of resolving issues and 
avoiding conflict.
    Senator Bill Nelson. And those who say that we should not 
talk to, for example, Syria are ignoring the fact that, in the 
past when we talked to Syria, there was some consultation and 
progress with regard to the closing of the border, cooperation, 
albeit sporadic, that precipitously cut off after the 
assassination of Rafik Hariri. As you have pointed out, 
circumstances change, and, for the first time, Syria and Iraq 
have now opened diplomatic relations with each other.
    And thank you for your comments.
    And, Mr. Chairman, I know we're getting close to a vote, so 
I will stop so that one of our other Senators can go ahead.
    Senator Lugar [presiding]. The Chair recognizes Senator 
Webb.
    Senator Webb. Thank you--procedural note, do I call you 
``Mr. Chairman,'' Senator?
    The Chairman. Why not?
    Senator Webb. Is it ``Mr. Ranking Member''?
    Senator Bill Nelson. Why not? [Laughter.]
    Senator Webb. Dr. Brzezinski, I certainly appreciate being 
able to hear your views. And, you know, I've read your articles 
over the years, and agree with a great bit of it, and 
appreciate having your wisdom at the table.
    I will--also in light of the fact there's going to be a 
vote, I want to ask you two fairly specific questions, one of 
which is--we've been trying to sort out options, you know, if 
the administration were to take those options, or if the 
Government were, regarding how to get to this, you know, 
diplomatic conference or the forum where we can, sort of, start 
resolving this--issues and increase the stability of the region 
while we pull out our troops. And from the way that you have 
constructed your testimony, it--and from what you just said--
you're basically saying that we should first announce that 
there will be a substantial withdrawal, and then arrange for a 
conference to be called. Is that correct? Or is it--you're 
saying this should happen concurrently or----
    Dr. Brzezinski. No, no; let me just clarify what we should 
say, or what we should do. But first let me remind you, I'm 
your constituent. [Laughter.]
    And it's good to see you here.
    Senator Webb. You have been the deciding vote. [Laughter.]
    Dr. Brzezinski. No; it's----
    Senator Webb. I'm--well, I'm assuming----
    Dr. Brzezinski. Probably was. [Laughter.]
    What we should make clear is that there's a finite date to 
our presence, set jointly with the Iraqis. And that finite date 
should not be too far removed. And use that at the same time as 
a trigger for convening this regional event, this regional 
undertaking, because, as long as there is uncertainty about the 
duration of our stay, I don't think the adjoining states are 
likely to be engaged in helping us create regional stability, 
even though they are fearful of regional instability. So, these 
two things are interrelated, and that is why it is a strategic 
package, what I'm arguing for.
    Senator Webb. Thank you.
    The second question is: I'm wondering if you see any 
circumstances under which this administration would open up 
some sort of serious dialog with Iran and Syria? And, if so, 
what they would be. I--to me, that's just the ultimate sticking 
point in the strategy that they--the so-called strategy that 
they have just announced.
    Dr. Brzezinski. Well, I think, unfortunately, the 
administration has used rhetoric terminology regarding Iran 
that has played into the hands of people like Ahmadinejad, 
thereby creating, in a sense, a process in which a dialog--a 
serious responsible dialog, not only regarding Iraq, but 
regarding nuclear weapons, the nuclear program--has become more 
difficult. That has to be reversed. I have no way of knowing 
whether the administration is prepared to undertake that 
reversal. I am perplexed by the fact that major strategic 
decisions seem to be made within a very narrow circle of 
individuals, just a few, probably a handful, perhaps not more 
than the fingers in one hand. And these are the individuals, 
all of whom but one, made the original decision to go to war 
and used the original justifications for going to war. So, 
they, unavoidably, are in a situation in which they are 
reluctant to undertake actions which would imply a significant 
reversal of policy. That's, from a human point of view, 
understandable, but, from a political point of view, troubling.
    Senator Webb. And it--and, from our--well, at least from 
the perspective, I think, of the people who are concerned about 
where we are, it is the conundrum that we face hearing the 
preponderance of testimony from people like yourselves, reading 
the Iraq Study Group reports where the recommendations are 
concurrent, that there should be some sort of military--
continuation of military action to try to assist the present 
government, but, at the same time, that there should be 
diplomatic action. And the overwhelming recommendation is that 
this include opening up dialog with Syria and Iran. And yet, if 
this administration refuses, or consciously avoids that step, 
then what you have, in the Baker-Hamilton report is a complete 
stoppage of half of what the recommendations consist of. And 
Chairman Hamilton mentioned, the other day when I asked him, 
that this step forward, this procedural step forward, should, 
arguably, come from the President and the Secretary of State, 
and I don't think we're likely to see it. Would you comment?
    Dr. Brzezinski. I think you're right in your last comment. 
And, in a sense, that constitutes a kind of constitutional 
stalemate, which can only be broken, in my judgment, given the 
circumstances and given the stakes involved, by congressional 
leadership--and, hopefully, bipartisan congressional 
leadership--because at stake, truly, is the future of this 
country and its role in the world. And if we get bogged down 
into something very messy and expanding, American global 
leadership will be in the gravest of jeopardy. It already is 
largely delegitimated worldwide.
    So, congressional leadership here is important, and that 
joint leadership can only emerge, particularly the President's 
own party, if the leadership of the President's party, out of 
patriotic concerns, becomes convinced, itself, that the 
President has to be faced with the reality that much of the 
Nation--and the Congress, specifically--has a very different 
view of what is needed, and has a very different assessment of 
what is happening.
    Senator Webb. Thank you very much.
    Dr. Brzezinski. That's a very major challenge.
    Senator Webb. Thank you for your testimony. Thank you for 
being here today.
    The Chairman [presiding]. That's what we're, I might add, 
attempting to do. Whether it will work or not--it's a first 
step. If you have any--I'm not being facetious here--any 
additional ideas as to how to do that, with specificity, they'd 
be welcome.
    But we have a vote----
    Dr. Brzezinski. Just one point----
    The Chairman. Please.
    Dr. Brzezinski [continuing]. I'd propose in response to 
just that.
    The Chairman. Please.
    Dr. Brzezinski. I think a clear congressional resolution on 
the fact that the United States does not intend to stay in Iraq 
for an indefinite period of time would be very helpful.
    The Chairman. We have passed, I might add, on, I think, two 
occasions, ``no permanent basis.'' It's not the same thing, 
you're saying.
    Dr. Brzezinski. No, it's different----
    The Chairman. It is different. And we could not even get 
that through.
    But, having said that, let me yield to the Senator from----
    Senator Cardin. Mr. Chairman, I just really----
    The Chairman [continuing]. Maryland.
    Senator Cardin. Thank you, Mr. Chairman.
    I just wanted to thank you, Dr. Brzezinski, for your 
testimony. I am in agreement with pretty much everything you've 
said. There's only one thing that disappoints me, and that is 
you're a resident of Virginia rather than Maryland. [Laughter.]
    Other than that, I think we're in full agreement.
    Thank you, Mr. Chairman.
    The Chairman. Well, again, I want to thank you so much, Dr. 
Brzezinski. As I said, you're always so clearheaded in your 
recommendations. There's no doubt about what you're proposing. 
I, for what it's worth, agree with you, in large part, 
particularly as it relates to what I believe to be, not only 
the hyping of the circumstance for going in, but the hyping of 
the threat, and so on. I'll conclude by saying I agree with 
your worst-case scenario as the one I worry about most, as 
well, that as this becomes protracted, it gets--my dad used to 
have an expression I've not used often, but when people talk 
about war, he'd say, ``The only war worse than one that's 
intended is one that's unintended.'' And I worry that if we 
stand on the--your phrase is ``slope''--that that's where we 
could end up, and that would be a disaster.
    But I thank you very, very much, and thank you for being 
available to us. It is the intention of the committee to hold 
hearings on Iran in a timely way, and I would ask you to 
consider, ahead of time, whether you'd be willing to come back 
and talk about Iran.
    Dr. Brzezinski. Thank you very much, Mr. Chairman. It's 
been a privilege to be here.
    The Chairman. Thank you.
    We are adjourned.
    [Whereupon, at 12:03 p.m., the hearing was adjourned.]
                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

   Letter from Nechirvan Barzani, Prime Minister, Kurdistan Regional 
               Government of Iraq, Erbil, Kurdistan-Iraq

                                                  January 23, 2007.
Hon. Joseph Biden, Chairman,
Hon. Richard Lugar, Ranking Member,
Senate Foreign Relations Committee,
Washington, DC.
    Dear Senator Biden and Senator Lugar: I convey the greetings and 
friendship of the Kurdish people to the United States. I am following 
with great interest your important hearings on the situation in Iraq. 
The Kurdistan Regional Government of Iraq (KRG) has been a full partner 
with the United States and our fellow Iraqis in trying to build a 
democratic Iraq. We understand America's frustration with the situation 
in Iraq and we, too, are frustrated, disappointed, and saddened by the 
continuing instability, violence, and loss of life.
    It is our deeply held view that the only viable long-term solution 
is a federal structure for Iraq that recognizes and empowers regional 
governments in the north, south, and center of the country. The Kurds 
are committed to a voluntary union within a federal system and have no 
plans to secede from Iraq.
    A program for reconciliation in Iraq must offer a ground-breaking 
approach to both the decentralization of authority and the distribution 
of resources. In that context, I would like to take this opportunity to 
offer some clarification regarding the discussion of the Kurdish 
position on the Iraqi oil law that came up during Secretary Rice's 
appearance before the Senate Foreign Relations Committee on Thursday, 
January 11, 2007, and in subsequent press accounts of the negotiations 
over the law.
    I have personally led the intensive negotiations about the Iraqi 
oil law in Baghdad on behalf of the Kurdistan Regional Government 
(KRG). The KRG has proposed a historic plan for the development of 
Iraqi oil resources and the distribution of oil revenues that is 
consistent with the interim Iraqi Constitution, also known as the 
Transitional Administrative Law. In accordance with article 112 of the 
Constitution, the federal government and the government of the oil 
producing regions will jointly manage production from existing fields. 
Regional governments have exclusive control over new fields, including 
the right to sign contracts with foreign companies. The law will follow 
article 142 of the Constitution in recognizing as valid the contracts 
the KRG has signed with foreign oil companies.
    There is agreement that oil revenues will be distributed to Iraq's 
regions based on population, thus assuring the Sunni Arabs their 
proportionate share of oil wealth. And, while not constitutionally 
required to do so, the KRG has agreed that this sharing will include 
revenues from new fields as well as existing fields, including Kirkuk. 
Finally, the Kurdistan Regional Government will enact its own petroleum 
law to implement in our region what has been agreed with the federal 
government.
    In order to assure transparency in contracting, the KRG will permit 
a newly created Federal Oil Council to audit all future contracts and 
to object to those that do not meet agreed standards.
    As far as the Kurdistan Regional Government (KRG) is concerned, the 
oil law has not yet been finalized, although there have been recent 
statements and press accounts to the contrary. The last draft that the 
KRG was in agreement with was presented to Prime Minister al-Maliki for 
his review on December 17, 2006, and the details of that draft is what 
I have described. Any further material changes to that draft will 
require the KRG's consent. Although the process of drafting the oil law 
is nearing completion, the important annexes to the law are still 
pending. Also, there are three associated laws (the revenue-sharing 
law, the Iraq National Oil Company (INOC) charter law, and a law to 
define the Oil Ministry's new role) which must be drafted and agreed 
upon before the whole package can be regarded as being final.
    Let me conclude with a word about Kirkuk. As you know, Saddam 
Hussein's regime carried out a brutal policy of ``Arabization''--that 
is the forced migration of Kurds from Kirkuk, and Arabs to Kirkuk--to 
alter the Kurdish and demographic character of the city. Turcomen 
citizens also suffered under this policy. Although the consequences of 
Saddam's crimes are still with us, there will be a historic referendum 
in Kirkuk later this year. It should go without saying that the status 
of Kirkuk is a Kurdish and an Iraqi issue. It is not the business of 
any other country, including Turkey, which should not interfere in the 
affairs of the Kurdistan Region of Iraq.
    I am personally committed to deepening Kurdish and Iraqi ties with 
Turkey, and my record speaks to that commitment. Turkish investment in, 
and trade with, the Kurdistan Region has been decisive in our economic 
stability and growth. An open and friendly border with Turkey is a top 
priority for the Kurds and for Iraq. However, we urge Turkey to avoid 
any statements or actions that could set back its relations with the 
KRG and further destabilize the situation in Iraq.
    I hope this letter offers some clarification on the position of the 
Kurdistan Regional Government and that you would consider it for 
submission as part of the official record for your hearings on Iraq.
    I plan to come to Washington in February and would welcome the 
opportunity to meet with you then. KRG Minister and Director of Foreign 
Relations Falah M. Bakir will soon visit Washington and will be 
available for consultations on the oil law or on any other questions 
you may have.
    I would like to convey my personal invitation to you and your 
Senate colleagues to visit the Kurdistan Region of Iraq during your 
next visit to the region.
            Sincerely yours,
                                         Nechirvan Barzani,
                                                    Prime Minister.
                                 ______
                                 

Prepared Statement of Dr. Jonathan Morrow, Senior Legal Adviser to the 
 Ministry of Natural Resources, Kurdistan Regional Government; Former 
             Senior Adviser to the U.S. Institute of Peace

 iraq oil and revenue sharing agreements: necessary but not sufficient 
                             for stability
Summary
    Hopes in the United States that oil and revenue-sharing legislation 
will bring stability to Iraq are exaggerated. No belligerent in Iraq's 
civil war is stating its aims in terms of oil rights and revenues. In 
parts of Iraq outside the Kurdistan region, petroleum development will 
remain hampered by security problems for the foreseeable future.
    However the hopes are not entirely misplaced. Intergovernmental oil 
and revenue-sharing agreements--likely to be concluded between the Iraq 
Federal Government and the Kurdistan Regional Government (KRG) in 
coming weeks, and reflected in national legislation--are an essential, 
if not sufficient, condition for prosperity and stability. The 
agreements may form the basis of a modus vivendi for what is already a 
highly regionalized, confederal, if not partitioned Iraq. As with other 
new-born federations, Iraq may find that it is the logic of economics 
and trade, if nothing else, that encourages cordial relations among the 
federal and regional governments.
    Significantly, the agreements to date reflect real Iraqi interests, 
and have not been imposed by the U.S. administration. They reflect the 
reality of a very decentralized Iraq. In doing so they strike a careful 
balance between, on the one hand, the need for Iraq-wide consistency of 
petroleum policy, and on the other, the legitimate interests of 
regions, including the Kurdistan region, in administering petroleum 
operations in their territory. Largely at the insistence of the KRG, 
the Iraq oil law will conform with international best practice in the 
petroleum industry, incorporating the possibility, if federal and 
regional ministers so choose, of using private sector exploration and 
development under risked contracts. The revenue-sharing law will seek 
to maintain a viable if not strong federal government, with the 
remainder of revenues shared throughout Iraq on a per capita basis, 
including proportionate shares to the oil-deprived Sunni Arab areas of 
Iraq.
    The U.S. administration should maintain its current practice of 
encouraging, but not orchestrating, these intergovernmental agreements. 
The United States should increasingly defer to the IMF and other 
multilateral organizations to provide technical assistance on these 
agreements.
Introductory Remarks
    I offer this written testimony on my own behalf, and at the request 
of the office of the chairman of the committee. For the past 3 years I 
have been an observer and participant in Iraq's constitutional and 
petroleum negotiations, and have a personal interest in the prospects 
that those negotiations might have for stemming the flow of blood in 
Iraq. As a former U.N. official I have experience advising post-
conflict governments in petroleum law matters, particularly in the case 
of East Timor, now a successful oil-producing state. I am an Australian 
citizen-resident in Washington, DC.
    I am currently acting as legal adviser to one of the Iraqi 
negotiating parties, the KRG. In presenting these remarks I draw on my 
2 years experience working on the Iraq Constitution and legal system as 
a senior adviser at the United States Institute of Peace, and as an 
occasional senior adviser to the United Nations in Iraq. I have made 12 
trips to Iraq over the course of the last 3 years. I have not cleared 
this testimony with the KRG or with any other party.
Background
    In recent weeks, Iraqi negotiators have made progress in agreeing 
the terms of two critical pieces of Iraqi legislation: A law for the 
exploration and development of oil and gas (commonly referred to as the 
``Hydrocarbons Law''), and a law for Iraq-wide petroleum revenue 
sharing (the ``Revenue Sharing Law'').
    The negotiations are essentially bilateral, as between the two 
existing governments in Iraq: The federal government and the KRG. The 
venue for negotiations is the ``Iraq Oil Committee,'' an ad hoc 
intergovernmental committee, chaired by Iraq's Deputy Prime Minister 
Barham Salih, that meets occasionally in the Baghdad International 
Zone. The principal negotiators representing each party are Dr. Thamir 
Gadhban, adviser to Prime Minister Maliki, and himself a former Oil 
Minister in the Allawi Government of 2004-2005; and Dr. Ashti Abdullah 
Hawrami, Minister of Natural Resources in the KRG and a long-time 
petroleum consultant based in London, and not aligned with either of 
the two Kurdistan political parties. Dr. Gadhban, though himself a 
secular Shiite and now aligned with the Shiite-dominated Maliki 
government, carries the support of important sections of Iraq's Sunni 
Arab leadership.
    These negotiations take place at a point in time when the emergence 
of a second and predominantly Shia region, in the south of Iraq, seems 
possible. To date, and notwithstanding the centralist preferences of 
Prime Minister Maliki, the prevailing political forces in Shia Iraq are 
regionalist in nature; this was evident in the 2005 constitutional 
negotiations, and in the passage of the Law of the Executive Procedures 
Regarding the Formation of Regions in November last year.
The State of Play--Hydrocarbons Law
    A draft of the Hydrocarbons Law was agreed on December 17, 2006, 
between Dr. Gadhban and Dr. Hawrami. Though representing very different 
interests in Iraq, those two individuals have developed a good--and in 
Iraq, rare--rapport. They are each very experienced in the petroleum 
industry, and have relationship of considerable trust.
    In point form, the essential terms of the agreement reflected in 
that draft are as follows.
    1. New intergovernmental oil body.--A new supreme petroleum 
regulatory body will be created: A Federal Council for Oil and Gas. The 
critical feature of this institution is that it is an intergovernmental 
entity with direct representation of the federal government, the KRG, 
and any other subnational government that may come into existence. 
Important decisions will be made jointly by the governments. As Iraq 
comes increasingly to resemble a confederal or even international 
entity--analogous to the European Union, for instance--these 
intergovernmental entities will be increasingly important.
    2. Risk and reward contracting.--Significantly, the Federal Council 
for Oil and Gas, the Iraq Oil Ministry, and the KRG, will have the 
ability to resort to risk and reward contracting with the private 
sector, including production sharing agreements. The level of political 
commitment to production sharing varies within Iraq. The KRG has 
endorsed a heavily private sector oriented approach in its own 
territory, which contains approximately 10-15 percent of Iraq's 
petroleum. The KRG has already concluded two such contracts, with 
Norwegian and Turkish companies, in circumstances where significant oil 
discoveries have since been made; the KRG plans to execute several more 
in the near future. Such an investor-friendly approach is much less 
popular in Baghdad, where unrisked service and buy-back contract models 
are likely to be the norm.
    3. Intergovernmental cooperation, with right of arbitration.--
Consistent with the Iraq Constitution, the KRG will retain the right to 
license petroleum activities in the Kurdistan region. Under the Iraq 
Constitution, petroleum administration is not an exclusive power of the 
federal government (art. 110) and therefore regional law is paramount 
(art. 115). Existing KRG contracts are grandfathered (art. 141). 
However, in keeping with the constitutional requirements of 
intergovernmental cooperation (art. 112), the KRG will review existing 
KRG petroleum contracts to ensure that they are consistent with the 
policy criteria agreed in the Federal Council for Oil and Gas, and will 
forward future KRG contracts to the Federal Council for Oil and Gas 
which in turn may, as a last resort, submit those contracts to 
independent arbitrators if they perceive that they are inconsistent 
with those criteria.
    As of today's date, some senior Iraq Federal Government officials 
have resisted the cooperation and arbitration approach as agreed on 
December 17, and are insisting that the federal government have a 
blanket right of approval over KRG contracts. This new stance is at 
odds with the Iraq Constitution and the principles of cooperation that 
it contains. This is the principal cause of delay in negotiations and 
is the obstacle preventing the draft Hydrocarbons Law going to Cabinet 
and Parliament.
    It is unlikely that the KRG will accept this reversal of attitude 
on the part of some in the federal government. First, the Constitution 
of Iraq supports the KRG view. Moreover, the KRG is aware that many 
oil-producing federations, including the United States, Canada, 
Australia, Sudan, and the United Arab Emirates, give power to manage 
petroleum production to subnational governments. Most importantly, 
there is an overwhelming anxiety in the Kurdistan region that a future 
Iraq Federal Government might deliberately, and for political reasons, 
prevent the Kurdistan's oil from being produced, to the economic 
detriment of the region. In the past, successive Iraq Governments, 
including of course Saddam Hussein's, have done so. This is why there 
is hostility in the Kurdistan region to any assertion of an extra-
constitutional right of approval by Baghdad for KRG petroleum 
activities. The December 17 compromise position--including the 
arbitration mechanism--is sensible, represents a serious concession by 
the KRG from its rights under the Constitution, and accommodates any 
reasonable federal government requirement for Iraq-wide cooperation and 
uniformity.
    In addition to this outstanding political issue, some technical 
work remains to be concluded on the draft law, including the completion 
of annexes setting out model contracts.
The State of Play--Revenue Sharing Law
    The Revenue Sharing Law is less well advanced. The draft 
Hydrocarbons Law sets out some general revenue sharing principles, but 
quite properly leaves the details to a separate piece of legislation. 
The general principles so far agreed for the Revenue Sharing Law are as 
follows:
    1. All oil and gas revenues will be deposited in an ``Oil Revenues 
Fund,'' under the oversight of a Council of Trustees. The Council will, 
like the Federal Council for Oil and Gas, be an intergovernmental 
institution, with direct representation of the federal government and 
the KRG.
    2. There will be an initial regular allocation to a ``Future 
Fund,'' perhaps analogous to the Kuwait Fund.
    3. There will be second regular allocation to the federal 
government.
    4. There will be a third regular allocation to the regions and 
governorates according to population. Where the federal government 
currently carries out essential government activities within region or 
governorate, the cost of those activities will be deducted from the 
allocation of that region or governorate.
    It is noteworthy that in agreeing to these principles, the KRG is 
waiving its right under the Constitution to retain revenues from oil 
and gas fields that were not in production at the time the Constitution 
entered into force--the so-called ``future fields'' (implied in art. 
112). The KRG position is that it is ready to pool revenues from all 
petroleum fields--both current and future--into a common account 
provided certain obvious safeguards are in place. Those safeguards 
include a transparent and credible revenue sharing mechanism in place 
in Baghdad that guarantees no superfluous or wasteful federal 
government spending, and that guarantees that, after the federal 
government allocation, the Kurdistan region will receive its per capita 
entitlement (approximately 17 percent on the most reliable population 
figures). The other safeguard the KRG requires is that there be a 
modern and investor-friendly petroleum legal regime throughout Iraq in 
the form of the Hydrocarbons Law--so that the KRG is not the only part 
of Iraq generating and sharing new petroleum revenues.
    These four agreed principles still leave some matters to be 
resolved in the draft Revenue Sharing Law. Perhaps the most important 
of those outstanding matters are:
    1. Establishing the proper scope of the federal government. The 
Constitution gives the federal government very limited exclusive 
powers. Those powers include defense and foreign affairs, but do not 
include, for instance, taxation or petroleum operations or criminal and 
family law. However there is a large range of nonexclusive powers that 
no other level of government in Iraq is capable of exercising: Health 
services in Kerbala, for instance, or education in Anbar, or the 
justice system in Baghdad. All these activities need, for the time 
being, to be funded by the federal government.
    However the federal government should not receive a blank check. 
The regions and governorates have a right to limit the scope of federal 
government spending so that there will be significant remainder for 
division amongst competent regions and governorates (including the 
Kurdistan region) on a per capita basis, consistent with the 
Constitution. This will require a careful negotiation on the functions 
of the federal government and careful drafting of the negotiation 
results.
    2. Establishing the criteria by which an existing governorate, or 
any new region that may be created, will be considered competent to 
receive a direct allocation. These criteria will presumably include the 
practical ability of that governorate or region to receive funds and 
spend them on government services. Perhaps those criteria should 
include the need for an elected government to be in place.
    At this point in time, the KRG has been invited by the federal 
government to table the first draft of the Revenue Sharing Law for 
negotiations. The KRG has now done so. I note that the KRG views the 
Hydrocarbons Law and the Revenue Sharing Law as parts of a single 
package of legislation that should be passed by the Iraq Parliament 
simultaneously. I also note, however, that the Iraq Parliament has been 
struggling to reach a quorum since December 2006 and early passage of 
either law, however desirable, seems unlikely.
Prospects for Peace
    The progress on the hydrocarbons and revenue-sharing agreements is 
encouraging. The laws that give effect to these agreements, when they 
are in place, can help ensure the fiscal viability of the Iraq Federal 
Government as well as the proper constitutional integrity and autonomy 
of the regions. The laws will, in particular, relieve tensions between 
the federal government and the KRG. The Hydrocarbons Law will, 
incidentally, confirm the implication in the Constitution that the 
administration of Kirkuk petroleum fields will remain under the joint 
control of the federal government regardless of the outcome of the 
Kirkuk referendum; similarly, all revenue from Kirkuk petroleum will be 
pooled nationally. In this way, the Hydrocarbons Law will work to 
reduce (but not eliminate) Arab-Kurd tensions over the future of 
Kirkuk.
    The chances that these laws will alleviate the central conflict in 
Iraq--between Sunni Arabs and Shia Arabs--are slim. Contrary to some 
suggestions, including Recommendation 28 of the Iraq Study Group 
Report, oil laws are unlikely to provide the venue for ``national 
reconciliation.'' It has often been suggested that one catalyst for the 
export of terrorist activity from the Sunni parts of Iraq is a Sunni 
Arab fear of the consequences of a partition of Iraq in circumstances 
where they lack oil resources. Any initiative--such as the imminent 
Revenue Sharing Law--that might guarantee those parts of Iraq their per 
capita share of petroleum revenues could eliminate that anxiety, and 
thus reduce violence. If revenue is being shared, the prospects of 
regionalization in Iraq become less threatening.
    This argument is not convincing, at least in the short term. Since 
2003, no representative of Iraq's Sunni Arabs has come forward with 
demands for a per capita share of Iraq's petroleum revenues. The Sunni 
Arab negotiating strategy has hitherto been wholly directed at 
strengthening the federal government, and has been unwilling to adopt a 
regionalist strategy; or, as the recent National Intelligence Estimate 
put it, they have been ``unwilling to accept their minority status.'' 
The near- and medium-term prospects for the appearance of an 
economically savvy Sunni regional administration seem remote.
    However, the emergence of Sunni regional political entities is 
inevitable, since at some point the Sunni Arabs will be forced, by 
necessity, to abandon their ambitions for restored national hegemony. 
The only alternative for them will be to concentrate on securing their 
own regional prosperity. When that day arrives, the emerging Sunni Arab 
region will need the ability to access a full per capita share of 
national petroleum revenues. An impoverished Sunni region will likely 
be further radicalized. On the other hand, a sustainable Sunni region, 
that can provide its own security and other government services, can be 
free from the fear of majoritarian rule from Baghdad, and can assert 
control through regional security forces over criminal elements now at 
large in the Sunni triangle. At the very least, the Revenue Sharing Law 
offers this hope.
Constitutional Amendment
    Efforts to permanently recentralize oil management and dismantle 
the constitutional revenue-sharing requirements by amending the 
Constitution are very unlikely to succeed. While regional interests 
including the KRG are prepared in legislation to step down from the 
Constitution and agree to sharing mechanisms, they will likely wish to 
retain the constitutional default position--namely regional 
administration of petroleum fields and the right to retain ``future 
fields'' revenue.
    Within Iraq, the only constituency for a constitutional amendment 
initiative on oil is in the Sunni nationalist camp, representing 
approximately 20 percent of Iraq's population. The requirement in the 
Constitution (art. 142) that any amendment pass a three-governorate 
veto test means that no such proposed amendment will succeed, since at 
the very least the KRG would move its constituency in any proposed 
referendum to block the recentralization of oil powers. It is unlikely, 
of course, that any such initiative would reach referendum. The 
chairmanship of the Iraq Parliament's Constitution Review Committee is 
held by the major Shia regionalist party, SCIRI. International 
commentators on the matter are often unaware that the schema of 
decentralization set out in the Constitution was very deliberate. I 
have written on these matters in greater detail in USIP Report 168, 
``Weak Viability: The Iraqi Federal State and the Constitution 
Amendment Process,'' July 2006, www.usip.org/pubs/specialreports/
sr168.pdf.
    Moreover, efforts to amend these provisions of the Constitution are 
often grounded in the belief that a decentralized petroleum industry is 
less capable of succeeding than a centralized one. Given the number of 
successful oil producing federations in which regions control petroleum 
production, this belief is questionable.
    It does seem possible and desirable, however, that there be some 
constitutional amendments on these subject matters. In particular, a 
broad constituency could be found to reflect at least some of the 
agreements in the Hydrocarbons Law and Revenue Sharing Law in 
constitutional language, giving greater permanency and clarity to the 
principles of joint decisionmaking between federal and regional 
governments. Later this month, the United Nations Assistance Mission in 
Iraq will be convening the Iraq Parliament's Constitution Review 
Committee to consider these matters; the federal government and KRG oil 
negotiators will also attend the meeting.
    Another possible amendment will the entrenchment in the 
Constitution of an Upper House of Parliament, to regions and 
governorates direct representation in that body. Surprisingly enough, 
there is no permanent venue in Iraq for regional and governorate 
representation at the federal level.
Recommendations for the U.S. Administration
    The United States has played a minor but helpful facilitating role 
in the oil and revenue sharing discussions so far. This role is an 
appropriate one and should not be amplified. International 
misperceptions of U.S. interference in the drafting of an Iraq oil law 
are likely to endure.
    The United States should encourage the IMF to take a greater role 
in the preparation of these laws, and in particular the Revenue Sharing 
Law and associated institutions. The IMF is uniquely equipped to 
provide the specialist technical advice in this area.
    The United States should work to assist the establishment of a 
Sunni region in Iraq, with an elected leadership capable of receiving 
and spending a per capita allocation of petroleum revenues. The United 
States should not attempt to prevent the emergence of a southern 
(predominantly Shia) federal region if the people in that part of Iraq 
so choose.
                                 ______
                                 

  Perspective of Iraq Draft Petroleum Law by Tariq Shafiq, Director, 
Petrolog & Associates, London, UK; Chair, Fertile Crescent Oil Company, 
                             Baghdad, Iraq

          IRAQ DRAFT PETROLEUM LAW: AN INDEPENDENT PERSPECTIVE

1.0 Introduction
    1.1  Iraq may prove to have one of the greatest endowed petroleum 
resource bases in the world, with oil potential reserves in excess of 
215 billion barrels (bnb) and proven reserves in the region of 115bnb, 
which puts it on par with Saudi Arabia. Moreover, its finding and 
development costs are low--amongst the lowest in the Middle East. 
However, its historical maximum production rate in any one year has not 
exceeded 3.5mn b/d, although its exploration and development history 
has stretched almost for eight decades. Iraq's oil production level 
historically has lagged behind its oil reserve capability and has 
neither reflected its low extraction costs.
    Present Iraq proven reserves can support a production plateau of 10 
million barrels per day (mbpd) and maintain it for a decade. As such, 
priority should go to rehabilitation and production capacity build-up 
and not to exploration for a few years to come.
    Planning oil field development for production capacity growth ought 
to be carried out on a composite master plan, which examines the 
capacities of the discovered and producing fields (including each and 
every producing formation within each field) from a technical and 
economic feasibility point of view. In the mean time, it should take 
into consideration Iraq's economic development plans and needs. This 
necessitates a centralisation of policy and planning.

    1.2  Finding cost per barrel of oil is estimated at: < US Cent 0.5. 
Development cost per barrel of oil is estimated at: US$0.5-1.0. This 
puts capital investment cost per 1 million barrels production capacity 
at US$3 billion for expansion of existing production facilities and 
US$6 billion, at the oil field boundary. These figures may go to US$4.5 
and US$9 billion to account for security requirements and recent high 
oil equipment inflation cost. Operating cost per barrel is US$1-2.

    1.3  Today, Iraq's production facilities are either dilapidated, 
looted, sabotaged, or war-torn to the extent that in September 2003, 
the country's production rate sank to around 1mbpd in comparison to a 
pre-war level of March 2003 of some 2.8mbpd. Thus far, at the beginning 
of 2007, Iraq is producing around 2mbpd and exports around 1.5mbpd, 
which is declining.
    Iraq's oil industry has been governed by the concession oil 
agreements until the early seventies, and decrees and regulations since 
then. It is about time Iraq has a petroleum law that sets out clear 
terms and conditions for good oil and gas industry exploitation plans, 
policy, and execution.
2.0  The Draft Petroleum Law
    2.1  On the invitation of the Iraqi Minister of Oil, Dr. Hussain 
Shahrestani, the Iraqi draft petroleum law was researched and drafted 
by a team of three independent Iraqi oil technocrats (including 
myself), who together have international, Middle East and Iraqi oil 
industry experience amounting to some 120 years. Invited to join the 
team was the Kurdistan Regional Government (KRG) Minister of Oil, but 
that did not materialize.

    2.2  The overall objective of the draft petroleum law is to 
optimize Iraq's oil and gas exploitation, maximize return, and unite 
the country and nation.
    The draft petroleum law seeks uniformity of plans and policy 
throughout the country. It requires the Ministry of Oil's (MoO) 
consultation and participation with the provinces. Supervision of oil 
and gas operations is shared between the provinces and the central 
Ministry. The decisionmaking process has built in checks and balances 
to enhance transparency and anticorruption practices.
    A summary of the key points of the second draft of the Petroleum 
Law is presented in Appendix I--Iraq Draft Petroleum Law: A Summary of 
Key Points.

    2.3  The law is investment friendly. It encourages private 
enterprise and welcomes the international oil companies (IOCs) to work 
in partnership with the Iraq National Oil Company (INOC). They have a 
recognized role to play in the transfer of up-to-date state-of-the-art 
technology, technical and managerial training of Iraqis, and in 
investment capital. Selection from among prequalified companies will be 
made through tendering in a transparent and accountable process.
    Contract negotiations and decisions will be tasked to a high-level 
Federal Commission assisted by a negotiating entity and a think tank. 
Authority for final signature is vested with the Council of Ministers.
    INOC will be an independent holding company, with affiliated 
regional operating companies with an interrelated directorship, to 
ensure proper communication and management as well as the participation 
of the provinces. All discovered fields will be earmarked to INOC.
    The central Ministry will be tasked with the supervisory and 
regulatory role, in addition to the preparation of plans and policy in 
cooperation and participation with the provinces.

    2.4  The law is based on Articles 111 and 112 of the new Iraqi 
Constitution, seen in the light of Articles 2, 49, 109, and 110, which 
broadly define the authorities and responsibilities of the Federal and 
Provincial authorities within the Petroleum sector.
    In order to clarify the imprecise nature of these articles and to 
work on the basis of a fair and sound interpretation, an objective and 
independent legal consultancy was sought, a copy of which is presented 
in Appendix II--Interpretation of Iraq's Constitutional Articles 
Governing Oil & Gas by an Independent Legal Firm.
    In the forthcoming review of the Constitution it is expected that a 
large sector of the nation and in particular the large majority of 
Iraqi oil technocrats, will vote for modification of these critical 
Articles 111 and 112 governing the ownership of oil and gas and 
management of production, plans and strategic policy, respectively, in 
light of the legal interpretation attached below. However, the draft 
petroleum law has been written on the basis of this legal 
interpretation irrespective of whether the review takes place.
3.0  Ongoing negotiations
    3.1  As highlighted above, the overall objective of the draft 
petroleum law is to optimize oil and gas exploitation, maximize return, 
and unite the country. As such, the draft law was written in the 
interest of the nation state as a whole, to apply equally to all parts 
of the country, with no margin for negotiation between the federal 
government and any one region or governorate or among the ethnic and 
sectarian divide.

    3.2  The petroleum draft prepared by the drafting team has been 
adopted by the MoO without modification.
    However, with differences between rival sectarian and ethnic 
parties at its peak, negotiations between the major parties have become 
the rule, in advance of democratic debate among the members of the 
Council of Representatives (the Parliament). The case of the draft 
petroleum law is no exception.
    Hard negotiations have been taking place, essentially, between KRG 
representatives and the rest of the members of the Ministerial 
Committee, which was set up to examine and make recommendations on 
draft petroleum law to the Council of Ministers. Once approved by the 
Council, the law would be passed to the Council of Representatives for 
ratification.
    The KRG position, expressed in their published Draft Petroleum Law, 
was based on a radical interpretation of the pivotal Article 111, 
allowing for the oil and gas in the Kurdistan as the property of the 
people of Kurdistan, not the whole Iraqi nation, as an undivided asset. 
Their petroleum law is so designed as to contain terms and conditions 
vis-a-vis the Federal draft petroleum law, with a large margin for 
negotiation as demonstrated in the past.
    It is my view that a material change in the second draft petroleum 
law that increases the powers of the provinces, could compromise the 
interests of the nation as a whole. From the KRG perspective, a 
compromise made by them is part of their negotiating strategy.
    Examining the Temporary Law for Administration (TAL), issued by the 
CPA, shows that consultation or cooperation in the management of oil 
and gas resources by the federal government with the regions and 
governorates was the only requirement, conditional on an agreed fair 
distribution of revenue.
    The Constitution, however, requires more than consultation and 
cooperation in the management of resources. The draft federal petroleum 
law goes beyond that in sharing with the regions and governorates 
management and decisionmaking. It has been drafted for the interests of 
the nation-state as a whole and to apply equally to all parts of the 
nation, with no built-in margin for negotiations between the federal 
government and any one region or governorate.
    The third and finalized draft petroleum law will in addition 
contain agreed principles governing Revenue Sharing and Reserved Fund. 
Each of the two will be entrusted independent administrative bodies. 
The former shall be based on equal population basis.

    3.3  The negotiations did not start in earnest until the revenue-
sharing issue was settled.
    The negotiations were slow, proceeding in a stop and go fashion 
over the last 5 months. An important breakthrough occurred when a 
senior KRG Minister stated in an oil conference in London on 8 December 
2006, that, following a recent definitive agreement between KRG and 
federal government negotiators over an acceptable scheme of oil revenue 
sharing, the KRG position on the interpretation of Articles 111 and 112 
had changed and come into line with that of the central government. He 
added that in due course, following the building of mutual confidence, 
the KRG might consent to the redrafting of relevant constitutional 
articles. This was regarded by those Iraqis present as a genuine 
gesture by the Iraqi Kurdish nation acting in the common interests of 
the Iraqi nation.
    Despite this declaration, however, the KRG appears to maintain its 
earlier position of authority to negotiate contracts with companies 
independently of the Federal Petroleum Commission and without the 
requirement for its approval.
    Another sticky issue is the KRG's half a dozen PSA contracts with 
small oil companies. These provide windfall profits well above and 
multiples of the norm reasonably required by the current draft 
petroleum law, in the order of an internal discounted rate of return of 
60-100 percent. The central Ministry has decreed them as unacceptable 
and without legal base. Whether they are to be cancelled or reviewed to 
be brought into line with the terms of the Federal petroleum law is 
another issue which yet to be settled.
    One possible explanation for the KRG to maintain its position on 
these two issues is that there might be a lack of consensus among its 
leadership, or again its desire to maintain a bargaining position.
    In my opinion, if the KRG maintain this position it would amount to 
a de facto rejection of Articles 111, 112, and other relevant articles 
of the Constitution, which task the federal government with the 
responsibility for the proper management of oil and gas resources. It 
would leave the door open for other regions and governorates to follow 
suit and set a damaging precedence. It could lead to diversified 
contract terms and conditions which lack transparency, accountability, 
and the checks and balances built into the federal law.
    However, as of today I understand that a compromise solution has 
been reached on these two issues within the Negotiating Committee, that 
would allow the KRG to negotiate contracts with companies in the 
presence of a representative from the central MoO and subject to the 
approval of the Federal Petroleum Commission (FPC); and allow the KRG 
themselves to renegotiate their existing PSA contracts to bring them in 
conformity with the Federal Petroleum Law but validity is subject to 
the approval of the FPC. The wording is chosen diplomatically to meet 
the Kurd's sensitivity.
    I understand also that the Negotiating Committee has agreed on a 
third version of the Draft Petroleum Law, as of today. However, I 
understand that approval from the KRG top decisionmakers has not yet 
been received. The further delay could be because of disenchantment of 
the KRG leadership with the compromise solutions.
    The third and finalized draft, which I have received today, is 
disappointing and weak in the critical changes that have been made to 
the two principle articles of competence of authorities and grant of 
rights, as a result of negotiations and bargaining.
    The critical items that have been removed from the original draft 
are fundamental in the context of professionalism and transparency and 
weaken the checks and balances built into the original draft. The 
principles are still there but the mechanisms for enforcing them under 
Iraq's prevailing situation have been skillfully removed or 
circumvented to make the outcome purely cosmetic.
    The role of the professional think tank has been considerably 
weakened. Its former scope to examine all issues has been reduced to 
only those selected by the FPC. The requirement to publish their annual 
report has been removed. Membership appointment is reduced to one year 
from five, and requires the unanimity of all the members of the FPC.
    The appointments of the think tank and FPC have been made to 
conform to Iraq's sectarian and ethnic divide, an alarming indication 
of political interference at a time when sound professional management 
is badly needed.
    The FPC has been enlarged up to 20 or 30 members which makes it 
more fit for a debating society than trusties tasked with a vital 
decisionmaking role, whilst its role has been considerably weakened. 
The negotiating role of the FPC has been removed and given to the 
regions (i.e., KRG). The FPC in the new setup may be used to provide 
legitimacy to the product rather than scrutinize the process and ensure 
its conformance with the principles which were so carefully put in the 
first draft.
    The resultant checks and balances are now insufficient to cope with 
Iraq's internal political complications, and are more of a facade, 
leaving the competence of authorities and the processes of the grant of 
rights fully open to manipulation by the political forces that prevail. 
Further and critically for the future of Iraq's oil and gas industry, 
the balance of power in the management of Iraq's oil and gas resources 
has shifted from the central federal government to the regions.
4.0  Concluding Remarks
    4.1  Without a central unified policy there will be disharmony and 
competition between INOC (operating on production and marketing its 
export oil to provide the state's income) and the regions and 
governorates (operating on exploration for unrequired additional 
reserves for many years to come), and among the various regions and 
governorates, with disharmony and envy between the haves and have-nots.
    This would cause instability, with damaging consequences 
contributing to further fragmentation, instead of promoting the unity 
of the nation and country.
    The Constitution has tasked the federal government with the job of 
management of the oil and gas resource management, not any one village, 
governorate, or region.

    4.2  Instability would lead to an unhealthy oil industry and would 
discourage the serious IOCs, who have the required knowledge, capital, 
and markets. Iraq would then find itself accepting speculators with 
more promises than they can deliver, and the minor companies which do 
not have the capability to develop Iraq's giant oil fields.

    4.3  IOCs, in my view, are advised to aim for urgently needed 
rehabilitation of the infrastructure, expansion of production capacity 
of partially developed fields, improving damaged reservoir performance, 
and to develop the many discovered but not yet delineated oil fields, 
rather than going for exploration for unnecessary new oil. A rush for 
exploration and development contracts would be viewed as mortgaging the 
reserves of future generations. It would provide fuel to the view that 
the war was for oil.

    4.4  There are today a number of damaging trends of ``tsunami'' 
dimensions, engulfing Iraq. There is a widespread lack of security and 
law and order, widespread killing for reasons of identity, ethnicity, 
sect, or for no reason other than criminal ends.

    4.5  There is widespread lack of efficiency in government 
organizations and a near absence of institutional performance or sound 
management at the centre and, especially in the provinces, in addition 
to a lack of investment and extremely high unemployment.

    4.6  Action to reverse these damaging trends ought to be all 
embracing in nature, coordinated and united in approach, and having the 
welfare of country and nation at heart above all considerations. A 
healthy and robust oil industry would provide the revenue necessary for 
social and economic reform and the right environment for easing much of 
the above trends.
     appendix i--iraq draft petroleum law: a summary of key points
    The draft Petroleum Law aims at uniformity of plans and policy 
throughout the country. It provides prior consultation with the 
provinces. Decisions taken at the centre involves provincial 
participation.
    Supervision of oil and gas operations is shared between the 
provinces and Ministry. The decisionmaking process has checks and 
balances to enhance transparency and anticorruption practices.
    Its overall objective is to optimize oil and gas exploitation and 
maximize return, and unite the country. It is based on Articles 111 and 
112 seen in the light of Articles 2, 49, 109 and 110 of the 
Constitution which broadly define the authorities and responsibilities 
of the Federal and Provincial authorities within the Petroleum sector.
1.0  Competence of Authorities
1.1  The Council of Representatives
    The Council of Representatives shall enact all Federal legislation 
on Petroleum Operations. It shall also approve all agreements made in 
connection with Petroleum Operations that extend outside Iraqi 
territory.
1.2  The Council of Ministers
    1.2.1  The Council of Ministers shall:
    Be responsible for recommending proposed legislation on the 
development of the country's Petroleum resources for introduction into 
the Council of Representatives.
    Be the competent authority to formulate Federal Petroleum policy 
and supervise its implementation. It also administers overall Petroleum 
Operations, including the formulation of Federal policy on all matters 
within the scope of this law including i.a. Exploration, Production, 
Transportation, Marketing, the proposal of Petroleum legislation, and 
the approval of such regulations as may be necessary from time to time 
on said matters. It shall submit proposals on legislation to the 
Council of Representatives.
    Be the competent authority to approve and sign Exploration and 
Production contracts granting rights for conducting Petroleum 
Operations and the amendments thereto, in so far as they concern 
territory inside Iraq.

    1.2.2  It shall have the following administrative entities:
            A. The Federal Petroleum Commission
    Assists the Council of Ministers: In matters related to the 
approval of Petroleum plans and policy which are prepared by the 
Ministry, and in granting Exploration and Production rights. It is 
chaired by the Prime Minister with the Secretariat of the Minister of 
Oil.
            B. The Negotiation Committee
    An entity for planning and executing the process leading to the 
allocation of Exploration and Production rights.
    It consists of specially trained members of the Ministry, INOC and 
related entities with appropriate skills and experience.
    For specific negotiations the committee shall be supplemented by 
representatives from the region or the governorate where the particular 
acreage is located.
            C. The Petroleum Advisory Council
    A think tank to examine and provide comments and recommendations, 
as a consultative entity, on overall Petroleum plans and strategic 
policy, licensing contracts, overall Development policy, as well as key 
projects and any other relevant matters referred to it by the Federal 
Petroleum Commission or the Ministry.
    It consists of nine technocrats, three of whom are from the regions 
and governorates whose deliberations are published and nonbinding.
1.3  The Ministry of Oil
    A. The Ministry is the competent authority for proposing federal 
policy and legislation as well as issuing regulations and guidelines 
and undertaking the necessary monitoring, supervisory, regulatory, and 
administrative actions required to ensure the proper implementation 
thereof.
    B. The Ministry shall in consultation with the provincial 
authorities draw up federal policies and plans on Exploration, 
Development, and Production on an annual or as needed basis.
    The geographical distribution and timing of exploration and 
production programs shall be optimised on the basis of proposals from 
the provinces and producing governorates.
    C. The Ministry, or a special entity under it, shall have the 
responsibility of monitoring Petroleum Operations to ensure adherence 
to legislation, regulations, and contractual terms.
    The same entity shall through inspection, technical audits, and 
other appropriate actions verify conformance with legislation, 
regulations, contractual terms, and internationally recognized 
practices.
1.4  Iraq National Oil Company, INOC
    The Council of Ministers shall submit a proposal for a law to 
establish the Iraqi National Oil Company (INOC), as an upstream holding 
company fully owned by the government, and be earmarked all discovered 
fields. Fields which are either undeveloped or partially developed may 
be developed in cooperation with reputable oil companies.

    1.4.1  INOC shall:
    Be authorised to carry out Exploration and Production Operations 
inside Iraq on behalf of the government.
    Establish Affiliated Operating Companies to carry out Petroleum 
Operations in the provinces and producing governorates on the basis of 
contracted management fees. Such fees shall cover costs and a 
reasonable profit margin to allow a healthy development of operations. 
The share option for the provinces and governorates in such operating 
companies can be up to 50 percent.
    Be the operator and is authorized to enter directly into Service 
and Management Contracts with appropriate oil or service companies if 
required.
1.5  The Provincial Authorities shall:
    Propose to the Federal authorities activities and plans for the 
province to be included in the country's plan for Petroleum Operations. 
They shall further assist and participate with the Federal authorities 
in discussions leading to the finalization of the Federal plan as 
required.
    Participate in the licensing process regarding activities within 
their respective province.
    Participate as part of the Commission's negotiation team in 
licensing preparations, evaluations, and negotiations regarding areas 
within the province.
    Be represented in the activities carried out by the Petroleum 
Commission and Petroleum Council.
    Undertake the monitoring, regulation, and administration of 
Petroleum Operations to ensure adherence to legislation, regulations, 
guidelines, and the specific terms of the relevant Exploration and 
Production Contracts. Such functions shall be carried out in close 
coordination and harmonization with the Ministry to ensure uniform and 
consistent implementation throughout the Republic of Iraq. The Ministry 
shall also provide professional support to the Provincial Petroleum 
entity.
    INOC's operational activities in the province shall be carried out 
by affiliated companies where the provincial authorities have an option 
to participate up to 50 percent through ownership in the respective 
affiliates.
2.0  The Licensing Code
    2.1  The licensing process shall be based on transparent and 
accountable tendering and shall take into account recognized practices 
by the international petroleum industry. It shall adhere to the 
following principles and procedures:
    Competitive licensing rounds--The contractual terms offered to 
applicants shall be specified in model contracts.
    The form and terms of the model contract shall take account of the 
specific characteristics and requirements of the individual area.

    2.2.  All model contracts shall be formulated to honor the 
following objectives and criteria:

  <bullet> National control
  <bullet> Ownership of the resources
  <bullet> Optimum economic rent to the country
  <bullet> Appropriate return on investment to the investor
  <bullet> Reasonable incentives to the investor for ensuring solutions 
        which are optimal to the country in the long-term related to, 
        i.a:

    <bullet> Improved and enhanced recovery
    <bullet> Technology transfer
    <bullet> Training and development of Iraqi personnel
    <bullet> Optimal utilization of the infrastructure
    <bullet> Environmentally friendly solutions and plans

    2.3  The Model Contracts may be based upon Service Contract, Buy-
back Contract, and Production Sharing Contract (PSC).
    Only prequalified companies shall be considered in any licensing 
round.
    Evaluation of prequalified applicants shall aim at establishing a 
short list of successful candidates for negotiations.
    The selection and ranking of successful applicants shall be on the 
basis of the quality and relevance of the proposed work plan and the 
anticipated economic rent to the nation.
    The overall allocation of Exploration and Production rights 
throughout the Republic of Iraq shall aim at achieving variety among 
oil companies and operators with different background, expertise, 
experience, and approach so as to enhance efficiency through positive 
competition, benchmarking of performance and transparency. The 
possibility of using consortia of selected companies, particularly in 
large fields, shall be considered.
    Not later than 2 months after the endorsement of Exploration and 
Production contracts by the Council of Ministers the text of the 
contract shall be made public.

APPENDIX II--INTERPRETATION OF IRAQ'S CONSTITUTIONAL ARTICLES GOVERNING 
                OIL AND GAS BY AN INDEPENDENT LEGAL FIRM

    There are two specific articles and a governing article in the 
Federal Constitution relating to oil and gas resources.
Ownership of Oil Resources
    Article 111 is unequivocal that all oil and gas are owned by ``all 
the people of Iraq in all regions and governorates.'' (Emphasis added.) 
The language on its face does not admit to the ownership of any 
particular resource by any particular group or geographical or 
political region. In effect it gives all citizens of Iraq, wherever 
resident, an undivided interest in all of the oil and gas resources of 
the country. Notably it does not vest oil and gas resources in the 
``state'' nor does it allocate the resources to particular regions or 
governorates. The regions and governorates are addressed solely in the 
collective form. Moreover it refers to all of the oil and gas resources 
and does not use the limiting language of ``current fields'' included 
in Article 112 First.
    Given that oil and gas is the property of the ``people'' as a 
whole, any power to alienate the resource by sale or other disposition 
lies with the ``people.'' In this regard it is worth noting that the 
only political entity representing all of the people of Iraq is the 
Council of Representatives. Article 49, First.
Management of Oil Resources
    Article 112 First provides that the federal government, with the 
``producing'' governorates and regional governments, shall manage oil 
and gas ``extracted from present fields'' subject to a revenue 
distribution formula. ``Management'' in Article 112 is not defined nor 
is it subject to any words of limitation. Thus management should be 
read in the ordinary sense of conducting or supervising all of the 
business aspects relating to oil and gas extracted from present fields, 
e.g., production, transport, refining, disposition.
    Article 112 Second provides that the federal government, again with 
the producing regional and governorate governments, shall establish the 
strategic policies for the development of oil and gas in accordance 
with certain standards. Article 112 Second does not contain the 
limiting words ``extracted from present fields.''
    Thus Article 112 provides a general structure for the oil and gas 
sector in which strategic policies are set on a unified basis for all 
of the oil and gas resources of the country and then the implementation 
of those policies is managed in one case (oil and gas extracted from 
existing fields) by the federal government with the producing 
governorates and regional governments and in the second case (oil and 
gas not extracted from existing fields) by the regions or the 
governorates. In the second case the regions and governorates assume 
their power to manage by virtue of Article 115.
    The word ``extracted'' does not connote a limitation in this 
management authority but rather should be read as defining what oil and 
gas resources are subject to the management authority of Article 112 
First, i.e., oil and gas ``extracted from present fields.'' Article 112 
envisions two functions: The establishment of oil and gas policies and 
management of the oil and gas resource. Nothing suggests a tripartite 
definition in which ``extraction'' would not be subject to either the 
strategic policies or the management function.
Authority of Region Under Article 112
    Article 112 First provides that the ``federal government, with the 
producing governorates and regions'' shall undertake the management of 
the designated resources. Article 112 Second provides that the 
``federal government, with the producing regional and governorate 
governments,'' shall formulate the necessary strategic policies.
    Article 112 First provides at the end of the section for the 
matters addressed in the section to be regulated by a law. The same 
provision for regulation by a law is not included in Article 112 Second 
dealing with the formulation of strategic policies. Perhaps, the 
drafters did not view ``policies'' as requiring legislation, and that 
the required law governing management would reflect the policies.
    The precise nature of the interaction of the federal government and 
the regions and governorates under Article 112 is not clear and may 
have been left deliberately ambiguous. Article 112 by its language and 
its separation from Article 110 (the exclusive authorities of the 
federal government) and Article 114 (the shared competencies) is 
evidently something more than a shared competency but something less 
than an exclusive competency. Some sort of collaborative or 
consultative process is required. Two items, however, point to the 
leadership of the federal government in the process. In both the first 
and second sections, the federal government is the subject of the 
sentences and is commanded to act, albeit with the producing regions 
and governorates. Second, in Article 112 First the activity subject too 
the section is to be regulated by ``a law.'' The unitary reference to 
``a law'' as elsewhere in the Constitution refers to federal 
legislation. Thus whatever the form of collaboration between the 
governmental units, the final action is to be determined by the federal 
legislative council.
    The leadership of the federal government in Article 112 is further 
reinforced by Article 110 which sets out those areas where the federal 
government has exclusive authority. Among the exclusive authorities of 
the federal government are ``formulating foreign sovereign economic and 
trade policy''; and ``regulating commercial policy across regional and 
governorate boundaries in Iraq.'' Thus, the shared authority of Section 
112 is cabined by the power of the federal government to prescribe and 
set policies whenever trade or investment crosses national, regional, 
or governorate boundaries or involves trade or investment moving in and 
out of Iraq. Regional action in violation of such policies would be 
unconstitutional as it infringes upon areas committed to the exclusive 
authority of the federal government.
    Even if one reads Article 112 Second as it relates to the 
formulation of strategic policies in the oil and gas sector as being an 
exception to the exclusive power of the federal government, virtually 
all ancillary implementing action would be subject to those policies 
that the federal government has the exclusive authority to establish. 
Only activity taking place exclusively within a governorate would be 
exempt, a very limited area indeed.
Limitation on Present Fields
    The principal negotiators of Article 112 First appear to agree that 
the management authority provided by the section does not apply to all 
gas and oil resources. Rather it extends to oil and gas ``extracted 
from present fields.'' The phrase needs to be broken up into its 
component parts. Nothing in the Constitution suggests that ``field'' 
should be given anything but its ordinary understanding in the 
petroleum industry and in Iraq. The Society of Petroleum Engineers 
defines field as follows:
    Field--An area consisting of a single reservoir or multiple 
reservoirs all grouped on, or related to, the same individual 
geological structural feature or stratigraphic condition. The field 
name refers to the surface area, although it may refer to both the 
surface and the underground productive formations.
    In Iraq various areas and structures have historically been 
identified as fields, e.g., the Rumaila field, the Kirkuk field.
    Rather the controversy surrounds the qualifier ``present.'' Some 
including certain Kurdish authorities have construed ``present'' as 
meaning ``presently producing'' or ``presently capable of being 
produced.'' The difference is not trivial. In the absence of other 
limiting language, however, ``present'' should have its ordinary 
meaning of ``existing.'' There is still the issue of present when? Most 
people seem to believe that it meant existing at the time of the 
compromise or perhaps more precisely when the Constitution came into 
effect.
Regional Power To Nullify Decisions Pursuant to Article 112
    The Constitution does give the regions and the governorates certain 
powers to modify or nullify federal legislation, but neither can be 
reasonably read to apply to Article 112. Article 115 provides:
    All powers not stipulated in the exclusive powers of the federal 
government belong to the authorities of the regions and governorates 
that are not organized in a region. With regard to other powers shared 
between the federal government and the regional government, priority 
shall be given to the law of the regions and governorates not organized 
in a region in case of dispute.
    Since the powers in Article 112 do not appear in the list of 
exclusive powers of Article 110, the first sentence in Article 115 
could be read to give the regions and governorates authority in the 
areas covered by Article 112. This construction, however, would make 
Article 112 a nullity and thus cannot stand. The second sentence of 
Article 115 applies by its terms to the ``shared'' powers of the 
regional government and the federal government. The shared powers are 
specifically dealt with in Article 114 and this reference should be 
limited accordingly to the powers set out there.
    Article 121 Second also gives the regions certain powers. That 
Article provides: In case of a contradiction between regional and 
national legislation in respect to a matter outside the exclusive 
authorities of the federal government, the regional power shall have 
the right to amend the application of the national legislation within 
that region.
    Nevertheless, this article does not apply to the activities of 
Article 112 as this is not an area where the regional government has 
authority to adopt legislation. This section only applies to those 
areas where the federal and regional governments have shared 
competency. These areas are set out in Article 114, and it is in these 
areas where there is conjoint legislative authority that the regional 
government pursuant to Article 121 has the limited authority to modify 
the federal legislation operative in its region. To hold otherwise 
would again make Article 112 a nullity, not only nullifying the federal 
authority but also the rights of the other producing governorates and 
regions to participate in the policy formation provided for by Article 
112.
Validity of Existing Kurdistan Contracts
    Prior to the adoption of the Constitution, the Kurdistan Government 
entered into certain oil exploration or development contracts with 
foreign companies. The contracts have not been made public and their 
scope and the fields to which they apply are unknown.
    In support of its authority to enter into these contracts Kurdistan 
representatives point to Article 141 of the Constitution which 
preserves the validity of certain actions of the region of Kurdistan 
taken since 1992.
    That article provides:
    Legislation enacted in the region of Kurdistan since 1992 shall 
remain in force, and decisions issued by the government of the region 
of Kurdistan, including court decisions and contracts, shall be 
considered valid unless they are amended or annulled pursuant to the 
laws of the region of Kurdistan by the competent entity in the region, 
providing that they do not contradict with the Constitution.
    Although the savings clause is very broadly drafted, it is subject 
to the last limiting clause that any such legislation, court decisions, 
or contracts do not conflict with the Constitution. Any existing 
contract could conflict with Article 112 of the Constitution to the 
extent that it derogates the authority given to the federal and 
regional governments with respect to the management of production from 
existing oil fields or to the extent that it conflicts with the 
strategic policies that are to be adopted pursuant to Article 112. If 
such contracts purport to exercise authority within the areas committed 
by Article 110 exclusively to the federal government (e.g., foreign 
sovereign economic and trade policy), the contracts may also be invalid 
or subject to modification with respect to activity taking place after 
the Constitution became effective. Any more definitive analysis would 
require review of the contracts and might also have to await decisions 
regarding management and policy pursuant to Article 112.

                                  <all>

</pre></body></html>
